<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 107-816]
[From the U.S. Government Printing Office]


                                                     S. Hrg. 107-816 
 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2003
=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 5093/S. 2708

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR AND 
RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2003, AND FOR 
                             OTHER PURPOSES

                               __________


                        Department of Agriculture
                         Department of Energy
                       Department of the Interior
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______


                           U.S. GOVERNMENT PRINTING OFFICE

78-477                         WASHINGTON : 2003
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area 
(202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

    Subcommittee on Department of the Interior and Related Agencies

                ROBERT C. BYRD, West Virginia, Chairman
PATRICK J. LEAHY, Vermont            CONRAD BURNS, Montana
ERNEST F. HOLLINGS, South Carolina   TED STEVENS, Alaska
HARRY REID, Nevada                   THAD COCHRAN, Mississippi
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
DANIEL K. INOUYE, Hawaii             BEN NIGHTHORSE CAMPBELL, Colorado

                           Professional Staff

                            Peter Kiefhaber
                           Brooke Livingston
                              Ginny James
                            Leif Fonnesbeck
                         Bruce Evans (Minority)
                         Ryan Thomas (Minority)

                         Administrative Support

                           Jennifer Storipan
                       Larissa Sommer (Minority)












                            C O N T E N T S

                              ----------                              

                        Thursday, March 7, 2002

                                                                   Page

Department of Energy: Office of the Secretary....................     1

                        Thursday, April 25, 2002

Department of Agriculture: Forest Service........................    79

                         Thursday, June 6, 2002

Department of Agriculture: Forest Service........................   113

                         Tuesday, June 13, 2002

Department of the Interior: Office of the Secretary..............   133
Nondepartmental witnesses........................................   247













  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2003

                              ----------                              


                        THURSDAY, MARCH 7, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:09 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Burns, Cochran, and Domenici.

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF HON. SPENCER ABRAHAM, SECRETARY OF ENERGY


              opening statement of senator robert c. byrd


    Senator Byrd. The committee will come to order.
    Mr. Secretary, I am very delighted to have you appear 
before this subcommittee. My first question, getting right to 
the point, is: How is that third baby in the Abraham family 
getting along?
    Secretary Abraham. He is doing well, sir. And you will note 
that, while his first name is Spencer, his middle name is 
Robert.
    Senator Byrd. That is very important.
    Well, he is already on first base.
    Secretary Abraham. I think so.
    Senator Byrd. You said on September 6, 1996, that you and 
your lovely wife have twin daughters who were 3 years old, 
Betsy and Judy. How are they getting along?
    Secretary Abraham. If they did not have their younger 
brother tormenting them much of the time, I think they would 
report they are getting along very well. But they have learned 
that boys are a little different than girls. So we have quite a 
good family.
    Senator Byrd. Tell those lovely children that they have 
been a great help to their father----
    Secretary Abraham. I will.
    Senator Byrd [continuing]. This morning already.
    On behalf of the Interior and Related Agencies 
Subcommittee, I welcome you here this morning. We appreciate 
you coming to formally present and discuss the administration's 
fiscal year 2003 budget request for the Office of Fossil 
Energy, the Office of Energy Efficiency, the Energy Information 
Administration, and the Strategic Petroleum Reserve.
    Last May, when you first testified before this 
subcommittee, you had been Energy Secretary for only 3 months. 
The President's National Energy Policy, which was to guide the 
development of your Department's agency, had not been finalized 
or released. Nor had the catastrophic events of September 11 
forced us to all reevaluate our national priorities with 
respect to energy.
    But it is different this year. You have had adequate time 
in which to gain control of your department. The National 
Energy Policy, which you, as Secretary of Energy, have 
fashioned, has been presented to the Nation and has spurred 
what I consider to be an important debate. And 6 months after 
the devastating attacks of September 11, Americans understand 
just how vulnerable we are and why it is integral to our 
Nation's security that we increase our energy independence.
    And yet, as I look at the Department's budget request, I am 
puzzled and somewhat dismayed. Rather than respond to the 
challenges we face by increasing our research and development 
activities as a way of securing our Nation's energy 
independence, this administration has instead chosen to 
retreat.
    In energy conservation, for example, research and 
development activities that reduce the energy we use are cut by 
8 percent. Under this budget proposal, the fossil energy 
research and development account is cut 16 percent from current 
levels. Coal research outside of the clean coal technology 
program is cut 9 percent. All research goes down by 37 percent 
overall, while programs specifically geared toward boosting 
exploration and production are slashed 49 percent. And the 
budget simply guts natural gas research, cutting those 
activities by 51 percent.
    I appreciate the many demands, Mr. Secretary, that are 
placed upon you and your Department. You must address the 
safety of our Nation's nuclear stockpile. You have 
responsibilities for environmental cleanup. And the Energy 
Department, like all departments, has been called on to support 
the Office of Homeland Defense. But now is not the time to walk 
away from the kind of research that will secure our Nation's 
energy independence. As President Bush has said, ``For the sake 
of national security, we must find more oil and gas at home.''
    Mr. Secretary, I will not, before you have had an 
opportunity to speak, belabor these points. I look forward to 
the question-and-answer period so that these and other issues 
can be discussed in greater detail. I also look forward to 
working with you and the subcommittee's distinguished ranking 
member, Senator Burns, in making sure that the Energy 
Department has the resources that it needs to carry out its 
duties. Your mission is an important one, and it should not be 
left behind.
    Now I turn to my counterpart, my distinguished colleague, 
the ranking member of this subcommittee, Mr. Burns.


               opening statement of senator conrad burns


    Senator Burns. Thank you, Mr. Chairman.
    And what a difference a year makes. Last year at this time, 
Mr. Secretary, you appeared before the subcommittee in a time 
of relative peace in the world. At home, however, we were in 
the midst of an intractable energy crisis that began in 
California and infected the entire West. Gasoline prices in 
parts of the country were heading towards $2 a gallon. There 
was great concern that a cold winter ahead could drive heating 
prices through the roof.
    A year later, gasoline prices have settled considerably. 
The energy crisis in the West has seemingly abated. And the 
winter has nearly passed without showing its wicked teeth. Our 
troops are at war around the globe; and Senator Byrd is holding 
my gavel.
    What a difference a year makes. As you know, Mr. Secretary, 
the apparent change in our energy fortunes will be fleeting, at 
best, unless we take some positive actions now. While 
additional generation capacity is being constructed in 
California and throughout the West, and especially my State of 
Montana, it will likely not be enough if we have even a modest 
hot spell this summer, and demand for electricity goes up, or 
if we cannot eliminate some transmission bottlenecks we are 
experiencing across the country.
    While gasoline prices have moderated somewhat, domestic oil 
production continues to decline and prices remain increasingly 
subject to the production decisions of others, most of those 
decisions being made offshore. And while last year people in 
the West demonstrated an ability to reduce their demand for 
electricity, those demand reductions will be totally 
overwhelmed if our economy rebounds, as we all trust that it 
will. In fact, the imbalance between energy supply and demand 
lurks as a tremendous threat to a sustained economic recovery 
in this country.
    Nobody, Mr. Secretary, can afford to be complacent about 
our energy future. I know the President shares this view. He 
has taken the first step by putting forward a balanced energy 
policy. But a policy is worth very little if it is not 
implemented. And that is one of the reasons I am glad to see 
you here today.
    The energy programs under this subcommittee's jurisdiction 
are an important part of our energy policy. We need you to 
explain how this budget proposal relates to the President's 
policy. I must admit that I share many of the chairman's 
concerns about the budget request and whether it is adequate in 
some areas to support that policy. I hope that today you will 
connect the dots and explain how the one document relates to 
the other.
    Last year you dutifully appeared before this subcommittee 
to defend a budget request over which you had very little 
control. That request was also produced without the benefit of 
the President's energy policy. That is not the case this year, 
however; so the bar for your testimony is set just a little bit 
higher. But knowing you, as I do, Mr. Secretary, I am confident 
you will clear that bar, even if we do not ultimately agree on 
every detail of this budget proposal.
    We look forward to hearing your testimony. And I look 
forward to working with the chairman of this subcommittee. I do 
not know of a working relationship on any appropriations 
committee that is any better than our relationship here; and we 
want to continue that. I thank you for coming today.
    And thank you, Mr. Chairman.
    Senator Byrd. Thank you, Senator Burns. And thank you for 
referring to the working relationship that you and I enjoy on 
this committee. It is certainly bipartisan. And we will work 
together as we have worked together in the past.
    Mr. Secretary, why do you not proceed with your statement, 
please?


               summary statement of hon. spencer abraham


    Secretary Abraham. Thank you, Mr. Chairman, and to the 
ranking member. I express my appreciation for the opportunity 
today to present our budget in a little more detail.
    I think we have submitted a fairly lengthy official 
testimony, so I am going to dispense with going through all of 
that and make just a shorter statement.
    Senator Byrd. Without objection, your entire statement will 
be included in the record as though read.
    Secretary Abraham. Thank you.
    As both of you acknowledged, what we have been through over 
the last 12 months has been considerable. We have had a severe 
energy crisis in California, fears that it could have well 
spread to other parts of the country. We have seen heating oil, 
natural gas, and gasoline price spikes. And then, of course, 
the attacks of 9/11 and the events in the energy market since 
then. This has been a year for the record books.
    I just want to say up front that the folks at the 
Department of Energy, the men and women who worked in this 
Department--and I have come to know a lot of them--have 
performed, in my judgment, superbly during this very difficult 
time. I think sometimes those of us in the appointed jobs or 
the elected jobs get most of the focus, of course. But the 
folks who work day-to-day in this Department have done a great 
job.
    And I think that it is often the case that the people in a 
bureaucracy are the targets of criticism, often unjust. This 
Department has had more than its share. But during some pretty 
tough times, the men and women of the Department have done a 
spectacular job, I think, of rising to some fairly serious 
challenges.
    I think we have accomplished a lot during this past year. 
Obviously the Department played an active role in the 
development of a national energy policy that the President 
announced last year. The Minister of Atomic Energy in Russia, 
in the Russian Federation, Alexander Rumyanstev, and I had a 
chance in September, right after the 9/11 attacks, and again in 
November, to meet and agree on an expanded and accelerated 
program for nuclear non-proliferation activities, particularly 
in the securing of materials in Russia. And we have already 
moved rather quickly to begin initiating that.
    We launched, I think, an exciting new program in the area 
of transportation, long-term transportation efficiency, the 
FreedomCAR Program we call it, a program designed to develop 
new emission-free automobiles and other motor vehicles. After 
24 years of study, as you know, we made a recommendation in 
February to the President for a permanent high-level nuclear 
waste, disposal site. And that process is now moving forward.
    We launched a new initiative to maintain, improve, and 
expand the use of nuclear energy. We have also done some things 
to try to address some of the specific problems we had, 
including launching what will now be, I think, a successful 
program to improve the transmission of electricity within the 
State of California, breaking down one of the most infamous 
bottlenecks in the country called Path 15.
    So we, I think, have made some progress. We have also 
worked to try to address some comprehensive management 
challenges, which we have had at the agency. And we have taken 
steps, I think, to bring clarity to the Department's mission. 
We clarified back in October our over-arching mission is 
national security and the need to have energy security is a key 
cornerstone of that. This over-arching mission of the 
Department gives our team the kind of direction they need. We 
also made it clear that advanced basic science is central to 
that mission.
    We performed a no-holds-barred review of our environmental 
management program and have proposed ways to both accelerate 
and reduce risk to communities in which our environmental 
clean-up sites exist. We performed an equally thorough review 
of our energy efficiency and renewables program, part of which 
is reflected in this budget, as well as in the energy and water 
budget, where we identified areas of great promise and guided 
the budget request this year, I think, in a more 
straightforward fashion.
    What we discovered was that some areas, frankly, deserve 
greater investment than had been the case. Other areas had 
reached the point of maturity where the technology could be 
moved to the market. And in other areas we need to change and 
improve direction. And I think we are doing that.
    Each of these policy and management reviews, I think, is 
shaped and will continue to shape the budget this year and in 
future ones. And now we intend to conduct similar comprehensive 
reviews of the two areas that we were not able to do for lack 
of having confirmed appointees in the areas of fossil energy 
programs and our comprehensive science programs. Happily, just 
this week Dr. Ray Orbach was confirmed by the Senate to head 
our Office of Science. And so now we have him there to conduct 
a top-to-bottom review of that division of the Department.
    And I think you have met with, and he is here today, our 
brand new Assistant Secretary for Fossil Energy, Carl Michael 
Smith, who comes to us from the role as energy secretary of the 
State of Oklahoma. And I am anxious to work with him. I would 
also acknowledge Bob Kripowicz, who is here today, who has 
performed for the first year of our term here as the Acting 
Assistant Secretary and done a terrific job of helping me to 
surmount a lot of challenges, the ones we talked about here 
earlier. And Assistant Secretary Smith's first task is to 
perform the comprehensive review that I just mentioned.
    Just as we have seen important changes this year in the 
energy efficiency and the environmental management programs as 
a result of the reviews conducted there, I expect comparable 
changes that will shape the budget and policy direction in the 
fossil energy program once this review is completed.


                    fiscal year 2003 budget request


    Let me just provide a few comments on the 2003 request. Our 
budget for the entire Department is $21.9 billion, over $8 
billion of that is for the National Nuclear Security 
Administration, which includes $6 billion for our stockpile 
stewardship and related weapons activities, and the largest 
amount we have ever requested, over $1.1 billion, to build on 
our nuclear non-proliferation progress.
    We are also requesting over $3 billion to fund our cutting 
edge science programs, which, again, are going to be subjected 
to an even more intense review. And I think very favorable 
results will come from that.
    In the area of environmental management, we are proposing 
to significantly expedite the clean-up of these former weapon 
sites, where communities have been told, up until now, they 
would have to wait 70 or 80 years for the clean-up activities 
to finish, at a cost to the taxpayers of some $300 billion.
    We believe that by moving more swiftly, putting more money 
into those programs on the front end, we can get that 
accomplished sooner. And that will, in the long-term, both save 
money, but also give communities--more importantly--give 
communities the security of knowing that the high-level risks 
that they have confronted have been ameliorated. We are 
requesting $816 million for the fossil energy programs in 
fiscal year 2003. Included in the budget is funding for 
advanced research and development, Clean Coal Technology, 
Petroleum Reserves, and other similar programs. Specifically, 
we are requesting over $188 million for the Strategic Petroleum 
Reserve and the Northeast Home Heating Oil Reserve. This 
request supports our intention to fill the Strategic Petroleum 
Reserve to capacity in the next 3 years.
    And we are funding at a level of $8 million our home 
heating oil reserve program, which we use, of course, to 
protect the most vulnerable consumers in the Northeast in the 
event of shortages of supply of the sort which we fortunately 
avoided this year but, as Senator Burns, indicated could be a 
challenge in the future. That reserve is now fully stocked and 
ready for emergency use.
    The President's Coal Research Initiative accounts for 
$325.6 million of the request for Fossil Energy Research and 
Development. The President recognized the value of U.S. coal to 
this Nation's energy security when he proposed a new vision for 
clean coal technology and pledged an investment of $2 billion 
over the next 10 years to build on the significant 
technological progress made in recent years. We remain firmly 
committed to reaching that goal.
    Just this week, the Department released a solicitation 
offering $330 million in Federal matching funds for industry-
proposed clean coal initiatives. We want to begin a new 
partnership with the private sector to enhance energy supplies 
through clean coal technology. This technology, in our view, 
can help us preserve the environment while it strengthens 
energy security.
    Just a few years ago, just the idea of a pollution-free 
coal plant seemed farfetched. Today that view has changed. It 
now appears likely that if the current pace of R&D can be 
sustained, a new type of fossil fuel energy plant can be 
introduced by the year 2015 that will have virtually no 
negative environmental effects. In fiscal year 2003, we are 
requesting over $63 million to develop the technology base for 
this power plant of the future.
    As a result of our top-to-bottom reviews on energy 
efficiency, we are requesting a significant investment, over 
$1.3 billion in energy efficiency and renewables, to develop 
diverse sources of energy that are abundant, affordable, and 
clean. For programs under the jurisdiction of this 
subcommittee, we request $904 million. Last January, as I said, 
we announced our FreedomCAR initiative, a proposed partnership 
with private industry to develop clean, efficient fuel cell 
vehicles and the infrastructure needed to support them.
    We are requesting $150 million in support of FreedomCAR, an 
important component of our long-term effort to reduce American 
dependence on foreign oil.
    We will continue to invest in these programs that assist 
our families, particularly those related to our Weatherization 
Program. The budget includes $277 million to continue the 
President's $2 billion commitment to weatherize over 1 million 
homes over the next decade. Mr. Chairman, I have seen that 
program first hand. Recently I joined officials in this area to 
highlight its benefits in a home in Arlington, Virginia. The 
savings truly are remarkable. So that is a quick summary.
    I look forward to both trying to address questions here 
today, but I want to just echo the comments made both by you, 
Mr. Chairman, and the ranking member. Having served together, 
we, I think, have a very successful track record of working on 
challenges together.


                           prepared statement


    I look forward, both during this budget process, and later 
with regard to the implementation of these programs, to work 
closely with the subcommittee to both accomplish the goals 
which we have outlined here in the short term, but in a long-
term sense as well.
    Thank you.
    [The statement follows:]
               Prepared Statement of Hon. Spencer Abraham
                              introduction
    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss the fiscal year 2003 budget submission for the 
Department of Energy (DOE). This year we are proposing the largest 
budget in the Department's history. On September 11th our Nation 
changed, as did our national security challenges. The Department of 
Energy's $21.9 billion budget, that includes $1.8 billion for programs 
within this Subcommittee's jurisdiction, responds to that change in our 
focus as an agency and in the way we do business. This budget meets 
these challenges through investment in our national defense and in an 
important component of that, our Nation's energy security.
            refocusing our missions and national priorities
    Shortly after the September 11th attacks, I spoke to Department of 
Energy managers and laid out new priorities for the agency. These 
priorities center on our main overarching mission national security.
    I outlined a plan to review DOE's programs to bring our national 
security priorities back into focus. They include:
  --certifying the safety and reliability of the nuclear stockpile;
  --ensuring that R&D and production plans support the Administration's 
        nuclear strategy;
  --resolving the threat of weapons of mass destruction;
  --providing safe, efficient and effective nuclear propulsion for the 
        Navy;
  --implementing the President's National Energy Policy;
  --directing R&D budgets to innovative new ideas while ensuring 
        application of mature technologies;
  --exploring new energy sources with dramatic environmental benefits; 
        and
  --supporting Homeland Defense through a focus on the threat of 
        weapons of mass destruction posed by terrorist groups or nation 
        states.
    National security concerns clearly drive the programs of the 
National Nuclear Security Administration and Other Defense programs, 
but it is also a key component of our energy, science and environmental 
programs. Energy security is national security. Failure to meet 
increasing energy demand with increased energy supplies, and 
vulnerability to disruptions from natural or malevolent causes, could 
threaten our Nation's economic prosperity, alter the way we live our 
lives, and threaten our national security. Energy programs will 
establish their highest research priorities to focus on the 
Department's overarching mission. They will direct research and 
development of new ideas that need encouragement; ensure greater 
application of mature energy technologies; and implement the 
President's National Energy Policy to increase domestic production, 
revolutionize our approach to energy efficiency, and identify a wider 
array of energy sources and types.
    Since the announcement of the President's National Energy policy we 
have:
  --ensured that our Strategic Petroleum Reserve protection is 
        maintained in support of national energy security--the 
        President directed the Department to add 108 million barrels of 
        crude oil to the stockpile. The Department has implemented a 
        royalty-in-kind program to fill the reserve to its maximum 
        capacity quickly and without draining appropriated funds;
  --set into motion a $300 million project (non-Federal funds) to work 
        with the private sector to upgrade California's Path 15 and 
        alleviate California's major electric transmission bottleneck. 
        To accomplish this, Pacific Gas and Electric will work with 6 
        other parties and the Western Power Administration.
  --continued the President's ten-year commitment to increase funding 
        for the Weatherization Assistance Program to assist low-income 
        families in reducing the cost for heating and cooling their 
        homes;
  --proposed an increase of $700 million in the Bonneville Power 
        Administration's permanent borrowing authority to make needed 
        investments in transmission and other infrastructure in the 
        Pacific Northwest; and
  --stocked the Northeast Home Heating Oil Reserve with 2 million 
        barrels of home heating oil for emergency use.
    The fiscal year 2003 budget for energy programs within the 
jurisdiction of this Subcommittee totals $1.8 billion. This request 
focuses Federal investment on future energy solutions and on R&D where 
our investment will make the most difference. To this end, this budget 
pilots a major DOE and OMB initiative to be expanded ultimately to all 
other Departments and agencies--to evaluate applied R&D programs and 
projects against empirical, objective criteria to ensure that, in 
additional to their scientific merits, these programs and projects are 
appropriate activities for the Federal government, are in accord with 
the principles of the National Energy Policy, and hold the most promise 
for delivering a product that will benefit the American people.
    As a result of these evaluations, some projects were terminated, 
and some resources were redirected to maximize delivery of public 
benefits and provide long-term energy solutions. For example, the 
reduction in the Natural Gas Technologies budget request for fiscal 
year 2003 reflects the decision to target funding to those areas where 
industry clearly is not funding major development efforts on its own, 
or where a small amount of federal support can complete high-payoff, 
multi-year development efforts, or where federal cost-sharing can lead 
to technologies that can keep gas flowing from domestic wells that 
otherwise would be shut in. Similar to the Natural Gas Technologies 
program, funding in the Oil Technology program would be redirected in 
fiscal year 2003 to those areas where industry is not focusing its 
research attention and where a small amount of federal support could 
return significant dividends in terms of increased domestic oil 
production. Also, this budget features targeted energy investments that 
include FreedomCAR--bringing a long-term hydrogen fuel cell focus to 
transportation research--and the President's Coal Research Initiative 
recognizing the importance of cleaner burning more efficient coal power 
as part of the Nation's future energy supplies.
                    changing the way we do business
    I have also laid out my vision and expectations of the DOE 
workforce. DOE must become a place where employees of other Departments 
wish they worked, and an agency every Cabinet member wish they led. 
Programs would be managed against measurable performance objectives and 
managers would have clear accountability. I asked every manager to:
  --ensure the safety of our employees and the communities surrounding 
        our facilities,
  --instill a respect for and adhere to the highest standards of 
        security; and
  --build a culture where merit determines hiring and promotion, and 
        diversity is viewed as key to recruiting and retaining the best 
        people.
    But the challenge is greater. The Department is also addressing 
long-standing criticisms of DOE management and moving toward the 
Administration's model as set forth in the President's Management 
Agenda. With an emphasis on measurable performance objectives and 
accountability, we are holding DOE managers responsible for making 
these changes. We have set priorities, disciplined our focus, and will 
measure everything we do by reference to our missions and priorities.
             implementing the president's management agenda
    The President has called for an active but limited government, one 
that empowers States, cities, and citizens; ensures results through 
accountability; and promotes innovation through competition. The 
Administration has targeted areas for improvement throughout the 
Federal government. Our work to fully implement these initiatives will 
continue through fiscal year 2004 and beyond, but we have a path 
forward and are making changes now.
Human capital
    In order to eliminate unnecessary layers of management, direct 
personnel to high-priority missions, address skill imbalances, and 
achieve a 5-10 percent savings in management expenses through 
comprehensive, creative management reform, DOE will accelerate 
workforce planning and work with the Office of Personnel Management to 
conduct complex-wide organizational surveys to analyze and evaluate DOE 
field and headquarters redundancies, fragmentation and duplication of 
effort.
Competitive sourcing
    We are initiating formal competitive sourcing reviews under the 
provisions of Office of Management and Budget Circular A-76 on 
approximately 1,000 positions. In addition, line managers are planning 
other reviews that may lead to formal studies. The longer-term goal is 
to conduct reviews on 50 percent of the Department's inventory of 
Federal positions that are not inherently governmental.
Improved financial management
    We will continue to build on the Department's unqualified audit 
opinion on the consolidated financial statements and work to integrate 
better financial, budget, and program information in order to provide 
cost information related to performance.
E-Government
    To make better use of computer information systems to improve 
management, promote efficient use of resources, and make our systems 
provide more people-friendly information, the Department will 
strengthen its Information Technology investment portfolio by linking 
investment control processes, using enterprise architecture, and 
improving security policies and capital planning.
Budget and performance integration
    We have strengthened the Department's ability to measure 
performance by establishing the Program Analysis and Evaluation Office 
and developing a five-year planning, programming, budgeting and 
evaluation process. Building on the integration of performance metrics 
into our fiscal year 2003 budget submission, we are improving the 
performance measures contained in our fiscal year 2003 budget request 
and will continue to improve performance measures and their integration 
into the fiscal year 2004 budget. These improvements will provide 
clear, quantifiable outcomes to support budget requests.
Applied research and development (R&D) investment criteria
    The President's management initiative on applied R&D calls for 
improved criteria to better focus programs on linkages to Presidential 
priorities, market justification, cost-sharing targets and performance 
outcomes. Our first phase of improvement is reflected in the budget for 
the Fossil Energy, Nuclear Energy, and Energy Efficiency and Renewable 
Energy programs. In fiscal year 2004, all applied R&D activities in the 
Department will make use of these improved criteria.
                         reporting on progress
    Management changes at DOE go beyond the objectives of the 
President's Management Agenda. To clarify roles, responsibilities and 
accountability, I have also revamped the Department's management 
structure.
    I have strengthened the role of the Under Secretary for Energy, 
Science and Environment and given him direct line management 
responsibilities for Energy Efficiency and Renewable Energy and Fossil 
Energy programs.
    The Department has made cross-cutting changes to strengthen 
accountability by:
  --modifying the performance evaluation system for the Department's 
        Senior Executives, making them more accountable for ensuring 
        program success. These modifications will flow down to General 
        Schedule employee levels during fiscal year 2002;
  --issuing ``Program and Project Management for the Acquisition of 
        Capital Assets'' (DOE Order 413.3), a major comprehensive 
        resource to address all aspects of major project and program 
        management and improve accountability for project and capital 
        asset management.
  --implementing the Project Management Career Development Program to 
        enhance employee technical skills as recommended by the 
        National Research Council;
  --expanding the ``Chief Operating Officer's Watch List'' to monitor 
        all significant construction projects. This useful tool 
        provides high visibility and increased management attention to 
        projects that exhibit early warning signs of trouble. In 
        addition, we are placing much greater emphasis on acquisition 
        planning, incorporating better measurements of performance, 
        conducting earlier independent reviews, ensuring appropriate 
        senior management oversight and providing real-time feedback to 
        influence better outcomes; and
  --initiating a process by which the Department's Program Secretarial 
        Officers submit their highest priority objectives and related 
        performance measures on an annual basis to the Deputy 
        Secretary. This information will be tracked throughout the year 
        and will be used to identify issues that may impede the 
        achievement of these mission objectives.
    We are also improving our financial management. The newly 
consolidated Office of Management, Budget and Evaluation (OMBE) added a 
new function, Program Analysis and Evaluation, to bring rigorous 
analysis and long-term budgeting of program plans and funding 
proposals. These improvements will benefit the Department.
    OMBE will serve as a linchpin to improve the integration of the 
Department's strategic planning, budgeting and project management 
activities through the creation of a multi-year planning, programming, 
budgeting and evaluation capability. The Department will conduct long-
term planning for all the Department of Energy programs in fiscal year 
2004.
    I would now like to address some of the specifics of our budget 
request.
the fiscal year 2003 interior and related agencies appropriation budget 
                                request
    In total for fiscal year 2003, we are requesting $1.8 billion. This 
amount is 3 percent, or $55.4 million, less than the current fiscal 
year 2002 level, but $181.1 million more than the fiscal year 2001 
level. By appropriation, we are requesting $494.2 million for Fossil 
Energy Research and Development; $21.1 million for the Naval Petroleum 
and Oil Shales Reserves; $72.0 million for the Elk Hills School Lands 
Fund, which includes a $36.0 million advance appropriation; $904.3 
million for Energy Conservation; $1.6 million for Economic Regulation; 
$188.8 million for the Strategic Petroleum Reserves; $82.8 million for 
the Energy Information Administration; and $40.0 million for Clean Coal 
Technology. One third of our total request, or $610.7 million, supports 
three Presidential Initiatives. They are Coal Research, $325.6 million; 
Weatherization Assistance Program, $277.1 million; and the Northeast 
Home Heating Oil Reserve, $8.0 million.
                        the fossil energy budget
    The good news is that I now have my new Assistant Secretary for 
Fossil Energy on board. I already asked him to conduct a top-to-bottom 
review of the entire Fossil Energy program and report the results to me 
by July 1 of this year. His report will examine the strengths and 
weaknesses of our current program; how well it fits within the 
President's National Energy Policy and our Fossil Energy mission 
statement; and whether we are achieving the maximum benefits for the 
American people.
    We are requesting $816.0 million for Fossil Energy programs in 
fiscal year 2003. Included in this budget are $548.2 million for Fossil 
Energy research and development; $40.0 million from previous 
appropriations for the original Clean Coal Technology program; $188.8 
million for the Strategic Petroleum Reserve, which includes $8.0 
million for the Northeast Home Heating Oil Reserve; and $93 million for 
the Naval Petroleum Reserves, which includes $72.0 million for the Elk 
Hills School Lands Fund ($36.0 million of which is an advance 
appropriation).
                the president's coal research initiative
    The President's Coal Research Initiative accounts for $325.6 
million of the request for Fossil Energy research and development. 
President Bush recognized the value of U.S. coal to the Nation's energy 
security when he proposed a new vision for clean coal technology and 
pledged an investment of $2 billion over the next 10 years to build on 
the significant technological progress made in recent years. The 
Department's fiscal year 2003 budget proposal includes the second 
installment of funding for this initiative. It also focuses much of the 
undergirding coal research program on the President's longer-term clean 
coal technology goals.
    Funding includes $150.0 million for the Clean Coal Power 
Initiative; $85.0 million for Central Systems; $54.0 million for 
Sequestration R&D; $5.0 million for Clean Fuels R&D; and $31.6 million 
for Advanced Research. These components are described below:
    The Clean Coal Power Initiative.--This will be the initial step in 
carrying out the President's commitment. The Department intends to 
combine the $150.0 million appropriated in fiscal year 2002 with the 
$150.0 million requested for fiscal year 2003 and approximately $30.0 
million of available funding from the Power Plant Improvement 
Initiative into a $330.0 million solicitation for industry-proposed, 
cost-shared demonstration projects. This first solicitation, which is 
scheduled to be issued in March 2002, will focus on rapidly advancing 
technologies that can be accelerated into the power sector through 
government-industry partnership projects. Industry sponsors will be 
required to at least match the federal funding share, and there will be 
a requirement that royalties from commercially successful technologies 
be used to underwrite future clean coal research.
    Central Systems R&D.--Central station power plants remain the 
workhorses of America's power sector; currently, there are more than 
375 coal-fired plants in the United States that generate 100 megawatts 
or more. Even though there is increasing interest in smaller, 
decentralized power systems, central station power generators will 
remain the dominant contributors to the Nation's power supply for well 
into the future. In total for fiscal year 2003, $85.0 million is 
requested for Central Systems R&D. Components of this program include 
the following:
  --Innovations for Existing Plants.--In fiscal year 2003, $21.2 
        million is requested for the continued development of a 
        scientifically sound base of data and technology to understand 
        and reduce air and water pollutants from existing plants.
      Mercury is likely to be one of the next major environmental 
        challenges for the coal-fired power industry. To meet the 2008 
        deadline for mercury emission controls (EPA must publish a 
        final rule by 2004), many of the Nation's coal-fired power 
        plants will require new technology. Data collected by the 
        Department in the late 1990s showed that no pollution control 
        system on the market today reduces mercury emissions uniformly 
        across the full range of power plant configurations. Emission 
        controls can vary from 90 percent to virtually zero.
      To develop mercury controls that are more reliable, at lower 
        cost, and applicable to a wider range of plant types, the 
        Department has put into place an aggressive technology 
        development program. In 2000, the first near-term projects were 
        selected with a goal of cutting mercury emissions by 50 to 70 
        percent by 2005 at one-half or less of today's costs.
      In fiscal year 2003, advanced NOx control technologies will 
        complete their pilot scale tests. If test results are 
        successful, the technologies will be ready for full-scale 
        demonstration, and important data will be generated for use in 
        future multi-pollutant control strategies.
  --Advanced Systems--the Power Plant of the Future.--Just a few years 
        ago, the idea that a coal plant could be pollution free, 
        including even carbon emissions, seemed farfetched. Today that 
        view has changed. It now appears likely that if the current 
        pace of R&D can be sustained, a new type of fossil fueled 
        energy plant can be introduced by 2015 that would have 
        virtually no negative environmental effects. In fiscal year 
        2003, we are requesting $63.8 million to develop the 
        technological base for this power plant of the future.
      Core elements of this effort include research on advanced 
        concepts for integrated gasification combined cycle ($40.65 
        million) and pressurized fluidized bed combustion ($9.10 
        million). In fiscal year 2002, the pressurized fluidized bed 
        combustion program was recast to focus on new concepts such as 
        combustion hybrids that offer higher potential and reduced 
        risks for future power plants. In fiscal year 2003, another 
        significant refocusing will be underway in the turbine 
        technology development program ($14.0 million). With the 
        successful completion of the Advanced Turbine Systems 
        development effort--which produced two new revolutionary, 
        ultra-high efficiency, low-polluting, utility-scale natural gas 
        turbines--DOE's turbine research is being redirected toward the 
        development of a new generation of zero-emission turbines, 
        capable of being fired with coal gas and other gaseous 
        feedstocks. Termed HEET--for ``High Efficiency Engines and 
        Turbines''--the new program is being defined this year by 
        industry input and ongoing studies of market applications, 
        public benefits, and technology needs.
  --Sequestration R&D.--Carbon sequestration--the capture and storage 
        or recycling of carbon gases--is the fastest growing program in 
        the Department's Fossil Energy budget, reflecting President 
        Bush's emphasis on developing advanced technologies to reduce 
        the buildup of greenhouse gases. In fiscal year 2003, we are 
        requesting $54.0 million.
      This year the first of these projects will move into early field 
        tests, providing the first ``real life'' data on whether 
        various proposals for storing carbon gases are, in fact, worth 
        pursuing. For example, in fiscal year 2002 the first full-scale 
        project to sequester CO<INF>2</INF> in unmineable coal seams 
        will take place, along with the first full-scale monitoring and 
        verification of CO<SUP>2</SUP> injection into a depleting oil 
        reservoir.
      The significant increase in proposed funding for fiscal year 2003 
        (a 67 percent increase over the $32.2 million appropriated in 
        fiscal year 2002) reflects the necessary costs for moving 
        additional, promising concepts from laboratory-scale research 
        into the next stage of tests. New field experiments in 
        terrestrial sequestration, along with additional field tests in 
        geological storage of greenhouse gases, are supported in the 
        budget request.
  --Clean Fuels R&D.--The Clean Fuels R&D program is in transition. 
        Historically, the program focused largely on methods to convert 
        coal to liquid fuels. Three years ago it was reoriented to 
        include new efforts in reducing sulfur from petroleum and 
        converting natural gas to liquid transportation fuels.
      The reduction in the fiscal year 2003 budget request--to $5.0 
        million from $32.2 million in fiscal year 2002--reflects the 
        Administration's view that much of the reoriented program was 
        directed at research that industry could do on its own. Rather 
        than concentrating on ways to remove pollutant-forming 
        impurities from gasoline and diesel fuels, the fiscal year 2003 
        budget narrows the focus to exploratory research on novel 
        concepts for chemically converting fossil fuel feedstocks into 
        liquids and the development of a novel ceramic membrane that 
        could significantly lower the costs of producing ``syngas'' for 
        liquids production. If successful, this new membrane might also 
        provide a lower-cost means for producing clean-burning 
        hydrogen.
  --Advanced Research.--In fiscal year 2003, we are requesting $31.7 
        million for two types of activities: (1) crosscutting and 
        applied research that benefits the development of superclean, 
        ultra-high-efficiency coal power systems and coal-based clean 
        fuel systems with a particular emphasis on new materials, 
        sensors and controls, and computational techniques for future 
        power plants, and (2) analytical and assessment activities and 
        international support that help guide planning and policy 
        development for the Fossil Energy program.
                  distributed power generation systems
    For Distributed Power Generation Systems, we are requesting $49.5 
million in fiscal year 2003. Funding includes $47.0 million for Fuel 
Cells and $2.5 million for Novel Distributed Power Generation Systems. 
Components of the programs are:
    Fuel Cells.--The Office of Fossil Energy's Fuel Cell program is on 
the verge of another success. Already, more than 220 ``first 
generation'' phosphoric acid fuel cell mini-power plants are operating 
or on commercial order throughout the world based on technology DOE 
helped develop in the 1980s. Now the more advanced fuel cells that DOE 
helped develop in the 1990s are being introduced into the market.
    Orders for more than a dozen of the higher temperature molten 
carbonate fuel cells have been received by FuelCell Energy Inc., and 
the Connecticut company has broken ground on a 50-megawatt per year 
manufacturing facility. Siemens Westinghouse, DOE's partner in 
developing an even higher temperature, tubular solid oxide fuel cell 
system, has announced plans for its commercial manufacturing complex; 
an initial section of the plant is expected to begin fabricating 
commercial-scale solid oxide fuel cells in the spring of 2003. The 
Department's fiscal year 2003 budget will complete the Federal role in 
the development of these two classes of advanced fuel cell technology.
    Research attention will turn increasingly to the next two major 
challenges confronting fuel cell technology: (1) significant cost 
reductions, and (2) the development of fuel cell-turbine hybrids that 
can push fuel-to-electricity efficiencies to ``breakthrough'' levels of 
70 to 80 percent.
    To help bring about dramatic cost reductions, the Department has 
helped create the Solid State Energy Conversion Alliance (SECA), a 
group of federal agencies, national laboratories, universities, and 
fuel cell developers. SECA's goal is to produce a core, solid-state 
fuel cell module that could be produced at a cost of no more than $400 
per kilowatt.
    Novel Distributed Generation Concepts.--The Department seeks to 
encourage promising technologies in the power generation field. For 
example, in recent years, the Department has funded the development of 
a new ramjet engine system for electricity generation. The Department 
will issue a competitive solicitation open to technologies that don't 
fit neatly into the more conventional categories described above (such 
as fuel cells, turbines, etc.). In fiscal year 2003, $2.5 million has 
been budgeted for the novel idea(s) that emerge from this solicitation.
                        natural gas technologies
    For Natural Gas Technologies we are requesting $22.6 million. 
Funding includes $15.5 million for Exploration and Production; $4.5 
million for Gas Hydrates; and $2.6 million for Effective Environmental 
Protection.
    Based on the Research and Development Investment Criteria being 
developed as part of the President's Management Agenda, DOE is 
reconsidering where its federal dollars for natural gas research should 
be directed to be most productive. Generally, the reduction in the 
Natural Gas Technologies budget request for fiscal year 2003 reflects 
the decision to target funding to those areas where industry clearly is 
not funding major development efforts on its own, or where a small 
amount of federal support can complete high-payoff, multi-year 
development efforts, or where federal cost-sharing can lead to 
technologies that can keep gas flowing from domestic wells that 
otherwise would be shut in.
    Exploration and Production.--In exploration and production, this 
means that much of the fiscal year 2003 budget ($15.5 million) will be 
directed at completing the final year of development for several 
advanced drilling and diagnostic tools. For example, in fiscal year 
2003, development of a new type of composite drill pipe will be 
completed. Made of carbon resins similar to those used in the shafts of 
golf clubs, the drill pipe will be less than half the weight of its 
steel counterpart, allowing producers to drill greater distances 
laterally from an offshore platform, or to drill in greater water 
depths. Similarly an ultra-lightweight cement will be readied for 
commercial introduction in fiscal year 2003 with the first applications 
likely to be in deep water drilling and production.
    Also in fiscal year 2003, development of a high-pressure, jet-
assisted coiled tubing drilling system will be completed, providing a 
new tool for industry to use to drill through dense gas-bearing 
formations faster and at less cost. A new diagnostic tool that can 
measure the growth of artificially induced fractures in a gas field in 
real time will also be readied for industry use in fiscal year 2003.
    The Department will also use fiscal year 2003 funding to complete 
its research into ``secondary gas recovery.'' This research has 
provided new tools and methods that operators can use to locate and 
produce natural gas missed by conventional technologies. Federal 
involvement in this technology development effort has helped revitalize 
gas production in areas of south Texas and has led to additional 
commercial production in the Midcontinent and the Gulf of Mexico.
    Gas Hydrates.--In gas hydrates--a potentially huge, but still 
speculative future gas resource--funding is being scaled back. The 
proposed budget level, $4.5 million, is still sufficient to collect 
important data on safety and seafloor stability and the role of 
hydrates in global climate change. Several industry-led field 
activities are underway to drill into and collect samples of naturally 
occurring hydrates from the Alaska permafrost and the Gulf of Mexico. 
With a limited amount of funding, the Department hopes to ``piggyback'' 
on several of these projects and collect data that can be useful in 
determining future research needs.
    Gas Infrastructure.--To provide better integration of 
infrastructure research efforts and reduce unnecessary program 
duplication, the Administration proposes to transfer responsibilities 
for all gas infrastructure R&D to the Department of Transportation's 
Office of Pipeline Safety (OPS). Within the last two years, the Fossil 
Energy R&D program has initiated several projects with industry and 
national laboratories to develop new tools for detecting damage and 
improving the integrity and reliability of the nation's aging natural 
gas pipeline system. Similar projects are also conducted by OPS. No 
funding is requested in the Fossil Energy R&D account in fiscal year 
2003 for gas infrastructure projects. Given the nature of OPS's safety 
regulatory mission and related performance goal needs, this critical 
activity is best situated in DOT.
    Emerging Processing Technology.--Also in fiscal year 2003, no 
funding is requested for emerging processing technology. In prior 
years, this budget category has supported research on improved methods 
for extracting fuel-grade natural gas from coal mines. Industry now has 
the technological foundation to proceed on its own. Also DOE will 
conclude its financial support for an international center for 
information on natural gas technologies, which also receives funding 
from the gas industry.
    Effective Environmental Protection.--In fiscal year 2003, $2.6 
million is requested. Activities that can lead to more effective 
environmental protection in gas (and oil) fields are funded at 
essentially the same level as fiscal year 2002. Within this activity, 
however, there is a proposed funding shift to support increased 
technology transfer of practices and processes that can address 
environmental issues that otherwise could limit gas production from 
domestic fields.
                             oil technology
    In fiscal year 2003, $35.4 million is requested for Oil Technology. 
Funding includes $16.4 million for Exploration and Production; $9.5 
million for Reservoir Management Practices; and $9.5 million for 
Effective Environment Projection.
    Similar to the Natural Gas Technologies program, funding in the Oil 
Technology program would be redirected in fiscal year 2003 to those 
areas where industry is not focusing its research attention and where a 
small amount of federal support could return significant dividends in 
terms of increased domestic oil production. Components of the program 
include the following:
    Exploration and Production.--In fiscal year 2003, we are requesting 
$16.4 million with much of the proposed program focusing on fundamental 
research that can be applied across the entire petroleum industry. 
PRIME--an initiative to support high-risk, fundamental research that 
could produce revolutionary advances in oil technology--will kick off 
in April 2002 with a call for proposals and will continue to be 
supported in fiscal year 2003. General areas likely to be covered under 
PRIME will be remote sensing and surveying, advanced tools for lower-
cost slimhole drilling, remote downhole wireless monitoring, and 
advanced petroleum recovery technologies.
    Reservoir Management Practices.--In fiscal year 2003, we are 
requesting $9.5 million to develop better reservoir management 
practices for domestic oil fields, especially those operated by smaller 
independent producers. Included is continued support for our PUMP 
initiative. PUMP--for ``Preferred Upstream Management Practices''--is a 
major technology transfer effort, designed to disseminate new 
technologies, more effective production strategies, and other field 
management improvements to the Nation's smaller independent companies. 
In April 2001, the Department announced the first five PUMP projects; 
in September, it added four more projects. In fiscal year 2002, a third 
round of projects will be selected. We also will continue our 
``Technology Development with Independents'' program, which provides 
cost-shared grants that small companies can use to apply new 
technologies to U.S. fields. Support for the Petroleum Technology 
Transfer Council and other technology transfer efforts will also be 
continued.
    Effective Environmental Protection.--As in the Natural Gas 
Technologies program, funding ($9.5 million) is being requested for 
effective environmental protection activities that relate to oil field 
operations. Work will be scaled back in risk assessment efforts for 
exploration and production activities in favor of increased cooperative 
efforts with state, tribal, and Federal agencies to reduce permitting 
times for environmental regulations and regulatory processes. New 
technologies will also continue to be developed to provide more cost-
effective environmental compliance options, with a particular emphasis 
on protecting sensitive environments on federal lands.
                        other fossil energy r&d
    In total for fiscal year 2003, we are requesting $115.1 million for 
other Fossil Energy R&D such as:
    Program Direction.--In fiscal year 2003, we are requesting $89.6 
million for Program Direction. This amount includes $14.0 million 
transferred from balances available in the Clean Coal Technology 
Program for program direction. Program Direction includes funding for 
salaries and other expenses for Federal and contract employees at 
Headquarters and at the Morgantown, Pittsburgh, and Tulsa offices of 
the National Energy Technology Laboratory (NETL), including those 
previously funded in the Clean Coal Technology appropriation account.
    Plant and Capital Equipment.--The $2.0 million request provides for 
repairs, improvements and alterations to buildings at the NETL and the 
Albany Research Center (ARC).
    Environmental Restoration.--In fiscal year 2003, $9.7 million is 
requested to continue remediation efforts at several former field test 
sites and to upgrade worker health and safety conditions at NETL and 
ARC. A series of lead and asbestos abatement actions will be completed 
at the sites, and a number of fixes will be made at the Pittsburgh and 
Morgantown facilities to improve indoor air quality.
    Cooperative Research and Development.--In fiscal year 2003, $6.0 
million is requested for projects at the University of North Dakota 
Energy and Environmental Research Center and the Western Research 
Institute. These projects receive at least 50 percent of their funding 
from private sector research organizations.
    Advanced Metallurgical Research.--Our budget also includes $5.3 
million to support advanced metallurgical research at the Albany 
Research Center in Oregon. A major effort in fiscal year 2003 will be 
to complete an analysis of the mechanisms that degrade refractory 
materials that line coal gasifiers. ARC has also emerged as a premier 
installation for research into mineral carbonation--a technique for 
converting CO<INF>2</INF> into an environmentally benign solid. In 
fiscal year 2003, the Center will construct and operate a 5-pound-per-
hour benchscale mineral carbonation test unit.
    Import/Export Authorization.--The budget request also includes $2.5 
million to conduct regulatory functions associated with the import and 
export of electricity and natural gas, an increase of $.1 million from 
fiscal year 2002. The Office of Fossil Energy is responsible for 
authorizing the export of electricity, the issuance of permits for 
electric transmission facilities at the nation's international borders, 
and for authorizing natural gas imports and exports under Section 3 of 
the Natural Gas Act of 1938.
                         clean coal technology
    The budget request transfers all of the projects in this category 
to the Fossil Energy R&D account. These projects are funded with monies 
appropriated in prior years. While the Department intends to honor all 
outstanding project commitments, if surplus funds become available, 
they will be allocated to President Bush's Clean Coal Power Initiative 
described earlier.
    Seven projects remain in various stages of design, construction or 
operation (four others are in the final reporting phase), but only two 
projects the Kentucky Pioneer coal gasification combined cycle project 
and the CPICOR Management Company's advanced iron making/power 
generation project will require new obligations from the existing pool 
of funding.
    the strategic petroleum and northeast home heating oil reserves
    For fiscal year 2003, we are requesting a total of $188.8 million. 
This includes $169.8 million for the Strategic Petroleum Reserve (SPR); 
$11.0 million for the SPR Petroleum Account; and $8.0 million for 
Northeast Home Heating Oil Reserve.
    Strategic Petroleum Reserve.--The National Energy Policy has 
identified both the Strategic Petroleum Reserve and the Northeast Home 
Heating Oil Reserve as key response tools for the President to use in 
protecting Americans from imminent or actual disruptions in energy 
supplies.
    In November 2001, President Bush announced his intent to fill the 
Strategic Petroleum Reserve to its full 700 million barrel capacity. On 
January 22, 2002, the Department began the first stage of the 
President's plan, joining with the Minerals Management Service (MMS) to 
solicit offers from industry to exchange 22 million barrels of royalty 
oil produced from Federal leases in the Gulf of Mexico. Earlier this 
month, the Department announced a contract with Equiva Trading Company 
to add 18.6 million barrels to the Reserve (the difference in 
quantities reflects adjustments for the cost of transportation costs 
and for crude oil quality).
    As a result of the President's action, the fiscal year 2003 budget 
contains $11.0 million in the SPR Petroleum Account to pay the 
incremental costs of terminalling, transportation, power and third 
party inspections associated with the added fill.
    The budget also includes $15 million in the Storage Facilities 
Development and Management account to continue treating SPR crude oil 
to reduce vapor pressure caused by the migration of gas from 
surrounding salt formations.
    The Northeast Home Heating Oil Reserve.--In fiscal year 2003, $8 
million is requested for the Northeast Home Heating Oil Reserve. The 
reserve is fully stocked and ready for emergency use. Commercial 
terminals in New Haven, CT; Woodbridge, NJ; and Providence, RI, are 
under federal lease and currently hold 2 million barrels of home 
heating oil that could be released to the market to counter a sudden 
fuel emergency. Although it now appears likely that the Reserve will 
not be called on during the 2001-02 heating season, the Department has 
in place a new web- based ``real-time'' auction system that prospective 
heating oil buyers would access in the event a drawdown is necessary. 
Development of this system was a key ``e-government'' initiative 
undertaken by the Office of Fossil Energy in response to the 
President's Management Agenda.
                      the naval petroleum reserves
    The fiscal year 2003 budget request of $21.07 million continues to 
carry out the changes that have occurred within the Naval Petroleum and 
Oil Shale Reserves functions and organization since passage of the 
National Defense Authorization Act for fiscal year 1996.
    Funding is included for the three responsibilities that remain: (1) 
oversight of commercial leases at the Naval Petroleum Reserve #2 in 
California, (2) operation of the Naval Petroleum Reserve #3 stripper 
well field in Wyoming, and (3) management of the Rocky Mountain 
Oilfield Testing Center co-located on the NPR #3 property.
    The fiscal year 2003 budget also includes $72 million for payments 
to the Elk Hills School Lands Fund as a result of a Settlement 
Agreement reached with the State of California on October 11, 1996. 
Under this agreement, which resolved longstanding State claims to two 
parcels of land (``school lands'') within the Elk Hills field, the 
Federal government must pay (subject to appropriation) 9 percent of the 
net proceeds from the Elk Hills sale to the State. The current estimate 
of the net sales proceeds is $324.0 million, of which $298.0 million 
has already been deposited into a contingent fund in the Treasury.
    Through fiscal year 2002, three installments of $36.0 million each 
will have been paid. A fourth installment was advance appropriated in 
fiscal year 2002 to be payable in fiscal year 2003. The fiscal year 
2003 budget request contains $36.0 million for the enacted advanced 
appropriations as well as $36 million for the fifth installment. Once 
all divestment related costs have been paid and the total payment to 
the State has been calculated, the final two installments will be paid 
in equal amounts in years six and seven.
                     the energy conservation budget
    The Energy Efficiency and Renewal Energy (EERE) budget request is 
split, as you know, between the Interior and the Energy and Water 
Development Appropriations Bills. Our overall EERE budget request for 
fiscal year 2003 is $1.31 billion, up $10.3 million over the amount 
appropriated last year. For our Interior programs in fiscal year 2003, 
we request $904.3 million, a slight decrease below fiscal year 2002 
appropriations, but nearly $150 million above last year's request.
    However, more important than how much we propose to spend on these 
programs is the fact that we are working to achieve more from them. As 
we developed this budget we were driven by some very fundamental 
questions. For example, what public benefits do we expect to achieve 
with the expenditure of these taxpayer dollars? How can we better 
measure success in pursuit of those public benefits? How can we 
leverage Federal dollars through partnerships with States, communities 
and the private sector to achieve greater success? We grappled with 
these questions in several ways:
  --First, in response to recommendations in the President's National 
        Energy Policy, we undertook a Strategic Program Review to 
        review historical performance of EERE programs, and propose 
        appropriate funding for those that were performance-based and 
        modeled as public-private partnerships. This extensive review 
        was accompanied by a series of public meetings held across the 
        country. Our review identified activities that should be 
        expanded, activities that have come to the end of their useful 
        lives and should be terminated, activities that should be 
        refocused, and activities that require ``watch list'' scrutiny 
        to ensure they advance effectively. This review has driven many 
        of the shifts you will see in our fiscal year 2003 budget.
  --Second, we evaluated the results of an external, retrospective 
        review by the National Academy of Sciences (NAS) designed to 
        determine whether the benefits of our programs have justified 
        the associated public expenditure. The NAS found that our 
        Research, Development and Demonstration (RD&D) programs have 
        yielded significant economic and environmental benefits, new 
        technological options, and important enhancements to 
        engineering and scientific knowledge in a number of fields. The 
        NAS also offered recommendations that will improve our methods 
        for estimating program benefits. We have taken these 
        recommendations seriously and are evaluating how to best 
        implement them. To help us assess the recommendations of the 
        NAS and the potential for these recommendations to enhance our 
        program benefit estimates, we have scheduled a conference 
        entitled, ``Estimating the Benefits of Government-Sponsored 
        Energy R&D.'' The Conference, which will be held in Crystal 
        City on March 4 and 5, 2002, will bring together a range of 
        experts in benefits analysis. Mr. Chairman, as a result of this 
        conference, I expect that we will identify practical and 
        affordable ways to enhance our existing GPRA benefits 
        estimates. Additionally, the Department's Offices of Fossil 
        Energy, Nuclear Energy, and Science are co-sponsoring this 
        Conference in the hope that lessons learned at the Conference 
        will enhance the analytical efforts of the entire Energy 
        Resources business line, as well as our mutual abilities to 
        assess the respective roles of basic and applied research.
  --Third, as part of a pilot effort, we applied new evaluation 
        criteria to our research and development programs in accordance 
        with the President's Management Agenda. We hope to improve the 
        application of these criteria in the evaluation of our programs 
        as we move ahead.
  --Finally, recognizing our increasing dependence on energy from areas 
        of the world that are periodically unstable, I directed EERE to 
        concentrate their efforts on programs that revolutionize how we 
        approach conservation and energy efficiency. I challenged them 
        to leapfrog the status quo and prepare for a future that, under 
        any scenario, requires a revolution in how we find, produce and 
        deliver energy.
    The Energy Conservation budget request has been developed with 
these challenges and opportunities in mind. Mr. Chairman, I believe 
that the Energy Conservation budget request I am presenting today will 
move us forward in meeting our program goals and those of the NEP. For 
example:
  --Residential Buildings Integration R&D activities will provide the 
        energy technologies/solutions to catalyze a 50 percent increase 
        in the energy efficiency of new homes and a 20 percent increase 
        in the energy efficiency of existing prototype residential 
        buildings by 2008 relative to the Model Energy Code.
  --R&D activities led by our industrial program will deliver energy 
        saving technologies/methods leading to reduced energy use in 
        the eight energy-intensive ``Industries of the Future'' (IOF). 
        These activities will help provide a 24 percent reduction in 
        energy intensity in 2010, compared to the 1991 baseline.
  --Fuel Cell R&D activities will reduce the production cost of a 50 kW 
        vehicle fuel cell power system from $275/kW in 2002 to $125/kW 
        in 2005 to $45/kW in 2010.
  --Distributed Energy Resources (DER) R&D activities will enable new 
        DER electricity-generating capacity to be increased from 5 
        percent in 2000 to 7 percent in 2005.
  --The Federal Energy Management Program activities will decrease 
        energy intensity in standard federal facilities by 30 percent 
        by 2005, relative to 1985 levels.
                               buildings
    EERE's buildings technology R&D programs address efficiency 
opportunities in commercial buildings (e.g., schools, offices, 
hospitals, stores) as well as residential buildings, both in existing 
structures and new construction. The programs also address appliance 
energy use in buildings, such as clothes washing and food 
refrigeration. The fiscal year 2003 budget request in this area is 
$408.8 million, $28.5 million above fiscal year 2002 enacted, a 7.5 
percent increase. We request $316.9 million for the Weatherization 
Assistance and the State Energy Programs, both of which are grants 
programs that provide funding for States to improve energy efficiency 
in homes and communities. The remainder of the requested funding ($92.9 
million) is for energy efficiency R&D (e.g., lighting, windows), 
development of building codes and appliance standards, training 
programs, and the Energy Star program.
    Let me cite a few examples of programmatic accomplishments we 
expect to achieve with this budget, including major program shifts. In 
the Building Equipment and Materials Program, we request an increase 
for lighting R&D and energy standards for lighting and appliances. In 
lighting R&D, revolutionary technologies, such as Light-Emitting Diode 
(LED) and Organic Light-Emitting Diode (OLED) light sources, that can 
potentially double efficiency, are in the early stages of R&D and will 
be ready for the market in the next 5 to10 years. The lighting and 
appliance standards program continues to be an effective way to 
stimulate the market to incorporate energy efficiency gains available 
from today's technology. In addition, we complement our standards work 
with applied R&D. Also within this program, we will be decreasing our 
work in Space Conditioning and Refrigeration, Appliances and Emerging 
Technologies, Building Envelope, and Analysis Tools and Design Studies. 
Currently, the technologies in these areas are well developed and many 
are ready to be ``graduated.'' Emphasis needs to be turned to educating 
consumers and builders about the utility and availability of these 
energy saving technologies. We intend to further these efforts through 
our Energy Star Program.
    In our Weatherization Assistance Program ($277.1 million requested, 
$47.1 million above the fiscal year 2002 level), we will weatherize 
approximately 123,000 low-income homes, saving $2.10 in energy costs 
for every dollar invested over the life of the efficiency improvements. 
Increasing funding for this cost-effective program is a Presidential 
initiative and receives our highest priority. We also propose to expand 
the ENERGY STAR program ($6.2 million requested, $3.2 million above 
fiscal year 2002), as recommended in the NEP.
                                industry
    The Industrial Technologies program partners with key, energy 
intensive industries to develop and apply advanced technologies and 
practices that reduce energy consumption and improve environmental 
performance. In fiscal year 2003, we are requesting $71.6 million, a 
$1.0 million decrease from fiscal year 2002 enacted levels, for the 
Industries of the Future (IOF) Specific program. The Specific Vision 
Industries (Steel, Metal Casting, Mining, Agriculture, Forest Products, 
Glass, Aluminum, and Chemicals) R&D activities all received essentially 
level funding with two exceptions. We request no funding for the 
Petroleum Vision, based on the successful completion of the petroleum 
vision and roadmap and an acknowledgement that the petroleum industry 
should be able to fund R&D for this purpose. The other exception is a 
requested increase of $1.0 million for the Agricultural Vision. The 
requested funding will expand the Agriculture IOF Education Initiative 
supporting the establishment of a graduate curriculum on biobased 
products and bioenergy.
    In fiscal year 2003, we are requesting $57.1 million, a $3.8 
million decrease from fiscal year 2002, for the IOF Crosscutting 
program, which includes: Industrial Materials for the Future (IMF); 
Combustion, Sensors & Controls; National Industrial Competitiveness 
through Energy, Environment, and Economics (NICE3), Inventions and 
Innovation (I&I), and Industrial Technical Assistance (Best Practices 
and Industrial Assessment Centers). The IMF program was decreased $1 
million through anticipated savings from re-engineering the program. We 
have reduced funding for Combustion activities by $2.8 million due to 
the delay of the final negotiations of the third biomass gasification 
project. We have also reduced funding for the I&I program by $2.0 
million because we believe these funds could be put to better use in 
other EERE programs. The requested funding for I&I will meet existing 
mortgages.
                             federal sector
    The Federal government is the Nation's largest single energy 
consumer. In 1999 alone, the Federal government spent almost $8 billion 
to provide energy to its buildings, vehicles, and operations. Simply by 
using existing energy efficiency and renewable energy technologies and 
techniques, the Federal government can begin to lead the Nation toward 
becoming a cleaner, more efficient energy consumer.
    In fiscal year 2003, we are requesting $27.9 million for the 
Federal Energy Management Program (FEMP), an increase of $4.5 million 
above fiscal year 2002. We will attract between $80 and $120 million in 
private sector investment through Super Energy Savings Performance 
Contracts (ESPCs) and expand Super ESPC projects in the areas of 
biomass, geothermal, and solar energy. In addition, FEMP will increase 
assistance to agencies to meet energy use reduction goals. These 
activities include 70 technical and design assistance projects, 10 of 
which will be innovative distributed energy resources (DER) and 
combined heat and power (CHP) projects. The DER initiative provides an 
increased degree of energy security for federal sites and CHP projects 
contribute to increased energy efficiency and reduced greenhouse gas 
production.
                                 power
    The Distributed Energy Resources (DER) Program leads a national 
effort to develop a flexible, smart, and secure energy system by 
integrating clean, efficient, reliable, and affordable distributed 
energy technologies; documenting the energy, economic, and 
environmental benefits of the expanded use of distributed energy 
resources; and supporting the development of regional or state energy 
strategies, including distributed generation deployment, as it relates 
to energy security and reliability.
    By producing electricity where it is used, distributed energy 
technologies can reduce the need for developing a costly, new 
centralized infrastructure to deliver energy to distant customers that 
can suffer from some of the same disadvantages as the current system 
(e.g., transmission loss, vulnerability). Also, because distributed 
generators are located near the point of use, they allow for the 
capture of the waste heat produced by fuel combustion or fuel cells 
through combined heat and power systems (CHP) systems.
    In fiscal year 2003, we are requesting $63.9 million, level 
funding. We will continue to focus on development of improved 
performance and fuel flexible gas turbines, microturbines, 
reciprocating engines and stationary fuel cells as distributed energy 
choices for end-use customers. Increased activities will be undertaken 
for integration and end-use applications of distributed energy systems, 
including the development of combined heat and power packages, controls 
and sensors, analysis tools and design studies.
                             transportation
    Oil imports, about 53 percent of our petroleum consumption in 2000, 
are at an all-time high and currently add an estimated $109 billion per 
year to our balance of payments deficit. At the present time, the 
United States consumes 26 percent of the world's oil while producing 
only 12 percent of the total global supply. In terms of distribution of 
world oil reserves, OPEC is projected to continue to have the vast 
majority of oil reserves and as such, will have great influence over 
the price of oil.
    The Administration has established a goal to achieve freedom from 
dependence on foreign oil. FreedomCAR (CAR stands for Cooperative 
Automotive Research) is a new partnership to develop technologies that 
will ultimately result in vehicles requiring no oil, and that emit no 
harmful pollutants or greenhouse gases. The long-term results of this 
cooperative effort will be cars and trucks that are more efficient, 
affordable, pollution-free and competitive. FreedomCAR will support R&D 
on hydrogen and fuel cells and will continue to support R&D for 
petroleum- related technologies that have the potential to dramatically 
reduce oil consumption and environmental impacts in the interim. Many 
of the programs described below will contribute to FreedomCAR's goals. 
In fiscal year 2003, we request $150.3 million, which includes $25.8 
million from Energy and Water Development appropriations, for 
FreedomCAR that will be used to undertake many of the activities 
described below.
    Vehicle Technologies R&D supports R&D that will produce dramatic 
improvements in fuel economy for automobiles, sport utility vehicles 
(SUVs), and light and heavy trucks, without sacrificing safety, 
environmental performance, and affordability. The activity comprises 
six areas of research: Hybrid Systems R&D, Fuel Cell R&D, Advanced 
Combustion Engine R&D, Electric Vehicle R&D, Heavy Vehicle Systems R&D, 
and programs for small businesses and universities called CARAT 
(Cooperative Automotive Research for Advanced Technologies) and GATE 
(Graduate Automotive Technology Education). In fiscal year 2003, we are 
requesting $149.2 million, a decrease of $5.8 million below the fiscal 
year 2002 level.
    Let me cite a few examples of programmatic activities we expect to 
achieve from our request, including major budget shifts.
    In Fuel Cell R&D ($50.0 million requested, $8.0 million above 
fiscal year 2002 enacted), we will develop technologies and fabrication 
processes to reduce the cost and accelerate the manufacturing 
capability for polymer-electrolyte membrane fuel cells. We will also 
develop critical balance of plant components such as compressors, and 
demonstrate advanced on-board hydrogen storage technologies. In 
Advanced Combustion Engine R&D ($40.7 million requested, $8.4 million 
below fiscal year 2002 enacted), we will continue supporting R&D so 
that passenger cars and light trucks can utilize fuel-efficient 
compression-ignition, direct-injection (CIDI) engines. We will also 
complete testing prototype diesel engines to demonstrate a 35 percent 
increase in fuel efficiency and meet Tier 2 emissions requirements for 
light trucks. Related to Hybrid Systems R&D ($42.6 million requested, 
$4.0 million below fiscal year 2002), we will continue development of 
advanced power electronics and storage devices while reducing support 
for the Digital Functional Vehicle, battery thermal management, and 
``predicting emissions from advanced simulation'' models. These 
activities are less critical to quickly achieving competitive hybrid 
vehicles.
    In the Fuels Utilization R&D Program ($18.5 million requested, $7.4 
million below fiscal year 2002), we will complete existing contract 
obligations but terminate activities relevant to heavy-duty natural gas 
vehicles and infrastructure R&D because competitive natural gas engines 
and related systems are commercially available. In the Materials 
Technologies Program ($29.8 million requested, $10.5 million below 
fiscal year 2002), we will conclude our work on aluminum and advanced 
high-strength steels in order to focus our efforts on reducing costs 
and improving performance of carbon fiber materials.
                     integrated biomass r&d program
    Biomass is a priority for the Administration as reflected in the 
NEP, and, Mr. Chairman, over the past few months we have rebuilt the 
program across-the-board in biofuels, biopower and biobased products. 
In working to rebuild the program, we found that our biomass program 
needed better focus, and we have worked to set integrated priorities 
across our sectors.
    We are driven by our vision of the widespread operation of an 
integrated industrial biorefinery and our goal to reduce America's 
dependence on foreign oil. We can already see the results of our 
efforts: we have ended over 100 projects since fiscal year 2001; we are 
de-emphasizing biomass co-firing with coal and the lignin route to 
ethanol, and we are moving away from our work on plant sciences and 
feedstock production. We are concentrating our overall funding instead 
on cellulosic ethanol, gasification, and biobased chemicals.
    In fiscal year 2003, we are requesting $110.5 million for this 
restructured activity, with $26 million from Interior appropriations 
and the remainder from the Energy and Water Development appropriations. 
Funding for relevant activities of our biomass efforts in Interior 
appropriations are: $8.3 million for the Agriculture Vision; $2.6 
million from the total of $11.8 million from the Forest Products 
Vision; and our Black Liquor Gasification work at $13.6 million. The $1 
million increase in the Agriculture Vision will likely be used to seed 
an expanded multidisciplinary biomass education initiative.
                         policy and management
    The corporate management, information, analysis, oversight and 
leadership required for the efficient and effective implementation of 
the EERE portfolio face several institutional challenges that make 
management and integration at the corporate level very complex. Policy 
and Management funds support the staffing, resources, and management 
support for all EERE sector offices at Headquarters; the field office 
in Golden, Colorado; and EERE's six Regional Offices (ROs). In fiscal 
year 2003, we are requesting $42.7 million for these activities, a $3.7 
million decrease from the fiscal year 2002 level, reflecting expected 
administrative efficiencies.
                     the economic regulation budget
    DOE's Office of Hearings and Appeals continues work related to 
previous enforcement activities of the Department to equitably 
terminate the regulatory program implementing the Emergency Petroleum 
Allocation Act of 1973. The fiscal year 2003 budget of $1.6 million 
would finance the phase-out of remaining oil overcharge activities. The 
fiscal year 2003 request is a 28 percent reduction from fiscal year 
2002 levels and initiates a three-year phase-out of the Economic 
Regulation activities consistent with language in last year's House 
Appropriation Committee Report.
              the energy information administration budget
    For the Energy Information Administration (EIA), we are requesting 
$82.8 million. The requested funding will be used for ongoing data and 
analysis activities and critical data quality enhancements, so EIA can 
continue to disseminate accurate and reliable energy information and 
analyses to inform energy policy-makers. EIA's base program includes 
the maintenance of a comprehensive energy database; the dissemination 
of energy data and analyses to a wide variety of customers in the 
public and private sectors through the National Energy Information 
Center; the maintenance of the National Energy Modeling System for mid-
term energy markets analysis and forecasting; and the maintenance of 
the Short Term Integrated Forecasting System for near- term energy 
market analysis and forecasting.
    In fiscal year 2003, EIA will focus on continuing three multi-year 
initiatives:
  --updating its natural gas, petroleum, and electricity surveys and 
        data systems to reflect changes in these restructured energy 
        industries;
  --working on improving data quality regarding these industries to 
        assure that EIA's information products accurately reflect the 
        state of the respective energy industry, its markets and 
        supply; and
  --realigning the energy consumption surveys with the 2000 census 
        information to maintain production of the most comprehensive 
        information on this Nation's energy usage, with particular 
        focus on the digital economy and its impact on this Nation's 
        electricity supply. The collection and analysis of accurate 
        energy data facilitate production and dissemination of reliable 
        energy information, which enables the Administration and 
        Congress to make informed energy policy decisions.
    Mr. Chairman, and members of the Subcommittee, that completes my 
prepared statement. I would be happy to answer any questions you may 
have.

             TOP-TO-BOTTOM REVIEW OF FOSSIL ENERGY PROGRAMS

    Senator Byrd. Thank you, Mr. Secretary, for your statement.
    Let me begin by saying that I had the pleasure of recently 
meeting the Department's new Assistant Secretary for Fossil 
Energy, Mr. Smith, to whom you have referred in your statement. 
I know that he has only been on the job for about a month, but 
I believe that he can be a real asset to your Department. And I 
am sure that you are glad to have him on board. The Fossil 
Energy Office is long overdue for an Assistant Secretary who 
would be a strong supporter of fossil energy programs.
    As I understand it, one of the first tasks that you 
assigned to Mr. Smith was that, as of July 1 of this year, he 
was to complete a top-to-bottom review of all fossil energy 
programs and report back to you. The review is supposed to 
address the strengths and weaknesses of all fossil energy 
programs and to determine how those programs fit into the 
President's National Energy Policy.
    Now, given the fact that there are factions in the 
administration who were less friendly to fossil energy, and the 
fact that the administration's fossil energy budget requests 
have been less than robust, what assurances can you give my 
colleagues on this subcommittee that this review will not 
simply turn into a fossil energy bashing event? And will you 
agree to share the results of Mr. Smith's review with the 
subcommittee?
    Secretary Abraham. Well, first of all, we will share the 
results of the review. We have just done a similar review, as I 
mentioned, of our energy efficiency and renewable energy 
programs. And I believe that is just about completed. And when 
it is, that also will be available.
    What we discovered there, I suspect, will be similar to 
what we will find as we go forward with this review. That is 
that we have a number of programs that are under-funded, some 
programs which have perhaps reached the point of maturity and 
can now move to application, and others that may need some 
modification. That is essentially what we discovered in the 
other area. And it resulted in the largest energy efficiency 
and renewable energy submission to Congress in 20 years.
    But I think, just speaking for this Secretary, we recognize 
in our Department, and have very robustly argued the point, 
that energy security depends on maintaining the role of the 
fuels that we currently have providing energy diversity. The 
role coal plays in electricity generation of approximately 50 
percent is critical.
    We cannot afford to have a dramatic reduction in the coal 
component of our electricity generation, particularly, as you 
well know, with 275 years of supply at least available to us. 
But obviously, we also want to make sure that as we use coal, 
we do it in an environmentally friendly way that is consistent 
with current, as well as future, environmental standards. And 
that is the challenge of the Department.
    But the advocacy for these programs will be very strong, 
because we very strongly believe that the role coal plays and 
that fossil fuels play must be maintained. At the same time, in 
our energy efficiency budget here, you see the commitment that 
we are making to research and development of hydrogen fuel 
cells and fuels cells in our fossil energy R&D budget, as well. 
Because we recognize that we need to--we also need to have more 
diversity.
    And so I can promise the subcommittee that, when we are 
done with the review, we will be pushing very hard on advocacy 
of these programs.
    Senator Byrd. And you will share the results of Mr. Smith's 
review with the subcommittee?
    Secretary Abraham. Look forward to doing so, yes.

                         NATIONAL ENERGY POLICY

    Senator Byrd. I thank the secretary. Mr. Secretary, the 
President's National Energy Policy, which I know you had a hand 
in writing, says, and I quote: ``America's energy strength lies 
in the abundance and diversity of its energy resources and in 
its technological leadership in developing and efficiently 
using these resources.'' The policy goes on to say, or rather 
also says, and I quote again: ``The challenge for our Nation is 
to use technology to maintain and enhance the diversity of our 
supplies, thus providing a reliable and affordable source of 
energy for Americans.'' And that is the quotation.
    But finally this quotation: ``Technology has been and will 
continue to be a key to achieving our energy, economic, and 
environmental goals.'' That will suffice for my quoting from 
the policy.
    The President, of course, has been more succinct. He 
equates energy security with national security. Now as I 
consider those statements, I am left with the impression that 
at least some of the administration's top policy makers 
understand that there is a direct link between our ability to 
develop and deploy new energy technologies on the one hand, and 
our Nation's energy security on the other.
    And yet, as I look at the Department's budget request, and 
particularly the request for the Office of Fossil Energy, the 
connection then, Mr. Secretary, between rhetoric and reality 
appears to have been lost. The budget request seeks an overall 
cut in fossil energy research of 16 percent from the enacted 
level. It would cut 37 percent from petroleum research, with 
specific programs geared toward boosting oil exploration and 
production being cut 49 percent. And in natural gas research, 
the budget proposes to cut 51 percent. You and I have discussed 
these issues, Mr. Secretary, before.
    So you are not surprised when I say that I am exasperated 
with the administration's request. I would appreciate your 
telling the committee how you square the incongruence between 
the rhetoric we hear coming from the administration and the 
reality of its budgets. I am interested in knowing how we 
increase our domestic energy supplies on the one hand, while at 
the same time we decrease the amount that we are willing to 
spend on the research that will make that happen.
    Would you care to comment?
    Secretary Abraham. I would be happy to comment, although I 
would acknowledge up front that you and I have had a number of 
these discussions. And I look forward to working with the 
subcommittee to try to move these programs forward.
    Let me just talk in--in these terms: The technology 
research-and-development component of the budget of our 
Department is virtually the same, pretty much, between the 2002 
enacted level and what we have submitted. They are both at 
about an $8.3 billion total R&D budget. There have been some 
shifts within that.
    One of the shifts which we see in the energy production 
side has been a movement of dollars in the direction of our 
renewable energy research and development, partly as a result 
of the completion of the review that I mentioned before. And, 
you know, one of the challenges we have is that there is a lot 
of pressure from folks in our Department who work in the 
renewables area and the efficiency area. Everybody has an 
argument that their programs are the most likely to produce 
energy gains.
    I am hopeful that the review that Assistant Secretary Smith 
will be conducting will give the fossil energy programs 
similar, both, advocacy at the end of it, as well as a clarity 
of priorities that, frankly, we have needed to conduct this 
review to be able to ascertain.
    But as I said, the other we have done, though--and I hope 
it would be noted in this budget--is that in addition to our 
commitment to the research and development and technology side, 
we also feel an obligation and a strong commitment to take 
finished technologies and, where appropriate, make them 
available. And one of the parts of this budget that is fairly 
substantially increased is the area of weatherization programs, 
where we have increased from, I think, about a $230 million 
level to, we are proposing, about $277 million.
    That does not mean that research and development is not as 
important as well, but that is another one of the balances that 
we have to do in putting this sort of plan together. And we 
felt that, particularly after last winter, the winter of 2000/
2001, that moving more of these resources where we know how to 
go into homes and improve considerably the way that they are 
able to conserve energy and thus save money for the home 
owners, for less-advantaged folks, was another priority that is 
addressed.
    And so we have been balancing those. I think when Mr. 
Smith's review is done, it will give the fossil energy programs 
more clarity. And there is one other thing that I think also 
will help to guide us in the future. We have, as you know, also 
been conducting in the administration, a review of issues 
related to climate change and multi-pollutant legislation. On 
February 14, the President announced the results of those, his 
Clear Skies initiative, as well as our Climate Change 
initiative.
    Each of those as they are being implemented have very 
significant impacts on fossil energy production. And now I 
think they too, will give more shape to future budget 
proposals, because now we have a better sense of what the 
targets are. And so I think that will also assist us in the 
future.
    Senator Byrd. Could I--have you finished your----
    Secretary Abraham. Yes, I am.

                        FOSSIL ENERGY PRODUCTION

    Senator Byrd. Yet, Mr. Secretary, the administration wants 
to vastly expand fossil energy production. So it seems a bit 
shortsighted to expand production while cutting back on the 
technologies that helped to utilize those fuels more 
efficiently and more cleanly.
    Secretary Abraham. Well, in the area of coal production, 
for instance, and the clean coal power initiative, the 
reductions in that area are primarily in the coal fuels area.
    We happen to think that putting the emphasis more in the 
power plant program and the actual capacity to generate 
electricity through coal in a fashion that is more 
environmentally safe is the priority. So we have cut that back 
pending Mr. Smith's review, because we were not as convinced 
that the coal fuels program was one that would have as much 
long-term contribution. The review may give us more insight.
    In the area of natural gas----
    Senator Byrd. Excuse me. Is that going to give you, if you 
need to replace some of those cuts----
    Secretary Abraham. Well, I----
    Senator Byrd [continuing]. Is that going to give you time 
to do so? And will you be able to do that?
    Secretary Abraham. Well, we believe that these programs are 
in pause but are not seriously jeopardized, because they are 
very long-term pay off programs. But, again, our focus was on 
what we think is the principal issue with respect to, for 
example, the coal technology programs. And that is to make sure 
that operating coal-generated electricity can meet future 
environmental standards so that coal as a percentage of 
electricity generation does not have to be significantly 
reduced.
    Those were some of the decisions that we tried to make, 
based on priorities. And obviously, those priorities will be 
under scrutiny during the review that is ahead.
    Senator Byrd. I have other questions, but I do not want to 
monopolize the time here. I want to call on our ranking member.
    Before I do so, does it seem to be a little chilly in here?
    Secretary Abraham. Yes.
    Senator Byrd. Why do we not cut this temperature a little 
bit? We are talking about energy. And now is the time to use 
just a little more.
    All right.
    Senator Burns.
    Senator Burns. Mr. Chairman, we have been joined by our 
colleague from Mississippi. And I do not know whether he would 
have a statement or----
    Senator Byrd. I would be happy to have the subcommittee 
hear the Senator from Mississippi at this point.

               OPENING STATEMENT OF SENATOR THAD COCHRAN

                         CONGRESSIONAL EARMARKS

    Senator Cochran. Mr. Chairman, I appreciate that. I really 
have a question. But I do have a statement that is related to 
the question I am going to ask.
    And it is in this connection: I notice in the submission of 
the budget request by the Department of Energy, there are some 
comments made about congressional earmarks. And there is 
specifically a complaint about the trend to earmark more of the 
funds by provisions in the appropriations bills. These bills 
are prepared by the Appropriations Committee and amended on the 
floor, as everybody knows, i.e., subject to amendment by any 
Senator. If these provisions survive after conference with the 
House, it has been my understanding that the direction to the 
administration to spend the money, according to congressional 
language, is binding on the administration.
    The administration cannot just say: ``We do not like 
earmarks and, therefore, we are not going to release funds that 
have been earmarked by Congress for specific projects.''
    When I first came to Congress, Mr. Chairman, the law was 
such that Presidents were getting away with impounding funds. 
There was a big hue and cry about that. President Johnson did 
it; President Kennedy had done it before him, and President 
Nixon was doing it.
    Particularly aggravating to Congress at that time, as I 
remember, were Federal highway funds that were appropriated to 
be spent to construct Federal highways. If the administration 
thought Congress had called on the administration to spend too 
much, it just would not spend the funds. It would hold them 
back. And this was called impoundment.
    Well, to deal with that, a set of procedures were developed 
in the Congressional Budget and Impoundment Control Act that I 
remember being considered and passed by Congress when I was a 
Member of the House of Representatives.
    Senator Byrd. 1974.
    Senator Cochran. 1974. And under that law, if the 
administration disagreed over a particular project or program, 
or if they did not think money should be spent that had been 
appropriated by Congress, they could defer the spending, 
communicate with Congress that they were deferring it. Congress 
would have an opportunity to respond under the procedures of 
the law. Or if they wanted to cancel the funding, they could 
proppse to rescind the money. And if Congress agreed within a 
certain period of time, well, it was rescinded.
    Well, what I am reading here now and what I am told by my 
staff is that in this fiscal year there were funds appropriated 
by the Congress for the Department of Energy. And one project 
in my State, $3 million, was designated--you can call it 
earmarked, whatever--for Mississippi State University and a 
private company to demonstrate the efficacy of a scientific 
process converting wood pulp and sawdust into useable energy. A 
grant, in effect, of $3 million was made for that purpose, for 
what is called the Winona, Mississippi, Project.
    I am told that the funds will not be released, that the 
Department of Energy has made a decision to eliminate the 
funding for that. That is what my staff tells me. They have 
been in contact with the Department and have been told that 
they are not going to release the money.
    Well, my understanding of the law is you cannot do that. 
Now I do not know what our recourse is, except the contempt 
power. I know we have that alternative. I do not know whether 
this fits within the guidelines for the use of the contempt 
power. But I do not think the Department of Energy can make 
these unilateral determinations as to which provisions of a 
bill that Congress passes and is signed into law they will 
respect and which they will not.
    They cannot eliminate, in my view, Mr. Chairman, a 
provision of an appropriations bill in that way. So I want the 
Secretary to look into this, if he will, and get back to us 
about what the official position of the Department of Energy is 
with respect to that law, and whether or not we are going to 
have to go through the year checking to see if the provisions 
of appropriations bills are respected or not by this 
Department. And if they are not, are you going to follow the 
provisions of the law, or are you just going to eliminate the 
provisions that you do not like?
    So this is a concern I have, Mr. Chairman. And that is the 
statement that I have. And my question is--I guess I have 
already asked it. In due course, after the ranking member gets 
through with his questions, I hope the Secretary can answer my 
question.
    Secretary Abraham. Well, first----
    Senator Byrd. You can respond. I would like to hear the 
answer now, because I think we are all interested in that 
question.
    Secretary Abraham. This subcommittee had regularly 
indicated to me its interest in the Department's fulfillment of 
congressionally directed projects like this. And I committed, 
when I was here 1 year ago, that, as opposed to the kind of 
ongoing battles which had transpired as to previous earmarks, 
that we would fund congressionally-directed projects.
    My understanding--and that is my view of this. That does 
not mean we would include in the next year's budget the same 
project or a similar project, those we have to deal with year 
in and year out. But as to this project, here is my 
understanding of the situation. And that is that this is a 
demonstration project, which requires a 50-50 cost-share 
arrangement. And it is my understanding that the language in 
the appropriation bill had indicated that, somehow, the current 
investment in the plan would suffice to meet that cost-share 
standard.
    It is a $3 million earmark. And so presumably the argument 
would be that that previous infrastructure investment would 
constitute a fulfillment of the 50-50. I have asked about this 
because your staff's concerns and your concerns, Senator 
Cochran, have been brought to my attention.
    Our position is we are attempting to both, A, verify the 
money amount to see if it fulfills whatever legal commitment we 
have to be able to show our Inspector General or anyone else 
that we, in fact, have fulfilled that 50-50 cost-share, as well 
as just making sure that that meets any kind of legal standards 
we are forced under other statutes to comply with.
    And I will--I assure you we will resolve this. And if there 
are issues that remain as to whether or not this meets our 
General Counsel's interpretation of what we are required to 
require of the partner, I will let you know. I do not know. And 
I have asked them to get me an answer quickly, because I know 
it is important to the committee. Congressman Wicker has 
likewise brought this to our attention.
    Senator Cochran. Mr. Chairman, I appreciate the assurance 
of the Secretary. And I look forward to working with you to be 
sure that we have not violated any laws, and particularly the 
one that we are talking about, the appropriations bill, which 
is a law, too.
    Secretary Abraham. Right. And again, our concern is whether 
or not, if it is possible to just designate pre-existing 
infrastructure as the cost-share, we want to make sure we can. 
We will work with you to do that.
    Senator Cochran. Well, the Congress said that you would. I 
mean, said that it would amount to a compliance with the cost-
share. And so the presumption is that there have been 
substantial funds invested in this and that those ought to be 
considered.
    Secretary Abraham. Right.
    Senator Cochran. Okay.
    Thank you, Mr. Chairman.
    Senator Byrd. Well, thank you.
    And thank you, Mr. Secretary, for your response. That is a 
subject that has been the matter of considerable discussion in 
previous years.
    Secretary Abraham. I know.
    Senator Byrd. And especially when your predecessor came 
before this committee and made a statement that infuriated 
somewhat the--I hesitate to refer to it as the combustible 
temper of a member or so of this committee, including the 
chairman. But you have said at the beginning that you were 
going to honor the provisions of bills that were added by 
members. And you are doing, it seems to me, what you can to 
uphold your commitment to that. And so I want to compliment 
you.
    Secretary Abraham. Thank you.
    Senator Byrd. If the Senator from Mississippi is satisfied 
on this question, I am going to ask again Senator Burns to 
proceed.
    Senator Burns. So I can double my time now.
    Senator Byrd. No, no.
    Senator Burns. No, I will not do that.

             NATURAL GAS AND OIL EXPLORATION AND PRODUCTION

    Mr. Secretary, there are two areas that I think concern me 
most. And basically, they are very parochial. And they refer to 
activities that are going on in my State. I noticed that your 
budget request eliminates the industry partnership program in 
both natural gas and oil exploration and production.
    These accounts have been extremely popular and have helped 
the Department leverage research dollars from an industry that 
is increasingly reliant on smaller, independent firms to meet 
our domestic energy needs.
    Has there been any review to show that these accounts are 
less effective than other DOE research accounts? To my 
knowledge, they are actually some of the most effective and 
popular programs out there right now. And can you provide the 
rationale behind cutting these programs more than others, or 
was it simply a bean-counting exercise, coupled with the desire 
to protect Government employees at the expense of programs that 
support more research and less overhead?
    I say this because we have two developments in our State, 
including the more effective use of smaller producing wells 
and, the emergence of coal-bed methane as a true energy source. 
I would like your response to that.
    Secretary Abraham. Senator, could you, just to make it more 
feasible for me to answer, clarify which budget category we are 
looking at here? Just so I can----
    Senator Burns. It is in oil and natural gas R&D.
    Secretary Abraham. Right. We--the approach that was taken 
within several of these R&D program areas was to hold some 
programs in sort of a pause in order to allow us to evaluate 
them through the process that I outlined here, to give it kind 
of the in-depth approach that I expect Assistant Secretary 
Smith to conduct.
    We tried to focus in on the programs that, at least in the 
Department's specialists' view, were ones that had greater 
potential for production in the immediate period. That was the 
result of the review. It is a situation that will be open for 
consideration as we move ahead here in the next process.

                               FUEL CELLS

    Senator Burns. Well, I think we are going to have to sit 
down and visit about that--that particular line. And I think we 
can, once your review is complete. There is another area which 
I have been working on since 1993. And it is an area that I 
think has a great future, as far as reducing some of our energy 
shortages. And that is in the area of fuel cells.
    As you know, I have worked very hard on communications 
issues ever since I have been here. And frankly, I regard the 
development of fuel cells, and especially stationary fuel 
cells, as being to the energy industry what wireless is to the 
telephone industry, to be right honest with you. It is one of 
those areas that needs developing. It is being developed in 
conjunction with our friends in Japan. And of course, the 
Europeans have a very active program now to look into the 
molten carbonate hybrid fuel cell demonstration going on now. I 
think those programs should be highlighted and we should move 
forward.
    Last year we took great strides forward by starting two key 
projects in the fossil fuel cell arena. One was the 
demonstration of the hybrid molten carbonate fuel cell that 
combines a gas turbine with a fuel cell, and the other was the 
implementation of the electrochemical engineering program 
designed to address the current materials concerns in fuel cell 
development.
    Mr. Secretary, I would like to have your assurance that 
these two projects will be continued in the 2003 budget and 
that you and your staff will work with me to identify the 
funding levels necessary to continue that important work.
    Secretary Abraham. Senator, with respect to the 
electrochemical initiative, that is an ongoing program, as I 
understand it, that has been sort of institutionalized in the 
Department. And we do have in the budget a continuation of that 
program, although I know that there has been a change in the 
funding level. And we will work with you in terms of trying to 
determine within the fuel cell arena whether its priority has 
fulfilled the goal of the program. The other program which you 
mentioned was one that, I think, was added last year.
    Senator Burns. That is right.
    Secretary Abraham. And just as a more over-arching 
statement, I would say that programs that had not yet become 
part of the kind of ongoing effort, whether it was--this is 
throughout both my budget, as well as the rest of the 
administration's--but programs that were not, had not, reached 
that level, have not been funded in the budget submission that 
we have. Obviously, we are only part of that process.
    And members first can participate, obviously, in giving 
some input to this review process, because that will be one of 
the topics we look at, but also obviously can----
    Senator Burns. Can you give me any idea on the review of 
that program, when we might take a look at it to see what it 
has done and the challenges that it has run into?
    Secretary Abraham. Well, let me--yes. Let me tell you, just 
to talk about the fuel cell program a little bit--and I do not 
mean to divert from your specific interest.
    Senator Burns. Yes.

                               FUEL CELLS

    Secretary Abraham. This budget, if you take--our total fuel 
cell investment is approximately the same in the 2003 
submission as the enacted and a significantly higher level that 
Congress enacted, too, in the 2002 budget. What we do have is a 
shifting of resources from stationary to transportation fuel 
cell investment. And there is a principal reason for that, 
which is that in the area of transportation, under Assistant 
Secretary David Garman, who has been on our team now for the 
better part of the year, we moved ahead. We developed the 
FreedomCAR program, and we moved more resources into those fuel 
cell programs, because we had a clear-cut set of priorities 
there.

                         STATIONARY FUEL CELLS

    In the area of the stationary fuel cells, which fall under 
the fossil energy budget, we have not done that yet. And our 
goal is to move that fairly quickly. As I think I said already, 
but just to reiterate, this review is not one we expect, that 
we intend to drag on. The full process will be done by the end 
of June. We would like your advice and counsel, if you would 
wish to give it, as soon as possible, so that we can look at 
the considerations you want to bring to our attention.
    Senator Burns. Well, I think that review is going to be 
very important and at least would give us, Congress, some idea 
on the progress that is being made and whether it is feasible. 
We would like to work with you in making the decision whether 
the program should move forward. In other words, I know we run 
into some challenges that just cannot be met. And that does 
give cause for a shift in dollars where we should put more 
emphasis.
    Also, I look forward in working with you on carbon 
sequestration. I think that is very important. It is very 
important from our standpoint, because this allows us to do 
more things with the fuel that we have a lot of, and that is 
coal. And our R&D there, I congratulate you. You have increased 
your dollars there in that area. So I am very happy about that.
    Overall, though, I think we can work our way through these 
funding levels and working with the chairman. I am sure we will 
come to an agreement of how we will spend this money and get 
the biggest bang for the dollar. I appreciate you coming today. 
Thank you very much.
    Thank you, Mr. Chairman.
    Senator Byrd. Thank you, Senator Burns.
    Senator Domenici, would you have a statement you would like 
to make and/or questions?
    Senator Domenici. Mr. Chairman, are we asking questions or 
are we--I would have no statement.
    Senator Byrd. Very well. The Senator may proceed with 
questions.
    Senator Domenici. I thank you very much.
    First, it is good to see you, Mr. Secretary.
    Secretary Abraham. Senator.
    Senator Domenici. On a personal note, I wonder when you are 
finished here, if I could have a personal conversation with you 
regarding an issue that I think is significant?
    Secretary Abraham. Sure.

                          MINING OF CLEAN COAL

    Senator Domenici. Could I talk a minute with you about the 
mining of clean coal? I think our distinguished chairman would 
be interested in this. I would like you to look into it and see 
if what I have experienced is as meaningful as I think.
    Most of the effort of our country in terms of making clean 
coal more effective has been at cleaning up the coal as you 
turn it into energy, part of the combustion process, clean up 
the exhaust, make sure that what comes out into the air is 
cleaner. We have a young technology company in Northern New 
Mexico, in the City of Raton, where an engineer has invented, 
designed, and now has financing for a machine that cleans the 
coal in the mine, so that the coal that comes out is much 
cleaner and purified through a mechanism of how the coal is 
mined.
    Now frankly, Mr. Chairman, I intended 6 or 8 months ago to 
bring them by your office. But we were waiting to see if they 
could get their machine financed; and it is now financed, so 
people can buy it and there is a bank that finances it.
    What it does, Mr. Secretary and Mr. Chairman, is, as the 
machine picks up coal from the mine, it operates based upon 
what is normally the makeup of the coal in the ground. The 
pollutants are on the top end, not mixed throughout the coal.
    So the machine sets itself, calibrates itself, so that it 
leaves out of the process of mining the coal which has most of 
the pollutant in it, and it mines cleaner coal and leaves the 
other part in the mine.
    Now there are companies buying it, because it is financed 
by one of the major banks. I would like to ask you if we could 
work with your assistant secretary to ensure that there are 
some pre-mining opportunities to achieve the clean coal 
programs that we are so interested in and that you are.
    Secretary Abraham. Right.
    Senator Domenici. Could we do that?
    Secretary Abraham. Mr. Smith is here today.
    Senator Domenici. All right. I would not expect necessarily 
that he would know about it, although it is so revolutionary 
that maybe he might. We will work with him on it.
    Mr. Chairman, I truly believe that this is a breakthrough 
of great significance, with reference to a better use of coal, 
that is not quite as clean as we would like it to be. Next, I 
just wanted to ask you about oil and gas technology 
partnerships.
    I do not know if you are aware of the fact, Mr. Secretary, 
that the oil and gas technology partnership program, as 
utilized in national laboratories for cooperative activities 
regarding our ability to better produce oil and natural gas, 
use the high-performance and computational tools of the 
laboratories to come up with advanced exploration concepts. The 
program has been funded, $7 million; and $6 million last year. 
And now it is zeroed out.
    I have heard many success stories regarding this program. I 
believe that it is essential, if we are going to continue to 
tell our people that we want to drill for oil and gas that we 
are going to do less and less harm to the environment and be 
able to get more and more of the resource out. That is what 
this partnership has produced. With the current recognition of 
the importance of domestic production, could you tell us what 
is the rationale for terminating the program?
    Secretary Abraham. Well, it really comes back to an answer 
I have given on several questions along these lines in this 
area of research. We have basically moved forward with 
programs, where it was the conclusion of the Department of 
Fossil Energy that the programs had the highest yield 
potential. We put other programs on either pause or not funded 
them in this cycle, subject to the review that the new 
Assistant Secretary, who just got confirmed a couple of weeks 
ago, is going to conduct.
    It is kind of similar, Senator, to what we did in the 
energy efficiency and renewables area last year, because we did 
not have guidance on a lot of the research programs. We put 
some into either zeroed out or put them on hold in our budget 
submission. Congress added some back in on a number of those 
fronts, of course. But we then conducted this review.
    And the review as a result of this year in the energy 
efficiency and renewable energy submission, the largest request 
in 20 years, because we now have guidance based on a real 
strong evaluation.
    That is how we got to this point. And that is one of the 
programs that would be evaluated in this review that will be 
going forward.
    Senator Domenici. So if you had a little bit more money, 
you would be taking a second look at programs like this one. Is 
that correct?
    Secretary Abraham. Well, we are going to take a second look 
at all of our programs now that--and I do not mean to criticize 
anybody for this. But Assistant Secretary Smith emerged from 
the Energy Committee for confirmation last October, but he did 
not get confirmed because a lot of things kind of got off 
track. But he did not get confirmed until 3 or 4 weeks ago, so 
we did not have his participation; we did not have any review.
    Now that we are there, we will be looking at all these 
programs and trying to evaluate again what the priorities are 
consistent with----
    Senator Domenici. Well, we understand that, and we expected 
that--and it is very good of you to remind us of it. But 
obviously, we are going to be talking about money.
    Secretary Abraham. Right.
    Senator Domenici. For that new man to reorient and 
reorganize, he is going to have to take money from some and put 
it in others. If we are going to do a program like this one, we 
are going to have to have more resources allocated to this 
subcommittee.
    Let me have one question, Mr. Chairman, and I will submit 
the other ones for the record.

                         NATIONAL LABORATORIES

    Mr. Secretary, I think you know the national laboratories, 
even in particular those that work on nuclear weapons and the 
nuclear weapons program, the NNSA laboratories. They do a lot 
of research and development in areas that are truly beneficial 
to America in very broad and different ways than just 
developing the nuclear weapons program.
    There is a program that has been developed by Los Alamos 
and Sandia because they have the super-computers, which permit 
them to do these kinds of things. They have developed and 
perfected an instrument and a tool called the National 
Infrastructure Simulation and Analysis Center, called NISAC.
    I can say for the record here that I have never witnessed 
anything as dramatic as this breakthrough in terms of 
evaluating all of the infrastructure of the United States and 
being able to correlate what one piece of infrastructure means 
to another. It is absolutely fantastic.
    They can ask the question as to what if somebody took down 
these three dams? What would the effect on our utility system 
be? All they do is talk to the super-computers. It will tell 
you how much energy was lost in America, where the shortcomings 
are because of the loss. It tells all of the pipelines in 
America, all of the dams, dikes, and all of the utility 
companies.
    The chairman was kind enough, in the last appropriation 
bill, to put $20 million, at my request, into making this tool 
available for use. You now have followed suit and asked for its 
continuation but you left it in the Department of Energy.
    It does not matter to me where it is. I am of the opinion 
that it has to become available and used by many people in this 
country. I imagine it already is.
    Companies, businesses, America's defense establishment 
would all be wondering: ``What would happen if, in fact, the 
terrorists took down''--and then you could talk about it and 
that machine will tell you. Now, if it is in the Department of 
Energy, how will it be made available to the Homeland Defense 
people? Could you discuss that? That worries me a lot.
    Secretary Abraham. Well, you know, it is an interesting 
history. When I visited the labs last year before 9/11, this 
was one of the particularly interesting parts of my tour. And, 
of course, we were not thinking about it in the context of a 
terrorist attack on part of infrastructure. We were actually 
looking at it at that time in terms of problems they were 
having in California with electricity generation.
    Senator Domenici. Right.
    Secretary Abraham. They showed us a little simulation of, 
if there was a blackout in a certain part of California, what 
it might do to other infrastructure in that region, how it 
would affect a water program or whatever. After 9/11, we had an 
even greater appreciation of that program. In fact, a couple 
of--about a--I cannot remember the exact date, but subsequent 
to his appointment, Tom Ridge, our Homeland Security Director, 
actually came over to the Department, and we brought that 
capability in as part of a demonstration to him of some of the 
tools that he could call upon, and he has called upon.
    So we are making that available and look forward to doing 
so. Obviously, there are some security limitations that would 
be invoked if the end use was--depending on who the end user 
might be. But we are doing that. And he is both aware of it 
and, I think, very supportive of it, because he recognized 
immediately the benefits it brings.
    Senator Domenici. Well, I want to just close by saying in 
my opinion, subject to some thinking in terms of national 
security, how much of this information should be available? I 
think almost all of it. I believe it ought to become a user 
tool, a tool for users in the United States, and not be 
something that is hidden in some laboratory. It ought to be 
made available to anyone that needs it on some kind of a user 
basis that makes sense. It would be a very dramatic asset for 
America.
    Thank you, Mr. Chairman.
    Senator Byrd. Thank you, Senator.

                           HOMELAND SECURITY

    Mr. Secretary, reference has been made to homeland security 
here. The full committee is going to conduct hearings on 
homeland security and the need for appropriations therefore. 
And you will be invited to appear before the full committee at 
that time. So we will be looking forward to having your advice 
in those connections.
    Secretary Abraham. Thank you.

                    FOSSIL ENERGY PROGRAM DIRECTION

    Senator Byrd. Closely related to the issue of cutting 
research dollars is the administration's proposal to cut back 
on the number of scientists, engineers, and support staff who 
conduct that research. Many of those talented, dedicated 
professionals work at the National Energy and Technology 
Laboratory headquartered in Morgantown, West Virginia. And I am 
proud of the long history of quality work produced by the 
Morgantown lab.
    And I know that its existence has brought great benefits to 
the Nation and to my State of West Virginia. Consequently, I am 
concerned when any effort is made to reduce the work force at 
the Morgantown lab and its sister facility in Pittsburgh.
    For the Office of Fossil Energy, the administration has 
proposed $89.5 million in salaries and expenses, referred to as 
program direction funds for fiscal year 2003. That compares to 
an enacted level of $90.3 million. That would appear to be a 
cut of some $800,000. But my concern is that the budget 
includes, within the $89.5 million request, $14 million that 
the Congress has already appropriated for salaries. And these 
are for people who are working in ongoing jobs, that have been 
requiring salaries for a long, long time.
    In short, the $14 million is being double counted. And as a 
result, the actual request is not $800,000 less than the budget 
makes it appear, but $14.8 million less than what was enacted 
in fiscal year 2002. And that translates into a loss of 150 
jobs in Morgantown and Pittsburgh.
    Would you care to comment? You and I have discussed this 
recently, and you know of my concern about it, and also our 
intention to see that the matter is corrected.
    Secretary Abraham. Right. You and I have discussed this. 
You, in fact, drew my attention of the issues as to the 
redirection there and the--you know, we are trying to, within 
the constraints of our budget, provide as much support to these 
programs and program direction as we can. But that is a vital 
area. And we have had to make some tough decisions.
    I was, however, concerned about this one and have asked our 
team to give me an update on the implications of that $14 
million reduction so that I can better assess where we go from 
here.
    Senator Byrd. Yes. Well--where is that document? Just so 
that the record will show--the budget document shows that for 
fiscal year 2002, it shows the figure $90.373 million. For 
fiscal year 2003 it shows $89 million, $89,550,000.
    But the document also in a footnote says, if the CCT 
program direction, meaning Clean Coal Technology Program 
direction, were included in fiscal year 2001, the total would 
be $98,098,000 and would show for fiscal year 2002 
$104,373,000. So this is clearly acknowledged by the document 
itself. So I am going to, working with Senator Burns, I am 
going to see that this account is straightened out and that the 
salary situation is corrected.
    Having discussed this with you, you do recognize what the 
document says. And it clearly reveals that $14 million is, in 
effect, being counted twice.
    Secretary Abraham. You have brought that to my attention, 
Senator, and I acknowledge it.
    Senator Byrd. I thank the Secretary. So Mr. Burns and I 
will see that the account is straightened out, working with 
you, and that the salary situation is corrected. I guess my 
question to you is this: Would you agree that if the chairman 
and ranking member can find additional funding for the Office 
of Fossil Energy, the program direction account is one of the, 
if not highest priorities for where that funding should be, is 
one of the highest, if not the highest priority, for which that 
funding can be put?
    Secretary Abraham. Certainly, it would be, yes.

                 NATIONAL ENERGY TECHNOLOGY LABORATORY

    Senator Byrd. Last fall the Congress included $11 million 
in the Fiscal Year 2002 Interior Appropriations Act for 
planning and design of various plant and equipment improvements 
at the National Energy Technology Laboratory. The renovation 
project, which is expected to take approximately 7 years, will 
update and improve the research facilities available to the men 
and the women who work at the Nation's premier fossil energy 
lab.
    Along with the funding, the statement of managers, which 
accompanied the conference support, directed the Department to 
include funding for the renovation project in its base budget 
for each of the next 6 years. Despite that additional funding 
for the project--despite that, additional funding for the 
project was not requested in the fiscal year 2003 budget.
    I am aware that the Morgantown facility has some hurdles to 
clear with respect to the purchase of property next to the 
current lab, but those negotiations, I am informed, are ongoing 
and should not slow down the overall project. Aside from that, 
I am concerned that the Department did not seek additional 
funding this year in an effort to keep the project on track. As 
I understand it, Energy Department regulations required that 
all construction funds be in hand before work can go forward.
    Would you please tell the subcommittee, Mr. Secretary, the 
status of the $11 million provided for planning and design in 
the fiscal year 2002 appropriations bill?
    Secretary Abraham. My understanding, Senator, is that at 
this point, approximately $3 million has already been expended 
since the 2002 budget was enacted, on-site preparation and 
demolition or relocation of structures. The allocation of the 
$11 million breaks up into a number of categories.
    About $1.5 million of the $11 million will be spent this 
year on design and construction of two new combined office and 
lab buildings, $3.5 million on site preparation, the monies 
that I think have already begun to be employed, $5 million on 
renovation of existing labs.
    The land purchase that you mentioned, we have estimated to 
be approximately a half million dollars, but those negotiations 
seem not to be completed. And then another approximately half 
million of the $11 million is in the category of repairing and 
replacing or relocating existing guard house, walkways, roads, 
and so on. My understanding is that the technology lab is 
projecting that all $11 million will have been spent or 
obligated to contracts this year.
    As far as the construction issue and the requirement of all 
the money being in hand, I have asked, in follow-up to 
conversations that we have had, for a ruling on that. Because 
it did not seem, when it was brought to my attention, to be 
consistent with my understanding of the needs. And so I have 
asked our shop, our budget shop, and legal counsel shop to 
clarify that so I would know whether or not that is a 
prerequisite.
    The issue that you raise with respect to the 2003 
submission, as I have talked to our budget folks, the concern 
and the reason that there was not money included in the 
submission was because, until the--it is my understanding at 
least that until the additional land purchase has been 
accomplished--and apparently there have been some problems--
that it is--it limits significantly what could be done in 2003, 
in the 2003 fiscal year. But I have asked for an update on that 
as well.
    Senator Byrd. Mr. Secretary, I think it is important that 
the money show up in the 2003 bill. Can we count on your 
support, if the Congress were to provide the second installment 
of the renovation funding in the fiscal year 2003 
appropriation?
    Secretary Abraham. Well, if it is--obviously, I cannot 
support the expansion of the overall budget. But obviously, if, 
in the allocations between the committees, there were more 
money in this committee or the subcommittee for this type of 
program, we support the lab. Let me just say we support the 
project. And subject to the concerns that I just mentioned, we 
wish to go forward with you.
    Senator Byrd. Very well. Let me repeat. I am concerned that 
the Department did not seek additional funding this year in an 
effort to keep this project on track. And as I have indicated, 
Energy Department regulations require that all construction 
funding be in hand before work can go forward. That is the 
basis of our concern here. So we will discuss this through our 
staffs further and see where we go from there.

                         CONGRESSIONAL EARMARKS

    Have the fossil energy earmarks from the Fiscal Year 2002 
Appropriations Act been released? Now, Senator Cochran touched 
upon this earlier, but I wanted to have this question in the 
record. So if you would respond, please.
    Secretary Abraham. I would be happy to provide for the 
record a detailing of monies released to date. Let me just give 
you kind of a general statement of our approach. I committed to 
the committee last year that we would support and fund the 
congressional earmarks. As the committee knows, there are 
certain prerequisites that have to be established.
    I mean, the one I mentioned with respect to demonstration 
projects, that there is an agreement that there has been the 
appropriate cost share accomplished, things of that sort.
    But my understanding is most of the programs have already 
begun moving forward with funding, even though we are still in 
the first portion of the fiscal year. And we intend working 
with the projects to complete them. We are doing our best to 
accomplish both the goal of fulfilling Congress's interest in 
seeing these projects funded and also being accountable to you 
on the accurate and successful performance of these programs. 
So, one of the things which I have done on an across-the-board 
basis in the Department is to make sure that we monitor the 
progress.
    But that does not mean that the money is not going out. It 
just means that we are also trying to do a better job of 
accounting for the programs themselves. But we will provide you 
with an up-to-date list. I may have one here even today. In the 
amount of material we have been bringing with us to these 
hearings, I cannot find it at this time. But I think that there 
has been a substantial forward progress across the board.
    [The information follows:]
  Status of Fiscal Year 2002 Earmarks--Interior and Related Agencies 
                             Appropriation
    For Fossil Energy, all projects have been awarded and work is 
underway. Following is a list of Office of Fossil Energy earmarks:

                        [In millions of dollars]

Ramgen Technology novel turbine engine............................   3.0
Wilsonville Power Systems Development Facility....................   4.0
La Porte Alternative Fuels Development Unit.......................   3.5
U of AK, Clean Diesel Fuel Program................................   1.0
Arctic Energy Technology Center...................................   3.0
National Energy Technology Laboratory.............................  11.5
Ceramic Membrane program (w/syngas)...............................   3.7

    For Energy Conservation, work is underway. Following is a list of 
Office of Energy Efficiency and Renewal Energy earmarks:
  --Thermo-Mechanical Processing Project, $2.0 million (working with 
        the recipient to finalize the project's Statement of Work).
  --Northwest Alliance for Transportation Technologies, $4.6 million 
        ($3.2 million has been provided to date and additional funding 
        will be provided in May 2002).

    Senator Byrd. Very well, Mr. Secretary.
    Mr. Burns, do you have anything further?
    Senator Burns. I have one question, and then I think that 
just about completes everything. I do have some more, but we 
can submit those in our usual negotiations.

           COORDINATION WITH ENVIRONMENTAL PROTECTION AGENCY

    Last year, Mr. Secretary, I raised the issue with you of 
the coordination between the Department of Energy and the 
Environmental Protection Agency, as it relates to the ongoing 
R&D performed by the Department. We have, at times, heard 
complaints that the EPA regulations do not adequately factor 
the linkages between different pollutants and emissions, or 
that they do not recognize the path of technology development 
in certain industries. I think there was a little squabble 
going on between the Department and EPA.
    What has the administration done in the last year to ensure 
that EPA acknowledges and factors into the regulatory program 
the results of the DOE research?
    Secretary Abraham. Well----
    Senator Burns. Some of our research was just absolutely 
turned down by the EPA.
    Secretary Abraham. Right. And let me say that I think that, 
contrary to some press reports that would sort of create an 
impression of major conflicts between the agencies, we have 
worked together on a variety of very significant issues from 
climate change issues to issues that relate to the multi-
pollutant legislation, the Clear Skies Initiative that the 
President offered to the National Energy Plan to an ongoing 
project, which was called for by the National Energy Plan on 
new source review.
    You know we, in some cases, have had, in these discussions, 
two different analyses, the DOE analysis and the EPA analysis. 
And where there have been--in fact, on a number of occasions 
where there has been a disagreement because the analyses are 
different, the projections are different, we have actually had 
meetings where we have brought both the experts who produced 
the analysis and, in some cases, senior members of each, the 
Department and the agency, to present them to the larger groups 
that we were working with.
    And I think it has worked pretty well. That does not mean 
we always agree with each other's analysis. But I think that 
the Department of Energy's analysis is getting a fair hearing 
in those meetings.
    Senator Burns. Well, peer review is very important. And I 
also sit on the other appropriations subcommittee that has to 
do with EPA. And I plan to ask them the same question, by the 
way. We just need to--we can disagree and we all get to a 
different answer when it comes to bottom line. But just to 
disregard the work that is being done by the DOE out of hand 
was concerning to me. And so I aim to pursue that, along with 
the EPA, whenever they come before our subcommittee.
    And I thank you for coming today. These are things that 
hold up R&D. And I just think we are in a time when R&D becomes 
very, very important. And I thank the chairman for his 
patience.
    Senator Byrd. I thank the distinguished Senator.
    Mr. Secretary, I think we have had a good hearing. On 
behalf of the subcommittee, I commend you for the work you are 
doing and thank you for your responses to the subcommittee's 
inquiries and for our continuing cooperation through our 
staffs.
    I want to thank the staffs on both sides of the aisle up 
here.
    And also, I want to express my gratitude to the 
distinguished ranking member for his many courtesies, his 
always cooperative attitude, and for the other traits for which 
he is so well known. I am sure----
    Senator Burns. That cannot be discussed at this hearing.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Byrd. Thank you very much. There will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Robert C. Byrd
                        clean coal solicitation
    Question. The Department of Energy recently issued a request for 
proposal (RFP) inviting industry to submit clean coal technology 
applications for the Clean Coal Power Initiative. If Congress approves 
the President's fiscal year 2003 budget request, a total of $330 
million will be made available by the Department of Energy to cost-
share in the selected clean coal projects to be proposed by industry. 
Prior to issuance of the DOE's solicitation on March 4, 2002, a draft 
solicitation document was issued and industry's comments requested. The 
draft solicitation proposed that industry repay the government's entire 
contribution to a selected clean coal project if the government is 
requested to provide fifty percent of the costs of the clean coal 
project. If industry requested a government contribution of twenty-five 
percent or less, then no repayment of the government share would be 
required by industry. Also, the DOE originally proposed that some 
portion of the government's cost share would need to be repaid when 
that contribution was greater than 25 percent but less than 50 percent. 
Industry widely endorsed this proposed repayment scheme. Congress 
anticipated the need for a flexible repayment requirement by giving the 
Department the authority to require less than full repayment of the 
government's contribution. Notwithstanding recognition by the Congress 
that repayment is not necessary in all instances, and even though the 
Department originally proposed a flexible repayment plan, the final RFP 
issued by the DOE on March 4 requires that the government's 
contribution, no matter what the amount, must be repaid. Under the 
original proposal, there was a built in mechanism for an applicant to 
seek the minimum amount of cost sharing. Minimizing cost-sharing from 
the government maximizes industry's commitment, increases industry's 
burden to insure that the project is successful, and increases the 
amount of government funds available for more projects. Why, Mr. 
Secretary, did the Department reverse itself?
    Answer. In all approaches considered by the Department, repayment 
of the Federal investment and a minimum of fifty percent cost sharing 
was always mandatory. The Department did consider alternative repayment 
approaches before finalizing the approach contained in the Clean Coal 
Power Initiative (CCPI) solicitation, which is consistent with the 
repayment strategy pursued in the Power Plant Improvement Initiative 
(PPII) and the original Clean Coal Technology Demonstration program.
               clean energy technology exports initiative
    Question. Mr. Secretary, the United States is an international 
leader in the development of a wide range of clean energy technologies. 
I have been very interested in exploring ways for the United States to 
take the technologies developed in our laboratories and export them to 
other countries. The clean energy policies and technologies that are 
adopted today will have a profound influence on the shape of global 
energy system for many decades to come. This is a tremendous 
opportunity that cannot and should not be ignored. Therefore, over a 
year ago, I initiated the Clean Energy Technology Exports Initiative, 
an effort to open and expand international energy markets and increase 
U.S. clean energy technology exports to countries around the world. 
This commonsense approach can simultaneously improve economic and job 
opportunities at home, while providing developing and transitional 
countries with much-needed technologies, infrastructure, and other 
assistance to address their energy, environment, and climate change 
challenges. Is this something that the Administration supports?
    Answer. The Administration is supportive of efforts to increase 
exports of clean energy technologies developed in the United States. 
This support has been expressed in the National Energy Policy Document 
and in the supporting documentation on the President's June 11 speech 
on Climate Change before his initial visit with European leaders. Once 
the CETE Working Group is formally established and CETE projects are 
identified, it will be possible to better focus our activities directed 
toward the initiative.
    Question. If so, how are you working to make it a reality?
    Answer. Currently, the 5-year strategic plan of the CETE Initiative 
is nearing completion with eight of the nine participating agencies 
having concurred in the document. Release of the strategic plan is 
expected after final clearance by the Executive Office of the 
President. Once the strategic plan is completed, the CETE working group 
will be established at a political level on an interagency basis. This 
group will approve CETE program activities, approve the framework for 
assessing program performance, commit agency resources in support of 
CETE, coordinate agency budget requests and uses, and submit the 
required annual report to Congress.
                          gas hydrates program
    Question. Mr. Secretary, you have been quoted as saying that 
``Science programs will emphasize the most significant national 
priorities--to find sources of energy.'' Well, it seems to me that 
Fossil Energy's Gas Hydrates Program fits the bill--the program is a 
perfect example of long-term, high-risk very high payoff R&D that 
industry won't undertake entirely on its own. If only 1 percent of the 
gas located in hydrates could be produced, the United States would more 
than double its natural gas resource base. Why have you chosen to 
decrease the funding for this potentially major source of energy by 54 
percent ?
    Answer. The Department had some very difficult decisions to make 
when considering the fiscal year 2003 budget request. Several areas 
required funding to address urgent needs causing some other programs to 
receive less than full support. The Office of Fossil Energy is 
undergoing a review, which will hold programs in place pending final 
review.
    The methane hydrate program is a unique program with unprecedented 
cooperation between multiple federal agencies including DOE, MMS, NOAA, 
NSF, USGS, and the Naval Research Lab (NRL). DOE's program is targeting 
hydrate issues such as resource characterization and safety and 
seafloor stability that significantly impact hydrates in the Gulf of 
Mexico and Alaska. The safety and seafloor stability issue in the Gulf 
of Mexico is related to access of conventional oil and gas resources 
that occur below or around hydrate deposits. The momentum gained over 
the past two years will be significantly reduced at the requested 
funding level. We maintain our enthusiasm for the program and feel that 
this research is of the utmost importance for the long-term security of 
domestic natural gas supply.
    Question. What criteria and methodology did you use to come to that 
reduction?
    Answer. Methane hydrates pose a potentially significant risk to 
conventional oil and gas recovery operations in the Gulf of Mexico. 
Tools are needed to better locate hydrate deposits and to deal with 
them during conventional production. The gas found in methane hydrates 
is potentially the largest source of hydrocarbon in the world.
    A nationally coordinated program, complete with an industry/
academia advisory panel and an interagency task force was commended in 
fiscal year 2001. Continuation of this collaborative program will 
require substantial resources. A Joint Industry Program has been formed 
to look at safety and seafloor stability issues in the Gulf of Mexico. 
In addition, two projects in Alaska will further characterize the 
resource and determine if hydrate deposits in the Arctic are sufficient 
to yield economically producible natural gas. The collaboration in the 
hydrates program between multiple federal agencies, national labs, 
industry, and academia is unprecedented. Some projects will be delayed 
pending Fossil Energy review.
   natural gas infrastructure program transfer to the department of 
                             transportation
    Question. The Natural Gas Infrastructure Program, managed by Fossil 
Energy, was transferred to the Department of Transportation's Office of 
Pipeline Safety. At a hearing before the House Interior Subcommittee on 
February 28, your Assistant Secretary for Fossil Energy stated, 
``Similar projects are also conducted by OPS. Given the nature of OPS' 
safety regulatory mission and related performance goal needs, this 
critical activity is best situated at DOT.'' Mr. Secretary: As you 
know, OPS focuses on safety and regulatory oversight of the interstate 
liquid and natural gas pipeline system. And they have no experience 
with R&D for natural gas storage technologies. By way of contrast, your 
own Fossil Energy program is experienced in conducting all manner of 
natural gas R&D, just last year received its first funding for 
infrastructure R&D, and is currently managing 31 cost-shared R&D 
projects with industry. Mr. Secretary, why are you allowing the Natural 
Gas Infrastructure Program to be transferred from the Energy Department 
to the Department of Transportation?
    Answer. As you note, this funding first allocated to Department of 
Energy (DOE) last year, yet the Department of Transportation's Office 
of Pipeline Safety (OPS) has been engaged in this activity for over a 
decade. OPS and DOE have both been pursuing new methods of damage 
prevention and leak detection. OPS safety research program is funded 
from industry user fees while the DOE natural gas infrastructure 
reliability research program is funded by the taxpayer. In order to 
lower spending, improve the efficiency of government, and avoid 
duplication of R&D activity, the transfer of the DOE natural gas 
infrastructure reliability research program to the Department of 
Transportation is recommended.
    Question. How does the public benefit from the transfer of this 
research program from a research to a regulatory agency?
    Answer. The Department of Transportation, Office of Pipeline Safety 
(OPS) has a safety and regulatory oversight mission and regulates 
approximately 2.2 million miles of interstate liquid and natural gas 
pipeline systems. Since 1990, OPS has been sponsoring safety research 
funded from industry user fees. The Administration believes that the 
public is better served from research funded from user fees than from 
research subsidized by taxpayers through Congressional appropriations.
                               fuel cells
    Question. I understand that you have announced a new program called 
the Freedom CAR to develop hydrogen fueled fuel cells for automobiles 
and that the executives of Ford, General Motors and DaimlerChrysler 
helped announce this new cooperative automotive research partnership. I 
also understand that President Bush recently met with the President of 
UTC Fuel Cells and espoused the advantages of fuel cells. Given that 
Fossil Energy has long had a very successful fuel cell program--and 
that UTC Fuel Cells was a result of their efforts--and that hydrogen is 
likely to come from fossil fuels, such as coal and natural gas, what 
role will the Fossil Energy Program play in the FreedomCAR initiative?
    Answer. Fossil Energy will not be directly involved in the 
FreedomCAR initiative. However, we expect considerable synergy, and the 
fuel cell activities within DOE will continue to be very closely 
coordinated. We agree that, at least initially, hydrogen is likely to 
come from fossil fuels and we expect that the Solid State Energy 
Alliance (SECA) Fuel Cell Program could provide a bridge, beginning 
with stationary applications, to a hydrogen economy. The SECA Program 
will provide a common platform that permits the use of the same core 
module for multiple applications in stationary, transportation 
(auxiliary power), and military sectors. Through mass customization, 
multiple markets can be reached simultaneously, increasing the 
production volume necessary for lower costs and wide application of the 
fuel cell technology. This simultaneous production is the way around 
the high cost impasse that fuel cells currently face. Stationary 
applications are expected to lead the market introduction of fuel cells 
and lower the costs, facilitating very low capital cost transportation 
applications. We also expect that early transportation applications 
will help lower costs for some stationary applications.
    Question. Given the fact that fuel cells have been given so much 
emphasis, and that the initial application of fuel cells is likely to 
be for stationary power, why did you reduce Fossil Energy's fiscal year 
2003 funding for fuel cells by almost 20 percent?
    Answer. We share your view regarding the importance and value of 
fuel cells and we are in the process of shifting resources to place 
more emphasis on the fuel cell program that is expected to achieve our 
goals for affordable fuel cells. The $47 million funding requested for 
fiscal year 2003 is a slight increase from our request last year. The 
reduced funding for near-term molten carbonate and solid oxide systems 
is adequate to allow the timely completion of those programs in fiscal 
year 2003. The funding request for the SECA program, which builds on 
advancements in core fuel cell R&D conducted over the past 20 years, is 
$22.5 million for fiscal year 2003. This will allow work to proceed on 
schedule for two industrial teams and the associated core technology 
development. We believe this is reasonable given Fossil Energy's 
program priorities and fiscal constraints.
    Question. Why is the FreedomCAR initiative not considered 
``corporate welfare'' when the fiscal year 2003 budget request seems to 
cast all Fossil Energy Programs as ``corporate welfare''?
    Answer. The Department has structured the FreedomCAR Partnership to 
ensure that federal funds are spent appropriately. In fact, our 
FreedomCAR partners, the automakers, will receive very little 
government funding. In the last year of the previous effort (The 
Partnership for a New Generation of Vehicles--PNGV), less than 1 
percent of Federal funding went to the automakers. In reality, the 
industry partners' spending on technologies of joint interest has 
greatly exceeded government spending. We certainly expect that this 
will continue to be the case. We recognize that PNGV's vehicle-based 
performance metrics gave the impression that the government was 
subsidizing product development. The FreedomCAR Partnership will have a 
clearly defined ``technology'' focus and this, coupled with limited 
funding to the automakers, should alleviate any concerns regarding 
corporate welfare.
                               freedomcar
    Question. The Administration has proposed a new research and 
development program to produce an advanced, ultra-clean vehicle in the 
future, FreedomCAR. The previous program, the Partnership for a New 
Generation of Vehicles, invested much effort in the development of a 
broad range of component technologies, including making stronger, 
lighter weight materials from steel. The Administration has proposed 
$150 million for the FreedomCAR program but has also reduced funding by 
over $6 million for lightweight materials technology research and 
development, a 38 percent cut. Will steel and other industries have 
continued opportunity to participate in this program or will their 
involvement be phased out to concentrate on the development of the fuel 
cell platform?
    Answer. Lower priority has been assigned to continued support for 
R&D on metals (i.e., steels, aluminum), primarily because prior R&D has 
helped bring many lightweight metals technologies to the point of being 
commercially competitive. There is a strong constituency in industry to 
carry these results forward toward use in production vehicles. 
FreedomCAR will continue significant lightweight materials R&D, but 
will shift resources towards longer range, groundbreaking technologies 
such as carbon fiber materials and more exotic metals such as titanium 
and magnesium.
                             weatherization
    Question. Please provide information, for the record, on 
weatherization activities in West Virginia, including the number of 
weatherized homes to date and the schedule for releasing fiscal year 
2002 money.
    Answer. Through Program Year 2000, the State of West Virginia has 
been awarded more than $56 million in DOE funds and together with 
leveraged funds, has weatherized more than 58,000 low-income homes. The 
State of West Virginia's grant for Program Year 2002 is $3,251,749 
which will weatherize approximately 1,200 low-income homes. The West 
Virginia Weatherization State Plan for Program Year 2002 was submitted 
to the DOE Philadelphia Regional Office on January 17, 2002 for review. 
The review was conducted and the plan approved by the Regional Office 
on Feb 10, 2002. As of this writing, the West Virginia award is 
imminent.
    Question. In addition, please provide an update about the progress 
of spending fiscal year 2002 funds nationwide.
    Answer. The Weatherization Assistance Program Year 2002 will begin 
for 31 States on April 1, 2002, the remaining 19 States on July 1, 
2002, and the District of Columbia on September 1, 2002. Eleven States 
have submitted applications to DOE for approval to begin their programs 
prior to the start of their regular program year in order to ramp up to 
meet this year's goals. DOE is in the process of reviewing and 
approving State plans for Program Year 2002. The production of units 
and the expenditure of funds are reported to DOE on a quarterly basis. 
An update on the progress of spending fiscal year 2002 funds for all 
States will not be available until October 2002 at the earliest. DOE 
will conduct a careful review of States' progress on meeting the 
production goals stated in the fiscal year 2002 Budget and the 
expenditure of the additional $77 million appropriated for fiscal year 
2002.
                  energy efficiency science initiative
    Question. The Committee directed the Department of Energy to make 
50 percent of the funds available for the Energy Efficiency Science 
Initiative to the Fossil Energy R&D account in fiscal year 2002 and all 
future years. Since the Administration proposes to eliminate the Energy 
Efficiency Science Initiative, what effect will this have on ongoing 
programs within fossil energy?
    Answer. In fiscal year 2002, Congress appropriated $12 million for 
the Energy Efficiency Science Initiative. Further, it directed that of 
this amount, 50 percent ($6 million) was to be made available to Fossil 
Energy Research and Development (FE R&D) and 50 percent ($6 million) to 
Energy Efficiency and Renewable Energy (EE).
    Presently, a joint FE/EE solicitation, which is being coordinated 
with the Office of Science, is being prepared. It is planned to be 
issued in late fiscal year 2002. It will seek proposals covering 
fundamental research topics that are of interest to both FE and EE.
    The funds will support research projects that are in addition to 
those currently being pursued under the present FE R&D Program. 
Therefore, elimination of this initiative should not adversely affect 
ongoing R&D activities.
  energy conservation r&d budget cuts--contracts reduced or terminated
    Question. The Administration proposes a $52 million decrease for 
R&D programs within the Office of Energy Efficiency and Renewable 
Energy for energy conservation. Please provide a list of R&D contracts 
that will be reduced or terminated as a result of this cut.
    Answer. Within Energy Efficiency's proposed fiscal year 2003 
budget, we are aware of 49 individual R&D contracts that would receive 
reduced funding as a result of budget reductions relative to fiscal 
year 2002. About half of those contracts would be ended in fiscal year 
2002. These reductions reflect an assessment against the R&D Investment 
Criteria of research activities in areas such as building equipment, 
materials and tools, micro-turbines, electric vehicles, petroleum 
refining processes, and vehicle materials. For example, some R&D 
activities are ready to be ``graduated'' industry, and some cannot make 
a strong case that a Federal role is appropriate, regardless of the 
stage of development.
    The table below, and on the following three pages, provides the 
details of the projects that will be affected:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                 Reduction                  Contract to
            Sub-program                    Primary cont.          Title/subject of         Contract number        from FY      Contract      end in FY
                                                                      contract                                   2002 ($K)   ended (Y/N)?   2002 (Y/N)?
--------------------------------------------------------------------------------------------------------------------------------------------------------
Buildings:
    Equip.Materials, & Tools......  PNN L.....................  Appliances and        22475/RL01830............       $150  N............  N
                                                                 Emerging
                                                                 Technologies R&D--
                                                                 Expand subCFL.
    Equip.Materials,& Tools.......  ORNL......................  Appliances and        OR22725..................        179  N............  N
                                                                 Emerging Technology
                                                                 R&D--HPWH national
                                                                 demonstration.
    Equip.Materials,& Tools.......  LBNL......................  Analysis Tools and    4746/SF00098.............        100  Y............  N
                                                                 Design Strategies--
                                                                 Building Design
                                                                 Advisor.
    Equip. Materials, & Tools.....  NIST......................  Analysis Tools and    IAA......................         50  Y............  N
                                                                 Design Strategies--
                                                                 EnergyPlus/CONTAMW
                                                                 Link.
    Equip. Materials, & Tools.....  NETL......................  Analysis Tools and    na.......................        100  Y............  N
                                                                 Design Strategies--
                                                                 EnergyPlus: New
                                                                 module development.
    Equip. Materials, & Tools.....  LBNL......................  Analysis Tools and    4746/SF00098.............        250  Y............  N
                                                                 Design Strategies--
                                                                 SPARK Development.
    Equip. Materials, & Tools.....  NETL......................  Field Testing,        na.......................      1,229  Y............  N
                                                                 ASHRAE co-funding,
                                                                 ARTI co-funding,
                                                                 duct testing, space
                                                                 conditioning
                                                                 existing buildings.
    Equip. Materials, & Tools.....  ORNL......................  Refrigeration--Comme  OR22725..................      1,471  Y............  N
                                                                 rcial refrigeration
                                                                 R&D.
    Technology Road Maps &          NETL......................  Competitive R&D       TBD......................      6,000  Y............  N
     Competitive R&D.                                            Solicitation.
    Equip. Materials, & Tools.....  ASE.......................  Energy Efficient      na.......................        135  N............  N
                                                                 Window
                                                                 Collaborative.
    Equip. Materials, & Tools.....  NETL......................  Market                na.......................        128  N............  N
                                                                 Characterization,
                                                                 Planning and
                                                                 Analysis.
    Equip. Materials, & Tools.....  U. of Minn................  Windows and           GO1 0225.................        110  N............  N
                                                                 Glazings--Commercia
                                                                 l building
                                                                 guidelines &
                                                                 research; and 2nd
                                                                 edition Residential
                                                                 window.
    Equip.Materials,& Tools.......  NFR C.....................  Windows and           SF19011..................        150  N............  N
                                                                 Glazings--Develop
                                                                 and implement EPACT
                                                                 window and rating
                                                                 program.
    Equip. Materials, & Tools.....  FSEC......................  Windows and           GO10225..................         80  N............  N
                                                                 Glazings--Develop
                                                                 and implement EPACT
                                                                 window and rating
                                                                 program.
    Equip. Materials, & Tools.....  NREL......................  Windows and           0910541/GO10337..........        110  N............  N
                                                                 Glazings--Electroch
                                                                 romic durability
                                                                 research, test &
                                                                 evaluation, and
                                                                 standards..
    Equip. Materials, & Tools.....  PNNL......................  Windows and           RL01830..................         20  N............  N
                                                                 Glazings--Harmoniza
                                                                 tion of performance
                                                                 standards;
                                                                 technical
                                                                 cooperation.
    Equip, Materials, & Tools.....  U. of Mass................  Windows and           CH10604..................         55  N............  N
                                                                 Glazings--Thermal
                                                                 performance
                                                                 advanced research--
                                                                 3D FEA; ISO/NFRC
                                                                 coordination.
    Equip, Materials, & Tools.....  ORNL......................  Windows and           OR2 2725.................         60  N............  N
                                                                 Glazings--Thermal
                                                                 testing research--
                                                                 support NFRC/
                                                                 industry rating
                                                                 programs; ISO
                                                                 harmon.
    Equip, Materials, & Tools.....  ORNL......................  Crosscuting Research  OR22725..................        130  N............  N
    Equip, Materials, & Tools.....  LBNL......................  Windows and Glazings  SF00098..................      1,622  N............  N
                                                                 Research--Lead Lab.
    Equip, Materials, & Tools.....  ORNL......................  Building America      CEEW314/OR22725..........        314  Y............  N
                                                                 Support.
    Equip, Materials, & Tools.....  ORNL......................  Non HCFC Closed Cell  CEE W214.................        150  Y............  N
                                                                 Foam Insulation.
    Equip, Materials, & Tools.....  NETL......................  Competitive           TBD......................      2,000  Y............  N
                                                                 Solicitation.
    Equip, Materials, & Tools.....  ORNL......................  Commercial Roofing    CEEW314/OR22725..........        150  Y............  N
                                                                 Systems.
    Equip, Materials, & Tools.....  ORNL......................  Industry              CEEW314/OR22725..........        986  Y............  N
                                                                 Partnerships,
                                                                 Subambient Piping
                                                                 System, Insulation
                                                                 Systems, Tech
                                                                 Transfer, Roadmaps.
    Equip, Materials, & Tools.....  NIST......................  Wind Control for      IAA......................        100  Y............  N
                                                                 Energy Efficiency.
                                                                                                                -----------
      Subtotal Buildings..........    ........................    ..................    .......................     15,829    ...........
                                                                                                                ===========
Power Technologies:
    Microturbines.................  Ingersoll Rand............  Advanced              CH11059..................        400  N............  N
                                                                 Microturbine System
                                                                 Development.
    Microturbines.................  Solar Turbines Inc........  Advanced              CH11062..................        500  Y............  N
                                                                 Microturbine System
                                                                 Development.
    Microturbines.................  GE Corporate R&D..........  Advanced              CH11063..................        600  N............  N
                                                                 Microturbine System
                                                                 Development.
    Microturbines.................  Capstone Turbine Corp.....  Advanced              CH11058..................      1,000  N............  N
                                                                 Microturbine System
                                                                 Development.
    Microturbines.................  United Technologies         Advanced              CH11060..................      1,000  N............  N
                                     Research Ctr.               Microturbine System
                                                                 Development.
    Microturbines.................  Honeywell Power Systems...  Advanced              CH11061..................        500  Y............  N
                                                                 Microturbine System
                                                                 Development.
    Reciprocating Engines.........  Cummins Engine Co. Inc....  Advanced              CH11078..................        200  N............  N
                                                                 Reciprocating
                                                                 Engine System
                                                                 Development.
    Reciprocating Engines.........  Caterpillar Inc...........  Advanced              CH11079..................        200  N............  N
                                                                 Reciprocating
                                                                 Engine System
                                                                 Development.
    Reciprocating Engines.........  Waukesha Engine Div.......  Advanced              CH11080..................        200  N............  N
                                                                 Reciprocating
                                                                 Engine System.
    Reciprocating Engines.........  NETL......................  Advanced              300......................          N  N............
                                                                 Reciprocating
                                                                 Engine System
                                                                 Support.
                                                                                                                -----------
      Subtotal Power Technologies.    ........................    ..................    .......................      4,900    ...........
                                                                                                                ===========
Industry:
    Petroleum.....................  Davidson..................  Global On-Stream      DE-FC07-01ID13997........        353  Y............  N
                                                                 Inspection.
    Petroleum.....................  Colorado Sch. of Mines....  Energy Savings        DE-FC07-01ID13998........        275  Y............  N
                                                                 Separations.
    Petroleum.....................  Onix......................  Micro-GC Controller.  FC07-01ID13999...........         50  Y............  N
    Petroleum.....................  Sandia Labs...............  Hydrocarbon Leak      M0ID280..................        185  Y............  Y
                                                                 Detector.
                                                                                                                -----------
      Subtotal Industry...........    ........................    ..................    .......................        863    ...........
                                                                                                                ===========
Transportation:
    Advanced Pwr. Elect...........  Semikron..................  Automotive            EE50602..................        500  N............  N
                                                                 Integrated Power
                                                                 Module Development.
    Propulsion Materials            ORNL-sub to Industrial      Microwave             .........................        350  N............  N
     Technology.                     Ceramics Solutions.         Regenerated Diesel
                                                                 Exhaust Particulate
                                                                 Filter.
    Combustion and Emission         Detroit Diesel Corp.......  Emission Control      EE50575..................      2,000  Y............  N
     Control.                                                    Subsystem
                                                                 Development.
    Lightweight Materials           USAMP Cooperative           Strain Rate           OR22910..................      1,912  Y............  N
     Technology.                     Agreement.                  Characterization of
                                                                 Steels; High-
                                                                 Strength Steels
                                                                 Stamping Project;
                                                                 Sheet Steel Joining
                                                                 Tech; Sheet Steel
                                                                 Fatigue
                                                                 Characteristics;
                                                                 Active Flexible
                                                                 Binder Control
                                                                 System for Robust
                                                                 Stamping; Warm
                                                                 Forming Of
                                                                 Aluminum;
                                                                 Hydroforming of
                                                                 Aluminum Tubes.
    Electric Vehicles R&D.........  Moltech...................  Development of        .........................        600  Y............  N
                                                                 Lithium Sulfur
                                                                 Battery Technology.
    Electric Vehicles R&D.........  PolyPlus..................  Development of        .........................      1,200  Y............  N
                                                                 Lithium Sulfur
                                                                 Battery Technology.
    Electric Vehicles R&D.........  Saft......................  Development of        .........................      1,500  N............  N
                                                                 Lithium Ion Battery
                                                                 Technology.
                                                                                                                -----------
      Subtotal Transportation.....    ........................    ..................    .......................      8,062    ...........
                                                                                                                ===========
      Total energy conservation...    ........................    ..................    .......................     29,654    ...........
--------------------------------------------------------------------------------------------------------------------------------------------------------

                  cooperative program with the states
    Question. The Cooperative Program with the States is eliminated 
except for $2 million requested in the Industry Sector. Please provide 
the rationale behind continuing the program in Industry but not in the 
Buildings or Transportation sectors.
    Answer. The Industry Sector believes that the Cooperative States 
RD&D program is providing some value to its portfolio, while the other 
Sectors do not. In light of the refocused program priorities 
established by the President's National Energy Plan (NEP), President's 
Management Agenda, EERE Strategic Program Review, and the new EERE 
Strategic Plan; the Building and Transportation Sector programs have 
refocused to meet these priorities.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns
                strategic program review--fossil energy
    Question. The President's Energy Policy recommended that the 
Department conduct a strategic program review of its research and 
development programs. How was this review conducted for Fossil Energy?
    Answer. During the last week of February 2002, Fossil Energy's 
newly confirmed Assistant Secretary Mike Smith initiated the strategic 
review of Fossil Energy programs. The review will examine, in depth, 
each of the program areas within Fossil Energy; the Strategic Petroleum 
Reserve, the Oil and Gas program, the Coal and Power Systems program, 
and the National Energy Technology Laboratory (NETL). The review is due 
to be completed by July 1, 2002.
    The review will use the principles outlined in the President's 
Management Agenda to examine the Fossil Energy programs, to look for 
ways to improve performance and streamline operations. Programs and 
projects will be examined to see how they perform when measured against 
the following performance criteria:
    1. Alignment with the National Energy Policy goals:
      --Increasing domestic energy supplies
      --Protecting America's environment
      --Ensuring a comprehensive delivery system
      --Enhancing national security
    2. Business Performance:
      --Investment strategies
      --Investment criteria
      --Policy implementation
      --Communication
      --Accountability
    3. Technical Performance:
      --Procurement process
      --Technical accomplishments
      --Lab-to-Market successes
    4. Public Benefits:
      --Environmental benefits
      --Energy security benefits
      --Economic benefits
    5. Conclusions:
      --Closures and Completions
      --Redirections
      --Missing programs
      --Strengthened programs
    Question. Can you provide us with some examples of Fossil Energy 
funded programs that were recommended for termination or reductions, 
and the reasons behind those recommendations?
    Answer. At this time, no recommendations have been made, as the 
review process was just initiated (latter part of February 2002). The 
review is scheduled to be completed by July 1, 2002.
    Question. Can you provide us with some examples of Fossil Energy 
programs that the strategic review deemed to be successes, and the 
rationale behind those determinations?
    Answer. No. Once the review is complete, we will be happy to 
provide you with examples of Fossil Energy programs to be successes and 
the rationale. The review will examine, in depth, each of the program 
areas within Fossil Energy; the Strategic Petroleum Reserve, the Oil 
and Gas program, the Coal and Power Systems program, and the National 
Energy Technology Laboratory (NETL). The review is due to be completed 
by July 1, 2002.
    Question. Was the Strategic Review completed in time to be fully 
considered in the development of the fiscal year 2003 Fossil Energy 
budget request?
    Answer. As mentioned previously, during the latter part of February 
2002, Fossil Energy's newly confirmed Assistant Secretary Mike Smith 
initiated the strategic review of Fossil Energy research and 
development programs. The review is due to be completed by July 1, 
2002.
    Question. If not, what elements remain to be completed and when 
will they be completed?
    Answer. The complete review process has begun and is due to be 
finished by July 1, 2002.
             strategic program review--energy conservation
    Question. The President's Energy Policy recommended that the 
Department conduct a strategic program review of its research and 
development programs. How was this review conducted for Energy 
Conservation?
    Answer. Carrying out the direction of the Secretary of Energy, in 
June 2001 the Assistant Secretary initiated the Strategic Program 
Review (SPR), involving senior staff within the Office of the Assistant 
Secretary, and the Office of Planning, Budget and Management working 
with EERE's Deputy Assistant Secretaries, program managers, and staff. 
The review had both public comment and internal review components.
    A public comment period, including seven public meetings, was 
coordinated by EERE's Outreach office. As a part of the public comment 
process, the EERE Regional Offices hosted a series of EERE town 
meetings in Boston, Denver, Seattle, Philadelphia, Atlanta, Chicago, 
and Washington, D.C. These meetings, along with e-mail and postal mail 
responses, accounted for 4,279 public comments. EERE completed a report 
summarizing these comments on August 31, 2001.
    The internal review examined four programmatic elements: alignment 
with energy policy and markets; technical performance; resulting 
benefits; and, business performance.
    The examination of these programmatic elements included reviews of 
information and data on such issues as:
  --current legislative and regulatory requirements;
  --existing external and peer reviews from such peer organizations as 
        the National Research Council and the President's Committee of 
        Advisors on Science and Technology;
  --specific barriers to developing EERE technologies;
  --strategies used to address these barriers and how such strategies 
        have evolved over time;
  --program activities and technical results--including successes and 
        failures; and
  --program benefits--including impacts on energy supply and use, 
        economic costs and benefits, reductions in environmental 
        emissions, and security benefits such as reducing oil use.
    Following the interview phase by the Review Team, the DASs for each 
end-use sector (buildings, industry, transportation, power, and 
federal) and their program personnel presented and explained a summary 
of their program performance information to the Assistant Secretary for 
Energy Efficiency and Renewable Energy, the Principal Deputy Assistant 
Secretary for Energy Efficiency and Renewable Energy, and the Deputy 
Assistant Secretary for Planning, Budget and Management.
    The Strategic Program Review is available on the EERE Home Page at 
www.EREN.gov.
    Question. Can you provide us with some examples of Energy 
Conservation funded programs that were recommended for termination or 
reductions, and the reasons behind those recommendations?
    Answer. The following materials provide four examples of activities 
recommended for termination.
    Wettable Ceramic-Based Drained Cathode Technology.--Alcoa will 
integrate the technology advances for the cathode with EERE-supported 
work on the advanced anode to significantly reduce the energy intensity 
of the electrolytic cell, which is used for the smelting process. Alcoa 
has acquired the intellectual property rights for this technology and 
can continue without DOE support.
    Hybrid Direct Injection R&D.--The Hybrid Direct Injection Engine 
R&D program focused on developing technology for direct injection 
gasoline engines (i.e. Spark Ignition Direct Injection (SIDI)). This 
engine technology has the potential to improve the fuel economy of 
conventional passenger cars by 10 to 15 percent. Most of the obstacles 
to commercialization of this technology are related to meeting future 
tailpipe emission standards and reducing the cost of the high-pressure 
fuel injection systems. Considerable progress was made on both fronts 
during the term (1999-2001) of the program. The technology is now 
believed to be close enough to commercial feasibility that the auto 
companies should undertake the remaining development work without 
Government support. The Program should be discontinued and all 
activities funded through this budget line cease.
    Direct Production of Silicones from Sand.--The direct conversion of 
silicon dioxide (sand or quartz) into silicone polymers would eliminate 
the energy-intensive silicon manufacturing step required in the 
conventional process. A team of researchers (including GE, Molecular 
Simulation, Inc., and OM Group Inc.) used advanced combinatorial 
chemistry technology to survey hundreds of catalysts that might enable 
direct or one-step conversion. Although the team did identify several 
inexpensive materials that appear to be suitable, closer study revealed 
that the direct synthetic route was not chemically feasible. Thus, this 
work can be closed out. Nonetheless, this work significantly advanced 
the fundamental understanding of making silicone and several patents 
will be filed.
    Residential Refrigerator Research.--Past research and regulatory 
efforts have reduced the energy use of new refrigerators by nearly a 
factor of four since 1975. Continuing research in areas such as 
improved insulation, more efficient motors, and general refrigerator 
cycle efficiency research is important for non-residential 
applications, but research specifically focused on conventional vapor-
cycle residential refrigerators now has lower potential returns than 
work in other areas and should be discontinued.
    Question. Can you provide us with some examples of Energy 
Conservation programs that the strategic review deemed to be successes, 
and the rationale behind those determinations?
    Answer. EERE has supported the development of a number of highly 
successful technologies. The National Academy of Sciences' National 
Research Council conducted a detailed review of about $1.6 billion 
worth of EERE research last year, producing the report, ``Federal 
Energy R&D: Was It Worth It?'', National Academy Press, 2001. The NRC 
review found that the energy conservation portfolio produced a return 
of 20 to 1 on the $1.6 billion portfolio they examined. In addition, 
the NRC found that these technologies generated net realized 
environmental benefits valued at $3-20 billion. The NRC also noted, 
however, that ``most of the realized economic benefits to date are 
attributable to three relatively modest projects in the building sector 
carried out in the late 1970s and 1980s and continuing into the 
1990s.'' (These projects are low-emissivity window coatings, electronic 
ballasts, and efficient refrigerator compressors.) Also, NAS only 
assessed 20 percent of the EERE portfolio, which was not selected 
randomly.
    Other projects successful at producing benefits included Oxy-Fueled 
Glass Furnaces--now installed on 30 percent of U.S. glass furnaces; and 
Advanced Lost Foam technology--providing energy savings of 25-30 
percent plus overall production cost reductions of 45-50 percent on 
complex castings. The NRC also identified as successes research such as 
DOE-2 building energy modeling, Indoor Air Quality, Advanced Turbine 
Systems (efficiencies improved from 29 percent to 38 percent and 
scheduled for commercial introduction in 2003), and others. The NRC 
also found significant options and knowledge benefits stemming from 
EERE-supported research.
    The Strategic Program Review identified more than a dozen 
additional technologies beyond those examined by the NRC that were 
developed with EERE support and appear to provide substantial benefits. 
These include refrigerator technologies which reduced average 
consumption of electricity by U.S. refrigerators by nearly a factor of 
four over the past 25 years; advanced alloys that enable use of high 
efficiency natural gas furnaces--now accounting for a quarter of the 
market; advanced ceramic coatings used in diesel engines; advanced wind 
turbines; and improved drill bits for geothermal development, but now 
used widely in the oil and gas industry.
    The total net realized economic savings identified by the NRC of 
$30 billion is more than the entire expenditure by EERE over its 
history. Inclusion of the other technologies identified by the SPR will 
increase these realized benefits significantly.
    Question. Was the Strategic Review completed in time to be fully 
considered in the development of the fiscal year 2003 Energy 
Conservation budget request?
    Answer. Many of the elements of the Strategic Program Review were 
ncorporated in the fiscal year 2003 budget request. Other 
recommendations of the SPR, such as calling for analytical work to 
determine the future course of technology work in particular areas or 
calling for the implementation of best practices in various aspects of 
program management, are activities that will influence future budget 
requests.
    Question. If not, what Energy Conservation elements remain to be 
completed and when will they be completed?
    Answer. In addition to recommended closures, the Strategic Program 
Review identified activities for redirection, for close monitoring--the 
``watch list'', for expansion--including areas where further analysis 
is required to determine how best to proceed, and for implementation of 
``best practices'' in program management. These will require ongoing 
attention. In particular, the implementation of best practices, for 
example, is a longer-term effort to improve overall program management.
    Question. The Justification indicates that the strategic review 
recommended that 20 activities within the Energy Efficiency program be 
terminated. Please provide a list of these 20 Energy Conservation 
activities for the record, along with the relevant funding levels for 
fiscal year 2001 and fiscal year 2002.
    Answer. The activities recommended for closure are listed below, 
together with fiscal year 2001 funding levels. Fiscal year 2001 funding 
is provided because that was the year during which this funding was 
examined during the SPR and some of those activities have already been 
changed in response to the SPR during fiscal year 2002. Fiscal year 
2003 funding that might have gone to these activities has generally 
been shifted to other activities that were identified as potentially 
having greater public benefit and that match up well against the R&D 
investment criteria developed as part of the President's Management 
Agenda.
    A longer description of the activity is provided below to better 
indicate the specific technology in question.

----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year
                            Activity                             -----------------------------------------------
                                                                   2001 funding    2002 funding    2003 funding
----------------------------------------------------------------------------------------------------------------
Wettable Ceramic-Based Drained Cathode Technology...............        $120,000  ..............  ..............
Committee on Energy Efficiency Commerce and Trade (COEECT)......       1,000,000  ..............  ..............
SIDI-Hybrid Direct Injection R&D................................       5,800,000  ..............  ..............
Glass-Fiber-Reinforced Polymer Matrix Composites................           \1\ 0  ..............  ..............
Lighting technology development projects........................         973,500  ..............  ..............
Light Source Basic Research Projects............................       1,107,800        $165,200  ..............
Advanced Gas Water Heaters......................................         301,000  ..............  ..............
Dehumidification Characterization Research......................           \2\ 0  ..............  ..............
Develop an Integrated Window/Wall system........................         400,000         399,755  ..............
Sensor for Verification of Gas Fill Integrity of Windows........         140,000         199,000  ..............
Whole Building Diagnostician....................................           \3\ 0  ..............  ..............
Natural Gas Vehicle Engine R&D..................................       6,400,000       9,852,000  \4\ $2,300,000
Concentrating Solar Power (CSP) Program Troughs.................       2,278,000           2,070  ..............
Resource Energy Managers (REMs).................................         381,320           \5\ 0           \5\ 0
FRESA, WATERGY and Integrated Screening Software................         156,000          40,000          40,000
Continuous Fiber Ceramic Composites.............................       1,740,800         540,000  ..............
Methane de-NO<INF>X</INF> Reburning for Wastewood, Sludge, and Biomass              200,000         283,000  ..............
 Fired Stoker Boilers...........................................
Direct Production of Silicones from Sand........................         600,000          10,000  ..............
Residential Refrigerator Research...............................         110,000  ..............  ..............
Automotive Aluminum Casting.....................................         620,000  ..............  ..............
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2000 was last funding for project.
\2\ Carryover from prior years funding ($219K) used.
\3\ $200K Carryover used.
\4\ Requested.
\5\ Carryover funds not included.

    1. Wettable Ceramic-Based Drained Cathode Technology.--Alcoa will 
integrate the technology advances for the cathode with EERE-supported 
work on the advanced anode to significantly reduce the energy intensity 
of the electrolytic cell, which is used for the smelting process. Alcoa 
has acquired the intellectual property rights and can continue without 
DOE support.
    2. Committee on Energy Efficiency Commerce and Trade.--The 
Committee on Energy Efficiency Commerce and Trade (COEECT) is a 15 
member Federal working group established in 1993 whose function is to 
coordinate Federal export assistance to the U.S. energy efficiency 
industries. The Department had contracted with the Export Council for 
Energy Efficiency (ECEE) to provide industry input and identify market 
needs on behalf of COEECT. COEECT should now be closed and the Clean 
Energy Technology Exports initiative, currently in development under 
the NEP, should consider which COEECT activities may be worthy of 
future support.
    3. Hybrid Direct Injection R&D.--The Hybrid Direct Injection Engine 
R&D program focused on developing technology for direct injection 
gasoline engines (i.e. Spark Ignition Direct Injection (SIDI)). This 
engine technology has the potential to improve the fuel economy of 
conventional passenger cars by 10 to 15 percent. Most of the obstacles 
to commercialization of this technology are related to meeting future 
tailpipe emission standards and reducing the cost of the high-pressure 
fuel injection systems. Considerable progress was made on both fronts 
during the term (1999-2001) of the program. The technology is now 
believed to be close enough to commercial feasibility that the auto 
companies should undertake the remaining development work without 
Government support. The Program should be discontinued and all 
activities funded through this budget line cease.
    4. Glass-Fiber-Reinforced Polymer Matrix Composites.--Glass-fiber-
reinforced polymer-matrix composites (PMCs) activities of the 
Automotive Lightweight Materials program demonstrated that large 
automotive structures probably could be manufactured out of fiber-
reinforced PMCs in minutes at costs typical of the high-volume 
automotive industry, instead of the days and weeks typical of the 
aerospace, small-boat, and sporting goods industries. This activity is 
ripe for commercialization and should now end.
    5. Lighting technology development projects.--Developed under cost-
shared competitive solici-tations, the development of solid-state 
ceramic lighting for ``signage'' will be completed during 2002 and be 
transferred to industry for further development and commercialization.
    6. Light Source Basic Research Projects.--Basic materials 
development on coatings for incandescent filaments and new phosphors 
for fluorescent fixtures is being completed during 2002 and the next 
phase of work is subject to private sector interest.
    7. Advanced Gas Water Heaters.--Research on condensing heat 
exchangers and absorption heat pumps to demonstrate the next discrete 
efficiency jumps available for gas water heating is being completed 
during 2002 and results transferred to industry for further development 
and commercialization. Continued low gas prices reduce likelihood of 
immediate development activity in private sector.
    8. Dehumidification Characterization Research.--Research to develop 
more accurate understanding of the energy performance implications of 
various dehumidification processes is being completed during 2002 and 
results transferred to industry, DOE and standards organizations for 
R&D planning and standards development purposes.
    9. Integrated Window/Wall Systems Development.--Through competitive 
solicitation, this heavily cost-shared project focuses on the 
development and evaluation of specific combinations of advanced windows 
and wall materials that could lead to energy efficient product 
offerings in residential construction. Work is being completed in 2002 
and transferred to industry for further development and 
commercialization.
    10. Sensor for Verification of Gas Fill Integrity in Insulated 
Windows.--Development work is being completed in 2002 and results 
transferred to industry and to market deployment efforts. Research on 
further improvements in technology is not viewed as critical to 
success.
    11. Whole Building Diagnostician.--A research project for a 
building operations optimization system is being completed in 2002 and 
has successfully demonstrated value in several research studies of 
buildings. Results will be made available for commercialization by 
private sector.
    12. Natural Gas Vehicle Engine R&D.--DOE and industry cost-shared 
partnerships over the last 8 years have resulted in over 20 certified 
heavy-duty engines that set new standards for low emissions and high 
performance using natural gas. There has not been, however, much 
success in the marketplace due to barriers to adoption of natural gas 
engine technologies and lack of refueling infrastructure. Given the 
limited technical opportunities for further performance improvements 
and significant market constraints, technology R&D should be 
terminated.
    13. Concentrating Solar Power (CSP) Program.--CSP troughs were 
commercialized in the late 1980s in California and 354 MW of installed 
capacity have been operating since that time with ongoing technical 
assistance on issues such as improved O&M techniques. A recent NRC 
Report concluded that CSP troughs were not likely to be cost 
competitive in the United States in the foreseeable future. Based on 
this, the specific trough activity should be closed.
    14. Resource Energy Managers (REMs).--FEMP provided seed funding 
that resulted in successful REM programs in Washington and California. 
Since a number of Federal agencies are embracing this concept and will 
support this function directly, FEMP funding can be phased out.
    15. FRESA, WATERGY and Integrated Screening Software Tools.--FEMP 
will phase out support of these tools, as they did not rise high enough 
relative to other priorities to warrant further support.
    16. Continuous Fiber Ceramic Composites.--This program has been 
ongoing for ten years. Several applications have been commercialized, 
and materials codes and standards will be completed and adopted. 
Applications are limited by the relative costs of these materials 
compared to most metal applications, however. The program should be 
closed out with the remaining funds.
    17. Methane de-NO<INF>X</INF> Reburning Process for Wastewood, 
Sludge, and Biomass Fired Stoker Boilers.--Demonstrations of methane 
de-NOx technology in three paper mill biomass boilers have successfully 
proven that the technology will increase thermal efficiency and the use 
of biomass fuel while reducing emissions and natural gas consumption. 
This work can now be closed out.
    18. Direct Production of Silicones from Sand.--The direct 
conversion of silicon dioxide (sand or quartz) into silicone polymers 
would eliminate the energy-intensive silicon manufacturing step 
required in the conventional process. A team of researchers (including 
GE, Molecular Simulation, Inc., and OM Group Inc.) used advanced 
combinatorial chemistry technology to survey hundreds of catalysts that 
might enable direct or one-step conversion. Although the team did 
identify several inexpensive materials that appear to be suitable, 
closer study revealed that the direct synthetic route was not 
chemically feasible. Thus, this work can be closed out. Nonetheless, 
the fundamental understanding of making silicone was significantly 
advanced. Several patents will be filed.
    19. Residential Refrigerator Research.--Past research and 
regulatory efforts have reduced the energy use of new refrigerators by 
nearly a factor of four since 1975. Continuing research in areas such 
as improved insulation, more efficient motors, and general refrigerator 
cycle efficiency research is important for non-residential 
applications, but research specifically focused on conventional vapor-
cycle residential refrigerators now has lower potential returns than 
work in other areas and should be discontinued.
    20. Automotive Aluminum Casting.--Aluminum casting activities of 
the Automotive Materials Technologies program have developed technology 
that, if implemented by industry, should be able to produce aluminum 
components that perform as well or better, cost the same or less, but 
weigh 40 percent less than steel components. These activities are 
drawing to a successful conclusion and can be stopped at the end of 
fiscal year 2002.
    An early focus of the ALM sub-program was development and 
validation of technologies to enable cost-effective casting of aluminum 
structures for automobiles. Major ALM aluminum-casting projects 
``Design and Product Optimization for Cast Light Metals,'' ``Die 
Casting Die Life Extension'' and ``Rapid Prototyping of Casting Dies'' 
concluded on or before fiscal year 2001, as did major projects ``Metal-
Compression Forming'' and ``Ultra-Large Caster'' funded by the Office 
of Heavy Vehicle Technology's High Strength Weight Reduction program. 
The program is shifting to support longer term, higher risk work on 
issues of casting magnesium and metal-matrix composites. Major projects 
on casting of magnesium and of aluminum-matrix composites reinforced 
with ceramics were begun during or before fiscal year 2001 and have now 
been increased in fiscal year 2002.
                   president's management initiative
    Question. The President's Management Initiative directs agencies to 
review their personnel requirements with an eye towards reducing the 
inventory of Federal positions that are not inherently governmental. 
DOE has initiated a review of some 1,000 positions as part of this 
initiative, and is planning other reviews. However, several past 
studies of DOE programs have found that the Department requires greater 
in-house capability to manage the many contracts on which it already 
relies to execute its programs. How do you reconcile these two 
recommendations/directives?
    Answer. The competitive sourcing studies being undertaken by the 
Department are focused on administrative functions that are not 
directly associated with the oversight of contractors executing mission 
programs. Becoming more efficient in these administrative services will 
improve, rather than detract from, the Department's efforts to 
strengthen project and contract management capabilities of the Federal 
workforce. In our development of the FAIR Act inventory for 2002, we 
will provide guidance to DOE organizations on the need to reflect 
program, project, and contract management needs in decisions on which 
positions should be considered in planning any future studies.
                            recent successes
    Question. Can you provide us with a few examples of some of the 
successes that have come out of your Fossil Energy R&D programs in the 
last year? If possible, give us examples from a variety of areas.
    Answer. In the last year, the Fossil Energy program continued to 
add to its track record of producing technological advances that are 
helping to provide cleaner air, potential ``breakthroughs'' in 
greenhouse gas controls, new distributed energy options, and more 
energy from domestic sources. Some of the examples include:
  --A ``Solid'' Solution for Global Warming?--One of the possible 
        ``breakthrough'' ideas for reducing the atmospheric buildup of 
        carbon dioxide, a greenhouse gas, is to capture the gas and 
        sequester it. One way to store the gas could be to convert it 
        into an environmentally safe solid form--a process called 
        ``mineral carbonation.'' The basic chemical procedure is well 
        known, but the major obstacle has been to reduce the time 
        required for the solid carbonate to form (in nature, the 
        process can take thousands of years). In 2001-2002, scientists 
        at DOE's Albany Research Center made a major advance by 
        reducing processing times from six days to just over 30 
        minutes--a length of time that makes the process reasonable for 
        an industrial operation. The next step is to reduce the energy 
        requirements to make the carbonation process economically 
        feasible.
  --Using CO<INF>2</INF> to ``Wash'' Landfill Gas.--Americans dispose 
        of more than 100 million tons of garbage in landfills each 
        year. As the garbage decomposes, it releases gases such as 
        methane and carbon dioxide that can contribute to the 
        greenhouse effect. In late 2001, a DOE-sponsored project showed 
        how the carbon dioxide can be captured and used to ``wash'' 
        pollutant-forming impurities from the methane. The result is 
        clean landfill natural gas that can be used as a fuel, along 
        with a concentrated stream of carbon dioxide that can be used 
        for such commercial applications as making dry ice, carbonating 
        beverages, or stimulating plant growth in commercial 
        greenhouses. Acrion Technologies Inc., a small business, 
        developed the process with DOE support, and in December 2001, 
        the company showcased the technology at the New Jersey 
        EcoComplex.
  --The Fuel Cell that ``Keeps on Ticking''.--An all-solid-state fuel 
        cell developed in DOE's stationary power fuel cell program 
        achieved a world record for operations in 2001. The fuel cell--
        a 100-kilowatt solid oxide fuel cell developed by Siemens 
        Westinghouse Power Corporation--first started up in 1997 at a 
        power plant in the Netherlands. Three years later, the unit had 
        accumulated 16,612 hours of operation--proving that the 
        revolutionary concept of an all-ceramic fuel cell will be 
        rugged and reliable enough for future commercial power 
        generation. In August 2001, Siemens Westinghouse moved the fuel 
        cell to a power plant in Essen, Germany and restarted it. The 
        unit came back to life with no problems and continues to 
        generate power and valuable data on the longevity of advanced 
        solid oxide fuel cells.
    Question. Can you provide us with a few examples of some of the 
successes that have come out of your Energy Conservation R&D programs 
in the last year? If possible, give us examples from a variety of 
areas.
    Answer. The Interior-funded programs within EERE have realized a 
number of successes in the past year, including:
    Advanced Turbine Systems.--This research began in 1992 and has led 
to the successful demonstration of a gas turbine, the 4 MW Mercury 50, 
with an efficiency of about 38 percent and with low NO<INF>X</INF> 
emissions (<10 ppm). This is substantially higher performance than the 
original goal set for this program of about 33 percent efficiency at 22 
ppm NO<INF>X</INF>, and a dramatic improvement from the previous 
industry best of 29 percent efficiency at 25+ppm NO<INF>X</INF>. This 
turbine is in final test and commercial units are expected next year. 
This work also resulted in the development of advanced ceramic-
combustor liners, and other advances.
    Hybrid Vehicles Based on DOE-Supported Research.--All three U.S. 
automakers have announced plans to produce hybrid vehicles in the 2003-
2005 timeframe that incorporate and draw upon Office of Advanced 
Automotive Technologies-funded research. The DaimlerChrysler Durango, 
Ford Escape, and General Motors Silverado will have hybrid models 
available in the 2003-2005 timeframe. These models draw on DOE-funded 
research. For example, the U.S. Advanced Battery Consortium research 
has increased the life of lithium ion batteries from 2 to 7 years for 
hybrid-electric vehicle drives. Successful integration of advanced 
lithium-based batteries into hybrid and electric vehicles is critical 
to transforming prototypes into production vehicles. If the battery 
cannot consistently meet minimum performance standards by delivering 
sufficient energy and power, the vehicle will not perform well in 
acceleration or range tests. The battery also must be able to be 
produced in large volumes.
    Graphic Foam/Advanced Materials.--The Oak Ridge National Laboratory 
developed and patented a novel high-thermal-conductivity graphite foam. 
This technique produces a lightweight foam with high bulk thermal 
conductivity up to 180 W/mK (watts per meter Kelvin) and an open porous 
structure. The cell walls are made of oriented graphitic planes and 
exhibit thermal conductivity of greater than 1700 W/mK (copper conducts 
400 W/mK). This material shows promise for improving energy efficiency 
while reducing weight in applications ranging from heat sinks and 
radiators for automotive applications to leading edges for aerospace 
vehicles, and for thermal signature and other heat management solutions 
for the Department of Defense.
    DOE-Supported Materials Research Appear in New Models and 
Prototypes.--Aluminum for door, deck and hood panels for Cadillac, 
Oldsmobile, and Chevrolet vehicles utilize a production process 
developed through research supported by DOE. The 2001 Chevrolet 
Silverado pickup has a 50 pounds lighter composite pickup truck box. In 
2001, the Jeep Wrangler had a new, lighter, recyclable thermoplastic 
hardtop. The aluminum body structure on the Prodigy is 53 percent 
lighter than a conventional steel design, and the process used on the 
Prodigy is applicable to high volume production. In DaimlerChrysler's 
prototype ESX3 vehicle, the unique thermoplastic injection molded body 
system is estimated to reduce weight by 46 percent and cost by 15 
percent versus conventional steel structures.
    Removing Particulate Matter from Diesel Emissions.--Oak Ridge 
National Laboratory, Microwave Materials Technologies, Inc., and 
Industrial Ceramic Solutions developed and demonstrated under simulated 
driving conditions a special silicon-carbide fiber that can be formed 
to trap particulate matter (PM) and efficiently convert microwave 
energy to heat energy for regeneration. This microwave-regenerated 
filter system will permit vehicles to meet the Environmental Protection 
Agency 2007 Tier 2 standards for diesel engine PM emissions.
    In another research project, DOE-funded researchers demonstrated 
that, under certain conditions, advanced diesel fuel formulations can 
achieve PM emission reductions of up to 35 percent without compromising 
fuel efficiency or raising oxides of nitrogen (NO<INF>X</INF>) 
emissions.
    Federal Energy Management Program.--In the last year, the Federal 
Energy Management program began implementation of the President's May 
3, 2001 directive to agencies to conserve energy by publishing 
published a recommended action plan for agencies, collecting proposed 
actions from all agencies and producing a report for the President 
summarizing these actions. FEMP created ALERT teams to assess the peak 
load situation of some of the largest Federal facilities in constrained 
areas--most notably, California. These teams recommended a variety of 
low or no cost actions that could reduce the Federal peak load.
    FEMP's Super Energy Savings Performance Contracting (Super ESPC) 
program achieved over $120 million in delivery orders in fiscal year 
2001, achieving the program goal and almost doubling the prior year's 
delivery order volume. All ESPC delivery orders have a positive net 
present value. That is, appropriately discounted, the net cash flow to 
the government (energy cost savings minus payment to the contractor 
over the life of the delivery orders) is positive. In addition to being 
cost-effective investments, ESPCs save energy.
(a) Total federal ESPC project investment awarded through fiscal year 
        2001
    Approximately $1 billion dollars ($1.0093 billion), all of which is 
a net benefit to the government since these federal building 
improvements come at no up front cost.
(b) Guaranteed annual energy-related cost savings associated with (a) 
        above
    Approximately $125 million per year ($125.2 million estimated), 
essentially all of which is paid out to the contractor during the term 
of the contract for debt service and services such as maintenance, 
repair and replacement of equipment.
(c) Site Btu per year savings associated with (a) above
    Approximately 7.1 trillion site Btu saved per year (equivalent to 
27 percent of the site energy consumed by the Department of Veterans 
Affairs in fiscal year 1999, or enough energy to supply the annual 
requirements of 68,000 U.S. households).
                              energy bill
    Question. The Senate is currently debating a rather considerable 
energy bill. Based on what you know about the Senate bill, are there 
things in it that would dramatically alter the focus or direction of 
the Energy Efficiency or Fossil research programs?
    Answer. While the Senate energy bill includes provisions that would 
affect the Energy Efficiency and Fossil Energy research programs, 
nothing in the bill would dramatically change the focus or direction of 
these programs or dramatically expand or constrain existing authority. 
In the case of the Energy Efficiency (EE) research program, the Senate 
energy bill does not change the authority EE has pursuant to Energy 
Policy Act of 1992 to engage in a broad and diverse portfolio of R&D 
activities related to energy efficiency and renewable energy. In the 
case of the Fossil Energy (FE) research program, Congress has 
appropriated funds that are used to implement the President's National 
Energy Policy goals concerning domestic natural resources. Although the 
Senate energy bill could determine boundaries for FE activities on a 
geographic scale (e.g., ANWR) or within a regulatory mandate (e.g., 
emissions control), it would not alter the general focus of FE 
programs. FE programs will continue to enhance U.S. economic and energy 
security by (1) managing and performing energy-related research; (2) 
ensuring that FE technology is utilized in the market; (3) operating 
our nation's petroleum reserves; and (4) supporting the development of 
information and policy options that benefit the American public.
                      building technology research
    Question. The request for Technology Roadmaps and Competitive R&D 
is $2.357 million, a large reduction from the $6.857 million 
appropriated in fiscal year 2002. The budget justification further 
indicates that 9 new projects were initiated in fiscal year 2001 and 6 
new projects were initiated in fiscal year 2002, and that ``[fiscal 
year 2003] funding will allow follow-through on the expectations of 
several hundred industry partner-participants in BTS road maps''. What 
will be the impact of the proposed reductions on the 6 new projects 
initiated in fiscal year 2002?
    Answer. The fiscal year 2003 funding request level for Technology 
Roadmaps and Competitive R&D will have no impact on the new projects 
initiated in fiscal year 2002. These projects will be fully funded from 
fiscal year 2002 appropriations and will not require any fiscal year 
2003 funds.
    The fiscal year 2003 budget request will support the roadmapping 
process from the development phase to implementation within the Federal 
research programs. This will mean maintaining the roadmaps in a 
dialogue with industry partners and sharpening the focus of the Federal 
role as was done in fiscal year 2002 to clarify the research needs for 
lighting technology and specifically address the potential for solid 
state lighting. The Department and its research partners and 
participants expect that such a continuing dialogue will facilitate 
effective implementation of buildings-related research priorities. DOE 
will determine participation in this roadmap by applying the 
Administration's Research and Development Investment Criteria, 
emphasizing the Federal role of conducting pre-competitive research 
that broadly benefits an entire industry and clearly supports the 
National Energy Policy and Administration priorities.
    Question. On other previously initiated projects?
    Answer. Under Technology Roadmaps and Competitive R&D, a total of 
29 projects were initiated from fiscal year 1999 through fiscal year 
2001. Sixteen of these projects have been completed or are being 
completed in fiscal year 2002 and thus need no fiscal year 2003 
funding. The funds requested in fiscal year 2003 will be used to 
support the remaining 13 previously initiated projects, as warranted 
based on their on-going performance.
    Question. Does this truly meet the expectations of the ``partner-
participants''?
    Answer. These road maps provide a broad guide to future public and 
private sector research in the buildings area. DOE's partners and 
participants expect DOE to work from these partnership road maps in 
designing the public aspects of research in these priority areas. DOE's 
partners and participants also expect DOE to conduct the R&D program 
using open competition and peer review.
    DOE has responded, not only by conducting broad solicitations under 
Technology Roadmaps and Competitive R&D for three years, but also by 
increasing the level of competition in the end-use targeted R&D 
programs in Buildings Research and Standards. In 2003, DOE will 
emphasize the revising and updating of the roadmaps, in cooperation 
with industry, to better target its R&D programs in future 
competitions. At the same time, DOE will focus its competitive efforts 
within the road map in targeted end-use areas, rather than through 
broad solicitations covering all building technologies.
    DOE will determine participation in this roadmap by applying the 
Administration's Research and Development Investment Criteria, 
emphasizing the Federal role of conducting pre-competitive research 
that broadly benefits an entire industry and clearly supports the 
National Energy Policy and Administration priorities.
    Question. What funding level would be required to continue ongoing 
projects in the manner originally envisioned?
    Answer. There are 13 previously initiated projects within 
Technology Roadmaps and Competitive R&D which could be continued into 
fiscal year 2003. The fiscal year 2003 request level will fully support 
those projects that warrant continuation and that will return the most 
public benefit for the taxpayers investment.
    Question. Is the funding level requested sufficient to closeout 
these projects in an orderly fashion while extracting some benefit for 
the Federal investment to date?
    Answer. All projects initiated under Technology Roadmaps and 
Competitive R&D longer than 18 months duration are subdivided into 
phases. DOE commits funding for only one phase at a time. At the end of 
each phase, DOE conducts an intensive, formal project review to decide 
on funding the next phase. Phases are designed so that a useful product 
is available at the end of each phase. This arrangement insures that 
projects can be closed out in an orderly fashion without any closeout 
costs and that useful results are produced by every project to the 
greatest extent.
                           lighting research
    Question. The request includes an increase of $1.5 million for 
lighting R&D, with an increased focus on solid-state lighting. 
Approximately how much of the request would be devoted to solid-state 
lighting efforts?
    Answer. $2.45 million (35 percent of the Lighting R&D budget) will 
be devoted to solid state lighting.
    Question. Would funds be used for a new solicitation or 
competition? Used in-house? Used to support ongoing work?
    Answer. Over one-half of the portfolio of projects is 
competitively-selected and cost-shared with large and small entities 
from industry, academia, and research institutions. Additional funds 
would be placed on these ongoing projects in the research areas of 
light sources (conventional and solid state), distribution, and 
controls. A continuing level of core research will continue at Lawrence 
Berkeley National Laboratory, but we intend to award as many contracts 
as possible via competitive solicitation, in alignment with the 
Administration's R&D Investment Criteria.
    Question. The current draft of the Senate energy bill authorizes a 
highly ambitious solid-state lighting research program. What is DOE's 
long-term program plan for these research efforts? What size research 
program might this become in future years? What are the barriers to 
market entry faced by this technology?
    Answer. DOE has held five workshops which included the general 
lighting industry, compound semi-conductor industry, universities, 
research institutions, and national labs. The workshops produced a 
solid state lighting research agenda that includes both light emitting 
diodes (LEDs) and organic light emitting diodes (OLEDs). The workshop 
results point to research needs in areas such as substrate materials, 
light extraction, and photon conversion materials. This research could 
provide the scientific knowledge which would form the foundation for 
the development of solid state lighting products. As the technology is 
constantly evolving, further workshops for LEDs and OLEDs are planned 
this year to update the research plan, and to discuss the appropriate 
Federal role and the process for undertaking future cooperative 
research.
    When the fiscal year 2003 budget was developed, the planning for 
the solid state lighting initiative was in progress; thus the 
initiative details were not sufficiently developed in time for the 
initiative to be considered for the fiscal year 2003 budget. The 
Department is currently funding three competitively selected solid-
state lighting research projects. We do not know the level of funds 
needed to fully develop this technology. DOE will determine its 
participation in this initiative by applying the Administration's 
Research and Development Investment Criteria, emphasizing R&D 
activities that have a clear Federal role (pre-competitive research 
that broadly benefits an entire industry, clear public benefits), and 
are performing well and making progress toward milestones, and clearly 
support the National Energy Policy and Administration priorities.
                space conditioning and refrigeration r&d
    Question. The justification describes a $2.7 million reduction for 
space conditioning and refrigeration R&D programs, but notes that there 
will be a new solicitation for space conditioning technology. What 
ongoing activities will be completed, terminated or reduced due to this 
reduction?
    Answer. As in the envelope area, many of the technologies in these 
areas are well developed and several are ready to be ``graduated'' to 
the private sector. For example, we are in the process of field testing 
a prototype heat pump water heater and pursuing a procurement project 
for an efficient roof top air conditioner. In these cases, we are able 
to focus more limited resources on providing research results to 
consumers and builders.
    We are also balancing our R&D activities with our standards 
activities. In the area of space conditioning, for example, we have 
recently completed the standards for residential central air 
conditioners, which will raise the minimum efficiency of units in the 
market place. We are also beginning to work on standards for commercial 
unitary air conditioners and heat pumps (roof top air conditioners).
    The fiscal year 2003 budget request does not continue the American 
Refrigeration Technology Institute (ARTI) research, which has not 
resulted in the development of technologies that significantly improve 
energy efficiency of space cooling and refrigeration products and 
industry cost sharing has been below expectations.
    Question. How much will be devoted to the new solicitation 
described in the justification?
    Answer. Funds available for a new solicitation will be determined 
following review of the status of the technical progress and potential 
contribution of ongoing, competitively awarded projects. Distribution 
systems and improved system integration offer the largest opportunities 
for additional energy savings and would likely be a significant part of 
a competitive solicitation in fiscal year 2003.
                         building envelope r&d
    Question. A significant reduction is requested in Building Envelope 
R&D. Will the reduction hamper or scale back the projects selected in 
the competitive solicitations issued in fiscal year 2001 or fiscal year 
2002?
    Answer. No.
    Question. What amount of funding would be required to continue 
these projects as originally contemplated?
    Answer. Under Building Envelope R&D, a total of 9 projects were 
initiated in fiscal year 1999 through fiscal year 2001 through broad, 
competitive solicitations. Six of these projects could be continued in 
fiscal year 2003. Assuming that all 6 of these projects show sufficient 
technical progress to warrant continuation, taking them to completion 
as originally scheduled would require fiscal year 2003 appropriations 
for Building Envelope R&D of $1.2 million, equivalent to our budget 
request.
                      lighting appliance standards
    Question. Please provide for the record a timeline for the various 
rulemakings completed in fiscal year 2002, currently underway, or 
proposed to be initiated in fiscal year 2003.
    Answer. DOE has four current standard rulemakings underway: 
Residential Central Air Conditioning and Heat Pumps, Residential 
Furnace and Boilers, Commercial Unitary Air Conditioning and Heat 
Pumps, and Distribution Transformers. DOE is undergoing a 
prioritization process to identify additional products which have 
substantial energy savings potential and might be good candidates for 
inclusion in the existing appliance standards program and/or voluntary 
programs. DOE will consider beginning in fiscal year 2002 or fiscal 
year 2003 rulemakings for product(s) identified in this prioritization 
process. DOE also has rulemakings underway for test procedures for 
Dishwashers (sensors), Distribution Transformers, Residential Central 
Air Conditioning and Heat Pumps, and Commercial HVAC and Water Heater 
Equipment. The Test Procedure for Dishwashers (non-sensing) was 
published in fiscal year 2002. See the table below.

----------------------------------------------------------------------------------------------------------------
                                                                                               Fiscal year
                                                                                       -------------------------
            Standards rulemaking                               Status                    Initiation    Planned
                                                                                            year      completion
----------------------------------------------------------------------------------------------------------------
Res. CAC/HP.................................  Developing Final Rule...................         1999         2002
Res. Furn./Boiler...........................  Preparing ANOPR.........................         2001         2004
Comm. Unit. AC/HP...........................  Preparing ANOPR.........................         2002         2004
Dist. Transformers..........................  Preparing ANOPR.........................         2001         2004
Identifying Potential New Products            Reviewing Analysis......................      ( \1\ )     ( \1\ )
 (Prioritization Proc.).
----------------------------------------------------------------------------------------------------------------
\1\ To be determined.


----------------------------------------------------------------------------------------------------------------
                                                                                               Fiscal year
                                                                                       -------------------------
         Test procedures rulemaking                            Status                    Initiation    Planned
                                                                                            year      completion
----------------------------------------------------------------------------------------------------------------
Dishwasher (nonsensing).....................  Final Rule Published....................         1999         2002
Dishwasher (sens.)..........................  Publishing NOPR.........................         1999         2002
Dist. Transformers..........................  Reopening Comment Period................         1999         2002
Res. CAC/HP.................................  Drafting Final Rule.....................         2001         2002
Comm. HVAC..................................  Reopening Comment Period................         2000         2002
Comm Wtr. Htr...............................  Reopening Comment Period................         2000         2002
----------------------------------------------------------------------------------------------------------------

           equipment, materials and tools--management support
    Question. The justification indicates an increase of $1 million for 
technical/program management support but provides little information as 
to why this increase is being requested. Why is this increase 
necessary?
    Answer. Although it is intended to provide technical expertise to 
enable all the program in Equipment, Materials and Tools, the 
Technical/Program Management element almost entirely supports the 
Appliance Standards program by providing resources for essential 
technical analyses supporting the appliance standards rulemaking 
process. These analyses are needed to ensure that standards are 
technically feasible and economically justified. As shown on page 206 
of the budget request, the fiscal year 2003 request for Appliance 
Standards ($9,197,000) and Technical/Program Management ($2,200,000), 
which totals $11,397,000, is linked to the level of work anticipated to 
meet the expectations of the National Energy Policy, such as rulemaking 
and test procedures. The needed level of effort is comparable to the 
fiscal year 2001 overall program level for Appliance Standards 
($9,195,000) and Technical/Program Management ($2,265,000) which 
totaled $11,430,000.
                weatherization and state energy programs
    Question. The President's campaign materials stated that he would 
``Reform and double the funding for the Weatherization Program and 
State Energy Program.'' While the request includes a substantial 
increase for Weatherization, the amount requested for the State Energy 
Program is a reduction of $6.2 million. Has the Administration's view 
of the State Energy Program changed due to more detailed evaluation of 
the program or broader budget circumstances? Or should the original 
campaign commitment be read to endorse a doubling of WAP and SECP 
collectively?
    Answer. The President's campaign materials commit to ``increase 
spending for Weatherization programs by $1.4 billion over 10 years,'' 
which will approximately double funding for that program. The 
commitment to the State Energy Program is to reform it. DOE is 
currently working with the states on SEP reform.
    The Administration considers both programs important and 
appreciates their ability to leverage federal funds and transfer energy 
efficiency technologies to the State and local level. The request for 
the State Energy Program in fiscal year 2003 represents an increase of 
$0.8 million over our fiscal year 2002 request of $38 million. We are 
seeking to develop our relationships with states so they become true 
partners and not just grant recipients.
    Question. With regard to ``reform'' of the Weatherization 
Assistance Program, has the Administration considered whether a cost-
share requirement of some sort would be appropriate in order to 
leverage the Federal commitment to WAP?
    Answer. Overall, the Weatherization network leverages more than 25 
percent cost sharing. In 2000, States leveraged almost $75M in non-
Federal resources, and DOE estimates that local agencies leveraged an 
additional $55M. States continue to leverage funds through a variety of 
sources, including utility restructuring and systems benefits funds, to 
supplement their weatherization programs. For instance, in 
Massachusetts combined funding for electric and gas utility programs 
was about $20 million for 2000. The recent energy crisis has escalated 
States leveraging efforts to identify non-Federal resources to help 
provide weatherization services to more low-income households. 
Currently, more than $100 million is leveraged voluntarily in 43 
states, representing leverage of more than 70 percent of current 
appropriations levels. The current leveraging gains have required no 
State or Federal administrative or any additional reporting 
requirements for private funds. A cost share requirement may involve 
onerous reporting and accounting by the States and local agencies. 
Moreover, some States would not be able to afford to participate.
    DOE is constantly working with both State and local agencies to 
attract and secure non-Federal resources. In 2002, DOE is committed to 
pursuing opportunities to leverage by targeting rapid-growth States 
that have traditionally had few or no partnerships with utilities or 
other non-Federal sources with their weatherization programs.
    Question. Is the Administration supportive of this concept? What 
would be the impacts of a cost-share requirement on program delivery?
    Answer. The Department does not support a cost share or match 
requirement for the Weatherization Assistance Program because there 
would be some States that would not be able to participate and 
therefore the Program would lose its status as a national program. The 
concern is a cost share that is required of each State. Some States 
have had great success in obtaining non-Federal resources to supplement 
their programs, while other States have had little or no success. The 
variance is from one State to another and in certain instances from one 
year to the next, depending on the agreement between the contributor 
and the availability of funds. In some States, there is only the 
availability of DOE funds to administer the Program.
    A 25 percent State cost share requirement is inequitable. Many 
States have appropriated funds and/or have leveraged funds from private 
sources. However, a number of states, particularly those with large 
low-income populations, have enjoyed little success in leveraging non-
Federal resources into their programs that could be used as a cost 
share, and would be the most likely to not qualify for Federal funds. A 
formal cost share requirement for States may result in a net loss of 
funds for weatherization as a number of States and native American 
Indian Tribes who receive direct funding from DOE, would not qualify 
for the program. Those States unable to meet a full cost share would 
receive fewer DOE funds which could result in withdrawal of voluntary 
contributions by states, utilities, and other private sources.
    In sum, a cost share requirement would have a deleterious effect on 
program delivery in many States, leaving some States unable to 
weatherize any homes at all, and others having to reduce the number of 
homes served. This would of course mean lay-offs of weatherization 
workers in those States. Furthermore, because the availability of 
matching funds could vary dramatically from year to year, the network 
of weatherization agencies would suffer from unstable funding, and the 
maintenance of a skilled weatherization workforce would be jeopardized.
    Question. The Committee approved an fiscal year 2002 reprogramming 
for national and regional training and technical assistance. Does the 
Department feel that its request of $4.095 million for this purposes in 
fiscal year 2003 is still appropriate based on the overall level 
requested for WAP?
    Answer. The Energy Conservation in Existing Buildings Act of 1976, 
42 U.S.C. 6861 et. seq., enacted as Title IV, Part A, of the Energy 
Conservation and Production Act, Public Law 94-385, Section 416, 
permits DOE to use an amount not to exceed 10 percent of the annual 
appropriations to conduct training and technical assistance activities 
to ensure program effectiveness and assist States' ability to deliver 
services to low-income persons.
    Historically, DOE has allocated approximately 8.5 percent to the 
States, to conduct training and technical activities supporting their 
weatherization programs locally. DOE has used the other 1.5 percent to 
fund numerous national and regional training and technical assistance 
activities which help support the States and can be done more cost-
effectively by DOE. States look to DOE to augment their efforts to 
provide expanded project support, services and other deliverables that 
States require to assist them to attain their program goals to deliver 
more cost-effective, energy efficiency services to low-income 
Americans.
    The $4.095 million requested, which is about 1.5 percent of the 
total fiscal year 2003 request, is the appropriate amount for DOE to 
use for national and regional activities supporting State 
weatherization work in fiscal year 2003.
    Question. Between the State Energy Program and the SEP Special 
Projects, the Department performs a great deal of cooperative work with 
states. To what extent does the Department also perform cooperative 
work on a regional basis in cases where there are common regional 
interests, and where regional efforts might be more efficient? Please 
provide some examples of such work.
    Answer. The Office of Energy Efficiency and Renewable Energy 
Programs has six Regional Offices that serve to assist States both 
individually and regionally. These Offices serve as a catalyst in 
promoting regional cooperation and regional interests. Through 
regionally hosted meetings, States are able to explore opportunities to 
address regional approaches to common interests. Often these meetings 
and discussions lead to multi-state efforts which lead to joint 
proposals under the SEP Special Projects. Regional Offices are also 
involved in regional initiatives created by other organizations.
    The Denver Regional Office, for example, is actively involved in 
the Western Governors' Association, the Western Interstate Energy Board 
and the Western Regional Air Partnership, collaborating to develop a 
strategy for the regional haze issue. That office also has for years 
supported a regional association of state Weatherization managers, to 
conduct peer exchanges and training. Currently, these services are 
provided by the State of Montana, with DOE funding, on behalf of the 
entire region.
    Another example is a multi-state collaboration known as the Energy 
Services Coalition, currently involving 20 states that are promoting 
the use of performance contracting for energy efficiency work. The 
coalition is funded by Rebuild America.
    Regional efforts relating to the Clean Cities program have also 
produced regionally focused projects such as the promotion of 
alternative fuel vehicles at all of the airports serving the Washington 
D.C. region. Other examples include regional infrastructure development 
along major interstate corridors, and development of a comprehensive 
plan to market renewable resources in the Mid-Atlantic Region.
    Question. Does the structure of relevant DOE programs limit the 
Department's ability to perform work on a regional basis?
    Answer. The Department's six Regional Offices play an integral role 
in promoting regional approaches, coordination of common State goals, 
and working with a number of programs in the Office of Energy 
Efficiency and Renewable Energy (EERE).
    While the Regional Offices are an invaluable resources in 
coordinating and facilitating regional efforts, adjustments within the 
structure of efficiency and renewable programs could likely also 
improve the Department's ability to perform work on a regional basis. 
Improved coordination of grants functions, for instance, could 
streamline federal assistance in these areas.
    Question. Do relevant regulations or statutes limit such activities 
in any way?
    Answer. Although existing regulations and statutes emphasize States 
and provide funding specifically for the States, there are no 
prohibitions relating to regional approaches to common objectives, and 
States may utilize available funding to conduct regional approaches.
    Question. Please provide for the record a table showing the amount 
of SEP funds received by each state for fiscal year 2001 and fiscal 
year 2002, and the projected amount based on the fiscal year 2003 
request.
    Answer. See the table below.

----------------------------------------------------------------------------------------------------------------
                                                                               Fiscal year
                                                        --------------------------------------------------------
                    State/Territory                                                             2003 SEP formula
                                                          2001 SEP formula   2002 SEP formula      allocation
                                                            distribution       distribution       (estimated)
----------------------------------------------------------------------------------------------------------------
Alabama................................................           $604,000           $726,000           $616,000
Alaska.................................................            292,000            353,000            298,000
Arizona................................................            537,000            651,000            554,000
Arkansas...............................................            462,000            558,000            479,000
California.............................................          2,496,000          3,024,000          2,570,000
Colorado...............................................            581,000            683,000            594,000
Connecticut............................................            553,000            641,000            564,000
Delaware...............................................            260,000            313,000            266,000
District of Columbia...................................            246,000            295,000            252,000
Florida................................................          1,283,000          1,552,000          1,324,000
Georgia................................................            833,000          1,012,000            861,000
Hawaii.................................................            271,000            326,000            277,000
Idaho..................................................            303,000            366,000            310,000
Illinois...............................................          1,570,000          1,796,000          1,590,000
Indiana................................................            907,000          1,060,000            924,000
Iowa...................................................            537,000            625,000            545,000
Kansas.................................................            484,000            570,000            492,000
Kentucky...............................................            620,000            735,000            632,000
Louisiana..............................................            760,000            897,000            754,000
Maine..................................................            346,000            407,000            351,000
Maryland...............................................            694,000            808,000            706,000
Massachusetts..........................................            847,000            974,000            861,000
Michigan...............................................          1,332,000          1,525,000          1,347,000
Minnesota..............................................            800,000            916,000            811,000
Mississippi............................................            441,000            535,000            454,000
Missouri...............................................            747,000            872,000            760,000
Montana................................................            284,000            342,000            292,000
Nebraska...............................................            370,000            437,000            376,000
Nevada.................................................            321,000            394,000            331,000
New Hampshire..........................................            320,000            379,000            327,000
New Jersey.............................................          1,088,000          1,253,000          1,104,000
New Mexico.............................................            345,000            414,000            352,000
New York...............................................          2,151,000          2,448,000          2,191,000
North Carolina.........................................            854,000          1,016,000            873,000
North Dakota...........................................            270,000            324,000            276,000
Ohio...................................................          1,491,000          1,728,000          1,517,000
Oklahoma...............................................            535,000            632,000            544,000
Oregon.................................................            496,000            587,000            504,000
Pennsylvania...........................................          1,508,000          1,722,000          1,521,000
Rhode Island...........................................            297,000            352,000            304,000
South Carolina.........................................            534,000            640,000            545,000
South Dakota...........................................            262,000            314,000            268,000
Tennessee..............................................            720,000            851,000            733,000
Texas..................................................          2,182,000          2,653,000          2,233,000
Utah...................................................            376,000            450,000            384,000
Vermont................................................            261,000            309,000            266,000
Virginia...............................................            837,000            988,000            856,000
Washington.............................................            689,000            830,000            706,000
West Virginia..........................................            420,000            489,000            424,000
Wisconsin..............................................            834,000            956,000            844,000
Wyoming................................................            253,000            307,000            259,000
American Samoa.........................................            189,000            230,000            194,000
Guam...................................................            197,000            239,000            202,000
Northern Marianas......................................            188,000            229,000            193,000
Puerto Rico............................................            467,000            547,000            474,000
Virgin Islands.........................................            205,000            255,000            213,000
                                                        --------------------------------------------------------
      Total............................................         37,750,000         44,535,000         38,498,000
----------------------------------------------------------------------------------------------------------------

                    federal energy management--femp
    Question. The FEMP program has an impressive track record of 
enabling reductions in Federal energy usage, with preliminary data 
showing that the 20 percent square footage reduction set in EPACT for 
the year 2000 will be exceeded. Can the Department say how much of this 
reduction is due to efficiency improvements in occupied Federal space 
as opposed to improvements owing to abandonment or sale of Federally 
owned or leased space in favor of more energy-efficient space? In other 
words, how much of what once was energy-inefficient Federal building 
stock is still in use, but under non-Federal ownership or occupancy?
    Answer. The 23.6 percent annual reduction in BTUs/Gross Square Foot 
by Federal buildings from 1985 to 2000 was affected by turnover in 
building stock, energy efficiency projects, acquisition of energy 
efficiency products, weather patterns, fuel mix, and other factors. We 
do not collect data on the 500,000 buildings that have gone in and out 
of the Federal Government's building inventory over the last 15 years, 
but we do have information on energy consumption. While gross square 
footage has increased slightly from 3,034.9 to 3,061.7 million square 
feet, energy consumption has declined from 139 to 106 trillion BTUs/
Gross Square Foot annually. We estimate that one-fourth (27 trillion 
BTUs annually) of the 23.6 percent reduction resulted from the $3,829 
million investment in Federal energy projects between 1985 and 2000).

----------------------------------------------------------------------------------------------------------------
                                                                   Gross square
                                                                    feet (GSF)     BTUs Per Year
                                                                     (million     (in trillions)     BTUs/GSF
                                                                   square feet)
----------------------------------------------------------------------------------------------------------------
1985............................................................         3,034.9           422.3           139.1
2000............................................................         3,061.7           325.4           106.3
----------------------------------------------------------------------------------------------------------------

    Question. Page 291 and 292 of the Department's budget justification 
indicate identical totals for recoveries from other Federal agencies 
for FYs 2001, 2002 and 2003. Are these entries redundant, or should the 
two totals be added to calculate total recoveries for the FEMP program 
(i.e. $1.6 million for fiscal year 2003)?
    Answer. These entries are redundant.
    Question. How many limited appointment personnel are currently 
being supported from recovered funds? Of the total funds collected to 
date, how much has been obligated?
    Answer. Currently, FEMP is supporting one limited appointment 
position in DOE's Golden Field Office with recovered funds. FEMP is in 
the process of hiring five limited appointment personnel to work on 
regional alternative financing issues. To date, $1.5 million of total 
collected funds have been obligated.
                   industries of the future--specific
    Question. The Administration has requested substantial resources 
for bioenergy initiatives, but the investments are predominantly in the 
biofuels and biopower area rather than bioproducts. What is the 
rationale for this funding allocation?
    Answer. Biofuels and biopower represent the most direct and the 
largest opportunities for biomass technologies to reduce U.S. 
dependence on foreign sources of energy and increase domestic energy 
supply. Simultaneously, development of these technologies will help to 
boost economic development in domestic industries and rural areas of 
the United States. Demand for ethanol has increased substantially in 
recent years in response to Clean Air Act requirements. Demand is 
expected to increase at an even greater pace as California, New York 
and Connecticut phase out MTBE. Research in biofuels will help develop 
the conversion and distribution systems to meet future demand.
    The DOE fiscal year 2003 request is aligned with the goals 
identified in the President's National Energy Policy. The NEP 
recognizes the tremendous potential for ethanol as an alternative 
transportation fuel. It also recognizes the opportunities for biomass-
generated electric power. The Strategic Program Review identifies the 
opportunity for the redirection of funds from various terminations and 
formerly earmarked projects to biobased products in the biomass program 
portfolio. It is understood that such R&D can create high value 
products that will support development of other components of an 
integrated biomass industry.
    In addition to research in biofuels and biopower, DOE is continuing 
to support high impact cost shared research in the area of bioproducts. 
The Agriculture IOF Biobased Products program is relatively new with 
initial funding in 1999. It is focused on replacing the predominantly 
petroleum based feedstocks used in the chemical industry with renewable 
biomass feedstocks utilizing advanced technology with more energy 
efficient processing. We believe the current balance is adequate 
considering the maturity of this program and the ability to leverage 
enabling biobased technology development in the EWD bioenergy and 
biorefinery programs. It should be noted that funding for bioproducts 
is also requested through the Interior Appropriations.
    Question. Is the $8.3 million requested for the Agriculture Vision 
sufficient to run an R&D solicitation, or will the funding only be used 
for educational grants?
    Answer. The current budget request is sufficient to run the 
excellent portfolio of Agriculture IOF program R&D projects. There will 
be an R&D solicitation issued very shortly, utilizing funding from E&W 
that will encompass some research on biobased products, in conjunction 
with biorefineries, to produce some combination of fuels, power and 
bioproducts. This should further enhance DOE's portfolio of research on 
biobased products. There will not be a separate research solicitation 
specifically addressing the Agriculture IOF Vision and Roadmap issued 
by OIT in fiscal year 2003. OIT will issue a solicitation to expand the 
Agriculture IOF Education Initiative targeted at catalyzing multi-
disciplinary graduate school curriculum and accompanying research in 
biobased products and bioenergy.
    Question. Is the funding requested sufficient to finance projects 
already selected?
    Answer. The fiscal year 2003 budget request is sufficient to fund 
all of the current active multi-year Agriculture R&D projects. As 
always, project performance and achievement of milestones will effect 
project schedules down selection.
    Question. What would the Department require to implement an R&D 
solicitation in fiscal year 2003?
    Answer. We believe the current funding is sufficient to meet the 
objectives of the Agriculture IOF Vision and Roadmap. A change in 
priorities would be required to implement an R & D solicitation in 
fiscal year 2003.
    Question. $1.2 million is requested for Sustainable Forestry 
activities within the Forest Products program. What distinguishes the 
type of research conducted within this activity from work being done by 
the Forest Service or within the Department of Agriculture?
    Answer. The sustainable forestry area of the forest and paper 
vision program focuses on modifying wood fibers to improve the 
efficiency of the manufacturing process thus reducing the energy usage 
specifically in the pulping and paper making processes. Fibers can be 
modified through biotechnology, tree physiology and sustainable soil 
productivity; DOE plans to support R&D in each area with its Forest 
Products program. In biotechnology, the focus is on understanding the 
genetic and molecular processes that control wood formation and 
properties. In tree physiology, the focus is on how wood formation and 
wood properties are affected by plant growth regulators such as light, 
water, and nutrients. In sustainable soil productivity the focus is to 
better understand the effects of intensive forest management on wood 
properties in the manufacture of solid wood, pulp and paper products. 
This supports the DOE mission to develop and deploy advanced energy 
efficient technologies that lead to the reduction of energy use in the 
industrial sector. The mission of the USDA Forest Service is to achieve 
quality land management under the sustainable multi-use management 
concept to meet the diverse needs of people. The land management focus 
is on Federal Lands.
    Question. There are relatively few changes in the sector-specific 
portion of the Industry program. Is the Department confident that the 
request for each sector is in-line with the benefits projected to be 
realized from the individual sector programs?
    Answer. The Department is confident that the request for each 
sector is in-line with the benefits projected from the individual 
sector programs. At the requested budget level and continued level 
funding, our GPRA analysis projects that we are on pace to deliver 1.4 
quads in annual energy savings in 2010 through investments we make in 
partnership with industry. These industries are expected to reduce 
their energy consumption by 2.9 quads through normal modernization 
investments. The additional 1.5 quads are the stretch component of our 
national goal of 25 percent reduction in energy intensity. We believe 
the IOF R&D Visions, Roadmaps, technologies, partnerships, and their 
effects on markets will catalyze and enable policy and investment 
changes that will attract the industry investment needed to become more 
efficient, competitive, and achieve the stretch goal. See the table 
below.

------------------------------------------------------------------------
                                          Energy benefit    Fiscal year
               IOF sector                 (Btu <greek-e>    2003 budget
                                              1,012)          request
------------------------------------------------------------------------
Aluminum................................              76          $8,103
Chemicals...............................             233          14,458
Forest Products.........................              80          11,827
Glass...................................              31           4,572
Metal Casting...........................              35           5,357
Steel...................................              71          10,329
Mining..................................              76           5,119
Agriculture.............................             189           8,259
Petroleum Refining......................              36  ..............
Industrial Materials for the Future.....              74          12,698
Sensors & Controls......................               9           3,774
Combustion Systems......................             141          15,600
Industrial Assessment Center............              40           7,694
Inventions & Innovations................             112           2,372
NICE3...................................              45           2,736
Best Practices..........................             169           8,235
                                         -------------------------------
      Total.............................           1,417         121,133
------------------------------------------------------------------------

    Question. For each industry sector program (with the exception of 
petroleum), are the funds requested sufficient to finance existing 
projects and mortgages as planned? If not, what additional funds would 
be required in each sector?
    Answer. There is sufficient funding being requested for existing 
projects in each industry sector in fiscal year 2003. Potential funding 
mortgages needed to bring those projects to a successful conclusion 
will be considered as progress of each project is assessed against 
milestones.
                 industries of the future-crosscutting
    Question. $13.6 million is requested for industrial gasification. 
What is the program plan for fiscal year 2003 and beyond for black 
liquor gasification demonstration projects?
    Answer. We monitor the costs and funding needs of these projects on 
an on-going basis, with the objective of sufficient project funding for 
planned project continuity, while minimizing end-of-year uncosted 
obligations. We believe that the budget request for fiscal year 2003 
meets this objective for the three demonstration projects.
    Question. Are the funds requested in fiscal year 2003 fully 
sufficient to support the plan?
    Answer. Based on our current assessment, the funding request for 
the biomass gasification is sufficient to support the plan.
    Question. If additional funds were available, how could such funds 
be used and what amounts would be appropriate?
    Answer. We believe the current funding meets the needs of the 
program through fiscal year 2003.
    Question. An increase of nearly $2 million is requested for 
Industrial Assessment Centers. At the same time, OMB review criteria 
for DOE research programs clearly place a premium on supporting efforts 
that would not be performed by the private sector. Why are industrial 
energy assessments not performed by private sector energy service 
companies?
    Answer. Unlike energy service companies, a major objective of the 
IAC program is to train engineering students in industrial efficiency. 
Since its inception in 1976, the program has successfully provided over 
1,700 university students with hands-on training in industrial energy 
management. This program has produced a cadre of experienced energy 
experts, a good number of whom have continued working in the energy 
management field, often for energy service companies. The small- and 
medium-sized manufacturers who are receiving industrial assessment 
services from the program often have neither the in-house expertise nor 
the means to seek private sector energy expertise. Another important 
distinction between the IAC program and private sector companies is 
that the IACs only make assessment recommendations. On average, half of 
the recommendations made by IACs are implemented by the manufacturing 
client, often with the help of private sector energy service companies. 
Based on IAC recommendations, the savings potential for the average 
industrial client is $55,000 per year.
    Question. What inherent capabilities does the Department have that 
energy service companies do not?
    Answer. As mentioned above, the principal differences are that the 
IAC program's provides university-level engineering students with 
hands-on industrial training as an integral part of their overall 
engineering curriculum, creating a cadre of knowledgeable and 
experienced energy efficiency experts for the industry's 
infrastructure; and, the recommendations the IAC's provide are made 
without a direct financial interest in the outcome, minimally providing 
a validating second opinion or stimulating the customer to pursuing the 
potential savings.
    Question. Does the Department's presence in this area inhibit 
private sector involvement?
    Answer. No, rather than inhibit, the program supports private 
sector involvement in two ways. As mentioned above, the implementation 
phase of any recommended work is not done by IACs and is totally 
handled by the private sector, creating new business for them. Also, 
the program has produced engineers whose practical experience in 
industrial efficiency has been sought by the private sector. In this 
way, the program has helped to successfully increase the pool of 
qualified candidates with energy systems knowledge and experience 
entering the private sector industrial community.
    Question. Does the Department's presence effectively subsidize the 
energy service industry by effectively performing market research that 
the companies would otherwise do themselves?
    Answer. No, the program does not conduct any market research.
                               freedomcar
    Question. The Administration has refashioned its automotive 
research program under the name FreedomCAR. Can you described in more 
detail the distinction between FreedomCAR and its predecessor, the 
Partnership for a New Generation of Vehicles (PNGV)?
    Answer. The major differences between the PNGV and FreedomCAR are 
described below in terms of vision, government involvement, technology 
emphasis, and R&D scope.
    Different vision.--While the focus of PNGV was on demonstration of 
high fuel efficiency, pre-production family sedans by 2004, 
FreedomCAR's ultimate long range vision is petroleum free, emissions 
free transportation, with emphasis on hydrogen fuel cells.
    Streamlined government leadership.--FreedomCAR is a collaboration 
between USCAR and the Department of Energy. PNGV was a collaboration of 
seven agencies, led by the Department of Commerce, with USCAR.
    Different technology emphasis.--FreedomCAR is focused on hydrogen 
and fuel cells, and the necessary hybrid enabling technologies, with 
transitional efficiency gains from advanced combustion and fuel cells 
using fuel processors. PNGV emphasized compression ignition direct 
injection (diesel) hybrids.Different R&D scope:
    FreedomCAR's focus is R&D at the component level with equal 
emphasis on light trucks and cars. PNGV emphasized development and 
demonstration of pre-production mid-sized family sedans, with the hope 
that the technologies would be scalable.
    Question. Can you describe some of the concrete benefits that have 
come from DOE-supported automotive research done to date?
    Answer. In its annual reviews of the Partnership for a New 
Generation of Vehicles (PNGV), the National Research Council (NRC) 
noted ``the substantial accomplishments already gained in pursuing the 
program so far'' (seventh report--2001) and observed that the 
partnership has enhanced cooperation at all levels and has achieved 
results more rapidly than would have been the case in the absence of 
partnership'' (sixth report--2000). However, the NRC reported that PNGV 
had achieved zero net economic benefit as of 2000 (Energy Research at 
DOE: Was It Worth It?, 2001), Nevertheless, some technologies developed 
under PNGV are now being commercialized, and benefits will begin to 
accrue as market penetration begins. Selected concrete examples of 
technological achievements are listed below.
Enabling research
    Increased the life of lithium ion batteries from 2 years to 7 years 
for hybrid-electric vehicle drives.
    Demonstrated that under certain conditions, advanced diesel fuel 
formulations can achieve particulate matter (PM) emission reductions of 
up to 35 percent without compromising fuel efficiency or raising oxides 
of nitrogen (NOx) emissions.
Vehicle integration
    The aluminum body structure on the Ford's Prodigy concept vehicle 
is 53 percent lighter than a conventional steel design, and the process 
used on the Prodigy is applicable to high volume production.
    In DaimlerChrysler's ESX3 concept vehicle, the unique thermoplastic 
injection molded body system is estimated to reduce weight by 46 
percent and cost by 15 percent versus conventional steel structures.
    General Motors' Precept concept vehicle proved the technical 
feasibility of achieving 80 miles per gallon, however, high cost 
remained as a major barrier toward commercialization.
PNGV Research successes migrating into production
    Cadillac, Oldsmobile, and Chevrolet vehicles incorporate aluminum 
door, deck, and hood panels by utilizing a PNGV developed production 
processes.
    The 2001 Chevrolet Silverado uses a 50-pounds lighter composite 
pickup truck box. The 2001 Jeep Wrangler utilizes a new, lighter, 
recyclable thermoplastic hardtop.
Announced production plans
    All three automakers have announced plans to produce hybrid 
vehicles in the 2003-2005 timeframe. (DaimlerChrysler Durango, Ford 
Escape, General Motors Silverado)
    Question. What can we expect from Detroit in the next few years in 
terms of advanced technology coming to market?
    Answer. All three automakers have announced plans to produce hybrid 
vehicles. These vehicles will be produced on standard assembly lines. 
The existing vehicle models have been redesigned to accommodate both 
conventional and hybrid powertrain systems.
    DaimlerChrysler.--The 2003 Dodge Durango will be offered with a 
hybrid powertrain. This version of the Durango will achieve 18.6 miles 
per gallon (mpg) combined city/highway (20 percent improvement), 
compared with 15.5 mpg for the conventional V-8 Durango. A hybrid-
electric version of the Dodge Ram pickup, the Contractor Special, is 
expected to be introduced in 2004. On-the-road, this vehicle will 
achieve 15 percent better fuel efficiency, lower emissions and better 
performance than the conventional Ram. Off-the-road, the vehicle can be 
utilized as a stationary electrical generator to deliver up to 20 
kilowatts (kW) of ac power to run power tools.
    Ford.--In 2003, the Escape Sport Utility Vehicle (SUV) will offer a 
hybrid electric powertrain using a 4-cylinder engine. Customers will 
get an estimated 40 mpg on the urban driving cycle, which is nearly 
double the V6 fuel economy while maintaining V6 performance. Also, a 
next generation vehicle platform has been announced that will utilize a 
42-volt electric system and an integrated starter generator (ISG), 
although the date of introduction is uncertain.
    General Motors.--The Chevrolet Silverado and GMC Sierra full-size 
pickup truck line will feature a hybrid propulsion system that will be 
available in 2004. The ParadiGM hybrid propulsion system, which is 
being designed for use on a global mid-sized platform, is also 
scheduled to debut in 2004. It is expected that the first vehicle to 
incorporate the ParadiGM system will get about 20 percent better fuel 
economy than the non-hybrid version of the vehicle and is targeted to 
achieve lower tailpipe emissions.
    Question. Where are we with regard to determining the optimal fuel 
source for transportation fuel cells?
    Answer. Hydrogen is the optimal fuel for transportation fuel cells; 
however, hydrogen is not found in nature and must be produced from an 
energy source or feedstock. Therefore, it is an energy ``carrier,'' 
much like electricity. In the long-term, hydrogen produced from a 
diverse mix of domestic energy sources is the strategy that provides 
the best energy security by lessening our dependence on foreign oil. 
These domestic sources potentially include natural gas, coal, nuclear 
and renewables. Once affordable, renewables will provide the best 
option since they are sustainable (i.e., never run out) and have the 
least environmental impact.
    Natural gas provides a good interim or ``start-up'' strategy to 
produce hydrogen since natural gas distribution infrastructure exists. 
With significant demand for natural gas in other energy sectors (e.g., 
power generation, residential, etc.), total reliance on natural gas for 
the transportation sector would likely require significant imports and 
not relieve our dependence on foreign sources to meet our 
transportation energy needs.
    The lack of widespread hydrogen refueling infrastructure (from any 
source) and the absence of an acceptable on-board hydrogen storage 
system have prompted research to develop on-board fuel processors that 
could generate hydrogen from gasoline and other fuels. With little 
infrastructure investment required, this interim approach is expected 
to be able to provide significant energy efficiency and environmental 
benefit if the cost of vehicles using this technology can be lowered 
and market demand generated.
    Question. Do we have any idea whether it makes more sense to 
generate hydrogen on-board or off-board?
    Answer. It makes more sense to generate hydrogen off-board the 
vehicle at a retail station or other distributed location and to store 
the hydrogen fuel in the vehicle. From a vehicle perspective, it is a 
simpler and more cost effective approach. This approach requires more 
research to develop a safe and efficient vehicle hydrogen storage 
system that stores enough hydrogen to provide an acceptable range 
(i.e., 350 miles) without taking up passenger or trunk space. However, 
off-board hydrogen generation would still involve significant 
infrastructure investment and development in off-board fuel processing, 
hydrogen purification, off-board storage, and dispensing technologies. 
Since no market presently exists, government assistance may be 
necessary to encourage energy providers to begin making hydrogen 
available at retail stations and to help resolve codes and standards 
issues related to hydrogen utilization.
    On the other hand, using a fuel processor to generate hydrogen on-
board the vehicle from conventional fuels requires little or no 
infrastructure investment. EERE and the private sector are continuing 
R&D efforts to overcome considerable cost, reliability, and start-up 
challenges associated with this approach. Depending on progress with 
the on-board approach, as well as technological advances and regulatory 
developments concerning the off-board approach, EERE may eventually 
discontinue R&D supporting the on-board approach.
    Question. In terms of on-board generation, do we know whether 
methanol, ethanol, natural gas or petroleum is the most sensible 
choice, or will it be multiple fuel types? When do you think we'll have 
this information?
    Answer. If reliable, fast-starting fuel processors can be developed 
for light-duty vehicles, a petroleum-based fuel is the most sensible 
choice because we could use our existing distribution and refueling 
infrastructure. Alternatives such as methanol, ethanol, and natural 
gas-derived Fischer-Tropsch fuels would provide significant petroleum 
displacement benefits if used as components in petroleum blends. The 
chemical composition of these alternative fuels used as blending agents 
make the fuel processing reaction easier and would require 
infrastructure investment similar to oxygenates in gasoline.
    For heavy-duty vehicles (i.e., buses, etc.), the use of alternative 
fuels such as ethanol, methanol, and natural gas-derived Fischer-
Tropsch fuels has greater potential because the vehicles tend to be 
centrally refueled. National compatibility for distribution and 
refueling infrastructure would not be required. Regional fuels (i.e., 
ethanol in the Midwest) may provide energy, economic, and environmental 
benefits. Also, natural gas may be more viable on heavier vehicles 
where more room is available for fuel storage.
    Given the potential for alternative fuels blended in petroleum for 
light- and heavy-duty vehicles, we believe the on-board fuel processor 
technology under development needs to be ``fuel flexible,'' which means 
that the technical approach taken must not eliminate these viable 
alternatives.
    Question. One of the reasons you've refocused the goals of the 
transportation research program is that PNGV was geared to produce a 
type of vehicle consumers wouldn't buy. That said, your budget would 
continue much of the ongoing work begun under PNGV. Where are we with 
regard to the performance of hybrid vehicles?
    Answer. There are several ways to evaluate the performance of 
hybrid vehicles. Hybrid vehicles that are currently on the market 
provide a 10 to 50 percent increase in fuel efficiency compared to 
conventional platforms and add an estimated 10 to 20 percent increase 
to the vehicle cost. These hybrids compete in a small vehicle segment 
and are primarily aimed at urban driving. In terms of vehicle driving 
performance, current hybrids are considered to be comparable to the 
conventional drivetrains that they replace for the targeted market 
segment. However, in order for hybrid vehicles to be more competitive 
in a broader market segment with conventional vehicles, additional 
advances in power electronics, electric motors, and batteries are 
needed to increase the power, improve the efficiency, improve the 
reliability, reduce the weight, and reduce the present high cost of the 
system.
    FreedomCAR is structured to build on the technical progress 
achieved from work conducted under the Partnership for a New Generation 
of Vehicles (PNGV), including much of the work on hybrid systems. The 
fiscal year 2003 budget request would fund the highest priority hybrid 
research (high power energy storage, power electronics, and electric 
motors) at 93 percent of the fiscal year 2002 appropriated level of 19 
percent more than our fiscal year 2002 request. One of the fundamental 
differences between FreedomCAR and PNGV is that the new Partnership 
aims to apply its R&D to all vehicle types, not just mid-size sedans as 
was the focus of PNGV. This shift is a response to changing consumer 
preferences that favor light trucks and sport utility vehicles (SUVs). 
Many of the technologies pursued under the PNGV can be applicable to 
light trucks and SUVs.
    Question. Are we close to having hybrid vehicles that are large 
enough and perform well enough to meet consumer demand in places other 
than urban settings?
    Answer. The hybrid vehicles currently on the market and announced 
for the near term are designed to take advantage of the stop-and-go 
driving found in urban settings. However, in public forums, automotive 
manufacturers have indicated that products offering towing capability 
and intercity travel over mountainous terrain are under development. In 
addition, the automakers have announced several hybrid vehicles in the 
large passenger vehicle and full-size pickup truck categories. For 
example, the Dodge Ram Contractor Special, referenced in question 52, 
is designed for both on- and off-road travel and, while parked, 
functions as a stationary generator. Also, the Dodge Durago hybrid 
sport utility vehicle (SUV) and Ford Escape hybrid SUV are expected to 
be available in 2003. Performance for all these vehicles is promised to 
be equivalent or better than their conventional counterparts while 
offering varying fuel economy improvements. It remains to be seen to 
what extent consumers will adopt these vehicles. Technologies being 
developed in the Department of Energy programs, in partnership with 
industry, will enable application of competitive hybrid propulsion to a 
broad range of vehicle platforms and usage.
    The Department of Energy, together with industry partners, will 
begin the technology demonstration phase of heavy hybrid propulsion 
vehicles in 2003. Two 40-foot hybrid transit buses will be delivered 
for a six-month revenue service test. Subsequently, the industry team 
developing this heavy hybrid propulsion system expects to deliver (in 
2004) their technology in Class 8 trucks for long-haul operation. These 
initial products are not expected to be fully cost-effective in the 
marketplace and additional development efforts will be required to 
optimize the technology and reduce costs to marketplace requirements.
                       transportation fuel cells
    Question. Within the Fossil Energy R&D account, funding for fuel 
cell work under the Solid-state Energy Conversion Alliance (SECA) has 
been reduced significantly. Though the specific focus of SECA is 
different than the transportation fuel cell program, are there basic 
technologies that might be developed under SECA that could be in used 
in transportation applications?
    Answer. The fuel cell work under the Solid-State Energy Conversion 
Alliance (SECA) is concentrated on the development of relatively high 
temperature, planar solid oxide fuel cells. This planar technology has 
the potential to be much more compact than the tubular technology 
developed by Siemens-Westinghouse for stationary applications. Because 
of much higher operating temperature and longer start-up times compared 
to polymer electrolyte fuel cells which are being developed for light-
duty vehicles, solid oxide technology is not as viable for these 
applications. Rather, solid oxide technology, which is rapidly 
progressing, is best suited for stationary applications where quick 
start-up is not a stringent requirement and where co-generation of high 
quality heat can be an additional benefit.
    The solid oxide technology under SECA may have applications in 
heavy-duty vehicles where fast start-up is not required and vehicles 
tend to be operated for extended duration (i.e., Class 8 trucks, 
locomotives, etc.). Another potential application in heavy-duty 
vehicles could be as auxiliary power units (APUs) where a small solid 
oxide fuel cell would potentially provide electrical power for cargo 
refrigeration, cabin cooling, accessory loads, etc., more efficiently 
than a mechanically driven alternator. The APU could also replace 
extended hours of truck idling necessary to provide electrical power 
during rest and holdover periods which would result in significant 
energy and environmental benefits.
    The Office of Energy Efficiency and Renewable Energy's Office of 
Transportation Technologies (OTT) is currently sponsoring a study to 
determine the best vehicle applications for APUs and the corresponding 
energy and environmental benefits. Diesel fuel processing development 
for heavy-duty vehicles and for remote stationary power is the basic 
technology area that SECA and OTT share and are already collaborating 
to minimize redundant research efforts. Since diesel reforming requires 
higher temperatures (to prevent coking), it is more compatible with the 
solid oxide operating temperature. As a result of the close 
collaboration between OTT and SECA, OTT is sponsoring an effort at the 
National Energy Technology Laboratory to develop diesel fuel processing 
technology. Also, under OTT's Cooperative Automotive Research for 
Advanced Technology (CARAT) program, proposals related to diesel 
reforming and APUs have been competitively solicited. Potential 
awardees will carry out their work in close coordination with SECA.
    Question. The justification indicates that the Department will 
establish a Fuel Cell National Resource Center at Los Alamos National 
Laboratory to provide a national user facility for research, 
development and testing. Why has Los Alamos been selected to host this 
center?
    Answer. The Department of Energy selected Los Alamos National 
Laboratory as the site to host the National Fuel Cell Resource Center 
because LANL is where the most capable fuel cell scientists reside. 
Scientists at Los Alamos obtained the original breakthroughs and 
patents responsible for making the polymer electrolyte fuel cell viable 
for transportation applications. Today, the staff at Los Alamos have 
the best fundamental and basic understanding of fuel cell-related 
electrochemistry and materials necessary to resolve remaining issues 
with the technology. Researchers at Los Alamos have a long track record 
of working with industry (General Motors, Motorola, Honeywell, etc.) to 
transfer knowledge and solve specific fuel cell problems.
    Question. Was this result of a competitive process?
    Answer. No.
    Question. Does establishment of this center have the support of 
manufacturers and other stakeholders?
    Answer. Yes, we have received strong letters of support from 
General Motors Corporation, Ford Motor Company, and fuel cell 
developers. Other national laboratories (e.g., Argonne National 
Laboratory, etc.) will be part of the center.
                    heavy duty truck vehicle systems
    Question. With respect to Vehicle System Optimization, the request 
includes a noticeable increase in funding from $9.3 million in fiscal 
year 2002 to $10.3 million in fiscal year 2003. How has the Department 
developed a relationship with the Truck OEM's to ensure that research 
dollars are appropriately allocated to meet our nation's energy 
challenges?
    Answer. The truck original equipment manufacturers (OEMs) have 
participated in workshops held specifically to elicit their input in 
defining R&D needs and opportunities for R&D collaboration between 
industry and government. These workshops have resulted in technology 
roadmaps and multi-year program plans in several areas that would lead 
to the overall vehicle system energy efficiency improvement, including 
reduction in aerodynamic drag and rolling resistance, and reduction in 
truck accessory loads. These plans have been peer reviewed and used as 
the basis for solicitations for cost-shared industry/government R&D.
                hybrid vehicle research and development
    Question. Of the $41 million dedicated to hybrid technology in DOE 
for fiscal year 2003, only $4 million is identified for application to 
Heavy-Duty Vehicles. This appears somewhat inconsistent with Assistant 
Secretary Garman's testimony to the House Science Committee that 
referenced our nation's ever increasing fuel consumption created by 
heavy duty trucks. What efforts are underway to ensure that the light-
duty hybrid investment provides maximum relevance and benefit to the 
heavy-duty hybrid technology suppliers, engine manufacturers, and their 
truck OEM customers in the 21st Century Truck Partnership?
    Answer. The $4 million requested in fiscal year 2003 for heavy 
hybrid vehicles will provide for technology development by industry 
teams of hybrid propulsion technologies for heavy-duty trucks and 
buses. The Department believes the requested $4 million for heavy 
hybrid technologies is an appropriate request. As a result of previous 
Department of Energy and industry cooperative developments, one 
industry team will commercialize a hybrid propulsion 40-foot transit 
bus for revenue service in 2003. The funding requested in fiscal year 
2003 will continue to advance the heavy hybrid program by means of a 
fiscal year 2003 solicitation to enlist additional industry partners in 
this technology area. The industry partners include technology 
suppliers, engine manufacturers, truck original equipment manufacturers 
(OEMs) and 21st Century Truck Partnership participants. The success of 
this program to date is based, in part, on the adaption of several 
critical technologies originally developed for light-duty hybrid 
electric vehicles such as power electronics and battery energy storage 
technologies. Continued adaption of appropriate light-duty hybrid 
technologies to heavy-duty hybrid vehicles is expected.
               heavy duty engine research and development
    Question. Through the efforts of Congress, the Heavy Truck Engine 
line item was increased from $6 million $9.4 million for fiscal year 
2002. In doing so, Congress acknowledged the importance activity in 
achieving our national goals of energy efficiency and emissions 
reductions. However, the Department's fiscal year 2003 budget request 
for this activity is only $7 million, a reduction of more than $2 
million from the fiscal year 2002 level. Does your work with the engine 
industry on this project indicate that this reduced funding level is 
adequate to meet the demands for fuel efficiency and emissions 
reduction facing the industry in 2007?
    Answer. The President's request for the Heavy Truck Engine R&D 
activity in fiscal year 2003 ($7.0M) is an increase of $1.1M relative 
to the fiscal year 2002 request ($5.9M). The Department feels the 
request of $7 million is adequate to meet fuel efficiency and emissions 
reduction goals facing the industry in 2007.
                       locomotive engine research
    Question. In coordination with the rail sector, the Department 
recently issued a 119-page ``roadmap'' for improving railroad 
locomotive fuel efficiency. However, the Department's fiscal year 2003 
budget request for such off-highway vehicle research, including 
locomotives, is just $500,000.
    Answer. The Department feels that the request of $500,000 with 
equal cost-share from industry is adequate to engage industry interest.
    Question. Why did the Department go to the trouble of developing a 
detailed work plan if the agency did not intend to request sufficient 
funds to implement it?
    Answer. The Department has developed a draft 119-page roadmap for 
improving railroad locomotive fuel efficiency. The draft plan 
represents a compilation of stakeholder input that will be used to 
identify industry R&D needs and opportunities for Government and 
industry collaboration. The document reflects an early phase of 
information gathering and should not be considered a detailed work 
plan. Once a final draft of the ``roadmap'' document is completed, it 
will undergo full government and industry peer review and final 
approval for release by the combined government/industry team working 
on it. The peer reviewed, final ``roadmap'' will be the basis for 
developing a detailed Multi-Year Program Plan that will lay out the 
prioritized R&D over several years. The Department feels that the 
request of $500,000, with equal cost-share from industry, is adequate 
to engage industry interest, and complete a detailed Multi-Year Program 
Plan. Of course, as with all R&D programs, the future proposed R&D 
activities will be assessed annually against the R&D Investment 
Criteria developed as part of the President's Management Agenda; 
funding levels will be requested accordingly.
    Question. What were the results of the strategic program review 
with regard to the relative merits of off-highway vehicle R&D (esp. 
locomotive research)?
    Answer. The off-highway vehicle R&D planning was not complete when 
the strategic program review took place and was not discussed
    Question. The Department's fiscal year 2003 budget requests some 
$70 million to improve the fuel efficiency and emissions 
characteristics of heavy-duty trucks. How do the heavy truck sector and 
off-highway vehicle sector compare in terms of fuel use, emissions, 
etc.?
    Answer. The table below compares the fuel use (in quadrillion Btus, 
Quads) of heavy trucks, off-highway (construction and agriculture), and 
rail transport (locomotives) in 1999 and 2000 as well as projected for 
the out years (2010, 2015, and 2020).

------------------------------------------------------------------------
                                       Energy Use (quadrillion Btus)
     Heavy vehicle category      ---------------------------------------
                                   1999    2000    2010    2015    2020
------------------------------------------------------------------------
Heavy Trucks....................     4.6     4.8     6.2     6.9     7.4
Off-highway.....................     0.7     0.7     0.8     0.8     0.8
Rail (Locomotives)..............     0.6     0.7     0.7     0.7    0.7
------------------------------------------------------------------------
Source: The 1999 values are from Transportation Energy Data Book:
  Edition 21--2001, ORNL-6966, Oak Ridge National Laboratory, September
  2001. The 2000 values and projections are from the U.S. DOE Energy
  Information Administration, Annual Energy Outlook 2002, DOE EIA-
  0383(2002), December 2001.

    In 1999, the relative emissions contributions of heavy trucks, off-
highway, and rail vehicles are shown in the table on the next page.

----------------------------------------------------------------------------------------------------------------
                            Emissions                              Heavy trucks     Off-highway      Railroads
----------------------------------------------------------------------------------------------------------------
NO<INF>X</INF>, million short tons.........................................             4.1             4.3             1.2
VOCs, million short tons........................................             0.6             2.2            0.05
PM2.5, million short tons.......................................             0.2             0.3           0.03
----------------------------------------------------------------------------------------------------------------
Source: Transportation Energy Data Book: Edition 21--2001, obtained from U.S. Environmental Protection Agency,
  National Emission Inventory Air Pollutant Emission Trends.

    Question. What are the potential benefits from R&D in each sector 
in terms of reduction in fuel use and emissions?
    Answer. The fleet average fuel economy of line-haul, tractor-
trailer heavy trucks is 6.6 miles per gallon (mpg). The fuel economy of 
current, best technology tractor-trailers is between 7.25 to 8 miles 
per gallon. If all the technologies leading to an improved heavy truck 
fuel economy of 10 miles per gallon are commercialized, there will be 
an improvement from 25 percent (over the current best technology truck) 
to 52 percent (over the fleet average truck). The total fuel savings 
would be dependent on the penetration of the 10 mpg technologies into 
the heavy truck fleet. Carbon dioxide emissions reduction will be 
achieved in direct proportion to the reduction in fuel use. In 
addition, a heavy truck payload increase resulting from vehicle weight 
reduction would mean fewer numbers of heavy trucks on the road to 
deliver the same ton-miles of freight. Fewer trucks on the highways 
result in lower total emissions of criteria pollutants (NOx and 
particulates) assuming that each individual truck is criteria emissions 
compliant.
    For the off-highway sector (e.g., construction equipment, rail or 
locomotives, and farm equipment), it is estimated that compliance with 
the future more stringent emissions standards would mean an energy 
efficiency penalty of as much 5 to 10 percent. In addition, it has not 
been established that the durability and the current life of off-
highway vehicles used in farming and construction could be maintained 
if emissions control technologies such as exhaust gas recirculation 
(EGR) were implemented. One of the major challenges on the off-highway 
engine R&D will be to reduce the inherently higher emissions of NOx 
from off-highway diesel engines while maintaining and ultimately 
improving fuel economy. It is anticipated that improvements will need 
to be made in the fuel quality of off-highway diesel fuel as well as 
advances in combustion, engine, and emissions control technology in 
order to achieve the goals of the program.
    Question. What about for locomotive engines specifically?
    Answer. Currently, locomotives dissipate their braking energy as 
heat as they slow down when going downhill or around curves. Estimates 
indicate that braking energy recovery could improve the overall 
locomotive energy efficiency by 10 to 14 percent. In addition, advanced 
powerplants (engines) could potentially improve energy efficiency by an 
additional 6 to 10 percent. One of the major challenges on the 
locomotive R&D will be to reduce the inherently higher emissions of 
NO<INF>X</INF> from locomotive engines while maintaining and ultimately 
improving fuel economy. It is anticipated that improvements will need 
to be made in the fuel quality of locomotive diesel fuel as well as 
advances in combustion, engine, and emissions control technology in 
order to achieve the goals of the program.
                       natural gas infrastructure
    Question. Mr. Secretary, we have met previously to discuss the 
problems with the Fossil Energy portion of your budget as it has been 
proposed. Obviously, I am a proponent of increasing domestic energy 
supplies, but am also extremely interested in making sure that our 
energy infrastructure is reliable, and more importantly, safe. The 
Department is suggesting that we zero out the Natural Gas 
Infrastructure account. I know there is a proposal to send some of the 
activity to the Department of Transportation, but I am not sure that 
there has been adequate planning to do so. Does the DOT budget increase 
by an amount similar to the $10 million reduction in our budget and 
have you personally taken the time to ensure that this transition would 
benefit the safety and reliability of our natural gas infrastructure?
    Answer. The Department of Transportation (DOT), Office of Pipeline 
Safety (OPS) budget does not increase by an amount similar to the $10 
million reduction in the DOE's natural gas infrastructure program. The 
DOT's Office of Pipeline Safety fiscal year 2003 research budget, 
funded from industry user fees, increases by $4 million, from $4.7 
million in fiscal year 2002 to $8.7 million in fiscal year 2003. 
Although DOE has not yet discussed with DOT how we would transition the 
DOE infrastructure reliability technology research program, implemented 
by the National Energy Technology Laboratory, to OPS, we plan to do 
everything to ensure that this transition will benefit the safety and 
reliability of our natural gas infrastructure. It is our understanding 
that up to twenty percent of the OPS fiscal year 2003 safety research 
program may be in the same focused area as the DOE natural gas pipeline 
technology activity, e.g. damage prevention and leak detection.
                            clean fuels r&d
    Question. Mr. Secretary, your request severely decreases the 
funding available for Fuels research in the Fossil Accounts. The 
reductions bring activity in this area down from over $30 million in 
fiscal year 2002 to $5 million in your request. Knowing that fuels 
development, especially clean fuels development, is extremely important 
to allow us to continue utilizing fossil fuels, I am confused as to why 
we would reduce these accounts by such extreme levels. What do 
mortgages of such quick downturns of activity leave us with, and is DOE 
left holding uncompleted contracts in this or other accounts if 
Congress agrees to abandon these programs?
    Answer. The fiscal year 2003 Budget request includes reduced 
funding for the high priority innovative development of an Ionic 
Transport Membrane (ITM) for the conversion of air and natural gas to 
produce synthesis gas with a projected saving of up to 20 percent over 
current technology. Funding is also provided for supporting research 
and advanced physical conversion technology. All Fossil Energy programs 
are presently undergoing a top to bottom review. Upon completion, the 
program will be restructured to comply with the results of the review.
    The refocusing of the Fuels program will necessitate either 
stretch-out, restructuring or discontinuance of several contracts. 
There are no large mortgages in the sense of financial liabilities 
associated with the termination of contracts, but there are several 
existing contracts which include planned activities which would not 
receive Federal funding.
    Question. Especially worrisome is the Ultra Clean Fuels Program 
that went from funding under the petroleum account at a level of just 
under $10 million in fiscal year 2001 to over $16.5 million in fiscal 
year 2002, to a requested level of zero in fiscal year 2003. How can 
basic R&D activity weather such extreme swings of funding, and isn't it 
wasteful to throw money into ramping up research and walking away 
without reasonable review?
    Answer. The development of technologies to produce ultra-clean 
transportation fuels to meet U.S. Environmental Protection Agency Tier 
II vehicle emission and diesel fuel standards is being pursued by 
industry. The time frame for the introduction of these fuels is too 
short for the government to have an impact on their methods of 
production.
    Question. Do you feel the Ultra Clean Fuels program will be 
completed in this year? As I understand it, clean diesel programs are 
essential to meeting EPA's upcoming restrictions on particulate and 
emissions.
    Answer. The development of technologies to produce ultra-clean 
transportation fuels to meet U.S. Environmental Protection Agency Tier 
II vehicle emission and diesel fuel standards is being pursued by 
industry. The time frame for the introduction of these fuels is too 
short for the government to have an impact on their methods of 
production. The current ultra-clean transportation fuels projects would 
not be completed this fiscal year.
    Industry efforts are expected to result in the successful 
development of technologies to produce ultra-clean transportation fuels 
to meet EPA's upcoming restrictions on particulate and emissions, 
although the cost of this technology is expected to be higher than 
could be achieved through the use of technology being developed under 
the Department's Ultra Clean Fuels program.
                  fossil energy--carbon sequestration
    Question. Mr. Secretary, I notice that your budget request 
increases Carbon Sequestration R&D from $32 million to $54 million. I 
understand that we must take a closer look at carbon sequestration due 
to the reality that fossil fuels will remain a large portion of our 
energy portfolio over the upcoming decades. In the context of the 
overall hit that the Fossil R&D account has taken, including our 
willingness to walk away from clean fuels research and other 
environmentally friendly programs, what do we gain from this additional 
$20 million in Sequestration research?
    Answer. The simple answer is that the additional $20 million of 
sequestration research allows us to stay on our program plan to deliver 
practical, effective, low cost sequestration options in another 13 
years. It allows the Department to be responsive to the President's 
June 2001 Climate Change Technology Initiative, and his February 2002 
Climate Change announcement. Both of these cited carbon sequestration 
as a key element of the technology package needed to address climate 
change concerns.
    The full answer is somewhat more complex. If one posits that there 
is reasonable possibility we are facing climate change impacts from 
current levels of fossil fuels use, then we clearly need options for 
mitigating such impacts. It is my opinion that relatively low cost 
sequestration can enable our society to continue to enjoy the economic 
and energy security benefits which flow from keeping coal and other 
fossil fuels in our energy mix. In this context carbon sequestration 
research provides a low cost insurance policy against both adverse 
impacts from climate change and adverse economic impacts from more 
costly approaches to mitigation.
    Viewed from a different perspective, I believe that without a 
demonstrated option for addressing greenhouse gas emissions from coal 
use, programs such as those you are advocating will face suffocating 
opposition could increase to include even present uses of coal. The 
sooner we can demonstrate that sequestration can address those 
concerns, the sooner we can gain the critical popular support needed to 
pursue additional technologies to expand the role of coal in meeting 
the Nation's energy needs.
    Question. Can you honestly argue that this increase of activity in 
a fairly new program is more worthwhile and will help us gain tangible 
results more quickly than research in the accounts that I have 
highlighted today?
    Answer. Our first priority in designing an R&D portfolio is to 
identify any issues that could eliminate the use of fossil fuel. The 
only such issue for fossil energy is global climate change. Carbon 
Sequestration may be an effective alternative to discontinuing the use 
of fossil energy, or accepting substantial environmental damage, if 
strong evidence of damage is demonstrated. Unfortunately, we cannot 
wait until all the information is available on climate change, before 
developing additional options. We must begin now. Quickly developing 
effective, low cost sequestration options is viewed as the most 
critical R&D need within the Fossil Energy program, and that is the 
reason for the rapid scale up in the sequestration budget.
                           windows technology
    Question. The justification indicates that $6.228 million was 
allocated for windows technology research in fiscal year 2002, a 
substantial increase over the fiscal year 2002 budget request. How are 
these funds being allocated? Please be specific about amounts, 
recipients, purpose of funds, new vs. ongoing work, etc.
    Answer. The fiscal year 2002 Interior Appropriations Bill 
Conference Committee Report designated ``$3,000,000 is for windows 
research (including electrochromics)'' over the fiscal year 2002 budget 
request of $3.228 million. The total amount appropriated in fiscal year 
2002 ($6.228 million) is approximately equal to the fiscal year 2001 
appropriation ($6.714 million). The table below represents work 
underway or currently planned beyond the funding level of the fiscal 
year 2002 budget request.

----------------------------------------------------------------------------------------------------------------
                                             Fiscal year
                                     ---------------------------                OMB
              Performer                  2002                       Year    allocation   Description of Activity
                                        budget         2002      initiated     number
                                        request   appropriation
----------------------------------------------------------------------------------------------------------------
University of Massachusetts.........    $180,000      $245,000        2001    \1\ 1452  Advanced thermal
                                                                                         performance research;
                                                                                         develop technical basis
                                                                                         for product rating and
                                                                                         design of complex and
                                                                                         emerging window
                                                                                         technologies (supports
                                                                                         future NFRC advanced
                                                                                         procedures).
University of Minnesota.............     190,000       300,000        1997    \1\ 1452  Knowledge base and
                                                                                         tools, including
                                                                                         handbook on windows and
                                                                                         glazings for high
                                                                                         performance commercial
                                                                                         buildings.
National Fenestration Rating Council     110,000       260,000        2001    \1\ 1452  Performance rating,
                                                                                         including rating
                                                                                         procedures for retrofit
                                                                                         films and storm
                                                                                         windows; initiate new
                                                                                         database program for
                                                                                         certified products.
Alliance to Save Energy.............     100,000       270,000        2000    \1\ 1452  Support Efficient Window
                                                                                         Collaborative (EWC);
                                                                                         provide technical
                                                                                         assistance to
                                                                                         practitioners for
                                                                                         design, specification,
                                                                                         and implementation in
                                                                                         retrofit and new
                                                                                         construction.
Florida Solar Energy Center.........      60,000       140,000        2001    \1\ 1452  Advanced solar and
                                                                                         optical performance
                                                                                         research.
Arthur D. Little, Inc...............  ..........       200,000        2002    \1\ 1452  Analysis for window/wall
                                                                                         technologies.
Los Alamos National Laboratory......  ..........       300,000        2002    \2\ 1453  Electrotint Windows
                                                                                         Using Ionic Liquids.
Pacific Northwest National                15,000        35,000        1992    \2\ 1453  Harmonization of
 Laboratory.                                                                             National Fenestration
                                                                                         Rating Council/
                                                                                         International Standards
                                                                                         Organization standards.
Lawrence Berkeley National             2,253,000     3,698,000        1990    \2\ 1453  Systems, materials and
 Laboratory.                                                                             process research;
                                                                                         performance and
                                                                                         applications research;
                                                                                         retrofit windows and
                                                                                         glazings; Develop of
                                                                                         advanced electrochromic
                                                                                         and solar control
                                                                                         technologies; technical
                                                                                         support to
                                                                                         electrochromic
                                                                                         industry; Development
                                                                                         and validation of
                                                                                         simulation tools for
                                                                                         design and rating:
                                                                                         technical basis for
                                                                                         NFRC and Energy Star
                                                                                         Windows.
Oak Ridge National Laboratory.......      60,000       130,000        1997    \2\ 1453  Thermal testing research
                                                                                         to support NFRC/
                                                                                         industry rating
                                                                                         programs
National Renewable Energy Laboratory     260,000       650,000        1979    \2\ 1453  Electrochromic
                                                                                         durability research,
                                                                                         test & evaluation, and
                                                                                         durability standards)--
                                                                                         expanded testing
                                                                                         support to industry
                                                                                         (SAGE, Eclipse, etc.).
                                     ---------------------------
      Total.........................   3,228,000    6,228,000
----------------------------------------------------------------------------------------------------------------
\1\ Inherently unique research.
\2\ Merit-reviewed research with limited competition.

                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
                       lignite 21 vision project
    Question. Lignite coal is an abundant resource in North Dakota that 
provides a low-cost, reliable energy source for more than 2 million 
people in the upper Midwest. On several occasions, I have written you 
requesting that lignite coal projects be funded through the Power Plant 
Improvement Initiative that this Subcommittee included in previous 
appropriations bills or some other clean power initiative. I want you 
to know of my continued interest in making sure that low BTU coal 
projects are given fair consideration in any new demonstration projects 
at DOE. In the new Clean Coal Power Initiative proposed by the 
Administration, I am interested in making sure that this project 
encourages the development of clean coal projects using North Dakota 
lignite. The Mid-Continent Area Power Pool (MAPP)--which includes 
Minnesota, the two Dakotas and the eastern half of Montana--estimates 
it will be short 5000 megawatts of electricity by 2006. I think it 
would be prudent for DOE to give detailed attention to projects such as 
the Lignite 21 Vision Project in North Dakota, which has already gotten 
a commitment of funds from the state. Although I haven't seen many 
details of the Clean Coal Power Initiative included in the fiscal year 
2003 budget, I see from your testimony that you expect to put 
together--with a $150 M appropriation in fiscal year 2003--a $330 M 
solicitation for industry-proposed, cost-shared demonstration projects. 
Can you provide me any details about what is going to be in this 
solicitation and comment on whether the information I have sent you 
about the Lignite 21Vision Project in ND would qualify for this kind of 
a program?
    Answer. Lignite coal-based projects are both eligible and 
encouraged under the Clean Coal Power Initiative (CCPI) solicitation. 
The Lignite Visions 21 Project being planned in North Dakota, as I 
understand it, is focused on the development of a very clean and 
efficient lignite coal power plant that will employ cutting-edge 
technology beyond current commercial capability. As such, it is 
certainly eligible to be bid and competitively evaluated under the CCPI 
solicitation that was issued on March 4, 2002. The solicitation is 
available for review on the DOE website at www.netl.doe.gov.
                   future energy efficiency programs
    Question. Mr. Secretary, does the Department have plans with 
respect to energy efficiency programs for 30 or 50 years from now?
    Answer. The Office of Energy Efficiency and Renewable Energy (EERE) 
is currently preparing a Strategic Plan that will address important 
energy-related challenges and opportunities facing our country. This 
plan identifies the goals and strategies EERE will pursue in the years 
ahead to address these programs. In developing this plan, EERE is 
paying greater attention to long-term impacts, specifically using a 
longer time horizon, extending from 1973 through to 2050. The plan will 
address quantitative results for the next 30 years and will look ahead 
50 years at structured energy markets. The Strategic Plan is explicitly 
tied to the vision and recommendations of the National Energy Plan, 
containing a sharper delineation of EERE's role and objectives.
    Question. Can we expect such a plan in the future?
    Answer. I expect that the Strategic Plan will be available by the 
end of May, 2002.
        strategic review of energy efficiency and renewal energy
    Question. Mr. Secretary, along these lines, I understand that the 
Renewable Energy and Energy Efficiency office conducted a strategic 
review of its programs last year, and that this review is being held up 
and has not been released to Congress. Can you enlighten me as to the 
status of this review, and why it has not yet been released?
    Answer. This report has gone through extensive review within the 
Office of Energy Efficiency and Renewable Energy and with the Office of 
Management and Budget. It is essentially complete and is expected to be 
released momentarily.
    Question. If this review is used for the RE/EE Office to develop 
its budget proposal, how are we supposed to evaluate that proposal and 
the rationale for some of the budget cuts we are seeing, without the 
benefit of having seen this review document, in its original form?
    Answer. The report is essentially complete and is expected to be 
released momentarily.
    Question. When can we expect to see this important document?
    Answer. The report is essentially complete and is expected to be 
released shortly.
                           green tags program
    Question. Mr. Secretary, I have contacted you and your Department 
on several occasions about the status of a proposed Green Tags program, 
which wouldn't necessarily come under this Subcommittee's jurisdiction, 
but I wanted to take this opportunity to ask about the status of this 
project, since the program has not yet been launched after nearly 1.5 
years. Most recently, I spoke with Assistant Secretary Garman about 
this at a wind energy conference that I recently held in ND. He said 
the mechanisms for this program are still being worked out. Can you 
provide any further information regarding the status of this project, 
and when we might see this program launched?
    Answer. The Department is continuing to examine a number of 
elements related to renewable energy purchases, of which the use of 
renewable energy credits is an option. Upon completion of our review, I 
will ask Assistant Secretary Garman to share our plans with you.
                     energy efficiency budget cuts
    Question. Why are the energy efficiency R&D programs being cut when 
the Administration is saying that technologies, like fuel cell cars, 
are the answer to our energy future?
    Answer. Reductions were taken in selected areas of EERE's R&D 
portfolio. We have made strategic decisions that balance our portfolio 
with regard to technological risk, benefits accrual, and demographics. 
Key technologies, such as the fuel-cell vehicles that you cite, are 
well supported.
    For instance, although funding for our transportation programs in 
total is reduced in the fiscal year 2003 request, we have requested 
increases for the key technologies that need public support, such as 
fuel cells and hydrogen research, while reducing funding in areas that 
our Strategic Program Review indicated were ready to be ``graduated'' 
to industry development, such as some materials and combustion engine 
development, or that did not have good prospects for making a 
significant impact on our energy economy, such as dedicated electric 
vehicles.
    Following the President's priorities, we have shifted to a greater 
emphasis on delivering energy efficiency technology to the marketplace 
and promoting adoption by American consumers. For example, we have 
increased the Energy Star program, which enhances consumer choice by 
telling consumers which appliances are most energy efficient, by over 
100 percent. In addition, we have increased the Weatherization 
Assistance program, which provides grants to make low-income homes more 
energy efficient, by $47 million, a 20 percent increase from our fiscal 
year 2002 appropriation.
    We have also refocused our efforts on long-term, fundamental 
technology R&D, efforts that are in our nation's interest but are too 
risky or long-term to be conducted by the private sector. Indicative of 
this longer-range vision is our recently announced new cooperative 
public/private research partnership, entitled FreedomCAR [CAR stands 
for Cooperative Automotive Research], with the U.S. Council for 
Automotive Research (USCAR). The new partnership supercedes and builds 
upon the successes of the Partnership for a New Generation of Vehicles 
(PNGV) that began in 1993. It is, however, different in scope and 
breadth. FreedomCAR shifts government research to more fundamental, 
higher risk (and higher payoff) activities, with applicability to 
multiple passenger vehicle models and special emphasis on development 
of fuel cells and hydrogen fuel infrastructure.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
         major hydrogen and/or fuel cell demonstration programs
    Question. What are the Fossil Energy's major hydrogen and/or fuel 
cell demonstration activities proposed for fiscal year 2003?
    Answer. In fiscal year 2003, synthesis gas production research will 
continue to develop advanced ceramic transport membranes and modules to 
the process development unit scale (24,000 cubic feet per day) to 
produce synthesis gas for further processing to achieve lower cost 
hydrogen and other valuable fuel products from natural and synthesis 
gas.
    Fossil Energy's major fuel cell demonstration activities include:
  --Field tests of a 220 Kw hybrid solid oxide fuel cell and gas 
        turbine system operating at the National Fuel Cells Research 
        Center in Irvine, California.
  --Field tests of a 250 Kw solid oxide fuel cell system under 
        construction in Toronto, Canada.
  --Field tests of a 300 Kw hybrid solid oxide fuel cell and gas 
        turbine hybrid system under construction in Essen, Germany.
  --Field tests of a 250 Kw hybrid molten carbonate fuel cell system 
        operating in Danbury, Connecticut.
    Question. What are the Energy Conservation's major hydrogen and/or 
fuel cell demonstration activities proposed for fiscal year 2003?
    Answer. The Hydrogen Program (funded by Energy and Water 
Development Appropriations) intends to support, jointly with the Office 
of Transportation Technologies (funded by Interior Appropriations), 
several activities that were awarded through competitive solicitations. 
These include the demonstration of a power park that co-produces 
hydrogen and electricity for an industrial complex, several residential 
power parks that demonstrate hydrogen production and use with advanced 
storage systems and fuel cells, and electrolysis systems that produce 
more than 10,000 standard cubic feet per day of hydrogen from water to 
fuel hydrogen vehicles. The following table summarizes these 
collaborative projects.

------------------------------------------------------------------------
                                                             Fiscal year
             Recipient                      Objective            2003
                                                               funding
------------------------------------------------------------------------
Air Products and Chemicals.........  Develop and install a      $175,000
                                      50 kilowatt fuel cell
                                      and hydrogen
                                      production system.
Air Products.......................  Develop and install         800,000
                                      next generation
                                      refueling station
                                      concept.
General Electric...................  Develop and install         400,000
                                      next generation
                                      refueling station
                                      concept.
Gas Technology Institute...........  Develop and install         400,000
                                      alternative refueling
                                      station concept.
Solicitation.......................  Through the State         1,000,000
                                      Energy Programs, fund
                                      the development of
                                      several power park
                                      projects.
------------------------------------------------------------------------

    In addition, the fiscal year 2002 Interior Appropriations Bill 
(H.R. 2217) directed DOE to ``report to the House and Senate Committees 
on Appropriations, within twelve months of the date of enactment of 
this Act, on the technical and economic barriers to the use of fuel 
cells in transportation, portable power, stationary, and distributed 
generation applications. The report should include recommendations on 
program adjustments based on an assessment of the technical, economic, 
and infrastructure requirements needed for the commercial use of fuel 
cells for stationary and transportation applications by 2012.'' DOE was 
also directed to provide an interim assessment that describes 
preliminary findings about the need for public and private cooperative 
programs to demonstrate the use of fuel cells in commercial scale 
applications. In response to these tasks, the Department is developing 
the required reports, and we expect to include the description of a 
phased demonstration program that could involve up to 5,000 hydrogen 
fueled vehicles over approximately 10 years and that would include the 
required refueling infrastructure.
    Question. Given that the University of Hawaii was designated in 
1996 as a Center of Excellence in Hydrogen Research and Education by 
the DOE, is Hawaii being considered as a location for these fossil 
energy demonstration activities--especially as they relate to renewable 
energy resources?
    Answer. The Office of Fossil Energy is responsible for developing 
advanced, lower cost technology for the production of synthesis gas 
from domestic fossil resources (coal, natural gas) and its separation 
into hydrogen. FE is looking for innovative technology approaches for 
hydrogen production such as by biological concepts, innovative 
technology for separation such as ceramic transport membranes, and 
hydrogen storage such as use of carbon nano-tubes. If these innovative 
technologies prove feasible and there is a subsequent program 
justification for larger scale effort, procurement for these activities 
would be conducted on a competitive basis. The University of Hawaii is 
welcome to participate. However, there is no major demonstrations 
planned at this time.
    Question. Given that the University of Hawaii was designated in 
1996 as a Center of Excellence in Hydrogen Research and Education by 
the DOE, is Hawaii being considered as a location for these Energy 
Conservation demonstration activities B especially as they relate to 
renewable energy resources?
    Answer. Funding for the demonstrations identified in Mr. Inouye's 
prior question on proposed demonstration activities for fiscal year 
2003 is being awarded through a competitive peer reviewed process. The 
University of Hawaii was notified of these solicitations and encouraged 
to submit proposals for additional activities. Since this new 
solicitation has recently closed (3/15/02), at this time we do not 
definitively know which institutions have submitted proposals. However, 
it is our understanding that the University of Hawaii was preparing, 
and did intend to submit, a proposal for this solicitation.
                               freedomcar
    Question. The DOE has announced plans to replace the Partnership 
for a New Generation Vehicle (PNGV) with the FreedomCAR partnership. 
How much of the FreedomCar budget will be for university research 
programs?
    Answer. Historically about 3 percent of the Department's automotive 
research budget has funded university R&D. FreedomCAR activities will 
continue this trend. With FreedomCAR's emphasis on longer-range, high-
risk technologies, and with a focus on individual component research, 
there will likely be increased opportunities for universities to 
participate in the coming years. In addition, we have efforts designed 
to make the entire program more accessible to universities. The CARAT 
(Cooperative Automotive Research for Advanced Technologies) program is 
restricted to universities and small businesses. The GATE (Graduate 
Automotive Technology Education) program provides assistance to 
graduate institutions to set up interdisciplinary curricula related to 
advanced vehicle development and provides support for a limited number 
of graduate students. We also have had solicitations restricted to 
university participation. One such effort (a university consortium) is 
focused on basic research into one type of advanced combustion that may 
solve some of the emissions problems that are a current barrier to 
using internal combustion engines. Under the current budget request 
just these three examples (CARAT, GATE, and the consortium) would total 
about $2.5 million.
    Question. Given the DOE's commitment to hydrogen and fuel cell 
technologies in the FreedomCAR, what is the Department's priority of 
hydrogen as an alternative energy source with respect to the 2003 
budget request?
    Answer. Much of the Department's ongoing transportation fuel cell 
technology activities (which total $50,000,000 in the fiscal year 2003 
budget request) focus on hydrogen as an alternative energy resource. To 
emphasize hydrogen-related work, the Department's fiscal year 2003 
budget request for Fuel Cell R&D, Fuel Processor/Storage increased by 
$2,800,000 or approximately 13 percent from the amount appropriated in 
fiscal year 2002. This increase would fund research into on-board 
hydrogen storage and associated off-board hydrogen fuel processing, 
purification, storage, and dispensing technologies. In addition, Field 
Evaluations, a new program element requesting $3,000,000, was added to 
conduct field evaluations of hydrogen fuel cell vehicles and associated 
hydrogen fuel technologies. In addition, the Components program element 
is requesting a 16 percent increase for R&D efforts that include 
research into air compression technologies necessary for hydrogen fuel 
cell vehicles. FreedomCAR also includes a portion of the hydrogen 
program funded by the Energy and Water Development appropriation; that 
program request for fiscal year 2003 is over 50 percent higher than the 
fiscal year 2002 appropriation.
    Question. Are there testing standards promulgated by the DOE or 
National Institute of Standards and Technology (NIST) regarding fuel 
cells to ensure that claims of energy production and efficiency by 
demonstration or pilot programs can be verified?
    Answer. The Society of Automotive Engineers (SAE), through its Fuel 
Cell Standards Committee, is developing the necessary fuel cell vehicle 
testing standards for on-board energy production and efficiency. The 
Committee's working groups are developing testing standards for fuel 
cell power system performance, reliability, fuel economy, emissions, 
and safety. In addition, SAE is working to coordinate and integrate its 
fuel cell testing standards work with those of international standards 
organizations. The Department participates in these SAE activities 
through representation in the working groups.
    The Department is also developing testing standards to evaluate and 
validate technologies in the area of on-board hydrogen storage. This 
activity includes developing test protocols, procedures, and baseline 
testing of low pressure hydrogen storage materials and systems 
including metal hydrides, chemical hydrides, and carbon-based 
approaches.
                     energy security and assurance
    Question. The Department is requesting a 683 percent increase in 
energy security and assurance. How will this increase be spent?
    Answer. In November of 2001, I directed the Office of Emergency 
Operations to facilitate the protection of the National Energy 
Infrastructure as part of its core mission. They began an immediate and 
intensive outreach program to ascertain what had been done to protect 
the energy infrastructure and to identify what activities the 
Department needed to undertake to assist industry, as well as state and 
local governments. The energy infrastructure is comprised of 157,810 
miles of transmission lines, 5000 power plants generating a capacity of 
800,000 Megawatts, two million miles of oil pipelines, refineries, 
ports, storage facilities, and a natural gas distribution system moving 
23 trillion cubic feet of natural gas in additional pipelines. The 
Department and the federal government have a tremendous amount of 
unique capabilities to offer and DOE is working to make those 
capabilities available through training, exercises and staff 
assistance.
    The fiscal year 2003 request is divided into two parts, $4.1 
million for Energy Security and Assurance activities, and $19.3 million 
for the National Infrastructure Simulation and Analysis Center (NISAC). 
The $4.1 million requested for Energy Security and Assurance will 
support refocused critical infrastructure protection activities and 
expand on them. This is a $1.2 million increase from the fiscal year 
2002 program in critical infrastructure protection. The fiscal year 
2003 request will support the following:
    State Visits.--As of today, teams have visited 42 states to 
identify what specific Energy Security and Assurance needs exist and 
put in place plans to support each state. The remaining states will be 
visited by mid-April. With this initial outreach effort complete, the 
Office of Energy Assurance will develop a long-term state engagement 
plan that will ensure active communications and support for each state, 
as well as regional and national strategies.
    Industry Vulnerability Survey Assistance.--We have begun an initial 
assessment of the 25 top critical energy assets throughout the country 
to provide a baseline analysis of the security of the energy 
infrastructure at a cost of $1.8M. Fourteen sites have been completed 
to date and the remainder will be complete by the end of March. In 
addition, the Department is conducting cyber vulnerability analyses of 
energy facilities to ensure the Supervisory Control and Data 
Acquisition systems (SCADA) are protected. A total of 174 critical 
energy assets have been identified.
    Development of National Security Standards.--We are in the process 
of developing national security standards/guidelines that will assist 
industry in developing security plans and procedures to better protect 
the national energy infrastructure. These standards are being developed 
cooperatively with industry and our interagency partners and will 
establish a baseline for developing voluntary national training 
standards for industry personnel.
    Technology Development and Sharing.--We conducted a technology expo 
in Washington, D.C. that allowed industry and government 
representatives to view first hand the technologies available in the 
national laboratories.
    Training Support and Outreach.--Utilizing the expertise of the DOE 
Emergency Operations Training Academy, we have conducted a review of 
training already available within the federal system that would be 
beneficial to industry and we are in the process of providing 
specialized training in weapons of mass destruction preparedness and 
response. Two sets of customized weapons of mass destruction emergency 
response interactive-training CDs are being distributed to states this 
week. We have completed the development of a Vulnerability Assessment 
two-day course, which has been made available through distance learning 
and we are in the process of completing a detailed five-day course that 
will be available to states and industry.
    The majority of the increase in fiscal year 2002, $19.3 million, is 
to support the National Infrastructure Simulation and Analysis Center 
(NISAC), a public/private technical partnership led by Los Alamos and 
Sandia National Laboratories. NISAC will provide a fundamentally new 
technical planning and decision support environment for the analysis of 
critical infrastructures, their interdependencies, vulnerabilities, and 
complexities for policy analysis and emergency planning. Analysis of 
critical infrastructure interdependencies in the electric power, oil 
and gas sectors is an essential component of a national energy security 
strategy. NISAC modeling, simulation, and analysis will support 
preparation of mitigation strategies, reconstruction planning, and real 
time crisis support. NISAC will use distributed information systems 
architectures to provide virtual analysis capabilities that will 
accommodate a large number of providers and a large number of users.
    The initiatives detailed above are the beginning of a long overdue 
program to share the resources of the Federal government and lead the 
way to a more secure and assured energy infrastructure. We require the 
budget increase to continue these and similar activities.
    Question. How will the Department assure the energy supply of an 
isolated state like Hawaii not be disrupted or made unaffordable by 
terrorist attacks?
    Answer. The Federal government cannot ensure that the energy supply 
of any state is not disrupted by a terrorist attack. What we can do is 
what we began in the wake of the September 11th attacks. That is to 
reach out to the State and local governments and the energy industry 
and listen to their answer when we ask ``What do you need? How can we 
help?'' We will have visited every one of the fifty states by mid-
April.
    They are telling us they need training. We have responded by 
customizing three sets of interactive training CDs. We have developed a 
Vulnerability Assessment two-day course, which has been made available 
through distance learning and we are in the process of completing a 
detailed five-day course that will be available to states and industry 
later this month. This training and the associated training aids 
addresses the many facets of physical and cyber vulnerabilities and 
appropriate response action. While we are conducting baseline 
assessments of the nation's most critical energy infrastructure nodes, 
the training institutionalizes the skills to allow state, local and 
industry officials to assess their own entire infrastructure.
    We are sharing the technical resources of the Department such as 
providing mapping capabilities of their energy infrastructure. We are 
also making plume modeling technology available to State and local 
emergency officials so that, in the event of an attack, local officials 
can make the very time critical decisions needed to minimize exposure. 
We hosted a technology exposition in February 2002 that showcased 
technologies developed by the National Laboratories that may be of 
benefit to the energy infrastructure. We plan to host a similar one 
next year.

                          SUBCOMMITTEE RECESS

    Senator Byrd. Thank you very much, that concludes the 
hearing. The subcommittee will stand in recess until 2 p.m., 
Thursday, April 25, when we will meet in room SD-192 to hear 
from Dale Bosworth, Chief, Forest Service, Department of 
Agriculture.
    [Whereupon, at 11:32 a.m., Thursday, March 7, the subcom- 
mittee was recessed, to reconvene at 2 p.m., Thursday, April 
25.]








  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2003

                              ----------                              


                        THURSDAY, APRIL 25, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:11 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Murray, Burns, Bennett, Stevens, 
Domenici, and Campbell.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF DALE BOSWORTH, CHIEF
ACCOMPANIED BY:
        MARK REY, UNDER SECRETARY FOR NATURAL RESOURCES AND ENVIRONMENT
        HANK KASHDAN, DIRECTOR, PROGRAM AND BUDGET ANALYSIS

              OPENING STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. The subcommittee will come to order.
    The subcommittee is pleased to welcome the Chief of the 
Forest Service, Dale Bosworth. Accompanying Chief Bosworth for 
this afternoon's hearing is Mark Rey, Under Secretary for 
Natural Resources and the Environment at the Department of 
Agriculture.
    Chief, now, when you appeared before the subcommittee, you 
had barely been on the job 2 weeks. Consequently, the decisions 
pertaining to the Forest Service budget request for fiscal year 
2002 had been made without your input. You have been Chief, 
now, a year. I think it is fair to conclude that you have a 
strong role in establishing the priorities of your agency for 
fiscal year 2003.
    Some of the proposals in your budget appear to be quite 
troubling. For example, the Forest Service proposes to 
eliminate the Economic Action Program, which is funded through 
the State and Private Forestry appropriation. This program is 
designed to assist rural communities by stimulating economic 
development through forestry and has funded important 
facilities in West Virginia, such as the Wood in Transportation 
Center in Morgantown.
    The idea of eliminating programs which are instrumental to 
rural communities, particularly those that are suffering 
economically, gives the subcommittee considerable pause.
    The administration's proposal to redirect $36 million 
within the Research account gives rise to some concern. As I 
understand it, these funds would be taken away from ongoing 
forest research programs and placed in other programs more to 
the administration's liking. Such a move would bring about the 
closing of 12 research laboratories and the reassignment or 
termination of as many as 275 employees.
    In West Virginia, we have three labs; one in Morgantown, 
one in Parsons, one in Princeton. And these are very fine 
forestry laboratories. And the subcommittee would be interested 
in knowing how the administration's proposal will impact the 
labs in West Virginia and how it will impact the talented West 
Virginians who work in those labs.

                     FINANCIAL MANAGEMENT PROBLEMS

    I am interested in knowing, also, what progress you have 
made with respect to the chronic financial management problems 
that have plagued the Forest Service. For the past few years, 
the agency has told this subcommittee that it is putting in 
place improved management systems that will lead to greater 
accountability of the taxpayers' dollars, but the agency has 
yet to obtain a clean audit opinion, as required by statute, 
and remains on the General Accounting Office's list of agencies 
at high risk of waste, fraud and abuse.

                           PREPARED STATEMENT

    As I indicated last year, Members of Congress and the 
American people whom we represent expect nothing less than a 
full accountability when it comes to the spending of tax 
dollars. This subcommittee is eager to hear what you have done 
to address these fiscal management problems and what your plans 
are for the future.
    [The statement follows:]
              Prepared Statement of Senator Robert C. Byrd
    The subcommittee is pleased to welcome the Chief of the Forest 
Service, Dale Bosworth. Accompanying Chief Bosworth for this 
afternoon's hearing is Mark Rey, Undersecretary for Natural Resources 
and the Environment at the Department of Agriculture. Mr. Rey, we are 
glad you could join us as well.
    Chief, when you appeared before this subcommittee last year, you 
had barely been on the job two weeks. Consequently, all of the 
decisions pertaining to the Forest Service budget request for fiscal 
year 2002 had been made without your input. Having now been Chief for a 
year, I think it's fair to conclude that you have had a strong role in 
establishing the priorities of your agency for the fiscal year 2003 
budget. Unfortunately, I must tell you that I find some of the 
proposals in your budget quite troubling.
    For example, the Forest Service proposes to eliminate the Economic 
Action Program, which is funded through the State and Private Forestry 
appropriation. This program is designed to assist rural communities by 
stimulating economic development through forestry, and it has funded 
important facilities in my state such as the Wood In Transportation 
center in Morgantown. Chief, the idea of eliminating programs which are 
instrumental to rural communities, particularly those that are 
suffering economically, gives me great pause.
    I am also concerned with the administration's proposal to redirect 
$36 million within the Research account. As I understand it, these 
funds would be taken away from ongoing forest research programs and 
placed in other programs more to the administration's liking. Such a 
move would bring about the closing of 12 research laboratories and the 
reassignment or termination of as many as 275 employees. In West 
Virginia, we have three research labs; one in Morgantown, one in 
Parsons, and one in Princeton. These are some of the finest forestry 
laboratories in the world and so I will be interested in knowing how 
the administration's proposal will impact the labs in my state and the 
talented West Virginians who work in those labs.
    Finally, I am interested in knowing what progress you have made 
with respect to the chronic financial management problems that have 
plagued the Forest Service. For the past few years, the agency has told 
this committee that it is putting in place improved management systems 
that will lead to greater accountability of the taxpayers dollars. 
However, the agency has yet to obtain a clean audit opinion as required 
by statute, and it remains on the General Accounting Office's list of 
agencies at high risk of waste, fraud and abuse. Chief, as I said last 
year, Members of Congress, and, indeed, the American people, expect 
nothing less than a full accountability when it comes to the spending 
of tax dollars. This subcommittee is very anxious to hear what you have 
done to address these fiscal management problems and what your plans 
are for the future.
    Before hearing from our witnesses today, though, let me first turn 
to our distinguished Ranking Minority Member, Senator Burns, for any 
opening statement he may wish to make.

    Senator Byrd. Before hearing our witnesses today, let me 
turn to my colleague, here, and distinguished ranking member, 
Senator Burns, for any opening statement he may wish to make.

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. Mr. Chairman, thank you very much. And thank 
you for calling this hearing today, as we start the 
appropriations process.
    I want to especially welcome the Chief, Dale Bosworth. We 
had the opportunity of working together when he was Region 1 
Supervisor in Missoula, Montana. And I will say that he has not 
had the luxury of support from all groups going into this job, 
but nonetheless, I think he has handled it with a great deal of 
integrity and good judgment. And so, I welcome him here today. 
And we know that we have challenges any time that you deal with 
public lands, and everybody has an opinion on how they should 
be managed.
    A task that is facing the Forest Service today is a 
daunting task; forest health concerns and hazardous fuel 
buildup face tens of millions of acres in our country. 
Recreational visits to our forests are at an all-time high. And 
a wave of Federal and State laws creates a cobweb of 
bureaucracy that is extremely hard to navigate.
    And I want to, right now, state publicly, that this Chief 
has worked very hard in this problem of analysis paralysis. And 
he is trying to break some of that, so that we can make 
decisions and common sense decisions on how we should manage 
our public lands.

                         CATASTROPHIC WILDFIRES

    A few of my concerns must be underscored before we move 
into questions, though. I am deeply concerned that we are 
heading into what may become yet another catastrophic wildfire 
season. We are still not getting rain or snowfall in some of 
our better areas. And, of course, fires in New Mexico and 
Colorado have already reminded us that this drought that 
plagues the country and fuel loads that remain at extremely 
high levels across the West is not working in our favor.
    I believe we must continue the focus on our National Fire 
Plan to save communities who are at risk, to protect our 
natural resource base. And it is often ignored that the 
greatest threat to clean air and water in much of the country 
is catastrophic wildfire and its aftermath.
    So, we have had a rocky start at implementing the National 
Fire Plan. Funding levels will be hard to hold at a static 
level. Suppression costs will continue to vary from year to 
year. Despite this, I believe we are gaining ground again to 
prepare to deal with impacts that are left over from fire.

                            HAZARDOUS FUELS

    So, the greatest opportunity for a lasting impact, though, 
is a reduction of hazardous fuels. We have repeatedly cited and 
discussed reports that identify areas with significantly 
hazardous fuel loads and the risk involved in leaving these 
fuels unaddressed. As a result, Congress has appropriated 
hundreds of millions of dollars over the past few fiscal years, 
in an aggressive program to remove those fuels.
    My concern is that the geographic distribution of hazardous 
fuel reduction funding does not necessarily coincide with the 
prior research identifying the areas that are of the highest 
risk for catastrophic fire. And I hope the Chief will address 
this concern.
    I will make my statement a part of the record, Mr. 
Chairman.

                           PREPARED STATEMENT

    Again, I wanted to thank you for holding these hearings, 
and as we start this process of funding what I think is a very, 
very important part of the Department of Agriculture.
    Thank you, Mr. Chairman.
    [The statement follows:]
               Prepared Statement of Senator Conrad Burns
    I first wish to thank the Chairman for holding today's hearing. Due 
to the number of pressing issues facing Congress scheduling has proven 
to be a difficult exercise, but I am pleased we have been able to set 
aside this time to discuss the Forest Service's budget request for 
fiscal year 2003.
    I welcome Dale Bosworth, Chief of the Forest Service, and thank him 
for joining us today. I will attempt to keep my comments brief as I 
would prefer to spend as much time as possible allowing members to 
discuss the budget proposal with Chief Bosworth.
    As many of you know, I had the pleasure of working with Dale when 
he was Regional Forester for Region One and held responsibility for the 
management of National Forest lands in my home state of Montana. We 
share many of the same concerns regarding the stewardship of our forest 
lands. I am pleased to see initiatives under his leadership include an 
emphasis on breaking what he has termed ``Analysis Paralysis'' while 
attempting to work closely with local communities, focusing more 
attention on forest health concerns, and working to implement elements 
of the National Fire Plan.
    I don't believe any Forest Service Chief has been granted the 
luxury of unanimous support among all groups claiming a stake in forest 
management. However, I believe Chief Bosworth has garnered the respect 
of all sides to a greater extent than other Chiefs in recent memory. He 
has shown an ability to combine an extraordinary level of field 
experience with sharp mediating skills and decisiveness. This blend has 
proven essential in the effort to reform the Forest Service and 
reinvigorate its capability to accomplish on-the-ground improvements 
benefiting both forest health and local communities.
    The tasks currently facing the Forest Service are daunting. Forest 
health concerns and hazardous fuel build up face tens of millions of 
acres across the country. Recreational visits to our forests are at an 
all time high, and a web of federal and state laws creates a cobweb of 
bureaucracy that is extremely hard to navigate.
    A few of my concerns must be underscored before we move on to 
questions. First, I am deeply concerned we are heading into what may 
become yet another catastrophic wildfire season. Fires in New Mexico 
and Colorado have reminded us all that drought plagues much of the 
country and fuel loads remain at extremely high levels across the West. 
I believe we must continue to focus on the National Fire Plan to save 
communities at risk, and to protect our natural resource base. It is 
often ignored that the greatest threat to clean air and water in much 
of the country is catastrophic wildfire and its aftermath.
    We have had a rocky start in implementing the National Fire Plan. 
Funding levels will be hard to hold at a static level, and suppression 
costs will continue to vary from year to year. Despite this, I believe 
we are gaining ground in our efforts to prepare for fire and its 
impacts.
    The greatest opportunity for lasting impact is through the 
reduction of hazardous fuels. We have repeatedly cited and discussed 
reports that identify areas with significant hazardous fuel loads, and 
the risk involved with leaving these fuels unaddressed. As a result, 
Congress has appropriated hundreds of millions of dollars over the past 
few fiscal years in an aggressive program to remove fuels. My concern 
is that the geographic distribution of hazardous fuel reduction funding 
does not necessarily coincide with prior research identifying the areas 
at highest risk for catastrophic fire. I hope the Chief will address 
this concern.
    Many of my constituents have been expressing ongoing concern 
regarding increasing access restrictions on our National Forest lands. 
Despite decades of land closures that have crippled economies and 
communities, and in the face of rebounding populations of endangered 
species, the Forest Service continues to increase restrictions based 
upon little, or knowingly tainted, scientific evidence. I hope the 
Chief will explain how current efforts to update forest plans coupled 
with outreach efforts to local communities will address this problem.
    Mr. Chairman, as I stated earlier, I find the questions posed 
during these hearings and the subsequent dialog to be the most 
educational portion of the proceedings. As a result, I will wrap up my 
comments by thanking the Chief for his hard work and for joining us 
today.

    Senator Byrd. Senator?
    Senator Campbell. May I have the opportunity to make a 
short statement?
    Senator Byrd. Go ahead.

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Thank you, Mr. Chairman.
    And I would also like to welcome Chief Bosworth and thank 
him for taking the time to come and speak to us. And I 
appreciate you coming here since sections of the Forest 
Service's budget have a direct impact on my State, as it does 
on many of us westerners from public land States.
    Many of the land issues affect my State, since Colorado has 
almost 14 million acres of national forest land and another 8.3 
million of BLM land within its boundaries.
    The President's budget for the Forest Service in fiscal 
year 2003 totals $4.9 billion, which is $220 million--$227 
million less than fiscal year 2002.
    The Forest Service's mission is caring for the land and 
serving the people. The priorities of the President's budget 
reflect this or certainly ought to reflect it. And I just 
wanted to make a comment to associate myself with the comments 
of Senator Burns as it deals with fires.

                           NATIONAL FIRE PLAN

    The National Fire Plan, which was implemented through this 
subcommittee, is a joint program between the USDA and the 
Department of Interior. It was developed 2 years ago, in 
response to the major wildfires that swept across the West, 
including my home State of Colorado, causing millions of 
dollars of damage.
    The National Fire Plan's request for 2003 is over $2.1 
billion, but $159 million less than fiscal year 2002. The 
Forest Service's portion of that request is $1.45 billion, $134 
million less than fiscal year 2002.
    The State and Volunteer Assistance Programs are also being 
requested at lower levels than fiscal year 2002. And I have to 
tell you, not only that it disappoints me, but I think it is 
downright foolhardy and dangerous.
    Right now, if you watched this morning on CNN, there is a 
raging fire west of Denver. Yesterday it consumed 1,250 acres; 
threatened 2,000 people, who were evacuated, 1,000 homes. And 
within 24 hours that fire has doubled. It is 2,500 acres as of 
today. And it is still going on and it is still growing this 
afternoon, it is my understanding.
    That is simply unacceptable, reducing the amount of money 
in both fire suppression and firefighting at a time when we 
know that they are going to be worse this summer.
    I happen to live in a very dry area of southwest Colorado, 
Mr. Chairman. We have got about one-tenth of the normal 
moisture that we get. And I think that is throughout the West; 
in Wyoming, Montana, all of the States. About one-tenth of what 
we normally get.
    Those of us who use irrigated water, for instance, on 
ranches, normally do not have the water turned off from 
irrigation lakes until about September. They tell us it is 
going to be turned off, now, by June or July, which means not 
only is it going to affect the income of a lot of ranchers, but 
there is going to be an absolute tinderbox of country, I think, 
all the way from the Rockies to the Sierras. And I am just 
absolutely sure that we are going to face one of the worst fire 
times in the history of our country, because of that drought we 
are facing in the West.
    And so, I wanted to get that on the record early on, Mr. 
Chairman, that this budget that the President sent over, 
frankly, from the standpoint of what it is going to do in the 
West, it could be just devastating.
    Thank you, Mr. Chairman, I will have a couple of questions 
to ask as we get into that part of the afternoon.
    Senator Byrd. Senator, please proceed.

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman.
    I want to welcome the Under Secretary, Mr. Mark Rey, and 
the Chief of the Forest Service, Dale Bosworth.
    As most of my colleagues know, Mr. Bosworth spent part of 
his early career in Ogden, Utah. And we are proud to claim him 
as one of our own. No matter how long he lives outside the 
State, we are going to continue to do that. And we appreciate 
you being here.
    We had a good relationship with Jack Blackwell, when he was 
the Regional Forester. And we are very pleased with the choice 
of Jack Troyer, recently chosen to be the Regional Forester. We 
have good people.

                            WINTER OLYMPICS

    Now, I want to formally thank the Forest Service for their 
outstanding support during the Winter Olympics. We had a lot of 
history building up to the Olympics, with the Forest Service. 
And it all paid off in a fabulous way.
    The Forest Service--one of the most exciting venues of the 
games, the downhill, men's and women's downhill and Super G, 
were done at Snow Basin. And Snow Basin would not have happened 
if we had not had the full cooperation of the Forest Service. 
It happened, mainly, in the previous administration, but the 
present administration carried forward in the same fashion.
    So, on behalf of the people of Utah and the Olympic 
Committee, neither of which--with the people of Utah, I have an 
obvious official relationship, but the Olympic Committee, I 
have no official relationship with, but I want to offer formal 
thanks to the Forest Service and all of your personnel for the 
tremendous job they did to assist us there.

                                GRIDLOCK

    Now, the Chief points out in his testimony that gridlock 
and analysis paralysis are major problems in the Forest 
Service. And he says the solution is collaboration and common 
ground. And I agree with that, but it only works if the parties 
involved want to collaborate and seek common ground.
    And, unfortunately, in my State, we have a polarized 
atmosphere. And I am not sure if we can find common ground. It 
may be the only way we deal with this is through some changes 
in law and regulation. And this is manifested in the statement 
by Mr. John Horning of the Forest Guardians, who said, in the 
April 23 edition of the Salt Lake Tribune, ``It is our long-
term goal to end commercial sales in the national forests.''
    So, I will be asking whether that is good for the health of 
the national forests. I have the feeling that it would not be 
environmentally sound to have the end of commercial sales in 
the national forests. It would give the environmental groups a 
temporary warm feeling that they have done something 
worthwhile, and then the feeling would get significantly warmer 
as the forest fires begin to rage in areas that could otherwise 
have been more intelligently managed.
    So, these are difficult problems. I think we have good 
leadership, and I welcome you here today.
    Thank you.
    Senator Byrd. Senator Murray, we have heard from everybody 
else. Would you like to say something at this point?

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much. I appreciate the 
opportunity. I do have to be over on the floor to offer an 
amendment. So, I will just have an opening statement and submit 
my questions for the record, if you do not mind.
    Senator Byrd. Very well.
    Senator Murray. I did just want to mention that Mr. 
Bosworth's testimony mentions the 30 mile fire that happened 
last year in Washington State, where we lost four of our young 
firefighters. It was a real tragedy, and I hope we learned from 
that tragedy to prevent future losses.
    My question, for the record, will really focus on the cut 
in funding and staff for the Preparedness Program that was 
proposed by the administration and on the current status of the 
new Fire Shelter Development.
    I just do not understand how the administration proposes to 
protect our young firefighters by cutting funding for training.
    I also want to raise the issue of the Forest Service 
research budget. The entire range of interested parties have 
told me they do not oppose the directed research in the 
administration's budget, but they do object to cutting current 
research programs in order to pay for those new initiatives, 
and I hope to work with my colleagues to meet those objectives.
    And, finally, just quickly, Mr. Chairman, I want to bring 
to everybody's attention the recently released GAO study on 
fish passage obstruction on Forest Service and on BLM lands 
that is caused by culverts. The study was undertaken at the 
request of my colleague, Congressman Norm Dicks, and it clearly 
recognizes the significance and enormous scope of this problem. 
Poorly designed and maintained culverts appear to be the single 
largest obstacle for salmon and steelhead reaching high quality 
habitat.
    Right now, we are asking a lot from private landowners in 
our effort to recover ESA listed species. This report by GAO 
shows that we are not complying with the law in the management 
of our own Federal lands, and we need to do better.
    So, I hope to work with the subcommittee and the 
administration to address those issues.
    And, again, Mr. Chairman, I apologize for not being able to 
stay for the hearing, but I would like to submit my questions 
for the record.
    Senator Byrd. That will be done, without objection.

                   SUMMARY STATEMENT OF DALE BOSWORTH

    All right. Chief, you may proceed with your statement.
    Mr. Bosworth. Thank you, Chairman Byrd and members of the 
subcommittee. I do appreciate the opportunity to be here today 
to talk about the President's fiscal year 2003 budget for the 
Forest Service.
    And it is a real privilege to be here. I have been in this 
job, now, for about a year. And I want to say that I have 
really been encouraged by the level of interest across the 
country in the management of the Nation's forests and 
grasslands. And I particularly appreciate the interest in this 
subcommittee, as well.
    Before I came into this job, I had a very--I guess I had a 
deep appreciation for the work that Forest Service folks do out 
on the ground. And I have to say, after having been in this job 
now for a year and having a chance to look clear across the 
country, it has even deepened my appreciation for the work that 
those folks are doing.
    And I would have to agree that I was very, very proud of 
the work the Forest Service folks did in Utah to help with the 
Olympics. I had the opportunity to attend part of that and to 
meet with our many folks that we have there. And they were just 
doing a great job, and they were enthusiastic. And the 
partnerships that were built between the Forest Service and the 
communities were great. And it just made me proud, as a Forest 
Service person and as an American, to be able to see the kind 
of work that was done there. So, I appreciate your comments, 
Senator Bennett.
    The fiscal year 2003 President's budget requests, for the 
Forest Service, almost $4.9 billion. And with this level of 
funding, we are going to be emphasizing protecting the public, 
employees, property, and resources; providing benefits to 
communities; improving forest and rangeland health; and meeting 
the growing recreation demands for goods and services and 
amenities by the public.
    I intend to focus a great deal of attention, though, on re-
establishing a bias in favor of accomplishing the work on the 
ground of the agency. I am very concerned about the analysis 
paralysis or the gridlock that we are in; the fact that it 
takes so much time and money to do planning and to work through 
paper pushing and process kinds of things, and that so little 
of the money actually ends up doing the work on the ground.
    The work that we are trying to accomplish on the ground are 
things that I think will protect communities from catastrophic 
wildfire; to provide communities a sustainable flow of forest 
products; to put field employees in the field when they need to 
be. And the gridlock that we are in is preventing that. And I 
intend to continue to work on that.
    I intend to continue to look for solutions and to work with 
you, in hopes that we can find some answers to some of those 
problems that I think have accumulated over a long, long period 
of time.

                           NATIONAL FIRE PLAN

    The National Fire Plan will continue to be a top priority 
for the Fire Service. We are going to concentrate on the 
restoration of ecosystems to fire-adapted conditions.
    There are several parts to the National Fire Plan, but the 
one part that I think, in the long-term, that is so, so 
important is dealing with those fuels that have accumulated 
over a long period of time.
    And that is the part of the National Fire Plan that does 
not achieve immediate objectives or immediate consequences. 
What it does is it takes time. It is going to take 10 years, 15 
years of treating those fuels before we really start seeing a 
difference in terms of being able to protect communities, as 
well as, hopefully, be able to see reductions in some of our 
fire suppression costs.
    In the end, if we can reduce the number of communities that 
are at risk from wildland fire, I think we will have been 
successful.
    The other aspect of the National Fire Plan that I see as 
extremely important is our relationship with the Department of 
Interior and with the State organizations, because we have to 
do this in a way that is a partnership between all Federal 
wildland fire organizations, as well as the States. And we have 
to work very, very closely with the communities as we move 
forward.

                     MAINTAINING COMMUNITY BENEFITS

    The Forest Service, I believe, plays a key role in 
maintaining benefits to communities. And there are many--we 
have many opportunities to work with communities to help 
sustain community vitality. The way that we can do that--there 
are a number of different ways. By working with folks, in terms 
of--like the National Fire Plan, in terms of being able to do 
work on the national forests and allowing people to have a 
priority for contracting. There are collaborative groups within 
the communities to help figure out how they want to see their 
national forests managed.
    I think there are a number of things that we can do, but in 
the end, I believe that we really need to have a close 
relationship, as good neighbors, with the communities and to 
those people that are most affected by the management of the 
national forests.

                            INVASIVE SPECIES

    One of the problems that I am concerned about, that I think 
is coming down the road and we will be seeing more and more of 
in the future, has to do with invasive species. And I intend to 
focus on the invasive species problem more and more in the 
coming months. And I believe that sometime in the future it is 
going to become one of the agency's major efforts.
    It strikes me that it cries out for a solution similar to 
the National Fire Plan. As you see the insects, the diseases 
and pathogens, the noxious weeds that are infesting a good part 
of the West, aquatic invasives--when you start seeing the 
magnitude of that problem, I think we are going to have a 
deeper and deeper problem, if we do not come up with a solution 
on how to deal with that. And so, I am going to continue to 
look for some answers and to work with you on that.

                           PREPARED STATEMENT

    So, that concludes my opening remarks. And I will submit 
the entire testimony for the record. And I would be happy to 
answer any questions you might have.
    Thank you.
    [The statement follows:]
                  Prepared Statement of Dale Bosworth
    Chairman Byrd and members of the Subcommittee, thank you for the 
invitation to discuss President's fiscal year 2003 Budget for the 
Forest Service. I am honored to be here today.
    In my first year as Chief, I am encouraged by the level of interest 
in management of the Nation's forests and rangelands shared by so many, 
as well as this Subcommittee. I have deepened my appreciation for the 
job being performed on the ground by our employees, as well as for the 
many individuals and groups that actively engage in the agency's work. 
Although I have worked on many wildland fires during my 36-year career, 
I appear before you today with a renewed appreciation of what it means 
to be on the ``hot seat.''
    Before focusing on any specific program areas, I want to emphasize 
that the safety of agency employees and the public is one of the 
highest priorities for the Forest Service. In particular, the agency 
must take all action possible to prevent tragedies such as the 
Thirtymile incident last summer where four firefighters died. The 
Forest Service will ensure that proposed changes in management, 
policies, training, and operations are made to improve safety for the 
public and all employees, especially with respect to firefighter 
safety. The agency must also work to reduce risks to life, property, 
and ecosystems from high-intensity wildland fires within and adjacent 
to communities.
    Under Secretary Rey and I intend to focus a great deal of attention 
on reestablishing a bias for accomplishing the work of the agency. What 
is commonly referred to as ``gridlock'' or ``analysis paralysis'' is 
directly affecting the ability of the agency to protect communities 
from catastrophic wildfire, provide communities a sustainable flow of 
forest products, and directly serve the public that uses and enjoys 
national forest lands.
    The National Academy of Public Administrators reported two years 
ago that up to 40 percent of the work done on National Forests goes 
into the planning and analysis process. In addition, indirect expenses 
take an additional share of the budget (around 20 percent). Too little 
value is returned to the public. To move beyond gridlock, our approach 
is to rely on local knowledge and local participation as tools to 
achieve national goals; we will focus on local solutions to national 
issues. Local groups can help the agency find common ground to restore 
forest and ecosystem health. Conversely, this commitment to local 
decision-making cannot cloud our need to employ rigorous standards and 
consistent processes that assure financial integrity is paramount. I 
want to confirm that the renewed emphasis on local decision-making will 
not impede the reforms necessary for assuring public trust to ensure in 
the fiscal integrity or scientific reliability of the agency.
    The Forest Service Preparedness Program, in cooperation with the 
Department of the Interior's (DOI) program and those of state agencies 
and local volunteer fire departments, will provide the resources and 
planning needed to protect communities and ecosystems from wildland 
fire. The Hazardous Fuel Program, in conjunction with DOI's program, 
will collaborate with State and local communities, tribal governments, 
and other partners to focus treatments in areas of greatest need of 
community protection and ecosystem restoration. The fiscal year 2003 
Budget requests $235 million for the Hazardous Fuels program, an 
increase in the program of about $26 million. Seventy percent of these 
funds are targeted for the wildland-urban interface. Funding for 
rehabilitation and restoration, along with Burned Area Emergency, will 
protect communities and watersheds from post-fire damage, and help 
burned areas recover from fire damage. The Forest Service Research and 
Development Staff, along with the DOI-Forest Service Joint Fire Science 
Program, are focusing efforts on fuels reduction opportunities, 
including: (1) prioritizing areas for treatment; (2) determining 
impacts of treatments on wildlife, fish, and riparian areas; and (3) 
developing new uses for forest undergrowth and small diameter trees. 
The Budget provides resources to State and local communities to 
establish a truly comprehensive wildland fire management policy across 
all ownership boundaries. It provides the resources to increase the 
firefighting capability and planning of State and local fire agencies, 
and to reduce hazardous fuel on non-Federal land. Finally, the 
fireplain easements program will enable the Forest Service to work with 
States to identify alternatives in areas where potential fire 
suppression expenditures exceed the estimated value of private 
property.
    The USDA Forest Service and the Department of the Interior are in 
the second year of implementing the National Fire Plan. Significant 
headway was made in fiscal year 2001 and continues in fiscal year 2002 
to enhance tracking and reporting mechanisms to provide accountability 
as accomplishments are made in firefighting, rehabilitation and 
restoration, hazardous fuels reduction, community assistance and 
research.
    The fiscal year 2003 Budget provides an increase of $10 million 
within the Forest Stewardship program to foster enhanced management and 
use of small diameter and underutilized wood biomass on private lands. 
Funds are also included for research on the use of small diameter trees 
for biobased products and bioenergy.
    Keeping watersheds in good condition and restoring them where 
necessary are fundamental to the stewardship of the land and natural 
resources. The agency will focus efforts and move ahead on watershed 
restoration consistent with the agency's national goal to improve and 
protect watershed conditions to provide the water quality and quantity 
necessary to support ecological functions and beneficial water uses.
    In each of these areas, research is the key to sustaining our 
forest and rangeland productivity and health while addressing natural 
resource needs.
    The Budget also includes $15 million to transfer to the Fish and 
Wildlife Service (FWS) and the National Marine Fisheries Service (NMFS) 
to help expedite Endangered Species Act (ESA) Section 7 consultation. 
The $15 million is roughly enough to have one FWS or NMFS person per 
forest available to respond to ongoing agency projects. This will 
promote both available personnel to review project proposals under ESA 
Section 7, as well as ensure increased familiarity and understanding on 
the part of the FWS and NMFS staff as a consequence of their continuing 
involvement with USDA projects.
    I was honored to represent the Forest Service this year at the 
Winter Olympics in Salt Lake City. Two Olympic Winter Games signature 
events--the downhill and super G--took place at the Snowbasin Ski 
Resort, which is located on the Ogden Ranger District of the Wasatch-
Cache National Forest. The USDA Forest Service's main goal for the 2002 
Olympic Winter Games was to help ensure that Olympic-related activities 
on the National Forests were safe and environmentally responsible. Due 
to the dedication of many Forest Service employees, cooperators, and 
visitors, I am pleased to inform the Subcommittee that this goal was 
achieved.
    Recreation is the fastest growing use on the national forests and 
grasslands and how most Americans come into contact with the Forest 
Service. The agency's recreation framework is being implemented through 
five primary activities: (1) operating developed sites; (2) managing 
general forest areas; (3) protecting cultural resources and wilderness; 
(4) providing interpretation and education; and (5) administering 
recreation special use authorizations. The agency will focus on a 
measurable improvement in customer satisfaction and an increase in 
documented contributions to community economies, primarily through 
strategic business delivery partnerships. The Budget calls for $264 
million for recreation in fiscal year 2003.
    The Forest Service recognizes it cannot provide credible natural 
resource management without effective financial and performance 
management. The agency continues its emphasis on improving the quality 
of its financial systems and performance reporting processes. A key 
aspect of improved performance accountability involves providing field 
units with the opportunity to influence the budgets they receive. The 
Forest Service formulated input to the fiscal year 2003 President's 
Budget using a new budget formulation process that provided local units 
the opportunity to develop budget requests at the local level.
    The Forest Service has operated a fully compliant financial system 
for more than two years, and continues to implement actions that 
improve financial accountability. The Department is working closely 
with the Forest Service to promote agency efforts to provide high 
quality accounting information. In addition, the Department of 
Agriculture and the Forest Service continue to move forward in efforts 
to obtain a ``clean audit opinion.'' Essential to this goal are 
effective cash reconciliation and property management programs. The 
Forest Service has improved the agency's accountability by directly 
linking the accuracy of accounting records to reconciliation processes 
and by committing an agency-wide team effort to ensure property records 
are adequate to document the approximately $4 billion inventory of 
assets. I have also ordered the formation of six ``strike teams'' that 
will further develop or modify financial policies and procedures.
    In conclusion, Mr. Chairman, the President's fiscal year 2003 
Budget demonstrates the commitment of the Forest Service to 
accountability through results. The Budget includes funding priorities 
for the National Fire Plan and wildland fire management; research as 
the basis of scientifically sound resource decision-making; forest 
health; land acquisition; recreation; and minerals management, 
especially projects related to the National Energy Policy.
    This concludes my testimony. I would be happy to answer any 
questions that you may have.

                       NATIONAL FIRE PLAN REPORT

    Senator Byrd. Last year, the Forest Service worked hand-in-
hand with the Department of the Interior, and State and local 
governments to craft a 10-year strategy to combat forest fires 
and reduce the risk of fire in and around communities. But the 
National Fire Plan did not identify funding requirements for 
the various components.
    I understand that the amount of money needed to fight 
forest fires in any given year is going to fluctuate, based on 
various factors, not the least of which is the weather. I also 
think it is important for the committee to fully understand the 
costs in the National Fire Plan, therefore, to provide the 
necessary resources.
    Consequently, the Forest Service was directed, in fiscal 
year 2002, to--in the appropriation bill of fiscal year 2002, 
to update the National Fire Plan by providing Congress with 
detailed schedules of planned activities and the funding 
required to carry out the plan.
    The report was to be delivered to the House and Senate 
Appropriations Committees by March 15 of this year. To date, we 
have not yet received the report.
    Please tell the subcommittee why the Forest Service has not 
complied with the committee's direction and when you anticipate 
sending the report forward.
    Mr. Bosworth. Mr. Chairman, the Forest Service and the 
Department of Interior have worked closely together to produce 
that report. And currently, it is at OMB for clearance. And 
there is a number of things that we are trying to iron out. One 
of those has to do with how we display future costs. We are 
working with OMB on those. And as soon as we get those issues 
resolved, then we will be able to provide the report.
    And I do apologize for the delay. We want to get the thing 
done and done right. And, hopefully, it will be fairly soon 
when we are able to deliver it.
    Senator Byrd. But when do you anticipate it will be done?
    Mr. Bosworth. Well, the report, as I said, has been put 
together and completed by the Forest Service and the Department 
of Interior. And I do not have an answer for how long it will 
take for us to work through the--with OMB, but my guess would 
be that it is going to be within the next, probably, 2 weeks, 
at the most. That would be my expectation.
    Senator Byrd. All right. Give us a progress report. You can 
have someone call the staff here, so we will know what we can 
expect.
    Mr. Bosworth. Well, as I said, I expect it to be done 
within the next couple of weeks. And we will keep your staff up 
to date on how that is coming.
    Senator Byrd. Just do that. And we will just slow down the 
bill until we hear from you. Will that help?
    Mr. Bosworth. Well, we would like to get the bill. So, we 
will hurry on the----

                           FIREFIGHTING COSTS

    Senator Byrd. Well, it would be a good idea if you get your 
work done, so we can get ours done.
    If the fire season turns out to be as bad as the last, when 
you spent $690 million, would that mean that the Forest Service 
will need to borrow $370 million to cover this cost, if, as it 
appears, that for the current fiscal year, the Forest Service 
has approximately $321 million on hand for firefighting 
activities?
    Mr. Bosworth. That is correct. We have a maximum of $321 
million available in fire suppression. And under the present 
circumstances, we would expect to transfer a significant amount 
of funds from other appropriations.
    Senator Byrd. From what other appropriations?
    Mr. Bosworth. From other appropriations that we receive 
from you that we have the--when we need to, in an emergency 
situation, we may end up having to transfer some funds.
    Now, of course, we would hope that we are able to get 
through a fire season with our average costs and would be able 
to achieve our firefighting--the firefighting that we need to 
do. But in the event that the costs are over what we have been 
appropriated, then we will be borrowing from some of the other 
accounts.

           BORROWING FUNDS TO FINANCE EMERGENCY FIREFIGHTING

    That is not a good way of doing it. In the past, the way 
that we dealt with that when that occurred is we borrowed from 
our trust funds, like our Knutson-Vandenburg Trust Fund or our 
Salvage Trust Fund. But with the decline in the timber program 
over the years, those funds are--there is not a lot of money 
left in them.
    And so, we are faced, then, if we come along in those years 
and exceed our average, we are faced with pulling firefighters 
off the line or borrowing money from other appropriated 
dollars. And we have a plan for how we would do that, in the 
event that we need to. But this--I believe that this issue does 
cry out for a long-term solution.
    You know, with the fire suppression costs that are steadily 
increasing, and that is partly due to the increasing in fuels, 
I think it is highly probable that without a solution, we are 
going to be continuing to have to disrupt some of those 
programs every year or two or every----
    Senator Byrd. So, what do you do, in the event you have to 
disrupt them? Do you have to get the approval of this 
committee?
    Mr. Bosworth. Well, we have the authority, for emergency 
purposes, to be able to use those funds.
    Senator Byrd. To use what funds?
    Mr. Bosworth. To use any--the Salvage Sale Fund, Land 
Acquisition, Construction and Maintenance, Timber Purchase 
Funds, Working Capital Funds.
    Again, if we end up in the situation that we exceed our 
fire suppression dollars, we have the authority, then, to use 
those funds.

                        ANTICIPATED FIRE SEASON

    Senator Byrd. Well, with the extensive drought conditions 
that we are already experiencing, and have for quite some time, 
how ``average'' do you think this fire season will be?
    Mr. Bosworth. At this point, with the most recent modeling 
that we have done, our projection now is that it will be an 
above-average fire season--above-average cost fire season.
    Now, we do not know that until we start trying to develop 
our models in the springtime, based upon the drought indexes 
and other factors, weather patterns and whatnot, but it 
appears, right now, that we have a high probability of having a 
much higher-than-average fire season.
    Senator Byrd. I am going to turn to Senator Burns for any 
questions he may have right now. I have further questions.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    As you know, we had a little wrestling match with OMB to 
get your money for rehab and restoration, and to get those 
dollars and get them into the mainstream.
    Could you tell me, Chief, whenever you started--after a 
burned area, just tell this committee what the basic principles 
are and what activities are taking place immediately after the 
fire, when you start rehab and restoration?
    Mr. Bosworth. Well, there are a couple of parts to it. The 
first thing is----
    Senator Burns. And I realize all forests are not the same, 
and one size does not fit all.
    Mr. Bosworth. But as a general----
    Senator Burns. Yes.

                  BURNED AREA EMERGENCY REHABILITATION

    Mr. Bosworth. As a general approach, the first thing that 
we do is we send in what we call a BAER Team, a Burned Area 
Emergency Rehabilitation Team. They are there before the smoke 
is even--and the fire is even out. That team does an assessment 
of those kinds of things that have to be done very, very 
quickly, primarily before the spring--before the following 
spring rains. And they will identify the work we--they will 
then apply for emergency dollars, which we can get through very 
quickly and get those dollars to them.
    And those dollars generally go to things like, maybe catch 
basins; maybe putting in straw waddles; maybe laying logs down 
to stop erosion, to stop the mud flows as much as we can. We 
replace culverts with larger culverts, if we need to, to handle 
the increased water flows.
    That is the first thing that is done. And that is the 
emergency work.
    The next thing that happens about that time would be we 
will put together an interdisciplinary team to evaluate the 
area to see what kind of work needs to be done in the longer 
term. And that may include, if we lost facilities, what kind of 
work needs to be done to fix those facilities; if there is 
going to be increased fuel hazard 10 or 15 years from now, from 
the dead trees that are there, that we are going to want to 
remove some of those through a salvage timber sale effort; 
whether there are opportunities for salvage in addition to 
that; whether we need to do longer-term grass seeding with 
native seeds to rehabilitate the area; do we need to do 
reforestation by planting trees?
    And so, that evaluation is done with an interdisciplinary 
team. We go through an Environmental Impact Statement process. 
The whole time, we are working with the public on this. We come 
out with a draft Environmental Impact Statement through public 
comments. We come out with a final Environmental Impact 
Statement.
    If there are threatened or endangered species that are 
anywhere near the area, then we consult with Fish and Wildlife 
Service. If it is--unless there are salmon and steelhead. And 
then we also consult with National Marine Fisheries Service to 
get a biological opinion.
    And, finally, we make a decision.

                             EA VERSUS EIS

    Senator Burns. In your activities for rehab and 
restoration, do you have to do an EA or an EIS?
    Mr. Bosworth. It depends upon the magnitude of it. If you 
take something like the fires that we had in the year 2000, 
almost all of those are Environmental Impact Statements, which 
generally take an additional period of time, because you come 
out with a draft, go through the comments, and whatnot.
    Senator Burns. It also takes resources, too, does it not? 
Money.
    Mr. Bosworth. It takes money.
    Senator Burns. That we could use in other areas, knowing 
that we are going to have to go in and rehab anyway and restore 
anyway. And I find some of those things that we do wastes a 
little bit of money.

                        HAZARDOUS FUELS BUILD-UP

    Let us talk about hazardous fuels and build-up. Tell me 
your progress. We allocated some money to deal with hazardous 
fuels and to reduce the fuel on the ground in some of our 
forests. Tell me how that is coming along and give me a 
thumbnail sketch.
    Mr. Bosworth. Okay. The first year of the National Fire 
Plan was, to some degree, a start-up year. We took projects 
that were already on the shelf, that we could implement fairly 
quickly, and did both prescribed burning with, in some cases, 
mechanical treatment, so that we could do the prescribed 
burning. And I will have to get the specific numbers here, in 
terms of acres, that we accomplished.
    We have been trying to move on the Wildland-Urban 
Interface. It takes a little bit of time to be able to shift 
gears. And now we are shifting more toward those communities 
that are highest at risk.
    We treated about 1.4 million acres of hazardous fuels, and 
over 600,000 acres treated was in the Wildland-Urban Interface.
    As I said, we are trying to move forward in getting more of 
those acres or, at least, more of the dollars spent around the 
Wildland-Urban Interface.
    But I would also like to say that when we do that work near 
communities, it is much more expensive than it is when you are 
in the back country. And so, as we move toward the Urban 
Interface, then we will experience our costs.

                             NOXIOUS WEEDS

    Senator Burns. One of these days I am going to visit with 
you, but I have got one big concern, and you mentioned it in 
your opening statement, which I think is very important, and 
that is noxious weeds and invasive species, because I know 
there are growing concerns throughout the Forest--and those 
growths of those stands of invasive or noxious weeds spill over 
into private lands and takes away their value.
    We only had--the budget request increases to address this 
problem, including $12 million in a new Pest and Pathogens 
Fund. Have you visited with some of the folks that, 
biologically, we can take care of some of these invasive 
species?
    Mr. Bosworth. Well, I have not had any real recent 
discussion, but I have had a number of discussions with 
researchers, scientists, a couple of years ago, particularly 
when I was in Montana and looking at things like leafy spurge 
and some of the work that we are doing to try to find 
biological approaches toward----
    Senator Burns. Have you visited with Dr. Sands over at 
Bozeman, over at Montana State University?
    Mr. Bosworth. No, I have not.
    Senator Burns. I would suggest that we do that one of these 
days, because there are some exciting things happening in plant 
proteins, of which they are addressing some things around the 
world. And I would suggest that we do that one of these days.
    Mr. Bosworth. I would be very happy to do that. And, again, 
I would like to say that our research organization is critical 
to us. And the research that we are doing in the Forest Service 
is also good research. And it is a critical aspect at getting 
ahead of this problem and really clearly understanding what 
some of the solutions to it might be.
    Senator Burns. Thank you, Mr. Chairman. I know there are 
other folks that want to have questions.
    Senator Byrd. Very well. Let me call on Senator Stevens. 
Turn your mike on, Ted.

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. There you go. Thank you very much. I am 
glad to have an opportunity to be here. And I thank you for 
your recognition.

                     ALASKA TIMBER INDUSTRY DECLINE

    I am concerned about the continued decline of the timber 
industry in Alaska, as you know. And I had a chart prepared for 
this hearing.
    In 1947, the allowable sale quantity was 1.38 billion board 
feet. In 1971, at the time of the Alaska Native Land Claim 
Settlement Act, that was reduced to 950 million board feet. In 
1980, in what we called ANILCA, the Alaska National Interest 
Land Conservation Act, it was reduced to 450 million board 
feet. And at that time, there was an absolute promise that 
there would be no jobs lost in the forest; that that was the 
bottom line, never to be reduced.
    In 1991, it was reduced to 440 million board feet. In 1993, 
it was reduced to 310 million board feet. In 1997, it was 
reduced to 267 million board feet. In 1999, it was reduced to 
150 million. And in the year 2000, it was limited to 50 million 
board feet from the Tongass.
    In other words, we have had almost a 100 percent loss. Both 
of the pulp mills have closed. All of the timber plants are 
closed.
    Last year, the final wood product facility, the veneer 
plant in Ketchikan, filed for bankruptcy.

                 TIMBER SALES PIPELINE RESTORATION FUND

    Now, this subcommittee has consistently included monies for 
what we call the Timber Pipeline Restoration; monies to 
increase and go back to the commitment level, in order to 
establish a 3-year timber supply. That was the goal; to have a 
3-year timber supply to meet market demand.
    I am here because I do not know what has happened to that 
money. Very clearly, the money we put up was to harvest the 
last set goal of 267 million board feet. That, obviously, was 
the last bottom line. The bottom line before that was 450 
million board feet. But it keeps coming down.
    Now, what I would like to ask is if we can find a way to 
find out how the region spent the monies that this subcommittee 
has made available. I would like to have you give me a detailed 
accounting, for the record, of the monies that have been 
authorized by this committee since the last administrative 
decision in 1993, which was 310 million board feet annual 
supply was to be the goal to meet market demand.
    I would also like to ask you, now, as the person in charge, 
can we get a commitment from you as to what is the current 
bottom line for harvesting timber? This is the largest forest 
in the country. It had 103-year sustained yield cutting cycle 
when it had allocated 950 million board feet a year.
    As I said, in this last year, we cut--it was allocated 50 
million, but they cut 47 million, was my total. Is that what 
you have? The cut was 47 million?
    Mr. Bosworth. I believe that is correct. And I will have to 
check those figures. I will get you the--we can get you the 
information and we will provide that information, the detailed 
accounting you asked for in terms of the pipeline dollars, what 
it was spent for, what was accomplished with that. And we will 
make that available.

                        ALASKA PULP CORPORATION

    Senator Stevens. The second thing is that in 1995, the 
Alaska Pulp Corporation's long-term contract was cancelled and 
there is a lawsuit pending. Can you give us an update on that 
lawsuit? Are you involved in that lawsuit?
    Mr. Bosworth. And I will let Mark give that.
    Mr. Rey. I was just briefed on the status of that lawsuit 
yesterday and the Justice Department and the plaintiffs in that 
suit are involved in the beginnings of discussions to see if we 
can resolve that litigation through a settlement. It is very 
early in the process at this stage.
    Senator Stevens. Well, since that contract was cancelled, 
that--the Pulp Mill has gone out of existence. I do not see 
where there can be any compromise. What is the conference that 
is going--is it going to go to trial?
    Mr. Rey. The case has already gone to trial on the question 
of whether the Government is liable for damages from the 
cancellation of the contract. The court of claims has found 
twice that the Government is liable for damages.
    The issues under discussion now are whether we can arrive 
at a settlement over the amount of damages, or whether the 
court of claims will move to the next phase of the proceeding, 
which is to establish the amount of damages since liability has 
already been established.
    Senator Stevens. Mr. Chairman, I thank you for your long 
commitment to helping us in Southeastern Alaska to try and meet 
the commitments of the Federal Government, but I think this is 
one of the saddest tales I know of in government, a repeated 
statement to the people of the area as to what the commitment 
was with repeated promises of no job losses. We are now at the 
point where we have had a 96 percent reduction in actual volume 
of timber authorized for harvest, and an 89 percent--no, a 99 
percent job loss as far as the area is concerned.
    It leaves the--it leaves us in the position of not knowing 
exactly what to do. I would like to have the information 
provided to the committee as to what happened to the money. And 
I would like to be able to discuss with the members of the 
subcommittee what we might do for the future.

                       TONGASS TIMBER REFORM ACT

    Clearly--correct me if I am wrong--the last law that was 
passed by the Congress was the Tongass Timber Reform Act of 
1991, is that correct?
    Mr. Bosworth. I believe that is correct.
    Senator Stevens. And are you prepared to review that act to 
see if it is possible to carry out its commitments?
    Mr. Bosworth. I believe that--I understand the frustration 
of people in Alaska regarding what has happened over the last 
10 to 15 years. Currently, this--for fiscal year 2003, we 
intend to offer 138.5 million board feet. We need to start 
looking at how we can increase that, how we can comply with the 
legislation, the Tongass Timber Reform Act, and we are 
reviewing that right now.
    We will--my hope and expectation is that we will be able to 
work with you and with others to figure out how we can start 
getting the pipeline built back up.

                            ROADLESS POLICY

    Senator Stevens. The last comment would be that, with 
regard to the roadless policy, I believe I have a letter from 
the last administration. I know there are repeated statements 
that Tongass would be excluded from the roadless policy 
position that was issued at the last minute by the last 
administration. Unfortunately, it was added at the last minute, 
but it was added for the future. It was not added for current 
impact.
    It is one thing to reverse a rule that was put into effect. 
It is another thing to take a look at the portion of the rule 
that was--one of those forward springing type of operations 
where Tongass will come under the roadless act--or rule at a 
later date. I think it is 2004, is it not? I think it was--or 
2003.
    I would ask that you would review that to see if that is 
consistent with the law, because in the ANILCA law, there was 
what we called the ``no more'' clause. It said no more--no 
withdrawals could be made in excess of 5,000 acres without the 
approval of the Congress. And Congress specifically refused to 
approve putting Tongass under the roadless policy. It was done 
by administrative decision, but--a decision that was not to 
have effect into the future, so I ask you to review that.
    I think that could be easily remedied by just negating the 
decision that was made that was contrary to the law at the 
time. Otherwise, it is just another lawsuit, and I can tell 
you, we will sue on that one, as I think the State as a whole 
will sue on that one, because that was a commitment made to us 
that there would be no additional withdrawals in our State in 
excess of 5,000 acres without approval of Congress.
    I have taken a long time, Mr. Chairman. I appreciate your 
courtesy.
    Senator Byrd. Thank you.
    Senator Domenici, do you have an opening statement? I have 
called on other Senators for opening statements. If you would 
like one now?
    Senator Domenici. Very brief. If I have questions, we will 
come to those later?
    Senator Byrd. Yes, sir, we will.

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Well, I came to the meeting today because 
I wanted an opportunity to see you again and also----
    Mr. Bosworth. Thank you, Senator.
    Senator Domenici [continuing]. To begin a discussion of 
what was happening with all of the resources that we put into 
the Forest Service and BLM for both fire prevention plans, fire 
retardation plans and for improving the status and the life of 
the forest.
    I know there is a lot to do. I know you are relatively new, 
but we have poured the money in when we had those big fires in 
my State and the other States to both--for both the forests 
that you care for and for the BLM forests.
    We should be seeing some results. If we cannot see results 
from the amount of money we put in, we are never going to see 
results.
    I had a summary of this work done of this bill, Mr. 
Chairman, and I am sure you know about this. But I would like 
to just read it for the record: $1.4 billion for wildland fire 
management, which included $625 million for preparedness 
activities; $443 million for fire operations and suppression 
activities; $359 million for other fire operations, and within 
that amount $234 million is requested for hazardous fuel 
reduction activities. Together with the Department of Interior 
funding, a total of $2.1 billion will go to implement the 
National Fire Plan for this next year, the budget 
appropriations you are preparing.
    We are very close to that in the year you are in when the 
emergency money is added to the regular appropriation. And I 
just think we ought to see some results out there in our 
forests, both in cleaning them up and in inhibiting forests, 
and reducing the timber that is standing after the fires. And I 
think sometimes that we keep on trying to help and we go 
further and further backward.
    And I think part of that is because their efforts are 
stymied and are stopped by litigation. In fact, I think it 
would be good, Mr. Chairman, if we got interested in how many 
lawsuits they have that--affecting their attempts to manage the 
forests of the United States. It would be an enormous number 
this year. And it would be an enormous many number of dollars 
that they are spending in that regard.
    We do not seem to make any headway. And I will ask these 
questions and some others when it is my turn. Thank you very 
much.
    Senator Byrd. Senator Campbell.
    Senator Campbell. Those are interesting questions that 
Senator Domenici brought up. I am interested in hearing the 
answers to that, too. Well, let me just say this and maybe ask 
one or two questions, Mr. Chairman.

                        FIRE BUDGET FORECASTING

    We are getting less timber sold every year, which means 
less money coming into the Forest Service. Senator Bennett 
alluded to one group that is trying to stop all timber sales 
and hopes to do it. With that comes an increase of dead timber, 
and an increased probability of dangerous fires with all that 
dead timber that is accumulating.
    We have $159 million less in the 2003 than we did in fiscal 
year 2002 for the National Fire Plan. We have less salvage, 
because of the difficulty of getting permits. I understand that 
four-fifths of the dead timber after the Mount St. Helen's 
eruption was lost to insects by the time they got through the 
permitting process. We just lost the timber to parasites.
    And so you mentioned, Mr. Bosworth, that you--if we kind of 
run out of money because there is $220 million less this year 
in the budget than there was in fiscal year 2002, you would 
have to borrow it, and you mentioned several other accounts 
that you might have to borrow it from.
    Well, what happens to those accounts if you borrow that 
money? Does it get paid back? If it is not paid back, does that 
mean that the Forest Service will be here looking for an 
emergency supplemental to bail the whole thing out if there is 
not enough money at the proper time? Because it is going to be 
a banner year for fires.
    Mr. Bosworth. Well, in the past, it has always been paid 
back thanks to Congress's actions. When we borrowed it from the 
Knutson-Vandenburg fund, some of the trust funds that we had, 
it was paid back. This last year it was paid back when we had 
to borrow against some of the appropriated dollars at the end 
of the last fire season. Then we----
    Senator Campbell. Well, I guess I--my next question would 
be: Why go through that sleight-of-hand business with the 
borrowing to pay back? Why do we not just have a request for a 
budget that is going to reflect the needs that are out there 
right now?
    Mr. Bosworth. Well, one of the difficulties is in trying to 
anticipate what the fire season is going to be, and what we are 
using currently is a--has been a 10-year average to help 
calculate what we think might--it might be. Now, the----
    Senator Campbell. You said your model, as I remember it--
correct me if I am wrong. You said the model is that there is 
going to be a much higher-than-average fire season this year, 
so you already have a pretty good indication it is going to be 
really bad.

                        FIRE SEASON FORECASTING

    Mr. Bosworth. Well, we do not--the model that I was talking 
about is a model that our fire folks put together in the 
springtime, as we start getting an understanding of what has 
taken place in terms of drought, the weather patterns, and--so 
we continuously try to do--or to get better and better 
predictive models to get a better and better idea of what we 
might be able to expect.
    When we are doing the out-year budget requests a couple of 
years out, a year out, we have much less idea of what might--of 
what the fire season might be looking like.
    Again, this--the--I agree completely that this--that we do 
need to come up with a long-term solution for how to predict 
and how to fund the variations in fire seasons, because we can 
end up with some fire seasons that have very low fire costs--or 
relatively low fire costs and frequency, and then others, like 
the year 2000, that just go way beyond anything we had 
experienced before.
    So we try to do the best we can in terms of using averages 
and then, before the fire season starts, trying to use our 
predictive models to understand what is taking place, so that 
we can develop our--get our fire crews in place and pre-
positioned and to understand what might take place in terms of 
funding.
    Senator Domenici. Would the Senator yield on that 
particular issue?
    Senator Campbell. Yes, certainly.
    Senator Domenici. Senator, I think you are trying to get 
him to talk about: How much does he budget for the year 2003 
for fire preventions?
    Senator Campbell. Based on what we already knows is going 
to happen.
    Senator Domenici. And they must budget something. And then 
if they are off, they ask for emergency money, but they--the 
whole of fire preparedness responses are not all emergencies.
    There is some money in the pipeline because of projects 
that are involved in that and/or predictions. If that is not 
correct, then we are really in trouble, but we have to have an 
emergency supplemental every time we have fires.
    Senator Campbell. We know that out west we are facing a 
100-year drought----
    Senator Domenici. Right.
    Senator Campbell [continuing]. In Colorado, parts of New 
Mexico, Wyoming, and we already know that. We can tell it with 
the amount of moisture that has already come down, very thin; 
and Utah, too.
    And I will tell you, if you want a good model, I would just 
suggest that tomorrow morning you get a few of the people on 
the plane that are doing those models and get them out to 
Bailey, Colorado, where that raging fire is now just eating up 
thousands of acres. I do not know how you can avoid recognizing 
the impending danger that is going to happen this summer.

                         DIFFICULT FIRE SEASON

    Mr. Bosworth. I certainly agree. We do recognize that this 
summer is a--is coming together to be a very difficult fire 
season. That is--we would not have known that a year ago when 
we were--when we were talking about the budget for fiscal year 
2002. But it is starting to--as we start--we started in January 
and February, started looking at these predictive models. We 
had--it is different for the South than it was for the 
Northeast than it was for California, and for the interior 
West.
    For example, if you look at the Northwest this year, it 
does not look so bad. The Northwest is much better than it 
was--much better off than it was last year, but if you go down 
to Colorado, Utah, New Mexico, Arizona, Southern California, it 
is looking very, very difficult.
    Senator Campbell. Thank you, Mr. Chairman. I yield the 
floor.
    Senator Byrd. Senator Bennett. Senator Bennett.

                     ENDING COMMERCIAL TIMBER SALES

    Senator Bennett. Thank you, Mr. Chairman. I made reference 
in my opening statement to the comment of the forest guardians 
that they want to end commercial sales in the national forest. 
Can you comment on whether or not that would, in fact, be good 
for the national forest if all commercial sales ended?
    Mr. Bosworth. My belief is that that would be a huge 
problem. The--60 percent of the timber sales that we sell right 
now are sales that are sold for the purpose of achieving some 
land management objectives such as fuels reduction, such as 
habitat improvement for wildlife or other purposes.
    About 40 percent--approximately 40 percent of the timber 
sales are to provide timber, to provide wood to the American 
people, but particularly for those 60--that 60 percent, we 
would increase with more and more fuel buildup, and it would 
have to be treated one way or the other. Either we would be 
spending dollars trying to suppress fires, or we will be 
spending dollars trying to restore it after the fires went 
through, or we would be spending dollars trying to do fuel 
treatment in some way that brings no return back to the Federal 
Government, so I think it would be a problem.
    Senator Bennett. It is reminiscent of the comment made by 
the infantry captain in Vietnam that said, ``In order to pacify 
the village, we had to destroy it.'' And these people are 
saying in my view, ``In order to guard the forests, we will 
eventually destroy them.''

                        BARK BEETLE INFESTATIONS

    Let us talk about bark beetle. That has--it is the same 
kind of thing in the Dixie Forest in Utah. There are constant 
appeals to prevent logging in the Dixie, and the consequence 
has been that dead trees, trees that have been killed by the 
bark beetle, cannot be taken out and the infestation of the 
beetle has increased and has killed more trees than would have 
been the case.
    Do you see that as a continuing problem not only in the 
Dixie, but in other places?
    Mr. Bosworth. Yes. We have problems across the country in 
terms of insect infestations, bark beetle as being one of 
those. The--to me, the--you know, there are some--in some--with 
some species, it is--there is sort of a natural cycle that 
takes place, but some of the things that are taking place down 
in the Dixie and the Manti-La Sal are, I believe, outside that 
natural cycle.
    Now, I also think that pre-treatment of some of these areas 
ahead of an infestation can sometimes be the best thing. We 
cannot even catch up from behind it often. But if, you know--to 
me, salvaging after beetles have gone through means we are 
already too late, that we should have been doing work before 
the--again, it depends upon the species, upon the area, but in 
many situations, we would have been better off if we could have 
treated ahead of the beetle, maybe put fire back into the 
ecosystem in a prescribed way and try to prevent the spread as 
opposed to running after it, chasing salvage trees after it has 
gone through.

                     COST OF APPEALS AND LITIGATION

    Senator Bennett. The head of the BLM has told me that 
approaching 50 percent of her budget now is spent on dealing 
with legal appeals, so that her budget is being consumed by 
those who are using the courts to frustrate the purpose of the 
agency.
    Mr. Bosworth. That is----
    Senator Bennett. Do you have any sense of how much of your 
financial resources are spent dealing with appeals?
    Mr. Bosworth. We--the only figure I could give you right 
now is that we are figuring and I think that through--a report 
from the National Academy of Public Administrators estimates 
that between 40 and 60 percent of our dollars go to planning 
and appeals and litigation.
    Senator Bennett. Geesh.
    Mr. Bosworth. That is the----
    Senator Bennett. Can you break down the planning from the 
appeals and litigation?
    Mr. Bosworth. I believe we can get some figures for that. I 
do not have them at--I do not have them here, but we can get 
those figures for you for the record.
    Senator Bennett. If you would get those figures for me, I 
would appreciate it. And while you are at it, I would like to 
know the success rate in the courts.

                           FRIVOLOUS LAWSUITS

    I am told again at the BLM that BLM wins well over 90 
percent of these cases. They are brought solely for the purpose 
of slowing everything down, not with any validity or they would 
be winning a higher percentage than single digits of the total 
percentage. But we have a circumstance, at least in the BLM, 
where people are consuming up to 50 percent of the BLM's total 
budget with frivolous lawsuits.
    Mr. Chairman, we could do an awful lot with that money if 
indeed it was not constantly being spent defending lawsuits, 
which are always won on behalf of the Government. As I say, 
over 90 percent are won.
    I would think your budget constraints of the various issues 
that the Senators here are talking about would become far, far 
easier to deal with if you did not have to spend up to 40--I am 
picking a number--you said 60--out of a total of appeals and 
planning. So I am picking a number which may not be right, and 
I would appreciate your correcting it for the record.
    But let us say you spend 20 percent of your budget on 
planning, that means you could have a 40 percent budget 
increase if the frivolous lawsuits filed by these various 
groups were to stop. Any information you could give me on that 
would be much appreciated.
    Mr. Bosworth. Yes. We can get you that information and 
also----
    Senator Bennett. Okay.
    Mr. Bosworth [continuing]. Give you some idea of the 
percentage of the lawsuits and appeals that we win.
    My guess is that in terms of administrative appeals, that 
we probably affirm over 90 percent of those. In terms of 
litigation, I would say something less than 90 percent, but 
that is an estimate and we will--we can--I think we can get you 
the figures for that, too.
    Senator Bennett. I appreciate it.

                          LABORATORY CLOSURES

    Now, we come to a final example of how this pinch hits, 
this budget pinch hits. Your budget would close a number of 
forest science labs throughout the country. We are always 
insisting here, I think appropriately, that the best investment 
we can make in the future is in research and science.
    I have one in the State of Utah, the Logan Forestry 
Sciences Lab in Logan, Utah that is close by the Utah State 
University which, as you know, is the State's premiere 
agricultural university. And it has produced some of the best 
research on aspen ecology and bark beetle disturbance available 
in the country. And yet you are going to close it.
    Can you comment about the closing of the lab, whether that 
is entirely a budget issue, or do you have a scientific reason 
for doing that?
    Mr. Bosworth. Every year, our research station directors 
look at the proposed budget and try to evaluate some of the 
ways that that is going to affect their programs. Those are 
done by the research stations. No decisions get made on that 
until I make the decisions on it, and I have not made a 
decision to do that.
    What I want to do is wait until I see what the--closer to 
what the final budget is going to look like and then look and 
see what kinds of consequences. But I guarantee you that if it 
came to something like that, then I would be working with you 
on it and talking with you on it. And my hope is it does not.
    And I think that the Logan Lab is a very good lab and I 
have spent time there. And I know they do a lot of good 
research.
    It could be that that--that would be a possibility, but at 
this point, we are not even near a decision on that.
    Senator Bennett. Well, I am very glad to hear that. And 
just the editorial comment, the decline of the aspen and the 
calamitous impact of the bark beetle in Utah's forests are 
significant issues. And if, indeed, that lab is leading the 
scientific thrust to try to deal with it, I think closing that 
and then paying the price of increased expenditures as those 
problems are not solved ends up being a false economy. Not that 
it would do any good, but I would be more than happy to join 
you in a conversation with some of the brownies at OMB if they 
do not quite understand that cost-benefit analysis.
    I know there are some folks down there now that are much 
more attuned to cost-benefit analysis than was the case 
previously, and I would be happy to help make that argument if 
you think I could be of any help to you.
    Mr. Bosworth. I appreciate that.
    Senator Bennett. I know you cannot testify in opposition to 
what OMB tells you. I have sat at the table where you have sat 
and been under the strictures of OMB on previous occasions 
myself when I was in a previous administration. But I make the 
offer nonetheless, and feel free to come into the sanctity of 
my office and have a private conversation if it is necessary. 
Thank you.
    Mr. Bosworth. Thank you.
    Senator Byrd. That is what the spider said to the fly, is 
it not?
    Senator Bennett, have you completed your questions?
    Senator Bennett. I have.
    Senator Byrd. Thank you.

                           PRINCETON, WV UNIT

    Chief, the Wood Education and Research--Resource Center 
located in Princeton, West Virginia is important to the people 
in my State and to the hardwood industry in general.
    The Forest Service--before it became involved in the 
running of the center, the center had been poorly managed. I 
think the center is doing better. I note that the budget 
request for fiscal year 2003 does not identify a specific 
funding level for the center's operations.
    Your request merely states that the center will receive a 
similar level of funding as it did in fiscal year 2002. What is 
the precise amount that the Forest Service is planning on 
providing the center in the upcoming fiscal year?
    Mr. Bosworth. $2.7 million, which would be the same as last 
year, and I certainly agree with you that it is a valuable 
program. It does make an excellent contribution to natural 
resources management, not just in West Virginia but across the 
country, I think.
    Senator Byrd. What is the status of the Resource Center, 
and what are your plans for it in the future?
    Mr. Bosworth. As far as the Wood Education Resource Center, 
it is functioning well. We expect to continue improving it.
    I think it has built up over the last few years and since 
the Forest Service has taken it over, I think that there has 
been some major--I am proud that there--to believe that there 
has been some good improvements, and we are--I think we have 
been successful in developing more income producing 
opportunities.
    I think we want to continue on that track to try to see if 
there are more opportunities to develop income producing 
conditions. And I guess the other thing would be that we have--
I think we have the opportunity to provide some more cutting 
edge technology transfer through some distance learning than--
that is an area that we have not done as much of, and I think 
that we can make some progress there.
    And I think that that particular facility up to this point 
has been used primarily more for the sort of onsite kinds of 
learning, and the distance learning opportunities are huge.
    Senator Byrd. All right.
    Will you supply to the committee a more precise statement 
with respect to the status of the center and what your plans 
for it are in the future?
    Mr. Bosworth. I would be happy to do that, yes.
    Senator Byrd. When might we expect that?
    Mr. Bosworth. We can have that to you in 1 week.
    Senator Byrd. When?
    Mr. Bosworth. 1 week.
    Senator Byrd. Very well. Now, there is a lab there. A 
forest research lab, I believe, has been established for 
perhaps 30 years or longer. How is that lab coming along?
    Mr. Bosworth. Well, we----

                            GARDNER, WV LAB

    Senator Byrd. The one at Gardner.
    Mr. Bosworth. All of our labs in West Virginia are doing 
very well.
    Senator Byrd. I am talking about that one in specific. I 
will get to the others.
    Mr. Bosworth. I am trying to remember which one we are 
talking about now. You are talking about the Morgantown 
facility?
    Senator Byrd. The one in Gardner, in Mercer County. It used 
to be called the Forest Research Marketing Lab, I believe.
    Mr. Bosworth. The Morgantown facility, that particular 
facility is----
    Senator Byrd. Not it. I am talking about the one at 
Gardner, near Princeton----
    Mr. Bosworth. Near Princeton.
    Senator Byrd [continuing]. In Mercer County.
    Mr. Bosworth. That lab, our intention for fiscal year 2003 
would be to increase about $250,000 to that lab. And we would 
continue--that would continue that--the work there.
    Senator Byrd. What would that make the total then?

                           PRINCETON, WV LAB

    Mr. Bosworth. About $2.5 million for the Princeton Lab.
    Senator Byrd. What do you call that lab now?
    Mr. Bosworth. I have always referred to it as the Princeton 
Lab. That is why I was not familiar with the Gardner.
    Senator Byrd. The place is called Gardner. It is near 
Princeton. I went to school in a little two-room schoolhouse in 
that county beginning in 1923 when we studied history for 
history, not for social studies, but for real history. Now, 
tell me more about that lab.
    Mr. Bosworth. Well, it depends on what, I guess--well, 
would you like to know the kinds of projects that we are doing 
there? Is that----
    Senator Byrd. Well, whatever. Otherwise, we may have 
another meeting and have you prepared for it.
    Mr. Bosworth. Well, we have--we are--we do a lot of 
research in terms of hardwood processing, hardwood production. 
We do analysis of hardwood markets there. We are doing work in 
terms of competitive kinds of markets to understand better 
what--how this--how people can compete in different markets.
    Primarily, the--that whole area--I mean, that lab and Wood 
Education Center has been focused on wood and on timber and on 
trees. And that is the purpose to both teach people as well as 
to learn through research better use of some of the northern 
forest wood products. There has been--I mentioned economics, 
and there has been a fair amount of economic research that has 
taken place there in terms of timber.
    We used that--some of the expertise from that lab is to try 
to find ways to influence markets on the sustainability of the 
eastern hardwood forests. But, again, most of the research that 
is done there, unlike some of the work that is done in other 
parts, has been focused on the hardwood utilization.

               NUMBER OF SCIENTISTS AT PRINCETON, WV LAB

    Senator Byrd. What is the total number of scientists you 
have there now?
    Mr. Bosworth. I do not have that number.
    Senator Byrd. Does not someone there have that for you?
    Mr. Bosworth. I do not have the exact number of scientists 
there at that particular lab or of any--frankly, I do not have 
the number of any of the----
    Senator Byrd. What?
    Mr. Bosworth. I do not have the specific number of 
scientists here at--for any of the labs, but I can certainly 
get that information for you.
    Senator Byrd. Well, I have been disappointed in recent 
years by the Forest Service as it has come before this 
committee. It has come before this committee notably unprepared 
for questions. I was hoping we would do better under your 
leadership.
    Mr. Bosworth. I would like to tell you that I spent some 
time in West Virginia visiting the Monongahela National Forest. 
I visited some of the research facilities. I did not get to 
that particular lab.
    I got to the Fernow Experimental Forest and visited each 
one of the ranger districts and the visitor centers on the 
Monongahela, and frankly was very impressed by the work that 
was being done.

                         FOREST PLAN REVISIONS

    Senator Byrd. Your budget states that by fiscal year 2003, 
80 forest plans will be beyond the 15-year time frame required 
under the National Forest Management Act. One of the forests is 
the Monongahela. When will the forest plan revision on the 
Monongahela be completed?
    Mr. Bosworth. The plan right now would be to have the 
forest plan completed in 2006.
    Senator Byrd. Is it possible that activities on the 
Monongahela could be affected because the plan is not being 
completed on time?
    Mr. Bosworth. We have some court cases around the country 
that are pending that have filed suits because we have--we have 
situations where we have lawsuits filed because we have not 
gotten the plans revised. Those are all pending.
    I do not know what the outcome will be. My expectation is--
well, I can make a--I can speculate. But I do not--my guess 
would be that, in the end, we probably would not shut down all 
activities on national forests, although my--I would also 
expect that the potential is there to shut down some of the 
timber work.
    Senator Byrd. What kinds of activities could be in 
jeopardy?
    Mr. Bosworth. I would say that probably the most probable 
would be timber activities, timber harvest activities. But, 
again, it would depend upon the individual court and what an 
individual judge would decide.
    Senator Byrd. Senator Domenici, you had some questions. I 
understand there is a vote going on right now. Why do you not 
proceed with your questions?
    Senator Domenici. Mr. Bosworth, I have a follow-up question 
that stems from Senator Byrd's inquiries.
    Mr. Bosworth. Okay.

                       VULNERABILITY TO LAWSUITS

    Senator Domenici. Regularly, we get notice of lawsuits 
filed against the Forest Service by conservation and/or 
environmental groups. And more times than not, they are 
alleging that something that the Forest Service was supposed to 
do or was supposed to have done has not been done. This is not 
blaming you. It is just a statement.
    I would think that if I were in your shoes and had so many 
lawsuits that said, ``They are not doing--they do not have 
ready what they are supposed to have ready under the 
substantive law of the Nation,'' I would think I would start a 
process where--of deep inventory to see every and look at every 
single forest and see about, ``What does the law require that 
we have in place, and what have we not done?''
    I mean you just told us that the planning is not going to 
be ready on time. I can tell you that is a huge vulnerability 
in court. You already know that. But also it would seem to me 
that somebody could have laid that before you in the process in 
a manner of saying, ``Let us get them ready.''
    And I am not going to ask you ``Why has that not been 
done?'' I am just going to offer you that as a concern, because 
we--somebody said the BLM wins 90 percent of their lawsuits. I 
would be surprised if the Forest Service wins 90 percent of 
lawsuits that are directed at it with reference to unpropitious 
management or permissive use of the forest. I think you lose 90 
percent of those.
    But anyway, I am just making that a statement, too, because 
it does concern me. We seem to spend too much time on processes 
and not enough time in getting the job done.

                    VALLES CALDERA NATIONAL PRESERVE

    I want to make sure you know about something in New Mexico 
and that you hear it from me. You know, last year--year before 
last, our Federal Government bought the Valles Caldera National 
Preserve. We spent $100 million in buying that property up in 
Northern New Mexico. It is almost 100,000 acres.
    We are experimenting with a new kind of ownership and 
management, in that you do not own the property, the Forest 
Service, nor do you manage it. You are consultants to a board 
of trustees and to whatever the board of trustees sets up as 
their management team.
    They need to ask you to put money in your budget each year 
for their work as they get this management scheme going for 
this very beautiful, clearly preservable piece of property. If 
they do not get the money, then I would say to you, ``We are 
going to prove that this new management system does not work by 
making it die in terms of not having enough money to do its 
job.''
    They have--this year, they have asked for about $3 million. 
And I note in your budget, you have given them about $1.035 
million. We will take care of them. We will take care of them. 
We are not going to let that happen to them because they have 
not had enough time to do their work.
    But I just want to say, as a Senator that was part of 
talking a lot of our friends into purchasing that property and 
experimenting with a new land management scheme, I would think 
it would be a shame if it was permitted to drown because--
without having sufficient funds each year to try that system. 
So I would ask that you look at that. I do not think you can 
change your budget, but perhaps you can be helpful as we move 
through that process.
    Mr. Bosworth. Yes. Yes, I would--I will look at that. And I 
just, about 2 weeks ago, had lunch with the chairman of the 
board of the trust----
    Senator Domenici. Did you?
    Mr. Bosworth [continuing]. As well as the executive 
director. They also expressed their concern about that. I think 
what we need to do is to engage them earlier in the process 
than what we have, than what we did this last time, and make 
sure that we are working together. And I----
    Senator Domenici. Yes, that----
    Mr. Bosworth [continuing]. Also have been to the Valles 
Caldera facility there, and it is a beautiful place.
    Senator Domenici. I have about seven or eight questions I 
am going to submit.

                        FINANCIAL ACCOUNTABILITY

    Mr. Chairman, and ranking member, somehow if you will 
permit me, I would like to formulate a question and get it to 
them perhaps tomorrow as part of this record. I want them to 
tell us what has happened to all of the money that we have put 
in this Department during the last 18 months. And I think we 
should have a spreadsheet showing us what they did with it.
    It was so many hundreds of millions of dollars. We passed 
an amendment----
    Senator Byrd. Yes.
    Senator Domenici [continuing]. Of mine on the floor. We 
called it the ``happy forest'' amendment because it would do 
thinning, and maybe the forest would grow and be happy again. 
That is why we called it that.
    Senator Byrd. Yes.
    Senator Domenici. And that was $280 million, $140 million 
to each. And then the regular appropriation comes right behind 
it, and you loaded that one up to try to get around this lack 
of taking care of the forests. And it would seem to me that we 
would begin to see some material results; maybe not.
    But if I phrase it so that they have to tell us where they 
put the money and what happened, I think it would be helpful, 
if you will give me 24 hours.
    Senator Byrd. Well, we will give you more than that, 
Senator.
    There is a series of votes for the rest of the afternoon, 
it appears. I said a moment ago that over the past several 
years, certainly--I believe ``several'' is identified in the 
dictionary as being more than 2 to 3, or 2 and 3--maybe 2 and 
3, perhaps not more than 4.
    But in any event, for the past few years, I have been 
disappointed in the Forest Service. That is not all to your 
discredit, Chief Bosworth, because you have not been Chief all 
of that time.

             FOREST SERVICE UNPREPARED FOR SENATE QUESTIONS

    But the Forest Service seems to be notorious in coming up 
here before this committee unprepared to answer questions. Now, 
here today you cannot answer questions on my labs in West 
Virginia. It would seem to me that even a neophyte would 
understand that, in coming before this committee, he ought to 
have the answer to questions that the chairman would probably 
ask with reference to facilities in his home State, and the 
same with respect to other Senators on this committee. So we 
are going to have--we are going to reschedule the hearing.
    Senator Domenici. That is good.
    Senator Byrd. And perhaps you can be better prepared for it 
when we come back. I say again that this is not entirely your 
fault. We could continue a while this afternoon, but we have a 
bunch of these--a bunch of votes and, therefore, we----
    Senator Domenici. Mr. Chairman?
    Senator Byrd. Yes?

                 CITY OF SANTA FE WATERSHED AND FOREST

    Senator Domenici. Could we--before you close the meeting, 
could I just say to the Chief, I would like you to look at the 
city of Santa Fe Watershed Forest. It is the source of their 
water. If it burns, the water turns discolored, and they have 
no water for the entire city.
    At the current rate of achievement, it will take 15 to 16 
years to do it. I do not think that that is right, and I think 
somebody ought to look at it and see what you can do. We will 
get you extra money, because the water of the whole city is 
dependent upon a fire not taking the forest into the little 
lake.
    Senator Byrd. Yes.
    Mr. Bosworth. Okay.
    Senator Domenici. So could you do that for us? Could you 
look into it in preparation for another meeting?
    Mr. Bosworth. I will. I will look into it. I believe that, 
currently, it is an appeals and litigation issue, but I will. I 
will look into it and get back to you.
    Senator Domenici. Okay. I do not think so, but anyway, 
thank you.
    Thank you, Mr. Chairman.
    Senator Byrd. Okay.
    Senator Burns. Mr. Chairman, we have about 4 minutes before 
the conclusion of this first vote.

                        DOI VERSUS FS EFFICIENCY

    I am going to submit a question, Chief, and it has to do 
with: We have come under some criticism when we start comparing 
the Forest Service to the Department of the Interior and on 
their efficiency, on firefighting and conservation, on some 
other areas. I know that is trying to compare apples and 
oranges, because of the different topography generally that you 
oversee and what they oversee, and differences in the trees and 
the plant growth, and it is just a different kind of a country.
    But I want to--we might clear the air, you know, on the 
challenges that you face that are not faced by the Department 
of the Interior on some of these fire activities. So I will 
submit that question, and you can give it some thought and then 
respond to the committee. But I think we ought to make it a 
part of the record so we can quiet some of those critics. And I 
thank you for your attendance today.
    Mr. Bosworth. Thank you.

                    REDIRECTION OF RESEARCH FUNDING

    Senator Byrd. Chief, we will reschedule the hearing, as I 
have indicated, and when we do so, I would like for you to be 
prepared to tell the committee how, with respect to the ongoing 
research--I am talking about the administration's budget 
request for research--there is a request to redirect some $35.9 
million worth of ongoing research to fund other activities 
deemed ``more important'' by the administration. And I would 
like to know what that is. I would like to know what activities 
the administration thinks are more important. So be prepared to 
answer some questions on that.

             IMPACTS OF R&D FUNDING REDIRECTION ON WV LABS

    I would like to know what, if any, impacts this approach 
would have on the research labs at Princeton, Parsons, and 
Morgantown, West Virginia; also with respect to the Lake 
Sherwood sewage improvements, the Seneca Rocks repairs, gypsy 
moth defoliation in West Virginia, and the elimination of wood 
in transportation programs. That is headquartered in 
Morgantown.
    We may ask some further questions with respect to the 
inequitable distribution of fire funds, why the Northeastern 
research station has only received 1.9 percent of the total 
funds, as I have been advised here.

               INTEGRITY OF FINANCIAL MANAGEMENT SYSTEMS

    The committee also remains concerned with regard to the 
integrity of the financial management systems within the Forest 
Service. Over the past several years, the agency has been 
telling the committee that it is putting in place improved 
management systems that would lead to greater accountability, 
but your agency has yet to obtain a clean audit opinion as 
required by statute. And it remains on the General Accounting 
Office's list of agencies that are at high risk of waste, fraud 
and abuse.
    You might want to be prepared to tell us when you expect 
these problems to be straightened out and when you expect a 
clean audit opinion to be issued.
    So as you can see, this is not necessarily going to be a 
cake walk any longer. So we will be in touch with you and have 
you come back.
    Mr. Bosworth. I will be happy to come back, and I would be 
able to answer those questions for you today, but I will be 
capable of answering them another time.
    Senator Byrd. I bet you will. Thank you.
    We have received the prepared statement of Senator Harry 
Reid and will insert it in the record.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

    Welcome Chief Bosworth, I am pleased to see you today and 
look forward to discussing the budget request made by the 
Administration for fiscal year 2003 for the Forest Service.
    As you know, I am personally interested in the Forest 
Service's work on the restoration and stewardship of Lake 
Tahoe.
    Due to decades of damage, Lake Tahoe faces the prospect of 
losing its famed clarity--forever.
    In response to this danger, two years ago Congress passed 
the Lake Tahoe Restoration Act, which authorizes $300 million 
for a cooperative effort to ``Keep Tahoe Blue.''
    The Lake Tahoe Restoration Act represents the product of 
many years of local level cooperation involving environmental, 
business, and governmental interests throughout the Lake Tahoe 
basin.
    Those of us who worked to pass the Lake Tahoe Restoration 
Act know that the only way to rescue this national treasure is 
through bold action.
    Due in part to work we have begun as part of this unique 
local, state, federal partnership, Lake Tahoe is more clear 
this year than it was last year.
    I hope you will continue to work with me to ensure that 
Lake has a brighter, cleaner future.

                          SUBCOMMITTEE RECESS

    Senator Byrd. Thank you very much. The subcommittee will 
stand in recess until 10 a.m., Thursday, June 6, when we will 
continue to hear from Dale Bosworth, Chief, Forest Service, 
Department of Agriculture.
    [Whereupon, at 3:38 p.m., Thursday, April 25, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
June 6.]












  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2003

                              ----------                              


                         THURSDAY, JUNE 6, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Byron Dorgan presiding.
    Present: Senators Dorgan, Burns, Domenici, and Campbell.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF DAVE BOSWORTH, CHIEF
ACCOMPANIED BY: HANK KASHDAN, DIRECTOR, PROGRAM AND BUDGET ANALYSIS

               OPENING STATEMENT OF SENATOR BYRON DORGAN

    Senator Dorgan. We will call the hearing to order. This 
subcommittee convenes this morning to continue its hearing on 
the fiscal year 2003 budget request for the Forest Service.
    We have had a previous hearing that began on April 25. This 
is a continuation of that hearing. That hearing was interrupted 
by a series of votes in the Senate. Before we begin, let me say 
that Senator Byrd has asked me to fill in for him as chairman 
of the subcommittee this morning because of his continuing 
duties associated with the supplemental appropriations bill 
that is now on the floor of the Senate. We have an 11 o'clock 
cloture vote, I believe, on that bill. I am pleased, of course, 
to accommodate Senator Byrd's request.
    I believe we have had opening statements previously at the 
April 25 hearing. I will not make an opening statement.
    Senator Campbell, if you have an opening statement, I would 
be happy to entertain it.

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Well, maybe a couple of comments, Mr. 
Chairman. When I saw you come in, at first I thought maybe I 
was in the wrong committee.
    We spend so much time together in the Treasury 
Subcommittee.
    Senator Dorgan. We do, indeed.
    Senator Campbell. I was not aware you were chairing this, 
but I am glad you are here.
    Maybe, just a welcome to Chief Bosworth once again. I was 
mentioning, just before you came in, to him the devastating 
fires we have in Colorado. And I wanted to mention that just 
for the record.
    It looks like it is going to be an absolute banner year for 
us. We have had 698 fires in Colorado so far this year, burning 
over 101,000 acres. Last weekend, 55 fires, separate fires, 
burned over 70,000 acres throughout Colorado, just last week.
    One called the Iron Mountain fire near Fremont County, 
which is down below Denver about an hour and a half, over 100 
structures were burned in that one, including 80 homes and one 
store. In fact, when our Governor toured it, he said it looked 
like the moon with trees after that fire. And, with the help of 
some rain, it began to be suppressed.
    But there is absolutely no question that it is going to 
only get worse this year. And certainly the Forest Service 
being responsible, according to the budget statement, for the 
protection of Forest Service lands and inhabitants throughout 
the National Fire Plan and the rangeland and the forest health 
programs, I think this is a very, very important hearing.
    I know we are putting some money back into a supplemental 
that was not in the President's budget for fire suppression, 
but very frankly, I am not even sure that is going to solve the 
problem it looks like we are going to face throughout the West 
this summer.
    With that, thank you, Mr. Chairman.
    Senator Dorgan. Senator Campbell, thank you very much.
    Chief Bosworth, welcome. We have had our paths cross 
previously and I have not had a chance to congratulate you, but 
thank you for being with us.
    And you are joined by Hank Kashdan, the director of the 
Office of Budget at the Forest Service.

                        FIRE SUPPRESSION MODELS

    Let me begin by asking you some questions about fire 
suppression, if I might. As Senator Campbell indicated, we have 
seen, especially in the last week, a substantial amount of 
activity across the country in forest fires. And we know that 
fighting those fires costs a great deal of money.
    Traditionally, what has happened is you have had to borrow 
from other accounts in order to pay for that. Let me ask, 
first: What are your models now showing that would tell us what 
kind of costs you may experience in this season? I heard a 
brief report from some newscasters suggesting that this may be 
a pretty devastating season for fires. So what are you 
anticipating? What do your models show?
    Mr. Bosworth. Well, first, Mr. Chairman, the models are 
predicting, the most recent models, that this is going to be a 
very significant fire season. And, of course, you do not have 
to just look at models to tell that. All you have to do is be 
in the middle of Arizona, New Mexico or Colorado to tell that 
it is going to be a very difficult fire season.
    The projection that we had as of April 30 would indicate 
that our total cost would be $587 million. And that is we have 
our--for this fiscal year, we have $321 million available. So 
we would be borrowing from other accounts if that projection is 
accurate.
    Senator Dorgan. Well, you have $321 million available to 
fight fires. You spent $690 million last year?
    Mr. Bosworth. That is correct.
    Senator Dorgan. And what is the basis of the $321 million 
request?
    Mr. Bosworth. We----
    Senator Dorgan. Was the----
    Mr. Bosworth. When we--our request is based on our 10-year 
average.
    Senator Dorgan. Yes.
    Mr. Bosworth. And so our request for fiscal year 2002 would 
have been made in the year 2000 when we were calculating our 
10-year average at that time, which--so that would have been 
from or based upon 1990 through 1999. You take that 10-year 
average, and then, of course, if you are using averages, then 
half the years you are going to be high and half the years you 
are going to be low. And this year and last year we were high.

                       SUPPLEMENTAL FIRE FUNDING

    Senator Dorgan. If your models now show that this could be 
a very costly year for you, did you request any additional 
money in the supplemental?
    Mr. Bosworth. The administration did not request any money 
in the supplemental.
    Senator Dorgan. Did you request of the administration that 
they request money in the supplemental?
    Mr. Bosworth. Well, we have indicated to the administration 
what our projections were and what we believed we would need.
    Senator Dorgan. And that went to the Office of Management 
and Budget?
    Mr. Bosworth. That goes through our Department, the 
Department of Agriculture, to the Office of Management and 
Budget.
    Senator Dorgan. Any word that you have on why OMB would not 
have requested some emergency funding if the expectation is 
that we would have a substantial amount of fire activity this 
year?
    Mr. Bosworth. I have not had any indication from them, from 
OMB. I have had some discussions with the boss, with my boss in 
the Department. But I have not had any indication as to why 
that was not requested in the supplemental.
    Senator Dorgan. All right. So you made a request of OMB, is 
that correct?
    Mr. Bosworth. We made our predictions available. We made 
sure that folks knew what our predictions were for it, for this 
fiscal year were.
    Senator Dorgan. All right. I am not trying to hang you up 
on this. I am just trying to understand.
    Mr. Bosworth. Yes.
    Senator Dorgan. We are dealing with this supplemental, 
which really responds to emergency issues, over on the floor of 
the Senate. And if we anticipated a larger requirement for 
funding this year for fire suppression and fire fighting on 
national forest lands, I am just trying to understand. Did that 
get up the line to OMB and get stopped at OMB? Is that what 
happened?
    Mr. Bosworth. Well, let me--I am going to have Hank respond 
more specifically.
    Senator Dorgan. All right.
    Mr. Bosworth. But I would like to add something else before 
I do that.
    Senator Dorgan. Sure.

                       BORROWING FROM TRUST FUNDS

    Mr. Bosworth. In the past when we have those kind of years, 
the years where we exceed what we--the amount of money that we 
have, we have had trust funds available through our Knutson-
Vandenberg fund and salvage dollars that we have had available 
to be able to borrow from and then have that returned. Those 
trust funds are--because we do not cut nearly as much timber 
now, then we do not put the dollars into the trust fund, so we 
do not have those dollars available.
    So we are into a new and different kind of a situation, 
that we really do need to find a solution for, for when we have 
these kind of years. So I will have Hank be more specific about 
exactly what the process was in terms of credit and in terms of 
supplemental funding.
    Mr. Kashdan. Mr. Chairman, we did identify some additional 
needs that we felt, based on projections that we had run as of 
February, that indicated we would need some additional funding. 
We did process a letter through the Department and there was a 
good amount of discussion with Department officials and OMB.
    I cannot tell you exactly whether that letter made it to 
OMB. In the end, the administration did not process a request 
for it, however.

                SOURCES OF BORROWED FIRE FIGHTING FUNDS

    Senator Dorgan. All right. Might I just ask one additional 
question? Where will you borrow the funds at this point, 
assuming that this is a pretty tough year for you, and the $321 
million is $200 million or $300 million, or $400 million short 
of your need? Where will you borrow the funds at this point?
    Mr. Bosworth. Well, we--a couple of months ago, we 
established, in case something like this would have happened, a 
sort of a priority list of where we would have to borrow the 
money from. And we would be taking that from programs that, 
first, that do not--or that are like contracts, large contracts 
that have not been let yet from land acquisition dollars that 
we have that are usually large or fairly large sums.
    We would also go to the amount of money that is available 
in our trust fund account and borrow from those. So those would 
be three of the areas that we would look to first.
    Senator Dorgan. Chief Bosworth, I would like to submit a 
question. I am going to submit a series of questions to you, 
but if you might just respond, before I then call on Senator 
Campbell, on the research cut issue.

                    REDIRECTION OF RESEARCH FUNDING

    The budget request from the administration requests a 
redirection of $35.9 million worth of ongoing research to fund 
five new research initiatives that they deem more worthy. Can 
you just give me a thumbnail sketch of what are those new 
projects, and how are they more worthy than the ongoing 
research?
    Mr. Bosworth. Well, first, I would like to say that I 
believe that all the research that we have ongoing is very, 
very important research. And, of course, as times change, then 
we look at some--at the additional kinds of research that we 
think that we might need as we project into the future.
    We have one program that was proposed as a forest 
simulation or developing a forest simulation model. Forest 
inventory and analysis is another program that we have had for 
a long time, but the proposal is to fund it fully. And the 
forest inventory and analysis program is one that the States, 
particularly the State foresters, very much like to have that 
information.
    And basically it is a census of the forests in every State. 
And the purpose of that is to annualize that program so that 
they have a much more up-to-date program, or much more up-to-
date information. And then bio-based products and bioenergy is 
another program, another area. And the national climate change 
research and national climate change technology, those were the 
five areas.
    Senator Dorgan. Well, you send us information about each of 
those. I will submit a question to you.

                  ECONOMIC ACTION PROGRAM ELIMINATION

    And then, finally, the Forest Service budget justification 
for 2003 lists six program areas that it will emphasize in 
2003. One of the areas is agency programs that benefit 
communities. But the budget request proposes to eliminate 
entirely the Economic Action Program, which many people say has 
the most direct impact on helping communities. Can you tell me 
how you reconcile that?
    Mr. Bosworth. Well, the Economic Action Program is a 
program, also, that we like very much, but it is a heavily 
earmarked line item, and the administration, as you know, did 
not use previous years' earmarks, and so that line item was 
eliminated.
    There is a number of places that we can--in many of our 
programs, where we can help communities and work with 
communities and help ensure community vitality. There is 
programs like the Craig-Wyden, came as a State's legislation 
that has certain--some dollars that go to the local projects, 
that we have real collaboration with local communities with 
projects.
    There is opportunities to use some of our fuel dollars in 
private land and around communities, the wildland/urban 
interface, that help. We can do some preference for local 
contracting. There is a number of things that we are using to 
try to help with community vitality. The Economic Action 
Program was one that was zeroed out.
    Senator Dorgan. I am going to reserve some questions, but I 
would say to my colleagues, Senator Domenici and Senator Burns, 
before you came in, I mentioned that Senator Byrd is on the 
floor handling the supplemental. He asked if I would chair the 
remainder of this hearing. This is a continuation of the April 
25 hearing.
    And we have a vote, I believe, scheduled at 11 a.m., so let 
me call on Senator Campbell for questions.
    Senator Campbell. Thank you.
    Mr. Bosworth. Thank you, Senator.
    Senator Campbell. Thank you.
    Well, Chief, I have to tell you, I do not know how in the 
heck you are going to get your job done this year. As I see the 
$227 million less than the budget for the--for your Department, 
including $159 million less than 2000 for the National Fire 
Plan, and these outrageous increases of fires we are having, I 
just do not see how you are going to do it.

                       VOLUNTEER FIRE DEPARTMENTS

    I did a hearing on some of the fires in Colorado a couple 
of weeks ago, and I was very impressed with a number of people 
that are on volunteer fire departments. They are not even 
getting paid. They are helping out in the fires that we have in 
Colorado. But there is also a decrease in the present request 
for State and volunteer fire assistance.
    Are there any plans to--for the Forest Service to further 
aid volunteer fire departments, if you are also--or if you are 
going to decrease the money that you have been sending to them?
    Mr. Bosworth. Well, one of the things that we are working 
on right now is there is--is to develop a new readiness model 
for fire that includes the needs of both State and local 
communities as well as----
    Senator Campbell. Yes. I am aware of that.
    Mr. Bosworth [continuing]. The model that we have for the 
national forest lands. And this would be something that would 
work with all the fire--wildland fire fighting and Federal 
agencies that would consider those resources available also, 
and needs from communities.
    When we complete that, I think that will help be more 
specific about the kind of dollars that we need each year. And 
the Farm Bill authorization also, I think, will help in future 
years, because there is some opportunity there to work with 
communities through the Farm bill.

                       HAZARDOUS FUELS REDUCTION

    Senator Campbell. Okay. Thank you. I understand that there 
are about 40 million acres that are considered high risk for 
fire now. You mentioned that there is a reduction of timber 
sales, which just tells me as a layman that there is going to 
be an increase of dead trees out there, which adds to the fire 
hazard. It does not decrease the fire hazard.
    Why are you or why is the Forest Service having such 
difficulty in undertaking a reduction of that, you know, 
reducing the high fuel load? Is it environmental opposition?
    Mr. Bosworth. Well, the--I think we are actually doing 
reasonably well in terms of the fuel reduction that we started 
in a big way after the year 2000 fires. But I will also say 
that one of our big difficulties in terms of trying to move 
aggressively on a fuels reduction program, if it means cutting 
some trees, is the ``analysis paralysis'' that we have in our 
organization, the high bar of analysis and the process that we 
have to go through in order to be able to support our decisions 
through court action or through appeals.

                  TIMBER SALVAGE PROCESS STREAMLINING

    Senator Campbell. What if we do not even have to cut--let 
us go back a few years to Mount St. Helens when thousands and 
tens of thousands of trees were blown over in that volcanic 
eruption.
    I understood that about four-fifths of it went to waste 
because there was so much regulation in being able to timber 
those dead trees out of there, that it got bug-infested before 
they could be used, and so we lost them all.
    Is there any way that can be speeded up for those, for 
trees that are already down dead, or do we need to do something 
here legislatively to help speed that up?
    Mr. Bosworth. I think there is a number of things that can 
be done. First, we are looking at what we call categoric 
exclusions for salvage where our process would allow us to move 
forward quicker and not--and for categories of salvage sales, 
for example, that are not very large.
    Senator Campbell. Yes.
    Mr. Bosworth. We would be able to move in without having to 
go through the documentation of an environmental impact 
statement or environmental assessment. We still do the 
analysis, but we do not go through the documentation.
    We are about here--in the next few weeks, we should be able 
to put a rule in the Federal Register to get--or a proposed 
rule in the Federal Register to get public comment. That will 
be helpful.
    Again, it is not for very large areas, but, you know, when 
you get an outbreak of insects or disease, sometimes--you know, 
they usually start small. If you can get on them very quickly, 
then that helps.
    There are things within our own internal regulations that 
we are looking at right now to see whether or not we can make 
some improvement in our own internal regulations. And we are 
working with other agencies like the Fish and Wildlife Service, 
and they have been talking with the Council on Environmental 
Quality, to see if there are some things in other agency 
regulations that can help streamline some of our processes.
    So that is the bottom line, that we need to identify where 
the problems are. And we are in the process of doing that. And 
we need to improve our own internal processes, our own internal 
management of the processes and then work with other agencies 
to try to see if we----

                       AIRCRAFT SECURITY MEASURES

    Senator Campbell. I see. Okay. And a last small question 
that completely stymies me: I understand the only Forest 
Service money that is in the 2002 supplemental is $3.5 million 
for airplane security measures, which I assume is locks on the 
doors in airplanes. Is that correct? What are you--nobody is in 
those planes except the pilots and the staff.
    Mr. Bosworth. Those were through an OIG investigation or 
audit. After September 11, they identified that the Forest 
Service is very weak in terms of securing the aircraft that we 
have or that we have under contract, both our own airplanes, 
those, and also those that are under contract.
    Many of these are in remote areas, as you know, for--they 
are used for retardant or they are used for lead planes. And we 
had a significant problem in terms of having those secured from 
theft.
    Senator Campbell. I see. Okay.
    Thank you, Mr. Chairman. No further questions.
    Senator Dorgan. Senator Burns.
    Senator Burns. I have got one question, Chief. I am going 
to help you out with your Economic Action Program, how is that 
for communities?
    Mr. Bosworth. Good.
    Senator Burns. No, I--seriously, this problem has jumped up 
in the last, oh, I think the last year. And let your guy get 
through the book.

                   GRAZING PERMITS/ALLOTMENTS PROCESS

    We have--the previous Chief ordered full EIS and NEPA 
analysis for grazing, before grazing permits would be reissued. 
And I understand that you are--and this is going to take about 
15 years to complete. And I--it is a long-range program. I hear 
you are woefully behind.
    Mr. Bosworth. That is correct.
    Senator Burns. And it is causing some lawsuits. In other 
words, one rancher was told that it would be--here he is, he 
has got the cattle, and it will be 2 years before they ever get 
to him, and he cannot graze until that is done.
    Mr. Bosworth. We have a--we had a lawsuit on the Horseview 
allotment, a question on it, in Montana, west of Yellowstone.
    Senator Burns. Yes.
    Mr. Bosworth. That was a lawsuit----
    Senator Burns. Tell me where we are on that. And how do we 
speed that up? You have got ranchers out there that cannot turn 
out.
    Mr. Bosworth. Basically, the lawsuit was--we lost the 
lawsuit. And so we--but we are not sure exactly yet, or the 
courts have not decided yet on whether or not the rancher will 
be able to turn out. That decision is still yet to be made.
    But the problem is that this will go on with a lot of other 
areas where we have not been able to keep up with our--a lot of 
management plans----
    Senator Burns. What is the problem?
    Mr. Bosworth [continuing]. And the schedule of the--that 
was required under the rescission bill.
    The problem is, back to what I was talking about earlier is 
the amount of analysis, amount of process that we go through 
when we have to use NEPA and ESA for each one, for each 
allotment management plan.
    We have some forests--I mean, we have got a lot of 
allotments on national forest lands and national grasslands. 
And we need to develop allotment management plans for each one 
of those, and they have got to be updated. And we have got to 
go through NEPA, and we have to go through the consultation 
where we have threatened or endangered species, all of which 
are good things to go through. But the process that we have 
burdened ourselves with on some of those takes a lot, an awful 
lot of time, and a lot of money.
    Senator Burns. Well, now, if this was done by 
administrative order, how come we cannot change that order and 
maybe go through an EA or something that would be a shorter 
process to relieve the situation? Is there a way you can do 
that----
    Mr. Bosworth. Well, the----
    Senator Burns [continuing]. Or does this lawsuit now stand 
in the way?
    Mr. Bosworth. Well, the--no, I do not believe--I will have 
to get more information for you on the specifics of the 
lawsuit.
    Senator Burns. Okay. That is fair enough.

    ENVIRONMENTAL ASSESSMENTS VERSUS ENVIRONMENTAL IMPACT STATEMENTS

    Mr. Bosworth. But I do not think that there is a problem 
with doing EAs versus environmental impact statements, because 
it really depends upon the magnitude of the potential effects. 
And if the potential effects from grazing in the allotment 
management plan are greater, then we are required to go through 
an environmental impact statement.
    Often we go through an environmental impact statement 
because we know if we are going to go to court that we can 
defend an environmental impact statement better than we can an 
environmental assessment.
    Senator Burns. Well, we----
    Mr. Bosworth. And so we do more work----
    Senator Burns. Yes.
    Mr. Bosworth [continuing]. So we can do the----
    Senator Burns. Well, here is how wrongheaded we seem to 
look at things. And I realize that everything and everybody is 
well meaning. But if you will look at--we looked at some 
figures out in Montana just this year, with some of my friends, 
and looking at a couple of forests.

                       GRAZING MITIGATION OF FIRE

    Do you realize--here we are talking about $280 million or 
$300 million of shortfall in fire fighting monies that it is 
going to take if we have got fires. Do you realize that where 
you graze you do not have near the fire problem that you have 
anywhere else? And why----
    Mr. Bosworth. In many cases that is correct.
    Senator Burns. You bet it is. And I do not know why we are 
not looking at a commonsense approach to this thing, and here 
we are wanting to fight these stockmen off of their permits or 
take them off of their permits, when basically we could kill 
two birds with one stone. We get the grazing fees and we do not 
have to lay out near as much money in fire money.
    Now, to me it is--maybe I figure different than anybody 
else, but it makes a lot of sense to me that we better either 
accelerate this, or change the way we do it to make it work 
and--from an economic standpoint and also from an environmental 
standpoint. It just makes sense.
    Mr. Bosworth. Well, there are many places where--
particularly where we are grazing where, as you say, the grass 
is kept down. You do not have the flash fields during a bad 
fire season.
    There is also the problem with places where we have had a 
number of or a lot of trees that have grown up that were not or 
did not used to be there in the more natural condition, places 
where we used to have maybe 20 to 30 to 40 large trees, and now 
we have 500 to 1,000 smaller trees. And, of course, the grazing 
issue there would not be--that would not be a solution for 
places like that.
    Senator Burns. Well, that is right. But if you had been 
grazing, you would not have that many trees either.
    Mr. Bosworth. That is----
    Senator Burns. Okay. Well, those are the issues, I think, 
that I think we have to take--some way or another we have got 
to take a commonsense approach to this. Some way or another 
there has got to be some sense brought into this business 
because the land will take care of itself.
    It is not--they do not take or create all of these, all 
this money that is just to fight fires when we can do some 
things to prevent them. And it happens to be grazing and forest 
management. If you want an example, if you are going through 
your books and talk about a forest that--probably the most--
and, you know, the forest I am going to talk about, on pine 
beetle. We have got to do something up in that northwest corner 
up in the Yak.
    I am telling you that if we do not, it is just terrible the 
way we are managing the forest. And I know you are familiar 
with that. And I know you are trying to do something about it. 
And we want to help you.
    Mr. Bosworth. And I would be really happy to work with you 
on finding some solutions, because there----
    Senator Burns. It just----
    Mr. Bosworth. We need to simplify it.
    Senator Burns. You bet, because it just looks terrible up 
there.
    And I thank you, Mr. Chairman.
    Senator Dorgan. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.

                   GRAZING PERMITS REISSUANCE BACKLOG

    Let me discuss with you the situation with reference to 
these permits on the Forest Service that are technically 
expired that the Forest Service has not gotten around to 
reissuing new ones because they have a big backlog.
    Mr. Chairman, I think every one of the Senators that are 
sitting here supported an amendment on the floor 2 consecutive 
years with reference to BLM and grazing permits. All of you 
voted for the Domenici amendment that said the rancher is not 
responsible for them not getting the permit out on time and, 
therefore, they pay their fee and you issue them the permit and 
you continue to evaluate. And you can withdraw the permit and 
reissue it subject to conditions that you would find rather 
than the reverse, which is to take the--effectively make it a 
conditional permit when there was no fault on the part of the 
permittee. The collateralization of that grazing permit and all 
are rendered rather valueless if you are waiting around for a 
full permit until they catch up. And there is no incentive to 
catch up.
    We have now submitted that language and it is in the 
President's budget with reference to the sister agency. It is 
not in there on the Forest Service, but it is in there on the 
BLM. And I would ask if it is an issue that is too hot for you 
guys to handle, and perhaps you do not have to do it, but I 
would like to know if there is any real difference in terms of 
that.
    When we did our amendment, there was no big backlog in the 
Forest Service. And what happened is the backlog there has 
grown. While we were trying to alleviate the problem in the 
BLM, it grew up in the Forest Service, who had--the Forest 
Service had started the practice without any law, just started 
the practice of an environmental impact with the issuance of a 
permit.
    Senator Burns. That is exactly right.
    Senator Domenici. It had never been the law until 4 years 
ago when it went into practice. When--so I would ask, for the 
record, if they might give us their reasons. I see no reason. 
If they do not, I will offer the amendment in committee that we 
make it, that we treat them both the same.
    For about a year, the environmentalists in the country made 
it the biggest issue going. We have all seen it work. It is 
perfect; nothing happens. They do not lose any power to mandate 
the permittee to do things they have to do. If they just did 
not get around to checking them out yet, you do not--you 
essentially get a phony permit, because it is your fault for 
not getting it checked out. So I will do that.

                MULTIPLE LARGE FIRES--ADEQUATE RESOURCES

    Let me just ask with reference to the fires: I continue to 
be amazed at how, together, we are so able to make mistakes 
with reference to the money we have around to fight fires. I 
mean, everybody that knows anything about the West knew that 
the cost of forest fires last year was enormous. This season, 
if I am correct, we have already burned more acreage than we 
had at this point in the year 2000.
    Mr. Bosworth. That is correct.
    Senator Domenici. With the drought conditions that we have 
now, and that is not going to let up according to the weather 
bureaus any time soon, we are going to see that acreage 
increase even further. Do you believe that you have the 
resources available right now to fight multiple large fires all 
at once? And if we do not, how would we expect to get them?
    I mean, we have a supplemental right now that does not have 
anything in it, because the fires are not serious enough yet, I 
guess, maybe. And we cannot put it in now because the bill is 
all entangled.
    Senator Dorgan. Senator Domenici, if you would yield on 
that point?
    Senator Domenici. Yes.
    Senator Dorgan. I had previously inquired, and they 
indicated that they had requested money up through, or they 
think through OMB----
    Senator Domenici. Yes.
    Senator Dorgan [continuing]. For emergency fire fighting 
and that it, nonetheless, did not get into the supplemental.
    Senator Domenici. All right. Okay. Well, I think some of us 
have to look to try and protect it some way. I do not know if 
we can do it on this bill. Maybe we can do it in conference on 
this bill, but----
    Mr. Bosworth. Senator?
    Senator Domenici. Yes?
    Mr. Bosworth. Part of your question was: Do we have the 
resources now to fight these fires?
    Senator Domenici. Yes.
    Mr. Bosworth. And the answer to that is: Yes, we do have 
the resources to fight the fires. And we have had not any 
shortages. And one of the things that we are lucky about is 
that the fires are isolated to the geographic area of the 
Southwest and we have not started getting--and Colorado. And we 
have not started getting large fires in the Pacific Northwest 
and the Northern Rockies.
    If it evolved to that, to where you have large fires across 
the West or across the country, you know, we can run into 
shortages of resource. The biggest concern, again, is the--is 
finding the dollars and pulling those from other programs that 
we have in order to pay for the fire suppression, which 
disrupts other programs and makes it extremely inefficient.

                    FIRE FIGHTING BUDGET FORMULATION

    Senator Domenici. Yes. Well, let me just close by saying: 
If you had to do the choosing in terms of what kind of fire 
season we are going to have and you were given all the expert 
advice, you clearly would choose a fire condition that exceeds 
what you would have on hand to take care of fires, would you 
not?
    Mr. Bosworth. At this point, I certainly would. Now, when 
we, you know, when we requested the budget a couple of years 
ago, our request was, again, for the 10-year average.
    Senator Domenici. Yes.
    Mr. Bosworth. Because when we requested the dollars before, 
we did not know what this fire season was going to look like, 
so our approach is to use the 10-year average.
    Senator Domenici. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Domenici, thank you.

                  NATIONAL GRASSLANDS MANAGEMENT PLAN

    Let me ask a question about the management of the 
grasslands, and I do not want to go too far into this, but, you 
know, North Dakota ranks, I believe, 50th among the 50 States 
in native forest lands. In other words, we are dead last in 
trees.
    But the Forest Service manages our grasslands. And the 
Chadren plan, which was begun some many years ago to change the 
management system with respect to the grasslands, was an 
attempt to bring all the parties together and create a new 
management system within the Forest Service for the grasslands.
    It will not surprise you, Chief Bosworth, to know that I 
feel that that was a failure. The Chadren plan really did not 
bring people together. Significant parties to these interests 
feel like they were not properly consulted and we have, as you 
know, a Herculean struggle among various interests with respect 
to this management plan.
    I have really tried very hard to understand the new 
management plan. It is hundreds and hundreds and hundreds and 
hundreds of pages of highly technical information. We have 
really good professors, Ph.D.'s who have studied it, who come 
out with a conclusion on this side, and then someone else 
equally capable comes out with a conclusion on this side, 
vastly different conclusions.
    None of us have the foggiest idea of what the ultimate 
consequences of this will be. I recognize these lands are 
multiple use. They are used for grazing, have been for many, 
many years. But they are also lands that belong to the public, 
available for hiking and hunting and a range of things.
    So we--I do not dispute that we want to have an effective 
management plan that represents multiple use, but I must 
confess, Chief Bosworth, that I do not know of anyone who 
understands the plan that was developed or the consequences of 
it.
    Can you tell me what the status is of that plan? The 
comment period is over, I believe. Tell me where the Forest 
Service is with that plan.

             STATUS OF NATIONAL GRASSLANDS MANAGEMENT PLAN

    Mr. Bosworth. Yes, the comment period is over. We have 
evaluated the comments. We have been working with the 
interests, and trying to come out with a final record of 
decision that will be satisfactory to the ranching community, 
as well as to the environmental community and the--and there is 
also a fair amount of oil and gas, as you know, and we have 
worked closely with the oil and gas industry.
    I believe in the next few weeks we will be able to sign a 
record of decision that will be satisfactory. It will not be 
everything that everybody wants, but I believe that we will be 
or we will strike a balance that will--that people are going to 
be willing to move forward with.
    The most difficult thing has been the differences of 
opinion about what both the economic impacts would be, as well 
as the grazing impacts. And there has been sort of a wider-
than-any-other-place-I-have-ever-seen divergence of opinion 
about what those effects would be.
    You know, we have gone through our analysis. And, like you 
say, we have tons of information. And we think we know what the 
effects will be, but the ranching community does not trust 
that, or does not believe that, so we are looking for ways to 
work our way through it, develop some allotment plans together 
and see--before we implement that part of it, to see what the 
effects would be.

                       MINERALS AND OIL INTERESTS

    Senator Dorgan. I failed to mention the minerals and oil 
interests. And that is another interest here. And I worked, I 
think, for 3 years with the Forest Service in Meridian and 
other companies so that we could trade out interests that would 
allow them to more orderly develop, and perhaps even develop 
more, but not do it in sensitive or scenic areas that are of 
special interest to us.
    And as a result, the Forest Service--and I appreciated the 
cooperation--traded out interests. We now have protected the 
Kinley Plateau and Bullion Butte, very remarkable and special 
places in--near the Badlands of North Dakota, and we will 
actually see more oil and mineral development in other areas 
where they were able to consolidate their holdings, because of 
those trades.
    But, Chief Bosworth, I am trying to remember, did you come 
to some meetings in North Dakota with me? I think you did.
    Mr. Bosworth. Yes, I did.
    Senator Dorgan. And I recall we had a good many people show 
up and express great angst about these issues early on in the 
process. And you, no doubt, I think, as--if I recall, I think 
we were in Fedora, North Dakota, but Slope County is the county 
south of there. It is the county next to the one that I grew up 
in.
    Slope County is about the size of the State of Rhode 
Island. It has about roughly 700 to 800 citizens. We had seven 
babies born there in a recent year. So it tells you the land 
mass and the sparse population.
    And we have people suggesting that we create wilderness 
areas by laws. And, you know, you do not need laws to do that. 
It has become a wilderness, and the people are moving out, not 
in. Ranchers are quitting, not starting.

                  NATIONAL GRASSLANDS MANAGEMENT PLAN

    And so what we are trying to do with respect to a 
management plan is to be sure that we do not create dramatic 
injury to the economies of these counties out there that are 
struggling very, very hard, and the farmers and ranchers, who 
are struggling to make a living during tough times, and still 
recognize that the management plan offers opportunity for all 
of the others that have a bona fide interest in these lands: 
environmentalists, hunters, hikers, you know, the whole series 
of interests including oil and gas and minerals.
    So I--the reason I ask this question is this is very 
important to western North Dakota. It is a very important 
issue, and I, you know, I graduated from that little high 
school down near Slope County and Hettinger County, a high 
school with 40 kids in 4 grades, 9 in my high school class.
    I did not take the highest math you can take probably in 
school, but nonetheless I went on to get several college 
degrees. And I have really tried hard to understand what this 
management plan does. I do not have the foggiest idea of what 
the impact would be 5 years from now in western North Dakota if 
we fully implement that plan. I wish I did, but I do not.
    And I have consulted with Ph.D.'s on both sides of the 
issues. So that will give you a bit of the frustration of 
ranchers and others. If I cannot understand it and they cannot 
understand it, and none of us understand the future 
consequences, people fear the unknown and should, if they are 
trying to raise a family and make a living in areas where we 
have people moving out and not in, and the economies are 
struggling.
    So I just tell you all of that as a background of why this 
is so very important to us.
    Mr. Bosworth. Mr. Chairman, I appreciate that. And I just 
want you to know that it is extremely important to me and to 
the rest of the Forest Service as well.

                           ANALYSIS PARALYSIS

    I mentioned a little earlier in answer to one of the 
questions about ``analysis paralysis'' and ``process 
gridlock.'' It just seems foolish to me that it takes us so 
many years to develop a grassland plan to start with.
    You know, when we develop plans to be 10 to 15 years in 
length, and it takes us 5 to 10 years to develop the plan, that 
just simply does not make sense. And it becomes so complex that 
people cannot understand it, including half the Forest Service 
people that, you know, it gets very complex.
    We have to simplify our processes. We have--we need to be 
able to develop a plan in a much shorter period of time. It 
needs to be much less complex, that does much more interaction 
with people and a whole lot less paper and intricate analysis 
on everything when it just is not working for people----
    Senator Dorgan. Yes.
    Mr. Bosworth [continuing]. And we have got to redefine 
that. We are going to be coming out with some proposed 
regulation changes on our planning regs to try to simplify the 
process.
    Senator Dorgan. And most of all, a little common sense. I 
mean, I can tell you of ranchers who wanted to move a water 
tank, and 18 months later they still were not able to get the 
approval to move a water tank. Now, you know, you just say to 
yourself, ``This is a bureaucracy that is big, slow and not 
very capable,'' if you cannot get answers, and commonsense 
answers.
    You know, that is, you have got a lot of good men and women 
working in the Forest Service, but you also know this is a big, 
big bureaucracy. And we need to make it work in a way that 
allows people to say, ``Yes, this agency makes thoughtful and 
correct decisions and uses a lot of common sense.''
    At any rate, having said that, I will follow up with 
another discussion with you at another time on the grasslands. 
I just wanted to alert you that it is a very important issue.

                 ADDITIONAL FUNDS FOR FIRE SUPPRESSION

    Let me finish by saying I want to submit some questions for 
the record on behalf of myself and Senator Byrd, and also say 
that my hope would be that in future years--and I believe it 
would be Senator Byrd's hope as well, and other members of the 
subcommittee based on questions--when an agency like yours sees 
a year coming up that is going to require substantial 
additional funds for fire suppression and fighting fires on 
national forest lands, I think we need to have the money 
available to do that.
    You say the resources are available but, in order to get 
there, you are going to have to take them from other accounts. 
Why not a budgeting process from the administration that says, 
``Look, here is what we need. Congress, please appropriate 
it''? And in my judgment with respect to forest fires and fire 
suppression, Congress would do that.
    We have an emergency supplemental bill we are debating 
right now. We will have a vote, a cloture vote at 11 o'clock, 
and I think it should have had several million dollars in it 
for additional fire suppression monies that you are going to 
need.
    Is it not the case that you are going to need that this 
year, in your judgment?
    Mr. Bosworth. Yes. In my judgment, we will need it. We will 
need additional money. We will borrow from our accounts and, 
that is, from other programs.
    Senator Dorgan. Would you agree with me that it would have 
been or it would be smarter and better and more effective and 
in the public interest to do this right up front?
    Fighting fires is not optional, is it? I mean, you know, 
fire suppression is not optional. You cannot wake up in the 
morning and just say, ``All right. The fires are not an issue 
for us because we do not have sufficient money budgeted. We 
thought it was going to cost us $300 million. It is quite clear 
we have already spent that and it is going to cost a lot more. 
So we will do nothing.'' That's not an option.
    Mr. Bosworth. That is not an option. We are not going to be 
allowing--particularly near communities, we are not going to be 
allowing fires to burn off national forest lands and through 
communities, and----
    Senator Dorgan. So would you agree with me that next year, 
if we get into this situation, that the administration ought to 
put the money in and request the money in a supplemental?

              LONG-TERM SOLUTION TO FIRE FIGHTING FUNDING

    Mr. Bosworth. Well, I would like for us to find a long-term 
solution to the problem, and there--I think there are some 
different options that we can look at, like an emergency fund, 
a national emergency fund, some way that we can get dollars 
quickly in those years that we underestimated the amount of 
money that it is going to take. But this is just crying out for 
a long-term solution to this problem. And I would be really 
happy to work with you on coming up with some ideas.
    Senator Dorgan. Well, Chief, thank you very much.
    Mr. Bosworth. Thank you.
    Senator Dorgan. And, Mr. Kashdan, thank you very much for 
being here.
    Mr. Kashdan. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Byrd. Thank you very much. There will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Robert C. Byrd
             failure to provide committee with fire report
    Question. Last year the Forest Service worked hand-in-hand with the 
Department of the Interior and state and local governments to craft a 
ten-year strategy to combat forest fires and reduce the risk of fire in 
an around our communities. However, the National Fire Plan did not 
identify funding requirements for the various components of the Plan. I 
understand that the amount of money needed to fight forest fires in any 
given year is going to fluctuate based on various factors, not the 
least of which is the weather. Nevertheless, I also think it is 
extremely important for this Committee to fully understand the costs of 
the National Fire Plan if we are to provide the necessary resources. 
Consequently, the Forest Service was directed in the fiscal year 2002 
appropriations bill to update the National Fire Plan by providing 
Congress with detailed schedules of planned activities and the funding 
required to carry out the Plan. This report was to be delivered to the 
House and Senate Appropriations Committees by March 15 of this year. To 
date, we have yet to receive this report.
    Chief Bosworth, please tell the Committee why the Forest Service 
has not complied with the Committee's direction, and when you 
anticipate sending this report forward.
    Answer. The agency has prepared the report but the Office of 
Management and Budget has not cleared it for submission to the Hill 
because OMB is reluctant to approve a report that contains budget 
estimates beyond the fiscal year 2003 budget proposal. The agency is 
working with OMB to present the report in a fashion that meets the 
Committee's needs.
                         fire suppression costs
    Question. Last year, the Forest Service spent $690 million putting 
out forest fires. In order to pay these costs, the agency had to borrow 
$200 million from non-fire accounts. This caused disruption in 
administering the programs from which the funds were borrowed and it 
also delayed important projects. In reviewing the agency's budget, it 
appears that for the current fiscal year the Forest Service has 
approximately $321 million on hand for firefighting activities.
    If this fire season turns out to be as bad as the last, when you 
spent $690 million, won't that mean that the Forest Service will need 
to borrow $370 million to cover these costs?
    Answer. Yes, that is correct. But, at this time, we can't know for 
certain what the fire season for this year will be.
                   wood education and resource center
    Question. The Wood Education and Resource Center, located in 
Princeton, West Virginia, is very important to me, to the people of my 
state, and to the hardwood industry in general. Unfortunately, before 
the Forest Service became involved in the running of the Center, it had 
been poorly managed. The Forest Service is to be commended for the 
manner in which it has turned the Center around. I am very pleased and 
encouraged by the Forest Service's management in recent years, and am 
confident that the Center will continue to grow. However, I note that 
the budget request for fiscal year 2003 does not identify a specific 
funding level for the Center's operations. On the contrary, the request 
merely states that the Center will receive a similar level of funding 
as it did in fiscal year 2002.
    What is the precise amount that the Forest Service is planning on 
providing the Center in the upcoming fiscal year?
    Answer. $2.7 million, the same level as last year. [Senator: the 
agency has told us that this is their intention but it is useful to 
have this stated on the record.]
                        monongahela forest plan
    Question. I am very concerned about the failure of the Forest 
Service to complete forest plan revisions in a timely manner. The 
National Forest Management Act requires that each forest plan must be 
revised every 15 years. However, your budget states that by fiscal year 
2003, 80 forest plans will be beyond this 15 year time frame. One of 
these forests is the Monongahela National Forest in West Virginia. This 
issue is of particular importance to me as I understand that there is 
litigation against the Forest Service which could potentially lead to a 
shut down of many activities on national forests because the Forest 
Service has not completed a plan revision on a timely basis.
    Chief, when will the forest plan revision on the Monongahela be 
completed?
    Answer. The Monongahela plan will not be completed until 2006, 5 
years beyond the required 15 year revision date.
    Question. Is it possible that activities on the Monongahela could 
be affected because the plan has not been completed on time? If so, 
what kinds of activities could be in jeopardy?
    Answer. The agency will likely say that there are a number of court 
cases pending around the country where this argument is being made, 
i.e., that because a forest plan has not been revised within 15 years 
certain activities must be halted until the plan is revised. This 
litigation is primarily aimed at timber harvesting but other activities 
could be affected depending on the ruling of the courts.
    Question. What are you doing to get a better handle on completing 
forest plans in a timely manner?
    Answer. The complexity of the forest planning process is an 
enormous problem that is a great cost in terms of time and money. We 
are reviewing our planning regulations and will be revising them. We 
believe that revising these regulations may provide a more efficient 
means to address this problem.
               research cuts and impacts to west virginia
    Question. As I noted in my opening statement, I am very concerned 
with the administration's budget request for Research. Within that 
request is a proposal to redirect some $35.9 million worth of ongoing 
research to fund other activities deemed more important by the 
administration. According to information provided to the Committee by 
the Forest Service, this proposal would mean the reassignment or 
termination of 275 research personnel, and the closing of 12 research 
facilities
    What, if any, impacts will there be to the research labs in 
Princeton, Parsons, and Morgantown West Virginia?
    Answer. No final decisions have been made with respect to the 
closing of certain facilities or cutting staff. These impacts will be 
assessed before any final decisions are made. The agency will work with 
you in making sure that facilities in West Virginia are not harmed by 
redirections proposed in the budget.
         seneca rocks repairs/lake sherwood sewage improvements
    Question. I am concerned with the amount of backlog maintenance 
that needs to be done on our national forests--some $6.8 billion 
according to Forest Service estimates. On the Monongahela National 
Forest, the Lake Sherwood Recreation Area needs a new sewage treatment 
system and the Seneca Rocks Discovery Center needs various repairs to 
address problems with the ventilation system and some cracks in the 
structure. I have not seen either of these important projects mentioned 
in your facilities maintenance lists for fiscal year 2003.
    Am I correct in assuming that these maintenance problems will not 
be addressed under your proposed budget?
    Answer. These projects are not currently planned for under the 
proposed budget. The Chief will say that the enormous backlog of work 
prevents the Forest Service from being able to address all of the 
worthwhile projects that need funding each year.
    Question. If the funds are provided by the Committee can you assure 
me that these projects will be completed on a timely basis?
    Answer. Yes, if funds are provided the agency could contract to 
have these problems addressed very quickly.
                gypsy moth defoliation in west virginia
    Question. West Virginia has some of the most beautiful forests in 
the country, and is, in fact, one of our nation's most densely forested 
states. That is why I am concerned about the spread of the Gypsy Moth, 
a non-native pest which has defoliated thousands of acres in West 
Virginia. In the last three years, the number of acres of West Virginia 
forests defoliated by the Gypsy Moth has escalated dramatically, rising 
from no acres in 1999 to more than 600,000 acres in 2001.
    What is the Forest Service doing to combat this problem and what 
level of funding is being devoted nationally and in my state of West 
Virginia?
    Answer. For fiscal year 2002 the agency spent $14,842,000 to combat 
Gypsy Moth and the budget is increased only slightly to $15,000,000 in 
fiscal year 2003. For West Virginia, the agency spent $935,000 in 
Fiscal year 2002 and plans to spend $940,000 in fiscal year 2003. Thus, 
the agency is only marginally increasing amounts to combat Gypsy Moth 
even though problem is clearly getting much worse.
    Question. What level of funding could the Forest Service 
effectively spend?
    Answer. The agency could use more dollars for this effort, but it 
has many priorities and their existing budget is an attempt to address 
many competing needs. The Chief will state that invasive species such 
as the Gypsy Moth are a growing problem that the agency will have to 
address over the long term with additional resources. He will work with 
you in trying to ensure that more resources can be applied to this 
important effort.
             elimination of wood in transportation program
    Question. I am concerned with the budget request for the State and 
Private Forestry program area. A number of important initiatives are 
funded through the State and Private Forestry appropriation. One of 
these is the Wood In Transportation program, headquartered in 
Morgantown, West Virginia. This office provides information and 
technical assistance to the entire nation on the use of timber in 
bridge construction. It has been estimated that 30 percent of the 
nation's 589,000 bridges need repair or replacement. This program helps 
to address that need and it also stimulates economies in rural areas by 
establishing a market for smaller diameter, low value woods. However, 
your budget proposes to eliminate this program in fiscal year 2003.
    Why?
    Answer. The Wood In Transportation program is funded through a 
larger set of programs called Economic Action Programs (EAP). The EAP 
account has been heavily earmarked in previous years, and, in an effort 
to reduce earmarking by Congress, the Administration chose to eliminate 
all Economic Action Programs.
    Question. Last year, your budget emphasized how the Wood In 
Transportation program could help with the National Fire Plan by 
creating a market for much of the low value, smaller diameter material 
that the agency is planning to remove from the national forests as part 
of its hazardous fuels reduction program. Wouldn't you agree then, that 
it is short-sighted to eliminate this program?
    Answer. The Chief should agree that the Wood in Transportation 
program helps to create a market for small diameter material. The 
agency will likely claim that it was the Administration's decision to 
eliminate this program due to the extent of earmarking, but that if 
Congress provided the funds the agency would support this worthwhile 
effort.
                 inequitable distribution of fire funds
    Question. As a result of severe fire seasons the past two years, 
Congress has more than doubled the amounts appropriated to the Forest 
Service for the fire program since fiscal year 2000. This additional 
funding was to support the National Fire Plan, which would implement a 
more integrated approach to fire management. An important part of the 
National Fire Plan is additional funding for research to study fire 
behavior, determine the most effective forms of fuels treatment, and to 
improve firefighter safety. I am very concerned that the Northeastern 
Research Station, which serves thirteen states including West Virginia, 
has not received equitable treatment in the allocation of funds for 
fire research. We have some fine research facilities in Morgantown, 
Parsons, and Princeton, West Virginia. In the past two years, the 
Committee has appropriated $79,789,000 for research under the National 
Fire Plan but the Northeastern Research Station has only received a 
total of $1,450,000, or 1.9 percent of the total funds.
    Chief, why has the Northeast received such a small percentage of 
fire research funds?
    Answer. The Chief is likely to say that in the past the bulk of 
fire research for the Forest Service has been done at facilities in the 
West and that trend continued with the increased funds for the Fire 
Plan. However, the agency should be reminded that this plan is the 
``National Fire Plan'' and it should be truly national in scope. 
Accordingly, the Northeastern part of the country should get a more 
equitable share of these funds.
    Question. I would hope that you would do something to make a more 
equitable distribution of research funds in future years. While I 
understand that more money will go to Western states for many fire 
activities since the majority of forest system acres are in the west, I 
believe that in the realm of research the Northeast should get more 
than a mere 1.9 percent of funds. We have had an acute drought this 
year and have a vast number of rural communities that could be at risk 
to forest fires.
    How will the $29,427,000 of proposed fire research funds be 
distributed in fiscal year 2003?
    Answer. Chief will likely respond that he will review this matter 
and work with you and staff to ensure that appropriate levels of 
research funds are allocated to the East. West Virginia would be an 
important place where fire research could be conducted.
                        financial accountability
    Question. Chief, this Committee remains deeply concerned with the 
integrity of the financial management systems within the Forest 
Service. For the last several years, the agency has been telling the 
Committee that it is putting in place improved management systems that 
will lead to greater accountability. However, your agency has yet to 
obtain a clean audit opinion as required by statute, and it remains on 
the General Accounting Office's list of agencies at high risk of waste, 
fraud and abuse.
    When do you expect to have these problems straightened out and a 
clean audit opinion issued?
    Answer. The agency's goal is to have a clean audit opinion at 
completion of fiscal year 2002, or 2003. The Forest Service believes 
that it has implemented processes to better account for their real 
property assets and to simplify their accounting system while at the 
same time improving accountability over each dollar spent. These have 
been two major obstacles in obtaining clean audit of their books.

                          SUBCOMMITTEE RECESS

    Senator Dorgan. Thank you very much, that concludes the 
hearing. The subcommittee will stand in recess until 10 a.m., 
Thursday, June 13, when we will meet in room SD-124 to hear 
from the Secretary, Department of the Interior, Gale A. Norton.
    [Whereupon, at 10:45 a.m., Thursday, June 6, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
June 13.]












  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2003

                              ----------                              


                        THURSDAY, JUNE 13, 2002

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan presiding.
    Present: Senators Leahy, Dorgan, Feinstein, Murray, Burns, 
Stevens, Domenici, Bennett, Campbell, and Johnson.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. GALE A. NORTON, SECRETARY
ACCOMPANIED BY:
        P. LYNN SCARLETT, ASSISTANT SECRETARY FOR POLICY, MANAGEMENT 
            AND BUDGET
        JOHN D. TREZISE, DIRECTOR OF BUDGET

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. The subcommittee will come to order.
    Senator Byrd has asked that I Chair the subcommittee 
hearing this morning in light of his duties associated with the 
supplemental appropriations bill, and I am pleased to do that.
    The subcommittee today is pleased to welcome the Secretary 
of the Interior, Gale Norton. It is nice to have you back, 
Madam Secretary, and we look forward to hearing your testimony 
this morning.
    My colleagues and I also look forward to having the 
opportunity to ask specific questions concerning policy 
decisions reflected in the budget that is submitted to us. The 
administration has proposed spending approximately $9.4 billion 
for programs under the jurisdiction of this subcommittee. 
Clearly, that is a significant sum of money, but then the 
responsibilities placed on your Department are many, and I am 
concerned, as I am sure others are, that the resources being 
requested may not be sufficient to meet the demands and the 
needs. We want to make sure that we are doing all we can for 
Indian country especially. We want to make sure that we have 
provided for the backlog of maintenance funding for our parks, 
wildlife refuges, other public lands. And the question is, is 
the level of funding requested for the abandoned mine 
reclamation program sufficient? I hope that we will be able to 
have you address all of those issues and be able to ask 
questions about it during this morning's hearing.

                           prepared statement

    Once again, Madam Secretary, we appreciate your coming 
today. My understanding is that you are accompanied by 
Assistant Secretary P. Lynn Scarlett and the Director of 
Budget, John Trezise. Thank you very much.
    [The statement follows:]
             Prepared Statement of Senator Byron L. Dorgan
    The subcommittee is pleased to welcome this morning the Secretary 
of the Interior, Gale Norton. It is nice to have you back, Madam 
Secretary, and we look forward to hearing your testimony.
    My colleagues and I also look forward to having the opportunity to 
ask specific questions concerning the policy decisions reflected in 
your department's budget. The administration has proposed spending 
approximately $9.4 billion for programs under the jurisdiction of this 
subcommittee. Clearly, that is a significant sum of money. But the 
responsibilities placed on your department are many, and I am 
concerned, as I am sure others are, that the resources being requested 
may not be sufficient to meet demand. Are you, for example, doing all 
you can for Indian country? Has the department provided adequate 
backlog maintenance funding to our parks, our wildlife refuges and 
other public lands? And isn't the level of funding requested for the 
abandoned mine reclamation program too low? I hope you will address 
these and other questions this morning.
    I am particularly concerned about funding for Indian education, 
housing, justice and other programs. Regrettably, the President's 
budget comes nowhere close to meeting the need for funding that exists 
in Indian country. The budget for the Bureau of Indian Affairs receives 
only a $23 million, or 1 percent, increase, despite the desperate needs 
that exist with respect to housing, education, law enforcement, social 
services, and other areas. I am very, very concerned about the funding 
levels proposed by the Administration for Indian programs, and I hope 
that the Congress will be able to do better, despite the more difficult 
funding situation we are facing.
    There are a few specific recommendations for Indian programs made 
in the Department of Interior's budget that concern me greatly. I am 
strongly opposed to the President's recommendation to eliminate $3 
million in BIA funding for United Tribes Technical College in Bismarck, 
and I intend to see that this funding is restored. Since 1981, the 
proposed BIA budget has always recommended funding for UTTC, which I 
think is indicative of the strong support the college has in Indian 
country. It is the only intertribally-controlled postsecondary 
vocational institution in the country, and it serves nearly 500 
students from more than 40 tribes around the country. UTTC is making a 
real difference in the lives of the students and families it serves. 
One student, Anita Green, asked me to help restore the budget cuts to 
UTTC, saying: ``This is home for my family and so many others. For many 
of us, this is maybe our last chance at college and trying to make 
something of ourselves.'' Another student, Walter Runs Above, a 
freshman majoring in Injury Prevention, said, ``If the college is 
closed because of funding cuts, a lot of hearts will be lost.''
    Another area of deep concern is the $2 million cut slated for 
tribal colleges. Last year, I fought, along with Senator Burns, the 
Ranking Member, to increase per student funding for tribal colleges to 
$3,916 for fiscal year 2002. Unfortunately, the President's budget 
would roll-back this progress by decreasing funding by $390 per 
student, to $3,526. Funding for tribal colleges is authorized at $6,000 
per student, and the President's budget would fund tribal colleges at 
only 59 percent of the authorized funding level. I would hope that, 
rather than taking steps backward, we could continue to increase 
funding for tribal colleges in fiscal year 2003.
    I am interested in learning more about the Administration's 
``Indian School Privatization Initiative,'' for which the budget 
requests $11.9 million. Quite frankly, I have concerns about this 
initiative, at least from what little information the Administration 
provided about it. I strongly support the ability of tribes to operate 
BIA schools if they so choose, and there are already two mechanisms in 
the law--the grant school authority and the contracting authority--that 
enables tribes to do so.
    I am concerned, however, by a program that essentially says to 
tribes, we want you to take over these schools, with inadequate funding 
for the administration of those schools, and if you don't, we are going 
to turn the school over to a private company to run. That doesn't seem 
fair to me. It seems to me that if Congress and the Administration want 
to be serious about encouraging tribes to exercise self-determination, 
then we would provide 100 percent of the cost of tribal administration 
of schools, fully fund student transportation costs, provide adequate 
funding for operations and maintenance, and otherwise provide the 
funding needed to make the running of the schools a fair proposition. 
In that way, many tribes that genuinely would like to take over the 
administration of BIA schools would be able to do so.
    Before turning to the subcommittee's distinguished Ranking Member 
for any opening statement he may wish to make, let me note for the 
record that, given his ongoing duties associated with the supplemental 
appropriations bill, Senator Byrd has asked me to chair this hearing in 
his absence. I am, of course, pleased to accommodate his request.

    Senator Dorgan. Let me call on Senator Burns.

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. Good Irish names.
    Madam Secretary, thank you for coming this morning and 
thank you, Mr. Chairman.
    It is time we started holding hearings and doing something 
about appropriations. As you know, it is getting late in the 
year, and having no budget yet, it kind of leaves us out there 
in limbo a little bit. But, nonetheless, we should have these 
hearings and get some of the things ironed out.
    A year ago when you came before this committee, you had a 
budget that you had to defend that you had very little role in 
shaping. But this year is a different thing. We will have some 
questions, and we will just put my opening statement in the 
record and hear from you because I think we want to roll right 
along. We have still got a pretty busy day ahead of us.
    I think the chairman hit the nail on the head. There are 
some things we have to do. I am concerned about parks and our 
ability to take care of the infrastructure, our O&M accounts in 
those parks.
    I am very much concerned about EIS's. It is what is 
required of BLM before we can get a grazing permit. And we are 
way behind, and if that is going to take more resources, let us 
get some resources there. We have heard of some stockmen that 
are not even going to renew their permits until the EIS is 
done. Now, you cannot stand around there with a herd of cattle 
or a flock of sheep and expect to hold them until the EIS is 
done. And that is our responsibility, and if you need more 
resources, why, let us find out if we cannot get more 
resources. But let us accelerate that a little bit. I know you 
have made great progress in the last 360 days, but more has to 
be done.

                           prepared statement

    There again, I would say the chairman was sure right. Let 
us take a look at infrastructure. I know I have got two of the 
crown jewel parks in my State, and we sure need some help in 
some of our maintenance problems that we are having there.
    Thank you for coming today. I look forward to your 
testimony.
    [The statement follows:]
               Prepared Statement of Senator Conrad Burns
    Thank you, Mr. Chairman. And welcome Madam Secretary. I'm glad 
we've finally been able to schedule a time to hear from you, regarding 
both the fiscal year 2003 budget request and whatever else is on your 
mind.
    When you came before this subcommittee a year ago, I believe you 
were the only confirmed appointee in the entire Department. You were 
defending a budget that you had only a modest ability to shape, and had 
very few senior staff to help deal with the many complex problems that 
started landing on your desk on day one.
    A year later things are hopefully a bit more manageable, now that 
you have your Assistant Secretaries and senior staff in place. But 
being landlord for more than one fifth of the United States--over a 
half billion acres--can never be easy.
    In trying to implement your vision of cooperative conservation 
throughout the Department, I know you've met resistance from a 
sometimes cynical and risk-averse bureaucracy.
    In trying to implement the President's energy policy and expand 
domestic energy production in a responsible manner, you've met with 
opposition every step of the way from those who would have our country 
become entirely dependent on foreign energy sources.
    Since September 11th you've had to wrestle with many of the same 
issues we're facing throughout government, such as finding the proper 
balance between security and public access, and reforming your 
organization to properly meet the terrorism threat.
    And through all of this you've been saddled with the thankless task 
of addressing the intractable, expensive, draining, centuries-in-the-
making problem of Indian trust reform.
    Given these often frustrating challenges, Madam Secretary, I'm just 
glad you're still here.
    But while we're anxious to hear about the progress you're making on 
these fronts, we of course also want to hear from you about the budget 
request. In the context of an overall budget constrained by the war on 
terror and an economic downturn, there are some very positive elements 
in the request. You've dedicated $100 million in new money for a 
Cooperative Conservation Initiative, and provided increases of $84 
million for trust reform, $24 million for planning and permitting on 
BLM lands, and $50 million for refuge operations.
    Regrettably, these increases are offset by some very troublesome 
reductions. You've reduced PILT funding by $45 million, which strikes 
me as a slap in the face of the public land states of the West.
    And you've eliminated over $100 million in specific programs and 
priorities funded by Congress in fiscal year 2002, without any apparent 
analysis of the merits of the individual programs. I assume you had a 
little help from OMB in this regard, but at the end of the day you are 
all on the same team. And if the Administration's budget folks have 
decided that all ideas are bad simply because they were Congress's and 
not their own, then we are going to have real problems. This kind of 
off-handed treatment makes it difficult for us to be receptive to the 
Administration's own proposals and initiatives, though I am striving to 
keep an open mind.
    That said, Madam Secretary, I'm glad to see you here today. We look 
forward to hearing your testimony, and your answers to our questions.

    Senator Dorgan. Senator Johnson.

                OPENING STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Well, thank you, Chairman Dorgan, and 
thank you in particular for allowing me to sit in on this 
particular subcommittee hearing. Welcome to Secretary Norton, 
and I appreciate the timely hearing to address the President's 
fiscal year 2003 budget request for the Department of the 
Interior.
    The Department of the Interior's agencies and bureaus have 
a significant impact on the citizens of my State from parks to 
grazing to Native American issues. I am very interested in the 
Secretary's testimony and I look forward to some questions that 
can be posed to her as this goes on.
    There is one issue in particular I want to focus on just a 
bit, and that is, as many of my colleagues are aware, the issue 
of trust fund mismanagement illustrates what I believe to be a 
complete breakdown to adequately maintain Indian trusts and 
assets by the Interior Department. This has been going on 
literally for generations and so it is certainly not to single 
out this administration. This has been going on for far too 
long. And this has been going on despite the United States' 
trust responsibility for Indian tribes.
    In light of an array of perplexing circumstances in Indian 
country, and most notably in my State of South Dakota, the 
issue of trust fund mismanagement is beyond shocking. It is 
profoundly unacceptable. Unfortunately, American Indians and 
Alaska Natives in the United States continue to rank at or near 
bottom of every measurable socioeconomic and health indicator 
when compared to other groups of American citizens. The 
problems of trust funds and asset mismanagement have persisted 
literally, again, for generations and continue today. For as 
long as the problem has existed, administrations of both 
political parties have been inadequate in their response, as 
the response has been inadequate from Congress.

                           prepared statement

    The Trust Fund Management Act of 1994 was intended to 
remedy the accounting discrepancy, but unfortunately that has 
not been the case. I do believe that this will not be resolved 
without very close consultation with the tribes and respect for 
the government-to-government relationship that is necessary 
when dealing with the sovereignty of our Native American 
tribes.
    So, I look forward to questions to be submitted to the 
Secretary, and I will submit a much fuller statement for the 
record.
    [The statement follows:]
               Prepared Statement of Senator Tim Johnson
    Mr. Chairman, thank you for holding this important hearing today to 
address the President's fiscal year 2003 budget request for Department 
of the Interior. The Department of the Interior's many agencies and 
bureaus have a major impact on the citizens of South Dakota, so I am 
very interested in the Secretary's testimony and look forward to her 
answering some questions about this Administration's priorities for the 
Department of the Interior.
    One of the issues the Department has had some controversy 
addressing has been the management of Indian trust funds and assets. 
The United States fundamental and legal principle of government-to-
government relationship with Tribes is to honor the Federal 
Government's trust responsibility and obligations. One of the key 
component's of that trust responsibility is the administration and 
management of trust funds and assets.
    As many of my colleagues are aware, the issue of Trust Fund 
mismanagement illustrate a complete breakdown to adequately maintain 
Indian trusts and assets by the Interior Department, despite the United 
States trust responsibility for Indian tribes. In light of an array of 
perplexing circumstances in Indian country, and most notably in South 
Dakota, the issue of Trust Fund mismanagement is beyond shocking, it is 
profoundly unacceptable. Unfortunately, American Indians and Alaska 
Natives in the United States continue to rank at or near bottom of 
every measurable social, economic, and health indicator, when compared 
to other groups of American citizens.
    The problem of trust funds and assets mismanagement persist 
literally for generations, and continues today. For as long as the 
problem existed, administrations of both political parties have been 
inadequate in their response, included is the level of inadequate 
direction and resources by Congress. The Trust Fund Management Act of 
1994 was intended to remedy the accounting discrepancy. Unfortunately, 
this has not been the case.
    In late November, the Secretary attempted to address this ongoing 
problem by proposing to split off BIA trust assets management 
responsibilities into a new Bureau of Indian Trust Asset Management 
(BITAM). The Secretary released the Department's plan without first 
consulting with the very people who are supposed to benefit from these 
trust account. For that reason, I made my opposition to the Secretary's 
plan very clear, and I asked Chairman Byrd of the Appropriation 
Committee to instruct the Department not to reprogram any funds to 
begin implementing the Department's reorganization efforts. It is my 
sincere hope that the Department and Secretary Norton are continuing to 
abide by that directive and look forward to the Secretary providing a 
commitment to this Committee that the Department will in fact take no 
action to implement her reorganization plan until it has the support of 
Native Americans and Congress.
    We have already benefitted from input of many tribal officials in 
the context of Department consultation meetings, as well as the 
Department's Task Force on Trust Reform. I have had numerous 
discussions and meetings with South Dakota tribal leaders, and I 
greatly appreciate their insights and leadership. I would also like to 
take this opportunity to thank Mr. Mike Jandreau, Chairman of the Lower 
Brule Sioux Tribe, a member of the Interior Department's Task Force on 
Trust Reform, and Tom Ranfranz, President of the Flandreau Santee and 
Chairman of the Great Plans Tribal Chairman's Association for their 
sound advice and counsel as we proceed with trust reform efforts.
    I have also worked closely with my colleagues, Senator John McCain 
and Senator Daschle, as sponsors of the Indian Trust Asset and Trust 
Fund Management and Reform Act of 2002. This legislation is simply an 
ongoing process as we continue to work closely with Tribes to address 
the need for reform of the management of the trust funds and assets 
that have been mismanaged for decades. We are hopeful that our 
legislation can serve to jump start discussions in Congress and with 
tribes all across the country as we try to find a solution to these 
ongoing problems.
    I strongly urge the Secretary to include tribal consultation at 
every phase of the ongoing trust reform efforts, and I further urge the 
Secretary to not implement any reorganization against the wishes of 
tribal leaders around the country and Congress. I encourage the 
Department of Interior to work with Congress to solve this long overdue 
problem.
    There are several other issues I would like to highlight as well, 
including the lack of critically needed funding for the Indian Health 
Service, tribal colleges, BIA school construction, the Bureau of 
Reclamation's rural water projects, the PILT program, the backlog 
facing our National Park System, and the Earth Resources Observation 
Systems Data Center in the United States Geological Survey.
    The Indian Health Service (IHS) is tasked with providing full 
health coverage for American Indians and Alaska Natives. However, per 
capita spending for each IHS beneficiary is only one-third of what is 
spent per capita on health care for the general U.S. population. For 
many years, appropriations for the IHS have not kept pace with medical 
inflation or population growth. As a result, IHS services are so 
underfunded that patients are routinely denied care that most of us 
take for granted and, in many cases, call essential. Treatment is 
deferred unless a patient's condition is life-threatening or they risk 
losing a limb. Because of this ``life or limb'' requirement, many 
patients do not receive care until they have deteriorated 
significantly, when the treatment required is much more costly. Others 
receive no care at all. As a member of the Senate Budget Committee, I 
was pleased to have worked with Chairman Conrad and Majority Leader 
Daschle to include a $1 billion increase over the Bush Administration's 
IHS budget in the Senate Budget Committee passed fiscal year 2003 
budget resolution.
    Tribal colleges play a vital role in helping Native Americans to 
obtain the skills and knowledge required to succeed in today's world. 
The colleges supply higher education to countless students who live on 
and near our Nation's Indian Reservations. Without these colleges, many 
Native Americans would not be able to advance to higher skilled jobs, 
nor be able to matriculate into mainstream colleges and universities. 
There are much lower drop out rates for Native students who attend 
Tribally Controlled Community Colleges than students who entering 
mainstream higher learning institutions right out of high school. The 
colleges are an integral part of the educational system for Native 
Americans and must be given the proper support and resources.
    However, tribal colleges have been traditionally underfunded. 
Currently, tribal colleges receive funding at just under $4,000 per 
student, but are authorized to be funded at $6,000 per student. Last 
year, we were successful at obtaining approximately $41 million for 
operations for Tribal Colleges. However, this year the President's 
budget reduces funding by $2 million. This funding must be restored and 
hopefully increased. Cutting resources further inhibits the colleges' 
ability to function at the level at which they are capable. Moreover, 
the attendance at tribal colleges is growing to record levels. There 
are five tribal colleges in South Dakota that are providing outreach 
and role model services to the Indian local schools. However, they will 
not be able to meet these goals if they do not receive adequate 
funding.
    The Earth Resources Observation Systems (EROS) Data Center is a 
data management, systems development, and research field center for the 
U.S. Geological Survey's National Mapping Division. Scientists, 
managers, and technical users from around the world, including the 
scientific and technical staff at the EROS use data from its archives 
for a variety of data applications and research programs. Data from our 
archives have been used in studying scientific date and events 
throughout the world, including the eruption of Mount St. Helens, 
flooding on the Missouri River, Hurricane Mitch and Desert Storm. In 
today's environment, the data gathered at EROS is invaluable and can 
help keep our nation safe. It is important that EROS continue to 
receive the proper resources to continue its mission.
    The Bureau of Reclamation provides funding to four critically 
needed drinking water projects in South Dakota, the Mni Wiconi, Mid-
Dakota, Lewis and Clark, and Perkins County projects. Unfortunately, 
the Administration's request was inadequate for all of four of these 
projects, and I will work to increase the funding levels to help get 
clean drinking water to as many South Dakotans as quickly as possible.
    Almost since its inception, there has been an annual battle over 
the level of funding for the Payment in Lieu of Taxes Program (PILT) is 
designed to provide compensation to local communities that have 
significant amounts of federal land in their counties. Because these 
lands are not subject to local property taxes, PILT funds are critical 
to the budgets of local governments that provide many valuable services 
such law enforcement and sanitation. PILT has been chronically 
underfunded and rural states like South Dakota have difficulty 
providing basic public services on areas of federal land. Congress 
should live up to its commitment and fully fund PILT.
    It is clear that we are going in the wrong direction and must find 
ways to adequately fund PILT, so that the needs of rural areas are met. 
South Dakota has a high level of federal lands and most of the counties 
receive PILT funding. The counties are entitled to this funding by law 
and the federal government has an obligation to meet this requirement.
    To this end, I have cosponsored S. 454 so that we can guarantee 
that the funding gets to the local level where it is most needed. S. 
454 would provide for the full authorized amount to be made annually to 
the Interior Department. This would ensure that counties receive the 
full level of funding to which they are entitled. Counties and local 
governments have important needs to be met. They should not be 
penalized by the inability of the government to meet its obligations.
    It my understanding that the Administration is opposed to S. 454. 
It is my hope that the Administration will join in with the 
government's obligation to fully fund PILT so that we can help our 
local communities.
    The Administration should also work with Congress to help eliminate 
the backlog in the National Park Service operating budget. While the 
National Park Service's operating budget has increased in recent years, 
it has failed to keep pace with the escalating needs of the parks to 
adequately protect the resources and to provide a proper visitor 
experience. My state has several national parks that we are extremely 
proud of, including Mt. Rushmore, Wind Cave, Jewel Cave and the 
Badlands. The parks are national treasures and the jewels of South 
Dakota and must be properly maintained for South Dakota residents and 
the millions of visitors who enjoy them. I am supportive of efforts to 
increase the parks' operating budget by $280 million, $172 million 
above the President's request ,and am hopeful the Administration can 
work with us to support this increase. This is a small price to pay for 
protecting these priceless assets.

    Senator Dorgan. Senator Bennett.

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you very much, Mr. Chairman. I 
appreciate the opportunity for the hearing.
    I welcome Secretary Norton and must take this public 
opportunity to thank her and the employees of the Interior 
Department for the assistance in the 2002 Winter Olympics. The 
games were successful and a good portion, if not a majority of 
them, were held on BLM land, over which she has stewardship. 
So, the employees of the Interior Department were a critical 
factor in the successful games.
    While I am at it, I want to add two more names to the list 
of people. I hope if I keep commending these people, you will 
keep leaving them in Utah. Al Trout, who is the manager of the 
Bear River National Wildlife Refuge, and Sally Wisely, who is 
the State Director of the BLM. We are delighted with these 
Federal employees. They serve the Department and the people of 
Utah very well, and I would be remiss if I did not make public 
acknowledgement of that.
    Now, Mr. Chairman, I intend in this hearing to spend some 
time talking with Secretary Norton about the costs of 
litigation. We have one lawsuit that has been brought by the 
Southern Utah Wilderness Alliance that has consumed 50 percent 
of the BLM's recreation budget for the entire State of Utah. 
Every action that the BLM takes, no matter how routine, no 
matter how established in precedent, no matter how normal, is 
challenged with a lawsuit. The BLM wins well over 90 percent of 
these lawsuits, but in prosecuting the lawsuits, the BLM budget 
is eaten up in legal costs and thereby accomplishes the goals 
of the so-called friends of the environment in preventing 
things from happening.
    The ultimate irony is that the primary loser of this kind 
of activity on behalf of environmental groups is the 
environment because the BLM and the Department of the Interior 
is robbed of budgetary resources necessary to properly manage 
the land. The money is spent on lawyers winning frivolous 
lawsuits that are dragged out ad infinitum in Federal court.
    I wish to talk about that. The Secretary and I have had 
conversations about that. But since this is a budget hearing, I 
think it appropriate that we highlight this very significant 
budget issue that gets ignored and swept under the table. The 
environmental groups have discovered that what they cannot win 
with their arguments, they can win with frivolous lawsuits. I 
think in a budget committee talking about appropriations, we 
should address that issue.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Campbell.

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. Thanks, Mr. Chairman. Sorry I am a little 
bit late.
    Welcome to my friend and colleague from Colorado, Gale 
Norton. Let me make just a couple of quick comments because I 
have some questions and I am really interested in hearing her 
testimony.
    I understand you were out in Colorado a couple of days ago, 
Madam Secretary, so you know I guess we are on the tip of 
iceberg for fires in the West. Although our State seems to be 
in the news an awful lot, I am sure that we have got fires in 
many other western States. It is almost out of control. They 
say the one southeast of Denver may end up burning itself out 
before it can be brought under control. It is that bad with the 
high winds.
    From our home, when I went home last week--you know I live 
down near Durango--from our porch on our ranch, we could see 
one called the Missionary Ridge fire that is up to about 15,000 
or 18,000 acres. We could see the flames even from the house. 
It is just devastating.
    So, I am interested, when we get in to questions and 
answers, in knowing your take on how we reduce the fire load on 
the public lands and what Interior's role has been.
    I do commend you on your work on trying to bring this mess 
with the trust fund management under control. It is not 
something you caused. You inherited it, but I would mention it. 
Senator Johnson already talked about it for a moment, but I 
understand there is a meeting in Bismarck and I know that Under 
Secretary McCaleb will be up there. I have had a staff member 
at every single one of those trust fund task force groups. I am 
hoping very shortly we are going to have something that we can 
introduce in legislation that is going to bring this to an end.
    I also wanted to say that I commend you on the money that 
is being put into Indian school construction. It is not nearly 
enough. We have many more needs than we have money available 
for that, but knowing the new world we live in after 9/11 and 
the budgetary constraints, I understand the difficulty of doing 
that.
    Lastly, the acquisition of some of the lands for Sand Dunes 
National Park and the money that was not in the budget for an 
ongoing purchase we are trying to make for the Black Canyon 
National Park I would like to ask you a little bit about during 
Q&A too.
    But thank you for being here, and I am looking forward to 
your testimony.
    Senator Dorgan. Senator Stevens.

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman. I am a 
little late. Nice to be with you, Madam Secretary.
    I hear my friend from Colorado and I read so much about the 
fires in what we call the south 48. At last count, there are 34 
fires burning in Alaska and each one of them is larger than the 
one in Colorado, as I understand it. So, I hope that we will 
not become myopic about looking at fires and only look south of 
the Canadian border.
    We do appreciate what you are doing and the fact that you 
have been willing to come to our State to see our State and to 
understand it. This is going to be a very interesting period 
for all of us.
    In south central Alaska, some of the lands are under your 
jurisdiction. There are over 1,200,000 acres of beetle kill. 
Those are trees now that have been dead for more than 10 years. 
Last year I witnessed a fire that in about 2 hours burned I 
think somewhere around 19,000 acres. And it is just a matter of 
time.
    So, I join Senator Campbell, and I hope all the Members of 
the Senate, in saying that we want to help you in the 
prevention area as much as the fire fighting area. We do have 
to have more concentration on prevention. Unfortunately, there 
have been a series of organizations that have come to the 
conclusion that since God made the forests and God made Alaska, 
he also--or maybe she--is making the fires and that this is not 
the time for us to interfere with nature. I really believe that 
curtailing fires and preventing damage to so many acres of land 
and also, in south central Alaska, as you know, half of our 
population and half of the investment in our State is in the 
path of that beetle kill if the winds are right and the fire 
starts.
    So, Mr. Chairman, thank you very much. I look forward to 
working with you particularly in the area of fire prevention.
    Senator Dorgan. Senator Murray.

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Mr. Chairman, and 
thank you for being with us this morning, Madam Secretary.
    I understand that you recently met with a friend, Don 
Hunger, from the Student Conservation Association. They are 
working on some great fire prevention programs in three States. 
I know they want to expand it to 11. I think they are really 
doing the right kind of on-the-ground work with protection for 
homeowners and communities, and I hope the Federal agencies 
will respond and work with the SCA and other agencies to expand 
that.
    I just want to mention a couple of issues real quickly and 
then I do have questions, Mr. Chairman.
    Madam Secretary, I just wanted to bring to your attention 
Willapa Bay where we have a severe problem with the invasive 
species of spartina. It has been an ongoing problem and it 
really is threatening to destroy our bay which is a very 
important shellfish industry and important Fish and Wildlife 
Service refuge. Our State and the shellfish industry have spent 
a great deal on this to try and combat spartina. The University 
of Washington has developed a program to address this that they 
say will cost $1.2 million per year for the next 6 years. But 
the Fish and Wildlife budget for the refuge does not have 
adequate funding, and I hope to work with this committee and 
with you to see if we can address that problem.
    The other issue I wanted to mention is that this 
administration asked this subcommittee to reprogram funds for 
the proposed Bureau of Indian Trust Asset Management, BITAM, 
last year. I expressed concerns to both the chairman of this 
committee, Chairman Byrd, and to your agency that tribes and 
tribal organizations had not been adequately consulted. I want 
to just take a moment to again really reiterate how important 
it is that the BIA, the Department of the Interior, and all of 
our Federal agencies continue to consult with tribes at the 
highest levels. I appreciate the time and effort you and your 
staff have invested in working with the Tribal Leaders Task 
Force to develop alternatives to BITAM, and I hope you will 
continue to make tribal consultation a priority.
    With that, Mr. Chairman, I will have several questions for 
the Secretary after she makes her statement.
    Senator Dorgan. Senator Domenici.

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you very much, Mr. Chairman.
    Madam Secretary, first thank you for coming to New Mexico. 
If it takes Santa Fe to get our cabinet to come and visit New 
Mexico, I am glad Santa Fe is in New Mexico. It seems to be 
very attractive.
    Madam Secretary, I would suggest, if you have not, that you 
go out of your way maybe 50 or 75 miles when you are in one of 
the forests in New Mexico. You get on the road that goes 
through the Mescalero Apache Tribe's land and note what their 
forest looks like and what the Federal forest looks like side 
by side. You will see the answer as to why we are having forest 
fires, why they are so big, and why they burn so much because 
the Mescalero Indians are not bound by our forest management 
nor by our litigation as to how we can manage a forest. The 
forests do not look like forests on the same earth or that they 
are the same kind of trees because they stand free and tall. 
The trees breathe and grow and they do not grow as forest 
fodder for fire in the future. The Messalero forest are 
actually the way most forest were when I was a young boy.
    Now we fight so much about what we should not do, that we 
leave it all there and, lo and behold, the forests burn. It 
seems to me that if we are not making a conscious decision to 
do that, we have done it, nonetheless. I believe that it is a 
conscious decision because there are people who are so 
frightened about managing a forest because it means a tree 
might get cut, that they would rather just leave it grow where 
it is.
    I went through a forest where you walked 100 yards this way 
through an unkept U.S. forests, and when I got to a line and 
went over into another forest, which had been kept--and I do 
not know why--I wondered if we were in two different managed 
areas of America. It turned out lawsuits won on one and let it 
grow. On the other, there was cleanup done and it looked 
completely different.
    So, I do not think we are going to solve the fire problem, 
including the burning of buildings. We made headway on 
buildings because we gave you specific money to clean up around 
buildings. A huge amount of money should be in your budget for 
that kind of work because this subcommittee put it in a bill. 
Is that right? $650 million on the floor of the Senate I 
believe. I do not know where it has gone, but it was to clear 
the forests as a priority where trees and brush are close to 
buildings, private and public. As a matter of fact, you were 
supposed to have identified the areas that are dangerous in a 
report to the U.S. Government because the trees are too close 
to the improvements.
    Thank you very much, Mr. Chairman.
    Senator Dorgan. Senator Feinstein.

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thanks very much, Mr. Chairman.
    I want to thank you, Madam Secretary. Your Department has 
been a great help. As you know, Mr. Raley has been trying to 
help us solve some problems in the southern part of the State 
so that we can maintain the Colorado water transfer agreement 
that has been forged. He has been very helpful, and I want you 
to know that. We met yesterday with the four involved water 
districts--Imperial, Coachella, San Diego, and the Met--as well 
as with the bipartisan delegation of House Members and Senator 
Kyl's participation.
    I for one believe we should carry out our Colorado River 
commitment to reduce our takings, and I am hopeful that we have 
set in motion now a way to solve this. So, I want to thank you 
for Mr. Raley's active involvement.
    I also want to indicate that we were fortunate in being 
able to get the CALFED water bill passed out of the Energy 
Committee by a vote of 18 to 5. It is a bill that, probably in 
terms of Federal priorities, is number one on California's 
list. And you have $15 million for it in this year's budget. It 
is a $1.64 billion, 3-year bill. So, I would like very much to 
work with you and the committee to see if we cannot possibly 
increase this amount.
    I would like now for the first time to indicate my concern 
about a project in the area of the California desert with which 
I have had something to do, and that is the Desert Protection 
Act. The Desert Protection Act has wording in it to protect 
underground water that is vital to the maintenance of the 
desert. There is a proposal now, known as the Cadiz Proposal, 
which would fill the aquifers that are not filled, if there are 
any, and transmit some of that water to Los Angeles.
    I will be asking this subcommittee to help me with language 
that essentially would provide that no funds be appropriated by 
the Department of the Interior to carry out any activities 
associated with the Cadiz groundwater storage and dry year 
supply project until such time as the U.S. Geological Survey 
has determined the recharge rate of the affected basin. And 
this figure has been incorporated into the management of the 
project.
    As you well know, Madam Secretary, the California desert is 
not like the Sahara. It has got flora and fauna. It has got 
animals that depend on it, wild burrows, desert tortoises, 
mountain goats, a number of other things, as well as the only 
Joshua Tree forest in the world, and very, very beautiful 
flowers. We do not want to see it become another Owens Valley.
    So, pursuant to the language in the bill, I am going to ask 
for report language to be sure that the desert is not harmed by 
this project.
    I also want to just mention a few things. California has 24 
of the Nation's 385 national park units. That includes Mojave, 
Death Valley, Joshua Tree, Yosemite, Golden Gate, et cetera. As 
I look at your fiscal year 2003 budget request, I note that the 
California parks receive only an average of a 1.5 percent 
increase to their base operations. That is not even enough to 
cover fixed costs, cost-of-living adjustments.
    One of the things that I have noticed, as I go now to 
national parks on the east coast, is how much better staffed, 
how much better the visitor centers are, how much better the 
visuals are than the parks on the west coast. Perhaps it is 
because proximity really breeds attention. But we have some 
great parks and to see them really pushing into disrepair is of 
deep concern.
    So, I am hopeful that I can sit down with you and hopeful 
with this committee as well, that we might be able to at least 
plus that up a little bit so that there is not a net loss, but 
a small gain to be able to make some of the O&M improvements 
that have been listed. I can send you that list if you do not 
have it.
    Thank you very much.
    Senator Dorgan. Senator Feinstein, thank you very much.
    Madam Secretary, welcome. Your entire statement will be 
made a part of the permanent record, and you may summarize. Why 
do you not proceed.

                SUMMARY STATEMENT OF HON. GALE A. NORTON

    Secretary Norton. Thank you very much, Mr. Chairman and 
members of the committee. I am pleased to be with you today to 
talk about our budget for fiscal year 2003.
    Before we move into the details of the budget, I would like 
to give just an overview of our Department's responsibilities. 
I think many of you are familiar with it, but I think it bears 
repeating, the breadth of our activities.
    We manage more than 1 out of every 5 acres of land in this 
country. These lands include some of the most beautiful and 
pristine areas on earth. We are entrusted with some of the 
patriotic symbols of our country, the Statue of Liberty, the 
Washington Mall, Independence Hall.
    We maintain relationships with the federally recognized 
tribes and provide services to approximately 1.4 million 
American Indians and Alaska Natives.
    We provide approximately one-third of the Nation's energy 
supply from Interior lands and waters. We supply the water that 
makes the arid West bloom, and next week the Bureau of 
Reclamation will be celebrating its 100th anniversary.
    We serve nearly half a billion visitors to our lands every 
year.
    One wonderful thing about our Department is the willingness 
of people to volunteer to help us. We have over 200,000 
volunteers, which is about three times our paid work force.
    In the most recently completed fiscal year, we collected 
$11 billion in revenue from our lands and waters, and this is 
$1 billion more than was appropriated to us.
    As we began the process last year to build this year's 
budget, we were guided by President Bush's commitments to build 
a new environmentalism through cooperative conservation 
partnerships, to improve our management of public lands and 
waters, to advance the development of domestic energy, to 
improve both the classrooms and the classroom performance of 
our Native American students, to manage for excellence through 
citizen-centered governance.
    Our budget priorities were reshaped by the events of 
September 11. Interior's employees responded to the call to 
increase our vigilance and our preparedness for the changed 
world we face. We have increased Park Police patrols in the 
Washington, D.C. area and other places in the country. We have 
upgraded our security equipment. We have increased guard 
services at our other sites and instituted around-the-clock 
security at our major dams such as Hoover, Glen Canyon, Shasta, 
and Grand Coulee.

              DEPARTMENT'S FISCAL YEAR 2003 BUDGET REQUEST

    The Department's 2003 budget request is about $9.5 billion 
in current appropriations to be handled through this committee. 
There is an additional $245.6 million for Government-wide 
accounting adjustments for retirement and employee health 
benefits. The budget is essentially level with that enacted in 
fiscal year 2002. It sustains a 21 percent increase over the 
year 2000 budget, which is well above the increases due to 
inflation.

                  COOPERATIVE CONSERVATION INITIATIVE

    If there is any one item in this budget that we think 
deserves the committee's support and some additional focus, it 
is the Cooperative Conservation Initiative. This is a $100 
million proposal that will provide funding to enhance 
conservation projects and to build partnerships in support of 
conservation. It fills a void by giving our land managers a 
tool to work with their neighbors, volunteers, States, tribes, 
and community groups to achieve conservation goals. $50 million 
will be provided to the States through the Land and Water 
Conservation Fund State grant program as part of this overall 
initiative. The balance of our request is funded through the 
operating accounts of the National Park Service, the Fish and 
Wildlife Service, and the Bureau of Land Management. This 
approach will meet unmet needs for natural resource restoration 
in refuges, parks, and other public lands. This initiative 
fully reflects the President's call for a shared approach to 
conservation of our public lands and is consistent with the 
underlying intent of the Land and Water Conservation Fund.
    Our budget also includes $60 million for two presidential 
initiatives that began last year, the Landowner Incentive 
program and the Private Stewardship grant program. Both of 
those focus on conservation on private lands because much of 
the habitat for endangered species, for example, is found on 
private lands. This gives us the ability to work with 
landowners to enhance habitat on their lands. We appreciate the 
support that this committee has provided in the past for those 
programs.

              NEEDS OF AMERICAN INDIANS AND ALASKA NATIVES

    I would like to highlight the aspects of our budget that 
deal with the needs of American Indians and Alaska Natives: 
trust programs and education. I appreciate the support of the 
members of this subcommittee for our efforts in both of these 
areas.
    We certainly face difficult and complex challenges in our 
management of trust assets. As you know, I announced an outline 
for reorganization and consolidation of Indian trust management 
functions. We worked with the tribes and we received their 
feedback on our initial proposal, and out of their concern 
about that proposal, we created a task force that was suggested 
by the National Congress of American Indians. That task force 
has proven to be a very valuable working group. They have 
really gotten in, studied the needs, and studied the proposals. 
Just last week, we sent out their recommendations to all of the 
tribes. It provides several different options for 
reorganization, and we will be going through a consultation 
process. We are in the midst of doing that right now. Next week 
I will be meeting with the National Congress of American 
Indians in a nationwide consultation process in Bismarck, North 
Dakota. So, we look forward to receiving their feedback on 
these various options for reorganization.
    We also experienced, through this process last year, the 
shutdown of the Department's Internet systems. Most of our 
Internet systems were disconnected in December, and we have 
been working with the special master of the court in the Cobell 
litigation to reconnect them. Most of our bureaus and major 
systems have now been reconnected, and only the Office of the 
Special Trustee, the Bureau of Indian Affairs, and some 
Department offices remain off-line. Our estimate is that our 
costs to date to get back on-line are approximately $13 
million. This does not capture fully all of the staff time that 
has been spent on that or other programmatic costs, but that is 
our basic expenditure to date.
    For the longer term, we have concluded that there is a need 
for a network to secure trust data and applications. We 
received approval from the House and Senate to reprogram 
funding in order to proceed with creation of this secure 
network.
    Our fiscal year 2003 budget is based on the current 
organizational structure and does not reflect specifics on IT 
improvements. As we complete the consultation process and move 
forward, we will submit a revised budget that includes a 
crosswalk between the current and revised proposals.
    This budget provides significant new resources to address 
long-overdue changes. Our budget request contains a major boost 
in spending for Indian trust reform, nearly $84 million. We 
think that this is an appropriate amount of funding to ensure 
that significant changes will take place in that area.
    Our budget continues a high level of funding for Indian 
school repair and replacement. It includes an increase of $19 
million for school operations. Our 2003 budget request promotes 
tribal management of schools, seeking increased funding for 
administrative cost grants.
    In his State of the Union address, President Bush 
emphasized the importance of early childhood development 
programs. I have had the opportunity to visit several locations 
for our family and child education program that is an early 
childhood education program, and we are requesting an increase 
of $3 million for that program.

                        OTHER BUDGET HIGHLIGHTS

    To briefly summarize some of our other budget highlights, 
we are requesting an increase of $18 million, or 36 percent, 
for the Natural Resource Challenge, which provides scientific 
information and analysis and work within our parks.
    100 years ago, President Teddy Roosevelt established the 
first national wildlife refuge at Pelican Island, Florida, in 
1903. Next year we will be celebrating the anniversary of our 
wildlife refuge system. We are requesting a $56.5 million 
increase for the national wildlife refuge system. This is an 18 
percent boost in spending and represents the largest dollar 
increase ever requested in the history of the refuge system.
    To continue to protect our national assets, our employees, 
and our visitors, the budget includes $62 million for security 
and protection measures, which essentially continues the 
amounts that were provided in 2002 emergency supplementals.
    In support of the President's national energy policy, the 
budget includes an increase of $28 million in four bureaus. 
This will provide funding for both traditional energy sources, 
as well as wind, solar, geothermal, and other renewable energy.
    We continue a strong partnership with the Corps of 
Engineers on the Everglades restoration program. Our budget 
increases funding for land acquisition grants to restore 
natural water flows in that area.
    Finally, we are committed to managing well the resources 
that are entrusted to us. We are working diligently to improve 
the quality, effectiveness, and efficiency of the services we 
deliver and to enhance the accountability and transparency of 
the work we do with the resources for the American people. 
Assistant Secretary Lynn Scarlett has been the leader on our 
efforts within the Department to enhance the management, and 
her efforts have been held up as examples for other parts of 
the Federal Government in trying to improve the way in which we 
respond to citizens and manage our resources.

                           prepared statement

    I would like to also recognize the efforts of the 
subcommittee staff. They have developed a great knowledge of 
our programs, and we appreciate their willingness to work with 
us to make sure that we are meeting the needs as defined by 
this committee.
    Thank you very much for the opportunity to discuss our 
budget.
    [The statement follows:]
               Prepared Statement of Hon. Gale A. Norton
    I am pleased to be here today before the Subcommittee on Interior 
and Related Agencies to present the fiscal year 2003 budget for the 
Department of the Interior. I appreciate the opportunity to highlight a 
number of important initiatives and to answer questions that you might 
have.
    Before I move to the details of the budget request, I'd like to 
offer some observations as to the breadth of the Department's 
responsibilities and the impact of our programs on the lives of 
Americans.
  --We manage more than one of every five acres of land in this Nation. 
        These lands include some of the most beautiful and pristine 
        places on earth. We are entrusted with some of the most 
        patriotic symbols of our Nationhood, including the Statue of 
        Liberty in New York and Independence Hall, the home of the 
        Liberty Bell in Philadelphia, Pennsylvania.
  --We maintain relationships with 558 Federally-recognized Indian 
        Tribes and provide services to approximately 1.4 million 
        American Indians and Alaska Natives. Included in the lands we 
        manage are 56 million acres of trust land.
  --We provide approximately one-third of the Nation's domestic energy. 
        We supply the water that has made the arid West bloom, 
        providing water to over 31 million people.
  --We serve visitors from around the world who take delight and find 
        recreation through nearly half-a-billion visits to our lands 
        each year.
  --Over 200,000 volunteers assist us, a volunteer workforce that 
        outnumbers our own employees by nearly three to one.
  --In the most recently completed fiscal year, we collected $11 
        billion in revenue from the lands and waters we manage. This is 
        $1 billion more than we had appropriated to us. We also shared 
        $1 billion of that with the States, our partners in the onshore 
        petroleum-leasing program.
    Our approach to citizen-centered government at the Department is 
organized around the Four C's: conservation through consultation, 
cooperation, and communication. Empowerment of citizens to bring about 
this approach is the touchstone of all that we do on the land, and this 
approach is reflected in the budget that we present to you today.
    As we began the process last June to build this budget, we were 
guided by President Bush's vision of a shared approach to conservation, 
and his commitments to restore our national parks, improve both the 
classrooms and the classroom performance of Indian students; and meet 
our environmental responsibilities in a manner that best reflects the 
innovative nature of our nation.
    Our budget priorities were reshaped by the events of September 
11th. Interior's employees have responded to the call to increase our 
vigilance and our preparedness for the changed world we face.
    Our 2003 budget request balances these responsibilities and commits 
to:
  --build a new environmentalism through cooperative conservation 
        partnerships;
  --improve our management of public lands and waters;
  --advance the President's National energy policy;
  --improve the lives of Native Americans; and
  --manage for excellence through citizen-centered governance.
    Our commitment to management excellence means managing well the 
resources entrusted to us. We are working diligently to improve the 
quality, effectiveness, and efficiency of the services we deliver and 
to enhance the accountability and transparency of the work we do with 
the resources of the American people. We have developed a plan for 
citizen-centered governance that builds on the President's management 
agenda, and our plan has been well received by both the Office of 
Management and Budget and the President's Management Council. It will 
ensure that we bring innovation, competitiveness, and accountability to 
all that we do.
                            budget overview
    The Department of the Interior's 2003 budget request is $10.6 
billion in current appropriations, including $270.5 million for a 
government-wide legislative proposal to shift to agencies the full cost 
of the CSRS pension system and the Federal employee health benefits 
program for current employees. Permanent funding that becomes available 
as a result of existing legislation without further action by the 
Congress will provide an additional $2.6 billion, for a total 2003 
Department budget of $13.2 billion.
    Excluding the pension and health benefits legislative proposal, the 
2003 current appropriations request is $10.3 billion, a net decrease of 
$12.7 million from the amounts provided in the 2002 Interior and 
Related Agencies and Energy and Water Development Appropriations Acts. 
The 2003 budget proposal maintains a robust funding level compared to 
historic levels for the Department. The proposal is over 21 percent 
higher than the 2000 appropriation level of $8.6 billion.
    The budget request proposes funding increases for priority programs 
and initiatives, while discontinuing or reducing funding for lower 
priority projects funded in 2002. In addition, the 2003 budget reflects 
the Department's commitment to operate programs more effectively and 
efficiently, by proposing to absorb $57.4 million in uncontrollable 
fixed cost increases and a $20.6 million reduction in travel and 
transportation costs.
    For 2003, the budget request for programs funded in the Interior 
and Related Agencies Appropriations Act is $9.5 billion, an increase of 
$20.5 million over the Act. This comparison excludes $59.2 million 
appropriated in 2002 for emergency response/counter-terrorism. The 2003 
request for programs under the jurisdiction of this Subcommittee is 
$320.6 million above the 2002 President's budget request.
                  cooperative conservation initiative
    If there is one item in this budget that deserves special 
attention, it is our Cooperative Conservation Initiative. It fully 
reflects the President's framework for a ``new environmentalism.'' The 
Cooperative Conservation Initiative will fund on-the-ground stewardship 
projects across the Nation and stimulate innovative approaches to 
conservation. It will allow us to leverage Federal funding and to work 
in partnership with States, local governments, Tribes, and private 
citizens to give all stakeholders a greater role in how to protect the 
Nation's great natural resources. It is a collaborative approach to tap 
the ingenuity, imagination, and innovative spirit of our people. It is 
an approach that is landscape-based, citizen-centered, and incentive-
driven. In short, it is a new way of meeting our environmental 
responsibilities in partnership with our fellow Americans. The 
Department proposes $100 million to promote partnerships in 
conservation.
    The program will fund restoration, protection, and enhancement of 
natural areas through established programs and new pilot programs that 
feature creative approaches to conservation. These projects will be in 
keeping with the President's commitment to a shared responsibility for 
conservation. One-half of the initiative, $50 million, will be managed 
through the Land and Water Conservation Fund State Assistance program 
and will benefit State lands as well as adjacent lands. The balance of 
the initiative will be used for cost shared projects funded in the 
operating accounts of the Bureau of Land Management, Fish and Wildlife 
Service, and the National Park Service and will benefit Federal and 
adjacent lands. Benefits to State and Federal lands will complement the 
private lands conservation activities conducted with private 
stewardship funding.
                         landowner partnerships
    The budget for the Fish and Wildlife Service also promotes working 
with partners on conservation issues by proposing to continue two 
Presidential initiatives, the Landowner Incentive and Private 
Stewardship programs. The budget request includes $50 million, an 
increase of $10 million over the 2002 level for grants to States for 
landowner incentives that protect and restore habitats on private lands 
that benefit species at risk. A model for this program is the 
Shortgrass/Black-tailed Prairie Dog Habitat incentive program, a new 
program piloted in Colorado in 2002. This program will provide 
financial assistance to landowners in four soil conservation districts 
to protect black-tailed prairie dogs, their habitat, and associated 
shortgrass prairie.
    The budget includes $10 million for the Private Stewardship grants 
program to directly assist landowners and groups engaged in voluntary 
conservation efforts for the benefit of federally listed, proposed, or 
candidate species. Technical and financial assistance to landowners 
will help them avoid harming imperiled species while improving habitat 
for native species.
                        other conservation tools
    The 2003 budget proposes $194.6 million for three other 
conservation programs managed by the Fish and Wildlife Service, 
including: $91 million for the Cooperative Endangered Species 
Conservation Fund; $43.6 million for the North American Wetlands 
Conservation Fund; and $60 million for State and Tribal Wildlife 
grants. These programs that we propose to fund through the Land and 
Water Conservation Fund in 2003 magnify the benefits of Federal funding 
with matching efforts for conservation.
    In 2003, State Assistance and Federal land acquisition programs 
funded through the Land and Water Conservation Fund build upon the 
President's vision of cooperative conservation. The budget includes 
$200 million for the State Assistance program, an increase of $56 
million over the 2002 level. A portion of this, $50 million, will be 
used for the Cooperative Conservation Initiative to fund competitively 
awarded grants. The balance of $150 million will fund grants to States 
for approved conservation and outdoor recreation plans, allocated based 
on a national formula established by law.
    An additional $204.1 million is requested for Federal land 
acquisition programs, including $44.7 million for the Bureau of Land 
Management, $70.4 million for the Fish and Wildlife Service, $86.1 
million for the National Park Service, and $3 million for acquisition 
of lands in support of the Shivwits Indian Water Settlement Act of 
1999. The request emphasizes the use of innovative alternatives to fee 
title purchase, such as conservation easements and land exchanges to 
make the most efficient use of this funding, promote cooperative 
alliances, and leave lands on State tax roles. In the Upper Snake/South 
Fork Snake River project in Idaho, the Bureau of Land Management is 
working with eight cooperators including Ducks Unlimited, The Nature 
Conservancy, and the Shoshone-Bannock Tribe to protect river corridors 
and habitat that supports bald eagles and cutthroat trout through 
conservation easements.
    Together with the Forest Service's budget request, the 2003 budget 
will provide $909.2 million for the Land and Water Conservation Fund 
programs, or $911.1 million including the adjustment for pension and 
employee health benefits that is proposed.
                             trust programs
    Managing Indian trust funds and trust resources is a solemn 
obligation of the Federal government, and one of the Department's 
greatest challenges. Since taking office in January 2001, I have moved 
on several fronts to help improve Indian trust management. In July 
2001, we established the Office of Historical Trust Accounting to 
provide focused efforts to produce a historical accounting for 
individual Indian allottees. The Office has developed a blueprint for 
development of its comprehensive plan for a historical accounting and 
will soon convey its comprehensive plan to Congress.
    During our formulation of the 2003 budget, various issues were 
identified concerning the trust asset management roles of the Bureau of 
Indian Affairs, Office of the Special Trustee for American Indians, and 
other Departmental entities carrying out trust functions. At this same 
time, Electronic Data Systems, Inc. was undertaking an independent, 
expert evaluation, which indicated that one of the fundamental barriers 
to trust reform is the disorganized scattering of trust functions 
throughout the Department. In November 2001, I announced the outline of 
a proposal to reorganize and consolidate Indian trust management 
functions into a separate organization with the goal of improving the 
management of trust assets by creating clear lines of authority for 
trust reform and trust operations. Over the past several months we have 
been consulting with Tribes to involve them in the process of 
reorganizing the Department's trust asset management responsibilities. 
I established a Joint Tribal Leaders/Department of the Interior Task 
Force on Trust Reform, comprised of 24 tribal representatives and 
representatives from the Department. The Task Force has found that 
there is a need for reform and that the status quo is not acceptable 
and has issued a report identifying options to achieve meaningful 
reorganization. Given the Task Force's efforts, the Department does not 
plan to pursue its proposal for a separate Assistant Secretary with 
responsibility for trust management. Instead, we will continue to work 
cooperatively with the Task Force to delineate an organizational 
structure that facilitates improvement in managing trust funds while 
obtaining the support of Indian Country. We will continue discussions 
with Congress concerning the results of the ongoing consultation and 
delineation of a proposed reorganization.
    As part of the ongoing Cobell v. Norton proceedings, on December 5, 
2001 the Court ordered the Department to disconnect all of the computer 
systems that house or provide access to Indian trust data from the 
Internet. We have been working diligently with the Special Master to 
obtain concurrence to complete reconnection. The majority of our 
bureaus and systems are reconnected. On February 11 we notified you 
that we were providing estimated payments to individual Indian money 
account holders until such time as automated payment systems were 
resumed. The system to process revenue data to allotted Indian owners 
was restored on March 22, 2002. For the longer-term, we have concluded 
that there is a need for a dedicated network to secure trust data. We 
received approval from the House and Senate to proceed with 
establishment of this dedicated trust network, a new secure information 
technology system for Indian trust data.
    The 2003 budget request for trust reform and operations is based 
upon the current organizational structure and does not reflect our 
conclusions about the need for a dedicated trust network. As we 
complete the consultation process and move forward with our plans for 
the network we will submit a revised budget that includes a crosswalk 
between the current and revised budget proposals.
    Our budget request contains a major boost in spending for Indian 
trust reform and trust related programs, a nearly $84 million increase, 
the largest increase in the history of trust reform. These additional 
funds are necessary to address the long overdue changes that the 
Secretary is committed to making in the Indian trust program.
    The $48.8 million increase requested for the Office of the Special 
Trustee is a 44 percent increase above the 2002 level. The Special 
Trustee allocates funds to the Bureau of Indian Affairs for trust 
reform efforts they carry out, to the Office of Hearings and Appeals 
for adjudication of probates involving ownership of Indian lands, and 
to the Office of Historical Trust Accounting. The 2003 request will 
allow the Department to continue trust operations improvements already 
implemented, such as the trust fund accounting system. The budget 
request will allow the Bureau and Office of Hearings and Appeals to 
make progress on reducing probate backlogs, will improve risk 
management activities and oversight of trust and trust-related 
activities, and will support other trust reform initiatives.
    The Special Trustee's budget includes $8 million for the Indian 
Land Consolidation program. This program prevents further fractionation 
of Indian trust allotments by consolidating highly fractionated 
interests through purchase from willing sellers. The decreased 
fractionation aids trust reform by decreasing the number of trust asset 
management transactions, decreasing the number of interests subject to 
probate, and returning land to the control of the Tribes.
    The budget for the Bureau of Indian Affairs includes $34.8 million 
in increases to improve its performance of trust services programs. 
This includes $20.3 million in trust services and natural resource 
programs and $14.5 million for other areas including tribal courts, 
social services and information resources management.
                            indian education
    I am committed to the President's promise to improve education in 
America and ``leave no child behind.'' The Bureau of Indian Affairs has 
a special, historic responsibility for educating Indian children. The 
Bureau manages 185 elementary and secondary schools in Indian Country 
that provide educational services to 48,000 students. Many schools are 
located in isolated, remote, rural communities, posing challenges and 
requiring greater operational costs than those typically facing public 
school districts.
    The President's education plan promotes flexibility and local 
control of schools. The Department's 2003 budget request encourages 
Tribes to assume management of their schools or enter into private 
partnerships to manage the schools. This privatization effort is the 
centerpiece of the Administration's initiative to improve the 
performance of the lowest-performing schools. The request includes $8 
million to address costs inherent in the outsourcing of schools, such 
as administrative cost grants and potential displacement of teachers. 
An additional $2 million for student transportation and $1.9 million 
for facilities will be available to improve operational problems that 
might be a disincentive for Tribes wishing to assume school management. 
The 2003 budget also includes a $5.8 million increase for teacher pay.
    In his State of the Union Address, the President underscored the 
importance of early childhood development programs. The budget includes 
an increase of $3 million to expand the successful early childhood 
education program, Family and Child Education program. This increase 
will allow the Bureau to expand the program to over one-quarter of the 
146 schools that serve elementary students. This program promotes 
greater involvement by parents in the early, critical stages of their 
children's education, and results in improved adult literacy, and 
improved parenting skills that help improve children's readiness for 
school.
    The 2003 budget for education construction continues the 
President's initiative to repair and replace unsafe schools. Funding in 
2003 is maintained at the 2002 level, $292.7 million, which will fund 
six replacement school projects and address repair and rehabilitation 
projects in the backlog. The goal is to fulfill the President's promise 
to eliminate the school repair and maintenance backlog in 2006.
                 managing the park maintenance backlog
    President Bush pledged to address the backlog of maintenance and 
repair in the national park system. I share the President's commitment 
to maintaining park facilities to safeguard the visiting public and 
park employees, to preserve park resources for future generations, and 
to improve visitors' experiences. The 2003 budget includes $663 million 
for facility maintenance and construction, including required planning 
and compliance work. Within this total there is an increase of $25 
million for cyclic maintenance to ensure that routine maintenance work 
is completed in a timely manner. The budget proposes an increase in 
facility repair and rehabilitation of $17.6 million, which will focus 
on moving the National Park Service toward performance-based management 
of its facilities.
    Within the increase for repair and rehabilitation, $8.4 million 
will address the deferred maintenance and critical resource protection 
backlog. This increase will have resource protection benefits. In 2002, 
approximately one-fifth of the repair and rehabilitation program was 
devoted to resource protection. A comparable amount will be dedicated 
to this effort in 2003.
    In addition to the request for annual appropriations, a significant 
amount of recreational demonstration fee receipts will be devoted to 
deferred maintenance projects. This program is now authorized through 
2004. The 2003 budget proposes that the program be permanently 
authorized. This program allows Federal land managers to retain 
receipts to meet management goals and is an important tool in improving 
the quality of programs such as facility maintenance and visitor 
services. The Department expects to receive $146.1 million through the 
program in 2003. The Administration expects to propose authorizing 
language shortly and asks that the Congress take action on the proposal 
this year.
                       natural resource challenge
    There are 385 National Park units that protect and preserve unique 
and important natural resources. The Natural Resource Challenge--a 
priority for the President and me, fosters the protection of these 
natural resources. An increase of $18 million is requested for the 
fourth year of the National Park Service's Natural Resource Challenge. 
This program will continue to strengthen natural resource management 
throughout the park system by protecting native species and habitats; 
monitoring the health of natural resources within the parks; 
eradicating exotic species; and sharing information about natural 
resources with the public.
    Collaborative efforts with the U.S. Geological Survey and 
universities assist the parks in the assessment of natural resources 
and help to identify and alleviate potential threats to resources. Much 
of this increase, $9 million will be accomplished through a partnership 
with the U.S. Geological Survey.
                               everglades
    A recently signed agreement between President Bush and Governor 
Bush of Florida ensures that water will be available for the natural 
system in the Everglades, restoring the natural ecological systems. The 
2003 budget proposes a total of $96 million, including $8.9 million 
that will support Department-wide efforts to implement the 
Comprehensive Everglades Restoration Plan. The Department will continue 
to work cooperatively with the Army Corps of Engineers to complete the 
modified water delivery project at Everglades National Park. The budget 
includes $13.3 million for the project, a reduction of $21.9 million 
from the 2002 levels, as a result of progress made toward completion of 
the project.
    An additional $20 million, an increase of $5 million over the 2002 
level, is requested to fund matching grants to the State of Florida 
that will be used to purchase important properties within the 
Everglades system. Consistent with our efforts to better integrate 
science into land management, the budget proposes to consolidate 
funding for Everglades science in the U.S. Geological Survey. The 2003 
Survey budget includes an increase of $4 million for the Critical 
Ecosystem Studies Initiative, funds that were previously appropriated 
to the National Park Service, for planning, monitoring, assessing, and 
providing ongoing science support essential to the adaptive management 
of the Everglades restoration project.
         preparing for the national wildlife refuge centennial
    In 1903 President Teddy Roosevelt established the first National 
Wildlife Refuge at Pelican Island, Florida. Today Pelican Island 
National Wildlife Refuge is part of a 538- unit system that spans 95 
million acres. This is a unique and diverse network of lands and water 
that provide habitat for migratory birds and other wildlife, sanctuary 
for endangered species, and nursery areas for fish. Refuges also 
provide opportunities for wildlife viewing, hunting, fishing, and 
environmental education for 39 million visitors a year.
    Our budget commemorates the 100th anniversary of the refuge system 
by requesting a $56.5 million increase for the national wildlife refuge 
system. This 18 percent increase in spending represents the largest 
dollar increase ever requested in the history of the National Wildlife 
Refuge system. Overall refuge operations funding will increase by $25.8 
million. A $30.7 million increase for maintenance will address critical 
health, safety, and resource protection needs, as well as fund high 
priority activities that enhance visitor experiences. This historically 
high level of funding for operation and maintenance of the national 
wildlife refuge system includes $5 million for the Cooperative 
Conservation Initiative.
                    endangered species conservation
    The 2003 budget continues a partnership approach to endangered 
species conservation, including funding for grant programs that assist 
State and local communities in their conservation efforts to benefit 
federally listed, proposed, candidate, and other imperiled species. 
Among these grant programs are two Presidential initiatives to partner 
with private landowners and States, the Landowner Incentive and Private 
Stewardship programs and $91 million for the Cooperative Endangered 
Species Conservation Fund to assist States in acquiring lands essential 
for the recovery of species and to support development and 
implementation of habitat conservation plans. The budget proposed for 
Fish and Wildlife Service endangered species operations is $125.7 
million and includes increases of $5.9 million for conservation of 
candidate and listed species and to assist in meeting demands for 
inter-agency consultation, technical assistance, and assistance with 
habitat conservation planning.
                    harnessing our natural resources
    The Department's programs are key to addressing important energy 
supply issues and fostering a dynamic economy, while preserving and 
enhancing environmental quality. Energy projects on federally managed 
lands and offshore areas supply approximately one-third of the Nation's 
energy production. In support of the President's National Energy 
Policy, the budget includes increases of $28.6 million for energy 
related activities in four bureaus. Increases in the Bureau of Land 
Management and Minerals Management Service will allow these agencies to 
eliminate delays and be more responsive to increasing demands for 
energy while increasing environmental oversight. In addition, funds 
will support investments in management systems that will allow these 
bureaus and stakeholders to more efficiently conduct business and 
improve compliance oversight.
    The budget proposes an increase of $10.2 million for Bureau of Land 
Management energy-related activities, including $1.6 million to expand 
rights-of-way processing, $1 million to conduct a study of oil and gas 
resources on public lands, $1.5 million to provide oversight of oil and 
gas operations, and $1 million to expedite permitting and increase 
responsiveness to stakeholders needs for post-lease actions. The 
increase for rights-of-way will allow the Bureau to process 6,900 cases 
in 2003, an increase of 900 or 15 percent over the 2002 level.
    The President and I are committed to increasing domestic energy 
supplies, including oil and gas on Federal lands from a variety of 
sources in an environmentally acceptable manner. The energy resources 
of the northeast corner and the rest of Alaska's North Slope are 
national assets that can contribute to the Nation's energy security. 
The 2003 budget includes an increase of $3 million for activities on 
the North Slope. The increase will support planning for 2004 sales in 
the National Petroleum Reserve--Alaska and the Arctic National Wildlife 
Refuge. Congressional authorization will be required for a lease sale 
to be conducted in the Arctic Refuge. The budget assumes a lease sale 
in 2004 that will generate $2.4 billion in anticipated bonus bids. Of 
this amount, the Federal government's $1.2 billion share will be 
dedicated to research and development projects on solar power, wind 
energy, biomass power and fuels, geothermal energy, and other 
alternative energy technologies.
    In November 2001, Secretary of Energy Spencer Abraham and I 
convened a renewable energy conference. This conference served as a 
catalyst for the Department's renewable energy programs. The 2003 
budget more than doubles funding for renewable energy programs in the 
Bureau of Land Management. To expand opportunities for geothermal, 
hydropower, and wind energy production, the Bureau is requesting an 
increase of $750,000.
    The budget for the Minerals Management Service proposes a program 
increase of $5 million in order to meet increased workload brought 
about by the demand for Gulf of Mexico outer continental shelf program 
services. These additional funds will ensure that leasing and 
regulatory programs in the Gulf of Mexico keep pace with public demand 
for energy, industry requests for processing permits, and the need to 
review plans and conduct inspections. The 2003 budget includes an 
increase of $8.7 million to design and implement innovative business 
processes and advances in electronic technology and provide web-based, 
paperless transactions in the offshore program. The Bureau will also 
invest $6 million to develop management systems that support taking 
Federal royalties on oil production in-kind, rather than in-value.
    Increases totaling $2.7 million are requested by the U.S. 
Geological Survey, including: $500,000 to produce updated information 
on available geothermal resources; $1.2 million to conduct estimates of 
undiscovered oil and natural gas resources on Federal lands in the 
continental United States, as required by the Energy Act of 2000; and 
$1 million to produce digital base maps in Alaska focused on potential 
lease areas of the National Petroleum Reserve--Alaska. The Bureau of 
Indian Affairs is requesting an increase of $1.7 million in its budget 
for energy programs to work in partnership with Indian organizations 
and Tribes.
                           land use planning
    The 2003 budget proposes an increase of $14 million for Bureau of 
Land Management land use planning. The land use planning process is the 
Bureau's primary tool for consensus building by involving the public in 
development of land management plans. This increase will allow the 
Bureau to accelerate development of 37 plans and initiate development 
of 12 plans. Land use plans guide land use and resource management 
decisions, and allow for public involvement in developing program goals 
for recreation, habitat conservation, energy and mineral extraction, 
livestock grazing, timber harvest, fire management, and community 
rights-of-way access.
                        wildland fire management
    A joint Interior, U.S. Forest Service National Fire Plan guides 
collaborative efforts to improve the effectiveness of the wildland fire 
program to better protect communities and the environment from wildfire 
devastation. The plan is guiding joint efforts to control fires when 
they are small, manage large-scale fires, reduce hazardous fuel loads, 
rehabilitate burned areas, and assist rural fire departments to protect 
their communities.
    In 2001, the Department made significant progress in implementing 
the plan's recommendations and established an unprecedented level of 
cooperation with the Forest Service. The Department conducted an 
aggressive hiring program to staff essential firefighting positions; 
purchased necessary equipment; contracted aircraft; and repaired fire 
facilities. Additional funding was allocated to the agencies and 
awarded to rural and volunteer fire departments. Hazardous fuels 
treatment projects were selected and conducted, including projects 
treating approximately 164,000 acres in the wildland-urban interface.
    In 2002, the Department and the Forest Service are working closely 
on a number of collaborative efforts including: the development of 
joint workload and performance measures to determine progress in 
meeting wildland fire management goals; an independent review of 
wildfire suppression costs and strategies; development of an 
implementation plan for the 10-Year Comprehensive Strategy; and other 
activities.
    The budget continues robust funding for the Department's Wildland 
Fire Management program, requesting $675.5 million for fire readiness 
and response, wildland firefighting, assistance to rural communities, 
and a comprehensive program to reduce fuels in the wildland urban 
interface. This budget carries forward the initiatives begun in 2001 
and continued in 2002 to reduce the buildup of hazardous fuels, 
especially in the wildland-urban interface, and fully funds suppression 
based on the ten-year average.
                           homeland security
    In the wake of the events of September 11, we responded with 
assistance to the rescue and recovery efforts. We also put in place 
security measures to protect our most important national assets, our 
visitors, and our employees. We increased park police patrols in 
Washington, D.C., and New York; upgraded park policy security 
equipment; increased guard service and protection for important 
national icons such as the Liberty Bell and St. Louis Arch; and 
instituted around-the-clock security at key Reclamation facilities such 
as Hoover, Glen Canyon, Shasta, and Grand Coulee Dams. The 2003 budget 
request includes $88.8 million to continue enhanced security measures 
at approximately the same level funded in 2002, including $62.1 million 
for agencies funded in the Interior appropriations bill. Our 2003 
request includes detail on these security measures, including $23.7 
million for the Park Service to begin construction of enhanced security 
systems at the Washington Monument and the Lincoln and Jefferson 
Memorials.
                       office of insular affairs
    The Office of Insular Affairs assists Territories and Freely 
Associated States by providing financial and technical assistance. The 
2003 budget proposal for Insular Affairs continues to provide mandatory 
funding to Guam and the CNMI for impact of Compact assistance. A total 
of $4.6 million in mandatory Covenant grant funding will be allocated 
to Guam and $840,000 will be provided to CNMI for this purpose in 2003. 
An increase of $750,000 is requested to provide enhanced oversight of 
Compact of Free Association financial assistance. Renewed financial 
assistance for two of the three Freely Associated States is currently 
being negotiated; improved oversight and accountability are key goals.
                    uncontrollable and travel costs
    The Department's budget includes $86.9 million in fixed cost 
increases; an additional $57.4 million in fixed costs will be absorbed 
by focusing resources on the highest priorities as well as increased 
administrative and program efficiencies. The budget also assumes 
Department-wide savings of $20.6 million in travel and transportation 
costs, in anticipation of reduced expenses in 2003 due to increased 
teleconferencing, greater use of central meeting locations, and 
reductions in employee relocations.
                         management excellence
    Our management strategy is an integral component of the 2003 
budget, implementing the President's five government-wide initiatives 
for strategic management of human capital, competitive sourcing, 
improved financial performance, expanded electronic government, and 
budget and performance integration. We are undertaking efforts that 
will improve citizen service through achievable results in 2003, 
including the following examples:
  --The Department is developing comprehensive workforce plans to guide 
        staffing, training, and succession management and to better 
        manage a workforce that is facing a loss of experience. 
        Workforce plans will help to assure that positions are staffed 
        with appropriate skills and that programs are in place for 
        employee retention and reward.
  --To improve service delivery and effective use of resources, the 
        Department is reviewing the potential to restructure process-
        oriented aspects of human resources operations, information 
        technology support, and acquisition management and contract 
        management.
  --Interior will meet 2002 and 2003 targets to review commercial 
        activities performed by Federal employees, for a determination 
        as to whether activities should be performed in-house or by the 
        private sector, as required by the Federal Activities Inventory 
        Reform Act.
  --Interior is developing a new strategic plan for 2003 that will be 
        released in spring 2002. In order to improve the linkage of 
        budget and performance results, the Department is using the 
        Bureau of Land Management's activity based costing system as a 
        benchmark for the development of comparable systems in other 
        bureaus. Through activity based costing, managers can better 
        understand program costs and citizens can get answers to 
        questions such as, ``How much does it cost to run a visitor's 
        center?''
  --The Bureau of Land Management will improve citizen service by 
        expanding ``Service First,'' working with the U.S. Forest 
        Service to provide efficient, streamlined interagency 
        cooperation in public lands management. The Department is also 
        exploring opportunities for expanding this program to include 
        other Interior agencies.
  --The National Park Service will continue management reforms to 
        assess resource and facility conditions, measure performance in 
        improving conditions, and target funds at top priority needs.
                               conclusion
    In conclusion, the 2003 budget provides strong support for 
Interior's programs and for the approximately 70,000 employees that 
carry out our mission. Further, it provides expanded opportunities to 
partner with others and supports the President's vision of a shared 
approach to conservation and the Four C's.
    When I visited the John Heinz National Wildlife Refuge in 
Pennsylvania, I observed first-hand the power of partnerships. Dating 
back to the 1950's, the citizens of Philadelphia have been the driving 
force behind establishment and expansion of the refuge, creation of an 
environmental education center, and restoration of wildlife and 
habitats. This community turned out to welcome us and celebrate their 
excitement at the results we have achieved with our partnership 
efforts. In the midst of some of Philadelphia's most developed areas, 
we witnessed the ability of local citizens to bring about real change. 
Our Cooperative Conservation Initiative will use government resources 
to remove barriers to citizen participation and give citizens a greater 
role in conservation. In addition, the Department will reap the 
benefits of the collaborative process and the innovation and creativity 
of the States, Tribes, local communities, and citizens that partner 
with us.
    This concludes my overview of the 2003 budget proposal for the 
Department of the Interior and my written statement. I will be happy to 
answer any questions that you may have.

    Senator Dorgan. Madam Secretary, thank you very much.
    Let me ask a couple questions. Some of my colleagues, in 
their opening statements, discussed the issue of the new Bureau 
of Indian Trust Asset Management proposal. I think I will leave 
it to those colleagues to ask questions about that.

                            TRIBAL COLLEGES

    Let me ask a question about the tribal colleges, if I 
might. I am concerned about the proposal to cut $2 million from 
the tribal colleges from last year's appropriation. That is 
about 5 percent of the operating grants of these colleges or I 
believe $400 per student roughly. These tribal colleges I think 
have been an extraordinarily successful model.
    I think most of us who spend time on Indian reservations--
we have four in North Dakota--would agree that we have a full-
scale emergency in health care, in housing, and in education on 
Indian reservations. The tribal colleges are one of the few 
bright spots that allow those on the reservations who have 
access to the family structure for child care and other 
support, to be able to go to a tribal college and continue 
their education.
    And I am very concerned. Senator Burns, Senator Domenici, 
myself, and others have worked hard to propose adequate 
funding, and we are not nearly there at this point. But the 
proposal to cut $2 million is one that I am troubled by. Can 
you describe to me what the purpose of that cut would be?
    Secretary Norton. We certainly do feel that those are very 
valuable programs, and so we are proposing to provide $39 
million for those programs.
    Our primary challenge was trying to allocate the resources 
for education programs, and we felt that putting the money into 
the K through 12 programs and the early childhood programs 
would prove more beneficial. So, that was the primary rationale 
for our adjustment to those programs.
    Senator Dorgan. Madam Secretary, the budget, as I see it, 
for the entire Bureau of Indian Affairs is about a 1 percent 
increase, which I think as Senator Feinstein indicated in other 
areas really does not even keep pace with continuing needs. I 
understand your point about trying to prioritize in allocating 
assets among an unlimited set of needs with limited resources, 
but I really think the tribal colleges are a terrific 
investment, and I hope this subcommittee will restore the $2 
million funding.

                    UNITED TRIBES TECHNICAL COLLEGE

    Let me ask you also about the United Tribes Technical 
College. That happens to be in North Dakota, similar to Crown 
Point in many ways. But the United Tribes Technical College is 
a college that has students from 40 tribes across the United 
States, has been operating for 22 years roughly. It is really 
an incredible success story in my judgment. The proposal is to 
zero out funding for that.
    I want to ask a specific favor of you, if I might. Are you 
going to Bismarck yourself this week?
    Secretary Norton. Yes, I am.
    Senator Dorgan. Well, the United Tribes Technical College 
is about a quarter of a mile from the turnoff to the Bismarck 
airport. Do you know the favor I would like to ask of you?
    Secretary Norton. I think I can guess. Let me see if I can 
arrange that.
    Senator Dorgan. I would like to ask if you would drop in 
just for a few minutes and visit with Dr. Gipp and some others 
on your way to or from the airport so that you understand 
something personally about that college. I know it is 
parochial. Senator Campbell, who is not a North Dakotan, has 
visited that college many times. He will tell you the value of 
that college to some 40 tribes across the country. I am asking 
if you would take just a few minutes to do that, and I hope you 
will do that.
    Secretary Norton. I would be happy to do that.
    I would like to pass along a recommendation from the head 
of our Indian education program who visited there recently. His 
suggestion was trying to include that with some of our other 
existing education programs so that we can look across the 
board at priorities for our various types of education programs 
and to try to evaluate that in the same way we are evaluating 
other programs.
    Senator Dorgan. I do not really care how it is funded. I 
just care that it is funded. I worry that including it with all 
the other programs, for example, as I indicated, a 1 percent 
increase for the array of programs under the BIA is not even 
going to keep pace with their needs given inflation. So, the 
conservation initiative you talk about at $100 million. I would 
say to you this, the restoration of the $3 million, the $2 
million for the tribal colleges, the restoration of the Crown 
Point, cut that conservation initiative back to roughly $95 
million, fund these three critically needed pieces for Indian 
country. So, I think you will find the subcommittee will want 
to work with you on that.
    But I just want to emphasize that I think we have really a 
full-scale emergency in housing, health care, and education on 
our reservations. We had testimony from one of the tribal 
chairman who started it in a very interesting way. He said, you 
know, I live in a third world country, and then he began to 
describe all the evidence of where he lived, the infant 
mortality, life expectancy, a whole series of things. Indeed, 
in those areas on America's reservations, we have very serious 
problems.
    One way to get up and out of those is, first of all, 
improve education, provide adequate health care, and provide 
adequate housing. But education is really the one that lifts 
people, and so I am asking if you will do that this week in 
Bismarck. I might say to you that it is a short drive from 
where you are going to meet to the airport. It is not one of 
these 45-minute situations. So, it will be convenient.
    I have other questions, but I know many of my colleagues 
have questions. Let me defer mine. Madam Secretary, thank you 
for your testimony. I think it gives us a better description of 
what your priorities are. We want to work with you as well as 
we proceed, but on Indian education, please help us.
    Let me call on Senator Burns.
    Senator Burns. Madam Secretary, you will find in Bismarck 
that they do not have traffic hours up there. They have traffic 
minutes.
    So you will be fine.

                           FOREST MANAGEMENT

    I was struck the other day--and the cry goes out in other 
States on the fires that they are experiencing. We have been 
burning for 4 years, and I think we broke the drought as far as 
the parks are concerned in the mountainous areas because my 
chief of staff was snowed in East Glacier this week. Now they 
have got floods up there.
    But I can sure relate to the folks who have beetle kill and 
this type thing because I have got one of the worst managed 
forests there is in America. I mean it is absolutely the worst. 
It is the worst looking piece of land I have ever seen in my 
life. And you know what? We cannot do anything about it because 
these very highly intelligent folks know more about the 
relationship of water, sun, and soil than people who were 
really actually raised on the land. And it is unbelievable to 
me how dumb they can be.

                  GOING TO THE SUN AND GLACIER HIGHWAY

    But anyway, let us take up something else. We are going to 
build a road Going to the Sun and Glacier Highway. We 
appreciate your efforts on that. It is a road that is probably 
the most spectacular drive there is in America. It is one of 
the great traveled areas in Glacier Park. But you know, when it 
is snowed in, we found out one thing. The big part of the year 
is when they open the road, and that is when the tourists start 
coming through. That is when businesses that depend on tourism 
start making a living. We found out the other day that you are 
only plowing the road 4 days out of the week, and if it snows 
during those days, they do not plow. But the weather clears up, 
they do not plow then either.
    So, I wish you would look into that and see how they 
schedule it. I was in the auction business. I asked an 
auctioneer friend of mine. I said, how many days in the week 
start with T? He said, two. I said, what are they? He says, 
today and tomorrow.
    That was not really the answer we wanted but 4 days and 
then when the sun shines, you do not make hay, it does not make 
a lot of sense to me. If you would take a look at that.

                              INDIAN TRUST

    Let us look into the Indian trust thing and what you are 
doing. I want to congratulate you on coming forward with a 
plan, something that no other Secretary has done to this point, 
of trying to resolve that and using a new system to do it.
    It is my thought that we cannot really get to the heart of 
this problem and solve the problem with the same folks that put 
us in the problem. It has to be moved outside of that and, in 
some way or other, structure the folks that are going to be 
working on it to really solve the problems. You cannot solve 
problems with the people that created the problems.
    I talked to several of my friends in Montana, especially 
the tribal council members. And we have seven reservations in 
my State. They seem to be amenable to that. I know they have 
some reservations about it, but they also know that it is a 
huge, huge situation.

                            INDIAN EDUCATION

    I, like Byron Dorgan, do not like the idea of cutting back 
funds on our colleges. We will probably reinstate those funds, 
if we possibly can, and find some areas to pay for it. I really 
believe that we have got one of the premier educators in our 
State, Joe McDonald, up on the Kootenai. The Confederated 
Tribes over on the western part of the State do a tremendous 
job in this 2-year college, and also he does his work also with 
K through 12, getting those children prepared for higher 
education. So, we are very much a part of that.

                         EIS ON COALBED METHANE

    Also, what I said about EIS's and grazing. We also are slow 
in our EIS on coalbed methane down in southeastern Montana. I 
would like to draw your attention to that, and if we can have 
some dialogue with regard to how that is moving. It seems to me 
that south of border into Wyoming, we have a lot of production, 
and then you come north of the line, and it is the same basin 
and almost the same vein, and everything else just drops off. I 
am wondering why that has to be because I know that the EPA has 
some things to do down there, but on the other hand, I think it 
is incumbent on us to move forward on that EIS. I know we've 
got the draft. The rest of it is not supposed to be done until 
this fall. If that could be accelerated.

                        STEWARDSHIP CONTRACTING

    Another area is stewardship contracting. We have begun a 
program with the Forest Service that is called a stewardship 
program. That is small contractors in salvage harvesting and 
cleaning up after these fires. And we have had more experience 
in cleaning up after fires than anybody in the world. So, I 
wonder if you would look at that because I know that is just 
the Forest Service alone.
    Can you explain to me why that has not been adopted by the 
BLM or is it being looked at?
    Secretary Norton. Senator, we would appreciate the ability 
to look at that. We currently need some authorization for that 
program. So, I would like to work with you on making sure we do 
have the appropriate authorization to engage in those kinds of 
contracts because they do seem very valuable to us.
    Senator Burns. I know it is an area where I think we can 
help you out, and you are going to have a lot more salvage 
after this year than you have experienced in the past. So, we 
feel for you.
    I have got a couple of other questions, but I do not want 
to hog all the time either. So, Mr. Chairman, thank you very 
much.
    Senator Dorgan. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.

                            LITIGATION COSTS

    You heard my opening statement, Madam Secretary. I would 
like to get a little comment from you about the question of 
litigation costs and the impact that is having on your budget. 
Yesterday, the Chief of the Forest Service released a report on 
the gridlock that his agency is experiencing as a result of 
these frivolous lawsuits. My question would be, would you be 
willing to undertake an analysis similar to the Forest Service 
so that we could have a firm quantification of how much this 
is? And would you care to comment on the whole question of the 
cost of litigation and its impact on your ability to manage 
Federal lands?
    Secretary Norton. One of the things that we are doing 
within the Bureau of Land Management right now is putting in 
place an activity-based costing system that allows us to obtain 
accounting information on how much we spend on all kinds of 
different things. It is not just how much we spend on 
litigation, but how much we spend on wild horse roundups or 
whatever the activity might be. That will give us better 
information for management overall.
    Part of what would be tracked would be litigation 
activities. My gut feeling is that we are spending a lot on 
litigation. Whenever we are talking about grazing leases, for 
example, we have litigation on grazing leases. When we are 
talking about recreation activities, we have litigation on 
those. When we are talking about endangered species activities, 
we have litigation on that. So, almost everything we do has 
litigation as one very significant aspect of it. We would be 
happy to look at trying to quantify how much is actually spent 
on our litigation activities.
    Senator Bennett. Thank you. That information would be very 
helpful as we join the debate in the public land States.

                       PAYMENTS IN LIEU OF TAXES

    Now, roughly two-thirds of the State of Utah is owned by 
the Federal Government. You are the largest landlord in the 
State of Utah. There are a number of counties in the State 
where the Federal Government owns in excess of 95 percent. The 
challenge of maintaining any kind of coherent county government 
in those situations where 95 percent of the land is outside the 
tax base is an enormous challenge. We have one county where the 
total population in the county is less than 1,000, and the 
number of visitors to Federal facilities there is in the 
hundreds of thousands, if not millions, every year. It is a 
little hard for the county sheriff to do much law enforcement 
in a circumstance like that. And we live or die on Federal 
payments in lieu of taxes or, as they are known, PILT.
    Frankly, in rural Utah and I think some other rural areas 
in the West, we were quite delighted when this administration 
took office because they felt they were ignored, abused, 
otherwise maltreated by the previous administration. And now 
for 2 successive years, this administration has not supported 
full funding of PILT.
    How do I go back to these people who were looking forward 
to your administration as the change in terms of attitude 
towards rural issues and rural people and say, yes, they are 
much friendlier, but they will not pay their taxes or they will 
not pay their payments in lieu of taxes to support the local 
government functions, which go in support of the Federal 
functions on that land? Could you comment? I know that is kind 
of a tough question, but it is a tough problem that we have 
back home.
    Could you comment on the administration's attitude toward 
PILT and what you might do if this subcommittee, as it has done 
in the past, increases the PILT funding above the level you 
have recommended? I know you cannot say OMB was wrong, but 
comment, to the degree you can, about that particular issue.
    Senator Domenici. Madam Secretary, would you let me answer 
in your behalf?
    I was just going to suggest that the administration wanted 
him to do some work for his constituents, so he can get the 
PILT money for them. That is a very fair deal.
    Secretary Norton. That was not quite the answer I had in 
mind.
    Senator Domenici. Besides, it is going to happen that way, 
so you might as well claim it.
    Secretary Norton. Our challenge is trying to balance the 
use of resources and to make sure that we are providing 
funding. We have to make some tough choices in that process. We 
have increased the request from last year, and we are working 
with local governments in a variety of different ways. The law 
enforcement issue that you mentioned is one that we are trying 
to look at comprehensively throughout the Department. We are in 
the process of reorganizing our law enforcement activities so 
that we have a better handle across the departments on how our 
law enforcement resources are being allocated. One part of that 
is in trying to work better with local governments on our law 
enforcement activities.
    Senator Burns. Would you yield? You know you got a letter 
signed by 66 Senators in this body saying that this PILT thing 
is a serious thing, and we would like to see it increased. I am 
old county commissioner. Now, we did not get a lot of PILT 
money in Yellowstone County, but I know counties live and die 
in the State of Montana. I think 66 signatures is significant.
    Secretary Norton. Yes, sir.

                  PEER REVIEW OF DEPARTMENT DECISIONS

    Senator Bennett. One last comment which will be, I think, a 
little friendlier. There have been questions raised about the 
adequacy of the science used in the decision making by Federal 
land managers, and some people have said we ought to have 
independent peer review. I do not know if that would hold down 
the lawsuits because I think the lawsuits are filed without 
regard to science, logic, or anything else. They are raised 
strictly for roadblock purposes.
    But would you support peer review of Department decisions, 
or is there anything else that you think we should do in order 
to put us in a position where we can defend the science of the 
decisions that are made a little better than perhaps we can 
now?
    Secretary Norton. Senator, we have already begun a move 
toward more peer review of key decisions and key scientific 
information. Obviously, a peer review process is not something 
we can implement across the board because there are just so 
many thousands and thousands of different decisions that are 
being made on a regular basis. But where we have brought those 
scientists in, I think it has enhanced our decision making, and 
we look forward to working with you all to further enhance our 
ability to ensure that the scientists widely accept the 
decisions that are being made.
    Senator Bennett. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Dorgan. Senator Bennett, thank you.
    If I might just comment on Senator Bennett's question on 
PILT and Senator Burns' response, it raises the question of 
whether new initiatives are more important than current 
obligations. That is at the root of it as well. If we are 
proposing $160 million in new spending, is that more important 
than the current burdens and obligations that we have to meet? 
That is what I think other members of the subcommittee reflect.
    Senator Campbell.
    Senator Campbell. Thanks, Mr. Chairman.

                            TRIBAL COLLEGES

    First, I would like to associate my comments with yours 
about tribal colleges. I visit a lot of them, as Senator Dorgan 
does, and I can tell you they really provide a service to 
people who are living in an area where they have no other 
options. They certainly cannot go 200 miles daily to go to 
school. Many of the people who are in tribal colleges, in fact, 
are mothers and dads who could not get an education when they 
were younger, and they go back to school as adults.
    As you know, they do not have a property tax base that they 
can draw from. They get very little money from States. The 
tuition is very nominal. But one thing that is not commonly 
known about the tribal colleges is that they really provide a 
community service for everybody. Indian reservations are not 
just made up of Indians anymore. I mean, there are many people 
who live on it within the boundaries of reservations that are 
not enrolled members. They are not Native American at all, and 
yet all of them can avail themselves to go to those tribal 
colleges. I do not know the exact number, but I would estimate 
that in every tribal college, probably 10 percent or more are 
not Indians. So, they do provide a service for everybody in the 
community, not just Native Americans.
    So, I support Senator Dorgan's request that we try and bump 
that money back up to a livable number because you mentioned 
yourself, there are tough choices. We know that. We have to 
make them here all the time. One of the tough choices is 
whether you educate young people or educate people who need the 
training to be able to get a job and provide for their families 
or you pay the piper at the other end from the results of not 
having an education. That is in social discord and crime and 
drug abuse, all the other stuff that goes with the opposite of 
being able to get an education.

                              TRUST FUNDS

    Let me ask a couple of questions about the trust funds. 
Other members have already done that, but as I understand it, 
for the Office of the Special Trustee, the budget includes 
$160.6 million, which is a 44 percent increase over fiscal year 
2002 enacted levels, and includes $153.4 million for trust 
operations and service, which is a 29 percent increase. In many 
ways, the request is based on the High Level Implementation 
Plan, called the HLIP plan, which we understand is now a dead 
plan. So, are these figures subject to change and when will we 
know when there are going to be appropriate funding levels that 
are needed?
    Secretary Norton. This budget cycle has been a difficult 
one for us because we have been going through the consultation 
process. We are getting good results on it, but we are really 
just getting those now. So, what we have been doing is working 
with the committee staff and going through the requirements, as 
they are coming about. We anticipate working with you taking 
the same overall number but making changes within that.
    Senator Campbell. There will be some reprogramming requests 
probably.
    Then I might ask you, how many more meetings of the task 
force are in the plan?
    Secretary Norton. We are proceeding essentially with a 
couple of different goals in mind. Our primary meeting, in 
terms of the higher level of organization, is taking place in 
the next few days and leading up to next week's meeting in 
Bismarck. There is a hearing scheduled, I think on June 26, to 
present that feedback to you all.
    We also anticipate working with the task force on some of 
our implementation activities, on figuring out more of the 
details about how things need to be implemented. So, we 
anticipate working with that task force on an ongoing basis as 
we go through the reform process.
    Senator Campbell. Well, it is my view, and I think the same 
view of many members, it is time to start cutting some checks, 
and I hope that we are going to be able to get some legislation 
introduced to do that soon.

                       INDIAN LAND CONSOLIDATION

    Let me ask you also on Indian land consolidation, we did 
one hearing in the Indian Affairs Committee. We put a program 
in place a few years ago that was really a pilot program. It 
was very well received and done very well. We had hoped to 
expand that, but there were some differences between the Office 
of the Special Trustee and the Bureau and we did not do that. I 
just would hope that you would be willing to work with the 
committee to try to expedite that and leverage some money to 
appropriate whatever land we need for that consolidation 
program so that we can allow tribes to use that land because 
you cannot use a piece of land when there are 150 owners on 10 
acres, and that is what it amounts to now. So, I would ask for 
your help on that.

                           FIRE PREPAREDNESS

    Let me go to something else so I do not hog the time here, 
and that is fire preparedness. Several members have mentioned 
the difficulty we are having in the West. When the head of the 
Forest Service, Chief Bosworth, was in to testify, I remember 
asking him his response in view of so many new fires this year. 
We have had, I think, 60 in Colorado alone this year, over the 
number we had last year. Throughout the West, that is 
happening. I asked him about his budget if it was adequate, or 
if we were going to have to deal with some kind of an emergency 
supplemental for it. He said, no, he did not think so, that 
they would be able to borrow money from other accounts. Well, 
sooner or later, you have got to pay the money back. It comes 
down to whether we are going to be able to provide the money to 
be able to pay back the accounts I guess that it is borrowed 
from.
    But I wanted to know in Interior--most of those fires are 
on BLM land or maybe park land--how is your funding? Is it 
going to be adequate to get us through the season?
    Secretary Norton. In terms of the emergency suppression 
type activities, we have the ability to borrow money from 
construction funding, land acquisition funding, and other no-
year money.
    Senator Campbell. That is a form of borrowing also from 
other accounts.
    Secretary Norton. In essence, it is. So, we do not face any 
situation of running out of money to be able to suppress fires, 
but it is something we do need to then come back and work on 
supplementals to backfill that money essentially.
    Senator Campbell. Do you have an estimate of where you are 
going to be in light of these devastating fires in the West? 
And I know they do not have a boundary. The fires do not care 
if it is BLM land or Forest Service land. Once they are raging, 
you know how it works.
    Secretary Norton. Once we have to tap into the emergency 
money, we are over and above this, but we do have money that is 
appropriated directly for suppression activities. That is $160 
million. So far we have spent about $60 million. Obviously, we 
are way ahead of where we usually are at this point in time.
    Senator Campbell. In spending.
    Maybe one last question, back to the BIA budget. You might 
not have the answer to this, but I was looking at some charts a 
while ago, and I understand that the IHS recently testified 
that 50 percent of its total budget is now administered by the 
tribes under the Self-Determination Act. That is something I 
absolutely support. If they have the ability and the 
infrastructure and all the things it takes to administer the 
programs themselves, they ought to do it. It is a better and 
more efficient use of our tax money.
    What percent of the BIA budget is directly administered by 
the tribes under that act? Would you know that offhand?
    Secretary Norton. I do not know the exact number offhand. 
We would be happy to provide that for you. We certainly do 
encourage self-determination.
    [The information follows:]
BIA Budget Directly Administered by Tribes Under the Self-Determination 
                                  Act
    Fiscal year 2001 data, the latest for which data is available, 
indicate tribes administer 49.6 percent of the BIA budget.

    Senator Campbell. I appreciate it. Thank you, Madam 
Secretary. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.

                       LEAVENWORTH FISH HATCHERY

    Madam Secretary, I know you are personally familiar with a 
little project on the Leavenworth fish hatchery in Washington 
State and efforts by the Icicle Creek Watershed Council to try 
and remove the old weirs and structures that are blocking fish 
passage to a lot of our high quality habitat. Those structures 
were actually built by the Bureau of Reclamation when they were 
doing construction of Grand Coulee Dam and they have been 
managed by the U.S. Fish and Wildlife Service for many decades.
    There is an EIS that has been completed to remove the 
structures. Absolutely everybody supports it. But our problem 
is that the Bureau of Reclamation and the Fish and Wildlife 
Service both say that it is the other agency that is 
responsible for conducting the work, and we have been going 
back and forth with this battle.
    I want to provide some money to help them get this along, 
but we do not know which subagency actually to assign that to. 
Would you please tell me today which agency will be 
implementing the CIS plan?
    Secretary Norton. I will get back to you with an answer on 
that. Frankly, this is an item that I have on my agenda to talk 
with both of those bureaus for the fiscal year 2004 budget 
cycle. So, we certainly are looking at that.
    Senator Murray. Well, we want to get some money. They have 
been waiting a long time, and if you can answer that question 
for me very quickly, I would really appreciate it. We need to 
know which agency.
    Secretary Norton. I will be happy to work with you on that.

                    BUREAU OF INDIAN AFFAIRS BUDGET

    Senator Murray. Let me go back to the budget for the BIA 
too because I also share a lot of concern that I have already 
heard here. I know that you were able to keep that increase 
very low--it is only 1 percent--by cutting some very specific 
programs that are very important to a lot of members and 
tribes. Your budget eliminates the funding for timber, fish, 
and wildlife program, Lake Roosevelt management, Endangered 
Species Act management, Upper Columbia United Tribes program. 
It cuts shellfish funding which is a high priority. These kinds 
of programs in the Pacific Northwest are what allow our tribes 
to do what we require them to do, which is to manage their 
natural resources in cooperation with the State and Federal and 
local governments.
    Are you willing to go back and work with us to include 
these accounts in the future?
    Secretary Norton. I understand that most of those are 
specific earmarks for specific projects. We tried to work on 
those things within the context of overall programs, so that we 
are allocating the funding appropriately on a nationwide basis 
because we have responsibilities to make sure we are trying to 
do the right thing across the country.
    Senator Murray. In the Pacific Northwest, and I assume in 
many areas, part of what we need our tribes to do is to manage 
their natural resources effectively. And we require them to do 
that with our State, Federal, and local officials. If they do 
not have the funding to do it, they cannot have the people and 
personnel in place to do it. So, they are very important 
programs.
    Secretary Norton. One aspect of our Landowner Incentive 
program is for tribes. There is funding available specifically 
for tribes as a part of that program. We would be happy to work 
with you on that aspect of it.
    Senator Murray. Okay, good.

                       LAW ENFORCEMENT INITIATIVE

    Well, another area for Indian country that is really 
important is the funding and resources for law enforcement and 
tribal courts. We know that Native Americans suffer a much 
higher rate of violent crime than any other population group, 
and we all know that tribal courts are underfunded.
    Can you please tell us your thoughts on continuing the law 
enforcement initiative in Indian country? That is cooperation 
between your Department and the Department of Justice that was 
begun a few years ago that is very important.
    Secretary Norton. Another aspect of our overall law 
enforcement initiative is trying to look at our BIA programs 
and looking at law enforcement programs across the board. So, 
that will be one aspect that we will be looking at as we go 
through our reorganization. We will get some information back 
to you on the law enforcement programs that are being done in 
cooperation with the Justice Department.
    [The information follows:]
              Cooperative BIA/DOJ Law Enforcement Programs
    In 1997, the Secretary of the Interior and the Attorney General 
worked with tribal leaders to develop a multi-year collaborative 
initiative to combat rising crime rates in Indian Country. A joint BIA/
DOJ law enforcement initiative was initiated in fiscal year 1999. Over 
the past two years, DOJ has provided grant funds to tribes for tribal 
officers and equipment, tribal courts, and tribal detention center 
construction. BIA has used additional funding to hire additional 
officers, improve radio systems, replace vehicles, strengthen basic 
detention services, bolster tribal court systems, and funnel additional 
resources to at-risk children.
    The BIA operates law enforcement programs and funds tribally 
operated law enforcement services throughout Indian Country. Since 
DOJ's budget has included detention center construction funding, the 
BIA has suspended its detention center replacement program since fiscal 
year 1998. However, BIA has maintained its responsibility for funding 
the operational costs of these facilities.
    The BIA promotes working relationships with various offices within 
the DOJ for the overall benefit of Indian country law enforcement. The 
Federal Bureau of Investigation provides training and technical 
assistance to Indian Country law enforcement officers. Training is 
designed to develop a highly trained professional law enforcement cadre 
to better serve Indian country enabling both BIA and tribal officers to 
be more autonomous and effective in their major investigations. More 
effective fieldwork helps ensure productive and effective prosecutions.
    The FBI sponsors and supervises the Safe Trails Task Forces (STTF) 
which currently operate throughout Indian Country. STTF's are joint 
operations designed to investigate and prosecute major crimes occurring 
in Indian country. STTF's are staffed by FBI and BIA Special Agents, 
and State, local, and Tribal police officers. STTF's have led to the 
prosecution of numerous large scale cases by utilizing the resources of 
Federal and local law enforcement agencies to investigate the 
production and sale of illegal drugs.
    The Drug Enforcement Administration (DEA) offers training and 
technical assistance to Indian country law enforcement officers on 
vehicle stop drug interdiction, major drug investigations and 
clandestine laboratory processing and investigation. Vehicle stop drug 
interdiction has become a successful and vital aspect in the movement 
of drugs through Indian Country.
    The Immigration and Naturalization Service (INS) and U.S. Border 
Patrol (USBP) work closely with BIA and tribal law enforcement officers 
to address the problem of smuggling undocumented aliens, controlled 
substance and other contraband, through Indian country. The BIA is 
currently working on an in-depth project concerning northern and 
southern border initiatives some of which has expanded into the realm 
of antiterrorism. The BIA is currently working on a project to utilize 
the USBP's canine training division to train both dogs and their law 
enforcement handlers.
    The cooperation between the BIA and the USBP focuses on reducing 
undocumented aliens and contraband entering the United States through 
Indian Country jurisdiction near both borders. The utilization of the 
USBP canine training division will provide the much needed asset of 
canine officers capable of searching for escaped or missing persons, 
drugs, explosives as well as other canine patrol functions.
    The Office of Tribal Justice (OTJ) and the Executive Office for the 
United States Attorneys provide guidance and coordination on legal 
issues impacting law enforcement in Indian country. The U.S. Attorney's 
Office provides technical assistance and training on various aspects of 
the Federal prosecution process and on major case investigations 
occurring in Indian Country. Assistance from the U.S. Attorney's Office 
provides officers and agents with foundation to ensure the legal 
aspects of criminal prosecution are addressed.
    Community Oriented Policing Services (COPS) has awarded COPS grants 
to numerous tribal programs throughout Indian Country. The BIA-OLES 
continues to generate dialog with the COPS office in an attempt to 
secure continued financing of this much needed program whose efforts 
have shown significant positive impact in Indian Country.

    Senator Murray. I would really appreciate that because I 
think they are very important initiatives.
    Let me just say I also noticed that you did not request the 
$14 million that is needed to hire staff at our new detention 
facilities that were built with funds from DOJ. We have new 
Washington State facility for the Colville Confederated Tribes. 
They do not have any money to hire the personnel for it, and it 
is scheduled to open in the fall of 2003. I wondered if you are 
aware that if this $14 million is not provided, there are as 
many as 10 completed facilities already built that will remain 
vacant while tribes wait for funding to hire the personnel. I 
wanted to know if you would work with us on this crucial 
funding that these tribes need in order to use those buildings 
that have been built.
    Secretary Norton. I am not aware of that situation, so let 
me look into that and provide an answer to you.
    Senator Murray. Thank you. I appreciate it very much.
    Thank you, Mr. Chairman.
    [The information follows:]
                Funding for New BIA Detention Facilities
    Staffing and operational funds will be needed to open 16 new 
detention facilities being built by the Department of Justice (DOJ). 
BIA will operate three of the facilities and tribes will operate the 
remainder. An additional 56 FTE is required to staff two of the 
facilities that will be BIA operated. Two of the facilities have been 
fully funded for staffing and operational costs. Ten facilities have 
received partial funding. Additional funding will be required at 
facilities that are scheduled to open by fiscal year 2004. These 
funding needs are being considered in the fiscal year 2004 budget 
formulation process.

    Senator Dorgan. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman.
    Senator Feinstein, I will not be very long.

                FUNDING FOR INDIAN SCHOOLS AND COLLEGES

    Madam Secretary, I think it might serve you and us well if 
you would take a look at the various colleges or post-high 
school facilities that are allegedly for our Indian people, 
either in whole or in part, and submit to us, through the 
chairman, what are they. That sounds like a crazy question, but 
essentially these schools do not know what they are. They come 
up here and say, would you get us $1.5 million because the 
Navajo government will not give us any money? This is an 
ongoing college with kids attending. Another one will come up 
and say, will you make sure that the Department of the Interior 
funds us because they have not been fully funding us? I think 
all of us ought to know what our responsibilities to the 
various colleges are. I have never seen it addressed, and I 
keep working ad hoc to help these schools.
    I have two or three in my State that I make sure get 
funded, and they have turned out to be very, very good. In 
fact, I would say if you are visiting New Mexico, in Bernalillo 
County, Albuquerque, there is a multi-state Indian school 
called SIPI. It is a full-blown technical vocational school of 
very high quality. It can be one where you could claim we are 
doing our job right. I do not know if we are doing the job 
right everywhere, but that is one.
    [The information follows:]
           BIA Funded Tribally Controlled Community Colleges
    Currently, the BIA funds 26 Tribally Controlled Community Colleges 
(TCCC) under the provisions of Public Law 95-471, the Tribally 
Controlled Community College Assistance Act. Of these, 25 are 
authorized under Title I provisions of the law, and one, Dine College 
(Formally Navajo Community College) is funded under Title II of the 
law. Public Law 95-471 provides for funding one TCCC per tribe. These 
institutions are authorized by individual tribes and operate under 
control of Tribal Boards of Regents. Tribes may establish other TCCCs, 
but only one is authorized for funding under Public Law 95-471. 
Additionally, the BIA operates and funds two post-secondary schools 
providing services to all tribes--Southwestern Indian Polytechnic 
Institute (SIPI) and Haskell Indian Nations University (HINU).
    Funding the Crownpoint Institute of Technology (CIT) is authorized 
under the Carl Perkins Act (Public Law 105-332) while the United Tribes 
Technical College (UTTC) has previously operated under contract with 
the BIA to provide education services in the North Central Plains 
States. Although Congress has provided funding in the past, BIA's 
fiscal year 2003 budget request does not include funding for CIT or 
UTTC due to other higher funding priorities for Tribes on a nationwide 
basis.
    Since the Navajo Tribe operates Dine College under Public Law 95-
471, the Navajo tribe may not seek funding for Crownpoint under 
provisions of Public Law 95-471 which authorizes TCCCs. United Tribes 
Technical College is not sponsored by one tribe (it was established by 
a consortium of tribes) and, hence, does not meet the criteria 
established for funding under the provisions of Public Law 95-471. 
Therefore, under existing provisions of Public Law 95-471, these 
schools are not eligible for TCCC funding. In previous years, Congress 
has provided funding for these institutions as economic development 
under Special Programs and Pooled Overhead.

    Senator Domenici. Let me move on for a minute. You heard my 
observations in a few opening remarks that I made with 
reference to how different our forests seem to look now 
compared to 35 years ago or 40 years ago when I was--I do not 
want to tell you how old, but older than 20, 30. How does that 
sound? You could walk in the forests and there were big trees, 
and most of them are not like that today.

                      POLICY FOR FOREST MANAGEMENT

    I just wonder if you could tell us whether you have a 
policy for forests in the United States that causes that? Why 
are some forests in the Jemez Mountains of New Mexico full of 
old trees and easy to walk in?
    As a matter of fact, I might tell you there are many people 
who hunt mushrooms among those pine trees. I hope you do not 
laugh too much. The entire Italian American community of 
Albuquerque used to have great fun hunting mushrooms. They are 
okay. None of them died.
    But you could walk through the forest and they did not burn 
very often. I just wonder if we have a policy or if there is a 
policy being thrust upon us. And there is another piece of the 
forest that you see, after a beetle infestation or a fire burn. 
In one area, you will see people cleaning it up maybe 1\1/2\ 
years after it happens; in another, it is sort of like somebody 
put a sword in the ground and said, you will not touch this. 
So, there sits the burned trees until they rot and there sits 
the infested trees. People that drive by wonder what we are up 
to. What is with this? I think it would be great if you would 
tell us what is with it. Not now. But this is a very important 
and complex issue and we keep fighting around the edges. I am 
not sure we really know what the policy is.
    Secretary Norton. Senator, you are right. It is a very 
large issue and perhaps more than we have time for. But I have 
seen exactly the same thing in my experience with watching 
Colorado forests. Just as we were flying over the fires the day 
before yesterday, we saw the beetle-killed trees that are right 
on the edge of the areas that are burning. So, if one out of 
every five trees is a dead, dry tree, that certainly makes fire 
fighting more difficult.
    Our forests today, according to a study that was done a few 
years ago, are ten times as dense as they were in 1900. So, it 
is no misperception on our part that the forests look a lot 
different than they did a few decades ago. We had fire 
suppression as a major program----
    Senator Domenici. Is that good? As stewards of America's 
forests, is that good?
    Secretary Norton. It is very bad. It is very unhealthy. The 
ecosystems of our forests are in tremendous imbalance, and we 
need to work to restore that balance.
    We just signed an agreement with the Western Governors on a 
bipartisan basis that I think puts in place a great program to 
begin making those changes. We really need to make fundamental 
changes in the way that we manage our forests. It is a long-
term undertaking.
    Senator Domenici. Mr. Chairman, I believe that this is a 
fundamental issue for us. We put a lot of money in to forest 
management and we do not know from time to time which of these 
forests is going to turn out which way. I think it depends upon 
Federal judges and local tribunals and who files a suit and who 
does not. But I for one would urge that you, as chairman of the 
committee, ask for some kind of statement of policy on this 
issue. I think it is the most important one confronting us 
because if we are going to say let the forests burn down is a 
good policy, then we ought to know it and tell our people. We 
ought to tell Denver, tell Los Alamos 2 years ago, well, just 
do not worry. That is our policy. We just hope it does not burn 
you down. Which I cannot believe is our policy.

                             SILVERY MINNOW

    Let me move on. In Albuquerque and on the Rio Grande River, 
there has been a recent decision with reference to endangered 
species, the minnow. I think you might have been in our State 
right in the middle of the adjudication of this situation, or 
at least you should be aware of the decision.
    Secretary Norton. Yes.
    Senator Domenici. There is a Federal court decision. I do 
not know if the time to appeal it has run. But essentially for 
some people it was not a shock, but for this Senator it surely 
was. I did not believe the decision would come down like it 
did.
    What is the position with reference to an appeal on the 
part of the U.S. Government, or is it too early for me to ask 
you?
    Secretary Norton. Let me get back to you with that 
information on where we are in the litigation.
    [The information follows:]
                         Litigation Background
                             minnow v. keys
    This litigation began in 1999 when environmental groups represented 
by the Land and Water Fund of the Rockies (Plaintiffs) sued the Bureau 
of Reclamation and the Army Corps of Engineers for alleged violations 
of the Administrative Procedure Act (APA), the National Environmental 
Policy Act (NEPA), and the Endangered Species Act (ESA).
    In an April 19, 2002 opinion, Chief Judge James A. Parker upheld a 
June 2001 Biological Opinion issued by the Fish and Wildlife Service. 
In that decision, however, Judge Parker also held that Reclamation had 
improperly limited the scope of its ESA consultation and that it had 
broad discretionary authority to use natural Rio Grande flows 
associated with the Middle Rio Grande Project and the San Juan-Chama 
Project for the silvery minnow. Therefore, Reclamation would have to 
consult over the exercise of that authority for the benefit of the 
silvery minnow if and when it reinitiated consultation.
    Although the United States filed a protective notice of appeal and 
intervening parties filed notices of appeal, the Tenth Circuit 
dismissed the appeals for lack of jurisdiction.
    This year brought a drought of unprecedented proportions. Reserve 
water supplies in the Basin have been relied upon heavily in the past 
several years to provide water to protect the silvery minnow. The 
severe drought conditions and limited water supply eventually warranted 
reinitiation of consultation under section 7 of the ESA. On August 2, 
2002, Reclamation reinitiated consultation over a new proposed action 
for the remainder of this water year only. As the drought continued to 
worsen, Reclamation learned that the water supply the Middle Rio Grande 
Conservancy District (MRGCD) leased from Albuquerque would last two 
weeks less than expected, thus providing less water than expected the 
downstream stretches of the river. On August 30, 2002, Reclamation 
again amended its proposed action in consultation with the FWS, this 
time proposing to keep only the Albuquerque stretch of the river wet 
and only as long as supplemental water supplies from willing sellers 
remained available.
    On September 4, 2002, Plaintiffs filed a Motion for Emergency 
Injunctive Relief asking the court to order Reclamation to continue to 
meet the terms of the June 2001 Biological Opinion for the remainder of 
the calendar year. Plaintiffs sought a court order compelling 
Reclamation to release water from an upstream reservoir (Heron) to 
continue meeting the flow requirements of the June 2001 biological 
opinion to avoid alleged jeopardy and unlawful ``take'' of the silvery 
minnow.
    On September 12, 2002, the Service issued a new Biological Opinion. 
According to the Service, Reclamation's proposed ongoing operation of 
the Project would jeopardize the continued existence of the species, 
but there was no reasonable and prudent alternative (RPA) to the 
proposed action that would alleviate jeopardy to the species. Relying 
on hydrological information provided by Reclamation, the Service 
concluded that given the extremely limited quantity of reserve supplies 
in the Basin, any Heron water releases in 2002 would also jeopardize 
the minnow. The Service concluded that it would be better to keep the 
limited water resources available for a flow spike to signal minnow 
spawning next spring and to be managed to keep at least some stretches 
of the river wet if the drought persists.
    On September 23, 2002, Judge Parker found that the Service's 
September 12 Biological Opinion was arbitrary and capricious. Judge 
Parker ordered Reclamation to comply with the action as proposed in its 
August 2, 2002 letter to the Service.
    On October 16, 2002, the Tenth Circuit Court of Appeals granted the 
City of Albuquerque and the State of New Mexico's request for an 
emergency stay of Judge Parker's order. The United States' request for 
expedited appeal was also granted, and appellate briefs are due to the 
Tenth Circuit in 30 days. The Department of the Interior will be 
working closely with the Department of Justice on the appeals process.

    Secretary Norton. As to the silvery minnow issue overall, 
we worked for several months with the city of Albuquerque and 
with the water users along the way. We were pleased that we 
were able to enter into an agreement to purchase some water 
that Albuquerque brings in from the Colorado River and to 
provide some funding for water for the fish as well as water 
for the irrigators. That, I think, is a much better outcome 
than we might have achieved otherwise.
    Senator Domenici. Well, Madam Secretary, just so you will 
know, we did that before you arrived without an agreement. We 
put money in the appropriation bill for the Bureau of 
Reclamation to fund the acquisition on a 1-year basis, one at a 
time. Now you just reduced it all to writing, but we have had 
that agreement with the subcommittee that I chaired, now 
chaired by Senator Harry Reid. But the water is only acquired 
for 1 year. So, the fish is not a taking. It is only borrowing 
through this five-party agreement. That is not going to last 
forever. The minnow issue is going to perk up again, and I 
think our State needs to know what the Federal Government is 
going to do about that case.
    Secretary Norton. I have had some of my top people working 
very closely on that. I think we have made substantial progress 
on it.
    Senator Domenici. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Dorgan. Senator Domenici, thank you very much.
    I am going to call on Senator Feinstein in one moment. I 
want to ask just a brief question and then I may have to depart 
before Senator Feinstein concludes. So, she will chair and then 
conclude the hearing.
    We will also ask that those who have questions will have 
until 5 p.m. tomorrow evening to submit questions for the 
record. We will do that without objection, and Senator Byrd and 
I will also submit a series of questions, Madam Secretary.
    I do not know that I pinned you down quite enough. Can I 
get a half an hour of your time when you are in Bismarck? I 
will not be able to be there because the Senate is in session, 
but can we ask that you spend 30 minutes on the way to or from 
the airport with Dr. Gipp at United Tribes? A quarter mile from 
the turnoff.
    Secretary Norton. My scheduler will probably kill me for 
saying this, but yes, I will do that.
    Senator Dorgan. Have your scheduler call me. I will run 
interference with your scheduler.
    Secretary Norton. I know we have had some real difficulty 
getting the arrangements made.
    Senator Dorgan. I understand. Well, thank you very much for 
that commitment. And I will call while you are there just to 
make sure you are going there.
    Not that I in any way ever doubt that, but I would like to 
call in just for a moment while you are there. But thank you 
for being willing to do that.
    Let me go back to just this very brief point. Madam 
Secretary, in many areas I agree with what you are doing. In 
some areas I do not agree. I voted for your confirmation. You 
have a very difficult job. You control a great deal of 
resources and have responsibility for a lot of public land.
    We rank, by the way, in North Dakota, I will say to Senator 
Feinstein, 50th among the 50 States in native forest lands. In 
other words, we are dead last in trees. So, while I find it 
interesting for all these folks to be talking about trees, we 
do not have any.

                      NEEDS ON INDIAN RESERVATIONS

    But it goes back to the question I asked earlier, if I can 
just make this brief point. We do have Indian reservations, and 
there is such desperate need there. I worry a great deal that 
this budget is not reflecting the right priorities when it 
proposes new initiatives. The conservation initiative might be 
fine. I do not know, but at $100 million for a new initiative 
to provide grants in areas where we have a substantial amount 
of grant authority already existing, and then to see United 
Tribes, the tribal colleges reduced, a 1 percent increase in 
the BIA programs, there is just such a compelling need there. I 
really think we have missed the priority.
    I do not know how much of that originates with you or the 
Department because I know the way this comes up back through 
OMB, but I would like us to talk about that at some point 
because this is not a case of simply saying, gee, this would be 
nice to fund. These are urgent, urgent needs. There are kids 
who are dying on these reservations for lack of adequate health 
care. I talk to these people all the time who suffer because 
they do not have adequate access to housing and health care.
    I would just make one final point, Senator Feinstein. I am 
sorry to take your time here. I apologize.
    Senator Feinstein. That is all right.
    Senator Dorgan. I have been told of the woman on the South 
Dakota reservation that froze to death about a year ago, laying 
in a house at 30, 40 below, she and her grandkids, without 
beds, with plastic sheeting covering the windows. There is 
clearly an urgent situation in housing, health care, and 
education on these reservations. And we must address it. Shame 
on us if we do not.
    And it is not Democrat or Republican. Every administration 
since I have been in Washington has underfunded these programs 
and not paid adequate attention to the emergency that exists 
right here in our country. So, I just ask you to work with us, 
and I hope we can have a conversation about it because I do not 
think this budget reflects that urgent priority that is 
necessary.
    Let me again thank you, Madam Secretary, for coming today, 
and let me call on Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.

                            CARGILL PURCHASE

    Madam Secretary, I have another thing to thank you for and 
that is for your cooperation in the Cargill purchase, the 
purchase of the 16,000 acres of salt flats. I want you to know 
that that went very well. The agreement is being finalized. I 
know that the California State legislature, Byron Sher's 
committee, is going to be holding a hearing. I think there was 
some confusion that some people thought it had something to do 
with runway expansion at San Francisco International. It does 
not. Not at all. I think we have got a very good agreement. You 
have been wonderful, and we got it done.
    For me, particularly exciting was having the cooperation of 
the Gordon Moore and the Hewlitt and the Packard and the 
Goldman Foundations. It made the purchase a lot easier. They 
are going to use their people to help us with the remediation 
and the oversight. So, it has been really a wonderful 
experience putting that together. And you have been there with 
us all the way, and I want to say thank you for that.
    Secretary Norton. Thank you. It is a spectacular addition 
to our wildlife refuge system. It is an incredibly important 
ecosystem that we will be restoring.
    Senator Feinstein. Yes, I really agree with that. Thank you 
very much.
    Secretary Norton. You bet.

                         CALIFORNIA OIL LEASES

    Senator Feinstein. The second thing I want to ask you 
quickly about is on the subject of oil leases. I read where 
there is going to be action on the oil leases off the Florida 
coast. The California coast has 36 oil leases. They are under 
the jurisdiction of the California Coast Commission. They are 
not going to drill off the coast of California. We have fought 
this battle for 30 years. I think there was a misimpression by 
the President that Californians do not care about this. As a 
matter of fact, overwhelmingly Californians do care.
    The thing that occurs to me with these 36 leases is that we 
might be able to effect a trade and really move them out of the 
area. What I would like to do is work with a certain member of 
your staff to see if such a thing is possible and we cannot get 
this issue resolved.
    Secretary Norton. There are several aspects of this that I 
should mention. First of all, we have looked at those leases, 
and we are in litigation about them. That is still at a very 
early stage as opposed to the Florida situation where the 
litigation had been underway for several years. So, there 
obviously are issues like valuation and so forth that 
crystallize as you go through litigation that have not yet done 
so in the California situation. We certainly will continue to 
work with you on that.
    California is somewhat different than Florida in terms of 
the State's position on additional drilling taking place 
offshore. We do recognize that the State policy has been 
somewhat different than Florida has been.
    We also have some very severe difficulties for us, and one 
of the major issues that needs to be addressed is the 
litigation that the State of California has undertaken about 
interpretation of consistency under the Coastal Zone Management 
program. The implications of the Florida litigation hamper our 
ability to manage the offshore activities in the active 
producing areas like the Gulf of Mexico. So, we have taken the 
position that is the same position as the previous 
administration took in that litigation because of the impact on 
our other activities. We have had some discussion with the 
State about that, but I think it is important for you to 
understand that we have nationwide implications about the 
State's litigation that we are very concerned about.
    Senator Feinstein. Perhaps we should talk further because 
in my view this could all get resolved if there is an outcome 
that will be agreeable to all parties. I think there could be 
an outcome that would be agreeable to all parties. In any 
event, I would like to work on it because I do not think this 
litigation makes any sense. It is going to go on.
    There is not going to be drilling off the coast of 
California. I mean, there is just too much public sentiment 
against it, and we have had some massive problems from oil 
drilling, particularly in the Santa Barbara area where most of 
these leases actually are. So, it is not going to happen. Let 
us see if we can resolve it in a way that there is a balanced 
and fair result for everybody concerned. I just want to 
indicate to you I would like very much to work with you to get 
that done.
    Secretary Norton. I would be happy to work with you.

                        COLORADO RIVER AGREEMENT

    Senator Feinstein. The third thing I want to ask has to do 
with the Colorado River agreement and it has to do with the 
Imperial Irrigation District and the meeting that I spoke 
earlier about yesterday. See, it became very clear that when 
David Hayes negotiated the Colorado River agreement to give 
California what is called a soft landing--in other words, a 
gradual reduction of the take of water from the Colorado--the 
Salton Sea did not figure into it because it was thought at 
that time Salton Sea would be settled by then.
    Well, the Salton Sea is not settled, and there is deep 
concern by the Imperial Irrigation District that obviously they 
do not want to be forced into a fallowing situation and then be 
responsible for the Salton Sea. There is an endangered species 
problem there, and it is very difficult.
    My point for this little dialogue is that we need to see 
Interior's Salton Sea alternatives report ASAP. And I want to 
ask if you could perhaps see that that gets done. Everybody 
needs to see what the Salton Sea recovery costs are. A, is it 
possible? B, what does it cost?
    There are a lot of misimpressions floating around. Bennett 
Raley cleared up one of them for us yesterday, and that 
misimpression was that you could do a sort of dyking proposal 
for $300 million. He said it is not true. It is $900 million. 
Well, that alternatives report I think really figures into our 
ability to get the Colorado River agreement carried out and to 
move those four irrigation districts.
    Secretary Norton. I do not know that we have something that 
lays out all the alternatives and the costs in quite the way 
that you are talking about. But I do know there is a lot of 
misinformation out there about the possibilities. So, let me 
check. We would be happy to provide the information.
    [The information follows:]
               Salton Sea Restoration Alternatives Report
    The Department of Interior is in the process of preparing a report 
on restoration alternatives for the Salton Sea that is not complete. 
Very shortly, the Secretary intends to transmit a letter to Senator 
Feinstein, detailing the status and timeframe for completion of the 
Salton Sea Restoration Alternatives Report.

    Senator Feinstein. Really sooner rather than later because 
we have got to get an agreement because, as you know, the EIR 
for this quantification agreement has to be done by the end of 
December or it puts everybody in a terrible position of what 
might happen with your declaring a nonsurplus situation on the 
Colorado and a major taking of water.
    Secretary Norton. We certainly appreciate your working with 
us and working with the irrigation districts and the southern 
California governments to help them understand the seriousness 
of the situation. So, we look forward to continuing to work 
with you as we tackle a very serious challenge coming up in the 
next 6 months.
    Senator Feinstein. Right, because the bottom line that is 
stopping everything is the Salton Sea. And how much 
responsibility the Imperial Irrigation District would have and 
what kind of liability they would have if the tailing water 
stops going into the sea. In a great way, it is unfair because 
when the agreement was negotiated, the Salton Sea was not a 
concern, and now it is and there is a huge species issue. There 
is a huge endangered species issue, the possibility of suit, 
tremendous liability. That is why I think we need to bite that 
bullet and take a look at the sea and make some decisions as 
quickly as we can to get this other agreement consummated.
    Secretary Norton. We will certainly continue working 
closely with you.
    Senator Feinstein [presiding]. Thank you very much. I 
appreciate it.
    Senator Burns.
    Senator Burns. Present.
    Senator Feinstein. And accounted for.

          LANDOWNER INCENTIVE AND PRIVATE STEWARDSHIP PROGRAMS

    Senator Burns. Your Landowner Incentive and Private 
Stewardship programs--I know you are kind of proud of those and 
I noticed Congress providing funding for two new conservation 
programs in fiscal year 2002, $40 million for the Landowner 
Incentive program and $10 million for Private Stewardship 
grants programs. I guess I got a couple of questions on those.
    We are asked to start yet another program here. I have the 
feeling that we may be getting too many tools in the 
conservation tool box. And I am a promoter and a supporter of 
both programs. When does the Department intend to make those 
grant awards for those programs? Because none of those funds 
have been expended yet from last year.
    Secretary Norton. On the Landowner Incentive and Private 
Stewardship programs, we really wanted to have those be 
effective tools for the States and local governments because 
part of that relies on State implementation. We have had to 
build a relationship with the State wildlife agencies because 
that did not really exist as strongly in the past as we needed. 
And we had to get our management team in place. It was not 
really until February that we had our Director of the Fish and 
Wildlife Service and our Assistant Secretary for Fish, Wildlife 
and Parks in place.
    They have been working very hard since then and consulting 
with the affected governments on these programs. We published 
the guidance criteria and ranking criteria on a proposed basis 
in the Federal Register on June 7. So, we are now moving 
forward with that. We think we have good general agreement on 
how those programs can operate.
    We really wanted those to be ones that would be workable 
for the private landowners so that a farmer or rancher or other 
landowner would be able to understand and access that funding 
fairly easily instead of having it be too complex a process. It 
has taken some time to get criteria in place that will allow a 
user friendly kind of process.
    Senator Burns. Madam Secretary, you might tell the 
committee of one now--I think it is a good idea. I ask 
unanimous consent that we go to the mark.
    You might tell this committee how these three programs 
differ from the Partners for Wildlife program. You have got 
that one. You have got the Cooperative Endangered Species 
program, the NAWCA program, and other grant programs 
administered by the U.S. Fish and Wildlife Service. Can you 
provide a chart for the record that explains the differences 
among these various programs?
    Secretary Norton. We would be happy to do that. I think we 
could get that to you fairly quickly. Each of the programs has 
a little different emphasis and is designed to achieve a 
somewhat different result.
    [The information follows:]



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Burns. I think the committee needs to do that 
because if we are scratching for money and all of them are 
doing maybe essentially the same thing, well, I think we should 
have those side by side so if we have to pick and choose 
which--you might rank them in priority too because I just have 
a feeling that they may become very important.

                        CABIN SITES AT FORT PECK

    The transfer of the cabin sites at Fort Peck, Montana. Last 
year you indicated to me that the Fish and Wildlife Service had 
to do some work necessary to begin the cabin site sales, and 
that work could be done by December of 2001. Are there any 
remaining tasks for the Fish and Wildlife Service to complete 
before those sales can begin?
    Secretary Norton. Let me defer to John Trezise to answer 
that one.
    Mr. Trezise. Thank you, Madam Secretary.
    Senator Burns, we did not meet the December date, but on 
June 11, the Fish and Wildlife Service wrote to the Corps of 
Engineers on the budget issues for the project, and I believe 
that now puts us in the position for the Corps of Engineers to 
proceed.
    Senator Burns. Well, I understand the Corps of Engineers 
work was all done.
    Mr. Trezise. They were waiting for the Fish and Wildlife 
Service and the service has now acted.
    Senator Burns. But the Service does not have their work 
done.
    Mr. Trezise. No. It has now provided the Corps the 
information that it needs to proceed.
    Senator Burns. Okay. Is this item included in the Fish and 
Wildlife Service budget this year?
    Mr. Trezise. Well, this is a Corps of Engineer budget 
issue. The question has been the cost of the Fish and Wildlife 
Service to facilitate this transfer. However, that cost would 
be paid by the Corps.
    Senator Burns. By the Corps.
    Mr. Trezise. Yes, and I believe the Corps does have the 
funding.
    Senator Burns. I have got a couple of questions I am going 
to submit in writing. I think we pretty much covered PILT. 
Border security. We want to welcome you, Madam Secretary, to 
the State in the next week and a half. I think we will probably 
be visiting with you about the bison arrangement in Yellowstone 
Park, and we will probably be talking about wolves and elk 
numbers and calf numbers and this type thing. So, that is all 
the questions I have.
    I notice my colleague from New Mexico has rejoined the 
committee and I would recognize him.
    Senator Domenici. I am just going to talk to her before she 
leaves personally.
    Senator Burns. Well, I tried to go to a mark, Senator 
Domenici, but I was shut down by the staff back here.
    That is all that I have. Madam Secretary, thank you for 
coming this morning and for your testimony. We look forward to 
working with you as we work our way through this budget 
situation.
    Secretary Norton. Thank you for your attention.

                           PREPARED STATEMENT

    Senator Feinstein. We have received the statement of 
Senator Thad Cochran which will be made part of the hearing 
record.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Mr. Chairman, I am pleased to join you in welcoming the 
distinguished Secretary of the Interior to this hearing. In my opinion, 
Secretary Norton is doing an excellent job managing the Department of 
the Interior and carrying out the duties of this important office. In 
my state we have a very strong interest in national parks and the 
National Seashore which are under the jurisdiction of this Department.
    It is my hope that our committee will approve the funding that is 
needed to maintain these valuable resources and complete the 
construction of the Natchez Trace Parkway. The Parkway attracts about 
fifteen million visitors annually, and upon completion will attract an 
additional two million visitors each year.
    Additionally, I believe the Superintendent of the Natchez Trace 
Parkway should be a Senior Executive Service position. Madam Secretary, 
I hope you and your staff will review this suggestion and consider 
making this change as soon as possible.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. Thank you very much. There will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Robert C. Byrd
                        office of surface mining
    Madame Secretary, you come from a state, like West Virginia, that 
has been blessed with great tracts of natural resources. I have sought 
in my time here in the Senate to protect miners, their families, and 
their communities as best I could. In 1972, 125 people were killed in 
Logan County, West Virginia, when a coal impoundment on the Buffalo 
Creek collapsed. More recently, in October 2000, another coal slurry 
dam, along the West Virginia-Kentucky border failed--and more than 250 
million gallons of slurry poured into regional waterways. Luckily, no 
injuries or deaths resulted from the Inez, Kentucky, disaster.
    In the aftermath of the Inez collapse, I helped obtain $2 million 
to commission a National Academy of Sciences' study. The goal of which 
was to examine evidence and make recommendations to reduce the 
probability of future coal slurry impoundment failures. The NAS 
recommendations are clear--the Mine Safety and Health Administration 
and the Office of Surface Mining lack the clear and distinct authority 
to regulate impoundment basins. Moreover, because mine mapping and 
storage has been accomplished on an ad hoc basis, when at all, there is 
a dangerous lack of information available to communities and mine 
operators.
    Question. What steps is the OSM taking to work with other federal 
and state entities to institute the recommendations made by the NAS? If 
OSM is working with these other entities, are they evaluating the NAS 
recommendations? Are they prepared to recommend any regulatory changes 
or new guidelines based on the NAS report?
    Answer. OSM is working closely with the Mine Safety and Health 
Administration (MSHA) to determine how to best address the 
recommendations presented in the National Research Council (NRC) of the 
National Academy of Science (NAS) study. While OSM worked with MSHA in 
coordinating agency responsibilities and developing technical 
requirements for operating coal slurry impoundments prior to forming 
the NRC study committee, these efforts increased significantly after 
the Martin County Coal Corporation incident near Inez, Kentucky. 
Technical staff from both agencies began meeting after the 1996 coal 
slurry releases in Virginia and they continue to meet to address the 
Martin County Coal Corporation incident and other areas of mutual 
concern.
    Following the release of the NRC report, the agencies agreed to 
form a standing technical team to address issues of mutual concern, 
particularly those related to coal slurry impoundments. The group will 
focus on NRC report recommendations related to mapping, engineering and 
design standards, and monitoring requirements. Additionally, the 
agencies have discussed the other recommendations of the NRC committee 
and have identified priorities for future work. The standing joint OSM-
MSHA technical committee will begin addressing particular actions 
needed to implement the NRC recommendations at its July 2002 meeting. 
As these efforts are ongoing, neither OSM nor MSHA have yet developed 
any regulatory proposals or guidelines based on the NRC report. 
However, as the joint team's work progresses, one or both of the 
agencies may develop additional requirements for impoundments.
    At the same time, OSM is committed to working with the states and 
others on these issues as well. OSM and MSHA plan to host a meeting 
between representatives of the two agencies and the states to discuss 
their role in developing standards and approaches to implement any new 
requirements.
    Not only is OSM working with MSHA, the states and other federal 
entities, OSM is working on its own to address concerns surrounding the 
safety of coal waste impoundments. After the Martin County Coal 
Corporation impoundment failure, OSM developed and implemented a 
regional plan designed to minimize the potential for future impoundment 
breakthroughs into underground mines by:
  --evaluating the factors contributing to the Martin County 
        impoundment breakthrough,
  --developing criteria for evaluating existing high-risk impoundments 
        near underground mines,
  --evaluating state program requirements and program implementation 
        with regard to impoundments, and
  --ensuring effective state evaluation of existing high-risk 
        impoundments through oversight and technical assistance.
    As part of its oversight responsibilities, OSM has made 
impoundments a priority by initiating ongoing evaluations of state 
programs to ensure that they are adequate and that they are effectively 
implemented. A part of this effort includes a determination of whether 
the states are effectively evaluating existing high-risk impoundments, 
identifying problems, and adequately addressing those problems.
    In providing technical assistance on this issue, OSM has made 
resources available to the states to assist them in their identifying 
and evaluating existing impoundments that are of high concern. In 
addition, using its impoundment engineering expertise, and with input 
from states and MSHA, OSM has developed a technical guidance document 
with established criteria that can be used in re-evaluating existing 
high-risk impoundments over or adjacent to underground mines. OSMS 
provided this document to the states in July 2001.
    Finally, OSM has worked to facilitate communication between State 
and Federal agencies involved in regulating coal slurry impoundments 
and related facilities. Through enhanced communication, coordination 
and cooperation, OSM believes that many of the issues related to coal 
waste impoundments can be resolved.
               endangered species--listing program system
    Question. Please update the Committee on your efforts to develop a 
biologically-based priority system for listing species, including a 
timeline for its release.
    Answer. The Service is working to develop a system by which all the 
petition findings, listing determinations, and critical habitat 
designations will be prioritized in a manner that is scientifically 
credible, managerially feasible, and legally defensible. We need a 
practical and reliable protocol for establishing the priority order of 
all our listing actions, based on clear and scientifically defensible 
criteria. We need the public to have confidence in the Listing Action 
Prioritization System. This system will provide the means by which we 
will establish the order for taking action on the hundreds of 
backlogged listing actions. We are committed to developing a system 
that has a sound science foundation and broad public acceptance. We are 
seeking a broad range of scientific and other input from outside the 
Service before developing a proposed rule. We are planning stakeholder 
caucuses to obtain input from various interested groups. The caucuses 
are to be held the weeks of September 9 and 23 with representatives of 
the following interest groups: States, counties, user groups, 
conservation NGOs, Federal agencies, Native Americans, and academic 
scientists. Our goal is to have the final listing priority system in 
place in fiscal year 2003.
             endangered species--consultation and recovery
    Question. To what extent are funds designated for endangered 
species recovery efforts used to perform endangered species 
consultation work? Please provide figures from the fiscal year 2002 
appropriation.
    Answer. In June 2002, GAO issued a report on the Endangered Species 
Program that noted, based on a GAO survey, that Endangered Species 
funding may not be spent in accordance with budgetary direction. While 
the Department believe the report raises valid concerns, we do not 
believe that the fieldwork performed was sufficient to conclude that 
spending on endangered species activities is materially different than 
Congress intended. The Department's efforts to implement Activity Based 
Costing by fiscal year 2004 will help to ensure that endangered species 
activities are accurately charged to budgetary elements. The Service 
will be reviewing its processes for recording time charges and taking 
necessary steps to ensure that the endangered species program is 
adhering to reprogramming policies. The Service will also be providing 
further clarifying guidance to field staff on the types of activities 
that are funded from each program element.
                                  nctc
    Question. There has been no appreciable increase in the NCTC 
training budget request since it opened in October 1997. The last real 
increase NCTC received that was dedicated to training was in fiscal 
year 1998. What has been the impact on training efforts? Has the number 
of courses offered at NCTC declined over the years? If so, why?
    Answer. The number of courses has declined over the years from a 
high of approximately 270 in fiscal year 2000, to approximately 210 in 
2001 and a projected 200-210 in 2002. The decline has occurred due to 
numerous factors, including: a small decline in 2001 and 2002 due to 
the events of September 11, 2001, and shifting resources out of some 
existing courses into higher priority leadership development efforts 
and increasing costs related to NCTC staff salaries and course 
expenses. The Service continues to try to fund its highest priority 
courses within the funds available.
    Question. The Federal Facilities Council standard for routine 
maintenance and repair of a facility of the size and scope of NCTC is 
typically two to four percent of the aggregate current replacement 
value of those facilities. Since the construction cost, which is the 
replacement value, of NCTC is over $100 million, one would estimate the 
budget for maintenance and repair to be $2-$4 million each year. The 
NCTC maintenance budget is only $450,000. What is the rationale for 
short-funding NCTC in the area of maintenance and repairs?
    Answer. The Service is aware of Federal Facility Council standards 
and strives to address the maintenance needs at NCTC. The NCTC facility 
was designed using highly durable building materials to reduce 
maintenance needs in the short-term. NCTC has an active program to 
identify maintenance needs and the highest priority needs are addressed 
as funding allows while other items are deferred until funding becomes 
available. The Service has made a significant capital investment in the 
NCTC and recognizes the need to keep up with maintenance to avoid even 
higher long-term costs.
    Question. I have received a request from Mrs. Jessie Hendrix to 
extend the life use estate for her house, immediate farm buildings, and 
5 acres through the life of her daughter Mary. Does FWS have immediate 
plans or need for the Hendrix House? If not, would it be possible to 
extend the life estate?
    Answer. The Service has no immediate needs for the Hendrix House 
and is exploring options with Mrs. Hendrix and her daughter Mary that 
would meet their needs and desires, while assuring that the interests 
of the government are protected in the long-term.
                bureau of indian trust asset management
    Question. What is the status of your proposal to establish a new 
Bureau of Indian Trust Asset Management?
    Answer. The Secretary has consented to withdraw her proposal for 
two assistant secretaries for Indian Affairs and the Bureau of Indian 
Trust Asset Management in favor of a trust division within the current 
office of the Assistant Secretary for Indian Affairs as proposed by the 
Tribal Task Force.
    Question. If your proposal has been abandoned in favor of the 
recommendations being put together by the Trust Reform Task Force, then 
what is the purpose of the Office of Indian Trust Transition?
    Answer. The Office of Indian Trust Transition will continue to be 
responsible for creating a fiduciary trust asset management system for 
Indian Affairs, completing the development of a trust enterprise 
strategic plan and for integrating the various trust components that 
are located throughout the Department into the new trust system. This 
Office is also responsible for several trust reform components 
including probate, IT systems, and data cleanup.
       landowner incentive program and private stewardship grants
    Question. The Landowner Incentive Program and the Private 
Stewardship Grants program were new initiatives in fiscal year 2002. 
Yet, as this subcommittee prepares to mark up the fiscal year 2003 
Interior bill, I note that the fiscal year 2002 funding has not been 
spent. Given that, how do we evaluate the effectiveness of these 
programs in the context of the fiscal year 2003 request?
    Answer. It has taken longer to develop these programs than we had 
originally anticipated. Early deliberation with interested parties, 
however, will likely result in greater effectiveness during on-the-
ground implementation. These programs expand upon a proven concept--
helping private landowners to voluntarily protect and manage habitat 
for imperiled species--for which we know there is strong demand and 
that are essential to conserving imperiled species. Furthermore, the 
Service has had success in implementing other assistance programs for 
imperiled species. The potential for these programs can be seen in the 
recently published proposed implementation guidelines (67 FR 39414-
39423; June 7, 2002), and by noting the broad array of important 
projects that are likely to be funded.
    Question. If these programs have no track record of success, why 
should Congress provide additional funding in fiscal year 2003? 
Wouldn't it be better to wait a year and reconsider your request after 
the programs have had a chance to prove themselves?
    Answer. Initial delays in starting these new programs should not be 
an indication of their potential for success. Continuity and 
consistency in funding during the early stages of these programs is 
essential to building program infrastructure within the States 
(staffing, spending authorities, authorization for matching funds) and 
to fostering interest among private landowners and the conservation 
community (creating public awareness, generating project applications). 
For example, on some projects, landowners engage in extensive planning, 
permit reviews and preliminary design work prior to submitting a 
project proposal for funding. Landowners may postpone or abandon this 
critically important planning effort if future program funding appears 
in question. If future program funding is uncertain, State agencies and 
legislatures may be reluctant to make commitments to willing landowners 
and make the changes necessary within their organizations to implement 
a new program. Continuity of funding is essential to maintaining the 
momentum that each program builds and for each program to reach its 
full potential.
    Question. Given the fact that the Federal Register notifications 
for these programs were published only last week--three months later 
than the timeline established by the Fish and Wildlife Service--when 
does the department anticipate awarding the Fiscal Year 2002 Landowner 
Incentive and Private Stewardship grants?
    Answer. As stated earlier, we acknowledge that it has taken longer 
to develop these programs than we had originally anticipated. However, 
we believe our early coordination with interested parties will likely 
result in greater effectiveness during on-the-ground implementation. On 
June 7, 2002, the Service published for public comment the proposed 
implementation guidelines. Public comments are due for both programs by 
July 8, and Final Notices will be prepared and submitted for 
publication in the Federal Register with an Request for Proposals 
describing the criteria and ranking factors as soon as possible 
thereafter. A 60-day submission period is planned for these competitive 
grant proposals. Regional (PSGP) and national (LIP) assessments of the 
grant applications will take place early this fall, with grant award 
recommendations forwarded to the Director and Assistant Secretary for 
final approval.
              proposed cooperative conservation initiative
    Question. Please justify the proposal of a new $100 million 
program, the Cooperative Conservation Initiative (CCI), when so many 
existing needs-from Indian education to maintenance and operational 
needs on public lands-are desperately short of funds?
    Answer. We believe that the federal interests are strongly served 
by incorporating the ideas from the public, such as non-governmental 
organizations and citizens, that partner with a bureau unit for the 
Cooperative Conservation Initiative. Management decisions will be made 
by the Federal partner(s) since CCI funding will complement agency 
priorities and goals. Joint federal/partners decision-making mechanisms 
will be reflected in approved applications for funds.
    The CCI program proposes that the resources to address federal 
critical stewardship needs will be augmented, not reduced by CCI, since 
federal dollars will be matched at least one-for-one.
    Whenever a budget is formulated, the Department has to make 
difficult choices among good programs and balance all needs and 
priorities. Our proposed allocation of funds best meets the 
Department's priorities and enhances cooperative efforts between 
private, State, and federal entities.
    Question. If funded, how can you assure that these funds could be 
spent in this fiscal year, particularly given the delay in awarding 
last year's two new programs, the Landowner Incentive Program and 
Private Stewardship grants?
    Answer. The Department capitalized on the experiences of these 
programs and began the planning process for timely implementation of 
CCI shortly after the President's budget was released. If appropriated 
by Congress, the Department is confident that the program can be 
executed without significant delays.
    Many conservation grant programs already exist within the 
Department of the Interior, not the least of which are the State 
Wildlife grants, the Cooperative Endangered Species Program, the North 
American Wetlands Conservation Fund, and the stateside program of the 
Land and Water Conservation Fund.
    Question. What does this new Initiative accomplish that these other 
established grant programs do not?
    Answer. The new CCI program focuses on improving resources on the 
Federal units in the system with assistance from partners since the 
cumulative effect of addressing a restoration issue in a larger 
geographic area benefits surrounding resources.
    Many of these programs overlap in terms of their objectives. Yet, 
all of them are run through different offices with different 
guidelines.
    Question. How, then, do users untangle the bureaucratic maze? How 
does a North Dakotan figure out he or she could apply for a grant from 
any of these programs, particularly the CCI?
    Answer. For grant programs offered through the Department of the 
Interior, citizens can use the U.S. Government's Catalog of Federal 
Domestic Assistance. Additionally, FWS, the agency that has 
responsibility for most of Interior's conservation grants programs, has 
a website listing all its grants, including the proposed CCI program, 
at www.grants.fws.gov.
    Question. Will the Fish and Wildlife Service Regional offices make 
decisions about the $5 million dedicated to refuges in the CCI, as is 
the case with the Refuge Cost Share program, or will your office make 
final decisions about these grants?
    Answer. The Director of the FWS will make final recommendations to 
the Secretary.
                            fish hatcheries
    Question. A number of reports suggesting hatchery reform have been 
produced recently, including one by the Sport Fishing and Boating 
Partnership Council. What is being done to implement the 
recommendations made by these reports?
    Answer. In July 2001 the Service charged the SFBPC to convene a 
steering committee that represented perspectives from a broad array of 
stakeholders in fish and aquatic resource conservation to help develop 
a new Fisheries Program blueprint, the Strategic Vision. The first 
product from the steering committee was a consensus report on the 
recommended role that the Fisheries Program should play in the 
partnership effort to conserve the Nation's fish and other aquatic 
resources. These recommendations, along with the earlier hatchery 
report from the SFBPC, ``Saving a System in Peril,'' are cornerstones 
of the Fisheries Program's strategic planning process, particularly its 
development of a Strategic Vision for the Program.
    The Fisheries Program's Strategic Vision will be completed before 
the end of fiscal year 2002. It will identify where the Fisheries 
Program is today, where it needs to go in the future, why it is 
important to get there, and what key actions the Program will take to 
achieve its Strategic Vision. The Fisheries Programs in each of the 
Service's seven Regions will then step-down this Vision, adding more 
detail about their objectives, goals and key actions. Through this 
collaborative planning process, the Service is re-committing to its 
role as a partner in conserving America's fish and other aquatic 
resources. In some cases the Service will lead; in others, it will 
facilitate or follow. In all cases, the Service will focus its efforts 
and activities on what it is best positioned to contribute based on its 
unique resources and capabilities, recognizing that sound science and 
solid partnerships will continue to be the key to aquatic resource 
stewardship. Through the partnerships that have been fostered, the 
Fisheries Program has built strong two-way communications. It is 
through these communications that the partners understand the missions 
and actions taken by the Program and by which the Fisheries Program is 
held accountable by its partners.
    In addition to these reports, the Service has assembled seven work 
groups, each led by a Directorate member and made up of regional and 
Washington Office employees, to address: (1) sound science and good 
management; (2) achieving cost savings; (3) strategic thinking; (4) 
performance management; (5) workforce management; (6) mitigation 
analysis and cost recovery; and (7) competitive sourcing and activity-
based costing. Each of these work groups is focusing on identifying 
actions that the Service can take to move the hatchery component of the 
Fisheries Program forward. The Service is incorporating recommendations 
received from SFBPC; from the seven workgroups described above and 
several previous workgroups; and from two reports from GAO, Biological 
Opinions on Pacific salmon, and previous nationwide stakeholder 
meetings into the Strategic Vision. Detailed reports and other products 
prepared by these seven work groups are currently being reviewed by the 
Department and Office of Management and Budget.
    Question. Recently, the Fish and Wildlife Service provided details 
about the $1 million general operations decrease for hatcheries 
proposed in the fiscal year 2003 budget. Could you discuss this 
proposal, particularly addressing the role of cost recovery in hatchery 
funding?
    Answer. The Service has proposed to implement the $1 million 
decrease in hatchery operations by increasing reimbursements from non-
reimbursed, non-native fish for mitigation or by reducing production at 
these facilities ($711,000) and discontinuing channel catfish 
production ($289,000). There are 10 National Fish Hatcheries that 
predominately produce non-reimbursed, nonnative fish for mitigation. 
Mitigation production programs at Jones Hole (UT) and Hotchkiss (CO) 
NFH's, that are currently funded by the Service, mitigate Bureau of 
Reclamation projects. The Service will continue working with the Bureau 
of Reclamation and the Department over the next few months to try to 
obtain cost recovery for this mitigation production. It is unlikely 
that full cost recovery will be achieved in fiscal year 2003. 
Therefore, the Service and Bureau of Reclamation are currently 
reviewing management and funding options for operations and maintenance 
of these two hatcheries.
    The Service assembled a workgroup led by senior managers to 
identify all hatchery programs providing mitigation services for 
federal water resource development projects, the legal authorities for 
the Service to conduct the mitigation work, associated costs, and 
relevant agencies responsible for such projects. A comprehensive 
mitigation analysis report, developed by this work group, is currently 
being reviewed by the Department prior to transmittal to the Office of 
Management and Budget. This report also discusses potential legislative 
actions that would facilitate full cost recovery for hatchery 
mitigation programs. The Service continues to work with the Department, 
federal water development agencies, and other stakeholders to seek full 
cost recovery. Service hatchery operational funds freed up through 
these cost recovery activities will be redirected to high priority 
hatchery needs identified in the Service's collaborative planning 
effort.
    Question. Do you plan on putting any hatcheries in ``caretaker 
status'' (essentially shutting them down) over the next year?
    Answer. The Service proposes to end its channel catfish production 
which ranks as a low priority based on the Service performance goals 
and priority objectives. Channel catfish are currently produced at six 
NFH's. Cessation of channel catfish production at Inks Dam NFH (TX), 
which is the only hatchery that is predominately (81 percent) producing 
catfish. Under the Service's proposal to implement the $1 million 
decrease in hatchery operations, Inks Dam would be placed in caretaker 
status and the regional fish distribution truck and associated budget 
and FTE transferred to another regional facility.
    Inks Dam would need to be put into caretaker status by the end of 
fiscal year 2002 in order to achieve the cost savings relative to the 
fiscal year 2003 decrease. The Service anticipates plans to begin 
phasing out channel catfish production and placing Inks Dam in 
caretaker status in 2002. Because of the unavailability of operational 
fund to pay for the costs associated with putting Inks Dam into 
caretaker status, funding would need to be reprogrammed from hatchery 
maintenance projects.
    Question. What is the appropriate role of hatcheries in the federal 
Fish and Wildlife Service? What do you see as the future of the 
hatchery system?
    Answer. Facilities in the Service's National Fish Hatchery System 
(National Fish Hatcheries, Fish Technology Centers, and Fish Health 
Centers) provide unique, integrated capabilities to meet Fisheries 
Program priorities. National Fish Hatcheries focus on producing and 
distributing fish, fish eggs, mussels, amphibians, aquatic plants, and 
other aquatic species for cooperative Service programs. Fish Technology 
Centers focus on scientific and technical support in areas such as 
genetics, physiology, behavior, and approval of drugs to treat fish 
diseases. Fish Health Centers focus on monitoring, diagnosing, and 
controlling fish pathogens and diseases. Together these facilities are 
involved in the production of aquatic species for recovering listed and 
candidate aquatic species, restoring depleted aquatic populations to 
preclude listing, restoring interjurisdictional fisheries, helping meet 
Trust responsibilities on National Wildlife Refuges and tribal lands, 
and mitigating Federal water projects. The National Fish Hatchery 
System is the only federal hatchery system and capability to meet 
unique federal responsibilities in fish and other aquatic species 
culture and that there is strong State, Tribal and other partner 
support for the NFHS. All of these programs are conducted in 
cooperation with other Federal, State, Tribal, and private partners, 
and are tied to habitat restoration for those non-mitigation programs 
where habitat restoration is possible.
    The Fisheries Program's Strategic Vision and Regional step-down 
plans will address the role of Service hatcheries in the broader 
context of the role of the Fisheries Program in aquatic resource 
conservation. The Program is continuing to work with its partners and 
stakeholders to complete its Strategic Vision by the end of 2002.
    Question. Should federal hatcheries produce recreational or non-
native fish? Why or why not?
    Answer. The Fish and Wildlife Act establishes recreational fishing 
as part of the Service's mission. The Service has responded to this and 
other legislative mandates, and to stakeholder concerns for 
recreational fisheries to the degree that appropriated resources and 
administrative direction have allowed.
    The Service provides for healthy, recreationally valuable fish 
populations through programs that focus on restoring depleted or 
imperiled fish population to self-sustaining levels, replacing 
fisheries to mitigate for adverse impacts of Federal water development 
projects, or on meeting trust responsibilities to Tribes. These actions 
involve the NFHS through:
  --Stocking healthy fish to mitigate adverse effects of federal water 
        development projects. This allows for existence of a fishery, 
        concurrent with energy production activities, in water that is 
        commonly too cold for native fish or that has limited spawning 
        habitat.
  --Coordinating whirling disease research in native trout populations 
        to enable State and Tribal fishery managers to control the 
        disease and continue economically valuable trout fisheries.
  --Conducting the Wild Fish Health Survey that provides an outline of 
        where fish pathogens exist. This is significant for State, 
        Tribal, and Federal managers in making decisions about where to 
        acquire wild broodstock, where to focus and where to avoid 
        restoration efforts, for determining the extent and seriousness 
        of diseases caused by largemouth bass virus and other 
        pathogens, and for helping protect the aquiculture industry 
        from importing or introducing costly diseases.
    The Fisheries Program's Strategic Vision and Regional step-down 
plans will address the Program's role in recreational fisheries in the 
broader context of its role aquatic resource conservation. The Service 
will continue to be responsive to its stakeholders and inclusive of 
State, Tribal, and other Federal agencies in finalizing these documents 
and implementing them. As demands for Service involvement in 
restoration and recovery programs for native species increase, and as 
the capabilities of the Service's State, Tribal and private partners 
change, the Service will work with these stakeholders to ensure that 
the unique capabilities of each are employed appropriately to meet the 
needs of recreational anglers and other aquatic resource stakeholders.
        office of surface mining--mine reclamation program cuts
    Question. There is currently over $6.8 billion in abandoned mine 
land reclamation work to be done. Given that backlog, why has the 
department proposed cutting the funding for the AML program by 11 
percent?
    Answer. The reduction is in two parts--a reduction of $17 million 
in the regular AML grants and $10.9 million for the Federal Emergency 
program.
    The $17 million reduction in AML grants compares to the $35 million 
reduction proposed by the Administration in 2002. There is also $2 
million in carryover funds from the Federal AML emergency program that 
will be transferred to the AML state grant program to lessen the 
reduction. The pressures of competing priorities in the wake of new 
requirements emerging from the events of 9/11 have precluded us from 
doing more. However, even at this reduced level, the Department will be 
able to make significant progress on the clean up of disturbed land and 
other hazards by reclaiming an additional 6,900 acres.
    The $10.9 million reduction in the AML Federal Emergency program is 
a one-time reduction and will not affect program performance. The 
Department anticipates that there are sufficient carryover funds 
available to meet any program needs during fiscal year 2003.
    While the overall OSM budget declines because of the AML reduction, 
the budget includes a $1.0 million increase over the 2002 enacted level 
for State regulatory grants for a total of $57.6 million. Within this 
amount, West Virginia receives an additional $2.0 million to sustain 
ongoing program improvements and avoid Federal takeover of the program. 
The proposed budget also continues available funding for the successful 
Appalachian Clean Streams program at $10.0 million, the same as the 
2002 enacted level, to empower partners in affected communities to 
address important local acid mine drainage pollution.
    Question. How many fewer sites nationally will be cleaned up 
because of this proposed reduction in funding?
    Answer. We can not accurately estimate how many fewer sites will be 
reclaimed, as the participating States and Tribes select the sites to 
be reclaimed and those sites vary greatly in terms of size and 
reclamation cost. However, based on historical information, we estimate 
the nationwide number of acres of abandoned mine problems (non-
emergency and non-clean streams program) that can be reclaimed at a 
given dollar amount. From the fiscal year 2002 appropriation, 
approximately $144 million was distributed to the participating States 
and Tribes for this purpose, resulting in an estimated 8,200 acres 
reclaimed. From the proposed fiscal year 2003 appropriation, 
approximately $127 million would be distributed similarly, resulting in 
an estimated 6,900 acres reclaimed.
    Question. With such an enormous backlog of critical mine 
reclamation work, how can the administration justify cutting the AML 
program while creating a new vaguely defined program called the 
Cooperative Conservation Initiative and funding it to the tune of $100 
million?
    Answer. We believe that the federal interests are strongly served 
by incorporating the ideas from the public, such as non-governmental 
organizations and citizens, that partner with a bureau unit for the 
Cooperative Conservation Initiative. Management decisions will be made 
by the Federal partner(s) since CCI funding will complement agency 
priorities and goals. Joint federal/partners decision-making mechanisms 
will be reflected in approved applications for funds.
    The CCI program proposes that the resources to address federal 
critical stewardship needs will be augmented, not reduced by CCI, since 
federal dollars will be matched at least one-for-one.
    Whenever a budget is formulated, the Department has to make 
difficult choices among good programs and balance all needs and 
priorities. Our proposed allocation of funds best meets the 
Department's priorities and enhances cooperative efforts between 
private, State, and federal entities.
                         fire suppression costs
    Question. I understand that the Department of the Interior has a 
total of $170 million on hand for fire suppression this year, but that 
fire suppression costs have averaged over $220 million for the last 5 
years. Does this mean that you will likely have to borrow over $50 
million from non-fire accounts this year?
    Answer. The Department borrowed a total of $240 million from non-
fire accounts, including $210 million for suppression operations and 
$30 million for emergency stabilization and rehabilitation.
    Question. We have already seen a number of large fires out West 
this spring. Can you tell us whether this year is likely to be a better 
or worse fire season than normal?
    Answer. The 2002 fire season has been one of the most severe and 
costly ever. As of November 22, 2002, 71,342 fires burned about 7.1 
million acres, nearly double the 10-year average.
    Question. If the agency is forced to borrow funds again this year, 
how will the agency decide which accounts are to be borrowed from and 
in what amounts? Has an effort been made to minimize programmatic 
impacts?
    Answer. To avoid or minimize programmatic impacts, the Department 
borrowed funds from unobligated balances of the construction and land 
acquisition accounts of the Bureau of Land Management, Fish and 
Wildlife Service, and National Park Service, and the construction 
account of the Bureau of Indian Affairs. In focusing the borrowing on 
no-year construction and land acquisition accounts, as opposed to 
bureaus' operating accounts, the borrowing does not impact visitor 
services, resource use authorizations, or other aspects of day-to-day 
Departmental operations. The creditor bureaus are also managing their 
land acquisition and construction accounts to avoid or minimize 
disruptions to projects; for example, they are targeting the funding 
reductions to projects still in the planning phase so that construction 
projects that have already commenced can proceed to completion.
                   buyout of florida oil & gas leases
    Question. Last month, you announced a buyout of oil and gas leases 
on federal lands in Florida and off the Florida coast in the Gulf of 
Mexico. The purpose of the buyback was to protect the environment. Do 
you have any plans to buyout federal oil and gas leases in other States 
for conservation purposes?
    Answer. The Administration has had initial discussions with the 
State of California in an attempt to resolve the full range of 
longstanding issues surrounding the 36 undeveloped Federal leases 
offshore California, including settling the litigation brought by 
California concerning the Coastal Zone Management Act. This was the 
first step toward developing a negotiated solution. The Administration 
emphasized at that time that all issues and methods of resolution were 
on the table.
    Question. I understand that the Governor of California has asked 
the federal government to buyout leases off the California coast. Why 
isn't California worthy of the same protection as Florida?
    Answer. The Administration was pleased to receive Governor Davis' 
May 30, 2002, letter supporting the Administration's decision to settle 
the Chevron v. United States litigation regarding the Destin Dome 
leases offshore Florida. The Governor requested that the Administration 
similarly repurchase the 36 undeveloped leases offshore California. On 
June 6 Secretary Norton responded that the Administration greatly 
values the beauty and magnificence of the California coast, stating 
that it is a national treasure that should be protected through sound 
environmental policies. Secretary Norton also repeated our willingness 
to cooperate with California in developing a satisfactory resolution of 
the issues surrounding the 36 undeveloped leases. In addition, the 
Secretary pointed out the numerous ways in which the California leases 
differ significantly from the Destin Dome leases. However, even with 
those significant differences, the Secretary reiterated the 
Administration's commitment to seriously consider the concerns and 
objections of those opposed to further offshore oil and gas development 
off California and to work with California to resolve these issues.
    Question. Have any estimates been made of how much it would cost to 
buyout the federal offshore leases in California?
    Answer. The lessees for the 36 undeveloped Federal leases offshore 
California filed breach of contract litigation (Amber Resources Co. et 
al v. United States) against the United States this past January in the 
Court of Federal Claims. The Amber case is currently stayed pending a 
resolution of the Coastal Zone Management Act litigation brought by 
California. The Amber case has not yet reached the discovery stage, 
thus the parties have not had the opportunity to obtain information 
that is essential to evaluating the merits of the arguments and to 
structuring any settlement. For instance, there is no documentation on 
how much the plaintiffs paid to their predecessors in interest for 
their lease interests or what expenses they may have incurred in lease 
activities. This information is necessary to making legitimate 
assessments of the appropriate course to resolve the litigation.
    Question. Funding for the lease buyback in the state of Florida--
which accounts for $120 million of the $235 million total--requires 
congressional approval. Will your department request that the funds and 
authorization for this buyout be included in the Interior 
Appropriations bill for fiscal year 2003?
    Answer. Over the next several weeks, the Administration will work 
with the Congress to resolve issues related to the Government's 
purchase of the Collier mineral interests in Florida.
               u.s. geological survey--homeland security
    Question. The supplemental appropriations bills recently passed by 
the Senate and the House include funding for a critical infrastructure 
mapping program to be undertaken by the U.S. Geological Survey. Did 
your Department make a request for this funding to the Office of 
Management and Budget?
    Answer. Yes.
    Question. What is the Department's position with respect to the 
program?
    Answer. The Department believes that the USGS Mapping Program 
overall is a critical one, and believes it would be useful for USGS to 
promote partnerships for mapping data, and make geographic information 
more accessible and easier to use.
    Question. Do you consider the project to be a homeland security 
initiative?
    Answer. USGS mapping is not a homeland security initiative. 
However, USGS mapping data could be helpful to homeland security, just 
as mapping data supports many other government functions.
    Question. When both the Senate and House include an item in an 
appropriations bill, that usually means there is significant support 
for the merits of the project. Why didn't the Administration include 
this project in its supplemental request to the Congress?
    Answer. The Administration's supplemental request was intended to 
fund emergency needs. Acquisition of these data was not considered to 
be an emergency need.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
                          school privatization
    Question. The Administration has requested $11.9 million to 
outsource or privatize management of some BIA schools. Since there are 
already two mechanisms in federal law--the grant school authority and 
638 contracting authority--that gives tribes the option to manage BIA-
funded schools, why does the Administration feel privatization is 
necessary?
    Answer. The requested $11.9 million encourages tribes to seek grant 
or contract status for the remaining 64 schools by increasing the 
funding levels for student transportation, school facilities and 
maintenance operations, and Administrative Cost grants; these programs 
total over $8 million of the requested funding. An additional $5 
million is requested within ISEP for program adjustments: $2 million to 
fund the transition/displacement of BIA personnel, as Bureau controlled 
schools transition to tribally controlled status and $3 million to 
contract private education providers to assist in improving education 
in Bureau-operated schools. The Administration believes schools are 
best operated by organizations that are closest to the communities 
being served in this case the tribes themselves. In the event that 
tribes do not wish to operate the schools, the Bureau would like to 
bring in partners to help manage the schools and improve student 
performance as the Congress indicated was essential in their recent No 
Child Left Behind (NCLB) legislation.
    Question. How would the authority provided under the BIA's 
privatization proposal be different than authority already granted to 
tribes to manage these schools?
    Answer. The authority already granted to tribes allows the tribes 
to seek grant or contract status to manage the schools themselves. The 
privatization proposal would allow BIA to bring in a third party to 
manage schools and improve student performance in the event that tribes 
do not want to operate the schools. The use of contractors would not 
change the current relationship between the Bureau and the tribes that 
are served by those schools. The Bureau would continue to provide 
education for the students in those Bureau-operated schools and would 
continue to work with the local leadership in providing the best 
education possible. There is no change anticipated for the role of the 
School Boards or with the local professional educators' Unions.
    Question. Under what existing legislative authority does the BIA 
propose to enter into agreements with private education management 
companies, or is the Administration requesting new authority?
    Answer. The Bureau has an existing authority to contract out some 
services to outside agencies and private contractors, including food 
service, maintenance, and construction activities with the full 
approval and encouragement of the Congress. Under this funding request, 
the Bureau would contract with private education management companies 
to assist in management of Bureau-operated schools. These contractors 
would not take over these schools; the schools would continue to be the 
responsibility of the Bureau and would be operated by the Bureau. The 
private contractors would not have the rights or the responsibilities 
that are currently allocated to tribal authorities under the existing 
grant and contract authority as found in Public Law 95-638.
    Question. If BIA schools were to be turned over to professional 
education management companies, how would these companies be chosen? 
How would the BIA ensure that these companies provide a level of 
education greater than is currently provided?
    Answer. The Bureau-operated schools would not be turned over to 
private management companies. We encourage tribes to seek contract or 
grant status. In the event that tribes do not want to operate their 
local schools, the Bureau would gradually seek private contractors to 
assist in school management. This would be done through the existing 
competitive bidding and contracting laws currently in effect. The 
contractors would have specific goals for student achievement to reach 
that would be part of the contract. The tribes and local community 
representatives would assist the Bureau in both the contract 
development process and selection of the contractor.
    Question. How would the BIA ensure that the fundamental federal 
trust responsibility to provide education services to Indian children 
is not abrogated by turning this role over to a private company?
    Answer. The Bureau would not abrogate its role and responsibilities 
in providing education to Indian children. The Bureau will continue to 
operate all of the existing schools unless the tribes themselves seek 
to operate the schools under existing legislation providing for 
contract and grant status. The Bureau takes its responsibility for 
education seriously. It is the goal of providing effective education 
services to Indian children that is driving the Bureau to make 
improvements in education by seeking cooperative partners to manage of 
the schools.
                          ojibwa indian school
    Question. The No Child Left Behind Act includes authorization for 
the Ojibwa Indian School in Belcourt, North Dakota to pay rent for 
facilities that it has been using without compensation since 1994. The 
BIA has paid such leases in the past, and the authorization specifies 
that the BIA is to provide the funding for the payment of this lease. 
Can you tell me the status of implementation of this provision of the 
No Child Left Behind Act?
    Answer. A funding agreement has been reached with the Lessor to pay 
past rent on the facilities used for the Ojibwa Indian School to 
resolve all the current year and all prior year lease payments owed.
    Question. It appears that no funding for this purpose was requested 
in the fiscal year 2003 budget. Can you tell me why that is the case?
    Answer. Facilities operations funds will be used to pay for the 
lease until the new Ojibwa Indian school is built.
             lewis and clark/corps of discovery ii funding
    Question. As you know, the Bicentennial of the Lewis and Clark 
Expedition is quickly approaching and the DOI is the lead agency 
coordinating the commemoration. In recent months, I have been concerned 
with the level of support that the NPS has dedicated to Corps of 
Discovery II project, which was envisioned as a mobile exhibition, 
visitor and media center and Internet classroom which would draw 
visitors to communities along the trail. It is the only major coast to 
coast project planned by any agency or entity connected to the 
Bicentennial. Planning for the project began two years ago, and 
hundreds of communities on the trail are eager to apply for and host a 
Corps II visit. I have two of these communities in North Dakota.
    I was disappointed that funding was not included in the President's 
fiscal year 2003 or fiscal year 2002 budget for this item, and I have 
been working with the NPS to find some funding so that the Corps II is 
ready to be launched early next year. While I am pleased that the NPS 
recently committed $1 million in fiscal year 2002 funds, this is still 
far short of what the National Lewis and Clark Bicentennial Council 
believes is necessary. At this point, I would like to have your 
commitment that Congressional efforts to add funds for this item this 
year will be supported, and that the Subcommittee will see this funding 
in future budgets throughout the Bicentennial. Can we count on your 
support of Corps II?
    Answer. Money was not requested in the Administration's fiscal year 
2002 or 2003 budget requests for this commemorative event. The 
Department was working with partners, including the National Lewis and 
Clark Bicentennial Council and the National Park Foundation, to raise 
private funds for Corps II.
    For fiscal year 2002, we have committed to provide $1 million from 
fee revenue available at the Director's discretion. This funding will 
be used to prepare exhibits and tents for the Corps II traveling 
exhibit. For fiscal year 2003, we intend to provide $2 million from 
available fee sources to complete preparation of the tents and 
exhibits, as well as $1 million from available operating funds for the 
traveling exhibits. The costs to be covered from the fee revenue are 
non-recurring. We anticipate having traveling exhibits ready for the 
first of the Bicentennial's ``signature events,'' which is scheduled 
for January, 2003 at Monticello.
    We are confident that this will provide an educational experience 
that will do justice to the commemoration of one of the most 
significant events in the history of our great nation. We are also 
pleased to report that fund-raising efforts for the Corps II project 
are continuing. We anticipate that fund-raising successes will add to 
the scale of the traveling exhibit.
                 tribally controlled community colleges
    Question. The $2 million being cut represents approximately 5 
percent of operating grants. Were any other education programs cut 5 
percent, or just this one?
    Answer. Funding was not reduced for any other BIA education 
programs by 5 percent. In the fiscal year 2003 budget request, 
increases are targeted at the primary and secondary educational level, 
including the pre-school level.
    Over the last 10 years funding for TCCCs has increased by 80 
percent, from $21 million in 1993 to $38 million proposed for fiscal 
year 2003. Over the same 10 year period the Indian Student Count (ISC) 
has increased by 35 percent, from 5,800 to 8,000, and per ISC funding 
is currently $4,700 compared to $3,600 in 1993. The ISC is calculated 
by dividing the total number of full and part-time credit hours 
provided by a college by 12, the number of credits an average full-time 
student would take.
    Question. Turtle Mountain Community College, in North Dakota, has 
achieved the highest standards set by national accrediting agencies. 
Instead of rewarding such performance, the administration's budget 
would cut funding to the College. What kind of message does that send 
to this college and others?
    Answer. The 2003 budget sustains $39 million for TCCCs, including 
Turtle Mountain, maintaining a level of funding that has significantly 
increased since 1993. Approximately 1,600 students attend Turtle 
Mountain Community College. The Indian Student Count (ISC) at the 
College (calculated by dividing the total number of full and part-time 
credit hours provided by a school by 12, the number of credits an 
average full-time student would take) is projected to be 670 in fiscal 
year 2003. The ISC at Turtle Mountain Community College has grown by 49 
percent over the last 10 years. Funding for Turtle Mountain Community 
College has grown by 94 percent. Funding per ISC has grown by 31 
percent from $3,600 to $4,600.
                                 ______
                                 
               Questions Submitted by Senator Harry Reid
                       snowmobiles in yellowstone
    The Park Service has undertaken a litany of measures to manage 
recreational snowmobile use in Yellowstone National Park. In one week 
this February, Park Service rangers recorded approximately 400 
violations, including speeding over 70 miles per hour. This means one 
out of every ten snowmobiles received a ticket. Recently, the Los 
Angeles Times reported park officials saying that hundreds, probably 
thousands of snowmobiles are entering the park illegally, riding 
through fragile meadows.
    According to the Park Service, $265,000 was spent this year to 
mitigate these longtime incursions and violations on the corridor from 
West Yellowstone to Old Faithful, a 31-mile stretch. These efforts 
continue at great expense with no sign of relief for these ongoing 
problems. Trespassing, speeding, and fume clouds that force Park 
rangers to wear respirators persist.
    Question. Are taxpayers going to have to pay for these mitigation 
efforts in perpetuity?
    Answer. Management of winter use in Yellowstone and Grand Teton 
National Parks, no matter what the mode of transportation, is 
expensive. These costs will continue to occur no matter if snowmobiles 
or snowcoaches are emphasized, in large part because of the specialized 
efforts needed to operate the parks in extreme cold, winter storm, and 
over-snow conditions.
    Question. How much has the National Park Service spent re-studying 
the snowmobile phase-out?
    Answer. The budget estimate for the Supplemental Environmental 
Impact Statement is $2.4 million.
    Question. Did that re-study uncover any new evidence?
    Answer. New information was received regarding snowmobile 
emissions. The earlier Environmental Impact Statement assumed that 
snowmobiles could achieve an approximate 50 percent reduction in 
emissions and a moderate reduction in sound level. Information supplied 
by the snowmobile manufacturers and independent laboratory testing by a 
contractor to the National Park Service indicate that two of the new 
four-stroke snowmobiles could actually achieve an approximate 85 
percent reduction in emissions. The new information is being applied in 
the supplemental analysis.
    Question. What percentage of the supplemental comments favor 
maintaining the snowmobile phase-out?
    Answer. Of the approximately 361,000 comments received on the Draft 
Supplemental Environmental Impact Statement, about 80 percent favored 
phasing out snowmobiles.
                   energy exploration on public lands
    Question. How much does your budget allocate for fossil fuel 
production on federal lands?
    Answer. Funding to support sustainable and environmentally sound 
fossil fuel production on federal lands is allocated through three 
subactivities in BLM's Management of Land and Resources Appropriation: 
Oil and Gas, Coal, and Lands and Realty Management. Fiscal year 2003 
funding levels for the bureau's Oil and Gas program and Coal program 
are $84.9 million and $9.6 million, respectively. In addition, 
approximately $15 million, or 40 percent, of the Lands and Realty 
Management program funds are allocated for the issuance of right-of-way 
actions and permits to support the necessary infrastructure to deliver 
the fossil fuels to market.
    Question. How much does your budget allocate for processing 
renewable energy applications?
    Answer. The public lands can play an important role in providing 
our Nation with clean and diverse supply of renewable resources such as 
geothermal, wind and solar energy, biomass, and hydropower. However, 
only recently has there been an increased interest by the public and 
industry to develop the renewable resources on public lands. Funding to 
support renewable energy development on public lands has been 
proportionate to this interest. In fiscal year 2002, the BLM allocated 
about $350,000 to support geothermal leasing, exploration, and 
development. The BLM 2003 budget request doubles this amount to 
$700,000 to begin to increase support for the growing demand for this 
type of renewable energy.
    To support hydropower, wind and solar energy projects, the BLM's 
2003 budget request includes an additional $400,000 in the Lands and 
Realty program, including $100,000 for wind and solar energy, and 
$300,000 for hydroelectric relicensing activities.
    The overall operation of hydropower energy development on public 
lands is principally managed by the Federal Energy Regulatory 
Commission (FERC), however, BLM support and involvement in the program 
is critical and increasing. BLM's role is in reviewing and providing 
input to hydropower relicensing efforts led by the FERC. The bureau 
allocates approximately $1 million per year to support hydropower 
project relicensing from base program funds. As mentioned above, BLM's 
2003 budget request includes an increase of $300,000 to support 
hydropower project relicensing.
                              blm--nevada
    Question. What percentage of the BLM's operating budget does the 
agency spend in the state of Nevada?
    Answer. The following table compares funds allocated to Nevada to 
both the total appropriation and to the total appropriation amount that 
is allocated to all States.

----------------------------------------------------------------------------------------------------------------
                                                                                                         2001
                                                          2001 Total      2001       2001 Nevada's     Nevada's
                                            2001 Bureau     funds       Nevada's      allocation      allocation
          Appropriation/activity             total [In    allocated    allocation  percent compared   percent of
                                             thousands      to all        [In        to total BLM    total state
                                            of dollars]     state      thousands        funding         office
                                                         offices \3\  of dollars]  availability \3\   allocation
----------------------------------------------------------------------------------------------------------------
Management of Land and Resources..........     $764,634     $599,133      $50,545             6.6            8.4
Wildland Fire Management:
    Fire Preparedness.....................      205,596      121,519       19,717             9.6           16.2
    Fire Suppression \1\..................      150,129      135,887       32,369            21.6           23.8
    Burned Area Rehabilitation \1\........       41,795       36,556       20,759            49.7           56.8
    Hazardous Fuels Reduction.............       28,983       22,216        1,249             4.3            5.6
    Wildland Urban Interface..............       66,154       39,824        6,148             9.3           15.4
    Rural Fire Assistance.................        5,970        5,957          850            14.2           14.3
Range Improvements \2\....................        9,999        9,400        1,230            12.3           13.1
Oregon & California Grant Lands...........      103,919        9,965  ...........  ................  ...........
----------------------------------------------------------------------------------------------------------------
\1\ Amounts in Fire Suppression and Burned Area Rehabilitation represent actual dollars spent.
\2\ Allocations are based on grazing fee receipts.
\3\ State office allocations do not necessarily capture all funds spent in a state, but can serve as a proxy to
  estimate relative distributions.

    Question. What percentage of BLM's land is in Nevada?
    Answer. Nevada accounts for 18 percent (47.9 million acres) of the 
262 million surface acres administered by the BLM, and 8.4 percent 
(58.7 million acres) of the 700 million subsurface mineral estate acres 
administered by BLM.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns
                  cooperative conservation initiative
    Your request includes $100 million for the Cooperative Conservation 
Initiative.
    Question. Could you elaborate on the goals of this program?
    Answer. The specific criteria that applicants will have to meet are 
different for the two portions of CCI except that partners--States, 
local governments, Tribes, non-governmental organizations, the private 
sector, and/or private individuals--are required for the receipt of any 
funds. In addition, coalitions of partners are encouraged. Projects 
will be nominated through the Governors' LWCF State Coordinators for 
the CCI LWCF State grants and through the bureaus' field units for the 
CCI operating account funds.
    All programs/projects must seek to achieve the actual restoration 
of natural resources and/or the establishment or expansion of habitat 
for wildlife. Where applicable, the project/program must reflect 
efforts to resolve conflicts through incentives and cooperation to 
achieve the intended goal. Cost-shared, results-oriented conservation 
projects, using innovative means or practices that embody Secretary 
Norton's Four C's of cooperation, communication, and consultation, all 
in the service of conservation, are required. Not included are funds 
for cultural and recreational purposes (except for limited aspects of 
recreation in LWCF State grants), routine annual and cyclic 
maintenance, and all international projects except those natural 
resource projects with demonstrated results in the United States.
    In addition to details on both ranking criteria and reporting 
requirements, the following presents general guidelines developed for 
the whole CCI program: ranking criteria, selection criteria, the 
selection process, project accountability, project duration, 
administrative costs, and mechanisms for fund transfers.
    Ranking Criteria.--For the three operating accounts, CCI criteria 
will be more specifically developed jointly by the three bureaus 
beginning in April 2002 so that the program would be ready to proceed 
in October 2002, with approval of the Congress. Examples of types of 
criteria that will be considered include enhancement or protection of 
wildlife; restoration of streams and riparian areas; number of partners 
and degree of involvement, financial and otherwise; and size of match.
    For the LWCF CCI State grants, funds will be made available to 
benefit the States for restoration, protection and enhancement of 
natural areas. Purposes would include but not be limited to habitat 
protection, wetlands restoration, and riparian area protection. 
Preference will be given to non-traditional methods of conservation and 
multiple partners.
    Selection Criteria.--Eligible projects/programs could be either new 
or expansion projects in accordance with the purposes stated above. New 
projects could be a demonstration project, a pilot, or replication of a 
project succeeding elsewhere. For expansion of existing projects, CCI 
funds can only be used for the new and expanded portion.
    Projects will be selected competitively based on the benefits 
derived from the project. Bureaus will look for innovative ideas from 
partners and joint federal/partners decision-making mechanisms will be 
reflected in approved applications for funds.
    Applications will (1) identify stakeholder involvement in the 
application and (2) be required to identify benefits to be achieved as 
well as timelines for accomplishing clearly defined goals.
    For CCI LWCF State grants, the degree of non-State partnerships and 
participation will be given priority.
    Selection Process.--The Directors of BLM, FWS, and NPS each will 
make final decisions on competitive applications for funds, with final 
review by the Secretary.
    Duration of Projects.--The length of projects will receive no 
commitment beyond one year for the operating accounts but opportunities 
for renewal will exist.
    For CCI LWCF State grants projects, priority will be given to 
projects to be completed in a shorter time period than the traditional 
LWCF Stateside program's three to five years.
    Administrative Costs.--Bureau administrative/overhead costs will be 
no more than two percent of the total for the operating account 
programs and $1.4 million in accordance with the proposed CCI LWCF 
State grants appropriations language.
    Mechanisms for Fund Transfer.--Cooperative agreements, contracts, 
and memoranda of understanding will be used for the operating account 
CCI programs and grants will be used for the LWCF CCI State assistance 
program.
    Reporting Requirements/Accountability.--Both CCI operating account 
projects and LWCF State grant recipients will be required to quarterly 
report program progress and financial status. The Directors of the BLM, 
FWS, and NPS or their designees will meet quarterly with the Department 
to discuss progress of the program.
    Question. How does it relate to programs already in place in the 
National Park Service, the Fish and Wildlife Service, and the Bureau of 
Land Management?
    Answer. We need another conservation program to provide enhancement 
for the Federal and State conservation efforts to complement existing 
programs. The Cooperative Conservation Initiative has two major parts: 
one to be of assistance to the States through a $50.0 million Land and 
Water Conservation Fund State Assistance grants program and a second to 
strengthen Federal conservation efforts in BLM with $10.0 million, FWS 
with $18.0 million, and NPS with $22.0 million for a broad range of 
habitat conservation/protection projects in concert with partners. The 
CCI program addresses the whole spectrum of natural resources for its 
conservation projects instead of selected aspects.
    Question. How is it different?
    Answer. The Cooperative Conservation Initiative (CCI) programs in 
the operating accounts of the bureaus are distinguished from the 
existing challenge cost share programs in BLM, FWS, and NPS because the 
new CCI program focuses solely on natural resource restoration/
protection that serves federal interests and does not include 
recreational and cultural programs.
    The existing BLM challenge cost-share program is made up of nearly 
25 percent of projects for recreation and cultural programs, plus other 
research studies and outreach programs. The FWS challenge cost-share 
program, in addition to providing funds for natural resource 
restoration, also makes funds available for efforts on private lands 
and for cultural programs. The NPS challenge cost-share program focuses 
primarily on cultural programs.
    The major distinction between last year's new Landowner Incentive 
and Stewardship grants and the new CCI, is that both the Landowner 
Incentive and Stewardship grants are for assistance to private 
landowners for species protection and habitat restoration. The primary 
purpose behind CCI is to assist State conservation programs and its 
partners through the LWCF State grants portion, and Federal 
conservation efforts though program in the BLM, FWS, and NPS operating 
accounts and their partners.
    The CCI program addresses the whole spectrum of natural resources 
for its conservation projects compared to the FWS Joint Venture program 
that focuses solely on migratory bird conservation goals or the Coastal 
program that promotes to protect and restore high priority fish and 
wildlife habitat along our Nation's coasts.
    My guess is that some may question why you are devoting so much 
money to activities that aren't solely Federal responsibilities, when 
the Department is still struggling to keep up with maintenance and 
management responsibilities on Federal lands.
    Question. What is your response to such criticism?
    Answer. The funds in the operating accounts will primarily benefit 
the resources on the land units in BLM, FWS, and NPS.
    Question. With regard to the portion of the program that is funded 
through the agency operating accounts, is it your expectation that 
these funds will be focused on work on federal lands, or will projects 
be evaluated without regard to whether they directly involved Federal 
holdings?
    Answer. The major focus of the program is to improve resources on 
Federal lands. However expenditure of funds outside the unit boundaries 
of BLM and FWS to improve the resources would be possible through 
existing legislative authorities. For NPS, program funds will be 
dedicated for resources on its lands in accordance with its existing 
legislative authorities.
    Question. Is land acquisition an allowed purpose for CCI grants 
funded through bureau budgets?
    Answer. Land acquisition is not an allowed purpose for CCI grants 
in the operating accounts of BLM, FWS, and NPS.
    Question. What about grants funded through the state LWCF program?
    Answer. Land acquisition is possible in the NPS LWCF State grants 
portion of CCI, although the program guidelines state that it is not 
the preferred method of protecting resources.
          landowner incentive and private stewardship programs
    Congress provided funding for two new conservation programs in 
fiscal year 2002: $40 million for the Landowner Incentive program and 
$10 million for the Private Stewardship Grants program.
    Question. When does the Department intend to make grant awards for 
these programs?
    Answer. On June 7, 2002, the Service published for public comment 
the proposed implementation guidelines. Public comments are due for 
both programs by July 8, and Final Notices will be prepared and 
submitted for publication in the Federal Register with an Request for 
Proposals describing the criteria and ranking factors as soon as 
possible thereafter. A 60-day submission period is planned for these 
competitive grant proposals. Regional (PSGP) and national (LIP) 
assessments of the grant applications will take place early this fall, 
with grant award recommendations forwarded to the Director and 
Assistant Secretary for final approval.
    Question. What is the difference between these two programs and the 
Cooperative Conservation Initiative proposed in the fiscal year 2004 
request?
    Answer. The Cooperative Conservation Initiative has two major 
parts: one to be of assistance to the States through a $50.0 million 
Land and Water Conservation Fund State Assistance grants program and a 
second to strengthen federal conservation efforts in BLM with $10.0 
million, FWS with $18.0 million, and NPS with $22.0 million for a broad 
range of habitat conservation/protection projects on or adjacent to 
federal lands in concert with partners.
    The major distinction between last year's new Landowner Incentive 
and Stewardship grants and the new CCI, is that both the landowner 
Incentive and Stewardship grants are for assistance to private 
landowners for species protection and habitat restoration while the 
primary purpose behind CCI is to assist state conservation programs and 
their partners through the LWCF State grants portion, and federal 
conservation efforts though programs in the BLM, FWS, and NPS operating 
accounts and their partners.
    Question. How do the three programs differ from the Partners for 
Wildlife Program, the Cooperative Endangered Species program, the NAWCA 
program, and other grant programs administered by the U.S. Fish and 
Wildlife Service? Can you provide a chart for the record that explains 
the differences among these various programs?
    Answer. See the following chart explaining the differences among 
the various grant programs.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question. Are we getting to a point where we might have too many 
different tools in the conservation toolbox?
    Answer. The Service does have a very diverse set of ``tools'' 
available to create partnerships and address the needs for protection 
of fish and wildlife and their habitats. There are differences between 
the various programs as demonstrated in the chart provided as part (c) 
of your question. For example, some programs are available on ly to 
States and some only to private landowners; some grant programs require 
matching funds and some have no cost share requirement; some grants 
amounts are determined by formula and some are subject to competitive 
decisions; and some grants are restricted to private lands and others 
are directed to benefit federal lands.
    It is hoped that through this wide array of options, the 
availability of funding for habitat restoration and improvement can be 
communicated to as many partners as possible thereby expanding the 
benefits to the wildlife resource far beyond those achieved through the 
traditional, time-honored tools such as the Federal Aid in Wildlife 
Restoration, Sport Fish Restoration, and Cooperative Endangered Species 
Conservation Funds. These newer, innovative programs provide greater 
opportunities for the local farmer, Indian tribe, or private 
organization to participate in conservation activities.
             glacier national park--gts road rehabilitation
    The National Park Service is currently preparing an EIS for the 
reconstruction of the Going-To-The-Sun Road at Glacier National Park.
    Question. What is the schedule for completion of the EIS? Can you 
commit to me today that you will do everything in your power to see 
that this EIS is completed on schedule? Have sufficient funds been 
allocated to assure timely completion of the EIS?
    Answer. The Going-To-The-Sun Road (GTSR) Rehabilitation Plan and 
Environmental Impact Statement was released in draft form in September 
of 2002 and is expected to be released in final in the spring of 2003. 
We are on target with this schedule. The draft was released on 
schedule. Depending on the number of comments received, the final will 
also be on time (In the past, the extent of comments from the public 
has delayed finalization of environmental documents because each 
comment needs to be addressed). There are sufficient funds programmed 
to complete the EIS.
    As part of its development of the EIS, the National Park Service 
has sought input from the Going-To-The-Sun Road Advisory Committee.
    Question. Can you assure me that the input of the Advisory 
Committee will be given every consideration in the development of the 
EIS?
    Answer. The GTSR Advisory Committee has been an integral partner in 
the preparation of the EIS. In fact the agencies' preferred alternative 
was also the Committee's preferred alternative.
    It is my understanding that there is up to $11 million worth of 
road repair work that will be ready for contracting by the beginning of 
fiscal year 2003 ($3-5 million for retaining walls and $5-6 million in 
deferred maintenance). These are repairs that likely will need to be 
completed regardless of the specific rehabilitation alternative 
selected in the EIS process.
    Question. Does the National Park Service plan to allocate 
sufficient funds from the FLHP program in fiscal year 2003 to 
accomplish this work?
    Answer. The current funding estimate required to accomplish the 
road work in Alternatives 3 or 4 of the draft EIS totals approximately 
$125 million--to be obligated over the course of eight years. We are 
prepared to begin this work in 2004 should funding become available, 
which is dependent upon the reauthorization of funding through the 
Highway Trust Fund.
    There is no new construction scheduled to start in 2003. Currently 
design is underway for two GTSR projects totaling $5,250,000.
  --Fiscal year 2004: $3 million. Stone retaining wall repairs
  --Fiscal year 2005: $2.25 million. Stone retaining wall repairs
    In addition to the above projects there are two FLHP funded 
projects scheduled for other Glacier National Park roads:
  --Fiscal year 2004: $525,000. Rehabilitate Apgar Loop Road
  --Fiscal year 2006: $2.8 million. Stabilize slides on Chief Mountain 
        Road
    The National Park Service's final recommendation for rehabilitation 
of the Road will likely be an expensive proposition. The cost could 
swamp the capacity of the existing Federal Lands Highway Program. I 
intend to work hard to ensure that the next transportation 
authorization bill makes sufficient allowance for timely completion of 
the Going-To-The-Sun Road project, and recently wrote to Secretary 
Mineta to urge that he advocate for adequate park roads funding in the 
Administration's reauthorization proposal.
    Question. As the Administration begins to develop its proposal for 
reauthorization of the TEA-21 Act, what is the Department doing to 
ensure that adequate resources are set aside for Federal Lands Highway 
Program, and particularly for Going-To-The-Sun Road?
    Answer. The Department is working closely with the Federal Highway 
Administration (FHWA) to identify funding needs that should be 
considered as part of the reauthorization for all Interior agencies. 
Over the past year, the FHWA has held focus meetings across the country 
to receive input from stakeholders (Federal, State and county and 
public representatives) on how well the current Federal Lands Highway 
Program (FLHP) is working and areas for improvement. National Park 
Service (NPS) representatives from the park, region and national levels 
participated in these forums articulating their specific interests and 
needs.
    In cooperation with the FHWA, the NPS has been developing an 
updated system inventory, collecting condition data and completing 
scientific and economical analysis for the roads and bridges in 
preparation for the fiscal year 2004 Highway Trust Fund 
Reauthorization.
    In reply to the President's ``National Parks Legacy Project,'' a 
draft report was developed called, ``NPS, Roads and Bridges, Deferred 
Maintenance Needs and Funding Options, October 2001'' to begin to 
unfold a strategy for eliminating the roads and bridges deferred 
maintenance backlog. The report includes analysis supporting a need to 
invest $375 million annually between fiscal year 2004-2009. Included in 
this investment is the $11-21 million annually in net construction cost 
needed to rehabilitate the Going-to-the-Sun Road, Glacier National 
Park.
    Currently, the NPS is participating in a Federal Agency Work Group 
that includes all the Federal Land Managers with road interest such as 
Bureau of Indian Affairs, Fish and Wildlife and Forest Service and lead 
by the FHWA under the FLHP. Because these are Highway Trust Fund 
dollars the program oversight, direction and funding is through FHWA 
under Title 23, Highways, United States Code, section 204, Federal 
Lands Highway Program.
    Besides the report mentioned above, we are nearing completion of a 
NPS's Draft Reauthorization Needs Resource Paper due to be completed by 
July 15, 2002, which provides total needs in the range of $440 million 
annually between 2004-2009. Addressing not only the deferred 
maintenance needs discussed above, but also the uncompleted parkways 
such as the Natchez Trace and Foothills parkways, as well as continuing 
to explore expansion of existing and development of new alternative 
transportation systems to address overcrowded parks.
    This NPS Highway Trust Fund Reauthorization Needs Resource Paper is 
combined with the other Federal Agencies resource papers to develop and 
support the Administration's position regarding all Federal agencies 
needs for the fiscal year 2004 budget cycle and Highway Trust Fund 
Reauthorization. The FHWA, Highway Trust Fund Reauthorization 
legislative proposal will be forwarded to Office of Management and 
Budget in the Fall of 2002 for inclusion in the President's fiscal year 
2004 Budget.
    The National Park Service is in pursuit of Title 23 funds to cover 
the cost of much needed road and bridge repairs throughout the Service 
that will include the repair, rehabilitation and reconstruction of such 
important National treasures as Going-to-the-Sun Road, Glacier National 
Park.
                glacier national park--gts road plowing
    Let me switch gears a bit, from rehabilitation of the Road to 
operation of the Road itself. As you know, the opening of the Road each 
summer is a key event for the communities surrounding Glacier National 
Park. Obviously the date of the opening is dependent in part on snow 
accumulation and weather, and it doesn't help when we get large 
snowfalls in mid-June like we have this week.
    But it strikes me as critical that the Park make every possible 
effort to open the Road at the earliest possible date. I'm not 
confident the Park is doing that right now. I understand that it is 
Park Service policy to plow only 4 days a week--Monday through 
Thursday. And when the weather is not conducive to plowing during those 
days, the work is not shifted to the Friday-Sunday window even if the 
weather clears. You can imagine how the locals feel when there is no 
plowing being done on days when the weather is clear.
    Question. Would you go back and take a look at the staffing and 
funding for the plowing of the Road, and see if we couldn't be doing a 
bit better?
    Answer. Currently, two park crews are used to plow the Road from 
the east and west sides of the park. Each crew works a minimum of 10 
hours per day, and 40 hours per week on road clearing. The ten-hour 
schedule is necessary to allow crews to transit to the work locations 
and have minimum of a full eight hours on-site.
    The park dedicated an additional $60,000 from base funding to 
assist the road opening efforts in fiscal year 2000. The park estimates 
that $650,000 in recurring funds above the current base is required to 
enhance spring plowing and fund the associated communications, law 
enforcement and resource protection with the road. Further, a one-time 
cost of $266,000 would be necessary in order to purchase additional 
equipment.
    The park identified the $650,000 operating requirement for the road 
in the NPS Operations Formulation System in late August 2002, after the 
fiscal year 2003 budget was submitted to Congress. The park has ranked 
this need as the 5th highest park operational priority. The region has 
not assigned a regional priority to this request. As part of the 
financial management and operations process, the park reviews its 
operating programs annually and, to the extent allowable, makes 
resource allocation decisions appropriate for the amount of funds 
available each year.
    The equipment need has been identified in the Project Management 
Information System for unfunded non-recurring needs and will be 
addressed as Servicewide priorities and funding levels allow.
    Question. Could we be bringing in assets from other areas or parks? 
Could we be using more local contract workers to maximize work during 
good weather windows?
    Answer. The safest and most successful operation would be with 
highly qualified and experienced equipment operators, who would be 
attracted to work in the park and could be retained from year to year 
if offered a long enough work season.
                    bison management at yellowstone
    The National Park Service has a central role in the implementation 
of the Bison Management at Yellowstone.
    Question. Can you assure me that the National Park Service remains 
committed to being a full partner in implementation of the Bison 
Management Plan, and that it is devoting the personnel and resources 
necessary to successfully implement the Plan?
    Answer. Yes, we can assure you that the National Park Service 
remains committed to being a full partner in implementation of the 
Bison Management Plan and has devoted the personnel and resources 
necessary to successfully implement the Plan. The National Park Service 
has been an active participant in the implementation of the plan during 
the first year of its operation and has provided the necessary funding 
to Yellowstone National Park to implement the plan. The NPS requested 
and received an operating increase of $1.2 million in fiscal year 2002 
for this effort. The park has recruited personnel and is implementing 
its portion of the plan elements within the park and has been an active 
participant in joint operations with the other agencies outside of the 
park.
    Question. Is it your impression that the Department is working 
cooperatively with the State of Montana to implement the management 
plan?
    Answer. Yes, the National Park Service has been working with the 
State of Montana as well as the Animal and Plant Health Inspection 
Service (APHIS) and the Forest Service in implementing the plan; both 
of these bureaus fall under the Department of Agriculture. All of the 
agencies met once again on September 24, 2002 to continue coordination, 
and other field operation meetings in October and December are 
scheduled to refine coordination prior to implementing this upcoming 
winter's operations. This is the latest in a series of coordination 
meetings that have been held since the plan first went into effect.
                               everglades
    President Bush and Governor Bush have signed an agreement that will 
ensure that the Everglades natural areas will receive the benefit of 
the Federal investment in the Everglades restoration project.
    Question. What is the status of litigation regarding the December 
2000 Record of Decision on the Modified Water Delivery project? Please 
summarize for the record the status of all ongoing litigation involving 
Everglades restoration.
    Answer. In early July 2002, a district court in Florida issued its 
decision finding that the Army Corps of Engineers lacked authority to 
acquire lands within the 8.5 SMA to implement ``Alternative 6D'' as the 
required flood mitigation component for the Modified Water Deliveries 
Project. As a result, the Army Corps of Engineers has suspended work on 
that portion of the project, as well as delayed the initiation of 
several key related projects, including the decompartmentalization 
project authorized by the Water Resources Development Act of 2000. The 
Administration has appealed the district court's decision to the 11th 
Circuit.
    Other litigation involving Everglades restoration efforts remains 
on going. The most significant include two cases, both filed by the 
Miccosukee Tribe, challenging the Army Corps of Engineers' efforts to 
implement an Interim Operational Plan (IOP) for water management 
operations to avoid jeopardy to the endangered Cape Sable Seaside 
Sparrow. The IOP is anticipated to be in place until the Modified Water 
Deliveries Project and C-111 Projects are on-line several years from 
now. The Department is not a defendant in either of these lawsuits.
    In addition, environmental organizations have challenged the Army 
Corps of Engineers' issuance of ten wetland dredging permits for rock 
mining operations in the ``Lakebelt'' area of Miami-Dade County. The 
Fish and Wildlife Service is a defendant in this action, as the 
environmental organizations allege that the Fish and Wildlife Service 
violated the Endangered Species Act in its consultation on the permits 
with the Corps of Engineers. Under the Comprehensive Everglades 
Restoration Plan, the area to be mined is also proposed as a potential 
location to store additional water for environmental use.
    Question. What is the obligation status of funds appropriated in 
the last several years for the Modified Water Delivery project?
    Answer. As of fiscal year 2002, $160.2 million had been 
appropriated for the Modified Water Delivery project, and $92.9 million 
has been obligated.
    Question. What is the status of the programmatic regulations?
    Answer. I understand the Army Corps of Engineers has completed 
reviewing the numerous public comments that were submitted in response 
to the draft regulations, and is working on final programmatic 
regulations. Although the statute requires the final regulations to be 
issued in early December, it is likely that the final regulations will 
not be issued until early in 2003. Overall, the Department is pleased 
with the Army Corps of Engineers' progress to develop programmatic 
regulations that fulfill the requirements of WRDA 2000.
    Question. What is the status of land acquisition for the East 
Everglades expansion? Are funds appropriated to date sufficient to 
complete the acquisition program? Are there likely to be excess funds 
available for this activity?
    Answer. The National Park Service has acquired approximately 
103,619 acres (7,771 tracts) by purchase, donation and condemnation. 
The Corps of Engineers has acquired approximately 1,402 acres (93 
tracts). The State of Florida has acquired approximately 2,253 acres 
(212 tracts). In total, lands acquired are approximately 107,274 acres 
(8,076 tracts) out of 109,600 authorized. The NPS believes that there 
are sufficient funds to complete full acquisition of the park's 
expansion area. However, it cannot yet make an assessment as to whether 
or not there will be excess funds after land acquisition is completed. 
The NPS will also be acquiring mineral rights for these areas, which 
could have significant costs. Also, there is the potential for 
litigation costs to arise as it completes the authorized purchases.
    Question. What is the status of land acquisition in 8.5 square mile 
area?
    Answer. As a result of litigation challenging the Army Corps of 
Engineers implementation of Alternative 6D, the Corps of Engineers has 
halted all federal land acquisition in the 8.5 SMA. The Administration 
has appealed the adverse district court decision to the 11th Circuit.
    Question. What is the obligation status of land acquisition funds 
appropriated for grants to the State of Florida?
    Answer. $17.291 million in grant funding is unobligated, however, 
$15 million of these funds are targeted for a pending grant request. 
The pending grant request to the South Florida Water Management 
District (District) would allow the District to acquire lands in the 
East Coast Buffer and in the Indian River Lagoon, which is a component 
of the CERP. Once the grant is approved, $2.291 million will remain 
unobligated.
    Question. What is the status of the comprehensive land acquisition 
strategy?
    Answer. The Working Group of the South Florida Ecosystem 
Restoration Task Force has developed and issued a draft comprehensive 
land acquisition strategy. Based upon the recommendations of the Task 
Force, which discussed the strategy at its last meeting, the Working 
Group is making revisions and is finalizing the document for 
publication early next year.
    Question. How long will interim water management operations plan be 
in effect once they are developed?
    Answer. The interim water management operations presently in 
effect, otherwise known as the Interim Operational Plan or IOP, are 
anticipated to be in place for several years until the Combined 
Structural and Operational Plan (CSOP), reflecting the combined 
operations of the Modified Water Deliveries Project and C-111 Project, 
is developed and adopted. Although federal and state agencies are 
working to implement the CSOP, this effort has just begun and is 
anticipated to take a number of years.
                            border security
    As you well know, the Department of the Interior owns a good bit of 
real estate in U.S. border areas, particularly in the American 
Southwest and in Montana. The Forest Service is also a major presence 
along the Canadian border in the Pacific Northwest.
    Question. As the Administration has considered border security 
issues in the wake of September 11th, what has your department's role 
been? Do you feel you've been sufficiently consulted and involved in 
the formulation of border security policy by Gov. Ridge and others in 
the White House?
    Answer. FWS. The Department's Office of Law Enforcement and 
Security (OLES) has been the point of contact in dealing with the 
Administration on border security issues. The Service has provided 
information to OLES identifying resource and policy issues that impact 
our law enforcement operations along the border and at the ports of 
entry.
    NPS. The National Park Service has played a direct role in 
monitoring and providing law enforcement support for anti-terrorism and 
security at a variety of nationally significant sites. Additional law 
enforcement has been provided for border and immigration issues, 
coastal shipping and drug intervention and the monitoring of dams. The 
NPS works cooperatively with interagency partners on a variety of 
security and international border issues. The NPS has approximately 
1,019 miles of international border and 2,357 miles of coastline with 
potential security concerns. Approximately 57 NPS sites are impacted or 
have the potential to be affected by international security issues.
    There are a number of park units with especially high instances of 
illegal alien activities, drug trafficking, and smuggling in the 
southwest and on the southeastern shoreline. The Intermountain Region 
border park areas include Organ Pipe Cactus National Monument, Coronado 
National Memorial, Amistad National Recreation Area, Big Bend National 
Park, Chamizal National Memorial, Palo Alto Battlefield National 
Historic Site, and Padre Island National Seashore along the 
international border with Mexico. These areas cover approximately 
1,260,000 acres and 365 miles of international border with Mexico and 
72 miles of seashore. These areas had more than 2,780,000 visitors in 
2000. Border security related issues and activities also directly 
affect other parks near the border. These parks include Saguaro 
National Park, Chiricahua National Monument/Fort Bowie National 
Historic Site and Tumacacori National Historic Park.
    Increased enforcement at traditionally busy border crossings--San 
Diego, El Paso, and Nogales--has diverted undocumented migrants and 
drug traffic to rural and remote areas along the border, including NPS 
park areas. Illegal activities have increased exponentially within the 
past several years, threatening visitor and employee safety and causing 
an incredible amount of resource damage. In 2000, Border Patrol 
estimated that approximately 250,000 undocumented aliens entered the 
country through parklands, over 180,000 in Organ Pipe Cactus National 
Monument alone. Since then these numbers have only increased. In 2001 
rangers interdicted over 20,000 pounds of drugs on parklands; to date 
this year rangers have seized over 15,000 pounds of drugs. In the 
summer of 2001, over 20 undocumented migrants died in or shortly after 
travelling through Organ Pipe Cactus National Monument. Employees at 
Coronado, NM live under constant surveillance by drug traffickers. Low 
staffing levels require rangers and other employees to work alone in 
remote locations, often with inadequate communications and backup. NPS 
Park Ranger Kris Eggle was murdered in Organ Pipe Cactus National 
Monument on August 9, 2002 by a Mexican national associated with drug 
trafficking.
    There have been some NPS field concerns raised about not getting 
sufficient intelligence information or general homeland security 
updates. Much of the intelligence information has been gained by 
cooperative communications with other local law enforcement entities or 
other bureaus.
    The NPS has established a multi-regional coordinating task group 
consisting of headquarters and regional chief rangers that conducts 
conference calls twice weekly. The purpose of this group is to mobilize 
Law enforcement staffing resources as well as ensure that important 
communications on security and counter terrorism activities occurs at 
all levels of the organization.
    BLM. The Bureau of Land Management administers considerable tracts 
of public land along the Mexican Border. The Bureau of Land Management 
(BLM) also administers scattered parcels of public land along the 
Canadian border. It is also a little known fact that the BLM also 
administers a sixty-foot strip of public land that runs continuously 
along the Mexican border from San Diego, CA to El Paso, TX that was 
withdrawn from the public land entry laws by an Executive Order on May 
27, 1907. With limited law enforcement resources, the BLM exercises law 
enforcement jurisdiction over these public lands. The role of the BLM 
law enforcement program on these public lands is the same as for all 
public lands, to provide for resource protection and public safety. The 
BLM role on these border lands did not change since September 11th. 
However, as other Federal agencies responsible for Border issues have 
stepped up their inspection and interdiction activities, this has lead 
to significant increases in illegal border activity occurring on the 
public lands administered by the BLM. Those involved in illegal border 
crossings have merely shifted their emphasis to the undeveloped and 
relatively ``unguarded'' BLM lands.
    Question. Since September 11th, have there been significant shifts 
in the management of border lands under your jurisdiction? What has 
been the impact of any such shifts on departmental resources? What has 
been the impact on other departmental responsibilities?
    Answer. FWS. The Office of Law Enforcement continues to maintain a 
presence with special agents and wildlife inspectors at duty stations 
and ports of entry along the northern and southwest borders. Service-
owned border lands are managed by the National Wildlife Refuge System. 
The National Wildlife Refuge System has made several modifications in 
managing border lands to increase the safety of officers as well as 
visitors and facilities on federal lands along both the northern and 
southwest borders. The Service will be adding six new refuge law 
enforcement officers at refuges along the southwest borderlands. The 
Service has also detailed officers to border refuges. This shift has 
left some federal lands in the refuge system with no law enforcement 
protection for refuge visitors or natural and cultural resources.
    NPS. No, many border park areas were significantly impacted and 
affected by broarder security issues prior to September 11th. In these 
parks border security issues continue as a high priority, although NPS 
resources have proven inadequate given the scope of the problem and the 
significant threats to visitors, employees and resources.
    There have been huge demands placed upon law enforcement resources 
at National Park Service sites. A significant number of rangers have 
been detailed to augment security and support at high security sites: 
icon parks, Department of Interior Headquarters, Camp David, various 
BOR dam sites, and National Capital Region (NCR) special events, since 
9/11. These rangers often work 12 hours days, with few days off. There 
have been impacts upon park operations: fewer law enforcement patrols, 
less emergency response capability, less search and rescue operations, 
less wildland and structural fire response, increased officer safety 
issues, rangers working extended shifts to cover staffing shortages 
creating employee ``burnout''. A number of rangers have left the agency 
for other jobs such as in the new Transportation Security 
Administration (TSA.). (At least four have been documented in the North 
East Region). The United States Park Police (USPP) in NY have lost 
nearly 20 officers to TSA. Additionally, there have been impacts upon 
Special Events (SET) Teams, and All-Risk Management Teams.
    BLM. There have been no shifts in the agencies managing the Federal 
lands at or near the borders. However, in the recent past, the Congress 
and the BLM have changed some of the resource management requirements 
that are applicable to certain border lands. The public lands along the 
Mexican border include two National Monuments, three National 
Conservation Areas, and three National Wilderness Areas. Yet the 
tremendous increase of Undocumented Alien (UDA) and drug smuggling 
often involves use of motorized vehicles in violation of regulations 
and is causing considerable resource impacts such as off-road travel, 
trash dumping, illegal fires, and abandonment of stolen vehicles. 
Because these persons are already committing felony criminal activity 
(illegal crossing, smuggling, etc.) they pay little attention to other 
violations of Federal law or to BLM criminal regulations. The BLM is 
finding that its law enforcement rangers cannot conduct their regular 
daily patrols without encountering these dangerous illegal activities. 
All of this requires a much larger BLM law enforcement workforce at 
border areas than other areas of public lands.
    Question. How many Department of the Interior law enforcement 
personnel were reassigned to other duties (air marshals, airport 
security) in the wake of September 11th? How many have returned to 
regular duty? What has been the impact of these reassignments on 
traditional departmental responsibilities?
    Answer. FWS. Office of Law Enforcement: The Service responded to 
requests for assistance at both the national and local levels:
  --29 special agents were assigned as federal air marshals for a six-
        month period
  --22 special agents were assigned to the Logan Airport security 
        taskforce for a total of 242 staff days
  --10 special agents were assigned to the World Trade Center and 
        Freshkills Landfill evidence recovery taskforce for a total of 
        40 staff days
  --17 special agents were assigned to the security detail at the Main 
        Interior Building for a total of 221 staff days
  --1 special agent has been assigned to the Bureau of Reclamation law 
        enforcement detail for a period of six months
  --1 special agent has been assigned to the FBI anti-terrorism task 
        force in New Mexico for the past year and will remain in that 
        position for the next 18 months
    All special agents have returned to their normal duties with the 
exception of the last two agents listed above.
    During the six-month period when special agents were assigned to 
the air marshal detail, high priority investigations were continued. 
Special agents from adjoining areas and task force operations were 
utilized to complete the complex, resource-intensive investigations. 
State and tribal conservation officers worked closely with the Service 
and provided support on those cases that were regional in nature and 
less time sensitive.
    National Wildlife Refuge System.--The National Wildlife Refuge 
System (NWRS) responded and continues to respond to requests for 
national security details throughout the United States both on and off 
federal lands:
  --107 refuge law enforcement officers were assigned to the security 
        detail at the Main Department of Interior Building in 
        Washington, D.C. The officers worked details ranging from two 
        to five weeks in duration.
  --5 refuge law enforcement officers were assigned to the Bureau of 
        Reclamation's Grand Coulee Dam for two weeks.
  --24 refuge law enforcement officers were assigned to the Bureau of 
        Reclamation's Shasta Dam for three-week details.
  --25 refuge law enforcement officers were assigned to the National 
        Park Service's Mount Rushmore National Memorial to prepare and 
        staff July 4th activities (5-7 days).
  --71 refuge law enforcement officers were assigned to the National 
        Park Service's Jefferson National Expansion Memorial to prepare 
        and staff July 4th activities (5-12 days).
  --The Service continues to provide refuge law enforcement officers to 
        the Department's Office of Law Enforcement and Security in 
        Washington, D.C. for details ranging from two to four weeks in 
        length. We presently have two officers in OLES. The details 
        began September 2001 and will continue through fiscal year 
        2003.
    All of the NWRS law enforcement officers have returned to their 
duty stations after the details with the exception of ongoing details 
in MIB in Washington, D.C. The NWRS continues to send law enforcement 
officers on detail to Department's OLES ``Watch Office''.
    Officers of the National Wildlife Refuge System Law Enforcement 
Program have provided an equivalent of nearly 4,000 working days on 
details throughout the United States to increase the level of security 
on a variety of sites and events.
    NPS. At its peak, NPS provided over 400 personnel during February 
2002 to address security matters. This included rangers that provided 
security and visitor services for the Winter Olympics in Salt Lake 
City. NPS has assigned 1,658 resources and dedicated 47,826 person days 
in direct support of DOI and NPS homeland security priorities during 
the period 9/11/01-8/14/02. These are conservative figures that do not 
represent all NPS contributions, including those by the U.S. Park 
Police in NY, DC and San Francisco. Although NPS has approximately 57 
percent of the Department's law enforcement positions, the agency is 
estimated to have carried over 75 percent of Department of Interior's 
homeland security workload. The scope and nature of this response is 
unparalleled. The number of rangers dedicated to homeland security 
assignments at any one time has ranged as high as 300 out of a 
permanent workforce of 1,360. Over 500 different NPS rangers have 
pulled homeland security duties. Presently, 189 rangers are dedicated 
to homeland security assignments.
    NPS rangers have provide homeland security in at least 29 locations 
or incidents since September 11, 2001. These have included 11 BOR dams, 
the Main Interior Building, multiple NPS park areas, support of FEMA in 
NY/NJ/DC, the 2002 Olympics, and July 4 events at Mount Rushmore, 
Jefferson Expansion National Memorial and the National Mall. Few NPS 
resources were assigned to air marshal and airport security positions 
due to the immediate need to protect park areas considered at risk to 
terrorism, and meet other priorities determined by the secretary, 
including protection of BOR dams and the Main Interior Building.
    Currently there are approximately 189 employees involved in law 
enforcement related to homeland security. The NPS has also provided 
increased security and support at the following BOR/NPS Dam and Lake 
sites: Hoover Dam, Shasta Dam, Grand Coulee Dam, Glen Canyon Dam, Blue 
Mesa, Crystal and Morrow Point Dams, Yellowtail Dam, Lake Meridith 
Dam,O'Shaughnessy Dam and Lake Amistad.

------------------------------------------------------------------------
                                                   No. of
                  Assignment                     resources     Resource
                                                  assigned       days
------------------------------------------------------------------------
Security for BOR Dams.........................          431        8,597
Support Main Interior.........................           44        1,012
Security NPS Icon Units.......................          414        8,188
Security 2002 Olympics........................          105        2,786
Security July 4th Events......................          288        1,847
Security--Other...............................          368        7,659
FLETC Instructors.............................            8          115
Security--Parks...............................  ...........       17,622
                                                            ------------
      Totals..................................  ...........       47,826
------------------------------------------------------------------------

    For the impact of these reassignments on traditional Departmental 
responsibilities, see response 7b.
    BLM. Since September 11, 2001, BLM law enforcement officers (LEOs) 
have completed 4,553 days on assignments to other duties. This includes 
ten LEOs to the FAA as Federal Air Marshals for a period of six months, 
twenty seven LEOs to the Olympics in Salt Lake City for a three week 
assignment, and one hundred thirty seven LEOs completing 2,307 days on 
security related assignments to the Department of the Interior (DOI), 
Bureau of Reclamation (BOR), and the National Park Service. Two BLM 
LEOs currently remain on security assignments to the DOI and BOR.
    With an average law enforcement staff size of only 230 officers for 
270 million acres of Public Lands, the impacts of these reassignments 
have been significant, particularly in areas where there is only one or 
two LEOs assigned to a Field Office, southwest border areas, and areas 
with high recreation use. Reassignment of an LEO in many cases resulted 
in limited or no capability to complete traditional responsibilities 
during the period of reassignment. The impacts of these reassignments 
have also varied during certain time frames. For example, in February 
of 2002, forty one LEOs or eighteen percent of the total law 
enforcement workforce were on non-BLM related security assignments. 
This occurred during the high-use recreation season for the 
southwestern United States where the majority of BLM law enforcement 
resources are located.
    Question. Are there elements of your fiscal year 2003 budget 
request relating specifically to border security that you'd like to 
highlight for the Committee?
    Answer. FWS. Office of Law Enforcement.--The Service has requested 
a $1 million increase to enhance our core enforcement capability. These 
funds will be used to enhance special agent mobility and improve 
responsiveness for mission-critical and homeland security enforcement 
needs.
    National Wildlife Refuge System.--In the wake of the International 
Association of Chiefs of Police's (IACP) thorough evaluation of the 
National Wildlife Refuge System law enforcement program, an Office of 
the Inspector General report on law enforcement in the Department, and 
the tragic September 11 events, the National Wildlife Refuge System 
will begin implementing the Secretary's Law Enforcement Reforms. We 
have reassessed our law enforcement mission and are now marshaling 
forces into rapid program reforms such as models for deployment of 
refuge officers, standardized position descriptions and centralized 
hiring of officers, standardized weapon systems, new incident reporting 
systems and a case management system. The Refuge System Law Enforcement 
Program is being modernized in training, tools, and management.
    Visitor safety and resource protection are paramount law 
enforcement needs. The National Wildlife Refuge System is stepping up 
its commitment to proactive prevention and protection of our visitors 
and our treasured natural and cultural resources. Compounding 
traditional enforcement efforts are the thousands of undocumented 
aliens and huge quantities of illegal drugs annually entering the 
United States by crossing the border at national wildlife refuges. As 
security is tightened at established entry points around the nation, 
terrorists seek entry by finding such alternative locations to enter 
the country. Terrorists present numerous law enforcement 
considerations, one of which is the high threat to officer safety.
    Protection of our visitors and lands is being accelerated through 
improved law enforcement and investigative activities with the addition 
of 28 new full-time law enforcement officers on national wildlife 
refuges, as well as a national Law Enforcement Program Specialist and a 
Chief of the National Wildlife Refuge System Law Enforcement Program. 
Hiring has been initiated and the results of their work will increase 
homeland security and counter-terrorism efforts in fiscal year 2003. 
Because the rise in law enforcement needs continues to alter the ways 
we preserve and protect visitors, wildlife, and habitat, refuge law 
enforcement officers face tremendous threats daily. To improve officer 
response and safety, the National Wildlife Refuge System will field 
test the IACP priority recommendation calling for a Field Training and 
Evaluation Program (FTEP). The mission of the 10-week FTEP program will 
be to provide highly trained, fully functional, positively motivated 
natural resource law enforcement officers on every refuge.
    NPS. There is a request for $6,098,000 in operational support for 
six high profile icon parks. There is a request for $12,600,000 in 
operational support for United States Park Police and $23,834,000 in 
construction preparedness, security upgrades. The NPS is reviewing 
allocations to ensure that high priority needs of all southwest border 
units are considered. Funding is needed to address critical shortfalls 
of ranger staffing in high risk parks areas, to provide additional 
protection and communication equipment, to provide incident command 
system training, and to establish a centralized recruitment, training 
and development program for law enforcement officers.
    BLM. The issues presented by the BLM in the area of border security 
did not make it into the fiscal year 2003 budget request. However, 
recently the BLM forwarded a report, Southeast Arizona Coordinated Plan 
to Mitigate and Prevent Environmental and Other Impacts Caused by 
Undocumented Aliens Crossing Federal Land, to the House Committee on 
Appropriations. In response to the report, Arizona Representative Jim 
Kolbe has proposed that $1 million be included in the fiscal year 2003 
budget for the BLM to implement some of the recommendations outlined in 
the report. While this is appreciated it must be recognized that this 
only applies to AZ and not the remainder of BLM border areas.
    Question. Does the President's proposal to establish a separate 
Department of Homeland Security affect your department directly? 
Indirectly?
    Answer. FWS. Office of Law Enforcement.--The Service will play a 
significant role in supporting the interdiction efforts of the Federal 
Inspection Service (FIS) agencies that are included in the Department 
of Homeland Security proposal. Service wildlife inspectors work side-
by-side with other federal agencies at border ports throughout the 
country. Our inspectors have face-to-face contact with people entering 
the country and handle more than 116,000 import shipments annually. The 
travelers, vehicles and cargo our inspectors encounter are potential 
conduits for the tools or terrorism that warrant increased scrutiny in 
the interest of national security and public safety. As the number of 
inspectors for the other FIS agencies grows exponentially, the Service 
will require additional staff and financial resources to continue with 
our current level of support.
    National Wildlife Refuge System.--The Service will play a 
significant role in supporting the enforcement efforts of the 
Department of Homeland Security in many areas. The National Wildlife 
Refuge System manages over 120 noncontiguous miles along the southwest 
border. National wildlife refuge law enforcement officers work very 
closely with all law enforcement agencies in their vicinity. For 
example, refuge officers work jointly with the Border Patrol as well as 
Customs officers along the United States borders. Refuge law 
enforcement officers are the front line of defense in many areas along 
the United States land and coastal borders. Many national wildlife 
refuges are located along the coast, both on the Atlantic as well as 
the Pacific Ocean. With the increase in border security at the normal 
port of entries, there will be an increase in illegal traffic in the 
more remote areas along the United States border, which will result in 
an increase of illegal activities.
    NPS. The most direct impact to date is that the Transportation 
Safety Administration (TSA) has been drawing our trained and senior 
field rangers from NPS units to Sky Marshal jobs. As the Homeland 
Security (HS) Department continues to grow and spread out to other 
areas beyond aviation safety it is likely that many more rangers and 
senior law enforcement managers may be drawn into HS jobs. The 
continuing disparity of pay, and benefits will also add to the 
departure of NPS law enforcement officers.
    BLM. The BLM believes that the proposal to establish a separate 
Department of Homeland Security will have both a direct and indirect 
affect on the Department of the Interior. The direct effect will most 
be in the areas of border security and protection of critical assets 
that are present on the public lands. The border security personnel 
within the proposed Department will still be conducted their activities 
along the border at or near the public lands. This will have a direct 
effect in the areas of resource impacts caused by these activities and 
by the illegal activities they are directed against. In light of BLM's 
responsibility for the management of certain critical on-shore 
resources (oil and gas), there will be an impact as the proposed 
Department evolves in the area of security requirements for critical 
assets (pipelines, oil and gas facilities, power lines, communication 
sites, etc.). These requirements will have to be implemented with the 
private owners of the assets through BLM's oversight responsibilities 
related to required permits, easements, leases, rights-of-way, etc. 
Indirectly, the BLM will be impacted by the proposed Department on what 
security requirements are made for the Federal facilities the BLM has 
custody over and the required levels of security to be required when 
alerts are declared under the new color code alert system.
                            coal bed methane
    Question. One of the most important tasks the BLM is undertaking in 
Montana is the completion of an EIS for coal bed methane development. 
BLM is a co-lead on this EIS, along with the Montana Department of 
Environmental Quality. What is the status of that EIS, and when can we 
expect a record of decision?
    Answer. The BLM continues to place a high priority on the 
completion of the Final EIS for coalbed methane development in Montana. 
The bureau is working diligently to ensure that the Final EIS is 
completed on schedule with the goal of publication by early in 2003. 
The Bureau has received substantial public and agency comments on the 
document and is fully committed to being responsive to all concerns 
raised and will be incorporating and addressing the concerns, as 
necessary, in the Final EIS document. Every effort is being made to 
work closely with the State of Montana on the preparation of the Final 
EIS document. The record of decision is expected no later than the end 
of February 2003.
    Question. Will it be necessary to appropriate additional dollars 
for its completion?
    Answer. As a result of significant public and Federal agency review 
and comment, additional analysis and an improved cumulative analysis 
will be incorporated in the Final EIS. BLM estimates completion of the 
Final EIS will cost an additional $200,000-$500,000 over original 
estimates. The BLM is assuming that all the new information and changes 
to the document can be made within the current schedule and with the 
requested funding levels.
                          collier acquisition
    The President recently announced his intention for the Federal 
government to acquire the mineral rights underlying 760,000 acres in 
Big Cypress National Preserve and Florida Panther National Wildlife 
Refuge for $120 million.
    Question. Can you shed any light on how you expect the Federal 
government to pay for this acquisition? Will the Administration seek a 
supplemental appropriation for land acquisition? Pursue a mandatory 
appropriation in some other legislative vehicle? Propose legislation to 
provide Collier with bidding credits?
    Answer. The Department is working to finalize the details of the 
proposal to be funded through regular appropriations.
    Question. How did the Department and Collier arrive at the $120 
million price? Has the Department conducted an appraisal of the assets 
to be acquired? If not, will it do so?
    Answer. Determining the value of the oil and gas resources in an 
area where there has been little or no actual exploration or 
development activity is challenging. MMS has considerable experience in 
making these sorts of evaluations as part of its responsibilities for 
valuing hydrocarbon (oil) resources on the Outer Continental Shelf as 
part of the lease sale process. That is why the Department in the mid-
90's first asked MMS to value the Preserve's resources. The valuation 
we used in the successful negotiations was prepared by MMS in 2000 and 
2001.
    MMS used its Probabilistic Resource Estimates-Offshore (PRESTO V) 
model. The model basically simulates drilling the area under 
consideration. To perform this task, the model has two principal parts. 
The first is geologic information to determine the likelihood of 
whether oil exists and where it is located. The second is an 
engineering and economic analysis which includes the potential volumes 
of the oil and its value based on future price projections. The result 
of this modeling process is a range of potential oil values and a mean 
value. It should be noted that this value was specified as a resource 
value not as a fair market value.
    Following the MMS study, an independent mineral valuation expert 
was obtained who has also been used by the Department of Justice in 
litigation for oil and gas valuations. This expert confirmed that MMS' 
model was a reasonable methodology to determine a median value and that 
based on the limited data available, MMS' geologic and economic inputs 
also were reasonable. Our expert further assisted in developing a range 
of values that a person would be willing to pay for the mineral 
resources in the Preserve based on the mean value of the resources 
developed under the model. To create this range, he used data from 
thousands of bids for offshore leases.
    We do not intend to perform additional appraisal work at this time. 
While an exploration program such as the one proposed by the Colliers 
would likely provide more reliable data on the size of the reserves-
upward or downward--the cost of doing so would impact the very 
resources that the acquisition is intended to protect.
    Question. How much of a tax benefit will Collier claim for donating 
residual value to the Federal government (in excess of the $120 million 
price)? Will Congress ever be given this information so it can better 
evaluate the total Federal cost of this acquisition?
    Answer. Throughout the discussions that have taken place between 
the Department and the Colliers since the mid-90's, the Colliers have 
consistently represented that the fair market value of the oil and gas 
was substantially greater than the government's estimates. As a means 
to bringing closure to this transaction, we agreed to the concept of a 
donation for any residual value that has previously been used by the 
Department in other transactions where similar valuation disagreements 
existed. This approach leaves it to the donor to demonstrate to the 
satisfaction of the Internal Revenue Service that the fair market value 
of the property is higher than that paid by the government. The 
Department does not have access to such tax information and would have 
to request this information from the Internal Revenue Service. The 
Department does not take a position with respect to any claim that the 
Colliers may make with the Internal Revenue Service.
    Question. Information provided by the Department indicates that the 
Collier acquisition does not account for all mineral rights in the 
Preserve or in the Refuge. Does the Department intend to pursue the 
acquisition of remaining mineral rights in these areas? Have the owners 
of these mineral rights been actively pursuing development? Will the 
Collier acquisition essentially set the price for the acquisition of 
these remaining rights?
    Answer. Not at this time. We have not received other plans to 
develop the mineral rights underlying these units. Most of the 
remaining mineral interests within the Preserve are held in relatively 
small parcels by numerous owners. Our understanding is that the threat 
to the Preserve's resources is minimal at this time because development 
of such small holdings would likely be uneconomic. Moreover, under 
Florida law, oil and gas can only be developed if a majority of the 
mineral interests ownership in a 160 acre drilling unit consent. With 
the acquisition from the Colliers, the National Park Service believes 
that any threat to Preserve resources is presently remote. Should this 
situation change, the National Park Service would undoubtedly 
reconsider its present position.
    Because the threat posed to the park and other resources was in 
large part a measure of the proposed scale of operations and the 
economics of developing the remaining interests is likely quite 
different than from those of the Colliers, we do not believe that we 
have set a price for the remaining rights. We understand that the Park 
has recently heard from several mineral holders interested in donating 
their remaining interests. The Department welcomes any such donations.
                             science reform
    In the wake of the lynx scandal and the National Academy of 
Science's rejection of the Federal government's decision to shut off 
water to Klamath Basin farmers, I gather your department has been doing 
some soul searching with regard to science.
    Question. Can you tell me where you are with regard to reviewing 
and reforming departmental science procedures and policies?
    Answer. Three related actions are underway.
    We have developed a Code of Scientific Conduct for use by 
employees, contractors, cooperative partners, and grant recipients 
engaged in scientific work sponsored by the Department. It is currently 
undergoing external review and we expect to begin implementation by 
February 1, 2003.
    We have developed and published final guidelines on Information 
Quality in response to section 515 of the Treasury and General 
Government Appropriations Act for fiscal year 2001 (Public Law 106-
554). These guidelines cover the quality, objectivity, utility, and 
integrity of information disseminated to the public and provide an 
opportunity for the public to challenge information they believe to be 
biased or incorrect.
    We are also pursuing an initiative concerning how science advises 
public policy. This effort will provide guidelines to cover not only 
the traditional peer review of scientific research, but also the 
independent synthesis, review and interpretation of scientific 
information in preparation for decision making. We expect to recommend 
use of a variety of independent review sources, in addition to the 
National Academy of Sciences.
    Question. What must be done to prevent these types of things from 
recurring?
    Answer. We need to establish a high level of scientific credibility 
with the public and we need to find economically feasible ways to 
obtain high quality and timely independent review of scientific 
findings and related information that will be used to advise decisions.
    We believe the actions described above will do so.
                     president's management agenda
    The Department is in the initial stages of performing outsourcing 
reviews on a large number of positions as part of the President's 
Management Agenda.
    Question. What is the timetable for completion of these reviews? 
How much will the reviews cost to perform? Will the individual bureaus 
be absorbing 100 percent of these costs?
    Answer. The Department is striving to achieve its 15 percent goal 
for studies scheduled for review and completion by the end of fiscal 
year 2003. The cost of the studies varies according to the methodology 
used, and the choice of methodology is largely determined by the number 
of FTEs covered by a particular study. We have already gotten OMB 
approval for a new inexpensive methodology to study less than 10 FTEs, 
and are working on another methodology to much more economically study 
groups of 11-65 FTEs. Both approaches are also fairer to employees than 
the more traditional methodology. We have yet to determine the full 
cost to perform DOI reviews. Competitive sourcing funding was not built 
into Interior's fiscal year 2002 budget request because the 
Administration did not announce the President's Management Agenda until 
August 2001. Similarly, we did not come to closure with our bureaus on 
their fiscal year 2002-2003 competitive sourcing plans until April 
2002, two months after the fiscal year 2003 budget was transmitted to 
Congress. Most bureaus are incurring the entire cost for these reviews 
within available funding.
    Question. To the extent savings are realized from outsourcing, will 
these savings be ``retained'' by the individual bureaus to meet other 
needs? If the review process indicates that no savings will be achieved 
from outsourcing a particular position, does that automatically 
disqualify a position from being outsourced? Will the Department 
actively consider outsourcing positions when no savings are expected, 
but when the position review shows that outsourcing may result in a 
better product or service?
    Answer. OMB has told Department's that they may retain any savings 
from competitive sourcing, and Interior in turn has given bureau 
directors the same pledge. Bureaus therefore may retain the savings 
from competitive sourcing, whether those savings are from outsourcing 
or improved in-house operations, to meet other bureau needs. A ``no 
savings'' determination does not disqualify a position from being 
outsourced. Outsourcing positions should not necessarily be based on 
``savings'' but may be based on best value--performance quality, 
efficiencies, and results.
                      office of inspector general
    Question. Of the specific programmatic increases requested for the 
Office of Inspector General, most of them appear to be predominantly 
one-time in nature. Assuming the requested increases are provided, what 
amounts should we expect to be presented as programmatic reductions or 
redirections in the fiscal year 2004 request?
    Answer. The following four program increases were requested: 
Redistribution of Staff Resources, Automated Work Papers System 
(Audits), an Electronic Case Management and Information System 
(Investigations) and critical security and communications enhancements 
to an aging and resource-intensive OIG infrastructure (Management and 
Policy).
    This request, for the first time, recognizes that past OIG budgets 
have provided for the mandatory and basic costs of existing staffing 
but lacked base funding for essential non-personnel management tools to 
achieve our mission. Rather than seeking more staff resources, the 
fiscal year 2003 budget represents a strong proclamation of the OIG's 
focus on non-personnel related management tools--i.e., redistribution 
of existing staff and investment in information technology 
infrastructure and systems--to provide a foundation for effectiveness 
and efficiency and achieving maximum results and return on investment. 
The Inspector General hired a new Chief Information Officer in fiscal 
year 2002 to facilitate the development and implementation of a long-
term OIG capital investment strategic plan. This budget reflects a 
portion of this plan.
    The fiscal year 2003 program request items detailed below need to 
be incorporated into the OIG base appropriation so we can maintain the 
activities in future years.
    Redistribution of Staff Resources ($320,000).--Redistributing staff 
resources to where the critical work resides, i.e., putting the right 
people in the right place at the right time, has been a management tool 
that we have not been able to utilize. This has resulted in increased 
expenses to get experienced staff on significant reviews or cases or it 
has resulted in the postponement or referral of audit/investigative 
reviews or cases. Redistributing existing staff is significantly more 
cost effective and timely than hiring new staff in locations where 
staff resources are needed.
    Specifically, in fiscal year 2003, we will be redistributing staff 
from our Guam office to the Hawaii mainland to provide more effective 
oversight of Department of the Interior (DOI) funds and Insular 
Islands' capabilities to receive and expend Federal funds. In future 
years, we anticipate more staff relocations, particularly from our 
office in the Virgin Islands to the continental United States and 
relocations between various regions within the United States.
    Automated Work Papers System ($200,000) and the Investigations 
Electronic Case Management System ($300,000).--The fiscal year 2003 
request provides for partial funding for the planning, purchase and 
initial implementation of these new systems. In the out-years, these 
systems will require funding for maintenance, modifications and 
enhancements and staff training. For example, future year budgets will 
be used to upgrade automated reporting capabilities (including 
performance and activity based costing reporting) and for enhanced 
equipment such as scanners to assist with automated work papers and 
investigative case files.
    Critical Infrastructure and Security Enhancements ($256,000).--To 
meet the basic requirements for maintaining our IT infrastructure 
(which includes work stations, servers, software/hardware and 
telecommunications lines), this funding will provide critical resources 
for expenses that directly support all the OIG administrative systems 
and is the cornerstone of our IT security and knowledge management 
initiatives. This allows us to meet the requirements of OMB Circular A-
130 and similar IT and security-related requirements. In addition, 
because the Management and Policy activity provides IT support for all 
OIG activities, these infrastructure enhancements would also support 
the capacity of our Office of Audits IT staff in their audits and 
reviews of the entire DOI critical infrastructure and security systems 
planning and implementation.
                           section 6 funding
    Question. Funding for the Cooperative Endangered Species 
Conservation program is currently divided into several distinct pots. 
Has the Department considered the merits of a more flexible approach to 
this program, whereby the amount of funding for the various program 
elements would not be determined in advance of applications being 
received? What are the advantages and disadvantages of such an 
approach? When will fiscal year 2002 funds for HCP land acquisition 
grants be awarded?
    Answer. The Department has considered the merits of soliciting 
project proposals based on a total funding amount and has determined 
that the disadvantages of this approach outweigh the advantages. This 
approach would offer the ability to provide a greater level of funding 
to highly meritorious proposals of a specific type when funding of 
those proposals might otherwise be limited by the prior apportionment 
of funds to the distinct programs.
    However, there are several disadvantages to this approach. This 
approach would not provide certainty to States with respect to the 
level of competition. The States commonly draft their proposals based 
on the identified level of funding for certain project types. If the 
amounts of funding for the various program elements were not determined 
at the time proposals were solicited, States would find it more 
difficult to determine how much funding to request and how much effort 
to put into preparation of a proposal. More over, States do not always 
need the same type of funding every year (planning funding versus land 
acquisition dollars); we believe the current grant programs provide a 
sufficient balance for States to be assured of opportunities to compete 
for needed funds each year.
    In addition, this approach would remove the ability to employ 
different methodologies for allocation of funding for different project 
types. The Service awards grants for the HCP Land Acquisition and HCP 
Planning Assistance programs based on a national competition, and the 
Recovery Land Acquisition program based on a regional competition. Each 
Region funds projects under the traditional Conservation Grants Program 
based on methodologies developed in conjunction with the States. These 
different processes were developed in order to balance providing 
predictability to the States with respect to the level of competition 
and ensuring that sufficient funds are available to fund higher cost, 
highly meritorious projects. Separate grant programs enable the Service 
to ensure funds are available for distinct, measurable actions, and to 
ensure accountability.
    Therefore, the Department believes identifying funding levels for 
each distinct program at the time proposals are solicited meets the 
purposes for which the funds are available, benefits applicants and 
ensures a balance of funding among the many important types of 
conservation efforts. The HCP Land Acquisition grants were awarded in 
September 2002.
                         endangered species act
    It is my understanding that in a case involving the New Mexico 
Cattle Growers, the courts recently determined that the U.S. Fish and 
Wildlife Service must analyze not just the marginal economic impact of 
critical habitat designations vs. listing, but the impact of the 
designation in its entirety. I further understand that in the wake of 
this decision, the Service is developing a framework for performing 
these economic analyses.
    Question. What is the status of the effort to develop this 
framework? How much additional staff work, money, etc. will be required 
to complete these more exhaustive analyses? Is the legal question at 
issue settled in the Department's view?
    Answer. In New Mexico Cattle Growers Ass'n v. U.S.F.W.S., 248 F.3d 
1277 (10th Cir. 2001) the 10th Circuit held that the baseline approach 
to economic analysis of critical habitat designations that was used by 
the Service for the southwestern willow flycatcher designation was 
``not in accord with the language or intent of the ESA''. In 
particular, the court was concerned that the Service had failed to 
analyze any economic impact that would result from the designation, 
because it took the position in the economic analysis that there was no 
economic impact from critical habitat that was incremental to, rather 
than merely co-extensive with, the economic impact of listing the 
species. The court rejected the baseline approach incorporated in the 
southwest willow flycatcher critical habitat designation, concluding 
that, by obviating the need to perform any analysis of economic 
impacts, such an approach rendered the economic analysis requirement 
meaningless. The Service believes that the 10th Circuit decision was 
rightly decided, and courts in the 9th Circuit have recently agreed.
    In response to the 10th Circuit decision the Service has revised 
its approach to economic analyses for critical habitat designations 
nationwide and is developing a framework document to delineate the 
methodology that the Service is now using to conduct economic analyses 
for critical habitat. The framework document will be shortly be put 
forth for peer review. After peer review, it is our plan to publish the 
document for public comment this year.
    Economic analyses for critical habitat designations are becoming 
increasingly more costly. Not only the 10th Circuit ruling, but public 
comments and an improved understanding of the potential economic 
effects of critical habitat designations have led the Service to 
continuously improve the economic analyses that it is conducting. We 
now anticipate that it will cost approximately $80,000 to conduct an 
average analysis; some analysis for wide ranging species may cost up to 
$150,000-$200,000). The Service contracts out its economic analyses, 
but it is a continual challenge to manage timeliness and quality issues 
associated with the production and review the documents.
                        blm--cbm eis for montana
    I have been following the BLM's preparation of the Environmental 
Impact Statement for the Powder River Region of Montana with a great 
deal of anticipation and interest. As you know, I have worked hard to 
secure additionally funding above past budget requests to ensure that 
adequate environmental studies would be completed and that the EIS 
would be done in as responsible a manner as possible.
    Question. Could you update us on the status of that EIS, and when 
can we expect a record of decision?
    Answer. As discussed in the previous answer, the record of decision 
is expected no later than the end of February 2003.
    Question. I assume we have completed the need for resource planning 
dollars for this specific EIS. Does the current fiscal year 2003 budget 
submission include adequate funding in the oil and gas base program to 
support development in the Powder River Region of Montana in fiscal 
year 2003?
    Answer. The degree to which coalbed methane development in Montana 
will occur is based on what can be reasonably foreseen from geologic 
and reservoir analysis. This level of activity is currently being 
analyzed within the EIS, in compliance with all National Environmental 
Policy Act requirements. The BLM requested additional funding in the 
2003 budget to support increased oil and gas development, including 
coal bed methane. BLM Montana will receive an appropriate portion of 
these additional funds, if appropriated. This should be sufficient to 
cover the State's needs over the next year.
                               blm--pilt
    Overall, I must admit that the proposed budget for the Bureau of 
Land Management shows promise. With increases for energy production and 
an increase of $114 million to update land use plans, it is evident 
that the administration is focused on wise use of our natural 
resources. However, supporting these activities places a large burden 
on our rural communities. As a result, Congress has made it clear that 
PILT funding to compensate rural governments is a national priority.
    Question. I know the land management planning process is notorious 
for being expensive, and if we expect our local governments to be able 
to afford participation in the process, isn't it important that we at 
least hold PILT funding level? Does the BLM agree that an increase in 
activity on federal lands will continue to place a financial burden on 
local governments?
    Answer. While increased population, visitation, and energy 
development on Federal lands could place a greater financial burden on 
local governments, just as it has on the Federal government, it is 
reasonable to expect that local governments will also benefit from a 
larger tax base, increased tourism, and more energy development. 
Additional energy leasing and operations on public lands provide 
additional revenues to states and jobs and stimulus to local economies. 
Providing opportunities for grazing, recreation, and timber harvest 
also provides additional state and local revenues, jobs and more 
economic development. Although the amount requested for PILT in 2003 is 
less than the amount enacted in 2002, it is $15 million, or 10 percent 
more, than was requested in the 2002 President's Budget. By contrast, 
the President's budget for 2003 proposes an increase of 6 percent over 
the 2002 request for the Bureau's main operating account.
    It is also important to point out that the PILT program received 
large increases (57 percent in just two years) starting in fiscal year 
2001, during a time of surpluses. With the recent changes in the budget 
outlook, it is reasonable to expect that governments at all levels 
share in the responsibility to maintain fiscal restraint.
                        blm--energy and minerals
    I notice that your budget for the BLM requests another substantial 
increase for energy related activities on federal lands. I whole-
heartedly applaud this effort and will do everything that I can to 
ensure this money is included in this year's final appropriation.
    Question. Could you detail some of the initiatives BLM will be 
undertaking in fiscal year 2003 that are designed to increase domestic 
energy production while also diversifying our energy portfolio?
    Answer. The federal lands contain a large portion of U.S. energy 
resources. To meet our country's growing energy needs, the BLM is 
working diligently to fulfill our important responsibilities in 
implementing the President's National Energy Policy. Over a quarter of 
the President's energy policy recommendations specifically affect one 
or more of the BLM's energy, mineral, and planning-related 
responsibilities. To systematically carry out the President's policy 
and goals, the BLM has identified more than 40 tasks to facilitate 
domestic production and transmission of both renewable and non-
renewable energy resources, while ensuring environmental protections.
    The National Energy Policy included a specific recommendation for 
the Department of the Interior to review its land status and lease 
stipulations regarding oil and gas development on federal lands. To 
this end, the ongoing Energy Policy and Conservation Act inventory of 
oil and gas resources and reserves and a review of access impediments 
are being expedited. Five basins were identified within the Rocky 
Mountain Region as the priority geographic areas for study. These areas 
include the Powder River, Green River, Uinta/Piceance, and San Juan/
Paradox Basins, and the Montana Thrust Belt.
    As the information becomes available from the EPCA inventory, the 
BLM plans to analyze the data for opportunities to improve the Bureau's 
management of the oil and gas resources on federal lands. Direction 
will be provided to BLM Field Offices on how best to apply the EPCA 
information to facilitate environmentally-responsible development of 
oil and gas resources, both in the BLM's land-use planning process and 
the daily management of the public lands and its resources. This 
analysis and the consideration and implementation of changes in 
management policies are considered critical tasks for BLM in 
implementing the President's National Energy Policy.
    It should be emphasized that as the BLM reviews the EPCA 
information and considers potential land-use planning modifications, we 
will continue to abide by the Federal Land Management and Policy Act's 
principles of multiple-use, sustained yield, and environmental 
protection. These are standards to which the BLM is completely 
committed. The BLM will only consider opportunities to increase access 
to oil and gas resources while still maintaining multiple-use values, 
including surface resource values.
    In addition, as part of the BLM's efforts to implement the 
President's National Energy Policy, the Bureau established a working 
group to review and evaluate various reports and data concerning 
expediting the Application for Permit to Drill (APD) process. The group 
has identified several specific recommendations, which the BLM will 
evaluate. Examples of areas under review are cultural resource 
clearances, National Environmental Policy Act (NEPA) processes, 
consistency of lease stipulations, and automation of the APD process.
    Also, consistent with the President's National Energy Policy, BLM 
is working to expand renewable energy development opportunities on 
public lands. The Department's November, 2001, National Conference on 
Renewable Energy was a good first step in an ongoing effort to work 
with industry in a collaborative manner to reduce unwarranted delays in 
processing authorizations for renewable energy facilities on the public 
lands. The BLM is working closely with the Department to develop a 
Renewable Energy Action Plan in response to comments and 
recommendations from the conference. As a follow-up to the conference, 
the BLM is evaluating new ways to increase production of renewable 
resources on public lands.
    In addition to a $350,000 increase for geothermal energy 
development in the Energy and Minerals Management Program, the 2003 
President's Budget requests $400,000 more to support geothermal, wind, 
and solar energy rights-of-ways on BLM lands.
    Question. In my experience these initiatives are largely supported 
by state and local governments. In your opinion, is the Department 
working well with local government entities and are they generally 
supportive of these efforts?
    Answer. We believe most local governments are supportive of the 
Department's efforts to implement the President's National Energy 
Policy. Both the Secretary of the Interior, and the BLM Director are 
very strong supporters of consulting with State and local governments 
in all activities and policies that affect their interests. We are 
working with these groups and are keeping them actively involved and 
up-to-date as we develop and implement the BLM's portion of the 
National Energy Plan. A critical aspect of the Bureau's plan is to more 
actively engage all sectors of state, tribal, and local government as 
well as to increase general public participation. The BLM is more 
committed than ever to a truly collaborative process and believes the 
states, tribal and local governments can help us to focus our efforts 
in the development of new plans and policies.
    Question. Concerns have been raised in Montana, and I assume in 
other states as well, that focusing on single, high-priority oil and 
gas projects has the potential to slow other ongoing energy development 
activities included in BLM's base funding. Can you address this issue 
and assure the subcommittee that resources will not be shifted from 
other ongoing and proposed oil and gas projects?
    Answer. The increases the BLM has received in recent appropriation 
acts have allowed the BLM to allocate additional funding to States and 
areas where most of the oil and gas development and work is located. We 
do not plan or anticipate shifting base funds as long as the BLM 
receives the additional funding proposed in this budget. BLM does 
review information in our cost management system to evaluate 
performance and efficiency across the BLM organization. Where cost 
management, performance, or other sound business management information 
of practices dictate, some base funding adjustments may be made.
                           blm--fire funding
    Your budget request includes a $34 million increase for fire 
suppression activities. I applaud this move, as I believe we are 
learning that the increasing severity of wildland forest fires coupled 
with ongoing drought conditions make suppression an extremely costly 
activity.
    Question. Recently, the Administration announced a new Interagency 
Wildland Fire Leadership Council leading the effort to implement the 
National Fire Plan. Can you give us some examples of how this new 
council adds value to the National Fire Plan? Quite honestly, the new 
council appears to replicate the current interagency agreement.
    Answer. The Secretaries of Agriculture and the Interior established 
the Wildland Fire Leadership Council this year to provide leadership at 
the top agency and bureau levels to guide the policy and program 
direction for the National Fire Plan. To date, the Council has directed 
its efforts to ensure a seamless, cohesive approach to the 
identification of fuels treatment priorities across all the wildland 
fire management agencies and our many state, local, tribal, and private 
collaborators. In the future, the Council will address other priority 
concerns, such as differences in the ways that the Departments classify 
and record their costs for fire suppression operations, firefighter 
pay, and burned area rehabilitation. Another key issue the Council will 
address is how to recruit, retain, train, and develop the next 
generation of fire leaders to replace many of today's leaders who are 
nearing retirement.
    Question. I have heard numerous grumblings from the West, and I 
must agree with many of them, that the Administration has failed to 
fully embrace the needs of the National Fire Plan. Can you detail some 
of the work that has been taking place to get elements of the National 
Fire Plan up and running?
    Answer. In the two years since Congress initiated the National Fire 
Plan, the Plan agencies have made significant improvements in the way 
they prepare and respond to wildfires. Interior has hired, trained, and 
deployed over 2,000 new firefighters. We have substantially increased 
the inventory of essential heavy equipment including engines, air 
tankers and helicopters. The equipment was put to heavy use in the 
summer of 2002. We will be reporting exact numbers to Congress in the 
National Fire Plan 2002 Annual Performance Report which is being 
prepared. The Departments have also been increasing treatments to 
reduce hazardous fuels, both in the wildland urban interface and remote 
public lands. This is a major element in the long-term strategy to 
reduce the risk of unwanted and unplanned fires by reducing fuel loads. 
The numbers of projects and treated acres have been increasing 
annually. More will be accomplished in 2003 than ever before. In short, 
the National Fire Plan has resulted in steady progress that continues 
to this day.
    Clearly, the most important component to the fire plan in 
preventing future large scale wildland fires is the fuels treatment 
component. I have learned that much of the funding we dedicated for 
this purpose was initially hitting a backlog in the planning process.
    Question. Have we overcome this hurdle and are we beginning to see 
more fuels reduction work actually being completed on the ground?
    Answer. Interior's program made significant strides in reducing 
hazardous fuels reduction in 2002. The number of acres treated grew to 
over 1,050,000 acres, up 44 percent from 2001. The Departments of 
Agriculture and the Interior also accelerated the project selection 
process this past year so that projects for 2003 would be identified 
and selected earlier than ever before, ensuring a more productive first 
quarter than in previous years. The effort to select projects earlier 
also resulted in the identification and prioritization of future year 
projects, in effect creating a pipeline of future projects.
    It is true that the planning process used to be an impediment to 
getting work done on the ground. The Departments did not have the 
infrastructure in place to respond quickly to the dramatic increase in 
funding that Congress provided in 2001. That is no longer a problem. 
The departments have staffed the program and established new procedures 
to ensure that fuels reduction work will increase again in 2003.
    Question. In overcoming the planning backlog in implementing 
hazardous fuels reduction projects, as well as learning new lessons as 
we ramp up this program, have your land managers offered any 
suggestions aimed at making the process more manageable or more 
effective? I know that many are suggesting the Forest Service's 
Stewardship Contracting authority as an ideal way to deal with 
hazardous fuels work.
    Answer. Public land managers have been instrumental in improving 
and implementing hazardous fuels reduction projects. As you know, they 
are collaborating with local, state, and private landowners in 
developing fuels treatment plans. We are starting to see several types 
of innovations arising from field managers. Environmental plans for 
projects are being batched, both within individual offices and across 
agencies. Field managers are also pooling personnel for project 
planning on a landscape basis. Improvements such as these create 
efficiencies of scale that result in more acres being treated at lower 
marginal costs for taxpayers.
    Question. Have you had any discussions regarding the application of 
similar contracting authorities on Interior lands?
    Answer. Yes, the Department is very interested in pursuing similar 
authority. In fact, a cornerstone of the President's Healthy Forests 
Initiative is a legislative proposal to allow Interior to enter into 
long-term stewardship contracts with our partners. Such authority would 
be particularly advantageous in the west, where Federal agencies alone 
cannot rid the country of a century's worth of hazardous fuels buildup. 
Allowing contractors to exchange their labor in removing hazardous 
fuels for the rights to the resulting biomass would better leverage 
funds to complete additional fuels reduction work and could potentially 
increase the production of domestic energy.
                     bia--tribal community colleges
    The request before the Subcommittee decreases funding available for 
Tribally Controlled Community Colleges by $2 million. I find this 
especially troubling as I have worked extremely hard to increase the 
funding available to these vital learning institutions.
    Question. What is the justification for this reduction, and can you 
outline other steps, if any, the Administration is prepared to make to 
ensure that these colleges continue to be successful in providing 
secondary education to our nation's Native American students?
    Answer. The President's fiscal year 2003 budget request for 
Tribally Controlled Community Colleges maintains a level of funding 
that has significantly increased since 1993.
    Over the last 10 years funding for operating grants for TCCCs has 
increased by 65 percent, from $23 million in 1993 to $38 million 
proposed for fiscal year 2003. Over the same 10 year period the Indian 
Student Count (ISC) has increased by 35 percent, from 5,800 to 8,000, 
and per ISC funding is currently $4,700 compared to $3,600 in 1993. The 
ISC is calculated by dividing the total number of full and part-time 
credit hours provided by a college by 12, the number of credits an 
average full-time student would take. The operating grants are 
distributed to the TCCCs based on the ISC.
                       bia--community development
    I notice that your budget for the Bureau of Indian Affairs 
essentially eliminates the accounts for Community Development. This 
concerns me deeply, as these accounts are extremely popular with the 
tribal community and my colleagues here in Congress. Additionally, 
these programs generally give us the flexibility to meet unique needs 
in Indian Country.
    Most of these programs are designed to fill an unmet niche in 
Indian education, or are designed in bridging the gap between having 
some level of secondary education and applying it in the job market.
    Question. Can I have your assurance that you will re-examine your 
position on these programs and offer the Committee an explanation of 
how the Administration proposes to fulfill this need in their current 
budget submission?
    Answer. The President's budget fulfills the highest priority needs 
in Indian Country. The request supports community development goals by 
ensuring a strong education foundation for Indian Country's future 
leaders and continues efforts to improve the services and delivery of 
its programs and trust management responsibilities. The budget supports 
the efforts of Tribes to provide basic reservation programs and develop 
stable governments, ensure accreditation of Bureau- and Tribally-
operated school; address critical infrastructure needs, and meet the 
Secretary's Trust responsibilities. The President's budget includes 
funding for 48,000 elementary and secondary students, replacement and 
repair of schools, and economic development programs in some of the 
more depressed areas in the country. All these activities contribute to 
improving the quality of life and economic potential of the 
reservations.
                   doi/cobell case--computer shutdown
    You inherited one of the most frustrating court cases in recent 
memory the moment that the court scratched out Cobell v. Babbit and 
wrote in Cobell v. Norton. Since you have been handed the reins, Judge 
Lamberth decided to shut down virtually all of your Department's 
computer systems. You and your team were quick to respond and have 
taken a wide array of steps to solve the problem, including new 
hardware upgrades, and external hosting of the Department website.
    Question. Could you give us a fairly quick update as where each 
individual Bureau stands in its efforts to get back online?
    Answer. All bureaus and offices can currently send email within 
their local bureaus or offices. To allow exchange of email between 
bureaus and offices, we are setting up a virtual exchange point for 
email traffic in Denver National Business Center. The bureaus and 
offices can send email to other bureaus and offices as they are 
reconnected to this virtual exchange point.
    The Department of the Interior disconnected computer systems from 
the Internet in accordance with a Temporary Restraining Order (TRO) 
issued December 5, 2001. On December 17, 2001, the Court entered a 
Consent Order, which provided four methods by which the Department 
could reconnect to the Internet and/or resume operations of its 
computer systems. The Department is working with a court-appointed 
Special Master to achieve compliance with the Consent Order. Under the 
terms of the Consent Order, the Department is required to provide the 
Special Master with ``reasonable assurances'' that individual Indian 
trust data on computer systems has been identified, protected and 
secured.
    In order to provide reasonable assurances to the Special Master, 
Departmental bureaus and offices prepare and submit proposals for 
reconnection to the Internet and/or resumption of operations to the 
Associate Deputy Secretary. Upon his approval, these proposals are 
given to the Department of Justice. Attachments from the proposals, 
along with declarations from Department officials, are submitted to the 
Special Master with a formal request to reconnect to the Internet and/
or resume operations of particular computer systems. Under the terms of 
the Consent Order, the Special Master, as necessary, will interview 
Interior personnel or contractors and conduct site visits ``wherever 
technology systems or individual Indian trust data is housed or 
accessed.'' Computer systems are reconnected to the Internet and/or 
resume operations after the Special Master has provided notification he 
concurs with the reasonable assurances provided by the Department.
    Furthermore, the Consent Order requires the Department to implement 
specific network security improvements at BIA by January 31, 2002 
(which have been completed), and to task a qualified, independent 
contractor to evaluate the requirements to bring relevant individual 
Indian trust information systems into compliance with applicable 
standards of the OMB Circular A-130. In the Second Status Report of the 
Special Master submitted to the Court on February 5, 2002, the Special 
Master recognized ``that OMB A-130 compliance is simply not possible in 
the near future given Interior's current budget, resources and 
infrastructure . . . [and] has repeatedly emphasized that immediate 
reconnection and/or resumption of operations will not hinge on full 
compliance.''
    Utilizing this process, as of July 1, 2002, approximately 89 
percent of the Department has been reconnected to the Internet. This 
includes the National Park Service, the United States Geological 
Survey, BIA's Indian Schools network, and the Office of Surface Mining. 
Four other Departmental bureaus, the Bureau of Land Management, the 
Bureau of Reclamation, Minerals Management Service, and Fish and 
Wildlife Service are reconnected under ``preliminary approval'' until 
the Special Master has completed his assessment for reasonable 
assurances that individual Indian trust data is protected and secured.
    It is difficult to say when all computer systems will be 
reconnected to the Internet. The remaining bureaus and offices have a 
more significant role in managing the Department's fiduciary 
responsibilities to Native Americans, and the process for providing 
``reasonable assurances'' to the Special Master could be more involved.
    Email and Internet connections are only a piece of the task of 
restoring the Department's information technology systems. The larger 
issue is the security of our IT systems with respect to individual 
Indian trust data, which must be improved to meet existing guidance and 
which must meet the Special Master's requirements.
    Question. Could you give us an estimate of the unforeseen costs 
these upgrades have added to your Department's expenditures?
    Answer.

                                    INTERNET RECONNECTION COSTS, AS OF 8/7/02
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                2002
                   Bureau                      funds      Total                        Notes
----------------------------------------------------------------------------------------------------------------
BLM........................................     $1,200     $1,200
OSM........................................         85  .........
MMS........................................      4,308  .........  25,300 hours of overtime.
BOR........................................  .........  .........  No significant monetary impact.
USGS.......................................  .........  .........  No significant monetary impact.
FWS........................................         79         79  R7 AK, some costs to isolate data.
NPS........................................  .........  .........  < 100 hours of overtime.
IG.........................................         21         21
OIA........................................  .........  .........  No significant monetary impact.
                                            ----------------------
      Subtotal, on-line bureaus............      4,596      5,589
                                            ======================
Department.................................      1,550      1,550  SAIC IV&V Testing.
TrustNet (to date).........................        500        500
BIA........................................      4,100      4,100  OIRM Expenses to date.
OST........................................        109        109
SOL........................................      1,132      1,132
                                            ----------------------
      Subtotal, Balance of Dept............      7,582      7,582
                                            ======================
      Total to date........................     12,178     13,171
----------------------------------------------------------------------------------------------------------------
Costs will continue to accumulate for OST, BIA, SOL, and the Department.
Estimates of overtime values are not yet available for all bureaus.

    Question. Finally, I understand the computer shutdown has delayed 
many payments the Department is obligated to process within given 
timeframes. Has the Department been held responsible for late fees, 
interest charges or other penalties as a result of the problems caused 
by Judge Lamberth's decision to pull the plug on all Department 
operations? Do you have an estimate of these costs and how they are 
being addressed?
    Answer. The following bureaus incurred interest or late payment 
penalty fees as a result of the internet shutdown:
    FWS: $14,000
    NPS: $124,000
    MMS: $500,000 (only an estimate)
                 blm/bia--zortman-landusky mine cleanup
    Secretary Norton, I know you are aware of the Zortman/Landusky mine 
reclamation in North Central Montana. The state of Montana holds 
approximately $60 million in bond for the reclamation, but a recently 
released BLM/State DEQ joint SEIS recommends reclamation exceeding this 
bond by approximately $33 million. $11 million is still needed to 
supplement a trust ensuring the water treatment facilities can be 
operated in perpetuity.
    Question. It is my understanding the Montana BLM office identified 
this project as a top priority and requested increased funding in its 
fiscal year 2003 budget to address reclamation needs. Why did the 
Department of Interior not include this request in its final proposal 
fiscal year 2003 budget? Can you identify funding in your current 
budget request to support these activities?
    Answer. Because of competing priorities and constrained funding 
availability, additional funding for this project was not included in 
the 2003 budget request.
    Question. Will you work with me to ensure that the fiscal year 2004 
budget for BLM reflects a commitment by the Department of Interior to 
ensure, at the very least, adequate funding is dedicated to address the 
water treatment concerns outlined in the Record of Decision?
    Answer. The Department cannot make any funding commitments for 
fiscal year 2004.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
                funding for operation of indian programs
    Question. The President's Budget Request for fiscal year 2003 for 
the Operation of Indian Programs reflects an increase of $37 million 
over the fiscal year 2002 enacted level. What inflation rate is 
reflected in the President's Budget Request for the Operation of Indian 
Programs? What inflation rate is reflected in the President's Budget 
Request for the Department of Interior overall? If there is a 
difference, please explain.
    Answer. In estimating its budget request, the Department of the 
Interior estimates cost increases based on programmatic need and 
priorities across the Department. It does not use a general inflation 
rate as the basis for estimating budget needs. Cost increases are 
requested for such specific fixed cost increases as pay raises, 
including teacher pay raises, health benefits, rent, workers' 
compensation, unemployment compensation, and working capital fund 
expenses. Such increases are estimated uniformly across all bureaus.
    Question. Several Community Development Programs are within the 
Operation of Indian Programs Account. The President's requested amounts 
for Community Development represent significant decreases from the 
fiscal year 2002 enacted levels. How will the decreased funding impact 
Community Development in Indian Country?
    Answer. These decreases were within our Special Programs activity 
and will not impact ongoing Tribal/agency community development 
programs.
    There are a number of Community Development programs, such as the 
Distance Learning Project, United Sioux Tribe Development Corporation, 
and many others, for which no funding was requested.
    Question. Did the Bureau perform a review of these various 
Community Development programs, which concluded that these programs are 
ineffective? Will you provide the Committee with copies of any reports 
that indicate that the programs are ineffective?
    Answer. There are many needs in Indian Country and the current 
focus is on programs that serve Tribes on a nationwide basis. There was 
no determination that the programs denoted in the question are 
ineffective, but rather how the Bureau could fund higher priority 
programs in these times of fiscal constraints. The Bureau holds the 
annual budget meeting to obtain Tribal input on budgetary issues and 
concerns to assist in the budget formulation process for the next 
budget cycle. It was necessary to make some difficult decisions to 
eliminate funding for certain programs while funding others that would 
serve Indian Country on a larger scale to address many of the Tribal 
priorities. Funding is targeted at the primary and secondary 
educational level, including the pre-school level, in the fiscal year 
2003 budget request. Investment during the early stages of a child's 
education improves the chances of success not only in the secondary 
schools but also eventually in the post secondary schools.
                           homeland security
    Question. What plans, if any, does the Department have to involve 
Indian Country in Homeland Security?
    Answer. The Department envisions Indian County as a partner in 
homeland security. The Department is committed to sharing existing 
resources and providing resources and technical assistance in the 
future to increase the effectiveness of BIA contributions to homeland 
security. The partnership is being fostered through meetings with 
Indian Tribes at their locations, listening to the specific and often 
unique problems they are experiencing, and actually seeing the 
challenges they face at their locations. Through an exchange of ideas 
and information, and a closer working relationship with our Indian 
County partners, the Department envisions a stronger, more cohesive 
response to homeland security.
    Question. What role has the Department envisioned for Indian 
Country in Border Security?
    Answer. The Department has definite plans to involve Indian Country 
in border security. The Department recognizes there are 37 Indian 
Tribes with lands contiguous to, or in close proximity to our 
international borders with Canada and Mexico.
    For the previous two years, the Department, including 
representatives from the Bureau of Indian Affairs Office of Law 
Enforcement Services and the Office of Law Enforcement and Security has 
coordinated with border area Tribes in the development of DOI Border 
Strategies.
    The Department's strategies promote the cooperation of DOI law 
enforcement officers and agents from the different Bureaus, as well as 
area Tribal law enforcement officers, to enhance the law enforcement 
presence and response capabilities in the remote border areas.
    The success of the strategies has recently been highlighted in a 
multi-agency, jurisdictional law enforcement operation code named 
Operation Blueline X. This operation has occurred for 10 years on the 
Northern Olympic Peninsula of Washington State. The operation's primary 
focus is border interdiction of illegal drugs along the Straits of Juan 
de Fuca. The Incident Commander of the operation is a special agent 
with the NPS. Participants in the operation included special agents and 
officers from the NPS, BIA-OLES, U.S. Customs Service, U.S. Coast 
Guard, and Clallam County Sheriff's Office. The areas covered during 
this operation included several Indian reservations. The Department is 
planning similar operations in other Indian Country border area 
locations.
    The Department included specific language in what became 
legislative authority for the Bureau of Reclamation to contract with 
Indian County (Tribal), and other Federal, State and Local law 
enforcement programs to provide law enforcement security at major BOR 
dam sites, some of which are in close proximity to Indian reservations.
                            law enforcement
    As part of the new National Security initiative, it is the 
Committee's understanding that every Federal law enforcement agency was 
required to provide law enforcement officers to the Federal Air 
Marshall program.
    Question. How many BIA Law Enforcement officers have been provided 
to the Air Marshall program?
    Answer. Beginning in October 2001, the BIA detailed 22 law 
enforcement personnel to the Federal Aviation Administration (FAA) for 
the Federal Air Marshall program.
    Question. When will the BIA law enforcement officers be replaced 
and how much is requested to replace the law enforcement officers lost 
to the Air Marshall program?
    Answer. Every BIA officer serving with the FAA in the Federal Air 
Marshall program was returned to active duty with the BIA on April 1, 
2002.
    While the FAA reimbursed the travel costs and other expenses for 
these personnel, the BIA absorbed their salaries. The absorbed BIA 
salaries are estimated to total $400,000. Due to the relatively short 
duration of the details, the Department has not requested replacement 
funding.
                          detention facilities
    The President requested a $3 million increase for the Office of 
Facilities Management and Construction for detention facilities 
operations and maintenance. It is the Committee's understanding that 
this amount will only provide for 65 percent of the operations and 
maintenance needs of the new detention facilities being built by the 
Department of Justice and scheduled for completion in 2003.
    Question. Is this correct?
    Answer. The $3 million increase requested in the President's budget 
was for new and existing facilities operations. Of the increase 
request, $737,000 will provide the remaining funding needed to operate 
six recently constructed detention centers. The request will provide 
$658,000 in partial funding for operations at new detention centers 
that will come on-line at various times during the year. Over half the 
request, $1.605 million, will be used to increase support at existing 
operations.
    Question. There is already a backlog of the construction, repair 
and renovation needs of tribal detention facilities. Why would the BIA 
not request sufficient funds to maintain its new facilities?
    Answer. Since the operational costs are critical when opening a new 
detention center, priority was given to requesting funding for these 
costs. Deferring some maintenance during the first year of operation of 
a new facility is not likely to create a deficiency in the backlog.
    Question. In the absence of sufficient funding, will the new 
facilities not be used?
    Answer. The facilities will be opened and will be used.
    The Office of Law Enforcement Services developed a three-phase plan 
for funding and staffing new detention facilities being constructed by 
the Department of Justice. The third phase, scheduled to begin in 
fiscal year 2003, indicates a need for an additional $14 million for 
staffing costs at the 11 new facilities scheduled for completion in 
2003. Yet, no funds were requested to address the staffing needs for 
these 11 new facilities.
    Question. Without these funds, will the new facilities remain empty 
for 12 months or longer until the requisite funds for staff are 
appropriated for fiscal year 2004?
    Answer. The BIA will utilize available resources for operations of 
the detention centers.
    The San Carlos Apache Tribe received a grant from the Department of 
Justice for the construction of a new adult and juvenile rehabilitation 
and detention center. Under the three-phase plan prepared by the Office 
of Law Enforcement Services, $255,000 was to be distributed from fiscal 
year 2002 funds to begin the hiring process of appropriate staff. The 
Committee is advised that the Tribe has been informed that the $255,000 
may not be provided.
    Question. When will the fiscal year 2002 funds for staffing needs 
at new detention facilities be distributed?
    Answer. In accordance with the Assistance Secretary--Indian Affairs 
policy for tribal consultation prior to distributing funds, the Office 
of Law Enforcement Services provided a consultation with all tribes in 
the Nation. Sending a letter out to all tribal leaders requesting 
comments on the planned distribution methodology completed this 
consultation. Upon completion of this consultation, the Office of Law 
Enforcement Services distributed the funds on June 1, 2002.
    Question. Will all tribes receive their fiscal year 2002 funds in 
the amounts and in the time period identified in the three-year plan 
prepared by the Office of Law Enforcement Services?
    Answer. The distribution was completed on June 1, 2002. The 
comments returned through the consultation process did not adversely 
effect the planned distribution amounts.
                            social services
    The President's Budget Request proposes to cut funding for Welfare 
Assistance by $4 million. This is in addition to the $2.5 million cut 
made in fiscal year 2002. In the Budget Justification, the decrease in 
Welfare Assistance is justified because of the positive effects of 
Welfare Reform yet, at the same time, the Budget justification 
indicates that once the time limit on the receipt of welfare benefits 
is triggered, the General Assistance caseload will increase.
    Question. How do you reconcile the assertion that Welfare Reform 
has been such a success with the Department's statement that an 
increase in General Assistance participants is likely once Welfare 
Reform benefits are terminated?
    Answer. Welfare Reform has had a positive effect in bringing costs 
down, throughout the country, including Indian country. However, once 
Indian recipients have exhausted their State benefits, it is believed 
that many of these individuals will seek assistance from the Bureau's 
Welfare Assistance program and that program costs may increase.
    Question. What is the justification for the decreases to the other 
four programs funded under the BIA's Welfare Assistance fund?
    Answer. The majority of the decrease was expected to impact the 
general assistance program. As Indians are eligible for Temporary 
Assistance to Needy Families (TANF) assistance, this has reduced the 
BIA caseload for general assistance without impacting the benefits 
available to Tribes and individual Indians. Also, the Bureau is 
expecting a slight decrease in adult care expenditures due to tightened 
regulations. The Bureau expects the Child Welfare Assistance program to 
remain at about the same level. On the other hand, the Bureau expects 
the Tribal Work Experience Program (TWEP), a work related program for 
general assistance recipients, to increase. The miscellaneous 
assistance category was higher than expected in fiscal year 2000 and 
fiscal year 2001 because of a fishing disaster in the State of Alaska. 
The fiscal year 2003 estimate does not reflect expenditures related to 
the Alaska disaster.
    Question. Has the Bureau determined what kind of impact that this 
reduction in funding will have on Indian Tribes and individual Indians?
    Answer. The Personal Responsibility and Work Opportunity 
Reconciliation Act of 1996 established the Temporary Assistance to 
Needy Families (TANF) program, which provides States block grants for 
welfare assistance. As Indians are eligible for TANF assistance, the 
Bureau has revised its current welfare assistance regulations to 
incorporate welfare reform activities. This has reduced the BIA 
caseload for welfare assistance without impacting the benefits 
available to Tribes and individual Indians.
            office of alcohol and substance abuse prevention
    The responsibility for the Indian Alcohol and Substance Abuse 
Prevention and Treatment program is currently shared between the 
Department of Interior and the Department of Health and Human Services. 
An Inter-Departmental Memorandum of Agreement defines the scope of the 
program for each department, assigning treatment and recovery functions 
to the Department of Health and Human Services and assigning the 
prevention function to the Department of Interior, Bureau of Indian 
Affairs. Pending legislation would vest the Department of Health and 
Human Services with the responsibility to develop and implement a new 
Inter-Departmental Memorandum of Agreement for consolidation of 
programs.
    Question. Do you support the proposal that the Department of Health 
and Human Services assume the lead responsibility for the Alcohol and 
Substance Abuse Program?
    Answer. BIA is currently the point of contact for Tribes, States, 
and other Federal agencies regarding tribal alcohol and substance abuse 
programs. BIA has a much broader and more comprehensive responsibility 
than HHS. BIA's responsibility goes beyond health and treatment 
responsibility to include law enforcement, highway safety, school/
educational efforts, social services, and tribal law and courts. BIA 
recognizes that alcohol and substance abuse is a serious problem on 
reservations and is committed to working with HHS to address the 
problem.
    Alcoholism and substance abuse in Indian country are far in excess 
of the rest of America. Yet, the Office of Alcohol and Substance Abuse 
is funded only at $397,000.
    Question. Given the statistics that indicate the substantial role 
of alcohol in crime, domestic violence, school truancy and other areas, 
is this amount sufficient to address the alcohol and drug prevention 
needs of the 561 Indian tribes?
    Answer. BIA recognizes that alcohol and substance abuse is a 
serious problem in Indian Country. The Office of Alcohol and Substance 
Abuse has a limited, but important role of providing coordination and 
oversight of prevention efforts, as well as technical assistance to 
Tribes. The office coordinates with the BIA Office of Law Enforcement 
Services, the Office of Tribal Services, and the Indian Health Service 
(IHS), the Substance Abuse and Mental Health Services Administration 
(SAMHSA), and the Center for Substance Abuse Prevention within HHS. The 
bulk of funding for alcohol and substance abuse is provided through HHS 
programs.
    Question. What is the actual amount of funds needed to adequately 
address these problems?
    Answer. According to SAMHSA data, American Indians/Alaska Natives 
have the highest rate of past year drug dependence and second in 
alcohol dependence, which is evidence that alcohol and substance abuse 
problems in Indian Country are not being adequately addressed. However, 
it is difficult to estimate the amount of funds that would be needed 
because there are so many components of the problem--fetal alcohol 
syndrome, parental neglect, child abuse, mental health, physical 
health, unemployment, crime and poverty. Furthermore, there are 
numerous Federal programs, as well as State and Tribal programs that 
are working to address the substance abuse problem in Indian Country, 
as well as the contributing factors to substance abuse and the problems 
that substance abuse causes.
                          social services/iim
    As part of the trust reform efforts by the Department of Interior, 
an additional $2 million is requested for Social Services. The funds 
will be used for increased responsibilities related to the management 
of Individual Indian Monies (IIM) accounts for minors, adults in need 
of assistance, adults under legal disability and adults who are judged 
to be non compos mentis. The Budget justification indicates that the 
BIA plans to outsource the funds first to state departments of human 
services and state institutions. If states are unable to contract the 
duties because of the large caseloads that they are experiencing, then 
the Bureau will hire 12 Master of Social Work level social workers.
    Question. Does the Bureau of Indian Affairs currently provide 
states with the first priority in contracting social work 
responsibilities related to the management of Individual Indian Monies 
accounts?
    Answer. The Bureau will not give preferences to states for 
contracting of any of its programs; however, states are considered to 
be the most likely candidates for outsourcing because of their 
experience in providing protective services. Other options will be 
considered, including contracting with Tribes or Tribal organizations 
for these services. The Bureau is not locked into any one method or 
source for outsourcing.
    Question. What data or reports were used to determine that 
outsourcing to states, as compared to contracting with tribes or hiring 
the social workers directly, is more efficient, culturally appropriate, 
or will result in better services?
    Answer. States are considered to be the most likely candidates for 
outsourcing because of their experience in providing protective 
services. However, the Bureau is not ruling out any other sources for 
contracting.
    Question. How will the Bureau ensure that the states provide for 
Indian preference and hire culturally knowledgeable individuals to 
manage Individual Indian Monies accounts?
    Answer. The Bureau would require any contractor to make available 
culturally knowledgeable staff for this type of project or set up a 
mechanism whereby they were trained to become culturally knowledgeable. 
In addition, there are numerous Native Americans employed in states 
with large American Indian populations.
    Question. Has the Department started to implement this outsourcing 
initiative?
    Answer. In bureaus throughout the Department studies to evaluate 
competitive sourcing potential have started to determine if program 
functions may be operated more effectively. However, no action can be 
taken for this particular initiative until the resources become 
available through the appropriations process.
                bia education budget (fiscal year 2003)
    Question. Indian Student Equalization Program funding is used to 
operate BIA schools. However, the requested amount for Indian Student 
Equalization Program funding is not sufficient to cover the mandatory 
pay adjustments. As a result, there is a decrease in funding for the 
Indian Student Equalization Program. How is this consistent with the 
President's priority of ``No Child Left Behind?''
    Answer. The funding level requested in the President's budget for 
Indian Student Equalization Program (ISEP) represents a new estimate 
for the projected student population in School Year 2003-2004. 
Projections for the Weighted Student Unit (WSU) funding available for 
each student is projected to increase in fiscal year 2003 (School Year 
2003-2004). This will enable the President to ensure that No Child is 
Left Behind. There will be sufficient funds available for the mandatory 
pay adjustment.
    Question. Although the President's Budget requests a $2 million 
increase for student transportation, last year, the BIA estimated that 
student transportation was underfunded by $11 million. The public 
school per-mile average six years ago was $2.97 per mile. For fiscal 
year 2003, the requested increase for BIA-funded schools will provide 
only $2.37 per mile. If the Bureau's own data shows that an additional 
$11 million is needed, why wasn't the full amount of needed funds 
requested?
    Answer. The Bureau is currently doing a cost analysis to determine 
actual transportation costs rather than relying on a national average. 
The results of this analysis will enable the Bureau to more accurately 
determine the need for transportation resources in future budget 
requests.
    Again this year, the President's Budget Request proposes to provide 
inadequate funds for Administrative Cost grants (AC Grants). AC Grants 
are used by schools for administrative and indirect cost expenses, such 
as accounting and auditing expenses, incurred in the operation of a 
BIA-funded school.
    The Bureau acknowledges that AC Grants were funded at only 70 
percent of need last year and that this year, they will be funded at 75 
percent of need. At the same time, the Bureau has a school 
privatization proposal that would provide incentives to private 
educational organizations to take over the management of schools now 
operated by the Bureau.
    Question. Does the Bureau expect that tribes will want to contract 
or grant schools when insufficient funding for such operation is 
provided?
    Answer. The Bureau funding levels for Tribal grant and contract 
schools provide for increases in several areas. The Administration's 
request also seeks more resources for student transportation and 
facilities maintenance and operations, which provides additional 
resources to Tribally operated schools. The combination of these 
requests should make it more desirable for tribes to seek contract or 
grant status.
    Question. If the Bureau acknowledges the insufficient funding, is 
the Bureau planning on amending its request to provide for full funding 
of AC Grants?
    Answer. The Administration increased funding for several programs 
(Administrative Cost Grants, student transportation, and facilities 
maintenance and operations) that affect Tribal grant and contract 
schools in its budget request. At this time the Administration believes 
the requested funding appropriately addresses school priorities.
                          economic development
    In the President's budget summary for the Department of Labor, 
there is a proposal to eliminate or consolidate numerous job-training 
plans. The summary indicates that 9 job-training programs serving 
American Indians and Alaska Natives administered by the Department of 
Interior will be eliminated or consolidated.
    Question. Please identify which programs will be eliminated or 
consolidated and provide the justification for the elimination or 
consolidation.
    Answer. The 9 training programs are the: Distance Learning Project, 
Cheiron Foundation Training, Tribal Guiding program, National 
Ironworkers Training program, Alaska Native Aviation Training program, 
Yuut Elitnauviat People's Learning Center, United Sioux Tribe 
Development Corporation, Crownpont Institute of Technology, and United 
Tribes Technical College. Funding for these programs is being 
eliminated in order to focus funding on programs of higher priority to 
Tribes on a nationwide basis.
    Question. In the BIA's 1999 Indian Labor Force Report of the total 
labor force, it was reported that 43 percent of Indians living on or 
near their reservations were unemployed. And of those who were 
employed, 33 percent were living below poverty guidelines established 
by the Department of Health and Human Services. Given the rate of 
unemployment on reservations, what was the justification for decreasing 
the funding of the Indian Arts and Crafts Board?
    Answer. The fiscal year 2002 appropriation for the Indian Arts and 
Crafts Board (Board) is $1,548,000. $1,048,000 of this amount is for 
Board programs. The priority is the enforcement of the Indian Arts and 
Crafts Act, with $500,000 earmarked by Congress for a $250,000 Grace 
Hudson Museum exhibit enhancement project in Ukiah, California, and 
$250,000 for the State of Alaska market access program.
    The request for fiscal year 2003 discontinues these two 
Congressionally earmarked projects. Therefore, the request of 
$1,061,000 for the Board does not reflect a decrease in Board funding. 
Instead, it reflects level funding for the Board's enforcement and 
economic development programs, with a nominal increase for 
uncontrollable costs.
                          reprogramming funds
    In Section 634 of the Government-wide provisions section of the 
President's Budget Request, there is a proposal to enable the President 
to transfer up to five percent of funds from any Federal department, 
agency, or corporation to any other account that he wishes.
    Question. Do you know whether the President plans to transfer funds 
from the BIA to another account? Does the President plan to transfer 
the full 5 percent from the Department?
    Answer. The Department is unaware of any plans within the 
Administration that would transfer budgetary resources from the BIA, or 
from elsewhere in the Department, using the authority requested by the 
President's Budget in the Govenment-wide general provisions.
    Under the Federal Activities Inventory Reform Act, Federal agencies 
must identify commercial activities performed by Federal employees. The 
Interior Budget in Brief states that the Department will examine 5 
percent of its Full Time Employees in 2002 and 10 percent of its Full 
Time Employees in 2003 to determine whether these functions might be 
better performed by non-Federal employees.
    Question. Other than cost, what factors will the Department examine 
to determine whether non-Federal employees can better perform the 
functions?
    Answer. One must consider whether the retention of the commercial 
function is needed to perform agency mission, any additional capital 
investment to update/upgrade technical capability needed, and 
additional human capital assets and resource needs if work is to be 
performed by in-house personnel.
    Question. Will the Department apply Indian preference when 
assessing Indian-related functions?
    Answer. Yes, especially for those activities in the Bureau of 
Indian Affairs and Office of Special Trustee where Public Law 93-638 is 
applicable.
    Question. Will the Department require knowledge of Federal Indian 
law or Indian culture when assessing Indian-related functions for 
performance by non-Federal employees?
    Answer. Absolutely. A significant level of knowledge, understanding 
and expertise on Native-American related issues are needed to render 
effective service.
    Question. How will the Department ensure that the trust 
responsibility to Indians will be fulfilled by private contractors?
    Answer. Fulfillment of the trust responsibility to Indians is an 
inherently governmental responsibility. Initially, we will determine 
which positions that are not inherently governmental in nature and core 
essential to continued mission performance, and only utilize 
contractors when determined economically and efficient to do so in 
accordance with existing laws and regulations.
                              consultation
    Last fall, the Bureau proposed to reorganize the trust function 
duties without consulting with Indian tribes.
    Question. What is the Department's definition of tribal 
consultation and when does the Department believe the process of 
consultation should begin?
    Answer. In keeping with the Secretary's four C's--Consultation, 
Conservation, Coordination, and Communication--the Department consults 
with tribes as early as possible on issues concerning Indian Country. 
Collaboration with tribes is one of the Secretary's highest priorities. 
The Department's trust reform management team worked with a task force 
of 24 tribal leaders selected by their peers from tribal governments 
throughout the Nation on a new organization for trust asset management.
    Throughout the Department of Interior's Budget Justification, there 
are proposed funding cuts for programs and even the elimination of some 
programs. The justification for many of these cuts is that the 
Department proposes to focus funding on programs of higher priority to 
Tribes on a nationwide basis.
    Question. Did the Department consult with Indian tribes to 
determine the tribal priorities with respect to funding of programs?
    Answer. The Bureau holds the annual budget meeting to obtain Tribal 
input on budgetary issues and concerns to assist in the budget 
formulation process for the next budget cycle. There are many needs in 
Indian Country and the current focus is on programs, which serve Tribes 
on a nationwide basis. As a result, it was necessary to make some 
difficult decisions to eliminate funding for certain programs while 
funding others that would serve Indian Country on a larger scale to 
address many of the Tribal priorities. Funds are targeted at the 
primary and secondary educational level, including the pre-school 
level, in the fiscal year 2003 budget request. Investment during the 
early stages of a child's education can improve the chances of success 
not only in the secondary schools but also eventually in the post 
secondary schools. Funds were targeted in the fiscal year 2003 budget 
request to address this as well as other programs of higher priority to 
Tribes on a nationwide basis. There was no determination that the 
programs denoted in the question are ineffective, but rather how the 
Bureau could fund higher priority programs in these times of fiscal 
constraints.
                              trust reform
    The Department is requesting that new language be added to the 
Interior Appropriations bill providing that, with regard to 
overpayments made to holders of trust accounts, ``erroneous payments 
that are recovered shall be credited to this account.''
    Question. What are the Department's existing procedures for 
recovering overpayments?
    Answer. Under the current statutes, any collected payments of such 
general funds are deposited into the U.S. Treasury. The Department 
needs the authority to retain the funds to offset the erroneous payment 
made. The following is a summary of the procedures that are generally 
followed by the Office of Trust Funds Management when erroneous 
payments are made to accountholders:
  --Determine the cause of the erroneous payment, the responsible 
        office and whether the funds remain on deposit in the trust 
        account(s).
  --If the funds are still on deposit in the trust account(s), and 
        certain other criteria is met, then the procedures as outlined 
        in the section 6-9 of the BIA/OST Handbook are followed.
  --If the funds are no longer on deposit in the trust account(s), or 
        the criteria in section 6-9 of the BIA/OST Handbook are not 
        met, then based on the amount involved, appropriated funds may 
        be utilized to pay the correct account(s). Comptroller General 
        Opinion B-219235 of March 23, 1988, 25 CFR Ch, I (4-1-01); 25 
        CFR Sec. Sec. 115.600 et. seq. and provisions of the Snyder Act 
        also include methods and process the government follows to 
        address collection of payments. The appropriated funds for the 
        office responsible for the error would be utilized if it were 
        decided to use appropriated funds to pay the correct 
        account(s).
  --If appropriated funds are utilized, then it is determined whether 
        the administrative costs related to recovering the funds from 
        the account(s) paid in error would be greater than the amount 
        to recover. If the administrative costs are greater than the 
        amount to recover, then no efforts are made to recover the 
        funds paid in error. If it is determined that the 
        administrative costs related to recovering the funds from the 
        account(s) paid in error are less than the amount to recover, 
        or appropriated funds were not utilized to pay the correct 
        account(s), then the process of restricting the account(s) paid 
        in error are followed as outlined in 25 CFR Part 115, Subpart E 
        are followed for individual accounts. If tribal accounts were 
        paid in error, then the tribe is contacted and the requirements 
        as outlined in 25 CFR Part 115, Subpart G are followed.
  --If appropriated funds are used to pay the correct account(s), and 
        the Department is going to attempt to recover the amounts as 
        outlined in the previous bullet, then a receivable is 
        established on the Federal Finance System (FFS) for the amount 
        to be recovered.
  --If appropriated funds were not previously utilized to correct the 
        error, then once the amount paid in error is recovered, it is 
        posted to the trust account(s) that should have received the 
        funds had the error not occurred and the receivable established 
        in FFS is relieved. If appropriated funds were previously 
        utilized to correct the error, then once the funds are 
        recovered, the receivable established in FFS is relieved.
    Question. What is the statutory authority for this recapture of 
overpayments?
    Answer. The Snyder Act of 1921, 25 USC 13 authorizes appropriations 
and expenditures for the administration of Indian affairs and for 
general and incidental expenses in connection with the administration 
of Indian affairs.
    The President has requested a substantial increase in funding for 
trust management reform.
    Question. How will the Department use these funds to address the 
breaches of trust identified by the Cobell v. Norton litigation, and 
the need to undertake a historical accounting of trust accounts?
    Answer. The Department plans to continue to address trust reform 
initiatives addressed in Cobell v. Norton and is also actively 
undertaking efforts to address historical accounting. The Office of 
Historical Accounting has submitted its work on a report to Congress on 
July 2, 2002 outlining a plan to perform a historical accounting for 
current and past individual Indian account holders. The breaches of 
trust--systems architecture, workforce planning, and collection of 
missing information and records management all have specific programs 
underway to address these requirements. The Status Report to the Court 
Number Ten, dated August 1, 2002 provides a more extensive and detailed 
status of the efforts underway by the Department to address trust 
reform. A copy of the report was provided to the Committee.
    The Secretary's proposal to reorganize the Department's trust 
management functions through the creation of the Bureau of Tribal Asset 
Management (BITAM) has been put on hold while the Department consults 
with tribes.
    Question. In light of the existing uncertainty as to the eventual 
structure of the Department's trust management functions, how does the 
Department plan to use this increased funding level to enable 
significant progress to occur on resolving existing breaches of the 
United States' trust responsibility to Indians?
    Answer. The Departments efforts to continue building relationships 
and understanding with trust beneficiaries are ongoing. DOI's trust 
reform management team has been working with a task force of 24 tribal 
leaders selected by their peers from tribal governments throughout the 
United States. While these efforts are underway, trust reform 
activities are being actively implemented. DOI is creating an ``as-is'' 
business model of trust asset management. Once completed, a team of DOI 
and tribal representatives will then create a new model for trust asset 
management. In addition, on September 17, 2002, a ruling by the Court 
in Cobell v. Norton require the Department to provide to the Court no 
later than January 6, 2003: a plan for conducting a historical 
accounting of IIM trust accounts; and a plan for bringing the 
Department into compliance with the fiduciary obligations that are owed 
to IIM beneficiaries, including describing, in detail, the standards by 
which the Department intends to administer IIM trust accounts and how 
the proposed actions bring the Department into compliance with the 
standards.
    Question. Does the Department regard the need to address existing 
breaches of trust as an extraordinary expense that justifies the 
shifting funds from other Indian programs, rather than as justification 
for increasing the total funding for Indian programs?
    Answer. The Department views the need to address the existing 
breaches of trust as significant extraordinary expenses. These 
additional requirements have been identified as budget increases and 
included in the budget justifications each year. The Department has not 
shifted resources from other Indian programs to address trust reform. 
The Department has requested increased funding in both the OST and BIA 
appropriations in the past several fiscal years.
    Question. It is the Committee's understanding that since the 
Department's computer system was shut down by court order, estimated 
oil and gas royalty checks to Indian allottees have been made. Also, a 
recent field hearing in New Mexico demonstrated that mineral royalty 
payments to trust beneficiaries are still subject to delay. How and 
when does the Department plan to resolve these problems?
    Answer. OST has received a number of inquiries regarding the 
estimated royalty payments made by the Department of the Interior in 
February and March 2002 and the process being used to recover those 
estimated payments now that actual oil and gas distributions have 
resumed. The letter described below is intended to clarify the 
estimated payment and recoupment processes.
    The Office of the Special Trustee for American Indians mailed a 
letter explaining the recoupment process to all of the estimated oil 
and gas recipients with valid addresses in the Trust Funds Accounting 
System (TFAS). Also included in the envelope was a separate recap sheet 
dated August 1, 2002 and providing information on:
  --Individual Indian Money (IIM) Account Number.
  --Amount Received for Both Estimated Payments.
  --Amount Recouped to Date.
  --Amount Remaining to be Recouped.
  --Amount Received in Excess of Amount Recouped.
    Printed on the recap sheet was the OST toll free number in case 
they had any questions. The calls will be going to the Office of Trust 
Funds management (OTFM) Field Operations Office in Shawnee, OK.
    A copy of the letter follows:

    ``Dear Account Holder: We have received a number of inquiries 
regarding the estimated royalty payments made by the Department of the 
Interior in February and March 2002 and the process being used to 
recover those estimated payments now that actual oil and gas 
distributions have resumed. This letter is intended to clarify the 
estimated payment and recoupment processes.
    ``An oil and gas royalty payment occurs as a result of information 
collected, shared and processed among several government agencies and 
operators/producers who are engaged in the production of oil or gas 
from Indian trust lands. In order to process these payments as quickly 
as possible, both industry and the government rely on computer 
technology to acquire, sort and process relevant information. There are 
four government agencies involved in the oil and gas royalty payment 
process. The Minerals Management Service (MMS) receives and deposits 
the payments from the producers with the Department of Treasury. MMS 
also collects royalty production information from the producers via the 
Internet. Once MMS reconciles the production information it receives 
from producers, the dollar amount collected and the identification of 
the associated lease are electronically transferred to the Bureau of 
Indian Affairs (BIA) on a bi-monthly basis. The BIA then determines the 
individual ownership of the allotment(s) subject to the lease and the 
corresponding amount to be credited to the individual owners' 
Individual Indian Monies (IIM) accounts. The BIA electronically 
transmits this information to the Office of Trust Funds Management 
(OTFM). OTFM then processes the BIA transmission, which results in 
credits to the IIM accounts for the oil and gas royalty payments, the 
printing and mailing of Explanations of Payment, and the generation of 
a disbursement in the form of a check or direct deposit if the IIM 
account instructions so indicate.
    ``In December of 2001, the federal district court presiding in the 
case entitled Cobell v. Norton, responding to security concerns 
expressed by the Special Master (an individual assigned by the federal 
judge presiding over this case), ordered that all Department of the 
Interior (DOI) agencies having access to individual Indian trust data 
be disconnected from the Internet. Unfortunately the reliance upon 
computer technology meant that MMS could not receive the oil and gas 
royalty information from the producers, and could not transfer the 
information described above to BIA. Therefore, BIA was also unable to 
transfer necessary information to OTFM in order for OTFM to post oil 
and gas royalty payment credits to IIM accounts, print and mail 
Explanations of Payment, and generate disbursements if the IIM account 
instructions so indicated.
    ``In an effort to limit the harm resulting to Indian trust mineral 
owners from non-processing of these oil and gas royalties, the DOI 
initiated an estimated payment effort based on oil and gas royalty 
information existing from royalty distributions processed in October 
and November of 2001. An average of the payments received in an IIM 
account for the two-month period was calculated. If the average amount 
calculated was $5.00 or greater, the average amount calculated was 
credited to the corresponding IIM account. This process resulted in 
approximately $3.6 million dollars ($1.8 million for February 21, 2002 
and $1.8 million for March 21, 2002) being credited to approximately 
10,000 IIM accounts. The estimated payment amounts were not intended to 
be an entitlement. Rather it was understood that when the processing of 
actual oil and gas royalty payments resumed, the estimated payment 
amounts were to be recouped.
    ``At about the time the second estimated payment was being 
processed, a consent decree between the Special Master, the DOI and the 
plaintiffs in the Cobell v. Norton case was entered by the court 
allowing MMS to reconnect some Internet capabilities in order to 
process oil and gas royalty payments. However, because producers were 
not able to submit production information to MMS during the internet 
disconnect period, a backlog had built-up in processing the oil and gas 
royalty payments that had been received over this period. In order to 
eliminate the backlog as quickly as possible, the four DOI agencies 
involved with oil and gas royalties resumed processing March 27, 2002 
on a weekly basis. Recoupment of the estimated payment amounts credited 
to IIM accounts began with the first weekly distribution in April 2002. 
This means that until an IIM account holder has his or her estimated 
payment amount fully recouped, they will not receive oil and gas 
royalty payments in the form of a check or direct deposit, but will 
continue to receive the Explanation of Payment as the oil and gas 
royalty payments reflected on the Explanation of Payment are being 
posted to the IIM account as well as the recoupment transaction. 
Additionally, the explanation associated with the recoupment 
transactions shows the total amount of estimated payments posted to the 
account, the amount recouped to date and the amount remaining to be 
recouped. This information will be reflected on the quarterly statement 
mailed to the address of record for the IIM account.
    ``In light of the above it is important to note that until all of 
the estimated payment amounts issued are recouped, oil and gas royalty 
account holders will not receive a check with the Explanations of 
Payment that they are receiving even if they have had the estimated 
payment amount that they received fully recouped. Instead, those 
account holders who have had the estimated payment amounts that they 
received fully recouped are receiving a check issued from their IIM 
account with the notation of `Account Balance'. If prior to the 
Internet disconnect, you were receiving direct deposit, once the amount 
of the estimated payments that you received are fully recouped, your 
direct deposits will continue as before as long as the instructions for 
the IIM account so indicate.
    ``As of August 1, 2002, over 98 percent of the oil and gas royalty 
account holders that received estimated payments have had the estimated 
payment amount fully recouped from actual royalty payments received 
through MMS and the BIA. Attached is a recap of the activity associated 
with the estimated payment amounts that you received. We hope that you 
will find this letter and recap informative, and apologize for the 
inconvenience and confusion resulting from the Internet disconnect.''
                 branch of acknowledgment and research
    Question. Does the Department believe that the Branch of 
Acknowledgment and Research can fulfill its responsibility in a timely 
manner with the current level of funding and staffing? What plans does 
the Department have to increase the ability of this branch to function 
in a timely manner?
    Answer. On November 2, 2001, the General Accounting Office (GAO) 
released a report on the acknowledgment process entitled ``Improvements 
Needed in Tribal Recognition Process.'' The two concerns raised by GAO 
were the need to improve the speed and transparency of the decision-
making process. Currently, the Branch of Acknowledgment and Research 
(BAR) has three research teams. Each team is composed of a cultural 
anthropologist, a genealogist, and a historian. The fiscal year 2003 
President's Budget includes $1,100,000 in funding for three teams and 
support staff for BAR. To improve the speed and transparency of the 
process additional research teams and additional support staff would 
need to be provided. As petitions are processed, increases in 
administrative work such as processing FOIA requests, preparing 
administrative records, and addressing appeals will occur. The 
additional support staff would focus on administrative functions and 
allow the six research teams to focus on the documented petitions.
                   indian land consolidation program
    Question. The Administration proposes to reduce the budget for this 
program by $3 million, from $10.98 million to $7.98 million. The Budget 
justifies the decrease because there are unspent carryover funds 
available. Why were the funds appropriated in fiscal year 2002 not 
expended?
    Answer. The purpose of Indian Land Consolidation program is to 
reduce fractionated ownership of Indian lands through implementation of 
the Indian Land Consolidation Act Amendments of 2000. This acquisition 
program has been very successful; however, program administration has 
not been able to keep pace with the growing interest in the program. 
Time required to conduct appraisals, title searches and other 
administrative requirements, were compounded by the impact of the BIA 
Internet shut down during fiscal year 2002. We have provided addition 
staff, training, and administrative support to this program to process 
pending and new applications. Any funds not obligated in fiscal year 
2002 will carryover to the next fiscal year and are anticipated to be 
obligated in fiscal year 2003.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
                    platte river endangered species
    As you know, in 1997 the States of Colorado, Wyoming, and Nebraska 
entered into a Cooperative Agreement for endangered species on the 
Platte River in Nebraska. Colorado water suppliers hundreds of miles 
upstream from where these species (the whooping crane, piping plover, 
least tern and pallid sturgeon) are affected by the Endangered Species 
Act. The science behind this Cooperative Agreement has become very 
controversial.
    You may have heard about federal biologists wanting to dump 500 
tons of sand in the Platte River in Nebraska for the alleged benefit of 
these species! The states and water users also have real questions 
about the science behind so-called target flow requirements for these 
birds (and a fish). As you know, Colorado faces the worst drought in 
its recorded history. Water suppliers hundreds of miles upstream have 
to sacrifice water for species in Nebraska based on questionable 
science.
    The participants in this Platte River Cooperative Agreement propose 
an independent study of the science behind these issues by the National 
Academy of Sciences (NAS). I understand the Bureau of Reclamation alone 
contributes up to $2 million per year for the Platte River Cooperative 
Agreement.
    Question. Secretary Norton, would you support an NAS study?
    Answer. Yes, the Department is supportive of a National Academy 
Review of endangered species issues in the Platte River Basin.
                       hazardous fuels reduction
    As we all know, Colorado is in trouble with these fires. Here it 
is, only June 13th, and thousands of acres of have already burned. Over 
80 percent of Colorado has been classified under the U.S. Drought 
Monitor as ``Extreme'' drought or ``Exceptional'' drought, which is 
obviously worse.
    This drought is going to create a lot of hazardous fuels for future 
fires (if it isn't burned by now). The Forest Service told me that they 
are behind in fuels reduction due to ``analysis paralysis.''
    Question. I am curious as to your level of progress in fuels 
reduction and if you have encountered the types of setbacks and delays 
experienced by the Forest Service.
    Answer. The Department is making good progress in its fuels 
treatment program. In 2002 the Department treated over 1,050,000 acres. 
This exceeds by 44 percent the 728,000 acres treated in 2001. For 2003, 
the program plans to treat at least 1,118,000 acres.
    With respect to Colorado, the 2002 target was 83,500 acres. The 
Department treated 22,254 acres. Our inability to achieve the target 
was a function of significant wildland fire activity in Colorado and 
the minuscule burn window available in which to conduct prescribed 
fires.
    Generally, appeals and concerns about appeals can adversely impact 
the Department's ability to conduct needed fuels treatments, delaying 
and constraining such projects. While a problem for the Department of 
the Interior, the Department understands that it is even more so for 
the Forest Service because Forest Service fuels treatment projects are 
subjected to a more cumbersome review and approval process that creates 
more opportunities for procedural delays, administrative appeals, and 
litigation.
                          school construction
    The Request includes $121 million to fund 6 Schools on the 
``Replacement School List''. Given the length of that List, two 
questions come to mind:
    Question. At the current rate of Annual Funding, when will the List 
be eliminated?
    Answer. The existing priority list published in the Federal 
Register on January 9, 2001 contains 20 replacement schools. If fiscal 
year 2003 funding is provided as requested, only three schools on the 
list will remain unfunded. The three schools that will remain on the 
list to be funded in fiscal year 2004 will be Turtle Mountain High 
School, ND, Mescalero Tribal School, NM, and, Enemy Swim Day School, 
SD. Consequently, at the current rate of funding, the existing 
replacement school priority list will be eliminated with fiscal year 
2004 funding. With this progress, the Bureau will be developing a third 
priority list for replacement of schools to be published in the Federal 
Register in the near future.
    Question. Does the Administration support creative ways to finance 
Indian School Construction, for instance co-financing with willing 
Tribes or initiatives such as the ``Indian School Bonding Initiative'' 
(S. 243) that would complement Federal funds by issuing debt 
instruments to raise capital in the private markets to build Indian 
Schools?
    Answer. The Department and the Assistant Secretary--Indian Affairs 
have in the past and continue to seek alternative sources of funding to 
supplement current appropriations for replacement, repair, and 
improvement of existing school facilities. The Assistant Secretary has 
expressed to the Congress his support of the bonding concept contained 
in the S. 243 legislation. And, if the legislation is passed this year, 
the Bureau would seek to implement the program as soon as practical and 
in coordination with the Tribes so that additional funding needs of 
high priority school projects could be addressed in future fiscal 
years.
                       tribal energy development
    The BIA request includes $2.8 million for ``Minerals and Mining 
Management'' a 29 percent increase over fiscal year 2002. This amount 
includes $1 million for the ``Mineral Assessment Program''. Also, the 
request includes $585,000 for an ``Energy Oversight and Coordination 
Team'' to implement the Bureau's Energy Development Plan.
    Question. There seems to be a lot of overlap in the Mineral 
Assessment Program and the Energy Oversight and Coordination Team. Can 
you explain how these programs interact?
    Answer. Funding for the Energy Oversight And Coordination Team 
($585,000) would be used to establish work groups to address planning, 
development and implementation of energy policies, which includes 
consultation with Tribes concerning trust responsibility and 
conservation issues. This initiative would be part of the Economic 
Development program under the Bureau's Tribal Priority Allocations 
Program. The overall goal of the economic development program is to 
provide Tribes with the resources necessary to develop a self-
sustaining economic base. The potential exists for additional energy 
production on Indian lands, and this initiative would help build the 
capability of Tribes to promote and market their energy resources.
    The Mineral Assessments Program ($1 million) provides grants to 
Tribes to evaluate mineral resource potential through the acquisition 
of exploratory data and the subsequent geoscientific interpretation, 
and to develop Integrated Resource Management Plans (IRMP). This 
information helps Indian landowners ascertain the potential value of 
their lands for leasing purposes and assists them in resource planning. 
Funding for this program is provided under the Bureau's Non-Recurring 
Program.
    In short, the Minerals Assessment Program helps Tribes evaluate 
what mineral resources they have, the Energy Oversight and Coordination 
Team will help them promote and market these energy resources.
    Question. Has the Department undertaken any analysis to see how the 
Regulatory and Administrative processes of the Department and the 
Tribes can be streamlined so that Energy Projects are encouraged and 
not made difficult by the stifling bureaucracy?
    Answer. Several actions are underway or completed, which will 
result in greater efficiencies in the development of Indian energy and 
minerals resources. BIA is currently revising its 25 CFR Part 216 
regulations related to the exploration, mining, and reclamation of 
Indian minerals. Although BIA authorizes the development of energy and 
mineral resources on Indian lands, other agencies in the Department 
provide operational assistance. BLM is working with the BIA to ensure 
that the 25 CFR 216 regulations contain certain regulatory provisions 
governing Federal energy and minerals leases, which will also apply, to 
operations on Indian lands. The regulations are also being rewritten in 
plain English.
    BLM has solicited industry and trade group comments to help 
identify problems with the Application for Permit to Drill process 
(APD). BLM is implementing technological improvements such as on-line 
APD processing and the well information service that potentially would 
speed the processing of energy projects on tribal lands. BLM's efforts 
to streamline its APD process and enhance its Inspection and 
Enforcement program are expected to result in improved processing and 
compliance on Indian lands.
    In addition, agencies in the Department are working to improve 
communication with Indian beneficiaries relative to energy development 
on tribal and allotted lands. For example, BIA, OSM and BLM just 
revised an interagency memorandum of understanding to streamline and 
clarify the responsibilities of each agency for Indian coal leasing and 
operations.
                     self-determination contracting
    I am encouraged that the Department is continuing to support Tribal 
Self Governance Contracting and Compacting and the way I see it, 
encouraging ``outsourcing'' of BIA functions to the Tribes seems to 
directly correspond to the President's goal of maximizing outsourcing 
of Federal programs.
    Question. Does the Department take the view that Tribal Contracting 
and Compacting represents the kind of ``outsourcing'' the President has 
in mind? Are there plans to encourage additional Tribes to become 
Contractors and Compactors under the Indian Self-Determination Act?
    Answer. The Department views contracting and compacting of Bureau 
programs as a form of competitive sourcing, in accordance with the 
President's Management Agenda.
    The Bureau has a very active and popular education and training 
program for Bureau and tribal staff with regard to Public Law 93-638, 
as amended. Training is provided to Bureau staff to ensure that they 
possess and maintain the most current understanding of the law and how 
it relates to Indian Tribes. The Bureau has provided formal training to 
655 Bureau employees and 355 tribal staff, through the third quarter of 
fiscal year 2002.
             percentage of bia budget contracted to tribes
    The Indian Health Service (IHS) recently testified that 52 percent 
of its budget is now administered directly by Tribes under the Indian 
Self-Determination and Education Assistance Act.
    Question. What percentage of the total BIA budget is directly 
administered by Tribes under that Act?
    Answer. About 50 percent of the total BIA budget is directly 
administered by Tribes/Consortia through Self-Governance funding 
agreements or self-determination contracts.
                              budget games
    Tribal Self-Governance Compacting began in 1991 with 7 tribes and 
happily has now grown to include 85 funding agreements for 226 tribes. 
But the Budget Request notes that the funding increase for fiscal year 
2003 is from ``estimates of road construction funds from the Federal 
Highway Administration.
    Question. Does this mean that the Self-Governance funding increase 
comes from a reduction in the Indian Roads Account?
    Answer. No, the increase reflects estimates of road construction 
funds that will come from the Federal Highway Administration and be 
included in self-governance agreements. The Indian Reservation Roads 
program funds road maintenance, and is separate from road construction 
funds received from the Federal Highway Administration.
    Question. Because I grew concerned about the administration of the 
Indian Reservation Roads program, I introduced legislation (S. 344) to 
reform the process. Can you provide the Subcommittee with your views of 
that bill?
    Answer. The maintenance of Indian reservation roads is a high 
priority. Well maintained roads and bridges are critical to economic 
and community development on reservations. S. 344 is currently under 
review, and we are working with the administration to prepare our views 
on the bill for the Subcommittee. The Department looks forward to 
working with the Subcommittee to enact reforms that will improve the 
efficiency and effectiveness of the Indian Reservation Roads program.
                     encouraging tribal contracting
    One of the BIA's long term GPRA goals is to ``By 2005,  . . . 
promote Indian Self Determination by increasing Public Law 93-638 
training and technical assistance by more than 200 percent and 
minimizing impediments to Tribal contracting, compacting and grants.''
    Question. How does the BIA actively encourage Tribes to consider 
entering into self-governance compacts or to enter into 638 contracts 
for BIA programs?
    Answer. The BIA provides training and technical assistance to 
tribal leaders and staff as well as to BIA regional and agency staff on 
the procedures and mechanics of entering into 638 Self-Governance 
contracts. BIA is also willing and able to provide technical assistance 
on individual programs should tribes so request. In addition, the 
Office of Self-Governance as well as existing Self-Governance tribes/
consortia are willing to provide technical assistance to other tribes 
who are interested in entering into a Self-Governance funding 
agreement.
                           trust improvement
    Question. For the Office of the Special Trustee the Request 
includes $160.6 million--a 44 percent increase over the fiscal year 
2002 enacted level, and includes $153.4 million for trust operations 
and services, a 29 percent increase over the fiscal year 2002 enacted 
level. In many ways the request is based on the High Level 
Implementation Plan (HLIP) which we understand is now ``dead''. So are 
these figures subject to change and when will we know the accurate 
funding levels that are needed?
    Answer. While the overall trust business plan is being developed, 
ongoing trust reform efforts will continue. These include, but are not 
limited to: development of the business processes for all trust 
functions, which will lead to better services to all beneficiaries; 
development of the systems and architectures to support these 
processes; continuing to process backlog probate cases throughout all 
regions; an assessment of the viability of use of the TAAMS title 
module; realignment of the data clean up priorities; expansion of the 
risk management program to assure consistent and effective operation of 
trust programs; and the clean up, storage and inventorying of trust 
records to maintain the vital historical documents needed as the 
trustee.
    DOI officials and tribal government leaders are working through the 
issues on a true government-to-government basis to seek innovative 
solutions to some very intractable problems facing both tribes and DOI. 
As encouraged as the Department is about the progress to date, it is 
also true that the process of reaching agreement has occasionally been 
agonizingly slow, and it is clear that overnight, quick fixes are 
unlikely.
    Nevertheless, the Department remains committed to changing the way 
business is done in Indian country and to using the resources Congress 
provides in the most efficient and effective way possible to carry out 
our trust duties. The Department hopes that the proposals formulated 
from the collaborative Task Force process will be more widely embraced 
and more enduring than changes imposed unilaterally.
    The Task Force recommended that DOI establish an Undersecretary 
position within DOI that will be the focal point for all DOI Indian 
trust matters, regardless of which bureau or office has responsibility 
for the particular issue. In addition, the Task Force has agreed in 
principle to an office of Trust Accountability that will be responsible 
for ensuring that individual and tribal trust assets held by the 
federal government on behalf of individuals and tribes will be The 
results of the initial consultation effort were reported at a 
Congressional hearing on July 30, managed in a manner that meets the 
highest level of fiduciary trust responsibility. At the final 
consultation meeting in Arlington, VA. the Tribal leadership of the 
Task Force withdrew its request for the Under Secretary position in 
exchange for a broad trust legislation that could not be supported by 
DOI. DOI will continue with its efforts to realign responsibilities 
within DOI to accomplish as much as possible from the Task Force 
recommendations.
    The Task Force will continue to review the remaining trust 
structure, including the difficult issue of regional and agency-level 
organization. The Department will continue to meet with tribes and 
tribal organizations in the future as trust improvements are 
implemented.
    Question. Once the Department, in consultation with the Tribal Task 
Force, has finalized a plan for trust asset management reform, can we 
expect you to come back with a Reprogramming Request?
    Answer. The Department expects that a reprogramming request will be 
submitted for the new trust organization once the plan is finalized and 
an appropriate level of detail is available.
             expediting pilot of indian land consolidation
    After hearings before the Indian Affairs Committee it became 
apparent there are internal administrative obstacles, such as friction 
between the BIA and the Office of Special Trustee, to expediting 
consolidation of Indian lands under the Pilot Program we launched years 
ago.
    Question. Would the Department be willing to work with the 
Committee staff to come up with ways to expedite and leverage the money 
appropriated for the Land Consolidation program so that we can re-
consolidate checkerboard Indian lands?
    Answer. Yes, the Department is willing to work with the staff to 
expedite and leverage the money for land consolidations.
                      indian loan guaranty program
    I am advised that the Indian Guaranteed Loan Fund has a 93 percent 
success rate and helps create jobs and increase private investment on 
Native American reservations.
    Question. Is the Department interested in expanding this program?
    Answer. The Indian Finance Act has not been substantially revised 
since 1974. Although the Act has been quite successful overall, it 
remains long overdue for increased lending limit authority levels to 
keep up with inflation over the past 25 years and to expand its future 
operation and programs. Changes to the Act have the potential to 
provide a real economic stimulus for many sectors of the Tribal 
economy, as individual tribal members and tribal governments can more 
effectively develop business opportunities suited to the increased 
populations that now exist on most reservations.
    To that end, the President's budget proposes appropriation language 
to increase the Guaranteed Loan Program by $500,000 to implement the 
insured loan portion of the Act. The benefits of the loan insurance 
aspect of the Act have not been fully realized. With insured loans, 
financial lenders would assume greater responsibilities in financing 
and servicing smaller-sized Indian businesses. Numerous, modest Indian 
business loan proposals currently being proposed that are suited to 
insured loans. The requested increase would generate about $7 million 
in additional loan subsidies.
    Question. Would you support a proposal to enact an Indian Self-
Determination Act Pilot to ``out-source'' the functions of the Guaranty 
Loan Program to private institutions that have expertise in lending to 
economically troubled areas?
    Answer. The program has already been significantly outsourced. The 
current functions of the Guaranty Loan Program are federal functions 
that are not subject to competitive sourcing. The loan officer 
functions of client assistance, loan review and loan servicing have 
already been contracted to tribes under Public Law 93-638. However, 
loan approval and lender monitoring is a federal function that cannot 
be contracted out. Foreclosure and liquidation of trust assets held as 
collateral are also federal functions. The preparation of regulations 
to implement the loan program is not subject to contracting. This 
program has already been diminished to a very small staff of 
approximately 15 full time equivalent employees throughout the country, 
with many regions servicing several states and a large number of tribes 
with just one full- or part-time loan officer.
                           reservation roads
    Question. In light of the upcoming re-authorization of TEA-21, can 
you tell me the major challenges to the Indian Reservation Roads 
Program?
    Answer. Increased funding is needed to allow meaningful 
participation of all Tribes in the program. The reauthorization of TEA-
21 in 1998 included an increase of approximately 50 percent for states. 
This helped in the implementation of the apportionment formulas among 
all states. Tribal governments are faced with a similar dilemma. The 
road maintenance program funding (Tribal Priority Allocation) amount is 
disproportionately small in comparison to the Highway Trust Funded IRR 
program. The eligibility of heavy or major maintenance activities such 
as bridge repairs, restoration of paved surfaces, etc., under the IRR 
program would help to maintain these structures and reduce the need to 
reconstruct deteriorating roads and structures while assuring that IRR 
are kept safe and open.
    Question. Does the IRR Program need funding and/or structural 
changes to improve its effectiveness?
    Answer. The program could be improved with authority in place to 
use the national priority program of bridges' funds (Indian Reservation 
Roads Bridge Program) for preliminary engineering activities such as 
engineering design and planning. Currently the reserved $13 million a 
year can only be utilized for construction and construction 
engineering. Many deficient IRR bridge projects are delayed because 
other funds have to be approved and acquired before a project can be 
submitted to the Federal Highway Administration for approval and 
funding for construction.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                                  bia
    Question. The Bureau of Indian Affairs, through its Office of 
Indian Education Programs `` OIEP'', filed a single 470 application as 
a consortium on behalf of all 185 BIA funded schools in late 2001. What 
type and when was consultation with the schools and tribes on the 
OIEP's Master Technology Plan conducted?
    Answer. The OIEP has two types of Technology Plans. The over-
arching technology plan was developed with representatives from the 
OIEP and representatives in the OIEP school system (Bureau Funded, 
Contract, and Grant Schools). This technology plan sets the vision and 
direction for OIEP's education technology program. The technology plan 
used for eRate purposes (referred to as the ``Master Technology Plan'') 
is a nuts and bolts technology plan on how to implement the education 
technology plan. This plan was developed by the OIEP through the use of 
written consultation (in 2001/2002) procedures with Tribal Education 
Organizations and schools. The results of this written consultation 
process were incorporated into our education technology plan and formed 
the basis for the eRate application.
    Question. Was a site survey of BIA's Master Technology Plan (MTP) 
completed?
    Answer. The OIEP completed a representative sampling of 66 schools 
in early December 2001, in preparation of the eRate Technology Plan.
    Question. How does the BIA's MTP fit in with the goals and 
objectives of the previous ``Meeting of 100?''
    Answer. The MTP supports the goals and objectives developed by the 
``Meeting of 100'' by providing support for: early reading programs, 
enhanced use of technology to teach math and reading skills, and 
greater access to resources on Native cultures through the use of the 
Internet.
    Question. Does the OIEP Master Technology Plan take into 
consideration new school construction?
    Answer. Yes. Although the eRate technology Plan does not 
specifically deal with new construction, it does set standards for the 
following areas:
  --Standardized Data Communications Equipment
  --Standardized Voice Communications Equipment
  --Standardized Wireless Communications Equipment
                           drought and water
    The State of New Mexico is experiencing severe drought conditions. 
Recently, New Mexico Governor Gary Johnson sent a letter to Secretary 
Veneman requesting Secretarial designation of disaster areas for all of 
New Mexico's counties.
    The drought conditions have only added to the challenges of New 
Mexico and other Western states who suffer from a limited water supply. 
The economic impacts on many individuals, rural communities and 
businesses are likely to get worse. Additionally, severe drought 
conditions have only compounded the threat posed by catastrophic 
wildfire.
    As many of you on this committee are aware, there was relatively no 
funding included in the Senate passed Supplemental to alleviate 
worsening drought conditions.
    Question. If additional money is not made available, how will you 
address the water crises west-wide in the upcoming months?
    Answer. While the Albuquerque Area Office has some substantial 
drought-related funding needs for supplemental water purchases, 
including contracts agreed to between Reclamation and the City of 
Albuquerque, the magnitude of the problems exceeds currently available 
resources. If there is no water available from willing parties for 
lease, as is the case on the Pecos River Basin, money can not solve the 
problem. Resources will have to be prioritized to mitigate the most 
serious problems.
                           drought and minnow
    Severe drought conditions in most of the west have added to the 
challenges already facing many states with regard to endangered 
species. Madame Secretary, I know that you are familiar with the plight 
of the silvery minnow and the Middle Rio Grande in New Mexico. New 
Mexico remains grateful for your efforts in getting the 3-year 
agreement signed and implemented last year. As you know, the District 
Court Judge handling that case recently issued a ruling on the matter.
    Question. How is the Department of the Interior dealing with this 
current litigation?
    Answer. The drought in the western United States is having a 
significant impact on many Department of the Interior programs. The 
Department is closely monitoring the situation in New Mexico with the 
intent to reduce the drought impacts.
    This specific litigation began in 1999 when environmental groups 
represented by the Land and Water Fund of the Rockies (Plaintiffs) sued 
the Bureau of Reclamation and the Army Corps of Engineers for alleged 
violations of the Administrative Procedure Act (APA), the National 
Environmental Policy Act (NEPA), and the Endangered Species Act (ESA).
    In an April 19, 2002 opinion, Chief Judge James A. Parker upheld a 
June 2001 Biological Opinion issued by the Fish and Wildlife Service. 
In that decision, however, Judge Parker also held that Reclamation had 
improperly limited the scope of its ESA consultation and that it had 
broad discretionary authority to use natural Rio Grande flows 
associated with the Middle Rio Grande Project and the San Juan-Chama 
Project for the silvery minnow. Therefore, Reclamation would have to 
consult over the exercise of that authority for the benefit of the 
silvery minnow if and when it reinitiated consultation.
    Although the United States filed a protective notice of appeal and 
intervening parties filed notices of appeal, the Tenth Circuit 
dismissed the appeals for lack of jurisdiction.
    Question. Does Interior plan to appeal this decision?
    Answer. The Department of the Interior is still weighing its 
options regarding appeal.
    When litigation on the Middle Rio Grande began, I brought all 
interested parties (federal agencies, environmentalists, state agencies 
and farmers) together with the intent that they reach an agreement on 
the issue rather than pursuing litigation. This group, known as the ESA 
Workgroup was created at that time and has been receiving federal 
dollars to proceed with the project. In fiscal year 2002, the group 
received $11.2 million for the project. Many of these dollars were 
necessary in order to meet the requirements of the 3 year agreement and 
Biological Opinion signed last summer.
    It is my understanding the Bureau of Reclamation has many 
commitments as a result of the Biological Opinion and the on-going 
litigation. I did notice you did not request money in your budget to 
help meet these commitments.
    Question. Thus far, has the Bureau of Reclamation been able to 
comply with the requirements of the Biological Opinion?
    Answer. Reclamation experienced a several week period where 
extremely dry conditions and insufficient bypass of water by the Middle 
Rio Grande Conservancy District caused flows to drop below target 
levels at the San Marcial gage. This resulted in drying of about 7 
miles of river channel. Reclamation initiated informal consultation 
over these problems and worked with all parties to regain compliance 
with the Biological Opinion.
    Question. Do you feel that the Bureau will still be in a position 
to meet it commitments and the Biological Opinion requirements 
following the recent ruling?
    Answer. In spite of recent water leasing and water loaning 
transactions between the City of Albuquerque, Reclamation, and the 
Middle Rio Grande Conservancy District, meeting the requirements of the 
Biological Opinion through the end of the irrigation season may be 
difficult. The District is now estimating that it may use all of its 
newly acquired water by August. Without District irrigation water 
running down the river or without additional precipitation, it will be 
difficult for Reclamation to meet all of the Biological Opinion flow 
requirements with only the water that it has currently leased from the 
City.
                  pecos river and compact obligations
    New Mexico has certain obligations under a United States Supreme 
Court decree to deliver water to Texas on the Pecos River. The Carlsbad 
Irrigation District is the most senior water user on the river. Once 
again the drought makes these water deliveries and even greater 
challenge. The State of New Mexico has taken steps to try and help with 
this situation.
    Question. What is being done to ensure interstate-compact 
compliance in light of the drought and Bureau of Reclamation 
responsibilities?
    Answer. While Reclamation has no direct responsibility for meeting 
Pecos River Compact obligations, we are an active participant on the 
Pecos River Basin Ad Hoc Committee, which was established by the State 
of New Mexico to come up with solutions for meeting the compact 
obligation.
    Question. Is the Bureau of Reclamation working with the State of 
New Mexico and the beneficiaries of the Carlsbad project to prevent any 
under-delivery of water to the State of Texas?
    Answer. Reclamation continues to work with the State and Carlsbad 
Irrigation District to find creative ways to get water to the state 
line for delivery. Collectively, we were successful in averting a 
shortfall last season. According to State estimates, this year may be 
much more difficult for New Mexico to meet its compact obligations, and 
we are currently working with the State and the District to start 
pumping wells in order to get water to the state line as we did last 
year.
    We are also beginning negotiations on more permanent arrangements 
between the State and the District under which the State would purchase 
and retire irrigated lands within the district and use the appurtenant 
water to make compact deliveries.
    Last year's budget request greatly reduced the amount for the on-
going Pecos River Basin Water Salvage project. However, the fiscal year 
2002 Appropriations bill provided additional funds to maintain this 
worthwhile project, which eradicates water-using salt cedar in an 
effort to increase the amount of water in the Pecos. The fiscal year 
2003 budget request again reduces the amount for this project.
    Question. Can you explain the rationale which led to reduced 
funding levels for this long term collaborative project with the State 
of New Mexico?
    Answer. Due to the demands resulting from the extraordinary drought 
we are experiencing, Reclamation found it necessary to reprioritize 
available funding. Other efforts, such as leasing water from willing 
parties, are more effective means of providing wet water in the river.
                                security
    Secretary Norton, since September 11th the Bureau, along with all 
other agencies, has focused its efforts in determining risk and threat 
assessments. With NM being a Reclamation state there are a number of 
dams and works that could be at risk.
    Question. Can you tell me, in general terms, what efforts the 
Bureau has made since and how has the Bureau handled this new 
environment of heightened security?
    Answer. Following the events of September 11, 2001, the Bureau of 
Reclamation (Reclamation) took immediate actions to ensure the safety 
of the public, their employees, and their facilities. Reclamation 
activated all emergency action plans and continuity of operation plans; 
initiated stationing armed law enforcement officers and security guards 
on around-the-clock patrols at all National Critical Infrastructure 
dams and other major dam and power plant facilities; and increased 
patrols and surveillance at all facilities.
    Reclamation closed all visitor centers at dams and halted public 
tours until security assessments of tours and visitor centers were 
completed and recommended actions to increase security were 
implemented. The agency also provided security guidance on tourism and 
international visitors prior to re-initiating public tours. Most 
visitor centers have now been re-opened and limited tours re-started.
    Reclamation's website was shut down until all potentially sensitive 
information could be screened and removed from the site if deemed a 
security risk.
    Other threat response measures such as limiting traffic near 
facilities, inspecting vehicles, screening all visitors, increasing 
liaison with local law enforcement officials, and erecting security 
barriers were implemented. Reclamation also coordinated actions with 
Department of the Interior security experts, Interior bureaus with law 
enforcement authority, Office of Homeland Security, Interagency Forum 
on Infrastructure Protection, and other security and law enforcement 
organizations.
    Reclamation contracted with expert security organizations such as 
Defense Threat Reduction Agency and Lawrence Livermore National 
Laboratories to conduct in-depth vulnerability assessments at the 55 
most critical facilities (scheduled to be completed by the end of 
calendar year 2002). Assessments at all other of Reclamation's 252 high 
and significant hazard dams will be contracted over next two years. 
Regional Offices are implementing recommendations resulting from 
assessments in 30 or 60 days where feasible. A high level Security 
Assessment Team (which includes Sandia National Laboratories) reviews 
reports and meets with the Regional Director, Area Manager, and the 
Director of Security, Safety and Law Enforcement to analyze report 
recommendations and develop a decision document for programming long 
term actions for security improvements.
    Reclamation also contracted with Sandia National Laboratories to 
perform an independent top-down review of the agency's security 
program, which will evaluate its effectiveness and make recommendations 
for improvement. The review is underway and scheduled to be completed 
by end of 2002.
    Following enactment of Public Law 107-69 on November 12, 2001, 
Reclamation moved to implement its new law enforcement authority by 
publishing rules on public conduct on Reclamation lands in the Federal 
Register on April 17, 2002. Following review and approval by the 
Attorney General, regulations on the contractual use of non-Interior 
law enforcement officers to enforce Federal laws on Reclamation lands 
were published on June 4, 2002. Actions are underway to recruit 
permanent regional law enforcement officers and to finalize contractual 
arrangements with other Federal, state, tribal or local law enforcement 
organizations to complete implementation of the law enforcement 
program.
    The Commissioner of Reclamation created the new Office of Security, 
Safety, and Law Enforcement to bring the functions of physical 
security, health and public safety, dam safety, and law enforcement 
under a single command.
                        water funding and minnow
    I'm sure you are aware of the new agreement signed last Friday 
between the Bureau of Reclamation Albuquerque office and the City of 
Albuquerque. The agreement will allow the Bureau to purchase water from 
the City for the benefit of farmers and endangered fish. Four million 
dollars is needed for the Bureau to complete this purchase. The money 
was not included in the Supplemental.
    Question. If this money does not get included, how do you plan to 
keep the agreement signed (or will you, under those circumstances)?
    Answer. Without supplemental funding this priority commitment can 
only be maintained by a re-prioritization among competing needs within 
Reclamation's available funding.
    Question. Do you feel the water under that agreement will satisfy 
the existing Biological Opinion and will it avoid future crises and 
further litigation?
    Answer. Initially, when the agreement was being considered, most of 
the parties thought the amounts of water would be adequate. But now the 
Middle Rio Grande Conservancy District is advising other parties that 
even this additional amount of water may be exhausted sometime in 
August. If the District runs out of water in August, it likely will be 
impossible for Reclamation to meet the Biological Opinion's flow 
requirements with the amount of water currently leased for the minnow.
    The water under the Agreement will not necessarily avoid crises in 
the future if drought conditions continue. Should Reclamation predict 
that we would not be able to meet the flow recommendations contained in 
the Biological Opinion, we would have to re-consult with the Fish and 
Wildlife Service under the Endangered Species Act.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
                            trust management
    Question. Can you please provide the Committee with an update of 
your efforts to reform the management of the Indian Trust funds and 
assets, including how the Department is abiding by the direction 
provided by the Senate Appropriations Committee to not reprogram any 
funds for the new Bureau of Indian Trust Asset Management (BITAM)?
    Answer. To date, the Department is abiding by the direction of the 
Senate Appropriations Committee and has not reprogrammed any funds for 
a new trust organization. The following is a summary of some of the 
trust reform efforts underway within the Department. A copy of the 
Quarterly Reports to the Court, which provide more detailed information 
are provided to the Committee.
Reorganization
    DOI officials have had several meeting with the Task Force. Three 
meetings were held in various locations to accommodate tribal requests. 
The Task Force recommended that a new position of Undersecretary for 
Indian Affairs be created in order to provide within DOI a high-level 
executive who would have direct line authority over all agencies that 
are engaged in delivering trust services or managing trust operations. 
DOI agreed with this request and this information was provided to 
Congress at a hearing in June 2002.
    Unfortunately, subsequent to the June hearing, DOI was advised that 
the Tribal leadership of the Task Force withdrew its recommendation and 
consent to the Undersecretary proposal. The Task Force offered a 
substitute proposal, which included the office of an Undersecretary, 
but had several other conditions that were not acceptable to DOI and 
likely, would not be acceptable to Congress. To confirm that the tribes 
were in accord on this, a Task Force meeting was held in Alexandria, 
Virginia, in September. At that meeting, the tribes advised DOI that 
they planned to proceed with their own legislation and were not willing 
to agree to reorganization with an Undersecretary as a stand-alone 
legislative act. DOI will now take into consideration all that has been 
learned from the consultation sessions and proceed to complete its plan 
and provide a way of executing the plan through the present structure 
of the Department.
Trust Business Plan (Strategic Plan)
    DOI continues work on the Trust Business Plan. The Task Force, the 
Special Trustee for American Indians and other trust-related managers 
within DOI approved the goals and objectives of the plan. The tasks for 
completing each objective are being developed and will be incorporated 
into the final plan. Each task will be defined by the ``As-Is'' 
business process review now underway or will be a new ``To-Be'' 
determined task by reengineering of an ``As-Is'' task. Each task will 
have an individual an assigned with appropriate training plan meeting 
the requirements of the task and performance standards and metrics to 
determine whether the tasks are being appropriately managed. Many of 
these lower-level tasks will, of necessity, not be defined until the 
``To-Be'' business processes have been determined, and the policy, 
procedures and regulations, as required, are written and implemented. 
In addition, DOI will develop a plan that addresses the requirements 
set forth in the Court Orders of September 17, 2002, will be developed 
and submitted to the Court as requested.
Fractionation
    Work on resolving fractionation of Indian lands has continued. DOI 
hosted a large group of regional, agency, central office, tribal and 
individual representatives to discuss the issue and develop options for 
managing or eliminating the problem. DOI is required to manage 
thousands of accounts that contain less than one cent and many 
thousands more that contain less than a dollar. The money expended on 
managing these kinds of accounts takes away resources needed to manage 
more productive properties. No private trustee would engage in such a 
practice as most private trusts are fee-generating businesses and there 
is not sufficient income from small dollar accounts to pay a fee. In 
many instances, several thousand individuals own a single tract of 
land. This makes the land very difficult to manage and, as a result, 
produces less income than might otherwise be available. The Indian Land 
Consolidation Act of 2000 is a step in the right direction. The impact 
of this Act has been reported previously. It is important that DOI 
continue to pursue land consolidation as a remedy on a nationwide 
basis.
Other Trust Reform Activities
    The ``As-Is'' study being done by DOI with the help of EDS is 
scheduled to be completed by the end of calendar year 2002. All regions 
will have had an opportunity to complete an assessment of how trust 
business processes are done currently and will later have the 
opportunity to express ideas on how these processes can be improved. A 
special business process review time for self-governance tribes has 
been set aside for November 2002, at which time tribal trust business 
processes will be examined.
    One of the major concerns of the Tribal Task Force has been whether 
DOI has the appropriate manpower and money to meet the requirements of 
the trust duties required of DOI. DOI has worked closely with the 
workforce planning coordinator assigned to the trust project to be 
certain that field personnel are aware of workforce planning tools 
available through the DOI and knowledgeable of how to use these tools.
    Efforts are well underway to consolidate training for all areas of 
trust. Efforts are underway to develop a trust executive training 
program for all Bureau of Indian Affairs' superintendents and regional 
directors.
                        bia school privatization
    Question. Can you please elaborate as to the reference of BIA 
school privatization being the ``centerpiece'' of the Administration's 
Indian school policy? Of the 185 schools the BIA manages currently, how 
many of them have been privatized?
    Answer. Of the 185 schools the BIA manages, no schools have been 
privatized. There are 121 schools that are being managed through grant 
or contract status by Tribes. The requested $11.9 million encourages 
tribes to seek grant or contract status for the remaining 64 schools by 
increasing the funding levels for student transportation, school 
facilities and maintenance operations, and Administrative Cost grants; 
these programs total over $8 million of the requested funding. An 
additional $2 million is requested to fund the transition/displacement 
of personnel. The Administration believes schools are best operated by 
organizations that are closest to the communities being served--in this 
case the tribes themselves. In the event that tribes do not wish to 
operate the schools, the Bureau would like to bring in partners to help 
manage the schools and improve student performance as the Congress 
indicated was essential in their recent No Child Left Behind (NCLB) 
legislation. The Administration is seeking $3 million to contract with 
private education providers to assist in improving education in Bureau-
operated schools.
                            tribal colleges
    Question. Please justify the President' s budget request for tribal 
colleges, and specifically why it has been cut by $2 million less than 
Congress appropriated last year?
    Answer. The President's fiscal year 2003 budget request for 
Tribally Controlled Community Colleges maintains a level of funding 
that has significantly increased since 1993.
    Over the last 10 years funding for operating grants for TCCCs has 
increased by 65 percent, from $23 million in 1993 to $38 million 
proposed for fiscal year 2003. Over the same 10 year period the Indian 
Student Count (ISC) has increased by 35 percent, from 5,800 to 8,000, 
and per ISC funding is currently $4,700 compared to $3,600 in 1993. The 
ISC is calculated by dividing the total number of full and part-time 
credit hours provided by a college by 12, the number of credits an 
average full-time student would take. The operating grants are 
distributed to the TCCCs based on the ISC.
                                 ______
                                 
               Question Submitted by Senator Mike DeWine
    Question. If the Senate were to provide the $14 million for 
administration expenses that was included in the President's fiscal 
year 2003 budget, would the Fish & Wildlife Service provide the 
administrative funds needed in order to continue the partnership with 
the Great Lakes Fishery Commission to sustain the current level of sea 
lamprey control in the Great Lakes?
    Answer. The Fish and Wildlife Service has a long-standing, 
important partnership with the Great Lakes Fishery Commission in the 
delivery of sea lamprey control on the Great Lakes. This effort has 
been enormously successful in reducing lamprey abundance, restoring 
lake trout, and protecting the $4 billion fishery. The Service is 
committed to maintaining this successful partnership.
    The President's fiscal year 2003 budget request includes a program 
increase of $13 million in the General Operations activity. The 
increase will be made available to Service programs to implement the 
Secretary's Cooperative Conservation Initiative, an incentive-based, 
cost-share grant program that will be used to fund cooperative 
conservation challenge projects.
    The types of projects that would qualify for funding are those that 
seek to restore natural resources through innovative means or 
practices, establish or expand habitat for wildlife, or collect 
information whose purpose contributes directly to the conservation of 
natural resources or protection of wildlife. Funding is for activities 
that encourage Service offices to reach out to new constituencies and 
promote innovative new conservation proposals, focusing on citizen-
centered natural resource stewardship, utilization of innovative new 
ideas, and expansion and replication of existing successful activities. 
The President's budget also requests an additional $5 million for the 
National Wildlife Refuge System to implement this initiative.
    Paying the administrative costs of the sea lamprey control program 
is not consistent with the intent of the Cooperative Conservation 
Initiative because sea lamprey control is not an incentive-based, cost-
share challenge grant program. The sea lamprey program is funded 
through a reimbursable agreement with the Great Lakes Fishery 
Commission in the amount $6.3 million (fiscal year 2002). 
Administrative costs incurred by the sea lamprey program are $1.05 
million, of which $493,100 will be recovered through the agreement with 
the Commission, resulting in a shortfall of $557,000. The Service 
redirected funds from other activities to recover administrative costs 
in fiscal year 2000-2002, but will be unable to provide this coverage 
in fiscal year 2003 and beyond. The shortfall in administrative cost 
recovery will rise to about $950,000 in fiscal year 2003 due to 
increased costs for leased space, and is expected to climb to $1.5 
million by 2005.

                         CONCLUSION OF HEARINGS

    Senator Feinstein. I thank you very much. The subcommittee 
will stand in recess subject to the call of the Chair.
    [Whereupon, at 11:44 a.m., Thursday, June 13, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]












  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2003

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses, the statements and 
letters of those submitting written testimony are as follows:]
                       DEPARTMENT OF THE INTERIOR
                       Bureau of Land Management
   Prepared Statement of the Metropolitan Water District of Southern 
                               California
    Chairman Byrd and members of the subcommittee: The Metropolitan 
Water District of Southern California (MWD) appreciates the opportunity 
to submit testimony for the record regarding the U.S. Department of the 
Interior's fiscal year 2003 budget. MWD is a public agency that was 
created in 1928 to meet the supplemental water demands of people living 
in what is now portions of a six-county region of southern California. 
Today, the region served by MWD includes 17 million people living on 
the coastal plain between Ventura and the international boundary with 
Mexico. It is an area larger than the State of Connecticut and, if it 
were a separate nation, would rank in the top ten economies of the 
world.
    Included in our region are more than 225 cities and unincorporated 
areas in the counties of Los Angeles, Orange, San Diego, Riverside, San 
Bernardino, and Ventura. We provide nearly 60 percent of the water used 
in our 5,200-square-mile service area. MWD's water supplies come from 
the Colorado River via the district's Colorado River Aqueduct and from 
northern California via the State Water Project's California Aqueduct.
                              introduction
    MWD supports the continued funding contained in the President's 
Budget for the Bureau of Land Management's (BLM) Soil, Water, and Air 
Management and Range Management subactivities contained within the Land 
Resources activity of the Management of Land and Resources 
appropriation. Also, MWD supports the continued funding contained in 
the President's Budget for the Resource Management Planning subactivity 
contained within the Resource Protection & Maintenance activity of this 
appropriation. BLM intends to use a portion of the funds for watershed 
and water quality restoration in selected priority watersheds with a 
specific focus on the Colorado River Basin and other areas. MWD 
requests that Congress allocate $5.2 million for BLM's activities that 
control salt contributions from the lands it manages. MWD urges the 
Subcommittee to specifically mark $800,000 for the Colorado River 
salinity control program to focus BLM's efforts in this regard.
    In addition, MWD requests funding for cost sharing of recreation 
facilities at the Diamond Valley Lake, which is located in Riverside 
County, California. The amount requested in fiscal year 2003 is $2 
million in the BLM Construction Fund Account for implementing Public 
Law 106-500. This would be a first increment of the $14 million 
authorized in 2001.
    MWD supports funding of $42.2 million for reauthorization of the 
CALFED Program and a total of $26.4 million for Fish and Wildlife 
Service (FWS), the U.S. Bureau of Reclamation and the U.S. Geological 
Survey to support this program. We also urge support for the efforts of 
California, Arizona and Nevada, Native American tribes, and federal 
agencies to develop a Multi-Species Conservation Plan for the Lower 
Colorado River through appropriation of funds to the FWS Habitat 
Conservation Planning Program.
                   colorado river salinity management
    The Colorado River is a significant component of the regional water 
supply and its relatively high salinity causes significant economic 
impacts on water customers in MWD's service area, as well as throughout 
the Lower Colorado River Basin. Furthermore, high salinity adversely 
affects the region's progressive water recycling programs and is 
contributing to an adverse salt buildup through infiltration into 
Southern California's irreplaceable groundwater basins. Reclamation 
estimates that water users in the Lower Basin are experiencing $330 
million in annual economic impacts from salinity levels in the river 
and, without mitigation, impacts will progressively increase with 
continued agricultural and urban development upstream of California's 
points of diversion. Droughts will cause spikes in salinity levels that 
will be highly disruptive to southern California water management and 
economy. The Colorado River Basin Salinity Control Program (Salinity 
Control Program) has proven to be a very cost-effective approach to 
help mitigate the impacts of high salinity.
    Due to geological conditions, the land within the Colorado River 
Basin is composed largely of soils heavily laden with salts. Large 
portions of these lands are federally owned, and are managed by the BLM 
for a variety of uses: recreation; road building and transportation; 
oil, gas and mineral exploration and production; and most 
significantly, grazing. As a result, man has induced and accelerated 
the natural erosion processes. When such soils and rocks heavily laden 
with salt are eroded, much of the resulting silt is carried along in 
the Colorado River and its tributaries--sometimes for long distances. 
Ultimately, the silt settles in the streambed or on the flood plain. 
The salts, however, are dissolved in the water and remain in the 
stream, appearing in the water supplies of downstream users. The 
accumulative nature of these salts causes more severe water quality 
impacts the farther downstream each succeeding use occurs.
    The 1984 amendments to the Colorado River Basin Salinity Control 
Act direct the Secretary of the Interior to develop a comprehensive 
program to minimize salt contributions to the Colorado River from 
federally owned lands administered by the BLM. The rangeland management 
programs of the BLM have demonstrated that they can bring about some of 
the most cost-effective salinity control actions available. It is 
essential that implementation of BLM's salinity control program be 
accelerated to reduce economic impacts. The $5.2 million level of 
funding which MWD recommends for BLM's continued participation in 
activities that control salt contributions from BLM managed lands would 
be for immediate implementation of salinity control measures through 
improvements in rangeland management. MWD urges the Subcommittee to 
specifically mark $800,000 for the Salinity Control Program to provide 
BLM direction as to its intent.
                          diamond valley lake
    With the recent completion of Diamond Valley Lake as a major water 
storage facility for 17 million people, the public's requirement for 
recreational facilities will need local, state and federal support. At 
the present time, MWD is working with local communities to secure 
funding for $58 million to be allocated as partial cost for 
constructing and maintaining a major trail system for pedestrian and 
non-motorized vehicles in the surrounding areas; along with a Western 
Center Museum for archaeological and paleontological discoveries.
    MWD is requesting $2 million be appropriated in fiscal year 2003 
and added to BLM's Construction Fund Account for purposes of carrying 
out Public Law 106-500, a law enacted in 2000 to provide federal cost 
sharing for facilities at Diamond Valley Lake. The reservoir is located 
in Riverside County, California. This $2 million is the first increment 
of a $14 million authorization in 2001 to provide federal assistance in 
the construction of the Western Center Museum for Paleontology and as 
many as 60-70 miles of multi-use trails. Many of these trails will be 
handicap-accessible and an interpretive program is planned. The draft 
trail plan also envisions connections with a portion of the Southwest 
Riverside County Multi-Species Reserve.
                         calfed reauthorization
    The San Francisco Bay and the Sacramento and San Joaquin Delta 
(Bay-Delta) Estuary serves as the hub of California's water system, 
fueling the State's trillion-dollar economy, supplying more than two-
thirds of the State's 34 million residents with a portion of their 
drinking water and irrigating 45 percent of the nation's produce. 
Federal money for the Bay-Delta funds an array of critical 
improvements, including habitat restoration, watershed protection, 
fishery enhancement, water supply reliability and water quality 
improvement. Recognizing the importance of the Bay-Delta to 
California's economic and environmental health, the California voters 
approved a $1 billion general obligation water bond in November 1996 
and a $2 billion bond in March 2000. These bonds contain monies for 
ecosystem restoration, watershed protection, water supply and water 
quality improvement, flood control, water recycling, and water use 
efficiency measures.
    In total, MWD urges Congress to appropriate $42.2 million in fiscal 
year 2003 to fund the Bay-Delta related activities of federal agencies 
engaged in resolving the problems facing California's Bay-Delta. 
Specific to your Subcommittee on Interior, MWD urges you to appropriate 
a total of $26.4 million to fund the Bay-Delta related activities of 
the U.S. Bureau of Reclamation, FWS and the Geological Survey.
    In 1996, Congress passed the California Bay-Delta Environmental 
Enhancement and Water Security Act (California Bay-Delta Act), which 
authorized $430 million over 3 years for ecosystem restoration and 
water management improvements in the Bay-Delta Estuary. From 1998 to 
2000, Congress has appropriated $220 million, or approximately 50 
percent of the original authorization. MWD urges your support for 
reauthorization of the California Bay-Delta Act, which includes the San 
Joaquin Water Supply and Exchange Program, a program of great 
importance to MWD.
          lower colorado river multi-species conservation plan
    MWD is presently engaged in an innovative partnership with the FWS 
and other Department of the Interior agencies, as well as other water, 
power, and wildlife agencies, and Native American Tribes in the states 
of Arizona, California, and Nevada, to develop a Lower Colorado River 
Multi-Species Conservation Program (LCR MSCP). The program will address 
the conservation, enhancement, and recovery needs of a broad suite of 
more than 50 listed and sensitive species and their associated aquatic, 
wetland, and riparian habitats in the three states, while providing 
long-term regulatory certainty for all parties. An effort of this 
nature can only succeed through the development of innovative voluntary 
public-private partnerships.
    The FWS Habitat Conservation Planning Program provides funds to 
support the development of habitat conservation plans that will 
conserve federally listed and other sensitive species and their 
habitats. MWD supports the appropriation of $63.1 million within the 
$91 million request for the Cooperative Endangered Species Conservation 
Fund, for Habitat Conservation Plan (HCP) land acquisition and planning 
assistance grants to support local efforts to protect habitat within or 
near areas covered by HCPs.
                               conclusion
    MWD urges you and your subcommittee to support these funding levels 
for the various programs we have addressed within the Department of the 
Interior budget. Thank you for your consideration of our testimony.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    In Support of $5,200,000 to assist in Colorado River Salinity 
Control, with $800,000 to be designated specifically to salinity 
control efforts with support for $34,683,000 for the Land Resources 
Subactivity: Soil, Water, and Air Management as requested by the 
President and also with support for the President's request for the 
funding of Subactivities Rangeland Management and Resource Management 
Planning.
    This testimony is in support of funding for the Bureau of Land 
Management (BLM) for activities that assist the Colorado River Basin 
Salinity Control Program. The BLM budget, as proposed by the 
Administration, calls for the collection of ``data and information 
about watershed, its processes, and its capabilities in order to attain 
water quality standards while meeting multiple uses of land and 
water.'' The BLM budget justification document also notes ``Program 
success depends upon the involvement of stakeholders at the local and 
national levels. Cooperative partnerships and involvement promote 
better watershed management which in turn protects water quality, state 
identified beneficial users of water and the health of aquatic 
systems.'' Further, the BLM states ``with a stable funding level, (BLM) 
continues to implement on-the-ground projects, evaluate progress, and 
report salt-retaining measures in order to further the Plan of 
Implementation of the Federal Salinity Control program in the Colorado 
River Basin.''
    The seven Colorado River Basin States, through the Colorado River 
Basin Salinity Control Forum, have been trying to engage the BLM and to 
look for a partnership to be forged between the Basin states and the 
BLM as has been done with other federal agencies. This enhanced working 
relationship has been slow to develop. The BLM is currently preparing a 
report, required by Congress, that is to set forth its plan for 
salinity control. The Forum is encouraged by the words in the budget 
document. The Forum supports the funding request. Our analysis 
indicates that the BLM needs to specifically target the expenditure of 
funds in the amount of $5,200,000 for activities that help control salt 
contributions from BLM managed lands in the Colorado River Basin in 
fiscal year 2003.
    Although the Forum has not been able to determine, to its 
satisfaction, how funds have been or will be spent, we are encouraged 
by recent efforts by the BLM. The Forum has requested that a salinity 
coordinator for the basinwide program be selected. This person would 
serve with the two full-time coordinators now in place for the USBR and 
the USDA. Salinity Coordinators in each of the state BLM offices have 
been identified.
    The BLM has been charged by the Congress with preparing a special 
report as to how the Bureau is moving ahead with salinity control 
activities. It has been difficult in the past to determine how much 
funds and efforts were being expended by the BLM in the water quality 
program and they have been very general in their accounting for their 
accomplishments. The Forum hopes that when the BLM reports to the 
Congress as is required under S. 1211 (Public Law 106-459), which was 
signed into law November 7, 2000, that a better understanding of the 
BLM's efforts can be obtained. The success of the BLM in controlling 
erosion and, hence, salt contributions to the Colorado River and its 
tributaries is essential to the success of the Colorado River Basin 
Salinity Control Program and the adherence to water quality standards 
that have been adopted by the seven Colorado River Basin states and 
approved by the Environmental Protection Agency. Inadequate BLM control 
efforts will result in very significant additional economic damages to 
water users downstream. The Forum submits this testimony in support of 
adequate funding so that the BLM programs can move ahead at a pace that 
is needed to meet these water quality standards.
                                overview
    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through a minute of the International Boundary and Water 
Commission, to Mexico with respect to the quality of water being 
delivered to Mexico below Imperial Dam. Title II of the Act established 
a program to respond to salinity control needs of Colorado River water 
users in the United States and to comply with the mandates of the then 
newly legislated Clean Water Act. Initially, the Secretary of the 
Interior and the Bureau of Reclamation were given the lead federal role 
by the Congress. This testimony is in support of funding for a portion 
of the Title II program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress revised the Act in 1984. That revision, while leaving 
implementation of the salinity control policy with the Secretary of the 
Interior, gave new salinity control responsibilities to the Department 
of Agriculture and to the Bureau of Land Management. Congress has 
charged the Administration with implementing the most cost-effective 
program practicable (measured in dollars per ton of salt removed). The 
Basin states are strongly supportive of that concept, in addition to 
proceeding to implement their own salinity control efforts in the 
Colorado River Basin.
    Since the Congressional mandates of nearly two decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. Reclamation recognizes that the damages to United States' water 
users alone is about $0.3 billion per year.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of Gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with federal agencies and Congress to 
support the implementation of the program necessary to control the 
salinity of the river system. In close cooperation with the 
Environmental Protection Agency (EPA) and under requirements of the 
Clean Water Act, every 3 years the Forum prepares a formal report 
analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program necessary to keep the salinities at or below 
the levels measured in the river system in 1972.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations measured at Imperial, and below Parker, and 
Hoover Dams in 1972 have been identified as the numeric criteria. The 
plan necessary for controlling salinity has been captioned the ``plan 
of implementation.'' The 1999 Review of water quality standards 
includes an updated plan of implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed to plan. If 
adequate funds are not appropriated, state and federal agencies 
involved are in agreement that the damage from the high salt levels in 
the water will be even more widespread in the United States and Mexico.
                             justification
    The BLM is, by far and away, the largest land manager in the 
Colorado River Basin. Much of the land that is controlled and managed 
by the Bureau of Land Management is heavily laden with salt. Past 
management practices, which include the use of lands for recreation; 
for road building and transportation; and for oil, gas, and mineral 
exploration have led to man-induced and accelerated erosional 
processes. When soil and rocks heavily laden with salt erode, the silt 
is carried along for some distance and ultimately settles in the 
streambed or flood plain. The salts, however, are dissolved and remain 
in the river system causing water quality problems downstream.
    The Forum believes that the federal government has a major and 
important responsibility with respect to controlling pick-up of salt 
from public lands. Congress charged federal agencies, including the 
BLM, to proceed with measures to control the salinity of the Colorado 
River, with a strong mandate to seek out the most cost-effective 
options. It has been determined that BLM's rangeland improvement 
programs can lead to some of the most cost-effective salinity control 
measures available. These salinity control measures may be more cost-
effective than some now being considered for implementation by the 
Bureau of Reclamation and by the Department of Agriculture. They are 
very environmentally acceptable, as they will prevent erosion, increase 
grazing opportunities, increase dependable stream runoffs, and enhance 
wildlife habitats.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado, and Wyoming, consortiums of federal and state agencies, 
including the BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the Congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that the 
Congress appropriate and the administration allocate adequate funds to 
support the Bureau of Land Management's portion of the Colorado River 
salinity control program as set forth in the Forum's adopted plan of 
implementation.
    BLM has not had a history of always adequately reporting its 
efforts, the associated expenditures and its accomplishments with 
respect to Colorado River salinity control. Legislation passed in 2000, 
S. 1211, requires the BLM to report its program for salinity control to 
the Congress. The Forum supports this requirement.
                                 ______
                                 
               Prepared Statement of the Wildlife Society
    Dear Senators Byrd and Burns: The Wildlife Society appreciates the 
opportunity to provide comments on the proposed fiscal year 2003 budget 
for the Bureau of Land Management (BLM). In particular, we propose 
increases of $10 million for the Wildlife and Fisheries program, $5 
million for the Threatened and Endangered Species program, and $3 
million for Riparian Area Management. The Wildlife Society is the 
association of professional wildlife biologists and managers dedicated 
to excellence in wildlife stewardship through science and education. 
The Society supports all aspects of federal programs that benefit 
wildlife and their habitat on public and private lands.
    The Bureau of Land Management (BLM) manages 264 million acres (48 
percent) of the nation's public lands, making it the largest natural 
resource management agency in terms of acres managed. Yet its operating 
budget amounts to a funding rate of $3.73/acre, about $4-$16 less per 
acre than the three other largest Federal land and natural resource 
management agencies. BLM lands provide critical habitat for fish and 
wildlife and recreational opportunities for millions of visitors. The 
Wildlife Society is concerned that the essentially static funding level 
in fiscal year 2003 will deprive the BLM of its ability to enhance 
management and programs, and present significant challenges to even 
maintain current levels of activity. Congress needs to increase BLM's 
operational budget to bring it into parity with the other Federal land 
management agencies.
    Specifically, The Wildlife Society is concerned about the proposed 
reductions in the Wildlife and Fisheries and Threatened and Endangered 
(T&E) Species programs. The Wildlife and Fisheries programs help the 
BLM ensure sound management and protection of a diversity of wildlife, 
fish and habitats, while providing for recreational and commercial uses 
of the land. The Administration has proposed a spending level reduction 
of 9.8 percent for these programs in fiscal year 2003, from $37.429 to 
$33.755 million. If Congress supports this reduction, the BLM will be 
forced to continue running these programs at minimal funding and 
inadequate staffing levels.
    Since 1992, the number of trained wildlife biologists employed by 
the BLM has declined from 385 to 320 (-20 percent), which translates to 
only 1 biologist per million acres of agency-managed land. At current 
staffing levels, the BLM is meeting approximately half of its 
identified programmatic needs on an annual basis for fish, wildlife, 
and threatened and endangered species. Given the increased emphasis in 
this budget on accelerating land use plan completion and expanding 
energy development on public lands, the Administration's proposed 
funding reduction and the BLM's staff shortages are likely to result in 
inadequate attention being given to fish and wildlife resources.
    Energy companies, the Administration, and many in the Congress have 
said that restrictions on energy exploration, development, and 
operations on public lands must be removed, and that new areas must be 
opened to development--without specifying which ones. In the past, many 
economically and culturally important wildlife populations, such as 
mule deer, elk and pronghorn, were restored from over-exploitation by 
sportsmen's dollars. It is simply unfair to expect American sportsmen 
and women to pay to recover wildlife populations a second time. The BLM 
must have the funds necessary to carry out the monitoring, evaluation, 
and eventual mitigation of any impacts that are identified from energy 
development. The Wildlife Society encourages Congress to restore $3.674 
million to the Wildlife and Fisheries program, and to appropriate and 
additional $10 million for Wildlife and Fisheries Management, to 
provide for adequate staff and operation funds.
    Lands administered by BLM provide habitat for hundreds of 
threatened and endangered species. Like other Federal agencies, the BLM 
is mandated by the Endangered Species Act to protect and restore 
threatened and endangered species and the habitat that they require. To 
this end, the President requested $21.288 million in fiscal year 2003 
for the T&E Species Program, a $330,000 decrease from fiscal year 2002. 
The Wildlife Society believes the request falls short of addressing 
endangered species needs on BLM lands, where the number of listed and 
proposed species has doubled since 1990. The Wildlife Society 
recommends that Congress to restore $330,000 to the T&E species 
program, and add an additional $5 million to support recovery of T&E 
species.
    Part of the wildlife, fisheries and T&E species program changes 
proposed in the Administration's budget result from shifts to fund the 
BLM's Challenge Cost Share (CCS) program. In fact, $5.5 million--over 
60 percent--of the CCS funding originated from these programs. If it 
could be guaranteed that a comparable amount would be used for these 
same purposes under the CCS program, the net effect may not translate 
into an immediate reduction of program emphasis, but the long-term 
implications are just that. The Wildlife Society requests that funding 
for the CCS program not come from existing conservation programs.
    The new Cooperative Conservation Initiative (CCI) launched by the 
Secretary of the Interior will provide $10 million to the BLM for 
natural resource conservation and restoration projects. The money will 
be allocated to field offices through competitive grants for 
``conservation'', but The Wildlife Society is concerned that 
conservation programs for resources other than fish and wildlife (e.g. 
soil, water and air) will have a higher priority in the competition. 
Our concern is relevant particularly as accelerated energy development 
compromises fish and wildlife habitat in some regions.
    The BLM manages over 23 million acres of riparian or wetland areas, 
supporting some of the most ecologically diverse plant and animal 
communities on public lands. Thousands of miles of riparian habitats 
along streams, rivers and wetlands in the West have been identified as 
severely degraded. Once restored, a healthy riparian zone provides 
vital fish and wildlife habitat, improves water quality, reduces soil 
loss and offers excellent recreational opportunities. The Wildlife 
Society is concerned that the Administration's $21.786 million budget 
request for Riparian Management, a $1 million (4.5 percent) reduction 
from fiscal year 2002, is insufficient to meet identified management 
needs. Reducing funding for this program will result in the continued 
degradation of the environment, and the continued inflation of 
restoration costs. The Wildlife Society requests that Congress provide 
an addition $3 million for this program to restore vital riparian 
habitats.
    The Wildlife Society supports the Administration's requested 
increase of $14.266 million for Resource Management Planning. These 
funds will expedite the development of 37 land management plans, a 
majority of which will address species issues in the BLM's 13 ecosystem 
initiatives.
    Thank you for considering the recommendations of wildlife 
professionals. We remain available to work with you and your staff 
throughout the appropriations process, to ensure adequate funding for 
wildlife and habitat conservation.
                                 ______
                                 
                United States Fish and Wildlife Service

             Letter From Jim Geringer, Governor of Wyoming

                                          State of Wyoming,
                              Cheyenne, Wyoming, February 28, 2002.
Re Statement of Support for Fiscal Year 2003 Upper Colorado Region 
        Endangered Fish Recovery Programs Funding

Hon. Robert C. Byrd, Chairman,
Hon. Conrad Burns, Ranking Minority Member,
Subcommittee on Interior and Related Agencies, Senate Appropriations 
        Committee,
U.S. Senate, Washington, DC.
    Dear Chairman Byrd and Ranking Minority Member Burns: I am writing 
to request your support and assistance in insuring continued funding 
for the Recovery Implementation Program for Endangered Fish Species in 
the Upper Colorado River Basin (Upper Colorado River Endangered Fish 
Recovery Program) and the San Juan River Basin Recovery Implementation 
Program. These cooperative programs involving the States of Colorado, 
New Mexico, Utah and Wyoming, Indian tribes, federal agencies and 
water, power and environmental interests are ongoing in the Upper 
Colorado River Basin and have as their objective recovering four 
species of endangered fish while water development proceeds in 
compliance with the Endangered Species Act of 1973, state law, and 
interstate compacts. We respectfully request support and action by the 
Subcommittee that will provide the following:
    The continued allocation of $700,000 in ``recovery'' funds 
appropriated to the U.S. Fish and Wildlife Service (FWS) for fiscal 
year 2003 to meet its funding commitment to the Upper Colorado River 
Endangered Fish Recovery Program. This is the same amount that was 
appropriated in fiscal year 2002 for this program. Funding will be used 
for FWS' program management costs, population estimation, and 
monitoring/data management activities associated with this Recovery 
Program.
    The continued allocation of $344,000 in appropriated base operation 
and maintenance funds (``Fisheries Activity; Hatchery O&M 
Subactivity'') to support the current operation of the FWS' Ouray 
National Fish Hatchery in Utah for fiscal year 2003. If an additional 
$100,000 (total $444,000) were made available, the Service could 
achieve full production of endangered razorback sucker in 2003, in line 
with stocking needs to achieve recovery goals.
    The allocation of $154,000 in ``recovery'' funds appropriated to 
the FWS to meet its funding commitment to the San Juan River Basin 
Recovery Implementation Program for needed research and monitoring and 
program management activities in fiscal year 2003.
    During the 106th Congress, Public Law 106-392 was enacted which 
authorizes the Federal Government to provide up to $46 million of cost 
sharing for the remaining capital construction projects for the two 
recovery programs. Capital construction for these programs remains to 
be completed for additional hatchery facilities to produce endangered 
fish for stocking, restoring floodplain habitat and fish passage, 
regulating and/or supplying instream habitat flows, installing screens 
to prevent fish entrapment in canals, and removing and/or relocating 
nonnative fishes. The four participating states will contribute $17 
million and $17 million will be contributed from revenues derived from 
the sale of Colorado River Storage Project (CRSP) hydroelectric power. 
Subsection 3(c) of the law authorizes the Secretary of the Interior to 
accept up to $17 million of contributed funds from Colorado, Wyoming, 
Utah and New Mexico, and to expend such contributed funds as if 
appropriated for that purpose. Each of the four participating states 
has appropriated non-federal cost sharing funding. These facts 
demonstrate the strong commitment and effective partnerships that are 
present in both of these ongoing programs.
    The above line item funding requests for the FWS are supported by 
the State of Wyoming and each of the participating States engaged in 
these Programs. The requested federal appropriations are critically 
important and will be used in concert with other federal and non-
federal cost-sharing funding. The support of your Subcommittee in past 
years is gratefully acknowledged and genuinely appreciated, and has 
been a major factor in the success of these multi-state, multi-agency 
programs in progressing towards endangered fish species recovery in the 
Upper Colorado and San Juan River Basins while necessary water use and 
development activities are occurring. We again request the 
Subcommittee's assistance to ensure that the FWS is provided with 
adequate funding for these vitally important programs.
            Best regards,
                                              Jim Geringer,
                                               Governor of Wyoming.
                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe
    The Nez Perce Tribe requests the following funding amounts for 
fiscal year 2003, which are specific to the Nez Perce Tribe:
  --$100,000 through the United States Department of the Interior, 
        Bureau of Indian Affairs, Fish and Wildlife Program to support 
        the fisheries efforts of the Nez Perce Tribe and to enhance 
        coordination with private, state and federal entities in 
        response to the 2000 Federal Columbia River Power System 
        Biological Opinion.
  --$600,000 (of a total $1.16 million joint appropriation request) 
        through the Unites States Department of the Interior, Fish and 
        Wildlife Service, Threatened and Endangered Species; Wildlife 
        Services; Wildlife Services Operational Program Western Region 
        for the continued operation of the Nez Perce Tribe's grey wolf 
        recovery, monitoring, research and outreach programs in Idaho.
    The Tribe urges support for the full and adequate funding of tribal 
programs through the Department of Interior fiscal year 2003 budget, 
with the specific request discussed below.
 nez perce tribe department of fisheries resource management funding: 
                             bia, $100,000
    The Nez Perce Tribe requests $100,000 be added to its Bureau of 
Indian Affairs Public Law 93-638 contract for enhanced capabilities in 
its fish recovery effort. The Nez Perce Tribe's fisheries effort 
entails production, research, resident fisheries, habitat, and 
conservation enforcement. The Department of Fisheries Resources 
Management is responsible for implementing the Nez Perce Tribe's 
fisheries recovery effort throughout the Nez Perce Tribe's treaty 
territory in north central Idaho, northeast Oregon and southeast 
Washington.
    The recently released Federal Columbia River Power System 
Biological Opinion (FCRPS Bi-Op) lists various action items to aid the 
survival of listed salmon and steelhead in the Columbia River Basin. 
Many of the action items will require intense coordination and 
monitoring. In particular, as a Columbia River Treaty Tribe, the Nez 
Perce Tribe will be required to meet various increased responsibilities 
in this effort and must be able to elevate our capacity to complete the 
necessary work to ensure salmon recovery in the Pacific Northwest.
    Extensive coordination is already required with regulatory agencies 
such as the U.S. Fish and Wildlife Service and National Marine 
Fisheries Service. Moreover, the Tribe's efforts to enhance fish 
recovery in the region, such as the Tribe's successful coho 
reintroduction, require participation and coordination with local and 
state agencies, resource advisory committees, and industry-tribal 
partnerships to discuss ongoing water adjudication, and other issues 
directly and indirectly affecting fish recovery. Thus, while the Tribe 
already plays a leading role in Endangered Species Act coordination, 
interagency cooperation, and collaborative efforts with private 
entities and governmental agencies for restoration and other 
collaborative efforts leading to salmon and steelhead recovery, 
additional resources will be necessary to implement the requirements of 
the FCRPS Bi-Op .
    A majority of the Tribe's fisheries effort is currently funded 
through the Bonneville Power Administration (BPA) in coordination with 
the Northwest Power Planning Council. This funding varies year-to-year 
depending upon Council priorities and the review of the Independent 
Scientific Review Panel. However, recent initiatives have required the 
Department to work outside the traditional BPA funded programs.
    The Tribe's extensive fishery recovery and management program is 
supported by the forest products industry, organized labor, businesses, 
and environmental organizations throughout Idaho and the Northwest. The 
Lewiston, Idaho and Clarkston, Washington Chambers of Commerce jointly 
passed a resolution advocating for increased funding for fish recovery 
efforts, specifically identifying tribal leadership in the effort. 
Members of the state legislature and local government have also spoken 
in support of the Tribe's fish production effort.
    The Nez Perce Tribe urges Congress to appropriate $100,000 through 
the United States Department of the Interior, Bureau of Indian Affairs, 
Fish and Wildlife Program to support the fisheries efforts of the Nez 
Perce Tribe and to enhance coordination with private, state and federal 
entities in response to the 2000 Federal Columbia River Power System 
Biological Opinion.
nez perce tribe's northern rocky mountain wolf recovery and monitoring 
                    program funding: usfws, $600,000
    The Nez Perce Tribe requests that Fish and Wildlife Service 
allocate $600,000 for wolf recovery efforts by the Nez Perce Tribe, 
specifically identified by a cooperative agreement with the Fish and 
Wildlife Service as $400,000 for continuing efforts of previous years 
and $200,000 for expanded year-round, on the ground staffing efforts 
(approximately $80,000), operations (approximately $100,000), and 
equipment (approximately $20,000) to report activities electronically 
twice per month, hold informational public meetings in affected 
communities, and accomplish additional collaring, tracking of movements 
and locations, documenting new packs, and establishing a system of 
special effort to notify landowners, grazing permittees, agencies, and 
others who have particular needs for the information gathered.
    The Nez Perce Tribe has been the primary entity responsible for the 
day-to-day managing of wolf recovery in Idaho. During the wolf 
recovery, the Tribe has, in a very professional and successful way, 
provided such services as wolf monitoring, communications with affected 
and interested parties, and research. Yet, more effort is needed. The 
near tripiling of the population demonstrates the success of the 
program, but will also demand more effort of the Tribe during the 
remainder of its contract with the Fish and Wildlife Service. 
Furthermore, the Governor of Idaho has invited the Tribe into 
negotiations to determine a significant role for the Tribe after the 
responsibility for wolf management shifts to the State of Idaho, which 
will extend the need for adequate funding and lends importance to 
establishing an adequate base for funding now.
    This $600,000 appropriation request is part of a larger 
appropriation package prepared in consultation and negotiation with the 
State of Idaho Office of Species Conservation, U.S. Fish and Wildlife 
Service, and interested private organizations such as the Idaho 
Cattleman's Association for a total amount of $1.16 million in order to 
create a wolf recovery program in the state of Idaho that anticipates 
imminent delisting by adequately funding the coordinated and shared 
responsibilities of the Nez Perce Tribe, State of Idaho, and Fish and 
Wildlife Service.
    The Nez Perce Tribe requests that Congress support wolf recovery 
post-delisting by fully funding this unique multi-government and 
interagency joint appropriation request. At a minimum, however, the Nez 
Perce Tribe requests that Congress appropriate the $600,000 which is 
necessary for the Nez Perce Tribe to adequately monitor the expanding 
wolf population in Idaho and provide accountability to local citizens 
affected by wolf recovery activities.
                                 ______
                                 
        Prepared Statement of the Pacific Northwest Partnership
    Chairman Byrd and Members of the Subcommittee: The Pacific 
Northwest Partnership, a coalition of water user organizations in the 
states of Oregon, Washington, and Idaho would like to offer the 
following testimony with regard to funding for the Fish Restoration and 
Irrigation Mitigation Act (FRIMA) (Public Law 106-502). Last year 
Congress provided $4 million for this program for the U.S. Fish and 
Wildlife Service to undertake the work that was envisioned by the 
passage of that Act. We are greatly concerned that funding was not 
included in the Administration's fiscal year 2003 Budget request for 
the U.S. Fish and Wildlife Service to continue with this program. We 
are requesting that the full $25 million per year that was expected 
under the legislation be provided for this program as your Subcommittee 
undertakes its efforts on the fiscal year 2003 Appropriations bill for 
the Department of the Interior.
    As the water user associations representing those states who would 
benefit and be the major users of the program, and who are currently 
under Federal mandates from the U.S. Fish and Wildlife Service and the 
National Marine Fisheries Service to correct the problems associated 
with our diversions, our request for the full $25 million is critical 
if we are to prevent a ``Klamath-type'' occurrence from taking place 
elsewhere in our region. The water users were at the forefront in 
advocating for the passage of this legislation since there were no 
other comprehensive programs available to help us address our needs.
    FRIMA established this new program within the U.S. Fish and 
Wildlife Service to plan, design and construct fish screens, fish 
passage devices, and related features to mitigate impacts on fisheries 
associated with irrigation system water diversions by local 
governmental entities in the Pacific Ocean drainage of our states. We 
have been waiting for implementation of this Act as well as the plans 
for using the $4 million that was provided for the program for this 
present fiscal year. We have districts that are ready to go to 
construction to address diversion problems with their systems and have 
identified cost shares from state and local government programs. We 
believe the full $25 million could be used for construction of projects 
in our three states in fiscal year 2003.
    Each participating state, to our knowledge, is assigning $150,00 to 
administrative and staff costs and $850,000 to projects. Nothing has 
occurred on the ground. The entire fiscal year has passed while the 
agency decided how to pursue the program. A year's planning effort was 
unnecessary as we already have existing state programs that could have 
implemented the Act.
    On behalf of our coalition, we appreciate your consideration of our 
request and look forward to having construction underway in the near 
future as was intended when the legislation was passed in the 106th 
Congress. Whatever money is made available, we still believe it is 
important to have language in the Committee Report stipulating it is 
for construction rather than agency staffing and administrative costs 
under Public Law 106-502.
                                 ______
                                 
              Prepared Statement of Defenders of Wildlife
    Defenders of Wildlife has substantial concerns about the 
Administration's fiscal year 2003 budget and makes recommendations 
regarding these concerns and funding in the following priority areas.
          fish and wildlife service endangered species funding
    In its fiscal year 2002 budget request, the Administration 
requested a rider that would have significantly impacted the ability of 
citizens to secure protection for species under the Endangered Species 
Act (ESA) and that most likely would have led to extinction of many 
species awaiting listing. We are extremely grateful that the 
Subcommittee wisely rejected this damaging language.
    Fortunately, the Administration's budget does not repeat the 
request for this rider. However, despite the fact that the ESA is one 
of our nation's most important environmental laws, the budget request 
continues to grossly under fund the four main FWS accounts for ESA 
implementation: Listing, Recovery, Consultation, and Candidate 
Conservation. The total request is $125.7 million, virtually level with 
last year's enacted amount.
    Our highest priority for ESA funding is listing. The 
Administration's own FWS Budget Justifications acknowledge a 
substantial listing backlog that cannot be addressed due to 
insufficient funding: ``86 final listing rules and 12-month petition 
findings beyond their statutory deadlines; 249 candidate species for 
which the Service has determined that listing is warranted; about 33 
petitions from the public not yet acted upon; and about 180 past `not 
prudent' or not `determinable' critical habitat findings that need 
reconsideration and new findings.'' Given this considerable backlog, it 
is unconscionable that the Administration continues to request grossly 
insufficient funding for the ESA listing account. Species awaiting 
protection include the Washington ground squirrel, the southern Rocky 
Mountains population of the boreal toad, and the Gunnison sage grouse. 
The Administration has requested only $9.077 million for listing for 
fiscal year 2003, yet FWS has estimated it needs about $24 million per 
year over a 5 year period to deal with the current listing backlog. We 
tremendously appreciate the $2.6 million fiscal year 2002 increase 
provided by the Subcommittee and urge a $16 million increase for fiscal 
year 2003.
    At the same time, FWS is desperately short of funding needed to 
recover species. Due to lack of funding for recovery actions, more than 
200 currently listed species could become extinct sometime in the next 
5 years even though protected under ESA. These include the Columbia 
Basin pygmy rabbit, the Mississippi gopher frog, Attwater's greater 
prairie chicken, and a number of Hawaiian birds and plants. Moreover, 
there have been reports that a substantial amount of recovery funding 
is often diverted to the Consultation program. While consultation is a 
critical component of ESA implementation, recovery funding ought not to 
be siphoned off to pay for it. The journal Bioscience (February 2002, 
Vol. 52, No. 2) recently published a study, ``The Endangered Species 
Act: Dollars and Sense'' by Julie K. Miller, J. Michael Scott, Craig R. 
Miller, and Lisette P. Waits, that found a statistically significant 
relationship between species status and amount of recovery funding 
spent; based on this analysis the study found that at least $650 
million per year is needed for effective recovery activities. Yet the 
Administration proposes $60.2 million, a $3.4 million cut for recovery. 
We understand that FWS believes it could realistically spend an 
additional $50 million per year in recovery with current staffing and 
we urge the Subcommittee to provide such an increase and to take steps 
to ensure that meager recovery funding is not diverted to consultation.
 land, conservation, preservation, and infrastructure improvement fund 
                                (lcpii)
    We thank the Subcommittee for providing the dedicated $1.32 billion 
fiscal year 2002 level for the historic Land, Conservation, 
Preservation and Infrastructure Improvement Fund, keeping the momentous 
commitment made at the end of the 106th Congress when LCPII was 
established. We also appreciate the Subcommittee's refusal to dismantle 
and consolidate LCPII programs as requested by the Administration in 
fiscal year 2002. Unfortunately, the fiscal year 2003 request again 
threatens LCPII by cutting the $1.44 billion dedicated fiscal year 2003 
level for the Interior appropriations subcommittee by $120 million and 
by eroding the original purpose of LCPII through: (1) cutting existing 
programs such as the Land and Water Conservation Fund by $88 million, 
State and Tribal Wildlife Grants by $25 million, and the Cooperative 
Endangered Species Fund by $5 million; (2) substantially increasing the 
level in the fund for maintenance--originally intended to be 
complementary to amounts provided for maintenance under regular 
appropriations; (3) adding the new $100 million Cooperative 
Conservation Initiative; and (4) adding in the Forest Stewardship 
program, formerly funded under Forest Service Operations at $50 
million. Defenders urges the Subcommittee to provide the full dedicated 
funding level of $1.44 billion for fiscal year 2003 and to again 
protect the integrity of LCPII programs.
    Land and Water Conservation Fund.--The Administration claims to 
request full funding for the Land and Water Conservation Fund (LWCF) at 
$900 million but instead is simply repackaging as LWCF other important 
programs already included under LCPII, such as State and Tribal 
Wildlife Grants and the Cooperative Endangered Species Fund, 
significantly undermining LWCF. Ostensibly, the LWCF request is $909 
million, but only $486 million of this is for authorized LWCF 
purposes--$336 million for land acquisition in National Wildlife 
Refuges, Parks, Forests and Bureau of Land Management lands and $150 
million for state LWCF. Federal land acquisition is reduced by 22 
percent below the fiscal year 2002 level and by 26 percent below the 
fiscal year 2001 level. To further dilute the federal LWCF, the budget 
says it will prioritize use of the funds as much as possible for 
easements and land exchanges rather than outright purchase. While the 
Subcommittee for the most part did not acquiesce to the 
Administration's fiscal year 2002 request to undermine LCPII and LWCF, 
it did place several non-LWCF programs under LWCF.
    Defenders urges Congress to maintain the integrity of LWCF by 
reversing this action and rejecting the Administration's proposal to 
fund even more conservation programs from it. We recommend a total of 
$660 million for authorized LWCF purposes for fiscal year 2003--$515 
million for federal LWCF and $145 million for the states. LWCF funding 
should increase to its full authorized $900 million level as LCPII 
ramps up to its full level by fiscal year 2006.
    State and Tribal Wildlife Grants Program.--Defenders is extremely 
grateful for the Subcommittee's leadership and interest regarding the 
State and Tribal Wildlife Grants program and its critically important 
planning requirement. State and Tribal Wildlife Grants for the first 
time provide states and tribes with badly needed funds to develop and 
implement comprehensive, map-based state-wide wildlife and habitat 
conservation plans. These plans are blueprints to help states 
strategically and cost effectively conserve declining species and their 
habitats before listing under ESA is necessary. States are already 
making excellent use of this program. For example, the Washington 
Department of Fish & Wildlife (WDFW) in cooperation with The Nature 
Conservancy and Washington Natural Heritage program is using State and 
Tribal Wildlife Grants to craft plans for Washington's 9 ecoregions--
together these will add up to a statewide plan that will help prevent 
further declines of species like the Gunnison sage grouse and Columbia 
Basin pygmy rabbit, while guiding state land acquisition, growth 
management, and private landowner incentive programs. Yet the 
Administration's budget slashes State and Tribal Wildlife Grants by $25 
million below its fiscal year 2002 enacted level. Defenders urges a 
total of $150 million for the State and Tribal Wildlife Grants Program 
for fiscal year 2003, an increase of $75 million.
    Cooperative Conservation Initiative and Landowner Incentive Grant 
Programs.--The Administration is proposing $100 million for its new 
Cooperative Conservation Initiative. While potentially innovative in 
concept, it is vaguely defined and should not be funded at the expense 
of mandated activities and existing programs that are crying for funds. 
Moreover, the Administration has yet to release information on how its 
new Landowner Incentive programs, funded at $50 million for fiscal year 
2002, will be implemented, yet it has requested an increase of $10 
million. Defenders is also concerned about reports that grant awards 
may be subject to a cumbersome process requiring recommendations from a 
panel of outside interests. Defenders is opposed to funding the CCI and 
the $10 million increase for the Incentives programs.
 fish and wildlife service national wildlife refuge system operations 
                            and maintenance
    The National Wildlife Refuge System (NWRS) is an American treasure 
that will pass a landmark when it celebrates its centennial in 2003. 
Defenders continues to be a leader in the Cooperative Alliance for 
Refuge Enhancement (CARE), a diverse coalition of 20 organizations 
working to substantially increase funding for the System. CARE's goal 
for the Refuge System's Operations and Maintenance (O&M) budget is $700 
million--$560 million for Operations and $140 million for Maintenance--
the funds to accomplish its mission as it embarks on its second century 
of wildlife conservation. The Administration has requested a 
substantial $56.5 million increase, a historic start to this goal. 
However, we have significant concerns with aspects of the request. 
About half of the increase is diverted from needed land acquisition for 
the Refuge System and more than half of the increase will go to 
maintenance. The bulk of the need is for operations funding to address 
protection of wildlife, management and restoration of habitat, public 
outreach, and the need for an additional 1,350 staff--nearly 200 
refuges have no staff on site. In addition, only $12 million of the 
$25.8 million increase in operations will go for high priority staffing 
and mission critical projects; yet the total unmet need is $315 
million. Defenders and the CARE group greatly appreciate the 
Subcommittee's past support and urge an fiscal year 2003 increase of at 
least $100 million for Refuge O&M--``100 for 100''--as a first step 
toward our goal; we further recommend that the bulk be directed toward 
operations where the need is greatest.
    bureau of land management (blm): resource protection and energy 
                              development
    Under the Bureau of Land Management, the Administration is 
requesting a $10.2 million increase to expand energy and mineral 
development on public lands including expedited permitting and 
increased leasing, energy related rights of way, and further 
development on Alaska's North Slope--including plans for drilling in 
the pristine Arctic National Wildlife Refuge. The budget also includes 
assumptions of lease sale receipts from the Arctic Refuge in 2004. The 
Administration is requesting a $14 million increase for BLM Land Use 
Plans, some of which are for national conservation areas, but some for 
``nationally significant energy development areas.'' At the same time, 
other important programs such as Threatened and Endangered Species 
Management, Riparian Management, and Rangeland Management are cut. 
Defenders urges rejection of the requested $10.2 million increase for 
expansion of energy and mineral development which includes plans for 
drilling in the Arctic Refuge. Instead, we urge increases for important 
resource protection needs including: Integrated Weed Management to curb 
the prolific spread of invasive species; Threatened and Endangered 
species to preserve the 306 listed, 59 candidate and 1,500 sensitive 
species on BLM lands; Sagebrush and Prairie Grassland Ecosystem 
Projects to apply multi-species conservation approach across large 
landscapes; Rangeland Management to help improve the health of grazing 
lands; and Recreation Resources Management to prevent off-road vehicle 
damage.
                             forest service
    An extremely damaging proposal in the Forest and Rangeland Research 
budget devotes $37.8 million to Presidential initiatives but requests 
only $1.8 million in new funding, resulting in diversion of $35.9 
million from existing research. Wildlife, Fish, Water and Air Research 
(WFWAR) is already grossly underfunded for critical research on 
threatened, endangered and sensitive species (TE&S), watersheds, 
wetlands, grasslands, and forests. WFWAR funding will be slashed by 
17.7 percent or $9.1 million; hardest hit will be Wildlife Habitat 
research, cut by more than 23 percent. Yet the WFWAR program is in 
desperate need of $10 million in increases for research on TE&S species 
for which little information exists such as bats, forest carnivores, 
plants, amphibians, molluscs, and crayfish. We urge rejection of the 
proposed cut and instead a $10 million increase to WFWAR for important 
research on TE&S species.
    We urge significant reductions for Forest Products and Timber Road 
Construction, unneeded timber industry subsidies, and redirection of 
funds to recovery from prior timber sales, including to ecosystem 
restoration and Road Decommissioning (requiring removal of the $15 
million cap on decommissioning). Congress should also direct that 
National Fire Plan money be spent in the urban-wildland interface and 
on long-overdue fire plans for forests, which will make future fire-
fighting efforts less costly and wasteful. Congress should limit Fire 
Plan money to non-commercial removal of small-diameter trees which 
create unnatural fire risks, and prohibit this money from being spent 
on any removal of commercial trees, which are the most fire-resistant 
and should remain for fire reduction. And more Fire Plan money should 
go to Cooperative Fire Protection to protect homes directly.
    Congress should reject the setting of arbitrary timber targets at 2 
billion board feet per year, and instead insist that the Forest Service 
manage for the health and sustainability of the land, letting outputs 
be a byproduct of good land management, not a goal in and of 
themselves. Congress should reject any proposals to fund or authorize 
stewardship contract projects, which the have potential to decrease 
accountability and vastly increase logging subsidies. And we urge 
Congress in the strongest possible terms to reject the ``charter 
forests'' proposal to remove management of national forests from the 
Forest Service, which would circumvent public participation and 
environmental laws, increase logging and other extractive activities, 
and devolve public lands to private hands.
  united states geological survey: biological research division (brd)
    BRD scientists provide critical information about fish, wildlife 
and plants and their habitats, and detect trends in our environment 
over time. This research is vital in detecting and responding to 
environmental problems and in sustainable management of natural 
resources, yet the budget proposes a 3.6 percent cut to BRD. Instead, 
the Administration should be proposing increases. When adjusted for 
Facilities and Science Support, the fiscal year 2003 request is about 
$185 million, well below the fiscal year 1994 inflation adjusted level 
of $220 million. We urge the Subcommittee to provide at least a $10 
million increase over the fiscal year 2002 enacted level for BRD as a 
first step in reaching the $220 million level. We also continue our 
strong support for the Gap Analysis Program, a collaborative effort 
among states and more than 500 business, non-profit, and government 
organizations to map the biological resources of all the states in the 
United States.
      botany on bureau of land management and forest service lands
    Nationwide, BLM employs only 1 botanist per 4 million acres the 
Forest Service only 1 botanist per 1.5 million acres, a serious problem 
preventing proper management of native vegetation. One full-time series 
430 botanist should be employed for each Forest Service Ranger District 
and for each 500,000 acres under BLM management.
                                 ______
                                 
              Prepared Statement of the Ocean Conservancy
    The Ocean Conservancy is pleased to share its views regarding the 
programs in the Department of the Interior's budget that affect marine 
resources and requests that this statement be included in the record 
for the fiscal year 2003 Interior and Related Agencies Appropriations 
bill.
    The Ocean Conservancy (TOC) strives to be the world's foremost 
advocate for the oceans. Through science-based advocacy, research, and 
public education, we inform, inspire, and empower people to speak and 
act for the oceans. TOC is the largest and oldest nonprofit 
conservation organization dedicated solely to protecting the marine 
environment. Headquartered in Washington DC, TOC has regional offices 
in Alaska, California, Florida, and Maine.
                              coral reefs
    Coral reefs are rightly known as ``the rainforests of the sea,'' 
and are among the most complex and diverse ecosystems on earth. Coral 
reefs provide habitat to almost one third of marine fish species, serve 
as barriers to protect coastal areas, and provide an estimated $3 
billion annually in economic benefits to the country from recreational 
tourism and fishing. Coral reefs are also extremely fragile and face 
serious threats from overutilizaiton and pollution around the world.
    The Department of the Interior serves on the Interagency Coral Reef 
Task Force and is responsible for implementing the National Action Plan 
to Conserve Coral Reefs. Unfortunately, its budget of $9 million is 
grossly inadequate to properly manage, monitor and protect the over two 
million acres of coral reefs under its jurisdiction. TOC respectfully 
requests that the subcommittee consider increasing the Department's 
coral reef budget to $15 million in fiscal year 2003 as follows:
    National Park Service.--From $3.6 million to $5 million, to improve 
management and protection of special reef areas, including the Dry 
Tortugas National Park in the Florida Keys, the U.S. Virgin Islands, 
Biscayne National Park in Florida, and parks in Hawaii and the Pacific 
Islands.
    Fish and Wildlife Service.--From $1.25 million to $2.5 million in 
recognition of the 2003 Refuge Centennial to increase protection, 
monitoring and management of coral reefs within the National Wildlife 
Refuge System, including the refuges in the Florida Keys and newly 
established units at Palmyra and Kingman atolls.
    U.S. Geological Survey.--From $3.5 million to $4.5 million to 
support research and monitoring of biological and environmental 
conditions, including activities in the U.S. Virgin Islands, fishing 
impacts and the role of marine protected areas, and causes of coral 
diseases.
    Office of Insular Affairs.--From $0.5 million to $3.0 million to 
support desperately needed coral reef initiatives in U.S. territories 
in the Caribbean and Pacific.
                       fish and wildlife service
Endangered Species Program
            Listing and Critical Habitat
    The Fish and Wildlife Service (FWS) continues to face a backlog of 
species needing listing and critical habitat designation. TOC 
respectfully requests the subcommittee fund endangered species listing 
and critical habitat programs at $24 million in fiscal year 2003, $15 
million above fiscal year 2002 enacted levels.
    Over the last 8 years, the Northern sea otter has declined seventy 
percent. As few as 6,000 sea otters remain in the entire Aleutian Chain 
in Alaska. Despite the significant population decline and the FWS's 
designation in 2000 of the Northern sea otter as a candidate for 
listing, no funds are currently directed to list or recover this 
species. TOC requests the subcommittee specifically identify funds in 
fiscal year 2003 to list and recover the Northern sea otter.
            Consultation Program
    Each year, FWS reviews more than 62,000 federal actions under 
Section 7 consultations. TOC requests that the subcommittee increase 
funding by $10 million to $55.5 million in fiscal year 2003 to ensure 
timely completion of these consultations.
            Recovery Program
    TOC is extremely concerned about the Administration's proposed $3.4 
million cut to the endangered species recovery program. We urge the 
committee to reject this cut and support a significant increase in 
fiscal year 2003. Within this increase, TOC respectfully requests the 
committee specifically identify funds to recover sea turtles and the 
Southern sea otter.
            Sea Turtles
    All species of sea turtle species found in U.S. waters, including 
Pacific populations of leatherbacks, loggerheads and green turtles, are 
listed as endangered or threatened under the Endangered Species Act. 
Adequate funding for the protection of their habitat, including nesting 
beaches, is critical to their survival. While we greatly appreciate 
this committee's past support for sea turtle conservation, additional 
funds are needed, especially for international efforts by FWS. To 
address the needs of these migratory, flagship species, we request that 
the subcommittee earmark funding for sea turtle conservation by 
providing a line item appropriation of $486,000 in fiscal year 2003 for 
domestic conservation and an additional $486,000 for international 
conservation.
            Southern Sea Otters
    The southern sea otter was listed as threatened under the ESA in 
1977. The current population of over 2,100 individuals represents a 
nine percent decline since 1995. More than 5 years of necropsy data 
indicates that nearly 40 percent of otters examined had an infection at 
the time of death. TOC respectfully requests funding to produce an 
epidemeology plan and conduct a health assessment workshop to reduce 
this source of mortality. In addition, sufficient funds are needed to 
implement the southern sea otter recovery plan.
Manatee Law Enforcement
    TOC urges the subcommittee to continue funding manatee law 
enforcement at $1 million in fiscal year 2003. Heightened law 
enforcement efforts are necessary to protected the endangered Florida 
manatee and curtail motor-boat caused mortalities. Watercraft 
mortalities represent the single largest identifiable cause of death 
for Florida manatees each year. Past funding has enhanced compliance 
with manatee protection speed zones and has increased the number of 
National Wildlife Refuge System officers patrolling Florida waters. We 
greatly appreciate the $1 million provided by this subcommittee in 
fiscal year 2002 and request a renewed commitment of $1 million in 
fiscal year 2003, $0.5 million above the Administration's request, to 
promote recovery and minimize human caused mortalities.
National Invasive Species Act--Ballast Technology Demonstration
    Nonindigenous species infestations degrade natural resources of 
virtually every U.S. waterway and coastal area. Free of natural 
predators, alien species which become established in our waters often 
out-compete native organisms, destroy habitat and alter physical/
chemical conditions in our coastal waters. Invasive species are 
regarded as a leading cause of diminished biodiversity and cost our 
economy millions of dollars each year. The leading vector of 
unintentional introductions of aquatic pest species is the discharge of 
ballast water by oceangoing vessels.
    The National Invasive Species Act (Public Law 104-332) authorizes 
$2.5 million for the FWS to eliminate this source of aquatic invasives. 
While we appreciate the subcommittee's support of $0.25 million in 
fiscal year 2002, we urge the full $2.5 million be provided in fiscal 
year 2003 to help develop and demonstrate environmentally sound ballast 
water treatment technologies.
                        u.s. geological service
National Water Quality Assessment Program
    Over the past 50 years, nitrogen and phosphorus inputs into U.S. 
waters from human activities on land have increased up to 20 times 
their previous levels, and the rate of increase is accelerating. This 
has had a number of adverse impacts on our coastal water quality. Algae 
blooms are depleting oxygen levels, killing fish and other aquatic 
organisms. Dead zones are increasing in size and quantity.
    At the present time we cannot effectively assess the extent of our 
water quality problems or the effectiveness of our programs to address 
these problems because only 32 percent of our estuaries and 5 percent 
of our ocean waters are monitored. National Water Quality Assessment 
Program (NWQAP) is one of the few federal programs charged with 
systematically monitoring the status of the nation's water quality, 
evaluating trends, and assessing the sustainability of this critical 
resource. Data from NAWQA is absolutely essential if we are to make 
progress in reducing the impacts of excess nutrients in the marine 
environment.
    According to a recent National Research Council report, ``NAWQA has 
produced not only an unprecedented volume of quality data for use in 
the scientific community, but also unbiased information that is being 
used by decision makers, managers, and planners at all government 
levels. NAWQA has also assumed a vital leadership role, helping to 
improve environmental monitoring in many agencies from federal to 
local, both by its example and by technical assistance to others.''
    We request that the subcommittee reject the Administration's 
proposed budget cut of nine percent for NAWQA and restore full funding 
in fiscal year 2003.
                      minerals management service
Offshore Oil and Gas Leasing Moratoria
    Since 1981, Congress has included bill language in the Interior 
Appropriations legislation to protect sensitive coastal and marine 
regions from new offshore oil and gas leasing. Today the moratoria 
protects the East and West coasts of the United States, Alaska's 
Bristol Bay, and parts of the Eastern Gulf of Mexico off Florida. TOC 
applauds the subcommittee's continued support of this language and 
strongly supports its continued inclusion in fiscal year 2003.
    Thank you for considering the funding needs of these programs. They 
are of the utmost importance to the stewardship of the nation's living 
marine resources. We greatly appreciate your past support for these 
programs and your consideration of our fiscal year 2003 requests.
                                 ______
                                 
               Prepared Statement of the Wildlife Society
    The Wildlife Society appreciates the opportunity to submit comments 
regarding the fiscal year 2003 budget for the U.S. Fish and Wildlife 
Service (FWS). In particular we recommend $150 million for State and 
Tribal Wildlife Grants; $50 million for the North American Wetlands 
Conservation Fund; a $6.6 million increase for Migratory Bird 
Management; restoration of $3.4 million for endangered species recovery 
efforts; a $43.5 million increase for operations and maintenance of the 
National Wildlife Refuge System; a $15 million increase for the 
Partners for Fish and Wildlife Program; and a $4 million increase for 
Neotropical Migratory Bird Grants. The Wildlife Society is the 
association of professional wildlife biologists dedicated to 
responsible wildlife stewardship through science and education. The 
Society is interested in all aspects of federal programs that affect 
wildlife and habitat.
                    state and tribal wildlife grants
    The Wildlife Society believes that funding assistance for state 
wildlife agencies is one of the highest priority needs for wildlife 
conservation at this time. For this reason we are particularly 
concerned about the budget reductions proposed for state-administered 
fish and wildlife programs. The Administration's fiscal year 2003 
budget request for State Wildlife Grants is $60 million, a 29 percent 
reduction from the $85 million appropriated in fiscal year 2002. This 
will severely limit the ability of state agencies to proactively manage 
species of concern through long-term conservation projects. The 
Wildlife Society recommends that $150 million be appropriated for State 
Wildlife Grants in fiscal year 2003, apportioned to state fish and 
wildlife agencies under the distribution formula used in fiscal year 
2002. In addition, we recommend a 25 percent state match and 75 percent 
federal match for both planning and implementation projects. This will 
make it feasible for states to equitably allocate funds to both 
planning and implementation projects, instead of shifting the balance 
away from implementation projects that currently require a 50 percent 
state match.
               north american wetlands conservation fund
    In the North American Wetlands Conservation Act of 1989, Congress 
authorized an annual appropriation of $50 million for this important 
conservation program; however, full funding has never been achieved. 
This cooperative program has been one of the government's most 
successful non-regulatory, incentive based programs, and has shown 
unprecedented success in restoring wetlands, waterfowl and other 
migratory bird populations. The Wildlife Society recommends that 
Congress appropriate the full $50 million authorized for the North 
American Wetlands Conservation Fund in the fiscal year 2003 budget.
                       migratory bird management
    The Wildlife Society is concerned about the level-funding request 
for the Migratory Bird Management program in fiscal year 2003. We 
believe that the FWS should continue to place a high priority and 
budget emphasis on migratory birds. Inflation and increased operating 
costs have absorbed enhanced funding in recent years. The Wildlife 
Society recommends appropriation of additional funds totaling $6.6 
million for Migratory Bird Management, to meet program objectives for 
migratory bird conservation in the future. We recommend these funds be 
allocated as detailed below.
    The FWS can cooperate with State fish and wildlife agencies to 
begin implementation of the Colonial Waterbird Conservation Plan, 
Shorebird Conservation Plan and the Partners in Flight Plan. These 
plans will provide for proactive management actions to avoid listing 
wildlife populations as threatened or endangered. The Wildlife Society 
recommends an increase of $3 million in the Administration's request 
for FWS Migratory Bird Management to address these conservation plans.
    The fleet of aircraft used by FWS for waterfowl surveys is getting 
perilously old and outdated. It is only a matter of time before one or 
more of these aircraft fail and lives are lost. It costs approximately 
$1 million to replace one plane, and the FWS needs desperately to 
replace 9 of the aircraft used for the waterfowl surveys. The Wildlife 
Society recommends an increase of $2 million in the Administration's 
request for FWS Migratory Bird Management to begin replacing these 
hazardous aircraft.
    The joint ventures implemented under the North American Waterfowl 
Management Plan have been extremely successful at recovering migratory 
bird populations in North America. Despite the additional $420,000 
requested in fiscal year 2003 for these projects, several joint 
ventures lack the funds necessary to implement vital restoration 
projects for waterfowl and other migratory birds. The Wildlife Society 
recommends an increase of $1.6 million in the Administration's budget 
request for FWS Migratory Bird Management to fund existing and new 
Joint Ventures.
                       endangered species program
    The Wildlife Society supports the Administration's requested budget 
increases for Endangered Species candidate conservation ($1.06 
million), listing ($77,000), and consultation ($2.27 million). However, 
we are concerned about the reductions in the Endangered Species Act 
Recovery Program. Endangered species recovery efforts can result in 
significant benefits to species through state management efforts. 
Delisting of recovered species needs to receive priority attention. The 
Wildlife Society recommends that Congress restore the $3.4 million 
reduction in recovery efforts in the FWS budget request.
                    national wildlife refuge system
    The Wildlife Society supports the plan offered by the Cooperative 
Alliance for Refuge Enhancement (CARE) to substantially reduce the 
Operation and Maintenance (O&M) backlog of the Refuge System by 2003. 
Increases in the O&M budgets during the past several years have allowed 
the FWS to significantly reduce the Refuge System's maintenance 
backlog. However, the operations budget remains disconcertingly low, 
hampering FWS's ability to oversee maintenance projects and conduct 
daily operational work on refuges. We appreciate the Administration's 
O&M backlog request of $376.5 million in fiscal year 2003, a $56.5 
million increase over fiscal year 2002, but this amount falls far short 
of CARE's goal. The Wildlife Society recommends an increase of $43.5 
million over the Administration's O&M budget request to successfully 
meet the FWS's Refuge System mission of fish, wildlife and habitat 
conservation.
                     partners for fish and wildlife
    The Partners for Fish and Wildlife program (PFW) is one of the few 
programs administered by the FWS that uses partnerships with 
landowners, state wildlife agencies, and conservation organizations to 
improve wetlands, uplands, riparian areas and other habitats on private 
land. This program is highly effective and popular with farmers and 
ranchers, but the demand for PFW far exceeds the appropriated funds. 
More than 2,000 landowners who have submitted proposals to implement 
conservation on their lands have been turned away due to insufficient 
funding. These unmet needs are likely to increase with the 
Administration's proposed reduction of $7.3 million in the PFW program. 
At least $15 million in additional funds are needed to complete 
proposed projects, which, if implemented, would restore more than 
150,000 acres of upland habitat, 950 miles of riparian vegetation along 
steams and rivers, and 3,000 wetland basins on private land. The 
Wildlife Society recommends an increase of $15 million over the 
Administration's budget request for the PFW program.
                neotropical migratory bird conservation
    The Wildlife Society is concerned about the Administration's 
proposal to zero funding for Neotropical Migratory Bird Conservation. 
Many migratory bird populations are experiencing long-term declines, 
but very little is known about their biology and migratory behavior. 
The Wildlife Society recommends $4 million to collect the necessary 
information to maintain viable populations of these species throughout 
their historic range.
    Thank you for considering the recommendations of wildlife 
professionals. We look forward to working with you and your staff 
throughout the appropriations process.
                                 ______
                                 
     Prepared Statement of the Humane Society of the United States
    Thank you for the opportunity to offer testimony to the Interior 
and Related Agencies Subcommittee on several funding items of great 
importance to The Humane Society of the United States (HSUS) and its 
7.3 million supporters nationwide. As the largest animal protection 
organization in the country, The HSUS urges the Committee to address 
these priority issues in the fiscal year 2003 budget.
                 trapping on national wildlife refuges
    National Wildlife Refuges should not permit commercial and 
recreational trapping with inhumane traps. The National Wildlife Refuge 
System (NWRS) is the only category of federal lands specifically set 
aside for the protection and benefit of wildlife. If we can't protect 
wildlife from commercial exploitation by cruel means on National 
Wildlife Refuges, where can we provide protection for these creatures?
    According to a June 1997 report to the Congress, ``Mammal Trapping 
within the National Wildlife Refuge System: 1992-1996,'' the U.S. Fish 
and Wildlife Service administered 487 trapping programs on 281 refuges; 
thus, more than half of the nation's 520 refuges permit some trapping. 
According to the report, ``[e]ighty-five percent of the mammal trapping 
programs on refuges were conducted primarily for wildlife and 
facilities management reasons. The remaining 15 percent occurred 
primarily to provide recreational, commercial, or subsistence 
opportunities to the public.''
    During fiscal year 2001, recreational trappers visited 80 units of 
the NWRS a total of 40,696 times (number of trapper visits per unit 
ranged widely from 4 to 9,563). ``Consumptive'' uses as a whole 
(including recreational trapping and hunting) are allowed on the 
majority of NWRS units according to data from the U.S. Fish and 
Wildlife Service for fiscal year 2001. However, most of the people who 
enjoy the refuges are ``non-consumptive'' users, whose activities in 
the refuges include hiking, photography, and nature observation. In 
particular, in fiscal year 2001, the U.S. Fish and Wildlife Service 
recorded over 36 million visits by non-consumptive users to the 485 
refuges open to the public. Clearly, an elimination of recreational 
trapping on the NWRS would have at most a negligible effect on the 
millions of Americans who use and enjoy the refuges every year.
    The American Veterinary Medical Association, the American Animal 
Hospital Association, and the World Veterinary Organization have all 
declared leghold traps to be ``inhumane.'' These traps are designed to 
slam closed and grip tightly an animal's leg or other body part. 
Lacerations, broken bones, joint dislocations and gangrene can result. 
Additional injuries result as the animal struggles to free itself, 
sometimes chewing off a leg or breaking teeth from biting the metal 
trap. Animals caught in leghold traps sometimes die from dehydration, 
starvation, exposure to the elements, or predators. An animal may 
suffer for several days before a trapper returns to check a trap.
    These traps are as indiscriminate as they are inhumane. Any animal 
unlucky enough to stumble across a trap will be victimized by it. In 
addition to catching ``target'' animals, traps catch non-target, or 
``trash,'' animals, such as family pets, eagles, and other protected 
species. A number of studies conducted by professionals from management 
agencies reveal that for every target animal caught in a steel-jawed 
leghold trap, there are from one to ten non-target animals caught. This 
is an unacceptable level of by-catch.
    Voters in Arizona, California, Colorado, Massachusetts, and 
Washington have approved ballot measures to ban leghold traps. New 
Jersey and Florida have also banned the use of these traps, and many 
other states have severe restrictions on their use, including 
Connecticut and Rhode Island. A May 1999 national poll conducted by 
Peter Hart Research Associates, Inc., revealed that 84 percent of 
respondents oppose the use of steel-jawed leghold traps on National 
Wildlife Refuges. There are dozens of wildlife refuges in Arizona, 
California, Colorado, Massachusetts, New Jersey, Washington, and 
Florida. There have been no adverse impacts on those refuges from the 
statewide bans.
    Neck snares are similarly inhumane and indiscriminate. Coyotes, 
foxes, and other animals trapped in neck snares often die slowly over 
hours or days by strangulation, as evidenced by necropsy data. Even 
when animals are anesthetized prior to snaring in laboratory tests of 
the snares' humaneness--a procedure that decreases the time to loss of 
consciousness--foxes often take several minutes (up to 45 minutes in 
one study) to lose consciousness. While some researchers have found 
that neck snares are more selective than leghold traps, their use 
nevertheless results in the capture and injury or death of a 
significant number of non-target animals. For example, of 91 deer (non-
target animals) captured by neck snares in one study, 47 died in the 
snares.
    In 1999, the House of Representatives approved an amendment to bar 
the use of tax dollars to administer or promote the use of steel-jawed 
leghold traps or neck snares for commerce or recreation on units of the 
National Wildlife Refuge System. The amendment allowed the use of these 
traps for the purposes of research, subsistence, conservation, or 
facilities protection. The House approved this measure by a bipartisan 
vote of 259-166, with a majority of the members of the Subcommittee on 
Interior Appropriations favoring the amendment. Unfortunately, the 
Senate rejected an identical amendment offered by Senator Robert 
Torricelli, and the Conferees chose not to include any restrictions on 
trapping in the fiscal year 2000 Interior Appropriations Act.
    We urge the Committee to incorporate the language of the Farr 
amendment in the Fiscal Year 2003 Interior Appropriations Act. It is a 
sensible, humane, and narrowly crafted provision. The amendment would 
not bar trapping on refuges. Other traps, including foot snares, 
Conibears, and box and cage traps, could be used for any purpose 
consistent with law and regulation on the refuges. The Farr amendment 
would not forbid the use of steel traps or neck snares. It would ban 
those two devices only for commercial and recreational purposes. We 
urge your favorable consideration of this language approved by the 
House.
       law enforcement division of the fish and wildlife service
    After illegal drugs and arms, trade in wildlife parts is the third 
most lucrative smuggling enterprise in this country. New technology and 
a full complement of Special Agents are essential if law enforcement is 
to have any hope of effectively enforcing the nation's endangered 
species trade laws. The HSUS strongly supports an increase of $10 
million over the Administration's request for U.S. Fish and Wildlife 
Service Law Enforcement Operations and Maintenance.
    The Law Enforcement Division is currently undergoing a 3-year 
rebuilding effort designed to bring the number of Special Agents to 
253. These Special Agents investigate domestic and international 
wildlife crime and monitor wildlife trade. In addition to field agents, 
the Division of Law Enforcement is charged with the responsibility of 
inspecting shipments at ports of entry. Wildlife inspectors play an 
invaluable role in stopping wildlife smuggling by inspecting wildlife 
shipments to ensure compliance with laws and treaties.
    Investigating sophisticated wildlife smuggling operations requires 
the latest in law enforcement technology. The Clark R. Bavin Wildlife 
Forensics Laboratory is capable of providing assistance in the 
prosecution of wildlife crimes by analyzing claws, teeth, feathers, 
tissue, blood, and other wildlife samples. The Clark R. Bavin Wildlife 
Forensics Laboratory is indispensable in the vigorous enforcement of 
the nation's wildlife trade laws. The HSUS urges the Committee to 
appropriate an additional $7 million in fiscal year 2003. This increase 
will allow the lab to add scientists and staff, expand and improve its 
physical location, and continue its valuable work.
                        protection for walruses
    We urge this subcommittee to appropriate $500,000 in fiscal year 
2003 to fund much-needed research on the Pacific walrus. Walruses are 
targeted by Native hunters for subsistence, despite a paucity of data 
regarding their current population status or population structure. 
Hundreds of walruses are killed annually; in some years this number has 
climbed to as many as 7,000. Moreover, in some hunting villages, 
females and their calves are preferentially killed, against the 
recommendation of the U.S. Fish and Wildlife Service and standard 
management practice. A portion of these funds could also be used to 
assist and improve the Walrus Harvest Monitor Project, which collects 
basic management data.
                multinational species conservation fund
    The HSUS joins a broad based coalition of organizations in 
requesting an increase over the Administration's request for the 
Multinational Species Conservation Fund (MNSCF). The MNSCF is a fund 
established by Congress to benefit African and Asian elephants, rhinos 
and tigers, great apes, and neotropical migratory birds. Congress has 
authorized a combined total of $30 million for the five programs that 
constitute the MNSCF. Last year, Congress demonstrated its commitment 
to the Fund by appropriating $7 million for the five programs. 
Unfortunately, the Administration requested only $5 million for fiscal 
year 2003. We ask that you continue to support these highly threatened 
mammals and birds in fiscal year 2003 by appropriating $2 million each 
for the African Elephant Conservation Fund, the Asian Elephant 
Conservation Fund, and the Great Ape Conservation Fund, $3 million for 
the Rhinoceros and Tiger Conservation Fund, and $5 million for the 
Neotropical Migratory Birds Conservation Fund, for a total of $14 
million.
    Although there are severe threats to the long-term survival of 
African and Asian elephants, rhinos, tigers, great apes, and 
neotropical migratory birds, there have been improvements attributable 
to funds made available through the MNSCF. Grants made from the MNSCF 
provide a stable funding source that has leveraged over four times as 
much in additional contributions from range states, non-governmental 
organizations, and others.
    While The HSUS wholeheartedly supports increased funding for the 
MNSCF, we are very concerned about previous incidents and future 
opportunities for funds from these conservation programs to be 
allocated to promote trophy hunting, trade in animal parts, and other 
consumptive uses--including live capture for trade, captive breeding, 
and entertainment to meet the demand of the public display industry--
under the guise of conservation for these endangered animals. We would 
like to see grants made to projects that are consistent with the spirit 
of the law.
                      wild horse and burro program
    Wild horses and burros are a public trust greatly beloved by the 
American people. Consequently, we strongly believe that the Bureau of 
Land Management (BLM) should be given the direction and resources it 
needs to ensure the health of wild horse and burro herds and the public 
lands they inhabit, as well as the welfare of the horses and burros 
that go through the BLM's Wild Horse and Burro Adoption Program.
    During fiscal year 2002, the Bureau of Land Management's Wild Horse 
and Burro Program received a substantial increase to their annual 
operating budget. This increase is to be used to implement BLM's 4-year 
plan to achieve appropriate management levels (AML's) in all herd 
management areas, principally through an increase in the number of 
horses and burros removed from the public lands. The HSUS supports in 
principle the BLM's attempt to establish a national, strategic approach 
to wild horse management. We strongly believe, however, that many of 
the AML's set by the BLM exaggerate the impact of wild horses on the 
public lands, and do not provide wild horses and burros with the fair 
share of public land resources to which they are entitled under the 
law. We also fear that the planned removals will threaten the short- 
and long-term viability of these populations. To adequately address 
these concerns, the BLM should carry out a programmatic environmental 
impact analysis that examines the impacts of wild horses, burros, and 
livestock on the conditions in herd management areas, and of the 
proposed population reductions on the viability of individual wild 
horse and burro populations and on the overall health of the wild horse 
and burro population on public lands.
    With the strong support of The HSUS and this committee, BLM-
sponsored research has produced a one-shot, 1-to-2-year contraceptive 
vaccine for wild horses. The BLM is moving toward applying this 
vaccine, known as PZP, as a humane, cost-efficient tool for reducing 
the number of horses that must be removed from the public lands. 
Accordingly, we ask the committee to insert the following language into 
the fiscal year 2003 Interior Appropriations bill: ``The BLM is 
strongly encouraged to implement immunocontraception to help control 
populations of wild horses on the public lands.''
    In addition to the more traditional threats faced by wild horses 
and burros, which include habitat destruction, wildfires, and cattle 
ranching encroachment, wild horses are coming under pressure from the 
increasing demand for horsemeat as a result of the ``mad cow'' disease 
threat in Europe. The BLM documented that in 1999 hundreds of wild 
horses that had been adopted through the BLM's adoption program were 
sold into slaughter, despite the Congressionally mandated prohibition 
on such action.
    It is because of the current pressure on wild horses and burros 
from decreasing habitat and mad cow disease that we urge this committee 
to once again include the following standard language in the fiscal 
year 2003 Interior Appropriations bill: ``The appropriations made 
herein shall not be available for the destruction of healthy, 
unadopted, wild horses and burros in the care of the Bureau of Land 
Management or its contractors.'' We also request $100,000 in additional 
funding to be allocated to the preparation of a comprehensive National 
Environmental Policy Act review (a programmatic Environmental Impact 
Statement). Finally, we urge this committee to allocate $500,000 in 
additional funding to the BLM for pre-titling compliance monitoring of 
adoptions, adopter mentoring programs, and other means of ensuring that 
adopted wild horses and burros are treated consistently with the intent 
of the Wild Horse and Burro Protection Act and are not sent to 
slaughter.
                                 ______
                                 
               Prepared Statement of Friends of Back Bay
    I am Molly Brown from Virginia Beach, Virginia. I am the President 
of Friends of Back Bay, a group of over 400 dedicated volunteers who 
are committed to the protection of the Back Bay National Wildlife 
Refuge. Located in southeastern Virginia Beach, Back Bay National 
Wildlife Refuge was established on February 29, 1938, as a 4589-acre 
refuge and breeding ground for migratory birds. We thank Congress for 
their continued support of this project.
    The Director of the U.S. Fish and Wildlife Service approved a 
Refuge boundary expansion on May 7, 1990. The expansion area includes 
6,340 acres of important wildlife habitat. To date the Fish and 
Wildlife Service has been able to acquire 4,313 acres. The Virginia 
Division of Natural Heritage has identified 14 natural areas within the 
Back Bay watershed, nine of which are within the Refuge boundary. These 
areas contain rare plant and animal communities, some of which are 
found nowhere else in Virginia. The Refuge annually supports tens of 
thousands of migratory birds including neotropical migrants, other 
songbirds, waterfowl, shore birds, wading birds and raptors. Submerged 
aquatic vegetation has begun to make reappearance in Back Bay, due in 
part to land protection efforts of the Service. Various wintering 
waterfowl (widgeons, green-winged teal, and gadwall) have wintered in 
Back Bay this year. This recent acquisition had been zoned to 
accommodate 3,000 homes; however, thanks to Congress, this area has 
been protected forever as a portion of the Back Bay National Wildlife 
Refuge.
    The Back Bay National Wildlife Refuge is truly a diversified 
ecosystem. The Refuge is the first undeveloped area south of the mouth 
of the Chesapeake Bay. The first successful bald eagle nest on Back Bay 
in over 30 years occurred on newly acquired Refuge lands in 1994. For 
the past 8 years, 13 eaglets were fledged from this nest. Again this 
year the eagles are nesting. Furthermore, additional adult Bald Eagles 
have been observed on the Refuge, as well as other area of the City of 
Virginia Beach. Also, loggerhead sea turtles nest on the Refuge beaches 
at the northern limit of their nesting range. Four loggerhead nests 
were successfully located and protected in 2001 and sea turtle 
management on the Refuge received significant media coverage during the 
summer. Peregrine falcons and piping plovers continue to use Refuge 
habitats during migration. Finally, owl research continues to be 
conducted on the Refuge. So far they have banded and studied the 
eastern screech, great horned, common barn and saw-whet owls.
    The threat to the Back Bay watershed continues. The primary threat 
is conversion of existing farmland and woodland into residential, 
commercial and recreational uses. The city of Virginia Beach 
Comprehensive Plan projects an estimated 100,000 additional residents 
in the Back Bay watershed. Current proposals include condo development, 
mineral extraction and golf course development. The present expansion 
of a grocery store and a strip mall in the area puts further pressure 
on the Back Bay watershed. As development restrictions are relaxed, 
land values are escalating and may soon be out of reach for 
conservation purposes.
    Since the metropolitan area of Southeastern Virginia is one of the 
fastest growing urban areas in the nation, natural havens such as the 
Back Bay National Wildlife Refuge are increasingly important to its 1.5 
million inhabitants. A survey of 500 registered voters conducted in 
2000 by the City of Virginia Beach and Trust for Public Lands revealed 
that 86 percent believed that it is important to protect the Back Bay. 
This in part led the City of Virginia Beach to adopt the Virginia Beach 
Outdoors Plan in February 2001. This plan is an initiative to preserve 
open space for physical and visual enjoyment. The Refuge provides 
public recreation, e.g. hunting, fishing, bird watching, photography 
and environmental education. Visitation at the Refuge is over 100,000 
per year. Environmental education is a major public use, with over 
5,000 schoolchildren utilizing the area in 2001. From the Refuge's 
visitor center, students can observe seven different habitats. These 
habitats are necessary for the survival of a wide variety of wildlife. 
In keeping with our environmental education opportunities, a group of 
local volunteers have worked with the Refuge staff to put the Back Bay 
Refuge on the Internet. This will enable people world wide to access 
information about the Back Bay ecosystem.
    Furthermore, the Back Bay Refuge is now part of the Charles Kuralt 
Trail, which includes eleven refuges in Virginia and North Carolina. 
Back Bay is designated for the osprey and has a handicap accessible 
trail to view these magnificent ``fish hawks''.
    The acquisition of lands on the west side of Back Bay, that are 
contiguous with Refuge property, will provide a more complete wildlife 
habitat unit that can be managed with the existing Refuge staff. In 
addition, in 1997 the Fish and Wildlife Service purchased a 17-acre 
tract on the west side of the Bay that is now serving as a new 
environmental education center for the Back Bay Refuge. This is helping 
to introduce school children and other interested citizens to the 
ecology of freshwater marshes and forested wetlands. The location of 
this facility is closer to the people and reduces the travel time by 
forty minutes.
    With money appropriated in fiscal year 2002, the Fish and Wildlife 
Service has purchased 210 acres from willing sellers. In August 2000, 
the City of Virginia Beach contacted the Refuge and asked the U.S. Fish 
and Wildlife Service if they would help protect a wetland area that was 
slated to be developed. A private development group had plans to build 
215 condominium units on what is known as Lotus Creek but was willing 
to suspend their construction to entertain a buyout offer from the 
City. The Service worked with the City to develop an agreement that had 
the Service purchase the Lotus Creek property from a willing seller, 
and the Service and the City will exchange property of like value to 
enable improvements to the existing Sandbridge Road. This project will 
protect the Black Gut Natural Area, one of the most biologically 
sensitive areas of the Refuge, help prevent flooding in this part of 
the City, improve water quality in Back Bay and provide a safe scenic 
highway through a beautiful area that has been targeted for ecotourism 
improvements. We are hopeful that Congress will allocate additional 
funds to continue this important program.
    The enclosed map depicts the tracts where the Fish and Wildlife 
Service is currently negotiating with willing sellers. The two 
properties in the inserts are the Lehtonen (northern insert) and the 
R&L Development Corp. (southern insert) properties. These are the 
highest priority acquisitions for the Refuge.
    The Lehtonen tract is 61 acres of prior converted cropland. Mr. 
Lehtonen purchased the property several years ago with the intention of 
turning it into a horse farm. Later his interest turned to developing 3 
to 5 acre farmettes. This property is located in what locals call the 
``Gateway to Sandbridge''. The road adjacent to this property to the 
north is Sandbridge Road. To the east is Newbridge Road. Sandbridge 
Road and Newbridge Road are part of what planners from the Hampton 
Roads Planning District Commission and the City of Virginia Beach call 
the ``Green Sea Scenic By-way'' which stretches from the beach 
community of Sandbridge on the east to the Great Dismal Swamp on the 
west. Several locations along the proposed Green Sea Scenic By-way have 
been included in the Commonwealth of Virginia Birding Trail. The Fish 
and Wildlife Service envisions this as the site of a relocated Refuge 
headquarters and visitor contact station. The headquarters relocation 
is necessary to protect the office from severe storm weather on the 
barrier beach. Developing a visitor contact station at the site will 
allow visitors to get oriented to the Refuge, the Bay, birding trail 
and canoe launches, and other Refuge properties as they begin their 
journey, as opposed to getting the explanation of what they missed if 
they drive to the only orientation location which is the existing 
contact station at the beach headquarters site. The Refuge does not 
want to see this important area developed as a golf course/residential 
community, which is a viable alternative for the owner.
    The second property is an 83.6-acre farmland. A swamp and marsh 
site that sits at the mouth of Muddy Creek. This tributary of Back Bay 
is one of the major contributors to nutrient and sediment pollution to 
the Bay. The Refuge has actively pursued this acquisition for over a 
decade. Recent circumstances have caused the aging owners of this 
property, acting through a trustee, to express an interest in selling. 
Acquisition will help the Refuge meet its goal to preserve and protect 
valuable wetlands on the west side of the Bay and promote improved 
water quality in the Bay. Without additional funding, acquisition will 
cease and habitat will be lost to housing. In order to continue the 
Back Bay Refuge expansion project, we respectfully request $2.0 million 
for fiscal year 2003.
    I wish to extend my appreciation for the funding that you have 
appropriated through fiscal year 2002. This money has purchased 4,313 
acres of the proposed 6,340-acre expansion. This means that this 
project is 68 percent completed in 11 years. Also, this project is 
ranked twenty eighth on the U.S. Fish and Wildlife Service's LAPS list 
and is in the President's budget. Thank you for the opportunity to 
comment on this important project.
                                 ______
                                 
  Prepared Statement of the Society for Animal Protective Legislation
    The Society for Animal Protective Legislation (SAPL) urges the 
Senate Committee on Appropriations' Subcommittee on Interior and 
Related Agencies to appropriate an additional increase of $10 million 
for the United States Fish and Wildlife Service Division of Law 
Enforcement, an additional $7 million for the Clark R. Bavin National 
Fish and Wildlife Forensics Laboratory, $10 million for certain funds 
under the Multinational Species Conservation Fund, and request 
protection for wild horses.
  united states fish and wildlife service division of law enforcement
    SAPL urges significant increased funding to enable the Law 
Enforcement Division of the U.S. Fish and Wildlife Service to undertake 
its important, expanding work. These agents are responsible for 
enforcement of over a dozen conservation laws including the Lacey Act, 
Migratory Bird Treaty Act, Endangered Species Act, Marine Mammal 
Protection Act, African Elephant Conservation Act, and Wild Bird 
Conservation Act. These vital special agents recently have been 
involved in a variety of wildlife trade cases involving illegal 
shipments of caviar, elephant ivory, shahtoosh, live reptiles, African 
finches, bear viscera, live turtles and turtle eggs, and many others. 
In fiscal year 2001, there were over 8,500 cases conducted by the 
Division of Law Enforcement. Special agents also conduct vital anti-
poaching and wildlife law enforcement training for officials in 
numerous countries across the globe. This training is essential to 
protect threatened and endangered wildlife from being poached in these 
range states.
    Unfortunately, while illegal wildlife trade is increasing, the Fish 
and Wildlife Service's Law Enforcement Division is not fully funded 
and, therefore, is hampered in its efforts. Neither Delaware nor Rhode 
Island has a single special agent. Many other states have one agent 
unreasonably expected to perform all the work statewide: Connecticut, 
Indiana, Iowa, Maine, New Hampshire, Vermont, and West Virginia. A full 
complement of Special Agents is critical to contend with the major 
criminal efforts of organized poachers, smugglers and dealers who are 
greedily exerting pressure on wildlife, which ultimately will drive 
many species to extinction.
    The amount proposed in the President's budget would not adequately 
meet the basic needs of the Division, which is currently undergoing a 
rebuilding effort to get back to the number of authorized Special 
Agents it needs--253. The Service is expected to have only 237 agents 
by the end of fiscal year 2002 due to retirements. We urge an 
additional $9 million appropriation to enable the Service to hire 16 
additional law enforcement special agents to bring the total to the 
desired 253. This money will not only enable the new hires that are 
necessary for the Division to carry out its vital work, but it will 
also provide the $186,000 of funding per agent that is optimal for the 
agents to carry out their work (this includes salary and operations 
expenses). Currently, the proposed budget only allows for $162,100 per 
agent.
    Additionally, the illegal wildlife trade on the internet is a 
burgeoning problem that the Service is ill-equipped to address. We urge 
an additional $1 million appropriation to enable the Service to begin 
addressing this internet wildlife trafficking problem.
   the clark r. bavin national fish and wildlife forensics laboratory
    The Service's forensics lab is uniquely capable of providing 
assistance in the prosecution of wildlife crimes and is the world's 
only forensic laboratory devoted specifically to wildlife crime. The 
lab analyzes teeth, claws, hairs, feathers, tissues, blood, and other 
wildlife samples to determine species of origin and connect wildlife 
and suspects to the scene of the crime. This lab has always been on the 
cutting edge of wildlife prosecutions and must be funded adequately to 
fulfill its vital roles.
    The laboratory has begun an important and significant 
rehabilitation and expansion project. We respectfully urge the 
Committee to appropriate an additional $7 million in fiscal year 2003 
toward the continuation of this rebuilding project. Additional security 
measures are required to ensure the security of the laboratory. 
$765,000 would enable the renovation of the entrance to the laboratory 
including bullet-resistant glass and walls, renovation of the evidence 
control area, and addition of Mylar coating on windows to reduce 
shattering in the event of explosions nearby. There is a vital need to 
construct a new Level III biocontainment area which would include 
storage space for hazardous waste, evidence, etc. This project requires 
$6,235,000. This new containment facility would enable the forensics 
laboratory staff to handle dangerous necropsy and toxicology work 
safely. Again, the Clark R. Bavin National Fish and Wildlife Forensics 
Laboratory is the only one of its kind and is a model for the world to 
follow. Every effort must be made to fund the laboratory sufficiently 
to enable it to function adequately.
                multinational species conservation fund
    Since 1988, the United States has shown its steadfast commitment to 
global conservation efforts by legislatively creating a series of funds 
to assist in wildlife protection in all regions of the globe. The 
African Elephant Conservation Act, the Asian Elephant Conservation Act, 
the Rhinoceros and Tiger Conservation Act, and, most recently, the 
Great Ape Conservation Act, are vital tools to prevent these species 
from declining further and, in some cases, going extinct. The 
Administration Budget for fiscal year 2003 provides for total funding 
of $5 million for implementation of these funds. The Society for Animal 
Protective Legislation respectfully requests that this amount be 
increased to a total of $10 million, or $2.5 million per fund.
    The African Elephant Conservation Act has provided important 
funding for elephant conservation projects across Africa. For decades, 
poachers and smugglers exploiting the global ivory trade have targeted 
African elephants. Increasingly, elephants are at great risk not only 
for ivory, but also for their meat, which is consumed as ``bushmeat,'' 
and are increasingly involved in human--elephant conflicts. Vital 
conservation projects that have received funding under this Act 
include: immunocontraception research as a means of non-lethal 
population control, anti-poaching assistance, acoustic monitoring of 
forest elephants, and programs exploring the interrelationships of 
humans, people, and the protection of their crops. As the human 
population in Africa continues to expand, and elephants remain under 
constant threat for a renewed worldwide ivory trade, additional funding 
is sorely needed.
    The Asian Elephant Conservation Act has funded similar projects in 
Asia where the highly endangered Asian elephants barely cling to 
existence. The Asian elephant Conservation Act has recently provided 
valuable grants to the Forest Department of Assam for construction of 
anti-poaching camps, to the Wildlife Protection Society of India for 
investigative work into the poaching of elephants in India and the 
illegal ivory trade, and to the Wildlife Trust of India to provide 
elephant reserve field staff with anti-poaching equipment.
    The Rhinoceros and Tiger Conservation Act provides essential 
financial assistance to protect the world's remaining five rhino 
species and tiger subspecies. Rhinos have been historically poached for 
their horns, which are used in traditional Asian medicines, while 
tigers have been exploited for their valuable skins, bones and other 
body parts. In the last century, it is estimated that the total number 
of all wild tigers scattered across their range has plummeted to 5,000 
animals. Funding under this Act recently has contributed to the 
equipping and operating of anti-poaching patrols, studies of population 
dynamics using DNA technology, establishing conservation education 
programs in rhino and tiger range states to increase awareness about 
these species, rhino translocations, and studies of the illegal trade 
in tiger parts. Without these projects and others in the future, these 
species will likely disappear within our lifetimes.
    The Great Ape Conservation Act appropriately recognizes the growing 
threat of the trade in bushmeat and the habitat decimation perpetrated 
on great apes by timber companies and other extractive industries. 
Chimpanzee, bonobo, gorilla, orangutan and gibbon populations have 
declined substantially and there is a serious threat to their long-term 
survival. Grants from this fund enable conservation and anti-poaching 
projects to be established and effectively implemented to the benefit 
of these highly endangered ape species. Additionally, grant money could 
help establish collaborative projects to assist people in the range 
states of these animals to find alternative sources of protein and 
address other issues of land competition between wildlife and people.
    Together the money appropriated under the Multinational Species 
Conservation Fund may establish or finance the operations of programs 
that directly and indirectly contribute to the survival of entire 
species.
                      the wild horse and burro act
    In 1971, Congress charged the Bureau of Land Management (Bureau) 
with preserving America's wild horses. The Wild Horse and Burro Act 
states that ``wild free-roaming horses and burros are living symbols of 
the historic and pioneer spirit of the West . . . [and] shall be 
protected from capture, branding, harassment or death.''
    SAPL is concerned that the Bureau is failing to fulfill this 
mandate, and instead is engaging in scientifically, ecologically and 
economically unsound practices under the guise of range protection, 
resulting in a program which favors the interests of the livestock 
industry over those of wild horses and burros. In fact, the Bureau 
recently presented a funding proposal to Congress where thousands more 
horses than can be adopted out to the public will be removed from the 
range, despite the fact that the Act specifically states that roundups 
are subject to the availability of homes to which the animals may be 
adopted.
    However, domestic livestock so dramatically outnumber wild horses 
on the range (the ratio is at least 50:1) that the removal of these 
wild horses will not make a significant difference on range vitality. 
As a GAO report from 1990 states: ``. . . the primary cause of 
degradation in rangeland resources is poorly managed domestic livestock 
(primarily cattle and sheep) grazing . . . wild horses are vastly 
outnumbered on federal rangelands . . . Even substantial reductions in 
wild horse populations will, therefore, not substantially reduce total 
forage consumption'' (Rangeland Management: Improvements Needed in 
Federal Wild Horse Program, GAO, 1990). It should be noted that less 
than 3 percent of American beef is produced on federal lands and 
contributes less than 1 percent to annual incomes in Western states.
    Earlier this year Congresswoman Connie Morella along with many of 
her colleagues introduced the American Horse Slaughter Prevention Act 
to ban the slaughter of America's horses. To date this bill has the 
strong support of Congress, the horse and humane community and the 
American public. Each year thousands of federally protected wild 
horses, stolen horses, foals and abused horses are being slaughtered in 
a brutal industry to meet consumer demand abroad. ABC News recently 
reported that hundreds a year are still being slaughtered for human 
consumption.
    Congress must act quickly to ensure that our wild horses do not 
quietly disappear at the hands of a few self-serving individuals. SAPL, 
therefore, supports the President's language included in the fiscal 
year 2003 Department of Interior Appropriations Act:
    ``That appropriations herein made shall not be available for the 
destruction of healthy, unadopted, wild horses and burros in the care 
of the Bureau or its contractors.''
                                 ______
                                 
  Prepared Statement of the Upper Mississippi River Basin Association
    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five states' river-related programs and policies and for 
collaborating with federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budget for both the U.S. Fish 
and Wildlife Service and the U.S. Geological Survey.
                     u.s. fish and wildlife service
    The U.S. Fish and Wildlife Service has important responsibilities 
in the Upper Mississippi River Basin, including management of federal 
refuge lands and coordination with other federal, state, and local 
agencies on river-related ecological issues. Yet Region 3 continues to 
struggle to meet the needs in the region. The UMRBA strongly supports 
additional funding to enable the Fish and Wildlife Service to fulfill 
its responsibilities in the Upper Mississippi River Basin.
    Refuges and Wildlife.--The U.S. Fish and Wildlife Service 
administers over 250,000 acres of land and water scattered along the 
Mississippi and Illinois Rivers from the most northerly unit near 
Wabasha, Minnesota to the most southerly unit near Grafton, Illinois. 
This includes the Upper Mississippi River National Wildlife and Fish 
Refuge (NWFR), Mark Twain NWR, and Illinois River NWFR. The existence 
of this extensive national refuge system is, in part, the reason that, 
in 1986, Congress designated the Upper Mississippi River System as a 
``nationally significant ecosystem and a nationally significant 
commercial navigation system.''
    The UMRBA strongly supports the proposed increase of $56.5 million 
for Refuge Operations and Maintenance in the President's fiscal year 
2003 budget, as a minimum. In fiscal year 2002, funding for the three 
refuges along the Upper Mississippi and Illinois Rivers totaled $14.786 
million, nearly two-thirds of which was for special flood-related 
repair needs. Yet there continues to be a significant routine 
maintenance backlog and a critical need for additional personnel to 
address law enforcement, biological needs, floodplain forest 
management, technical assistance to private landowners, environmental 
education, and other refuge management needs.
    The UMRBA has watched with concern the inability of refuges to 
provide funding for the Operation and Maintenance (O&M) of projects 
that the Corps of Engineers constructs under the authority of the 
Environmental Management Program (EMP). We are pleased that in fiscal 
year 2002, approximately $150,000 was allocated for this purpose. 
However, this amount is less than half of the expected need. Fully 
funding EMP project O&M needs is vital to ensuring that these habitat 
restoration and enhancement projects are fully operational and provide 
lasting environmental and public use benefits.
    The UMRBA also supports the fiscal year 2003 budget request of 
$71.1 million for Fish and Wildlife Service land acquisition. We are 
pleased that this includes $250,000 for acquisition of 190 acres for 
the Upper Mississippi River NWFR. We are aware of interest in 
increasing this amount and that $1 million is needed to satisfy all 
current interested willing sellers.
    Ecological Services.--Funding from the Ecological Services account 
supports the field offices in Rock Island (IL), the Twin Cities (MN), 
and Marion (IL) that provide most of the ecological services work on 
the Upper Mississippi River (UMR) and tributaries, including work on 
threatened and endangered species, environmental contaminants, and 
habitat conservation. In fiscal year 2002, work being done by these 
Ecological Services field offices related to the Upper Mississippi 
River is estimated to be $375,000.
    The UMRBA supports this base funding for Ecological Services 
offices on the UMR and urges Congress to provide additional funding for 
the following specific UMR efforts: $200,000 to support work on aquatic 
nuisance species; $300,000 to support water quality efforts, including 
nutrient studies, biocriteria for water quality standards, superfund 
investigations, and consultation on state water quality standards; 
$700,000 for habitat restoration in UMR watersheds; $400,000 to support 
mitigation activities associated with federal navigation and flood 
control projects; $600,000 for needs related to the Endangered Species 
Act, including work on freshwater mussels and large river fishes; and 
$100,000 for administrative support of the Upper Mississippi River 
Conservation Committee.
    Fisheries.--Most of the Service's fish management on the Upper 
Mississippi River is conducted out of the La Crosse (WI), Columbia 
(MO), and Carterville (IL) Fisheries Resource Offices. Fish stocking is 
done from the National Fish Hatchery in Genoa, Wisconsin and fish 
health concerns are addressed by the Fish Health Center in Onalaska, 
Wisconsin.
    The UMRBA supports the important work done by these offices and 
thus supports the funding proposed in the President's budget for the 
Fisheries account in fiscal year 2003. Approximately $700,000 is being 
provided for fisheries work on the Upper Mississippi River in fiscal 
year 2002. However, needs are continuing to increase. Fish passage at 
Mississippi River locks and dams for interjurisdictional species such 
as paddlefish and sturgeon is a growing concern. In addition, the 
Fisheries Operational Needs System (FONS) has a backlog of 42 projects 
totaling $3.6 million. Unfunded projects include those related to large 
migratory species such as paddlefish, aquatic nuisance species such as 
Asian carp, and the endangered Higgin's Eye mussel.
                         u.s. geological survey
    The USGS budget for fiscal year 2003 is proposed to be cut by 
nearly $47 million, of which 60 percent ($28 million) would come from 
reductions in the USGS Water Resources Division (WRD). The WRD cutback 
of 13.6 percent from fiscal year 2002 would have debilitating effects 
on this country's water data and science programs. Also of concern is 
the assertion in USGS budget documents that ``the first and most 
important customers of USGS science are the land and resource 
management bureaus of the Department of the Interior.'' This view of 
the USGS role is inconsistent with its history, current role, and the 
vision for its future put forth in last year's report of the National 
Research Council (NRC). As this nation's premier natural science 
agency, USGS must certainly continue to serve as the science arm of the 
Department of the Interior. But as the NRC recognizes, ``USGS also has 
significant responsibilities in support of other government agencies, 
states and local governments, tribes, industry, academic institutions, 
and the public.''
    The states of the Upper Mississippi River basin are deeply troubled 
that the fiscal year 2003 budget cuts proposed for USGS will compromise 
its ability to provide timely and unbiased scientific information about 
complex natural systems. There are several specific research and 
monitoring programs in the Water Resources Division (WRD) and 
Biological Resources Division (BRD) that are of particular interest to 
the UMRBA.
    Water Resources.--The USGS Hydrologic Monitoring, Assessments and 
Research budget is proposed to be cut by 16 percent in fiscal year 
2003, eliminating the USGS Toxic Substances Hydrology program and 
transferring funding instead to the National Science Foundation (NSF) 
for a research grant program. The Toxics Program, which conducts 
research on the behavior of toxic substances in the nation's hydrologic 
environments, is particularly important to the states of the Upper 
Midwest. Under this program, USGS has been studying the occurrence, 
transport, and fate of agricultural chemicals in a 12-state area in the 
Upper Midwest. This research effort, called the ``Midcontinent 
Herbicide Project,'' is helping to identify factors that affect 
dispersal of agricultural chemicals in surface and ground waters from 
point of application and evaluating the resulting effects in small 
streams and large rivers. The goal is to provide the general scientific 
basis needed to develop agricultural management practices that protect 
the quality of this region's water resources. Through its Toxics 
Program, USGS is also studying questions associated with hypoxia in the 
Gulf of Mexico, including the loads and sources of nutrients from the 
Mississippi River basin. A general NSF research grant program is not an 
appropriate substitute for the management-relevant research done by the 
USGS under its Toxics Program. The USGS must maintain its own capacity 
to provide unbiased scientific information in support of federal, 
state, and local government programs. Given the important work underway 
in the USGS Toxic Substances Hydrology Program, UMRBA urges Congress to 
restore the $13.9 million proposed cut and retain the toxics research 
program in USGS.
    The UMRBA continues to support funding for the National Water 
Quality Assessment (NAWQA). NAWQA is designed to answer basic questions 
about the status and trends in the quality of our nation's ground and 
surface waters, assessing 42 major river basins and aquifers across the 
nation. Under the President's fiscal year 2003 budget, NAWQA funding 
would be reduced by $5.8 million, or 9 percent from the fiscal year 
2002 funding level. This decrease will result in the termination of 6 
of the 42 study units. While USGS has not yet identified which 6 units 
will be cut, the effects of the budget reduction will likely be felt 
throughout the NAWQA program. Such modifications are antithetical to 
the very purpose of NAWQA--i.e., providing a picture of the nation's 
overall water quality through the cyclical assessment of representative 
waterbodies. The Upper Mississippi River Basin includes four NAWQA 
study units (Upper Mississippi, Eastern Iowa, Lower Illinois, and Upper 
Illinois).
    The UMRBA is also deeply concerned about the proposed 14.6 percent 
reduction ($2.1 million) in funding for the National Streamflow 
Information Program (NSIP). This would be a devastating setback to 
recent efforts by USGS and its many federal, state, and local partners 
to bolster our nation's network of gages. The stream gaging network is 
essential to protecting public health and safety by forecasting floods 
and droughts, managing the nation's navigation system, and monitoring 
water quality. There are currently 640 stream gages operated by USGS in 
the five UMRBA states. Over recent years, 80 gages have become inactive 
in the five states, many as a result of funding cutbacks. The fiscal 
year 2003 proposed funding cuts will mean the loss of another 9 gages 
in the five basin states. The loss of gages means the loss of the 
historical record that is needed for managing our nation's water 
resources. Rather than cutting the gaging program further, we should be 
moving toward implementing the network enhancements proposed in the 
USGS plan for the National Streamflow Information Program. Toward that 
end, UMRBA recommends that, at a minimum, NSIP funding be restored to 
fiscal year 2001 and 2002 levels of at least $14 million.
    Finally, the UMRBA supports proposed funding of $64.3 million for 
the Federal/State Cooperative Water Program. The Coop Program is an 
essential tool in meeting state and local science needs. Cooperators 
generally match every $1.00 in federal funds with $1.50, demonstrating 
the value they place on the program. In 2000, there were 173 
cooperators in the five basin states.
    Biological Resources.--The President's fiscal year 2003 budget 
proposes a 3.6 percent reduction for USGS' Biological Resources 
Division. Among the cuts of particular concern to the UMRBA are a 
reduction of $500,000 in Amphibian Research and Monitoring, including 
work being done at the Upper Midwest Environmental Sciences Center 
(UMESC) in Wisconsin and the Columbia Environmental Research Center 
(CERC) in Missouri; a $748,000 reduction in the Mark Twain National 
Forest Mining Study; a $300,000 reduction in the pallid sturgeon study; 
and a $499,000 reduction in ballast water research. The UMRBA urges 
that funding for these studies be restored.
                                 ______
                                 
           Prepared Statement of the Frontera Audubon Society
    Frontera Audubon Society requests a total of $5 million from the 
Land and Water Conservation Fund (LWCF) in fiscal year 2003 for 
purchase of lands by the U.S. Fish and Wildlife Service for the Lower 
Rio Grande Valley National Wildlife Refuge in Texas.
    The Lower Rio Grande Valley contains the Nation's most valuable 
lands for protecting biological diversity. The cost of purchasing land 
and water rights, while still relatively low, is rising. Now is the 
time to commit substantial funds to completing the ``wildlife 
corridor'' intended to protect this biological treasurehouse.
    Permanent protection of wildlife habitat in the Lower Rio Grande 
Valley National Wildlife Refuge will also improve life for the growing 
number of people residing in the Valley. By providing a sound 
foundation for expanded nature tourism, an enlarged refuge can ensure 
economic diversification, as well as improve the quality of life for 
residents and visitors in all socio-economic levels and perpetuate the 
region's immense biological heritage.
    The biological richness of the Lower Rio Grande Valley has been 
well documented in Fish and Wildlife Service documents and the 
testimony we have submitted in past years. The Valley is home to half 
of all bird species found in the United States. Sixty of the bird 
species live in no other part of the country. The 300 species of 
butterflies outnumber any other part of the country except the Florida 
Everglades. In addition, there are more than 200 species of mammals, 
reptiles, amphibians, and fish and 1,200 species of plants.
    The threats to this biological treasurehouse are also well known: 
rapid development. The McAllen-Edinburg-Mission and Brownsville-
Harlingen-San Benito metropolitan areas have been among the ten 
fastest-growing metropolitan areas nation-wide for the past several 
years.
    As a consequence of the combined biological values and rising 
threats to them, the Lower Rio Grande Valley National Wildlife Refuge 
has consistently ranked among the Fish and Wildlife Service' highest 
priorities for land acquisition.
    When completed, the Lower Rio Grande Valley National Wildlife 
Refuge will protect nearly half of a planned 285,000 acre wildlife 
protection network--the ``Wildlife Corridor''--that reaches 275 miles 
along the Rio Grande River. Other lands and waters in the corridor are 
managed by state, county, and private conservation organizations as 
well as the Laguna Atascosa NWR. The entire planned complex will 
protect a modest 10 percent of the valley's area.
    Lands acquired for the refuge all come from willing sellers.
    Appropriation of $5 million for fiscal year 2003 would allow 
purchase of approximately 10,000 acres in 2002-2003. This funding is 
critically important to protecting the highest priority wildlife 
habitats in the Nation.
    The Lower Rio Grande Valley National Wildlife Refuge protects 
valuable remnants of eleven biotic communities. Land acquisition lags 
badly for four of these habitat types; purchases should focus on these. 
Top priority should be placed on the Chihuahuan thorn forest biome., 
also called Falcon Woodland, where less than 1 percent of the desired 
total acreage has been bought. This forest has great biological 
importance as a unique riparian zone and ecotone between the river and 
desert scrub. Birds found there include brown jay; green, ringed, and 
belted kingfishers; and ferruginous pygmy owl.
    Two other under-represented habitat types are also found in Starr 
County--Upper Valley flood forest (43 percent of the targetted acreage 
acquired) and ramaderos (38 percent of the goal). A third is the Sabal 
palm forest in Cameron County (30 percent of the goal).
    Acquiring land in Starr County is difficult for a variety of 
reasons, especially the complicated land titles. This is one 
explanation for the delay in spending funds appropriated to the Refuge. 
Other reasons have been slow processing of appraisals in the Regional 
office and disagreements about what prices to offer for lands that do 
not carry full water rights. The Regional director and his deputy are 
fully committed to finding solutions to the latter two problems, so we 
expect purchases can move ahead in the coming year--as long as funding 
is appropriated.
    The investment in land acquisition at the Lower Rio Grande Valley 
NWR is quickly recouped by the increased economic activity stimulated 
by just one group of recreationists--birders.
    Tourism is the third largest industry in Texas. Nature tourism is a 
rapidly growing segment of this industry. More than 65 million people 
nation-wide watch birds for recreation. Texans stand to benefit from 
increased birding and other recreational opportunities in the Valley 
because Texas is already the number one birding destination in the 
United States and the Rio Grande Valley is the number one birding 
destination in the state. More than 200,000 people watch birds or other 
wildlife in the Lower Rio Grande Valley every year. These visitors 
spend more than $100 million and create or sustain more than 2,000 
jobs. It has been calculated that each rare bird sighting accounts for 
approximately $100,000 per year in spending locally.
    Other public and private entities are committed to building up 
nature tourism in the Valley. In 1999, the Texas Parks & Wildlife 
Department issued a ``sustainable ecotourism strategy'' for the Lower 
Rio Grande Valley \1\ that was developed in partnership with local 
communities. The TP&WD and local Chambers of Commerce inform visitors 
about prime wildlife sites, including those incorporated in the Great 
Texas Coastal Birding Trail. TP&WD will soon open the World Birding 
Center. At the Center's three main interpretation sites--at Mission, 
Brownsville, and Weslaco--and seven satellite sites, visitors will 
learn more about how best to enjoy the many natural and cultural 
treasures of the Valley. It is estimated that 100,000 visitors would 
stop at one or more units of the World Birding Center; and that they 
would generate $56 million in local expenditures, $1.7 million in local 
tax revenues, and over 930 new jobs. Another benefit would be 
distributing the economic gains more widely among towns in the Valley.
---------------------------------------------------------------------------
    \1\ David R. Heil, T.L. Eubanks, M. Lindsay. World Birding Center. 
A Sustainable Ecotourism Strategy for Lower Rio Grande Valley of Texas. 
July 1, 1999. Economic Development Administration Grant #08-29-03147.
---------------------------------------------------------------------------
    The Lower Rio Grande Valley needs the economic stimulus that nature 
tourism provide. The region is economically depressed, with 
unemployment chronically near 20 percent and a high proportion of 
residents living below the poverty level. Agriculture, which formerly 
dominated the economy, is in decline due to a prolonged drought, 
freezes that have discouraged the citrus industry, and other factors.
    Paradoxically, the rapid expansion of housing, manufacturing, 
transshipment facilities, and other urban infrastructure are not 
solving the economic problems.
    Furthermore, the increased recreational opportunities provided by 
the Lower Rio Grande Valley National Wildlife Refuge will contribute to 
a better quality of life for everyone. Already, the Refuge has opened 
40,000 acres to the public for recreation; more will be opened as the 
management funding is appropriated. In addition to birding and 
canoeing, these acres are available for public hunting of deer, feral 
hogs, nilgai, and white-winged doves.
    Completion of the Lower Rio Grande Valley NWR is critical to 
providing the open space and wildlife viewing opportunities underlying 
the ecotourism economic development strategy.
                                 ______
                                 
                         National Park Service
              Prepared Statement of The Wilderness Society
    Mr. Chairman, The Wilderness Society (TWS) would like to thank you 
for the opportunity to provide recommendations and comments on the 
fiscal year 2002 Department of the Interior Appropriations bill. On 
behalf of the more than 200,000 members and supporters of TWS, I would 
like to focus our discussion on funding for the Land Conservation, 
Preservation and Infrastructure Improvement Fund, the historic 
bipartisan agreement formulated by this committee, and other 
appropriations issues related to the land management agencies.
  land conservation, preservation and infrastructure improvement fund
    Fiscal year 2003 represents the third year of the six-year funding 
agreement provided by the Land Conservation, Preservation and 
Infrastructure Improvement Fund (LCPII). This innovated conservation 
spending agreement was set up to provide dedicated funding for a broad 
menu of programs that address contemporary threats to our nation's 
natural and cultural heritage--loss of open space, wildlife habitat, 
wildlands, and cultural treasures threatened by uncontrolled urban 
sprawl and development. Over the past 2 years Congress has seen fit to 
honor its commitment to provide full funding for these conservation 
needs. We once again call upon the leadership of the Interior 
Appropriations Committee to provide and the dedicate amount of $1.44 
billion to these accounts which includes a $120 million increase for 
fiscal year 2002 for these programs.
    One of the most important funding priorities for The Wilderness 
Society is the Land and Water Conservation Fund. We strongly recommend 
the federal side of LWCF should be allocated $515 million in fiscal 
year 2003 to ensure each agency has enough funding for all of their 
acquisition needs. TWS recommends $120 million for Fish and Wildlife 
Service acquisitions for important wetlands, fish and wildlife habitat, 
and recovery of listed, endangered and threatened species. $148 million 
is need for National Park Service acquisition program. We believe this 
funding should be used only for acquisition of park land and not be 
passed through to states for their land acquisition projects. This has 
the serious effect of reducing the Park Service's ability to address 
their inholding needs. Furthermore, we recommend $85 million for 
critical habitat associated with wilderness, national monuments and 
other areas of importance management by the Bureau of Land Management. 
Finally, we recommend $160 million for acquisition of critical lands by 
the U.S. Forest Service. The state-side matching grant program of LWCF 
programs is recommended at $145 million.
    Two other accounts that TWS strongly supports are the Forest Legacy 
Program, administered through the Forest Service, and the Urban Park 
and Recreation Recovery Program (UPARR). Forest Legacy provides grants 
to states to help private landowners preserve some of the more than 
half a million acres of working forest lands lost each year to 
development. TWS recommends $100 million for Forest Legacy for fiscal 
year 2003, an increase of $35 million over the previous year. UPARR 
addresses the needs of inner city recreation through grants and 
technical assistance to urban communities and is recommended at $35 
million in fiscal year 2003, an increase of $5 million.
                 agency appropriations recommendations
    The Carhart Wilderness Training Center is a United States federal 
government inter-agency training center devoted to training federal and 
state land managers who have wilderness management responsibilities. 
The Carhart Center addresses challenges in wilderness management, 
training, and education identified by wilderness managers all across 
the country. This vital training tool helps the dedicated men and women 
who work for our land management agencies receive the necessary 
training and knowledge of how to effectively steward our national 
wilderness. Additionally, the center ensures that recent developments 
and tested practices in wilderness management are shared throughout the 
ranks of federal wilderness agencies. The Carhart Center is facing 
extreme underfunding in fiscal year 2003. TWS strongly recommends that 
all four of the land management agencies contribute adequate funding 
for the center to avoid drastic cuts in their facilities and training 
programs. Cuts would include reducing the number of courses the center 
can offer, eliminating opportunities for workstudy students, and 
reduction in basic administrative and office services. We strongly 
recommend that language associated with the Interior Appropriations 
bill directs each agency within the Department of Interior to 
contribute $180,000 and the Forest Service to contribute $235,000 to 
the Carhart Center for a total appropriation of $775,000 to support 
their critical funding needs.
                          u.s. forest service
    The Forest Service manages more than 191 million acres of lands, 
including national forests, grasslands, and monuments, and 35 million 
acres in the National Wilderness Preservation System. These lands 
provide endless recreational opportunities for millions of Americans. 
Outdoor recreation contributes more to the U.S. economy than any other 
use of the National Forest System, producing 31 times more jobs and 38 
times more economic benefits than logging. Despite the value of the 
land, many important conservation programs are chronically underfunded 
while programs that harm our national forests have traditionally 
received too much funding. TWS recommendations focus on three important 
accounts within the agency. Wildlife, Fish, Watershed and Atmospheric 
Sciences Research is recommended for a $25 million increase, bringing 
its total request to $76 million, $285 million for the Recreation, 
Heritage, and Wilderness Program is also recommended, an increase of 
$40 million, as well as $200 million for the Wildlife and Fisheries 
Habitat Management Program, an increase of $68 million.
    A serious concern with the proposed fiscal year 2003 President's 
budget is a major reduction in the Forest Service Research and 
Development account. The President proposes $243.1 million for this 
program, which falls $24 million short of the necessary level for 
adequate funding. The President's funding recommendation will have the 
impact of significantly redirecting both funding and personnel in the 
Forest Service Research Program. Specifically, 16 research work units 
will be terminated, 10 regional locations will be closed, and 275 
people will lose their positions. TWS strongly believes this program 
should be adequately funded at $292.1 million in fiscal year 2003 to 
prevent the further erosion of scientific capability within the FS.
    TWS strongly oppose the creation of Charter Forests and their 
inclusion in the legislative language associated with the Interior 
appropriations bill. Our national forests are a cherished part of 
America's natural landscape and social fabric. Under a charter forest 
or trust arrangement, local interests and concerns would take priority, 
and non-local viewpoints would take a back seat. We believe that 
federal management of our public lands ensures the necessary 
accountability for their condition, but the plan to denationalize by 
creating charter forests would result in the exclusion of the public 
from the decision-making process. This proposal would result in the 
Forest Service surrendering its management responsibilities to local 
interests. It would effectively repeal a federal management policy that 
goes back more than 100 years and is codified in both the National 
Forest Management Act and Federal Land Planning Management Act. Turning 
control over to individual interests or individual states would 
fragment management discretion and reduce environmental safeguards.
                       fish and wildlife service
    The National Wildlife Refuge System passes a significant milestone 
when it celebrates its 100th anniversary in 2003. Unfortunately, the 
Refuge System is suffering under nearly $2 billion backlog in 
operations and maintenance. TWS acknowledges the committee's faithful 
and consistent efforts to improve funding for the system and we 
continue our collaborative work with the Cooperative Alliance for 
Refuge Enhancement to this end. We recommend $700 million for the 
Operations and Maintenance Program, an increase of $384 million, to 
carry out necessary repairs, new staff positions, and the development 
of Comprehensive Conservation Plans. We also strongly recommend funding 
the Endangered Species Program at $275.7 million, an increase of $150 
million, to facilitate the Listing Program, Candidate Conservation, and 
Recovery Program.
                         national park service
    TWS continues to recommend the formation of a Wilderness Branch 
within NPS, as they are the conservators of the greatest amount of 
wilderness in the world. A $6 million budget would allow this new 
program to add among other things Wilderness Coordinators in each 
region, a full-time coordinator in each of the 75 parks with wilderness 
status and a much needed Director of Wilderness. TWS is grateful for 
the President's continued support of the National Resource Challenge, 
but an increase of $31 million is needed in this fourth and critical 
year of this program to bring its funding level to $80 million. We 
further recommend a $12 million to fund Rivers, Trails and Conservation 
Assistance Program, an increase of $4 million, and a total request of 
$4 million for the Soundscape Program. This program, which was 
established by Public Law 106-181, mandates the NPS to preserve and/or 
restore the natural soundscapes within the parks, as natural sounds are 
an intrinsic element of the park environment. This important new 
mandate has been plagued with profoundly insufficient funds, and must 
be fully supported to protect the natural resources of our parks. Park 
Operations is one area where significant increases are needed in order 
to adequately protect park resources. As a member of the steering 
committee for American for Our National Parks, we recommend an 
additional $280 million over the enacted fiscal year 2002 levels in 
park operations to protect the natural and cultural resources of the 
National Park System, bringing the NPS total budget to $1.76 billion.
                       bureau of land management
    The Bureau of Land Management's 264 million acres of federal land 
are no longer valued solely for the resources extracted from them, but 
are being utilized by a much broader audience including recreation 
enthusiasts and those seeking solitude from the fast pace of the 
growing urban environments. BLM's National Landscape Conservation 
System (NLCS) was established to preserve and designate new areas to 
assure proper stewardship of the cultural and environmental values 
within these designations. Operational funding for this program is 
critically needed to provide basic visitor needs and to ensure resource 
protection in the 15 new National Monuments, 14 National Conservation 
Areas, 148 Wilderness Areas, 36 segments of Wild and Scenic River, and 
the 11 Scenic and Historic National Trails managed by BLM. Funding for 
NCLS operations in fiscal year 2002 was not increased from fiscal year 
2001 despite the increased workload from the 19 newly established 
designations. To address resource protection and encourage scientific 
research, $70 million is needed in fiscal year 2003 for continued 
success. The BLM has a remarkable opportunity to highlight its new 
emphasis on land conservation through adequately funding the National 
Landscape Conservation System.
    Resource Management Planning will continue to become an 
increasingly important program that provides management direction for 
emerging national issues such as urban growth and collaborative 
involvement. A significant increase in funding is required to ensure 
effective public participation and outreach for new planning starts. 
TWS recommends an increase of $50 million for Resource Management 
Planning in fiscal year 2003, an increase of $10 million.
    Additionally, we encourage an increase of $15 million for the 
Integrated Weed Management Program, to fund the program at $24 million 
total, which stops the spread of invasive weeds that are causing the 
greatest accelerating adverse long-term health of the public lands.
                                 ______
                                 
           Prepared Statement of the National Audubon Society
    Mr. Chairman, on behalf of over 1 million members and supporters of 
Audubon, thank you for the opportunity to testify on our 
recommendations for funding of specific programs and projects at the 
Department of the Interior and U.S. Forest Service that further our 
mission to protect birds, other wildlife, and their habitat.
                         everglades restoration
    We urge the Subcommittee to support the following funding needs for 
fiscal year 2003:
    National Park Service Land Acquisition Assistance to the State of 
Florida should be increased by $20 million over the Administration's 
request to a total of $40 million in fiscal year 2003.--The 
Administration's request of $20 million amounts to only one percent of 
the estimated $1.8 billion cost to acquire the remaining lands needed 
for restoration. Approximately $1 billion of land should be acquired by 
the year 2006 in order to keep CERP implementation on schedule. While 
the State of Florida has the primary responsibility for land 
acquisitions, the State needs federal assistance to acquire these lands 
quickly. South Florida continues to develop at a rapid pace and the 
price of real estate is increasing just as rapidly. If the purchase of 
the parcels targeted for acquisition is delayed due to lack of funding, 
the land needed to restore the Everglades may not be available or might 
only be available at a cost far exceeding the anticipated price. The 
integrity of the entire CERP rests on land acquisition.
    We urge the Committee to fund USGS and NPS Everglades science 
programs at $13.13 million. We are concerned by the $1 million 
reduction of the U.S. Geological Survey's (USGS) budget for ongoing 
Everglades studies. Such proposed cuts would affect critical Everglades 
studies regarding the sheet flow of water across the Everglades, water 
quality, the levels of nutrients, mercury, and other contaminants, and 
the complex interaction of groundwater and surface water in South 
Florida. Research that directly supports implementation and monitoring 
of project effectiveness is vital to the success of CERP.
    The budget must continue adequate funding for previously authorized 
programs whose performance assumptions have been included in the CERP. 
It is crucial to the successful and timely implementation of CERP that 
all components of the Modified Water Deliveries project be adequately 
funded and completed on schedule in 2003.
  land conservation, preservation and infrastructure improvement fund 
                                (lcpii)
    Enacted at the close of the 106th Congress, the fiscal year 2001 
Interior appropriations conference report established the LCPII fund to 
address loss of open space, wildlife habitat, wildlands, and cultural 
treasures endangered by urban sprawl and development. For fiscal year 
2003, the DOI appropriations portion of LCPII should receive of $1.44 
billion, an increase of $120 million for these programs.
Land and Water Conservation Fund (LWCF)
    A critical component of the LCPII is the Land and Water 
Conservation Fund (LWCF). We urge this Committee to appropriate the 
full $900 million authorized for the (LWCF). Each year, we lose 
millions of acres of valuable habitat while bird and wildlife 
populations continue to decline. We must halt and reverse these 
destructive trends in order to provide a sound and reliable ecological 
infrastructure with which our nation can protect birds and other 
wildlife for future generations. Incorporating input from our 27 state 
offices and more than 500 chapters, we have developed a list of 
Audubon's priorities for funding under the LWCF for fiscal year 2003 
which will follow this testimony.
State Wildlife Grants
    The Administration's request of $85 million (for combined State and 
Tribal grants) short-changes the important conservation goals of the 
State Wildlife grants program. Audubon supports an increase in fiscal 
year 2003 of $70 million to $150 million. At a minimum, last year's 
funding level of $80 million for State Wildlife Grants should be 
maintained. We also urge the Committee to include $5 million for Tribal 
grants in addition to the above fiscal year 2003 so that this important 
work takes place everywhere our precious biological heritage is 
imperiled.
                  u.s. fish and wildlife service (fws)
National Wildlife Refuge System
    As we approach the 100th anniversary of the National Wildlife 
Refuge System, Congress has before it an historic opportunity to 
celebrate a century of conservation while addressing the needs of a 
natural treasure that has been historically neglected and underfunded. 
Although the Refuge System has enjoyed renewed attention from Congress 
in recent years, it still faces a backlog of nearly $2 billion in unmet 
operations and maintenance needs. Hundreds of refuges have no staff and 
no visitor center, no signs, brochures or restrooms, no way to serve 
the public and no aid for resident wildlife populations. As a result, 
the Refuge System is largely unequipped to address a range of serious 
threats. Limited water supplies, invasive species, and water pollution 
threaten birds and wildlife on refuges across the country. Some of 
these refuges are failing to protect bird species that are federally-
listed as threatened or endangered, or are listed on Audubon's Watch 
List of species that could be headed for extinction.
    We urge you to appropriate an additional $100 million over the 
fiscal year 2002 budget for refuge operations and maintenance, as a 
down payment toward the long-term goal of eliminating the enormous 
backlog of needs facing our nation's refuges. We urge the Committee to 
ensure that this additional funding does not come at the expense of the 
FWS land acquisition budget.
Neotropical Migratory Bird Conservation Act
    The Neotropical Migratory Bird Conservation Act (NMBCA) should be 
funded at the fully authorized amount of $5 million for fiscal year 
2003. The NMBCA restores and conserves the wintering habitats of 
neotropical migratory birds, thus helping to ensure that our songbirds 
will safely return to our backyards each spring. Of the 800 bird 
species known to occur in the United States, approximately 500 migrate 
among countries, the large majority of which are the neotropical 
migrants that winter in Latin America and the Caribbean.
    Many neotropical migratory bird populations, once considered 
common, are in decline. Some have declined to the point that their 
long-term survival in the wild is in jeopardy. The primary reason for 
the decline in the populations of those species is habitat loss and 
degradation. Because neotropical migratory birds range across numerous 
international borders each year, their conservation requires the 
commitment and effort of all countries along their migration routes. 
The NMBCA established a fund which supports partnership programs to 
enhance habitat in the Caribbean and Latin America where neotropical 
migrants spend their winters. We strongly urge full funding of $5 
million for NMBCA for fiscal year 2003.
Migratory Bird Management (MBM)
    The FWS is responsible for the conservation, protection, and 
enhancement of populations and habitats of the nation's migratory 
birds. The FWS Migratory Bird Management (MBM) budget has been 
essentially flat for the last 10 years; any increases to the budget 
have been absorbed by salary increases and inflation. The FWS needs 
more employees, particularly biologists, to carry out its 
responsibilities to more than eight hundred species of migratory birds. 
Unfortunately the President's budget for fiscal year 2003 proposes to 
cut Migratory Bird Management by over $300,000. The actual cut to MBM 
is over $1 million when one includes the Duck Stamp Program that has 
been newly transferred to MBM at a cost of $575,000, and inflation and 
salary increases.
    The FWS currently lacks reliable information on the status and 
distribution of the majority of migratory bird species. Increased 
funding is needed to enhance MBM's ability to conserve, protect and 
enhance populations and habitats of the nation's migratory birds by 
expanding the scientific basis for addressing migratory bird issues. 
This is critical to the successful implementation of on-the-ground 
management activities for the conservation of priority habitats for 
Birds of Conservation Concern and other migratory bird species and will 
allow the Service to better allocate its resources towards effective 
conservation initiatives.
    We urge the Committee to increase funding for MBM by $14.9 million, 
for a total of $43.5 million, with funding broken down in the following 
categories: Landbirds: $10M; Shorebirds: $7.5M; Waterbirds: $5.0M; 
Waterfowl: $11M; and Survey Aircraft: $10M.
                    bureau of land management (blm)
Managing for At-Risk Species and Habitats
    We urge the Committee to increase the President's budget request 
for BLM Threatened and Endangered Species Programs to $38 million.
  --Wildlife Habitat Management Activity will work to implement the 
        executive order of Migratory Bird Conservation by enhancing 
        migratory bird populations and their habitat. We urge that an 
        additional $7 million be authorized for this program.
  --Threatened and Endangered Species Management programs need an 
        additional $6.1 million for direct conservation and management 
        of at-risk species.
  --Riparian Area Management focuses on improving and restoring 
        critical components of migratory bird habitat in the western 
        United States. This program desperately needs an additional 
        $6.3 million.
    These funds will give the agency the ability to implement some 200 
necessary recovery activities for listed species, and to conserve other 
species to avoid the listing of new species. Many of the species found 
on BLM land are birds, which the Wildlife Habitat Management, the 
Threatened and Endangered Species Management, and the Riparian 
Management programs work to conserve.
                     u.s. geological survey (usgs)
Biological Research Division
    Audubon urges the Committee to appropriate $207.4 million, a total 
increase of $36 million, to the USGS for the Biological Research 
Division. Funding at current levels for the BRD, let alone the 
Administration's proposed $6 million cut, is not fully adequate to meet 
the science needs of the Interior agencies and the complex, 
interrelated natural systems they must manage.
    We recommend an increase of $6 million for the North American Bird 
Conservation Initiative (NCBCI). This program provides a framework for 
cooperation of partners involved in numerous plans for the conservation 
of neotropical migratory birds and other species. NABCI is critical to 
the support of bird conservation through regionally based, 
biologically-driven, landscape-oriented partnerships. The USGS helps 
meet these needs, and in particular, provides the scientific 
information necessary to support decision-making in avian conservation.
    We recommend an increase of $12 million for the Invasive Species 
program. Invasive species endanger the survival of native species and 
ecosystems. The United States is particularly vulnerable to invasions 
due to its great variety of climates and habitats. According to a 
recent Cornell University study, invasive species cost the United 
States more than $138 billion annually. The USGS has an historic 
opportunity to lead federal efforts to combat invasive species. Several 
USGS activities are needed, including the development of an information 
system to track invasives; methods for early detection and monitoring 
of invasions; models for predicting invasions and identifying 
vulnerable habitats; research on specific species and their detection, 
eradication and containment; and a comprehensive assessment of invasive 
species on DOI lands.
                       u.s. forest service (usfs)
International Programs
    Audubon strongly urges the Committee to increase the total budget 
for International Programs to $10 million. Projects under the Migratory 
Bird Conservation program work to protect, conserve, and restore the 
wetland and forest areas that the 300 species of birds which migrate to 
the Caribbean and Latin America rely on as critical habitat. 
Unfortunately, many of these birds are experiencing rapid population 
declines due mainly to the loss of that habitat throughout North and 
South America.
    Several such species are currently listed under the ESA, but all 
face severe risks, including the Kirtland's Warbler, Swallow-Tailed 
Kite, Cerulean Warbler, Bicknell's Thrush, and the Mountain Plover. 
Without a vital increase of $3 million, to $4.2 million, Migratory Bird 
Conservation will not have the resources needed to assure that the 
federal government's interest in the stability of migratory bird 
populations is protected. Without such additional assistance, migratory 
bird species will likely continue to decline and may face extinction.
Wildlife, Fish, Watershed and Atmospheric Sciences Research (WFWAR)
    We urge the Committee to give specific consideration to the 
importance of WFWAR, one of the four main components of the FS R&D 
program, which is grossly under-funded in the President's budget. 
Funding levels of $76 million will enable the Forest Service to carry 
out its crucial conservation research mission and to conduct critically 
important scientific research on threatened and endangered species, 
watersheds, wetlands, grasslands, and forests.
    Thank you for providing us with this opportunity to testify on the 
budget requests for the Interior Department and U.S. Forest Service.

      LAND AND WATER CONSERVATION FUND PRIORITIES, FISCAL YEAR 2003
------------------------------------------------------------------------
                                                              Audubon
             Priority                       State             request
------------------------------------------------------------------------
Fish and Wildlife Service:
    Kenai National Wildlife Refuge  AK..................      $8,500,000
    Don Edwards National Wildlife   CA..................      17,000,000
     Refuge.
    San Diego National Wildlife     CA..................      10,000,000
     Refuge.
    Stewart McKinney National       CT..................       8,280,000
     Wildlife Refuge.
    Archie Carr National Wildlife   FL..................       1,000,000
     Refuge.
    Florida Panther National        FL..................      15,000,000
     Wildlife Refuge.
    Lake Wales Ridge National       FL..................         500,000
     Wildlife Refuge.
    Pelican Island National         FL..................       1,500,000
     Wildlife Refuge.
    Savannah National Wildlife      GA..................       4,000,000
     Refuge.
    Upper Mississippi National      IL..................       2,000,000
     Wildlife & Fish Refuge.
    Patoka River National Wildlife  IN..................       3,000,000
     Refuge.
    Marais des Cygne National       KS..................         160,000
     Wildlife Refuge.
    SE Louisiana National Wildlife  LA..................       2,500,000
     Refuge Complex.
    Wallkill River National         NJ..................       3,000,000
     Wildlife Refuge.
    Bitter Lake National Wildlife   NM..................       2,500,000
     Refuge.
    Bosque del Apache National      NM..................       1,475,000
     Wildlife Refuge.
    Wertheim National Wildlife      NY..................       1,000,000
     Refuge.
    Erie National Wildlife Refuge.  PA..................         240,000
    Lower Rio Grande Valley         TX..................       1,500,000
     National Wildlife Refuge.
    Dungeness National Wildlife     WA..................         500,000
     Refuge.
    Nisqually National Wildlife     WA..................       2,000,000
     Refuge.
    Ridgefield National Wildlife    WA..................       9,500,000
     Refuge.
National Park Service: Great Sand   CO..................      10,000,000
 Dunes National Park.
Forest Service: San Bernadino       CA..................      10,000,000
 National Forest.
------------------------------------------------------------------------

                                 ______
                                 
        Prepared Statement of the Greater Yellowstone Coalition
    As you prepare the fiscal year 2003 Interior Appropriations bill, 
we respectfully request an increase to the operating budget for the 
National Park Service by $172 million above the President's request; 
$280 million above the enacted fiscal year 2002 level.
    Specifically, we request that you provide increased funding for the 
operations of Yellowstone National Park. America's first national park 
and its three million visitors each year are suffering from the impacts 
of insufficient funding:
                           natural resources
    The Park Service is unable to monitor Yellowstone's nonnative 
species, including lake trout. This fish is threatening the survival of 
the park's native cutthroat trout as well as the 42 bird and mammal 
species, including grizzly bear, that depend on the native trout for 
food. Recently introduced New Zealand mud snails are colonizing 
Yellowstone's waters at a rapid rate--endangering native aquatic 
species and the animals that depend on them. Yellowstone has never 
received sustained funding to minimize threats posed by invasive 
aquatic species. We ask that the Committee secure $400,000 in funding 
for this critically important program.
                           visitor education
    Expedition Yellowstone! is the park's residential education 
program, designed for students in grades 4-8 in Montana, Wyoming and 
Idaho. Due to funding limitations, the program currently serves less 
than .5 percent of eligible students. Yellowstone does not advertise 
the program, because the park already must turn away 66 percent of the 
classes that apply. Funding is needed to staff the program and to 
create appropriate educational facilities.
                           cultural resources
    Although less than 3 percent of Yellowstone has been inventoried 
for archeological sites, more than 1,100 sites have been documented in 
the park. These sites, representing more than 11,000 years of human 
presence, are at risk from natural erosion and vandalism. Yellowstone's 
archeological program has never received base funding and many sites 
have been irreparably damaged before they could be studied. $300,000 is 
needed to fund the park's archeology program.
    As caretaker of our nation's most valued resources, the Park 
Service manages 385 sites throughout the country. It is responsible for 
more than 83 million acres of land, and protecting and preserving 168 
threatened or endangered species, more than 80 million museum objects, 
1.5 million archaeological sites, and 26,000 historic structures. The 
awe-inspiring natural, cultural, and historic attributes of these 
special places draw nearly 300 million visits annually.
    While the operating budget of the national parks has increased in 
recent years, it has failed to keep pace with need. Research has shown 
that the Park Service's annual operating budget falls at least $600 
million, or a third, of what is needed to operate the parks effectively 
and protect resources, and to provide a top-quality experience for 
visitors.
    An increase of $280 million in the Park Service's operating budget 
this year is a critical step toward meeting the mission of the Park 
Service to preserve unimpaired the natural and cultural resources and 
values of the National Park System for the enjoyment, education, and 
inspiration of this and future generations.
    On behalf of the Greater Yellowstone Coalition, I urge your support 
for increasing the operating budget of the National Park System so that 
our children--and our children's descendants--can enjoy the 
irreplaceable national treasures of Yellowstone National Park, and the 
entire National Park System.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association
    The National Parks Conservation Association (NPCA) is the only 
national nonprofit conservation organization that advocates exclusively 
for the national parks. Through public education, advocacy, and citizen 
outreach, NPCA works to protect, preserve, and enhance America's 
National Park System for present and future generations.
    NPCA is pleased to share its views regarding the programs in the 
Department of Interior's budget that affect national park resources and 
requests that this statement be included in the hearing record for the 
fiscal year 2003 Interior and Related Agencies appropriations bill. We 
appreciate the opportunity to share with you our priorities for funding 
and we respectfully request the Committee consider these views as you 
shape the fiscal year 2003 budget.
                    national park service operations
    A top priority for NPCA in the budget of the National Park Service 
is to significantly increase funding for the operations of the Park 
Service. NPCA is requesting an increase of $280 million over the 
current fiscal year 2002 spending levels, $172 million above the 
President's request, for a total of $1.81 billion in fiscal year 2003 
for the operation of the National Park System.
    As you know, the Park Service has a tremendous responsibility as 
caretaker of some our nation's most valued natural, cultural, and 
historic resources, managing 385 sites throughout the country. The 
operations budget of the NPS is critical to enable the Park Service to 
meet its mission to preserve unimpaired the natural and cultural 
resources and values of the National Park System for the enjoyment, 
education, and inspiration of this and future generations. As the 
President's fiscal year 2003 budget justifications states, ``The 
primary source of funding for accomplishing this mission is the park 
operating base. The park-operating base allows the core mission 
responsibility of the parks to be accomplished.''
    While Congress has regularly increased the operating budget of the 
Park Service, it has failed to keep pace with increased needs of the 
parks. During the past 4 years, a series of detailed park studies by 
NPCA and the National Park Service have revealed an average 32 percent 
shortfall in operations funds needed to enable the Park Service to 
fulfill its mission and operate the parks effectively. This figure 
translates to a shortfall of approximately $600 million for the entire 
National Park System. An increase of $280 million in the park's 
operating budget this year represents a reasonable and manageable 
amount, and a critical step toward fulfilling the mission of the Park 
Service.
                      natural resources challenge
    NPCA strongly supports the Administration's continued commitment to 
fund the Natural Resources Challenge--a multi-year program to preserve 
and protect the natural resources of the national parks. This program 
calls for expanded natural resources inventory programs to give the 
Park Service critically needed information for resource management 
within the parks. NPCA requests an increase of $31 million above 
enacted fiscal year 2002 level, for a total of $80 million in fiscal 
year 2003 to keep the Challenge on tract to meet its 5-year $100 
million goal.
Land Acquisition
    Mojave National Preserve, CA.--We request $2 million, $1 million 
above the President's fiscal year 2003 budget, is requested to purchase 
approximately 4,000-6,000 of the nearly 150,000 acres of privately held 
lands in the Preserve. Established in 1994 by the California Desert 
Protection Act, Mojave National Preserve encompasses 1.6 million acres 
of unique landscapes at the intersection of the Mojave, Sonoran, and 
Great Basin deserts, including the world's largest forest of Joshua 
Trees and the famous 500-ft high Kelso Dunes. Almost half of the park 
is designated wilderness, allowing for the preservation of a wide 
variety of plant and wildlife species, including tortoises and bighorn 
sheep and more than 200 species of birds.
    Obed Wild and Scenic River, TN.--We request $1.5 million in fiscal 
year 2003 to acquire approximately 1,000 acres of inholdings within the 
Obed Wild and Scenic River corridor in Tennessee. The Obed is one of 
the few free-flowing streams of its type remaining in the entire six-
state Cumberlands region, and is the only National Wild and Scenic 
River in Tennessee. Significant development pressure has emerged as a 
primary threat as private landowners consider increasing offers for 
their property.
    Petrified Forest National Park, AZ.--We request $5 million in 
fiscal year 2003 as a down payment to complete the purchase of private 
lands next to the park from willing sellers. The Arizona delegation is 
expected to introduce legislation this year to expand the boundaries of 
Petrified National Forest. A significant portion of lands within the 
proposed expansion area currently are in private or state ownership. 
Acquiring this land of nationally significant paleontological, 
archeological and scenic resources is important to the long-term 
protection of these valuable resources.
    Valley Forge, PA.--We request $8 million in fiscal year 2003 to 
begin the purchase a portion of the approximately 300 acres within the 
park boundary that remains privately-owned and threatened by 
development. This is $6 million above the President's request.
    Established on the 4th of July, 1976, Valley Forge National 
Historical Park preserves, protects, and maintains the cultural and 
natural resources associated with the encampment of Gen. Washington's 
Continental Army. Spanning over 3,400 acres, Valley Forge NHP preserves 
the history of the American Revolution through 190 historic structures 
and more than 600 archeological sites, various wetlands, grasslands, 
woodlands, and wildlife, including over 200 species of birds and 
several state-listed rare plants.
            national underground railroad network to freedom
    $1 million is requested in fiscal year 2003 for the National 
Underground Railroad Network (UGRR) to Freedom program. $500,000 is 
requested for operations of the program, and $500,000 for National 
Underground Railroad to Freedom Grants.
    The National Underground Railroad Network to Freedom program, 
authorized by Congress in July 1998, incorporates the broadest range of 
elements possible to tell the story of the Underground Railroad. It is 
comprised of a diverse collection of historic sites, facilities and 
programs that have a verifiable association to the Underground 
Railroad. The grant program, which was authorized by Congress on 
October 11, 2000, amends the National Underground Railroad Network to 
Freedom to grant the Secretary of the Interior authority to make grants 
in accordance with this section for the preservation and restoration of 
historic buildings or structures associated with the Underground 
Railroad, and for related research and documentation to sites, 
programs, or facilities that have been included in the national 
network. The grant program was authorized at $2.5 million.
    The Park Service has already begun to accept UGRR sites and 
programs in to the Network to Freedom. Many of the sites and structures 
of the UGRR have been lost to time, ignorance, and circumstance, and a 
vast number of the remaining site are in imminent danger of being lost 
to us forever. Most of these sites are in traditionally African-
American neighborhoods, which were more subject to urban renewal and so 
may not have retained their historical integrity. The UGRR grant 
program is critically needed to enable the National Park Service to 
address these needs and preserve these important places for future 
generations.
                national park marine reserves monitoring
    We request $3.2 million in fiscal year 2003 to implement a long-
term monitoring program in the Dry Tortugas, Biscayne and Virgin 
Islands National Parks and Buck Island National Monument. Marine 
reserves are being established to save our ocean resources, such as 
coral reefs. A long-term monitoring program is critical to the 
management of these marine reserves. The data this monitoring program 
would produce is critically needed to augment other data collected at 
National Marine Sanctuaries, and to help manage, evaluate, and design 
current and future Marine Protected Areas.
                                 ______
                                 
  Prepared Statement of Greater Yellowstone Coalition; Western Native 
   Trout, Trout Unlimited; Federation of Fly Fishers; National Parks 
  Conservation Association; American Wildlands; Montana Council Trout 
     Unlimited; Wyoming Council Trout Unlimited; Montana Wildlife 
              Federation; and Wyoming Wildlife Federation
    On behalf of the undersigned fishing and conservation groups, I am 
writing to ask for your assistance in protecting one of Yellowstone 
National Park's most treasured natural assets--the native cutthroat 
trout fishery in Yellowstone Lake and the Upper Yellowstone River.
    As you may be aware, Yellowstone National Park biologists 
discovered in 1994 that non-native lake trout were illegally introduced 
into Yellowstone Lake in the mid-1980s. A blue ribbon panel of 
scientists subsequently convened by the park determined that if the 
lake trout population was allowed to expand unchecked, the lake's 
native cutthroat trout population would likely decline by 90 percent. 
Not only would this have catastrophic ecological impacts--42 bird and 
wildlife species have been found to depend on the lake's cutthroat 
trout as an important seasonal food source--but it would also have 
significant economic impacts on nearby gateway communities such as 
Gardiner and West Yellowstone, Montana where sportfishing generates 
millions of dollars in revenue and helps to sustain hundreds of jobs. A 
1994 economic study found that the cutthroat fishery in Yellowstone 
Lake and its tributaries was worth an estimated $36 million. If that 
fishery were to crash due to the lake trout invasion, it would result 
in a staggering economic loss of $640 million over 30-years.
    Currently, the Park Service is doing everything it can to keep 
Yellowstone Lake's lake trout population in check. Last year, the park 
purchased a commercial fishing boat that has allowed park crews to 
implement an aggressive lake trout gillnetting program. This program, 
which costs approximately $100,000 per year to run, has proven very 
successful at removing lake trout. The goal of the program is to reduce 
the lake trout population by half each year. Unfortunately, because it 
would be impossible to ever totally eradicate lake trout from 
Yellowstone Lake, this program must continue indefinitely.
    The reason we are writing you now is because the funding that 
Yellowstone National Park has used for lake trout control expires in 
September 2002, and President Bush has not requested money for this 
program in his 2003 budget. Consequently, we respectfully ask that you 
help to secure funds for this critically important program. An 
appropriation of $400,000 would allow the park to redouble its efforts 
to protect Yellowstone Lake's valuable cutthroat fishery for the next 4 
years.
    If you would like me to send you any informational materials in 
addition to the enclosed report to the Director of the National Park 
Service, please let me know. Likewise, please don't hesitate to contact 
me if you have any questions. Thank you in advance for helping to 
protect this priceless piece of America's natural heritage.
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System
    The Partnership for the National Trails System appreciates your 
support over the past several years, through operations funding and 
earmarked Challenge Cost Share funds, for the national scenic and 
historic trails administered by the National Park Service. We also 
appreciate your increased allocation of funds to support the trails 
administered and managed by the Forest Service and your support for the 
trails in the Bureau of Land Management's National Landscape 
Conservation System. To continue the progress that you have fostered, 
the Partnership requests that you provide annual operations funding for 
each of the 22 national scenic and historic trails for fiscal year 2003 
through these appropriations:
  --National Park Service.--$10.901 million for the administration of 
        17 trails and for coordination of the long-distance trails 
        program by the Washington Park Service office.
  --USDA Forest Service.--$2.689 million to administer four trails and 
        $750,000 for portions of 13 trails managed through agreements 
        with the Park Service and Bureau of Land Management; 
        Construction: $1.8 million for the Continental Divide Trail, 
        $600,000 for the Florida Trail and $862,000 for the Pacific 
        Crest Trail.
  --Bureau of Land Management.--$900,000 to administer the Iditarod 
        National Historic Trail, $587,000 to administer the Camino Real 
        de Tierra Adentro National Historic Trail, and $4.03 million 
        for the portions of 9 trails managed through agreements with 
        the Park Service and Forest Service; $385,000 for the Iditarod 
        Trail interpretive center feasibility study.
  --We ask that you appropriate $7.5 million for the National Park 
        Service Challenge Cost Share Program and continue to earmark $5 
        million for Lewis & Clark Bicentennial projects and one-third 
        of the remaining $2.5 million (approximately $830,000) for the 
        other 16 national scenic and historic trails it administers.
  --We ask that you appropriate $1.253 million to the National Park 
        Service National Center for Recreation and Conservation to 
        support an interagency pilot project to develop a consistent 
        system-wide Geographic Information System (GIS) for the 
        National Trails System.
    We ask that you appropriate from the Land and Water Conservation 
Fund:
  --to the Forest Service.--$5 million to acquire land for the Pacific 
        Crest Trail, $6 million to acquire land for the Florida Trail, 
        $5.6 million to acquire land for the Appalachian Trail in 
        Georgia and Tennessee, $1 million to acquire land for the Lewis 
        & Clark Trail in Idaho and Montana;
  --to the Bureau of Land Management.--$1 million to acquire land for 
        the Pacific Crest Trail, $584,000 to acquire easements for the 
        Continental Divide Trail in Wyoming, $2 million to acquire land 
        for the Lewis & Clark Trail in Idaho and Montana, $800,000 to 
        acquire land for the Juan Bautista de Anza Trail in Arizona, 
        $200,000 to acquire sites along national historic trails in 
        Wyoming;
  --to the Park Service.--$4 million to acquire land for the authorized 
        interpretive site for the Ice Age National Scenic Trail;
  --$3 million to the State of Wisconsin to match state funds to 
        acquire land for the Ice Age Trail.
                         national park service
    We request $1.253 million to fund the first year of a 5 year 
interagency effort to develop a consistent GIS for all 22 national 
scenic and historic trails. This initiative is described in the August 
2001 report (requested by Congress in the fiscal year 2001 
appropriation) ``GIS For The National Trails System'' and is built upon 
work already underway on the Ice Age, Appalachian, Florida, Oregon, 
California, Mormon Pioneer and Pony Express Trails to develop 
consistent information and procedures that can be applied across the 
National Trails System. The requested funding will be shared with the 
Bureau of Land Management and the Forest Service.
    The $10.901 million we request for Park Service operations includes 
increases for many of the trails that will continue the progress and 
new initiatives made possible by the $975,000 funding increase provided 
for nine of the trails in fiscal year 2001. $224,000 of our requested 
increase will finally provide significant operational support for the 
Natchez Trace Trail, which currently receives only $26,000 in annual 
operations funding. Another $280,000 will enable the Park Service to 
begin managing the two new national historic trails--Ala Kahakai and El 
Camino Real de Tierra Adentro--the latter administered cooperatively 
with the Bureau of Land Management. These funds will provide full-time 
management and support projects for each of these trails.
    We request an increase of $50,000 for the Overmountain Victory 
Trail to enable the Overmountain Victory Trail Association to continue 
and expand the first comprehensive survey of historically significant 
sites along the trail and plan for their preservation. An increase of 
$52,000 will fund interpretive projects and the trail corridor study 
along the Potomac Heritage Trail in Washington, D.C. The increase of 
$249,000 requested for the Appalachian Trail will strengthen Park 
Service law enforcement capability and its collaborative resource 
management programs with the Appalachian Trail Conference.
    We request an increase of $325,000 to continue and expand Park 
Service efforts to protect cultural landscapes at more than 200 
significant sites along the Santa Fe Trail and to fund public outreach 
and educational programs of the Santa Fe Trail Association. We also 
request an increase of $112,000 to expand cooperative interpretation 
with schools and Latino communities along the Juan Bautista de Anza 
Trail. An increase of $250,000 for the Trail of Tears will enable the 
Park Service to work cooperatively with the Trail of Tears Association 
to protect the Trail's critical historical and cultural heritage sites 
and interpret them for visitors. The $150,000 increase we request for 
the interagency Salt Lake City Trails office will enable the Park 
Service to collaborate with CALTRANS to mark the California and Pony 
Express Trails auto routes and with the BLM and Forest Service to 
revise the feasibility studies for these and Oregon and Mormon Pioneer 
Trails.
    We request $2 million to fund the operation of ``Corps II,'' a 
major component of the Federal government's commemoration of the 
Bicentennial of the Lewis & Clark Expedition. This interagency mobile 
interpretive exhibit is designed to follow the route of the Lewis & 
Clark Trail, stopping in communities along the way to provide state-of-
the art, interactive interpretation of the Lewis & Clark ``Corps of 
Discovery.''
    All of these trails are complicated undertakings, none more so than 
the 4,000 mile North Country Trail. With more than 650 miles of Trail 
across 7 national forests in 5 states there is good reason for close 
collaboration between the Park Service and Forest Service to ensure 
consistent management that provides high quality experiences for 
hikers. Limited budgets for both agencies have severely hampered their 
ability to practice this effective management procedure. The $780,000 
we request will give them that ability for the first time while also 
providing greater support for the local trail building and management 
led by the North Country Trail Association, hastening the day when our 
nation's longest national scenic trail will be fully opened for use.
    The Ice Age Park & Trail Foundation has pioneered in using a 
Geographic Information System (GIS) to map and record the many natural 
and cultural resources comprising the 1,200 mile Ice Age Trail. This 
work has been supported by private and Park Service funding and 
equipment and office space provided by the Wisconsin Department of 
Natural Resources. The $999,000 we request will enable the Park Service 
to expand this GIS capability to more efficiently plan resource 
protection, trail construction and maintenance to correct unsafe 
conditions and better mark the Trail for users. The funds will also 
provide assistance to the Foundation to better equip, train and support 
the volunteers who build and maintain the Ice Age Trail and manage its 
resources.
    The Challenge Cost Share program is one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership requests that you appropriate $7.5 million in Challenge 
Cost Share funding to the Park Service for fiscal year 2003 as a wise 
investment of public money that will generate public benefits many 
times greater than its sum. We ask you to continue to direct $5 million 
for Lewis & Clark Bicentennial projects and one-third of the other $2.5 
million for the national scenic and historic trails to continue the 
steady progress toward making these trails fully available for public 
enjoyment.
                          usda--forest service
    As you have done for several years, we ask that you provide 
additional operations funding to the Forest Service for administering 
three national scenic trails and one national historic trail, and 
managing parts of 13 other trails. We ask you to appropriate $2.689 
million as a separate budgetary item specifically for the Continental 
Divide, Florida and Pacific Crest National Scenic Trails and the Nez 
Perce National Historic Trail. Full-time managers have been assigned 
for each of these trails by the Forest Service. Recognizing the on-the-
ground management responsibility the Forest Service has for 838 miles 
of the Appalachian Trail, more than 650 miles of the North Country 
Trail, and sections of the Ice Age, Anza, Lewis & Clark, California, 
Iditarod, Mormon Pioneer, Oregon, Overmountain Victory, Pony Express, 
Trail of Tears and Santa Fe Trails, we ask you to appropriate $750,000 
specifically for these trails.
    Work is underway, supported by funds you provided for the past 3 
years, to close several major gaps in the Florida National Scenic 
Trail. The Florida Trail Association is building Trail across Eglin Air 
Force Base, in the Ocala National Forest, Big Cypress National Preserve 
and along Lake Kissimmee, adding about 100 miles to the completed 
Florida Trail. The Partnership requests an additional $600,000 for 
trail construction in fiscal year 2003 by the Forest Service on these 
and other segments of the Florida Trail and an additional $600,000 to 
support a land acquisition team to continue purchasing land to close 
gaps in the Trail.
    The Continental Divide Trail Alliance, with Forest Service 
assistance and funding from the outdoor recreation industry, surveyed 
the entire 3,200 mile route of the Continental Divide Trail documenting 
$10.3 million of construction projects needed to complete the Trail. To 
continue new trail construction, begun with fiscal year 1998 funding, 
we ask that you appropriate $500,000 to plan 190 miles of new trail and 
$1.8 million to build or reconstruct 160 miles of the Continental 
Divide Trail and 3 new Railheads in fiscal year 2003.
    A Forest Service lands team is working with the Pacific Crest Trail 
Association and the Park Service National Trail Land Resources Program 
Center to map and acquire better routes for the 300 miles of the 2,650 
mile Pacific Crest Trail located on 227 narrow easements across private 
land or on the edge of dangerous highways. We request $250,000 to 
continue the work of the lands team and $114,000 for Optimal Location 
route planning. We also request $862,800 for new trail construction and 
reconstruction of fire-damaged bridges along the PCT by the Forest 
Service and the Pacific Crest Trail Association in fiscal year 2003.
                       bureau of land management
    While the Bureau of Land Management has administrative authority 
only for the Iditarod and El Camino Real de Tierra Adentro National 
Historic Trails, it has on-the-ground management responsibility for 641 
miles of two scenic trails and 3,115 miles of seven historic trails 
administered by the National Park Service and U.S. Forest Service. The 
significance of these trails was recognized by their inclusion in the 
National Landscape Conservation System and, for the first time, in 
fiscal year 2002, by provision of specific funding for each of them. 
The Partnership applauds the decision of the Bureau of Land Management 
to include the national scenic and historic trails in the NLCS and to 
budget specific funding for each of them. We ask that you continue to 
support the funding for the National Landscape Conservation System and 
that you appropriate for fiscal year 2003 $900,000 for the Iditarod 
National Historic Trail, $587,000 for El Camino Real de Tierra Adentro 
National Historic Trail and $4,030,000, as requested by the 
Administration, for management of the portions of the nine other trails 
under the care of the Bureau of Land Management. We also request $2 
million for construction of the California Trail Interpretive Center in 
Elko, Nevada, $100,000 for maintenance of the Pacific Crest Trail, and 
$385,000 for a feasibility study for the Iditarod Trail interpretive 
center.
                    land and water conservation fund
    The Partnership requests that you fully appropriate the $900 
million annual authorized appropriation from the Land and Water 
Conservation Fund and that you make the specific appropriations for 
national scenic and historic trails detailed at the beginning of this 
statement and in Attachment #2. The funding we request for the Florida 
and Pacific Crest National Scenic Trails will continue acquisition 
underway by the Forest Service. The first tracts to help close gaps in 
the Florida Trail have been acquired with LWCF money provided in 
previous years. Necessary Optimal Location Planning and appraisal work 
have been completed for acquisition to begin in earnest for the Pacific 
Crest Trail. The requested funding for the Appalachian National Scenic 
Trail will help complete its protection in Tennessee and Georgia.
    The $584,000 requested for the Bureau of Land Management to acquire 
easements for the Continental Divide National Scenic Trail will help 
close the remaining major gap in the Trail in Wyoming.
    The National Park Service has acquired the first of the several 
parcels that comprise the authorized interpretive site for the Ice Age 
National Scenic Trail with previous year's LWCF funding. The money 
requested for fiscal year 2003 will fund purchases now under 
negotiation with willing sellers.
    The National Trails System Act encourages states to assist in the 
conservation of the resources and development of the national scenic 
and historic trails. Wisconsin has committed millions of dollars to 
help conserve the resources of the Ice Age National Scenic Trail. With 
fiscal year 2001 LWCF funding, matched more than 2:1 by State funds, 
Wisconsin has purchased 5 parcels and now has another 16 parcels under 
appraisal or option to purchase. The requested $3 Million Land and 
Water Conservation Fund grant to Wisconsin will continue this very 
successful Federal/State partnership for protecting land for the Ice 
Age Trail.
    The essential funding requests to support the trails are detailed 
in Attachment #2.
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide a way to 
enlist private financial support for public projects, usually resulting 
in a greater than equal match of funds.
    The private trail organizations commitment to the success of these 
trail sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2001 the trail organizations channeled 621,615 
hours of documented volunteer labor valued at $9,566,652 to help 
sustain the national scenic and historic trails. This is a 5 percent 
increase over the volunteer labor reported for 2000. The organizations 
also applied private sector contributions of $6,652,079 to benefit the 
trails. These contributions are documented in Attachment #1.

 ATTACHMENT 1.--CONTRIBUTIONS MADE IN 2001 TO SUPPORT THE NATIONAL TRAILS SYSTEM BY NATIONAL SCENIC AND HISTORIC
                                               TRAIL ORGANIZATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                     Estimated
                                                                     Volunteer       value of        Financial
                          Organization                                 hours         volunteer     contributions
                                                                                       labor
----------------------------------------------------------------------------------------------------------------
Appalachian Trail Conference....................................         186,475      $2,869,850      $4,200,000
Continental Divide Trail Society................................       \1\ 1,500          23,085  ..............
Continental Divide Trail Alliance...............................      \1\ 30,700         472,473         420,000
Florida Trail Association.......................................          59,496         915,643         167,000
Ice Age Park & Trail Foundation.................................          70,364       1,082,902         314,615
Iditarod National Historic Trail, Inc...........................      \1\ 17,900         275,481      \1\ 75,000
Heritage Trails/Amigos De Anza..................................  ..............  ..............  ..............
Juan Bautista De Anza Trail.....................................  ..............  ..............  ..............
Anza Trail Coalition of Arizona.................................           3,041          46,801  ..............
Lewis & Clark Trail Heritage Foundation.........................      \1\ 28,733         442,201         223,330
Mormon Trails Association.......................................           8,236         126,752          12,700
Iowa Mormon Trails Association..................................       \1\ 2,003          30,826       \1\ 6,000
Natchez Trace Trail Conference..................................       \1\ 2,883          44,369       \1\ 3,000
National Pony Express Association...............................          23,115         355,740         118,621
Pony Express Trail Association..................................           4,799          73,856          20,785
Nez Perce Trail Foundation......................................       \1\ 1,350          20,776  ..............
North Country Trail Association.................................          26,325         405,142         225,461
Oregon-California Trails Association............................          50,021         769,823         303,902
Overmountain Victory Trail Association..........................           9,963         153,330          12,195
Pacific Crest Trail Association.................................          40,005         615,677         352,370
Potomac Trail Council...........................................       \1\ 2,350          36,166          66,900
Santa Fe Trail Association......................................      \1\ 19,500         300,105          68,200
Trail of Tears Association......................................          32,856         505,654          62,000
                                                                 -----------------------------------------------
      Totals....................................................         621,615       9,566,652      6,652,079
----------------------------------------------------------------------------------------------------------------
\1\ Estimate.


  ATTACHMENT 2.--PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM, REQUESTED FISCAL YEAR 2003 APPROPRIATIONS FOR THE
                                             NATIONAL TRAILS SYSTEM
----------------------------------------------------------------------------------------------------------------
                                Fiscal year               Fiscal year
                                 2002 cong.  Fiscal year      2003      Project/programs possible with increased
         Agency/trail             approp.    2003 admin.    partners                    funding
                                  request      request      request
----------------------------------------------------------------------------------------------------------------
Park Service:
    Ala Kahakai...............     $180,000     $180,000     $180,000  Begin preparation of Comprehensive
                                                                        Management Plan for new trail;
    Appalachian...............    1,042,000    1,045,000    1,294,000  Increased law enforcement and resource
                                                                        management by NPS Park staff and
                                                                        increased support for volunteer-based
                                                                        trail and land management guided by ATC;
    Natchez Trace.............       26,000       26,000      250,000  Planning & building new trail & bridges;
                                                                        backlog maintenance with NTTC & SCA;
    El Camino Real............  ...........  ...........      100,000  Begin collaborative management of new
                                                                        trail with Bureau of Land Management;
    California................      201,000      201,000      351,000  Four Trails interagency MOU collaboration
                                                                        field trial; Enhance Four Trails GIS
                                                                        database; Mark and interpret additional
                                                                        auto tour routes with California DOT;
    Ice Age...................      499,000      500,000      999,000  Trail corridor and acquisition planning
                                                                        and GIS mapping; Support for Trail
                                                                        construction, maintenance and resource
                                                                        management by IAP&TF & local agencies;
    Juan Bautista de Anza.....      188,000      188,000      300,000  Coordination of Trail site protection,
                                                                        interpretation & development projects
                                                                        with local agencies & organizations;
                                                                        Outreach to schools and Latino
                                                                        communities;
    Lewis & Clark.............    1,731,000    1,734,000    3,734,000  Planning, coordination & support for
                                                                        local Bicentennial projects and ``Corps
                                                                        II'';
    Mormon Pioneer............      128,000      128,000      128,000  Four Trails interagency MOU collaboration
                                                                        field trial; Enhance Four Trails GIS
                                                                        database; Interpret additional auto tour
                                                                        routes;
    North Country.............      550,000      550,000      780,000  Assistance to States to establish new
                                                                        trail segments and to preserve
                                                                        continuity and scenic integrity of the
                                                                        Trail; Increased trail construction and
                                                                        management by NCTA
    Oregon....................      215,000      215,000      215,000  Four Trails interagency MOU collaboration
                                                                        field trial; Enhance Four Trails GIS
                                                                        database; Interpret additional auto tour
                                                                        routes;
    Overmountain Victory......      136,000      136,000      186,000  Fulltime trail administration; new route
                                                                        signs & interpretive exhibits; mapping
                                                                        Trail sites for protection inventory,
                                                                        and archaeology in Cherokee County,
                                                                        North Carolina;
    Pony Express..............      181,000      181,000      181,000  Four Trails interagency MOU collaboration
                                                                        field trial; Enhance Four Trails GIS
                                                                        database; Interpret additional auto tour
                                                                        routes;
    Potomac Heritage..........      198,000      198,000      250,000  Assistance to local agencies &
                                                                        organizations for planning & educational
                                                                        projects;
    Santa Fe..................  \1\ 590,000  \1\ 594,000      919,000  Cultural resource preservation, design &
                                                                        distribute interpretive media with
                                                                        partners;
    Selma to Montgomery.......      261,000      261,000      261,000  Comprehensive management plan developed
                                                                        and trail interpretation begun in
                                                                        collaboration with citizen support
                                                                        organizations & local agencies;
    Trail of Tears............      248,000      248,000      498,000  Preserve & interpret critical Trail sites
                                                                        & provide new visitor facilities with
                                                                        TOTA;
    NTS-Washington Office.....      220,000      220,000      275,000  Program coordination and special projects
                                                                        funding
                               ---------------------------------------
      National Trails System..    6,594,000    6,605,000   10,901,000  Total National Trails System operations
                                                                        funding
                               =======================================
Challenge Cost Share..........  \2\ 6,980,0  \3\ 6,980,0    7,500,000  $5 M for Lewis & Clark; one-third of
                                         00           00                remaining $2.5 M for rest of National
                                                                        Trails System
Interagency GIS Pilot Project.      ( \4\ )  ...........  \5\ 1,253,0  Development of GIS for National Trails
                                                                  005   System starting with Ice Age, Florida,
                                                                        Appalachian, Oregon-California, Mormon
                                                                        Pioneer & Pony Express Trails;
BLM:
    Iditarod Trail............      516,000      266,000      900,000  Coordination and support for
                                                                        collaborative management with other
                                                                        Federal agencies, Iditarod Trail
                                                                        organizations and State of Alaska;
                                                                        bridges and cabins;
    El Camino Real............      465,000      587,000      587,000  Collaborative trail planning ($172,000)
                                                                        and management with National Park
                                                                        Service;
    Continental Divide........      455,000      455,000      455,000  Marking 230 miles of CDT in Wyoming;
                                                                        Interagency management collaboration;
    Pacific Crest.............       65,000       65,000       65,000  PCT maintenance in California;
                                                                        Interagency management collaboration;
    Juan Bautista de Anza.....      160,000      160,000      160,000  Interpretive exhibits for Anza Trail at
                                                                        Painted Rock, Arizona;
    California................      150,000      150,000      150,000  California Trail resource inventories in
                                                                        Wyoming and California;
    Lewis & Clark.............    2,765,000    2,765,000    2,765,000  Lewis & Clark Bicentennial preparations
                                                                        in Idaho and Montana;
    Mormon Pioneer............       65,000       65,000      135,000
    Nez Perce.................       40,000       40,000       90,000  Lewis & Clark Bicentennial preparations
                                                                        in Idaho and Montana;
    Oregon....................      130,000      130,000      130,000  Interagency management collaboration;
    Pony Express..............       80,000       80,000       80,000  Archaeology at Little Sandy and Dry Sandy
                                                                        Pony Express Stations, Wyoming and
                                                                        marking 120 miles of Pony Express Trail
                                                                        in Nevada;
                               ---------------------------------------
      National Trails System..    4,891,000    5,013,000    5,517,000  Total National Trails System operations
                                                                        funding.
                               =======================================
Iditarod Trail................  ...........  ...........      385,000  Feasibility study for Iditarod Trail
                                                                        Interpretive/visitor Center.
Construction of:
    California Trail              2,000,000  ...........    2,000,000  Continued funding for construction of
     Interpretive Center--NV.                                           California National Historic Trail
                                                                        interpretive center in Elko, Nevada.
    Pacific Crest Trail.......  ...........  ...........      100,000  Annual maintenance of sections of the
                                                                        Pacific Crest Trail on BLM land.
Forest Service:
    Continental Divide........      370,000  ...........      870,000  Assumption of full administrative
    Florida...................      300,000  ...........      900,000   responsibility and leadership for
    Pacific Crest.............      695,000  ...........      584,000   consistent interagency collaboration for
    Nez Perce Trails..........      335,000  ...........      335,000   each trail; support for consistent
                                                                        management with trail organization and
                                                                        local agency partners; trail brochures,
                                                                        signs, project planning etc.; Also
                                                                        $500,000 for planning 190 new miles of
                                                                        CDT; $250,000 for land acquisition team
                                                                        and $114,000 Optimal Location Planning
                                                                        for PCT; $600,000 for land acquisition
                                                                        team for Florida Trail;
                               ---------------------------------------
      Total Forest Service....  \6\ 1,700,0    1,000,000    2,689,000
                                         00
                               =======================================
Appalachian, North Country,         650,000      350,000      750,000  Improved trail maintenance, marking,
 Ice Age, Iditarod,                                                     interpretation, archaeological studies,
 California, Juan Bautista de                                           historic site protection and trailhead
 Anza, Lewis & Clark, Oregon,                                           facilities for trail segments in
 Mormon Pioneer, Overmountain                                           National Forests; $200,000 to address
 Victory, Pony Express, Santa                                           deferred maintenance, make improvements
 Fe, Trail of Tears.                                                    and provide liaison for collaborative
                                                                        management of the North Country Trail
                                                                        with National Park Service;
Continental Divide Trail......    1,000,000  ...........    1,800,000  Trail construction projects along the
                                                                        Continental Divide Trail: 80 miles of
                                                                        new trail, 82 miles of trail
                                                                        reconstruction and 3 new Trailheads;
Florida Trail.................      500,000  ...........      600,000  Trail construction projects in Eglin Air
                                                                        Force Base, Ocala National Forest, Big
                                                                        Cypress National Preserve and along Lake
                                                                        Kissimmee;
Pacific Crest Trail...........  ...........  ...........      862,800  Trail construction projects along the
                                                                        Pacific Crest Trail, including
                                                                        reconstruction of fire and storm damaged
                                                                        bridges and structures in California and
                                                                        Washington;
                               ---------------------------------------
      National Trails System..    3,850,000    1,350,000    6,701,800  Total: National Trails System funding
                               =======================================
Nat. Forest System Trail         40,434,000  ...........  ...........  Trail maintenance throughout the National
 Maintenance.                                                           Forest System.
Nat. Forest System Trail         26,955,000  ...........  ...........  New trail construction and trail re-
 Construction.                                                          construction throughout the National
                                                                        Forest System.
Nat. Forest System Capital       70,075,000   73,000,000  100,000,000  Trail maintenance and new trail
 Improvement & Maintenance--                                            construction throughout the National
 Trails.                                                                Forest System.
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                          Fiscal year
                                Fiscal year  Fiscal year      2003
        LWCF for trails          2002 cong.  2003 admin.    Partners   Projects possible with LWCF appropriation
                                  approp.      request      request
----------------------------------------------------------------------------------------------------------------
LWCF grant--FS Pacific Crest..   $2,000,000   $3,000,000   $5,000,000  USDA--Forest Service acquisition of lands
                                                                        in southern California, Oregon and
                                                                        southern Washington to preserve the
                                                                        scenic integrity of the Pacific Crest
                                                                        Trail.
LWCF grant--BLM Pacific Crest.  ...........  ...........    1,000,000  BLM acquisition of lands in California to
                                                                        preserve the continuity and scenic
                                                                        integrity of the Pacific Crest Trail.
LWCF grant--FS Florida........    4,000,000      500,000    6,000,000  USDA--Forest Service acquisition of lands
                                                                        to protect 62 miles of threatened
                                                                        Florida Trail corridor and connect trail
                                                                        segments across private land between
                                                                        National Forests, St. Marks Wildlife
                                                                        Refuge & Eglin Air Base and in central
                                                                        Florida.
LWCF grant Ice Age--Wisconsin   ...........  ...........    3,000,000  Assistance provided to State of Wisconsin
 \7\.                                                                   to protect threatened Ice Age Trail
                                                                        corridor and connect trail segments
                                                                        across private land in Dane, Chippewa,
                                                                        Columbia, Polk, Portage, Walworth,
                                                                        Washington, Waupaca and Waushara
                                                                        Counties.
LWCF grant--NPS Ice Age.......    3,000,000  ...........    4,000,000  NPS will purchase one interpretive site
                                                                        for the Ice Age Trail.
LWCF grant--FS Appalachian....  ...........    5,600,000    5,600,000  USDA--Forest Service acquisition of part
                                                                        of Rocky Fork Tract (``Tennessee
                                                                        Mountains'')--Cherokee NF--and Springer
                                                                        Mountain (Little Glover) Tract
                                                                        (``Georgia Mountains'')--Chattahoochee
                                                                        N.F.
LWCF grant--BLM Continental         320,000      536,000      584,000  BLM acquisition of easements for the
 Divide.                                                                Continental Divide Trail in Wyoming.
LWCF grant--FS Lewis & Clark..    1,500,000    1,000,000    1,000,000  USDA--Forest Service acquisition of land
                                                                        along the Lewis & Clark Trail in Idaho
                                                                        and Montana.
LWCF grant--BLM Lewis & Clark.    1,000,000    2,000,000    2,000,000  BLM acquisition of land along the Lewis &
                                                                        Clark Trail in Idaho and Montana.
LWCF grant--BLM National        ...........      200,000      200,000  BLM acquisition of land to protect sites
 historic trails.                                                       along national historic trails in
                                                                        Wyoming.
LWCF grant--BLM Juan Bautista   ...........      800,000      800,000  BLM acquisition of land at Sears Point
 de Anza.                                                               Area of Critical Concern along the Juan
                                                                        Bautista de Anza Trail in Arizona.
                               ---------------------------------------
      Total...................   11,820,000   13,636,000   29,184,000
----------------------------------------------------------------------------------------------------------------
\1\ Includes $261,000 for operations of Santa Fe Park Service office, not related to the Santa Fe Trail.
\2\ Includes a $2 million increase over fiscal year 2001 funding earmarked for Lewis & Clark Bicentennial
  projects. One-third of the remaining funds (about $664,000 of $1.987 million) are earmarked for National
  Trails System projects.
\3\ Administration request does not allocate any funds for the National Trails System. The Congressional earmark
  is needed to accomplish this.
\4\ Congress tells NPS to report on progress of GIS development and future funding needed by January 31, 2001
  and to request increased GIS funding for fiscal year 2002.
\5\ Funding request reflects budget detailed in Park Service GIS report delivered to Congress in January 2002.
\6\ Appropriation includes: $1.5 million for administration of the Continental Divide, Florida, and Pacific
  Crest National Scenic Trails and the Nez Perce National Historic Trail, funding for full-time administrators
  for each trail and land acquisition teams for the Florida and Pacific Crest Trails and $200,000 for
  maintenance of the Pacific Crest Trail.
\7\ This would be a grant to the State of Wisconsin to be matched at least 1:1.

                                 ______
                                 
 Prepared Statement of the Big Sky Brewing Co.; International Wildlife 
 Film Festival; Northern Rockies Ethnobotany Center; and the Mountain 
                             View Ventures
    Last year an event of unprecedented terror occurred on our soil. It 
shook the confidence of air travelers significantly. It also added 
instability to an already uncertain national economy. Prior to the 
events of September 11, 2001, I was involved with a committee to create 
a new National Park Unit, whose headquarters would be in Missoula, 
Montana. The Ice Age Floods National Geologic Trail has been being 
researched and discussed for over a decade by many dedicated 
individuals. The final Study of Alternatives and Environmental 
Assessment for the Ice Age Floods was printed and released in February 
2001, and given to Secretary Norton the first week of September. The 
events of September 11 have probably changed the time-table for any new 
unit of the National Parks. However, our current Parks are in desperate 
need of repair and renovation. America is probably going to see a 
significant increase in domestic travel for the next few years, in part 
because of September 11, the Bicentennial of the Lewis and Clark 
Expedition, and the general aging of the Baby Boom generation. Our 
parks need help right now to be able to withstand the onslaught and 
President Bush promised to rebuild the National Parks in May of 2001.

    ``My administration will make a major investment in our national 
parks to preserve the legacy of protection for future generations. We 
will spend $5 billion over 5 years to clean up the backlog in 
maintenance, and make our parks more inviting and acceptable to all 
citizens.''----President George W. Bush, in announcing the National 
Parks Legacy Project. Giant Forest Museum, Sequoia National Park, 
California, May 30, 2001.

    I am committed to doing what I can to see to it that the people 
hold him to his promise. The idea that we can't have ``guns and 
butter'' is an excuse that came from America's past. Two generations 
ago that was the case, it is not now. Rather than give big corporations 
further tax relieve, the President and his cabinet need to put the 
people of America first. Congress needs to hold the President 
accountable on his promise to the people that he will put a real and 
significant effort into rebuilding America's recreational resources. 
This, too, is in the best interest of the American people during a time 
of crisis.
    President Bush has shown himself not to be humble as he promised 
during his campaign, he has chosen to go forward against popular 
opinion and refuse to support International Treaties, both military and 
otherwise. He has a tenuous at best hold on the Senate and House with 
regards to domestic affairs. I urge everyone on Capitol Hill to support 
a full commitment to reinvesting in America's recreational landscape. 
America's National Parks are the cornerstone of conservation. The 
Republican Party has abandoned it conservative roots in favor of 
Corporate Politics. Theodore Roosevelt dedicated the Northern Entrance 
to the World's first National Park in Gardiner, Montana in 1903. 
Richard Nixon signed the Endangered Species Act in 1973. The best thing 
that George W. Bush can do right now to restore faith is rebuild the 
parks that his Party worked to create.
    I join hundreds of millions of Americans every year in visiting at 
least one of our National Park units. I urge you to ask the President 
to uphold his campaign promise and fund the National Parks to allow 
them to continue to be the best in the World. America deserves this 
reinvestment in its cultural and social fabric.
    I hope that you understand that the majority of people want the 
parks protected and that you will vote the will of the people.
                                 ______
                                 
           Prepared Statement of Americans for National Parks
    Americans for National Parks is a growing coalition of people who 
care deeply about these awe-inspiring places. Today, we have 175 
members, including nonprofit organizations, private businesses, 
government municipalities, and trade associations, working together to 
encourage Congress and the administration to address the needs of the 
National Park System.
    Americans for National Parks is pleased to share its views 
regarding the programs in the Department of Interior's budget that 
affect national park resources and requests that this statement be 
included in the hearing record for the fiscal year 2003 Interior and 
Related Agencies appropriations bill. We appreciate the opportunity to 
share with you our priorities for funding and we respectfully request 
the Committee consider these views as you shape the fiscal year 2003 
budget.
    Americans for National Parks requests an increase of $280 million 
over the current fiscal year 2002 spending levels, $172 million above 
the president's request, for a total of $1.81 billion in fiscal year 
2003 for the operation of the National Park System.
    As you know, the National Park Service has a tremendous 
responsibility as caretaker of our nation's most valued natural, 
cultural, and historic resources--managing 385 sites throughout the 
country. How many among us have explored a rocky trail at Zion? Looked 
for finbacks surfacing beyond Acadia's Bass Harbor Light? Camped in 
Yosemite; discovered the ruins at Mesa Verde; paddled the Chattahoochee 
River; or watched the sun set over a forest of saguaro cactus?
    How many? Nearly 300 million each year! Americans do love our 
national parks. But the parks are in jeopardy, struggling to operate 
with only two-thirds of the funding needed.
    While Congress has regularly increased funding for the Park 
Service, the budget has failed to keep pace with need. The experience 
of millions of park visitors, as well as the plants, wildlife, and 
cultural and historical artifacts preserved in our national parks, is 
threatened by insufficient funding.
    At Acadia National Park, in Maine, for example, despite the best 
efforts of park staff, endangered species go unmonitored, education 
programs have been cut, and private vehicles crowd the narrow roadways 
and cause parking problems and pollution. All because the park's annual 
budget is half the required amount.
    Examples of the dire needs of the national parks can be found 
across the system: At Great Smoky Mountains National Park, a small 
staff of preservationists is struggling to preserve the park's many 
historic structures. One out of every four schools is denied access to 
Gettysburg's educational programming. The Grand Canyon--one of the 
geological wonders of the world--does not have a geologist on staff. 
The Cascades frog is disappearing from Lassen National Park. Historic 
structures and archaeological sites are deteriorating at Mount Rainier 
and Glacier national parks. And many of the Civil War-period and early 
twentieth-century buildings at Harper's Ferry National Historical Park 
in West Virginia are in need of significant restoration to ensure their 
preservation and visitor safety.
    During the past 4 years, the National Parks Conservation 
Association and the National Park Service have completed a series of 
detailed studies in more than 40 parks that have revealed that the 
operating budget of the Park Service falls one third short of need. 
This figure translates to a shortfall of more than $600 million 
annually. An increase of $280 million represents a reasonable and 
manageable amount and is a critical step toward fulfilling the mission 
of the Park Service to preserve these precious places unimpaired for 
future generations.
    As the President's fiscal year 2003 budget justification states, 
``The primary source of funding for accomplishing this mission is the 
park operating base. The park-operating base allows the core mission 
responsibility of the parks to be accomplished.''
    The national parks inspire all who treasure the best of our nation 
to stand up as stewards for their protection. Please support a $280 
million increase for our national parks, because there's just too much 
to lose.
                                 ______
                                 
     Prepared Statement of the Association of National Park Rangers
    I write to you today as President of the Association of National 
Park Rangers, a professional association of over a thousand rangers and 
other park professionals from the National Park Service. Our 
organization, now in its third decade, is neither a union nor a 
lobbying organization, but a voice in support of effective management 
of the National Park System and its professional employees. We provide 
information and insights into issues pertaining to the National Park 
Service to the public, the Congress and other interested parties.
    It has come to our attention that your subcommittee will soon be 
reviewing the fiscal year 2003 appropriations for the National Park 
Service, and that there is a real prospect for a substantial increase 
in the operating budget for the agency, possibly an addition of $172 
million above the President's request. We strongly endorse such an 
increase, and have joined the other 175 organizations allied under the 
Americans for National Parks initiative in asking that you and your 
colleagues add this sum to the NPS budget. As the only organization in 
that alliance comprised wholly of professionals from the National Park 
Service, we are in a unique position to truly understand the serious 
impacts of years of chronic operational funding shortfalls on the day-
to-day operations of the Service, and, consequently, on the natural and 
cultural assets under its charge.
    Although there have been modest increases to the Service's 
operational account (ONPS) over past years, they have not kept up with 
inflation, increased park and programmatic responsibilities, and 
substantial increases in personnel costs. In many of our parks, 
personnel costs now run from 85 to 90 percent, and in some smaller 
units run as high as nearly 100 percent. That means that there is 
little or no money for equipment or training or materials, and, more 
seriously, that managers are forced to come up with money for non-
personnel costs by leaving positions open or lapsed--a practice that's 
come to be known as ``management by lapse.'' As time goes on, more and 
more positions are left open. Since old responsibilities continue and 
are augmented by new programs and initiatives, the net result is more 
and more work being laid on fewer and fewer people. The cumulative 
impact is that we now have a seriously stressed workforce that finds it 
increasingly difficult to keep up with tasks assigned to it.
    Funding of basic operations is not glamorous and is therefore often 
overlooked. This same rule applies to funding cyclic maintenance and 
infrastructure repairs, but, as you know, the Congress and 
Administration are now taking steps to rectify the serious maintenance 
backlog in the parks. We vigorously applaud your efforts and those of 
President Bush in taking this long-needed step toward resolving a 
serious problem. But we also need to adequately fund the operation of 
the National Park Service. We can not adequately protect and perpetuate 
our parks or provide services to our visitors without sufficient 
funding and staffing.
    The national parks are more than just areas for recreation and 
refreshment. They contain and perpetuate America's priceless natural 
and historic legacy, our collective heritage. At a recent meeting of 
Americans for National Parks, Senator Fred Thompson spoke about the 
importance of the parks. He said that he believed that many things the 
Federal government oversees could be better done by the states, but 
added that we should fully support those undertakings which we have 
collectively agreed are our shared responsibility. Among those 
undertakings, he said, is the National Park Service.
    The employees of the National Park Service are an extraordinarily 
dedicated group of women and men who put their hearts and souls into 
their work. They do a great deal with the resources they've been given, 
but are stretched very thin and are beginning to fray at the edges. 
It's time that they received more support.
    Thank you for your leadership and commitment to our national parks. 
We stand ready to provide whatever support you deem appropriate or 
necessary.
                                 ______
                                 
                        Letter From Brian Scherf
                                                     April 5, 2002.

Hon. Robert Byrd, Chairman,
Hon. Conrad Burns, Ranking Member,
Senate Interior Appropriations Subcommittee

    Dear Chairman Byrd and Ranking Member Burns: As you prepare the 
fiscal year 2003 Interior Appropriations bill, I respectfully request 
an increase to the operating budget for the National Park Service by 
$172 million above the President's request; $280 million above the 
enacted fiscal year 2002 level.
    Specifically, I am requested that you provide increased funding for 
the operations of Big Cypress National Preserve in Florida. The 
Preserve's sensitive natural resources have been ravaged by 23,000 
miles of off-road vehicle trails. The Preserve requires half a million 
dollars in additional funding to implement it's new Off-road Vehicle 
Management Plan for fiscal year 2003.
    As caretaker of our nation's most valued resources, the National 
Park Service manages 385 sites throughout the country. It is 
responsible for more than 83 million acres of land, and protecting and 
preserving 168 threatened or endangered species, more than 80 million 
museum objects, 1.5 million archaeological sites, and 26,000 historic 
structures. The awe-inspiring natural, cultural, and historic 
attributes of these special places draw nearly 300 million visits 
annually.
    While the operating budget of the national parks has increased in 
recent years, it has failed to keep pace with critical needs. Research 
has shown that the Park Service's annual operating budget falls at 
least $600 million, or a third, of what is needed to operate the parks 
effectively and protect resources, and to provide a high quality 
experience for park visitors.
    An increase of $280 million in the Park Service's operating budget 
this year is a critical step toward meeting the mission of the Park 
Service to preserve unimpaired the natural and cultural resources and 
values of the National Park System for the enjoyment, education, and 
inspiration of this and future generations.
    I urge your support for increasing the operating budget of the 
National Park System so that our children--and our children's 
descendants--can enjoy the irreplaceable national treasures of Big 
Cypress National Preserve, and the entire National Park System.

            Sincerely,
                                                      Brian Scherf.
                                 ______
                                 
                    Prepared Statement of ParkWatch
    We respectfully request an increase in the fiscal year 2003 
Operating Budget for the National Park Service (NPS) by $172 million 
above the Administration's request, which is $280 million above the 
enacted level for fiscal year 2002.
    While our nation faces other important funding needs, shortchanging 
the NPS operating budget now will cause escalating costs in the future. 
Though the budget has increased in recent years, it has failed to keep 
pace with increases needed to sufficiently protect valued natural, 
cultural and historic resources, and to provide the expected quality of 
visitor experiences.
    Adequate Congressional funding in this and succeeding years will 
reduce the need for increased fees, which always exclude from our 
public parks those who can least afford to pay. And adequate funding 
will insure that forces abroad in the land with the intent of 
privatizing and commercializing our precious heritage shall NOT take 
their success from weak Congressional funding of our parks.
    An increase of $280 million this year is a reasonable and 
manageable amount, a small price to pay for keeping these priceless 
assets protected and affordable. We urge your support so that these 
irreplaceable national treasures shall be available for the enjoyment 
of future generations.
                                 ______
                                 
                    Prepared Statement of Bob Jovick
    Thank you for your past support of the national parks--I know this 
has been a particular concern of Senator Burns as we Montanans have 
seen a deterioration of conditions at Glacier and Yellowstone National 
Parks.
    Please support an increase of $172 million in the park's operations 
budget for the next fiscal year beyond what is recommended in the 
President's budget.
    The infrastructure has attracted attention, but the operations side 
of the budget was especially strained even before the recent national 
security participation that has been added to park operational 
concerns. A recent article in Montana discussed that rangers from 
Glacier and other parks helped in security assignments at the 
Olympics--this is well and good but illustrates the added pressures.
    There is no geologist in Yellowstone, largely due to budget 
pressures--many vacancies go unfilled.
    I traveled all the way to Washington DC and met with a well 
informed staff member about 3 weeks ago to help provide information on 
this need. Senator Burns's office was as busy as a bee and I was happy 
to see a number of Montanan's on visits.
    Thank you for your support.
                                 ______
                                 
                 Prepared Statement of American Rivers
    This year, American Rivers was joined by over 600 local, regional 
and national conservation organizations \1\ from all 50 states in 
calling for significantly increased funding for the following programs 
in the Interior Appropriations bill. I urge that these requests be 
incorporated in the Interior Appropriations bill for fiscal year 2003.
---------------------------------------------------------------------------
    \1\ These groups have endorsed ``The River Budget 2003'', a report 
of national funding priorities for local river conservation. A list of 
groups endorsing the River Budget can be viewed at http://
www.americanrivers.org/riverbudget/default.htm
---------------------------------------------------------------------------
                         wild and scenic rivers
    The Wild and Scenic Rivers (WSR) Act protects free-flowing rivers 
with remarkable scenic, recreational, geologic, fish and wildlife, 
cultural, or other similar values. Four Department of Interior agencies 
are responsible for administering designated rivers, conducting studies 
to determine if rivers qualify for WSR designation, and developing wild 
and scenic river management plans: the Bureau of Land Management, U.S. 
Forest Service (USFS), National Park Service, and U.S. Fish and 
Wildlife Service. Unfortunately, none of these agencies receives 
sufficient funding to adequately protect our nation's WSR System and to 
ensure that it represents a broad diversity of river types. Although 
84,500 stream miles are potentially eligible for designation, only 160 
rivers covering 11,292 miles are currently designated. With increased 
funding, these agencies could better manage and protect designated 
rivers. Following are our requests for the four agencies responsible 
for the WSR program:
    The National Park Service.--NPS manages 36 WSRs and is responsible 
for studying rivers both in National Park areas and outside of federal 
lands. Congress should appropriate $18.5 million to the NPS for WSRs. 
Of this total, $1.5 million should go toward partnership wild and 
scenic rivers, which are managed in partnership with state, local, and 
private entities.
    The Bureau of Land Management.--BLM is responsible for managing 36 
WSRs and evaluating some 200 segments for eligibility and suitability. 
Congress should appropriate $6.5 million to the BLM for WSR management 
and $2 million for completion of WSR studies.
    U.S. Forest Service.--Of all four agencies responsible for WSRs, 
the USFS has responsibility for the largest number--97 in all. 
Currently, the USFS budget does not include funding for wild and scenic 
rivers, and up to 20 percent of USFS-managed WSRs lack adequate 
management plans. Congress should direct the USFS to create a special 
staff unit and budget for WSRs and should appropriate $9 million for 
USFS WSR management and $3 million for completion of WSR studies.
    U.S. Fish and Wildlife Service.--The FWS manages nine WSRs and must 
study rivers located on national refuge lands for potential 
designation. Congress should appropriate $1,787,000 to FWS for WSR 
management, restoration and studies.
           rivers, trails and conservation assistance program
    The National Park Service's Rivers Trails and Conservation 
Assistance (RTCA) program has helped produce some of the best examples 
of conservation based on local-federal partnerships by providing 
communities with assistance to help revitalize riverfronts, protect 
open space, and build trails and greenways. Last year the RTCA program 
helped create more than 2,000 miles of trails, protect over 500 river 
miles, and preserve almost 50,000 acres of open space. The RTCA is a 
good taxpayer value because its projects help leverage substantial 
local funding. Last year the committee recognized RTCA's achievements 
by providing an increase of $335,000, but in conference these increases 
were rejected. If funded at $15 million, RTCA could expand to assist 
approximately 250 additional projects in some 25 new and currently 
underserved locations. Congress should fund the RTCA program at $15 
million in fiscal year 2003.
   operations and maintenance of the national wildlife refuge system
    Many of 93 million acres within the National Wildlife Refuge System 
were acquired for the protection of migratory waterfowl and shorebirds, 
and most refuges embrace rivers and their adjacent wetlands for this 
reason. Wildlife refuges do more than protect riparian acreage from 
development--they frequently acquire less-than-pristine habitat and 
nurse it back to health. Because funds for these activities have not 
kept pace with habitat acquisition, many benefits that refuges could 
provide have been forgone.
    Interest in river recreation is growing steadily, and public lands 
provide crucial access to public waters. With demand rising, the 
shortfall in refuge maintenance funding means that visitor centers, 
bathrooms, boat launches, fishing piers, hunting blinds, maps, and 
brochures are increasingly inadequate. Increased operations and 
maintenance (O&M) funding will allow refuges to hire needed staff to 
meet demand for educational programs.
    We applaud the president's call for increased funding for refuge 
O&M. We urge Congress to go even further, ensuring that this year's 
100th anniversary of the founding of the first refuge can be the 
celebration it deserves to be. Congress should appropriate $700 million 
for O&M of the National Wildlife Refuge system.
                         hydropower relicensing
    The U.S. Forest Service (USFS) and various Department of the 
Interior (DOI) agencies need additional funding to address the growing 
number of hydropower dams that need renewal of their operating licenses 
from the Federal Energy Regulatory Commission (FERC). Under the Federal 
Power Act, these agencies must set license conditions to protect and 
conserve natural resources. Licenses are nearing expiration at over 400 
dams. This will affect hundreds of rivers, and hydropower workloads for 
some agencies will increase by 300 to 500 percent. Doubling these 
agencies' limited funds would assure a more efficient licensing 
process, benefit the hydropower industry, and assist efforts to protect 
and restore environmental, recreational, and cultural resources. 
Congress should appropriate the following amounts to DOI agencies and 
the USFS:
  --Fish and Wildlife Service, Habitat Conservation, Project Planning: 
        $2.35 million
  --Bureau of Indian Affairs, FERC Activities, Trust Services: $2 
        million
  --Bureau of Land Management, Land Resources/Wildlife and Fisheries: 
        $1,125,000
  --National Park Service, Hydropower Recreation Assistance: $1.5 
        million
  --USFS, Lands Budget: $11.6 million
   abandoned mine land program--appalachian clean streams initiative
    The Appalachian Clean Streams Initiative (APCI), administered 
through the Office of Surface Mining's Abandoned Mine Land (AML) 
Program, awards grants to local groups in the Appalachian region for 
the restoration of streams damaged by abandoned mines. According to the 
Interior Department, acid leaking from long-empty mines is the leading 
cause of aquatic habitat destruction in Appalachia. Unfortunately, over 
one-fourth of reclamation funds collected from coal producers through 
the AML Program have gone to the Treasury instead of for their intended 
purposes, including the APCI. Congress should appropriate $300 million 
to the AMLP. Of this, $20 million should be earmarked for the ACSI.
                        elwha river restoration
    Glines Canyon and Elwha dams on the Olympic Peninsula in Washington 
state have nearly wiped out once abundant salmon and steelhead 
populations in the Elwha River, fisheries to which the Elwha Klallam 
Tribe are guaranteed rights in perpetuity through an 1855 treaty 
agreement. When the dams were built in the early 1900s they cut off the 
vast majority of spawning grounds for native salmon and sea-run trout 
species. One of the dams, Glines Canyon Dam, is located inside Olympic 
National Park. In 1992, Congress approved federal purchase of the dams 
and directed the Department of Interior to study how the river and 
native fisheries could be completely restored. DOI reported that only 
dam removal could fully restore the ecosystem. Congress has 
appropriated funds for the National Park Service (NPS) to purchase the 
dams, and NPS now owns them. NPS has received funding to complete the 
engineering and design phase, as well as the first deconstruction 
phase, but it awaits the funding needed to complete the project. 
Congress should provide the National Park Service $45 million to 
complete the restoration of the Elwha River ecosystem and its 
fisheries.
                    u.s. geological survey programs
    The following U.S. Geological Survey (USGS) programs are vital to 
assessing and monitoring the health our nation's rivers and water 
supply, but they are at risk of significant cuts or elimination this 
year. Congress should fund these USGS programs at the following levels:
  --Streamflow Information Program: $28.4 million
  --National Water Quality Assessment Program: $65 million
  --Toxic Substances Hydrology Program: $13.9 million
  --Water Resources Research Institutes: $6 million
                            coastal program
    Healthy coastal wetlands provide many benefits to people and 
wildlife and support recreation, tourism, and fishing industries. 
Thousands of acres already have been lost or degraded by commercial and 
residential development, polluted runoff and waste disposal, shoreline 
modification, and over-harvesting of resources. The Fish and Wildlife 
Service's (FWS) Coastal Program is an effective partnership that brings 
together FWS experts, land trusts, biologists, and other conservation 
partners to protect and restore habitat in coastal regions. These 
partnerships allow the Coastal Program to turn every Federal dollar 
into at least three project dollars for on-the-ground work. The Coastal 
Program has reopened 3,300 miles of coastal streams for anadromous fish 
passage; restored 54,160 acres of coastal wetlands, 19,670 acres of 
coastal upland habitat, 645 miles of riparian habitat; and protected 
230,000 acres of habitat through conservation easements since 1994. 
Congress should fund the FWS's Coastal Program at $13,099,000.
                   national parks dam safety program
    Dams that have outlived their average life expectancy now threaten 
the health of rivers inside the National Park System. Of the 482 dams 
in the Park System, some 330 are in poor or fair condition. While dams 
can be beneficial, the failure of unsafe dams may result in property 
destruction and loss of life. Dam failure also poses a risk to the 
downstream river environment due to the sudden and uncontrolled 
increase in flow. The National Park Service (NPS) has a dam safety 
inspection and maintenance program designed to ensure protection of 
public safety, health, property, and natural resources. This program 
has not only eliminated safety hazards but also restored rivers and 
streams. Unfortunately, many dams within the NPS still pose a risk and 
are in need of deactivation or repair. Congress should fund the NPS's 
Dam Safety Program at $2 million.
                 national fish and wildlife foundation
    The National Fish and Wildlife Foundation (NFWF) fosters the 
involvement of communities in restoring habitat. Through challenge 
grants, NFWF helps fund projects that promote sustainable communities 
through conservation and education. NFWF also forms partnerships with 
federal, state, and local governments, corporations, private 
foundations, individuals, and non-profit organizations. Through its 
grant programs, $165 million in federal NFWF funds have delivered more 
than $500 million for conservation. Congress should fund the NFWF at 
$32.5 million.
         federal salmon plan for the columbia and snake rivers
    Interior Department programs constitute a substantial portion of 
the federal funding necessary to implement the multi-agency 2000 
Biological Opinion for the Federal Columbia River Power System. Under 
this plan, the federal government must undertake a variety of measures 
to mitigate for the mortality imposed on Endangered Species Act--listed 
salmon and steelhead by the large dams on the Snake and Columbia 
rivers. If these recovery measures are not funded and implemented, or 
if they are ineffective, the salmon plan calls for reconsidering 
removing four dams on the lower Snake River as soon as 2003, with 
actual removal as soon as 2005. Congress should fund the following 
agencies at the following amounts to give the federal salmon plan the 
best chance to succeed:
  --Fish and Wildlife Service: $18.7 million
  --Bureau of Land Management: $13 million
  --Bureau of Reclamation: $19.7 million
  --U.S. Geological Survey: $9.8 million
  --Bureau of Indian Affairs: $8.2 million
  --U.S. Forest Service: $121.9 million
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers

Historic Preservation Fund

Fiscal Year 2003 Principal Request: State Historic 
    Preservation Offices................................     $47,000,000
Save America's Treasures................................      30,000,000
Tribal grants...........................................       6,000,000
National Trust for Historic Preservation Properties 
    endowment...........................................       2,500,000
                    --------------------------------------------------------
                    ____________________________________________________
      Historic Preservation Fund Total..................      85,500,000
                    ========================================================
                    ____________________________________________________
Partners:
    Advisory Council on Historic Preservation...........       4,000,000
    Heritage Partnership Programs, Natl. Rec. and Pres 
      NPS...............................................      21,500,000
         justification of request of $47,000,000 for the states
    The National Conference of State Historic Preservation Officers 
urges the Appropriations Committee to withdraw $47,000,000 from the 
Historic Preservation Fund for the States for fiscal year 2003.
Congressional commitment
    This request is well within the Appropriations Committee promise of 
$160,000,000 to urban and historic preservation programs in the Land 
Conservation, Preservation and Infrastructure Improvement Trust Fund. 
(Public Law 106-291)
    The $47,000,000 for the States fits within the Senate Budget 
Committee resolution for 2003.
Congressional mandate
    Thirty-three years ago the National Historic Preservation Act 
established a system for the preservation of all of America's heritage. 
The Secretary of the Interior opted to carry out that program in 
partnership with the States. Further, State governments agreed to 
donate State funds toward implementing this federal program. The 
Historic Preservation Fund powers the national historic preservation 
program to function. The Historic Preservation Fund does not go for 
optional or discretionary activity, it funds federally mandated 
programs. Congress and the Administration decided that the States shall 
conduct historic preservation for the federal government. Further, 
although this is a federal program, the States donate roughly half of 
the operational costs.
The people rely on the States
    Americans count on the State Historic Preservation Offices to 
provide the infrastructure that enables them to succeed in preserving 
historic places. With the support of the Historic Preservation Fund, 
State Historic Preservation Offices provide the opportunity for 
communities and individuals to recognize historic places through the 
National Register, to generate incentives for rehabilitation through 
the investment tax credit, and to voice their concerns in federal 
project planning when a beloved landmark is threatened.
Conservation continuum
    Several methods exist to preserve America's heritage. The benefit 
and cost to the federal government vary with each option. The most 
expensive method is to create a national park. While this guarantees 
preservation of the resource, it also establishes a perpetual 
entitlement on federal revenues. The fiscal year 2003 budget request 
for operating the 384 park units is $2,644,510,000, a 7.1 percent 
increase over 2002. Over the past two decades, heritage areas have 
emerged as another way for communities to celebrate their history while 
preserving historic places and promoting economic development through a 
coordinated interpretive and marketing scheme. The twenty-two federal 
heritage areas received over $13,000,000 in 2002.
    The national historic preservation program funded by the Historic 
Preservation Fund through the State Historic Preservation Offices 
relies on incentives and persuasion to convince the private sector (and 
public agencies) to preserve the historic places they own. A 
$47,000,000 Historic Preservation Fund allocation would help more 
Americans get the national recognition of the historic places they 
value through National Register listing. (1,500 listings at 
$47,000,000; 1,000 at $34,000,000) A $47,000,000 appropriation would 
also increase the assistance to the 1,000,000 current National Register 
property owners.
    Each approach is essential to insure America's heritage is 
conserved for future generations. Balanced support is important for 
each method.
    Under funding of the Historic Preservation Fund, at levels such as 
$34,000,000, limits the ability of State Historic Preservation Officers 
to assist property owners with preservation projects. At $47,000,000 
States will have some resources to help historic property owners with 
repair issues at an early stage. The fiscal year 2001 funding level 
allows States to assist in planning restoration projects and making 
smaller subgrants to address small problems, rather than leaving them 
un-addressed, leading to structural crises.
Enables private sector investment
    Historic Preservation Fund withdrawals to the States establish the 
framework for the private sector to invest in the rehabilitation of 
historic buildings with the federal investment tax credit. The Historic 
Preservation Fund provides the fuel to run the National Register 
nomination process--listing is a requirement for credit eligibility. 
Further, the Fund puts professionals in State offices who advise owners 
on rehabilitation design. This investment of Federal dollars, matched 
by the States, makes possible $2,000,000,000 in private sector dollars 
in the rescue of historic buildings for economically productive uses.
Historic places are assets
    The National Historic Preservation Act leads Americans to see their 
historic places, the physical embodiment of our history, as assets. 
Americans rely on State Historic Preservation Offices (made possible by 
the Historic Preservation Fund) to provide professional advice on 
restoration methodology.
    Historic places clearly provide Americans with homeland pride and 
patriotic connection to essential values and an appreciation of our 
country. How do American's learn about historic places? Through 
Historic Preservation Fund supported historic inventories that find and 
elucidate the previously unknown or undiscovered treasures of our past.
    The multi-billion dollar tourism industry's heritage sector exists 
because of historic places. These assets draw Americans from next door 
or visitors from around the world to see the authentic place where 
America's history occurred. The Historic Preservation Fund not only 
supports the survey effort to find these places, it also makes national 
recognition possible through the National Register nomination process. 
Further, the $47,000,000 level will allow for some restoration funds to 
insure authentic restoration of sites open to the public.
Capital investments in infrastructure with long-term benefits
    In fiscal year 2001, when Congress appropriated $46,495,000 from 
the Historic Preservation Fund for the States, Historic Preservation 
Officers used the increase to fill long-standing infrastructure gaps. 
According to the National Park Service's ``SHPO Success Stories 2001,'' 
States made capital investments in two areas: restoration and 
databases. Following the outline of statewide historic preservation 
plans, some States, such as Alaska and Washington, made funding 
available for restoration projects addressed long-standing needs to 
preserve endangered National Register sites. Other States such as 
Pennsylvania and Texas used Historic Preservation Fund increases to 
invest in digitizing information on historic places including locations 
through geographic information system data layers. Digitization is 
essential to modernize accessibility to historic property information 
for project planning. Accessibility to site location data in electronic 
formats allows planners to make decisions from their desk tops, saving 
time and money.
    Continuing the Historic Preservation Fund appropriation at 
$47,000,000 will allow States to maintain these needed capital 
investments.
Treading water
    Declining Historic Preservation Fund appropriations--the 2003 
budget proposes a 26 percent cut from the 2001 level--will not stop 
historic preservation in America. Thirty years of the operation of the 
National Historic Preservation Act has made historic preservation a 
core American value. Cuts retard the growth of historic preservation 
infrastructure to meet public demand. Uncontrollable costs, clearly 
identified in the National Park Service budgets--cost of living 
increases, indirect cost rates, pension changes--affect State Historic 
Preservation Offices ability to deliver service. For some States, like 
Connecticut, such proposed cuts mean mandatory staff reductions, 
eliminating services that citizens count on.
    Which potential future landmark will face demolition in 2003 
because the HPF funding did not exist to verify its significance 
through a National Register nomination? Which historic attraction will 
face a major crisis in 2005 because there was no HPF funding in 2003 to 
fix the roof?

        EFFECT OF HISTORIC PRESERVATION FUND APPROPRIATIONS ON SELECTED STATES AT $47 MILLION AND AT THE
                                      ADMINISTRATION'S LEVEL OF $34 MILLION
----------------------------------------------------------------------------------------------------------------
                                                                  At $47,000,000  At $34,000,000
                              State                                   (est.)          (est.)      Amount of loss
----------------------------------------------------------------------------------------------------------------
AK..............................................................      $1,000,000        $725,000        $275,000
CA..............................................................       1,437,000       1,000,000         437,000
CO..............................................................         870,000         630,000         240,000
HI..............................................................         568,000         411,000         157,000
MS..............................................................         736,000         532,000         204,000
MT..............................................................         784,000         568,000         216,000
NV..............................................................         716,000         518,000         198,000
NH..............................................................         629,000         456,000         173,000
NM..............................................................         771,000         558,000         213,000
ND..............................................................         689,000         499,000         190,000
SC..............................................................         746,000         540,000         206,000
UT..............................................................         757,000         548,000         209,000
VT..............................................................         587,000         425,000         162,000
WA..............................................................         904,000         655,000         249,000
WV..............................................................         713,000         516,000         197,000
WI..............................................................         961,000         696,000         265,000
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
              Prepared Statement of the City of Newark, NJ
    Mr. Chairman and members of the Subcommittee, thank you for giving 
me the opportunity to submit testimony about a project under your 
jurisdiction which is very important to the people of Newark, New 
Jersey. The City of Newark is seeking $3,000,000 from the Urban Park 
Restoration and Recovery program in order to take the conceptual design 
to an implementable plan, and construct the Nat Turner Field. It will 
serve as the recreation focus for thousands of students and families in 
a redeveloping neighborhood, as part of a comprehensive revitalization 
plan.
                      nat turner field development
    Nat Turner Field is an undeveloped tract of land that the City of 
Newark acquired with NJ Green Acres funding so that it would be 
preserved as parkland rather than undergo development. It is surrounded 
by newer housing developments on the west, a City pool/recreation 
center and elementary school on the east, and an elementary school to 
the south. To the north was a large abandoned factory, which was a 
troublesome brownfield site for many years. It has recently been 
demolished, and has been selected by the Newark Public Schools as the 
site of a new high school, to be built through the State Abbott 
District program. This activity presents a unique opportunity for 
partnership between the Schools and the City.
    It is proposed that Nat Turner Field be developed into a 
recreational facility that will jointly serve the needs of the two 
elementary schools and the new high school, as well as the community-
at-large beyond school hours. The existing pool and recreation center 
could be renovated to be part of a larger, more comprehensive complex, 
and serve the schools as well. The schools will educate approximately 
1800 students. The summer recreation program will serve over 2,000 low 
to moderate income families from the neighborhood.
    The consideration of this committee will be greatly appreciated by 
the citizens of the City of Newark.
                                 ______
                                 
                Prepared Statement of Alachua County, FL
    Thank you for allowing the Alachua County Board of County 
Commissioners to submit this written testimony before your Subcommittee 
regarding two innovative projects that are important to Alachua County: 
(1) a land conservation project and (2) a heritage preservation 
initiative. The County is seeking $10 million for the Emerald Necklace 
Land Conservation Initiative and $2.5 million for the Lake Pithlachocco 
Heritage Preservation Initiative. Following are highlights of both 
initiatives:
             emerald necklace land conservation initiative
    On November 7, 2000, a large turnout of Alachua County voters 
overwhelmingly endorsed passage of a local land acquisition bond 
referendum that provides up to $29 million in local funds to acquire 
and preserve environmentally significant lands. This local initiative 
received broad public support, with endorsements from diverse community 
interests including business, environmental and community 
organizations.
    Alachua County is seeking state and federal matching funds to 
leverage this substantial local commitment to land conservation. 
Property acquisitions are proposed to link existing conservation lands 
to provide for connected areas of protected water quality and wildlife 
habitat, as well as resource-based recreational opportunities. Federal 
matching funds will be critical to the success of this project. Alachua 
County is committed to responsible land use practices and conservation 
policies that encourage future growth to occur in areas of lesser 
environmental sensitivity with adequate infrastructure.
    Alachua County has five large-scale land acquisition projects 
(5,000+ acres) on Florida's Conservation and Recreation Lands (CARL) 
acquisition list.
  --Paynes Prairie Additions (a large freshwater wetland and watershed, 
        managed as a state preserve)
  --San Felasco Hammock Additions (a mature hammock and sandhill 
        forest, with ravines and unique sinkhole drainage features)
  --Watermelon Pond (an upland sandhill and scrub forest community with 
        important ephemeral wetlands surrounding a relatively pristine 
        lake)
  --Newnan's Lake (a diverse flatwoods forest surrounding a major 
        community fishing lake with declining water quality)
  --Lochloosa Forest (a pine flatwoods forest, largely in commercial 
        timber production surrounding two large fishing lakes)
    These tracts are under substantial land development pressures that, 
if left unchecked, will further fragment and diminish their 
environmental, water resource, and recreational values.
    A major portion of the larger tracts proposed for acquisitions are 
currently timberlands. Timber production, where conducted in 
conformance with best management practices to avoid soil erosion and 
water quality degradation, is a land use considered to be generally 
compatible with Alachua County's land conservation goals. In these 
areas, the purchase of development rights and conservation easements, 
as opposed to fee simple acquisition, are proposed as key components of 
the Emerald Necklace acquisition strategy. These conservation 
alternatives, which stretch the available acquisition dollars, allow 
the properties to continue to be used for lower impact, more compatible 
land use activities while remaining under private ownership and 
management.
    In addition to these five larger tracts, acquisitions are proposed 
for smaller, but environmentally significant properties that will 
preserve vital connections between the larger tracts, creating the 
``Emerald Necklace.'' These smaller, linking parcels, often overlooked 
by state and federal land acquisition programs, are easier to manage by 
a local land conservation program such as that established by Alachua 
County.
    Although most of the properties proposed to be included in this 
project are relatively undisturbed, an important objective of the 
Emerald Necklace initiative is to accomplish several critical 
restoration projects. Alachua County in consultation with the City of 
Gainesville has identified four priority restoration areas:
  --Newnan's Lake; a large lake in a relatively natural setting with 
        spectacular recreational, scenic, and wildlife resources that 
        is being adversely affected by water quality degradation and 
        sedimentation. Specific projects requiring federal assistance 
        include: investigations to determine the source of water 
        quality problems and appropriate remedies, mechanical removal 
        of muck and sedimentation, land acquisition for surrounding 
        properties, a multi-use trail system circling the lake and 
        connecting two existing rail-trails, and the designation and 
        enhancement of a canoe trail connecting Newnan's and Orange 
        Lake via Prairie Creek and the River Styx. The St. Johns River 
        Water Management District is another willing partner for this 
        restoration project, having made substantial commitments in the 
        past and demonstrating an interest to expand land conservation 
        and water resources protection in the area while enhancing 
        public access.
  --Sweetwater Branch watershed restoration to improve water quality, 
        reduce sedimentation, and to prevent adverse impacts on Paynes 
        Prairie State Preserve (a designated National Natural Landmark) 
        and the underlying Floridian Aquifer, the region's primary 
        source of drinking water. Prior to draining into the drinking 
        water aquifer via Alachua Sink on Paynes Prairie, this urban 
        creek in eastern Gainesville is severely impacted by untreated 
        stormwater runoff and further eroded by a major discharge of 
        treated municipal waste-water.
  --Tumblin Creek watershed restoration to improve water quality, 
        reduce sedimentation and toxicity to fish, and to prevent 
        adverse impacts to Paynes Prairie State Preserve and the 
        Floridian Aquifer. This severely degraded urban creek flows 
        through a minority neighborhood and a public school campus 
        prior to transporting untreated stormwater and potentially 
        toxic sediments into Bivens Arm Lake. This lake, a state-
        designated wildlife sanctuary, provides an increasingly rare 
        opportunity for subsistence and recreational bank fishing for 
        low income and unemployed residents.
  --The restoration of Hogtown Creek, which drains the largest 
        watershed in Gainesville. The City of Gainesville has acquired 
        $3.0 million in properties to establish the Hogtown Creek 
        Greenway. Federal funding assistance is needed for the 
        development of recreational trails and for water quality 
        improvements.
    The Emerald Necklace initiative, with federal assistance, can serve 
as a model land conservation program, demonstrating a successful local, 
state, and federal environmental partnership as well as effective 
conservation alternatives to fee simple acquisition.
           lake pithlachocco heritage preservation initiative
    For thousands of years, the indigenous people in the north Florida 
area adjacent to the current City of Gainesville Florida, in Alachua 
County enjoyed and based their life styles around a body of water 
called Pithlachocco. The word ``Pithlachocco'' translates from the 
Miccosukee language to mean ``big boat'' in English. Today, the lake is 
known as Newnan's Lake and has been designated as a National Historic 
Landmark.
    For years, Newnan's Lake has been a prominent fishing location for 
area anglers and more recently, and somewhat ironically, has become 
internationally recognized as an excellent site for the sport of crew. 
This historical lake played a prominent role in the history and 
development of the State of Florida from the earliest time periods 
through the settlement of Florida and Civil War era history. In 1774 
British naturalist William Bartram visited the Alachua region twice and 
described the region's natural beauty and scenic wonders. The Lake was 
later named after revolutionary war soldier Col. Newnan whose forces 
were routed by Seminole war chief King Payne in a week long battle by 
the present day lake.
    Recently, during an unusual drought period, the lake was discovered 
to be the home of potentially the largest repository of Indian dug out 
canoes and artifacts in the United States. Some of these canoes are the 
largest that has ever been found in the world. The site was recently 
designated on the national register of historic places and has been 
termed a unique cultural heritage site by the Seminole and Miccosukee 
Tribes who have visited this ancient tribal site.
    The purpose of this appropriation request is to provide the 
resources for the investigation, preservation and interpretation of 
these prehistoric canoes and artifacts. This site lies east of the City 
of Gainesville, Florida home of the University of Florida whose 
faculty's expertise has indicated that this site is simply ``world 
class'' in terms of it's potential as an educational and archaeological 
interpretative facility. The Lake continues to be preserved in its 
natural state with little surrounding development. In addition, the 
setting of this unique historical and environmental site lies adjacent 
to the Paynes Prairie State Preserve and the Lochloosa Wildlife 
Management area. Nearby, dating from the 1930's is the former home of 
Marjorie Kinnan Rawlings, author of numerous books including The 
Yearling and Cross Creek. This building has also been designated as a 
State Historic Site.
    An appropriation of $2.5 million in fiscal year 2003 would allow 
Alachua County to acquire land and construct an interpretive center to 
highlight these nationally significant resources. Participation has 
been or will also be sought from the State of Florida, the St. Johns 
Water Management District, other local governments as well as private 
funding. Recent meetings have been held with Chiefs and Elders 
representing the Seminole and Miccosukee Nations who have expressed 
interest to support this project which is essential on preserving the 
cultural heritage of their people in Florida.
    It is the belief of Alachua County Board of County Commissioners 
that with assistance of the Federal government, the necessary land 
acquisition and construction of a interpretive site adjacent to 
Pithlachocco/Newnan's Lake would link its current use as a recognized 
center for crew competition to its distant past as an original native 
American settlement and canoe based culture.
    Thank you for your consideration of these two very worthwhile 
projects. Your support would be appreciated.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association
    This statement is to share with the Subcommittee views of the 
National Recreation and Park Association on fiscal year 2003 
appropriations for selected programs within its jurisdiction. We 
appreciate the opportunity to comment on programs administered 
principally by the National Park Service.
    We recommend the following:
  --Not less than $200,000,000 from the Land and Water Conservation 
        Fund for state assistance, and additional funds necessary to 
        meet the land conservation priorities of eligible federal land 
        systems. Funds should be allocated to the states as authorized 
        by current law. The secretary of the Interior should be 
        directed to continue to utilize population-based ``need'' 
        criteria for distribution of State funds.
  --Not less than $30,000,000 to address the most distressed urban 
        recreation resource conditions and deficiencies identified and 
        aided through the Urban Park and Recreation Recovery Program.
  --Sufficient funds to enable the National Park Service to effectively 
        collaborate with state and local recreation and park agencies 
        and other federal agencies on such matters as conservation and 
        use of excess and surplus federal real property, conservation 
        of the nation's cultural heritage and rivers and trails.
  --Sufficient funds to support site-appropriate and sustainable public 
        recreation use of national forests, parks, refuges, and public 
        lands.
  --Necessary funds to continue U.S. Geological Survey technical and 
        professional activities in support of local and state planning.
    The National Recreation and Park Association especially commends 
the Subcommittee for the positive, incremental restoration of 
appropriations from the Land and Water Conservation Fund and for the 
Urban Park and Recreation Recovery Program. The value of state and 
local recreation and park resources are fundamentally essential to 
quality recreation experiences for all people. Collectively, these 
systems and their human resources provide the majority of the nation's 
public recreation destinations and services. Until all people have 
appropriate access to recreation and parks our collective missions will 
remain unfinished. We urge the subcommittee to quickly move toward 
annual full funding of the Land and Water Conservation Fund, and 
sufficient, predictable funds to aid restoration of urban park and 
recreation sites.
    Distribution of LWCF State Grant Funds.--The administration's 
budget proposes that the request for $200 million for state assistance 
will be ``managed in two segments, including $150 million for the 
traditional state grants program and $50 million for a proposed 
Cooperative Conservation Initiative''. Investment of the latter amount 
would be restricted to ``natural area'' activities, with proposed 
projects presumably submitted to the secretary for approval. We commend 
and support the Administration for its request for increased LWCF state 
assistance and urge the Subcommittee to recommend at least this amount. 
However, we urge the Subcommittee to not agree to the proposal to 
earmark $50 million of the requested total for LWCF state assistance 
for ``natural area'' activities. The Subcommittee's denial should be 
expressly stated in report language.
    The effect of the proposal would be similar in nature to the 
Administration's fiscal year 2002 proposal to substantially change the 
nature of the LWCF program from its recreation access purposes to 
wildlife conservation by changing the LWCF state apportionment formula 
from population-based ``need'' to one based on a state's relative land 
area. We commend the Subcommittee for not agreeing to that proposed 
change.
    The Administration's present proposal to set aside fully one-fourth 
of the budget request is contrary to its insistence that priorities, 
choices and decision-making be vested in individuals and entities 
outside of the federal government. Administration officials, including 
Interior, have said repeatedly that ``most good ideas reside in 
communities'' across the nation. While budget documents suggest that 
the secretary of the interior will select from ``natural area'' 
applications submitted by the respective governors, the fact remains 
that the proposal assumes that the federal government should, in 
effect, dictate to the states (and local governments) the type of 
priorities each state should address.
    The proposed set aside could also result in significant distortions 
in the actual distribution of funds. For example, the only LWCF 
statutory requirement beyond that of ``40 percent distributed equally 
among all states'' (with an ancillary formula for territories and the 
District of Columbia) and 60 percent based on ``need'' is the limit 
that no single state can receive more than 10 percent of the total 
apportionment. Thus, if permission for the proposed set aside is 
granted by the Congress, it would presumably be within the secretary's 
discretion to select any number of ``natural area'' proposals from only 
a limited number of states. A lesser populated state with a modest 
regular apportionment could suddenly be the recipient of, say, a $5 
million ``natural area'' windfall. Under the long-held belief that the 
American people equally own the nation's natural assets (including OCS 
resources) and thus should benefit equally, the Administration's 
proposal leads quickly to a perception of ``well, not exactly''.
    We are aware of no objective evidence that supports any particular 
priority of funds for ``natural areas'', or any other categorical 
earmark. In fact, the American people and state and local decision 
makers have and likely will continue to place appropriate priority on 
LWCF projects apparently of the nature envisioned by the 
administration.
    The following examples are representative of many projects funded 
since LWCF state assistance was recommenced in fiscal year 2000.
  --Chilkat Bald Eagle Preserve Acquisition, Alaska LWCF: Acquisition 
        of a 115-acre in-holding at Alaska's Chilkat Bald Eagle 
        Preserve. The preserve is a visitor attraction of local, 
        national and international significance. It supports recreation 
        and tourism uses, including eagle viewing, sport fishing, 
        snowmobiling, skiing, hiking, hunting, and photography.
  --Elkhorn Slough Acquisition, Watsonville, Calif.: Acquisition of 559 
        acres within the watershed of Elkhorn Slough, in accordance 
        with the Elkhorn Slough Watershed Conservation Plan, will 
        protect critical riparian, upland, wetland habitats, cultivated 
        farmlands and provide scenic public view-sheds. Elkhorn Slough 
        is an official Scenic Waterway with public recreation that 
        includes kayaking and canoeing.
  --Whistle Path Woods, Provincetown, Massachusetts: LWCF Grant: 
        Acquisition by the Town of Provincetown of 6.8 acres known as 
        Whistle Path Woods located between downtown Provincetown and 
        Cape Cod National Seashore. The property is within a designated 
        Priority Site of Rare Species Habitats and Exemplary Natural 
        Communities.
  --Bastrop State Park, Texas: LWCF Grant: The Texas Parks and Wildlife 
        Department, with LWCF assistance, acquired 1,000 acres of land 
        to expand Bastrop State Park to 3,500 acres. The property 
        provides additional recreation/conservation opportunities, and 
        additional habitat for the endangered Houston Toad.
    In the larger context, about one in 12 projects in the LWCF data 
bank contain some degree of natural area protection. For example, over 
2,050 projects are characterized as wetlands' (302), or floodplain'' 
(1,766). Projects also include natural area' (3,027), ``passive'' areas 
(2,295), and ``hunting'' areas (680). A review of project names 
includes hundreds of references to ``wildlife, natural, habitat, 
conservation, management, gamelands, and preservation.''
    State and Local Use of LWCF State Assistance and Urban Park 
Funds.--State and local governments continue to request, and put to 
appropriate public use, funds appropriated for LWCF state and local 
projects. For fiscal year 2000, LWCF funds ($40 million) are 
essentially all obligated, that is, assigned to specific acquisition or 
development projects that are either completed or in progress. This was 
the first year that funds were made available after a 5-year hiatus. 
Thus, the grant-in-aid management infrastructure in at least some 
states had to be augmented. Fiscal year 2001 LWCF assistance ($90 
million) is about sixty percent obligated against specific projects, 
according to the National Park Service. At the present rate of 
obligation it is reasonable to anticipate that most fiscal year 2001 
funds will be largely obligated within its first full year of 
availability.
    While the President signed the fiscal year 2002 Interior 
appropriations bill (Public Law 107-63) on November 5, 2001, the 
secretarial certification officially apportioning $140 million to the 
governors was not signed until February 1, 2002, with subsequent 
distribution about February 15. Accordingly, there has been 
insufficient time to establish any useful obligation record for these 
funds. Despite a degree of fiscal stress impacting some state and local 
governments as a direct or indirect result of terrorist activities or 
economic conditions there is no information that suggests that our 
recommended LWCF assistance minimum of $200 million and urban parks 
request for not less than $30 million will not be fully utilized.
    Demand for Urban Park and Recreation Recovery Program assistance is 
similarly high as reflected in both the number of requests for 
assistance and the quality and objectives of projects. In fiscal year 
2000 ($2 million available) only 14 projects were selected for 
assistance. In fiscal year 2001 187 local jurisdictions applied ($28.8 
million available) and 95 projects were selected. The application 
deadline for fiscal year 2002 funds was March 29. A national panel will 
recommend potential grantees by May. Approved fiscal year 2001 (and 
fiscal year 2002 proposals) will emphasize the national importance of 
bringing recreation opportunities to children, youth and families in 
distressed environments. Unlike most investments for federal lands that 
exhibit high scenic, ecological or other values UPARR sites are 
typically not esthetically pleasing. Rather, they address a national 
imperative to build or rebuild sustainable, healthy communities through 
recreation and parks. As examples: The renovation of the 68-year old 
Downtown Recreation Center in Charlottesville, Virginia will restore 35 
percent of public recreation services that were lost when health and 
safety factors forced closure of the center in 2000. The facility will 
serve 23 percent of the population. Renovation of Cincinnati, Ohio's 
Hanna Playground and pool will include redesign and redevelopment of 
this strategically located multipurpose community park. It will become 
fully accessible to individuals with disabilities. The restoration and 
upgrading of the Monica Roybal Center in Santa Fe, New Mexico will 
substantially diversify public recreation services available at that 
site.
    Partnerships for Conserving Wildlife Diversity.--The fiscal year 
2002 Interior appropriations act makes $80.5 million available from the 
Land and Water Conservation Fund for wildlife planning and 
conservation. The President requested $60 million for those purposes in 
fiscal year 2003. Fiscal year 2002 funds are available principally to 
state wildlife agencies. While state fish and wildlife agencies have 
been and remain eligible to participants in the LWCF state assistance 
program, too. Accordingly, NRPA strongly prefers that funds be provided 
through the on-going LWCF program. However, if the Subcommittee 
determines that separate funds should be available for wildlife 
conservation activities it should also direct that local and state 
public recreation and park agencies specifically engaged in species 
conservation also have access to funds.
    Local and state park systems are often significant contributors to 
species diversity. Nationwide, over 5,000 local park systems contain 
millions of acres, and hundreds of systems have more than 5,000 acres. 
Many other systems have in excess of 15,000 acres. An estimated 80 to 
85 percent of larger systems are typically undeveloped and thus 
contribute to an array of conservation outcomes. Larger systems also 
provide extensive environmental awareness or experiential education. 
Eligibility of agencies with these resources and programs will 
contribute importantly to wildlife diversity, particularly non-game 
species.
    For further information on this statement contact: Barry Tindall, 
NRPA Director of Public Policy, 202-887-0290.
                                 ______
                                 
           Prepared Statement of Rails-to-Trails Conservancy
    The Rails-to-Trails Conservancy (RTC) strongly supports the 
appropriation of $15 Million in fiscal year 2003 for the Rivers and 
Trails Conservation Assistance (RTCA) Program of the National Park 
Service. Locally owned and operated trails provide recreation and 
conservation close to home for millions of Americans. They supplement 
the nations renowned national park units and provide are a low cost the 
same preservation and enjoyment values. The RTCA is a vital partner 
with RTC in bringing trails to urban and rural communities throughout 
the country. Their work is outstanding and deserves support at the 
levels requested.
                               what we do
    Trails don't just happen. Everything we do at Rails-to-Trails 
Conservancy supports local efforts to transform the dream of a trail 
into a tangible community asset.
    We promote policy at the national and state levels to create the 
conditions that make trail building possible. RTC is a leader in the 
fight to protect the federal Transportation Enhancements program, which 
is the largest source of funding for trail development. We steadfastly 
defend the federal railbanking statute in the Congress and the courts 
as an essential tool to preserve unused rail corridors.
                              our partners
    Organizations are created when people conclude that a shared goal 
can be better accomplished by working together in partnership than 
pursuing it alone as individuals. Likewise, successful organizations 
often join together in ``strategic alliances'' with like-minded groups 
to further their mission. This is certainly true of Rails-to-Trails 
Conservancy. Since our creation in 1986, building partnerships has been 
an essential ingredient in our success. We never could have helped to 
transform thousands of miles of unused rail corridor into trails 
without the partnerships we have forged with our members, our funders 
and our local and national colleagues.
                                  rtca
    As a leading national trails organization, Rails-to-Trails 
Conservancy enjoys productive partnerships with federal agencies with 
responsibility for supporting local trail building efforts. RTCA is one 
of our most important partners.
    In partnerships, RTC and the RTCA bring the benefits of trails to 
hundreds of communities across the country.
                       trail benefits--recreation
    The growing popularity of outdoor recreation activities, such as 
cycling, inline skating, walking and running, combined with the loss of 
community open space, has increased the need for quality recreational 
facilities such as rail-trails.
    Trails provide places for cyclists, hikers, walkers, runners, 
inline skaters, cross-country skiers and physically challenged 
individuals to exercise and experience the many natural and cultural 
wonders of the nation's urban, suburban and rural environments. Rail-
trails not only serve as independent community amenities, they also 
enhance existing recreational resources by linking neighborhoods and 
schools to parks, waterfronts, recreational centers and other 
facilities.
    There is no doubt about the strong link between exercise and good 
health. By providing a place for so many types of recreational use, 
rail-trails can greatly help to improve public health.
                      trail benefits--conservation
    Trails are invaluable tools for conservation and preservation. 
Expanses of land that has rarely seen development, rail-trails provide 
countless Americans reconnection with the natural environment, a 
renewed sense of community, a restored appreciation for historical and 
cultural artifacts and nostalgia for the ``golden age'' of rail 
transportation.
    As tools for ecology and conservation, rail-trails help preserve 
important natural landscapes, provide needed links between fragmented 
habitats and offer tremendous opportunities for protecting plant and 
animal species. They also can be useful tools for wetland preservation 
and improvement of air and water quality. More than just, say, an 
isolated 12-foot-wide patch of sidewalk, a rail-trail can have a much 
larger value as preserver of natural space. When a trail-developing 
organization or agency acquires an abandoned rail corridor, they often 
get a 100-foot-wide linear space to work with that is virtually 
unobstructed by buildings and other man made features aside from the 
rail line itself. The corridor can become a linear habitat or 
``greenway'' that connects wildlife areas isolated by expansive 
development, with only a minimal intrusion by trail users.
    As tools for conservation or preservation of historic and cultural 
resources, rail-trails provide a window into our history and culture by 
connecting people to the past. They often link, provide access to and 
incorporate historic features such as battlefields, bridges, canals, 
historic buildings, and rail depots. Trails play a prominent role in 
the history of America, and rail-trails continue to serve as important 
threads in our social fabric.
                         trail benefits--health
    Rail-trails create healthy recreation and transportation 
opportunities by providing people of all ages with attractive, safe, 
accessible, and no (or low) cost places to cycle, walk, hike, jog or 
skate. In doing so, they make it easier for people to engage in 
physical activity. Trails can help people incorporate exercise into 
their daily routines by connecting people with places they want or need 
to go. In addition, they provide natural, scenic and safe areas that 
make it easy and desirable to be outside and active.
    Most Americans make the connection between exercise and health, but 
many people still lead sedentary lives. There is little argument over 
the fact that exercise reduces the incidence of a myriad of illnesses, 
including heart disease, asthma, diabetes, colon cancer, high blood 
pressure and obesity. Exercise has also been shown to raise self-esteem 
and increase our bodies' energy levels, and more and more studies 
continue to show a connection between exercise and mental well-being.
    Individuals must choose to exercise, but communities can make that 
choice easier. Many people don't exercise regularly because they don't 
have time, or access to convenient outlets for healthy transportation 
and recreation activities. Many communities use trails and greenways as 
tools to help make exercise more convenient. By doing so, they can help 
change bad habits into healthy ones.
                     trail benefits--transportation
    In addition to providing a safe place for people to enjoy 
recreational activities, trails also function as viable transportation 
corridors.
    Trails can be a crucial element to a seamless urban or regional 
multi-modal transportation system. Many areas of the country 
incorporate rail-trails and similar facilities into their transit 
plans, relying upon trail facilities to ``feed'' people in to and out 
of transit stations in a safe and efficient manner. Rail-trails tend to 
be flat and direct, and often connect residential and business-
districts, so many people find rail-trails convenient as a primary 
means of getting safely to and from work, school, shopping areas and 
other destinations.
    Regarding trails as both transportation and recreation facilities 
encourages the melding of recreation and exercise with our daily 
routine, making it easier to stay healthy and fit. According to 
statistics derived from the 1995 National Personal Transportation 
Survey, 43 percent of cycling trips are made for purposes other than 
just recreation (such as work, shopping, school, and personal 
business), and that cycling on an off-road trail facility is generally 
safer than riding on sidewalks or streets without bike lanes. Surveys 
continue to indicate that the more safe facilities are available, the 
more people are willing to use non-motorized transportation for many 
daily trips that would otherwise be made by car. The implications of 
this trend are tremendously positive for public health, the environment 
and the general livability of America's communities. Trails are a key 
element of this expansion of transportation choices.
                     trail benefits--revitalization
    One of the greatest challenges many local governments face is how 
to revitalize urban environments and attract people back to the cities 
from the suburbs (or back to the suburbs from the extended suburbs). 
Trails and greenways are valued for their ability to connect people 
with places and enhance the beauty of urban centers. Multi-use trails 
built on abandoned rail corridors are a key component of the greenway 
systems in many cities, and figure prominently in greenway plans many 
cities are counting on to revive urban cores and improve quality of 
life.
    Cities and towns across America are finding that converting 
abandoned rail corridors is an economically wise choice. Rail-trails 
often bring job growth in construction and maintenance fields, as well 
as in tourism-related areas like bike shops, restaurants and lodging. A 
National Park Service study revealed the total economic impact of a 
trail involves a combination of new trail-related jobs and the 
expansion of existing businesses related to travel, equipment, clothes, 
food, souvenirs and maps. Trails can even have a direct impact on a 
community's ability to attract jobs--many companies seeking to relocate 
or establish a corporate headquarters have cited the availability of 
trails as a significant factor in their decision to choose one locale 
over another.
    Trails increase the natural beauty of communities. They also have 
been shown to bolster property values and make adjacent properties 
easier to sell. More and more real estate advertisements proclaim the 
proximity of the property to a rail-trail, demonstrating that agents 
are recognizing that rail-trails are an asset and key attractor to 
neighborhoods.
             trail benefits--reconnecting people and places
    When thousands of miles of rail corridor were abandoned in recent 
decades, it became a symbol of lost connections--the fraying of 
community--that has been an unfortunate byproduct of modern American 
life. But America has always had a remarkable capacity for self-
healing. And rail-trails can bind communities together as effectively 
as the railroads did before them. Proof of that is found in the 
hundreds of communities now reconnected by unused rail corridors 
transformed into vital community assets.
                          reconnecting places
    Imagine living in a place where you can walk, bike or skate to 
work, school, shops, or to visit friends and family using a seamless 
network of trails that are a natural part of the local transportation 
system. In the 16 years since Rails-to-Trails Conservancy was founded, 
we have worked in partnership with local communities and helped build 
more than 11,655 miles of rail-trail in all 50 states. We also have 
learned that the many benefits of individual rail-trails--recreation, 
transportation, health, conservation, revitalization--are multiplied 
when trails are connected to regional systems of trails and greenways. 
Linking the places where we live, work, learn and play with trails and 
greenways is a crucial element of our nation's efforts to build safer, 
healthier, more livable communities.
                          reconnecting people
    The value of rail-trails in reconnecting America extends far beyond 
linking together destinations on a map. Rail-trails also have a 
remarkable capacity to connect people.
    When the opportunity to build a new rail-trail arises, something 
remarkable often happens to a community. Well-funded public agencies 
that build roads do not exist for creating trails. Instead, 
individuals, state and local government, the private sector and 
community-based groups must unite in the common purpose of improving 
their community. By reconnecting people, the process of trail building 
also becomes a process of community building.
    Opportunities to reconnect people don't stop when a trail is built. 
Trails and greenways reconnect us to our neighbors by creating common 
ground for social interaction. They reconnect us to our families by 
providing safe and healthy recreation areas for children, parents and 
grandparents. Trails reconnect us to nature by giving us access to 
green space for recreation and relaxation. And, with the restoration of 
old railroad trestles and tunnels, we are reconnected to the rich 
period of history when previous generations helped build and connect 
America by rail.
    By reconnecting America with trails and greenways, we create a 
valuable legacy that honors the past, enriches the present and provides 
a precious gift to the future.
    The Rivers and Trails Conservation Assistance Program is a valued 
ally and partner with the Rails-to-Trails Conservancy in providing to 
local communities the technical assistance so vital to bringing these 
benefits of trails close to home for all Americans. RTCA fully deserves 
funding at the $15 million for fiscal year 2003.
                                 ______
                                 
                    United States Geological Survey
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science organization in the world, comprised of more than 40,000 
members, appreciates the opportunity to provide written testimony on 
the fiscal year 2003 budget of $867 million for the U.S. Geological 
Survey (USGS) research programs. The ASM represents scientists who work 
in academic, medical, governmental and industrial institutions 
worldwide and are involved in research to improve human health and the 
environment.
    The USGS supports microbiological research on water contamination 
and quality, climate change, and new and re-emerging wildlife diseases. 
A unique aspect of USGS is its ability to carry out large scale, mufti-
disciplinary studies on a national scale and to sustain long-term 
monitoring and assessment programs of the nation's natural resources. 
USGS programs provide the impartial science that federal, state and 
local governments need in order to respond to rapidly changing 
environmental conditions.
    The USGS's environmental monitoring capabilities also make it the 
lead science provider for accessing information and facts for resolving 
complex natural science problems across the nation and around the 
world. For instance, the USGS is initiating studies in collaboration 
with the Centers for Disease Control and Prevention, to learn the 
current geographic extent of the West Nile virus. This collaboration 
hopes to understand how West Nile moves between birds, mosquitoes, and 
humans, and to predict future movements of the virus in an effort to 
protect human health. The USGS is also cosponsoring with the National 
Institutes of Health and the National Science Foundation research on 
the ecological changes that affect infectious diseases such as 
biodiversity loss, habitat transformation, environmental contamination, 
and climate change. This type of research can only be accomplished with 
USGS's extensive environmental monitoring data and its expertise in 
analyzing complex environmental phenomena.
    The ASM is concerned that the fiscal year 2003 budget request 
proposes cuts that will severely restrict the USGS's ability to provide 
scientific support for the Department of Interior and other agency 
research needs. The proposed cuts result in a decrease of $47 million 
for the USGS, or 5.1 percent, to $867 million for fiscal year 2003. 
Within the USGS budget, the Biological Resources Division (BRD) would 
be cut by 4 percent to $160 million, the Water Resources Division by 14 
percent to $178 million and the Geologic Division by 4 percent to $225 
million. The ASM would like to submit the following comments and 
recommendations for adequate funding levels for research in the Water 
Resources Division and the BRD for fiscal year 2003.
               national water-quality assessment program
    The National Water-Quality Assessment Program (NWQAP) is the 
primary source of long-term, nationwide information on streams, ground 
water, and aquatic ecosystems. Made-up of 42 sites nationwide, the 
NWQAP evaluates water resource quality over the long-term, rather than 
simply assessing known problems or specific geographic areas at a 
particular point in time. These assessments provided critical 
information that is otherwise unavailable, and involves extensive 
collaboration between government, research institutions and other 
partners for responding to local, state, regional, and national efforts 
to protect, improve, and manage water resources.
    The Administration's budget proposes a $57 million budget for the 
NWQAP, a 9 percent reduction from fiscal year 2002. The ASM recommends 
that Congress restore the program's funding to the fiscal year 2002 
level of $64 million.--This level of funding will prevent the proposed 
termination of water quality assessments in 6 of the 42 study units. 
This level of funding will also allow the program to initiate new 
microbial sampling initiatives, designed to identify possible 
bacterial, protozoan and viral threats in the nation's water systems.
    The ASM applauds USGS's leadership in addressing existing and 
future water quality needs through multidisciplinary research teams. 
The ASM urges Congress to support this critical program that plays such 
an important role in public health and safeguarding our water supply 
from unexpected biological hazards.
                   toxic substances hydrology program
    The Toxic Substances Hydrology Program (Toxics) conducts long-term 
research to improve our understanding of the behavior of contaminants 
in the nation's ground and surface waters. The Toxics Program 
complements the water-quality monitoring and assessment programs of the 
U.S. Environmental Protection Agency, the U.S. Department of 
Agriculture, the Department of Defense, the Department of Energy, the 
Nuclear Regulatory Commission, and other DOI agencies by identifying 
new issues and emerging contaminants, and developing the knowledge and 
methods needed to direct their future activities. This collaboration 
ensures that current and future research priorities across federal 
agency obligations are addressed. For instance, the Toxics Program is 
involved in the restoration of the Florida Everglades ecosystem (i.e., 
bioremediation) and the development of new real-time sensors capable of 
detecting biological or chemical contamination.
    The President's budget proposes to eliminate this program in fiscal 
year 2003. The ASM recommends that Congress restore the program's 
funding to the fiscal year 2002 level of $14 million.--The ASM supports 
the focus and mission of this program within the USGS and requests that 
Congress fully support the research program. Furthermore, the ASM 
believes the Toxics Program is a critical component of the nation's 
efforts to combat increasing levels of toxic substances and water-borne 
pathogens in our drinking water supplies.
            state water resources research institute program
    The ASM is concerned that the Administration's budget proposes to 
eliminate this program in fiscal year 2003. The funding level for the 
program in fiscal year 2002 was $6 million. Therefore, the ASM highly 
recommends that the Subcommittee allocate the necessary funds ($6 
million) to keep the SWRRIP program viable. The Water Resources 
Research Act of 1984 established the State Water Resources Research 
Institute Program (SWRRIP) to coordinate State and federal research on 
water quality and water supply problems. This program is also one of 
the federal government's principal mechanisms for training the next-
generation of water scientists and engineers.
                      wildlife disease initiative
    The Wildlife Disease Initiative (WDI) is currently an unfunded 
program within the BRD. The USGS anticipates the cost of the program in 
its first year, which would be fiscal year 2003, to be $10 million. The 
ASM supports this level of funding for the WDI. The WDI would focus 
research on the recent emergence of major diseases affecting wildlife, 
such as, the West Nile virus (WNV), Chronic Wasting Disease (CWD), 
bovine Tuberculosis (TB), and the potential introduction of Foot and 
Mouth Disease. While several of these diseases (TB, CWD, and FMD) can 
have a devastating effect on domestic animals, their potential impact 
upon human health is less understood. The WDI would allow the USGS to 
assist the U.S. Department of Agriculture and the Centers for Disease 
Control and Prevention in bridging this knowledge gap. Such a 
partnership would provide the critical wildlife expertise necessary for 
studying the effects of these emerging diseases on wildlife; improve 
our understanding of wildlife's role as reservoirs; and improve our 
ability to prevent and control outbreaks.
    No other agency has the capabilities or expertise to address 
disease detection, control and prevention in wildlife. Therefore, the 
ASM fully supports this integrative, inter-agency program that combines 
animal and human health as elements of public health. Furthermore, the 
ASM urges the Subcommittee to consider the importance of tracking and 
responding to wildlife diseases, such as, WNV that can move freely 
between animal host and humans.
    Interactions between the environment, its biota and people are 
highly complex and solutions require integrative, multidisciplinary 
approaches and an adequately funded and staffed USGS. The ASM 
encourages Congress to maintain its commitment to U.S. Geological 
Survey research programs, which are vital to continued discovery of 
geological, hydrological, geographical, and biological processes that 
are so important to the well being of the environment and protecting 
public health.
                                 ______
                                 
 Prepared Statement of University Corporation for Atmospheric Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the U.S. Senate 
Committee on Appropriations, Subcommittee on Interior and Related 
Agencies. I would like to comment on the fiscal year 2003 budget 
request for the U.S. Geological Survey (USGS).
    UCAR is a university membership consortium composed of 66 North 
American research universities. Our mission is to support, enhance, and 
extend the capabilities of the university community, nationally and 
internationally; to understand the behavior of the atmosphere and 
related systems and the global environment; and to foster the transfer 
of knowledge and technology for the betterment of life on earth. UCAR 
manages and operates the National Center for Atmospheric Research 
(NCAR) and the UCAR Office of Programs (UOP) and is supported by the 
National Science Foundation (NSF) and other federal agencies. In 
addition to its member universities, UCAR has formal relationships with 
approximately 100 additional undergraduate and graduate schools 
including several historically black and minority-serving institutions 
and 40 international universities and laboratories.
                              introduction
    The U.S. Geological Survey was created by an act of Congress in 
1879 and is, today, the sole science agency for the Department of the 
Interior. With no regulatory mandate, the USGS is able to serve the 
nation as an independent fact-finding agency that collects, monitors, 
analyzes, and provides scientific understanding about natural resource 
conditions, issues, and problems. Its vast earth and biological data 
sets that are used by a broad array of customers in the academic, 
public, and private sectors to help resolve complex natural resource 
problems across the nation and around the world.
    USGS information and data concerning our nation's hydrologic 
systems are of particular importance to the atmospheric sciences 
community for research and research applications addressing the earth's 
water budget, climate change, and precipitation prediction, including 
information on flooding and severe storms. It is essential that the 
scientific community and emergency managers have long term and 
consistent, nationwide hydrologic data sets. Application of these data 
is critical, not only for the safety of our citizens, but because the 
potential threat of weather and climate disruptions is significant to 
our economy. Both the federal government and the private sector 
estimate the impact of weather and climate events to be $2.0 trillion 
of the approximately $10.0 trillion U.S. economy. I would like to 
comment on the following USGS programs that are of vital importance to 
our national hydrologic record:
                     water resources investigations
    Reliable and accurate water data are of paramount importance in 
understanding climate trends and in making daily, critical decisions 
that impact public health and safety. Whether pertaining to droughts, 
floods or water quality, basic hydrologic data collected by the USGS 
are vitally important to water resource planning and the design, 
construction and operation of many projects. As we witnessed last year 
in the Houston area, for example, flooding is obviously a significant 
natural hazard to life, property and the environment, and will become 
even more significant as our population increases. Within Water 
Resources Investigations, two programs in Hydrologic Monitoring, 
Assessments and Research are of vital importance to society; both are 
cut in the Administration's fiscal year 2003 Budget Request as detailed 
below:
National Streamflow Information Program
    The National Streamflow Information Program within Water Resources 
Investigations provides data from 7,000 USGS streamgages on the quality 
and flow of water within the nation's rivers. This information meets 
the needs of many diverse users including the National Weather Service, 
which uses it to produce flood warnings and drought forecasts, and the 
research community which uses the data to study long-term trends. The 
long-term record is necessary for researchers and managers to 
understand climate change and to validly assess regional vulnerability 
to changing water supplies.
    The fiscal year 2003 request for this small, but critical program 
is below the fiscal year 2002 allocation. The $2.1 million proposed 
decrease would necessitate the elimination of approximately 130 
streamgages in operation nationwide. In order to have a comprehensive, 
long-term, viable national record, data coverage and flow must not be 
uninterrupted. An accurate understanding of our nation's water 
resources simply cannot be produced if the observation system is turned 
off and on. I urge the Committee to appropriate fiscal year 2003 
funding for the National Streamflow Information Program at the fiscal 
year 2002 level of $14.31 million, at a minimum, thereby allowing the 
continuation of this vital data collection system at current levels.
Hydrological Networks and Analysis
    The Hydrologic Networks and Analysis program within the Water 
Resources Investigations Program provides extensive data and analytical 
studies on the quantity and quality of water in the nation's aquifers, 
lakes and streams. Again, the long-term record is critical to our 
understanding of climate change and to our ability to validly assess 
regional vulnerability to changing water supplies and water quality. 
Particularly important for water resource protection following the 
events of September 11, this program is a vital component in our 
country's efforts to protect life, property, and the national economy. 
Instead of being expanded as might be called for in these times, the 
fiscal year 2003 request for this program represents a $1.0 million cut 
from fiscal year 2002 levels. I urge the Committee to appropriate 
fiscal year 2003 funding for Hydrological Networks and Analysis at the 
fiscal year 2002 level of $24.88 million, at a minimum, thereby 
allowing the continuation of this vital activity at current levels.
                               conclusion
    At the proposed budget levels, the agency will not be able to hold 
constant, much less expand or modernize, the observing stations that 
are critical for accurate and consistent, national hydrologic data 
sets. Last year Congress rejected proposed cuts to the science programs 
of the USGS. I urge you to demonstrate that support this year, and 
again reject these cuts. Thank you for your attention to the 
recommendations of our community concerning the fiscal year 2003 USGS 
budget.
                                 ______
                                 
    Prepared Statement of the National Council for Science and the 
                              Environment
                                summary
    The National Council for Science and the Environment (NCSE) thanks 
the Senate Appropriations Subcommittee on Interior and Related Agencies 
for the opportunity to provide testimony on the U.S. Geological Survey 
budget request for fiscal year 2003.
    NCSE urges Congress to restore full funding for the U.S. Geological 
Survey at or above fiscal year 2002 levels (after adjusting for 
inflation and changes in employee benefits) and to provide new funding 
to support the agency's critical role in homeland security. Our 
national interests will be served if Congress provides adequate 
resources for the USGS to fulfill its mission of providing unbiased 
scientific information that benefits every citizen.
    NCSE is a nonprofit, nonpartisan organization that has been working 
since 1990 to improve the scientific basis for environmental 
decisionmaking. Our work is endorsed by nearly 500 organizations, 
ranging from the U.S. Chamber of Commerce to the Sierra Club, including 
the National Association of Attorneys General, National Association of 
Counties, some 300 colleges and universities, and more than 80 
scientific and professional societies. As a neutral science-based 
organization, NCSE promotes science and its relationship with 
decisionmaking but does not take positions on environmental issues 
themselves.
    We greatly appreciate the Subcommittee's sustained support for the 
U.S. Geological Survey. NCSE is especially grateful for the 
Subcommittee's leadership in restoring past cuts in the USGS budget.
                federal investments in environmental r&d
    Federal investments in R&D and science education are essential to 
the future well-being and prosperity of the nation and deserve the 
highest priority of the Congress. The long-term prosperity of the 
nation and the maintenance of our quality of life depend on a steady 
and growing commitment of federal resources to science and technology.
    Environmental R&D is a critical component of the nation's R&D 
portfolio and plays a major role in homeland security. Based on NCSE's 
Handbook of Federal Funding for Environmental R&D, we estimate that 
federal funding for environmental R&D in fiscal year 2002 is 
approximately $7.5 billion, an increase of $315 million or 4.4 percent 
relative to fiscal year 2001 (Table 1). Federal funding for 
environmental R&D grew at less than one-third the rate of total R&D, 
which increased by 13.5 percent to $103.7 billion in fiscal year 2002.
    More than 120 business, scientific and environmental leaders as 
well as university and college presidents signed a letter to President 
Bush calling for significantly increased funding for scientific 
programs about the environment at the U.S. Geological Survey, U.S. 
Forest Service, Department of Energy, and other agencies. We encourage 
Congress to support this initiative.
            homeland security and the u.s. geological survey
    The USGS has tremendous strength in areas that are critical to 
homeland security, such as protecting water resources and producing 
digital maps that are needed for assessing terrorist threats and 
responding to terrorist attacks. The significance of USGS research to 
homeland security is reflected by the fact that its report on ``Source-
Area Characteristics of Large Public Surface-Water Supplies in the 
Coterminous United States,'' has been withdrawn from approximately 300 
federal depositories. FBI agents visited several libraries to ensure 
that the document was truly removed from circulation.
    After September 11, the USGS provided more than 100,000 topographic 
maps as well as digital geospatial information and Landsat images to 
emergency response, law enforcement, intelligence, and defense 
agencies. The USGS produces a set of 55,000 topographic maps that 
provides the nation's only comprehensive coverage of the nation's 
infrastructure, including highways, bridges, dams, power plants, 
airports, railroads, and major buildings. The average age of the 
topographic maps is 23 years. The USGS National Map would bring this 
asset into the 21st century. Accelerated investments in the National 
Map--which involves partnerships with federal, state, and local 
agencies and the private sector--will pay dividends to homeland 
security, economic development, natural resource management, and many 
other national needs.
    Unlike many other federal agencies, the USGS did not receive 
supplemental emergency appropriations following September 11 and its 
fiscal year 2003 budget request contains no new funding related to the 
President's top priorities of homeland security and the war on 
terrorism. Some of the largest cuts in the USGS budget request are in 
areas related to homeland security, such as the dispersal of toxic 
substances in lakes, streams, and aquifers. At a time when the Federal 
Government is allocating tens of billions of dollars in emergency 
supplemental appropriations for homeland security, we urge Congress to 
explore the role of the USGS in homeland security and counterterrorism 
and to provide full funding for its responsibilities in these critical 
areas.

                                  TABLE 1.--ENVIRONMENTAL R&D BY FEDERAL AGENCY
                                    [Budget authority in millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                             Environmental R&D               Change from fiscal
                                               --------------------------------------------  year 2001 (percent)
                                                                Fiscal year                ---------------------
                    Agency                     --------------------------------------------      Fiscal year
                                                                                           ---------------------
                                                   2000       2001       2002       2002       2002       2002
                                                  actual    estimate   request    enacted    request    enacted
----------------------------------------------------------------------------------------------------------------
National Aeronautics and Space Admin..........     $1,690     $1,716     $1,515     $1,573      -11.7       -8.3
Department of Energy..........................      1,502      1,774      1,398      1,862      -21.2        5.0
National Science Foundation \1\...............        671        752        829        829       10.2       10.2
Environmental Protection Agency...............        558        609        569        702       -6.5       15.4
Department of Defense.........................        399        450        382        410      -15.1       -9.0
Department of Commerce--NOAA..................        643        726        772        836        6.4       15.3
Department of the Interior....................        618        631        593        673       -6.1        6.5
U.S. Department of Agriculture................        370        410        411        451        0.2        9.9
National Institutes of Health.................         60         63         70         81       11.7       28.4
Department of Transportation..................         37         41         61         71       47.0       72.2
Smithsonian Institution.......................         14         14         14         14        1.4        1.4
Corps of Engineers............................         11         10         11         11        1.4        1.4
                                               -----------------------------------------------------------------
      Total...................................      6,573      7,197      6,624      7,512       -8.0        4.4
----------------------------------------------------------------------------------------------------------------
\1\ NSF Environmental R&D provided by NSF.
Source: AAAS/NCSE estimates of environmental R&D based on enacted appropriations bills, OMB R&D data, Budget of
  the United States Government, agency budget documents, and information from agencies.

       u.s. geological survey budget request for fiscal year 2003
    The National Council for Science and the Environment urges Congress 
to restore full funding for the U.S. Geological Survey at or above 
fiscal year 2002 levels (after adjusting for inflation and changes in 
employee benefits) and to provide new funding to support the agency's 
critical role in homeland security. The President's fiscal year 2003 
budget request for the U.S. Geological Survey (USGS) is $867 million, a 
decrease of $47 million or 5.1 percent relative to fiscal year 2002. 
Maintaining and increasing the USGS budget is especially important in 
light of the events of September 11. Our national interests would be 
served if Congress provides adequate resources for the USGS to fulfill 
its mission of providing unbiased scientific information that benefits 
every citizen.
    At a congressional hearing on March 7, 2002, members of the House 
Appropriations Subcommittee on Interior and Related Agencies expressed 
a strong desire to restore funding for the USGS. Chairman Joe Skeen (R-
NM) said that the ``whole subcommittee'' shared his concern over the 
proposed cuts. Ranking Minority Member Norman Dicks (D-WA) said he was 
``extremely disappointed'' with the proposed cuts and added that 
Congress ``wisely rejected'' cutting the USGS budget last year. NCSE is 
grateful to the Senate and House Appropriations Subcommittee on 
Interior and Related Agencies for their efforts to restore funding for 
the USGS.
    The President's fiscal year 2003 budget request would cut nearly 
every major line item in the USGS's budget. The budget request would 
cut funding for Water Resources by 13.6 percent, Biological Research by 
3.6 percent, Geologic and Mineral Resources by 3.5 percent, and 
Mapping, Remote Sensing and Geographic Investigations by 3.0 percent. 
The proposed cuts would have negative impacts related to homeland 
security; natural hazards mitigation; water, energy, and mineral 
resources; invasive species; the national spatial data infrastructure; 
and other areas.
    Water Resources programs would receive a disproportionate share of 
cuts in the USGS budget request. The budget request calls for cutting 
the Toxic Substances Hydrology Research Program by 28.2 percent from 
$13.9 million to $10.0 million and transferring the funds from the USGS 
to the National Science Foundation for a water quality research grants 
program. The Toxic Substances Hydrology Research Program is integral to 
the success of numerous USGS projects across the United States. In the 
absence of a fully vetted plan that meets the needs served by the Toxic 
Substances Hydrology Research Program, NCSE opposes the proposed budget 
cut and transfer of the program.
    The National Water Quality Assessment Program (NAWQA) would 
decrease by $5.8 million or 9.2 percent to $57.3 million. The decrease 
in funding would terminate activities in several large river basins and 
aquifers. The USGS proposes to ``offset this decrease with funding 
contributions from NAWQA customers and beneficiaries,'' but it is not 
clear if other agencies, especially state agencies, would have the 
funds needed to offset the cuts in the USGS budget.
    The budget request would also cut the National Streamflow 
Information Program by 14.6 percent, which would eliminate funding for 
130 streamgages that are used for predicting floods and droughts, as 
well as other purposes. As in past years, the budget request would 
eliminate all funding for the Water Resources Research Institutes. Full 
funding for USGS water resources programs will help maintain access to 
safe drinking for all Americans.
    Thank you very much for your interest in improving the scientific 
basis for environmental decisionmaking.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences appreciates the 
opportunity to submit this written testimony to the Senate Subcommittee 
on Interior and Relation Agencies Appropriations. AIBS is an umbrella 
organization for 86 scientific societies with a collective membership 
of over 240,000 scientists who studies all facets of the biology of the 
natural world--from basic to applied, from molecular to organismal, 
from agronomy to zoology.
    The agencies, programs, and amounts involved in this request are:
  --U.S. Geological Survey.--We recommend a funding increase of 4 
        percent over fiscal year 2002 and full funding of 
        uncontrollables
    --USGS Biological Resources Division: 4 percent plus 
            uncontrollables
    --Retain the Toxics Hydrology Research Program within the USGS
  --USDA Forest Service, Forest and Rangeland Research.--We recommend 
        an increase of 4 percent over fiscal year 2002, full funding of 
        uncontrollables, and additional increases as are needed to 
        mitigate the Administration's requested re-directs
  --Smithsonian Institution.--We recommend an increase of 4 percent for 
        the research program, and we request language prohibiting the 
        transfer of the Smithsonian Environmental Research Center and 
        the Smithsonian Tropical Research Institute to the National 
        Science Foundation
    United States Geological Survey.--The U.S. Geological Survey is 
facing a proposed decrease of $47 million (5.4 percent) from fiscal 
year 2002. We are opposed to a decrease in the USGS budget. We urge the 
Committee to instead fund a modest increase of 4 percent over fiscal 
year 2002 for USGS, in part because many USGS research programs 
contribute to homeland security, but generally because the USGS 
provides the nation with research vital to the well-being of our 
watersheds, biological diversity, and human health.
    We also oppose:
    The proposed transfer of the Toxic Substances Hydrology Program to 
NSF.--The Toxic Substances Hydrology program focuses on the fate and 
effect of toxic substances. These biogeochemical are critical 
components of biological restoration programs such as those in the 
Everglades and the CALFED Bay Delta. We oppose this proposed transfer 
to the National Science Foundation (NSF), together with the proposed 
decrease from $14 million to $10 million. We of course have great 
respect for NSF, but NSF is not a suitable home for this kind of 
research. At NSF, grant duration is much shorter than the necessary 
duration of a study of the transport and fate of toxic substances and 
there is no assurance that the funds will remain segregated at NSF for 
this research. We would also point out that this kind of research is a 
critical component of homeland security, in that an attack on our water 
supply would, in terms of detection, monitoring, and remediation, be 
based upon the research conducted under this program.
    The reduction in the State Water Resources Research Institutes of 
$6 million, which would eliminate all federal support (a match of one 
Federal dollar for $2 from non-federal sources) for the 54 State Water 
Resources Research Institutes. Studies on key phenomena of ecological 
systems, such as hydrodynamics, salinization, and eutrophication, along 
with research on soil and water microorganisms, plants, and other biota 
typify the interdisciplinary nature of this program. This peer-
reviewed, competitive research program yields high-quality research 
vital to the management of the our most important natural resource.
    The proposed $5.8 million reduction to the National Water Quality 
Assessment Act funding, which will result in the elimination of 6 of 42 
study units, and will result in a decrease in this program's collection 
of data on stream habitat and aquatic life. NWQA monitoring data are 
fundamental to a wide variety of federal and state water quality 
programs.
    The proposed $2.1 million reduction in the National Streamflow 
Information Program.--Streamgaging provides critical information for 
flood alerts, flood management, drought warnings, and water-supply 
planning. There is no justification for a reduction in this program.
    For the USGS Biological Resources Division (BRD), we oppose the 
following cuts:
  --$0.5 million added by Congress in fiscal year 2002 to the BRD's 
        existing amphibian research and monitoring program, which would 
        continue, but at slower pace. The decline of amphibians is an 
        urgent problem; the research should continue as rapidly as 
        possible, especially given that it may be found that the causes 
        for the declines are also a threat to human health or the 
        health of other life on earth. This funding should be regarded 
        as an addition to base.
  --$0.5 million fiscal year 2002 appropriation for ballast water 
        research, which studies ways to prevent the introduction of 
        non-native invasive species through ballast water, would be 
        eliminated. This kind of research is critical for every state 
        with coastal or inland ports. It is far less expensive to 
        prevent and control invasive species than it is to eradicate 
        them once they have become established. We see no valid reason 
        for eliminating this funding; it should be regarded as addition 
        to base.
  --The single largest cut would transfer $2.8 million in fire science 
        research funding to a Wildland Fire Management account in the 
        Bureau of Land Management budget. Placing research funding 
        under the control of a management agency could make it more 
        difficult for the USGS to access funding for the fire research 
        priorities identified by USGS. We would suggest that the 
        Committee include a directive to the Department of the Interior 
        that these funds are to be used only for fire science.
    Two non-research aspects of the USGS budget would affect the 
research program. First, the proposed budget would continue to erode 
programs by absorbing part of the ``uncontrollables'', which consist of 
inflationary costs such as salary increases. For fiscal year 2003, BRD 
is being asked to absorb 54 percent of these costs in its budget for 
Biological Information Management and Delivery. This will obviously 
result in a reduction in the transfer of information to federal land 
and natural resource managers and other users of USGS research. The 
transfer of information is as critical as the generation of 
information. Further, a $214,000 reduction in travel and transportation 
costs will limit the ability of BRD scientists to participate in 
scientific meetings. The ability of USGS scientists to attend 
scientific meetings is already greatly reduced. We ask the subcommittee 
to fully fund USGS uncontrollables and provide an appropriation that 
will allow a reasonable level of participation in scientific meetings 
and other, related travel, by USGS scientists.
    Second, the USGS budget includes a $6 million ($967,000 for BRD) 
reduction for management reform, although the specifics of this reform 
had apparently not been developed at the time of the budget release. 
The management savings apparently entails, in part, the establishment 
of target goals for reduction in staffing. It is not known if the 
staffing reduction effort mandated by the competitive sourcing 
process--a key element of President Bush's management agenda--will 
include research positions. Whether or not research positions will be 
subject to competitive sourcing, the establishment of an a priori 
target suggests that the real goal is actually staff reduction, rather 
than (as claimed) an improvement in performance. It cannot be assumed 
that a program will lose to an outside competitor, so there is no basis 
for setting a target for staff reductions. Further, it is not a genuine 
savings, because all or substantially all of this funding would be 
needed to pay outside contractors. We respectfully ask the Committee to 
reject this reduction.
    We support the continued appropriation for several increases from 
fiscal year 2002, including the $3.4 million allocated for priority 
research for the U.S. Fish and Wildlife Service. Funding increases in 
fiscal year 2002 for the National Biological Information Infrastructure 
and the GAP Analysis program are also retained. We support the 
continued appropriation for these programs.
    Forest Service Forest and Rangeland Research.--The Administration 
has requested $254 million for FS Forest and Rangeland research, a net 
increase of $1.9 million over fiscal year 2002, an increase of under 1 
percent. This will not even cover inflationary costs, so research 
programs will be eroded unless a larger increase is appropriated. 
Moreover, five new initiatives comprise $37.8 million of this funding, 
meaning that $35.9 million (14 percent) of existing research would be 
terminated. We recognize the importance of the work to be done with the 
redirected funds, particularly the forest inventories, but we have 
strong concerns about the likely effects of these redirects. Specific 
reductions in just the Southern and Pacific Northwest research stations 
include termination of 16 research work units, workforce reduction of 
325 full-time permanent employees, closure of the Coweeta Hydrologic 
Laboratory in North Carolina (which is also an NSF-funded Long-term 
Ecological Research site), elimination of three labs that conduct 
research on longleaf pine ecology, management, and restoration, and the 
elimination of another dozen programs in Vegetation Management and 
Research and Wildlife, Fish, Water, and Air Research across the 
country, along with a half-dozen projects in Resource Valuation and Use 
Research. We urge the Committee to increase fund the mandated forest 
inventory and assessment separate and apart from any increase for 
Forest and Rangeland Research, in order to blunt the effect of the 
redirects. We doubt that it was the intent of the Forest and Rangeland 
Renewable Resources Act of 1978 to conduct forest inventories at the 
expense of other valuable forest research.
    We also urge the Committee to increase funding for Forest and 
Rangeland research. In fiscal year 2002, the only increase appropriated 
for this program (4.7 percent) covered inflationary increases. To fund 
the administration's initiatives, apart from the forest inventories, an 
increase of 6.6 percent is needed. Together with a modest increase for 
inflationary expenses, an increase of approximately 10 percent is 
needed to maintain the current level of Forest and Rangeland Research.
    Smithsonian Institution.--Although the Smithsonian's budget request 
shows an increase of $30 million over fiscal year 2002, the research 
programs stand to be cut under the proposed budget. The administration 
is proposing a cut in the research programs to below fiscal year 2001 
levels. Funding for the Smithsonian`s research programs increased by 
only 0.75 percent in fiscal year 2002. A small decrease for collections 
is also proposed. These are programs of national prominence and should 
not be permitted to deteriorate. Moreover, there are likely to be 
additional decreases that have not been allocated to specific parts of 
the Smithsonian budget at this point, because the overall Smithsonian 
budget includes a $12.75 million shortfall that results from a failure 
of the administration to request funding to cover inflationary 
increases (which the Smithsonian calls ``mandatories''). We therefore 
request that the Committee reject these proposed cuts, fully fund the 
mandatory increases, and appropriate a modest increase to the 
Smithsonian research programs.
    In December, the administration considered transferring the 
Smithsonian Environmental Research Center (SERC) and the Smithsonian 
Tropical Research Institute(STRI) to the National Science Foundation. 
Although the administration`s budget request does not, in fact, propose 
these transfers, the administration is apparently still considering 
this option, as evidenced by the language it the budget message: ``An 
outside groups will be appointed to recommend how much of the funds 
directly appropriated to the Smithsonian for scientific research should 
be awarded competitively. Following the review, if appropriate, the 
Administration will submit its request to transfer necessary amounts 
from the Smithsonian to the National Science Foundation. Any 
transferred funds would be available directly to the Smithsonian to 
ease the transition in 2003 and then made available for competition in 
future years.'' We suggest the Administration's justification is not 
supported by the facts. Virtually all of the research funding at SERC 
and 90 percent of STRI's research funding is obtained from competitive 
research programs. The funding derived from appropriations is base 
funding for these research centers, which will have to significantly 
increase overhead rates (currently at an extremely low 28 percent) to 
replace the lost base funding, meaning that there is no savings of 
federal funds. Further, if they are unable to replace a sufficient 
amount of base, the programs will be destabilized and there is likely 
to be a loss of research staff. The Smithsonian researchers are 
certainly among the nation's best and brightest. If federal research 
positions are perceived as unstable career options, researchers of this 
caliber are unlikely to consider federal service as a viable option. 
For STRI, a transfer of the base funding is far more problematic, 
because 90 percent of STRI's base funding is provided by direct federal 
support through the Smithsonian Institutions' budget. We wish to point 
out that STRI--which has trained countless leading biologists and 
ecologists in the United States--is invaluable as a long-term 
ecological research center, as it dates back to 1923. Therefore, STRI 
is of unique value for ecological and biological research. We 
respectfully request that the Committee prohibit the Administration 
from using transferring appropriated funds for these research programs 
to the National Science Foundation.
                                 ______
                                 
               Prepared Statement of the Wildlife Society
    The wildlife society appreciates the opportunity to submit 
testimony on the fiscal year 2003 budget for the U.S.G.S. Biological 
Resources Division (BRD). The Wildlife Society is the association of 
professional wildlife biologists dedicated to responsible wildlife 
stewardship through science and education. The Society is interested in 
all aspects of federal science programs that affect wildlife and 
habitat management.
    The Wildlife Society believes that management of our nation's 
public lands and wildlife resources should be based on the best 
available science. As space and habitats are lost to urban and suburban 
sprawl, agriculture, and as our nation's needs for energy and natural 
resources grow, it is more critical than ever that we maintain a strong 
research agency in biological sciences, to meet the information needs 
of federal and state resource managers. It was with this intent that 
the U.S.G.S. Biological Resources Division was established.
    Since fiscal year 1994, the base level of funding for BRD has 
lagged approximately $36 million behind the rate of inflation, 
preventing BRD from meeting the basic research needs of the natural 
resources community. Assuming a 3 percent annual inflation rate, fiscal 
year 2003 appropriations for BRD would need to be $218 million just to 
be equivalent to 1994 appropriated levels. The Administration's fiscal 
year 2003 budget request for the BRD however is only $160.481 million, 
a decrease of $5.908 million from fiscal year 2002. Thus the 
President's request for BRD is $58 million below 1994 levels in real 
dollars, continuing the reduction in budgetary support for high 
priority national biological research.
    In addition to budget cuts, BRD is proposing to absorb 
approximately $2 million of $3.7 million in ``uncontrollable costs.'' 
This $2 million reduction will result in significant losses in 
operational funds. The Wildlife Society recommends that Congress 
provide an additional $2 million to fully fund uncontrollable costs in 
BRD.
    The Wildlife Society is concerned about the proposed $2.8 million 
reduction in fire science research. This research program focuses not 
only on prescribed fire, fire prevention, and restoration of habitats, 
but also on long-term studies of fire-prone ecosystems and the wildlife 
dependent upon them. It is the intent of USGS to rely on the 
Interagency Fire Science Fund for continuation of this work. We do not 
believe this represents an effective approach for long-term funding, as 
these funds must be negotiated annually. Research of this nature is too 
crucial to the health of our public lands, human safety and property to 
be without stable and predictable funding. The Wildlife Society 
recommends that Congress restore $2.8 million for this effort.
    The Cooperative Fish and Wildlife Research Units (CFWRU) provide 
federal-state-private partnerships, and leverage federal funds for 
important fish and wildlife research. Many state and federal natural 
resource managers depend on the CFWRUs for their science information 
needs. In the mid-1990s, continuing shortfalls in appropriations to 
cover mandated salary increases forced the CFWRUs to leave staff 
positions vacant. A 5-year strategy to fill those critical vacancies 
resulted in full staffing of the CFWRUs in 2002. However, we are now 
facing the second consecutive year of funding shortfalls to cover 
``uncontrollable costs,'' and once again the CFWRUs will be faced with 
loss of critical staff positions. The Wildlife Society recommends 
appropriating an additional $1 million above the President's request 
for fiscal year 2003 for the Cooperative Fish and Wildlife Research 
Units.
    The Wildlife Society is pleased that the President has proposed 
continued funding for the GAP Analysis and the National Biological 
Information Infrastructure (NBII). These joint partnerships with state 
fish and wildlife agencies and others are resulting in the compilation 
of environmental data from a variety of sources into one comprehensive 
database, and are excellent illustrations of the partnering efforts 
intended when BRD was created.
    There are also several emerging issues that require research 
attention and deserve startup funds for pilot studies, in order to 
illustrate the merit in making them primary initiatives in the future. 
These include research in integrated bird conservation to advance the 
North American Bird Conservation Initiative; research on invasive 
species; research on the increasing episodes of wildlife disease 
outbreaks; and monitoring the impacts of accelerated energy development 
on wildlife habitats and migration corridors. To address these critical 
issues, The Wildlife Society recommends that Congress appropriate for 
the BRD $1 million for integrated bird conservation, $1 million for 
invasive species, $1 million for research in wildlife disease, and $2 
million for research on the impacts of accelerated energy development 
on wildlife habitats and migration corridors.
    Finally, for several years there has been discussion about the 
savings projected for fiscal year 2003 as a result of ``organizational 
restructuring and workforce balancing'' in BRD and other USGS 
divisions. The Wildlife Society would applaud any improvements in 
efficiency, but is concerned that resources simply would be shifted 
from one operational program to another, or from operational programs 
to administration or overhead, with no actual improvements resulting 
from the exercise. Since this restructuring may occur by the time the 
2003 budget is enacted, we urge you to determine whether it will result 
in changes to biological research programs, recommend that you instruct 
USGS to report to you and stakeholders on these efforts.
    Thank you for considering the views of wildlife professionals.
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources
    Mr. Chairman: I am Ken Reckhow, President of the National 
Institutes for Water Resources and Director of the North Carolina Water 
Resources Research Institute at North Carolina State University. This 
statement requests the Subcommittee to provide $7,354,000 to the U.S. 
Geological Survey for the state water resources research institutes 
program.
    First, I would like to thank you and this Subcommittee for the 
strong support you have given to the state water resources research 
institutes program in the past. In addition, I want to acknowledge the 
leading role you and your colleagues have played in efforts to ensure 
that the U.S. Geological Survey remains the nation's natural resources 
science agency.
    As you know, Public Law 106-374, passed in 2000, reauthorizes 
appropriations for The Water Resources Research Act through fiscal year 
2005. In passing this reauthorization, Congress recognized that the 
state water resources research institutes are meeting their mission 
objectives as outlined in the Water Resources Research Act.
                                request
    The National Institutes for Water Resources respectfully request 
the addition of $7,354,000 in the U.S. Geological Survey's fiscal year 
2003 budget for the state water resources research institutes program. 
This recommendation is based on the following components:
  --$5,600,000 in base grants for the water resources research 
        institutes as authorized by Section 104(b) of the Water 
        Resources Research Act,
  --$1,500,000 to support activities authorized by section 104(g) of 
        the Act, and
  --$254,000 for program administration.
    This recommendation would provide a $100,000 base grant to support 
the institutions, which are located at land-grant universities in each 
of the states, plus territories. Currently, this base grant is 
approximately $84,000. In addition, it would provide for a modest 
increase in the highly popular competitive grants program.
                             justification
    The events of September 11, 2001, have justifiably turned the 
nation's attention to Homeland Security and reordered many of our 
national priorities. Yet, we must not lose sight of the importance of 
our natural resources--especially our water resources--to national 
security. Both our physical survival and our economic survival depend 
on an adequate supply of high quality water.
    Like September 11, some of the greatest threats to our water 
resources have taken us by surprise. It was a revelation when MTBE 
began turning up in high levels in groundwater across the country. The 
additive was heralded as a protector of air quality, but its mobility 
and persistence in the environment and its ability to spoil the odor 
and taste of our groundwater and perhaps even render groundwater toxic 
was unforeseen. It was a shock when the great hypoxic zone in the 
Northern Gulf of Mexico, caused by nutrient overloading in the 
Mississippi River Basin, manifested itself in decreased shrimp harvests 
and other impacts on fisheries. It was a shock to many when toxic forms 
of algae began despoiling shellfish and attacking finfish in our 
coastal rivers and estuaries.
    Gone unchecked, such unexpected and unintended consequences of 
human activity threaten our security as surely, though not as overtly, 
as purposeful terrorism. How can we hold unintended threats to water 
resources in check? We can try to predict more often and more carefully 
the results of our activities, and we can try to stop the harmful 
processes we have already put into motion. Both require targeted 
research. It is precisely such targeted research that the water 
resources research institute program fosters and supports.
    While threats to water security such are often national in scope 
and are frequently the result of activities that take place far away 
from the people they impact, the effects are always local. MTBE 
contamination may be spread across the country, but its impacts on 
sources of drinking water and water for commercial and industrial uses 
are felt at the community level. It is at the community, the watershed, 
the region, and the state levels that water resources issues must be 
researched and addressed, and that is what water resources research 
institutes do.
    For instance, in my state, North Carolina, there are three distinct 
physiographic regions--the mountains, the piedmont, and the coastal 
plain. Name any water resource issue, and that issue will have a 
different look in each of the three regions. Therefore, research on 
best management practices to control erosion and sedimentation 
pollution of streams in the piedmont, cannot be transferred unmodified 
to the mountain region, where slopes are steeper, weather is wetter, 
and soils are different. To protect the pristine quality of our 
mountain streams--and the tourist business they bring--we at the North 
Carolina WRRI must target research on erosion and sediment control best 
management practices for that growing region.
    Similarly in Washington where restoration of economically valuable 
salmon fisheries is such a major local issue, research on ways to 
restore salmon habitat must be highly region-specific. In locations in 
New Mexico where saline water is more plentiful than freshwater, highly 
site-specific research is needed to take economic advantage of the 
available water resource--as through brackish water aquaculture and 
growth of nutritional marine algae. In Pennsylvania, where Appalachian 
streams have not responded as expected to reduced sulfur emissions, 
research must be highly targeted to understand why the lag has occurred 
and what the consequences might be. In Ohio, where abandoned coal mines 
are leaking acid drainage into surface waters, highly targeted research 
promises a way to seal the mines with a grout made of flue gas 
desulfurization waste that would otherwise go to landfills.
    State water resources research institutes are able to focus 
research on local issues like these because they keep their ears to the 
ground, maintaining close ties to state, regional, and local agencies 
that recognize emerging problems, and because they can marshal local 
research expertise from universities throughout their states.
    Funding for water resources research institutes provides the 
incentive that states and others need to investigate local problems. In 
2001, every dollar appropriated to the state institutes through the 
section 104(b) grants was matched with $21.33 from other sources, 
including $11.73 from state, local, and private sources. An investment 
of $3.5 million by Congress resulted in total revenues to institutes of 
$75.3 million The state institute program does not provide any indirect 
costs to universities, unlike most federal research programs. All of 
the funding goes to support the goals set forth in the Water Resources 
Research Act. In 2001, institutes devoted 61 percent of their total 
funds to research and sponsored 927 research projects across the 
nation.
    The work of the water resources research institutes is not limited 
to identifying local, regional, and state water problems and arranging 
research to address the problems. Once research is completed, 
institutes also see that the results are transferred to people in 
federal, state, and local agencies who will put the results to work. In 
fiscal year 2001, institutes spent about 6 percent of their budgets on 
technology transfer activities, which includes publication of reports; 
presentation of seminars, workshops and conferences; maintenance of 
Internet sites, and one-on-one contact with agency personnel and the 
public.
    Institutes also help support workforce development for agencies 
such as the USGS, the EPA, the USDA Natural Resources Conservation 
Service, and state environmental and conservation agencies by educating 
future water scientists. In fiscal year 2001, state institutes provided 
research support for more than 1,289 undergraduate, graduate, and post-
graduate students.
    Finally, the state institute program, through the 104(g) grants, 
also helps to address critical water resources issues of national and 
regional significance that might not otherwise be investigated. For 
instance, here are some of the emerging issues in our area: As the 
population grows and demands on water resources become heavier, how 
will our ability to reuse water be limited by low-levels of 
pharmaceuticals, insect repellants, anti-microbials, and other 
compounds in wastewater? Can we replenish our reservoirs with highly 
treated effluent or will this practice concentrate drugs and other 
compounds to levels that are health threatening? Will wastewater 
treatment plants need to begin removing pharmaceuticals during the 
treatment process, and if so, how will they do it, and what will be the 
cost? Or consider the explosive growth over the last 2 to 3 years of 
combustion turbine electric generating plants that tend to cluster in 
locations where gas pipelines and high voltage electrical transmission 
lines intersect. Will this development have impacts on regional water 
supplies?
    Very little happens in our society that does not impact water 
resources in one way or another, and impacts are often felt far from 
the activities that cause them. However, many effects of human activity 
on water resources manifest themselves locally before the regional or 
national implications become clear. State water institutes are the 
monitors of emerging water resources problems and the best mechanism 
for addressing these problems.
    The water resources research institute program contributes 
substantially to our country's water resources security. However, our 
ability to address water resources threats is limited by the amount of 
funds available. Since the inception of the Water Resources Research 
Act, funding has decreased roughly 80 percent from the 1970s and 50 
percent from the 1980s. In constant 1996 dollars appropriations have 
plummeted from a high of $45 million in 1975 to less than $5 million 
today. For the past 10 years, appropriations for the state institute 
program have been stagnant.
    Because of the importance of state water institutes to the security 
of our water resources, the National Institutes for Water Resources 
respectfully recommend this Subcommittee provide $7.3 million to the 
U.S. Geological Survey for the state water resources research institute 
program authorized by the Water Resources Research Act.
    In addition to urging support for the state water resources 
research institutes program, I would like to discuss three very 
important water resources programs that have been eliminated or 
curtailed in the fiscal year 2003 USGS budget: the National Streamflow 
Information Program, the National Water Quality Assessment Program, and 
the Toxic Substances Hydrology Program.
    The President's budget proposes a reduction of $2.1 million for the 
National Streamflow Information Program (NSIP). This would result in 
the loss of 129 streamgaging stations across the United States, 
creating more gaps in the nation's gaging network and continuing a 
trend that seriously threatens the nation's information base for water 
management decisions and emergency warning systems. Streamgages are 
used by communities, citizens, state and federal agencies, and 
scientists for a wide variety of purposes, including flood warning 
systems, floodplain management, drought management, water supply 
planning, infrastructure design, recreational planning, and scientific 
research on climate and environmental change. The National Institutes 
for Water Resources urge the Subcommittee to provide $14.3 million the 
NSIP for fiscal year 2003.
    The National Water Quality Assessment Program (NAWQA), which 
describes the status and trends of surface water and groundwater in 
large, representative parts of the nation, and is the only nationally 
consistent source of long-term data on U.S. water quality, provides 
important information on the status of water quality, long-term trends 
in water quality, and natural and human factors influencing these 
trends. As a result, proposed reductions, the NAWQA program would be 
forced to reduce its water quality investigations and would be unable 
to initiate planned microbial sampling designed to identify possible 
bacteria and viruses in surface-water and groundwater resources. The 
National Institutes for Water Resources urge the Subcommittee to 
maintain funding for NAWQA at $63.1 million or greater for fiscal 2003.
    The Toxic Substances Hydrology Program conducts long-term research 
to improve understanding of the behavior of contamination in rivers and 
aquifers. Programs focuses include: the efficacy of natural attenuation 
for groundwater cleanup, watershed assessments of abandoned mine 
impacts, nutrient transport in the Mississippi River basin, mercury 
contamination in the Everglades ecosystem, restoration of the San 
Francisco Bay-Delta ecosystem (CALFED), transport of MTBE and 
radioactive water in groundwater, and security issues related to the 
development of sensors for detecting toxic spills or intentional acts 
of contamination that threaten water supplies. The budget proposes to 
eliminate funding for the program and to transfer its mission 
responsibilities to the National Science Foundation (NSF). As water 
science professionals the water institute directors believe that it is 
far more desirable to retain the existing USGS program and maintain 
current funding level of $13.9 million.
    Thank you.
                                 ______
                                 
     Prepared Statement of the Weston Observatory of Boston College
    Mr. Chairman and members of the Subcommittee, I am most 
appreciative for this opportunity to submit testimony on behalf of the 
Weston Observatory of Boston College in support of the National 
Earthquake Hazard Reduction Program (NEHRP) and the Advanced National 
Seismic System (ANSS). These programs are vital for efforts in the 
northeastern United States to mitigate the damaging effects of future 
earthquakes in the region. It is my recommendation that the U.S. 
Geological Survey (USGS) appropriation for fiscal year 2003 be $75.7 
million. Of this $45.0 million should be appropriated for the base 
NEHRP program, while $33.7 million should be appropriated for ANSS. The 
former amount allows the NEHRP program to continue activities at 
current levels, while the latter amount is needed for the ANSS to make 
a real step forward toward its goals of modernizing earthquake 
monitoring in the United States and providing fast and accurate 
information for earthquake hazards mitigation. Of the $33.7 million for 
ANSS, I urge that $475 thousand be targeted for upgrades of seismic 
stations in New England and the development of a rapid seismic 
information system in the region. Such funding is necessary if Weston 
Observatory is to meet the expectations of emergency response officials 
and the general public for rapid, accurate and detailed information 
concerning earthquakes in the New England region and surrounding areas.
    As the Director of Weston Observatory and a Professor of Geophysics 
at Boston College, I oversee Weston Observatory's program to study the 
causes and effects of earthquakes in the northeastern United States, to 
quantify the seismic hazard in the region, to predict the probabilities 
and consequences of future earthquakes, and to promote earthquake 
hazard mitigation measures throughout the six New England states and 
beyond. The primary support for this vital work in natural hazards 
study and reduction comes from NEHRP funding through the USGS. I 
strongly urge you to continue this program and to expand its scope 
through increased funding for NEHRP and the ANSS.
               earthquake monitoring needs in new england
    Weston Observatory of Boston College has been engaged in monitoring 
earthquakes in New England and vicinity for over 70 years. Since 1975, 
Weston Observatory has operated a regional network of earthquake 
monitoring stations throughout New England for the purpose of 
detecting, accurately locating and measuring magnitudes of all 
earthquakes in the region. At its height in the early 1980s, this 
network consisted of 36 seismic stations. Today, the Weston Observatory 
network consists of 12 seismic stations with at least one station in 
each of the six New England states. This regional network, combined 
with other data from about a half-dozen other seismic stations in New 
England, provides the primary data for earthquake monitoring in this 
heavily populated and economically important region of our country.
    The expectations from earthquake monitoring in the northeastern 
United States are high. In March 2001 a workshop in Hartford, CT was 
held for public officials, scientists, engineers, and representatives 
of private industry to get their input for future earthquake monitoring 
activities in the northeastern United States. Another workshop on the 
same topic was held for earthquake engineers at Weston Observatory in 
May 2001. At both of these workshops, the participants were polled 
concerning what they viewed to be the most important earthquake hazard 
mitigation needs in the northeast region of our country. The groups 
gave the highest priorities to the continued acquisition of earthquake 
data in the region, date concerning both the small earthquakes that 
occur regularly and the strong ground motions generated by the rarer, 
larger earthquakes. Also rated as a very high priority was the rapid 
dissemination of information concerning the location, magnitude, damage 
and felt effects of all earthquakes in the region. The full poll 
results from these two workshops can be found under the links called 
``survey'' at the ANSS-Northeast Region web site http://
www.ldeo.columbia.edu/ANSS-NE/.
    Current levels for earthquake monitoring in the northeastern United 
States are inadequate to meet these priorities specified by the 
stakeholders in the region. For example, in 2001 Weston Observatory 
received the same amount of funding for earthquake monitoring as it 
received in 1981. In 1981, Weston Observatory supported three full-time 
staff members and several students for this work. Today, earthquake 
monitoring in New England at Weston Observatory is carried out by a 
part-time seismologist (one day a week) along with an engineer to keep 
everything running, and no students are involved. Today, the complexity 
of operating and using a modern, digital seismic network is 
dramatically increased over that from 20 years ago, and the 
expectations by our stakeholders for rapid earthquake information are 
much higher now. Unfortunately, Weston Observatory is no faster at 
locating earthquakes than it was 20 years ago, simply because there has 
not yet been the investment in developing better and faster earthquake 
monitoring systems for the region. ANSS is needed to provide the extra 
funding for the required new seismic systems for New England, but this 
can only happen if there is a great increase in ANSS appropriations 
over those of the last 2 years. To date, ANSS funding has provided one 
new seismic station in New England, a welcome addition but a far cry 
from what is really needed. Let me also point out that the shortcomings 
at Weston Observatory are also faced by many other regional earthquake 
monitoring centers throughout the country.
 reducing earthquake hazard and risk in the northeastern united states
    People are becoming increasingly aware of the threat of earthquakes 
in the northeastern United States. The population is no longer 
surprised when small earthquakes are felt in the region, and the 
possibility of strong earthquakes in the region is generally 
acknowledged. An example of this is the widespread interest in a new 
map released by the USGS last year. The map is entitled ``Earthquakes 
In and Near the Northeastern United States, 1638-1998'' and is an 
attractive and informative summary of the earthquakes and earthquake 
history of the northeast. Many people understand that the probability 
of a damaging earthquake in the region is much lower than in California 
but that the probability of such an earthquake is not insignificant. 
The increased awareness of the earthquake threat in the northeast has 
stimulated the adoption of new and better earthquake provisions in 
building codes and many public agencies and private firms to include 
earthquakes in their natural hazard mitigation planning. In my opinion, 
this increased awareness in the region is a major success of past and 
current NEHRP work.
    The public need for rapid and accurate earthquake information, even 
for small earthquakes, is extremely great. For example, on October 27, 
2001 there was a small (magnitude 2.6) earthquake that was felt late at 
night in New York City. Coming just over a month after the World Trade 
Center disaster, there was a great deal of concern and confusion about 
what caused the shaking that was felt. It took a couple of hours before 
seismologists in the region were able to confirm that a small 
earthquake had occurred under the city. While New Yorkers were relieved 
that there had not been another terrorist attack, many were concerned 
because this was the second felt earthquake under New York City in less 
than a year. For government agencies that must make instant decisions 
about whether or not to deploy emergency personnel (and where), it is 
vital that accurate verification of an earthquake along with its 
epicenter and magnitude be available within minutes after an event 
occurs. This is not now possible, but it is one of the primary goals of 
the ANSS system in the northeastern part of our country.
    Increased funding for the ANSS in the northeast may also help 
scientists give better information about the possibilities of future 
earthquakes. New research at Weston Observatory indicates that felt 
earthquakes in the northeastern United States tend to cluster in time. 
When one felt earthquake of magnitude 2.7 or greater occurs somewhere 
in the region, there appears to be an enhanced chance that another felt 
earthquake will occur in New England and vicinity during the next 7 
days. Weston Observatory is now routinely updating felt earthquake 
probabilities for New England on its web page http://www.bc.edu/
bc__org/avp/cas/wesobs/probability/earthquake__prob.html. While not an 
earthquake prediction, this type of information does give residents in 
the region an idea of when earthquakes are more likely to occur. 
Automated processing of earthquake information coupled with 
identification of times of enhanced earthquake potential will help 
people better prepare for the potential of future earthquakes since 
they will know the times when earthquakes are more likely to occur.
   the benefits of increased anss funding in the northeastern united 
                                 states
    Increased NEHRP and ANSS funding in fiscal year 2003 is necessary 
if Weston Observatory is to meet the expectations of the stakeholders 
in New England and to fulfill the goals of the ANSS as outlined in USGS 
Circular 1188. Here are some of the products that would be developed at 
Weston Observatory with additional ANSS funding:
  --A system for the rapid identification, location and magnitude of 
        all earthquakes in New England and vicinity.--While such 
        systems already operate in other parts the United States, they 
        cannot be transported without change and testing to New 
        England. The changes are needed because of the widespread 
        nature of both the seismic stations and the earthquakes in the 
        region. Also, earthquake waves from local earthquakes often 
        look somewhat different on seismic stations in New England than 
        seismic waves from California earthquakes on their local 
        seismic stations. Thus, automated earthquake location and 
        magnitude systems that work well in California must be tuned 
        and tested to work well in New England. It is our goal at 
        Weston Observatory to put into place an automated system that 
        can detect, identify, locate and assign the magnitude to all 
        earthquakes in the region, within a few minutes of when those 
        earthquakes occur. Such a system would also be useful to 
        emergency management officials for cases where ground shaking 
        is caused by something other than an earthquake.
  --A system for the rapid estimate of earthquake ground shaking and 
        potential earthquake damage in New England and vicinity.--In 
        California, such a system has already been developed. It is 
        called ShakeMap, and it generates a map of estimated ground 
        shaking within several minutes of when an earthquake occurs. It 
        is the Weston Observatory goal to develop a ShakeMap system for 
        the New England region. If coupled with an automated earthquake 
        location and magnitude determination, an automated New England 
        ShakeMap system could alert emergency responders about which 
        areas may have been damaged when an earthquake in the region 
        occurs.
  --A system for the rapid dissemination of earthquake information.--
        The two items above will only be useful to government officials 
        and the general public if the information they produce is 
        widely disseminated as soon as possible after an event. There 
        are a large number of states in the region (six in New England 
        plus New York, New Jersey, Pennsylvania, Maryland and 
        Delaware), and earthquakes in the region can affect areas in 
        Canada as well as in the United States. In fact, it is likely 
        that a strong earthquake centered in New England would 
        simultaneously affect all of these areas in one way or another 
        simultaneously. Thus, a rapid earthquake information 
        dissemination system in the northeast must be capable of 
        delivering its information in a coherent manner to a multitude 
        of agencies and organizations. Because of the large number of 
        entities involved, the development and testing of such a system 
        in the northeast region requires adequate resources and time 
        not currently available.
  --An automated system for estimating the probabilities of future 
        earthquakes.--There are two aspects to this. The first is the 
        estimation of earthquake probabilities after a significant 
        earthquake occurs. All strong earthquakes, including those in 
        the northeastern United States, are followed by aftershocks. 
        Each aftershock itself is an individual earthquake, and while 
        most aftershocks are small, some can be large enough that they 
        can cause additional damage, especially to weakened structures. 
        It is possible to develop a system that makes estimates of the 
        probabilities of strong aftershocks following a damaging 
        earthquake. This is one product that the ANSS system in the 
        northeastern United States can produce. The other aspect is the 
        rapid assessment of the probability of a second felt earthquake 
        in New England within a week or so following a felt earthquake 
        in the region. While such a system is currently in place, it is 
        not yet automated. An automated system would better warn the 
        public about times and places where earthquakes might be more 
        likely to occur.
    As always, it is important to remember that these new products of 
ANSS funding would serve two purposes. First, they would provide 
immediate information to decision-makers at times when they need it 
most. Second, they would serve as important education and outreach 
items. It is becoming increasingly clear that the public is looking for 
web-based information about important events as soon as possible when 
they occur. Putting out all of the proposed automated earthquake 
information on web pages with links from familiar web sites like those 
of Weston Observatory and of the USGS National Earthquake Information 
Center would help educate the public about earthquake hazard and 
motivate them to take actions to minimize the potential losses from 
future earthquakes.
                                 ______
                                 
                      Minerals Management Service
             Prepared Statement of Florida State University
    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for the opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University (FSU).
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research and top quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities and have a 
strong commitment to public service. Among the faculty are numerous 
recipients of national and international honors, including Nobel 
laureates, Pulitzer Prize winners as well as several members of the 
National Academy of Sciences. Our scientists and engineers do excellent 
research, have strong interdisciplinary interests, and often work 
closely with industrial partners in the commercialization of the 
results of their research. Having been designated as a Carnegie 
Research I University several years ago, Florida State University will 
approach $150 million this year in research awards.
    FSU has initiated a new medical school, the first in the United 
States in over two decades. Our emphasis is on training students to 
become primary care physicians, with a particular focus on geriatric 
medicine--consistent with the demographics of our state.
    Florida State attracts students from every county in Florida, every 
state in the nation, and more than 100 foreign countries. The 
University is committed to high admission standards that ensure quality 
in its student body, which currently includes some 345 National Merit 
and National Achievement Scholars, as well as students with superior 
creative talent. We consistently rank in the top 25 among U.S. colleges 
and universities in attracting National Merit Scholars to our campus.
     At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the nation's top public 
universities.
    Mr. Chairman, let me tell you about a project we are pursuing this 
year involving an institute to address Florida Coastal Marine issues.
    A Memorandum of Agreement has been signed between the Department of 
Interior's Minerals Management Service (MMS), the Florida Department of 
Environmental Protection (DEP), and Florida State University (FSU) to 
create the Florida Coastal Marine Institute. The Institute, located at 
FSU, will develop and fund projects with MMS funds based upon the MOA 
with MMS. The goals of the Florida Coastal Marine Institute are to 
support high-quality research and training activities in coastal areas 
with particular emphasis on sand and gravel resources in the coastal 
and marine waters adjacent to Florida. The FSU Coastal Marine Institute 
will augment the pool of researchers capable of addressing current and 
future marine science information needs. In addition to project 
support, funding will be used to support FSU graduate student and post-
doctoral students in activities related to coast issues and research 
problems. Support will be matched by state funding and will be utilized 
to provide a data repository at FSU for such coastal and environmental 
data.
    In fiscal year 2003, FSU is seeking $750,000 to initiate and fund 
this activity through the Department of Interior's Minerals Management 
Service. Matching funds from state or private sources will match the 
MMS funding on a dollar-for-dollar basis.
    Mr. Chairman, this is a very worthwhile effort that will yield 
great rewards and is just one of the many ways that Florida State 
University is making important contributions to solving some key 
problems and concerns our nation faces today. Your support for this MMS 
activity would be appreciated, and, again, thank you for an opportunity 
to present these views for your consideration.
                                 ______
                                 
         Office of Surface Mining Reclamation and Enforecement
     Prepared Statement of the Interstate Mining Compact Commission
    My name is Gregory E. Conrad and I am Executive Director of the 
Interstate Mining Compact Commission. I appreciate the opportunity to 
present this statement to the Subcommittee regarding the views of the 
Compact's member states concerning the fiscal year 2003 Budget Request 
for the Office of Surface Mining (OSM) within the U.S. Department of 
the Interior. In its proposed budget, OSM is requesting $57.6 million 
to fund Title V grants to states and Indian tribes for the 
implementation of their regulatory programs and $126.5 million for 
state and tribal Title IV abandoned mine land (AML) program grants. Our 
statement will address both of these budgeted items.
    The Compact is comprised of 20 states that together produce some 60 
percent of the Nation's coal as well as important noncoal minerals. 
Participation in the Compact is gained through the enactment of 
legislation by the member states authorizing their entry into the 
Compact and they are represented by their respective Governors who 
serve as Commissioners. The Compact's purposes are to advance the 
protection and restoration of land, water and other resources affected 
by mining through the encouragement of programs in each of the party 
states that will achieve comparable results in protecting, conserving 
and improving the usefulness of natural resources and to assist in 
achieving and maintaining an efficient, productive and economically 
viable mining industry.
    Over the past several years, the Commission has alerted the 
Subcommittee to a potentially debilitating trend in Title V grant 
funding. As you know, these grants support the implementation of state 
regulatory programs under the Surface Mining Control and Reclamation 
Act (SMCRA) and as such are essential to the full and effective 
operation of those programs. Ever since fiscal year 1995, the 
appropriation for these grants has either decreased or remained 
stagnant. Following an encouraging increase by Congress in fiscal year 
2001, OSM has failed to provide any increase for Title V grants for 
fiscal year 2003, despite the states' projected need for additional 
moneys to meet actual program expenses. In fact, OSM's fiscal year 2003 
budget request decreases available money for state Title V grants by $1 
million.
    Each year, OSM requests and receives increases in its own budget to 
meet ``uncontrollable costs'' (such as workers' compensation, 
unemployment compensation, retirement costs and pay rate increases) and 
``fixed overhead costs''. In estimating its projected program operating 
costs, the states face these same annual increases, in addition to the 
costs associated with the escalating cost of travel and replacement of 
equipment (especially vehicles and computers). And yet, a trend has 
emerged over recent federal fiscal years where states have received no 
significant increases in the grants that are intended to support their 
programs and address inflationary concerns, with the notable exception 
of fiscal year 2001 when the states received a much-needed and well 
justified $3 million increase over OSM's proposed amount.
    For fiscal year 2003, the states (and tribes) have projected a need 
for $61.3 million for Title V grants based on a new and improved budget 
forecasting methodology. Interestingly, this forecasted amount is $1 
million less than last fiscal year's forecasted amount, which 
demonstrates the states' efforts to hold the line and to budget 
frugally and responsibly. And yet we are repaid for our efforts with an 
OSM proposal that provides for a decrease in Title V grants in fiscal 
year 2003.\1\ This is very discouraging and reflects either a lack of 
appreciation for the states' Title V funding needs or a 
misunderstanding of the Title V dilemma facing the states, and 
ultimately, OSM.
---------------------------------------------------------------------------
    \1\ Although OSM's fiscal year 2003 budget proposes an amount of 
$57.6 million for state Title V grants, $2 million of this total has 
been specifically earmarked for the West Virginia program, leaving 
$55.6 million to allocate among all of the states and tribes (including 
West Virginia's baseline regulatory grant amount). See page 12 in the 
``Introduction'' and page 18 in the ``Environmental Protection'' 
portions of OSM's Budget Justification Document.
---------------------------------------------------------------------------
    It is essential that the states be made whole in fiscal year 2003 
and thus we are requesting Congress to appropriate the full amount 
requested by the states and tribes of $61.3 million. If not, the 
consequences of further reductions will be immediate and far-reaching 
and will result in the classic ``SMCRA Catch-22'' situation: where 
there is inadequate funding to support state programs, some states will 
be faced with either turning all or portions of their programs back to 
OSM or, in other cases, will face lawsuits from environmental groups 
for failing to fulfill mandatory duties in an effective manner, not 
unlike the present situation in West Virginia and what previously 
occurred in Kentucky and Oklahoma. Of course, where a state does, in 
fact, turn all or part of its Title V program over to OSM (or if OSM 
forces this issue based on an OSM determination of ineffective state 
program implementation), the state would be ineligible for Title IV 
funds to reclaim abandoned mine lands. This would be the height of 
irony, since the states have recently worked diligently to convince the 
Interior Department, OMB and Congress about the need to increase 
funding for state Title IV AML work.
    OSM's own Budget Justification Document acknowledges the likely 
outcome should states not receive adequate funding:

    ``Primacy States have the most direct and critical responsibilities 
for conducting regulatory operations. The States have the unique 
capabilities and knowledge to regulate the lands within their borders. 
Providing a 50 percent match of Federal funds to primacy States in the 
form of Administration and Enforcement (A & E) Grants results in the 
highest benefit and the lowest cost to the Federal Government. If any 
State relinquished primacy, OSM would have to hire sufficient numbers 
and types of Federal employees to implement the program. The cost to 
the Federal Government would be significantly higher.'' [OSM Budget 
Justification Document, ``Environmental Protection'', page 6.]

    Should the Subcommittee desire more specific information regarding 
the types of typical impacts to state programs across the Nation if 
adequate funding is not provided for state regulatory program 
implementation, please do not hesitate to contact us. Suffice it to say 
that should the proposed reductions come to pass, one of the more 
distressing outcomes resulting from inadequate Title V grant funding is 
that it will pit the states and OSM against one another as they compete 
for limited funds. Given the commitment of the states to their 
respective regulatory programs, and their role as front-line regulatory 
authorities under SMCRA, it is difficult for the states not to urge 
full funding of their programs. We believe that there should be a way 
for Congress to fund both OSM and the states, thereby assuring that the 
mandates of SMCRA are met.
    For years now, we have tried to impress upon OSM and your 
Subcommittee the value and importance of the states' estimates of 
program costs and the necessity of meeting the states' funding needs. 
Under OSM's proposed fiscal year 2003 budget, it will require all of 
the states' fiscal ingenuity and belt-tightening efforts, together with 
some difficult trade-offs, to manage our programs and resources in such 
a way that we can achieve the same level of performance that has been 
expected from us in the past. We are especially concerned about the 
impacts of this funding crisis on OSM's evaluation of state programs 
pursuant to federal oversight. How ironic it would be for the states to 
receive something less than the high marks we have consistently 
received from OSM due to reduced grant funding.
    With regard to funding for state Title IV Abandoned Mine Land (AML) 
program grants, OSM's proposed decrease of $17 million from last year's 
amount of $144 million for non-Clean Streams/non-emergency state grants 
is very disheartening. For 3 years now, OSM has been working with the 
states and Congress toward full funding for the AML program, whereby 
the amount of receipts paid into the Fund from reclamation fees by coal 
operators each year is appropriated and then allocated to the states 
and tribes to address the myriad problems remaining in the AML 
inventory. Last year we saw the President's budget propose a $34 
million reduction for state AML grants, which Congress ultimately (and 
thankfully) restored. This year, we see a continued attempt (albeit 
less drastic) to reverse the trend once again--without justification or 
rational explanation. While we are well aware of the Administration's 
efforts to reduce the overall budget by some percentage in order to 
meet other priorities related to Homeland Security and the War on 
Terrorism, this is not the time or place to exercise such reductions 
and back track on the promise to provide adequate funding to the states 
to address AML problems.
    As the states recently reiterated to Congressional staff, OSM and 
OMB, significant progress has been made by the states in remediating 
outstanding AML problems and sites. As of September 30, 2001, the 
states have obligated 94 percent of all funds received and $1.3 billion 
worth of priority 1 and 2 problems have been reclaimed. Another $319 
million worth of priority 3 problems have been funded or completed and 
$309 million worth of noncoal problems have been funded or reclaimed. 
Of the $3.2 billion provided to the states in Title IV grant moneys, 
$2.4 billion has been used for construction or project costs and only 
an average of 15 percent of Title IV moneys were spent on 
administrative costs. However, 45 percent of priority 1 and 2 sites in 
the AML inventory remain to be reclaimed and the cost of completing 
this reclamation now approaches $6.4 billion. We would be pleased to 
present the Subcommittee with more information and analysis regarding 
these figures.
    Suffice it to say that major AML problems remain to be addressed 
and are only getting more expensive, and in some cases more extensive, 
with the passage of time due to inflation, deterioration of the sites 
and urban sprawl. The health and safety of the public is also 
increasingly at risk. It is absolutely critical to release additional 
moneys from the AML Trust Fund now in order to allow the states to 
address these problems today. The states are prepared to deliver the 
expected benefits and services to our customers under the Title IV AML 
program in a cost-effective and efficient manner and welcome the new 
opportunities presented by increased AML funding. The inventory of 
existing AML problems clearly presents the states with a challenge to 
direct whatever AML grant moneys are available to the remediation of 
these remaining problems. The states welcome that challenge and stand 
ready to proceed expeditiously as moneys continue to be allocated from 
the Trust Fund. We urge the Subcommittee to continue its commitment to 
full funding for the AML program and to increase OSM's budget by $37 
million--a $20 million increase for state Title IV (non-Clean Streams/
non-emergency) grants over last years's amount of $144 million, for a 
total of $164 million for state/tribal grants in fiscal year 2003. This 
amount would allow ``minimum program'' states to be funded at $2 
million, the authorized allocation level established by Congress for 
these states in 1990, which we again urge the Subcommittee to restore. 
Given the fact that receipts into the AML Fund this year should average 
$285 million (exclusive of interest), we believe the suggested increase 
is a modest and appropriate one, and is clearly justified given the 
amount of AML work remaining to be done.
    We also urge the Subcommittee to support adequate funding for OSM's 
training program, including moneys for state travel. These programs are 
central to the effective implementation of state regulatory programs as 
they provide necessary training and continuing education for state 
agency personnel. Additionally, the states are key players in OSM's 
training program, providing instructors for many of the courses. IMCC 
also urges the Subcommittee to support adequate funding for TIPS and 
SOAP, two programs that directly benefit the states by providing needed 
upgrades to computer software and hardware and assistance to small 
operators in permit preparation.
    Finally, IMCC requests continuing support for the Acid Draining 
Technology Initiative (ADTI), a nationwide technology development 
program with a guiding principle of building consensus among Federal 
and State regulatory agencies, universities and the coal industry to 
predict and remediate acid drainage from active and inactive coal and 
metal mines. This collaborative effort receives funding and other 
support from industry and several federal agencies for specific 
projects. OSM has provided ADTI $200,000 for the last three fiscal 
years, which has been a consistent source of funding for activities 
related to acid mine drainage from coal mines and has been instrumental 
in accomplishing ADTI's goals. If each of the Interior Department 
agencies involved (OSM, BLM, and USGS) could commit $200,000 toward 
ADTI, together with other federal agencies (such as EPA, DOE and the 
Corps of Engineers), about $1 million would be available to support the 
work of this vital initiative.
    In conclusion, we want to reiterate that adequate Title V grants 
are the lifeblood of effective state regulatory programs. Should states 
be unable to operate these programs due to funding constraints, the 
federal government will be faced with the burden of operating 
regulatory programs at a substantially increased cost (generally 30 to 
50 percent more). Further, without Title V programs in place, states 
are unable to access Title IV funds. In the final analysis, it behooves 
everyone--OSM, the Congress and the states--to commit the resources 
necessary to assure strong and effective state programs that will 
achieve the purposes and objectives of SMCRA, thereby protecting the 
environment where active mining operations occur and enhancing the 
environment through remediation of past problems associated with 
abandoned mines.
                                 ______
                                 
                        Bureau of Indian Affairs
        Prepared Statement of the Tribal Law & Policy Institute
    On behalf of the Tribal Law & Policy Institute (TLPI) I am pleased 
to submit this testimony on the fiscal year 2003 Appropriations for 
Interior Department funding of the Indian Tribal Justice Act (Public 
Law 103-176) and Tribal Courts (under the Tribal Priority Allocations).
    The Tribal Law & Policy Institute (see http://www.tri,bal-
institute.org) is an Indian owned and operated non-profit corporation 
organized to design and deliver education, research, training, and 
technical assistance programs which promote the improvement of justice 
in Indian country and the health, well-being, and culture of Native 
peoples. The Tribal Law & Policy Institute (TLPI) seeks to facilitate 
systemic change for tribal court systems while operating with minimal 
staff and overhead costs. TLPI focuses upon collaborative programs that 
provide critical resources for tribal court systems, victims assistance 
programs, and others involved in promoting the improvement of justice 
in Indian country.
                      interior department funding
Indian Tribal Justice Act and Tribal Court Funding
    (1) +$58.4 million. Full Funding for Indian Tribal Justice Act: 
TLPI strongly supports full funding ($58.4 million) for the Indian 
Tribal Justice Act (Public Law 103-176). On December 21, 2000, the 
106th Congress re-affirmed the Congressional commitment to provide this 
increased funding for tribal justice systems when it reauthorized the 
Indian Tribal Justice Act for 7 more years of funding at a level of 
$58.4 million per year (see Public Law 106-559, section 202). TLPI 
strongly supports FULL FUNDING of the Indian Tribal Justice Act as 
promised in 1993. TLPI supports funding at a much higher rate since the 
number of tribal courts and their needs have substantially increased 
since the Act was made law in 1993--nearly 10 years ago.
    (2) Tribal Courts--at least $15 million (under the Tribal Priority 
Allocations Account): TLPI strongly supports increased funding for 
Tribal Courts to a level of at least $15 million under the Tribal 
Priority Allocations (TPA). This minimal increase represents only a 
minimal first step towards meeting the vital needs of tribal justice 
systems. It is important to note that funding has steadily decreased 
since the passage of the Indian Tribal Justice Act. The needs (as 
recognized by Congress in the enactment of Public Law 103-176 and re-
affirmed with the enactment of Public Law 106-559), however, have only 
been compounded with the passage of time, the increase in tribal 
courts, the increase of caseloads, population growth, and rise in crime 
rate in Indian country.
    Native American tribal courts must deal with a wide range of 
difficult criminal and civil justice problems on a daily basis, 
including the following:
  --While the crime rate, especially the violent crime rate, has been 
        declining nationally, it has increased substantially in Indian 
        Country. Tribal court systems are grossly under-funded to deal 
        with these criminal justice problems.
  --Number/complexity of tribal civil caseloads have also been rapidly 
        expanding.
  --Congress recognized this need when it enacted the Indian Tribal 
        Justice Act--specifically finding that ``tribal justice systems 
        are an essential part of tribal governments and serve as 
        important forums for ensuring public health and safety and the 
        political integrity of tribal governments'' and ``tribal 
        justice systems are inadequately funded, and the lack of 
        adequate. funding impairs their operation.''
  --While the Indian Tribal Justice Act promised $58.4 million per year 
        in additional funding for tribal court systems starting in 
        fiscal year 1994, tribal courts have yet to see ANY funding 
        under this Act.
  --Since Congress enacted the Indian Tribal Justice Act, the needs of 
        tribal court systems have continued to increase, but there has 
        been no corresponding increase in funding for tribal court 
        systems. In fact, the Bureau of Indian Affairs funding for 
        tribal courts has actually decreased substantially since the 
        Indian Tribal Justice Act was enacted in 1993.
  --The 106th Congress re-affirmed the Congressional commitment to 
        provide this increased funding for tribal justice systems when 
        it re-authorized the Indian Tribal Justice Act in December 2000 
        for 7 more years of funding at a level of $58.4 million per 
        year (see Public Law 106-559, section 202).
    As Attorney General Janet Reno stated in testimony before the 
Senate Indian Affairs Committee on, it is vital to ``better enable 
Indian tribal courts, historically under-funded and under-staffed, to 
meet the demands of burgeoning case loads.'' The Attorney General 
indicated that the ``lack of a system of graduated sanctions through 
tribal court, that stems from severely inadequate tribal justice 
support, directly contributes to the escalation of adult and juvenile 
criminal activity.''
    The vast majority of the approximately 350 tribal court systems 
function in isolated rural communities. These tribal justice systems 
face many of the same difficulties faced by other isolated rural 
communities, but these problems are greatly magnified by the many other 
complex problems that are unique to Indian country. In addition to the 
previously mentioned problems, tribal justice systems are faced with a 
lack of jurisdiction over nonIndians, complex jurisdictional 
relationships with federal and state criminal justice systems, 
inadequate law enforcement, great distance from the few existing 
resources, lack of detention staff and facilities, lack of sentencing 
or disposition alternatives, lack of access to advanced technology, 
lack of substance abuse testing and treatment options, etc. It should 
also be noted that in most tribal justice systems, 80-90 percent of the 
cases are criminal case and 90 percent of these cases involve the 
difficult problems of alcohol and/or substance abuse.
                      importance of tribal courts
    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . . . Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995)). Tribal justice systems are the primary and most 
appropriate institutions for maintaining order in tribal communities. 
Attorney General Reno acknowledged that, ``With adequate resources and 
training, they are most capable of crime prevention and peacekeeping'' 
(A Federal Commitment to Tribal Justice Systems, 79 Judicature No. 7, 
November/December 1995, p. 114). It is her view that ``fulfilling the 
federal government's trust responsibility to Indian nations means not 
only adequate federal law enforcement in Indian Country, but 
enhancement of tribal justice systems as well.'' Id.
    Tribal courts agonize over the very same issues state and federal 
courts confront in the criminal context, such as, child sexual abuse, 
alcohol and substance abuse, gang violence and violence against women. 
These courts, however, while striving to address these complex issues 
with far fewer financial resources than their federal and state 
counterparts must also ``strive to respond competently and creatively 
to federal and state pressures coming from the outside, and to cultural 
values and imperatives from within.'' (Pommersheim, ``Tribal Courts: 
Providers of Justice and Protectors of Sovereignty,'' 79 Judicature No. 
7, November/December 1995, p. 111). Judicial training that addresses 
the present imperatives posed by the public safety crisis in Indian 
Country, while also being culturally sensitive, is essential for tribal 
courts to be effective in deterring crime in their communities.
    There is no federally supported institution to provide on-going, 
accessible tribal judicial training or to develop court resource 
materials and management tools, similar the Federal Judicial Center, 
the National Judicial College or the National Center for State Courts. 
Even though the NAICJA annually sponsors the National Tribal Judicial 
Conference, the three-day conference cannot provide the in-depth 
extensive judicial training necessary to make tribal justice systems 
strong and effective arms of tribal government.
              inadequate funding of tribal justice systems
    There is no question that tribal justice systems are, and 
historically have been, underfunded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .''. Almost 10 years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    As indicated by the Civil Rights Commission, the critical financial 
need of tribal courts has been well documented and ultimately led to 
the passage of the Indian Tribal Justice Act, 25 U.S.C. Sec. 3601 et 
seq. (the ``Act''). Congress found that ``[T]ribal justice systems are 
an essential part of tribal governments and serve as important forums 
for ensuring public health, safety and the political integrity of 
tribal governments.'' 25 U.S.C. Sec. 3601(5). Affirming the findings of 
the Civil Rights Commission, Congress further found that ``tribal 
justice systems are inadequately funded, and the lack of adequate 
funding impairs their operation.'' 25 U.S.C. Sec. 3601(8). In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000. 25 U.S.C. Sec. 3621(b). 
An additional $500,000 for each of the same fiscal years was authorized 
to be appropriated for the administration of Tribal Judicial 
Conferences for the ``development, enhancement and continuing operation 
of tribal justice systems . . .'' 25 U.S.C. Sec. 3614.
    Nearly 10 years after the Act was enacted, how much funding has 
been appropriated? None. Not a single dollar was even requested under 
the Act for fiscal years 1994, 1995, 1997, 1998, or 1999. Only minimal 
funds were requested for fiscal year 1996 and 2000. Yet, even these 
minimal funds were deleted. Even more appalling than the lack of 
appropriations under the Act is the fact that BIA funding for tribal 
courts has actually substantially decreased following the enactment of 
the Indian Tribal Justice Act in 1993. In December 2000, Congress re-
affirmed its commitment to funding of the Indian Tribal Justice Act by 
re-authorizing the Act for 7 more years of funding (see Public Law 106-
559, section 202). Now is the time to follow through on this long 
promised funding and provide actual funding under the Indian Tribal 
Justice Act!
                               conclusion
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are the 
keystone to tribal economic development and self-sufficiency. Any 
serious attempt to fulfill the federal government's trust 
responsibility to Indian Nations must include increased funding and 
enhancement of tribal justice systems.
    We welcome the opportunity to comment on the Interior Department's 
fiscal year 2003 Budget Request for the Indian Tribal Justice Act and 
Tribal Courts (under the Tribal Priority Allocations). Thank you very 
much.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                          Commission (GLIFWC)
    BIA Treaty Rights Protection/Implementation: $4,063,000 (enacted 
fiscal year 2002 plus $112,000)--Operation of Indian Programs, Other 
Recurring Programs, Resources Management, Rights Protection/
Implementation, Great Lakes Area Resource Management.
    GLIFWC seeks to restore $285,000 that the Administration proposes 
to cut from what Congress provided in fiscal year 2002. Congress 
recognized that ``flatline'' funding, especially when coupled with 
perennial contract support costs shortfalls, threatened core 
biological, enforcement, tribal court, and public information programs. 
It provided the $285,000 to help: (a) meet rapidly increasing 
uncontrollable costs, particularly health insurance and equipment/
vehicle repair and operational costs; and (b) restore a number of 
programs and activities that had been cut, including funding for 
fishery assessments and tribal courts. Without the $285,000, GLIFWC's 
required functions under a number of federal court decisions will again 
be jeopardized, as will its ability to participate in a number of 
conservation partnerships.
    GLIFWC seeks an additional $112,000 to equalize its law enforcement 
salaries with those of surrounding agencies. It has been losing 
officers, particularly new and recent recruits, to other higher-paying 
agencies. This results in: (a) wasteful duplicative costs for 
recruiting, training, and basic issue items (e.g. uniforms and body 
armor); and (b) loss of on-the-job knowledge and experience that 
threatens GLIFWC's role in regional emergency services networks.
    BIA Contract Support Costs: GLIFWC seeks full funding of its 
contract support costs, as it has experienced a $234,000 shortfall 
since 1995. This shortfall cuts into program funding, and the lack of 
funding certainty throughout the year further compounds its effect. 
GLIFWC's indirect cost rate has always been below 15.25 percent, and 
was 13.8 percent in fiscal year 2001. Such a low rate is difficult to 
maintain when actual funding is not known until the end of the fiscal 
year.
    BIA ``Circle of Flight'' Program: GLIFWC supports restored funding 
to Operation of Indian Programs, Other Recurring Programs, Resources 
Management, Tribal Management Development Programs, Wetlands/Waterfowl 
Management. The Administration proposes to eliminate this long-standing 
tribal contribution to the North American Waterfowl Management Plan. 
Over the past 10 years, the $6.7 million provided to Tribes, including 
to GLIFWC and its member Tribes, has leveraged another $18 million--
almost a 3 to 1 ratio--in matching federal, state, private, and other 
tribal funding for cooperative wetland enhancement projects.
    Ceded Territory Treaty Rights and GLIFWC's Role: GLIFWC was 
established in 1984 as a ``tribal organization'' within the meaning of 
the Indian Self-Determination Act (Publi Law 93-638) to assist its 
member Tribes in:
  --securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --cooperatively managing and protecting ceded territory natural 
        resources and their habitats.
    It exercises authority delegated by its member Tribes to implement 
federal court orders and various interjurisdictional agreements related 
to their treaty rights. It serves as a cost efficient agency to 
conserve natural resources, to effectively regulate harvests of natural 
resources shared among treaty signatory Tribes, and to develop 
cooperative partnerships with other government agencies, educational 
institutions, and non-governmental organizations.
    Congress has funded GLIFWC for the past 15 years to meet specific 
federal obligations under: (a) a number of U.S./Chippewa treaties; (b) 
the federal trust responsibility; (c) the Indian Self-Determination 
Act; and (d) various court decisions, including a 1999 U.S. Supreme 
Court case, affirming the treaty rights of GLIFWC's member Tribes.
    Under the direction of its member Tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, technicians, 
conservation enforcement officers, and public information specialists. 
Its activities include: natural resource population assessments and 
studies; harvest monitoring and reporting; enforcement of tribal 
conservation codes into tribal courts; funding for tribal courts and 
tribal registration/permit stations; development of natural resource 
management plans and tribal regulations; negotiation and implementation 
of agreements with state, federal and local agencies; invasive species 
eradication and control projects; biological and scientific research; 
and development and dissemination of public information materials.
    Why GLIFWC's Funding Base Needs to be Restored and Increased: 
GLIFWC faces an eroding funding base that threatens its core programs.
    1. ``Flatline'' Appropriations: Prior to fiscal year 2002, GLIFWC's 
base BIA funding had remained constant since 1995. Based upon the 
Consumer Price Index, GLIFWC would need over $400,000 more today to 
equal the buying power it had in 1995.
    2. Rapidly Increasing Fringe Benefit Rates: GLIFWC faces rapidly 
increasing uncontrollable payroll costs and fringe benefit rates. For 
example, GLIFWC's health insurance costs have increased 91 percent over 
the last 5 years.
    3. Increasing Staff Seniority: GLIFWC is a mature agency. Much of 
its staff, including all of its division heads and lead biologists, 
have 10 to 15 or more years of seniority. It faces about $40,000 each 
year in uncontrollable salary ``seniority step'' increases and 
associated fringe costs.
    4. Budget Reduction and Other Cost-Saving Options Have Been 
Exhausted: To address the de facto reductions caused by ``flatline'' 
funding, GLIFWC: (i) cut staff; (ii) cut back on fall fish recruitment 
surveys; (iii) reduced funding to tribal courts and registration 
stations; (iv) postponed vehicle and equipment replacement; (v) 
obtained separate contract support funding from the BIA; and (vi) 
pursued ``soft'' funding from non-BIA sources to prevent additional 
staff cuts and to undertake special projects.
    5. Ensure Participation in Regional Emergency Services Networks: 
GLIFWC's officers are integral partners in regional emergency services 
networks. They not only enforce the Tribes' conservation codes, but 
also work cooperatively with surrounding authorities in detecting 
violations of state or federal criminal and conservation laws. 
Moreover, they are certified medical emergency first responders, 
including in CPR and in the use of defibrillators, and are trained in 
search and rescue.
    How the Restored Base Funding Would Be Used: The $285,000 would be 
used the same in fiscal year 2003 as it was in fiscal year 2002:
    (1) Restore Cut or Reduced Programs ($145,000); \1\
---------------------------------------------------------------------------
    \1\ $100,000 to restore fall juvenile walleye recruitment surveys 
to previous levels; $30,000 to restore tribal court and registration 
station funding cuts; $10,500 to restore Lake Superior lamprey control 
and whitefish assessment programs; and $4,500 to restore GLIFWC's share 
in cooperative wildlife and wild rice enhancement projects with state 
and federal agencies, as well as with non-profit conservation 
organizations and other partners.
---------------------------------------------------------------------------
    (2) Replace Ageing Vehicles and Field Equipment ($100,000); \2\ and
---------------------------------------------------------------------------
    \2\ With fiscal year 2002 funds, GLIFWC established a $100,000 
vehicle/equipment replacement capital fund and replaced 4 of Biological 
Services' oldest vehicles. This fund would be replenished with fiscal 
year 2003 funds to cover some of the over $200,000 in other vehicle/
equipment replacement needs.
---------------------------------------------------------------------------
    (3) Meet Increased Seniority ``Step'' Salary and Fringe Costs 
($40,000).
    The additional $112,000 would be used to equalize GLIFWC's law 
enforcement salary structure (including associated fringe benefit and 
payroll expenses \3\ with those of surrounding agencies for 20 
officers, 7 that have been hired within the last 6 years and 4 that 
will be hired to fill existing openings.
---------------------------------------------------------------------------
    \3\ The fringe rate for GLIFWC's Conservation Enforcement Division 
is approximately 35 percent for health insurance, unemployment 
insurance, workers compensation insurance, employer's share of FICA/
medicare contributions, disability insurance, and retirement.
---------------------------------------------------------------------------
    Public Benefits From GLIFWC's Funding: With the requested funds, 
GLIFWC will:
    1. Remain a constructive, stabilizing natural resource management 
and public safety institution: GLIFWC provides continuity and stability 
in interagency relationships and among its member Tribes, and 
contributes to social stability in the ceded territory in the context 
of treaty rights issues. It is a recognized and valued partner in 
natural resource management, in emergency services networks, and in 
providing accurate information to the public.
    2. Retain an Experienced Professional Staff: In many instances, 
GLIFWC staff experience matches or exceeds that of their counterparts 
in other agencies when it comes to treaty rights issues and to ceded 
territory natural resource management and enforcement.
    3. Maintain cooperative, cost-effective partnerships: GLIFWC has 
built partnerships with:
  --Federal, state, and local government agencies (e.g. State DNR's, 
        USFWS, USDA-FS, USDA-NRCS, Great Lakes Fishery Commission, U.S. 
        Coast Guard, EPA, ATSDR, and Canadian federal and provincial 
        governments);
  --Schools and Universities (e.g. University of Wisconsin-Madison, 
        University of Wisconsin-Superior, Northland College, University 
        of Minnesota, and Lac Courte Oreilles Ojibwe Community 
        College); and
  --Conservation groups (e.g. Ducks Unlimited, the Sharp-Tail Grouse 
        Society, the Natural Resources Foundation, the Nature 
        Conservancy, and local lake associations).
    Through these partnerships, the parties have achieved public 
benefits that no one partner could have achieved alone by:
  --Identifying mutual natural resource concerns, and implementing 
        joint conservation and enhancement projects (e.g. wild rice 
        restoration, waterfowl habitat restoration and improvement 
        projects, and exotic species control projects);
  --Providing accurate information on state and tribal harvests and on 
        the status of natural resource populations (e.g. joint fishery 
        assessment activities and jointly prepared reports);
  --Maximizing financial resources to avoid duplication of effort and 
        costs (e.g. coordinating annual fishery assessment schedules 
        and sharing personnel/equipment);
  --Contributing scientific research and data regarding natural 
        resources and public health (e.g. furbearer/predator research, 
        fish consumption/human health studies, and other fish 
        contaminant research particularly regarding mercury); and
  --Engendering cooperation rather than competition (e.g. cooperative 
        law enforcement and emergency response, joint training 
        sessions, mutual aid emergency services arrangements, and 
        cross-credential agreements).
                                 ______
                                 
 Prepared Statement of the Association of Navajo Community Controlled 
                             School Boards
                      summary of anccsb's requests

                        [In millions of dollars]

Indian School Equalization Formula................................ 359.5
Administrative Cost Grants........................................  61.4
Student Transportation............................................  50.0
Facilities Operations.............................................  70.0

    Chairman Byrd and Members of the Subcommittee: This statement is 
submitted on behalf of 16 schools operated by tribally-sanctioned 
school boards of the Navajo Nation in New Mexico and Arizona who are 
members of the Association of Navajo Community Controlled School Boards 
(ANCCSB). The School Boards who support this testimony are identified 
at the end of the statement.
    Indian School Equalization Formula (ISEF).--ANCCSB schools were 
alarmed and disappointed to learn that the Bureau of Indian Affairs 
(BIA) has requested a $2 million decrease in ISEF program funds.\1\
---------------------------------------------------------------------------
    \1\ NOTE: The information supplied by BIA regarding its ISEF 
request is incomplete. The chart showing ISEF funding history has no 
entry for either SY2002-2003 or SY2003-2004, although the BIA's 
practice has been to display its estimates for the upcoming school year 
and the school year to be funded by the budget request. Failure to 
provide data on which estimates are based makes it impossible for the 
Committee and the public to fully evaluate the BIA's budget request.
---------------------------------------------------------------------------
    ISEF is the primary source of funds for the instructional and 
residential programs at the 185 schools and dormitories in the BIA 
system, and the budget we depend on to recruit and retain teachers and 
dorm supervisors.
    In the recent No Child Left Behind Act of 2001, Congress and the 
President confirmed the federal government's trust responsibility for 
the education of Indian children in the BIA system. Yet less than one 
month after President Bush signed this law, his Administration 
submitted a budget that will make it very difficult for our schools to 
keep pace with ever-increasing costs of educational programs. How can 
our small, isolated schools compete with public schools for 
experienced, qualified teachers, buy up-to-date textbooks and provide 
the instructional services needed for Indian children with learning 
disabilities and limited English proficiency if they receive 
insufficient funds?
    In a September 2001 report, the General Accounting Office revealed 
that the BIA school system enrolls a far higher percentage of children 
who require the highest level of resources: children from low-income 
families (twice the percentage of public schools); special education 
students (40 percent higher than the national average); and children 
with limited English proficiency (seven times higher than public 
schools nationwide). While the GAO found that the BIA system has a 
higher per-pupil expenditure than the public school average, GAO did 
not examine (and therefore made no comment on) whether the funding 
supplied to the BIA system is sufficient to meet the high cost of 
educating these children. In fact, Congress, in the No Child Left 
Behind Act ordered GAO to go the next step and look at the adequacy of 
funding supplied to these federal schools.
    In past years, this Committee and BIA have both acknowledged the 
need to increase the ISEF so our schools can not only ``stay even'' but 
can actually enhance the educational programs we must offer. We urge 
the Committee to reject the BIA's proposed program decrease and to 
provide at least $10 million more for the ISEF budget to carry out the 
responsibilities established in the No Child Left Behind Act.
    Privatization Initiative.--BIA's budget proposes a new initiative 
to turn over the 64 schools still operated by BIA to tribes or to 
private management companies by 2007. The Bureau wants to start with 16 
schools in SY2003-2004. BIA says tribes will first be asked to take 
over these schools, but if the tribes do not elect to do so, BIA plans 
to hire outside managers to operate them.
    Existing tribally-operated schools are affected because the funds 
BIA seeks for the Initiative are essentially diverted from our critical 
on-going programs such as ISEF. Thus, we must ask this Committee to 
carefully consider the following questions about this Initiative:
  --$3 million requested by BIA for implementation of Initiative.--BIA 
        states only that this money would be used ``to facilitate an 
        aggressive plan for conversion''. This is a woefully 
        insufficient description of the use of these funds, especially 
        in view of the long-standing need for funding for a Tribal 
        Education System for the Navajo Nation.
      BIA plans to offer financial incentives to private contractors if 
        they run successful programs, presumably with money from this 
        $3 million request. Why should financial incentives be offered 
        only to outsiders, not to tribal school boards who are already 
        operating schools under contracts and grants? Our school boards 
        work very hard under difficult conditions to improve our 
        students' achievement levels. If financial incentives are to be 
        offered to outsiders with no connection to tribal governments 
        based on the success of their programs the same opportunities 
        should be made available to tribal school boards who are doing 
        the same job. There is no justification whatsoever for reducing 
        ISEF funds to pay extra compensation to outsiders. This would 
        violate the law that directs all funds appropriated for 
        instructional purposes to be distributed to all schools by 
        formula.
  --$2 million for employee displacement costs--Again, full information 
        is lacking. This $2 million must cover the federal employees 
        who will be displaced by conversions to grant and to private 
        contracting. Even if private contractors retain federal 
        teachers, they will doubtless replace the federal 
        administrative employees. Thus, the cost of privatization will 
        consume funds that would be better used for classroom programs 
        through the ISEF formula.
      It is highly unlikely $2 million will cover employee displacement 
        costs at all 16 schools targeted for conversion in SY2003-2004. 
        And it certainly will not cover these costs if several or all 
        16 schools convert to tribal operation, which BIA says is its 
        first choice. In order to properly evaluate the plan, the 
        Committee should require BIA to specifically identify the 
        displacement costs for each of the 16 schools it wants to 
        convert. For example, Wingate School in NM (likely grant 
        conversion) is a relatively large school whose employee 
        displacement costs would be very high and could consume the 
        lion's share of the $2 million requested for this purpose.
  --Will the small increases requested in other programs be reserved 
        only for schools that must convert to tribal operation or be 
        turned over to private contractors? The BIA's budget materials 
        repeatedly indicate that some $11 million in its request is 
        connected to the Privatization Initiative, which includes 
        increases requested for Administrative Cost Grants, Facilities 
        Operation and Student Transportation.
      In the case of AC Grants, we ask the Committee to assure that AC 
        Grant funds are supplied ONLY to tribally-operated schools--as 
        required by law--not to any school operated by a private 
        contractor, and that the full appropriation for AC Grants be 
        supplied to ALL tribally-operated schools, not just to the new 
        ones that may convert to tribal operation under the BIA's 
        Initiative.
      All funds supplied for Facilities Operations and Student 
        Transportation should be available for all schools in the 
        system, not just for the schools BIA wants to convert.
    Administrative Cost Grants.--BIA admits it is now paying only 70 
percent of need for AC Grants. The $3 million requested increase would 
bring that level up to only 75 percent of need. Budget p. 98-99.
    BIA says conversion to grant is its first choice. Why then does it 
create a disincentive for tribes to elect grants? Why would a school 
want to convert to grant when it knows it will receive funding to cover 
only 75 percent of its administrative costs? It appears BIA is 
advancing its desire to put schools in the hands of private managers 
rather than tribes by consciously underfunding AC Grants. All tribally-
operated schools are at risk of failure with such insufficient funding.
    Recommendations.--Since the budget request of $46,065,000 
represents only 75 percent of need, AC Grants should be funded at 
$61,420,000 to meet 100 percent of need. If more that 3 schools convert 
to grant (the BIA's current expectation), the Committee should direct 
BIA to submit a supplemental budget request to cover the costs of 
additional conversions.
    Student Transportation.--This account funds our school bus system--
or at least a portion of it. BIA seeks only a $2 million increase 
despite its own estimate last year that this account is $11 million 
short of need. The amount requested will produce only $2.37/mile, a 7 
cent increase over the current funding level. What the budget request 
does not reveal, however, is that the average expenditure for public 
schools was $2.97/mile 6 years ago!
    The GAO study showed that the average number of miles traveled by 
each BIA student--296 in SY1999-2000--is close to twice the distance 
traveled by a public school student (165 in SY1998-1999). And our buses 
must travel on miles of unimproved roads which tremendously increases 
our bus maintenance costs. Clearly, the $2 million requested increase 
will not begin to cover the funding shortfall in this program.
    Recommendation.--Student transportation funding should be set at 
$50 million.
    Facilities Operations.--This account is intended to cover 
utilities, heating fuel, janitorial, communications, refuse collection, 
water/sewer, fire protection, pest control and technology maintenance. 
Rarely, if ever, has enough funding been supplied to cover all these 
costs.
    Funding for this program is based on the total square feet of 
education space, but a review of the past 2 budget requests shows that 
BIA's figures on total square feet of this space do not add up. In its 
fiscal year 2002 request (p. 85), BIA said that it would support 17.8 
million sq. ft. of education space (excluding quarters) during fiscal 
year 2001. New space is added each year, and some space gets deducted 
due to demolition. A close examination of these ``adds'' and 
``deductions'' calls into question the fiscal year 2003 statement (p. 
92) that 17.9 million sq. ft. of educational space is being supported 
in fiscal year 2002, and that 18.338 million sq. ft. will be supported 
in fiscal year 2003 (p. 98):

                                                              Squre feet

[Fiscal year 2001 total space, per fiscal year 2002 
    budget re- 
    quest]..............................................      17,800,000
[Demolition of non-quarters space in fiscal year 2001; 
    per fiscal year 2002 request, p. 222-23]............        -186,805
[New space added in fiscal year 2002, per fiscal year 
    2003 request, p. 92]................................       + 641,622
                    --------------------------------------------------------
                    ____________________________________________________
[Corrected total space supported in fiscal year 2002]...      18,254,817
                    ========================================================
                    ____________________________________________________
[Corrected total space in fiscal year 2002, from above].      18,254,817
[Demolition of non-quarters space in fiscal year 2002; 
    per fiscal year 2002 request, p. 245-46]............         -86,968
[New space to be added in fiscal year 2003, per p. 98]..       + 617,375
                    --------------------------------------------------------
                    ____________________________________________________
[Corrected total space to be supported in fiscal year 
    2003]...............................................      18,785,224

    Even if we accept BIA's statement that it will support only 18.338 
million sq. ft. of education space in fiscal year 2003, the budget 
request is inadequate. For the past 2 years, BIA reported the per-
sq.ft. cost as $3.37.
    At this rate, the budget request should be $62 million, not $57.7 
million. Using the more accurate total square footage of 18.8 million 
sq. ft., the budget request should be at least $63.3 million, but we 
believe the Navajo Nation's request of $70 million is more realistic.
    If all 185 schools in the federal BIA school system ever needed the 
help of this Committee it is NOW. Please make sure that Congress and 
the President keep the commitment made to Indian tribes and Indian 
children in the No Child Left Behind Act:

    ``It is the policy of the United States to fulfill the Federal 
Government's unique and continuing trust relationship with and 
responsibility to the Indian people for the education of Indian 
children and for the operation and financial support of the Bureau of 
Indian Affairs-funded school system to work in full cooperation with 
tribes toward the goal of ensuring that the programs of the Bureau of 
Indian Affairs-funded school system are of the highest quality and 
provide for the basic elementary and secondary educational needs of 
Indian children, including meeting the unique educational and cultural 
needs of those children.''----No Child Left Behind Act of 2001, Title 
X, Part D, Sec. 1120.

    This statement is sponsored by the following tribally-operated 
schools of the Navajo Nation:
    Stanley Herrera, President, Alamo Navajo School Board
    Wilson Gilmore, President, Black Mesa Community School, Inc.
    George Tolth, President, Borrego Pass Community School, Inc.
    Ross Smallcanyon, President, Kayenta Community School, Inc.
    Marge Begay, President, Lukachukai Community School, Inc.
    Kavin S. Begay, Vice President, Pinon Community School, Inc.
    Jamie Henio, President, Ramah Navajo School Board, Inc.
    James W. Begay, President, Rock Point Community School, Inc.
    Betty Dailey, President, Rough Rock Community School, Inc.
    Richard T. Begay, President, Shiprock Alternative Schools.
                                 ______
                                 
       Prepared Statement of the Ramah Navajo School Board, Inc.
    Thank you for the opportunity to submit written testimony for the 
record regarding the fiscal year 2003 Bureau of Indian Affairs 
education budget. I am the Executive Director of the Ramah Navajo 
School Board, Inc. (``RNSB'') located in Pine Hill, New Mexico. The 
RNSB is responsible for operating the K-12 Pine Hill School, one of the 
185 BIA-funded schools. This testimony will focus on our request for an 
additional $918,000 in the BIA's Education Facilities Improvement and 
Repair budget to complete the Pine Hill replacement dormitory project.
    The RNSB wholeheartedly supports the written testimony submitted by 
the Association of Navajo Community Controlled School Boards (ANCCSB). 
The issues discussed in the testimony of ANCCSB are critical to the 
continued operation of the tribally-controlled BIA-funded schools who 
rely 100 percent on federal funds for their operation.
    I would like to further comment specifically on the BIA's Education 
Facilities Improvement and Repair (FI&R) budget request with regard to 
our dormitory replacement project. The RNSB is in the unfortunate 
position of undertaking to build a replacement dormitory on its school 
campus, without the full funding the RNSB and the Bureau of Indian 
Affairs agree is needed for the project.
    Summary of the Issue.--In its fiscal year 2002 budget, BIA 
requested and received $3.8 million for a 100-student dorm. But, as BIA 
facilities personnel soon acknowledged in a letter dated August 31, 
2001, the amount needed was miscalculated, resulting in a $918,000 
funding shortfall. The square footage costs for a 72-student dorm had 
been used instead of the intended 100-student capacity. Unfortunately, 
this letter was not issued until the fiscal year 2002 appropriations 
process was nearly completed, so Congress appropriated $3.8 million as 
requested in fiscal year 2002.
    The Ramah Navajo School Board had every expectation that the BIA 
would cure the dorm funding deficiency in its fiscal year 2003 
Facilities Improvement & Repair budget request. Inexplicably, however, 
BIA did not request supplemental funding for the Pine Hill dorm in the 
fiscal year 2003 budget. The only mention of the Pine Hill dorm appears 
in the summary of the FI&R projects currently underway this year for 
which funding has already been supplied. On p. 230, the ``Pine Hill 
Dormitory'' summary reports that $3,844,000 has been supplied for a 
replacement dormitory ``to accommodate approximately 72 students, in 
grades 1-12.'' While the amount of funding appropriated is correctly 
stated, the intended dormitory size is not. The BIA and the Ramah 
Navajo School Board both agree that the Pine Hill replacement dorm must 
be able to accommodate 100 students, as stated in the fiscal year 2002 
budget request.
    The Bureau's FI&R budget seeks $164.4 million to perform several 
education-related construction projects. It is extremely unfair that 
projects at other locations have leaped ahead of RNSB's project which 
was higher in the FI&R funding queue. All we can conclude is that 
completion funding for the Pine Hill replacement dorm project fell 
through the cracks!
    We hope the Chairman and the Committee can cure this error in the 
fiscal year 2003 appropriations bill by directing the BIA to supply the 
$918,000 the BIA acknowledges is needed to complete the dorm project 
properly. Children in need of dorm housing to receive an education 
should not be the victims of an erroneous agency calculation.
    Justification for the Replacement Dorm.--BIA describes the 
condition of the existing 50-year-old dorm facility as ``dilapidated'' 
and creating ``life-threatening situations''. The RNSB agrees. Our 
children deserve better.
    Our dorm facility is located 20 miles from the Pine Hill School 
where the children attend classes. Thus, we must incur daily 
transportation costs to bus students to/from their dorm. Constructing 
the new dorm on the school campus will save considerable transportation 
and facility maintenance costs as well as provide habitable living 
space for our children.
    While the existing dorm was built to hold 80 students, demand for 
residential space routinely far exceeds this capacity. We have housed 
as many as 86 students in the facility but, due to health and safety 
considerations, we try to limit dorm enrollment to 80 or 81.
    It makes little sense to build a replacement dorm that will 
accommodate fewer students than we now house, and far fewer than demand 
dictates. The funding supplied so far, however, would only meet 72 
percent of need.
    Status of the Dormitory Project.--The additional funding for the 
replacement dorm is needed in the fiscal year 2003 budget because the 
Ramah Navajo School Board has already begun the planning and design 
phase for the dormitory project. The Organizational Capability Review 
of the School Board's management and fiscal systems is complete and a 
perfect score was awarded. The BIA has supplied $296,000 for the 
planning and design phase of the project. RNSB is in the process of 
selecting a design/build contractor and expect the design phase to 
begin in April, 2002.
    Because the RNSB is utilizing a design/build method of 
construction, the actual construction of the project will begin before 
the planning and design phase is completed. The RNSB expects 
construction of the Pine Hill replacement dorm to begin in June, 2002 
with a target completion date of February 2003. Thus, we can 
immediately put to use the $3.8 million appropriated last year.
    Securing the additional $918,000 in the fiscal year 2003 budget 
will allow the RNSB to plan and design for the needed 100-student dorm.
    Overview of the Ramah Navajo School Board. In the 1970's the Ramah 
Community was one of the first Indian-run entities to take over 
operation of a defunct public high school. Eventually, a complete new 
K-12 school was established. Located on an isolated, non-contiguous 
portion of the Navajo Reservation in west-central New Mexico, the Ramah 
Community must be self-sufficient. Through the Indian Self-
Determination Act, the Ramah Navajo School Board has used every 
opportunity to provide services to and improve the quality of life for 
the Navajo people it serves.
    Over the past 32 years, the RNSB has earned the reputation of an 
exemplary tribal organization. For decades it has successfully operated 
a K-12 school (current enrollment is 550), a dormitory housing 80 
students, a Head Start program, an IHS-funded health clinic, and 
numerous other federal programs that benefit the Ramah Navajo community 
people.
    The high quality of the RNSB's operation was most recently 
recognized when the BIA's Organizational Capability Review team awarded 
it a perfect score. The OCR evaluates the management and fiscal 
accountability systems of tribes/school boards who seek to perform BIA-
funded school/dorm construction projects. The OCR team indicated that 
RNSB is the first school board to achieve a perfect score.
    We thank you for considering our request and hope that your 
Committee can assist us in securing the additional $918,000 that BIA 
acknowledges is needed to provide for an adequate replacement dormitory 
for our students.
                                 ______
                                 
    Prepared Statement of the Paucatuck Eastern Pequot Tribal Nation
    This statement is submitted on behalf of the Paucatuck Eastern 
Pequot Tribal Nation, North Stonington, CT, with respect to fiscal year 
2003 appropriations for the Bureau of Indian Affairs. Specifically, we 
wish to urge the Subcommittee's favorable consideration of increased 
funding in fiscal year 2003 for the Branch of Acknowledgment and 
Research (BAR). We ask that funding be increased from a projected level 
of $1,050,000 in fiscal year 2002 to a level sufficient to provide BAR 
with at least three full research teams.
    The Paucatuck Eastern Pequot Tribal Nation has 150 members and a 
224-acre reservation in North Stonington, CT. The reservation was 
established in 1683 and is known as the Lantern Hill Reservation. 
Historically, however, the Tribe occupied and controlled a much larger 
land area in what is now southeastern Connecticut. Our Tribe and our 
reservation have been continuously recognized by the Colony and the 
State of Connecticut. The Tribe has been known by a number of names 
over the years: Stonington Pequots, North Stonington Pequots, Eastern 
Pequots and Paucatuck Eastern Pequots. At all times, the Tribe's 
leaders have been recognized as chiefs by the State of Connecticut and 
by other New England tribes. All of the current members of the 
Paucatuck Eastern Pequot Tribe descend from the historic tribe through 
three individuals who were members of the Tribe and resided on the 
North Stonington Reservation in the 19th century.
    As this Subcommittee knows, in 1978, a formal administrative 
process was established within the Department of the Interior for 
tribes to petition the federal government to be acknowledged as an 
Indian tribe eligible for the benefits and services accorded all 
federally recognized tribes. Members of our Tribe have been working to 
achieve federal recognition since the 1970s, gathering information and 
documentation about our Tribe in order to present our case. As is 
required under the regulations, the Paucatuck Eastern Pequot Tribe sent 
a letter of intent to submit a petition to the Branch of Acknowledgment 
and Research in 1989. The Tribe submitted an extensively documented 
petition in 1994, and submitted additional supplemental documentation 
in 1996. This material includes historical, anthropological and 
genealogical data and documents; newspaper and other articles written 
over many decades which talk about the Paucatuck Eastern Pequot; oral 
histories of tribal members; information about the Paucatuck Eastern 
Pequot's tribal council meetings, governing documents and membership 
criteria; and descriptions of tribal activities and events, and issues 
in which Paucatuck tribal leaders have been active both historically 
and to the present.
    On April 2, 1998, the petition of the Paucatuck Eastern Pequot 
Tribe was placed on ``active consideration.'' On March 24, 2000, 
Assistant Secretary for Indian Affairs Kevin Gover signed a positive 
Proposed Finding, recommending that the United States affirm that a 
government-to-government relationship exists between the federal 
government and the Tribe.
    On January 19, 2001, the State of Connecticut and the Towns of 
North Stonington, Ledyard and Preston filed suit against the Department 
of the Interior in the federal district court for Connecticut 
(Connecticut v. Interior). Among other things, the plaintiffs are 
seeking the unprecedented remedy of having the federal court direct the 
Bureau of Indian Affairs to set aside the Proposed Finding, and of 
forcing the Paucatuck Eastern Pequot Tribe back to the start of the 
acknowledgment process.
    The Tribe sought to intervene in the litigation. On March 27, 2001, 
Judge Covello issued an order acknowledging the right of the Paucatuck 
Eastern Pequot Tribe to intervene in the litigation as a matter of 
right based on the implications of the case for our rights and 
interests.
    On March 30, 2001, Judge Covello entered a scheduling order in the 
case, which set out a schedule for the completion of the consideration 
of our petition. The scheduling order called on the BIA to comply with 
all FOIA requests filed under federal and state law by the parties to 
the litigation by May 4, 2001. This deadline was met. By August 2, 
2001, all interested parties and the petitioners submitted to the BIA 
their comments on the March 24, 2000, Proposed Findings. By September 
4, 2001, the petitioners submitted their responses to the comments on 
the Proposed Finding to the BIA. On October 4, 2001, the BIA commenced 
consideration of all of the evidence before it on the petitions, and on 
October 25, 2001, the BIA requested that Judge Covello extend the date 
for the issuance of a Final Determination from December 4, 2001 to June 
4, 2002. The Paucatuck Eastern Pequot Tribe supported the BIA's request 
for additional time to review the evidence and prepare the Final 
Determination. Judge Covello granted the BIA's request and he has 
retained jurisdiction over the processing of the Paucatuck petition and 
will do so until the process has been completed.
    In addition to Judge Covello's order, the federal courts have 
directed that BAR and BIA comply with schedules for the processing of 
four other petitions (Muwekma, Schaghticoke, Mashpee and Golden Hill 
Paugussett). If these orders remain in place, the BIA will be required 
to issue four Proposed Findings and four Final Determinations in the 
period between July, 2002 and October, 2003. Since its inception in 
1978, the BAR has issued about one Proposed Finding or Final 
Determination per year. We do not see how BAR will be able to issue the 
court ordered Proposed Findings and Final Determinations during that 
time period without a significant increase in staff and resources.
    The Tribe appreciates the efforts of members of Congress, including 
several members of the Connecticut congressional delegation, who have 
worked to provide increased funding for the BAR. We know firsthand how 
understaffed BAR is. One of our Tribe's great frustrations in the 
acknowledgment process, even when we were under ``active 
consideration,'' was that there was no or minimal communication from 
the BAR. There is little or no opportunity for dialogue between the 
petitioner and the BAR, even to get a status report on where BAR is in 
the process of their review, or when certain materials we had requested 
under the Freedom of Information Act might be made available to us. 
When we have raised this concern with the BAR, staff have told us they 
are too shorthanded to respond to petitioner inquiries. We learned that 
when the BAR receives requests for documents under FOIA and similar 
inquiries, staff must stop the research they are conducting in order to 
stand at the Xerox machine or review and redact documents before they 
can be copied.
    The lack of adequate resources directly affects the timeliness and 
quality of the decisions made by the BAR staff. When we filed our 
documented petition in 1994, the BAR was operating with three full 
research teams and they were able to provide us a technical assistance 
letter in about six months. To our knowledge, that was the last year 
that the BAR was fully staffed by three research teams. In 1996, we 
filed the documentation called for in the technical assistance letter 
and were placed in the status of those petitioners who were ready and 
awaiting active consideration.
    When we were placed on active status in April 1998, we asked the 
BAR staff if they needed any additional documentation and were told not 
to file anything because they had all of the information needed. Under 
the regulations, the BAR staff and the Assistant Secretary had a year 
to issue a Proposed Finding. It took an additional year for the 
Proposed Finding to be issued. After the Proposed Finding was issued, 
Connecticut Attorney General Blumenthal requested that the BAR staff 
conduct a technical assistance meeting to explain the Proposed Finding. 
At the technical assistance meeting in August, 2000, the BAR staff 
stated for the record that they had not been provided adequate time to 
review the documentation for our petition prior to the issuance of the 
Proposed Finding.
    Clearly, BAR needs additional staff in order to facilitate the 
processing of recognition determinations. While funding for additional 
staff will not necessarily make the administrative process for 
recognition less burdensome for petitioners, or less controversial, or 
be a ``magical solution,'' it will surely aid in the processing of 
petitions within the timelines set by the regulations.
    On behalf of the Paucatuck Eastern Pequot Tribal Nation, thank you 
for this opportunity to submit this statement on fiscal year 2003 
appropriations for the Branch of Acknowledgment and Research.
                                 ______
                                 
   Prepared Statement of the Lukachukai Community School Board, Inc.
    This statement is submitted on behalf of the Lukachukai Community 
School Board, Inc., a tribally controlled school authorized pursuant to 
the Navajo Nation Education Committee of the Navajo Nation Council, 
Resolution No. IRGC-11-97. The School Board would like to submit the 
following requests regarding the fiscal year 2003 BIA education budget:

                        [In millions of dollars]

Indian School Equalization Formula................................ 359.5
Administrative Cost Grants........................................  61.4
Student Transportation............................................  50.0
Facilities Operations.............................................  70.0
               indian school equalization formula (isef)
    Lukachukai Community School Board has learned that the Bureau of 
Indian Affairs (BIA) has requested a $2 million decrease in the ISEF 
program. Although, the BIA's ISEF request shows an increase over the 
fiscal year 2002 appropriated level, further examination of the budget 
chart shows that the BIA actually reduced the ISEF program by $2 
million once the pay increases required by law are taken into account. 
No upward adjustments were made to keep pace with inflation or other 
costs, and these costs must now be borne by the schools.
    ISEF funds are our primary source of funds for instructional and 
residential programs, with approximately 85 percent of our ISEF funds 
being used to cover our academic and residential staff salaries. These 
mandatory salary costs leave little funds left to cover our remaining 
educational needs, such as purchasing books and classroom supplies.
    President Bush recently signed Public Law 107-101, the No Child 
Left Behind Act of 2001. Through this Act, the President and the 
Congress pledged to devote greater federal resources to improving our 
nation's schools. Yet, we find the President wants to cut the budget 
for Indian schools, which obtain 100 percent of their funding from the 
federal sources. This is very disheartening for all Native Americans. 
Since the BIA has not released the details of their budget request, we 
do not know what reasons were provided for cutting the ISEF program 
funding, but we believe the decision to make the funding cut cannot be 
justified.
    The cut in the ISEF budget will force some of our schools to expend 
90 percent of their ISEF funds solely on personnel salaries causing 
schools to be unable to purchase other resources necessary to provide 
quality instruction to enhance student achievement.
    The General Accounting Office conducted a comparative analysis 
between the BIA, DOD and Public Schools in 2001. In their report, they 
acknowledged the need to increase the ISEF so the Bureau funded schools 
can ``catch up'' and stay even with other schools and to enhance the 
education programs they offer. This acknowledgement by the GAO Report 
validates our concerns with decreasing the ISEF funds.
    We urge the Committee to reject the BIA's proposed program decrease 
and provide at least $359.5 million to the ISEF budget to fulfill the 
responsibilities established in the No Child Left Behind Act.
                        privatization initiative
    The Bureau of Indian Affair's has developed a worrisome initiative 
to resolve the problem of Indian student achievement lagging behind 
national averages. This new initiative proposes to convert the 
remaining 64 BIA operated schools to tribal management (either through 
a Public Law 100-297 grant or Public Law 93-638 contract) or to private 
management companies by year 2007.
    Though this proposal will not affect us directly--as our school is 
already a tribally operated grant school--it is unclear to us how we 
will be affected by this proposal indirectly. We hope that your 
Committee will be able to obtain some clarifications that the BIA has 
failed to provide in its budget request.
    We are concerned about the requested funding increases for three 
school operations accounts. Will these small increases in funding be 
reserved only for the schools that convert to tribal operation or are 
turned over to a private manager, or will all schools in the BIA-funded 
system share in these requested increases in program funding? We hope 
that your Committee will clearly state that any increases in funding 
must be properly distributed to all the BIA-funded schools, not just 
those that are part of the privatization initiative. The following 
budget accounts are the ones we are referring to:
  --Administrative Cost Grants.--Our school is completely dependant 
        upon the Administrative Cost Grant for the daily administrative 
        operations of the school. We have not had an increase in 
        Administrative Cost Grants for 4 years, and the BIA's budget 
        request justification states that Administrative Cost Grants 
        are currently only being funded at 70 percent. We are thankful 
        that the President's budget request asks for a $3 million 
        increase for the Administrative Cost Grant program and ask that 
        your Committee ensure that the increase in funding is available 
        to all tribally controlled schools, not just the new schools 
        that will convert under the Privatization Initiative. The No 
        Child Left Behind Act 2001 requires that AC Grant funding is 
        distributed pro-rata to all tribally-operated schools. We hope 
        that the President will follow the law that his Administration 
        whole-heartedly supported.
  --Student Transportation.--This account funds a portion of our school 
        bus system. It is suppose to fund all of it, however, the 
        appropriations for the Student Transportation budget since 
        Public Law 95-561 was enacted (the Act that created the Student 
        Transportation program) has never fully covered the 
        transportation programs of the tribally-controlled schools. 
        Consequently, for the past 24 years our school and many other 
        Bureau-funded schools have been forced to utilize portions of 
        the ISEF budget to supplement their transportation programs. 
        This puts schools in the unfortunate position of having to 
        choose between transporting students to-and-from school or 
        providing updated classroom materials, such as books.
    We have been getting around $2.30 per mile for years, compared with 
the $2.97 per mile supplied to public schools in SY97/98 (latest figure 
available).
    While we are grateful that the President asked for a $2 million 
increase for student transportation we hope that your Committee can 
further assist in decreasing the dramatic shortfall in the Student 
Transportation budget. We are thankful for any increase in funding as 
BIA has estimated that the shortfall in funding for this program is at 
least $11 million.
    Our school is located 110 miles from the nearest town. The nearest 
place we can go to get fuel for our school vehicles is 15 miles from 
the school. In addition, we were just informed last week that the 
General Services Administration site we use to service our vehicles has 
been changed to the site located in Farmington, New Mexico. This change 
in site will cause our vehicles to have to travel further (240 miles 
round trip) to be serviced by the GSA.
    We ask that your Committee please ensure that any increases in 
funding for the Student Transportation budget be distributed to all the 
schools in the BIA-funded school system, and not be reserved only for 
the schools BIA wants to convert to tribal or private operation.
  --Facilities Operations.--Funds from this account covers school 
        utilities, heating fuel, janitorial, communications, refuse 
        collection, water/sewer, fire protection, pest control and 
        education technology maintenance. Like the Administrative Cost 
        Grant, we have not received 100 percent of the funds generated 
        by the statutory formula established in past years. We have 
        always received only 80 percent of our actual need, which 
        causes us to prioritize our funds where most needed.
    The Bureau of Indian Affairs requests an additional $2.2 million 
for facilities' operations funds. This amount will finally cover some 
of the needs that have been neglected for years. We ask that all 
schools share in the additional funding, and that the increase not be 
reserved solely for the schools BIA wants to convert to tribal or 
private management.
    We in Indian country have awaited legislation like the No Child 
Left Behind Act 2001 for decades. The President has made some wonderful 
commitments to Native Americans. Please make sure that Congress and the 
President keep their word and do not breach the commitments they have 
enacted in the No Child Left Behind Act:

    ``It is the policy of the United States to fulfill the Federal 
Government's unique and continuing trust relationship with and 
responsibility to the Indian people for the education of Indian 
children and for the operation and financial support of the Bureau of 
Indian Affairs-funded school system to work in full cooperation with 
tribes toward the goal of ensuring that the programs of the Bureau of 
Indian Affairs-funded school system are of the highest quality and 
provide for the basic elementary and secondary educational needs of 
Indian children, including meeting the unique educational and cultural 
needs of those children.''----No Child Left Behind Act of 2001, Title 
X, Part D, Sec. 1120.

    I thank you from the bottom of my heart for taking the time to 
consider these views.
                                 ______
                                 
         Prepared Statement of the Pinon Community School Board
    The Pinon Community School Board is a tribal organization of the 
Navajo Nation which operates the Pinon Dormitory for Indian students in 
grades 1-12 who attend the local public school, and a kindergarten 
instruction program for young Navajo children. Our School Board offers 
the following comments on the fiscal year 2003 Education Budget for the 
Bureau of Indian Affairs and the Health Care Facilities Constructionn 
Budget for the Indian Health Service.
    BIA Education Budget.--Pinon School Board supports the unified 
testimony submitted by the Association of Navajo Community Controlled 
School Boards (ANCCSB) regarding the BIA budget request for Education--
School Operations. Pinon is a member of ANCCSB and assisted in the 
prepartion of the Association's statement. To help the Subcommittee 
with paperwork management, we will not repeat the ANCCSB comments here, 
but ask you to give serious considertion to the views expressed in that 
statement.
    IHS Health Facilities Construction--$13.9 million for Pinon 
Clinic.--The Pinon School Board urges the Committee to approve the IHS 
budget request of $13.9 million to continue construction of the 
desperately needed outpatient clinic in the Pinon Community of the 
Navajo Reservation. Our Community has waited a long time to rise to the 
top of the priority list so we can finally get a decent clinic to serve 
the population of one of the fastest-growing regions of the Navajo 
Nation.
    Our current small, old clinic can only provide limited services to 
our residents. For most care, our people have to travel to the Chinle 
Hospital 50 miles away from the center of Pinon--provided they have 
access to transportation. This makes it very difficult to obtain 
routine and emergency care for the children who live in our Dormitory. 
We do not have access to doctors, dentists, eye doctors, speech and 
physical therapists and other vital health care providers at the local 
level like schools in cities and towns have. We must depend on the 
Indian Health Service to supply health care to our people, including 
our children.
    We eagerly await completion of a local clinic in Pinon. It will 
tremendously enhance the School's ability to assure that children in 
our Dorm receive the early screening, diagnostic and treatment every 
child needs for a healthy life.
    Please approve the $13.9 million IHS request for the Pinon 
Outpatient Clinic construction.
    Thank you for your consideration of these views.
                                 ______
                                 
              Prepared Statement of the Jeehdeez'a Academy
    This statement is submitted on behalf of the Jeehdeez'a Academy 
incorporated, a tribally controlled school that recently converted from 
a BIA-operated school to a tribal grant school. The Executive Board 
Members of the Jeehdeez'a Academy would like to take this opportunity 
to express their gratitude for the School Replacement Construction 
Funds that are being requested to replace the Jeehdeez'a Academy, Inc. 
The school has long been in need of replacement and we are thankful 
that the replacement construction costs were included in the fiscal 
year 2003 budget. We also wish to highlight several aspects of the 
BIA's fiscal year 2003 education budget that we hope will obtain some 
increase in funding:

                        [In millions of dollars]

Student Transportation............................................  50.0
Administrative Cost Grants........................................  61.4
Facilities Operations.............................................  70.0
Indian School Equalization Formula................................ 359.5

    The Jeehdeez'a Academy, Inc. is located in Low Mountain, Arizona 
fifty miles southwest of Chinle, Arizona in a remote part of the State. 
This community does not have a post office, store, gas station, or 
hospital. The school serves 240 students from kindergarten to fifth 
grade (K-5). Sixty of our students reside on campus in the dorm due to 
the fact that their homes are difficult to reach and/or their parents 
do not have transportation. Moreover, because some of our students live 
so far from the campus it is practically impossible to bus them on a 
daily basis.
    The Jeehdeez'a Academy employs fifty-three staff members most of 
whom live on the reservation, but off campus. This because staff 
housing on campus is in such poor condition. In fact, the staff housing 
is so dilapidated that the school has difficulty recruiting and 
retaining high quality staff from off the reservation.
    Due to the above conditions that our school faces daily, we ask 
that the Committee consider our comments on the following aspects of 
the BIA's education budget:
                         student transportation
    Because of the remote location of our school, our students must 
travel an average of thirty miles a day on dirt and unimproved roads. 
This causes a great deal of wear and tear on our school buses, which is 
compounded during the winter months when harsh weather makes the road 
conditions even worse. To obtain maintenance and service, our buses 
must travel 260 miles roundtrip to Gallup, Mexico.
    Despite the fact that last year the BIA acknowledged that the 
Student Transportation budget for BIA-funded schools is $11 million 
short of need, the BIA's budget request asked for only a $2 million 
increase for student transportation. While we are thankful for any 
increase in the budget that is provided, we note that the $2 million 
requested increase would only produce a 7 cents increase over the 
current funding level. This increase will provide funding to the 
tribally controlled schools at a level of $2.37/mile, which is still 
far below the $2.97/mile public schools received 6 years ago.
    The requested increase will not begin to cover the dramatic funding 
shortfall of the student transportation program.
    We ask that the committee providing funding for the Student 
Transportation program at $50.0 million.
                       administrative cost grants
    The Jeehdeez'a Academy, like other tribally controlled schools, 
relies on the funds provided by the Administrative Cost Grants to 
provide for the daily cost of operating our school. Therefore, it is 
important that the BIA does not continue to pay only 70 percent of the 
Administrative Cost Grant amount that is generated through statutory 
formula. The $3 million requested increase would bring the level of 
funding for Administrative Cost Grants to only 75 percent of need.
    We ask that the Committee fund Administrative Cost Grants at 100 
percent of the amount generated by statutory formula, which according 
to the BIA's calculations would be $61.4 million.
    We are also concerned that a portion of the requested increase in 
funding for Administrative Cost Grants will be used only for those 
schools that are part of the President's Privatization Initiative.
    We ask the Committee assure that the increase in funding is 
available to all tribally controlled schools, as required by law, and 
not just for the schools that are converting to tribal or private 
control under the Privatization Initiative.
                         facilities operations
    The account for facilities operation is intended to cover 
utilities, heating fuel, janitorial, communications, refuse collection, 
water/sewer, fire protection, pest control and technology maintenance. 
Funding for this program remains inadequate and is often insufficient 
to cover even basic utility costs. Adequate funding for everyday upkeep 
of schools is a critical element in assuring that schools will last 
longer and remain safe for students. Our school is currently operating 
at only 80 percent of the amount needed to adequately cover our 
facility operations costs.
    We ask that the Committee fund this program at $70.0 million.
  --Indian School Equalization Formula (ISEF)
    The ISEF funds provide basic instructional funding for students in 
BIA-funded schools. The Jeehdeez'a Academy, Inc. has learned that the 
BIA's budget requested a $2 million decrease in ISEF funding. This 
funding is Jeehdeez'a Academy, Inc.'s primary source of funding for the 
school's instruction and residential program. Eighty-5 percent of the 
ISEF funds we receive are spent solely on academic and residential 
staff costs. This leaves very little left in ISEF funds to purchase 
educational materials for the students. We hope that the Committee will 
reject the BIA's request to decrease ISEF funding and instead provide 
an increase in this program.
    We ask that the Committee provide funding for the ISEF at $359.5 
million.
    Three days after taking office in January, the President of the 
United States, George W. Bush signed Public Law 107-110, the ``No Child 
Left Behind Act of 2001''. Through this Act, Congress and the President 
pledged to commit greater federal resources to improving our nation's 
schools. Yet, less than a month later, the President submitted a budget 
that will make it very difficult for our school to keep pace with 
public schools for experienced qualified teachers, buy up-to-date 
textbooks, provide the instructional services needed by our students, 
and maintain the daily operation of our school.
    We at Jeehdeez'a Academy, Inc. are concerned about the educational 
needs of our students and their future. We hope that the Committee will 
help us in ensuring that Congress and the President keep the commitment 
made to Indian tribes and Indian children and that no Indian child is 
left behind.
    We thank you for providing us with the opportunity to comment on 
BIA's fiscal year 2003 budget request and for considering our requests. 
Should you have any questions, please call us at (928) 725-3178. Thank 
you.
                                 ______
                                 
         Prepared Statement of the Winnebago Tribe of Nebraska
    This testimony addresses the fiscal year 2003 budget request for 
programs in the Indian Health Service and the Bureau of Indian Affairs. 
Specifically, the Winnebago Tribe of Nebraska urges the Subcommittee's 
favorable consideration of the following: $9 million in fiscal year 
2003 to complete construction of the new Winnebago hospital and to 
replenish contingencies for unanticipated costs ($759,000 over the 
budget request); maintaining funding for operating grants for Tribally 
Controlled Community Colleges within the Bureau of Indian Affairs at 
the fiscal year 2002 enacted level of $41.1 million ($2 million over 
the budget request); and support for the Administration's requested 
level of $159 million in fiscal year 2003 for the BIA component of the 
Law Enforcement Initiative in Indian Country, of which $3 million is 
requested for new detention centers.
    The Tribe and Economic Development.--The Winnebago Tribe of 
Nebraska is a federally recognized Indian Tribe organized pursuant to 
Section 16 of the Indian Reorganization Act of June 18, 1934. Our 
forefathers were forcibly relocated from lands in and near what is now 
the state of Wisconsin. Our Treaty of 1865 is the first in history to 
require that the United States provide health care services to tribal 
members. The Tribe's 120,000-acre reservation includes lands in both 
Iowa and Nebraska and only about 30,000 acres of land within the 
reservation is now tribally controlled. There are 4,039 enrolled 
members, with about 1,290 residing on the reservation.
    The Winnebago Tribe of Nebraska is very active on the economic 
front. The Tribe operates several business enterprises, including the 
WinnAVegas Casino in Sloan, Iowa, and the Heritage Company A 
Convenience Mart and Pony Express gas station in Winnebago, Nebraska. 
Additionally, the Tribe has developed a small strip mall located on the 
reservation; leasing tribal land to outside agricultural interests 
generates added tribal revenue. Ho-Chunk, Inc., a wholly-owned tribal 
development corporation, owns & operates a tobacco outlet shop in 
Omaha, Nebraska and a Native American Products Internet business 
located in Winnebago. Even with the economic contribution of these 
projects, tribal per capita income remains significantly below the 
poverty level at just over $5,000.
    Unlike states, the tribes have little or no tax base or other 
revenue sources with which to operate tribal government programs. 
Gaming has given a jump-start to our economy but those revenues are 
decreasing because of commercial competition. The Tribe still relies 
heavily on federal funds to provide even the most basic level of 
services to tribal members.
    Comprehensive Health Care Facility.--In August, 2000, the Winnebago 
Tribe had a groundbreaking ceremony for the new 97,200 square foot 
Comprehensive Health Care Facility. Last fall, site preparations were 
completed, and actual construction of the new hospital began on October 
5, 2001. Construction is expected to be completed June 2004.
    In the town of Winnebago, the U.S. Public Health Service Hospital 
serves the basic health care needs for the area. Critical and 
specialist care is available in Sioux City, Iowa. Currently, the PHS 
hospital has 30 general beds and 3 Pediatric beds. It has a staff of 
102, 4 of whom are Doctors and 20 of whom are R.N.'s. Of the current 
staff, 20 (19.6 percent) are from Iowa, 67 (65.6 percent) are from 
Nebraska, 27 (26.4 percent) live on the Winnebago Reservation, and 7 
(.06 percent) are from South Dakota. The new Comprehensive Health Care 
Facility is expected to employ an additional 100 professionals.
    The Winnebago Tribe received $950,000 in fiscal year 1999 through 
the Indian Health Service to complete the Architecture and Engineering 
phase of our Hospital. In fiscal year 2000, we received $9,714,000 for 
phase one construction, in fiscal year 2001, $12.3 million for phase 
two construction, and in fiscal year 2002, $15 million was 
appropriated. The Administration's fiscal year 2003 budget request 
includes $8,241,000 for the remaining construction costs. However, the 
Tribe requests an fiscal year 2003 appropriation of $9 million, 
$759,000 over the request, to replenish contingencies for unanticipated 
costs.
    Little Priest Tribal College.--Currently, enrollment at the Little 
Priest Tribal College on the Winnebago Reservation has reached an all-
time high of 204 students. The College is an important facility for 
insuring that the new Hospital will have well-trained nurses and other 
health care professionals. For fiscal year 2003, the Winnebago Tribe of 
Nebraska requests this Subcommittee's support for maintaining funding 
for operating grants for Tribally Controlled Community Colleges within 
the Bureau of Indian Affairs at the $41.1 million fiscal year 2002 
level. We urge the Congress to oppose the Administration's proposal to 
reduce funding for Tribal Colleges by $2 million.
    Law Enforcement Initiative.--The Winnebago Tribe supports the 
proposed level of $159 million in fiscal year 2003 for the BIA 
component of the Law Enforcement Initiative in Indian Country, of which 
$3 million is requested for new detention centers. The Tribe has need 
of $11.8 million in Federal dollars to help construct a Criminal 
Justice Complex, which will include all adult and juvenile detention 
facilities, as well as law enforcement and tribal court components.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                            request summary
    On behalf of this nation's 32 Tribal Colleges and Universities, 
which comprise the American Indian Higher Education Consortium (AIHEC), 
we thank the Subcommittee for allowing us this opportunity to present 
our fiscal year 2003 appropriations requests for the 25 colleges funded 
under the Tribally Controlled College or University Assistance Act 
(Public Law 95-471). The U.S. Department of the Interior, Bureau of 
Indian Affairs, administers this program. AIHEC ultimately seeks full 
funding for all of the Act's authorized programs; however, we realize 
step-by-step increases are a way we can meet that goal over time. Our 
top priority is to increase funding for the institutional operations 
grants under Titles I and II, we specifically request $46,629,000 an 
increase of $6.6 million over fiscal year 2002 funding and $8.6 million 
over the president's budget request. Additionally, we seek: $500,000 
for technical assistance to help address emerging technical assistance 
needs and to comply with a Congressional request of the BIA to provide 
additional funding data; and $2 million for endowments under Title III 
of the Act.
    AIHEC's membership also includes five other tribal colleges funded 
under separate authorities within the Interior Appropriations Act, and 
AIHEC fully supports their independently submitted funding requests. 
These include Haskell Indian Nations University; Southwestern Indian 
Polytechnic Institute; the Institute for American Indian Arts; United 
Tribes Technical College and Crownpoint Institute of Technology.
                   background and funding disparities
    In 1972, six tribally controlled colleges established AIHEC to 
provide a support network for member institutions. Today, AIHEC 
represents 32 Tribal Colleges and Universities in 12 states created 
specifically to serve the higher education needs of American Indian 
students. Collectively, they serve approximately 30,000 full- and part-
time students from over 250 federally recognized tribes.
    Tribal colleges offer primarily 2-year degrees, although in recent 
years some institutions have begun to offer baccalaureate and graduate-
level degrees. The 29 of the tribal colleges are accredited by 
independent, regional accreditation agencies.\1\ In addition to college 
level programming, tribal colleges provide much needed high school 
completion (GED), basic remediation, job training, college preparatory 
courses, and adult education. Tribal colleges fulfill additional roles 
within their respective communities functioning as community centers, 
libraries, tribal archives, career and business centers, economic 
development centers, public-meeting places, and child care centers. An 
underlying goal of tribal colleges is to improve the lives of students 
through higher education and to move American Indians toward self-
sufficiency.
---------------------------------------------------------------------------
    \1\ The Tribal Colleges and Universities are accredited by regional 
accreditation agencies and like all institutions, must undergo 
stringent performance reviews on a periodic basis. The higher education 
division of the respective regional accreditation agency accredits 
twenty-seven of the TCUs. Two TCUs are at the pre-candidate stage as 
they complete work to attain candidate status; one TCU is at candidate 
status. Two TCUs are accredited as Vocational/Adult Schools by the 
``schools'' division of the respective regional accreditation agency.
---------------------------------------------------------------------------
    The Tribally Controlled College or University Assistance Act 
authorizes funding for the basic operating budget of one qualifying 
institution per federally recognized tribe based on a full-time 
American Indian student enrollment formula. Despite a greatly 
appreciated increase in our appropriation of $3 million in fiscal year 
2002, the tribal colleges are currently operating at a dramatically 
less than average level of $3,916 per full-time Indian student (ISC). 
This is less than two-thirds of the current authorized level of $6,000 
per ISC. This is not simply a matter of appropriations falling short of 
an authorization; it effectively impedes our institutions from having 
the necessary resources available to provide the educational services 
afforded students at mainstream institution.
                             justifications
    (a) Tribal colleges provide access to critical postsecondary 
education opportunities that would otherwise be out of reach.--Tribal 
college reservations are located in remote areas, and their populations 
are among the poorest in the nation. On average, median household 
income levels are only half of the level for the U.S. population as a 
whole. As a result, the cost of attending a mainstream institution is 
usually prohibitively high, especially when tuition, travel, housing, 
textbooks, and all other expenses are considered. In addition, for many 
reservation communities, the nearest mainstream institution is several 
hours away, making attendance virtually impossible.
    (b) Tribal colleges are producing a new generation of highly 
trained American Indian contributors: teachers, tribal government 
leaders, engineers, nurses, computer programmers, and other much-needed 
professionals.--By teaching the job skills most in demand on their 
reservations, tribal colleges are laying a solid foundation for tribal 
economic growth, with benefits for surrounding communities. In contrast 
to the high rates of unemployment, 75 percent of recent tribal college 
graduates were employed and using the skills gained through their 
educational experiences. Of these graduates, a significant percentage 
are employed in ``high need'' occupational areas such as elementary and 
secondary school teachers and nurses/health care providers. Just as 
important, the overwhelming majority of tribal college graduates 
(almost 85 percent) remain in their tribal communities, applying their 
newly acquired skills and knowledge where they are most needed.
    (c) Tribal colleges meet the strict standards of mainstream 
accreditation boards and offer top-quality academic programs.--Several 
tribal colleges have attained a 10-year accreditation term--the longest 
term granted for any higher education institution. The quality of the 
colleges' programs is reflected in the high rates of satisfaction 
reported by their graduates: about 90 percent of tribal college 
graduates reported being very satisfied or satisfied with courses in 
their major field of study and with overall instruction.
    (d) Tribal colleges serve as highly effective bridges to 4-year 
postsecondary institutions.--While most tribal colleges are 2-year 
institutions offering associate's degrees and certificates, their 
transfer function is significant. A recent survey indicated that almost 
50 percent of tribal college graduates continued their education during 
the year after their graduation, with the majority pursuing bachelor's 
degrees. This compared nationally to about 35 percent of other 
community college graduates who enroll in higher education the year 
after receiving an associate's degree. The overwhelming majority of the 
continuing tribal college graduates felt that the programs at tribal 
colleges had prepared them well for further education and greatly 
enhanced their success rates.
                         some additional facts
    (a) Enrollment Gains.--Compounding existing funding disparities is 
the fact that although tribal college enrollments have dramatically 
increased since 1981, appropriations have increased at a 
disproportionately low rate. Title I tribal colleges have recorded a 
remarkable 1,300 percent increase in enrollments from 1981 to 2001. 
Tribal colleges, in many ways, are victims of their own successes(the 
dramatic enrollment increases, coupled with a growing number of 
tribally controlled colleges, have forced Title I colleges to slice an 
already inadequate pie into even smaller pieces. Our funding request 
for Title I would amount to just $4,500 per full-time Indian student, 
only 75 percent of the $6,000 authorized, and still significantly less 
than the average amount under which mainstream community colleges 
operate.
    (b) The Absence of State Funds for Institutional Operations.--While 
mainstream institutions have a foundation of stable state support, 
tribal colleges must rely on the Federal government for their operating 
funds. Because tribal colleges are located on Federal trust lands, 
states have no obligation to fund them. In fact, most states do not 
even provide funds to tribal colleges for the non-Indian state-resident 
students who account for approximately 20 percent of our enrollments. 
Yet, if these same students attended any other public institution in 
the state, the state would provide basic operating funds to the 
institution.
    (c) Local Tax and Revenue Bases.--Tribal colleges cannot rely on 
local tax base revenue. Although tribes possess the sovereign authority 
to tax, high reservation poverty rates, the trust status of reservation 
lands, and the lack of strong reservation economies, impede the 
creation of a reservation tax base. Unemployment for American Indian 
residents on-or-near reservations averages about 43 percent. In 
comparison, the current national unemployment rate is just 5.5 percent.
    (d) Trust Responsibility--The emergence of tribal colleges is a 
direct result of the special relationship between American Indian 
tribes and the Federal government. Tribal colleges are founded and 
chartered by their respective American Indian nations, which hold a 
special legal relationship with the Federal government, actualized by 
more than 400 treaties, several Supreme Court decisions, prior 
Congressional action, and the ceding of more than one billion acres of 
land to the Federal government. Beyond the trust responsibility, the 
fact remains that tribal colleges are providing a public service to all 
American people that no other institutions of higher education are 
willing to or can provide. We are helping the Federal government 
fulfill its responsibility to the American people, particularly in 
rural America. Tribal colleges have open enrollment policies and do not 
discriminate based on race or ethnicity. They are simply and 
effectively removing barriers that have long prevented equal access to 
higher education for reservation community residents.
    (e) High Priority Areas of Need.--Like mainstream institutions, 
each tribal college strives to fully develop its institution and to 
expand services to address the needs of its student body. One critical 
area is to address the emerging technical assistance needs, and to 
comply with BIA reporting requirements. Despite the colleges' steady 
growth and an increased demand for accountability, technical assistance 
funding has remained level. Of critical importance is adequate 
institutional operating funds in fiscal year 2003, allowing tribal 
colleges to better focus on high priority areas of need, such as 
maintaining accreditation by stabilizing basic operations budgets and 
moving away from piecemeal operating budgets; improving instructional 
capabilities and enhancing student support services; expanding library 
services and collections; maintaining and improving facilities and 
enhancing laboratory facilities; expanding advanced technology access 
and application; expanding child care facilities, and constructing 
community or cultural centers.
            president's budget request for fiscal year 2003
    The fiscal year 2003 budget recommendation provides for an 
appropriation of only slightly over one-half of the authorized level to 
operate our reservation based colleges, or about $3,500 per full-time 
Indian student, and eliminates funding for our two vocational colleges. 
Should this cut in funding be enacted, some tribal colleges may no 
longer be able to meet minimum requirements for stable funding to pay 
faculty and staff. This could jeopardize their accreditation status. 
Northwest Indian College in Bellingham, Washington would reportedly 
experience a decrease of approximately $152,750 in its basic 
institutional operating funds, and therefore might have to eliminate 
four administrative positions or nine clerical/support positions at the 
college to make up for the loss in operating funds. Salish Kootenai 
College in Pablo, Montana, might have to eliminate six full-time 
faculty members, which is 30 percent of its faculty. Only when full 
funding is attained will equal educational opportunities begin to exist 
for American Indians, and only then will tribal colleges have the 
resources to ensure that the quality of their educational services is 
not compromised. We respectfully request Congress increase the funding 
under Titles I and II for institutional operations by $6.6 million over 
the fiscal year 2002 level, and $8.6 million over the President's 
fiscal year 2003 budget request, bringing this funding to $4,500 per 
ISC, which still represents just 75 percent of the $6,000 authorized.
                               conclusion
    Tribal colleges work hard to make every dollar count. They are 
extremely responsible with the federal support received over the last 
21 years. These institutions have proven themselves to be a sound 
federal investment. We respectfully request your continued support and 
serious consideration of our fiscal year 2003 appropriations requests.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    For 33 years, United Tribes Technical College (UTTC) has been 
providing postsecondary vocational education, job training and family 
services to Indian students from the throughout the nation. We have 
received funding through the Bureau of Indian Affairs every year since 
1981, and were shocked at the Administration's request of zero funding 
for UTTC in fiscal year 2003 Department of Interior budget.
    The request by the United Tribes Technical College Board for the 
fiscal year 2003 Bureau of Indian Affairs budget is:
  --$4 million in BIA funds for UTTC, which is $1 million over the 
        fiscal year 2002 enacted level.
  --$3 million in BIA funds for phase one of student housing 
        construction, a need identified in the 2000 Department of 
        Education study.
  --Requirement that the BIA place more emphasis on funding and 
        administrative support for job training and vocational/
        technical education. The Adult Vocational Training program, 
        funded at $9 million in fiscal year 2002 is but a shadow of its 
        former self. There is no BIA Leadership or advocacy for job 
        training or vocational/technical education at the central or 
        area levels.
    United Tribes Technical College.--Unique Inter-tribal Educational 
Organization. Incorporated in 1969, United Tribes Technical College is 
the only inter-tribally controlled campus-based, postsecondary 
vocational institution for Indian people. We are chartered by the five 
tribes in North Dakota and operate under an Indian Self-Determination 
contract with the BIA. Last year we enrolled 490 students from 44 
tribes and 17 states. The majority of our students are from the Great 
Plains states, an area that, according to the 1999 BIA Labor Force 
Report, has an Indian reservation jobless rate of 71 percent. UTTC is 
proud that we have an annual placement rate (placement in jobs or in 
higher education) of between 85-90 percent.
    In addition, we serve 155 children in our pre-school programs and 
175 children in our Theodore Jamerson elementary school, bringing the 
population for whom we provide direct services to 820.
    While this testimony does not address funding for the Theodore 
Jamerson elementary school, we do report with pride that the most 
recent BIA report card shows that the students and faculty of Jamerson 
school are performing a levels significantly higher than many other 
schools in the BIA system. For instance, 78 percent of Jamerson 
students perform at a proficient or advanced level in math (a 9 percent 
increase over the previous year), and 81 percent perform at a 
proficient or advanced level in language arts (a 9 percent increase 
over the previous year). The percentage of elementary school staff who 
are proficient or advanced in the use of technology is 83 percent (a 2 
percent increase over the previous year), and the percentage of staff 
proficient or advanced in the use of new assessments is 95 percent (a 
28 percent increase over the previous year). Our goal, of course, is 
100 percent proficiency.
    UTTC Course Offerings/Partnerships with Other Educational 
Institutions.--UTTC offers 14 vocational/technical programs and awards 
a total of 24 2-year degree and 1-year certificate areas. We are 
accredited by the North Central Association of Colleges and Schools and 
we were re-accredited in 2001 for the longest period of time 
allowable--10 years--and with no major stipulations.
    We are very excited about the recent additions to our course 
offerings, and the particular relevance they hold for Indian 
communities. These new programs are:
  --Injury Prevention
  --Technology Distance Learning
  --Nutrition and Dietary Management
  --Tribal Government Management
  --Tourism
    --Injury Prevention.--Through our Injury Prevention Program we are 
addressing the injury death rate among Indians, which is 2.8 times that 
of the total U.S. population (Source: IHS fiscal year 1999 Budget 
Justification). We received assistance through the IHS to establish the 
only degree granting Injury Prevention program in the nation.
    Technology and Distance Learning.--We are bridging the ``digital 
divide'' by providing web-based education and Interactive Video Network 
courses from our North Dakota campus to American Indians residing at 
other remote sites, including the Denver Indian community. Training is 
currently provided in the areas of Early Childhood Education and 
Computer Literacy. By the year 2005, students will be able to access 
full degree programs in Computer Technology, Injury Prevention, Health 
Information Technology, Early Childhood Education, and Office 
Technology, and others from these remote sites.
    High demand exists for computer technicians. In the first year of 
implementation, the Computer Support Technician program is at maximum 
student capacity. In order to keep up with student demand, UTTC will 
need more classroom space, computers and associated equipment, and 
instructors. Our program includes all of the Microsoft Systems 
certifications which translates into high income potential.
    --Nutrition and Dietary Management.--UTTC will meet the challenge 
of fighting diabetes in Indian Country through education. As this 
Subcommittee knows, the rate of diabetes is very high in Indian 
country, with some tribal areas experiencing the highest incidence of 
diabetes in the world. About half of Indian adults have diabetes 
(Diabetes in American Indians and Alaska Natives, NIH Publication 99-
4567, October, 1999)
    The College currently offers a Nutrition and Dietary Management 
Associate of Applied Science degree to increase the number of American 
Indians with expertise in human nutrition and dietetics. Currently, 
there are only a handful of Indian professionals in the country with 
training in these areas. Future improvement plans include offering a 
Nutrition and Dietary Management degree with a strong emphasis on 
diabetes education and traditional food preparation.
    We have also established the United Tribes Diabetes Education 
Center to assist local Tribal communities and UTTC students and staff 
in decreasing the prevalence of diabetes by providing diabetes 
educational programs, materials, and training.
    --Tribal Government Management/Tourism.--Another of our new program 
is tribal government management designed to help tribal leaders be more 
effective administrators. We continue to refine our curricula for this 
program.
    A newly established education program is tribal tourism management. 
UTTC has researched and developed core curricula for the tourism 
program, and five other tribal colleges will begin using our curricula 
(with modifications to suit their specific needs) this fall. The 
development of the tribal tourism program is well timed to coincide 
with the national Lewis and Clark Bicentennial in 2003. As you may 
know, Lewis and Clark and their party spent one quarter of their 
journey in North Dakota. Last year, UTTC art students were commissioned 
by the Thomas Jefferson Foundation to create historically accurate 
reproductions of Lewis and Clark-era Indian objects using traditional 
methods and natural materials. Our students had partners in this 
project including the National Park Service and the Peabody Museum at 
Harvard University. The objects will be part of a major exhibition 
about the Lewis and Clark expedition.
    --Job Training and Economic Development.--UTTC is a designated 
Minority Business Center serving Montana, South Dakota and North 
Dakota. We also administer a Workforce Investment Act program and an 
internship program with private employers.
    We are excited by the recent receipt of an Economic Development 
Administration grant that will allow UTTC to develop a Center for 
Economic Excellence. The UTTC Center for Economic Excellence is 
expected to evolve into a regional ``University Center'' for Economic 
Development. Most states have such centers, and ours would be the first 
such tribal center.
    Department of Education Study Documents our Facility/Housing 
Needs.--The 1998 Vocational Education and Applied Technology Act 
required the U.S. Department of Education to study the facilities, 
housing and training needs of our institution. That report, conducted 
for the Department by the American Institutes for Research, was 
published in November 2000 (``Assessment of Training and Housing needs 
within Tribally Controlled Postsecondary Vocational Institutions, 
November 2000, American Institute of Research'') The report identified 
the need for $16,575,300 for the renovation of existing housing and 
instructional buildings ($8 million if some existing facilities are 
converted to student housing) and $30,475,000 for the construction of 
housing and instructional facilities.
    UTTC continues to identify housing as its greatest need. We have a 
huge waiting list of students some who wait from 1 to 3 years for 
admittance. New housing must be built to accommodate those on the 
waiting list as well as to increase enrollment. Existing housing must 
be renovated to meet local, state, and federal safety codes. In the 
very near future, some homes will have to be condemned which will mean 
lower enrollments and fewer opportunities for those seeking a quality 
education. Single student housing must also be built and expanded to 
meet the College's needs.
    Classroom and office space is at a premium. The College has 
literally run out of space. This means that the UTTC cannot expand its 
course offerings to keep up with job market demands. Most offices and 
classrooms that are being used are quite old and are not adequate for 
student learning and success.
    We were able to piece together three sources of funds to raise $1 
million to renovate a building to create a new student life and 
technology center. Funds came from the Economic Development 
Administration, USDA's Rural Development program, and the Department of 
Education's Title III program.
    UTTC Seeks Non-Department of Interior Funds.--UTTC is aggressive in 
seeking non-Interior funding for special needs, e.g., the College 
recently received funding from the American Indian College Fund to 
purchase 132 acres of land. The additional acreage has given the 
College the ability to strengthen its infrastructure and increase its 
capacity. UTTC has short-range plans to serve 2,000 Indian students 
from throughout the nation.
    We described elsewhere in this statement some activities for which 
we accessed non-Department of Interior funds (injury prevention 
program, economic center of excellence, tribal tourism curricula, 
renovation of the Student Life and Technology Center). Other 
competitive non-DOI funds include the Department of Education funded 
Plains Alliance Bilingual Education (PABE) Project, an early childhood 
bilingual/bicultural project in which we are in partnership with Sinte 
Gleska University, and a DOE computer technology grant for our 
elementary school.
    The above mentioned grants are highly competitive, restrictive, 
one-time grants, and they cannot provide for day-to-day operations. We 
cannot survive without the basic operating funds that come through the 
Bureau of Indian Affairs.
    Thank you for your consideration of our request.
                                 ______
                                 
     Prepared Statement of Crownpoint Institute of Technology (CIT)
    This testimony addresses appropriations to U.S. Department of 
Interior, Bureau of Indian Affairs. Activity: Special Programs and 
Pooled Overhead: Subactivity: Community Development. As authorized by 
Public Law 84-959, ``The Adult Vocational Training Act.''
    The Crownpoint Institute of Technology requests $2.3 Million 
appropriated through the authorizing statute Public Law 84-959, ``The 
Adult Vocational Training Act.'' Public Law 84-959 authorizes 
appropriations when tribally-controlled vocational/technical colleges 
are not eligible to participate under Public Law 95-471, ``The Tribally 
Controlled Community Colleges and Universities Assistance Act.'' It is 
our understanding that only two such tribal colleges exist: the 
Crownpoint Institute of Technology, in Crownpoint, New Mexico and 
United Tribes Technical College (UTTC) in Bismarck, North Dakota.
    CIT's most urgent request regards contract support funds already 
appropriated but not received. Contract support was approved for CIT at 
what we understand to be the highest decision-making levels of the U.S. 
Department of Interior, Bureau of Indian Affairs. Yet, CIT continues to 
await receipt of this contract support. The subsequent more than 2 year 
delay has caused severe financial hardship on our institution. CIT 
requests that the contract support be retroactive to the date of 
approval which is not only appropriate but also absolutely necessary. 
As of April 1, 2002, CIT is still unable to obtain any indication that 
this contract support is being processed anywhere in the BIA. CIT 
respectfully requests the Subcommittee's assistance and intervention in 
making the contract support approval a reality.
    CIT urges that this Subcommittee reverse the Department's request 
to terminate CIT's funding. In addition, CIT requests that this 
Subcommittee appropriate funds sufficient to provide equal educational 
opportunity to its students. CIT is chartered by the Navajo Nation, 
licensed by the State of New Mexico, and fully-accredited as a 
postsecondary educational institution by the North Central Association 
of Colleges and Schools. In academic year 2001-2002, CIT enrolls 526 
Full Time Equivalency (FTE). Most students reside on the CIT campus. 
CIT exists entirely as a postsecondary educational institution, campus 
based on-reservation with dormitory student housing. CIT is gradually 
but steadily increasing its student housing through HUD to begin to 
accommodate the long-standing waiting list. CIT contributes to the 
Navajo Nation and the Department of Interior's goal that ``Education, 
job training . . . are essential to Tribal people to allow them to gain 
the skills and knowledge necessary to obtain and keep jobs and achieve 
economic stability.'' CIT's employment placements contribute to the 
Department's goal of reducing unemployment among Tribal people. CIT's 
vocational programs and employment placement advance the Department's 
goal of providing quality technical expertise to the Tribes from 
Justice, with CIT Legal Advocate programs, to Resources Management, 
with CIT Environmental Technology programs. All of CIT's thirteen 
vocational programs, seven Associate of Applied Science Degree Programs 
and non-degree continuing education respond to high demand employment 
fields. 84 percent of CIT's 2001 graduates were job placed by 
graduation, 86 percent of which were full-time employments. Of this 54 
percent were off-reservation, 46 percent on. CIT has a 91 percent 
student retention rate and an average 86 percent job placement rate 
over 9 years. In 2001, the average annual entry-level wage upon 
graduation was $17,160, although some CIT graduates earned as much as 
$23,920 (Veterinary Technician) and up to $18 hourly (Commercial Driver 
License) at entry level. CIT is in the process of developing Dental and 
Health Technician programs to respond to the personnel shortages and 
good wages in these fields as well. CIT's student body is comprised of 
51 percent men and 49 percent women. The average student age is 26, 
although the actual range is 18 to 64. CIT offers day care for single 
parent families and parenting skills courses are required for 
participation.
    The Department of Interior's proposed elimination of CIT has been 
justified by the assertion that ``the majority of the funds to operate 
the facility (CIT) and administer the education programs are authorized 
by special legislation under the Carl Perkins Act, Public Law 105-
332.'' In reality, the majority of these funds authorized by special 
legislation under the Carl Perkins Act (Section 117) are awarded to the 
United Tribes Technical College in Bismarck, North Dakota which has a 
significantly smaller enrollment than CIT and an Interior appropriation 
more than double CIT's, not including UTTC's additional contract 
support. An additional $14.750 Million under this same special 
legislation under the Carl Perkins Act (Section 116) goes to tribal 
grantees among which are thirteen tribal colleges also funded under 
Interior appropriations. All of the tribal colleges including United 
Tribes Technical College receive several million dollars in federal 
funding from other Departments in addition to their Department of 
Interior appropriations. There is no reasonable justification to single 
out and terminate CIT from among all the tribal colleges and UTTC which 
all receive varying amounts of additional federal funding from other 
Departments. If additional sources of federal funding are considered 
for CIT; additional sources of federal funding should be considered for 
all tribal colleges as well as the other vocational college, United 
Tribes Technical College, which all also receive Interior 
appropriations.
    CIT understands that the Balanced Budget and Deficit Control Act 
necessitates that appropriations increases have appropriations offsets. 
In order for the Department of Interior to increase appropriations 
requests for tribal colleges or to CIT's North Dakota companion tribal 
vocational college, UTTC, the Department must request decreased 
appropriations elsewhere. CIT requests that the Subcommittee evaluate 
appropriations merit with equal criteria. The funding CIT receives from 
Carl Perkins is competitive, unstable and dramatically insufficient to 
meet operational costs. Critically-needed administrative support funds 
have been absent from both Carl Perkins and Interior.
    Since the 1978 enactment of Indian education reform laws, this 
Subcommittee has appropriated school operations funds by considering 
institutional enrollment from the K-12 through the tribal colleges' 
level. This method equalizes per student Indian educational funding. 
Postsecondary Vocational Institutions are the only remaining vestiges 
of an Indian education funding system that was rendered obsolete more 
than two decades ago because it was so blatantly unfair to Indian 
students. Tribally-controlled Postsecondary Vocational Colleges remain 
the only tribal educational institutions in the nation for which 
student enrollment is not even an appropriations consideration. In 
instances where the federal budget precludes any tribal vocational 
college from receiving its full appropriation request, considering the 
size of enrollment is the only fair method toward enabling equal 
educational opportunity for all students affected.
    While operational funds to vocational postsecondary tribal colleges 
do not occur on an enrollment basis, it is unfair to students to 
completely ignore enrollment as a cost factor. Size of enrollment is 
the most significant cost factor. Indian Student Count (ISC), usually 
the same as Full-Time Equivalency (FTE), is the commonly accepted 
method of reducing enrollment to a common denominator. This 
Subcommittee has used ISC for over 20 years to provide equitable 
appropriations to Tribal colleges. For their K-12 counterparts, 
Weighted Student Units (WSU) is the appropriations equivalent for BIA 
and tribal elementary schools.
    ``Headcount'' can yield a far different number than ISC or FTE 
because headcount is subject to boundless interpretations. Headcount 
can include one-time participants in an afternoon Seminar or a 
distance-learning workshop. Educational costs for the various 
classifications of students differ significantly from full-time in-
residence students. While ``headcount'' yields the highest possible 
number, ISC/FTE computes headcount by a common denominator. CIT urges 
the Subcommittee to at least consider the size of enrollment in 
determining tribal vocational colleges' appropriations needs.
    An additional significant appropriations consideration is whether 
or not the tribal college's students require room and board as a 
condition of attendance. CIT and Dine College in Tsaile, Arizona are 
the only two tribally-chartered postsecondary institutions serving 
26,897 square miles Navajo Reservation and the 225,298 Navajo 
populations, of which 173,987 reside on trust land according to the 
U.S. Census. This Subcommittee appropriates funds to operate seventeen 
tribal colleges in three States (MT, ND, SD) serving a sixteen tribe 
population that combined does not equal that of the CIT and Dine 
College service area. Most of the tribal colleges do not have 
residential facilities or residential costs. CIT must incur residential 
student costs due to the vast size of the service area. CIT is in the 
process of completing sixteen additional HUD married student residences 
for academic year 2002-03, complementing the same number that was added 
last year. This continued accommodation of in-residence students is 
reflected in the ISC increase, has decreased the waiting list and 
enabled further educational opportunities and job placement Tribal 
citizens.
    An important consideration that artificially skews CIT 
appropriations considerations is the misunderstanding that a tribally-
chartered vocational college has special additional costs because of 
being open to all tribes. This misunderstanding affects CIT students 
because it precludes CIT from this justification. All tribally-
chartered colleges are open to all tribes. With 10,000 students 
graduating from Navajo area high schools each year and 200 otherwise 
qualified applicants wait-listed each year, CIT has no reason to 
recruit from other tribes. The distance traveled by some Navajo 
students across the Navajo reservation to attend CIT is a nine-hour 
drive. This distance is not unlike traveling from another tribe, but 
ultimately a student's Tribal affiliation does not drive the cost of 
attendance up or down. This year CIT has an Alaska Native student. The 
costs to educate this student are the same as the costs of educating 
his Navajo counterpart. The multi-tribal cost factor must be clarified 
in order that it not continues to be a factor that results in unequal 
educational opportunity for CIT students.
    Appropriations should consider numbers completing as well as 
numbers entering tribal educational institutions. In its Budget 
Justification to the Congress, the Department of Interior states that 
its goals are ``outcome'' based. The Department's own goal of outcomes 
should be considered in determining appropriations for CIT. Graduating 
and job-placed ISC are CIT outcomes. This number is as significant a 
measure for appropriations as the number of entering ISC. The 
Department states that the lack of readily available data to measure 
these outcomes is a primary obstacle to meeting its goals. CIT's 
graduation, other completion and job placement rates are readily 
available outcome data. As indicated above, CIT's has high retention, 
graduation and placement.
    The fact that CIT is categorized and funded under ``non-recurring 
programs'' seems to contribute further to confusion about CIT's 
appropriation need and merit. Not only does CIT contribute to BIA 
mission and goals, but CIT is also a tribally-chartered college. CIT 
meets all but one of the criteria to receive funding under the Tribal 
Colleges Public Law 95-471 for which appropriations are acknowledged as 
needing to recur every year. CIT is disqualified because the law allows 
one college per tribe. This criterion is not applied to any other realm 
of federal educational funding which is not appropriated on the number 
of States, or the number of cities: it is based on size of the 
population. CIT is a necessary second Navajo college and provides 
essential education to the population it serves.
    Interior appropriates Endowments to Public Law 95-471 tribal 
colleges on a two-to-one matching basis. By not being eligible for 
Public Law 95-471, CIT is excluded from endowment appropriations. 
Interior also appropriates planning grants and technical assistance 
under other provisions of the Tribal Colleges Act from which CIT is 
also excluded because it is not a 471 college. CIT requests that the 
subcommittee consider these categories from which CIT is excluded when 
considering CIT's appropriations request.
     However inadvertent, tribal educational institutions vested by the 
Federal Government with the greatest resources are elevated to 
privileged positions by virtue of those superior financial resources. 
This enables them to acquire even more financial resources. These 
institutions then compete among themselves for competitively-awarded 
Indian set-asides, and those with the greatest financial resources 
perpetuate the funding advantage. Ample financial resources translate 
directly into superior development initiatives and other advantages. If 
allowed to perpetuate, this can only result in unequal educational 
opportunity for students attending under-funded tribal institutions. 
This Subcommittee must not allow this injustice to befall CIT.
    We urge this Subcommittee to provide CIT a stable base of 
operational funding as it does for all the nation's tribal colleges and 
as it also does for the only other tribal vocational college, UTTC. We 
deeply appreciate this Subcommittee's consideration of our urgent 
request for equity in appropriations that will enable the continuation 
of CIT.
                                 ______
                                 
          Prepared Statement of the Intertribal Timber Council
                                summary
    Mr. Chairman, I am Nolan Colegrove, Sr., President of the 
Intertribal Timber Council. I hereby submit the following requests for 
BIA fiscal year 2003 appropriations:
    (1) Provide a total increase of $8.6 million in Tribal Priority 
Allocation Forestry, earmarked for distribution among tribal/BIA 
Forestry programs.
    (2) Restore $2,814,000 to Endangered Species in Resources 
Management, Non-Recurring Programs, and add $3 million to partially 
fulfill the unfunded mandates for tribal/BIA ESA management.
    (3) In Forestry under Resources Management, Non-Recurring 
Programs--
    (A) Add $25 million for Forest Development backlog elimination,
    (B) Add $6 million for Inventories and Plans to provide current 
            management plans for all trust forest land,
    (C) Add $500,000 for Woodlands management, and
    (D) Add $1 million for Integrated Resource Management Plans.
    (4) Add $1 million to Environmental Management in Non-Recurring 
Trust Services for cultural resources surveys.
    (5) Withhold redistribution of BIA funds for trust reform until the 
Trust Reform Task Force and Interior put forward a plan.
    (6) Within Wildland Fire funding in the Bureau of Land Management, 
direct BIA to develop a Native American fire crew leadership training 
program.
                 intertribal timber council background
    The Intertribal Timber Council (ITC) is a 26 year old organization 
of 70 forest owning tribes and Alaska Native organizations that 
collectively possess more than 90 percent of the 7.6 million timberland 
acres and a significant portion of the 9.5 million woodland acres that 
are under BIA trust management. These lands provide vitally important 
habitat, cultural and spiritual sites, recreation and subsistence uses, 
and through commercial forestry, income for the tribes and jobs for 
their members. In Alaska, the forests of Native corporations and 
thousands of individual allotments are equally important to their 
owners. To all our membership, our forests and woodlands are essential 
to our physical, cultural, and economic well-being, and their proper 
management is our foremost concern.
    At a time when the Interior Department, Congress, and the tribes 
are focused on the need for trust reform, it is essential that the 
United States recognize and meet its fiduciary obligations for the 
effective management of trust natural resources. It is the resource 
base that generates the trust funds, and the United States trust 
responsibility must assure the natural resource base is productive, 
sustained, and properly valued. To fail to do so both denies the Indian 
people the full benefit of their resources and potentially exposes the 
United States to substantial liabilities.
(1) Provide a total increase of $8.6 million in Tribal Priority 
        Allocation, earmarked for distribution among tribal/BIA 
        Forestry programs
    The ITC supports the $1,500,000 increase proposed for BIA Forestry 
in Tribal Priority Allocations (TPA), its first program increase since 
fiscal year 1995. We ask, however, that the $1.5 million be increased 
to $8.6 million to reflect cost of living adjustments since fiscal year 
1992 and the increase in trust forest land acres. We also ask that any 
TPA Forestry increase be distributed directly to the TPA and Self-
Governance Forestry programs.
    For the period December 1991, to February 2002, the consumer price 
index rose 28.9 percent. The fiscal year 1992 BIA TPA Forestry and 
estimated Self-Governance Forestry budget of $26.3 million, when 
adjusted to reflect that change, should be $33.9 million. That figure 
should also be adjusted to reflect the 7.5 percent increase in trust 
forest land acres over about the same period (15.9 million acres to 
17.1 million acres), producing a total of $36.4 million, or $8.6 
million over the fiscal year 2003 TPA Forestry and Self-Governance 
Forestry base of $27.8 million (excluding the $1.5 million fiscal year 
2003 increase). We note that an increase to $36.4 million will only 
restore these Forestry programs to the current equivalent of their 
fiscal year 1992 status, at which time the IFMAT report documented BIA 
Forestry funding as still insufficient, receiving only 63 percent of 
the funding for timber production on National Forests, and only 35 
percent of that for coordinated resources management. It is inequities 
such as these that must be addressed if trust reform is to be truly 
effective.
    Next, we request that, in either bill or report language, any 
programmatic increase for Forestry be specifically applied to tribal/
BIA forestry budgets in TPA and Self-Governance. Without such specific 
direction, any TPA Forestry increase would be spread throughout the 
overall TPA budget, losing its application to Forestry.
(2) Restore $2,814,000 to Endangered Species in Resources Management, 
        Non-Recurring Programs, and add $3 million to partially fulfill 
        the unfunded mandates of tribal/BIA ESA management
    We request that $2,814,000 be restored to the Endangered Species 
item in the BIA's Non-Recurring Programs Natural Resources budget, 
bringing it back to its fiscal year 2002 level of $3 million. This 
budget item includes $1.8 million for northern spotted owl and marbled 
murrelet requirements under the Endangered Species Act for Northwest 
timber tribes and $1.2 million for recovery of the black footed ferret 
on the Cheyenne River Sioux Reservation. Congress started the owl and 
murrelet program within the Forestry program in 1991 to enable the BIA 
to comply with the increased management requirements necessitated by 
the owl and murrelet ESA listings. BIA subsequently combined it with 
the ferret program, which the Administration tried to eliminate in 
fiscal year 2002. Now for fiscal year 2003, the Administration is 
proposing to eliminate both activities, reportedly because they apply 
to specific tribes. The fact is, these funds deal with each of these 
species across their entire range, and are distributed to tribes in 
that range. We ask that the funds be restored. They are essential for 
compliance with Endangered Species management requirements, and are the 
only funds that have ever been specifically provided in the BIA's 
budget for addressing these listed species. For more than a dozen 
timber tribes, the elimination of these funds would threaten the 
performance of surveys and protocols required by the ESA listings, 
which in turn could restrict or shut-down the timber harvesting that is 
essential to their reservation economies. It is astounding that, at the 
very time the Interior Department is stressing the need for trust 
management improvement, it is yanking funding that is critical to the 
performance of these federal mandates in our forests.
    We further request that a separate $3 million increase be added to 
the Endangered Species budget item for management of other ESA-listed 
species throughout Indian Country. To the best of our knowledge, other 
than the owl, murrelet, and ferret funds, the BIA has never requested 
any funds to specifically address the growing number of ESA-listed 
species on Indian reservations.
(3) In Forestry under Resources Management, Non-Recurring Programs
            (A) Add $25 million for Forest Development backlog 
                    elimination
    Forest Development, one of four components in Non-Recurring 
Forestry, provides for thinning and planting on the 6 million acres of 
commercial trust forest land. The fiscal year 2003 Forest Development 
request of $9.6 million will only provide treatment on 50,000 acres, 
which is about the annual accrual of commercial forest acres in need of 
thinning and planting. This budget request provides nothing for 
reducing the backlog of 1.3 million acres--or 22 percent of the trust 
commercial forest land base--now in need of thinning and planting. 
These acres, nearly one quarter of all trust commercial forest land, 
are either underproductive or out of production altogether. To fulfill 
the federal government's fiduciary obligation that all trust commercial 
forest land is effectively utilized, we request an fiscal year 2003 
increase of $25 million to treat 130,000 backlog acres and to initiate 
a program to eliminate the backlog in 10 years.
            (B) Add $6 million for Inventories and Plans to provide 
                    current management plans for all trust forest land
    Forest Management Inventory and Planning (FMI&P), another component 
of Non-Recurring Forestry, covers the special project costs associated 
with the development of new forest inventories and management plans for 
trust forests. Today, only 43 percent of all Indian trust forest land, 
including woodlands, has current management plans. A November 13, 1998 
Interior Solicitors' Opinion holds that ``Indian timber may not be 
harvested until an approved forest management plan has been 
established.'' The absence of current management plans for more than 
half of all Indian trust forest land could damage the resource or even 
foreclose harvest on those lands, posing the loss of tribal jobs and 
financial and subsistence resources. To prevent such occurrences and 
for the United States to fulfill its trust responsibilities, we request 
that $6 million be added to the $2 million fiscal year 2003 FMI&P 
request to begin providing current management plans for all trust 
forest lands.
            (C) Add $500,000 for Woodlands management
    We request the addition of $500,000 to Woodlands Management, 
another component of Non-Recurring Forestry. Funding for the management 
of 9.4 million acres of Indian Woodlands has not changed since the 
program's start in 1988, and only provides three woodlands managers in 
the Southwest and a very limited number of on-the-ground projects. Just 
one quarter of these lands, often vital for subsistence purposes, have 
any management plans, and less than one half have any resource 
inventory. An addition of $500,000 would increase inventory and 
planning, provide staff for improved oversight, and enable an increase 
in management projects.
            (D) Add $1 million for Integrated Resources Management 
                    Plans (IRMPs)
    The fourth component of Non-Recurring Forestry is Integrated 
Resource Management Planning, an essential element in modern forest 
management planning that is regularly and substantially funded in other 
federal land management agencies. But BIA, despite its trust 
responsibility, is only requesting about $200,000 for IRMPs for its 56 
million total acres in trust, including 17.1 million forest land acres 
in trust. To begin to redress this glaring discrepancy, we ask that $1 
million be added to the IRMP program.
(4) Add $1 million to Environmental Management in Non-Recurring Trust 
        Services for cultural resources surveys
    Indian lands are rich in historic artifacts and sensitive sites, 
making complying with the Historic Preservation Act, NAGPRA, and other 
federal mandates in the NEPA process an exacting task. These cultural 
surveys are also an essential task in developing management plans for 
forest lands, supplying information critical to both the broad 
parameters and the details of those plans. Yet, to the best of our 
knowledge, the BIA has never requested, nor has Congress provided, any 
funding to help meet those federal mandates. To begin correcting this 
shortcoming, we request that $1 million be added to Environmental 
Management in Non-Recurring Trust Resources for cultural resource 
surveys.
(5) Withhold redistribution of BIA funds for trust reform until the 
        Joint Tribal-Interior Trust Reform Task Force puts forward a 
        plan
    Meaningful trust reform for the Interior Department is an 
exceptionally complex undertaking that will fail without the support of 
the tribes. We believe a good faith cooperative effort by Interior with 
the tribes will both help assure reform's ultimate success and incur 
the patience and goodwill of the Cobell Court. Such an effort may take 
longer than Interior would like, but it is essential. The Joint 
Tribal--Interior Trust Reform Task Force is the best means identified 
to date for pursuing that effort, and all parties, including Congress, 
must support its work. Congress's support would help dissuade Interior, 
already on edge about trust reform, from abruptly pursuing trust reform 
unilaterally on its own terms, which could produce a true crisis that 
we believe would ultimately be unproductive. So, we ask the Congress to 
urge Interior's full and dedicated engagement in the Task Force by 
making it clear that any significant reprogramming of appropriations 
for trust reform will be withheld until the Task Force and Interior 
develop, examine, and put forward a unified trust restructuring plan.
(6) Within Wildland Fire funding in the Bureau of Land Management, 
        direct BIA to develop a Native American fire crew leadership 
        training program
    There is an increasing need for fire crew leadership training that, 
if not addressed, could hinder deployment of otherwise fully trained 
and able crews to fight wildland fires. A crew leadership training 
program in the BIA would be of particular interest to Native American 
crews, which constitute about 25 percent of the line fire fighter work 
force. To help address this need, we ask that the BIA develop a Native 
American fire crew leadership training program.
    Thank you for the opportunity to present this testimony.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf on the National Congress of American Indians and its more 
than 200 member tribal nations, we are pleased to have the opportunity 
to present written testimony on fiscal year 2003 appropriations for the 
Bureau of Indian Affairs (BIA).
    The tragic events of September 11 brought forth the strength and 
the determination of our nation to survive in the face of adversity. It 
is this same spirit that has carried Indian Country through years of 
annihilation and termination. It is this same spirit that has propelled 
Indian Nations forward into an era of self-determination and self-
governance. And it is in this same spirit of resolve that Indian 
Nations come before Congress to talk about honoring the federal 
government's treaty obligations and trust responsibilities throughout 
the fiscal year 2003 budget and appropriations process.
    On February 4, President Bush proposed a $2.13 trillion budget for 
fiscal year 2003 that included largely level funding for Indian 
programs, continuing the trend of consistent declines in federal per 
capita spending for Indians compared to per capita expenditures for the 
population at large. This trend demonstrates the abject failure of the 
federal government to commit the serious resources needed to fully 
honor its trust commitment to Indian tribes.
    The federal trust responsibility represents the legal obligation 
made by the U.S. government to Indian tribes when their lands were 
ceded to the United States. This obligation is codified in numerous 
treaties, statutes, Presidential directives, judicial opinions, and 
international doctrines. It can be divided into three general areas--
protection of Indian trust lands; protection of tribal self-governance; 
and provision of basic social, medical, and educational services for 
tribal members.
    NCAI realizes that Congress must make difficult budget choices this 
year. As elected officials, tribal leaders certainly understand the 
competing priorities that you must weigh over the coming months. 
However, the fact that the federal government has a solemn 
responsibility to address the serious needs facing Indian Country 
remains unchanged, whatever the economic climate.
    We at NCAI urge you to make a strong across-the-board commitment to 
meeting the federal trust obligation by fully funding those programs 
that are vital to the creation of vibrant Indian Nations. Such a 
commitment, coupled with continued efforts to strengthen tribal 
governments and to clarify the government-to-government relationship, 
truly will make a difference in helping us to create stable, 
diversified, and healthy economies in Indian Country.
    The President has requested a $22.9 million increase for the Bureau 
of Indian Affairs, from $2.25 billion to $2.27 billion. The funding 
increase is primarily dedicated to trust management activities. Other 
key areas of the BIA budget, such as Tribal Priority Allocations, 
public safety, and economic development, remain deeply under-funded.
    Tribal Priority Allocations (TPA) provide tribes with the resources 
for governmental services at the local level. Because we are able to 
prioritize TPA funds according to our unique needs and circumstances, 
providing adequate TPA resources is one of the most important and 
practical things that the federal government can do to further the 
goals of tribal self-governance. Unfortunately, the Administration's 
proposed budget requests only a $23.4 million increase to this account, 
with nearly $18 million of that amount going toward trust-related 
activities.
    The Census Bureau's Poverty in the United States for 2000 showed 
that American Indians and Alaska Natives remain at the bottom of the 
economic ladder, with 25 percent of our population falling below the 
poverty line. This compares to an 11.9 percent poverty rate for all 
races combined. Simply put, tribal governments cannot continue to 
provide essential government services to our growing--and 
disproportionately poor--population without a substantial increase in 
our TPA funds.
    Today, unemployment rates in Indian Country are the highest in the 
nation, sometimes topping 50 percent. The development of new and 
diverse businesses in Indian Country is one cornerstone of self-
sufficiency. The Indian Financing Act of 1974 contains loan guaranty 
and insurance features that are designed to encourage commercial 
lenders to provide capital to Indian businesses that might otherwise be 
denied funding. The BIA has requested a $500,000 increase to implement 
the insured loan portion of the Indian Guaranteed Loan program into new 
markets to finance small Indian businesses and to develop equity 
financing opportunities for tribes and individual Indian entrepreneurs. 
This increase is expected to provide approximately $7 million in 
additional loan subsidies for fiscal year 2003 above the expected $65 
million in loan subsidies provided from the base funds of $4.5 million 
for the program. NCAI is encouraged by the BIA's desire to expand the 
Loan Guaranty Program, and we urge the Subcommittee to substantially 
increase funding for it and other BIA economic development programs.
    According to statistics provided the by the National American 
Indian Housing Council, 40 percent of the homes in tribal communities 
are overcrowded and have serious physical deficiencies. The comparable 
national average is 5.9 percent, almost six times lower. These types of 
conditions have a very real and detrimental impact. Respiratory 
illness, skin conditions, head lice, sleep deprivation that affects 
schooling, and a lack of privacy that sometimes leads to child physical 
and sexual abuse can all be traced back to the housing crisis that 
plagues some of our reservations. The Housing Improvement Program (HIP) 
improves the quality of life of the poorest Indians by eliminating 
substandard housing and homelessness in or near reservation 
communities. HIP is a last resort ``safety net'' program that is 
targeted for those families who are able to meet even minimum HUD 
income guidelines. According to the BIA's budget documents, $362.5 
million would be required just to meet the needs of those eligible HIP 
applicants that have been determined eligible. However, the budget 
requests only $19.6 million for this program. We request that you 
increase funding to a minimum of $33 million to help better address the 
outstanding housing needs in Indian Country.
    The President's budget request also includes a troublesome proposal 
that would authorize the privatization of the 64 schools directly 
operated by the Bureau of Indian Affairs, unless tribes decide to 
operate these schools under contracts or grants. Of course, tribal 
operation of schools is a fundamental principle of self-determination, 
and NCAI firmly supports the right of tribes to privatize schools if 
they so desire--a subcontracting power that tribal governments already 
have when they contract to operate BIA schools.
    That being said, the budget request fails to provide adequate 
funding to cover the costs of tribal administration of BIA-funded 
schools, especially the lowest performing ones slated for transfer. The 
small increase in funding proposed for Administrative Cost Grants does 
not come close to addressing the drastic shortfalls that exist in this 
account, which is currently funded at a dangerously low level of only 
70 percent of the level required under federal law. Additional school 
conversions to tribal operation would decrease the already too-small 
slice of the pie going to each school even more. Likewise, the $2 
million increase proposed for student transportation is completely 
inadequate compared to the $21.5 million needed just to bring tribally-
operated schools up to a funding level that equals the national average 
of 5 years ago.
    Moving beyond elementary and secondary education, the President's 
budget request also inexplicably cuts funding for tribally controlled 
community colleges and universities. More than 30,000 Native American 
students from 250 federally recognized tribes attend these schools, 
which are located in isolated areas and which often are the only 
accredited institutions of higher education in their service area. 
Tribal colleges serve students of all ages, a majority of whom are 
first-generation college students and approximately 20 percent of whom 
are non-Indian. Today, per-Indian student funding for tribal colleges 
in $3,915, less than two-thirds of the $6,000 authorized for 
institutional operations. While annual appropriations for tribal 
colleges has increased modestly in recent years, the President's budget 
includes no increase in operating funds, which actually would result in 
a cut of $390 per student once annual enrollment increases and reduced 
federal funding are factored in.
    NCAI recognizes that alcohol and substance abuse is more than a 
health problem--it is a serious social, education, law enforcement, 
tribal justice, domestic violence, and economic problem. The 1999 
National Household Survey on Drug Abuse shows a major decrease in 
alcohol and substance abuse among the general population, but an 
increase in its prevalence among Native American populations, a major 
threat to the future of Indian children and youth. For the past several 
years, federal appropriations have failed to adequately support funding 
levels for tribal substance abuse prevention programs. We urge that you 
reverse this trend by increasing funding for prevention and treatment 
programs within both the BIA and the Indian Health Service.
    Last, but certainly not least, NCAI is extremely concerned that a 
large portion of the requested increase for trust management activities 
within the BIA and the Office of Special Trustee would go toward 
implementing the new Bureau of Indian Trust Assets Management that is 
strongly opposed by tribes. NCAI believes that a large funding increase 
is key to reversing the hundreds of years of gross mismanagement that 
continues to plague tribal and Indian trust accounts. As Secretary 
Norton herself has pointed out, it will cost ``hundreds of millions'' 
of dollars to remedy the problem. However, any such increases must be 
targeted for workable, well-planned reform initiatives developed in 
close consultation with tribes and individual beneficiaries.
    Thank you for this opportunity to present written testimony 
regarding the fiscal year 2003 appropriations for the Bureau of Indian 
Affairs. The National Congress of American Indians calls upon Congress 
to fulfill the federal government's fiduciary duty to American Indians 
and Alaska Native people. This responsibility should never be 
compromised or diminished because of any political agenda or budget cut 
scenario. Tribes throughout the nation relinquished their lands and in 
return received a trust obligation, and we ask that Congress maintain 
this solemn obligation to Indian Country and continue to assist tribal 
governments as we build strong, diverse, and healthy nations for our 
people.
                                 ______
                                 
          Prepared Statement of the Seminole Tribe of Florida
    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the Tribe's fiscal year 2003 request for funding from 
programs in the Department of the Interior (DOI). The Tribe requests 
that Congress:
  --Continue to provide $399,000 to the Bureau of Indian Affairs for 
        water quality and quantity studies by the Seminole Tribe of 
        Florida and the Miccosukee Tribe of Indians, to be equally 
        divided between the Tribes; and
  --Provide $761,000 to the Bureau of Indian Affairs, Water Management 
        Planning and Pre-Development account for the Seminole Tribe for 
        water quality studies and other ecosystem restoration studies, 
        as a part of the Seminole Tribe's Everglades restoration 
        efforts.
    The Tribe's Everglades Restoration Initiative is a comprehensive 
water conservation system designed to improve the water quality and 
natural hydropatterns in the Big Cypress Basin. The Initiative, as 
implemented on the Big Cypress Reservation, is designed to mitigate the 
degradation the ecosystem has suffered through decades of flood control 
projects and urban and agricultural use. It will also provide an 
important public benefit: a new system to convey excess water from the 
western basins to the Big Cypress National Preserve, where water is 
vitally needed for rehydration and restoration of lands within the 
Preserve. This Initiative will contribute to the overall success of the 
Comprehensive Everglades Restoration Plan (CERP) as authorized by the 
Water Resources Development Act of 2000 (WRDA 2000).
    Department of Interior funding has helped the Tribe develop 
restoration programs and projects and ultimately define its role in the 
overall South Florida Ecosystem effort. The Seminole Tribe continues to 
make significant contributions to the restoration effort and looks 
forward to a continued partnership with DOI toward achieving our common 
goals.
    The Seminole Tribe reviewed many federal programs in search of 
funding opportunities for the design, engineering, and construction of 
the projects that compose the Everglades Restoration Initiative. U.S. 
Army Corps of Engineers (COE) and the USDA Natural Resources 
Conservation Service (NRCS) programs have been identified as 
appropriate matches for the Tribe's Everglades Restoration Initiative. 
The Tribe and the COE initiated an agreement for design and 
construction of the western portion of the Big Cypress Reservation, 
along with a canal that transverses the Reservation, as a Critical 
Project under the authority of the Water Resources Development Act of 
1999. Initial construction activities on this project are underway. The 
NRCS has identified a number of Farm Bill programs and the Small 
Watersheds Program as suitable for funding the design, planning, and 
construction of the project on the eastern portion of the Reservation.
    The funds provided by the DOI have made it possible for the Tribe 
to do the research necessary to allow the COE and NRCS to complete 
final project designs. The Tribe continues to spend Tribal funds to 
advance the research and design and is prepared to provide the required 
cost share payments as required by the different federal programs. In 
addition, the results of studies the Tribe helps pay for with both the 
Critical Ecosystem Study Initiative (CESI) funds from NPS and the BIA 
funds will be applicable to other CERP projects.
                            funding history
    The DOI, through the Bureau of Indian Affairs (BIA), has provided 
the Seminole Tribe with $199,500 in each of the fiscal years 1994 
through 2002, half of the $399,000 line item. The Tribe has used this 
BIA funding to complete studies and water quality and quantity 
monitoring that has proven critical to the Tribe's leading role in 
Everglades restoration.
    Through the NPS's CESI program, Interior provided the Tribe with 
$390,000 in fiscal year 1997, $920,000 in fiscal year 1998, $684,125 in 
fiscal year 1999, $230,000 in fiscal year 2000, and $220,000 in fiscal 
year 2001. The Tribe did not receive any fiscal year 2002 CESI funds. 
The Seminole Tribe uses CESI funds to monitor and analyze the quality 
and quantity of water coming onto and leaving the Reservation and to 
conduct scientific studies to determine nutrient impacts. For example, 
the Tribe studied the assimilative capacity of the C&SF canals for 
nutrients, phosphorus in particular. The results of such monitoring and 
studies will be available to others studying ecosystem degradation and 
developing plans to arrest the harm.
               detail on fiscal year 2003 funding request
    Continued funding at an increased level is necessary for the Tribe 
to complete a number of studies that will support the design, 
construction, and operation of the Big Cypress water conservation 
project. Funding through the BIA budget is also necessary because the 
source of supplemental funding in prior fiscal years (the NPS CESI 
account) has become so low as to not support the studies originally 
funded with the CESI funds.
    Specific studies that would be supported through the increased 
level of BIA funding include the following:
  --Forested Wetland Nutrient Uptake Research designed to address how 
        to restore and maintain wetland communities of plants and 
        animals weakened by the adverse impact of poor water quality 
        and desiccation by re-establishing natural hydrology and water 
        quality;
  --Developing Vegatative Bioindicators of Hydropattern and Nutrient 
        Levels on the Big Cypress Reservation for the purpose of 
        developing appropriate biotic performance measures to assess 
        the success of the Tribe's CERP-related construction projects 
        with the COE and the NRCS;
  --Seminole Tribe Data Collection and Monitoring designed to access 
        ecosystem damage and explore methods to restore and enhance 
        natural habitats; and
  --Early Detection and Management of the Invasion of the Big Cypress 
        Reservation by the Exotic Climbing Fern designed to prevent 
        this invasive species from negating the restoration and 
        preservation of native wetland communities.
    Most of this research is likely to be applicable to most areas of 
the Big Cypress Basin where similar forested wetland bio-regions exist.
                               conclusion
    The Tribe understands that the President's government-wide 
management plan issued in August directed the Energy Department to 
align its applied-research projects to performance goals. We also 
understand that, eventually, the results of the Energy Department's 
efforts will be used as a model for examining the effectiveness of 
research and development programs throughout the government. The 
Tribe's research projects for which this testimony requests funding 
support the performance goals of the ecosystem restoration projects the 
Tribe is building with other federal agencies. Further, the results of 
the applied research for which the Tribe seeks funding will enhance the 
effectiveness of the physical projects.
    Improving the water quality of the basins feeding into the Big 
Cypress National Preserve and the Everglades National Park is vital to 
restoring the Everglades for future generations. By granting this 
appropriation request, the federal government will be taking a 
substantive step towards improving the quality of the surface water 
that flows over the Big Cypress Reservation and on into the delicate 
Everglades ecosystem. Such responsible action with regard to the Big 
Cypress Reservation, which is federal land held in trust for the Tribe, 
will send a clear message that the federal government is committed to 
Everglades restoration, and the Tribe's role in this historic ecosystem 
restoration effort.
    The Seminole Tribe is working hard to realize the environmental 
benefits the Reservation and the surrounding ecosystem need. The Tribe 
is making substantial commitments, including the dedication of over 
9,000 acres of land for water management improvements. However, as the 
Tribe moves forward with its contribution to the restoration of the 
South Florida ecosystem, a substantially higher level of federal 
financial assistance is needed as well.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the federal 
government to also participate in that effort. This effort benefits not 
just the Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 
    Prepared Statement of the National American Indian Court Judges 
                              Association
    On behalf of the National American Indian Court Judges Association 
(NAICJA), I am pleased to submit this testimony on the fiscal year 2003 
budget for the Interior Department's funding for the Indian Tribal 
Justice Act and Tribal Courts (under the Tribal Priority Allocations).
    The National American Indian Court Judges Association (NAICJA) was 
incorporated in 1969. NAICJA is the largest organization representing 
Tribal Judges and Tribal Courts in the United States. NAICJA has 
approximately 138 member Judges. The mission of NAICJA is to strengthen 
and enhance Tribal justice systems through improvement and development 
of Tribal Courts and Tribal Court Judges.
interior department funding indian tribal justice act and tribal courts
    NAICJA respectfully requests that, for the first time, Congress 
appropriate full and adequate funding for Indian Tribal Justice Act: 
NAICJA recommends a funding level of $58 million for the Indian Tribal 
Justice Act. While NAICJA supports the Interior Department's fiscal 
year 2001 budget request, the Act (reauthorized in 2001) has never been 
sufficiently funded. The good intentions of the Act are never achieved. 
A the same time, the number of Tribal Courts and their needs have 
substantially increased since the Act was first made law in 1993--more 
than 9 years ago.
    Regarding Tribal Courts (under the Tribal Priority Allocations): 
NAICJA strongly supports increased funding for Tribal Courts under the 
Tribal Priority Allocations (TPA). While we support the Interior 
Department's fiscal year 2001 budget request (which includes a $4 
million increase) this represents only a first step toward meeting the 
vital needs of Tribal justice systems. It is important to note that 
funding has steadily decreased since the passage of the Indian Tribal 
Justice Act. The needs (as recognized by Congress), however, have 
steadily increased with the passage of time, the increase in tribal 
courts, the increase of caseloads, Indian population growth, and rise 
in crime rate in Indian country.
    Tribal Courts must deal with a wide range of difficult criminal and 
civil justice problems on a daily basis, including the following:
  --The crime rate, especially the violent crime rate, has increased 
        substantially in Indian Country. (At the same time, it has been 
        declining nationally.) Tribal court systems are grossly under-
        funded to deal with increasing criminal justice problems.
  --Number/complexity of tribal civil caseloads have also been rapidly 
        expanding. Tribal Courts are expected to deal with the same 
        complex civil cases as state and Federal Courts with less than 
        one half the funding.
  --Congress acknowledged the need for better funded Tribal Court 
        systems when it enacted the Indian Tribal Justice Act in 1993. 
        Congress specifically found that ``tribal justice systems are 
        an essential part of tribal governments and serve as important 
        forums for ensuring public health and safety and the political 
        integrity of tribal governments'' and ``tribal justice systems 
        are inadequately funded, and the lack of adequate funding 
        impairs their operation.''
  --The Indian Tribal Justice Act promised more than $58 million per 
        year in additional funding for Tribal Court systems starting in 
        fiscal year 1994. Tribal Courts have yet to see ANY funding 
        under this Act.
  --Since Congress enacted the Indian Tribal Justice Act, the needs of 
        Tribal Court systems have continued to increase, but there has 
        been no corresponding increase in funding for Tribal Court 
        systems. In fact, the Bureau of Indian Affairs funding for 
        Tribal Courts has actually decreased substantially since the 
        Indian Tribal justice Act was enacted in 1993.
    The vast majority of the approximately 350 Tribal court systems are 
located in rural communities. These Tribal justice systems face many of 
the same difficulties faced by other isolated communities, but these 
problems are greatly magnified by the many other complex problems that 
are unique to Indian country. In addition to the previously mentioned 
problems, Tribal justice systems lack sufficient jurisdiction over non-
Indians, have complex jurisdictional relationships with Federal and 
state criminal justice systems, inadequate law enforcement, are a great 
distance from the few existing resources, face a lack of detention 
staff and facilities, have a lack of sentencing or disposition 
alternatives, lack of access to advanced technology, lack substance 
abuse testing and treatment options, etc.
    In most Tribal justice systems, 80-90 percent of the cases are 
criminal case and 90 percent of these cases involve the difficult 
problems of alcohol and/or substance abuse.
                      importance of tribal courts
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in Tribal communities.

    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . . . Tribal 
courts are of growing significance in Indian Country.''----(Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995)).

    Tribal Courts must deal with the very same issues state and Federal 
courts confront in the criminal context, including, child sexual abuse, 
alcohol and substance abuse, gang violence and violence against women. 
Tribal Courts, however, must address these complex issues with far 
fewer financial resources than their Federal and state counterparts. 
Judicial training that addresses the existing problems in Indian 
Country, while also being culturally sensitive, is essential for Tribal 
Courts to be effective in deterring and solving crime in Indian 
communities.
              inadequate funding of tribal justice systems
    There is no question that Tribal justice systems are, and 
historically have been, under-funded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' More than 10 years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    With the passage of the Indian Tribal Justice Act, 25 U.S.C. 
Sec. 3601 et seq. (the ``Act''), Congress found that ``[T]ribal justice 
systems are an essential part of tribal governments and serve as 
important forums for ensuring public health, safety and the political 
integrity of tribal governments.'' 25 U.S.C. Sec. 3601(5). Congress 
found that ``tribal justice systems are inadequately funded, and the 
lack of adequate funding impairs their operation.'' 25 U.S.C. 
Sec. 3601(8). In order to remedy this lack of funding, the Act 
authorized appropriation base funding support for tribal justice 
systems in the amount of $50,000,000 for each of the fiscal years 1994 
through 2000. 25 U.S.C. Sec. 3621(b). An additional $500,000 for each 
of the same fiscal years was authorized to be appropriated for the 
administration of Tribal Judicial Conferences for the ``development, 
enhancement and continuing operation of tribal justice systems . . .'' 
25 U.S.C. Sec. 3614.
    Nine years after the Act was enacted into law, and even after 
reauthorization, no funding has been appropriated. Only minimal funds, 
at best, have been requested. Yet, even these minimal requests were 
deleted prior to passage. Even more appalling is the fact that BIA 
funding for Tribal Courts has actually substantially decreased 
following the enactment of the Indian Tribal Justice Act in 1993.
                               conclusion
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are key 
to tribal economic development and self-sufficiency. Any serious 
attempt to fulfill the federal government's trust responsibility to 
Indian Nations must include increased funding and enhancement of Tribal 
justice systems. We respectfully request that Congress consider the 
funding increases we have commented on, above.
    We welcome the opportunity to comment on the Interior Department's 
Budget Request for the Indian Tribal Justice Act and Tribal Courts 
(under the Tribal Priority Allocations). Please contact me at (715) 
369-1850, or NAICJA Executive Director Chuck Robertson, at (605) 342-
4804 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d131c141e171c3d0f080e1510120f18531e1210">[email&#160;protected]</a> with questions or comments. Thank you.
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                           Indian Reservation
                              introduction
    The Fort Peck Tribes are pleased to present testimony on the fiscal 
year 2003 BIA and IHS Budget. We have included a budget sheet outlining 
the current levels of funding at Fort Peck and the level of need 
remaining in these programs.
    The Tribes previously submitted to the Subcommittee a proposal to 
effectuate real trust reform in Indian Country. The thrust of the 
Tribes' proposal is to return the operation of trust programs back to 
the agencies and the people who are impacted by the trust program 
operations. This proposal would cost approximately $5 million in the 
first year to implement at Fort Peck. The adequate funding levels shown 
on the attached budget sheet reflect the funding needs of the proposed 
demonstration program. We urge the Subcommittee to fund this proposal, 
which we believe is the only way Indian country will have true trust 
reform.
                      tribal priority allocations
    The Tribal Priority Allocations system is intended to give tribes 
an additional measure of flexibility in determining how to use 
available funds to best meet local needs. The Administration has 
requested an increase of $23 million for programs under TPA. While we 
support this request, it would still fall far short of allowing the 
Fort Peck Tribes to meet the needs of our people in key areas 
including, education, agriculture and tribal courts. We urge the 
Congress to do all it can to increase TPA above the level requested by 
the President.
    In particular, we are very concerned with the Administration's $4 
million cut proposed for General Assistance. This cut is premised on a 
purported decline in caseloads. It is difficult to believe this is in 
fact true on a national level, since we at Fort Peck have experienced 
an increase in requests for General Assistance. This increase is 
largely the result of the Welfare Reform law and the strict work and 
benefit restrictions placed on individuals. People, who have had the 
benefits terminated, are returning home to take advantage of tribal 
work, educational and housing programs. As a result, the GA shortfall 
at Fort Peck alone is $800,000. Thus, as Congress seeks to reauthorize 
the Welfare Reform law we would urge the Subcommittee not to cut GA, 
which is an important part of tribal assistant programs.
                               education
Higher Education
    We urge the Committee to support the education needs of Indian 
people. The President's budget requests $28 million for scholarships 
for Indian students to attend accredited post-secondary schools. 
Obtaining a degree in higher education--particularly for those 
individuals from families that have not previously sent anyone to 
college--takes courage and often considerable personal sacrifice. We 
believe it is our responsibility to support the efforts of our people 
to attend college. The Tribes provide scholarship funds available 
through the BIA program. However, the current levels of funding are 
already far too inadequate. For example, this year the Tribes have 
identified 230 students who are eligible for scholarship benefits for 
higher education but who cannot be served because of lack of funding. 
The BIA itself reports that the level of unmet requests for 
scholarships nationwide has increased steadily over the last 3 years.
Tribal Colleges
    We oppose the Administration's proposal to cut tribal colleges 
funding by $2 million. The twenty-six tribal colleges are important 
institutions in the remote tribal communities that they serve. On our 
Reservation, we operate the Fort Peck Tribal College, a fully 
accredited institution, offering Associate Degrees in arts, science and 
applied sciences. We have 341 students enrolled this year.
    The College offers our students an opportunity to obtain a higher 
education without having to leave their homes and families. This is 
critical for many of our students, especially our our single parent 
students, who need family members to provide child care. These students 
do not have the resources or the network to attend school in Billings 
or Great Falls and if it weren't for our Tribal College they would have 
no opportunity to improve their lives, through higher education.
    We strongly urge the Subcommittee to increase funding for this 
vital program that is improving the lives of Indian people.
                         indian health service
    The President's budget requests a total of $2.9 billion for IHS 
services and construction. While this represents an increase on paper, 
it will not translate into any program improvements or expansions. This 
increase does not even keep pace with medical inflation rates.
    The Federal Government has a trust responsibility to provide health 
care to Native Americans, an obligation that was paid with millions of 
acres of land and resources. This Federal responsibility has been 
reaffirmed through treaties, legislation, executive orders and policies 
by Congress and Presidential Administrations. The Indian Health Service 
budget must include consideration for medical inflation, population 
increases and mandatory payroll increase. The IHS has adsorbed over $1 
billion mandatory cost increases over the past 10 years causing the 
loss of purchasing power that has led to insufficient funding for 
medical services putting lives and health of Native people at risk. 
This is not acceptable. The same allowance given to federal programs, 
Medicaid and Medicare, for inflation and population adjustments should 
be applied to the IHS fiscal year 2003 Budget.
    The health indicators in Indian communities consistently 
demonstrate higher infant mortality, teenage suicide, accident, 
alcoholism, diabetes, and heart disease rates among Indian people when 
compared with other minorities and the general American population. 
Yet, money directed to health care, especially preventative care, such 
as routine checkups and health education, that clearly improve the 
quality of life and help avoid more expensive health care costs in the 
future is not included in the Administration's fiscal year 2003 budget 
request. This is unacceptable.
    Tribes are particularly concerned that the Administration failed to 
request an increase for contract health care. This program is critical 
in places like Fort Peck where our members do not have access to an IHS 
hospital or physicians. Currently, contract health services are funded 
only at the highest priority level. This means that only those that are 
threatened with life or limb are referred out to receive health care. 
Thus, people waiting on critical surgery like a gall bladder removal 
must wait until a doctor can certify that the patient's life is in 
danger, before that person may receive care. This is very costly in not 
only dollars, but lives. We urge the Subcommittee to provide an 
increase in Contract Health Care.

LEVEL OF DEPARTMENT OF INTERIOR BUREAU OF INDIANS AFFAIRS AND IHS INDIAN
               HEALTH SERVICE FUNDING TO FORT PECK TRIBES
------------------------------------------------------------------------
                                                    Fiscal year
                                         -------------------------------
                                           2002 current    2003 adequate
------------------------------------------------------------------------
Fort Peck Agency Funding:
    Aid to Tribal Gov't.................  ..............        $805,162
    Contract Support....................        $189,860         295,860
    Social Services.....................         523,189         608,957
    Welfare Assistance..................       1,045,924       1,800,000
    Community Fire Protection...........  ..............         280,000
    Economic Development................         147,843         268,138
    Probate \1\.........................         117,827       1,576,920
    Natural Resources...................          88,618         783,521
    Other Rights Protection.............         157,250         422,016
    Real Estate Services................         703,775         876,176
    Trust Services, Gen.................          51,543          90,487
    Executive Direction \1\.............         110,105         194,981
    Administrative Services \1\.........         285,209       1,066,441
    Trust Financial \1\.................  ..............       1,485,896
    Legal Services \1\..................  ..............         549,267
    Facilities..........................         183,000         329,741
    Facilities/Other one time \1\.......  ..............         700,000
    Road Maintenance....................         415,000         931,888
    Irrigation O&M......................  ..............         461,000
    Safety Management...................  ..............           7,500
    Noxious Weed Eradication............          24,439         234,000
    Water Management/Development........  ..............          30,000
    Facilities Mgmt./ Maintenance.......  ..............          90,000
                                         -------------------------------
      Total.............................       4,043,582      13,887,951
                                         ===============================
Tribal Public Law 93-638 Contracts &
 Grants:
    Scholarships........................         341,331         730,075
    Adult Vocational Training...........         199,254         254,400
    Direct Employment...................          85,395         117,000
    Johnson O'Malley Program............         161,753         450,000
    Housing Improvement Program.........         155,738         346,110
    Indian Child Welfare Act............          67,509          97,500
    Sexual Abuse Victim. Prog...........         150,600         200,000
    Water Resources.....................         182,276         200,000
    Wildlife & Parks....................         114,000         493,980
    Tribal Courts.......................         235,562         250,000
    Law Enforcement/criminal invest.....         737,517       2,000,000
    Detention Services/juvenile services       1,042,116       2,000,000
                                         -------------------------------
      Total.............................       3,473,061       7,139,065
                                         ===============================
IHS--service unit:
    Hospitals & Clinics.................       4,443,800       6,247,500
    Dental..............................         529,100         819,000
    Mental Health.......................         433,800         525,000
    Contract Health.....................       5,404,800       6,000,000
    Public Health Hearing...............         314,900         420,000
    Maintenance & Improvements..........          60,700          80,000
    Environmental Health................         293,500         308,175
    Facilities..........................         310,200         325,500
    Quarters............................          14,100          50,000
                                         -------------------------------
      Total.............................      11,804,900      14,775,175
                                         ===============================
Public Law 93-638 IHS TRIBAL:
    Tribal Health Administration........         147,174         183,967
    Community Health Rep................         768,524         960,655
    Environmental Health Program........         107,382         134,227
    Health Education....................         165,699         207,123
    Nutritionist........................          75,455          94,318
    Janitorial Services.................         130,714         163,392
                                         -------------------------------
      Total.............................       1,394,950       1,743,682
------------------------------------------------------------------------
\1\ Denotes programs to be include in the Fort Peck Tribes' Trust Reform
  demonstration program.

                                 ______
                                 
     Prepared Statement of the Confederated Tribes of the Colville 
                              Reservation
    On behalf of the Colville Tribes, I am presenting the Tribes' top 
priorities for the President's fiscal year 2003 Budget for Interior & 
Related Agencies. The Tribes priorities are:
    1. Colville Tribes Detention Facility (BIA).-- The Colvile Tribes 
are concerned that the Bureau of Indian Affairs' total request for 
Operation & Maintenance of Detention Facilities is inadequate to meet 
the needs for facilities. Our facility is scheduled for opening in 
November of 2003. Our operations and maintenance budget alone is 
estimated at $2,509,734.
    2. Lake Roosevelt Management (BIA).--Funding of $630,000 in the 
BIA's Parks and wildlife Account for Colville and Spokane Tribes' 
management of their interests in the Indians zones of Lake Roosevelt 
has been stripped out in the President's fiscal year 2003 Budget. We 
are asking that this money be restored.
                      colville detention facility
    Purpose of Funding.--The Tribes request a $2,509,734 add on for the 
Operation & Maintenance costs associated with the Colville Tribal 
Detention Facility scheduled for opening in November of 2003.
    Justification of Funding.--The Colville Tribes were put on the 
BIA's PONI Process in fiscal year 1990. Since 1999, funding for new 
detention centers in Indian Country has been provided within the 
Department of Justice's (DOJ) appropriation. DOJ funding in the total 
amount of $7,079,550 for construction of the Tribes' Detention Facility 
has now been provided.
    With technical assistance provided by the Bureau of Indian Affairs' 
Office of Law Enforcement Services in Albuquerque, N.M., the Colville 
Tribes scheduled construction to begin on its estimated 30,000 square 
foot facility by October 2002.
    The projected occupancy is 24 Juvenile and 30 Adult beds.
    Colville is 1 of 10 facilities scheduled to come on line at various 
times in fiscal year 2003. The BIA now plans to partially funded 
operations for the Colville facility at $638,000. However, the 
estimated operational costs alone for the facility is $501,947. The 
total personnel costs is an additional $2 million.
    The Tribes strongly urge Congress to fully fund the operation of 
these important facilities.
                       lake roosevelt management
    Purpose of Funding.--The Tribes request that the $630,000 in Lake 
Roosevelt Management Funds be restored to the President's BIA Budget 
for fiscal year 2003. These funds are provided to the Spokane and 
Colville Tribes to carry out our governmental responsibilities in our 
respective zones in the Lake Roosevelt Management Area pursuant to the 
1990 Cooperative Management Agreement with the Bureau of Reclamation, 
National Park Service and the BIA.
    Justification of Funding.--In 1988 Congress directed the Interior 
Department to negotiate a new management agreement for Lake Roosevelt 
with the Spokane and Colville Tribes that recognizes the respective 
rights of these tribes to manage areas of Lake Roosevelt within the 
Indian zones of each of the two reservations. After negotiations among 
the Bureau of Reclamation, National Park, the Bureau of Indian Affairs, 
and the parties reached an agreement in April of 1990.
    While Reclamation has jurisdiction over the Lake's Reclamation 
Zone, including Grand Coulee Dam and associated Project facilities and 
the National Park Service manages and regulates all activities and 
development in the Lake's Recreation Zone, the Colville and Spokane 
Tribes plan, manage, and regulate activities in our respective tribal 
zones on the Lake.
    Since the Agreement was signed by the parties and the Secretary of 
the Interior, the BIA has provided annual funding to the tribes to 
carry out our management responsibilities. We urge Congress to restore 
the $630,000 to the BIA Budget for this important program.
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe
    This testimony is submitted by the Jamestown S'Klallam Tribe 
regarding our concerns and requests for fiscal year 2003 Bureau of 
Indian Affairs (BIA) and Indian Health Service (IHS) budgets. The 
following document presents the Jamestown S'Klallam Tribe's funding 
priorities, as well as other regional and national concerns and 
recommendations for your consideration.
                        overall recommendations
    The Jamestown S'Klallam Tribe strongly recommends that the 
Subcommittee:
  --Not consider any provisions or legislative riders which undermine 
        Tribal sovereignty and our ability to advance our governmental 
        capacity based on long-standing Federal/Tribal relations and 
        Federal Indian law and policy;
  --Not consider any provisions which limit Tribal governmental 
        discretion to re-design programs and reallocate funding to meet 
        local priorities and needs as authorized under the Indian Self-
        Determination and Education Assistance Act, as amended. This is 
        consistent with the Bush Administration and Congress' 
        devolution philosophies providing more authority to local units 
        of government; and
  --Not consider any re-programming of funds to implement the 
        Department of Interior's proposed Bureau of Indian Trust Asset 
        Management (BITAM) trust reform proposal, unless supported by 
        the Tribal Leader Task Force.
                tribal-specific appropriation priorities
    1. $162,000 one-time funding for start-up and equipment cost for a 
Tribal dental clinic to serve our Tribal community;
    2. $750,000 one-time funding for the purchase of two parcels of 
land, one adjacent to our existing reservation and one near our 
reservation;
    3. $35,000 increase in BIA Tribal base funding for unfunded 
Operations & Maintenance programs; and,
    4. $100,000 increase in BIA Tribal base funding to cover Tribal 
share of Point-no-Point Treaty Council for fisheries management and law 
enforcement operations.
              local/regional requests and recommendations
    1. Restore $500,000 in Western Washington (Boldt) for tribal 
shellfish resource management programs in Washington State (Northwest 
Region);
    2. Restore $3,041,000 in the Timber-Fish-Wildlife Program for 
tribal participation in a forest practices review program in Washington 
State (Northwest Region);
    3. Restore $320,000 in Unresolved Hunting and Fishing Rights for 
tribal management of shellfish resources and associated treat harvest 
in Washington State; and,
    4. Support all requests and recommendations of the Affiliated 
Tribes of Northwest Indians, Northwest Portland Area Indian Health 
Board, and the Northwest Indian Fisheries Commission.
           self-governance and other national considerations
    1. Restore $256,000 and request for a $100,000 increase to the DOI 
Office of Self-Governance for the Self-Governance Communication and 
Education Project and Self-Governance Advisory Committee;
    2. Provide increase for BIA and IHS to fully fund Contract Support 
Cost (CSC) to address documented Tribal needs;
    3. Provide a minimum of $25,000,000 in BIA Tribal Priority 
Allocation (TPA) General Increase for inflationary adjustment;
    4. Provide $314,000,000 increase for IHS unfunded mandatory, 
medical inflation, pay costs and population growth needed to maintain 
existing health care services; and
    5. Support all requests and recommendations of the National 
Congress of American Indians.
                tribal-specific appropriation priorities
Development of a Community Dental Clinic.--+$162,000
    The Tribe has recognized a need to locally provide dental services 
to Tribal members. In this isolated rural community, dentists are 
unwilling to provide services to Medicaid patients because of the low 
rate of reimbursement for those services. Clallam County in general, 
and our Tribal community in particular, has a large percentage of 
people on Medicaid. If we continue to rely on private dental service 
providers, we will not have any way to acquire services for our 
Medicaid-eligible Tribal members. We plan to serve Tribal Members and 
Medicaid enrollees from the community at our own facilities. The Tribe 
will be constructing a 3,300 square foot dental clinic with 4 chairs, 
offices, and laboratory facilities at our Tribal complex. Total project 
development and start up costs are $610,000. Construction funding of 
$348,000 has been obtained from the Indian Community Development Block 
Grant program and grants of $50,000 each have been received from the 
Washington State Department of Health and the Paul Allen Foundation 
have been obtained for equipment. An additional $162,000 is needed to 
complete development and initiate operation of the Tribal Dental 
Clinic.
Establishment of Tribal Land Base.--+$750,000
    For the past 10 years, the Tribe has requested the Subcommittee's 
assistance in securing additional land to add to our existing 
reservation. This request remains unfunded and we again appeal to the 
Subcommittee for your consideration of funding for this land 
acquisition. In the 1870's, Tribal members rejected a relocation policy 
(urged on by white settlers) to move them from their historical lands 
to another Tribe's reservation. In 1981, the Jamestown S'Klallam Tribe 
achieved federal recognition. Since that time, we have been attempting 
to undo the effects of this injustice, which had devastating social, 
economic, and cultural impacts on the Tribe. We strongly believe the 
United States government has an obligation to assist the Tribe in 
correcting these negative impacts. One way this situation can be 
addressed is for the Congress to assist us in adding to our meager 
reservation land base; a base that would have been substantially larger 
had it not been for the 100-year wait for our recognition.
    A contiguous four acre waterfront property site, on Sequim Bay (as 
is the Tribe's reservation) still remains available for purchase at 
approximately $450,000. In addition, there is a 15-acre site, near the 
reservation which is available to the Tribe at approximately $300,000. 
These land acquisitions would allow us to expand our Tribal government 
facilities to meet the steadily increasing demand for services by our 
Tribal members. Our Tribe is now at a critical juncture in this rapidly 
evolving situation. We need Congressional assistance to purchase the 
adjacent property which is essential for logical and efficient growth 
management of the Tribal operations. If the Tribe does not acquire the 
contiguous 4 acre tract and a third party purchases and develops it, we 
will obviously be blocked from any further practical expansion of our 
reservation base due to the geographic conditions of this area. In 
addition, the likelihood of a price escalation for this acreage 
continues to exist. The 10 acre site would be an excellent location 
for, among other things, a Tribal health and wellness clinic. It would 
also be a good site for the placement of future additions to the 
Tribe's water and wastewater infrastructure.
Increase in BIA Tribal Base Funding For Operations & Maintenance.--
        +$35,000
    Federal programs with jurisdiction over water and wastewater 
facilities and/or funding (EPA, IHS, HUD) require that a formal 
operations and maintenance program be adopted and implemented. These 
facilities require a certified operator employed by the tribe, ongoing 
monitoring and maintenance, and equipment reserves at an estimated 
annual cost of $35,000.
    Operations and Maintenance programs are not funded by the agencies 
requiring them, nor are they eligible for funding under any program; 
thus, they are an unfunded mandate. If we are to meet the requirements 
for successful operation of our facilities, we must request an 
additional $35,000 annually.
Increase in BIA tribal base funding for fisheries management.--
        +$100,000
    When the JST was recognized in 1981 and fishing rights affirmed, 
the Tribe joined the Point No Point (PNP) Treaty Council, a fisheries 
management consortium comprised of the 3 S'Klallam Tribes and the 
Skokomish Tribe (successors in interest to the Treaty of Point No 
Point). At that time, PNPTC had a base budget of $691,000 for the 3 
tribes. By pro-rating that amount, it equated to a budget of $230,000 
per tribe. Due to funding limitations, and the conclusion that adding a 
fourth tribe would not require an equal amount of add-on, the BIA only 
provided an add-on of $133,000 for the Jamestown S'Klallam Tribe. 
Following Self-Governance, this unequal base was passed through to PNP. 
This base was never been brought up to the full level for Jamestown. 
Consequently, whereas the other 3 tribes have a base of over $200,000, 
Jamestown cannot pass through an equal amount. This has created a 
perception that Jamestown is not contributing their ``fair share'' to 
the organization. Additionally, PNPTC is strapped because pay costs 
have not been provided to them as they have to tribes, creating a 
continuous erosion in the amount available to provide COLAS and other 
adjustments to their employees.
              local/regional requests and recommendations
    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective Tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.
           self-governance and other national considerations
    Restore $256,000 and Provide $100,000 Increase to Self-Governance 
Office.--In order to fund the on-going Self-Governance Communication 
and Education Project (SGCE) and for the continuance of the Tribal 
Leaders Self-Governance Advisory Committee. We are greatly alarmed over 
the Administration's proposal to eliminate critical funding for these 
Self-Governance activities. Over the past 11 years, the SGCE has 
provided technical assistance and factual information about Self-
Governance. There are now over 220 Tribes implementing Self-Governance 
and the request for information regarding this initiative continues to 
increase. The SGCE is vital to ensure that Self-Governance and its 
purposes are clearly understood and consistently developed by 
participating Tribal governments, federal agency officials and non-
participating Tribes. The funding for this Project has never been 
increased and is now inadequate to keep up with information request. We 
respectfully request that this funding not only be restored, but 
increased to meet the real cost of providing these communication 
services. Further, funding must also be restored for the Tribal Leaders 
Self-Governance Advisory Committee. This Committee provides advice and 
guidance to the Assistant Secretary Indian Affairs on key policy issues 
that impact Self-Governance Tribes and has proven to be an effective 
forum for Tribal leaders to debate and discuss these issues.
    Increase BIA and IHS Contract Support Cost (CSC) Funds to address 
documented need.--CSC funds are required for Tribes to successfully 
manage their own programs. For several years, the BIA and IHS have 
openly acknowledged that they are tens of millions dollars short each 
year in CSC funding. However, neither the BIA nor IHS has formally 
reported these shortfalls and no Presidential budget request during 
this period has included the necessary funds to close the shortfall and 
fully fund CSC. An additional $70 million is needed in IHS (excluding 
the $40 million that has been estimated, but negotiated for the new 
Navajo Nation contract proposal); and (2) an additional $25 million is 
needed in BIA to fully fund CSC (excluding direct contract support 
costs). CSC funding is not discretionary and should be fully paid 
consistent with tribal self-determination legislation.
    Provide a minimum of $25,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustments.--This activity 
includes the majority of the funds used to support on-going services at 
the local Tribal level including such programs as housing, education, 
natural resource management and Tribal government services. A 
Congressional Research Service (CRS) Report on Indian-related federal 
spending trends for fiscal year 1975-fiscal year 2000 states that 
increases in the combined BIA/Office of Special Trustee ``current'' 
dollars averaged $46 million per year. But as ``constant'' dollars 
(adjusted for inflation), there has actually been a decline of 
approximately $6 million per year. Over this 25-year period, the total 
is $150 million! At a minimum, the requested amount will provide for a 
modest 3.5 percent inflation adjustment for existing Tribal programs 
and services. We further recommend that TPA be revised and possibly re-
named ``Tribal Family & Community Services'' to better reflect the true 
nature and intent of these programs. We believe that this title will 
help the Congress better understand the use of these resources.
    Provide $314 million for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services.--IHS 
and Tribal programs have had to absorb inflationary cost increases for 
the last nine years. These costs are unavoidable and include medical 
and general inflation, pay costs and staff for recently constructed 
facilities. Mandatories should be the first consideration in budget 
formulation. If unfunded, these cost increases will result in further 
health service reductions in our Tribal communities.
    In conclusion, we strongly recommend increased funding levels 
within the BIA and IHS budgets for critically-needed existing programs. 
This funding is an obligation stemming from solemn commitments of the 
United States to Indian people to provide basic health, safety, 
education and economic security. We appreciate this Subcommittee's 
continued support and urge that Tribal government operations be 
afforded the highest priority in your appropriation decisions.
                                 ______
                                 
                 Prepared Statement of Pueblo of Jemez
    The Pueblo of Jemez is a federally recognized American Indian tribe 
with just over 3,300 tribal members, most of whom reside in the single 
village that is known as Walatowa. Walatowa is located in Sandoval 
County New Mexico, within the southern end of the majestic Canon de San 
Diego. It is situated on State Highway 4, approximately 55 miles 
northwest of Albuquerque and 42 miles southwest of Santa Fe. The Pueblo 
of Jemez is a ``non-gaming'' tribe and does not have financial 
resources available to fortify basic community infrastructure 
requirements.
    The Pueblo of Jemez Tribal Government hereby submits testimony to 
the Senate and House Committees on Appropriations. The following issues 
are of tremendous concern to the tribal leadership of our Pueblo and 
have been placed on high priority status. We are seeking federal 
assistance in developing solutions to these basic ``quality of life'' 
issues.
             community water system improvements: $776,000
Drinking Water Delivery System: $446,000
    The Problem.--The Pueblo has experienced 50 years of unplanned and 
inefficient drinking water systems construction. This has led to the 
development of a drinking water delivery system that is difficult to 
control and sanitize. Monthly water quality sampling throughout the 
Pueblo has revealed that chlorine residuals are not evenly distributed 
throughout the system. Homes closest to the treated water receive high 
concentrations of chlorinated water, while homes farthest away 
typically receive water that is not properly disinfected.
    The lack of disinfecting control of the Pueblo's drinking water has 
created a multitude of administrative, operational and water quality 
problems. Households that can afford it have drinking water delivered 
to their homes and place of business. Others simply refuse to pay their 
water bills creating shortfalls in revenues that impact the Pueblo's 
operation and maintenance capabilities. At present the Pueblo's water 
bill collection is facing a $120,000 deficit. A shortfall in O&M 
capabilities translates into declining services, which means poor 
drinking water services.
    Proposed Solution.--To remedy this problem the Pueblo of Jemez is 
proposing to construct a new well and water line. The new water line 
will be dedicated to the water storage tanks, simplifying the control 
of disinfected water. Indian Health Service (IHS) engineers have 
estimated the total cost of the project to be approximately $446,000. 
Completing this project will ensure that drinking water is properly 
disinfected prior to its distribution to the community. The added 
control of water disinfecting and distribution will create better 
drinking water quality and help to preserve the Pueblo's utility 
management capabilities.
Drinking Water for the Jemez ``Red Rocks'' Public Access Area: $330,000
    The Problem.--There are many serious problems with the drinking 
water system located at the Jemez Red Rocks public access and 
recreation area. The Jemez Red Rocks is a scenic area along NM State 
Highway 4, and is considered the ``gateway'' to numerous state and 
federally designated recreation areas. Visitor traffic is increasing 
every year; however, there are inadequate water and sewer systems in 
this area to serve the visiting public. Currently, the production well 
is located in a ``tight'' sandstone geologic formation, making water 
production to multiple facilities difficult. Wastewater management is 
also problematic due to the inadequate size of existing leach fields. 
Existing leach fields are failing and could become a source of drinking 
water contamination. Furthermore, the production well is located in a 
gradient depression adjacent to a large septic leach field and 
underground gasoline storage. The well's proximity to these potential 
sources of contamination increases the risk of drinking water 
contamination to the public.
    Proposed Solution.--To eliminate the problems of the Red Rocks 
water system the Pueblo of Jemez is proposing to abandon the existing 
well and extend water lines from the community drinking water system to 
the Red Rocks area. A new wastewater septic system and drain field will 
also be developed to accommodate for future growth at this site. This 
project will eliminate the need for a new well or water storage tanks 
and the need to treat and filter water from a newly established well. 
Therefore, operation and maintenance costs will be significantly 
reduced. In addition, the wastewater leach field and underground 
storage tank will no longer be a significant health risk. The overall 
cost of this project has been estimated by IHS to be $330,000.
               geothermal investigation project: $442,000
    Background.--The Pueblo of Jemez is located on the southwestern 
slopes of the Jemez Mountains in north-central New Mexico. The Jemez 
Mountains are volcanic in origin and support a geothermal system that 
lies beneath Jemez Tribal lands. This geothermal reservoir has yet to 
be investigated thoroughly. Limited surveys and a well drilling project 
coordinated with New Mexico State University and the Council of Energy 
Resource Tribes (CERT) were performed in the late 1980's and early 
1990's. Subterranean surveys and well drilling results indicated that 
the Pueblo of Jemez has the potential to develop geothermal resources 
to support limited economic enterprises. Examples include: Spa/bath 
house, greenhouse and aquaculture. However, these studies also 
concluded that additional field investigations should be concluded to 
fully determine geothermal potentials.
    Proposal.--The Pueblo of Jemez is requesting funding to continue 
investigations to better understand the capacity of its geothermal 
resources. These investigations will be coordinated with Natural 
Resource Consulting Engineers, Inc. (NRCE) and New Mexico State 
University College of Engineering Southwest Technology Development 
Institute (NMSU). NMSU and NRCE shall provide technical assistance and 
oversight of all investigation activities. Estimated cost for 
investigation and assessment activities is estimated at approximately 
$408,000. Funding will be used by the Pueblo to drill exploratory 
wells, conduct laboratory water analysis, and conduct subterranean 
geologic surveys on a 6 mile stretch of the Jemez geologic fault 
system. Please see detailed itemized cost estimates below.
    Zia Sand Aquifer Geothermal Test.--A test well was drilled in 1991 
to a depth of 240 feet into the Zia Sand aquifer. The well flowed 150 
gpm with a temperature of 136 deg.F from a fracture zone at 225 to 240 
feet. The well is located about 2 miles southwest of Jemez Pueblo. 
Other areas of the Zia Sand aquifer near the Jemez River should be 
explored, both north and south of Jemez Pueblo.
    Madera Limestone Aquifer.--No deep wells have been drilled in areas 
where the Madera Limestone is confined by overlying beds of low 
permeability. The Madera Limestone aquifer should be explored for 
potential high-permeability fractured-faulted zones with possible caves 
formed by geothermal dissolution.
                          bia--law enforcement
    The Pueblo of Jemez supported the $18 million increase for Bureau 
of Indian Affairs and the $82 million in increased funds for Department 
of Justice for law enforcement programs. The Indian Country Law 
Enforcement Initiative is especially important to our community. The 
Pueblo does not have a tribal police department and instead depends 
upon BIA law enforcement. Although funding for the Presidential 
Initiative on Law Enforcement in fiscal year 1999 permitted the BIA to 
hire an additional police officer for Jemez, the Pueblo still suffers 
from a critical shortage of law enforcement personnel. Two police 
officers patrol the Pueblo. At times, only one BIA Police Officer is on 
duty and must cover a 65-70 mile radius for five different Pueblos. 
This means that one officer must meet the law enforcement needs of over 
10,000 people including Jemez Pueblo, which is impossible. Because of 
this shortage, the Governor of the Pueblo of Jemez, must assume the 
role of Police Officer, despite the lack of formal police training. If 
funding levels were adequate, this grave situation could be avoided. 
Because the need for law enforcement is so critical, the Pueblo is 
exploring the possibility of assuming responsibility for this function 
through a Public Law 93-638 contract with the BIA.
    The BIA had a police substation at the Pueblo of Jemez during the 
1990's. The tribe eliminated this substation due to a shortage of 
office space and manpower (trained Police Officers). However, in view 
of the critical issues associated with the lack of law enforcement at 
Jemez Pueblo, we must re-establish the police substation. The proposed 
facility will house tribal law enforcement officers, BIA Officers, and 
officers from the tribal conservation program. The Pueblo is seeking 
$400,000 to establish a substation to be located at the Jemez Red Rocks 
area. These funds will support establishment of the new facility, 
required equipment, and subsidize existing funds for required staff.
                           bia--tribal courts
    Since the passage of the Indian Tribal Justice Act of 1993, there 
has been no allocation made of these monies to Tribal Courts throughout 
Indian Country, including our jurisdiction, the Pueblo of Jemez. It is 
critical for the Pueblo of Jemez to continue our tribal court system 
and provide fair justice as do our fellow federal and state courts. We 
have seen a steady increase in criminal, civil, and traffic cases filed 
in the Pueblo of Jemez Tribal Court for adults and juveniles.
    The Pueblo of Jemez is requesting an additional $80,000 per year to 
operate an efficient Tribal Court Office. These funds will be utilized 
to compensate critical staff and provide much needed training in the 
field of criminal justice systems.
                      bia--social service funding
    The Pueblo of Jemez, which is a Public Law 101-638 contractor, is 
urging the Committee to continue funding BIA Social Service and Indian 
Child Welfare Act (ICWA) programs. The programs offer services to 
children, youth, and families including the elderly.
    Services offered under the Pueblo of Jemez Social Service program 
are crisis intervention for child abuse, neglect and sexual abuse, 
counseling for children, elders and families and child welfare 
placement, including out of home placements to foster homes and 
referrals to residential treatment centers due to child abuse and 
neglect. Most cases are crisis calls, which require immediate 
intervention. Referrals are made to other tribal resources such as 
Behavioral Health, Tribal Courts or the Health clinic.
    The Indian Child Welfare Act (ICWA) program offers prevention and 
intervention services. Parenting classes are offered to the community 
with childcare being provided. Prevention classes are also held at the 
three local schools on a weekly basis.
    The caseload in fiscal year 2000 for the Social Service program was 
20 cases and currently the cases remain at 20 open cases.
    We have one Social Service Worker. If we are to adequately address 
these problems and implement the new Federal mandated Social Service 
requirements and requirements with no increase in funding, it is 
critical that this Committee increase funding for these programs. The 
Pueblo of Jemez has not seen any increase for either program in over 10 
years. The Pueblo's current budget of $104,016 is grossly inadequate to 
address the existing needs in the area of Social Service and ICWA for 
our community. The services provided with the current budget are mostly 
crisis-oriented services and limited case management.
    Therefore, we are requesting an increase of $200,000 to increase 
services to address transportation problems, long-term services which 
require extra time such as foster care placement for children, an 
additional caseworker, and to compensate the Social Service Program 
Manager who is currently not funded for managing both the Social 
Service and ICWA programs. There is a lack of infrastructure for the 
Pueblo of Jemez Social Service program. We provide services to the 
community and we do not have adequate space to provide confidential 
counseling sessions, educational classes such as our parenting classes 
and training for the community. Childcare facilities are important for 
our participating clients. These additional services are important to 
run an effective quality Social Service Program in the Pueblo of Jemez.
                                 ______
                                 
    Prepared Statement of the National Indian Education Association
    The National Indian Education Association (NIEA) is the oldest and 
largest national organization representing the education concerns of 
over 3,000 American Indian, Alaska Native and Native Hawaiian 
educators, tribal leaders, school administrators, teachers, parents, 
and student members. NIEA would like to submit this statement on the 
President's fiscal year 2003 budget as it affects American Indian, 
Alaska Native and Native Hawaiian education.
    The federal government is responsible for only two school systems 
in this country--the schools of the Department of Defense (DOD) and 
those operated by the Department of Interior's Bureau of Indian Affairs 
(BIA). Ideally, these schools should be the ``state of the art'' when 
it comes to education as federal policy, especially when major 
educational mandates are approved by Congress and the Administration. 
In terms of funding, DOD schools compare with BIA schools on a per 
pupil basis. In terms of academic success, however, BIA schools lag 
behind their counterpart. If you were to look at the education levels 
of American Indians thirty to 50 years earlier, you would find dropout 
rates approaching 100 percent in some areas and few graduates exiting 
high school. Even fewer still were attending college. The legacy of the 
boarding school era was still a factor and children who were removed 
from their parents were becoming parents themselves. All of these 
factors and the insistence of Indian people to retain their culture 
effectively countered termination and assimilation efforts, including 
those carried out by the Bureau of Indian Affairs.
    When you look at what has been the history of Indian education, 
Indian people have indeed come a long way over the last half century. 
All of the impediments that are now affecting academic achievement 
among American Indian students all have their history in the 
inconsistency of Indian education policy. Today is no different as in 
the signing of the recently passed No Child Left Behind Act (NCLB) 
which promises to up the ante and require higher levels of academic 
achievement among all students. How will Indian students fare under 
this scenario? For starters, Indian students are already being 
identified as being the lowest performers among all students. The 
Administration has made plans to privatize the lowest performing 
schools which equates to one third of the schools in the BIA system. 
How this initiative was conceived, the cost, and how Indian country was 
involved in the planning, are all factors into whether this plan will 
get off the ground. The legality of such a proposal is also in 
question. Indeed, in the long term, the administration is trying to 
help Indian communities, but is removing school governance the best 
way?
    According to the 1990 Census, there are 600,000 American Indian 
students in grades K through 12. Approximately eight percent (50,000) 
are educated through BIA schools on primarily Indian reservations. The 
majority of Indian students, however, attend public schools and are 
eligible for a number of education programs that are funded by the 
Department of Education. Specific programs for Indian students include 
those administered the department's Office of Indian Education. In 
terms of funding priorities, NIEA recommends targeted increases to the 
following programs with summaries on all programs benefitting Indian 
students.
              bureau of indian affairs education programs
    While many domestic programs have been cut back to fund the War on 
Terrorism and to increase domestic security, BIA Education programs 
have not been reduced. This may be good news, but the 1.5 percent is 
insufficient to cover pay cost increases resulting in a slight decrease 
in the dollars available for program purposes. The increase for BIA 
education programs is significantly less than that proposed for the 
Department of Education programs, bringing into question whether BIA 
funded school students are being left out of the President's education 
initiative. The best news is that the Construction funds continue to 
flow in amounts designed to eliminate the school facilities backlog by 
fiscal year 2006.
    There is an unfortunate budget initiative, heralded as a 
``centerpiece'' of the Bureau's education program to ``privatize'' the 
lowest performing BIA operated schools. Early reports concerning the 
details are inconsistent and contradictory. What seems clear is that 
the Bureau is proceeding without legal authority on an initiative that 
appears to violate self-determination policy and laws. It is an 
unwelcome distraction during a period when the Bureau should be 
focusing on how to improve educational performance under the new ESEA 
requirements and assisting tribal initiatives to assume a greater role 
in their educational programs.
    Below are the major Indian education programs in the BIA's fiscal 
year 2003 budget request and NIEA's recommendations for appropriate 
funding increases.
Indian School Equalization Program.--Increase from $347,475,000 to 
        $353,475,000
    This number includes a $3,542,000 increase over fiscal year 2002 
and is $2,000,000 short of covering the required pay adjustments. While 
there is an estimated decrease in student enrollment, it is unlikely 
that this will be the case in SY 2003-2004 when these forward funded 
dollars become available.
    While NIEA understands that there is little chance of substantial 
increases in domestic programs this year, we believe that the costs for 
pay adjustments under ISEP should be fully met. NIEA believes that the 
amounts of increase in the BIA education should be commensurate with 
increases in the Department of Education. We support an increase of no 
less than $6 million so that the pay adjustments can be made without a 
reduction in the program. An increase commensurate with Title I funding 
in the Department of Education would require an increase of over $34 
million.
Indian School Equalization Program (Program Adjustments).--$5,675,000
    This line item is increased by over $5,000,000 and its use is 
clearly being expanded. This is where the Bureau has included dollars 
for the ``privatization'' initiative; $2 million for employee 
displacement (transferred from the ``Special Projects and Pooled 
Overhead'' portion of the Budget) and $3 million for costs to implement 
privatization that are unclear.
    NIEA has strong reservations concerning the ``privatization'' 
initiative. NIEA supports additional resources to encourage self-
determination, namely increases in employee displacement funding and 
administrative cost grants. The lack of funding in these two line items 
has squelched granting and contracting of schools in the past and 
continues to do so today. NIEA recommends that the $3 million be used 
for planning by tribal organizations that are interested in assuming 
more control of their educational programs.
Early Childhood Education.--$15,263,000
    This increase of $3,053,000 over last year will add about seven 
more schools to the popular FACE program in keeping with the Education 
initiative of this Administration. NIEA strongly supports this request 
and the continuing expansion of this program.
Student transportation.--Increase from $38,506,000 to $50,000,000
    This item contains a welcome increase of $1,960,000 for this 
perennially under-funded part of school operations. These additional 
dollars will reduce the amount that ISEP dollars must pay to get the 
students to school; therefore, this counts as an actual increase for 
instruction. NIEA supports full funding for this line item which would 
be around $50 million. While any increase is appreciated, the NIEA must 
go on record to state that it is not enough. The failure to fully fund 
this line item drains instructional dollars from the schools.
Facilities Operations.--Increase from $57,687,000 to $70,000,000
    This seriously under-funded program receives an increase of 
$2,214,000, very welcome, though it will not be anywhere near enough to 
end the under-funding. As in the case with Student Transportation, this 
increase will decrease the amount that ISEP must pay each year on 
facilities costs, but schools will still have to pay out large amounts 
for basic facilities operation from their ISEP funding. NIEA supports 
full funding under the needs based formula which would require over $70 
million. Failure of the Congress to provide this money results in 
school facilities that deteriorate more rapidly than they should. 
Schools, in order to keep the lights on and the facility in good 
repair, must cover the costs from amounts appropriated for instruction. 
No school should have to make this decision.
Administrative Costs Grants.--Increase from $46,065,000 to $60,000,000
    As in years past, the BIA has requested an increase for this under-
funded line item; this year totaling $3,000,000. This amount falls far 
short of fully funding the statutory formula. Congress has repeatedly 
failed to appropriate the amount requested by the BIA, much less fully 
fund the formula. This increase may not even be adequate to cover the 
administrative cost grants needed for the new grants and contracts that 
should be in place by SY 2004, when this money becomes available.
    The amount requested in this line item is inconsistent with the 
BIA's stated initiative to encourage tribes to contract/grant the 
remaining BIA schools. Failure to fully fund administrative cost grants 
prevents tribes from authorizing additional grants/contracts due to 
adverse impact on schools that are already operating under grant/
contract. The $3 million increase will probably not be adequate to fund 
new grant schools, nor would it be sufficient to fully fund the 
statutory formula even if there were no new schools converting. The BIA 
states that the current level of funding for administrative cost grants 
is at the seventy percent level and that the $3 million would increase 
that level to 75 percent. NIEA supports full funding of these grants, 
requiring an increase to at least $60 million. Since this line item is 
forward funded, even that amount will be inadequate by SY 2004 if the 
schools currently expected to convert to grant do so.
Tribal Education Departments.--Increase from $0 to $5,000,000
    The Bureau's Tribal Education Departments program has been funded 
except on one occasion. NIEA recommends funding this line item at least 
$5 million to ensure that tribal education departments are given the 
best opportunity to fulfill there roles in the event the privatization 
initiative moves forward.
Tribally Controlled Colleges.--Increase from $38,029,000 to $42,000,000
    This line item contains a cut of $2,000,000, seemingly unrelated to 
any cutbacks in TCCC programs. This program has been successful in 
getting increases over the past few years, but here they seem to be 
losing ground. NIEA opposes this cut in the college fund. Community 
colleges are playing an increasingly important role in Indian country, 
as they are called upon to support the activities of the local schools 
in many ways. This cut would be very detrimental to these important 
efforts. NIEA supports an increase in this program of $2,000,000 rather 
than a cut, resulting in a level of about $42 million.
Employee Displacement.--$2,235,000
    This line item that pays severance costs to Federal employees who 
lose their jobs when programs are contracted/granted is reduced by 
$2,000,000 from last year. The BIA is obviously expected very little by 
way of new grants/contracts next year. This reduction seems at odds 
with the idea of an initiative to encourage tribal or private grants/
contracts of school programs.
    The cut in this line item is inconsistent with the 
``privatization'' initiative. As with Administrative Costs Grants, any 
real move to increase the amount of contracting/granting would require 
an increase in this line item. As it is, we do not believe that this 
amount will be sufficient to fund even those schools already in the 
pipeline for conversion this coming July, and this fund pays severance 
costs for any Public Law 93-638 contracting/compacting as well as grant 
conversions.
    It is very difficult to estimate the amounts needed very far in 
advance and a better method for determining or meeting the needs should 
be considered. It appears that $2 million has been transferred from 
this line item to ISEP Program Adjustments. It is unclear whether this 
is only for severance pay in cases where ``privatization'' is occurring 
and whether the regular employee displacement line item would still be 
used for tribal grant conversions.
Replacement School Construction.--$125,223,000
    The steady flow of construction dollars continues. Though this line 
item is reduced by $2,576,000, it is more than made up in the FI&R line 
item for renovation. NIEA strongly supports the funding level in this 
request.
Facilities Improvement and Repair.--$164,374,000
    This line contains an increase of $2,784,000 over last year as the 
Administration continues with its commitment to eliminate the backlog 
of school facilities by fiscal year 2006. NIEA strongly supports and is 
very appreciative of the funding level of this line item.
Special Programs and Pooled Overhead, Postsecondary Training 
        Programs.--Increase from $0 to $7,071,000
    Several training programs are recommended for zero funding, 
including, United Tribes Technical College, United Sioux Tribe 
Development Corporation, National Ironworkers Training Program, Alaska 
Native Aviation Training Program, Yuut Elitnauviat People's Learning 
Center and the Crownpoint Institute of Technology. NIEA supports 
continuation funding these post secondary training programs since they 
are vital for the economic development of the reservations they serve. 
This will further exacerbate unemployment and the resulting problems on 
reservations. These programs give people hope for a better life.
                                 ______
                                 
                Prepared Statement of the Yakama Nation
                               background
    Location, Size, & Composition of Reservation.--The Yakama 
Reservation is located in south central Washington on the east slope of 
the Cascade Mountain range. We have approximately 10,000 enrolled 
members, have a reservation of approximately 1.3 million acres, of 
which 613,200 acres are forested, and have treaty-based interests and 
rights in a ceded area of more than 10 million acres of Washington.
    Spruce Budworm Epidemic.--Our forest is currently experiencing an 
epidemic spruce budworm infestation resulting from past management 
practices by the Federal government. The epidemic threatens our economy 
and increases the risk of catastrophic fires that threaten our lands 
and the adjacent federal, state and private forestlands. At great 
expense, we are having to vastly exceed our normal harvest to salvage 
budworm damaged timber. If budworm infected timber is not harvested at 
a certain stage, its value is profoundly reduced and after it dies, it 
becomes highly ignitable. We must have help from the United States on 
this matter. It should be noted that the mismanagement of this timber 
by the federal government is going to leave the United States in a 
position of major liability.
    Wapato Irrigation Project (WIP).--WIP is the largest Indian 
irrigation project administered by the BIA, serving predominantly non-
tribal agricultural interests that generate crops (predominantly fruit, 
hops and hay). It is the largest irrigation district in the Yakima 
Basin annually delivering 655,000 acre-ft of water to more than 140,000 
acres of irrigated land on the Yakama Reservation.
    Our economy is based in forestry and our lands support an enormous 
local agricultural industry. Income we realize from timber sales is 
used for forestry management, Tribal government and services, and 
nominal per capita payments to Tribal members. Our large land base 
requires an enormous effort to manage natural resources. We realize 
that our needs are unlikely to be fully met by the likely budget for 
natural resources or any other component of the BIA and IHS budgets. We 
hope they will dramatize the extreme need and gross underfunding of 
these programs, and that the Subcommittee will begin to address our 
needs and those of Indian country generally.
                            water resources
    Water Planning and Pre-Development.--We participate in the Yakima 
River Basin Water Enhancement Project (YRBWEP) that includes the 
Irrigation Water Conservation Plan for the Wapato Irrigation Project, 
the Toppenish Creek Corridor Enhancement Project, and the Irrigation 
Demonstration Project. We are currently preparing a Comprehensive Water 
Management Plan for the Toppenish and Simcoe Basin. Information in this 
plan and other existing reports can supplement the preparation of a 
needed reservation-wide Comprehensive Water Management Plan. A 
Secretary-approved plan is required so that the WIP can comply with 
ESA. We request $125,000 for fiscal year 2003 to hire Natural Resources 
Consulting Engineers, Inc. (NRCE) to prepare a draft plan.
    Upgrading of WIP Facility to Comply with the Endangered Species Act 
(ESA).--Operation and maintenance procedures of the WIP negatively 
impact the listed Bull Trout and Yakima Basin Steelhead Trout (an 
andromous species). The BIA is currently developing a Biological 
Assessment (BA) of WIP operations to determine how operating procedures 
will need to be changed and upgraded. Initial findings indicate that 
WIP is deficient in many areas and immediate action is necessary to 
avoid jeopardizing the project's ability to deliver irrigation water. 
The Yakama Nation and WIP have recently cooperated on the development 
of the ``Irrigation Water Conservation and Management Plan for the 
Wapato Irrigation Project'' utilizing NRCE. This study indicates that 
it will require a capital investment in excess of $150,000,000 to 
upgrade the project to current standards and address project ESA 
concerns. To begin addressing these urgent needs we request a non-
reimbursable funding of $1,000,000 to begin to develop a Tribal 
resource management plan for the WIP.
    Additional needs for the WIP facility include unmet costs of 
$1,080,000 for personnel, idle land water payments, and major 
construction of $3,000,000 to replace the main diversion facility on 
the Yakama River.
                      wildlife management program
    By ensuring compliance with NEPA and the ESA, the Wildlife 
Management Program plays a key role in keeping the BIA's timber sale 
program running. The $527,000 (plus the contracted $38,365 that goes to 
the Yakama Agency) annual BIA Spotted Owl Inventory and Monitoring 
Grant is critical for ensuring ESA compliance. These funds ensure that 
our timber harvest, the basis of our economy, can take place each year 
in compliance with the law.
    We request that the Subcommittee restore funding in the following 
line items in the BIA budget. In the ``Other Recurring Program Funds'' 
category:

BIA 638 funds for YN Wildlife Program Operations..............  $220,336
BIA-Funded ``Klickitat Basin Deer Study''.....................    95,776
Washington State Timber-Fish-Wildlife (all WA tribes)......... 3,041,000
Under ``Non-Recurring Programs'': Endangered Species..........   541,000

    Washington State Timber-Fish-Wildlife (T-F-W).--The YN is a 
subsistence hunting and fishing culture, it is important to have a 
presence as a co-manager of these critically important resources within 
its ceded area. The right to utilize these resources were guaranteed 
under the Treaty of 1855. T-F-W in the BIA budget supplies critical 
funding to the Yakama Nation and 26 other tribes in Washington State to 
evaluate the effects of state and private forest practices on tribal 
resources, conduct adaptive management work to improve forest land 
management, and advocate for proper protection measures for tribal and 
public resources with other forestland stakeholders.
                                forestry
Spruce Budworm Epidemic
    We have identified 200,000 acres in need of forest development 
treatment, which was acknowledged by the BIA Central Forestry Office. 
GAO report GAO/RCED-91-53 states that the Yakama Nation was not able to 
accomplish all of the regular forest development work even when 
approximately one-half of the projects are paid for with tribal funds.
    In order to continue the sound forest management practices which 
preserve our resources while at the same time protects the welfare of 
the Yakama People, we request $1,000,000 of new Forest Development Add-
on funds for forest development treatments on approximately 76,000 
acres of the most severely Spruce Budworm infected stands. Forest 
development activities include reforestation, timber stand 
improvements, and related investments that enhance productivity.
Personnel, Supplies, & Equipment
    Forestry's fiscal year 2002 recurring budget totaled $3,244,398 and 
employed about 54 fulltime personnel. The fiscal year 2002 funds were 
insufficient to properly and efficiently manage and protect the forest 
resource. Severe forest health problems such as the spruce budworm 
epidemic and bark beetle infestations threaten over 200,000 acres and 
hundreds of millions of board feet of our commercial timber. Additional 
funds totaling $1,846,000 would add 32 forestry personnel along with 
supplies and equipment. This increase in staffing would boost 
Forestry's capability to gain control of the budworm epidemic. The 
additional personnel would write silvicultural prescriptions, plan 
timber sales and contracts, designate timber for harvest, administer 
timber sale contracts, and supervise the Fire Management Section to 
integrate wildfire control and prescribed fire projects into forest-
wide planning and management of our natural resources.
    Vegetation Management.--We utilize Integrated Pest Management (IPM) 
techniques to protect our reservation and ceded lands from invasive, 
non-native plant species. IPM uses cultural, mechanical, biological and 
chemical management aspects to control foreign plant pests. Herbicides, 
equipment, vegetative seeding, and equipment repair costs are incurred 
at a level of approximately $100,000 annually from a BIA funding 
source. Additional funding is always welcome to upgrade our computer 
technology that is applied such as Global Positioning System (GPS), 
Geographic Information System (GIS), and associated hardware.
                          real estate services
    The Real Estate Services section is the key to all other agency 
functions. Their records must be accurate and up to date for all trust 
lands and individuals with interest in trust lands because all land and 
financial transactions relating to these lands and individuals depend 
upon these records. Responsibilities of Real Estate Services include 
leasing and distribution of income (>1,300 active leases), acquisition 
and disposal of real property, including fee to trust conversions, 
probates and wills.
    Real Estate Services is understaffed and backlogged, affecting 
Leasing, Probates, and Acquisition and Disposal (A&D), including fee to 
trust conversions, and our computer files are not current with paper 
records. This latter is critical for proper distribution of trust funds 
and furnishing accurate information to our clients. The need for 
increased staff is also critical. Part of the problems with Realty can 
be dealt with by a temporary increase in the budget to bring on or 
detail personnel to deal with the backlogs. However, additional funding 
is also required for additional permanent personnel. Our present budget 
is $671,735 and we request an increase of $293,825 to bring us to a 
total of $965,560.
                   law enforcement and public safety
    Our Department of Public Safety's police officers and game wardens 
patrol over 1.3 million acres. As grant funding will be running out for 
the COPS program there is a need to fund the officers hired under that 
program at the current level of $395,836. Along with salaries there is 
a need to keep the maintenance on the patrol vehicles, a cost of 
$50,000 a year.
    The Tribe's Justice Service Department consists of the court 
system, Probation Department, and Public Defender's office. The 
Department needs a computer technology overhaul of computers and 
software at a cost of $50,000. We also need a new court building. The 
original study for the new Law and Justice Center estimated costs at 
$25,000,000. Today it would cost $29,000,000.
                             human services
    IHS Budget.--The Yakama Nation supports the $1 billion increase for 
the IHS in the Senate Budget Resolution. Of particular concern is the 
need for an increase to Contract Health Service (CHS) funding which 
pays for health care from private providers for eligible patients. CHS 
costs are seriously affected by Medicaid Reductions, high 
pharmaceutical costs, medical and general inflation, population growth, 
pay costs, population growth, new tribes funding, staffing new 
facilities and Contract Support Costs.
    Homeland Security.--We urge the Subcommittee to include IHS and 
Tribes into any comprehensive plan developed to improve our public 
health and tribal health systems' security and protection from 
potential terrorist threats. For distribution purposes, we urge 
Congress to treat the tribes as states and, thus, fund the tribes 
directly for Homeland Security.
    Adult Vocational Training Program.--Currently the program serves 
25-50 clients a year, but 200-300 clients are turned away due to lack 
of funding. These individuals are waiting for an opportunity to improve 
their work skills so that they can secure a job and become productive 
citizens. We are requesting a funding level of $300,000.
                                 ______
                                 
                Prepared Statement of the Navajo Nation
    There is good new and bad news in the President's fiscal year 2003 
Budget Request for BIA Education. While many domestic programs have 
been cut back to funds the War on Terrorism and to beef up domestic 
security, BIA Education programs have not been reduced. They have 
instead received a slight increase, about 1\1/2\ percent. This amount 
is not sufficient to cover pay cost increases, so the net result is a 
slight decrease in the dollars available for program purposes even 
though there is an $18.8 million increase over last year in School 
Operations funding.

ISEP....................................................    $347,475,000

    This number includes a $3,542,000 increase over last year; however 
it comes about $2,000,000 short of covering the required pay 
adjustments. This affects BIA operated schools more than grant schools 
since BIA operated schools are required to provide the increase to 
staff while grant/contract schools are not.
    While the Navajo Nation understands that there is little chance of 
substantial increases in domestic programs this year, we believe that 
the costs for pay adjustments under ISEP should be met in full. We 
support an increase of no less than $5.5 million.

ISEP (Program Adjustments)..............................      $5,675,000

    This line item is increased by over $5,000,000 and its use is 
clearly being expanded. This is reportedly where the Bureau has 
included dollars for the ``privatization'' initiative; $2 million for 
employee displacement (transferred from the ``Special Projects and 
Pooled Overhead'' portion of the Budget) and $3 million for costs that 
are as yet unclear.
    The Navajo Nation might support this request if the $3 million is 
available to the Nation for planning the Navajo Education System.

Early Childhood Education...............................     $15,263,000

    This increase of $3,053,000 over last year will add about 10 more 
schools to the popular FACE program in keeping with the Education 
initiative of this Administration.
    The Navajo Nation strongly supports this request.

Student transportation..................................     $38,506,000

    This item contains a welcome increase of $1,960,000 for this 
perennially under-funded part of school operations. These additional 
dollars will reduce the amount that ISEP dollars must pay to get the 
students to school; therefore, this counts as an actual increase for 
instruction.
    Full funding for this line item would be about $50 million. While 
any increase is appreciated, the Navajo Nation must go on record to 
state that it is not enough. The failure to fully fund this line item 
drains instructional dollars from the schools.

Facilities Operations...................................     $57,687,000

    This seriously under-funded program receives an increase of 
$2,214,000, very welcome though it will not be enough to end the under-
funding. As in the case with Student Transportation, this increase will 
decrease the amount that ISEP must pay each year on facilities costs.
    Full funding under the needs based formula would provide over $70 
million. Failure of the Congress to provide this money results in 
school facilities that deteriorate more rapidly than they should. 
Schools, in order to keep the lights on and the facility in good 
repair, must cover the costs from amounts appropriated for instruction. 
No school should have to make this decision.

Administrative Costs Grants.............................     $46,065,000

    As in years past, the BIA has requested an increase for this under-
funded line item; this year totaling $3,000,000. This amount falls far 
short of fully funding the statutory formula. Congress has repeatedly 
failed to appropriate the amount requested by the BIA, much less fully 
fund the formula. This increase may not be adequate to cover the 
administrative cost grants needed for the new grants and contracts that 
should be in place by SY 2004, when this money becomes available.
    The amount requested in this line item is inconsistent with the 
BIA's stated initiative to encourage tribes to contract/grant the 
remaining BIA schools. Failure to fully fund administrative cost grants 
prevents tribes from authorizing additional grants/contracts due to 
adverse impact on schools that are already operating under grant/
contract. The $3 million increase will probably not be adequate to fund 
new grants on Navajo alone, nor would it be sufficient to fully fund 
the statutory formula even if there were no new schools converting. The 
Navajo Nation supports an increase to at least $55 million. Since this 
line item is forward funded, even that amount will be inadequate by SY 
2004 if the schools currently expected to convert to grant do so. The 
Navajo Nation strongly recommends that the BIA conduct the study called 
for in the newly enacted ESEA to develop an empirical basis for 
standard amounts that are used in the formula. The formula seems to 
have no credibility with the Congress and increases have not been 
forthcoming.

Tribally Controlled Colleges............................     $38,029,000

    This line item contains a cut of $2,000,000, seemingly unrelated to 
any cutbacks in TCCC programs. This program has been successful in 
getting increases over the past few years, but here they seem to be 
losing ground.
    The Navajo Nation opposes this cut in the college fund. Community 
colleges are playing an increasingly important role in Indian country, 
as they are called upon to support the activities of the local schools 
in many ways. This cut would be very detrimental to these important 
efforts. The Navajo Nation supports an increase in this program of 
$2,000,000 rather than a cut.

Employee Displacement...................................      $2,235,000

    This line item that pays severance costs to Federal employees who 
lose their jobs when programs are contracted/granted is reduced by 
$2,000,000 from last year. The BIA is obviously expected very little by 
way of new grants/contracts next year. This reduction seems at odds 
with the idea of an initiative to encourage tribal or private grants/
contracts of school programs.
    The cut in this line item is inconsistent with the 
``privatization'' initiative. As with Administrative Costs Grants, any 
real move to increase the amount of contracting/ganting would require 
an increase in this line item. As it is, we do not believe that is 
amount will be sufficient to fund even those schools already in the 
pipeline for conversion this coming July, and this fund pays severance 
costs for any Public Law 93-638 contracting/compacting as well as grant 
conversions. It is very difficult to estimate the amounts needed very 
far in advance and a better method for determining or meeting the needs 
should be considered.

Replacement School Construction.........................    $125,223,000

    The steady flow of construction dollars continues. Though this line 
item is reduced by $2,576,000, it is more than made up in the FI&R line 
item for renovation.
    While the Navajo Nation strongly supports the funding level in this 
request, we also express our concern with the current method of 
determining priorities. It appears that there is little assurance that 
the schools identified for projects are actually the schools most in 
need of replacement. There needs to be a more objective process for 
setting the priority listing and for setting limits on the costs that 
can incurred for new schools. The Bureau's credibility in this area 
both with Indian country and the Congress is at stake.

Facilities Improvement and Repair.......................    $164,374,000

    This line contains an increase of $2,784,000 over last year as the 
Administration continues with its commitment to eliminate the backlog 
of school facilities by fiscal year 2006.
    The Navajo Nation strongly supports and is very appreciative of the 
funding level of this line item.

Special Programs and Pooled Overhead--Crownpoint 
    Institute of Technology.............................              $0

    In 2002, CIT received $1.2 million. This year, along with several 
other training programs in this budget category, the President proposes 
to zero them Out.
    The Navajo Nation supports continuation funding for CIT at the $1.2 
million level. Technology training such as is offered by CIT is 
critical in developing the kind of job skills so necessary in today's 
world.
    We thank the Committee for this opportunity to submit testimony. If 
there are any questions, please direct them to Ms. Merlee Arviso, 
Director, Division of Dine' Education.
                                 ______
                                 
                Prepared Statement of the Navajo Nation
    The Navajo Nation welcomes this opportunity to provide 
recommendations on the proposed federal fiscal year 2003 budget for the 
Interior, including the Indian Health Service and the Bureau of Indian 
Affairs requested budgets. The Navajo Nation requests that:
    The Appropriation Subcommittee not appropriate funding for the 
Department of the Interior's proposed BIA Reorganization.--The Navajo 
Nation is opposed to the Interior's proposal due to lack of tribal 
consultation. The Interior has yet to submit a formal proposal to 
Congress, the Navajo Nation or Indian tribes to consult and comment on.
    The Appropriation Subcommittee not appropriate funding for the 
Proposed BIA ``Privatization'' School Initiative.--In the President's 
budget, increased funds were requested to make BIA schools attractive 
for private educational companies, yet the Navajo Nation and other 
tribes have repeatedly asked the BIA to increase funds for its BIA 
schools but have been constantly denied. The BIA has yet to have 
consultation to fully discuss tribal education plans.
    The Navajo Nation requests fiscal year 2003 appropriations in the 
amount of:
    Navajo Indian Irrigation Project (NIIP)--$30,000,000.--The Navajo 
Nation does not support the President's request of $13,095,000, which 
is a $12,230,000 decrease from the fiscal year 2002 enacted level. NIIP 
construction is a legal obligation of the federal government based on 
statute.
    Navajo Southwest Judicial Complex--$20,000,000.-- Current court 
facilities built in the 1950's are dilapidated. This funding would 
enhance self-determination and encourage economic self-sufficiency.
    Crownpoint Institute of Technology (CIT)--$1,200,000.--The 
President did not request funding for fiscal year 2003, which is a 
$1,200,000 decrease from the fiscal year 2002 enacted level. CIT is a 
critically important educational institution that reduces unemployment 
and attracts businesses to the Navajo Nation.
    Southwestern Indian Polytechnic Institute (SIPI)--$5,730,000.--The 
Navajo Nation supports the President's request. SIPI is one of two 
fully accredited universities in the Bureau's education system.
                         indian health service
    Contract Support Cost Grants--$20,000,000.--Contract support costs 
are necessary to fund the Navajo Nation's self-administered healthcare 
to the Nation's approximately 250,000 citizens.
    Facilities.--The Navajo Nation supports the President's request for 
$20,400,000 for Fort Defiance Hospital Staff Quarters; $13,900,000 for 
the Pinon Health Center; and $7,658,000 for the Red Mesa Health Center.
    Services.--$10,000,000 for full time positions at Fort Defiance 
Hospital. The Navajo Nation supports the President's request.
                        bureau of indian affairs
    BIA Roads Maintenance--$30,000,000.--The Navajo Nation does not 
support the President's request of $27,672,000. Tribes are in need of 
solid infrastructure and the funds to maintain existing roads and new 
road construction.
    Law Enforcement--$158,989,000.--The Navajo Nation supports the 
President's request. The Navajo ratio of 0.3 police officers per 1,000 
population is dangerously below the necessary minimum rural-setting 
ratio of 3 officers per 1,000 population.
    Indian Police Academy--$2,379,000.--The Navajo Nation supports the 
President's request. The Indian Police Academy provides basic and 
advanced law enforcement training for Bureau law enforcement and 
detention officers.
    Justice Systems--$10,000,000.--Congress passed the Indian Tribal 
Justice Act of 1993, but has never provided appropriations for adequate 
based funding for tribal courts.
    Tribal Courts--$17,096,000.--The Navajo Nation supports the 
President's request. Tribal courts have long been under funded and 
under developed. The Navajo Nation is focusing on strengthening its 
courts as a means for creating safe communities and building 
infrastructure for economic development.
    Tribal Education Department (TEDs)--$500,000.--Congress authorized 
appropriations for the development of TEDs in Public Law 95-561, but 
has never appropriated this initiative.
    School Construction.--The Navajo Nation supports President Bush's 
request for the following school replacement for the Navajo Nation: 
$33,605,000 for Kayenta Boarding School; $21,215,000 for Wide Ruins 
Boarding School and $22,500,000 for Low Mountain Boarding School.
    Facilities Improvement and Repair (FI&R)--$164,374,000.--The Navajo 
Nation supports the President's request, which includes the following 
schools: Hunters Point Boarding School, Hunters Point, AZ; Wingate High 
School, Fort Wingate, NM; and Chilchinbito Day School, Chilchinbito, 
AZ. This funding will correct backlogged repairs at these schools.
    Education Facilities Operations--$70,000,000.--The Navajo Nation 
does not support the President's request of $57,687,000. If the 
Administration requested full funding, then schools would not have to 
cover operations from funds appropriated for instruction.
    Minor Improvement and Repair (MI&R).--$16,586,441, of which the 
Navajo Nation requests $3,000,000 for the Navajo Area. The Navajo 
Nation does not support the President's request of $16,425,000. The 
Navajo Nation has the majority of BIA education facilities to maintain.
    Indian School Equalization Program (ISEP)--$349,500,000.--The 
Navajo Nation does not support the President's request of $347,475,000, 
which is a $2,000,000 decrease from fiscal year 2002. This amount will 
at least cover the required pay cost adjustments and prevent actual 
declines in the instructional program. However, since education is a 
priority of the President and the Congress, it is disappointing that 
there is not a significant increase in this line item.
    ISEP-Program Adjustments--$5,675,000.--The Navajo Nation supports 
the President's request. This amount would allow tribes to plan and 
assume greater control of their educational programs.
    Administrative Cost Grants (ACG)--$50,000,000.--The Navajo Nation 
does not support the President's request of $46,065,000. The Navajo 
Nation's request is consistent with the BIA's stated initiative to 
encourage tribes to contract/grant the remaining BIA schools.
    Student Transportation--$50,000,000.--The Navajo Nation does not 
support the President's request of $38,506,000. The Navajo Nation's 
request would help to fully implement President Bush's education 
policies, as funds for Indian student transportation is a must.
    Family and Child Education Expansion (FACE)--$15,264,000.--The 
Navajo Nation supports the President's request to expand the FACE 
program.
    New Schools and Program Expansion.--The Navajo Nation requests that 
the Appropriations Committee lift the 1992 Appropriation Act moratorium 
on BIA program expansion and new BIA schools so that the Navajo Nation 
may better serve its students.
    Johnson O'Malley Program (JOM)--$17,113,000.--The Navajo Nation 
supports the President's request.
    Scholarship Funding--$30,000,000.--The Navajo Nation does not 
support the President's request of $27,953,000. If the President is 
committed to education, there needs to be a strong commitment to assist 
students in Higher Education.
    Adult Education Scholarships--$3,000,000.--The Navajo Nation does 
not support the President's request of $2,696,000. While the 
Administration may emphasize elementary and secondary education, the 
Navajo Nation still believes in including all of its citizens to gain 
education opportunities.
    Special Higher Education Scholarships--$1,500,000.--The Navajo 
Nation does not support the President's request of $1,328,000. There 
must be an emphasis on adults achieving higher education. BIA 
Scholarship provides supplemental financial assistance to Indians for 
graduate level study.
    Tribally Controlled Community Colleges (TCCCs).--$42,000,000 of 
which, $40,029,000 would be for Operating Grants. The Navajo Nation 
does not support the President's request of $39,118,000, which is a 
$2,000,000 decrease from Operating Grants enacted in fiscal year 2002. 
TCCCs encourage tribal members to attend school, obtain new skills and 
a better quality of life.
    Environmental Projects/Assessments/Inspections/Abatement--
$11,651,000.--The Navajo Nation does not support the President's 
request of $11,000,000, which is decrease of $651,000 from fiscal year 
2002. Funding should be maintained at the fiscal year 2002 level to 
address three schools (underground storage tank and asbestos vinyl 
floor removal) and to establish an Environmental Regulatory Specialist 
position on the Navajo Nation to provide regulatory oversight of the 
Bureau's asbestos abatement program. EPA eliminated the Navajo Nation's 
asbestos program under the Asbestos Hazardous Emergency Response Act 
(AHERA), which concentrated primarily on Bureau schools.
    Environmental Management--$10,805,000.--The Navajo Nation does not 
support the President's request of $9,805,000, which is a decrease of 
$11,000 from fiscal year 2002. Illegal dumping and cleanup of open 
dumps remain a major public health concern for Indian Country. The 
Navajo Nation requests a gradual increase in its contribution to the 
Interagency Solid Waste Workgroup by $100,000 ($1,500,000 contribution) 
increasing the fiscal year 2003 funding level to $10,805,000.
    Social Services under Tribal Priority Allocations--$31,177,000.--
The Navajo Nation supports the President's request.
    Indian Child Welfare Act--$11,645,000.--The Navajo Nation does not 
support the President's request of $11,112,000, which is a decrease of 
$523,000 from fiscal year 2002. Protecting Navajo children is a duty 
for creating healthy families and strong communities. Reducing these 
funds does neither.
    Housing Improvement Program (HIP)--$33,000,000.--The Navajo Nation 
does not support the President's request of $19,621,000, which is a 
decrease of $13,000 from fiscal year 2002. The Navajo Nation strongly 
encourages full funding of HIP to maintain safe living environments for 
Indian people living in harsh and economic deprived environments.
    Public Safety Minor Improvement and Repair (MI&R)--$801,000.--The 
Navajo Nation does not support the President's request of $776,000. The 
Navajo Nation requests $75,000 for the Navajo Area as it has many 
facilities that need immediate repair to keep its Public Safety 
facilities safe. The Navajo Area receives the lowest of the BIA regions 
and is requested at only $50,000.
    Navajo-Hopi Settlement Program--$1,525,000.--The Navajo Nation does 
not support the President's request of $1,153,000, which is a decrease 
of $186,000 from fiscal year 2002.
    Water Management, Planning, and Pre-Development--$8,052,000.--The 
Navajo Nation supports the President's request.
    Safety of Dams--$20,975,000.--The Navajo Nation supports the 
President's request, which will modify construction activities for the 
Canyon Diablo Dam and Conceptual and Final Design for Asaayi Dam, 
Tsaile Dam and Wheatfields Dam, all on the Navajo Nation.
     bureau of reclamation (bor)--bureau of reclamation efficiency 
                           incentives program
    Ganado Water Conservation and Management Project--$300,000.--This 
amount will allow irrigators to have access to water from the Ganado 
Resevoir. This is the second phase of the BOR and BIA supported 
project.
    Navajo-Gallup Water Supply Project--$300,000.--This amount would 
complete the EIS and draft legislation to be submitted in fiscal year 
2004, which will authorize the project.
              office of navajo and hopi indian relocation
    Office of Navajo and Hopi Relocation--$30,000,000.--ONHIR received 
$15 million in fiscal year 2001 and again in fiscal year 2002. Many 
Navajos continue to wait to receive housing and other promised benefits 
under the Navajo-Hopi Settlement Act. In order to accelerate the 
provision of such benefits, the Navajo Nation requests that this 
federal agency's budget be doubled to $30 million.
    Bennett Freeze Area Rehabilitation--$20,000,000.--As a result of 
the Bennett Freeze, construction and development in the western portion 
of the Navajo Nation has been impossible for nearly 40 years. During 
these 40 years, Navajo families living in the Bennett Freeze area could 
not take advantage of federal, state or tribal programs. The area is in 
severe need of these development funds.
    Relocation Act Study--$1,000,000.--The relocation law has resulted 
in the dislocation of 10,000 Navajos, dramatically impacted local 
Navajo and non-Indian communities, and cost the federal government 
approximately $400 million. The time has come for a comprehensive study 
of the effects of the relocation law, with a focus on long-term impacts 
that may have to be mitigated over the next 20 years.
    HPL Community Center--$1,000,000.--Due to construction and 
development freezes, Navajo families who reside on the Hopi Partitioned 
Lands, have never had any facilities developed to support their 
community. This funding would facilitate badly needed community 
services.
                                 ______
                                 
     Prepared Statement of the BIA/Tribal Budget Advisory Committee
    This testimony is submitted by the Data Management Subcommittee of 
the BIA/Tribal Budget Advisory Committee concerning our data management 
and information technologyrecommendations and requests on the fiscal 
year 2003 BIA budget.
    Appropriation Funding Priorities.--Increase of $289 million to 
implement the eGovernment and Information Technology (IT) projects 
within the BIA. This budget estimate attempts to correct the continuing 
technology gap between the current infrastructure and the information 
technology services needed to support a modern, efficient and effective 
Bureau of Indian Affairs.
                  bia/tribal budget advisory committee
    The BIA/Tribal Budget Advisory Council was established 
approximately 2 years ago to provide a forum wherein BIA Administration 
could meet with tribal representatives to: (1) assess the BIA budgets 
relative to the needs of BIA administration, Tribal governments, and 
individual Indian and Alaska Native beneficiaries, (2) recommend 
improvements the BIA budgeting process, (3) recommend strategies to 
increase budget amounts to meet unmet needs, and (4) recommend policy 
changes that improve BIA budgeting for the long-term.
                         data management policy
    Both Tribal governments and the BIA recognize the importance of 
credible data for the purposes of justifying needs and showing progress 
and measuring outcomes that result from program activities. The 
complexity of determining ``Tribal unmet needs'' or to measure the 
current status of Indian Country as compared to mainstream America is 
difficult due to the differences among tribes' geography, demographics, 
economics, government structure, etc.
    Notwithstanding these complexities, the Data Management 
Subcommittee has as its mission to establish standards and benchmarks: 
(1) to measure existing needs and conditions in American Indian and 
Alaska Native communities to support the goal of bringing about a level 
of service provided in Indian tribes, which at the very least, is equal 
to conditions enjoyed by the balance of America; and (2) to provide for 
a data collection system that accounts for the performance and use of 
federal funds provided to the BIA and Tribes serving the Indian 
communities.
    The Budget Advisory Committee formally adopted a Data Management 
Policy to provide guidance to the task of collecting useful data in 
collaboration with Tribes, Tribal organizations and other federal 
agencies.
                    bia/tribal data collection forms
    The Data Management Sub-committee developed separate forms to 
report unmet needs for five Tribal programs, including (1) welfare 
assistance; (2) housing improvement program; (3) higher education/
scholarships; (4) tribal courts; and (5) law enforcement. These forms 
have been used in the fiscal year 2004 budget formulation process. We 
anticipate expanding the use of these forms for other programs.
    It is the Data Management Sub-committee's intent to have the data 
collection automated. However, give the unique circumstances 
surrounding the current shut-down of the Department's automated data 
systems, this activity has been deferred for future action.
    The Subcommittee is also aware of the importance of the goals and 
objectives used by the BIA pursuant to the Government Performance and 
Results Act. Future activities of the Subcommittee may involve an 
effort to strengthen these goals and objectives to ensure that they 
reflect Tribal priorities and directions.
                            strategic goals
    The following goals and objectives are paramount to the 
establishment of a comprehensive database IT system within the BIA:
    Enhance information collection and sharing;
    Improve data analysis and reporting;
    Provide the essential and appropriate IT tools to Indian Affairs 
and Tribal staff;
    Work with businesses (Tribes, Regional & Central Offices) to 
automate business processes and meet program needs;
    Leverage and coordinate information sharing across all BIA 
programs;
    Enhance internal administrative processes;
    Improve IT governance & coordination processes; and
    Improve services to tribal governments.

             egovernment and information technology project

    According to the President's fiscal year 2002 Management Agenda, 
Initiative 4-Expanded Electronic Government, the Federal government has 
spent billions of dollars on IT, but this expenditure has not produced 
measurable gains in public-sector worker productivity. Hence, the 
Federal government must secure greater services at a lower cost through 
implementing and deploying eGovernment.
    The Government Paperwork Elimination Act (GPEA) requires that 
Federal agencies provide individuals or other entities the option to 
submit information or transact other business with Indian Affairs 
electronically, when practicable, and to maintain records 
electronically by October 21, 2003. The Office of Management & Budget 
(OMB) has been tasked with the responsibility of overseeing the 
implementation of GPEA. In a recent memorandum to Federal Chief 
Information Officers, OMB advises that ``effective implementation of 
GPEA is an essential building block in our collective efforts to move 
to electronic government.''
    Clearly, the current emphasis on eGovernment provides Indian 
Affairs an opportunity to implement an eGovernment strategy and deploy 
electronic transactional services.
    To achieve the objectives and desired outcomes of the eGovernment/
GPEA Implementation and Deployment Plan, the following must be 
involved:
    American Indian & Native Alaskan Tribes and individuals.
    The Office of the Secretary, Department of Interior.
    The Office of the Assistant Secretary, Indian Affairs.
    Central Office and Regional Directors.
    Office of Audit and Evaluation.
    Office of American Indian Trust.
    Office of Self Governance.
    Office of Indian Education Programs.
    The request of $289 million will be used to begin the first phase 
of development to enhance information technology. This funding will be 
used to:
    Electronically automate BIA information collections;
    Reengineer, consolidate, and automate business transactions, and 
consolidate and web enable Bureau databases where feasible to better 
serve citizens needs;
    Ensure that Indian Affairs business systems are interoperable;
    Implement workflow and document/content management solutions;
    Develop eGovernment and GPEA performance measures & relationships 
to the IT strategic plan; and,
    Develop eGovernment and GPEA process models.
    Successful implementation of this Project will:
    Provide high quality customer service to Indian country;
    Reduce the expense and difficulty of doing business with Indian 
Affairs;
    Reduce Indian Affairs operating costs;
    Provide program recipients with easier access to Indian Affairs 
programs & services;
    Increase access for persons with disabilities to Indian Affairs web 
sites and eGovernment applications; and
    Make Indian Affairs more transparent and accountable.
                               conclusion
    This Plan relies upon significant technology improvements in BIA 
information systems and expanded use of electronic communications with 
clients and business partners to do business with the BIA's clients. 
Congress must make information technology investments to support the 
BIA; its Trust Responsibility and the changing technology and delivery 
of BIA products and services to Tribes and Native Americans. The 
proposed budget will significantly enhance the information capacity of 
Indian Affairs to account for the performance and need of resources to 
responsibly address the federal government's duty to the Tribes and 
their communities.
    Tribes and their leadership must be in control of their future and 
the sufficiency of the BIA budget for the Tribes as well as the 
Bureau's operations is essential to achieve this goal. While the Bureau 
has made very modest budgetary progress over the past several years, 
Tribal governments have developed many innovative approaches to these 
issues and stand ready to continue the work with BIA to advocate these 
initiatives to others within the federal government and to Congress.
                                 ______
                                 
             Prepared Statement of the Lummi Indian Nation
    My name is Darrell Hillaire, Chairman of the Lummi Nation. The 
Lummi Nation, is located on the northern coastline of Washington State, 
and is the third largest tribe in Washington State serving a population 
of over 5,200. On behalf of the Lummi Nation I want to thank you and 
the members of the Committee for the opportunity to express our 
concerns and requests regarding the fiscal year 2003 BIA, IHS 
appropriation allocations and funding needs of the Lummi Nation.
    The following written testimony presents the Lummi Indian Nation's 
funding priorities, as well as regional and national concerns and 
recommendations for your consideration. Further, the Lummi Nation 
strongly opposes any bill, language or legislative riders that 
undermine tribal sovereignty. The Lummi Nation desires to have direct 
consultation and formal hearings, with respect to our long-standing 
government-to-government relationship, on issues that will alter this 
relationship, in the future.
    Tribal Specific 2002 Appropriation Priorities:
          +$1,500,000 Semiahmoo Memorial Park and Heritage Center.--
        Provide the Lummi Nation with National Park Service, 
        Conservation and Historical Preservation construction program 
        funds. Provide the Lummi Nation with initial planning and 
        design phase funding for a Semiahmah Memorial Park and Heritage 
        Center preserve ancestral burial grounds that were desecrated 
        by non-Indian officials in 1999 and to commemorate this 
        traditional village encampment.
          +$1,076,000 BIA-Financial and Social Service ``General 
        Assistance'' program.--Funds for the Lummi Nation to 
        effectively respond to a critical need for tribal fisherman to 
        receive disaster relief assistance in response to 1999-2001 
        unrealized revenue from the local commercial fishing industry 
        and inability to exercise ``treaty'' protected fishing rights.
          +$500,000 Water & Sewer Infrastructure Planning.--Provide the 
        IHS Sanitation Facilities Construction Program with tribally 
        earmarked funds to support the planning of water and sewage 
        system infrastructure development project.
          +$1,150,000 BIA Economic Development Program.--Lummi Nation 
        is requesting resources to establish a Small Business 
        Development Office to provide over 500 dislocated fisherman 
        with economic and business assistance services from: technical 
        assistance, support services, training services, business 
        planning, and loan services.
          +$350,000 BIA-Office of Indian Education Programs, Facility 
        Management and Construction Contract (FMCC) for provision of 
        ``Quarters''.--Lummi Nation seeks funds to cover planning and 
        construction costs for development of school based housing 
        units through the BIA-FMCC ``Quarters program'' that remains an 
        unbudgeted need.
          +$500,000 Lummi Youth Safe House.--Provide Lummi Nation with 
        earmarked line-item allocation through the IHS Facilities 
        Construction Program to design and construct a youth ``safe-
        house'' for the provision of emergency holistic' care, shelter 
        and/or wrap-around social and health services for local youth 
        living in the Lummi community.
          +$1,300,000 BIA Tribal Government Services--Water 
        Negotiations.--Provide for the following water negotiation 
        costs: $300,000 for attorney fees, $400,000 for on-Reservation 
        technical studies, and $600,000 for Nooksack River Basin 
        technical studies.
          +$2,000,000 BIA Office of Indian Education Programs.--The 
        Lummi Nation reports the new tribal school facility possess a 
        student enrollment of 750. Lummi Nation anticipates that the 
        new school shall require additional revenue to provide quality 
        educational services to a student population that is up to 
        three times the current service level. The new Lummi Nation 
        School is a BIA operated school (elementary and secondary 
        educational services for grades K-12) located on the Lummi 
        Indian reservation.
          +$700,000 Increase to Lummi Nation Shellfish Hatchery 
        Operation.--Provide support to the ongoing operation of the 
        tribal shellfish hatchery consistent with the expansion of the 
        Boldt decision to Pt. Elliot Treaty right to harvest, manage 
        shellfish resources.
          +$740,000 Support Realty.--Provide the Lummi Nation with 
        funding to ensure the major elements such as land 
        consolidation, land records management, tribal probate, and 
        training services are available to effectively manage tribal 
        realty resources.
Tribal Specific Appropriation Summaries, Justification Semiahmoo 
        Memorial Park and Heritage Center--+$1,500,000
    Provide the Lummi Nation with National Park Service, Conservation 
and Historical Preservation construction program funds. Provide the 
Lummi Nation with initial planning and design phase one funding for 
construction of a Memorial Park and Heritage Center to commemorate and 
preserve ancestral burial grounds that were desecrated by non-Indian 
officials in 1999. The National Park Service, National Registry of 
Historic Places, lists the site. The desecration of over 100 human 
remains and graves was primarily due to the expansion of a local sewage 
treatment plant financed with federal funds and permitted by the state. 
The Lummi Nation has created a Memorandum of Agreement that includes 
terms to relocate the existing non-Indian treatment plant. The Memorial 
Park is to be constructed on the existing site as a unique tribute to 
promote regional education of the traditional Indian encampments 
reflecting the culture and lifestyle of the Coastal Salish people in 
Northwest America. Planning and design of a Heritage Center is 
envisioned to house educational, social, and economic events and 
meetings.
BIA-Financial and Social Service ``General Assistance'' program--
        +$1,076,000
    Lummi Nation seeks disaster relief assistance to 500 fishermen to 
meet their basic needs for housing, food and clothing assistance. The 
Lummi Nation declared the Lummi Indian reservation as an Economic 
Fishery Resource Disaster Area for the third consecutive year. These 
funds will enable the tribe to effectively respond to a critical need 
for tribal fishers to receive disaster assistance in response to the 
1999-2001 unforeseen and unrealized revenue loss from the local 
commercial fishing industry. The Lummi Nation has historically relied 
upon the salmon resource and it's cultural and economic value to the 
tribe and membership is irreplaceable.
Water & Sewer Infrastructure Planning--+$500,000
    The Lummi Reservation supports a population of nearly 5,200 
persons, which has pushed water and sewer system capacities to their 
limit. Additional capacity must be obtained now to support the existing 
population. In the short-term, water and sewer systems redesign and 
upgrades will handle the problem. However, the long-term solution must 
include additional treatment capacity and water source location and 
development. Public Works infrastructure development and investments 
like these require substantial planning. The Lummi Nation is not able 
to undertake this level of planning without the assistance requested 
herein. Lummi Nation recommends that the IHS Sanitation Facilities 
Construction Program to receive funds to support tribal planning of 
water delivery and sewage treatment system infrastructure for the 
existing and projected population of the Lummi Indian Reservation.
BIA Economic Development Program--+$1,150,000
    Lummi Nation is seeking funds to create a tribal Small Business 
Development Office to provide fisherman with economic and business 
training technical assistance services. Approximately $250,000 is 
requested to establish the Small Business Development Office with the 
goal of aiding fisherman to utilize profits horizontally within the 
fish marketing industry and/or create new small business opportunities 
to sustain self-sufficiency. Another $900,000 is requested form the BIA 
Credit Services program to enable the Lummi Nation to establish a 
fisherman revolving loan fund to enable participants to access 
development capital to support their small business plans.
BIA-Office of Indian Education Programs, Facility Management and 
        Construction Contracts (FMCC) for provision of ``Quarters''--
        +$350,000
    Lummi Nation seeks additional finances to cover planning and 
construction costs for development housing units through the BIA-FMCC 
Quarters program that remains an unbudgeted need in the Portland Area 
budget. The Lummi Nation's new school facility site is located in a 
rural area and is eligible to receive construction revenue for housing 
units for administrative and security staffing needs. No funds are 
allocated to fulfill the Lummi Nation need for the provision of staff 
quarters.
Lummi Youth Safe House--+$500,000
    Provide the Lummi Nation with a Family-centered Youth Facility to 
provide a continuum of care to ``At-risk,'' Homeless and/or Runaway 
adolescents. The primary components of this continuum are screening, 
intervention, substance prevention, respite and after-care services 
consistent to youth needs. Participating youth are supported through 
center-based continuum and ``wrap around social/health services'' to 
overcome barriers to achieve their goals. Lummi youth entering and/or 
completing treatment successfully make the transition to return to 
daily life through a traditional ``holistic'' approach towards recovery 
involving family members and dependency counselors.
Water Negotiations--+$1,300,000
    The Lummi Nation signed an Agreement in Principle with the Federal 
Government and the State of Washington on January 27, 1998. This 
agreement is a stepping stone toward a final settlement of the ``on''-
reservation water rights conflict, which were and still are, 
attributable to the non-Indians disregard for treaty-reserved water and 
fishing rights in the Nooksack River Watershed. Many difficult issues 
remain to be resolved which require significant technical studies and 
legal consultation before a final agreement may be produced and signed. 
To complete this work the Lummi Nation is requesting $1.3 million 
during fiscal year 2003: $300,000 to defray legal consultation costs, 
$400,000 for on-reservation technical studies, and $600,000 for 
technical studies in the Nooksack River Basin. Lummi Nation recommends 
this support be included in the BIA Water Rights Negotiation/
Litigation, Attorney fees and technical studies.
BIA Office of Indian Education Programs--+$2,000,000
    Lummi Nation seeks increased school operational revenue to cover 
increased expenditures for the new tribal school in fiscal year 2003. 
The new school is projected to house 750 students that is over three 
times the current fiscal year 2002 Lummi Tribal School student 
enrollment level. The Lummi Nation anticipates that the new school 
shall need increased funds to cover expanded operational expenses in 
the areas of: Administrative Cost Grants, Maintenance and Improvement 
funds, Transportation services; Special Education funds; High School 
and Tribal school operational funds. The Lummi Nation is reporting that 
this large school facility and increased student enrollment shall 
require additional revenue to provide quality educational services.
Lummi Nation Shellfish Hatchery Operation +$700,000
    The 30-year old hatchery supplies oyster and clam seeds to a 
majority Northwest Washington Indian tribes and growers. The recent SC 
decision to uphold the shellfish ruling supports the need to provide 
both the treaty and non-treaty growers for oyster seed, clam seed, 
enhancement projects. These dollars benefit both the tribal government 
and Washington State. The Lummi Nation recommends that $350,000 
increase be identified for this effort in the BIA Hatchery Operational 
program.
Support Realty--+$740,000
    The Lummi Nation has a multi-year plan to address the realty 
tribulations. Its major elements include land consolidation, land 
records management, tribal probate process, revision of realty 
procedures, backlog elimination, and training. Land consolidation 
requires untangling the heir ship disarray by conducting research to 
land titles, appraisals, surveys, subdivision and other technical work. 
Land records management requires development of a tribal land database 
with electronic connection to BIA databases. Existing process of tribal 
probates is time consuming and a contributive factor land is so 
fractionated. Development of an on-site process using Lummi Tribal 
Court is needed to shorten the processing time.
    Self-Governance and Other National Considerations:
    The Lummi Indian Nation supports the IHS, Office of Tribal Self-
governance, Tribal Self-governance Advisory Committee fiscal year 2003 
Health Care Priorities and the Appropriation request. This includes the 
following IHS line-item allocation request for increases:
  --Full Funding for Contract Support Costs--+$150,000,000
  --Full funding for Contract Health Services Care--+$150,000,000
  --Appropriation increases for the Indian Health Care Improvement 
        Fund--+$160,000,000
  --Increase to IHS Alcohol & Substance Abuse program services--
        +$150,446,000
    I appreciate your consideration of the fiscal year 2003 requests 
and recommendations of appropriations for the BIA, IHS resources on 
behalf of the Lummi Nation. Thank you.
                                 ______
                                 
          Prepared Statement of the Lower Elwha Klallam Tribe
    The Lower Elwha Klallam Tribe respectfully submits this written 
statement on the fiscal year 2003 Appropriations for the Bureau of 
Indian Affairs and the Indian Health Service. We ask the Subcommittee 
on Interior and Related Agencies Appropriations, to consider holding 
hearings for oral testimony in the future to allow Native Americans and 
Alaskan Natives to present our requests to Congress on a government-to-
government level rather than this in this informal manner.
                             tribal request
    Supports the Administration request for $18 million for the removal 
of the Elwha Restoration Project, the Environmental Impact Study and 
the Protection of Water Rights and Water Resources.
                           regional requests
    Restore $500,000 for the Western Washington Tribal Shellfish 
Management Initiative and increase this amount by $6.3 million to 
implement tribal treaty rights through the further establishment of 
tribal shellfish programs.
    Restore $320,000 to the Unresolved Hunting and Fishing Rights 
account.
    Support the base funding level of $3.048 for the Timber-Fish-
Wildlife Agreement, and increase this amount by $1.0 million to 
implement tribal obligations under new state and private forest 
practices rules and regulations pertaining to ESA obligations.
    The Lower Elwha S'Klallam Tribe is a direct beneficiary of the 
collective Tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.
                 self-governance and national requests
    1. Restore $256,000 and request for a $100,000 increase to the DOI 
Office of Self-Governance for the Self-Governance Communication and 
Education Project and Self-Governance Advisory Committee;
    2. Provide increase for BIA and IHS to fully fund Contract Support 
Cost (CSC) to address documented Tribal needs;
    3. Provide a minimum of $25,000,000 in BIA Tribal Priority 
Allocation (TPA) General Increase for inflationary adjustment;
    4. Provide $314,000,000 increase for IHS unfunded mandatory, 
medical inflation, pay costs and population growth needed to maintain 
existing health care services; and,
    5. Support all requests and recommendations of the National 
Congress of American Indians.
                    shellfish management initiative
    For centuries, members of Puget Sound and Coastal Treaty Tribes 
have harvested shellfish for their commercial, ceremonial and 
subsistence needs. Hard shell and razor clams and oysters were 
collected from shoreline areas. Other shellfish species, such as crab 
and shrimp, were also gathered for subsistence and commercial uses. 
Shellfish harvesting was as important to tribal traditional life and 
commerce, as was fishing for salmon and steelhead.
    Tribes signed treaties with the United States in the mid-1850's, 
that included guaranteed tribal rights to gather shellfish. However, 
over the course of the past century and a half, conflicts arose, and 
the tribal right to harvest these resources was diminished. As a 
result, tribes were forced to seek a reaffirmation of their rights 
through the federal courts system. In 1999, the Supreme Court denied 
cert. and let stand the favorable decision of the 9th Circuit Court. 
Tribes have steadily moved forward during this time in implementing 
their treaty rights to harvest their share of the resource. However, 
Tribes need monies to implement this right, in much the same way as 
they did after the original U.S. v. Washington case was decided. 
Several dozen regional shellfish management plans have been 
successfully negotiated with tribal and state agencies, and tribes have 
redirected efforts to conduct the minimum management needed for their 
fisheries. Agreements and processes to access private tidelands have 
also been proceeding peacefully. Without new resources this success 
will be short-lived.
    As tribal shellfish programs develop and expand, other needs have 
arisen. For instance, very little data and technical information exists 
for many of the fisheries which are now being jointly managed by state 
and tribal managers, which will make it difficult to assess treaty/non-
treaty sharing arrangements. Additionally, intertidal assessment 
methodologies differ between state and tribal programs, and can lead to 
conflicts in management planning.
    During the course of the court case, tribal and state attorneys 
were able to negotiate a consent decree regarding shellfish sanitation. 
This agreement establishes shellfish sanitation programs designed to 
protect the public health. The implementation of the decree has 
revealed that the presence of biotoxins in shellfish is dangerously 
unacceptable, and threatens the viability of both the state and tribal 
fisheries. Additional research and monitoring of this biotoxin is 
necessary to prevent illness and death that may result from consuming 
toxic shellfish. The significant value of deep-water shellfish 
fisheries has increased illegal harvesting and enforcement is 
inadequate. Tribes and state enforcement agencies are addressing 
problems by coordinating patrols, but additional monitoring of harvest 
is needed.
    It is clear that more needs to be done to adequately address 
resource concerns for the benefit of all fisheries, Indian and non-
Indian alike. The Western Washington tribes request the Subcommittee to 
restore last years funding of $500,000, and add an additional $6.3 
million to tribal fishery management contracts as part of the permanent 
base. This request is supported by a wide range of individuals, 
organizations, and governments. We ask that the Subcommittee direct the 
Bureau of Indian Affairs to include this amount in their fiscal year 
2003 budget.
                     unresolved hunting and fishing
    The quality and quantity of the habitat upon which the wildlife 
resources in Western Washington depend are declining rapidly. Tribal 
members have been forced to hunt farther and farther away from home to 
harvest their treaty-reserved share of wildlife resources. They are 
constantly challenged, limited or restricted from access to these 
resources and may be forced to seek a clarification of their treaty 
hunting and fishing rights through the federal courts. In 1974 and 
again in 1994, the U.S. Supreme Court upheld federal court rulings on 
tribal treaty rights. The treaty tribes in Western Washington have a 
cultural and spiritual bond with the wildlife resources of the region. 
These tribes, as responsible co-managers with the state of Washington, 
have as a primary goal to ensure the health of these resources for 
future generations. Western Washington Tribes have developed and 
nurtured a co-management relationship with the State of Washington to 
protect, restore and enhance the productivity of natural resources in 
the state. Treaty tribal hunters account for only about 2 percent of 
the total combined deer and elk harvesters in the state, whereas the 
ratio of take by non-Indian hunters compared to tribal harvesters is 
43-1.
    There are many factors surrounding the protection and management of 
these resources, which continue to impinge on tribal unresolved hunting 
and fishing rights. An Inter-tribal Wildlife Committee of the Northwest 
Indian Fisheries Commission (NWIFC) provides a unified voice in 
discussions with state and federal wildlife managers. In addition the 
NWIFC serves as the grassroots technical resource to tribes on resource 
assessments, data collection, and design, fieldwork and implementation 
of research projects and a myriad of other skills.
    I would hope that this Committee sees the importance of re-
establishing this funding which was eliminated from the BIA base budget 
for the western Washington tribes. This program will allow these tribes 
to develop cooperative and collaborative management efforts with the 
state and federal governments that work to resolve highly contentious 
issues in lieu of litigation. The cost to protect this unresolved 
hunting and fishing right is the trust responsibility and treaty 
obligation of the federal government.
                timber-fish-wildlife agreement expansion
    We are supporting additional funding to tribes for expansion of our 
Timber-Fish-Wildlife program that cooperatively and collaboratively 
allows tribes to actively participate in state forest practice rules 
and regulations that have an affect on listed salmon populations. 
Tribes, as a result of their co-management status, are deeply involved 
in this management forum. Tribes bring to the table a very high level 
of skills and technical capabilities that if appropriately funded, 
would greatly facilitate a successful outcome. The negotiations leading 
up to the development of the TFW Forest and Fish Report were 
exceedingly contentious. Most all of the tribes were extremely 
concerned about one or more of the key provisions in the report. 
However, most all agreed the only way to actually resolve these issues 
is for a strong monitoring and adaptive monitoring process be put in 
place, which will require additional funding.
    Tribes are using the funds provided last year by the Committee in a 
very organized fashion. Tribes have a strong central and regional 
coordination component and are focusing implementation efforts at their 
local watersheds. The strategy calls for two tracks. One is aimed at 
supporting the development of the Habitat Conservation Plan (HCP) 
development process at TFW. A second track supports tribal 
participation in TFW in a continuing effort to shape and steer forest 
management practices toward greater fish protection.
    For fiscal year 2003, we are requesting $3.048 million be restored 
to the base, plus an additional $1.0 million to further develop tribal 
participation in the TFW Forest and Fish effort. We are further 
requesting that the committee direct the Bureau of Indian Affairs to 
include this amount in their fiscal year 2004 budget.
    On behalf of the Lower Elwha S'Klallam Tribe, thank you for 
considering these requests.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    On behalf of the Northwest Indian Fisheries Commission member 
tribes, I want to thank the Subcommittee for the opportunity to present 
this written testimony on our fiscal year 2003 fisheries and habitat 
management needs that fall within the Bureau of Indian Affairs budget.
           summary of fiscal year 2003 appropriations request
    The NWIFC generally supports the enacted fiscal year 2002 
appropriation levels. We request funding and direction which will 
achieve the following for fiscal year 2003:
  --Restore $320,000 to the Unresolved Hunting and Fishing Rights 
        account;
  --Restore $500,000 for western Washington tribal shellfish management 
        and enforcement funding request and increase this amount by 
        $6.3 million to implement tribal treaty rights through the 
        further establishment of tribal shellfish programs;
  --Continued support of the existing $3.0 million Bureau of Indian 
        Affairs, Forest Development, Woodland Management, Northwest 
        Forest Plan, ``Jobs in the Woods'' Initiative line item and 
        from this amount a continued earmarking of $400,000 for the 
        Wild Stock Restoration Initiative;
  --Support the base funding level of $3.048 for the Timber-Fish-
        Wildlife Agreement, and increase this amount by $1.0 million to 
        implement tribal obligations under new state and private forest 
        practices rules and regulations pertaining to ESA obligations;
  --Support, at a minimum, existing funding levels within the Bureau 
        for Trust Responsibility, Tribal Priority Allocation, and Self 
        Governance that pertain to Fisheries Management and U.S.-Canada 
        Pacific Salmon Treaty at fiscal year 2002 levels;
  --Provision of Contract Support Funding at 100 percent levels 
        necessary for existing and emerging programs.
                              introduction
    Twenty-seven years ago, the U.S. v. Washington case was decided by 
the federal court system. In 1999, tribal rights were once again upheld 
when the U.S. Supreme Court denied cert. on our decade long shellfish 
litigation. These decisions, respecting the treaty rights of our member 
tribes, have propelled major changes in not only fisheries management 
in the Pacific Northwest, but have also fostered a nationwide quest for 
tribal self-determination and self-governance led in part by the 
Northwest tribal leadership.
         tribal and nwifc base programs need continued support
    We are at a turning point in natural resource management in the 
Pacific Northwest. Tribes have made great strides in institutionalizing 
management consistent with tribal values, treaty rights and federal 
court decisions. Tribes have developed great professional capabilities 
and policy respect, and are efficient and effective, but find ourselves 
far short of where we would like to be in our capabilities. And, while 
we have efficiently organized our tasks and assigned responsibilities 
between our tribal communities to extend our collective efforts, the 
management obligations are many. New and highly difficult complexities 
abound, many are precipitated by the demands of the Endangered Species 
Act (ESA) and the Clean Water Act (CWA). Treaty rights to harvest 
shellfish are thwarted due to pollution in marine waters. To meet this 
challenge, we will need all of our existing funding and additional new 
resources.
    Over the past decade, tribes have been able to secure new monies 
for additional responsibilities. However, over the same time, tribes 
have seen other monies they once received for other duties diminish, 
either through inflation or through the elimination of program and 
support funding. And in this process, Indian natural resource 
management capacity has been unfairly affected. Therefore, we strongly 
urge the Subcommittee to guard against any diminishment of the tribal 
program funding base, and do all it can to strengthen and enhance the 
Bureau's Trust, Tribal Priority Allocation and Self-Governance Program 
funding. We ask that the Subcommittee ensure that the Western 
Washington-Boldt Implementation and the Pacific Salmon Treaty base 
budgets be fully funded as was included in last year's appropriation. 
We note with concern the reduction of $320,000 from the Unresolved 
Hunting and Fishing Rights line item. These funds have been utilized by 
our member tribes in support of co-management programs that facilitate 
cooperative resolution of issues that respect tribal treaty rights to 
fish, hunt and gather. Tribes are using these monies to develop in-
common and co-management databases with the state of Washington to work 
through hunting and wildlife management.
                    shellfish management initiative
    For centuries, members of Puget Sound and Coastal Treaty Tribes 
have harvested shellfish for their commercial, ceremonial and 
subsistence needs. Hard shell and razor clams and oysters were 
collected from shoreline areas. Other shellfish species, such as crab 
and shrimp, were also gathered for subsistence and commercial uses. 
Shellfish harvesting was as important to tribal traditional life and 
commerce, as was fishing for salmon and steelhead.
    Tribes signed treaties with the United States in the mid-1850's, 
that included guaranteed tribal rights to gather shellfish. However, 
over the course of the past century and a half, conflicts arose, and 
the tribal right to harvest these resources was diminished. As a 
result, tribes were forced to seek a reaffirmation of their rights 
through the federal courts system. In 1999, the Supreme Court denied 
cert. and let stand the favorable decision of the 9th Circuit Court. 
Tribes have steadily moved forward during this time in implementing 
their treaty rights to harvest their share of the resource. However, 
Tribes need monies to implement this right, in much the same way as 
they did after the original U.S. v. Washington case was decided. 
Several dozen regional shellfish management plans have been 
successfully negotiated with tribal and state agencies, and tribes have 
redirected efforts to conduct the minimum management needed for their 
fisheries. Agreements and processes to access private tidelands have 
also been proceeding peacefully. Without new resources this success 
will be short-lived.
    As tribal shellfish programs develop and expand, other needs have 
arisen. For instance, very little data and technical information exists 
for many of the fisheries which are now being jointly managed by state 
and tribal managers, which will make it difficult to assess treaty/non-
treaty sharing arrangements. Additionally, intertidal assessment 
methodologies differ between state and tribal programs, and can lead to 
conflicts in management planning.
    During the course of the court case, tribal and state attorneys 
were able to negotiate a consent decree regarding shellfish sanitation. 
This agreement establishes shellfish sanitation programs designed to 
protect the public health. The implementation of the decree has 
revealed that the presence of biotoxins in shellfish is dangerously 
unacceptable, and threatens the viability of both the state and tribal 
fisheries. Additional research and monitoring of this biotoxin is 
necessary to prevent illness and death that may result from consuming 
toxic shellfish. The significant value of deep-water shellfish 
fisheries has increased illegal harvesting and enforcement is 
inadequate. Tribes and state enforcement agencies are addressing 
problems by coordinating patrols, but additional monitoring of harvest 
is needed.
    It is clear that more needs to be done to adequately address 
resource concerns for the benefit of all fisheries, Indian and non-
Indian alike. The Western Washington tribes request the Subcommittee to 
restore last years funding of $500,000, and add an additional $6.3 
million to tribal fishery management contracts as part of the permanent 
base. This request is supported by a wide range of individuals, 
organizations, and governments. We ask that the Subcommittee direct the 
Bureau of Indian Affairs to include this amount in their fiscal year 
2003 budget.
  wildstock restoration initiative, watershed restoration, northwest 
         forest plan, and endangered species act implementation
    In 1999, a number of species of Pacific Salmon were listed by the 
National Marine Fisheries Service as threatened under the terms of the 
Endangered Species Act (ESA). Last year, the Bull Trout was listed as 
threatened by the U.S. Fish and Wildlife Service. This ESA listing 
process is triggering a cascading chain of events, and will culminate 
in significant changes to harvest, hatchery and habitat practices for 
the region and its inhabitants.
    Tribes are affected by this federal process. As fisherman, the 
listing raises serious questions about the status of the stocks and 
poses a threat to the individual's opportunity to continue to harvest 
this salmon, a treaty-secured resource. As governments, the ESA process 
places inordinate demands upon the tribes as co-managers of the 
resource. Biological Reviews, Listing Decisions, Assessments, Opinions, 
Consultation, and Recovery Planning are just a few of the processes 
tribes will now be forced to participate in just to ensure their treaty 
protected fisheries. The tribes harvest opportunity and management are 
placed in severe jeopardy by these actions without additional funds to 
manage through the risks imposed by this federal mandate. It is partly 
for these reasons that the tribes have worked very hard over the years 
to bring about positive and effective change in resource management. 
Unfortunately, the process has overtaken tribal efforts, and new 
obligations are upon us.
    We are requesting that the Subcommittee continue to provide 
$400,000 for the Wild Stock Restoration Initiative from the $3.0 
million Bureau of Indian Affairs, Forest Development, Woodland 
Management and the Northwest Forest Plan ``Jobs in the Woods'' 
Initiative line item. The WSRI is essential to developing a habitat 
inventory base from which restoration efforts can begin. The remaining 
$2.6 million from this initiative will allow tribes throughout the 
Pacific Northwest to continue to conduct watershed analysis and 
watershed restoration within their Usual and Accustomed Areas. This 
approach is identical to last year's request, which the Subcommittee 
supported.
                timber-fish-wildlife agreement expansion
    We are supporting additional funding to tribes for expansion of our 
Timber-Fish-Wildlife program that cooperatively and collaboratively 
allows tribes to actively participate in state forest practice rules 
and regulations that have an affect on listed salmon populations. 
Tribes, as a result of their co-management status, are deeply involved 
in this management forum. Tribes bring to the table a very high level 
of skills and technical capabilities that if appropriately funded, 
would greatly facilitate a successful outcome. The negotiations leading 
up to the development of the TFW Forest and Fish Report were 
exceedingly contentious. Most all of the tribes were extremely 
concerned about one or more of the key provisions in the report. 
However, most all agreed the only way to actually resolve these issues 
is for a strong monitoring and adaptive monitoring process be put in 
place, which will require additional funding.
    Tribes are using the funds provided last year by the Committee in a 
very organized fashion. Tribes have a strong central and regional 
coordination component and are focusing implementation efforts at their 
local watersheds. The strategy calls for two tracks. One is aimed at 
supporting the development of the Habitat Conservation Plan (HCP) 
development process at TFW. A second track supports tribal 
participation in TFW in a continuing effort to shape and steer forest 
management practices toward greater fish protection.
    For fiscal year 2003, we are requesting $3.048 million be restored 
to the base, plus an additional $1.0 million to further develop tribal 
participation in the TFW Forest and Fish effort. We are further 
requesting that the committee direct the Bureau of Indian Affairs to 
include this amount in their fiscal year 2004 budget.
        contract support funding is essential to tribal programs
    We continue to have concerns that the Bureau of Indian Affairs has 
failed to fully request Contract Support Funds for tribal programs. We 
are also concerned that Congress has not fully appropriated their 
necessary funds. An artificial cap upon the funding pool for indirect 
cost reimbursements places a huge burden on tribal fisheries programs. 
We have been, and will be forced to continue to reduce our programs to 
cover these costs as mandated by law. Such a burden cannot be borne by 
tribal programs again this year or into the future without onerous 
results.
                               conclusion
    We appreciate the Subcommittee's continued support for the tribes 
and the NWIFC as we implement co-management responsibilities. It takes 
funding resources to make our management system work, but the returns 
to our efforts are many. The challenges are great, and we must continue 
our effort with renewed vigor. We thank you for your attention to our 
needs. We have provided the subcommittee staff with additional 
supporting documentation for our requests. We are available to meet 
with you and your staff at your leisure.
                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians
    As Chairman of the Lac du Flambeau Band of Lake Superior Chippewa 
Indians, located in Wisconsin, I am pleased to submit this written 
testimony which reflects the needs, concerns and issues of the Tribal 
membership arising from the President's fiscal year 2003 Budget.
                            indian education
    The Tribal membership continues to express to me the need to 
educate our youth. Education is one of the Band's top priorities and we 
look for congressional support on this issue. We strongly support the 
Administration's proposed increase of $3 million for early childhood 
development programs. However, while the Budget does provide increases 
in early childhood education and construction, there is still a need to 
increase funding for higher education and Johnson O'Malley programs.
    The Band's specific concern is the funding levels associated with 
higher education programs. There has not been an increase in the BIA's 
higher education funding for 6 years. In the last 3 years, the Band had 
130 tribal members, who were not able to receive funding for college 
due to funding shortfalls. To fully support our qualified college 
students, an additional $225,000 of funding for Lac du Flambeau is 
required.
    With the understanding that the Johnson O'Malley program is funded 
through the Tribal Priority Allocation system, the Band has identified 
a funding shortfall. Our Education Program receives $55,967 to operate 
this program in which we concentrate all our efforts and funding to 
high school students only. We have 495 students in grade school and 
because of the lack in funding, they do not receive any of the services 
provide by Johnson O'Malley. To fully fund this program at Lac du 
Flambeau an additional $84,000 would be required.
                           natural resources
    I have always been proud of the work the Band's Natural Resource 
Department staff conducts to protect and conserve the natural resources 
on the reservation for the Seventh Generation. The Lac du Flambeau 
Indian Reservation is located in northern Wisconsin and is in the heart 
of the ``north woods'' and lakes area. The reservation is 86,000 acres 
with 46,000 acres of forested land, 20,000 surface acres of water and 
14,000 acres of wetland. The land, air and water resources and 
associated fish, wildlife and plants are very important to the well 
being and culture of the Band. These resources are what we are as 
people; they support a subsistence way of life, our culture and are an 
integral part of our economy. The comprehensive Department includes the 
following programs: Fish Culture, Fisheries Management, Wildlife, Water 
Resources, Environmental Protection, Forestry, Conservation Law 
Enforcement, Parks and Recreation, Land Management and Tribal Historic 
Preservation. The primary goal of all the programs is to assure that 
the natural and cultural resources; the Band's most precious assets are 
protected and preserved. The following lists our funding needs.
Circle of Flight--Great Lakes Wetland/Water Fowl Management Program
    We strongly urge the Committee to restore $$593,000 for the Great 
Lakes Wetland/Water Foul Management Program (Circle of Flight) that the 
Administration proposes to eliminate entirely.
    Since 1991, the Circle of Flight Program has been dedicated to 
preserving and rehabilitating our Nation's wetlands and waterfowl 
populations. Over the last 11 years, 60,000 acres of wetland have been 
managed, 8,000 acres of lakes were planted with wild rice, 6,000 acres 
of grassland and prairies have been restored and more than 1,000 
waterfowl nesting structures have been constructed. The preservation 
and restoration of wetlands are vital to the culture and economy of the 
region, as they are the foundation areas for traditional gathering, as 
well as recreational hunting. Moreover, in addition to waterfowl 
habitat, wetlands are important in providing flood control, clean water 
and recreation. Thus, not only have tribes benefited from this 
important program, but all of the residents of the region and up and 
down the Mississippi Flyway have benefited from this program.
    With the funds that the Tribes have received from Circle of Flight, 
we have been able to work with Ducks Unlimited, the North American 
Waterfowl Plan, USDA, USFWS and State Natural Resource Agencies to 
leverage additional funds to accomplish joint goals. Last year, Lac du 
Flambeau Band was able to use the $13,000 it received to assist the 
Wisconsin Department of Natural Resources in replacing and repairing 
water control structures on the State's portion of the Powell Marsh. 
Because the Tribes work with so many private and public agencies, we 
have leveraged the $6.7 million in Circle of Flight funds into $18 
million dedicated to wetland and waterfowl restoration projects 
throughout the region.
    The Circle of Flight Program is a great success and the Tribes and 
Congress should be proud of the work that has been accomplished. 
Unfortunately, the President's proposed budget has cut this very 
important program. We strongly urge the Committee to restore the 
$593,000 that funds this program. In addition, the program has 
identified $915,000 for activities within the thirty-one reservations 
and the 61 million acres of ceded territory land base serviced by the 
program, a $322,000 shortfall. In light of this significant shortfall, 
we request that in addition to restoring the $593,000 base funds, the 
Committee consider increasing the funds for this important program.
Wildlife and Parks
    The Band has a comprehensive Natural Resource Department and 
dedicated staff with considerable expertise in natural resource and 
land management. Our activities include raising fish for stocking, 
conservation law enforcement, collecting data on water and air quality, 
developing well head protection plans, conducting wildlife surveys, and 
administering timber stand improvement projects on the 86,000 acre 
reservation. We urge this Committee to increase the Wildlife and Parks 
budget by $10 million and set aside $200,000 for Lac du Flambeau 
($100,000 for Tribal Fish Hatchery Operations and $100,000 for Tribal 
Management and Development). The Wildlife and Parks budget has not 
increased significantly since 1990. An increase will ensure we can 
maintain our current staff and critical natural resource programs.
Forestry
    Within the 86,000-acre reservation, we have 46,000 acres of 
forested land that supports hunting and gathering opportunities for 
tribal members, as well as logging. Proper management of the forest is 
essential to sustain our subsistence lifestyle, but also to provide 
economic growth for the Band. The Forestry Programs, consisting of 2 
foresters and 2 technicians, undertakes a broad range of management 
activities including tree planting, prescribed burning, timber road 
design and maintenance and timber sale administration.
    The Forestry Program is funded through Tribal Priority Allocation 
(TPA) within the Bureau of Indian Affairs budget, which has been 
historically under funded. It is difficult for the Forestry Program to 
compete for TPA funds when child welfare, education and HIP programs 
are also competing for the same funds. We are very pleased to see that 
the Administration's proposed fiscal year 2003 Budget includes a $1.8 
million increase for BIA Forestry. We not only respectfully request 
that the Committee support the President's budget increase, but we 
would urge the Committee to earmark $188,000 for the Lac du Flambeau 
Forestry Program. This program has not received any substantial funding 
increases since fiscal year 1991.
Tribal Historic Preservation
    Tribal Historic Preservation Offices are programs that have assumed 
the functions of the State Historic Preservation Officers on tribal 
lands in accordance within the provisions of Section 101(d)2 of the 
National Historic Preservation Act. The Historic Preservation Fund 
(HPF) administered by the National Park Service (NPS) provides major 
funding for the THPOs and SHPOs. In fiscal year 2002, this funding was 
severely cut, which resulted in a fifty percent decrease in funding for 
the Lac Du Flambeau Historic Preservation Office. The fiscal year 2001 
funding was $140,000. This was reduced to $70,000, in fiscal year 2002. 
Based on the fiscal year 2003 budget numbers, many THPOs across the 
country will have to close their doors. This means these critical 
resource agencies will not be unable to assist to ensure compliance 
with the Act.
                       law enforcement and courts
    At Lac du Flambeau we are fortunate to have a police department 
that is able ensure a safe community for our members. For instance in 
2001, the Lac du Flambeau Tribal Police Department logged 30,000 man-
hours answering 3,937 complaints. The eleven-member Police Department 
consists of ten full time officers and one administrative assistant 
responding to calls ranging from domestic violence to juvenile cases 
including runaways, burglary, fraud, battery and vandalism. The Lac du 
Flambeau Tribal Police not only responds to tribal complaints but also 
provides services to the non-Indian community as well. The Lac du 
Flambeau Tribal Police Department is in dire need of space. Currently, 
the 50-year-old converted hardware store houses the Tribal Court 
System, Tribal Attorney's Office, Probation and Parole Department, 
Child Support Agency, the Great Lakes Indian Fish and Wildlife 
Commission Wardens and Tribal Police. The cramp conditions do not allow 
our police officers to conduct private interviews without compromising 
confidentiality. The lack of an interview area jeopardizes the 
officer's ability to solve cases and is time consuming because not more 
than one person can be interviewed at a time.
    Because of these difficult conditions, the Lac du Flambeau Band 
needs a new Police Department building. It is estimated that the new 
building will cost $800,000. We respectfully request Congress to help 
us in our effort to provide adequate space for the Police Department.
    Our Lac du Flambeau Tribal Court System includes a Chief Judge, 2 
Associated Judges, Tribal Attorney/Prosecutor, Clerk of Courts, Deputy 
Clerk and 2 Peace Keepers. In fiscal year 2001, our Court System had 
1,378 cases filed and conducted 1,791 hearings. Cases would range from 
children and family cases to on and off reservation conservation/
natural resource violations. Throughout Indian country, tribal courts 
are severally under funded and yet continue to fulfill a critical role 
in bringing justice to our communities. It is vital that these courts 
start to receive the funding that they need. Currently, the Band is 
receiving $76,454 from the BIA to support our court system. This only 
represents 24 percent of the total Tribal Court operating budget. Thus, 
the Band respectfully requests that Congress support the President's 
proposed fiscal year 2003 Budget of $17 million for Tribal courts. An 
additional $156,315 is needed to fully fund the Lac du Flambeau Tribal 
Court System.
            great lakes indian fish and wildlife commission
    The Band supports the Great Lakes Indian Fish and Wildlife 
Commission request of $4,063,000 to meet the needs outlined in the 
Commission's testimony submitted to the Committee. The Band is a member 
of the Commission, which assists the Band in protecting and 
implementing its treaty-guaranteed hunting, fishing and gathering 
rights.
                   indian land consolidation project
    The Band supports the Land Consolidation Project. We would urge the 
Committee to restore the proposed $3 million cut to this program. Land 
consolidation is vital to any trust reform initiative, as fractionation 
is at the heart of all of the difficulties that any trust reform effort 
intends to correct. We suggest that in order to improve upon the 
implementation of this Project, that Congress allow tribes to 
administer the project through a Public Law 93-638 contract or some 
other cooperative agreement.
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission
    We appreciate the opportunity to provide this written testimony to 
the House Appropriations Subcommittee on Interior and Related Agencies. 
This testimony is directed toward the fiscal year 2003 Bureau of Indian 
Affairs budget, specifically in regards to the Fish, Wildlife and Parks 
Program.
    The Tribes of the Chugach Region, who make up the Chugach Regional 
Resources Commision (CRRC), are requesting the support of the House 
Appropriations Subcommittee on Interior and Related Agencies to restore 
the $350,000 to the Bureau of Indian Affairs fiscal year 2003 Fish, 
Wildlife and Parks budget earmarked for CRRC and add it to the base 
budget as permanent funding. This funding has been included in the 
BIA's Fish, Wildlife and Parks budget for the past 12 years, but has 
been zeroed out for fiscal year 2003. CRRC is a non-profit Alaska 
Native organization with seven member Tribes located in Prince William 
Sound and Lower Cook Inlet of Alaska. The mission of CRRC is to work 
with the Tribes to promote and develop sound economic resource based-
projects and to work collectively to address any natural resource and 
environmentally related issues that affect the Native people of the 
Chugach Region.
    This funding, over the past 12 years, has supported the development 
and operation of many programs that have assisted communities in 
providing meaningful employment opportunities as well as valuable 
services and products to the people of the State of Alaska. If this 
funding is not restored, 35 Native people in the Chugach Region will 
lose their jobs. With the scarcity of employment opportunities in rural 
Alaska, the impact of approximately six families per village losing 
this income in a village with an average population of 100, strikes a 
devastating blow to the local community economy. In addition, these 20 
families will create a much larger burden on state and federal 
financial resources as they will be forced to depend upon state and 
federal welfare programs to provide funding for necessary living 
expenses. This funding also supports the base operating expenses of 
CRRC, and without this funding, our work will not be able to continue. 
A summary of some of these programs supported by this funding is 
provided to give you a better understanding of the integral role this 
funding plays in Tribal community development.
    The Port Graham Salmon Hatchery has been in operation since 1990, 
and raises sockeye, pink, and Coho salmon. CRRC provided Port Graham 
with the technical and administrative assistance necessary to build the 
hatchery program. The hatchery's goal is to rebuild local pink salmon 
runs and provide economic opportunities for village residents. The 
original hatchery was located in an old cannery building which was 
later destroyed by a fire in January of 1998. CRRC worked closely with 
the Port Graham Village Council to obtain funding and help to build a 
new hatchery. CRRC funded the hatchery operations for many years and 
employed the hatchery staff consisting of 5-7 full time and seasonal 
employees. The new hatchery was completed in 2000 and is now entering 
its full production program. The hatchery currently produces local 
stock Pink Salmon and incubates the sockeye salmon eggs for the nearby 
Native Village of Nanwalek. The new hatchery has a capacity of 110 
million pink salmon eggs, 5 million sockeye eggs and 2 million Coho 
eggs. The hatchery is expecting back over a million adult pink salmon 
to return this year which will enable the first full production egg 
take of 110 million eggs. The future production is expected to reach 
about 3 million adult pink salmon annually beginning in 2004 with an 
expected 100,000 to 200,000 adult sockeye salmon returning annually 
beginning in 2006.
    The Nanwalek Sockeye Enhancement Program (NSEP) was also initiated 
in 1990. The Chugach Regional Resources Commission (CRRC) provided 
funding, technical and administrative assistance to develop a fry 
stocking program that would supplement wild fry production and help 
rebuild the depleted English Bay Sockeye runs. This program was then 
turned over to the Nanwalek IRA Council with project administration and 
support coming from CRRC. It is the only program of its kind currently 
permitted in the State of Alaska and employs one full time and ten 
seasonal workers. Pen rearing of sockeye fry in the English Bay Lakes 
commenced in 1991 and has occurred annually since that time. Over four 
million sockeye fingerlings and pre-smolts have been successfully 
released which produced well over 150,000 adult sockeye salmon that 
have returned to the English Bay River and associated fisheries. CRRC 
helped to develop the technology and procedures needed to re-establish 
the English Bay River sockeye salmon run which is expecting about 
50,000 adults to return in 2002 and 100,000 adults in 2003. Under a 
cooperative agreement between the Port Graham Village Council and the 
Nanwalek IRA Council, the eggs are taken from the salmon in Nanwalek, 
transported to Port Graham to be hatched and reared to fingerling size, 
and returned to Nanwalek for further rearing before they are released 
into the wild. Due to this cooperative remote release program, the 
community was able to enjoy the first subsistence and commercial 
fishery after 10 years. This important program is expected to reach a 
peak production of about 150,000 adult sockeye salmon returning every 
year beginning in 2007. English Bay River sockeye salmon are a 
principal source of subsistence food and commercial fishing income for 
the Nanwalek and the nearby Port Graham villages. CRRC continues to 
provide consulting and technical assistance for this project which will 
help provide a sustainable economic base for the village of Nanwalek.
    The Qutekcak Shellfish Hatchery in Seward has been a major 
accomplishment for both the Qutekcak Native Tribe and CRRC. The 
operation began in a small pilot hatchery with funding provided from 
CRRC BIA funds, and is now operating out of a new state-of-the-art 
facility, spawning, hatching, and rearing Littleneck clams and Pacific 
oysters for sale to shellfish farms in Alaska. This hatchery is now 
operated by the Tribe under a contract with the State and employs 4 
full time employees. This is the only shellfish hatchery in the State 
of Alaska, and has the capacity to serve all shellfish farms in the 
state. The Tribal hatchery staff is currently conducting research on 
the culture techniques of Purple-hinged Rock Scallops, Geoducks, and 
Cockles. CRRC has supported this research and development and without 
this funding, this much needed research would not be able to continue. 
This would devastate not only the Tribal hatchery, but the shellfish 
farmers in Alaska who depend upon seed for their own operations. 
Further, one condition of the hatchery operating contract stipulated 
that the Tribe put up $100,000 bond to cover the cost of mothballing 
the hatchery should the Tribe pull out and no one else found to take 
its place. Operating costs are approximately $340,000 per year for the 
hatchery. Without the BIA funding, hatchery operations would have to be 
cut back. This would reduce seed production that, in turn, would reduce 
income. This likely would force the Tribe to back out of its operating 
contract. This would mean that some or all of its $100,000 bond would 
be forfeited if no one else could be found to take over hatchery 
operations. Closing the hatchery would also doom the state's 
mariculture industry; reducing it to a very small number of farmers 
supplying oysters to the tourists.
    The Tatitlek IRA Council has operated the Alutiiq Pride Oyster Farm 
since 1992 and is one of those farms that depend upon seed from the 
Qutekcak Shellfish Hatchery for their operation. The oyster farm has 
produced some of the best oysters in the country and is well known 
throughout Alaska. The operation sells their product primarily in 
Anchorage at this time, marketing approximately 200-300 dozen per week. 
Funding for this project is slowly being phased out as their profit 
margin increases. Sales currently account for about $80,000 of its 
$145,000 budget. About $35,000 of the remainder comes from the CRRC's 
BIA natural resources program and the rest from village funding 
sources. This is one of the bigger mariculture operations in the state, 
providing 3 full time and several part time employment opportunities 
for Tribal members. The Tribe recently completed construction of a 
processing facility to process the oysters and prepare them for 
shipping. Losing the BIA funding would likely result in a reduction in 
employment and production, and possibly the end of the program. This in 
turn would hurt the Qutekcak shellfish hatchery since Tatitlek is one 
of the hatchery's bigger customers.
    In a related project, the Chenega IRA Council operates the Chenega 
Floating Nursery System for oysters and other shellfish in Chenega Bay. 
With this nursery system, they are able to raise shellfish to a size 
larger than what can legally be imported into Alaska. The ability to 
purchase larger seed means shorter grow-out time, and higher 
profitability for the shellfish farms. So, this program fills a niche 
in the shellfish market that did not exist prior to its inception 
anywhere in the state. This program employs one full time community 
member.
    In addition to these projects, this funding has also supported the 
development of Tribal Natural Resource Programs in the region in an 
effort to be more meaningfully involved in the natural resource 
management projects and decisions that affect the Tribes' traditional 
subsistence lifestyle. Active participation by the Tribes in such 
current initiatives as the Exxon Valdez Trustee Council's Gulf 
Ecosystem Monitoring Program, the federal subsistence fisheries 
management projects occurring in traditional use areas, and the 
potential co-management of the Outer Continental Shelf fisheries is 
vital to the overall success of each of these programs. We have also 
been able to start new projects with this funding, such as providing 
much needed training in natural resource management so that the 
communities are better prepared to participate in state and federal 
agency management efforts. Funding from this initial appropriation also 
supports the base operations of the organization, such as salaries, 
travel, telephone, office space, office supplies, and professional 
biological assistance, which are vital to the CRRC's very existence. We 
have been very successful at utilizing these funds to use as match for 
other grants as well, oftentimes doubling or even tripling the initial 
investment.
    As you can see, this funding has played an integral role in 
allowing CRRC to develop and implement important community-based 
programs such as those described above. The over 35 Native people 
employed under this funding, the majority of which are located in the 
villages, will lose their jobs if this funding is not restored; CRRC 
will be without operating funds, thus unable to facilitate the 
development of local community economies, and Tribes will no longer 
have a collective voice to address the environmental and resource 
issues that affect their lives.
    We are respectfully requesting the Committee's support to restore 
the original amount of $350,000 to the BIA Fish, Wildlife and Parks 
Budget for the Chugach Regional Resources Commission. Due to the 
magnitude of this program to the people of the Chugach, as well as its 
far reaching impacts and high cost to benefit ratio, we are also 
requesting that this funding be included in the budget as part of the 
permanent base.
    In a related matter, we also support the restoration of funds to 
other Tribal fish and wildlife programs that were cut from the BIA 
budget, including $69,000 to the Alaska Sea Otter and Stellar Sea Lion 
Commission, $454,000 to the Bison Restoration Program, $593,000 in 
Wetlands/Waterfowl Management, and $320,000 in Unresolved Hunting and 
Fishing Rights for Tribal management of shellfish resources and 
associated treaty harvest in the Northwest Region.
    In regards to the budget of the U.S. Fish & Wildlife Service, we 
feel it is vitally important to include funding for a permanent Native 
American Liaison for Alaska, particularly since the Service has assumed 
management of subsistence fisheries in the State. The Native American 
Liaison plays a key role in ensuring the involvement of Tribes in these 
and other projects. We were also pleased to see that Congress 
appropriated $5 million for Tribal Wildlife Grants, and $4 million for 
the Tribal Landowner Incentive Program in fiscal year 2002. We are 
hopeful that this funding will continue and encourage you to consider 
increasing this amount for the benefit of the endangered species and 
wildlife resources we all enjoy.
    Once again, thank you for the opportunity to provide this written 
testimony. If you have any questions, please feel free to contact me at 
907/284-2212 or Patty Brown-Schwalenberg, Executive Director, at 907/
562-6647.
                                 ______
                                 
                 Departmental Offices--Insular Affairs
  Prepared Statement of the Enewetak/Ujelang Local Government Council
    Thank you for providing this opportunity to the people of Enewetak 
to describe issues that relate to our ability to live on Enewetak 
Atoll. Of immediate concern is increased funding of Enewetak Food and 
Agriculture Program. Consequently, this statement includes a request to 
increase the funding of the Department of Interior funded Enewetak Food 
and Agriculture Program by $309,000 from $1.391 million to $1.7 
million.
    Other issues that relate to our ability to live on Enewetak Atoll 
are: Funding of the just compensation award issued by the Nuclear 
Claims Tribunal; resettlement of the Enjebi people on their home island 
of Enjebi; monitoring of the our people for radiation exposure; 
continued monitoring of the environment to determine current radiation 
levels; monitoring of the Runit dome; and, improvement of the health 
care program.
    We would first like to address the continuing challenges that life 
on Enewetak presents. These challenges are the result of the severe 
damage inflicted on our atoll by the U.S. Nuclear Testing Program. This 
committee has helped us meet some of these challenges by funding the 
Enewetak Food and Agriculture Program.
    Continued and increased funding of the Enewetak Food and 
Agriculture Program.--This program is necessary because over one-half 
of Enewetak remains contaminated by radiation. The remaining fifty 
percent of the land was turned into a desert-like wasteland in the 
course of the nuclear testing program. As a result of such activities, 
there is insufficient food and other resources on Enewetak atoll to 
support the people.
    Congress recognized the predicament of the Enewetak people and in 
Section 103(h) of the Compact of Free Association Act of 1985, Public 
Law 99-239, authorized funding for the Enewetak Food and Agriculture 
Program. Such funding provides imported food and an agriculture 
rehabilitation program.
    Much progress has occurred over the past several years with regard 
to the agriculture rehabilitation effort. In addition, we have become 
more and more involved with the soil rehabilitation effort and the 
planting and maintenance of food bearing plants. Increase in the 
funding from $1.1 million to approximately $1.4 million these past 2 
years has helped the program keep up with inflation and has created a 
momentum that we would like to maintain.
    However, the increasing population, much improved agriculture 
rehabilitation techniques, and transportation expenses have increased 
the costs to the program. These costs are the costs of the necessary 
food imports; transportation costs for food imports; transportation 
costs of equipment, material, supplies, and fuel for the agriculture 
rehabilitation program; and labor costs for the accelerated agriculture 
effort. To meet these increased costs, the program needs to be 
increased to the sum of $1.7 million in fiscal year 2003. The $1.7 
million is broken down as follows: Food and cooking fuel costs, 
$550,000; agriculture costs (labor, equipment, material, supplies, 
fuel, operations and maintenance), $859,000; transportation costs 
(labor, fuel, operations and maintenance), $300,000. Included in the 
three foregoing categories is the cost of administration of the 
program. Due to the foregoing, we respectfully request that this 
committee increase the amount requested by the Administration for this 
program for fiscal year 2003 by the amount of $309,00, for a total of 
$1.7 million.
    We would now like to describe the award of $386 million made to us 
by the Marshall Islands Nuclear Claims Tribunal for damages we suffered 
as a result of the U.S. Nuclear Testing Program. We will briefly 
describe this development and then describe the necessity of resettling 
the Enjebi island members of our community on their home island, 
radiation monitoring of our people and the environment, and the 
background of the food and agriculture program and its components.
    Funding of the just compensation award issued by the Nuclear Claims 
Tribunal.--The issue most important to us is the funding of the $386 
million award for just compensation made to the Enewetak people by the 
Nuclear Claims Tribunal. Enewetak was the site for forty-three of the 
sixty-seven nuclear bombs detonated by the United States in the 
Marshall Islands. The damages of the U.S. Nuclear Testing Program 
affect us to this day. It is important to remember that in 1947, prior 
to the removal of our people from Enewetak, the United States promised 
us that we would have all constitutional rights accruing to U.S. 
citizens, that we would be taken care of during our exile to Ujelang, 
and that we would not be exposed to any greater danger than the people 
of the United States.
    The constitutional rights to which we are entitled include the 
right to be justly compensated for the damages we suffered as a result 
of the U.S. nuclear testing program. In addition to the well documented 
promises made to us, the United States in the Compact (1) accepted 
responsibility for the just compensation owing for loss or damage 
resulting from its nuclear testing program and (2) agreed that the 
Marshall Islands Nuclear Claims Tribunal (``Tribunal'') make a final 
determination of the amount that would satisfy the constitutional 
requirement of just compensation.
    The Tribunal, following well established U.S. constitutional, 
legal, and regulatory principles, determined that the just compensation 
to be provided to us was an amount of $386 million in addition to what 
we received or will be received under the Compact. The funding of this 
amount by the United States would satisfy its constitutional obligation 
to us. This funding could be provided through the Changed Circumstances 
Petition process that has been presented to the U.S. Congress.
    This funding would provide us with the resources to rid our land of 
radiological contamination, rehabilitate the soil, revegetate the land, 
resettle the Enjebi people on their home island, and provide the means 
by which we could establish a local economy in the fishing and tourism 
sectors. The foregoing would permit us to once again become self-
reliant and self-sufficient. Until this funding materializes, we 
require continued and increased funding of the Enewetak Food and 
Agriculture Program.
    Resettlement of the Enjebi people on their home island of Enjebi.--
We, the Enewetak people, consist of two groups: The people of the 
southern part of the atoll, the Enewetak group; and, the people of the 
northern part of the atoll, the Enjebi group. The Enjebi people have 
been exiled from their home island for a period of over 55 years. They 
have not been able to resettle their home island because it remains 
contaminated. As a result, the Enjebi people need to share the limited 
land and resources with the other Enewetak people on the islands of 
Enewetak, Medren and Japtan. As the populations grow, this is becoming 
an increasingly difficult situation. Yet Enjebi cannot be resettled in 
the near term because insufficient funding exists for the cleanup and 
resettlement.
    The situation at Enjebi is difficult since Enjebi island was ground 
zero for a number of tests. In addition, it underwent bulldozing, 
scrapping and soil removal during the 1977-80 partial cleanup 
activities. In order to make the island habitable again, it requires 
radiological remediation and soil and plant rehabilitation. As 
determined by the experts, the cost for the radiological remediation 
and soil and plant rehabilitation is approximately $118 million, which 
includes the cleanup and rehabilitation of the other northern islands 
which are part of the Enjebi people's resources for food from land and 
marine areas. These costs are part of the just compensation award made 
to the Enewetak people by the Tribunal.
    In addition, the people require the housing, infrastructure, and 
other buildings necessary to permit them to live on the island while 
the rehabilitation is ongoing. These costs are estimated at $30 
million. Nonetheless, these costs were not awarded by the Tribunal 
because the Tribunal opined that such costs could be funded from the 
loss of use portion of the award.
    In short, the cleanup and resettlement of Enjebi is projected to 
cost $148 million. The best solution is for the funding of the Tribunal 
award which would provide the funding for the cleanup and 
rehabilitation of all the northern islands including Enjebi, and which 
would provide the funding for the housing and other necessary 
infrastructure at Enjebi.
    Radiation monitoring of the people, the environment, and the Runit 
Dome.--Because of the residual radiation contamination at Enewetak 
Atoll, we and our environment need to be monitored. The U.S. Department 
of Energy (DOE) and the Enewetak/Ujelang Local Government Council have 
reached an agreement on an appropriate whole body counting and 
plutonium detection regime. The DOE responsibilities under such a 
regime need to continue until Enewetak is radiologically remediated. In 
addition, the Runit Dome (Cactus Crater Containment Site) contains over 
110,000 cubic yards of material including plutonium and other 
radioactive debris. This site needs to be monitored to assure the 
integrity of the structure and to assure that no health risks from the 
radioactive waste site are suffered by us. To effect the foregoing, a 
long-term stewardship program of the Runit Dome needs to be implemented 
by the United States.
    Improvement of the health care program.--As described in other 
portions of this statement, over half of the land at Enewetak remains 
contaminated. In addition, the sufferings of the people during their 
33-year exile to Ujelang have arguably caused health problems that 
continue to manifest themselves in an aging population. These health 
problems are not adequately addressed by the current health care 
program. The program funds need to be increased and the funds need to 
be allocated in an equal amount to each of the four atolls. The 
increase would only solve part of the problem. The allocation of an 
equal amount to each of the four atolls would solve the other part of 
the problem by allowing each community to best determine how its health 
care funds be spent.
    We would now like to describe the food and agriculture program and 
its components, and the efforts we have made to make this program as 
effective as possible.
    Enewetak Food and Agriculture Program.--The Enewetak Food and 
Agriculture Program enables us to live on Enewetak. It provides funding 
for imported food, continued agriculture rehabilitation, operation of a 
motor vessel which brings us the imported food, a nutrition education 
program, and an operation and maintenance component conducted out of a 
facility on Enewetak known as the field station.
    1. Efforts made to increase food production.--The most significant 
aspects of the agriculture rehabilitation program are the infusion of 
nutrients into the soil and the planting of buffer plants along the 
island's shore to protect the interior plants from salt spray. The 
infusion of nutrients into the soil is accomplished by digging trenches 
and placing organic material in the trenches along with a compost 
mixture of copra cake and chicken manure. This activity is extremely 
labor intensive and required the importation of copra cake and chicken 
manure. Although the work is progressing, additional funding is 
required to provide greater manpower and the necessary equipment, 
materials and supplies.
    2. Importation of food.--Imported food is required because of the 
poor soil condition of the land available to us and the radiation 
contamination of other lands. Imported food is now approximately 
$500,000 of the program budget and is expected to increase because of 
the increase in food costs and because of our growing population. These 
issues further illustrate the need to increase the program to $1.7 
million.
    3. Nutrition education program.--Since our people cannot rely on 
traditional foods we must import food, the nutritional value of which 
is unfamiliar to us. Several years ago we became aware that some of our 
people, particularly our children, suffered from malnutrition. 
Accordingly, we instituted a nutrition education program. We are 
pleased to report that we have been apprised by physicians that 
malnutrition among our children has been greatly reduced.
    4. Vessel.--In 1999, we purchased, repaired, and refitted a 104-
foot motor-vessel as a replacement vessel for our 54-foot motor-sailer, 
which sank. This replacement vessel, named the KAWEWA, has greater 
capacity for cargo and passengers than the previous vessel. The KAWEWA 
permits us to transport machinery, equipment, supplies and other 
necessary cargo. It also provides transportation to members of our 
community. Both the transport of cargo and people has become extremely 
difficult in the Marshall Islands because of the lack of transport 
vessels and aircraft. The KAWEWA provides the necessary lifeline for 
goods, materials, and transportation for our community.
    5. Field Station.--Operation and maintenance of the entire program 
is conducted out of a facility referred to as the Field Station. The 
machinery and equipment required by the agriculture, food and 
transportation components of the program are kept at the Field Station. 
Field Station personnel provide all the required agricultural work; 
maintain, service, and operate the equipment required by the various 
components of the program; make payments and maintain books of 
accounts; and coordinate the procurement of food, material and 
equipment. The overall manager of the program is Johnson Hernest. Other 
management personnel include Samson Yoshitaro and Mathan David. The 
program employs over 50 members of our community.
                               conclusion
    We thank the Congress for its past funding of the Enewetak Food and 
Agriculture Program and request that it provide funding for fiscal year 
2003 in the amount of $1.7 million to address the increased costs 
incurred by the program. In addition, we look forward to discussing 
with the Congress the other issues described in this statement.
                                 ______
                                 
                       DEPARTMENT OF AGRICULTURE
                             Forest Service
          Prepared Statement of the Eastern Forest Partnership
Overview
    The eastern forests are at serious risk of permanent degradation 
and fragmentation from the nation's most rapid rates of development and 
timber harvest. Unlike the western United States, where many states 
have as much as half of the land base in public ownership, eastern 
forests are predominantly in private hands (86 percent) and unprotected 
from development. Our ability to provide clean air and water, wildlife, 
and recreation far over half of the American people will rest in large 
part on our ability to conserve enough of this unprotected land in the 
coming decades. In order to achieve this goal, we request that you make 
an appropriation of $100 million for the Forest Legacy Program 
administered by the USDA Forest Service and $900 million for the Land 
and Water Conservation Fund administered by the Department of the 
Interior.
Threats to Easters Forests
    Development and the attendant loss of forestland pose the most 
widespread threat to eastern forests. Population growth connected to 
economically thriving urban areas like Philadelphia, Atlanta and Boston 
combined with inefficient land use patterns is leading to rapid sprawl 
development that consumes natural areas, including forests. From 1992 
to 1997, over 8 million acres of rural land were developed in the 
eastern states, an area larger than New Hampshire.\1\ All trends 
suggest that this rate of forest and farmland conversion will only 
increase--sales of new homes set a record in 2001.\2\
---------------------------------------------------------------------------
    \1\ USDA Natural Resources Conservation Service. ``State Rankings 
by Acreage and Rate of Non-Federal Land Developed.''
    \2\ U.S. Commerce Department.
---------------------------------------------------------------------------
    Eastern forests, shrinking before sprawl, have also seen a boom in 
logging over the last decade and now produce over 70 percent of the 
nation's timber, with removals exceeding growth in many areas.\3\ This 
rapid growth of eastern timber harvest is likely to increase. The 
Forest Service projects that timber production from non-industrial 
private forestlands will increase by 64 percent over the next 50 
years.\4\ Almost two-thirds of the timber removals in eastern forests 
are from the lands of non-industrial private landowners, land that is 
largely unprotected.\5\
---------------------------------------------------------------------------
    \3\ USDA Forest Service. ``Net Annual Growth, Removals and 
Mortality of Growing Stock on Timberland in the United States.'' 1996.
    \4\ Hertel, Gerard ``The Eastern Non-industrial Private Forests.'' 
USDA Forest Service. 2000.
    \5\ Hertel, ibid.
---------------------------------------------------------------------------
Impacts of Forest Loss
    The loss of eastern forestland to development and intensive timber 
harvest has serious implications for the residents of the eastern 
states. Most importantly, eastern forestlands and open space are 
cleansing sponges that collect and filter the region's drinking water. 
The widespread eastern drought has highlighted the importance of this 
natural waterworks. Far example, the 2 million acres of forestland and 
pure waterways in the Highlands region filter water supplies for 12 
million Americans living in and around New York City.\6\ Without the 
Highlands, life in this densely populated region would become near 
impossible.
---------------------------------------------------------------------------
    \6\ Highlands Coalition.
---------------------------------------------------------------------------
    No less important is the impact of these lands on quality of life 
in the densely populated eastern states. In our heavily urbanized 
landscape, large tracts of forestland like the 37 million acre Southern 
Appalachian region and 26 million acre Northern Forest are a critical 
refuge for wildlife and recreationists alike. Eastern forests contain 
the nation's most biologically diverse forestlands and waterways, 
treasures that are being lost each year. Our forests also give the 
eastern states the natural amenities that are increasingly important to 
Americans from all walks of life. Conserving our forests assures access 
to a treasured piece of green refuge for every resident in the eastern 
states.
Public Attitudes
    The public is fully aware of the importance of our forests, and 
open space, and is waiting for the government to take action. In the 
2002 National Survey on Biodiversity, conducted in January by the 
polling firm of Belden, Russonello and Stewart, 26 percent of 
respondents ranked the loss of natural areas to development as an 
``extremely serious'' problem. This was the highest percentage for any 
of the problems listed in the survey, outdistancing toxic waste, air 
pollution, and water pollution. If we invest in greater land 
protection, we will address a clearly identified public concern.
Looking Forward
    With a mere 14 percent of eastern forestland protected from 
development, and even less land protected from intensive logging, it is 
critical to protect more forestland for public needs. These are the 
lands that will assure an enduring water supply, clean air, wildlife, 
and recreational opportunities for the more than half of the American 
people living in the East. In order to achieve this protection, we will 
need a renewed investment in our federal land protection programs.
                         forest legacy program
    The Forest Legacy Program can help provide adequate protection of 
eastern forestland by adding some lands to public ownership while 
protecting other lands kept in private hands through the use of 
conservation easements. The flexibility of the Forest Legacy Program 
enables governments and land managers to work harmoniously with local 
communities, crafting conservation strategies that fit each individual 
situation.
    The Forest Legacy Program also takes advantage of the impressive 
commitment of states in the region to forest protection. States like 
North Carolina, New Jersey, and Vermont have been aggressive in funding 
protection for open space. Throughout the region states are setting 
aside unprecedented new sums for protection of natural areas, 
watersheds, and wildlife habitat. The Forest Legacy Program's matching 
requirement of 25 percent for each project assures that federal money 
from the program will be leveraged with state and private money for the 
maximum impact.
    The Forest Legacy Program has historically been used to protect 
forests in New England, with smaller sums going towards projects in 
other states scattered across the country. However, as pressures on 
forestlands have grown throughout the East, other states have hurried 
to join the program. Although the overall program allocation has grown 
somewhat, it has not increased quickly enough to keep up with overall 
demand. The appropriation in fiscal year 2002 of $65 million was only 
half of the almost $130 million in requests that came in from the 
eastern states in the program.
    Now even more states have joined the program, including states like 
Georgia, Alabama, and Pennsylvania that have some of the nation's 
highest rates, of timber removals and development. Forest Legacy 
Program requests for this year could easily exceed $200 million. In the 
eastern forests alone there are over $129 million in identified Forest 
Legacy projects for fiscal year 2003 that would meet critical needs. 
Effective conservation of the eastern forests, including priority areas 
like the Southern Appalachians, Highlands, and Northern Forest, will 
require at least a $100 million appropriation for the Forest Legacy 
Program in fiscal year 2003.
                  the land and water conservation fund
    The Land and Water Conservation Fund, like the Forest Legacy 
Program, is an important resource for increasing our base of protected 
forestland. Acquisitions funded by the LWCF create parks and forests 
that filter public water supplies, purify our air, and provide 
guaranteed access for millions of Americans to natural areas. Full 
funding for the LWCF would have a profound effect on the lives of 
millions of Americans living in the eastern states.
    The LWCF state matching grants program is particularly important 
now that many state governments are facing serious fiscal challenges. 
Eastern states such as New Jersey and North Carolina have made a 
commitment to protecting more open space for public needs. Full funding 
for the state matching grants program will help these states keep this 
important promise in difficult financial times.
    The LWCF federal program is also vitally important to eastern 
states because we have such a shortage of federal public land. In 
particular, eastern national forests are in desperate need of new 
acquisition dollars to seize historic opportunities to consolidate 
fragmented public lands. Many eastern national forests are only half of 
their authorized size, depriving millions of Americans of the full 
promise of the Weeks Act that there would be enough national forest to 
serve the needs of every American. We need to deliver on the other half 
of this legacy by funding completion of our eastern national forests.
Summary
    The densely populated eastern states are deeply dependent on the 
eastern forests for clean water and air, wildlife habitat, recreational 
opportunities, and as an enduring economic engine. Without a dramatic 
increase in funding for the Forest Legacy Program and Land and Water 
Conservation Fund, we will continue to lose natural areas at a 
tremendous rate. This loss of natural lands is already having serious 
consequences, and events like the current drought are only highlighting 
the potential consequences of further neglecting to protect our green 
infrastructure in the eastern forests. Greater funding for land 
protection will help us avert this crisis while improving the quality 
of life for millions of Americans. This seems a worthy federal 
investment.
                                 ______
                                 
         Prepared Statement of the Outdoor Industry Association
    The Outdoor Industry Association urges the Interior Appropriations 
Subcommittee to substantially increase funding for recreation and 
conservation. Our highest priority for fiscal year 2003 is $1.44 
billion for year three of the Conservation Trust created in Title XIII 
of the fiscal year 2001 Interior Appropriations bill. In addition, we 
urge you to provide a major investment in recreation management dollars 
at the USDA Forest Service: $317 million for Forest Service recreation 
management; and $100 million for capital improvement and maintenance 
for Forest Service trails.
    Outdoor Industry Association is the trade association of the $18 
billion human-powered outdoor recreation industry. Our members include 
1,100 manufacturers, retailers, and distributors of outdoor products 
and services associated with hiking, backpacking, climbing, canoeing, 
kayaking, and backcountry skiing. In 2000, Outdoor Industry 
Association's Participation Study found that hiking and mountain 
bicycling each had over 70 million participants; 34 million went trail 
running; 5 million went snowshoeing; 18 million canoed; and rock 
climbing and kayaking had 5 million and 6 million participants, 
respectively. In total, about 149 million Americans participated in 
these active outdoor activities last year.
    Recreation is an important use of our public lands. The Forest 
Service estimates they have 209 million visitors per year; the National 
Park Service attracts 285 million; and the Bureau of Land Management 
estimates 62 million visitor days per year.
    After September 11, the need for protecting our public lands for 
respite and renewal is more important than ever. According to the 
Outdoor Industry Association Special Report: ``The Effects of September 
11 on Recreation, Travel and Leisure,'' 29 percent of Americans changed 
their travel plans for the six months following September 11. When 
exploring what types of vacations or activities that Americans may take 
in future months, 58 percent of Americans say they would feel safest 
visiting National Parks; 57 percent also say they would feel ``very 
safe'' at a winter mountain resort. These activities scored far higher 
than cities or theme parks. Clearly, Americans are seeking outdoor 
experiences in these uncertain times.
    In addition, Outdoor Industry Association believes strongly that 
more investment in the health of our public lands is necessary to 
maintain quality recreation opportunities for our future.
Land Conservation, Preservation and Infrastructure Trust--$1.44 billion
    This new Trust represents a significant commitment to invest in 
natural resource protection as demands on those resources increase. 
Strong congressional support for the Conservation and Reinvestment Act 
(CARA) in 2001 (House vote of 315-102) demonstrated the broad 
constituency for adequate and dependable funding for state and local 
programs as well as public land maintenance and urban park, historic 
preservation and wildlife programs. We urge the Committee to fully fund 
the Trust in recognition of the compromise struck in 2001.
    The outdoor industry sees an incredible need for these dollars. 
Trail and recreation facility maintenance backlogs are at an all time 
high. Demand for recreation opportunities is increasing, and the 
pressure on open space and public lands from development is growing.
    Outdoor Industry Association believes it is essential that the 
federal estate be taken care of with dollars from the Trust, but also 
that states receive their fair share. We encourage Congress to commit 
to spending all of the dollars in the Trust each year through fiscal 
year 2006, using the fiscal year 2001 and 2002 funding levels for 
programs in the Trust as a base to build on in future years. We 
respectfully request expenditures of $1.44 billion in this category in 
the Interior bill in fiscal year 2003.

    REQUESTED BASELINES FOR PROGRAMS IN LAND CONSERVATION, PRESERVATION AND INFRASTRUCTURE IMPROVEMENT TRUST
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal years
                                               -----------------------------------------------------------------
                                                   2001       2002       2003       2004       2005       2006
----------------------------------------------------------------------------------------------------------------
Interior Subcomittee:
    Fed, and State LWCF Funding...............        540        540        540        540        540        540
    State & other conservation programs.......        300        300        300        300        300        300
    Urban & Historic Preservation.............        160        160        160        160        160        160
    Maintenance Backlog.......................        150        150        150        150        150        150
    Payments in Lieu of Taxes.................         50         50         50         50         50         50
    Funds used for steady growth for each       .........        120        240        360        480        600
     program (particularly state and local
     programs)................................
                                               -----------------------------------------------------------------
        Interior Total........................      1,200      1,320      1,440      1,560      1,680      1,800
----------------------------------------------------------------------------------------------------------------

    We have particular interest in three programs inside the Trust:
Land & Water Conservation Fund--$900 million
    Outdoor Industry Association strongly supports full funding for 
LWCF in fiscal year 2003, however, we have great concern that the 
President would fund non-LWCF projects in the LWCF category. We believe 
this sets a bad precedent for the program for the future, and strongly 
oppose this approach.
    For more than three decades, the Land and Water Conservation Fund 
(LWCF) has played a crucial role in American conservation and 
recreation. Through its early history, the LWCF generally received and 
allocated close to $900 million annually. In the 1980s and 1990s, 
however, annual appropriations averaged far less. For many years, the 
state grant program received no money at all. The creation of the Land 
Conservation, Preservation and Infrastructure Improvement Trust 
provides a great opportunity to make good on the earlier promise of 
this program.
    Needs at the state level are particularly great. The demand for 
outdoor recreation opportunities is increasing. More Americans are 
participating in activities like hiking, backpacking, climbing and 
kayaking. To meet the demand, and to address the problem of limited and 
fragmented leisure time, we must provide more access to recreation 
close to home.
Urban Parks and Recreation Fund--$75 million
    Urban parks are crucial to increasing the quality of life in 
cities. This program provides places for children to play and for 
families to go for a respite from their hectic lives. Title VIII 
dollars should make a significant increase in the program for fiscal 
year 2003 possible.
Maintenance Backlog Account--$250 million
    Maintaining recreation facilities is extremely important for 
promoting and protecting the outdoor recreation experience. All of the 
public land agencies are suffering from severe maintenance backlogs. 
This account is key for bringing these facilities back into repair.
USDA Forest Service Recreation Management--$317 million
    The USDA Forest Service is the nation's largest outdoor recreation 
provider, managing over 133,000 miles of trails--including all or part 
of 6 national scenic and 11 national historic trails--more than 277,000 
heritage sites, over 4,300 campgrounds, and 31 national recreation 
areas. The Forest Service provides a broad range of outdoor activities 
including hiking, biking, climbing and paddling. Recreation creates 
about 75 percent of the Gross Domestic Product generated from Forest 
Service land, yet only about 10 percent of the Forest Service budget 
supports recreation.
    We encourage the Appropriations Committee to provide $317 million 
for the Recreation Management, Heritage and Wilderness program at the 
Forest Service.
    An increase will begin to close the gap between the huge need and 
current low investment in this growth area for national forests. We 
urge the agency to use these funds to increase the number of recreation 
staff at the local level, including volunteer support and trail crews, 
where the need is great and demand is growing. The number of recreation 
management personnel in the Forest Service decreased from 2,309 in 
fiscal year 1998 to 1,934 in 1999. Very few forests have even one full-
time staff person on trails. Some offices fail to adequately process 
and supervise outfitters and guides, competitive event promoters, 
educational institutions, and other commercial and organized groups, 
and support for volunteer efforts is lacking.
Capital Improvement and Maintenance--Trails--$100 million
    Trail maintenance is a basic component of a quality recreation 
experience. Ensuring visitor safety, protecting natural resources, 
maintaining visitor access and improving the backcountry and recreation 
experience require a greater investment in trail maintenance. The 
Forest Service trail maintenance backlog totals over $118 million. Many 
trails are so far in disrepair from overuse and long-term under-funding 
that they need to be completely re-constructed. Increasing the trails 
budget is crucial to enable the agency to begin to address this 
tremendous recreational infrastructure need, including bridge 
replacement, trail relocation, and tread replacement. Without increased 
funding, trails will continue to deteriorate, costs will increase 
exponentially and resources will continue to suffer.
    Thank you for your consideration of our request. We look forward to 
working with you to ensure quality backcountry recreation opportunities 
for all Americans.
                                 ______
                                 
Prepared Statement of the International Research Institute for Climate 
   Prediction, Lamont-Doherty Earth Observatory, Columbia University
                                request
    This request for $1.5 million within the Forest Service (USDA) 
appropriation for Forest Service Research and the National Fire Plan 
concerns the use of available research tools and scientific expertise 
that could preserve resources destroyed annually due to forest fires. 
Columbia University's International Research Institute for Climate 
Prediction (IRI) produces interannual to seasonal forecasts on 
variability in precipitation and temperature, the two most naturally 
occurring critical factors related to forest fires.
                               background
    The National Oceanic and Atmospheric Administration within the 
Department of Commerce selected the IRI, through a peer review process, 
to provide long-term climate forecasts and experimental modeling. The 
IRI is located at Columbia University's Lamont-Doherty Earth 
Observatory. The IRI produces interannual to season forecasts on 
probability of variance in precipitation and temperature, primarily 
based on computer modeling and the influence of major climate forcing 
agents, such as the emerging El Nino in the Pacific Ocean. The IRI 
conducts climate forecasts based on numerous international models 
utilizing multiple sources of sea surface temperature data and 
satellite analysis. The IRI provides the most accurate long-term 
forecasts for severe climate-driven events worldwide.
    The National Fire Plan identifies several factors that need further 
research and refinement for the preparedness related to minimizing the 
damage and destruction caused by forest fires. The plan sets forth 
goals in (1) Fuel Conditions, Risk Assessment and Fire Management, and 
(2) Weather and Smoke. These research elements could be greatly 
enhanced through collaboration with the IRI, which could provide 
intermediate and long-term forecasts on fuels assessment, precipitation 
forecasts, and temperature conditions that make fire conditions more 
probable.
    The Forest Service fiscal year 2003 Budget is approximately $4.1 
billion, of which $1.457 billion is requested for the National Fire 
Plan.
                               rationale
    The IRI is prepared to provide its expertise in additional areas of 
national benefit. The mission of protection and preservation of natural 
resources could be enhanced with the use of tools and expertise 
currently available through IRI products and services. The 
collaboration of the IRI with the Forest Service would result in 
improved knowledge and performance in the preparation for forest fire 
conditions.
                                summary
    In your deliberations on the fiscal year 2003 Interior 
Appropriations bill, I respectfully request that you provide in the 
USDA-Forest Service appropriations accounts $1.5 million for an 
extramural, collaborative research agreement with the International 
Research Institute for Climate Prediction to assist in implementation 
of the National Fire Plan and provide long-term precipitation and 
temperature probability forecasts related to preparedness and fuels 
assessment.
    Thank you for your consideration of this matter.
                                 ______
                                 
       Prepared Statement of the Mother Lode Chapter, Sierra Club
    The Mother Lode Chapter of the Sierra Club urges the Subcommittee 
to recommend $2.7 million in Land and Water Conservation Fund 
appropriations for the North Fork American Wild River in Tahoe National 
Forest.
    This appropriation is needed to purchase 2,700 acres of private 
lands along and near the North Fork American Wild River in Tahoe 
National Forest, California, from a willing seller. The Forest Service 
has already acquired 6,900 acres along the Wild River, and the proposed 
purchase will complete the acquisitions of presently available private 
lands in and adjacent to the Wild River Zone.
    The North Fork American River flows down the western slope of the 
Sierra Nevada in a beautiful wild rugged canyon more than half a mile 
deep. Most of the canyon is steep-walled and narrow. Almost all the 
private lands to be acquired, originally part of the checkerboard land 
grant to the Southern Pacific Railroad, lie within the canyon and two 
major side canyons. Just south of the canyon's rim is a 640-acre 
inholding within Duncan Canyon's 8,000 acres of old-growth mixed 
conifer forest. Highquality old-growth mixed conifer forest is now rare 
in the Sierra Nevada.
    Both the Federal Government and the State of California designated 
a 38-mile stretch of the North Fork American as a Wild River in the 
1970's. The designations recognized the river's outstanding wildness 
and beauty and its exceptionally pure waters.
    The river supports an excellent self-sustaining trout fishery 
managed as a Wild Trout Stream by the State of California. The canyon 
is home to numerous large mammals, including black bear and mountain 
lion, and provides habitat for 150 species of birds, including 
peregrine falcons, golden eagles, and goshawks. The canyon's varied 
ecosystems and vegetation, including a large acreage of old-growth 
forest, are almost unspoiled. Ten challenging trails descend steeply 
into the canyon, providing access for rugged hikers, backpackers, and 
fishermen seeking solitude and strenuous adventure.
    Though the canyon is remote and rugged, development which would 
degrade the pristineness of these private lands could still occur. A 
previous owner filed helicopter logging plans on several of the 
parcels. Cabin sites could be developed on some of the parcels, 
degrading their naturalness and limiting public recreational access.
    A fiscal year 2003 appropriation of $2.7 million from the Land and 
Water Conservation Fund is needed to acquire these exceptional lands 
along the North Fork American Wild River and preserve them from 
potential development. The Mother Lode Chapter urges the Subcommittee 
to recommend this appropriation.
    This appropriation is supported by the Placer County Board of 
Supervisors, the Board of Directors of the Placer County Water Agency, 
and civic and environmental organizations in Placer County.
                                 ______
                                 
               Prepared Statement of The Wildlife Society
    The Wildlife Society appreciates the opportunity to submit 
testimony on the fiscal year 2003 budget for the U.S. Forest Service 
(FS). In particular, we recommend maintaining the fiscal year 2002 
funding level for Forest and Rangeland Research; increasing the 
Administration's request for Wildlife, Fish and Threatened & Endangered 
Species by $17.7 million; and increasing the Stewardship Incentives 
Program by $3 million. The Wildlife Society is the association of 
professional wildlife biologists dedicated to responsible wildlife 
stewardship through science and education. The Society is interested in 
all aspects of federal programs that affect wildlife and habitat 
management on public lands.
                     forest and rangeland research
    The Wildlife Society is very concerned about the Administration's 
proposed shift in FS research, which would result in crippling 
reductions to research vital to fish and wildlife management. The 
programs slated for reduction include long-term research that, once 
halted, will be difficult if not impossible to resume. Natural 
resources research requires many years of data collection and analysis 
before yielding the most valuable results, and a spending reduction 
will limit the extent to which researchers can analyze and use recently 
collected data. We recommend that new research initiatives not be 
implemented at the expense of other critical, long-term research 
projects.
    The proposed fiscal year 2003 Forest and Rangeland Research budget 
represents an increase of $1.877 million over fiscal year 2002. 
However, the proposal also allocates $37.8 million to five new research 
and technology initiatives. Consequently, $35.924 million worth of 
existing research programs must be terminated to support the new 
initiatives. This 15 percent reduction will result in dramatic cuts, 
closures, and terminations of important research projects that provide 
critical information for forest and rangeland management on National 
Forests lands. At least 16 Research Work Units will be terminated and 
275 research positions will be discontinued. These impacts will curtail 
research that wildlife biologists need to develop, adapt and evaluate 
management and restoration plans for wildlife and its habitat. The 
Wildlife Society is strongly opposed to these reductions to forest and 
rangeland research, and we urge you to maintain the fiscal year 2002 
enacted levels for each of the following programs: $51.702 million for 
wildlife, fish, water and air research; $107.24 million for vegetation 
management and protection research; and $38.739 million for resource 
valuation and use research.
                  wildlife and fish habitat management
    The Wildlife Society continues to object to the FS budget 
structure. The fiscal year 2003 budget approach (initiated for fiscal 
year 2001) makes it difficult to understand the budget request and to 
make any kind of meaningful comparison with previous year 
appropriations. Without budget line items detailing specific 
expenditures, the current approach does not promote accountability to 
state partners or the public. We recognize that Congress wants to 
reduce the number of budget line items, but we believe a better system 
is needed to show accountability for allocated monies. We request the 
FS budget include specific line items for: (1) wildlife and vegetation, 
and (2) watersheds and fisheries, both of which would specify 
threatened and endangered species efforts within each.
    The Wildlife Society is concerned about the nominal increases in 
the Wildlife ($1 million) and Threatened & Endangered (T&E) Species 
($1.3 million) programs in fiscal year 2002. Since 1994, the FS has 
shifted many wildlife biologists and other resource specialists from 
on-the-ground projects to writing NEPA documents, processing appeals, 
and responding to litigation. Today at least 90 FTE wildlife biologists 
and 85 range scientists are needed at the Ranger District level to 
address the large backlog of management, monitoring, and research 
needs. As staffing needs are being met for fire management and the 
replacement of retiring professionals, we think that maintaining fish 
and wildlife skills in the workforce should be part of the agency's 
focus.
    The Wildlife Society recommends a $17.7 million increase above the 
Administration's request of $139.48 million for the Wildlife, Fish and 
Threatened & Endangered Species program in fiscal year 2003. Of the 
total amount provided, we recommend making $44.25 million available to 
ensure that each National Forest has a base infrastructure of personnel 
to administer viable Wildlife Biology, Terrestrial Threatened, 
Endangered and Sensitive Species, Botany and other natural resource 
programs. We also request that $10.8 million of the total amount be 
provided as base level funding for Forest and District biologists to 
implement proactive management, monitoring, and research projects.
    The Wildlife Society is pleased that the fiscal year 2002 funding 
for FS wildlife and T&E species habitat management programs is 
generating improvements for wildlife conservation. FS staff believes 
that in fiscal year 2002, through the facilitation of nine challenge 
cost share programs, the agency will reduce the conservation needs of 
wild turkey, wild sheep, elk, quail, waterfowl, grouse, and woodcock. 
However, the agency projects an increase in deferred costs for land 
bird conservation (Partners in Flight) and several critical habitat 
communities like aspen, sagebrush, fire dependant forests, and early-
successional forests. We strongly support the challenge cost share 
programs that support these wildlife resources and encourage Congress 
to appropriate money for these specific projects as supplements to a 
fully funded wildlife program rather than as a substitute for needed 
appropriations. Since 1996, nonprofit partners of the Forest Service 
have financed almost two-thirds of the cost needed to implement the 
agency's cost share programs. It is becoming increasingly important 
that the Forest Service shares the financial responsibility with its 
partners.
                       state and private forestry
    The Wildlife Society supports the Cooperative Forestry programs 
that assist States and private landowners in improving and enhancing 
fish and wildlife habitat, protecting watersheds, and contributing to 
the economic and environmental well being of urban and rural America.
    The Forest Stewardship Program (FSP) and Stewardship Incentives 
Program (SIP) collectively contribute to sustainable forestry 
management and wildlife habitat enhancement on 48 percent of the 
nation's non-industrial private forestlands. Under FSP, FS officials 
work with non-industrial private landowners to develop land management 
plans that improve the quality of forest, riparian and wildlife 
resources and improve the supply of seeds and planting stock for 
reforestation. The Wildlife Society supports the Administration's 
request of a $17.365 million increase for this program. Through SIP, 
the agency helps landowners cover the cost of implementing the land 
management plans, but the Administration requested no funds for this 
program in fiscal year 2003. The Wildlife Society requests that 
Congress restore SIP to the fiscal year 2002 funding level of $3 
million.
    The Forest Legacy Program (FLP) is another successful State and 
Private Forestry Program that The Wildlife Society supports. Through 
FLP, the FS and participating states identify private forestlands that 
contain unique environmental features and yield critical resource 
values (e.g., connectivity of wildlife corridors, clean drinking water) 
and traditional forest uses that demand protection from land 
development. With the FS's financial assistance, participating states 
can acquire lands or interests in lands through a conservation 
easement. The Wildlife Society supports the Administration's $69.9 
million request for this program, which represents a 7.5 percent 
increase over the enacted fiscal year 2002 spending level.
    Thank you for considering the comments of wildlife professionals. 
We are available to work with you and your staff throughout the 
appropriations process.
                                 ______
                                 
           Prepared Statement of the American Hiking Society
                subject: trails and recreation programs
    Mr. Chairman and members of the subcommittee, I represent American 
Hiking Society's more than 5,000 members and the 500,000 members of our 
160 affiliated organizations. American Hiking Society (AHS) is a non-
profit recreation-based conservation organization that works with the 
hiking community to promote and protect foot trails and the hiking 
experience. We urge you to support funding increases that will protect 
trails and recreation resources for the benefit of the nation. American 
Hiking makes the following recreation and conservation funding 
recommendations for fiscal year 2003:

USDA Forest Service:    [In millions of dollars]
    Recreation Management, Heritage and Wilderness............   317.000
        Recreation Management (increase)......................    40.000
        Wilderness Management (increase)......................    15.000
    Capital Improvement and Maintenance--Trails...............   100.000
National Park Service:
    Rivers, Trails and Conservation Assistance program........    13.000
    National Trails System....................................    10.850
    Geographic Information System Network for National Trails.     1.200
Bureau of Land Management:
    Recreation................................................   210.000
        Recreation Management (increase)......................    16.000
    National Landscape Conservation System....................   117.000
Land and Water Conservation Fund:
    Appalachian National Scenic Trail, USDA Forest Service....     4.000
    Florida National Scenic Trail, USDA Forest Service........     6.000
    Pacific Crest National Scenic Trail, USDA Forest Service..     5.000
    Ice Age National Scenic Trail, National Park Service......     7.000
    Pacific Crest National Scenic Trail, Bureau of Land 
      Management..............................................     1.000
    Continental Divide National Scenic Trail, Bureau of Land 
      Management..............................................     0.584

                     trails and recreation funding
    Human powered recreation, especially hiking, represents an 
important and increasing use of our public lands, yet federal funding 
for recreation has not kept pace with demand and continues to fall far 
short of needs. According to the 2000 National Survey on Recreation and 
the Environment, hiking and backpacking are among the nation's fastest 
growing forms of recreation. In 2000, 73 million Americans hiked (196 
percent growth since 1982) and 23 million backpacked. The solution is 
not just to appropriate more money to the National Park Service (NPS), 
Bureau of Land Management (BLM) and USDA Forest Service, but to couple 
targeted increased funding with increased on-the-ground trails 
coordinators and volunteer coordinators. The 16 national scenic and 
historic trails administered by the National Park Service require a 
minimum of $10.85 million for natural and cultural resource management 
and protection, improving visitor services, and strengthening volunteer 
partnerships. For most of the national scenic and historic trails, 
barely one-half of their congressionally authorized length and 
resources are protected and available for public use. Most trail 
offices are understaffed, hindering the agencies' ability to properly 
administer and manage these trails and work effectively with other 
public agencies and non-profit volunteer partner organizations. In 
2000, national trail volunteer organizations contributed $5.8 million 
in financial resources and over 593,000 volunteer hours with an 
estimated labor value of $8.8 million to the national scenic and 
historic trails. Volunteer partnerships and contributions leverage 
federal funding significantly, but they must not be considered a 
substitute for appropriations. Many of the national scenic trails have 
made significant strides in trail maintenance and protection efforts, 
but much work remains for these trails to become the continuous 
footpaths that Congress intended. American Hiking thanks the 
subcommittee for its support of the National Trails System and urges 
you to increase funding to help complete and protect these national 
treasures. American Hiking Society endorses the specific figures 
submitted by the Partnership for the National Trails System.
    In addition, NPS requires $1.2 million to continue work on a 
Geographic Information System network for the national scenic and 
historic trails. This program, costing approximately $8.4 million over 
5 years, will provide accurate information to assist the public, trail 
managers, maintainers, and other stakeholders in trail protection, 
development, maintenance, interpretation, and resource management. The 
project applies state-of-the-art technology and techniques to better 
administer, manage, and protect trail resources and landscapes. It will 
also increase efficiency through interagency coordination of staff, 
data, and resources.
    The NPS' Rivers, Trails and Conservation Assistance (RTCA) program 
requires a $5 million increase to help communities manage and protect 
their recreational and natural resources. Despite the program's 
successes, RTCA funding has remained relatively stagnant for the last 8 
years. RTCA has experienced a dramatic increase in requests for 
assistance but is only able to assist half of all applicants. Because 
of funding shortfalls in fiscal year 2002, RTCA is presently suffering 
from significant cutbacks to staff, travel, and projects. With its 
strong focus on partnerships, RTCA is exceptionally cost efficient and 
effective. In fiscal year 2001, RTCA helped develop more than 2,000 
trail miles, protect more than 500 river miles, and preserve almost 
50,000 acres of open space. RTCA-assisted projects accomplish much more 
than conservation goals. They promote physical activity, encourage 
smart growth, minimize flood loss, provide opportunities for close-to-
home recreation and renewal, and revitalize inner-city communities.
    We strongly support increased funding for two primary USDA Forest 
Service programs--Recreation Management, Heritage, and Wilderness and 
Capital Improvement and Maintenance for trails. The current investment 
in Forest Service lands does not match the role recreation plays in the 
agency, yet the Forest Service itself highlights the growing importance 
of recreation through the continued implementation of its Recreation 
Agenda released in September 2000.
    The Forest Service estimates that recreation creates about 75 
percent of the Gross Domestic Product generated from Forest Service 
land, yet only about 10 percent of the Forest Service budget is for 
recreation. The Forest Service requires increased funding to restore 
and maintain thousands of miles of trails; protect and preserve natural 
and cultural resources; upgrade inadequate, insufficient, and/or poorly 
maintained recreation facilities; reduce the maintenance backlog; 
augment on-the-ground recreation staff; and more effectively utilize 
volunteers. Increased funding is especially crucial to successful and 
timely implementation of the Recreation Agenda, including reducing the 
current $298 recreation maintenance backlog by one-quarter, and placing 
trail and volunteer coordinators and/or recreation planners at each 
national forest and for each nationally designated area or trail. Just 
as the Administration is focused on eliminating the maintenance 
backlogs for the National Park Service and Fish and Wildlife Service, 
we urge Congress to eliminate the Forest Service and Bureau of Land 
Management maintenance backlogs.
    Despite the agency's increased emphasis on recreation, we are 
concerned that this conversation at the top is not translating to the 
ground. Very few national forests have even one full-time trails 
coordinator. Understaffing often results in volunteers performing 
essential functions--such as recreational supervision, resource 
protection, visitor services, and maintenance--instead of agency 
personnel. And despite the number of hiking and other recreation 
organizations that offer to volunteer to build and maintain trails in 
national forests, very few forests have a volunteer coordinator. 
Ironically, volunteer trail crews have been turned away because of the 
agency's inability to provide even minimal supervision or support. In 
2000, more than 90,000 volunteers contributed millions of hours in 
labor to the Forest Service with an estimated value of $35.8 million. 
Clearly, their efforts warrant an expanded commitment to trails and 
recreation funding, notably funding for recreation staff on the ground.
    The Forest Service must receive additional funding to manage 
Wilderness effectively and appropriately. With 33,000 miles of trail in 
FS Wilderness, and an estimated 17.2 million visits in fiscal year 
1999, increased funding is necessary to provide quality recreation 
experiences with minimal impact to the environment. Maintaining the 
integrity of the land and resources is essential for ecosystem 
viability and to keep these places truly wild for future generations.
    Ensuring visitor safety, protecting natural resources, maintaining 
visitor access, and improving the backcountry and recreation experience 
require a greater investment in trails. The Forest Service trail 
maintenance backlog now totals over $118 million. Inadequately 
maintained or poorly constructed trails suffer from excessive erosion 
and trail widening, braiding, and the creation of new ``social'' 
trails. Many trails are so far in disrepair from overuse and long-term 
underfunding that they require re-construction. Increasing the trails 
budget is crucial to enable the agency to begin to address this 
tremendous recreational infrastructure need, including bridge 
replacement, trail relocation, and tread replacement.
    The Forest Service administers four national scenic and historic 
trails and manages significant portions of 11 other national trails. 
Responsible administration requires the full-time attention of an 
inter-regional administrator for each trail and continual collaboration 
with other federal and state agencies and nonprofit partner 
organizations. Land acquisition by dedicated land teams is underway for 
the Florida and Pacific Crest Trails. New sections of the Continental 
Divide, Florida and Pacific Crest Trails must be constructed to fill in 
gaps in these long-distance trails.
    The Bureau of Land Management manages over 4,700 miles of national 
scenic, historic, and recreational trails as well as thousands of miles 
of multiple use trails. The agency requires increased funding to manage 
the rapidly expanding recreational use of BLM lands and protect the 
wealth of natural and cultural resources under its jurisdiction, 
including the special areas now managed under the National Landscape 
Conservation System. Outdoor recreation is an important public use of 
these lands and management of outdoor recreation resources, facilities, 
and visitor use are important components of the BLM's multiple use 
mission, yet the agency remains severely underfunded and understaffed.
    BLM requires additional funding to manage existing recreation 
programs, protect resources, upgrade planning and infrastructure 
development, adapt to increasing visitor demands, and to manage all-
terrain recreational vehicle usage more effectively. Recreation 
facilities are inadequate in many areas, and staff shortages place 
recreational, natural, and cultural resources at risk. Additional 
staffing is especially needed to meet the management demands for each 
of the National Monuments and National Conservation Areas.
    AHS strongly supports Land and Water Conservation Fund (LWCF) 
appropriations for the Appalachian, Continental Divide, Florida, Ice 
Age, and Pacific Crest National Scenic Trails. Only one of the national 
scenic trails--the Appalachian Trail--is nearly complete; we urge you 
to turn your support toward the remaining national scenic trails and 
label them as high priority projects under the LWCF. LWCF monies for 
land purchases must also be accompanied by adequate funding for the 
agencies to effectively manage the acquisitions process and disburse 
the appropriations.
    AHS recognizes that the Recreational Fee Demo Program is an attempt 
to meet the growing needs of recreationists at a time when 
appropriations are not keeping pace with demand, yet recreation fees 
should not be considered a panacea to this funding shortfall. We urge 
the Interior Appropriations Subcommittee to continue to oppose any 
trail and recreation appropriations offsets with Fee Demo revenues. The 
inequities and inconsistencies in the implementation and administration 
of the program, combined with the continual extension of Fee Demo 
through the appropriations process, warrant further evaluation, 
oversight, and congressional hearings.
    On June 1, 2002, American Hiking Society will coordinate the tenth 
National Trails Day to raise public awareness and appreciation for 
trails. Participants will gather at more than 2,000 National Trails Day 
events nationwide. Greater investment in our public lands today is 
essential to protect and maintain our outstanding natural and 
recreational resources, including trails, for future generations of 
hikers. We urge Congress to support these programs and projects that 
represent investments in both people and natural resources, and benefit 
the environment, the economy, public health, and communities. Thank you 
for considering our request. American Hiking Society's members and 
outdoorspeople nationwide appreciate the subcommittee's support in the 
past and look forward to continued strong support.
                                 ______
                                 
      Letters From the International Society of Tropical Foresters
                                                    March 27, 2002.
Hon. Robert Byrd,
Senate Appropriations Subcommittee on Interior and Related Agencies, 
        Washington, DC.
    Dear Senator Byrd: My name is Warren T. Doolittle, the elected 
President of the 1,500 member International Society of Tropical 
Foresters (ISTF). Our society has members in some 120 countries, 
including tropical, developing countries and most developed countries.
    ISTF publishes a quarterly newsletter in both English and Spanish; 
publishes an annual Membership Directory; distributes publications on 
tropical forests; sponsors workshops and symposia; organizes chapters 
of ISTF; and generally serves as a source of information for ISTF 
members.
                 forest service international programs
    The President's fiscal year 2003 budget for the Forest Service 
International Programs (within the State, Private, and International 
Programs Line Item) is $5,000,000. Last year International Programs for 
the Forest Service were funded at a $5,250,000 level. I recommend that 
the $5,250,000 be restored in fiscal year 2003 and if possible be 
increased to $10,000,000.
    There is a great need for solid U.S. leadership and demonstration 
in forestry worldwide. Currently there is an effort by industry, other 
governments, and environmental organizations to provide guidelines and 
assistance for the sustained management of forests--especially in the 
developing countries. Many of the problems faced by the United States 
involve these other countries.
    For example, the United States depends upon sustainable management 
of other countries' forests in order to provide long-term availability 
of their forest products for the United States and also to prevent 
unfair competition to the United States timber industry. Forest fires 
in Indonesia, Mexico, Russia, and elsewhere represent a growing threat 
to forests. The U.S. forests are threatened by invasive plants, 
insects, and diseases from other countries. Over 20 destructive forest 
pests are likely to enter the United States during the next 10 years. 
Migratory birds to the United States from other countries are important 
to forest recreation areas in the United States. Protection of birds 
and other facets of biodiversity in these other countries is important 
to the interests of the U.S. Experts of the Forest Service working in 
cooperation with counterparts in other countries can provide solutions 
to many of the above problems.
    However, United States efforts in international activities have 
been seriously restricted by a low budget ($5,250,000) in fiscal year 
2002, and a lack of personnel to lead our government in helping to 
carry out cooperative programs with other countries and with the United 
Nations. The world's forests provide wood and non-wood products, soil 
and water protection, recreation, biodiversity, and sequestration of 
carbon dioxide. The Forest Service can provide some of the leadership 
and programs needed; but, it means a larger budget for International 
Programs. In summary, I recommend for fiscal year 2003 a restoration of 
the fiscal year 2002 appropriation of $2,250,000, and if possible 
increase the budget to $10,000,000.
    Let me know if I can provide further information on international 
forestry programs.
            Sincerely,
                                       Warren T. Doolittle,
                                                         President.
                                                    March 27, 2002.
Hon. Robert Byrd,
Senate Appropriations Subcommittee on Interior and Related Agencies, 
        Washington, DC.
    Dear Senator Byrd: As a former Associate Deputy Chief for Forest 
Service Research, I would like to point out that the fiscal year 2003 
President's Budget for Forest Service Research & Development (FS R&D) 
is not in America's best interest. It funds new initiatives by 
redirecting $36 million from existing programs, which substantially 
erodes the forestry research capacity of the United States. If enacted 
as proposed, the jobs of 275 people would disappear, 18 research work 
units would be closed and 12 research locations would be abandoned.
    Rather than focusing your efforts on restoring funding to specific 
units, I ask you to adopt a broader perspective and undo the proposal's 
harm in its entirety. Use the fiscal year 2002 appropriation for FS R&D 
as the basis for building the fiscal year 2003 appropriation rather 
than the President's proposal. Make clear that fiscal year 2002 and 
prior year Congressional direction must be continued.
    In past years, FS R&D has gotten $6.2 million from the National 
Forest System (NFS) appropriation for Forest Inventory and Analysis 
(FIA) on national forests. The Administration deleted those funds from 
the NFS appropriation and did not add them to the R&D appropriation, 
where those funds belong. Add $6.2 million to the R&D budget for FIA on 
national forests to restore the program to the fiscal year 2002 level.
    The FIA program is the only program to provide credible and 
consistent information on the health and productivity of forests across 
the United States. Its data are extremely valuable to universities, 
landowners, firms, and interest groups. In addition to the $6.2 million 
mentioned above, I recommend an additional $7.1 million in new funding 
to expand the FIA program. This would allow the agency to continue 
making progress in expanding the coverage to more states.
    There is a significant problem with non-native invasive species in 
the United States. On western forests and rangelands, exotic plants are 
out-competing native vegetation, damaging the health, diversity, and 
productivity of ecosystems. The Department's proposal to expand the 
fight against invasive species lacks a strong research component. I 
recommend adding $4 million to the fiscal year 2003 budget to provide a 
sound scientific basis for combating invasive species.
    The fixed costs of doing research continue to escalate. Add $7.1 
million for fixed costs so the agency can continue work in fiscal year 
2003 at the same scale as this year.
    I believe the restoration of research funds to the fiscal year 2002 
appropriation level and the increased funding for Forest Inventory and 
Analysis and non-native invasive species are badly needed.
    The Research Institute programs described below are a part of the 
overall Research budget covered above, but as President of the 
International Society of Tropical Foresters, I would like to add a 
little special detail on these two institutes.
      international institute of tropical forestry in puerto rico
    The International Institute of Tropical Forestry (IITF) has a 
mission of generating and disseminating scientific information in 
support of sustainable use of tropical forests, the conservation of 
primary forests, the rehabilitation of degraded lands, and the 
management of wildlife and watersheds. Research on these programs is 
conducted in Puerto Rico, the Caribbean, and Latin America.
    The President's fiscal year 2003 budget has a decrease of $300,000 
over the fiscal year 2002 appropriation for the IITF. This is a drastic 
reduction and will eliminate collaborative research on carbon 
sequestration and carbon cycle research with the U.S. National 
Aeronautics and Space Administration in Brazil. It will also reduce 
efforts on remote sensing on carbon dynamics and research on water 
quality and in stream flow.
    I would like to be sure that restoration to overall Forest Service 
Research programs includes restoration of the $300,000 at IITF.
            institute of pacific islands forestry in hawaii
    The Institute of Pacific Islands Forestry (IPIF) in Hawaii has 
three multi-disciplinary science teams dealing with ecosystem 
restoration, forested wetlands, and invasive species. This work is 
conducted in Hawaii and on several Pacific islands.
    The President's fiscal year 2003 budget has a decrease of $168,000 
over the fiscal year 2002 appropriation for IPIF. This would terminate 
research on biological control for Hawaii's invasive weeds, close the 
insect quarantine facility in Hawaii Volcanoes National Park, and 
affect increased fixed costs.
    I believe the President's fiscal year 2003 budget includes 
$1,000,000 for the construction of a new headquarters building for IITF 
in Hilo, Hawaii.
    I would like to be sure that the restoration to overall Forest 
Service Research programs include restoration of the $168,000 at IPIF 
as well as the $1,000,000 construction funds at Hilo.
            Sincerely,
                                       Warren T. Doolittle,
                                                         President.
                                 ______
                                 
                          DEPARTMENT OF ENERGY
              Prepared Statement of Technology Acumentrics
     nature of request before interior appropriations subcommittee
    Acumentrics is seeking an increase (to $52M) for the line item: 
Innovative Systems and Concepts/Solid State Energy Conversion Alliance 
(SECA) in the Fossil Energy R&D budget. OMB has proposed a reduction in 
this line item to $22.5M. This is counter to the National Energy 
Policy, which supports increased application of fuel cells.
                             what is seca?
    The Solid State Energy Conversion Alliance (SECA) comprises 
government agencies, commercial developers, universities, and national 
laboratories committed to the development of low-cost, high power 
density, solid state fuel cells for a broad range of applications. 
Industrial teams, research and development performers, and funding 
organizations are part of the alliance. SECA is being formed to 
accelerate the development of the industrial base needed to 
commercially produce low-cost solid state fuel cells in the near 
future. Two U.S. Department of Energy (DOE) national laboratories, the 
National Energy Technology Laboratory (NETL) and Pacific Northwest 
National Laboratory (PNNL), are the driving forces behind SECA, 
providing the leadership, focus, and integration needed to bring solid 
state fuels cell technology into near-term markets.
                    rationale for increased funding
    The need for increased funding for SECA in 2003 was recognized in 
the Conference Report H.R. 107-234, which is excerpted below:
    Page 118:

    ``9. The increase above the budget request for solid-state energy 
conversion alliance under distributed generation/innovative concepts is 
to be added to the base funding for planar solid oxide fuel cell 
programs and is to be used to continue existing projects, consistent 
with program plans developed in cooperation with industry partners. The 
managers understand that base funding for this program will need to be 
increased substantially in fiscal year 2003 to keep this program on 
schedule to meet critical program goals.'' \1\
---------------------------------------------------------------------------
    \1\ Appropriations for the Department of the Interior and Related 
Agencies, Fiscal Year 2002 Conference Report, H.R. 107-234.

    An increase in SECA funding is necessary for the following reasons:
  --To support the National Energy Policy which calls for an 
        accelerating the development and commercialization of fuel 
        cells. Quoting from the Report of the National Energy Policy 
        Development Group: ``Despite technical progress, high costs 
        remain the main deterrent to widespread fuel cell use. 
        Significant cost reductions must be achieved before fuel cells 
        will be competitive.'' It is the goal of the SECA program to 
        reduce costs of fuel cells and thus remove the barrier to their 
        widespread use.
  --In order to achieve the aggressive program goal of $400/kW for 
        solid oxide fuel cells, multiple approaches must be taken by 
        Industry Teams to insure success. SECA has not had the funding 
        to fully implement this multiple team approach.
  --Multiple teams required to insure a robust fuel cell industry is 
        developed in the United States as no one player will be able to 
        supply the worldwide demand for fuel cells.
  --The United States needs to remain economically competitive with 
        Japan and the European Union, both of which are committed to 
        the commercialization of fuel cells. Under the Fifth Framework 
        Programme (FP5), the E.U. is spending $30M euros on fuel cell 
        commercialization, additionally E.U. member states are 
        committing money for this purpose.\2\ Japan hopes to generate 
        about 2.2 million kilowatts of power by 2010 and has increased 
        its fuel cell research budget this year to $76.9 million in an 
        effort to reduce dependence upon nuclear power.\3\
---------------------------------------------------------------------------
    \2\ ``Prospects for Fuel Cells in Europe'', Grilles Lequeux, 
Scientific Officer General Research Division European Commission.
    \3\ ``Cell Power'', Stephen H. Daniels TheSourceMag.Com Building 
Industry News and Views.
---------------------------------------------------------------------------
  --According to a report from the Northeast-Midwest Institute: \4\ 
        ``technological innovation in the production of electricity is 
        one of the most effective means to keep costs low and 
        productivity high in the long run.'' Furthermore according to 
        the report electric industry restructuring alone is not 
        sufficient to achieve innovation. The SECA program will 
        facilitate technological innovation in the production of 
        electricity through the development of highly efficient and 
        clean fuel cell electrical generation technology.
---------------------------------------------------------------------------
    \4\ ``Electricity Restructuring, Innovation, and Efficiency,'' 
Julie Fox Gorte, Tina M. Kaarsberg, The Northeast-Midwest Institute and 
John A. ``Skip'' Laitner, U.S. Environmental Protection Agency.
---------------------------------------------------------------------------
                       description of fuel cells
    Fuel cells are electrochemical devices that direct-convert fuel 
into electricity without combustion or moving parts. They are 
environmentally friendly, particularly when run directly on hydrogen 
where the output is only electricity, water vapor and heat. The 
prevalent types of fuel cells are proton exchange membrane (PEM), 
phosphoric acid (PAFC), molten carbonate fuel cell (MCFC), and solid 
oxide fuel cell (SOFC).
    The goal of the SECA program is to facilitate the commercial 
development of solid oxide fuel cell technology. Solid oxide fuel cells 
are seen as the ``end game'' in fuel cell technology and are under 
development by notable companies such as Acumentrics, Honeywell, 
McDermott, Siemens-Westinghouse, Sulzer-Hexis (Switzerland), Global 
Thermoelectric (Canada), and Ceramic Fuel Cells (Australia). SOFC's 
share the following desirable characteristics:
  --Solid state--all components are ceramics and metals, no corrosive 
        liquid electrolyte;
  --High temperature, useful heat for cogeneration applications such as 
        hot water heating, turbines and chillers;
  --Internal or integral reforming, using hydrocarbon fuels directly, 
        delivers the benefits of a hydrogen economy without the need 
        for building a hydrogen infrastructure; and
  --Based on inexpensive ceramic materials.
                    national benefits of fuel cells
  --Enhances National Security by providing a distributed electrical 
        generation technology which is inherently more robust than a 
        centralized generation/transmission infrastructure;
  --Reduces greenhouse gas emissions through efficiency gains and 
        potential renewable resource use;
  --Responds to increasing energy demands and pollutant emission 
        concerns while providing low-cost, reliable energy essential to 
        maintaining competitiveness in the world market;
  --Positions the United States to export distributed generation in a 
        rapidly growing world energy market, the largest portion of 
        which is devoid of a transmission and distribution grid;
  --Establishes a new industry worth billions of dollars in sales and 
        hundreds of thousands of jobs; and
  --Enhances productivity through improved reliability and quality of 
        power delivered, valued at billions of dollars per year.
              why a new solid state fuel cell technology?
    Solid state fuel cell technology as the basic building block for 
multiple applications offers several advantages. It offers inherently 
high efficiency 60 to 70 percent in individual systems and up to 80 
percent in staged or hybrid systems. It can handle available liquid 
fuels, such as gasoline and diesel. High-temperature solid state fuel 
cells couple easily with the high-temperature reformation of liquid 
fuels. Solid state fuel cells have simple and efficient heat removal 
designs when operated at high power densities, an important advantage 
for compact systems. Planar solid state fuel cells can produce the very 
high power densities needed to meet tough size/weight requirements 
needed for stationary, transportation, and military markets. Finally, 
solid state components can be fabricated with advanced manufacturing 
technology much like computer chips.
                                why now?
    The stage for low-cost solid state fuel cell technology has been 
set. Recent breakthroughs in ceramic materials, fuel cell design, and 
manufacturing technology are converging. These include advances in 
thin-film capabilities with solid state fuel cell materials; high power 
density enabling innovations, such as anode supported cells; compact 
fuel processing technology; improvements in power electronics at the 
device level; and integration of manufacturing technology from related 
industries, such as the semiconductor industry.
    Market forces are also playing an important role. Deregulation is 
favoring distributed generation technologies, such as fuel cells. In 
addition, the Department of Defense (DOD) recently committed to using 
electric drive for future ship propulsion systems, and it continues to 
embrace dual use technology development. Moreover, the utility and 
transportation industries, which are concerned with global impacts of 
carbon emissions, are exploring advanced technology solutions that will 
permit the continued use of fossil fuels for the foreseeable future.
                              applications
Stationary
  --Existing fuel cell technologies are likely to plateau at a capital 
        cost of $1,000 to $1,500/kW. Reduction below this plateau 
        requires breakthrough developments for existing technologies.
  --High-volume fuel cell applications will require a cost at or below 
        $400/kW.
  --Competing technologies have lower system efficiencies and 
        environmental issues, such as NO<INF>X</INF> production.
Transportation
  --Solid oxide technology offers potentially low system costs when 
        operating on available fuels.
  --Solid oxide fuel cell systems are readily adaptable to standard 
        transportation fuels.
  --Efficiencies of solid oxide fuel cell systems are very high. When 
        closely coupled with high temperature on-board reforming, 
        overall ``wellhead-to-wheels'' efficiency can be high.
  --No other technologies offer both high efficiency and low emissions.
Military
  --Fuel logistics are critical to military applications. Seventy 
        percent of military logistical deployment is the transportation 
        of fuel; increased fuel efficiency will have a dramatic impact.
  --There is a strong need for reliable high-efficiency, quiet power 
        sources compatible with defense logistic fuels.
  --Future ship propulsion systems will use electric drives and 
        distributed power sources.
                                 ______
                                 
         Prepared Statement of Bob Lawrence & Associates, Inc.
    My name is Dr. L. R. Lawrence, Jr. and I am President of Bob 
Lawrence & Associates, Inc., a consulting firm located in Alexandria, 
Virginia. Testifying with me today is Ms. Patrice Courtney, a Senior 
Associate with my firm. We are requesting full funding for the 
Department of Energy's Building Technology Programs. Specifically, we 
request fiscal year 2003 funding of $408.8M for these programs within 
which Weatherization and State Grants would receive no more than 
$277.1M. I and my firm have been involved in issues of Energy 
Efficiency and Renewable Energy since 1975, when this Subcom-mittee 
played an active and major role in helping to solve our country's 
first, major energy crisis. Ms. Courtney is responsible for 
communications regarding energy efficiency issues in both national and 
statewide forums, with a particular focus on New York State.
    Although the major oil use in this country is in transportation, 
buildings account for one-third of all energy used here, once you 
factor in the significant percentage used to generate electricity to 
heat, cool, light, and control buildings and their occupants. In 
addition, most oil use in buildings occurs in those parts of the 
country where the percentage of imported oil use is the highest. 
Therefore, efficiency increases in buildings and their associated 
technologies offset directly the import of foreign oil.
    Our purpose today, Mr. Chairman, is to support the Department of 
Energy's Building Technology, State and Community Programs, which have 
been uniquely successful. The GAO has documented $30 billion in savings 
from just five BTS technologies: building design software, electronic 
fluorescent lamp ballasts, low emissivity windows, advanced oil 
burners, and efficient refrigerator compressors. At the same time, 
these technologies have prevented the emission of millions of metric 
tons of atmospheric pollutants. Along with BTS's programmatic successes 
such as Weatherization, EnergyStar<Register> and Rebuild America, 
technologies like these have become a critical piece in securing our 
nation's energy independence, a goal that has become even more 
meaningful in the wake of the tragic events of September 11.
    The U.S. economy is significantly threatened by still-high oil 
prices. Energy efficiency has become an economic priority--because it 
is key to reducing our vulnerability to high oil prices controlled by 
unpredictable foreign hands. These developments have important 
implications for energy efficiency in building technology.
    Commercial buildings, homes, factories, and schools continue to be 
improved by technology developed under BTS programs. From fiscal year 
1980 through fiscal year 1999, energy cost savings of an estimated 
$90.64 billion were realized from greater energy efficiency in 
buildings. The list of innovations is long: more energy-efficient 
windows, insulation, heating and air conditioning systems and home 
appliances; better lighting; advanced oil burners; EnergyPlus design 
software for architects; and fuel cells, triple-effect chillers and 
other equipment for advanced, ``green'' buildings.
    Here are some examples of BTS programs and how they are saving 
energy and dollars:
    Building Research and Development.--We have made great strides as a 
nation in the way we construct and operate our buildings. We have 
documented energy savings of 30-50 percent at little or no cost 
increase. But there's much more work to be done. Next generation 
lighting, windows, envelope, heating and cooling equipment and 
sophisticated controls can revolutionize the way we design and maintain 
our buildings. Proper design and advanced energy saving products can 
result in net zero energy buildings, homes and offices that use so 
little energy, and generate their own, so that they can give back to 
the electric grid. Sophisticated controls and indoor environmental 
quality can reduce the vulnerability of our buildings, a critical 
factor in the post-9/11 world. We can and must reduce our dependence on 
foreign oil: to heat our homes annually requires an amount of energy 
equivalent to all the oil we import from Saudi Arabia. With further 
research, we will discover many methods to increase comfort and 
productivity. But the BTS budget was cut by $10 million in the R&D 
line. By adding $10 million to the Equipment, Materials and Tools line 
item of the Building Research & Development portion of the BTS budget, 
we can assure progress in achieving the ambitious goals of making our 
buildings much more energy efficient.
    State and Community Programs.--The State Energy Program is a strong 
foundation for success in reducing energy use in buildings. SEP was 
appropriated at $45 million in fiscal year 2002 but DOE is asking for 
$38 million. BTS needs restoration of that $6.2 million and an 
additional $3M for the Community Energy Programs. So much of the work 
really goes on at the community level.
    Rebuild America has been a great part of the SEP's success as it 
delivers technical support that states and localities require. In 
addition, BTS must increase its capability to apply technologies that 
have come out of the BTS R&D programs. For example, Building America 
has demonstrated 50 percent energy savings with major homebuilders like 
Pulte and Beazer and Ryan Homes. In order to expand that information 
nationwide and give it credibility in each community, BTS needs to 
utilize the Rebuild America network. Additional funding of $3 million 
would let BTS reach more homebuilders, community leaders and lenders 
and provide for builder and building code training.
    Rebuild America is a leading example of BTS's ability to build 
partnerships with local government and the private sector. Three years 
ahead of schedule, BTS had more than 300 public-private community 
partnerships at work around the country. Rebuild is saving $170 million 
every year by improving the energy efficiency and operations of 
schools, municipal buildings, businesses, multifamily residences, and 
other buildings. Rebuild partners have already completed or planned 
retrofits of more than half a billion square-feet of space. And they 
are saving more than 10 trillion Btus of energy every year, enough 
energy to power 250,000 homes.
    Schools are a big part of Rebuild America's focus. A nationwide 
survey conducted by the U.S. General Accounting Office estimated a 
conservative $112 billion to complete needed repairs, renovations, and 
modernizations for the nation's public schools. According to the DOE, 
the nation spends $6 billion each year on energy costs for schools--
about 25 percent more than necessary.
    A number of rapidly growing school districts are using 
``EnergySmart'' school designs. Clark County, Nevada, for example, is 
building upwards of 100 new schools at a cost of $4 billion over the 
next several years. That school district and others are working with 
BTS to incorporate the just-released high performance school design 
guidelines, which have been developed with varying recommendations 
based on climate, geography and energy mix.
    The joint DOE-EPA EnergyStar<Register> designation has become a 
popular one with consumers. That's because the typical U.S. household 
spends about $1,300 on its home energy bill. EnergyStar<Register> 
appliances and heating and cooling equipment can reduce that bill by up 
to 40 percent. Today more than 4,000 stores nationwide market 
appliances labeled as EnergyStar<Register>, including retailers such as 
Best Buy, Circuit City, Montgomery Wards, Sears, Tops, Appliance City 
and others. There now is a voluntary partnership with the fenestration 
industry to promote the sales of energy efficient windows, doors, and 
skylights bearing the EnergyStar<Register> label; and a new generation 
of Compact Fluorescent Light Bulbs (CFLs) have been introduced, which 
meet the stringent criteria of EnergyStar<Register>.
    High Performance Buildings are a BTS area where research has given 
way to action and the result is savings. BTS is a leader in technology 
transfer to professionals in building technologies. For example, on its 
Web site is a powerful software tool that can be downloaded for free. 
EnergyPlus, formerly known as DOE-2, is a new generation building 
energy simulation program designed for modeling buildings with 
associated heating, cooling, lighting, ventilating, and other energy 
flows. DOE's Energy Efficiency and Renewable Energy Clearinghouse has 
received upwards of 80 calls a day from architects requesting Energy 
Design Guidelines for High Performance Schools: Hot and Dry Climates, 
after the American Institute of Architects' electronic newsletter 
publicized the guidelines' availability. Hot and Dry Climates is the 
first volume in a series of guidelines to help the nation's K-12 
schools save millions of dollars on their annual energy costs, which 
now top $6 billion a year. The guidelines are available at 
www.energysmartschools.gov, or on a free CD-ROM by calling the 
Clearinghouse at 800-DOE-3732. BTS will release six more sets of 
guidelines geared to specific U.S. climate zones this year.
    A newer area at BTS is the Emerging Technology program, whose 
purpose is to increase demand for, and to bring new highly efficient 
technologies to market for buyers, while assisting manufacturers, 
ESCOs, and utilities. The goal is to pull these emerging technologies, 
as they appear in new, highly efficient and affordable products, into 
the marketplace through competitive procurements that are backed by 
large volume buyers.
    During the 1980s, funding was drastically cut for energy-efficiency 
R&D. When the programs were revisited in the early 1990s, lost ground 
had to be regained. Research successes are now turning into 
commercially viable products. It is crucially important to cost share 
the field testing phase and to push new products through the R&D 
pipeline to market acceptance, particularly in the fragmented building 
industry.
    Mr. Chairman, the required annual investment in Energy Efficiency 
and Renewable Energy is less than one percent of what we invest in 
defense, but its purpose is no less important. It is an investment in 
our economy, our standard of living, and our very way of life.
                          what's the payback?
    Five years ago, GAO documented $30 billion in just five BTS 
technologies. The National Academy of Sciences issued a report last 
year, ``DOE funding, was it worth it?'' That NAS report reaffirmed the 
savings in building technologies developed by BTS has been $30 billion 
annually. With a track record like that and savings potential of 
literally tens of billions of dollars, adding $20 million to the non-
grants part of BTS is a cheap price that will pay off handsomely in 
reduced energy use, increased health and productivity and a better 
environment.
    We thank you for your attention to this testimony.
                                 ______
                                 
              Prepared Statement of FuelCell Energy, Inc.
    This testimony requests the following funds for FuelCell Energy, 
Inc. (FCE) programs with the DOE's Fossil Energy fiscal year 2003 
budget.
  --$13.5 million (an additional $3.6 million over the $9.9 million DOE 
        request) for the Direct Fuel Cell Program under Distributed 
        Generation/Fuel Cell Systems budget,
  --$3.0 million for Vision 21 Fuel Cell/Turbine High Efficiency Power 
        Plant Development under Central Systems/Advanced Systems/
        Turbines budget,
  --$1.0 million for Recovery and Utilization of Coal Mine Methane 
        (subcategory not indicted in DOE budget),
    In addition, FuelCell Energy also strongly supports at least 
doubling the $22.5 million budget request for the SECA program under 
Distributed Generation/Innovative Systems Concepts budget.
    This statement is provided in support of the U.S. Department of 
Energy's (DOE) Fossil Energy Fuel Cell Program.
                                summary
    The DOE/FuelCell Energy (FCE) Cooperative Agreement (DE-FC21-
95MC3118) defines that $13.5 million is needed in fiscal year 2003. 
This Product Design Improvement (PDI) cooperative program has been 
cost-shared by FCE at the 37 percent rate to date. DOE funding for 2003 
is directed at further performance enhancements derived from feedback 
from a broad-based field test program being conducted throughout the 
United States. FCE has also increased its production capacity to 50 MW/
year in 2001 with further increases contemplated for 2002.
    Under a Vision 21 Program, FCE has been developing ultra high 
efficiency Direct FuelCell/Turbine system. A 250 kW fuel cell has 
already been integrated with a Capstone microturbine. Packaging and 
engineering of a submegawatt-class system is being initiated in 2002, 
with participation from Montana State University and CTA Architect 
Engineers. The requested funds will be used to conduct a submegawatt 
demonstration in 2003.
    Coal Mine Methane is a potentially valuable fuel source if 
harvested and used in fuel cells to generate electricity. Unharvested, 
it leaks into the atmosphere with negative impact on the ozone layer 
with twenty times more impact than an equivalent amount of carbon 
dioxide. The requested funds will complete the coal mine fuel cell 
demonstration program initiated 2 years ago.
    SECA is a recent DOE initiative to develop high efficiency low-cost 
modular SOFC power plants with $400/kW cost target. The latest 
developments in the thin film technology have made this high power 
density solid oxide fuel cell (SOFC) power plants feasible. These power 
plants promise dramatic cost reduction by mass production using a 
common module approach for multiple applications such as stationary 
power, automotive and military applications. The requested funds will 
allow awarding additional industrial team(s) to provide unique market 
and product design approaches, and to assume successful development of 
the potentially versatile, low-cost product.
    FCE expresses its appreciation of the Subcommittee for its support 
of the stationary fuel cell programs and the U.S. developers during the 
2002 appropriations process. Federal support for the program makes the 
impressive accomplishments and worldwide implications of the DOE 
program possible.
                               background
    Fossil fuels provide approximately 75 percent of the U.S. 
electricity. Coal, oil and gas fueled stationary power plants of 
various sizes connected by a well-developed infrastructure provides 
this needed energy in the form of electricity. While this system works 
well, it uses far more fuel than necessary. Generally, U.S. power plant 
efficiencies vary from 25 percent to 50 percent with a national average 
of about 35 percent. Widespread use of high efficiency stationary fuel 
cell power plants using the existing fuel infrastructure for 
electricity production or in combination with electricity plus heat 
cogeneration could dramatically reduce the fossil fuel required. This 
improvement in fuel usage would have a major impact on reducing carbon 
dioxide, SO<INF>X</INF> and NO<INF>X</INF> production. The latter would 
have broad benefits, political, economic, and defense worldwide.
    FuelCell Energy, Inc. is a world leader in the development and 
manufacturing of the highest efficiency fuel cells. By using fossil 
fuels directly, we have reduced the complexity of fuel cell power 
plants and greatly raised their efficiencies.
    A simple cycle fuel cell power plant can achieve 47-55 percent 
efficiency, while a combined cycle fuel cell/turbine power plant is 
projected by both the company and DOE to achieve 70 percent plus 
efficiencies. Recently, our partner in Germany, DaimlerChrysler's MTU 
subsidiary, has reported operating a 95 percent efficient cogeneration 
Direct Fuel Cell power plant at a hospital complex.
    FuelCell Energy currently has Direct Fuel Cell field trials in 
progress or under contract in California, Alabama, Connecticut, Ohio, 
Washington, and Kentucky. The Company has operated the largest fuel 
cell demonstration project in the United States in 1996-1997--2,000 kW 
and achieved a record 44 percent efficiency for a power plant of that 
size.
                     nationwide interest is growing
    States, recognizing the above results and other achievements, have 
initiated their own fuel cell programs to reduce pollution and increase 
fuel efficiency. Some of the leaders are CA, CT, MA, NY, NJ, and PA 
with others in the study process.
    Forward looking electric utilities such as Los Angeles Department 
of Water and Power, Alabama Municipal Electric Authority, PPL, and 
Southern Company are directly involved with us in these field trials. 
Additionally, our partners in Japan and Europe are continuing their 
initiatives and receiving orders for field trial power plants.
    FuelCell Energy and DOE have been working together on a Cooperative 
Agreement since the early 1990's. The results so far from this 
agreement have been very good leading to the aforementioned 
demonstration in California of the largest, cleanest and most efficient 
fuel cell power plant operated in North America. Under a separate 
project as a spin-off of the cooperative agreement, the first hybrid 
fuel cell/turbine power plant was successfully demonstrated on a small 
scale.
    Over the past 10 years related programs to the Cooperative 
Agreement have resulted in demonstrations of Direct Fuel Cell operating 
on coal gas, natural gas and liquid fossil fuels. The latter has 
resulted in our ongoing project with the U.S. Navy for ship power 
applications. In the world, only Fuel Cell Energy has demonstrated the 
capability of operation on such a diverse mixture of fossil fuels.
    We would like the Congress to encourage all of the States to 
initiate programs that use stationary fuel cells that save energy and 
reduce pollution.
                  importance of distributed generation
    Distributed Generation has always been an attractive concept from a 
reliability and security vantage point. Until now, it was difficult to 
institute because of low efficiencies and air and noise pollution of 
existing equipment. FCE's Direct Fuel Cell eliminates these latter 
issues since it delivers high fuel efficiencies, is quiet, and 
virtually non-polluting. By locating these stationary fuel cell power 
plants near the customer, the need for transmission and distribution 
lines are minimized. This enhances both reliability and security since 
many smaller power plants distributed at the user sites are less 
vulnerable to events, which can occur over long transmission lines. 
Moreover, the aforementioned combined with heat and power efficiency 
gains are a valuable additional benefit.
    Further, we believe the Congress should pass legislation that 
offers tax credits for users of fuel cells. Those credits should be 
tied to the actual improved operating efficiency of the installed power 
plants. For example, credits should be extended to fuel cell power 
plants producing electricity above an efficiency of 40 percent and 
electricity plus heat at a combined efficiency above 70 percent. The 
power plants should operate at least 4,000 hours per year to receive 
the credit. In Germany, the government has announced a 10-year, $8 
billion program providing a subsidy of 5 eurocents per kW-hour, which 
is equivalent to about a $3,000 per kW for fuel cell power plant 
installations. In England, a $100/ton carbon credit has been recently 
initiated. Rewarding the good guys for reducing both pollution and fuel 
consumption is a worthy national priority to stimulate use of equipment 
in which the U.S. has worldwide leadership. Moreover, a tax credit 
based on both performance and usage is a win/win for everyone.
    Bipartisan support has propelled the stationary fuel cell program 
through the many years of study, experimentation and testing. Today, at 
the threshold of market entry, support is needed to continue the fuel 
cell development at the aggressive pace. FCE sincerely appreciates the 
work of the Subcommittee and the Department of Energy on behalf of the 
stationary fuel cell program. We request that the funds requested in 
the first paragraph be provided within the Fossil Energy budget.
                                 ______
                                 
          Prepared Statement of General Electric Power Systems
    This statement is submitted by General Electric Power Systems (GE) 
for the information of the Committee during its review of the 
Department of Energy's fiscal year 2003 budget requests for Fossil 
Energy and Renewable Energy and Energy Efficiency programs. The 
testimony addresses several high priority Department of Energy 
programs: High Efficiency Engines and Turbines, Integrated Gasification 
Combined Cycle, the Clean Coal Power Initiative and Distributed Energy 
Resources.
    The support for technology advancement provided through DOE's 
Fossil Energy and Energy Efficiency and Renewable Energy programs is 
critical to the development of advanced power generation technologies 
that utilize a diverse mix of domestic energy resources. DOE's Energy 
Information Administration predicts that demand for electricity will 
grow at a rate of 1.8 percent per year until 2020. DOE's cooperative 
efforts with industry will help to assure that this demand can be met 
with environmentally superior technologies that enable us to harness 
our domestic fossil fuel resources.
    Continued advancements in turbine technology are a key to realizing 
the potential for cleaner, more efficient fossil fuel power generation. 
There still remain formidable challenges in several technology areas, 
including materials, processing, sensor software diagnostics/
prognostics, controls and combustion. By improving the U.S. technology 
base, government-private sector programs to address these challenges 
also enhance the international competitiveness of U.S. industry. 
Several DOE programs will make important contributions in this area, 
and deserve the Committee's support.
          high efficiency engines and turbines (heet) program
    The HEET program is directed at producing the technology base 
needed to enable the development of advanced turbines and engine 
modules for 21st century energy plants. It represents the Department 
and industry's continued commitment to cleaner, more efficient power 
generation from fossil fuels. The HEET program is designed to develop 
the ``game changing'' technology for new systems that will foster U.S. 
competitiveness, offer improved environmental performance and preserve 
the options for using our fossil fuel resources.
    GE Power Systems has worked cooperatively with the Department of 
Energy in the development of innovative power generation technologies, 
and fully supports the HEET program. GE has been an active participant 
in the DOE stakeholder meetings, workshops and surveys to define the 
research and development needs for the HEET program and to develop the 
roadmap to fulfill these needs.
    Fuel diversity is a leading objective of national energy policy. 
However, fuel diversity is not rewarded in day-to-day investment 
decisions on commercial projects. Fuel diversity is at the foundation 
of the HEET program, and continued advancements in turbine technologies 
are essential to realizing this goal, as many advanced, coal-fired 
power generation systems will incorporate turbine technologies. There 
is a high degree of risk inherent in the aggressive efficiency, cost 
and reliability objectives for next generation turbine technologies. 
The collaborative opportunities available through the HEET program 
provide an important means to assure continued technological advances 
that the private sector alone may be unable to support due to competing 
demands.
    Achieving the goals of HEET is, therefore, vital to providing a 
solid private investment framework for solid fuels such as coal, 
biomass and opportunity fuels. The HEET program has a central role to 
play in developing a robust and diverse portfolio of energy supply and 
its corollary, energy security. Gas turbine technology can provide a 
powerful means to use our abundant coal resources to best advantage. 
Without an adequately funded program focused on advanced turbines, 
there is a substantial national risk of not fully utilizing our solid 
fossil fuel resources.
    The HEET program in fiscal year 2003 will emphasize both the 
adaptation of turbine systems for use in coal-based systems and the 
integration of turbines and fuel cells into hybrid systems. In the near 
term, the new technologies supported through the HEET program will 
provide conservation of natural gas. These advancements will also 
benefit coal fueled, Integrated Gasification Combined Cycle (IGCC) 
which has already been demonstrated to provide high efficiency with low 
emissions. The support for IGCC technology through HEET can provide the 
United States with the catalyst for the environmentally compatible 
growth of coal-and-biomass-based power.
    A very important element of the program will be its focus on 
reliability, availability and maintainability (RAM) technologies, 
including advanced sensors, diagnostics, and condition monitoring 
technology. Research and development focused on RAM is critical to 
improving powerplant operability. Industry is diligently pursuing RAM 
improvements. Partnering with the government will accelerate the pace 
of this work and speed the introduction and widespread deployment of 
new technology in the field. This in turn will have tremendous economic 
benefit by increasing the operational flexibility of gas turbines to 
provide more power to the electrical grid during periods of peak 
demand, reducing the costs associated with unplanned turbine outages, 
making the scheduling of maintenance more efficient, and optimizing 
turbine performance to reduce emissions. This is particularly so with 
new, highly efficient turbines, which are also far more complex to 
operate and maintain. Advances in RAM technology can be moved into the 
marketplace quickly and applied to the installed base, including 
current coal based systems, thus enabling the nation to rapidly 
recognize the benefits of investment in this area.
    Fuel cell hybrids are another important area of concentration 
within the HEET program. A Solid Oxide Fuel Cell (SOFC)--Gas Turbine 
hybrid is a high risk, high payoff potential product that can offer 
tremendous flexibility and can move us toward achieving the performance 
goals of Vision 21. The SOFC/gas turbine hybrid represents a power 
generation technology with potential simple cycle generation efficiency 
above 50 percent and in excess of 65 percent to 70 percent when 
combined with gas turbine-based bottoming cycles. Current state of the 
art technology is burdened by high production cost, low power density, 
rapid performance degradation and inadequate hybridization platforms. 
Technology demonstrated through DOE supported projects will be critical 
to defining requirements for these longer term, larger-size hybrid 
products using multi-megawatt gas and/or steam turbines for baseload 
applications.
    The $14 million requested for the HEET program represents a 
reduction of $4.5 million from the fiscal year 2002 funding level. This 
reduction will not allow adequate funding for all of the technology 
development work that is necessary within this important program. GE 
recommends that funding for the HEET program be increased.
                 integrated gasification combined cycle
    GE shares the commitment to Integrated Gasification Combined Cycle 
(IGCC) technology evidenced in the Administration's budget request. 
IGCC is a leading option for achieving a robust, environmentally 
superior and secure national power system utilizing abundant and 
indigenous fuel sources. It has flexibility to deal with a wide variety 
of feedstocks--including coal, petroleum coke and biomass.
    IGCC is the cleanest and most efficient technology for power 
generation from coal. If IGCC is adopted as the preferred coal based 
power generation technology, it will help the country and power 
producers meet the environmental goals of reducing NOx, mercury, and 
other air pollutants, while also advancing sound energy policy goals of 
retaining a secure and diverse mix of fuels for electric power 
generation and improving the efficiency of coal based power generation. 
The synthetic gas produced from feedstock gasification in an IGCC 
system permits the economical removal of carbon to provide a hydrogen-
rich feedstock for either low-CO<INF>2</INF> combustion in a turbine, 
direct export or chemical production. IGCC offers the opportunity for 
the first commercially relevant steps to a hydrogen economy based on 
our most abundant domestic energy resource--coal.
    GE recommends that Congress and DOE support research that will 
provide the continued development of IGCC as an environmentally 
superior technology for all solid fuels. GE recommends support for 
research that is focused on materials for extending gasifier refractory 
life and in syngas treatment and combustion systems for air blown 
gasification. Gasifier refractory failures and scheduled replacements 
are a key contributor to unavailability of IGCC. Air blown gasification 
is well suited to biomass and renewables, but faces challenges in the 
disposition of high levels of ammonia in the syngas which is converted 
to NOx in combustion. Research and development work also is needed for 
fuel control systems and combustors to deal with the high temperature 
(greater than 750 degrees Fahrenheit) syngas typical of air blown 
gasification. Both air blown and oxygen blown gasification IGCC systems 
will benefit from advances in NOx and mercury removal strategies. These 
include development of removal techniques allowing lower levels of 
emission as well as process cost reduction and simplification. All of 
these efforts will contribute to the increased use of the U.S. coal, 
petroleum coke and biomass reserves for clean and low cost electric 
power generation, in keeping with the overall goals expressed by the 
Department for the ``Vision 21'' emissions-free powerplant of the 
future.
                      clean coal power initiative
    GE supports DOE's Clean Coal Power Initiative (CCPI) as an 
effective vehicle to move state-of-the-art improvements in IGCC 
environmental performance, reliability and efficiency forward to 
commercial scale demonstration. The structure of the program as a joint 
government-industry funded program will enable the CCPI to benefit from 
GE's own investments in combustion development for fuel-flexible, low 
NOx power generation systems. The CCPI is the right way to build on the 
experience of Rounds III and IV of the Clean Coal Technology Program 
and the Public Service of Indiana (now Cinergy) Wabash IGCC repowering 
and the Tampa Electric Company Polk IGCC demonstration. These two 
plants, utilizing GE gas turbines, have successfully logged over 50,000 
hours operating on coal synthesis gas.
    Achieving the maximum benefits of the CCPI needs the engagement of 
EPA and the regulatory community to identify and remove regulatory 
barriers and uncertainty in the ultimate commercial deployment of the 
technologies to be supported through the program.
                      distributed energy resources
    GE supports funding for distributed generation (DG) technology 
advances, contained in both the fossil energy and energy efficiency 
budget requests. The specific areas of focus for combustion-based DG 
should be reduction in emissions, increased efficiency, fuel 
flexibility and reduction in equipment cost. Combustion-based DG would 
include microturbines ranging from 30 to 500 kW and reciprocating 
engines ranging from 300 to 3,000 kW.
    The Department's budget request for distributed generation programs 
in the fossil energy budget account includes funding for the continued 
development of Solid Oxide Fuel Cell technology. GE strongly supports 
this activity leading to development of a commercial prototype of a 
solid oxide fuel cell/turbine hybrid power systems in the multi-
megawatt size range. The Department's planned focus on this technology 
highlights once again the need for adequate investment in improving 
turbine technology, which will be a key contributor to the success of 
proposed hybrid systems.
    In addition to the current programs supported by DOE, other efforts 
should be supported. GE recommends funding of a program to develop 
technology for high-speed turbines coupled directly to generators and 
power conversion equipment in the 2-10 MW range. This DG technology 
will offer energy consumers opportunities to reduce emissions, reduce 
the size and cost of generation facilities, and the ability to 
diversify their energy sources. This additional flexibility in energy 
supply could be quite valuable to owners of factories, refineries, 
Internet server farms, and other bulk energy users. This technology can 
displace some generation alternatives, such as diesel-generator sets, 
with cleaner, less expensive alternatives.
    Programs focused on grid interconnection cost reduction, 
distributed control and dispatch of DG's, increased power quality, 
system monitoring and reduction in installation and operating cost 
should all be considered in order to ensure success of all DG 
technology options. DOE and GE funded research aimed at addressing 
system integration issues for distributed generation has made 
substantial progress in addressing technical concerns and barriers with 
respect to existing electric power infrastructure and businesses. This 
effort should be continued and expanded.
                               conclusion
    Investments in fossil energy programs remain essential to achieving 
energy security through a robust portfolio of fuels including coal and 
renewables. Advanced turbine technologies are critical to achieve the 
fuel diversity goals of the National Energy Policy. Continued 
technology development remains vital to assure that a range of options 
is available for power generation in this country, and to support U.S. 
technology leadership in export markets.
                                 ______
                                 
   Prepared Statement of the Business Council for Sustainable Energy
                              introduction
    The Business Council for Sustainable Energy offers testimony on the 
role it foresees for the Department of Energy's (DOE) energy efficiency 
and natural gas research, development, demonstration and deployment 
programs.
    The Council was formed one decade ago by businesses and industry 
trade associations sharing a commitment to achieve our nation's 
economic, environmental and national security goals through the rapid 
deployment of clean and efficient natural gas, energy efficiency and 
renewable energy technologies. Our members range in size from Fortune 
500 enterprises to small entrepreneurial companies, to national and 
international trade associations.
    We thank the Congress for its exceptional work in crafting the 
fiscal year 2002 funding bill but have mixed observations on the 
Administration's fiscal year 2003 proposals. More so now than ever, it 
is critical that we put American energy security under the control of 
American technology and take it, to the greatest extent possible, out 
of the hands of potentially unreliable international energy suppliers.
                a federal energy commitment is critical
    Although circumstances today appear radically different from those 
of 1 year ago, we remain in fundamentally the same situation from an 
energy security perspective; the reality has only become that much more 
stark. While blackouts and price swings abated, a revived economy may 
see their return. Furthermore, the events of September 11 have renewed 
attention on energy security in a way that had been completely 
unimaginable. The importance of energy security, due to our energy 
vulnerability, now claims great interest.
    Given the breadth of DOE activities, we will not attempt to address 
all natural gas and energy efficiency programs. Rather, we focus on 
several programs that the BCSE believes illustrate the value of the 
federal government's energy efforts.
                       natural gas infrastructure
    The Administration requested no funding for natural gas 
infrastructure research in its fiscal year 2003 budget, compared with 
$10 million appropriated by Congress for the current year. We 
respectfully request an increase to $25 million for Infrastructure 
programs.
    We strongly support DOE's program for natural gas industry 
Infrastructure and Operations. This program was initiated in fiscal 
year 2001 with an appropriation of $4.9 million for infrastructure and 
has been met by tremendous enthusiasm and project cost sharing within 
the natural gas industry. More than 70 proposals, totaling in excess of 
$45 million, were submitted by industry partners in response to the 
first year's program funding. These proposals exceeded the available 
dollars by a nine-to-one margin. All proposals met or exceeded DOE's 35 
percent cost-sharing requirement. Congress appropriated $10 million for 
fiscal year 2002 and all indications are that industry partners will 
respond at least as enthusiastically as last year.
    In general, DOE's infrastructure R&D is geared to its mission to 
make the nation's energy infrastructure more reliable, efficient and 
able to meet the needs of the economy. It tends toward longer-term 
benefits. DOE's programs include projects such as: more corrosion-
resistant material that can transport gas at higher pressure, more 
fuel-efficient compressors that are capable of flexible compression 
operation, improved automated data acquisition, system monitoring and 
control techniques, no dig technologies, innovative excavation and 
restoration systems and plastic pipe technology. All of these 
contribute to public benefits in terms of additional domestic energy 
supply, increased safety and reliability, lower cost to consumers, and 
improved environmental performance.
    Some argue that all natural gas infrastructure research should be 
conducted by the Department of Transportation. The Office of Pipeline 
Safety (OPS) in DOT does conduct limited infrastructure-related work. 
Consistent with its role as a pipeline safety regulatory agency, OPS's 
pipeline R&D has focused on near term safety, security and damage 
prevention projects and technologies and codes and standards 
development. DOE focuses on the long term energy delivery issues 
related to natural gas infrastructure. Although both departments are 
involved in R&D, the departments have different but extremely essential 
missions and their programs reflect it.
    Meeting a large increase in demand efficiently will require 
continued cooperation between DOE, DOT and the natural gas industry to 
develop the necessary research tools. It is clear that immediate and 
substantial investment in research supporting natural gas 
infrastructure is essential to ensuring energy reliability and security 
in our nation.
                      distributed energy resources
    Reliable, on-site generated power continues to increase in its 
importance as more and more manufacturing processes and information 
technologies become dependent upon a continuous supply of high-quality 
power. Whether energy is produced by microturbines, reciprocating 
engines, fuel cells or other gas-fueled systems or by renewable energy 
technologies, challenges to widespread deployment remain. Some of these 
technologies need further refinement, while all need federal 
intervention in the development of interconnect standards to gain 
access to the electricity grid. Also, many of these technologies 
benefit from integration into energy delivery systems, a challenge not 
undertaken within individual technology development programs. In 
essence, despite the pull from the marketplace, the federal role 
remains strong. We request a $90 million appropriation for fiscal year 
2003.
    The DER program is significantly under-funded. The Office of Power 
Technologies receives nearly ten solicitation applications for every 
award it makes. While more manufacturers are entering the market, 
significant RD&D requirements abound. DER provides the opportunity for 
more efficient use of waste heat to achieve total system efficiency 
levels as high as 80 percent. Further, the higher efficiency of DER 
systems inherently leads to lower emissions since they typically use 
cleaner feedstock fuels than many central power plants. Developing 
technologies through such efforts as a special heat engine initiative 
utilizing Rankine Organic Cycle and Stirling engines utilizing was heat 
and biogas would move these concepts forward. It is important to move 
ahead on development of these and thermally activated equipment for 
combined heat and power applications.
    The national economy is inextricably linked to information and 
electronically sensitive computer systems that require uninterruptible 
power that the 50+ year old electric grid is increasingly challenged to 
serve. Many utilities are now exploring the utilization of DER to 
reduce the strain on congested transmission systems. On-site DER 
systems are especially important for high-tech and mission-critical 
facilities as they offer dramatic power quality and reliability 
increases. Mission-critical systems, be it in high-tech, healthcare, 
manufacturing or government facilities, are enhanced by DER.
    We are very supportive of the modest $7.5 million proposal for 
proton membrane exchange fuel cell program within the Office of Power 
Technologies. We highlight the need for these resources to be 
concentrated toward the research needs to develop a robust and reliable 
power generation unit.
    Collectively, tremendous work remains in the areas of system 
development, advanced batteries, smart controls and sensors, power 
quality and reliability, storage, and interconnection. DOE has studied 
the technical, regulatory, market and institutional barriers to 
widespread utilization of DER, is working in partnership with industry 
to advance the state of the art of these technologies and is working to 
promote commercial acceptance.
Alternative Fuel and Natural Gas Vehicles
    Transportation remains the fastest growing energy consuming sector. 
Alternative fuel vehicles (AFVs)--including natural gas and electric 
vehicles--promise to reduce U.S. reliance on imported oil and shift it 
over to a far cleaner, more secure and abundant hemispheric resource 
that virtually eliminates emissions of criteria air pollutants.
    The Clean Cities program is an important program that continues to 
develop. Increasing the use of gas-fueled vehicles in proven markets 
such as transit and school busses, delivery and other centrally fueled 
fleets is building experience as well as establishing critical 
infrastructure to foster further expansion. We request $30 million for 
this voluntary partnership.
Utility Programs
    DOE also works effectively with utilities and power authorities to 
promote energy efficiency. Through voluntary programs such as Climate 
Wise, DOE has obtained the commitment of utilities to reduce utility 
emissions of greenhouse gases. Generally, activities that reduce 
emissions reduce energy use. Climate Wise participants--such as Council 
member Sacramento Municipal Utility District (SMUD)--have premised 
their programs on sound economic principles. California and soon other 
parts of the nation will recognize that efficiency is one critical tool 
for maintaining reliable electricity supplies.
                             other programs
    We are disturbed by a variety of certain proposed cuts and 
recommend 20 percent funding increases for programs such as thermal 
insulation and building materials and Clean Cities. We are supportive 
of increases to programs such as Building America.
Federal Energy Management Program
    The BCSE is very supportive and appreciative of the Congress' 
support of the Federal Energy Management Program (FEMP) for this fiscal 
year and lauds the Administration for recognizing the value of this 
program in their budget request. The federal government is the single 
greatest consumer of energy in the nation and FEMP's public/private 
partnership program is working to save both energy and taxpayer 
dollars. In these times of supply constraint and rising prices, this 
program should be made more aggressive to include improving significant 
facilities at all federal agencies. Funding for FEMP should pays 
dividends to the government, taxpayers and the environment. The 
proposed budget for fiscal year 2003 should be enthusiastically 
supported.
Conclusion
    The Council believes that the federal government's participation in 
cost-shared public/private partnerships that develop reliability-
enhancing, cost-effective non- and low-polluting technologies is 
crucial during this time of energy stress. No single technology or fuel 
is a panacea, and making a wide breadth of technologies available to 
the marketplace will result in actual energy solutions.
                                 ______
                                 
  Prepared Statement of the American Council for an Energy-Efficient 
                            Economy (ACEEE)
    DOE's decision not to seek the broad R&D cuts that characterized 
the 2002 request indicates recognition of the need for a sustained 
commitment to energy efficiency research, development, and deployment 
as part of a balanced energy policy. While some programs received 
deserved increases, DOE's RD&D programs remain well short of the 
funding levels recommended by independent review panels. ACEEE requests 
the subcommittee increase funding for 11 programs for a total of $35.8 
million. Our analysis of the high-priority program areas meriting 
increased support are described below.
                            buildings sector
    Space conditioning and refrigeration R&D.--The budget request cuts 
this program by $2.7 million, or 47 percent. We recommend this proposed 
cut be restored and that this program be continued at the 2002 level. 
DOE needs to be able to pursue its important work in the areas of 
reducing peak impacts of residential and commercial AC systems, 
improved air distribution systems, improved AC field performance, and 
AC system retrofits, which our research has shown are the top 
priorities for efficiency improvement in HVAC systems. Recommended 
funding level: $5.8 million.
    Appliances and Emerging Technologies.--This program is proposed to 
take a 22 percent cut; we recommend that it be funded at the 2002 
level. Promising work, especially in the areas of heat pump water 
heaters and commercial refrigerators, needs to be continued to bring 
important new technologies to market. Recommended funding level: $2.25 
million.
    Windows R&D.--The 2003 request calls for a $2.7 million, 43 percent 
cut in windows RD&D. ACEEE's research as well as the National Research 
Council's review of DOE R&D programs have shown DOE's windows program 
to be one of the Department's best success stories. We recommend that 
the proposed $2.7 million cut be restored to the 2002 level. The 
proposed reduction would create severe damage to the cost-effective 
activities this program has created, especially in field testing of 
advanced fenestration technology, development of retrofit fenestration 
products, and education through the Efficient Windows Collaborative. 
Recommended funding level: $6.2 million.
    Appliance Standards and Building Codes.--DOE standards produce the 
greatest energy savings of any DOE program. DOE has taken on new 
commitments in the appliance standards area, based on the objectives of 
the National Energy Plan. Current legislation is also very likely to 
add new rulemakings to the Department's agenda. While the 2003 request 
contains a small 9 percent increase for this program, that would only 
serve to restore the cut that occurred in 2002. We recommend that an 
additional $2 million be added to this vital and cost-effective 
program. Building codes also need increased support as states respond 
to their EPAct mandate to review and adopt the 2000 International 
Energy Conservation Code. State technical assistance and grant support 
was cut from $4.2 million to $1.8 million in fiscal year 2002. The 2003 
request remains at the 2002 level; we recommend it be restored to the 
2001 level of $4.2 million. Recommended funding levels:

                        [In millions of dollars]

Lighting and Appliance Standards..................................  11.2
Updating and Implementing State Energy Codes......................   4.2
                         transportation sector
    Materials Technologies.--The 2003 request cuts materials 
technologies by $10.5 million (26 percent), with the bulk of the cuts 
coming from the light duty vehicle program. High-strength, lightweight 
materials, along with hybrid vehicles, have been one of the success 
stories of DOE's transportation technologies program and there is much 
left to be done here, such as work with carbon composites, magnesium, 
and titanium. This program should be at least sustained at 2002 levels. 
Recommended funding level: $40.3 million.
    Vehicle Technologies R&D.--Hybrid Systems would be cut 8.6 percent 
in the 2003 request, from $46.6 to $42.6 million. Most of the cut is on 
the light duty side, where hybrids have been a notable success. Further 
technological advances will help to accelerate hybrids' market 
penetration, so this is not the time to reduce DOE commitment to this 
technology. Heavy-duty hybrids are lagging behind light duty hybrids, 
despite their enormous energy savings potential. Yet the budget request 
proposes to slow the pace of this work. We recommend that both light-
duty and heavy-duty hybrid technology funding be sustained at 2002 
levels. Recommended funding level: $46.6 million.
    Advanced Combustion Engine R&D.--This program is reduced 17 
percent, from $49.1 million last year to $40.7 million in the budget 
request. We recommend restoring funding to 2002 levels if the funds are 
used for improvements to heavy vehicle engines, which are already 
overwhelmingly diesel, or for light-duty diesel engines that are as 
clean or cleaner than gasoline engines. Recommended funding level: 
$49.1 million.
    Technology Deployment.--The budget proposal for Technology 
Deployment is essentially level funding. This program houses some of 
DOE's most effective and publicly popular efforts, such as the Clean 
Cities program. Moreover, without a commitment to regulatory solutions 
such as CAFE to push the market, DOE must increase its commitment to 
market pull through voluntary deployment programs. It should also be 
noted that initiatives such as a nationwide Green School Bus Pilot 
Program that may arise from the energy bill will necessitate 
significant additional funding for Technology Deployment. We recommend 
an increase in this program area of at least 10 percent. Recommended 
funding level: $16.5 million.
                           industrial sector
    While the overall funding for OIT programs is appropriate, we 
recommend that funding be increased for the Industrial Best Practices 
program by at least 10 percent. This program offers crosscutting 
benefits to the industrial sector, and based on ACEEE analysis has 
proven to be very cost effective. The Motor Best Practices part of the 
program has been an effective market deployment effort, but has been 
under-funded in recent years. The assessment activities (i.e., 
Industrial Assessment Centers, Targeted Assessments and Plant Wide 
Assessments) within the Best Practices program are very important, and 
could benefit from expanded funding of 10 percent. Recommended funding 
levels:

                        [In millions of dollars]

Industrial Assessment Centers.....................................   8.5
Industrial Best Practices.........................................   9.1
                   energy information administration
    EIA needs additional funding for its critical market data 
collection and analysis programs within the Energy Markets and End Use 
office. The residential (RECS), commercial (CBECS), and industrial 
(MECS) surveys have been under-funded in recent years. This has forced 
EIA to reduce the frequency and the level of detail in these survey 
efforts. Without this critical data, it is impossible to measure the 
effects of several important policy initiatives. For example, voluntary 
climate change programs will need regular, detailed information on 
energy use by sector and end use to assess the impact of various 
programs. We recommend at least a $1.2 million increase for these 
program activities. Recommended funding level: Energy Markets and End 
Use, $13.8 million.

     DOE FISCAL YEAR 2003 ENERGY EFFICIENCY BUDGET SUMMARY OF ACEEE
                  RECOMMENDED ADDITIONAL APPROPRIATIONS
                        [In thousands of dollars]
------------------------------------------------------------------------
              Buildings                 Amount
------------------------------------------------------------------------
Space Conditioning and Refrigeration      2,700  Restore to 2002 level.
 R&D.
Appliances and Emerging Technologies        500  Restore to 2002 level.
 R&D.
Windows R&D.........................  \1\ 2,700  Restore windows program
                                                  to 2002 level.
Appliance Standards and Building      \2\ 2,000  Needed for likely new
 Codes.                                           mandated rulemakings.
      ..............................  \3\ 2,400  Needed for mandated
                                                  state code reviews.
Transportation:
    Materials Technologies R&D......     10,300  Restore to 2002 levels.
    Vehicles Technologies R&D.......      4,000  Restore to 2002 levels.
    Advanced Combustion Engine R&D..      8,400  Restore to 2002 levels.
Industrial:
     Industrial Assessment Centers..        800  10 percent increase.
    Industrial Best Practices.......        800  10 percent increase.
Energy Information Administration:        1,200  10 percent increase in
 Energy Markets and End Use.                      end use surveys .
                                     -----------
      Total.........................     35,800  4 percent overall
                                                  increase in efficiency
                                                  budget.
------------------------------------------------------------------------
\1\ To windows program.
\2\ To appliance standards.
\3\ To state grants.

                                 ______
                                 
                    Prepared Statement of Honeywell
    On behalf of Honeywell, I am submitting testimony related to the 
Energy Efficiency (EE) programs at the Department of Energy (DOE). We 
request that the total Energy Efficiency Research and Development 
Budget be appropriated in fiscal year 2003 at the fiscal year 2002 
level of $636.0 million. Under the Distributed Energy Resources Program 
(DER) Office of Power Technology, we recommend $11.0 million in funding 
for microturbines in fiscal year 2003; $9.3 million for Advanced 
Materials and Sensors to include high and medium velocity rigs; and 
$2.0 million within the budget request for the Federal Energy 
Management Program technical assistance program for specific 
technologies. In the Office of Transportation Technology (OTT), we 
request $5.5 million for engine boosting technology research for both 
diesel and gasoline engines.
          transportation (office of transportation technology)
    To meet the Department of Energy's vehicle technologies research 
and development goals, key technologies are needed, including 
electrically assisted turbocharging (EAT) and adequate funding is 
required. Under the Vehicle Technology, R&D, Light Truck Engines, 
Advanced Combustion Engine R&D program, Honeywell has been conducting a 
development program for EAT which will demonstrate improved vehicle 
response, reduced fuel consumption for light trucks and SUVs. Honeywell 
requests an additional $1.0 million to the DOE fiscal year 2003 budget 
request of $500,000 to continue this program. So far, Honeywell has 
designed, developed and procured prototype hardware for small diesel 
engines and diesel manufactures have tested this hardware successfully 
on their engines/vehicles. The additional funding would be used to test 
two small turbochargers on a large SUV size engine, identify issues 
with electrically assisted turbocharging on large engines and develop 
scale factors from small to large turbochargers. Honeywell also 
recommends that a $1.0 million heavy-duty diesel engine EAT program 
feasibility study be initiated.
    Honeywell also requests $3.0 million to demonstrate advanced engine 
downsizing to engine/vehicle manufacturers. Engines in passenger 
vehicles are sized to give good acceleration and driveability 
performance. The result is that engines are oversized by a factor of 
two.
    Under normal, road load, cruise conditions the large engine is 
underused and is therefore inefficient, resulting in poor fuel economy. 
If a downsized engine is used, it gives better fuel economy but poor 
driveability performance.
    Turbocharging enables the best of both worlds--a small engine for 
cruising, turbocharged to supply high power as needed, for 
driveability. Data taken from European gasoline engines in 1992-1993 
model years and 2000-2001 model years indicates that for the same 
power, a turbocharged gasoline engine is fifty percent smaller (2 litre 
versus 3 litre) and gives about 8 to 10 percent better fuel economy.
    Turbocharging technology needs to be adapted to American driving 
conditions and emissions standards, for gasoline and diesel engines, 
for various size vehicles. Funding would be used to reduce cold start 
emissions to meet more stringent emissions regulations, improve 
materials to withstand higher temperatures under highway conditions and 
to improve turbocharger response to make it completely transparent to 
the user.
    Honeywell also recommends an increase of $1.0 million so that the 
DOE can carry out the high temperature foil bearing development program 
being conducted at Garrett Engine Boosting Systems and Engine Systems & 
Services.
    For Advanced Combustion Engine R&D, Honeywell recommends that the 
Committee restore the fiscal year 2003 budget request of $17.6 million 
to the fiscal year 2002 appropriated level of $19.9 million. Honeywell 
is in the process of negotiating the final contract to complete an 
ambitious program to develop an emission control device for diesel 
vehicles that will allow them to meet the new lower emission standards 
expected to be effective in 2007 for NO<INF>X</INF> emissions. The 
original plan called for a $2.4 million budget over 3 fiscal years 
beginning in fiscal year 2002. Funding for this program was reduced in 
fiscal year 2002, thus causing concern that the program will extend 
past the 3 year time frame and delay the introduction of the product 
into the marketplace. This will mean that the 2007 target will be 
missed. An additional $400,000 should be added to the fiscal year 2003 
budget request to put the program back on schedule so that EPA and DOE 
timetables can be met.
       distributed energy resources (office of power technology)
    Honeywell remains concerned about the delivery of constant, quality 
power. It is estimated that power interruptions cost the nation's 
economy approximately $50 billion annually. Potential threats to large 
generating systems and the transmission network in the wake of the 
events of September 11 cause additional concern regarding the delivery 
of power.
    Honeywell introduced the Parallon 75 microturbine in 2000. The 
Parallon, a 75kW microturbine, creates energy by compressing and 
combusting gaseous or liquid fuels at a high temperature to operate a 
high-speed generator.
    As the Committee will recall, last year, General Electric attempted 
to acquire Honeywell. In the aftermath of that failed acquisition and, 
as part of the settlement between the two companies, Honeywell sold its 
microturbine business to General Electric. Honeywell, however, in the 
on-going microturbine contract still retains a forty-percent interest 
in the contract and remains committed to seeing efficient microturbines 
reach the marketplace. Honeywell recommends that the budget request of 
$7.0 million be increased to $11.0 million for fiscal year 2003, the 
same level as provided for in fiscal year 2002. Within an appropriation 
of $11.0 million, an increase of $1.0 million should be included for 
the advanced microturbine system program so that Honeywell can carry 
out its ceramic development engine test activities as proposed in a 
revised microturbines statement of work.
    Achieving significant improvements in efficiency, emission and 
durability for all prime mover technologies require new approaches to 
the various components and the use of materials like metals and 
ceramics. DOE has funded and advanced materials development for turbine 
and engine components such as combustion liners, turbine tips, and 
engine shrouds. Advanced ceramics for turbine engine applications has 
been a major thrust at Honeywell and several other engine companies to 
overcome the limitation set by the metallic parts in turbine engines. 
As a result of collaborative efforts between industry, government and 
national laboratories, particularly Oak Ridge National Laboratory 
(ORNL), significant advances in a ceramic engine design and silicon 
nitride materials and fabrication technologies have been achieved. A 
number of silicon nitride components are in production and being 
implemented in gas turbine applications; some are in final stages for 
commercialization, others are in development programs from the 
Department of Defense (DOD), NASA and DOE. A large part of the success 
of these ceramic components is due to the continued support of this 
Committee.
    Honeywell Ceramic Components is in production with several silicon 
nitride parts. The work includes 30,000 seal runners (oil seals) for 
the Honeywell 731-series turbofan propulsion engine installed with over 
6 million operating hours for the accumulated fleet and gerotor silicon 
nitride rings for Honeywell Auxillary Power Units (APUs) on Boeing and 
Airbus aircraft. In January 2002, a 2-year ceramic blisk field 
evaluation was launched in an ASE8-800 industrial engine at Questar Gas 
Company in Salt Lake City. A field evaluation on two ceramic nozzles on 
APUs on a Lufthansa A300-600 has accumulated over 6,000 hours of 
reliable operation. A third evaluation was begun in February for Royal 
Jordanian Airlines. Honeywell Engine Systems & Services is developing a 
high-speed burner oxidation rig at its facility which will be available 
for use in the testing of ceramics for DOE's contractors.
    This should be ready for operation in early 2003. Honeywell 
recommends an additional $1.0 million for the multi-functional high-
speed burner rig to complete its development and cover start-up costs 
for the first year of operation. Honeywell also recommends $1.0 million 
for the low-flow burner oxidation user rig at ORNL. Honeywell is 
requesting an increase of $2.0 million for these programs funded 
through the Technology Based Advanced Materials and Sensors program.
    Honeywell Engines and Systems has continued to work with its 
partners Precision Combustion (PCI) and Texas A&M University on the 
Fuel-Flexible Ultra-Low Emissions Combustion System for Industrial Gas 
Turbines program.
    In the last year, sub-scale catalyst modules were manufactured and 
conversion rate testing was completed on various fuels. Results were 
sufficiently encouraging to proceed to the sub-scale combustion tests. 
These were completed on natural gas, diesel and a simulated landfill 
gas at conditions appropriate for the ASE50DLE engine. Target 
NO<INF>X</INF> emissions below 5ppm were achieved on both the gaseous 
fuels at 100 percent simulated power, with part power diesel emission 
below 9ppm. The study to integrate the catalyst modules into the 
ASE50DLE engine is nearing completion at Honeywell. Texas A&M has 
completed the laboratory demonstration of the NO<INF>X</INF> sensing 
system and is working on the CO system. Immediate plans are to complete 
the integration study and perform a demonstration test on the emissions 
sensing system in an engine environment at Honeywell. Honeywell 
recommends that $500,000 be added to the fiscal year 2003 budget for 
continued development of emissions and flame temperature sensing 
technology leading to testing.
    Honeywell is working on a Building, Cooling, Heating and Power 
(BCHP) development program that packages technologies that will include 
operational optimization in real time and automate the make-buy 
decision for on-site generation. The reference package designs will 
allow BCHP systems to be applied to a variety of customer sites. 
Honeywell supports the $2.8 million for this program in fiscal year 
2003 within the $19.4 million budget request for End-Use Systems 
Integration and Interfaces, Cooling, Heating and Power (CHP).
                federal energy management program (femp)
    Honeywell is a leader in Energy Savings Performance Contracting 
(ESPC) and commends the Administration's budget request for the FEMP 
that reflects an increase over the fiscal year 2002 appropriated level. 
Within the fiscal year 2003 budget request of $27.8 million, $2.0 
million should be provided for technical guidance and assistance for 
design and procurement for new distributed energy, energy efficient and 
renewable technologies.
                                 ______
                                 
            Prepared Statement of Detroit Diesel Corporation
    Detroit Diesel Corporation (DDC), a DaimlerChrysler Powersystems 
Company, provides this statement for the record addressing the 
Administration's fiscal year 2003 budget request for the Department of 
Energy's Office of Transportation Technologies (OTT). We have been made 
aware of the just announced reorganization of the Energy Efficiency and 
Renewable Energy (EERE) Office into eleven new integrated program 
offices. Nevertheless, we provide this statement relative to the 
Administration's formal submission to the Legislators. We generally 
support the Administration's budget request for ``OTT'', but we 
respectfully urge the Committee to consider further enhancements to 
critical key line items that require prompt and immediate attention to 
reduce the U.S. demand for petroleum. These key line items will have 
immediate near-term impact on energy security, will decrease emissions 
of criteria air pollutants and greenhouse gases, and will enable the 
U.S. transportation industry to sustain a strong and competitive 
position in the domestic and world markets. Specific relevant OTT R&D 
programs enjoy substantial industry cost share demonstrating a matched 
commitment by the U.S. industry. In order to bring to fruition the 
intended results, these programs require sustained or increased levels 
of funding.
    DDC's world headquarters and its main manufacturing plant are 
located in Detroit, Michigan. DDC employs over 6,000 persons who 
design, manufacture, sell and service engines for the transportation 
and power markets. Our products cater to heavy-duty trucks, coach and 
bus, automobiles, construction, mining, marine, industrial, power 
generation and the military. DDC has operations and manufacturing 
centers in various regions of the United States, along with a network 
of over 100 distributors and 2,700 dealers throughout the United States 
and worldwide. The DDC Series 60 engine has revolutionized the truck 
engine technology, consistently setting new global performance, fuel 
economy and life cycle cost standards. It has been the most popular 
heavy-duty truck engine in the United States for over a decade.
    Detroit Diesel recognizes the Administration's FreedomCAR agenda, 
and its attention to both near-term and long-term energy sufficiency. 
The long-term vision focuses on potential emerging technologies, such 
as fuel cells and hydrogen-based transportation energy. This ``next 
generation'' technology requires substantial level of new inventions. 
However, we believe that it is equally important to support the 
``bridge technologies'' to meet our near and mid-term transportation 
needs, as the Energy Secretary clearly affirmed during his statement 
before the Senate on March 7, 2002. The CIDI (clean diesel) engine 
technology, along with the mandated low sulfur fuel, is well positioned 
to be our nation's prime mover for goods and people in the near-term 
and through the middle of this century, essentially following Europe's 
lead. In this regard, our comments will focus on the program line items 
that provide substantial potential payback for this important area of 
national interest.
    Three line items under the proposed fiscal year 2003 Advanced 
Combustion Engine R&D program element are CIDI Combustion and Emission 
Control, Heavy Truck Engine and Light Truck Engine. The CIDI Combustion 
and Emission Control activity focuses on the development of advanced 
emission control technologies for clean diesel engines for U.S. 
personal transportation vehicle applications. For decades to come, 
clean diesel engines are the most relevant solution offering 
significant fuel economy savings with cleaner environments. Initial 
developments show potential for lower emissions meeting the mandated 
2007/08 Tier-II levels while maintaining the diesel engine's inherently 
superior fuel efficiency. The initial performance results are 
compelling, but many questions remain unanswered regarding emerging 
technologies for aftertreatment and integration of a total technically 
viable system. We suggest enhancing the Administration's $17.6M request 
in this area by an additional $5.5M (Total = $23.1M) to handle the 
urgent technical issues of the relevant emerging technologies.
    The Heavy Truck Engine has an fiscal year 2003 request of $6.979M, 
less than the fiscal year 2002 enacted $9.396M budget! The new 2007 
Federal emissions mandates require an extremely aggressive R&D 
development plan to identify and implement new technologies. Recent 
specific findings suggest that EPA's initial estimates have 
underestimated the negative economic impact of the U.S. 2004 
regulations by an order of magnitude. The 2007 mandates will further 
reduce both NOx and particulate emissions by an additional 90 percent 
from the yet-to-be practically demonstrated 2004 levels. The 
technological complexities of meeting highly stringent emissions 
reduction while maintaining and ultimately improving the fuel economy 
within an extremely short time frame is the toughest challenge ever 
faced by the U.S. heavy-duty transportation industry. We believe this 
provides the strongest rationale for significant increases in the 
Government support to these competitively bid, collaborative, 50-50 
cost-shared R&D programs. DDC is investigating advanced combustion 
systems, alternative emissions reduction technologies including engine 
and exhaust aftertreatment systems, and smart control strategies within 
an integrated powertrain. We urge the committee to consider increasing 
the Heavy Truck Engine line item by an additional $6.5M (Total = 
$13.5M) to assert and support the urgency of accelerated development of 
these related high risk emerging technologies.
    The Light Truck Program fiscal year 2003 budget request of 
$13.106M, less than the fiscal year 2002 enacted $17.783M budget, 
targets the development of clean diesel engine technologies for light 
and medium trucks. This area of collaboration is at a critical stage of 
development, having been a competitively bid highly cost-shared effort 
which is targeted for completion by fiscal year 2004. This program line 
item includes multiple industry teams that are near the culmination of 
their R&D efforts aiming towards demonstration of viable technologies 
to meet stringent future Tier-II emissions levels. We believe that 
increasing the funding level to at least $16M would help harvesting the 
fruits of the already initiated efforts. This would help in decreasing 
the technical risks for launching its application into this significant 
market segment, thus making the technology ready for further 
developments via independent industry R&D investments.
    The Materials Technologies is a separate OTT program element having 
a budget request of $18.8M, a reduction from the $21.22M enacted in 
fiscal year 2002. This program element incorporates Propulsion 
Materials Technology, Lightweight Materials Technology and High 
Temperature Materials Laboratory. It has been long recognized that 
advanced materials are a key critical technology area for U.S. global 
competitiveness. For many years, the most popular DDC Series 60 truck 
engine has touted the first worldwide application of structural ceramic 
and advanced tribological coatings. We request the restoration of the 
funding back to the fiscal year 2002 $21.22M level to leverage the 
insertion of advanced materials into applications supporting the 
previously mentioned emerging technologies.
    Once again, we applaud the Administration's initiative to develop a 
National Energy Policy, the Department Energy's FreedomCAR initiative 
and the new EERE reorganization. We take this opportunity to affirm our 
strong endorsement to the proposed Department of Energy's fiscal year 
2003 referenced budget requests with the stated specific enhancements.
    The trend setting partnership between the U.S. Government and a key 
industrial base addresses this country's and world needs in critical 
areas of transportation, energy security, economy and environment. The 
exemplary track record through competitive leveraging of Government 
funding by substantial industry cost share and the emerging high 
potential results of these partnerships warrant strong Congressional 
endorsement. This affords a unique opportunity for a justifiable and a 
highly effective return on investment of the U.S. taxpayers' money.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Mr. Chairman and members of the Subcommittee, the National 
Association of State Energy Officials (NASEO) submits this testimony in 
support of funding for the U.S. Department of Energy's Office of Energy 
Efficiency and Renewable Energy, energy conservation programs. 
Specifically, we are testifying in support of no less than $68 million 
for the State Energy Program (SEP) and the President's request of $277 
million for the Weatherization Assistance Program (WAP). These funding 
levels move towards President Bush's promise included in his campaign 
issue paper on energy to double Weatherization and SEP. We also support 
an important program which has been a dramatic success, the State 
Energy Programs Special Projects account, which should receive at least 
$18 million, consistent with the fiscal year 2002 funding levels. NASEO 
also endorses funding for the State cooperative RD&D initiative at no 
less than the $6 million provided in fiscal year 2002. While this 
program was not included in the President's budget request it is 
strongly supported by the states and the Subcommittee. This effort has 
been successful and enormous opportunities for future work is 
available.
    NASEO supports increased funding for the Energy Information 
Administration (EIA), including especially updates for the State 
Heating Oil and Propane Program (SHOPP) and other state data sets. 
Doubling of the frequency of information collection, the addition of 
natural gas and increasing the number of state participants is 
critical.
    NASEO supports funding for DOE's Building and Industrial efforts, 
as well as the increased funding requested by the Administration for 
the Rebuild America program within the Buildings division. Rebuild 
America delivers technical assistance and project funds to state and 
community partnerships to implement building retrofit projects, 
utilizing public and private financing. NASEO also endorses funding 
equivalent to fiscal year 2001 levels for the Committee on Energy 
Efficiency Commerce and Trade (COEECT), which has not been supported by 
the Administration. Within the international line item, the states are 
actively involved in energy export promotion.
    As you prepare your mark for fiscal year 2003 energy efficiency 
funding we ask that you fund the State Energy Program at least at a 
level of $68 million. We also ask that you fund the Administration's 
request of at least $277 million for the Weatherization Assistance 
Program. Our request is consistent with a bi-partisan letter currently 
being circulated throughout the House and Senate. Mr. Chairman, these 
programs are successful and have a strong record of delivering energy 
savings to low-income Americans, homeowners, businesses and industry.
    The state energy offices that operate SEP focus on balanced energy 
programs, including the utilization of all resources. Funding of SEP is 
critical to this effort. It leverages an enormous amount of non-federal 
funds, from private, state and local sources.
    Another critical piece of the energy puzzle is the necessity to 
respond and prepare for energy emergencies. Certainly, after September 
11 there has been a renewed focus both nationally and on the state 
level on addressing these serious energy security needs. This has 
placed enormous additional burdens on the energy offices. With 
increased energy price volatility, as evidenced by the unprecedented 
run-up in gasoline prices this month, state efforts are pressed to the 
limits. Energy offices have responsibilities to ensure that energy 
infrastructure is operational and the offices work with industry to 
improve operations. These offices also coordinate with law enforcement 
and emergency teams to address ongoing needs. Our infrastructure is 
being severely tested. SEP funds are utilized to prepare for these 
emergencies. We have seen during the past 3 years dramatic price spikes 
in a variety of fuels, historically low inventory levels and multiple 
problems across the country ranging from the western electricity crisis 
to midwestern natural gas and gasoline price spike issues.
    As we consider comprehensive energy legislation, the importance of 
the work and the funding support of this Subcommittee has certainly 
been placed more clearly in the forefront. SEP is critical to a 
balanced national energy strategy.
    The State Energy Program provides tremendous benefits to energy 
consumers while leveraging significant private sector resources. In 
particular, SEP has documented a return of over $4 in private sector 
funds for every Federal dollar contributed. SEP also allows states and 
regions to implement their own energy programs targeting state 
priorities. The State Energy Program provides assistance to virtually 
every sector of the economy. While there are examples from every state, 
a few are as follows:
  --Alabama has operated a water efficiency program for a number of 
        years, including leak detection. The production, treatment and 
        distribution of water is highly energy-intensive. During the 
        year 2000, 20 systems with 50 operators were surveyed, with 
        changes producing monetary savings of over $400,000. Since this 
        program began operations over 7.5 billion gallons of water have 
        been saved with a corresponding savings of $9 million.
  --In California, SEP provided approximately $2 million while the 
        state provided base funding of $85 million in 2000-2001, with 
        additional one-time funds of $390 million in 2001. New energy 
        efficient building and appliance standards have produced 
        savings on reduced utility bills of approximately $16 billion 
        since the program began. New initiatives in the area of ``cool 
        roofs'', efficient vehicle incentive programs, energy efficient 
        technology programs, etc. have produced savings in the 
        billions.
  --Kentucky has matched an array of SEP activities with industrial 
        energy efficiency, Energy Star partnerships, Rebuild America 
        and performance contracting to produce a number of successful 
        initiatives. In the industrial area enormous savings and 
        research has been developed to help reduce energy use and 
        preserve jobs covering 21 percent of the state's manufacturing 
        sector.
  --Iowa's building program has helped schools, hospitals, local 
        governments and community facilities reduce energy use through 
        energy efficient financing of projects. $150 million in 
        improvements have been implemented with cumulative savings of 
        $134.7 million in energy costs thus far. During the past 2 
        years alone Iowa received approximately $950,000 in SEP funds 
        and has leveraged $27.4 million in improvements.
  --Maryland's activities have ranged from alternative fuels promotion 
        to energy efficiency in public buildings to the development and 
        enforcement of new building codes and renewable energy 
        activities. Maryland has implemented a new tax credit for 
        energy efficient buildings. The state has leveraged Federal 
        dollars at a ratio of over 3:1.
  --Missouri has focused attention on energy efficiency in schools, 
        with 315 loans and $33 million in investment, with estimated 
        annual energy savings of $6.6 million. The Pattonville School 
        District in St. Louis borrowed $112,000 to utilize methane gas 
        from a nearby landfill to power school boilers. This is saving 
        $40,000/year, thus paying for itself in approximately 3 years. 
        Kansas City replaced 4,000 red stop lights with light emitting 
        diodes (L.E.D.s), saving $125,000 per year.
  --Nebraska created an energy savings loan program capitalized with 
        $10 million. A total of $14.14 million has been added to the 
        loan pool. Revolving loan funds of this type are operated 
        throughout the nation. In a study done a few years ago, the 
        program had saved $17 million through 1997, with significant 
        reductions in sulfur dioxide and nitrous oxide.
  --Nevada has initiated a number of programs including the development 
        of a new biodiesel industry. Performance contracting has become 
        commonplace through the work of the energy offices, leading to 
        successful programs of the type implemented at the White Pine 
        County courthouse.
  --Ohio has implemented programs across a variety of sectors, 
        including industrial activities with the glass, metal casting 
        and steel industries. A program to implement ``best practices'' 
        in public housing has led to the redesign and investment of 
        $6.5 million in buildings with an investment of $174,000 from 
        SEP. The energy office is now operating an energy efficiency 
        revolving loan fund totaling $15 million/year for low-income 
        households and $100 million over 4 years for other households. 
        SEP is a key component to help implement this program.
  --Oregon has used SEP funds to help leverage and operate its energy 
        loan program for renewable resources and alternative fuels. 
        Since this program began, $291 million in investments have been 
        made. A business tax credit of 35 percent for investments in 
        efficiency, renewables and recycling has produced $467 million 
        in investments and a residential energy tax credit for energy 
        efficient appliances, heat pumps, air conditioners, etc., has 
        produced $124 million in investments.
  --Pennsylvania has focused on integrating their energy and 
        environmental programs, emphasizing pollution prevention. The 
        state has recently arranged the purchase of 100 million 
        kilowatt-hours of green power over 2 years. The state has also 
        begun a high performance schools program for energy and 
        environment. The state has also implemented a compressed 
        natural gas alternative fuels program, which has avoided 2 
        million gasoline gallon equivalents since the program began.
  --Texas has focused on promotion of alternative fuels, implementation 
        of a housing partnership program, a renewable energy 
        demonstration program and the implementation of schools and 
        local government efficiency programs. The Texas ``LoanSTAR'' 
        program has saved Texas consumers over $100 million through 
        energy efficiency projects in taxpayer-supported institutions. 
        Interest rates are set at 3.0 percent at the present time. SEP 
        has been critical in implementing these activities.
  --Utah has focused on energy improvements in schools. For the 
        University of Utah, $19,000 in technical assistance to allow 
        them to implement performance contracting has netted $44 
        million in energy upgrades. Schools throughout the state have 
        utilized these funds to implement similar projects.
  --West Virginia has operated innovative industrial efficiency 
        programs in industries including aluminum, chemical, forest 
        products, glass, metal casting, mining and steel. The state has 
        also implemented projects in utilizing poultry litter, 
        developing a poplar plantation for biomass and energy 
        efficiency projects in historic structures.
  --Wisconsin operates its Wisconsin Energy Initiative for elementary 
        and secondary schools. Through the most recent data available, 
        314 projects were implemented in 32.3 million square feet, 
        reducing electricity consumption by 34 million kilowatthours 
        and reducing natural gas consumption by 3.9 million therms, 
        while saving $3.4 million/year.
    As noted earlier, SEP Special Projects has been a dramatic success. 
It permits the states to compete for funds distributed by DOE to expand 
the reach and leverage of funding for priorities set forth by Congress. 
This allows the states to develop innovative projects with non-federal 
partners and promotes replicability of these efforts. We hope the 
Subcommittee can support funding equal to fiscal year 2002 efforts of 
over $18 million.
    In conclusion, we would urge the Subcommittee to fund SEP at a 
level of $68 million. SEP allows the energy offices to deliver 
significant savings to the taxpayer with a small federal investment. 
The states' success is based upon our ability to directly meet the 
needs of consumers, small businesses, farmers and industry.
                                 ______
                                 
                Prepared Statement of Caterpillar, Inc.
    Caterpillar, Inc. appreciates the opportunity to present its 
comments for the record addressing the Department of Energy fiscal year 
2003 budget request for the Office of Heavy Vehicle Technologies 
(OHVT). Caterpillar, Inc., a Fortune 100 company headquartered in 
Peoria, Illinois, is the world's largest manufacturer of construction 
and mining equipment and diesel and natural gas engines used in a 
variety of applications. Caterpillar is the leading worldwide supplier 
of heavy-duty off-road vehicles and diesel engines for medium- and 
heavy-duty on-road trucks. We are only one of a hand-full of major 
companies that compete globally primarily from a U.S. manufacturing 
base, making Caterpillar one of our nation's largest net exporters.
    Caterpillar is involved in a number of projects managed by the 
Office of Heavy Vehicle Technologies. Our longstanding partnership with 
the Office of Heavy Vehicle Technologies has resulted in the 
development of a technology road map to assure that the project goals 
are consistent with national priorities and are fiscally responsible.
    In general, Caterpillar is concerned with the significant 
reductions in key line items in the Office of Heavy Vehicle 
Technologies contained in the Department's fiscal year 2003 budget 
submission to Congress. These cost-shared programs focus on developing 
technologies to maximize energy efficiency while reducing exhaust 
emissions . . . addressing national goals that have taken on increased 
importance and significance in recent months. Yet these same program 
areas have been targeted for substantial funding reductions.
    Caterpillar understands the need for the Department of Energy to 
focus attention on emerging technologies such as fuel cells and 
hydrogen power. But we believe it is equally important to maintain and 
accelerate R&D efforts that will provide ``bridge technologies'' to 
meet the needs of our transportation industry through this decade and 
the next. Our comments will focus on five programs that will provide 
the collaboration and funding of these ``bridge technologies'' that are 
essential to retaining the competitiveness of our nation's commercial 
transportation sector.
                           heavy truck engine
    The Heavy Truck Engine Program, with a fiscal year 2003 agency 
request of $7.0 million, is competitively bid and designed to respond 
to federal emissions requirements that demand an aggressive development 
plan. These emissions reduction requirements, targeted for 2007 and 
beyond, could result in a 5 to 10 percent fuel penalty for heavy-duty 
trucks, which currently consume 30 percent of on-road transportation 
fuel.
    The primary focus of this program is to develop technologies that 
will enable engine manufacturers to meet federal emissions requirements 
by 2006 while improving fuel economy by ten percent. The technological 
complexities of meeting this goal in such a short time frame 
necessitates a collaborative, 50-50 cost shared effort with the 
Department of Energy and the federal laboratories to maximize R&D 
resources. Caterpillar's focus in this program includes the development 
of advanced fuel and combustion systems, exhaust aftertreatment systems 
and friction reduction to help improve fuel efficiency.
    Now that we are 2 years into this program, we have learned that the 
technical challenges are even greater than originally expected. Very 
significant fuel penalties are a near certainty unless a technology 
breakthrough is created through this well focused, competitively bid, 
collaborative program. Progress on HCCI (homogeneous charge compression 
ignition) combustion with near zero emissions has been encouraging and 
holds great promise for all commercial trucks and off-road equipment. 
However, much work remains to provide the overall control and power 
capability needed for market acceptance. In addition, the application 
of exhaust aftertreatment technologies has numerous challenges that 
this program is addressing. If adequate funding is provided, there is a 
reasonable possibility to deliver a diesel engine demonstration by 2006 
that will enable the industry to meet the 2007 emissions regulations 
with improved fuel efficiency.
    Therefore, Caterpillar strongly urges the committee to consider an 
increase in this line item to $13.5 million to reflect the urgency of 
pulling forward advanced technologies to meet the environmental and 
commercial challenges facing our transportation system.
                           light truck engine
    This program, with an agency request of $13.1 million (a $3.7 
million decrease from fiscal year 2002), targets the development of 
compression ignition engine technologies for light-duty applications 
(trucks, sport utility vehicles and vans). It is focused on achieving a 
50 percent improvement in vehicle miles per gallon over comparable 
production vehicles. This 50 percent cost-shared program involves 
multiple industry teams comprised of both heavy-duty engine and light-
duty vehicle manufacturers, plus significant involvement of the DOE 
laboratories in developing breakthrough emissions reduction 
technologies.
    Like the Heavy Truck Engine Program, the Light Truck Engine Program 
addresses national energy security concerns and offers a tremendous 
return on taxpayer investment. For example, a 50 percent market 
penetration of fuel efficient light trucks could result in a half-
million barrels per day of oil saved, reducing our dependence on 
imported Mideast OPEC oil by over 20 percent. This could translate into 
a $10.7 billion annual saving in fuel costs to our economy. As our 
reliance on foreign oil continues unabated, the development of fuel 
efficient, cleaner burning technologies for the largest segment of the 
light-duty vehicle market is critically important.
    Caterpillar's focus in the program is to maximize key enabling 
technologies essential to improving fuel efficiency and emissions 
reductions. Elements of the corporation's research will include 
development of advanced fuel and combustion systems. Again, HCCI is a 
key building block of our strategy to achieve the ultra low emission 
levels required for light duty trucks. The HCCI combustion approach 
applies even better to the typical light duty operating cycle. Light 
trucks, vans and sport utility vehicles spend the vast majority of 
their time at light loads where HCCI works best. The fundamental HCCI 
work is similar to the effort underway in the Heavy Truck Engine 
program. However, the light-duty application is different, especially 
its duty cycle, aftertreatment and systems integration requirements. 
Caterpillar's strategy is to develop the fuel system technology that is 
the key enabler for HCCI combustion and work with light truck makers to 
incorporate this technology into vehicles to dramatically reduce 
emissions of their diesel engines.
    Based on the genuine progress made in this program to date, and the 
enormous potential impact on fuel efficiency, Caterpillar strongly 
urges the committee to increase the funding for this program to $15 
million, which still represents a decrease of $1.8 million when 
compared to the fiscal year 2002 spending level.
                         off-highway engine r&d
    According to the U.S. Environmental Protection Agency, nonroad 
diesel engine emissions of oxides of nitrogen (NO<INF>X</INF>) will 
comprise 38 percent of all mobile source NO<INF>X</INF> emissions by 
2010 with diesel particulates (PM) accounting for 60 percent of all 
mobile source PM emissions. The USEPA has initiated a phased-in 
emission reduction timetable to control pollution from mobile off-
highway equipment. Tier 2 regulations began in 2001. Tier 3 regulations 
are scheduled for implementation beginning in 2006. Without major 
technological breakthroughs, these emission requirements will cause a 
significant increase in fuel use. And while some technologies developed 
for on-road engines can be transferred to non-road applications, the 
lack of cooling air flow to the engines, differing power demands, and 
use of extremely high sulfur fuel necessitate the development of new 
technologies to meet the demands of off-highway equipment. Caterpillar 
intends to leverage fuel system and combustion technology from the 
heavy and light truck engine programs described above while adding 
advanced cooling system and specialized aftertreatment.
    In fiscal year 2002, the first year of the program, the funding 
level was a modest $500,000. However, for 2003 Caterpillar strongly 
supports an increase in the level to $2.0 million to assure that 
government and industry can work collaboratively to pull forward the 
needed technology to provide cleaner air without unacceptable fuel use 
penalties.
                    combustion and emissions control
    Caterpillar supports the DOE request of $17.6 million for diesel 
combustion and aftertreatment R&D. However, we strongly disagree with 
the allocation of this funding between the Office of Heavy Vehicle 
Technologies, which would receive $3.6 million and the Office of 
Advanced Automotive Technologies, which would receive $14.0 million. 
This program, currently underway at Sandia Livermore, Lawrence 
Livermore and Los Alamos national laboratories, addresses the need to 
understand fundamental combustion processes and involves the 
development of computer modeling of these processes and validation on 
laboratory engines. The development of sophisticated computer modeling 
is critically important for the timely, cost-effective introduction of 
future clean and efficient power systems for a variety of engine 
applications. This program funds several Cooperative Research and 
Development Agreements (CRADAs) working on the development of exhaust 
aftertreatment technologies requiring the unique equipment and 
personnel expertise of the DOE national laboratories.
    The development of this technology is critically important to the 
heavy-duty diesel engine companies as we face more stringent emissions 
standards and associated fuel economy penalties. Therefore, we urge the 
committee to support the allocation of a majority of this line item to 
OHVT where the development and commercialization of clean diesel 
technologies is the top priority for the heavy-duty engine and vehicle 
sector.
                          more electric truck
    The More Electric Truck program, included in the Vehicle Systems 
Optimization line item, is focused on developing technologies to 
convert various truck accessories, currently operating on engine belt 
and drive gear, to electricity. The economic and environmental 
implications of this initiative are impressive. When fully implemented, 
trucks could realize a 9-18 percent annual fuel savings. And by 
providing heating, cooling and accessory power without idling of the 
truck, the environmental benefits can be significant. Reducing truck 
idling was targeted in the National Energy Plan. This program 
specifically addresses our nation's goals of reduced fuel consumption 
and emissions. Caterpillar continues to fully support this important 
DOE initiative.
                     21st century truck partnership
    The 21st Century Truck Partnership was created to provide a 
systems-wide approach to addressing our national transportation 
priorities. This collaborative effort includes 16 companies and the 
Departments of Energy, Defense and Transportation and the Environmental 
Protection Agency. The partnership embraces 214 projects with annual 
federal funding approaching $120 million. Operating within the 21st 
Century Partnership, industry and government will develop critical R&D 
synergies and establish technology priorities to avoid funding 
duplication and redundancies. All of the above mentioned OHVT programs 
except the Off-Highway Engine R&D program are included under the 21st 
Century Truck Partnership. Caterpillar supports this unique R&D 
collaborative effort and commends the Department of Energy for its 
leadership.
    Mr. Chairman, Caterpillar believes that the OHVT programs 
effectively address real-world technology challenges through the 
leveraging of public and private sector resources. Achieving the goals 
set forth in these programs is critically important to meeting our 
nation's energy and environmental imperatives while maintaining the 
competitiveness of our transportation sector.
                                 ______
                                 
                  Prepared Statement of Cummins, Inc.
    Cummins, Inc is pleased to provide the following statement for the 
record regarding the Department of Energy's fiscal year 2003 budget for 
Energy Efficiency and Renewable Energy and Fossil Energy programs. 
Cummins is the only independent diesel engine manufacturer in the 
United States and we are the world's largest producer of commercial 
engines over 50 horsepower. We share the goal of improving our air 
quality and we are committed to pursuing technologies that benefit the 
environment.
       advanced combustion engine r&d--heavy truck engine (ohvt)
    The EPA 2007 Diesel Rule represents the biggest challenge ever 
faced by the diesel engine industry, and has the potential to 
significantly increase the cost of transporting goods in the United 
States. From 1970 to 2002, the NO<INF>X</INF> and particulate emissions 
of heavy-duty diesel engines were reduced by 90 percent through a 
series of very costly new product launches. The 2007 Rule requires a 
further reduction of 90 percent between 2002 and 2007, and the 
technology to achieve this reduction has not been developed. The DOE-
OHVT created the Heavy Truck Engine program in fiscal year 2000 to fund 
research, on a 50/50 cost-shared basis, that would focus on developing 
the technology to both meet more stringent emissions standards and to 
improve fuel economy over today's levels. The considerable progress on 
this research program has served to bring the underlying technical 
challenges into focus: system performance to 435,000 miles, sulfur 
tolerance, overall emissions degradation, and fuel economy penalties 
that may be as high as 5-10 percent. The Administration's fiscal year 
2003 funding request of $6.98M is below the $8.9M level appropriated in 
fiscal year 2002. The reduced funding level will inhibit the focus and 
acceleration of research that is required to meet the very challenging 
goals of the 2007 emissions standards along with approximately 10 
percent higher energy conversion efficiency than current production 
engines. Cummins urges that this program be funded at $13.5 million for 
fiscal year 2003.
 advanced combustion engine r&d--diesel engine technologies for light 
                             trucks (ohvt)
    Over fifty percent of the total vehicles sold in the United States 
are light trucks and sport utility vehicles (SUVs). Light trucks now 
consume about 2.2 million barrels of gasoline each day. Projections 
indicate that at even moderate dieselization rates in the light truck/
SUV sector, up to one-sixth of this fuel could be saved, translating to 
more than $5 billion in annual fuel cost savings and a 20 percent 
reduction in the 1.6 million barrels daily of imported oil. Clean 
diesel engines also produce 33 percent less CO<INF>2</INF> emissions 
per mile traveled in light duty trucks and SUVs, when compared to 
gasoline power.
    The Department of Energy (DOE), Office of Heavy Vehicle Technology 
has developed a light truck diesel engine program to provide clean 
efficient power plant alternatives for future light trucks and sport 
utility vehicles. The light truck diesel program provides the 
technology that would decrease the foreign oil dependence, while 
continuing to satisfy the current consumer demands for light truck 
vehicles. Funding of this program allows companies to develop 
technological solutions to meet the very demanding Tier II emission 
standards for light-duty vehicles while maintaining customer values of 
reliability, performance and durability that will assure market 
acceptance and deployment.
    Although this program is scheduled to expire after fiscal year 
2004, several critical enabling technologies have yet to be proven, 
including Tier II emissions with a robust engine/aftertreatment 
solution. It is vital that the level of effort be maintained at this 
critical point through the end of the program. The Administration 
request of $13.1M will not allow sufficient effort in this critical 
period. The appropriation for fiscal year 2002 was $16.8M, and Cummins 
urges that $17.1M be appropriated for this program for fiscal year 
2003.
  advanced combustion engine r&d--combustion and emission control r&d 
                              (ohvt/oaat)
    The Combustion and Emission Control R&D program underpins the DOE 
diesel engine programs through the development of advanced component 
and subsystem technologies for emission control and fuel economy. This 
work is a combination of fundamental research at universities and 
National Laboratories and cost-shared research with industrial 
partners. Cummins supports an increase in this funding from the request 
of $17.570M by $5.5M to bring the program total to $23.070M in fiscal 
year 2003. $20.876M was appropriated in fiscal year 2002. A funding 
split between OHVT and OAAT is recommended as follows: OHVT: $5.5M. 
This increase is necessary to fund increased CRADA activities at 
National Labs on improved engine-out emissions and improved fuel 
efficiency through development of advanced combustion systems, and 
increased funding for the Multi-year HDDE Emissions Control Program at 
the National Labs. OAAT: $17.570M. The increase is necessary to 
maintain the current level of effort, which has demonstrated a complete 
aftertreatment subsystem and control on a Dodge Ram vehicle validated 
by test results. The program is facing critical hurdles and milestones 
on durability, effective operation during transient and low 
temperatures, recovery from exposure to high sulfur fuels, and 
desulfurization for peak emissions efficiency and fuel economy.
    off-highway heavy vehicle engine r&d--efficiency and emissions 
                           improvement (ohvt)
    The diesel industry has invested billions of dollars in R&D and new 
products development for on road applications. Off-highway vehicles are 
another important area of investigation. Off-highway vehicles and 
machines operate under severe environmental conditions, including high 
dust, debris, wide range of altitudes, temperatures and vibration. Off-
road engines are applied to hundreds of different types of equipment in 
a wide range of industries, such as agriculture, construction and 
mining. The lack of ram air for cooling and limited space for 
accessories and engine components present a particular challenge.
    The program focus is to deliver Tier III emissions standards with 
minimum sacrifice of fuel economy and vehicle complexity. Since Tier 
III emissions standards come into force in 2005, increases in this new 
DOE initiative are necessary to demonstrate Tier III capabilities 
within critical timing hurdles and milestones, determine system 
robustness and performance, and begin to set the technical stage for 
the development of Tier IV-compliant emissions technology. Cummins 
recommends an increase in the request ($0.50M) of $2.0M to bring 
program total to $2.5M in fiscal year 2003.
 distributed generation technology development--advanced reciprocating 
                         engine systems (ares)
    Natural gas fueled reciprocating engine power plants are preferred 
for their reliability, low operating costs, and unattended operations. 
However they have not kept pace with the fuel efficiency of their 
diesel engine counterparts. As gas and electric power industry 
restructuring has created opportunities for distributed power 
generation, enhancements in fuel efficiency, reliability, operating 
costs and emissions are necessary to be competitive with other 
technologies in these applications. The purpose of this program is to 
develop advanced natural gas engine technologies and products that 
increase engine efficiency towards 50 percent and reduce NO<INF>X</INF> 
to 0.1 g/bhp-hr. These goals are very aggressive. But, when met, will 
yield consumer savings roughly 100 times greater than the program 
costs. By working in partnership with the DOE, the ARES industry 
partners will work towards removing technical barriers to energy 
efficiency and emissions enhancements. The benefits of government/
industry collaboration are key for advanced technology development and 
integration projects like this one that would be too high risk for 
industry alone. This partnership will help create attractive natural 
gas products for North American markets as well as for the growing 
power generation markets worldwide. Cummins recommends an appropriation 
of $16M, which would increase the request of $10M by $6M in fiscal year 
2003.
             solid state energy conversion alliance (seca)
    The goal of this cost-shared project is to develop a commercially 
viable 3-10 KW solid oxide fuel cell module for RV, commercial mobile, 
and telecommunications markets. This module will also form the building 
block for much larger stationary power systems. Fuel cells will play an 
important role in securing the nation's energy future by providing 
efficient, environmentally sound electrical energy. Fuel cell systems 
offer low-noise, highly reliable power with significantly lower fuel 
consumption and exhaust emissions compared to existing fossil fuel 
technologies. However, the high cost of fuel cell technologies prevents 
their broad public use. The goal of the SECA program is to create a 
solid oxide fuel cell that can be mass produced in modular form using 
automated manufacturing processes. Federal funding is needed to help 
support moving this technology from the laboratory to the point where a 
commercially viable development program can totally support it. This 
development of high volume production technologies for fuel cells will 
reduce the per-unit costs and allow fuel cells to be an affordable 
energy option for a variety of applications. This is a 10-year program 
that combines the efforts of the DOE national laboratories, private 
industry, universities, and other research organizations. Cummins 
supports an increase of $5M in the appropriation from the requested 
$22.5M to a total of $27.1M in fiscal year 2003. Note that there are 
currently four teams working with DOE to meet the goals of the program. 
If additional teams are added, funds beyond $27.5M would be necessary 
to maintain a level of effort sufficient to meet the program goals in 
the time frame specified.
materials technologies r&d--propulsion materials--automotive propulsion 
                               materials
    Over the past decade, we have seen an explosion of development in 
various nano-technologies. Cummins primary research in nano-
technologies will center on improving the utilization of nanofiber 
technology for air and liquid filtration to reduce emissions from 
mobile and stationary diesel engines. A major area of research work 
would be to overcome the technical challenges and develop a 
manufacturing method that can economically produce nano-fibers 
utilizing a number of materials, including ceramics which have the 
potential to withstand the high temperature environment of the exhaust 
system. Initial testing of nano-fiber in filters has shown that it can 
dramatically increase the particulate capture efficiency of filters 
with only minor changes in flow restrictions. Cummins urges that $1.5M 
be appropriated in fiscal year 2003 to begin a new cost-shared 3-5 year 
industry/government R&D program.
                   the 21st century truck partnership
    The 21st Century Truck Partnership is an initiative aimed at 
focusing and coordinating research and demonstration work for a future 
generation of trucks that would meet several important policy goals: 
fuel efficiency and emissions significantly improved, improved heavy 
vehicle safety, and affordability to assure wide application. Over the 
last 12 months, an unprecedented collaboration of four government 
agencies (DOE, DOD, EPA, and DOT) has developed with 16 industry 
partners, program teams that are attacking system problems on a broad 
front. These teams include: Anti-Idling, Materials, Clean Diesel, 
Hybrid Systems, and Military Requirements, with more under development. 
Cummins supports the 21st Century Truck Partnership, and urges careful 
consideration of the fiscal year 2003 priority programs put forward by 
the 21 Century Industry Working Group.
    Thank you for this opportunity to present our views on these 
programs which we believe are of great importance to the United States 
economy through viable transportation and power generation systems, to 
the public well-being through cleaner air, and to our national security 
by contributing to an energy-independent future.
                                 ______
                                 
  Prepared Statement of the National Association for State Community 
                           Services Programs
    The states represented by the National Association for State 
Community Services Programs (NASCSP) would like to thank the members of 
Interior Appropriations Subcommittee for their recent support in 
providing $230 million for the Weatherization Assistance Program (WAP) 
in 2002. The positive impact of last year's funding is already being 
felt throughout the WAP service delivery network. Here are some 
examples of our expectations for these funds:
  --Nearly 6,000 full time, high skilled, higher paying jobs will be 
        created within the service delivery network and in related 
        manufacturing and supplier business to supplement the 11,000 
        skilled staff already employed to deliver the WAP;
  --An additional 32,000 to 34,000 homes occupied by low-income 
        families will receive energy efficiency services, thereby 
        reducing the energy use and associated energy bills of nearly 
        105,000 families;
  --Greenhouse gases and environmental pollutants will be significantly 
        reduced due to the decrease in energy use by these newly 
        weatherized homes; and
  --Continuation of skills training by national, state, and local 
        organizations to help enhance the results of our service 
        delivery and to promote new technology transfer within the 
        network. Technology deployment (like the NEAT Audit, blower 
        door use, and furnace efficiency improvements) has resulted in 
        an increase in the energy savings achieved per household.
    As Executive Director of NASCSP, the member organization 
representing the states on issues related to the WAP and the Community 
Services Block Grant, I am pleased to submit testimony in support of 
the President's 2003 Budget request of $277.1 million for the 
Department of Energy's (DOE) WAP. These funds will be used to provide 
weatherization services to more than 123,000 eligible families 
throughout the country and will help the states to continue the 
excellent work started this year through the increase provided in 2002. 
Our organization also supports an increase in funding for the State 
Energy Programs, also funded by this Subcommittee.
    The WAP is the largest residential energy conservation program in 
the nation. Its purpose is to increase the energy efficiency of homes 
occupied by low-income persons, particularly the elderly, those with 
disabilities, and families with children, while ensuring their health 
and safety. The WAP exists in all fifty states, the District of 
Columbia, and on several Native American reservations and serves a 
vital function in helping low-income families control their energy 
consumption, thereby reducing their energy costs and increasing usable 
income to buy vital necessities like food, shelter, clothing, and 
health care. The WAP provides an energy audit for each home to identify 
the most cost-effective measures, which typically include adding 
insulation, reducing air infiltration, servicing the heating and 
cooling systems, and providing health and safety diagnostic services. 
For every dollar spent, the WAP returns $1.80 in energy savings over 
the life of the weatherized home, based on recent energy prices. Since 
the program's inception, more than 5 million homes have been 
weatherized using federal, state, utility and other monies.
    Low-income families pay a disproportionate share of their 
disposable income on energy, experiencing energy burdens equal to 14 to 
20 percent of their total income. In times of energy shortages and 
escalating energy costs, the energy burden for these families can reach 
25 to 40 percent or more of their available income as compared to the 3 
to 7 percent spent by their middle-income counterparts. There is no 
reason to believe that these families will receive relief from their 
energy burden unless programs like the WAP can be used to reduce their 
energy use and reduce their energy bills.
    The Oak Ridge National Laboratory report entitled State Level 
Evaluations of the Weatherization Program in 1990-1996: A Meta-
evaluation That Estimates National Savings found that the WAP 
significantly improved its energy savings results during those years. 
In 1996, the Program showed savings of 33.5 percent of gas used for 
space heating--up from 18.3 percent savings in 1989. The increase in 
savings was based in large part on the introduction and use of more 
sophisticated diagnostic tools and audits. Families receiving 
weatherization services can reduce their heating energy use by an 
average of 22 percent, making the cost for heating their homes more 
affordable. The introduction of ``base load'' and cooling measures 
during recent years will help reduce overall energy use beyond simple 
heating load and cost. The Oak Ridge Meta-Evaluation report also 
concluded that the WAP possessed a favorable cost-benefit ratio of 2.40 
to 1.0. Simply stated, the federal funds provided to support the 
Program have a 140 percent return on investment, or nearly $2.50 in 
benefits for every dollar invested. By reducing overall energy use, 
families can realize average savings of $250 or more each year, thereby 
increasing disposable income and helping families move closer to 
economic self-sufficiency.
    Our organization believes that the WAP has an even greater national 
impact and serves national interests by creating a technological and 
programmatic foundation for individual state programs. When the early 
evaluations of the 1990's noted that greater savings were achieved by 
the use of more sophisticated auditing techniques, states moved 
immediately to incorporate them. Other important advances included the 
increased use of blower-door directed air infiltration reduction, in-
depth furnace efficiency analysis, duct system diagnostics, and air 
quality improvement measures. Today, nearly 11,000 trained 
professionals employed by 970 local agencies use state of the art 
diagnostic equipment and techniques along with 26 years of practical 
experience to make homes more energy efficient, safer, and more 
affordable.
    The DOE supports state program efforts to ensure that the 
individuals involved in the implementation of the program at the local 
level have adequate training on the latest and best energy conservation 
practices. Many states have created competency standards for various 
disciplines in the field. DOE funds are used to support training 
centers in OH, IN, NC, CA, VA, PA, WV, SC, and KS to provide 
standardized skills training and technical support to local 
weatherization staff. In Florida, the Solar Energy Center provides 
training on warm climate weatherization measures. In the Seattle 
Region, a peer exchange occurs between states to help meet locally-
determined training needs. Regardless of which option is used for 
transferring technology and skills improvement, the results are the 
same--well-trained, highly skilled, competent people using the latest 
technologies are providing the most cost effective and energy efficient 
services in low-income households throughout the country.
    The WAP serves as a testing ground and provides a fertile field for 
the deployment of research conducted by national laboratories. The Oak 
Ridge National Laboratory developed the National Energy Audit (NEAT) 
for use by local agencies in assessing cost effectiveness of service 
delivery. Oak Ridge is currently investigating the cost effectiveness 
of including certain base load measures into the Program and continues 
to test other protocols and material installation techniques to help 
state and local agencies improve their field operations. The Florida 
Solar Energy Center and the state of Hawaii are working on the 
development of cost effective solar hot water heaters. The State of New 
York, working in concert with the local utility companies and the State 
Energy Research Development Authority, has implemented a refrigerator 
replacement program to test the impact of providing base-load services 
to conserve energy and reduce costs for eligible multi-family 
residents. One of the major effects of field deployment through the WAP 
is that the private sector eventually adopts these technologies. This 
pattern has been established with several technology advancements 
including blower door-directed air infiltration, duct system testing 
and sealing, furnace efficiency standards, and insulation and 
ventilation protocols. The acceptance of these standards and protocols 
by the private sector is enormously important as builders attempt to 
construct new properties or rehabilitate existing ones using a renewed 
energy efficiency philosophy.
    Of equal importance to the technological and programmatic 
foundation for individual states are the WAP contributions in achieving 
overall national energy policies and social strategies. Some examples 
of how the Program helps achieve these goals include:
  --Reducing harmful green house gas through reduced CO<INF>2</INF> 
        emissions by avoiding energy production. Each time a house is 
        weatherized, the reduction in energy needs reduces the 
        environmental impact associated with creating that energy--
        reduction of sulfur dioxide, carbon, and other pollutants 
        spilled into the atmosphere from the burning of fossil fuels 
        like oil, coal, kerosene, wood, gas, and propane.
  --Increasing jobs in communities throughout the country. For every $1 
        million invested in the WAP, more than 51 full time jobs are 
        created and supported in the states. Another 20 jobs are 
        created in companies who provide goods and services to the 
        Program. With the $277.1 million requested in the President's 
        budget, nearly 17,000 full-time, above minimum wage jobs are 
        created in local communities and in related service and 
        material industries. These workers will help weatherize the 
        homes of more than 123,000 low-income families during the 2003 
        program year.
  --Investing money into communities through job creation, local 
        purchasing of goods and services, and tax revenues. These 
        investments result in many secondary benefits. These residual 
        benefits, known as ``economic benefit multipliers,'' are 
        applied to local community investment to value the real worth 
        of money used locally. This multiplier is 3.5 to 4 times the 
        actual investment. This means that an investment of $277.1 
        million in the WAP could yield more than $1.1 billion in 
        economic benefits to local communities.
  --Reducing consumption of imported fuels by reducing residential 
        energy consumption. Our country currently imports nearly 60 
        percent of its oil from foreign countries. This figure is 
        higher than the import percentage in the 1970s, when the oil 
        embargo threatened our ability to operate as a nation. The 
        conservation efforts of the WAP network will help reduce our 
        country's dependency on foreign oil, thereby strengthening our 
        country's national security.
    The WAP is no longer characterized as a ``cold climate'' program, 
but one that acknowledges energy as a basic commodity that every 
American household needs. Since the 1990 reauthorization in the State 
Energy Efficiency Programs Improvement Act (Public Law 101-440), the 
rules promulgated by the DOE ensure greater flexibility in the Program, 
which has led to even greater energy efficiency and savings in the 
homes of low-income families. Based on this reauthorization language, 
the Program now includes services to reduce the cost of cooling homes. 
The language also called for a review of the factors in the funding 
formula, leading to the development of an entirely new funding 
distribution method. The new formula addresses issues of equity between 
states who use energy to heat their homes (north) and those states that 
use the greatest portion of energy to cool their homes (south). At this 
higher funding level, states in the South and Southwest will receive an 
ever-greater share of the national allocation to implement the Program 
in their states.
    NASCSP is concerned about the low level of funding proposed for the 
State Energy Programs (SEP) in 2003. SEP enjoys a broad constituency, 
supporting state energy efficiency programs that include energy 
generation, fuels diversity, energy use in economic development, and 
promoting more efficient uses of traditional energy resources. SEP's 
funding has fallen steadily from a recent high in 1995 of $53 million 
to its fiscal year 2002 level of $45 million. The President's fiscal 
year 2003 request is a further cut to $38.7 million. The state energy 
offices are the crucial centers for organizing energy emergency 
preparedness. They have been asked to do much new work in the sensitive 
area of infrastructure security. Taking into consideration this growing 
burden, the increasing difficulty of managing energy resources, 
together with increasing opportunities for states to implement cost-
saving, efficiency-enhancing measures, we are supporting their request 
of $68 million for fiscal year 2003. This level would restore the 
program's recent funding cuts and allow for inflationary impacts since 
1995.
    In summary, our organization strongly supports the President's 2003 
Budget request of $277.1 million for the Weatherization Assistance 
Program and respectfully requests this Committee to favorably consider 
funding the DOE State Energy Program at $68 million. By the evidence 
provided herein, this Committee can be assured that the increase in the 
number of low-income families served by the WAP will result in greater 
energy savings, more economic investments, increased leveraging of 
other funds, and less reliance on high cost energy like foreign oil--
outcomes that will benefit the nation.
                                 ______
                                 
                 Prepared Statement of Southern Company
    This statement of Southern Company is in support of a $62 million 
increase in the Coal and Power Systems Programs of the U.S. Department 
of Energy (DOE) Fossil Energy R&D program for fiscal year 2003 
recommended by the Coal Utilization Research Council (CURC \1\). 
Details of the specific technology recommendations are included in 
CURC's testimony presented before this committee.
---------------------------------------------------------------------------
    \1\ CURC has over 35 members interested in coal-based energy 
systems including major universities, coal companies, railroads, 
electric generators, and technology suppliers. CURC members also 
include EPRI, the United Mine Workers of America, the Edison Electric 
Institute, the National Mining Association, and the National Rural 
Electric Cooperative Association.
---------------------------------------------------------------------------
    Southern Company, through its operating companies, supports and 
conducts research to use the Nation's abundant coal resources to 
produce low-cost power and minimize environmental effects. As a result, 
Southern Company has participated extensively in cost-shared projects 
in both DOE's Clean Coal Technology (CCT) and Fossil Energy Research 
and Development programs.
    In addition to the request for an overall increase in funding for 
coal R&D, I would also like to thank this subcommittee for its past 
support for the Power Systems Development Facility (PSDF) and to 
request continued support for the PSDF as part of DOE Fossil Energy 
Research budget.
                 importance of coal to the u.s. economy
    The 1990's were a decade of great prosperity. One of the major 
contributors to this prosperity was low and stable energy prices. 
However, recent events on U.S. soil and the ongoing tensions in the 
Middle East reinforce concerns over America's large dependence on 
foreign sources of energy. Manipulation of the oil market to the 
benefit of foreign interests recently resulted in the largest increase 
in the price of gasoline since records were kept. In the short-term, 
such increases will weaken the current economic recovery. In the long-
term, increasing energy prices will have a profound negative effect on 
the U.S. economy, producing higher inflation, increased unemployment, 
and slower growth. Potentially, the 2000's may be more like the 
economically troubled 1970's and 1980's than the prosperous 1990's.
    Until 1987 federal law prohibited electric utilities from burning 
natural gas to produce electricity. This law arose from shortages of 
natural gas and its importance to commercial and domestic heating. Over 
the past 10 years natural gas-fired power plants have captured over 90 
percent of the new electric generation market. This rapid expansion of 
usage, combined with higher oil prices and increased activity in the 
general economy, will result in upward pressure on natural gas prices 
to all consumers--domestic, commercial, and commercial. In the past 
natural gas produced only a small fraction of U.S. electricity and 
changes in its price had little effect on the price of electricity, but 
today there is an increasing connection between the price of these two 
vitally important commodities. As natural gas prices increase so too 
will the price of electricity, robbing the Nation of the benefit of 
low-cost energy. Cost-effective, environmentally acceptable coal-based 
electricity generation will preserve low-cost energy and bolster U.S. 
competitiveness in international markets.
    Coal's most valuable characteristics are its domestic abundance, 
its ready availability, and its low-cost as a fuel source for 
affordable electricity. Events outside U.S. borders need not affect 
coal's use or cost. However, coal must also be clean and efficient. 
Over the past 2 years more than 20,000 MW of new coal-based electricity 
generation has been announced in response to electricity shortages in 
the West and concerns about the near-term volatility and long-term 
price levels of natural gas. With few exceptions these plants are 
planned with conventional coal combustion technology using advanced 
emission control systems. Few of these plants will use advanced clean 
coal technologies due to the technical and financial risks associated 
with current versions of these technologies. Enormous strides have been 
made in developing clean coal technology, but more can and must be done 
reduce cost and increase reliability.
    The value of advanced coal technology to the U.S. economy is 
enormous. Southern Company estimates that past DOE coal-based research 
related to large-scale power generation will provide over $100 billion 
in benefits to the U.S. economy through 2020 at a cost to the Federal 
budget of less than $4 billion--a benefit cost ratio of 25 to 1. The 
Electric Power Research Institute (EPRI) recently used the modern 
financial technique called ``Real Options'' to estimate the value of 
advanced coal research and development (R&D).\2\ The major conclusion 
is that the value to U. S. consumers of further coal R&D for the period 
2007-2050 is at least $360 billion and could reach $1.38 trillion.
---------------------------------------------------------------------------
    \2\ The technique of real options analysis is being used 
increasingly by businesses to assess investments in physical assets, 
particularly in fluctuating markets. Leaders include Chevron, Hewlett 
Packard (Business Week, June 7, 1999), Shell and IBM. Also discussed 
in: ``Real Options: A better way to make decisions about power 
plants'', Global Energy Business, March/April 2001.
---------------------------------------------------------------------------
    In summary CURC's testimony, as presented in more detail before 
this Committee, describes a Technology Roadmap that is similar to DOE's 
Vision 21. The Roadmap identifies the technical, economic, and 
environmental performance that advanced clean coal technologies can 
achieve over the next 20 years. CURC believes that over this time 
period coal-fired power generation efficiency can be increased to over 
50 percent (compared to 40 percent today) while producing de minimis 
emissions and developing cost-effective technology for carbon dioxide 
management. The Roadmap also identifies the R&D cost to achieve this 
performance. From now until 2010 $6.5 billion is needed and over the 
following decade approximately $3.5 billion is needed--a total of 
around $10 billion. About half of these funds will come from industry 
and half from the Federal government. This is a $10 billion investment 
over the next 20 years that can be reasonably projected to return at 
least $300 million in benefits to U.S. consumers by 2050. But, for 
these benefits to be realized the critically important R&D outlined in 
the CURC Technology Roadmap must to be conducted.
  power systems development facility--an example of advanced coal r&d 
                               that works
    The Power Systems Development Facility (PSDF) near Wilsonville, 
Alabama is a key national asset for ensuring continued, cost-effective, 
environmentally acceptable coal use. It is a joint effort of DOE's 
National Energy Technology Laboratory (NETL) and several of the world's 
leading energy technology and supply companies. Current participants 
include Southern Company, EPRI, Kellogg Brown and Root, Siemens 
Westinghouse Power Corporation, and Peabody Energy. Foster Wheeler 
Corporation is a major past participant and Air Products and Chemicals, 
Praxair, Inc., and U.S. Filter/Shumacher among others have proposed 
significant participation in the future. In addition to the Wilsonville 
plant site major work is planned, or components for the PSDF are being 
developed at the following locations: Grand Forks, ND (sub-scale 
gasifier testing), Houston, TX (gasifier development); Indianapolis, IN 
(combustion turbine development); Orlando, FL (gas turbine low-NOx 
burner), Pittsburgh, PA (filter fabrication), Allentown, PA and 
Tonawanda, NY (advanced air separation technology); and Deland, FL 
(filter fabrication).
    DOE conceived the PSDF as the world's premier advanced coal power 
generation R&D facility. Work there to date has fulfilled this 
expectation. DOE's vision is that: ``The Wilsonville PSDF will serve as 
the proving ground for many new Advanced Power Systems and Vision 21 
Technologies. . . .  The Wilsonville Power Systems Development Facility 
gives U.S. industry the world's most cost-effective flexible test 
center for testing tomorrow's coal-based power-generating equipment. . 
. .  Capable of operating at pilot to near-demonstration scales, the 
facility is large enough to give industry real-life data, yet small 
enough to be cost-effective and adaptable to a variety of industry 
needs.'' A key feature of the PSDF is the ability to test new systems 
at an integrated, semi-commercial scale. Integrated operation allows 
the effects of system interactions that are typically missed in 
unintegrated pilot-scale testing to be understood. The semi-commercial 
scale allows the maintenance, safety, and reliability issues of a 
technology to be investigated at a cost that is a factor of ten below 
the cost of testing at commercial scale.
    The PSDF staff works continuously with technology developers to 
transfer the lessons learned there. As an example, testing at the PSDF 
has progressed to where a new, more efficient coal gasifier is ready 
for commercial demonstration at the 300 MW scale. In addition, work at 
the PSDF was instrumental in advancing the design of the Foster Wheeler 
(FW) Advanced Circulating Pressurized Combustion concept. As a result, 
FW changed its approach to advanced power generation and a $400 million 
commercial demonstration plant was reconfigured to avoid significant 
problems.
    While the first phase of PSDF developed coal technologies are ready 
for commercialization, substantial further improvements are possible at 
this National test center. NETL and industry participants at the PSDF 
have developed a 5-year R&D plan for the facility. The plan's 
objectives are to support: (1) DOE's Vision 21 Program, and (2) 
commercialization of the advanced gasifier and other technologies 
currently under development at the PSDF.
    Current major subsystems at the PSDF include:
  --An air-blown, circulating bed coal gasifier called a transport 
        reactor
  --Two advanced particulate removal devices to clean the product gases
  --Coal and reagent feed subsystems
  --Ash and gas disposal subsystems
  --A slipstream Direct Sulfur Recovery Process
  --Balance-of-plant subsystems for electricity, water, propane, and 
        natural gas supply; waste water treatment; total electronic 
        data collection, management, and dissemination; heat rejection 
        and cooling; and maintenance and materials management 
        facilities
  --In addition to this physical infrastructure there is a highly 
        experienced staff that has a demonstrated ability to solve 
        complex technical problems and rapidly move new technologies to 
        commercial application.
    The 5-year plan will build on this platform and recommends the 
following modifications and subsystem additions:
  --Modify the current air-blown gasifier to also operate oxygen-blown 
        (Oxygen-blown operation is necessary to support Vision 21 
        objectives, including carbon capture and sequestration.)
  --Add and test advanced oxygen separation technology integrated with 
        the gasifier (This technology is projected to reduce the cost 
        of oxygen by one-third to one-half.)
  --Add new, improved coal feed, char cooling, and char combustion 
        subsystems
  --Test an entirely new, revolutionary syngas cooling concept
  --Connect the gasifier to an existing 3.8 MW combustion turbine and a 
        new syngas burner to evaluate the new burner and more fully 
        evaluate system integration
  --Install new improved internals in one of the advanced particulate 
        collection devices
  --Add new syngas cleanup subsystems for hydrogen sulfide and 
        hydrochloric acid removal (to parts per billion levels) and 
        mercury removal (to parts per trillion levels)
  --Evaluate the effect of these high levels of cleanup on a fuel cell 
        stack to determine contaminant removal requirements for coal-
        based fuel cells.
  --Add advanced carbon dioxide and hydrogen separation technology
  --Install and evaluate several advanced instrumentation and gas 
        analysis systems necessary for reliable, safe operation of coal 
        gasification and fuel cell technology
    Work on the PSDF began in 1991. The initial 5 years were spent on 
permitting, design, and completing most of the construction. The last 5 
years have been spent advancing development of the technologies 
installed there. Annual federal funding at the PSDF during the last 5 
years averaged $24.6 million with a peak year of $40 million associated 
with construction completion. The first year of the 5-year plan is 
fiscal year 2002 and this committee provided $24 million. Because of 
new construction associated with the last 4 years of the R&D plan, $34 
million is needed for the PSDF in DOE's fiscal year 2003 budget and 
similar amounts are needed thorough fiscal year 2006.
                                summary
    The United States has always been a leader in energy research. 
Current DOE fossil energy research and development programs for coal, 
if adequately funded, will assure that a wide range of electric 
generation technology options continue to be available for future 
needs. The choices that confront Congress when it examines the near-
term effects of research programs on the Federal budget are difficult. 
However, significantly increased support for advanced coal-based energy 
research is essential to the long-term environmental and economic well 
being of the United States. Prior DOE clean coal research has already 
provided the basis for $100 billion in consumer benefits at a cost of 
less than $4 billion. Funding the CURC Technology Roadmap beginning 
with this year's request of $62 million above the Administration's 
budget request for DOE coal R&D can lead to additional consumer 
benefits of between $360 billion and $1.38 trillion.
    One of the key national assets for achieving these benefits is the 
Wilsonville PSDF. In order to match the research objectives that DOE's 
technical staff and the PSDF's industrial participants agree can and 
should be done there, the fiscal year 2003 funding for the PSDF in 
DOE's Coal and Power Systems budget needs to increase to $34 million.
                                 ______
                                 
  Prepared Statement of the ASME Council on Engineering and American 
                    Society of Mechanical Engineers
    Mr. Chairman and Members of the Subcommittee: The Energy Committee 
of the Council on Engineering (COE Energy Committee), American Society 
of Mechanical Engineers (ASME International)), is pleased to provide 
this testimony on the President's fiscal year 2003 budget for the 
Department of Energy (DOE). Our testimony is directed to the 
administration's budget for the Department of Energy's R&D programs in 
the areas of fossil energy and energy efficiency.
           introduction to asme and the coe energy committee
    The 125,000-member ASME is a nonprofit, worldwide educational and 
technical Society. It conducts one of the world's largest technical 
publishing operations, holds more than 30 technical conferences and 200 
professional development courses each year, and sets a significant 
number of industrial and manufacturing standards. The COE Energy 
Committee comprises 27 members from 17 Divisions of ASME, representing 
approximately 40,000 members. The Committee tracks energy legislation 
and appropriations, and provides testimony to Congress on issues of 
importance to ASME members. Last year, the COE Energy Committee 
developed a document titled ``U.S. Energy Research and Development 
Needs in the New Millennium: Securing a Sustainable Energy Future,'' 
which we provided to the members of Congress, including members of this 
Subcommittee.
                               background
    Energy has consistently emerged as one of the highest areas of 
interest to the ASME in annual surveys of our membership. In addition 
to our interests in improving technologies for energy extraction, 
generation, and use, we are also concerned about protecting our 
environment and our energy and economic security. We are pleased that 
the Department of Energy also shares these concerns.
    For power generation, the United States currently meets more than 
half its electricity needs from coal. Because its supply is plentiful, 
coal will likely dominate the power generation market for the 
foreseeable future. Natural gas, while currently an attractive fuel for 
power production, has the potential to become more scarce and more 
expensive as its expanding use causes demand to outstrip supply in the 
mid-to-long term. Petroleum-based fuels will continue to dominate the 
transportation sector into the future because of our sunken investments 
in engine technology and fuel distribution infrastructure, and the 
interdependence of motor vehicles and the American lifestyle.
    ASME has long advocated a diverse mix of resources to meet the 
nation's energy needs, including fossil fuels; nuclear; and hydropower, 
solar, and other renewable energy resources. We need a diverse, low 
cost, secure, energy supply to maintain a competitive U.S. economy. It 
is crucial that we also use our energy resources wisely and 
effectively, including improving efficiency of systems and components 
and increasing energy conservation.
    The COE Energy Committee fully supports administration and 
Congressional efforts to develop a comprehensive energy policy that 
will meet our current and future energy needs. We also believe that 
success in implementing a forward-looking energy policy will require 
enhanced, sustained levels of funding for R&D as well as government 
policies that encourage deployment and commercialization.
    Our testimony is based on an analysis of the administration's 
budget request for fiscal year 2003 for the Department of Energy's R&D 
programs in fossil energy and energy efficiency. After reviewing the 
administration's budget proposal, we have the following reactions:
  --To successfully address energy issues, the Department must take a 
        leadership role in committing to adequately fund sustained 
        programs that address both our short-term needs and the 
        development of next generation technologies.
  --The administration's recommendations for the fiscal year 2003 
        budget do not adequately fund the programs that will support 
        its goals of providing a clean, affordable, abundant, and 
        secure energy supply.
                             fossil energy
    The Department's R&D program in Fossil Energy [FE] focuses on coal, 
natural gas, and oil. The fiscal year 2003 budget request for FE is $93 
million (16 percent) lower than the fiscal year 2002 enacted budget. 
The administration recommended major reductions in the Vision 21 
Program to develop low-emission, high-efficiency power plants for 2010 
and in national laboratory-industry partnerships in oil and natural gas 
research. The administration's National Energy Policy (NEP) focuses 
primarily on addressing regulatory and policy issues, e.g., providing 
access to public lands, and offshore development of fossil resources. 
However, it also targets R&D in the form of the President's Coal 
Research Initiative (PCRI), which consolidates much of the coal-related 
R&D across FE. Last year, the administration proposed a coal research 
program at a level of $2 billion over 10 years (nominally $200 million 
per year). The administration's view appears to be that these funds 
would cover both the basic R&D program and a vigorous demonstration 
program sufficient to fund highly complex, capital-intensive projects 
(the Clean Coal Power Initiative). The COE Energy Committee believes 
that accomplishing the PCRI objectives would require funding of at 
least $2 billion to support a 10-year demonstration program, in 
addition to continuing the annual support for the basic R&D program. 
Another area of R&D identified in the NEP but under-funded in the 
budget proposal is natural gas and oil exploration technologies.
Coal, Fuels, and Power Programs
    Coal will play an important role in providing our nation's electric 
power for both the near and long term. Therefore, the Energy Committee 
recommends that DOE support a robust dual-focus coal R&D program: (1) 
to enable our current power plant fleet to meet present emissions and 
performance goals, and, (2) to develop the new coal-based systems of 
the future. Research to reduce emissions of SO<INF>X</INF>, 
NO<INF>X</INF> and mercury, as targeted in the Clear Skies Initiative 
announced by the administration, and research to reduce carbon 
emissions, are central elements of the coal and power program.
    We support the Clean Coal Power Initiative in the PCRI and urge 
Congress and the administration to commit the long-term funding 
necessary for vendors to plan effectively for demonstrating large-scale 
systems for commercial deployment. The COE Energy Committee supports 
the funding level proposed for this initiative and urges consideration 
of sustained funding in future budgets to support a robust 
demonstration program.
    The COE Energy Committee recognizes that R&D tradeoffs have to be 
made. However, we also note that essential research programs have been 
substantially scaled back in the present budget request. We recommend 
increased emphasis on coal gasification systems research to produce 
gaseous fuels such as hydrogen for fuel cells and technologies for 
firing syngas in turbines now designed for natural gas. Important 
research areas include membranes, hot gas cleanup, advanced 
gasification technologies, and char control. The COE Energy Committee 
recommends that an additional $16 million be added to the budget for 
the Central Systems program, which includes projects to improve 
existing plants and to further develop the Vision 21 enabling 
technologies. This funding will return the programs to their 
approximate fiscal year 2002 levels.
    We are disappointed to note that the administration has recommended 
only $5 million for its overall liquid fuels program. We particularly 
recommend increased emphasis on the production of liquid fuels and 
chemicals from coal as a means to reduce petroleum imports, their 
attendant balance of payment deficits, and our dependence on uncertain 
supplies to maintain our national security and strong economy. We 
recommend that an additional $32 million be added to the fuels program 
in the FE budget to meet existing mortgages and to initiate a vigorous 
coal liquids and chemicals program.
    Fuel cells, coupled with advanced turbines, and similar combined 
cycle systems offer the benefits of increased efficiency and lower 
carbon emissions. In addition to improved cycle efficiency, research is 
needed to develop carbon capture and sequestration technologies. 
Emphasis should be placed on using coal in these advanced systems. We 
support the proposed increase in the carbon sequestration program 
provided that DOE can justify this increase based on viable projects 
that advance the technology. We recommend that an additional $10 
million be added to the distributed generation program to support fuel 
cell development and advanced research in fuel cell/hybrid systems.
Oil and Gas Programs
    We support the administration's goals of increasing our domestic 
supplies of oil and natural gas. The most significant new oil and 
natural gas deposits are likely to be found either far offshore in 
deepwater or in land-based remote locations which require new 
technologies to produce oil and gas reserves economically and in an 
environmentally sound manner. The cost and economic risk required for 
operators, equipment suppliers, and service companies to design and 
implement systems to develop deepwater fields is more than what any one 
company can reasonably provide for each field.
    In the Gulf of Mexico, companies are now drilling at water depths 
greater than 9,000 feet and producing oil and gas from greater than 
5,500 feet. As they move farther offshore, new technologies must be 
developed in areas such as lightweight composite materials, deepwater 
drilling, long distance production, and subsea processing systems. The 
National Energy Policy calls for R&D for exploration and production and 
for the development of gas hydrates. We recommend increased investments 
in analysis and modeling techniques, which are currently inadequate for 
what will be required to develop safe and effective future oil and gas 
fields in ultradeep water and remote areas. The COE Energy Committee 
supports reinstating fiscal year 2002 funding levels for exploration 
and production and gas hydrates, a net increase of $23 million over the 
administration's request.
    Federal funding to protect the environment without placing undue 
burden on the operators would be of great benefit to the recovery of 
oil and gas reserves in the United States. Such environmental efforts 
as abandoned field cleanup, hydraulic fracturing effects on drinking 
water resources, deepwater oil spill cleanup, storage vessel 
offloading, and collision prevention are some of the potential areas 
requiring further study. We recommend that an additional $2 million be 
added to the administration's request for the Effective Environmental 
Protection subelement of the Oil and Natural Gas Technologies program.
                           energy efficiency
    Funding for the Office of Energy Efficiency and Renewable Energy 
(EERE) supports R&D to develop technologies to improve the efficiency 
with which we use energy and also bioenergy research. The Department's 
weatherization program, which improves the energy efficiency of the 
homes of low-income families, thereby reducing their energy bills, is 
increased by $47 million (20 percent) in the administration's request. 
Weatherization is an important program, but it is not R&D. When the 
proposed increase is considered, R&D funds for energy efficiency, a 
priority in the NEP, would be reduced by $18.6 million. We recommend 
that the Weatherization Program be transferred to another 
Appropriations Subcommittee in future years.
Integrated Biomass
    The COE Energy Committee supports the combining of the biopower and 
biofuels programs into a single integrated program. The proposed 
funding level, which is reduced slightly over fiscal year 2002, is 
acceptable. However, the distribution of funding has sacrificed 
biopower systems development at the expense of enhancing ethanol 
production. The COE Energy Committee recommends moving $5M from 
enhanced ethanol production back into biopower systems development.
Transportation Technologies
    A new program in the EERE budget is the FreedomCAR, which is R&D to 
develop a fuel cell vehicle. FreedomCar is funded through crosscutting 
areas and by funds previously allocated for the Partnership for a New 
Generation of Vehicles. A 2-year study, conducted under the auspices of 
ASME, showed that hydrogen fuel cells are very efficient--once hydrogen 
is available. However, the inherent inefficiency in hydrogen production 
from fossil fuels results in a well-to-wheel efficiency of only 10 
percent compared with 30 percent for current hybrid (engine/battery) 
vehicles. This reduced efficiency carries with it an equivalent 
increase in the production of greenhouse gases unless hydrogen is 
produced at large-scale central plants that employ carbon sequestration 
technologies, at nuclear power plants, or at smaller installations that 
employ renewable technologies. While the COE Energy Committee supports 
the long-term development of a wide range of transportation 
technologies, we believe that the FreedomCar should not be funded for 
the economic and environmental reasons delineated above and that the 
$150M funding be re-allocated to other R&D programs.
                               conclusion
    Thank you for the opportunity to offer testimony regarding the 
fossil energy and energy efficiency budgets proposed for the Department 
of Energy. The COE Energy Committee believes that energy is one of the 
most important issues that will face our nation in the 21st Century. As 
the debate among the administration, Congress, and the public over a 
National Energy Policy evolves, we offer our assistance to foster a 
dialogue on the content, structure, and implementation of a plan. 
ASME's COE Energy Committee will be pleased to respond to requests for 
additional information or perspectives on other aspects of our nation's 
energy programs.
    This statement represents the views of the Energy Committee the 
ASME Council on Engineering, and is not necessarily a position of ASME 
as a whole.
                                 ______
                                 
                  Prepared Statement of Praxair, Inc.
    This testimony is in support of the DOE programs on Integrated 
Gasification Combined Cycle (about $40 million), Transportation Fuels 
and Chemicals (Clean Fuels Program) ($24 million) both in the Office of 
Fossil Energy and the Office of Industrial Technology in EERE ($138 
million).
    Praxair, Inc. is a producer of industrial gases, specialty coatings 
and powders, and is also a very large energy user in a very competitive 
global market. Most of our major competitors are foreign-based. So, to 
succeed in the industrial gas business it is crucial that we have low 
cost, available energy to produce our products. In turn, our customers, 
notably the steel, chemical, electronics, food industries, among 
others, all depend on low cost gases (oxygen, nitrogen, argon, carbon 
dioxide, and specialty gases). While we continually strive to lower the 
capital and operating cost for producing our products, electricity and/
or fuel is a key cost (often 50 percent or more of our operating costs) 
that is resistant to our cost-reduction efforts.
    In steel, oxygen is used in the Basic Oxygen Furnace to convert 
iron to steel and argon and oxygen are used to make stainless steel. 
Chemical manufacturers use oxygen to make ethylene oxide (used in 
polyesters and in antifreeze). In electronics, semiconductor 
manufacturers require nitrogen and specialty gases to manufacture and 
cleanse their integrated circuits (chips).
    As past experience has demonstrated, industrial gas companies, by 
partnering with the Department of Energy, can achieve significant 
advances--more quickly--in the manufacture of industrial gases by 
developing new air separation technologies--technologies that may not 
have been implemented but for the public/private partnership. An 
example is the development of VPSA oxygen production for use in oxy-
fuel combustion in the glass industry, which was funded by OIT. And use 
of these gases, particularly oxygen, in improving the production of 
energy, for example in gasification, will benefit both industrial gas 
manufacture as well as other industries.
                 integrated gasification combined cycle
    Gasification enables the use of solid fuels in applications where 
liquid or gaseous fuels are now used. It will also enable a cleaner use 
of fuels. By reducing the cost of oxygen needed for this process and 
improving the efficiency of the process (to 45 percent by 2010 and 
higher thereafter) the cost effectiveness will be improved and it will 
be applied more broadly. Praxair and the entire economy will benefit by 
the reduced cost of electricity enabled by this technology.
                       ultra clean fuels program
    The advantages of the Ultra Clean Fuels program are many:
  --It will help meet the deadlines set in EPA's Tier 2 Diesel Fuel 
        Sulfur Regulations.
  --It will promote development of domestic sources of coal bed methane 
        and natural gas to make a clean burning diesel.
  --Clean liquid fuels developed under this program can use the 
        country's existing transportation and storage infrastructure to 
        deliver the fuel to the customer.
  --There is a significant demand for ``clean diesel'' from urban 
        transit authorities and delivery vehicles that employ buses and 
        trucks in heavily populated areas.
                    office of industrial technology
    The DOE Industries of the Future program is another important 
program. By developing and commercializing processes with increased 
energy efficiency for the chemicals, glass, steel and other industries, 
energy consumption will be reduced and U.S. industry will be more 
competitive. Studies of the energy savings from these programs show 
their value as indicated in the National Research Council study. The 
use of oxy-fuel combustion in glass is one example of a successful IOF 
program, which reduces energy consumption by 25 percent, NOx emissions 
by 85 percent and particulate emissions by 25 percent. Over 30 percent 
of the glass industry is now using this new technology.
                                 ______
                                 
    Prepared Statement of the Siemens Westinghouse Power Corporation
                       summary of recommendations
    The Siemens Westinghouse Power Corporation believes that energy 
technology R&D is essential to our nation's future and respectfully 
offers the following funding level recommendations in the fiscal year 
2003 DOE Fossil Energy R&D budget for Interior Appropriations:

                        [In millions of dollars]

High Efficiency Engines and Turbines (HEET).......................    40
Vision 21 Hybrids-Distributed Generation..........................    15
Innovative Systems Concepts-Distributed Generation................    50
Sequestration R&D.................................................    54

    The United States has placed a high priority on developing cleaner 
more efficient electric power generation technologies.
    Almost all of the new electricity generation currently under 
construction is natural gas-based, as a result of environmental, siting 
and efficiency demands, and, because prior federal and industry 
investment has demonstrated that the technology is able to meet these 
demands.
    The Administration's 2003 budget proposal correctly recognizes the 
need for continued investments in fossil fuels R&D in order to meet the 
increasingly demanding environmental , siting and efficiency demands 
for new generation technologies.
    New proposals now being debated in the Congress will significantly 
tighten environmental standards and today's technologies will not be 
able to meet these standards without additional R&D investments.
    Clean Coal Technology program is an important component in a 
National Energy Strategy that recognizes the need to use more coal, our 
most abundant, dependable and least expensive energy source. As we move 
to improve emergent coal technologies like integrated gas combined 
cycle (IGCC), both advanced gas turbines and fuel cells will play 
increasingly important roles in the United States generation supply 
mix.
    The full potential of these cleaner burning and more efficient 
coal-based generation technologies cannot be achieved without continued 
investments in advanced gas turbine and fuel cell technologies which 
will use synthetic fuel gas derived from coal.
    The Administration has correctly recognized the need for continued 
R&D funding support for the cost-shared, industry-DOE gas turbine 
program which has been refocused and renamed the High Efficiency 
Engines and Turbines (HEET) program. The Administration has also 
continued its R&D investment in the fuel cell program. However, both 
program commitments fall short of the funding needed for these two key 
technologies if we are to achieve the programs' commercialization 
objective.
    Therefore, under the Fuel and Power Systems/Turbines budget line, 
we recommend a 2003 funding level for DOE's refocused HEET program of 
$40 million. While this level is significantly above the 
Administration's recommendation of $14 million, it is nevertheless 
consistent with DOE-Stakeholder estimates that the program should be 
funded at the $240 million level over 6 years if we are to achieve the 
cost reductions necessary for widespread market penetration of high-
efficiency coal plants.
    Under Distributed Generation we recommend a funding level of $15 
million for the Vision 21 Hybrids budget line (of which $11.5 million 
is for continued development of the existing tubular SOFC program), up 
$3.5 million from the Administration's request of $11.5 million. Past 
funding shortfalls have resulted in the fuel cell R&D program falling 
behind its commitments and the $15 million funding level will permit 
the DOE to meet its full range of contract obligations and not cause 
further delays.
    As we begin to commercialize our basic solid oxide fuel cell 
technology, a multi-year program is needed to extend the benefits of 
FC/GT hybrids in order to reach the 60-70 percent efficiency horizon. 
This program should be part of the HEET program and we therefore 
recommend that $10 million be allocated for the development of the 
tubular SOFC Fuel Cell Gas Turbine Hybrid in the 2003 appropriation.
    Under the Distributed Generation-Innovative Systems Concepts budget 
line, we also recommend that funding be increased to $50 million for 
fiscal year 2003. The Solid State Energy Conversion Alliance or SECA, 
which this budget line supports, holds great promise for delivering an 
advanced low cost solid oxide technology that will make possible 
smaller and more efficient fuel cells for the stationary and 
transportation markets.
                              gas turbines
    During the past year the United States has experienced major energy 
supply problems, first in California, then a crisis in public 
confidence in the stability and viability of the energy industry, and 
finally economic hardship as a result of the economic recession. In 
response to these factors the House passed a comprehensive energy bill 
last year and the Senate is currently debating its own energy bill. 
While there will be healthy debate about the appropriate balance in any 
national energy legislation, several factors are clear already. 
According to Energy Secretary Abraham, demand for natural gas is 
expected to rise by 62 percent over the next 20 years. The United 
States will require substantial new energy generation over the coming 
decades--Energy Secretary Abraham also said recently that electricity 
demand is expected to grow 45 percent--and this new generation will 
have to be substantially cleaner and more efficient than is the current 
fleet.
    The Department of Energy, in cooperation with industry, has funded 
research and development through its Advanced Turbine Program that has 
made the latest generation of gas turbines, in a combined cycle 
configuration, almost twice as efficient as the existing fleet of power 
plants and has done so with significantly lower emissions. This 
generation technology can also be deployed with investment costs that 
are also among the least expensive currently available.
    The United States is in the process of committing itself to major 
improvements in both the efficiency and the emission levels of coal 
powered power plants under the Administration's Clean Coal Power 
Initiative. Over the next 20 years this program should result in 
significant improvements in emission and efficiency levels for existing 
coal burning generation facilities while at the same time moving us to 
a new generation of technologies like Integrated Gasification Combined 
Cycles (IGCC). IGCC holds the potential of using the United States' 
vast reserves of cheap and abundant coal in ways that are substantially 
cleaner and which emit lower amounts of CO<INF>2</INF>. (We might note 
that the DOE ATS program has estimated that it will result in the 
avoidance of an estimated 30 million tons of CO<INF>2</INF> as a result 
of improvements in the operating efficiency of the advanced gas 
turbine.) Unfortunately, we do not know if today's current generation 
of gas turbines will be able to efficiently use the much lower BTU 
synthetic gas produced in the IGCC technology. Nor do we have the 
materials available that will permit these machines to operate at the 
much higher operating temperatures that will be required. Finally, the 
current generation of gas turbines does not have the integrated 
diagnostic equipment, such as on board sensors, to permit the higher 
levels of reliability needed in integrated systems.
    While the Administration has recognized the important role of the 
gas turbine in the future of U.S. coal markets by including funding for 
the HEET program in its 2003 DOE R&D budget proposal, the level is 
significantly below the levels needed to address the critical materials 
and combustion technology questions which remain. To address these 
questions and to lay the groundwork now for even cleaner and more 
efficient gas turbines that operate on natural gas or syngas from coal, 
we recommend that the funding level be increased to $40 million. Our 
recommendation reflects the technology needs identified by DOE and is 
consistent with the view that the program is an integral component of 
the National Energy Policy and the Clean Coal Power Initiative and will 
require a $240 million commitment over 6 years. This increased level of 
funding will also permit adequate support of the Cooperative University 
Gas Turbine Technology Research Program which has been very helpful in 
encouraging pre-competitive basic science program participation by the 
university community.
    A prototype tubular solid oxide fuel cell gas microturbine hybrid 
system (FC/GT hybrid) now operating at 53 percent electrical efficiency 
in California has proven the concept of FC/GT hybrids. But the 
technology is still in its infancy and a range of small GT's suitable 
for hybrids, needs to be developed to improve performance and reduce 
system costs. What is needed now is a multi-year program to extend the 
benefits of FC/GT hybrids in order to reach the 60-70 percent 
efficiency range. In 2003 such a program would require a $10 million 
commitment under the HEET program.
    Without the research and development investments recommended above, 
the long term health of the U.S. coal industry may remain in question. 
With the successful resolution of these and similar technology 
questions, the United States should be able to more advantageously 
utilize its huge coal asset base while at the same time increasing its 
national energy security and providing consumers with a low cost source 
of energy.
                               fuel cells
    Fuel cell technology has advanced rapidly in recent years and by 
now almost everyone has recognized the technology's enormous 
environmental, reliability and efficiency advantages. In particular, 
fuel cell stationary power applications are now a technological reality 
although their high costs currently limit their application to niche 
markets where the high costs can be justified. In Secretary Abraham's 
March 7, 2002 testimony before the Senate Subcommittee on Interior and 
Related Agencies, the Secretary noted the success of our solid oxide 
fuel cell technology and remarked that, ``research attention will turn 
increasingly to the next two major challenges confronting fuel cells, 
significant cost reductions and development of fuel cell-turbine 
hybrids.''
    The Siemens Westinghouse Pittsburgh-based tubular solid oxide fuel 
cell (SOFC) technology is at a critical pre-commercialization stage 
where continued prototype demonstrations are essential to product 
development and achieving the cost reductions which Secretary Abraham 
has emphasized. The current focus on cost reduction efforts enables a 
competitive technology which is also crucial to the development of high 
volume manufacturing.
    To date, our efforts have produced a superior technology that has 
demonstrated the longest running fuel cell of any kind, the longest 
running high temperature fuel cell system, and the world's first fuel 
cell mircro-turbine hybrid which is now operating in California. When 
the cost reduction efforts noted above are implemented in 2003, we 
expect to take commercial orders and begin deliveries of our 250kW CHP 
system. This schedule is longer than we had planned, due in part to 
previous year funding shortfalls. Thus increased federal support is 
critical to achieving the program's milestones and commitments. We 
recommend that the funding level of the Vision 21 Hybrids-Distributed 
Generation budget line be increased $3.5 million for a total of $15 
million.
    While the Vision 21 solid oxide fuel cell program is now nearing 
completion, a next generation of fuel cells is just getting under way. 
The Solid Energy Conversion Alliance or SECA, is being implemented 
under the Innovative Systems Concepts-Distributed Generation Systems 
budget line. SECA will take the technology lessons learned in the 
Siemens Westinghouse tubular SOFC program and apply them to in a more 
advanced SOFC program designed to reduce the costs dramatically and 
make possible the widespread deployment of stationary fuel cells in 
stationary, military and transportation markets. This program holds 
enormous potential but at the Administration recommended level of $22.5 
million, it is unlikely to achieve its goals in a timely fashion. We 
recommend therefore that the Innovative Systems Concepts budget line be 
increased to $50 million in order to achieve the cost reductions 
necessary for the technology to achieve market penetration in the time 
frames currently proposed by the program.
                           sequestration r&d
    The Siemens Westinghouse Power Corporation supports the 
Administration's request for $54 million directed towards carbon 
sequestration. This forward-looking program is expected to culminate in 
the development of a virtually emissions-free generation technology. To 
support this goal, we have defined a concept that uses solid oxide fuel 
cell technology. The technology, known as the Zero Emission 250 kWe 
SOFC combined heat and power system would enable the emissions from the 
power system to be processed in such a way that the CO<INF>2</INF> 
exhaust is separated and captured. We recommend that the 
Administration's $54 million request include an allocation of $6.5 
million for the design, development and demonstration of a Zero 
Emissions Tubular SOFC 250 kWe combined heat and power system.
                       summary of recommendations
    Continue the federal government's historically important and 
successful role in funding gas turbine research and development by 
increasing the HEET funding level to $40 million.
    Increase the funding level for the Vision 21 Hybrids tubular solid 
oxide fuel cell program from $11.5 million to $15 million.
    Allocate $50 million to Innovative Systems Concepts for the SECA 
program.
    Allocate $6.5 million of the Sequestration R&D budget line to the 
design and development of a Zero Emissions Tubular SOFC 250 kWe 
combined heat and power system.
                                 ______
                                 
            Prepared Statement of the University of Kentucky
    Mr. Chairman, Ranking Minority Member and Members of the Committee: 
My testimony is relative to the fiscal year 2003 Budget for Fossil 
Energy Research Programs of the U.S. Department of Energy, specifically 
the sections of the budget titled ``Transportation Fuels and 
Chemicals'' and ``Solid Fuels and Feedstocks.'' I offer this testimony 
on behalf of the University of Kentucky and most of our colleagues and 
associates in both the coal mining industries and coal burning electric 
utilities of Kentucky. We recommend strengthening the current program 
for high efficiency transportation fuels research and for technology 
development for the recovery of fuel and adsorbent carbons from coal 
burning utility ash ponds and landfills. Specifically we call for 
increasing funding for each program by $1,000,000.
    Energy supply is a key economic security and growth factor. Our 
national energy strategy and the current energy situation require an 
alignment of strategic intent, resources, research implementation and 
technology deployment.
    We believe that our national strategy for dealing with energy 
issues must include a broad based and fundamental approach to research 
and development, with an emphasis on coal, for the medium and long 
term. We need to both deploy technologies at the industrial scale now, 
and ensure that there is continuing research at the fundamental level 
to supply new technologies for the future. The United States' vast coal 
resources represent the best means of safeguarding the nation's vital 
energy security and economic competitiveness.
         coal for energy security and economic competitiveness
    A mix of energy resources drives the United States economy but it 
is principally dependent on fossil fuels. Fossil fuels are an essential 
component of the production of power for all sectors of the economy. 
Coal is by far the major fuel for power generation, representing about 
51 percent of the current generating capacity.
    About 84 percent of coal consumed in the United States is used for 
power generation. The balance of fossil fuel power generation comes 
from natural gas and crude oil products. However, over 95 percent of 
the new power generation capacity over the next 10 years is slated for 
natural gas. By 2020 the U.S. DOE projects that we may be using 60 
percent more gas than today, about 32 TCF/yr. By then, about 30 percent 
of the power generated in the United States will be based on natural 
gas. The domestic rate of discovery of gas has only been about one-
third that of new demand (i.e. 1 to 1.5 percent versus 4 to 4.5 
percent) over the past 3 years.
    Currently 40 percent of natural gas in the United States is 
consumed by manufacturing. By diverting natural gas into electrical 
generation, we create a condition in which our manufacturing base may 
be in competition with our electric utilities for resources. This will 
have unknown but potentially very serious consequences, especially in 
times of tight gas supply.
    In comparison, coal provides the best energy value in terms of 
flexibility, availability and cost. The United States has vast proven 
reserves of coal. The average price of coal paid by utilities is 
significantly less on a Btu basis than that of oil or natural gas. All 
electricity consumers benefit from inexpensive and reliable coal-
generated electricity.
    There are advantages in using natural gas, but too much reliance on 
it presents great risk. Because of coal's cost and abundance, it must 
remain a key energy source for some time. Coal based power however, 
must be made to be even more flexible, efficient and cleaner in the 
future.
    Major advances have been made in coal technologies that will result 
in its cleaner and more efficient use in traditional heat and power 
applications. Also, through improvements in technology, coal can 
compete with, and complement other fuels for transportation, chemicals 
and materials. This will reduce long-term price and supply volatility 
in these sectors and ensure our economic and military security.
         coal for clean electric power and transportation fuels
    Environmental concerns involving our use of coal are increasing 
even as the total and relative amount of pollution from coal is 
decreasing. These issues are wide ranging. They span from reclamation 
and post-mining land use to a diminished marsh or wetland base; from 
coal waste slurry ponds to landfills of spent ash and flue gas 
desulfurization materials; and from regional acid rain to trans-
boundary greenhouse gases. Some of these concerns are ill founded and 
some are not; however, technology can help to reduce and mitigate all 
of them.
    Requirements under the federal Clean Air Act to limit emissions 
have already caused significant investments in pollution control 
equipment. Overall, the industry has responded well to the new quality 
requirements. Advances in technology have helped to facilitate some of 
these changes. Future emission limits require greater attention to 
controlling air toxics and greenhouse gases.
    Advancements have been made in the use of clean coal technologies. 
On the front-end, advanced coal preparation processes involve removing 
much more mineral matter and sulfur from coal prior to combustion. 
Research on the other aspects of clean coal is addressing ways to 
further reduce SO<INF>2</INF> and NO<INF>X</INF> and to reduce the 
costs of retrofitting these new processes.
    Advanced generation systems with superior thermal efficiencies and 
environmental performance have been developed and are in the process of 
being improved. Noteworthy is the Integrated Gasification Combined-
Cycle (IGCC) technology, which combines coal gasification and power 
generation while providing more effective gas clean up. Low grade, 
variable feeds (including biomass), can be used, resulting in major 
improvements in emissions and efficiency. An example is the Kentucky 
Pioneer Energy project of 540 MW using IGCC fired by a combination of 
coal and refuse. As an IGCC facility produces synthesis gas from coal, 
it can be coupled synergistically with other synthesis gas conversion 
technologies to produce value added clean diesel and chemicals. The 
University of Kentucky's CAER supports these and related projects. 
These are the first few steps in what could become a major national 
effort to utilize coal resource at new levels of efficiency and 
recovery.
    A growing concern is the increasing amounts of solid by-products 
from coal combustion. Almost 100 million tons of solid by-products are 
produced in the United States per year, with the expectation that 
amounts will continue to increase at a high rate, largely as a result 
of additional pollution controls. Disposal costs are high for new 
plants, and landfill space is limited, particularly in urban areas. The 
permitted facilities require more sophisticated and expensive liners 
and leachate control systems. Research focuses on the investigation of 
environmentally safe disposal methods, as well as the utilization of 
by-products for road building materials, cement, gypsum board, blasting 
grit and a variety of other applications.
     federal role and budgetary aspects in clean coal research and 
                              development
    Much has been done to advance new clean coal technologies. Such 
initiatives are making coal an increasingly environmentally acceptable 
fuel for power generation, and a cost-competitive raw material for 
producing coal-derived transportation fuels, materials and chemicals. 
The Department of Energy has played a primary role in stimulating 
development through its support of basic and applied research and 
demonstration. Also our Center has benefited over the years from cost 
sharing agreements between DOE, universities and industries. The 
government needs to continue and expand its support and to maintain a 
portfolio that balances broad based funding for R&D with technology 
implementation in these areas. The shortage of qualified research staff 
in coal science and coal conversion technology will only increase in 
the future. Efforts to build up the human and physical capital devoted 
to energy R&D must to be part of funding targets.
    The government has a special role to support the demonstration of 
emerging technologies at a scale meaningful for subsequent engineering 
scale-up. Increased operational experience together with economic 
incentives for early adopters will eventually lessen the disparity in 
risk between conventional and pioneering projects.
    Advances in basic knowledge in the energy sciences and the 
application of this knowledge toward the development of useful 
technology, are vital but long-term processes. In this regard, we 
request that the Department of Energy's research budget be strengthened 
and expanded in areas such as coal preparation and beneficiation; 
combustion and gasifier by-product management; gas clean-up and 
scrubbing; and the production of high efficiency transportation fuels 
and chemicals from coal by synthesis gas conversion.
    In the initial 2002 proposed budget, and also in the proposed 2003 
budget, two areas of research were zeroed out. Last year some earmarked 
money was put back in the budget, but that did not enable R&D 
performers in that area to compete for the funds.
    Two particular areas are the production of high efficiency 
transportation fuels from synthesis gas (President's Clean Coal 
Research Initiative; Fuels; Transportation Fuels and Chemicals) and the 
area of technology for the recovery of fuel and adsorbent carbons from 
coal burning utility ash ponds and landfills (President's Clean Coal 
Research Initiative; Fuels; Solid Fuels and Feedstocks).
                  high efficiency transportation fuels
    Indigenous liquid fuel supplies play a critical role in America's 
energy and military security. The growth in the number and capacity of 
IGCC plants, which produce and consume synthesis gas for power 
production, will provide an opportunity for converting some of that 
syngas into ultra-clean liquid fuels using the processes mentioned 
below.
    The production of ultra-clean gasoline and diesel fuels still needs 
further optimization; however there already are some overseas 
facilities in operation. Test quantities of fuels with novel chemical 
compositions are required. This involves building on the existing 
expertise to manipulate complex reactions to produce fuels that have 
superior engine performance and lower emissions in terms of 
hydrocarbons, particulates and NO<INF>X</INF>. Increasing the oxygen 
content in the synfuels products for more efficient combustion and 
reduced NO<INF>X</INF> emissions needs to be studied. The role of the 
production and composition of the feed gas, and the impact of water on 
the longevity of the catalysts, are components of further research.
    The University of Kentucky CAER has the only open access facility 
of its kind in the world. Other research in this field is mostly 
protected by industrial secrecy constraints and, although there are now 
a few overseas commercial facilities producing synfuels, little is 
publicly known about the process optimization and the composition of 
products for optimal efficiencies as fuels.
    The use of synfuels and synfuel-blends will result in improved and 
cleaner performance from the conventional vehicles of today and in the 
fuel cell vehicles of tomorrow. By providing the funding, the expertise 
to serve a number of process companies and catalyst manufacturers will 
be retained and expanded.
 recovery of fuel and adsorbent carbons from coal burning utility ash 
                          ponds and landfills
    Research in this area leads to combined environmental and economic 
benefits. Success will pave the way for projects in many parts of the 
country since there are about 1.5 billion tons of ash in the United 
States that is in slurry ponds or landfills. This approach will improve 
land use by freeing space and could eliminate environmental dumping 
problems at power station sites.
    An example of such a project is the Coleman Station on the Ohio 
River, which generates approximately 100,000 tons/year of combustion 
ash that is stored in lined pond areas adjacent to the power plant. 
Preliminary studies estimated that the site contains approximately 3.4 
million tons of ash, and the storage area is very close to full 
capacity. New landfill space will be needed soon, unless uses are found 
for the material already stored. Technology now being piloted by the 
CAER at this facility recovers the following marketable products from 
the ponds: coarse ash as a lightweight aggregate; medium sized ash for 
block sand; a carbon fuel. The remaining fine ash is returned to the 
pond for storage. Additional technology can be added to the process to 
recover more marketable products from the fine ash.
    Further work in this field will lead to the recovery of fine 
materials with the purpose of scaling the technology up to full 
commercial size and to disseminate the technology for application at 
other sites.
                                 ______
                                 
   Prepared Statement of the Electric Power Research Institute (EPRI)
    EPRI is submitting this written testimony to encourage support and 
funding of the Department of Energy's (DOE) new High Efficiency Engine 
Technology (HEET) Program. EPRI believes that the benefits of improved 
Reliability, Availability, Maintainability, and Durability (RAM-D) for 
advanced combustion turbines are key opportunities to be achieved 
through successful application of these technologies. EPRI and its 
electric power industry members share DOE's vision of achieving cost 
effective, zero-emissions, electric power generation technology. 
Advanced combustion turbines provide the base technology for the 
development of future zero-emissions power generation. EPRI is 
currently working on two CRADAs with DOE in the Combustion Turbine RAM-
D improvements under the Next Generation Turbine (NGT) program. The 
first is a $1.6 million project investigating advanced materials and 
repair technologies for advanced gas turbine technologies. The second 
is a $1.6 million program to develop Combustion Turbine Monitoring 
tools for improved operations and maintenance.
    EPRI, headquartered in Palo Alto and also known as the Electric 
Power Research Institute, California, was established in 1973 as the 
non-profit national center for public interest electricity and 
environmental research. EPRI's collaborative science and technology 
development program now spans nearly every aspect of power generation, 
delivery and use. More than 1,000 energy organizations and public 
institutions participate in and draw on EPRI's global network of 
technical and business expertise.
    EPRI has worked with DOE over the past few years to develop the 
Electricity Technology Roadmap which details the technological advances 
required to achieve near zero-emissions, high efficiency, electric 
power generation. The Electricity Technology Roadmap identifies highly 
efficient, hydrogen fueled, near zero-emissions engine technologies as 
one of its important strategic technology destinations. These future 
engine technologies will provide high efficiency power systems by 
linking the technological, environmental and cost benefits of fuel 
cells, gas turbines, and coal-gasification technologies for electric 
power production.
    If our nation is to succeed in developing these high efficiency 
engine technologies, it must urgently commit the R&D funding required. 
This is exceedingly difficult for the private sector alone in current 
market conditions where longer-term R&D projects are difficult to 
support irrespective of their ultimate benefits. The federal government 
must take the lead in defining the required capabilities, and providing 
initial funding and incentives needed to meet the associated strategic 
R&D goals. EPRI will work with its member companies to gain support for 
industry co-funding, development, and demonstration of these new 
technologies as a true public/private partnership.
    As mentioned earlier, EPRI and DOE are already working together 
successfully in advanced combustion turbine RAM-D technologies through 
the NGT Program. EPRI was successful in developing a joint program with 
its members and the DOE in the areas of Advanced Combustion Turbine 
Monitoring and Materials development. EPRI is anxious to provide the 
same type of funding and R&D cooperation required to develop high 
efficiency engine technologies (HEET) for large central station 
electric power production.
    The primary long-term benefit of the DOE HEET Program is 
accelerated development and deployment of highly efficient, zero-
emissions engine technologies. However, in the absence of federal 
government initiative and funding, the delays in their development will 
prove very costly to the American economy and its environment. 
Additional benefits of the HEET Program to the United States are (1) 
enhanced fuel flexibility, (2) reduced water consumption, (3) improved 
reliability, and (4) reduced environmental impacts.
    There are also several outputs of the HEET Program that will prove 
highly useful in the short-term. The development of coal gasification 
systems to fuel combustion turbines will benefit from HEET Program 
funded projects such as advanced turbine blade materials, advanced coal 
gasification technologies, and performance monitoring strategies. 
Electric power producers are also keenly interested and will benefit 
from improvements in the Reliability, Availability and Maintainability 
of their engines.
    EPRI looks forward to working with the DOE to develop a successful 
HEET Program. Please contact me should you have any questions or 
comments that would facilitate the success of this urgent collaborative 
technology development program.
                                 ______
                                 
      Prepared Statement of the Coal Utilization Research Council
    These written comments are submitted on behalf of the members of 
the Coal Utilization Research Council (CURC). The CURC is an ad hoc 
group of electric utilities, coal producers, equipment suppliers, state 
government agencies, and universities. Members of CURC share a common 
vision of the strategic importance for this country's continued 
utilization of coal in a cost-effective and environmentally acceptable 
manner.
              introduction and summary of recommendations
    CURC has developed a strategic R&D program designed to ensure the 
continued use of our Nation's coal resources. The coal-based R&D 
program is described in a CURC technology ``roadmap'' which was 
recently updated to better reflect current and projected state of the 
art coal based technologies.
    The roadmap describes a number of advanced coal-based energy 
systems that, if fully developed, would ensure cost-effective, 
efficient and environmentally acceptable uses of coal. Also, the 
timeframes for development as well as performance requirements of these 
advanced coal-based power systems are identified. Importantly, if 
critical components of a particular system are not developed in a 
timely manner, a promising technology may not materialize in the 
recommended timeframe.
    CURC believes that funding for the Department of Energy's fiscal 
year 2003 coal-related technology development programs should be guided 
by, and judged by, the goals and objectives set forth in the CURC 
technology roadmap. To that end, we have examined the proposed fiscal 
year 2003 funding levels for several coal-based R&D programs. In order 
to achieve timely technology development, the government's long-term 
commitment must be assured and funding of programs must be substantial. 
In consideration of the technologies and goals identified in the CURC 
roadmap and the Department of Energy's Vision 21 program, the CURC is 
recommending that the Committee modify the fiscal year 2003 budget 
request as follows:
                           advanced research
    Proposed fiscal year 2003 $9.0 million; CURC Recommendation: $10.1 
million. CURC understands that $2.0 million of the fiscal year 2003 
request for advanced research is designated in the President's budget 
to support the advanced, supercritical materials consortium. Successful 
results to be achieved through this important R&D consortium will 
result in the development of critical materials needed to insure that 
advanced combustion and gasification systems can be developed. The CURC 
recommends an additional $1.1 million for this cost-shared materials 
research program to insure that the work of the consortium is conducted 
in a timely fashion.
             integrated gasification combined cycle (igcc)
    Proposed fiscal year 2003 $40.65 million; CURC Recommendation: 
$65.0 million. Gasification of coal is projected to be the primary 
means by which significantly greater efficiency in energy conversion 
and emissions controls can be achieved over the long-term. To insure 
that IGCC systems achieve the technology and cost targets set forth in 
the CURC Technology Roadmap, it is essential that primary subsystems 
are developed in a timely fashion. Even at the increased funding levels 
recommended by CURC for fiscal year 2003, appropriations for this 
program are far too low to achieve the goals set forth in the CURC 
roadmap. We believe that the fiscal year 2003 request is insufficient 
also for the DOE to reach its own stated goals set out in the Vision 21 
program. Future funding levels should be closer to the $125.0 million 
needed annually between now and 2010. Additional funds are needed for 
gas separation research, membranes research, gasifier development, 
gasifier char control, and improved gas cleanup.
                    pressurized fluidized bed (pfb)
    Proposed fiscal year 2003 $9.1 million; CURC Recommendation: $22.0 
million. The CURC supports the development of advanced combustion 
systems to insure that a variety of options by which coal can be 
converted to useful energy are developed. It is recommended that the 
PFB program be reoriented to encompass a variety of combustion systems, 
and to this end, the program should be designated as ``Advanced 
Combustion Systems'' in order to evidence the broader set of 
technologies. It is recommended that advanced pulverized coal systems 
(supercritical and ultra-supercritical steam power systems) along with 
atmospheric fluidized bed combustion be the focus of such a re-oriented 
program. The CURC-recommended funding level would be sufficient to 
initiate a program focused upon advanced combustion-based systems.
                                turbines
    Proposed fiscal year 2003 $14.0; CURC Recommendation: $24.0 
million. The CURC supports the High Efficiency Engines and Turbines 
(HEET) program to the extent that program is focused upon the use of 
coal as the energy feedstock. Most of the DOE's request of $14.0 
million for fiscal year 2003 will be used to fund existing projects, 
only a portion of which would appear to benefit directly the 
utilization of coal-derived ``syngas'' in advanced turbines. The CURC 
recommends an additional $10 million over the fiscal year 2003 request 
to be used specifically to address technical issues associated with 
using coal-derived gas in advanced combustion turbines.
                   transportation fuels and chemicals
    Proposed fiscal year 2003 $5.0 million; CURC Recommendation $16.0 
million. The CURC Technology Roadmap supports funding of R&D programs 
conducted in cooperation with industry and the academic community to 
convert coal to chemicals or ultra clean transportation fuels. The 
fiscal year 2003 request has no funds to undertake RD&D programs to 
support an advanced fuels research or transportation fuels and 
chemicals program. The CURC urges the Congress to restore funding for 
the coal to chemicals program as well as the coal component of the 
ultra clean fuels program. The nation's continued dependence upon 
sources of foreign crude oil supplies remains a principal reason for 
development of technology that is able to cost-effectively convert coal 
into useful chemicals and alternative transportation fuels.
                           sequestration r&d
    Proposed fiscal year 2003 $54.0 million; CURC Recommendation: 
retain funding amounts requested. The sequestration program is 
conducting a number of projects to sequester carbon dioxide. The 
program should focus resources on technology development associated 
with the capture of CO<INF>2</INF>.
                    innovations for existing plants
    Proposed fiscal year 2003 $21.2 million; CURC Recommendation: $23.5 
million. The existing fleet of coal-based generating facilities must 
comply with a variety of stringent environmental requirements. The need 
for cost-effective compliance options is critical if the nation is to 
retain the economic benefits derived from low-cost electricity 
generation. Because the EPA and Congress are considering the need to 
impose emissions controls on mercury, as well as more stringent 
standards related to nitrogen dioxide (NO<INF>X</INF>) and sulfur 
dioxide (SO<INF>2</INF>) emissions, the CURC believes additional R&D 
funds are warranted to enable demonstration of cost-effective, 
efficient mercury-control technologies and strategies.
        specific comments regarding clean coal power initiative
    The CURC supports the $150 million requested by the President to 
initially fund the Clean Coal Power Initiative (CCPI) and urges the 
Congress to grant the appropriations requested. In addition, securing 
advance appropriations of the President's $2 billion/10 year program 
would provide industry with assurances that federal funds for the CCPI 
will be available. Knowing the funds are ``in the bank'' allows 
industry to plan ahead and when considering potential projects that are 
not ready for the solicitation this year, it allows participants to 
ready projects--and corporate board of directors--for subsequent 
solicitations. The previous ``clean coal technology demonstration 
program'' implemented in the 1980's received ``advance appropriations'' 
of $2.5 billion. Industry has identified the need to advance 
appropriate the entire $2.0 billion as a key factor in giving 
confidence to potential project sponsors that the government's funds 
will be available for the entire term of the program.
    Clean coal projects that are intended to demonstrate commercial-
scale viability are likely to be large and costly. DOE selection of 
proposals that do not provide industry with confidence that a component 
or an entire system will operate at commercial scale will not achieve 
the goals of the CCPI and only dilute a program designed to encourage 
such commercial demonstrations. To this end, the CURC suggests that the 
DOE focus selections to a very limited number of projects. Also, the 
program should adopt selection criteria so that each succeeding CCPI 
solicitation requires technology demonstrations that are superior to 
the projects selected in the previous solicitation. At the end of the 
10-year period, the CURC believes that the technology goals set forth 
in our technology roadmap will be achieved in the CCPI program if there 
is a continuing requirement to improve upon technologies with each 
succeeding solicitation.
    Finally, the CURC urges the Congress to direct the DOE to adopt the 
original repayment requirement that was included in the draft 
solicitation for the CCPI. The draft repayment provision provided that 
selected applicants would be required to repay the federal government's 
contribution to the project if the request for federal cost sharing 
amounted to 50 percent of the projects' costs. Where an applicant 
proposes 75 percent or greater cost share, the repayment requirement 
would be fully satisfied, i.e. no repayment required. Cost sharing 
between 50 percent and 75 percent would be a percent of the total 
government contribution, but not the entire amount of the DOE cost-
sharing. The final solicitation dropped this preferred repayment 
provision where the repayment requirement would be fully satisfied if 
an applicant proposes 75 percent or greater cost-share.
    The CURC has raised the concern that advanced technology projects 
may not be forthcoming on the basis of the current repayment plan. 
First-of-a-kind technology demonstrations carry inherent high cost and 
risk. While the government's contribution to a project addresses the 
issue of risk, the issue of cost is not adequately addressed when full 
repayment is required. This is especially so where it can be expected 
that the next several iterations of the same, successfully 
demonstrated, technology are also more expensive than the market is 
willing to spend (where other, less costly, alternatives are 
available). Requiring full repayment does not address higher costs, and 
full repayment simply means the technology--that still costs more than 
the competing alternative--may not be replicated, and therefore not 
commercialized and widely used.
    Additionally, a non-repayment provision could provide an impetus 
for applicants to demonstrate advanced plant designs, such as those 
that would reach the CURC Technology Roadmap 2020 goals as well as 
DOE's Vision 21 goals. Full repayment is likely to focus applicants 
upon less risky technologies that will not yield the economic, 
environmental or performance advances that are promised from 
technologies that achieve the 2020 goals of the CURC Roadmap or the 
goals of Vision 21. Finally, by inviting applicants to contribute 75 
percent of a project's cost--because the remaining 25 percent from the 
government would not need to be repaid--the total funds available from 
the DOE could cover a greater number of projects and/or a number of 
larger-scale projects.
          conclusions and reasons for the curc recommendations
    Fluctuating increases in natural gas prices may accelerate the time 
frame during which electricity power generators will consider the cost-
effectiveness of new or refurbished coal powered generation as an 
alternative to natural gas. Natural gas has been viewed as the ``fuel 
of choice'' for new generation and predicted to be so for the near 
term. However, increasing gas prices not only change that outlook but, 
unless newer and more advanced clean coal technologies are made 
available sooner than expected, new coal-based generation will be 
constructed using current technology, which is economical and reliable, 
but does not apply advances in both efficiency and maximum 
environmental performance. U.S. coal is the indigenous domestic primary 
energy source that will act as an anchor to pricing of other fuels. Use 
of domestic coal resources will impart stability when there are 
political pressures elsewhere in the world that threaten to disrupt the 
economy as well as energy markets. Technology is the key to assuring 
the long-term use of coal, and the DOE's coal RD&D programs are vital 
to that technology development.
                                 ______
                                 
          Prepared Statement of the Western Research Institute
    I write on behalf of the Western Research Institute. As you and 
your colleagues consider the Department of Energy's Office of Fossil 
Energy Research and Development fiscal year 2003 budget request, I ask 
that the following being included as part of the hearing record. 
Western Research Institute (WRI) greatly appreciates your 
Subcommittee's past support of the Cooperative Research Program and we 
are encouraged by your commitment to maintain an aggressive fossil 
energy research program. While we understand that several new budget 
priorities form the fiscal year 2003 request, we hope that you and your 
colleagues will continue to support the Cooperative Research Program. 
As we seek to build lasting programs to promote energy security, this 
program represents a meaningful response that has generated significant 
industry commitment. In the coming fiscal year, we are requesting a 
modest increase in the program to a level of $10 million. The following 
discussion reviews the successes of our activities under the program 
and our initiatives for the future.
    Over the past decade, WRI has responded to the needs of our Nation 
through the Base and Jointly Sponsored Research (JSR) Programs under 
the auspices of the DOE Cooperative Agreement. Under the Base Program:
  --WRI has developed the concept of Coking Indexes that increase 
        petroleum-refining efficiency. The concept has led to the 
        development of a device that allows refiners to optimize 
        operations while avoiding the fouling associated with coke 
        formation. Future work in this area may lead to simpler, real-
        time, on-line process control instrumentation.
  --WRI has developed a method to remove mercury from sub-bituminous 
        and lignite coals before they are fired in a utility boiler. 
        This approach is likely to provide a less expensive way of 
        keeping mercury out of our Nation's air than removing it from 
        the flue gas of a power plant after it has been combusted.
  --WRI has developed a method for the efficient recovery of coalbed 
        methane. WRI scientists are working to develop treatments and 
        proper uses of coalbed methane-produced waters.
    Sometimes Base Program research yields results with benefits beyond 
the original vision. For example, WRI began the development of a hand-
held device for detecting halogenated volatile organic compounds as 
soil contaminants. With modification, this same technology may soon be 
able to warn our men and women in uniform of the presence of a chemical 
agent.
    Under the Jointly Sponsored Research program, WRI has worked with 
clients across the United States and internationally. The technology 
mix of our JSR projects is diverse, but national energy security and 
environmental quality are always the main criteria for project 
selection. Under the auspices of the JSR Program:
  --WRI has worked with several independent oil and gas producers in 
        the Rocky Mountain region to implement enhanced oil recovery 
        technologies. Working with Underwood Oil and Gas in Wyoming, 
        WRI is demonstrating a way to bring remote, abandoned or shut-
        in natural gas fields back into production by recovering value-
        added products from the gas and putting methane back in the 
        reservoir.
  --WRI is developing and testing a technology for upgrading abundant 
        heavy crudes. The technology, if successfully deployed, will 
        reduce our dependence on oil shipments from unstable parts of 
        the world.
  --WRI is developing coal upgrading technologies to reduce the 
        moisture level of western U.S. coals while producing a stable, 
        higher heating value product. WRI is also working with 
        utilities to evaluate the environmental benefits of using 
        upgraded western U.S. coals.
  --WRI is working to develop alternate energy resources. We are 
        developing a synthesis technology that can convert any 
        carbonaceous feedstock into a mixture of alcohols for use as a 
        replacement for MTBE in blended gasoline and diesel fuels. Also 
        under development is a bio-refining technology that separates 
        biomass into value-added fractions, leading to more efficient 
        and cost-effective production of chemicals and fuels from 
        biomass.
  --WRI is working with a consortium of government agencies and coalbed 
        methane producers to assess and address the research needs 
        associated with coalbed methane production. The impact of 
        produced waters, potential uses of the produced waters and 
        methods for cleaning the produced waters are being evaluated 
        not only by WRI scientists but, under WRI leadership, by a team 
        of experts from the University of Wyoming, Stanford University, 
        and elsewhere across the country.
  --WRI is working to make building panels from coal combustion 
        products and waste fiber that can potentially revolutionize the 
        housing and construction industry and supply rapid-construction 
        emergency housing.
  --Other JSR projects are addressing the technological needs for 
        mitigating acid mine drainage and mine subsidence, remediating 
        hydrocarbon-contaminated soils, and removing acid precursors 
        and hazardous air pollutants from the stacks of utility 
        boilers.
    For fiscal year 2003, WRI is establishing an ambitious research and 
technology demonstration agenda. The technology pipeline from Base to 
Jointly Sponsored Research is flowing, and concepts are moving into 
practice. As you know, it takes more funding to verify concepts at a 
scale larger than occurs in the laboratory. Several WRI technologies 
are at a stage in which pilot or demonstration plants have to be built 
and operated. For example, among the projects I've highlighted here, 
the bio-refining project, the alcohol synthesis project, the process 
for removing mercury from coal, the heavy oil upgrading project and the 
building construction panels project all are at a stage where pilot 
facilities have to be built and put into operation in fiscal year 2003.
    One of WRI's highest priorities is to maintain our progress in 
diversifying our research to ensure that we address the immediate and 
near-term needs of our clients and to establish a foundation to respond 
to future industry needs. As examples of this, we are developing 
innovative technologies for hydrogen production from fossil fuels, 
working on advanced concepts and technologies for the synthesis of 
liquid fuels from renewable and fossil resources, and searching for 
ways to convert waste streams into value-added products.
    The past year has been exceptionally productive for us. Our 
research is beginning to return benefits in the form of increased 
client interest in pursuing new research at WRI and with our various 
partners. This situation is only possible because of the support you 
have provided our efforts over the past several years. I hope we can 
count on you to support funding of the Office of Fossil Energy's 
Cooperative Agreement at the $10 million level. We thank you for your 
continuing support.
                                 ______
                                 
 Prepared Statement of the United States Advanced Ceramics Association
    The United States Advanced Ceramics Association (USACA) a 
Washington-based association of major producers and users of advanced 
ceramic products. USACA is the premier association that champions the 
common business interests of the advanced ceramic producer and end-user 
industries.
    USACA appreciates the opportunity to provide the House of 
Representatives Appropriations Committee, Interior and Related Agencies 
Subcommittee with our industry's statement regarding the following 
fiscal year 2003 Department of Energy (DOE) Turbine R&D funding levels.
                    usaca recommended funding levels
    $14 MILLION.--ADVANCED MICROTURBINE PROGRAM (Office of Energy 
Efficiency and Renewable Energy)
    $40 MILLION.--HIGH EFFICIENCY ENGINES AND TURBINES PROGRAM (Office 
of Fossil Energy)
    USACA supports these programs in distributed generation 
technologies that lead our country on a path to energy infrastructure 
assurance.
    advanced microturbines (energy efficiency and renewable energy)
    Key To Distributed Energy.--The electrical power generation and 
distribution industry is vulnerable to threats to the Nation's energy 
security. Distributed generation technologies provide opportunity for 
energy infrastructure assurance. In addition, energy efficiency in both 
production and end use is becoming more critical to maintaining a 
growing national economy. Past and continuing technology advances in 
materials have contributed to the production of improved technologies 
for energy efficiency.
    One example of this is Advanced Microturbine Systems, providing 
distributed power generation typically 30 kW to 1,000 kW. Microturbines 
are capable of producing electricity more cost effectively at the 
customer site than the delivered cost of the central station. Advanced 
microturbine designs, using ceramic components that can operated at 
hundreds of degrees hotter than metal components, would theoretically 
boost efficiency from about 25 percent to over 40 percent. Improvements 
in durability will come from reliable, highly effective recuperators, 
increased load capability bearing design, and improved high temperature 
materials resulting in 11,000hr mean time between outages at less than 
$500/kW.
    The Advanced Microturbine Program will deliver fuel flexible 
systems with low environmental impact. A single design capable of 
operating on gas, liquid, biofuels (bio liquids, digester gas and 
landfill gas) and waste fuels will be coupled with ultra-low-
NO<INF>X</INF> technology. To meet customer needs, the advanced 
microturbines will be pre-certified, packaged modules that convert 
waste heat into useful energy. The program will focus on better CHP 
performance through (1) heat exchanger technology to improve hot water 
and heating capabilities, (2) exhaust absorption chillers for cooling, 
(3) exhaust desiccant dehumidifier technology for dehumidification, and 
(4) clean CO<INF>2</INF> rich air stream technology for direct heating.
    DOE EERE showed exceptional initiative and foresight in identifying 
the opportunity for advanced high temperature materials to improve 
efficiency in microturbines. The microturbine initiative in DOE Office 
of Power Technologies (OPT) will be an important contributor to our 
nation's energy needs. We would like to work with DOE to include 
greater opportunities for advanced materials research and development 
in these programs.
    Currently, microturbines are:
  --Best in Class for 30 to 500 kW
  --Ultra low emissions (< 5 ppm NO<INF>X</INF>)
  --Fuel flexible (gaseous and liquid fuels, renewables and hydrogen)
  --Potentially highest efficiency
  --Directly use exhaust gas for CHP
  --Lowest manufacturing cost when fully developed (high power density)
  --Lowest installed cost potential (light weight, quiet)
  --Lowest maintenance cost (few moving parts)
    In order to put the Advanced Microturbine Program in line with the 
resources specified by it's program plan, $14 million in funding is 
needed in fiscal year 2003. Additionally, enabling materials technology 
under the DER Technology Base Program should be maintained.
                supporting materials technologies (eere)
    Vehicle Technologies.--We strongly support the part of this program 
that deals with the Light Truck Engine research and development. The 
DOE Office of Transportation Technologies (OTT) Heavy Vehicle 
Technologies has argued that utilizing clean diesel engine technology 
in light trucks and SUVs would result in significant fuel savings, 
alternate fuel utilization, and reduced pollution. Particulate traps, 
ceramic valves and fuel injection pins are some examples of advanced 
ceramic components that have demonstrated remarkable potential in 
making long life, clean and efficient, diesel engines a reality. Diesel 
engines have higher inherent efficiency than conventional piston 
engines. Europe has long recognized the potential of automotive and 
light truck diesel engines and has a technological edge over the United 
States. A modest increase in funding and activity is required to keep 
the U.S. diesel and advanced materials industries competitive. With the 
popularity of SUVs, the potential payoff in national fuel savings is 
enormous.
    High Temperature Materials Lab (HTML).--Over the past 15 to 20 
years, the DOE Office of Transportation Technologies, Ceramic 
Technology Project (CTP) and the High Temperature Materials Lab, 
through its collaborative programs with industry, national labs and 
universities has, in my opinion, done the most of any government 
program in expanding the state of the art of advanced materials. 
Several USACA member companies have been active participants in these 
Oak Ridge National Laboratories programs. The U.S. ceramics industry 
enjoys a technological leadership position in part due to these 
programs. Materials technology, as a direct result of CTP and HTML, now 
has the potential to be successfully incorporated in transportation, 
power and industrial technologies, as well as other commercial and 
military applications.
    We specifically wish to emphasize the importance of the High 
Temperature Materials Laboratory at Oak Ridge National Lab. The HTML 
through its research staff and user center, has provided cost-effective 
but critical support for materials development in energy intensive 
markets. The world-class materials research facilities at HTML has been 
particularly vital to assisting small businesses be competitive and 
technologically innovative. The HTML continues to expand our 
understanding of high temperature materials, vital for improving 
efficiencies in transportation, industrial and power generation 
systems.
    Vision Industries and Enabling Technologies.--DOE EERE Industrial 
Technologies in collaboration with industry correctly identified how 
collaborative R&D programs could significantly reduce energy 
consumption and pollution in these core United States' industries. The 
current Industries of the Future are made up of the nine U.S. 
industries that typically spend the most on energy and pollution 
control in their processes. DOE and these industries are now 
demonstrating that advanced technology can have a significant impact on 
energy security, energy demand, the environment and U.S. industrial 
competitiveness. USACA would like to specifically support the goals of 
the Crosscutting Industrial Materials for the Future (IMF) initiative. 
Like other crosscutting Enabling Technologies, the IMF program will 
incorporate energy saving technologies that benefit several of the 
Vision Industries.
                 gas turbines (eere and fossil energy)
    Currently, gas turbine power is the most fuel-efficient, cleanest, 
and consumer friendly way to generate electricity. Combined cycle gas 
turbines provide the highest efficiency and lowest emissions of all 
combustion generation technology available today (producing twice as 
much electricity and less than half the CO<INF>2</INF> as compared to 
existing non-gas-turbine power plants). Turbine systems are cost 
effective, and can be quickly deployed to meet the country's growing 
energy needs. The gas turbine industry is currently manufacturing and 
installing these high-tech power plants across the United States to 
reduce the cost of electricity, create new jobs, and stimulate 
investment to support economic development.
    However, America's new energy policy goals require dramatic new 
technology development. The vision of a modern, secure U.S. power 
generation infrastructure that runs on domestic fuels without harming 
the environment is achievable, if the Federal government makes a 
sufficient investment in DOE/industry turbine partnership programs. 
Unfortunately, the Administration's fiscal year 2003 budget request for 
these DOE gas turbine programs is inadequate to stimulate significant 
advancement toward the ground-breaking technological changes our nation 
needs. USACA believes the above funding levels are necessary if our 
nation intends to realize the public benefits envisioned in our 
national energy policy.
          high efficiency engines and turbines (fossil energy)
    The DOE HEET Program is critical to the President's National Energy 
Policy (NEP) Clean Coal Technology goal of ``low-cost, zero emission 
power plants with efficiencies close to double that of today's fleet''. 
The DOE/industry HEET partnership will make it possible for power 
generation equipment manufacturers, as well as systems developers, 
owners and operators to create the core technology solutions necessary 
to overcome the complex challenges identified in the NEP report.
    The HEET Program turbine system efficiency goal is 60 percent for 
coal-based systems, and HEET turbo fuel cell hybrid systems that offer 
the potential for unprecedented efficiencies (in excess of 80 percent). 
The HEET near-zero emission environmental goal translates into systems 
with no carbon, and negligible NO<INF>X</INF>, SO<INF>2</INF>, and 
trace contaminants. The program is also targeting a 15 percent 
reduction life-cycle cost of electricity generated by gas turbine power 
plants.
    Federal cost sharing is needed to enable successful development 
technology improvements envisioned under the HEET, and to expedite 
commercialization of these systems. A $40 Million federal contribution 
to the HEET program in fiscal year 2003 will have a direct impact on 
the fuel-efficiency, fuel flexibility and emissions levels of America's 
coal and natural gas fired power plants.
    Our nation's investment in the HEET program will allow the United 
States to continue to serve as the world's principal source for clean 
turbine power generation systems. As the leading developer and producer 
of these clean, fossil-fueled power technologies, the United States can 
remain the leader of the international effort to lower global power 
plant emissions levels through technology innovation. Gas turbine 
equipment manufacturers, as well as systems developers, owners and 
operators have already indicated strong interest in working with DOE to 
help reach the HEET program goals. Now, Congress needs to ensure there 
is adequate fiscal year 2003 federal funding ($40 million) to 
facilitate a government/industry partnership that successfully allows 
new HEET technologies to mature in an expeditious and timely manner.
                turbo fuel cell hybrids (fossil energy)
    The DOE Vision 21 initiative identifies Turbine Fuel Cell Hybrids 
as a key technology for enabling energy plants to serve the United 
States and global energy needs of the early 21st century. A gas turbine 
is used to pressurize fuel cells. Thus the system requires development 
of customized turbo machinery and balance of plant to reduce the 
overall cost of projected commercial systems. It is necessary to 
develop a range of hybrid systems up to multi-megawatt sizes and 
conduct extensive field demonstrations in order to achieve the goals of 
the DOE Vision 21 plan. The turbo fuel cell hybrid is expected to (1) 
achieve the ultra-high, 80+ percent efficiency; (2) emit ultra-low 
emissions of less than 1 ppm NO<INF>X</INF>; and (3) provide 
distributed energy with multi-fuel capability (natural gas, coal and 
renewable).
    The HEET program, combined with DOE fuel cell program efforts, will 
lead to the required cost reductions needed to ensure the commercial 
viability of these hybrid systems. Gas turbine research is necessary to 
enable the technology to meet the pressure ratios, mass flows, and 
other critical operating and performance parameters of high-temperature 
fuel cells. Ultimately, the program will culminate with the testing a 
near-commercial-scale multi MW Vision 21 coal-fired hybrid power 
system.
                            public benefits
    DOE gas turbine EERE and FE R&D Programs stimulate economic growth, 
clean up the environment, and ensure that the U.S. has a reliable 
supply of power. Implementation of the next generation of advanced 
turbine technology R&D programs will accelerate U.S. market 
restructuring and environmental goals. Armed with new advanced gas 
turbine systems, the U.S. power supply industry will provide America 
with the following benefits.
  --RELIABLE POWER
  --ECONOMIC STRENGTH THROUGH IMPROVED POWER SYSTEMS
  --MEET MOUNTING DEMAND FOR INCREASED POWER PRODUCTION CAPACITY
  --A CLEANER ENVIRONMENT
  --REPLACE ENVIRONMENTALLY DEFICIENT, AGING POWER PLANTS
                                 ______
                                 
 Prepared Statement of the Center for Advanced Separation Technologies
    Mr. Chairman and Members of the Subcommittee, we represent the 
Center for Advanced Separation Technologies (CAST). The center is a 
consortium of seven leading mining schools in the United States, which 
conduct research in advanced separation and train future industry 
leaders. We appreciate the opportunity to submit this testimony 
requesting $3 million for Advanced Separation as part of the Solid 
Fuels and Feedstocks Program, Fossil Energy Research and Development, 
U.S. Department of Energy.
    The U.S. mining industry is producing large quantities of waste 
products due to the inefficiencies of the various separation processes 
that are currently being used. The excessive waste generation can 
result in (i) loss of valuable national resources, (ii) damage to the 
environment, and (iii) high cost of the raw materials produced, 
including coal that is used for electricity generation. In order to 
help the industry become more efficient and competitive, Virginia Tech 
and West Virginia University established CAST in 2000. Five other 
universities are joining the consortium to develop crosscutting 
separation technologies that can be used in both the coal and minerals 
industries. These universities include: University of Kentucky, Montana 
Tech, University of Nevada Reno, New Mexico Tech, and University of 
Utah.
                               background
    In 2000, the U.S. mining industry produced $59.7 billion of raw 
materials, which consisted of $40.1 billion from metallic and non-
metallic minerals and $19.6 billion from coal. The mineral processing 
industries increased the value of the minerals to $429 billion, while 
the electric utilities burned 859 million tons of coal to produce 52 
percent of the nation's electricity. The value of the electricity 
generated from both coal and uranium was $182 billion. Thus, the 
minerals and coal industries together contributed $671 billion to the 
nation's wealth and accounted for approximately 6.7 percent of the U.S. 
economy in 2000. Internationally, the United States is by far the 
largest mining country of the world.
    Despite the overwhelming statistics for the U.S. mining industry, 
the country is not investing in technology development through 
research. This is particularly true for the coal and mineral processing 
industries, which are mostly concerned with separating one mineral (or 
coal) from another (i.e., solid-solid separation) and separating the 
mineral (or coal) concentrates from water (i.e., solid-liquid 
separation) in which the separation occurs. In the absence of advanced 
separation technologies, companies resort to increasing throughput (or 
capacity) rather than to improving separation efficiencies. This 
approach may produce higher rates of return on their investments, but 
entails higher losses of valuable national resources and greater 
environmental damage. Fine coal impoundments are a good example for 
such problems. These were created due to the lack of advanced solid-
solid and solid-liquid separation technologies for processing fine 
particles.
    On October 11, 2000, near Inez, Kentucky, a 72-acre waste 
impoundment accidentally released 250 million gallons of coal slurry 
into nearby underground mines, creeks, rivers, and schoolyards. This 
incident caused the U.S. Congress to appropriate $2 million for the 
National Research Council (NRC) to study ways of reducing the potential 
for future incidents. According to the NRC report published in January 
2002, the U.S. coal industry discards 70 to 90 million tons of fine 
coal annually to 713 active impoundments, most of which are located in 
Central Appalachia. The report stressed the need for additional 
research to develop technologies that can be used to eliminate the fine 
coal impoundments in the United States.
    In 1998, the National Mining Association developed a road map for 
the research needs of the U.S. mining industry. It states that 
``advances in mineral and coal processing technology have leveled off, 
making radical technological breakthroughs necessary for significant 
advances.'' The technology roadmap has been developed for the Industry 
of the Future Program (IOF), Office of Energy Efficiency, U.S. 
Department of Energy. The mandate for this funding program is energy 
savings rather than the production of cleaner-burning solid fuels or 
minimizing the environmental impacts of producing coal. Furthermore, 
the nature of the projects funded by this program is for near-term 
applications and its audience is primarily industries that can meet the 
requirement of 50 percent cost sharing. Historically, many of the 
breakthrough technologies have originated from fundamental research 
carried out at universities. For this reason, Virginia Tech and West 
Virginia University established the Center for Advanced Separation 
Technologies (CAST) under the auspices of the U.S. Department of Energy 
through a competitive solicitation (DE-PS26-00FT40756) which was issued 
in December 1999. The objective of the Center is to create a knowledge 
base for solid-solid and solid-liquid separation processes as applied 
to the mining industry, and to provide enabling sciences that can 
permit the economic recovery of the materials being lost as waste and 
those that have already been discarded in waste piles.
                            progress to date
    Since its establishment, CAST has made significant progress in 
exploring the underlying principles of some of the more important 
solid-solid and solid-liquid separation processes. Froth flotation, for 
example, is the most widely used solid-solid separation method. The 
process was developed nearly 100 years ago for the mining industry. 
Yet, it has not been possible to predict its performance from both 
surface chemistry and hydrodynamic parameters, both of which are known 
to play important roles in industrial practice. Previously, Virginia 
Tech developed a model that can predict the flotation rates under 
idealized (or quiescent) conditions; however, it could not be used for 
industrial applications. The recent work conducted at CAST laid the 
groundwork to further develop the model so that it can be used to 
predict the flotation rates under more realistic (or turbulent) 
conditions. A distinct advantage of developing a model from first 
principles is that it can be used for diagnostic purposes, that is, it 
can identify the causes of industrial problems and, at the same time, 
indicate methods of improvements.
    Since CAST was established, its research in solid-liquid separation 
has accelerated. Several coal and mineral companies are in the process 
of testing the novel chemical dewatering technology developed at the 
Center. Two other novel solid-liquid separation technologies are being 
developed, which include the hydrophobic dewatering process and a novel 
centrifuge. In the former, coal is dried by displacement rather than by 
thermal evaporation, which is costly. In the latter, the moisture is 
reduced to substantially low levels with minimal loss of coal.
    Other research activities ongoing at CAST include methods of 
extending the upper particle size limit for flotation, extracting metal 
values from low-grade ores using microorganisms, separating ultra-fine 
particles from process streams for increased separation efficiencies, 
measuring the surface forces acting between bubbles and particles in 
nano-scale, analyzing water using a novel electrochemical technique, 
etc. The results of these research projects can be used in both the 
coal and mineral industries. The scientific knowledge base gained can 
also be used for other crosscutting applications such as clean-up of 
contaminated soils and industrial effluents, recycling municipal 
wastes, separating ultra-fine particles from gas streams, and 
separating one type of gaseous molecule from another.
                                proposal
    The solid-solid and solid-liquid separation technologies described 
above are examples of how fundamental research in universities can 
result in breakthrough technologies. Based on the promising development 
during the initial phase of the CAST activity, we have expanded our 
membership to include other universities that bring the expertise not 
readily available at the Charter Universities (Virginia Tech and West 
Virginia University), which are better known for their work in coal 
research. The other member universities are mostly located in the 
western United States and have unique expertise in minerals research 
including environmental control. By bringing different expertise from 
the various universities, CAST will be able to substantially enhance 
the probability of success in conducting long-term high-risk research 
and addressing the different geographical needs of the country.
    The CAST research will be divided into three broad areas: (i) coal, 
(ii) mineral, and (iii) environment. The following research topics may 
be listed under each of these areas:
  --Coal--dewatering, flotation, sensors, dense-medium separation, 
        refuse disposal, desliming, mercury removal
  --Minerals--flotation, selective flocculation, chemical leaching, 
        bioleaching, solvent extraction, classification, precious 
        metals, control
  --Environment--acid mine drainage, soil remediation, reclamation, 
        water treatment, recycling
    University research can easily be lost in the forest of basic 
research. In order to prevent this from happening, CAST programs will 
be conducted with close ties to industry. Two subprograms are proposed. 
In the Cooperative Research Program, CAST will bring together 
multidisciplinary expertise available at the Center to solve specific 
industrial problems that are common to several companies. The companies 
benefiting from the research results will be asked to provide 
substantial cost sharing. In the Industry Affiliate Program, companies 
will be encouraged to acquire memberships with nominal fees. In return, 
they will have access to all of the nonproprietary technical 
information available at the Center.
    To meet the objectives outlined above, CAST would need $3 million 
from the Fossil Energy R&D Program, U.S. Department of Energy, for 
fiscal year 2003. The participating universities will provide a minimum 
of 20 percent cost sharing, mainly in the form of in-kind 
contributions, and will request industrial companies to provide 
substantial financial contributions.
                                 ______
                                 
    Prepared Statement of the Optoelectronics Industry Development 
                              Association
     ``appropriations for the next generation lighting initiative''
    On behalf of the Optoelectronics Industry Development Association 
(``OIDA''), I would like to urge the Senate Interior Appropriations 
Subcommittee to approve fiscal year 2003 funding of $30 million to the 
Department of Energy for the proposed Next Generation Lighting 
Initiative (``NGLI''). The NGLI, which is authorized in pending House 
and Senate energy legislation, is a government-industry initiative for 
developing a new form of energy-efficient lighting based on solid state 
light sources. It is part of the Lighting R&D budget of the Department 
of Energy's Office of Building Technology, State and Community 
Programs.
    Despite an on-going U.S. industry investment and commitment to the 
development of solid state lighting, substantial technical obstacles 
remain. Full scale commercial deployment will be significantly delayed, 
or achieved first by foreign competitors, unless an effective and 
coordinated U.S. government and industry research and development 
effort is launched. The objective of the NGLI, which would be built 
around a 10 year program with the Department of Energy and a consortium 
led by the solid state lighting industry, is to enable the U.S.-based 
research and development necessary for transforming solid state 
lighting into a primary source for the nation's and world's general 
lighting needs.
    In anticipation of the NGLI, several leading optoelectronics and 
lighting companies have already joined in a solid state lighting 
consortium. In addition to this industry support, the NGLI has strong 
support from the Department of Energy, relevant National Laboratories, 
and members of Congress. OIDA believes the critical elements for a 
successful NGLI have now come together and that coordinated research 
and development in this area should no longer be delayed.
    OIDA is a non-profit association of roughly 60 optoelectronics 
companies, national laboratories and universities established to 
strengthen and advance optoelectronics technology and help the 
competitiveness of its members.
                need for more energy-efficient lighting
    The incandescent light bulb and the fluorescent light tube have 
long been the primary sources for the public's general lighting needs. 
Despite incremental technical improvements, neither of these light 
sources has achieved significant advancements in energy efficiency for 
several decades. Both convert only a small portion of the energy they 
consume into visible light. A 100-watt incandescent light bulb, for 
instance, emits only 5 percent of the energy it consumes as useful 
light, while the equivalent figure for the fluorescent tube is less 
than 30 percent. These inefficiencies are the result of fundamental 
physics and are not subject to significant improvement.
    Lighting consumes a large and growing portion of all energy 
generated in the United States--currently over 20 percent. Improvements 
in lighting efficiency should be a primary focus to limit this growth 
in energy consumption. The pursuit of new lighting technologies--
principally solid state lighting, that is governed by different 
physical principles than conventional lighting--offers the best 
opportunity to meet this objective.
         solid state lighting: the technology and its benefits
    Solid state lighting technology utilizes semiconductor devices 
known as light emitting diodes (``LEDs'') and organic light emitting 
diodes (``OLEDs'') to generate light. These devices are highly energy 
efficient and long-lasting. Unlike traditional light bulbs, they 
contain no glass envelops or filaments and are very durable. In 
addition, these devices offer a variety of new consumer advantages, 
including color and brightness adjustment.
    Solid state lighting technology has existed for over 30 years. Due 
to its efficiency and dependability, this form of lighting has long 
been employed in applications such as traffic lights, highway and exit 
signs, and certain automotive lighting. However, in order to achieve 
mass market acceptance of solid state lighting, particularly as a 
source for general lighting needs, higher efficiency, cost reduction 
and ease of use must be achieved. Once these obstacles are overcome, 
the full scale deployment of solid state lighting technology offers the 
potential for substantial economic, environmental, consumer, and other 
benefits.
    Unlike incandescent and fluorescent light, solid state lighting 
technology holds the potential of achieving near 100 percent conversion 
of electricity to light inside the semiconductor material and 
harnessing over half the light from the semiconductor for lighting 
applications. While solid state lighting has not yet approached such a 
high level of efficiency at all colors, it is not bound by the inherent 
limitations of today's conventional lighting technologies and is 
capable of rapid improvements through continued technology development. 
It is estimated that, given a considerable market penetration, solid 
state lighting could reduce global electricity usage for lighting by 50 
percent over the next 20 years and reduce total global electricity 
consumption by 10 percent. These changes equate to an overall reduction 
in annual global energy needs of 1,000 terawatt-hours representing an 
annual saving of over $100 billion.
    Solid state lighting will be more cost efficient in terms of 
product maintenance and replacement. Unlike incandescent bulbs and 
fluorescent tubes, LEDs and OLEDs are durable, long-lasting, and easier 
to program and operate. The energy efficiency of these devices could 
translate into major cuts in carbon emissions if solid state lighting 
is adopted broadly. It has been estimated that the United States could 
avoid over 200 metric tons of carbon emissions by 2020 if solid state 
lighting could garner a significant share of the general lighting 
market.
    A flourishing solid state lighting industry would have important 
economic benefits to the United States in terms of employment, growth 
in supplier and equipment industries, research and development and new 
applications. Furthermore, as solid state lighting becomes a leading 
source for general lighting outside the United States, the U.S. solid 
state lighting and related industries will reap expanded economic 
benefits for the nation in terms of job creation and tax contributions.
    Solid state lighting promises better quality and more versatile 
sources of lighting, including the ability to tune colors to virtually 
any shade or tint. In addition, solid state lighting offers other 
desirable qualities, such as light-weight, thinness, flexibility in 
deployment, and compatibility with integrated circuits to produce 
``smart'' light.
              foreign development of solid state lighting
    Efforts are underway in other countries to rapidly develop solid 
state lighting as a viable alternative to conventional lighting 
technologies. Government-sponsored industry consortia have been 
established in Japan, Korea, and Taiwan to develop more efficient solid 
state lighting technologies. Without a substantial government-industry 
commitment in the United States, competitors such as Japan will likely 
come to dominate solid state lighting and become the standard-bearers 
of this important technology.
               need for a government-industry initiative
    A government-industry initiative to develop this technology would 
serve the United States' economic and energy security interests. The 
United States would benefit not only from major energy and cost 
savings, improved quality of lighting, and a positive environmental 
impact, but also from the ability to enhance and maintain the 
competitiveness of the U.S. solid state lighting industry at a time 
when this technology is being aggressively pursued by other nations.
    Current technology roadmaps for solid state lighting indicate that 
the cost reductions and product development work necessary to 
commercialize this technology for the general lighting market could 
take a minimum of 12-18 years. The implementation of a focused 
government-industry initiative to further develop this technology for 
general illumination could substantially reduce this timeframe. Such a 
shared initiative would reduce the cost of research and development, 
enable important information sharing, accelerate technology innovation 
and the development of domestic and international standards.
    The optoelectronics industry in collaboration with the Department 
of Energy and several National Laboratories is developing a coordinated 
approach to solid state lighting. OIDA, DOE and the solid state 
lighting consortium are continuously updating the requirements for full 
scale development of solid state lighting. These include much basic 
research, which is especially suited for universities; harnessing work 
at the National Laboratories; and the development of an infrastructure 
of supplier and equipment firms that can be available for the 
commercialization of this new technology.
                  next generation lighting initiative
    The Initiative.--The Next Generation Lighting Initiative Act was 
introduced on July 11, 2001 by Senators Jeff Bingaman and Michael 
DeWine. The legislation was subsequently included in the Senate's 
comprehensive energy bill (S. 517). A related authorization provision 
is included in the House energy bill (H.R. 4). While H.R. 4 has passed 
the House, Senate consideration of S. 517 is still pending.
    The objective of the NGLI is to develop advanced solid state 
lighting technologies within 10 years. The legislation would involve 
two types of funding for research and development: (1) direct sponsored 
research from the Department of Energy, and (2) grants to universities, 
National Laboratories and infrastructure providers that would be 
administered by an industry-led consortium.
    The consortium would provide the framework for the entire program 
in that it would coordinate with the Department of Energy in assessing 
technology requirements, maintain technology roadmaps, and administer 
the efforts of participating universities, National Laboratories, and 
supplier and equipment infrastructure firms. All efforts would involve 
cost sharing.
    NGLI Appropriations.--While the authorization language in the House 
does not include a specific appropriations amount, the Senate 
authorization bill parallels Senator Bingaman and DeWine's original 
NGLI legislation in calling for $50 million in annual appropriations 
for the initiative through fiscal year 2011. For fiscal year 2003, the 
start-up year of the initiative, $30 million in funding would be 
authorized. Such funding would appear sufficient for complementing 
current industry efforts. Government funding is not contemplated to 
continue beyond the point at which this technology is available for 
broad-based applications.
    Though funding for the NGLI was not explicitly included in the 
President's proposed budget for fiscal year 2003, the Administration 
has requested funds for research in solid state lighting and the 
Department of Energy has been supportive of the initiative. OIDA urges 
the Subcommittee to ensure that $30 million is available in fiscal year 
2003 appropriations to support the NGLI.
    Industry Support.--In anticipation of the NGLI, various leading 
U.S. optics and lighting companies have come together to provide 
leadership in a consortium dedicated to developing advanced solid state 
lighting technology and to contribute cost sharing to this effort. 
Other members of the consortium include national and private 
laboratories, lighting and manufacturing infrastructure providers and 
over twenty universities.
    OIDA strongly endorses the creation of a Next Generation Lighting 
Initiative and urges the Senate Interior Appropriations Subcommittee to 
approve fiscal year 2003 funding for the launch of this important 
technology development initiative. NGLI offers the best approach for 
combining the resources of industry, government, and academia in an 
effort to bring to the commercial marketplace the next generation of 
lighting technology and to maintain a leadership role for the United 
States in this important field.
                                 ______
                                 
         Prepared Statement of the National Mining Association
    The National Mining Association's (NMA) member companies account 
for approximately three-fourths of the coal production in the United 
States, over 1 billion tons annually, and the vast majority of mined 
minerals including iron ore, copper, gold, silver, uranium lead, zinc, 
and phosphate. The purpose of this statement is to present the mining 
industry's views on fiscal year 2003 programs for the following 
agencies: Office of Energy Efficiency and Renewable Energy, Office of 
Fossil Energy, Energy Information Administration, and the U.S. 
Geological Survey, Office of Surface Mining and the Bureau of Land 
Management.
    Development and use of advanced technologies to allow greater, but 
more efficient, use of our nation's vast coal resources has never been 
more important than it is today. While imports of energy are, and 
always will be, an important part of our nation's economy, it is more 
important than ever to take the steps necessary to be able to more 
fully utilize our major domestic energy resource, coal, efficiently 
while continuing to maintain and improve our environment. Technology is 
the key to achieving our goals and research and technology development 
supported by government/industry partnerships must not only be 
maintained but must increase. We urge the Congress to consider our 
energy research priorities in light of the world situation as it exists 
today and will exist for years in the future.
                        office of fossil energy
    NMA supports the Department of Energy's (DOE) Clean Coal Power 
Initiative's (CCPI) requested level funding of $150 million to create 
government-industry partnerships to demonstrate innovations that will 
allow coal-fueled power plants to operate more efficiently and with 
improved environmental performance. It is difficult for utilities, 
especially under a deregulated and now competitive environment, to take 
the financial and technical risks associated with using first of a kind 
technologies. This program will help offset those risks.
    The Clean Coal Technology Program (CCTP) has been one of the most 
successful cooperative research, development and demonstration efforts 
between the government and industry, due in large part to Congress 
providing it with advanced funding. This financial commitment gave 
lending institutions and industry the confidence to move forward with 
high-risk, innovative projects. The same ``up front'' commitment should 
be considered for the 10-year, $2 billion, CCPI in order to assure that 
the results of the clean coal programs contribute to our nation's 
energy and economic security in a timely and effective manner.
    At the same time, ongoing R&D activities must be maintained and 
expanded to support the greater use of coal while addressing the new 
SO<INF>2</INF>, NO<INF>X</INF> and mercury standards proposed under the 
Clear Skies Initiative. Levels of funding for many coal-based R&D 
programs must be maintained or increased in order to achieve timely 
technology development. If funding is reduced, as proposed in some 
instances by the DOE budget, these technologies will not be developed 
in the time frame required. While the overall decline in the request 
for fiscal year 2003 funding is small on a percentage basis, even a 
small decline will prevent needed research programs from continuing. We 
urge the Congress to restore the levels of funding for coal and related 
research to fiscal year 2002 levels.
    In particular, DOE has proposed that $40.65 million be allocated to 
the Integrated Gasification Combined Cycle program, a reduction of 
$2.35 million from fiscal year 2002 levels. NMA supports increasing the 
budget to $65 million. The proposed fiscal year 2003 budget of $9.1 
million for Pressurized Fluidized Bed should be increased to $22 
million and the program should be renamed to ``Advanced Combustion 
Systems'' to more accurately reflect the research on going under this 
program. The extra funding would provide funds specifically for advance 
combustion systems, supercritical steam power systems, fluidized bed 
combustion and hot gas filtration. NMA recommends that the funding for 
turbine research be increased from $14 million to $24 million. The 
current budget request is just enough to maintain existing research, 
but is not enough to begin new research in this important area--
important not just to coal but to all fuels.
    Vision 21 looks to the future where highly efficient power plants 
will continue to use coal and other fossil fuels to provide Americans 
with low-cost electricity and other products. Vision 21 will build on 
and incorporate many of the technologies developed in the original 
Clean Coal Technology program as well as the Clean Coal Power 
Initiative. The work that DOE is proposing for fiscal year 2003 is 
critical if Vision 21 technologies, designed to increase efficiencies 
by 60 percent and to reduce emissions to near zero levels, are to be 
demonstrated by 2015. This program should be accelerated and we support 
funding at or above the requests for the various elements of Vision 21.
    Carbon Capture and Sequestration technologies promise to offer an 
alternative to emitting carbon dioxide to the atmosphere. Most of these 
projects will be a longer term, but research must begin now. NMA 
supports the request for an increase in carbon capture and 
sequestration funding to $54 million. This is a vital part of any 
climate change initiative.
    Coal Research and Development.--It is important to continue funding 
for coal preparation and liquefaction technologies as advanced coal 
preparation technologies promise to reduce the cost of continued use of 
coal in traditional applications in large industrial and electric 
utility boilers. It is important to continue the industry cost-shared 
research work on technologies for manufacturing advanced carbon-based 
products. Research in the areas of advanced technologies for solid-
solid and solid-liquid separations directed toward fuel production and 
use is equally important and we support $3.0 million for advanced 
separation research.
    NMA supports continued funding of the Steubenville Comprehensive 
Air Monitoring Program (SCAMP) to develop information essential for 
defining the relationship between fine particulate matter (PM) 
concentrations in ambient air and the fine PM concentrations to which 
individuals are exposed. SCAMP is co-funded by the Department of 
Energy, the Ohio Coal Development Office, the National Mining 
Association, the American Petroleum Institute, the Electric Power 
Research Institute, the American Iron and Steel Institute, and CONSOL, 
Inc.
    University Research.--The DOE should provide strong support for 
research on mining at the academic institutions. Several mining 
engineering departments are consolidating and even closing, due to lack 
of funding. This diminishes the national capability to develop 
fundamental science to improve mining practices, and impairs the 
abilities of the universities to train future generations of mining 
engineers. In addition to its programs in oil and gas production, we 
urge the Fossil Energy office to institute a program to support 
academic research in mining schools.
            office of energy efficiency and renewable energy
    The Mining Industry of the Future Program.--The research priorities 
developed through this industry/government partnership offer important 
direction to the Department of Energy, industry and Congress for a 
sustainable mining industry in the 21st Century. Response to the 
program has been overwhelming. Since 1999, 111 proposals totaling $113 
million have been received--at 50 percent, DOE's cost share would be 
$56.5 million. Of the total projects funded to date, industry's cost 
share is 54 percent, or about $31.5 million.
    In 2001, two new processing projects led by DOE national 
laboratories were selected from 21 proposals, bringing the total active 
projects to 28. Of these 28 projects, 10 will be completed in fiscal 
year 2002. As these projects wrap-up, several other R&D-related 
activities are underway. Another processing solicitation calling for 
industry-led proposals was issued early in 2002, with the goal of 
selecting new projects by the end of the year. A technology roadmapping 
session was held in 2001 to define research requirements that address 
the industry's mining and exploration needs; the related solicitation 
will be issued in early 2003, with project awards made in early 2004. 
The Administration has requested $5.1 million for the program in fiscal 
year 2003, the same amount as the fiscal year 2002 enacted level. NMA 
supports this request.
                energy information administration (eia)
    In addition to its value to the nation, the functions performed by 
the EIA are of significant importance to the mining industry. EIA's 
unbiased analysis and independent short and long-term forecasts form a 
basis for reasoned and responsible policy decisions by the Congress, 
the DOE and other government agencies on both the Federal and State 
levels. EIA's independence and objectivity are especially important as 
governments develop policies to respond to energy price increases and/
or to possible energy shortages. This has been very evident during this 
past year as Congress has debated both energy and environmental 
policies. From an industry perspective, EIA's energy data collection 
and dissemination responsibilities are essential to industry's ability 
to evaluate production and market trends and to make investment 
decisions that accrue benefit to the nation.
    Unfortunately, the quality, consistency and timeliness of the 
underlying data collected and published by EIA--data that provides the 
basis for both industry market analysis and for public policy 
decisions--has never been worse. In particular data on coal production 
and consumption and data on the vital electric utility sector have 
deteriorated to the point that the data is virtually unusable. Data is 
incomplete and inaccurate. Consistency in data collection--even on a 
month-to-month basis--is nonexistent. EIA data--at least in the coal 
and utility sector--has become completely unreliable. Unfortunately the 
nation is considering a national energy strategy and new environmental 
policies on the basis of this flawed data. While we support the current 
funding levels suggested for EIA, and would certainly support an 
increase, we would urge that the Committee include directions to the 
EIA to quickly take steps to improve the quality of the data collected 
and published. Sound public policy cannot be made if the underlying 
information used is faulty.
                     u.s. geological survey (usgs)
    The USGS's role in mineral exploration, identification of 
geological hazards and mapping offers important support to the mining 
industry. NMA supports maintaining these programs at current, or 
expanded levels. In addition, the USGS is the only source for most of 
the United States' statistical data on mining and minerals commodities. 
This information provides the basis for informed policy decisions by 
government and is extensively used by other government agencies, by 
Members of Congress and by State and local governments, as well as by 
industry, academia and nongovernmental organizations. NMA opposes the 
reduction of funding for the Minerals Information Service included in 
the fiscal year 2003 budget request. It is already difficult to 
maintain the data quality and timeliness that is so important--not just 
to the industry for market analysis purposes--but to the Administration 
and the Congress when developing and implementing public policy. Our 
nation is becoming more dependent upon foreign sources to meet our 
metals and minerals requirements as exploration and development of 
domestic resources is declining. Development of a National Minerals 
Policy to halt and reverse this trend is vital to our nation's economic 
future and strategic defense. The information collected and made 
available by the USGS will become all the more important in future 
years as Congress begins to consider elements of a National Minerals 
Policy. It is important that it be maintained at least at current 
levels.
                     office of surface mining (osm)
    The Abandoned Mine Land (``AML'') program receives funding from 
coal operators for the purpose of providing reclamation to sites 
disturbed before the passage of the Surface Mining Control and 
Reclamation Act (SMCRA). NMA remains concerned by the high 
administrative costs associated with the AML program, which reduces 
funds available for on-the-ground reclamation. The OSM should be 
directed to provide Congress a report describing and explaining the 
costs attributable to program administration with its recommendations 
for reducing those costs.
                    bureau of land management (blm)
    BLM should have adequate funding to ensure sufficient staff and 
resources are devoted to regulating mining operations, including the 
timely processing of plans of operations and conducting activities 
necessary to comply with the National Environmental Policy Act 
(``NEPA'').
                                 ______
                                 
  Prepared Statement of the Allison Transmission Division of General 
 Motors, Indianapolis, IN; BAE SYSTEMS Controls, Johnson City, NY; and 
                    Eaton Corporation, Kalamazoo, MI
    Request.--Our companies are competitively developing Heavy Duty 
hybrid electric propulsion systems (HD Hybrid) for Trucks and Buses. At 
the same time, we have pre-competitively established common objectives 
that we agree to jointly pursue in order to enable these products to 
come to market. All of our companies have encountered barriers to 
commercialization so significant that we have collectively agreed 
Federal assistance is essential to overcome them. We jointly request 
that the committee to increase the Department of Energy's 2003 budget 
for the Vehicle Technologies R&D Program, Hybrid Systems R&D sub-
account to $16,100,000 from the 2003 budget request level of 
$4,100,000, an increase of $12,000,000. The Department of Energy should 
be instructed to use these funds for the acceleration of Heavy Duty 
Hybrid Research and Development, without stipulation of vehicle fuel 
type, architecture or configuration, to enable the Private Sector to 
develop solutions that best meet the requirements of the trucking 
industry..
    Background.--The Allison Transmission Division of General Motors 
Corporation (Allison), BAE SYSTEMS Controls (BAE SYSTEMS) and Eaton 
Corporation (Eaton) are the three major HD Hybrid developers in the 
United States. Allison is the world's leading manufacturer of automatic 
transmissions for commercial and military vehicles. BAE SYSTEMS is one 
of the largest Aerospace and Defense companies in the United States and 
is the developer of HybriDrive<SUP>TM</SUP> propulsion systems. Eaton 
is the world's leading manufacturer of manual/automated manual 
transmissions and collision avoidance systems for commercial trucks. 
All three Companies are members of the 21st Century Truck Partnership.
    Our goals are to develop HD Hybrid propulsion products, defeat 
overcome the technical barriers that are inhibiting the technology and 
stimulate market demand for these products. In essence, we are 
attempting to create a brand new, globally competitive industrial base 
in the United States that will significantly benefit the Transportation 
sector. Our approach is to Our approach is to create an environment 
that is conducive to the accomplishment of our goalspre-competitively 
collaborate to create an environment that is conducive to the 
accomplishment of our goals. Our plan is to educate interested parties 
as to why HD Trucks and HD Hybrids are important, explain why HD Trucks 
and HD Hybrids differ from those used in Cars, Light Duty Trucks and 
SUV's, to outline why Government assistance is needed and to summarize 
our technology priorities.
    The Dilemma of Heavy Duty (HD) Trucks.--The average American does 
not understand or care why HD Trucks are important. Quite the contrary, 
the prevailing attitude toward HD Trucks ranges from indifference to 
outright hostility. They are dirty, noisy and smelly and many of them 
aren't pretty. Americans have to share the roads with them. Such trucks 
intimidate automobile drivers, cause accidents, clog traffic and ruin 
the roads. It's no wonder that looking for public policy support for HD 
Trucks is difficult. Trucks are unpopular, but, the average American 
doesn't realize that America can't economically survive without them 
and Americans cannot live without them. The average American does not 
understand or care why HD Trucks are important. Quite the contrary, the 
prevailing attitude toward HD Trucks ranges from indifference to 
outright hostility. Many of them aren't pretty. We have to share our 
roads with them. They are dirty, noisy and smelly. They intimidate us, 
cause accidents, clog traffic and ruin the roads. It's no wonder that 
looking for support for HD Trucks is a tough job. Trucks are unpopular, 
but, the average American doesn't realize we can't live without them.
    The Importance of HD Trucks.--America's economy runs on trucks. 
Virtually everything we own was transported by a HD Truck at least 
once, if not multiple times, to bring it to our homes or the place 
where we could buy purchased it. If you have it, it came by truck and 
when you're through with it, a truck will take it away. According to 
both the 1993 and 1997 U.S. DOT Commodity Flow Survey Studies, 72 
percent of the dollar value of goods shipped in the United States was 
shipped by truck. However, trends such as Just-In-Time (JIT) delivery 
and E-commerce are pushing our dependency on shipping higher. A report 
titled ``Economic Effects of Transportation, the Freight Story'', 
January 2002 by ICF Consulting and HLB Decision Economics outlines the 
causes and effects of this paradigm shift. The Motor Carrier Act of 
1980 deregulated trucking, which led to increased competition in 
interstate transportation markets. This caused trucking companies to 
cut their profit margins and increase efficiency to survive, which led 
to lower shipping costs. Business managers soon recognized this trend 
and invented JIT delivery, exploiting the trend by trading inventory 
cost for shipping cost to save money. Inventory costs of business were 
reduced from 8.2 percent of GDP in 1981 to 3.6 percent of GDP in 1999 
and at the same time, shipping costs were reduced from 7.4 percent of 
GDP in 1980 to 6 percent of GDP in 1988 and after. This resulted in 
more money available to suppliers of goods and less to the trucking 
industry despite increasing ton-mile volumes, which helped fuel the 
pre-Y2K economic expansion we enjoyed. The other significant effect is 
that the Nation's economy is now considerably more dependent on 
reliable, low-cost freight due to reduced inventories. In summary, 
trucking is extremely important to our Nation's economy, even though 
most most of usAmericans take it for granted.
    The Importance of HD Hybrid Trucks.--HD Hybrid makes trucks cleaner 
and more efficient. In an era of increasing ton-mile shipping volumes, 
fueled by the economic phenomenon described above, this is a very 
important consideration. HD Hybrid can reduce Oxides of Nitrogen (NOx) 
up to 50 percent and improve fuel economy 10 percent to 50 percent, 
depending on the driving cycle. Other technologies that are being 
developed and introduced to meet EPA 2004 emissions regulations (in 
2002 for those companies that are party to the consent decree) such as 
Exhaust Gas Recirculation (EGR) improve emissions but degrade fuel 
economy. HD Engine company representatives have stated that EGR can 
reduce fuel economy as much as 5 percent. Considering the trucking 
industry's razor thin margins, the cost increase driven by 5 percent 
poorer fuel economy could be devastating to both the trucking industry 
and the Nation's economy. With HD Hybrid, you don't have to sacrifice 
efficient for clean.
    Interestingly enough, HD Hybrid is a multiplier of other advanced 
truck and bus technologies. It complements, enhances and integrates 
with improvements in engines, aerodynamics, safety, aftertreatment 
devices, anti-idling systems, traction control and intelligent 
transportation concepts. It can does this because of its advanced 
computer control system and its inherent power management capability. 
HD Hybrid is a unifying technology that enables Engine, Truck and HD 
Component Manufacturers to work together in an Integrated Product Team 
(IPT) fashion. It HD Hybrid can have the effect on HD Trucks that 
stringent fuel economy and emissions regulations coupled with savvy 
foreign competition and increasing customer expectations has had on 
passenger cars. These market forces caused forced the automakers to 
more fully integrate their vehicles andproducts to meet emissions 
regulations, improve fuel economy and offer higher quality, more 
competitive productsand avoid fines. HD Hybrid is a unifying technology 
that enables Engine, Truck and HD Component Manufacturers to work 
together in an Integrated Product Team (IPT) fashion to enhance the 
competitiveness of their products. HD Hybrid can encourage this 
integration to the benefit of HD Truck products without the regulatory 
hammer.
    Looking forward, HD Hybrid is an integral part of the technology 
roadmap for fuel cell powered and all-electric HD Trucks and Buses. A 
fuel cell has no spinning shaft for power take-off and connection to a 
mechanical transmission and driveshaft. You put hydrogen in, and 
electricity and water vapor come out. But electricity alone cannot move 
a truck. HD Hybrid brings with it the electric drive technology that a 
fuel cell needs to become a propulsion system. And, theour Japanese 
friends are trucking industry is already moving out with HD Hybrid, 
spearheaded by a Government wide MITI initiative.
    How HD Trucks differ from LD Vehicles: This subject is worth 
discussing to address the common rationalization perception that 
investments in Passenger Car technology benefit HD Trucks. First, it is 
important to understand the definitions of Light Duty (LD) vs. Heavy 
Duty (HD) vehicles. LD vehicles (and Trucks) are those that fall into 
Classes 1 and 2a, which contain vehicles such as Passenger Cars (Pass 
Cars), Light Trucks (such as the GMC/Chevy 1500 series pick-up truck), 
Minivans and most Sport-Utility Vehicles (SUV's). HD Trucks are 
everything else, that is, all vehicles that exceed 8,500 lbs Gross 
Vehicle Weight (GVW), which are Classes 2b through 8. This cross 
section of vehiclesese includes Tractor-Trailers, Delivery Vans, Refuse 
and Dump Trucks, UPS and FedEx Package Vans, Buses, even large pick-up 
trucks such as the GMC/Chevy 2500 and 3500 series are in the HD class. 
A summary of characteristics that differ between LD and HD vehicles 
relative to North American markets is shown below.

------------------------------------------------------------------------
                                 Heavy Duty (HD)     LD Trucks and Pass.
       Characteristic                Trucks                 Cars
------------------------------------------------------------------------
Gross Vehicle Weight (GVW)..  6,100 to 80,000 lbs.  Up to 6,100 lbs
Duty cycle..................  Continuous daily      Intermittent light
                               operation.            duty
Peak horsepower.............  150 to 600..........  70 to 300
Continuous horsepower.......  150 to 600..........  25 to 60
Annual mileage..............  20,000 to 250,000     8,000 to 20,000
                               miles.                miles
Expected lifetime...........  1,000,000 miles.....  150,000 miles
Purchase price (not incl.     $60,000 to $150,000.  $12,000 to $40,000
 bus).
Market volume (annual)......  800,000.............  18,000,000
# of configuration variants.  Millions............  A few thousand
Fuel of choice..............  Diesel..............  Gasoline
Fuel consumption............  5 to 15 MPG.........  14 to 40 MPG
Who buys it.................  The fleet manager...  The driver
Who drives it...............  A hired driver......  The owner
Buyers priority.............  Reliability, Low      I like it/Want it
                               ownership cost.
Emissions certification.....  Engine only, grams    Vehicle level,
                               per Brake-            chassis dyno, grams
                               Horsepower-Hour (g/   per mile (g/mi) of
                               BHP-hr) of            emissions certified
                               emissions certified.
Certification responsibility  Engine manufacturer.  Vehicle manufacturer
------------------------------------------------------------------------

    There are important points to note from the chart:
  --Market volume for HD Trucks is about one-twentieth that of cars, 
        and they can be bought in 1,000 times more configurations. 
        Components designed for the market volume of cars, in many 
        cases, cannot be made commercially viable for HD Trucks because 
        the volume is not sufficient to offset development costs.
  --The HD Truck market has a completely different set of drivers than 
        the car market. HD Trucks are bought to make the owner money 
        and are driven by a paid driver, while cars cost their owner-/
        driver's money. An HD Truck buyer prioritizes reliability and 
        low cost of ownership while a car buyer prioritizes styling and 
        performance. Compared to a car, An HD Truck weighs about 2-10 
        times more, has 2-10 times the horsepower and burns 3-4 times 
        more fuel. HD Trucks are designed to run at full power all day 
        long, while cars are used intermittently and sit idle most of 
        the day. This results in completely different design priorities 
        for these two populations of vehicles.
  --The exhaust emissions of a HD Truck are certified and guaranteed by 
        the engine manufacturer while the vehicle manufacturer has this 
        responsibility for a car.
    These factors considered together have caused HD Truck and LD 
Vehicle markets and industries to behave very differently. Their 
markets, products, business models, revenue streams and regulatory 
environ*ments are completely different. Technologies resulting from 
Basic Research can be transferable between the industries but the 
products of Applied Research and beyond are market specific. In 
summary, the HD Truck and LD Vehicle technologies and corresponding 
investments in them leverage each other only at the most basic level.
    Why Government Assistance is Needed.--The preceding paragraphs have 
established the importance of trucking to the Nation's economy and 
highlighted that HD Hybrid is a technology that offers increased 
efficiency with a simultaneous emissions reduction. HD Hybrid can 
enhance Energy and Economic Security as well as favorably impact the 
attainment of Air Quality Standards. It was also noted that technology 
investments in Light Duty vehicle technology have marginal impact on 
Heavy Duty Trucks, production volumes are much smaller than that of 
cars, and that the trucking industry operates on very slim profit 
margins due to the competition created by deregulation. As a result, HD 
Hybrid is a technology that offers significant benefit to the public 
good, but its Business Case is weak enough to discourage Industry from 
making the initial investments to develop it. This is where the 
Government can help. Through prudent investment in key technologies, 
and by assuring that sufficient testing experience is available to 
overcome consumer reluctance, the Government can help Industry get this 
technology ``over the hump'', to the point that it will stand on its 
own with a strong business case driven by proven Life Cycle Cost 
payback and superior residual value to trucking firms. Therefore, we 
respectfully ask the Subcommittee to:
    Increase the Department of Energy's 2003 budget for the Vehicle 
Technologies R&D Program, Hybrid Systems R&D sub-account to $16,100,000 
from the 2003 budget request level of $4,100,000, an increase of 
$12,000,000. The Department of Energy should be instructed to use these 
funds for the acceleration of Heavy Duty Hybrid Research and 
Development, without stipulation of vehicle fuel type, architecture or 
configuration, to enable the Private Sector to develop solutions that 
best meet the requirements of the trucking industry. .
    Our technology priorities are:
  --Power Management Technology
  --Component and System Reliability Growth
  --Engine and Aftertreatment Integration
  --Component and System Modeling and Simulation
    In addition, our group will be pursuing strategies to build the 
Component Supplier Base, influence Emissions Certification Standards to 
accommodate HD Hybrids and implement Tax and Purchase Incentives to 
accelerate the introduction of HD Hybrids into trucking Fleets.
                                 ______
                                 
      Prepared Statement of the Super Computing Science Consortium
    We are writing on behalf of the Super Computing Science Consortium. 
Members of this Consortium, including the Pittsburgh Supercomputing 
Center (co-operated by Carnegie Mellon University and the University of 
Pittsburgh), the National Energy Technology Laboratory, and the West 
Virginia University, apply their resources to problems in energy and 
the environment and to stimulate regional high-technology development. 
We request that $7 million funding be allocated in the Department of 
Energy's fiscal year 2003 budget to support the Focus Area for 
Computational Energy Sciences, Advanced Research Programs, Office of 
Fossil Energy Research and Development, of which $2 million shall be 
allocated to the Super Computing Science Consortium.
    The Pittsburgh Supercomputing Center (PSC), jointly operated by 
Carnegie Mellon University, the University of Pittsburgh and 
Westinghouse Electric Company, provides academic, government and 
industrial researchers with access to the world's most powerful public 
resource for high performance computing, communications and data 
handling. Consortium members bring to the National Energy Technology 
Laboratory (NETL) the supercomputing and networking expertise of the 
PSC and the three-dimensional visual simulations expertise of the West 
Virginia University (WVU). In addition, the Consortium supports NETL 
and its mission with the intellectual and technical resources of the 
member universities.
    The Super Computing Science Consortium is currently working on a 
variety of computational projects, conducting training and outreach 
activities, developing regional workforce capabilities, and 
participating in economic development efforts throughout western 
Pennsylvania and West Virginia. The computational projects advance the 
NETL mission utilizing state-of-the-art computational techniques and 
resources, and the expertise to experts in the field, better to 
understand and to advance the state of practice in a wide range of 
areas pertinent to the efficient extraction and use of fossil energy. 
The training, outreach and regional workforce and economic development 
activities serve the NETL mission by improving the knowledge, 
capability and skills both of the NETL staff and of the regional work 
force from which NETL draws employees.
                 representative computational projects
    MFIX Simulations
    Numerical Simulation of Unsteady Combustion
    Large Eddy Simulation (LES) of Hydrogen-Enriched Premixed
    Combustion for Ultra-Low Emission Gas-Turbine Applications
    Grant for Fluent simulations for the PC fired boiler project on the 
PSC Beowulf cluster
    Multi-Dimensional Hybrid CFD Design/Optimization of Tri-Fluid 
Pressurized Combustors
    Pore-Level Modeling of Carbon Dioxide Sequestration in Geologic 
Formations
    Turbulence Predictions in Reacting Multiphase Flow
    Numerical Simulation of In-Situ Reheat in Turbines
    CFD Models for Slurry Bubble Column Reactors
    Molecular Dynamics Calculations of Spin Labeled Nanometers
    Effect of baffles in partially filled heavy duty tanker
    Turbine Tip Clearance Region Desensitization
    Calculation of Point Defect Interactions: Formation of Defect 
Complexes and Clustering in Fe3Al
    First Principles Calculations of the Electronic and Chemisorption
                                training
    Training on the applications of disperse computing systems was 
conducted for WVU and NETL researchers. The consortium is in the 
process of implementing a grid computing systems composed of a cluster 
at PSC, one at WVU and one at the NETL Morgantown site. The high-speed 
Internet service recently brought into West Virginia will allow the 
disperse clusters to work together on complex problems and to achieve 
high utilization of all three systems.
    Three papers on the consortiums activities will be presented at the 
WVU technology fair on April 23, 2002. This technology fair draws 
representatives from businesses from across West Virginia.
    A training seminar for WVU researchers on parallel computing will 
be conducted in May 2002.
    The outreach session at Waynesburg College was held on April 4 and 
5, 2002. This session presented the principles of parallel and cluster 
computer to representatives from small colleges and universities from 
West Virginia, Pennsylvania and Ohio. Twenty-eight registrants from 13 
schools attended.
    Work Force Development.--The Consortium collaborated in development 
of first graduate level course in cluster computing. Twenty-three 
graduate levels students now enrolled.
    Economic Development.--The Consortium provided management guidance 
and technical consultation to Greene County government agencies in 
development and implementation of EverGreene Technology Park. Greene 
Co. has the most rural school district in Pennsylvania and an already 
high unemployment rate. It is expected that EverGreene will draw well-
compensated, high tech jobs to this region.
    Fiscal year 2003 Activities.--Work on this project will continue to 
support the Fossil Energy Vision 21 initiative. Many of the computing 
projects initiated to date will continue within the Cluster and T3e 
computing platforms. In addition, we will extend the computational 
program to exploit the PSC terascale system in support of DOE 
objectives. The terascale machine will allow the highest level of 
computational resource to be brought to bear on critical problem facing 
fossil energy use in the future. Issues of carbon sequestration, 
methane production from methane hydrates, complex flow and chemical 
issues in future vision 21 coal utilization plants, and infrastructure 
protection will address.
  --Applications will be implemented on the grid computing system 
        established in fiscal year 2002. The applications will include 
        job scheduling of fossil energy computational problems from 
        NETL and partnering universities and labs.
  --In collaboration with WVU virtual environments lab, distributed 
        rendering of virtual plants and research results will be 
        developed and performed on the grid computing system.
  --Efficient monitoring and support of hardware and software systems 
        comprising the grid's distributed clusters will be established 
        to provide 24<greek-e>7 support from a central location.
  --Implement a disaster backup capability for NETL data across the 
        fiber optic network.
  --Workforce development: Building on this year's program, we will 
        work with the EdVenture Group, a not for profit WV state 
        agency, to begin a workforce development program on a pilot 
        basis with one high school in rural WV. The WVU class prepared 
        this year will be simplified and taught at the high school by 
        NETL, WVU and PSC personnel. This class will serve as a model 
        for future sessions in the region.
  --Extend the network to Fairmont and other parts of WV.
  --Continue to increase pool of academic and research institutions 
        supporting NETL's mission. This process also benefits the 
        participating institutions by encouraging advances in 
        computational skills and related expertise. It is expected that 
        additional college level programs will also come about as these 
        schools become familiar with state of the art HPC resources. A 
        continuing and growing benefit will occur for NETL and the 
        region.
                                 ______
                                 
Prepared Statement of the National Research Center for Coal and Energy, 
                        West Virginia University
                                request
    Our testimony will focus on the Fuels Program in the fiscal year 
2003 Fossil Energy R&D budget. We are very concerned about the proposed 
reduction in funding for fuels research to a level of $5 million for 
fiscal year 2003 compared to the enacted level of $32.2 million in 
fiscal year 2002. We request that $6.3 million be added to the Fuels 
Program budget to continue the work this Subcommittee has supported in 
the areas of C-1 Chemistry, Advanced Separations, and Coal Extraction. 
We also urge your continued support for strong research, development, 
and demonstration programs in the areas of coal, natural gas, and oil.
                         fossil energy programs
    For the Fossil Energy R&D Program, the Administration's fiscal year 
2003 request is approximately $93 million (16 percent) less than the 
enacted budget for fiscal year 2002. Major reductions have been 
proposed in Central Systems, Fuels, Distributed Generation, and Natural 
Gas and Oil Technologies. These budget reductions will scale back 
essential R&D programs, some of which have existing mortgages. Ensuing 
time delays in completing these programs will hamper our ability both 
to enable our existing power generation fleets meet mandated emissions 
goals and also our ability to develop new technologies which will serve 
us in the future. We urge the Subcommittee to restore these programs to 
at least their fiscal year 2002 level.
    We are pleased to note that the Administration has recommended $150 
million for the Clean Coal Power Initiative. These funds will be used 
to demonstrate technologies that are highly complex and capital 
intensive. We recommend that the $2 billion initiative announced by the 
Administration should be funded as additional money over and above the 
basic fossil energy R&D program.
    The need for separate funding for the Clean Coal Power Initiative 
(a demonstration program) and the basic R&D program can be illustrated 
by reviewing the fossil energy research overseen by the Department of 
Energy for the past 25 years. [Reference: National Research Council 
Report--Energy Research at DOE: Was It Worth It?]. Since 1984, the R&D 
for coal, oil, and natural gas has been funded at approximately the 
same level, around $400 million in constant dollars. Demonstrations 
supported under the previously funded Clean Coal Technology [CCT] 
Program were treated separately from the base R&D program. Legislation 
enacted by Congress committed CCT funding for the outyears, thereby 
assuring participants that continuing appropriations would be available 
to complete their projects.
    Our nation's needs for low cost, clean, abundant energy are even 
more acute as we face both shortages of supply and uncertainties about 
the source of supply. We must both adequately fund our R&D programs and 
support the demonstration program by appropriating additional funding 
for the Fossil Energy budget. As was the case with the Clean Coal 
Technology Program, we urge both Congress and the Administration to 
commit the long-term funding necessary to permit successful 
demonstration of the technologies that evolve from the basic R&D 
program.
                             fuels program
    The Fuels Program of the Office of Fossil Energy has three 
important subelements which would be affected by the budget cut 
proposed by the Administration: Transportation Fuels and Chemicals, 
Solid Fuels and Feedstocks, and Advanced Research. Our nation needs 
alternative sources of transportation fuels to supplement our oil 
reserves and reduce imports. Coal can play an essential role in 
producing liquid fuels, chemicals, and is the most viable long-term 
source of hydrogen. Advanced research is necessary to improve our 
technologies. Solid fuels research programs help us save energy and 
resources through the application of new processes and the manufacture 
of new products from coal.
C-1 Chemistry Program
    The C-1 Chemistry program is the only element of the Fuels Program 
which addresses advanced research for new technologies to reduce the 
cost of producing alternative fuels from a wide variety of feedstocks, 
including coal, natural gas, and biomass. Research conducted by the 
Consortium for Fossil Fuel Science [CFFS] has led to innovations for 
the Fischer-Tropsch (F-T) process that improve our ability to produce 
ultra-clean, high efficiency transportation fuels. Cleaner 
transportation fuels are needed to meet present and future emissions 
requirements, such as lower sulfur, NO<INF>X</INF>, and particulate 
emissions, advanced by the Environmental Protection Agency.
    CFFS researchers have also developed new catalysts and processes 
for producing oxygenated compounds for additives to diesel fuel or 
gasoline, and for the production of hydrogen. The program has developed 
ways to produce carbon nanotubes which can be used for hydrogen gas 
storage and also a wide variety of other products. The CFFS is guided 
by an Industrial Advisory Board whose critiques and recommendations 
ensure the relevance this long term research program. The program is 
also maintaining our resource base of human capital with expertise in 
coal science.
    New technologies for fuel production will make advanced coal power 
plants being developed under Vision 21 programs more economical. 
Successful Vision 21 plants will lead not only to supplemental supplies 
of transportation fuels and chemicals from indigenous resources, but 
also to a continuation of our inexpensive supply of electric power. We 
request that C-1 Chemistry be funded at a level of $2 million in fiscal 
year 2003, an increase of $0.5 million over the fiscal year 2002 
appropriation. The CFFS will provide $0.5 million in cost sharing to 
supplement the federal funding.
Advanced separations
    In 2000, the U.S. mining industry produced $60 billion worth of raw 
materials and the mineral processing industries increased the value of 
this production to $429 billion. The electricity generated from mining 
coal and uranium was worth $182 billion. Overall, the mining industry 
contributed approximately 6.7 percent of the U.S. economy in 2000. 
However, the mining industry is also producing a large amount of waste 
products and loses much of its recovered resource due to inefficiencies 
in the various separation processes that are currently being used. In 
some cases, such as the October 11, 2000 catastrophic coal waste 
impoundment failure near Inez, Kentucky, damage is done to the 
environment from the release of the discarded material into streams, 
creeks, and rivers. The damage to the environment from the coal fines 
released at Inez resulted in $500 million in clean-up costs. The recent 
National Research Council study recommended that additional research is 
needed to prevent such disasters. Advanced separations technologies 
would recover more of the coal fines, thereby reducing the need for, 
and size of, such impoundments.
    The Advanced Separations research supported under the Fuels Program 
is focused on high-risk innovative projects to develop new technologies 
for the recovery of resources and to minimize waste releases to the 
environment. The Advanced Separations program is particularly important 
for the collection and sequestration of ash, minerals, and sulfur from 
coal, and will become increasingly more relevant to address the removal 
and sequestration of heavy metals, including mercury. Industry 
continues to show interest in a federally sponsored academic-style 
research program in this area.
    The Center for Advanced Separations Technology [CAST] is conducting 
crosscutting research in the solids-solids and solids-liquids 
separations areas by working closely with the mining industry on the 
underlying science and technology that will be the basis of new 
processing techniques. Areas being researched are crosscutting in 
nature and can be applied to both the coal and minerals area. Member 
universities in the Center include Virginia Tech, West Virginia, New 
Mexico Tech, Utah, Montana Tech, Kentucky, and Nevada-Reno. In fiscal 
year 2002, the CAST initiated research programs in coal, minerals, and 
biological separations areas. In addition to the advanced technologies 
being developed, the program also helps to educate technical people to 
support the industry under the direction of researchers in the top 
mining schools in the United States.
    We request that the CAST Advanced Separations program be continued 
at the fiscal year 2002 level of $3 million. Center participants will 
provide $0.75 million in cost sharing.
Coal Extraction Program
    The manufacture of advanced carbon-based products continues to be 
an important contributor to our economy. Lightweight carbon structures 
are integral components of transportation vehicles, leading to reduced 
weight, enhanced energy efficiency, and high strength components that 
improve the safety of vehicles in crashes. Traditionally, carbon 
products were made from petroleum cokes to produce binders and pitches 
that form the building blocks for products such as anodes for steel and 
aluminum smelting, graphite for nuclear reactors, and advanced 
composites for a variety of industrial and consumer products. Recent 
findings have shown that coal-based carbon products have superior 
properties compared to petroleum-based products.
    Petroleum-based pitches and cokes are becoming in increasingly 
short supply. These feedstocks also contain more heavy metals as we are 
forced to use the less desirable petroleum crudes for our 
transportation needs. Coal-based binders and pitches are also less 
plentiful since environmental concerns and weakening steel production 
reduce the supply available from traditional sources such as coke 
ovens.
    Research conducted under Coal Extraction program is focused on 
developing low-cost, plentiful supplies of coal-based carbon for use in 
manufacturing. The basic research conducted under this program provides 
the upstream knowledge necessary for a wide range of industries to 
manufacture useful products such as foams, fibers, beads, and graphite. 
We request funding for the Coal Extraction program for fiscal year 2003 
at a level of $1.3 million, a reduction of $0.4 million from the 
enacted fiscal year 2002 budget. An additional $325,000 will be 
contributed in cost sharing to supplement the federal award.
                          concluding comments
    The advanced research supported under the three programs discussed 
above provides the knowledge to enable further development of these 
technologies into the commercial sector. These programs also assist in 
preserving our national base of intellectual capital with expertise in 
coal chemistry. Thank you for the opportunity to present testimony on 
the fuels research program of the Office of Fossil Energy. We 
appreciate the continued support of the Subcommittee for the C-1 
Chemistry, Advanced Separations, and Coal Extraction programs.
                                 ______
                                 
           Prepared Statement of the Alliance to Save Energy
    The Alliance to Save Energy appreciates the opportunity to comment 
on the fiscal year 2003 budget for energy-efficiency programs at the 
Department of Energy. We believe that the funding levels for these 
critical research, development, and deployment programs should be 
significantly higher, but there are positive aspects to the current 
document.
    My name is David Hamilton. I am the Policy Director of the Alliance 
to Save Energy, a bi-partisan, non-profit coalition of business, 
government, environmental, and consumer leaders dedicated to improving 
the efficiency with which our economy uses energy. Senators Charles 
Percy and Hubert Humphrey founded the Alliance in 1977; it is currently 
led by Sen. Byron Dorgan as chair, with Sen. James Jeffords and your 
colleague, Rep. Ed Markey as vice-chairs.
    Seventy companies and organizations currently belong to the 
Alliance to Save Energy. If it pleases the Chairman I would like to 
include for the record a complete list of the Alliance's Board of 
Directors and Associate members, which includes the nation's leading 
energy efficiency firms, electric and gas utilities, and other 
companies committed to cutting their energy bills.
    The Alliance has a long history of researching and evaluating 
federal energy efficiency efforts. We also have a long history of 
supporting efforts to promote energy efficiency that rely not on 
mandatory federal regulations, but on partnerships between government 
and business and between the federal and State governments. DOE 
efficiency programs are largely voluntary programs that further the 
national goals of broad-based economic growth, environmental 
protection, national security and economic competitiveness. The Office 
of Energy Efficiency and Renewable Energy does this through the 
development of new energy-efficient technology in cooperation with the 
national laboratories, by working with the private sector to deploy 
that technology, and by fostering energy efficiency activities in the 
states. And they do it well.
                   a critical juncture for the nation
    In April 2002, we remain in the midst of a fierce debate on 
national energy policy. Thus far, there has been no resolution as the 
Senate continues to work on its energy bill. Meanwhile, critical 
geopolitical issues point up our continued vulnerability to supply 
disruptions and price instability. One might have thought that the 
terrorist attacks of September 11 would have changed more attitudes 
about energy than it has. While some concern is being paid to the 
physical security of energy infrastructure from terrorism surprisingly 
little has yet been done to protect the nation's economy from energy 
supply and price disruptions.
    The energy events that gave rise to the push for energy legislation 
seem like they have subsided and are further away, but I don't believe 
they are very far away, Mr. Chairman. Gasoline has risen nearly 30 
cents per gallon as the Israeli-Palestinian crisis has intensified 
during the past few weeks. The rush to build new electricity generation 
that immediately followed the California electricity crisis has greatly 
abated as prices have fallen and near-term supplies have stabilized. 
Nobody has yet come up with an adequate answer to how we maintain a 
stable and cheap natural gas supply when nearly all new generation 
coming on line is gas-fired.
                boom and bust test our economic security
    Energy is a boom and bust business, Mr. Chairman. Supply gets tight 
and the price goes up, then there is a rush to secure greater supply. 
That additional supply creates a glut that send prices and profit 
margins falling until a combination of falling supply and rising demand 
renew the cycle.
    Mr. Chairman, it is arguable how well our economy absorbs the 
shocks of the boom and bust cycle. The oil crises of the 1970's clearly 
caused economic disruption on a large scale. The California electricity 
crisis opened a drainpipe in the state treasury, while price spikes in 
the East and mid-west during the past few years sent prices spiraling 
for short periods. The natural gas spike of two winters ago caused 
severe economic hardships for families that heat with gas.
    Energy issues are so often intermingled with ``national security'' 
issues these days, it gets more and more difficult to sort out where 
they really intersect. Now viewing the world through a terrorism 
template, we talk about the physical security of nuclear power plants 
in the same breath as whether to drill for oil in the Arctic National 
Wildlife Refuge. The issues of physical and economic security are often 
confused.
    In the end, Mr. Chairman, what has been a blind trust in boom and 
bust markets to determine our energy supply has again and again 
jeopardized our economic security. Every oil shock in our history has 
been followed by a recession, Mr. Chairman. What's worse, Mr. Chairman, 
is that we have actively avoided taking steps to mitigate our 
vulnerability.
          energy efficiency is insurance against boom and bust
    Reducing demand in oil, electric, and home heating sectors reduces 
the impact on the economy of the boom and bust cycle. Increased energy 
efficiency in vehicles cuts the leverage that OPEC has over our oil 
supply. It keeps electricity supply clear of the crisis level that 
causes prices to spike to many times its normal level. Levels of 
electricity conservation in California of 6-10 percent since last year 
have substantially helped keep the state out of the danger zone it 
faced so recently. As we say here every year, Mr. Chairman, reducing 
demand through energy efficiency increases energy supply, often more 
quickly, cheaply, and cleanly than any other method.
                           everybody agrees?
    The one thing that everyone has agreed on Mr. Chairman, is that 
energy efficiency should be a key part of our national energy policy. 
Virtually all the chief governmental proponents of energy legislation, 
whether President Bush, Sen. Daschle, Chairman Tauzin or Sen. Murkowski 
have said it: energy efficiency (or conservation if you prefer; 
although used interchangeably, they are not the same) is a significant 
policy option available to balance the pursuit of increased supply. The 
Alliance believes we need both, but the proposals being considered fall 
far short of aggressive attempts to maximize energy efficiency.
    But what people don't agree on, Mr. Chairman, is what constitutes 
real energy efficiency. The Alliance to Save Energy believes that we 
need both new supply and aggressive demand-reduction. But H.R. 4, the 
House energy policy bill, largely ignored energy efficiency options in 
the transportation and electric sectors and thus constitutes little 
more than a missed opportunity to have a balanced national energy 
policy. A complete failure to include meaningful provisions to save oil 
and save electricity make H.R. 4 a supply bill, that--aside from some 
useful tax incentives--provides little other than window dressing on 
efficiency.
                    fiscal year 2003 budget request
    The fiscal year 2003 budget for energy efficiency programs 
submitted by the Administration makes significant changes in programs 
and process within these programs. An additional order of magnitude of 
change to be evaluated is the recent reorganization of the entire 
Office of Energy Efficiency and Renewable Energy announced by Assistant 
Secretary David Garman last week.
    To begin at a macro level, we are disappointed that the 
Administration's fiscal year 2003 request slates energy efficiency 
programs for a cut. The Alliance continues to believe that energy 
efficiency efforts are not funded at an adequate level. In addition, 
while we are pleased with the critical increase in the Weatherization 
Assistance Program outlined in the request, we are very concerned with 
the more than 10 percent cut in funding for research, development, and 
deployment programs.
    We cannot cease to aggressively pursue new technology options in 
the buildings, industrial and transportation sectors, Mr. Chairman. The 
breakthroughs achieved by DOE's past research into more efficient 
technology have revolutionized our buildings, our lighting, and a 
variety of commercial and industrial practices. Programs designed to 
overcome market obstacles to the adoption of existing technologies are 
just as critical. Cuts in the President's request for windows research, 
industrial Best Practices, Clean Cities, and automotive Hybrid Systems 
R&D are examples of places that need more focus and concentration, not 
less.
    In addition, the 14 percent reduction in funding for State Energy 
Programs weaken a key cog in the promotion, distribution of knowledge, 
and adoption of energy efficient technologies. The states remain strong 
and active partners, and should be on a rising, not falling, curve of 
support.
           fiscal year 2003 budget request has strong points
    In addition to a more vibrant commitment to weatherization, this 
budget has other items and increases to recommend it. The increase in 
Energy Star would finally give more adequate support to a program long 
supported strongly by the Alliance and one that is becoming an 
essential guide for consumers who wish to purchase energy efficient 
appliances, windows, and other products. A more aggressive Building 
America program will help break down the barriers that home builders 
face in incorporating energy-efficient technologies into residential 
construction. Increased support for the Federal Energy Management 
Program will enable DOE to accelerate its leadership role in gaining 
energy savings from federal facilities.
    The Alliance strongly believes that increasing fuel economy 
standards is the best and quickest way to reduce our nation's oil 
dependence, Mr. Chairman. We are wary that some of the heralding of the 
``Freedom Car'' program may lessen the focus on standards as a way to 
reduce oil consumption. That being said, we strongly support 
accelerated work on automobile fuel cells that can perhaps shorten the 
15-20 year expected interval before fuel cell cars will be on the road 
in significant numbers.
                          eere reorganization
    The reorganization announced last week by Assistant Secretary 
Garman is broad in scope and will require significant attention in the 
coming weeks. Its basis is a 236-page strategic review that has just 
become available to the public. It eliminates the former sectors within 
energy efficiency--buildings, industrial, and transportation--reducing 
some of them to program categories. The combination of business 
functions may have larger implications for the traditional distribution 
of the functions between the Energy and Water and Interior 
Appropriations bills.
    It is critical that Congress not allow a fudging of the priorities 
that have been laid out for the Department by this reorganization. The 
Alliance is sympathetic and supportive of changes that can make energy 
efficiency programs accomplish more and use taxpayer dollars more 
efficiently, and we commend Assistant Secretary Garman for tackling 
these tough issues. When analyzing the reorganization, Mr. Chairman, 
please pay close attention to the following:
  --Does the reorganization create de facto shifts in program priority 
        for EERE and what are they?
  --For which programs does the reorganization make it harder or easier 
        to do business?
  --How does the mandated routing of all communication activities 
        through the Assistant Secretary's office enhance or detract 
        from the office's ability to get its message out?
                            recommendations
    The Alliance to Save Energy generally recommends at least a 20 
percent increase over fiscal year 2002 funding for non-grant energy 
efficiency programs.
    We are particularly disturbed about cuts in: Window Research; 
Thermal Insulation and Building Materials; Best Practices; Hybrid 
Systems R&D; Lightweight Materials Technology; Clean Cities; COEECT 
(eliminated).
    The Alliance strongly supports the included and additional 
increases for: Energy Star; Lighting and Appliance Standards; State 
Building Codes; Federal Energy Management Program; Industrial 
Assessment Centers; Building America; Auto Fuel Cell R&D.
    In addition, the Alliance recommends additional increases for: 
NICE-3; Industries of the Future--Specific; Sensors and Control 
Technologies.
    Thank you again, Mr. Chairman, for offering the Alliance to Save 
Energy the opportunity to testify before you today and for your support 
in past years for energy efficiency. I welcome any questions that you 
or the Subcommittee might have.
                                 ______
                                 
           Prepared Statement of the American Gas Association
    Mr. Chairman and Members of the Subcommittee: On behalf of the 
American Gas Association (AGA), comprising 185 natural gas distribution 
companies across North America, serving 60 million homes and businesses 
in all 50 states, we offer this testimony related to the U.S. 
Department of Energy's (DOE) fiscal year 2003 Budget. AGA is pleased 
with the productive partnership it has with DOE and this Subcommittee 
to advance cost-shared research projects that serve the national 
interest. Within the Interior Subcommittee's jurisdiction, DOE's fiscal 
year 2003 budget request for natural gas RD&D programs reside in the 
Offices of Energy Efficiency and Renewable Energy (EERE) and Fossil 
Energy (FE). For the past decade we have provided this Subcommittee 
with a litany of technology priorities across a broad spectrum of 
programs. This year, however, marks a significant deviation from that 
policy. While AGA continues to support programs such as natural gas 
vehicles and industrial RD&D, two top priorities and programs have 
emerged: FE's natural gas infrastructure and EERE's distributed energy 
resource (DER) programs. The Administration requested no funding for 
natural gas infrastructure research in the fiscal year 2003 budget, 
compared with $10 million appropriated by Congress for the current 
year. AGA respectfully requests an increase of $25 million to the 
budget request for infrastructure programs. Justification for this $15 
million increase over the current level is discussed below. EERE's 
fiscal year 2003 DER request is virtually unchanged from fiscal year 
2002 at the level of $64 million and AGA respectfully requests an 
increase of $26 million for a total of $90 million.
    AGA's unprecedented prioritization and funding request reflects the 
nation's immediate need for and the industry's commitment to dramatic 
advancement in the areas of infrastructure and DER. The horrible 
terrorist acts of September 11, 2001 make clear the needed re-
investment in infrastructure both to facilitate greater reliance on 
domestic energy resources and to ensure the secure distribution of 
those national assets to American consumers. Increased emphasis on 
Homeland Security also highlight the value of a power generation 
portfolio that is distributed, reliable, cost-effective and able to 
operate independently even if a central power station or the electric 
grid is compromised. Given these needs and our commitment to reliable 
and safe service for the American people, the Natural Gas Industry has 
developed two initiatives aimed at dramatically advancing 
Infrastructure and DER, they include the Natural Gas Check-Off Program 
and the National Accounts Energy Alliance.
       natural gas infrastructure--natural gas check-off program
    The Office of Management and Budget proposes to terminate funding 
for the natural gas infrastructure program in DOE. The American Gas 
Association strongly supports the DOE's program for natural gas 
industry Infrastructure and Operations. This program was initiated in 
fiscal year 2001 with an appropriation of $4.9 million for 
infrastructure and has been met by tremendous enthusiasm and project 
costsharing within the natural gas industry. More than 70 proposals, 
totaling in excess of $45 million, were submitted by industry partners 
in response to the inaugural year funding under the DOE program. These 
proposals exceeded the available dollars by a nine-to-one margin. All 
proposals met or exceeded DOE's 35 percent cost-sharing requirement.
    Congress appropriated $10 million for fiscal year 2002 and all 
indications are that industry partners will respond at least as 
enthusiastically as last year. Given the need to revitalize the 
Nation's aging natural infrastructure with new technologies and 
materials, given the heightened importance of safeguarding that 
infrastructure, and given the overwhelming response of the natural gas 
industry to partnering with the government to achieve these objectives, 
AGA highly recommends the continuation and expansion of this program by 
$15 million in fiscal year 2003.
    In general, DOE's infrastructure R&D is geared to its mission to 
make the nation's energy infrastructure more reliable, efficient and 
able to meet the needs of the economy. It tends to have longer-term 
benefits. DOE's programs include projects such as: more corrosion-
resistant material that can transport gas at higher pressure, more fuel 
efficient compressors that are capable of flexible compression 
operation, improved automated data acquisition, system monitoring and 
control techniques, no dig technologies, innovative excavation and 
restoration systems, and plastic pipe technology. All of these 
contribute to public benefits in terms of additional domestic energy 
supply, increased safety and reliability, lower cost to consumers, and 
improved environmental performance.
    The natural gas industry provides substantial cost sharing in the 
development of the technologies necessary to develop this new 
infrastructure. We do believe that there are significant benefits that 
will accrue to all Americans as a result of an infrastructure research 
partnership. We know that major and novel system improvements are 
needed for natural gas to be delivered in the volumes that DOE believes 
will be required in the future and that these improvements are 
dependent on new, highly efficient technologies.
    Some in the Office of Management and Budget argue that all natural 
gas infrastructure research should be conducted exclusively by the 
Department of Transportation. Currently, the Office of Pipeline Safety 
(OPS) in DOT does conduct limited infrastructure-related work. 
Consistent with its role as a pipeline safety regulatory agency, OPS's 
pipeline R&D has focused on near term safety, security and damage 
prevention projects and technologies and codes and standards 
development. DOE focuses on the long term energy delivery issues 
related to natural gas infrastructure. Although, both departments are 
involved in R&D, the departments have different missions and their R&D 
programs reflect it.
    Coordination between the two departments is critical and AGA 
recommends a balance of both security, safety, reliability and 
efficiency related work. The research programs in each department are 
extremely essential.
    Meeting a large increase in demand efficiently and in a manner that 
is in the best interest of the American people will require continued 
cooperation between DOE, DOT, and the natural gas industry to develop 
the necessary research tools. It is clear that immediate and 
substantial investment in research supporting natural gas 
infrastructure is essential to ensuring energy reliability and security 
in our Nation.
    The natural gas industry's commitment to partnering with the 
Departments of Energy and Transportation is underscored by AGA's 
creation and advocacy of legislation that set aside industry funds to 
compliment federal research expenditures on natural gas infrastructure.
 distributed energy resources--national accounts energy alliance (naea)
    The DER program in EERE is significantly under-funded. The Office 
of Power Technologies receives nearly ten solicitation applications 
(each application is typically developed by an entire team of 
companies) for every award it makes. While more manufacturers are 
entering the market and dramatically more attention from states, power 
providers and end-users is focused on DER, significant RD&D 
requirements abound. DER provides the opportunity for efficient use of 
waste heat to achieve total system efficiency levels as high as 80 
percent. This compares to large central power plant efficiencies that 
are typically less than half as efficient largely due to their 
inability to productively use all of their waste heat. Further, the 
higher efficiency of DER systems inherently leads to lower emissions 
since these systems use less fuel, and typically cleaner feedstock 
fuels, than central power plants to achieve a given unit of power 
output. Many utilities are now exploring the utilization of DER to 
reduce the strain on congested transmission systems. On-site DER 
systems are especially important for high-tech and mission-critical 
facilities as they offer dramatic power quality and reliability 
increases. The national economy is inextricably linked to information 
and electronically sensitive computer systems that require 
uninterruptible power that the 50+ year old electric grid was not 
designed to serve. Mission-critical systems, be it in high-tech, 
healthcare, manufacturing, or government facilities are enhanced by 
DER.
    DOE has spent tens of millions of dollars developing individual DER 
technologies over the past decade. However, tremendous work remains in 
the areas of system development, advanced controls and sensors, power 
quality and reliability, storage, and interconnection. DOE has studied 
the technical, regulatory, market and institutional barriers to 
widespread utilization of DER and has worked to promote commercial 
acceptance. However, to date, these programs have failed to capture the 
vision of large commercial end-users at the corporate or headquarters 
level--NAEA is focused on affecting targeted change at this point.
    NAEA is a 4-year cost-shared initiative aimed at developing new 
construction and retrofit energy models for the nation's largest end-
users in partnership with their energy providers. The American Gas 
Association, Gas Technology Institute and American Gas Foundation have 
come together to establish the National Accounts Energy Alliance 
(NAEA). NAEA has been in existence for less than 1-year, yet already 
its members are comprised of the nations largest energy providers 
(electric and natural gas) as well as end-users such as A&P, 
Albertsons, HealthSouth, H.E. Butts, Kohls, McDonalds, TJ Maxx, Wal-
Greens, and Wal-Mart. In its inception NAEA focused on retail, 
supermarket and food service industries. In fiscal year 2003, NAEA will 
expand its membership to include a broader segment of the high-tech and 
telecommunications, health care, hotel, and targeted manufacturing 
industries.
    Many NAEA members all maintain hundreds or even thousands of 
properties across the nation and are engaged in new or retrofit 
construction on a daily basis. Typically, all of these efforts are 
based on a central construction model, with a handful of geographic-
based options. NAEA will work with these end-users' corporate offices 
to technologically advance the base model through the use of DER 
systems. Additionally, a missing ingredient to DOE's past deployment 
programs includes an energy Technology Test and Verification Program 
(TT&VP). DER testing and technology adoption by national accounts is 
the fastest way to perform testing, disseminate the results widely, 
make necessary technology and applications corrections and subsequently 
rapidly deploy improved systems. Because of fierce competition, 
standardization, central design services and extensive building 
programs it is extremely difficult for national accounts to perform 
such tests on newly emerging technologies like DER because of their 
impact upon facility design, need for redundancy, and the technological 
risks involved.
    In fiscal year 2003, NAEA hopes to undertake at least eight highly 
publicized and replicable DER projects in partnership with DOE, across 
each region of the country and multiple industry sectors. This program 
illustrates the commitment of the natural gas industry and its partners 
to deploy the research being conducted under the DER technology areas.
                               conclusion
    Mr. Chairman, AGA is giving great emphasis to developing 
comprehensive programs across end-use sectors that complement each 
other and provide cheaper energy to the end-user, while reducing 
emissions, improving energy efficiency, quality, and reliability. And, 
the infrastructure research partnership between DOE and the natural gas 
will also have significant benefits in terms of safety, reliability, 
cleaner air and economic growth that will accrue to all Americans. AGA 
greatly appreciates your past support and consideration of these 
proposals.
                                 ______
                                 
           Prepared Statement of the Gas Turbine Association
    The Gas Turbine Association (GTA) appreciates the opportunity to 
provide the U.S. Senate Appropriations Committee, Interior and Related 
Agencies Subcommittee with our industry's statement regarding the 
following fiscal year 2003 Department of Energy (DOE) Turbine R&D 
funding levels.

GTA Recommended Funding Levels

                        [In millions of dollars]

HIGH EFFICIENCY ENGINES AND TURBINES PROGRAM (Office of Fossil 
    Energy).......................................................    40
ADVANCED MICROTURBINE PROGRAM (Office of Energy Efficiency and 
    Renewable Energy).............................................    14
      clean coal--heet doubles efficiency and eliminates emissions
    The DOE High Efficiency Engines and Turbines (HEET) Program is 
critical to the President's National Energy Policy (NEP) Clean Coal 
Technology goal of ``low-cost, zero emission power plants with 
efficiencies close to double that of today's fleet''. The DOE/industry 
HEET partnership will make it possible for power generation equipment 
manufacturers, as well as systems developers, owners and operators to 
create the core technology solutions necessary to overcome the complex 
challenges identified in the NEP report.
    The HEET Program turbine system efficiency goal is 60 percent for 
coal-based systems, and HEET turbo fuel cell hybrid systems that offer 
the potential for unprecedented efficiencies (in excess of 80 percent). 
The HEET near-zero emission environmental goal translates into systems 
with no carbon, and negligible NO<INF>X</INF>, SO<INF>2</INF>, and 
trace contaminants. The program is also targeting a 15 percent 
reduction life-cycle cost of electricity generated by gas turbine power 
plants.
    Federal cost sharing is needed to enable successful development 
technology improvements envisioned under the HEET, and to expedite 
commercialization of these systems. A $40 Million federal contribution 
to the HEET program in fiscal year 2003 will have a direct impact on 
the fuel-efficiency, fuel flexibility and emissions levels of America's 
coal and natural gas fired power plants.
    Our nation's investment in the HEET program will allow the United 
States to continue to serve as the world's principal source for clean 
turbine power generation systems. As the leading developer and producer 
of these clean, fossil-fueled power technologies, the United States can 
remain the leader of the international effort to lower global power 
plant emissions levels through technology innovation. Gas turbine 
equipment manufacturers, as well as systems developers, owners and 
operators have already indicated strong interest in working with DOE to 
help reach the HEET program goals. Now, Congress needs to ensure there 
is adequate fiscal year 2003 federal funding ($40 million) to 
facilitate a government/industry partnership that successfully allows 
new HEET technologies to mature in an expeditious and timely manner.
                     gas turbines--powering america
    Currently, gas turbine power is the most fuel-efficient, cleanest, 
and consumer friendly way to generate electricity. Combined cycle gas 
turbines provide the highest efficiency and lowest emissions of all 
combustion generation technology available today (producing twice as 
much electricity and less than half the CO<INF>2</INF> as compared to 
existing non-gas-turbine power plants). Turbine systems are cost 
effective, and can be quickly deployed to meet the country's growing 
energy needs. The gas turbine industry is currently manufacturing and 
installing these high-tech power plants across the United States to 
reduce the cost of electricity, create new jobs, and stimulate 
investment to support economic development.
    However, America's new energy policy goals require dramatic new 
technology development. The vision of a modern, secure U.S. power 
generation infrastructure that runs on domestic fuels without harming 
the environment is achievable, if the Federal government makes a 
sufficient investment in DOE/industry turbine partnership programs. 
Unfortunately, the Administration's fiscal year 2003 budget request for 
these DOE gas turbine programs is inadequate to stimulate significant 
advancement toward the ground-breaking technological changes our nation 
needs. GTA believes the above funding levels are necessary if our 
nation intends to realize the public benefits envisioned in our 
national energy policy.
            clean coal turbine power--technology challenges
    New combustion technology development is essential to produce clean 
electricity from coal fuels in advanced clean coal turbine power 
systems. Catalytic combustion, trapped vortex, or other advanced after-
treatment configurations must be developed for our nation to reduce 
emissions from coal gas fired turbine plants to near zero levels. 
Advanced materials must also be developed that can withstand ultra-high 
temperature, corrosive coal-fueled environments and reduce the cooling 
loads on hot turbine parts.
    Clean coal technology systems must be low cost, reliable, available 
and maintainable to be competitive. New clean coal HEET systems must 
have low operating and maintenance costs to thrive in the marketplace. 
To improve the reliability and availability of clean coal turbine power 
plants, improvements are needed in advanced performance monitoring, 
mechanical integrity analysis, and component life management. Advanced 
monitoring will require considerable development efforts in (1) 
sensors, (2) controls, (3) condition/health monitoring systems, (4) 
expert predictive systems, and (5) turbine power-plant life-cycle 
management. Operations and maintenance costs will be reduced by (1) 
limiting degradation, (2) operating at optimal performance while the 
system is at off-design conditions, (3) improving component life, and 
(4) increasing the time between major overhauls.
    Aero-thermal technology research and development is needed in the 
areas of advanced cooling, aerodynamic designs, and durability under 
high loaded conditions. Design tools using advanced numeric simulations 
will be needed to assess new engine performance to greatly reduce the 
time needed for development and testing. With advanced computing, many 
of the component interactions can be explored before building a 
physical system, saving the time and the money required to build less-
than-optimal prototype plants.
         turbo fuel cell hybrids--the ultimate vision 21 system
    The DOE Vision 21 initiative identifies Turbine Fuel Cell Hybrids 
as a key technology for enabling energy plants to serve the United 
States and global energy needs of the early 21st century. A gas turbine 
is used to pressurize fuel cells. Thus the system requires development 
of customized turbo machinery and balance of plant to reduce the 
overall cost of projected commercial systems. It is necessary to 
develop a range of hybrid systems up to multi-megawatt sizes and 
conduct extensive field demonstrations in order to achieve the goals of 
the DOE Vision 21 plan. The turbo fuel cell hybrid is expected to (1) 
achieve the ultra-high, 80+ percent efficiency; (2) emit ultra-low 
emissions of less than 1 ppm NO<INF>X</INF>; and (3) provide 
distributed energy with multi-fuel capability (natural gas, coal and 
renewable).
    The HEET program, combined with DOE fuel cell program efforts, will 
lead to the required cost reductions needed to ensure the commercial 
viability of these hybrid systems. Gas turbine research is necessary to 
enable the technology to meet the pressure ratios, mass flows, and 
other critical operating and performance parameters of high-temperature 
fuel cells. Ultimately, the program will culminate with the testing of 
a near-commercial-scale multi MW Vision 21 coal-fired hybrid power 
system.
          advanced microturbines--enabling distributed energy
    To help meet the next century's projected demand for power, 
increased emphasis is being placed on developing distributed energy 
resource (DER) generation systems. Today, microturbines are viable now 
for DER applications with competitive costs, performance, and emissions 
in selected applications. They are ideally suited to alternate fuels, 
combined heat and power (CHP) applications, and remote siting.
    Currently, microturbines are:
  --Best in Class for 30 to 500 kW
  --Ultra low emissions (< 5 ppm NO<INF>X</INF>)
  --Fuel flexible (gaseous and liquid fuels, renewables and hydrogen)
  --Potentially highest efficiency
  --Directly use exhaust gas for CHP
  --Lowest manufacturing cost when fully developed (high power density)
  --Lowest installed cost potential (light weight, quiet)
  --Lowest maintenance cost (few moving parts)
    While microturbines are now entering the DER market, improved 
microturbine technologies are needed to expedite the installation of 
clean, efficient and affordable DER systems. Once the goals of the DOE 
Advanced Microturbine Program have been achieved, microturbines can 
significantly expand DER market potential and deliver the public 
benefits that flow from DER. Advanced microturbines, especially when 
combined with a heat recovery system will produce compact, highly 
efficient power and hot water for commercial and small industrial 
applications. High efficiency advanced microturbines will use 
significantly less fuel, conserving natural resources by converting >70 
percent fuel energy with CHP. These systems are likely to be 
environmentally preferred when compared to power generated at a non-gas 
turbine based conventional fossil fuel power plant.
                der microturbine--technology challenges
    The goal of affordable, 40 percent efficiency microturbines will be 
achieved by raising the operating temperature. This will be 
accomplished by integrating advanced ceramics to avoid the use of 
additional cooling systems, and by developing affordable high 
temperature recuperator technologies using advanced alloys. 
Improvements in durability will come from reliable, highly effective 
recuperators, increased load capability bearing design, and improved 
high temperature materials resulting in 11,000hr mean time between 
outages at less than $500/kW.
    The Advanced Microturbine Program will deliver fuel flexible 
systems with low environmental impact. A single design capable of 
operating on gas, liquid, biofuels (bio liquids, digester gas and 
landfill gas) and waste fuels will be coupled with ultra-low-
NO<INF>X</INF> technology. To meet customer needs, the advanced 
microturbines will be pre-certified, packaged modules that convert 
waste heat into useful energy. The program will focus on better CHP 
performance through (1) heat exchanger technology to improve hot water 
and heating capabilities, (2) exhaust absorption chillers for cooling, 
(3) exhaust desiccant dehumidifier technology for dehumidification, and 
4) clean CO<INF>2</INF> rich air stream technology for direct heating.
    In order to put the Advanced Microturbine Program in line with the 
resources specified by it's program plan, $14 million in funding is 
needed in fiscal year 2003.
                  public benefits--doe gas turbine r&d
    DOE gas turbine R&D Programs stimulate economic growth, clean up 
the environment, and ensure that the United States has a reliable 
supply of power. Implementation of the next generation of advanced 
turbine technology R&D programs will accelerate U.S. market 
restructuring and environmental goals. Armed with new advanced gas 
turbine systems, the U.S. power supply industry will provide America 
with the following benefits.
Reliable power
    The United States can have technologies that can operate better in 
the dynamic restructured market including technologies able to perform 
``just-in-time'' dispatch without operational or environmental 
penalties. This translates into improved power quality and fewer 
disruptions in power supply.
Economic strength through improved power systems
    Development and accelerated deployment of advanced turbine power 
technologies will reduce the cost of electricity, create new jobs, and 
stimulate investment to support U.S. economic development. The 
expertise American manufacturers gain in producing these sophisticated 
technologies positions our companies for success in growing 
international power generation markets.
Meet mounting demand for increased power production capacity
    United States demand for electrical power is expected to increase 
by nearly 35 percent over the next 20 years. Manufacturing and 
information technology businesses require reliable power generation, 
thus dictating the need for DOE's next generation of R&D programs to 
develop state-of-the-art gas turbines for reliable, low-cost 
electricity.
A cleaner environment
    DOE gas turbine programs provide a cost-effective solution for 
clean power. Advanced gas turbine technologies developed through DOE 
programs have much higher efficiencies and lower emissions than 
competing combustion power systems.
Replace environmentally deficient, aging power plants
    In today's market, only revolutionary, advanced gas turbine 
technologies provide the economic advantages needed to trigger the 
accelerated retirement of inefficient, environmentally challenged base-
load power plants.
                                 ______
                                 
         Prepared Statement of the Fuel Cell Power Association

Fuel Cell Power Association Fiscal Year 2003 DOE R&D Recommendations

                        [In millions of dollars]

Office of Fossil Energy--Distribute Generation Systems--Fuel 
  Cells:
    Fuel Cell Systems.............................................    15
    Vision 21 Hybrids.............................................    15
    Innovative Systems Concepts--SECA.............................    50
Office of Enegy Efficiency and Renewabel Energy--Fuel Cells: PEM 
  Fuel Cells                                                         7.5

    The Fuel Cell Power Association (FCPA) urges you to commit the 
resources needed to accelerate the pace of the Department of Energy's 
(DOE) fuel cells systems programs. To meet U.S. goals for reliable, 
clean, cost-effective power, our nation needs to increase our national 
commitment to stationary fuel cell power generation technologies.
    The Association urges Congress to, at a minimum, provide full 
program plan levels of funding of the DOE Office of Fossil Energy, 
Distributed Generation Systems--Systems Development, Vision 21-Hybrids 
and the Solid State Energy Conversion Alliance (SECA) fuel cells 
efforts. Similarly, the fiscal year 2003 funding level for fuel cell 
program in the DOE Office of Energy Efficiency and Renewable Energy are 
needed to support the development of ultra-clean, stationary and 
portable power systems.
    These innovative technologies will transform the way power is 
generated and delivered, because fuel cells are:
  --Fuel-efficient.--use far less fuel than comparable distributed 
        generation;
  --Clean.--emit virtually no pollution during the power generation 
        process;
  --Quickly installed.--provide point of demand, high-quality, reliable 
        power; and
  --Multi-fuel capable.--utilize coal, natural, renewable and hydrogen 
        gases, and liquid fuels.
               fuel cell systems--office of fossil energy
    The acceleration of the Molten Carbonate and Solid Oxide Fuel Cell 
Systems programs will speed the deliver of commercially viable, fuel 
flexible, ultra-low emission, ultra-high efficiency fuel cell power. 
These systems are essential to the development of hybrid systems, and 
are the foundation for the ultimate success of DOE's Vision 21 and 
Clean Coal efforts.
    While the Federal investment in power generation technology R&D has 
increased the pace of fuel cell development efforts, years of funding 
at levels well below the amounts identified in the program plans 
continues to delay the technologies' readiness. Again this year, the 
initial funding levels proposed by the Administration are below the 
amounts agreed upon and needed to fulfill the requirements of the 
program. Considering the current state of U.S. electric generation 
capacity, the Federal government should be attempting to accelerate, 
not decelerate, the pace of fuel cell market availability. It is 
critical that Congress and the Administration make these programs a top 
funding priority.
                hybrid systems--office of fossil energy
    The Molten Carbonate and Solid Oxide Fuel Cell work is directly 
impacting the success of Fuel Cell/Gas Turbine Hybrid Systems. 
Combining fuel cells and gas turbines will provide the synergy needed 
to realize the highest efficiencies and lowest emissions of any fossil 
energy power plant. The hybrid system will use the rejected thermal 
energy and combustion of residual fuel from the high-temperature molten 
carbonate and solid oxide fuel cells to drive a gas turbine. The gas 
turbine helps reduce the balance of plant cost.
    As a result of the DOE/fuel cell industry partnership programs, the 
Secretary of Energy recently announced that the world's first 
combination of a fuel cell and microturbine has passed a key site 
acceptance test, and that the major endurance phase of its test program 
is underway. According to the Secretary, ``It offers a preview of the 
day when more of our electricity will be generated by super-clean, 
high-efficiency power units sited near the consumer. Distributed 
generation could play a key role in strengthening the security and 
reliability of our power supply, and fuel cell-turbine hybrids could 
help make distributed power a reality.''
    By 2010, these hybrid configurations are expected to achieve 
efficiencies greater than 70 percent, and 80 percent efficiencies are 
expected by 2015. Current DOE fuel cell and gas turbine R&D programs 
are laying the technological groundwork for the hybrid systems. The 
level of fiscal year 2003 federal investment in these projects directly 
impacts the timeframe in which these hybrid technologies will be 
delivered to our nation.
                     seca--office of fossil energy
    The DOE Innovative Systems Concepts--SECA R&D program is developing 
a new generation of lower cost fuel cells. To attain lower costs, the 
program will focus on integration of design, high-speed manufacturing, 
and materials selection. The program will realize the full potential of 
fuel cell technology through long-term materials development. The SECA 
projects are critical to the success of DOE's fuel cell initiative. 
Under SECA, the costs of fuel cells can be reduced to as low as one-
tenth of currently marketed systems and to one-third the cost of the 
advanced concepts that are on the verge of commercial readiness.
    Initially, the SECA program will focus on the development and mass 
production of 5kW solid state fuel cell modules. Ultimately, these fuel 
flexible, multi-function fuel cells are projected to attain 70-80 
percent efficiency in combined-cycle mode, and will provide future 
energy conversion options for large and small-scale stationary and 
mobile applications. The program is also targeting the achievement of 
stack fabrication and assembly costs of $100/kW and system costs of 
$400/kW, with near-zero emissions and compatibility with carbon 
sequestration.
    Industrial development teams share the development costs on these 
fuel cell power generation systems. The teams will develop the 
manufacturing capability and packaging needed for the different land-
based power generation systems and automotive auxiliary power units 
targeted by the program. Universities, national laboratories, and other 
research-oriented organizations will participate in a Core Technology 
Program to support the industrial development teams. The industry teams 
will determine the scope of the problem-solving research needed to 
overcome barriers. The resulting research will be made available to all 
industrial teams. The National Energy Technology Laboratory and the 
Pacific Northwest National Laboratory provide the coordination and 
technical resources.
      fuel cells--office of energy efficiency and renewable energy
    The EERE fuel cell program is key to the achievement of a 
completely clean endless supply of reliable power for our nation. The 
program goals target PEM fuel cells achieving 40-50 percent electrical 
efficiency, with combined heat and power integrated efficiencies of 75-
80 percent.
    The program will focus on testing of laboratory prototypes for 
natural gas fuel processing with CO clean-up capability for high 
temperature stationary applications. An economical process of fuel 
reforming of natural gas will produce a hydrogen fuel that contains 
less then 10 ppm of carbon monoxide. Projects will take operating 
temperatures from the current 80 deg. to temperatures in the 120 deg.-
150 deg. range. The program will test a laboratory prototype of a 
Membrane-Electrode-Assembly with advanced high temperature membranes.
    Phase II designs will be used to develop a 50kW high temperature 
PEM fuel cell incorporating cooling, heating and power (CHP) concepts 
for recoverable heat. The ultimate goal is PEM fuel cells with 
operating lives of over 40,000 hours priced a around $1,500/kw.
                       fuel cells and our future
    If the nation is to meet its goal of reliable, clean, cost 
effective power, we need to increase the national commitment to fuel 
cell development and the near-term commercialization of these 
technologies. Exceptionally efficient, non-polluting, and highly 
reliable fuel cells will transform the way power is generated and 
delivered since fuel cells are ideally suited for distributed 
generation.
    DOE is leading the federal government's effort to make this vision 
a reality through its stationary fuel cell R&D initiatives. These DOE 
programs form critical partnerships with the fuel cell industry so that 
fuel cell power generation systems can be made available in a timeframe 
that coincides with the nation's growing demand for new sources of 
power. It is imperative that Congress fund these partnerships to ensure 
that our nation reaches its energy policy goals.
                fuel cells and the national energy plan
    The National Energy Plan proposes five specific national goals: (1) 
Modernize conservation; (2) Modernize our energy infrastructure; (3) 
Increase energy supplies; (4) Accelerate the protection and improvement 
of the environment; and (5) Increase our nation's energy security. Fuel 
cells are key to meeting those goals, as discussed below:
    Fuel cells modernize conservation, raise productivity, reduce 
waste, trim costs:
  --Maximize energy efficiency for generating electricity
  --Double electrical efficiency in small distributed power 
        applications
  --Promote energy independence and fuel conservation
    Fuel cells modernize energy infrastructure by eliminating 
bottlenecks, price spikes and supply disruptions. Fuel cells provide 
infrastructure reliability as follows:
  --Efficiency reduces fuel supply demand
  --Fuel cell plants are modular, can be remotely sited, supply high 
        quality power and meet critical requirements for reliability
  --Reduce transmission line demand in distributed generation 
        applications
  --``Premium Power'' for high tech industry needs
    Fuel cells increase energy supplies, adding supply from the 
efficient use diverse fuel sources. Multi-fuel Capable Fuel Cells can 
be powered by:
  --Fossil (natural gas, coal, hydrogen, diesel, fuel oil) or
  --Renewable (biomass or waste fuels)
  --The overall efficiency of the U.S. electricity supply system is 
        improved through highly efficient fuel cells in distributed 
        power applications
    Fuel cells protect and improve the environment while ensuring a 
stronger economy, and a sufficient supply of energy for our future. 
Super-clean fuel cells produce:
  --No Sulfur Oxides
  --Virtually no Nitrogen Oxides
  --Very low Carbon Dioxide emissions
    Fuel Cells increase national energy security protecting the country 
from price volatility, supply uncertainty and emergencies.
  --U.S. manufacturers are leading in the development of fuel cell 
        technologies and can capture a major share of this market.
  --A solid U.S. fuel cell manufacturing base will create a new 
        industry with quality high tech manufacturing jobs and 
        substantial export opportunities.
  --Stable and reliable power supply from low maintenance and 
        operational expenses for fuel cell power
    The Fuel Cell Power Association promotes the interests of the fuel 
cell industry by facilitating communication on the essential role the 
government plays in improving the economic and technical viability of 
fuel cells for stationary power.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors (CONEG) is pleased to 
provide this testimony for the record to the Senate Appropriations 
Subcommittee on Interior and Related Agencies as it considers fiscal 
year 2003 appropriations for the Energy Conservation programs of the 
U.S. Department of Energy. Recognizing the contribution which energy 
efficiency and conservation programs make to cost-effective energy 
strategies, the CONEG Governors request that funding for the State 
Energy Program be increased to $68 million, and that funding for the 
Weatherization Assistance Program be increased to $277 million in 
fiscal year 2003. The Governors also request that funding for the 
Northeast Home Heating Oil Reserve be maintained at $8 million in 
fiscal year 2003. The CONEG Governors appreciate the Subcommittee's 
support for these programs, and recognize the difficult funding 
decisions which confront the committee. We believe modest federal 
investment in these programs which leverage non-federal funds provides 
substantial returns to the states and the nation.
    The Department of Energy's State Energy Program and Weatherization 
Assistance Program provide valuable opportunities for the states, 
industry, national labs and the U.S. Department of Energy to 
collaborate in moving energy efficiency and renewable energy research, 
technologies, practices and information into households, businesses, 
schools, hospitals and farms across the nation. Administered by the 50 
states, District of Columbia and territories, these programs are an 
efficient way to achieve national energy goals, as they tailor energy 
projects to specific community needs, economic and climate conditions.
    State Energy Assistance Program.--The State Energy Program (SEP) is 
the major state-federal partnership program for energy. While it 
represents only a small portion of overall funding for state energy 
activities, it is a critical nucleus for many states. SEP helps move 
energy efficiency and renewable energy technology into the marketplace. 
Equally important, as the nation moves to enhance the security of its 
energy infrastructure, SEP funds help ensure that state energy offices 
continue to serve as the essential energy emergency preparedness 
officials at the state level. Through the SEP, states also assist 
schools, municipalities, businesses, residential customers and others 
in both the private and public sectors to incorporate the practices and 
technologies which help them manage their energy use wisely. The modest 
federal funds provided to the SEP are also an efficient federal 
investment, as they are leveraged by non-federal public and private 
sources. SEP has documented a leverage of at least $4 in private sector 
funds for every Federal dollar, not including the state contribution.
    Weatherization Assistance Program.--The Weatherization Assistance 
Program (WAP) helps low income households better manage their ongoing 
energy use, thereby reducing the heating and cooling bills of the 
nation's most vulnerable citizens. According to the U.S. Department of 
Energy, low-income households spend 14 percent of their annual income 
on energy, compared to 3.5 percent for other households. The 
Weatherization Assistance Program strives to reduce the energy burden 
of low-income residents through such energy saving measures as the 
installation of insulation and energy-efficient lighting, and heating 
and cooling system tune-ups. These measures can result in energy 
savings as high as 30 percent. We support the President's request of 
$277 million for WAP in fiscal year 2003.
    Northeast Home Heating Oil Reserve.--The nation's heightened 
emphasis on energy security places renewed importance on the Northeast 
Home Heating Oil Reserve. The Reserve provides an important buffer to 
ensure that the Northeast, with its reliance upon imported fuels for 
both residential and commercial heating, will have prompt access to 
immediate supplies in the event of supply interuptions. The CONEG 
Governors support the President's request of $8 million to continue 
operations of the Reserve.
    In conclusion, we request that the Subcommittee increase funding 
for both the State Energy Program and Weatherization Assistance 
Program; and that it maintain funding for the Northeast Home Heating 
Oil Reserve in fiscal year 2003. These programs have demonstrated their 
effectiveness in contributing to the nation's goal of environmentally 
sound energy management and improved economic productivity.
    We thank the Subcommittee for this opportunity to share the views 
of the Coalition of Northeastern Governors, and we stand ready to 
provide you with any additional information on the importance of these 
programs to the Northeast.
                                 ______
                                 
 Prepared Statement of the California Industry and Government Central 
                California Ozone Study (CCOS) Coalition
    On behalf of the California Industry and Government Central 
California Ozone Study (CCOS) Coalition, we are pleased to submit this 
statement for the record in support of our fiscal year 2003 funding 
request of $1,000,000 for CCOS as part of a Federal match for the $8.7 
million already contributed by California State and local agencies and 
the private sector. This request consists of $500,000 from the 
Department of Energy (DOE), $250,000 from the National Park Service 
(NPS), and $250,000 from the Forest Service.
    Most of central California does not attain federal health-based 
standards for ozone and particulate matter. The San Joaquin Valley is 
developing new State Implementation Plans (SIPs) for the federal ozone 
and particulate matter standards in the 2002 to 2004 timeframe. The San 
Francisco Bay Area has committed to update their ozone SIP in 2004 
based on new technical data. In addition, none of these areas attain 
the new federal 8-hour ozone standard. SIPs for the 8-hour standard 
will be due in the 2007 timeframe--and must include an evaluation of 
the impact of transported air pollution on downwind areas such as the 
Mountain Counties. Photochemical air quality modeling will be necessary 
to prepare SIPs that are approvable by the U.S. Environmental 
Protection Agency.
    The Central California Ozone Study (CCOS) is designed to enable 
central California to meet Clean Air Act requirements for ozone State 
Implementation Plans (SIPs) as well as advance fundamental science for 
use nationwide. The CCOS field measurement program was conducted during 
the summer of 2000 in conjunction with the California Regional 
PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study (CRPAQS), a major 
study of the origin, nature, and extent of excessive levels of fine 
particles in central California. CCOS includes an ozone field study, a 
deposition study, data analysis, modeling performance evaluations, and 
a retrospective look at previous SIP modeling. The CCOS study area 
extends over central and most of northern California. The goal of the 
CCOS is to better understand the nature of the ozone problem across the 
region, providing a strong scientific foundation for preparing the next 
round of State and Federal attainment plans. The study includes six 
main components:
  --Developed the design of the field study
  --Conducted an intensive field monitoring study from June 1 to 
        September 30, 2000
  --Developing an emission inventory to support modeling
  --Developing and evaluating a photochemical model for the region
  --Designing and conducting a deposition field study
  --Evaluating emission control strategies for upcoming ozone 
        attainment plans
    The CCOS is directed by Policy and Technical Committees consisting 
of representatives from Federal, State and local governments, as well 
as private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS. The sponsors of CCOS, representing 
state, local government and industry, have contributed approximately 
$8.7 million for the field study. The federal government has 
contributed $2.15 million to support some data analysis and modeling. 
In addition, CCOS sponsors are providing $2 million of in-kind support. 
The Policy Committee is seeking federal co-funding of an additional 
$6.75 million to complete the remaining data analysis and modeling and 
for a future deposition study. California is an ideal natural 
laboratory for studies that address these issues, given the scale and 
diversity of the various ground surfaces in the region (crops, 
woodlands, forests, urban and suburban areas).
    There also exists a need to address national data gaps, and 
California should not bear the entire cost of addressing these gaps. 
National data gaps include issues relating to the integration of 
particulate matter and ozone control strategies. The CCOS field study 
took place concurrently with the California Regional Particulate Matter 
Study--previously jointly funded through Federal, State, local and 
private sector funds. Thus, CCOS was timed to enable leveraging the 
efforts of the particulate matter study. Some equipment and personnel 
served dual functions to reduce the net cost. From a technical 
standpoint, carrying out both studies concurrently was a unique 
opportunity to address the integration of particulate matter and ozone 
control efforts. CCOS was cost-effective since it builds on other 
successful efforts including the 1990 San Joaquin Valley Ozone Study. 
Federal assistance is needed to address these issues effectively.
    For fiscal year 2003, our Coalition is seeking funding of $500,000 
from the Department of Energy (DOE) Fossil Program. The California 
Energy Commission is a key participant, having contributed $3 million. 
Consistent with the memorandum of understanding between the California 
Energy Commission and the DOE, joint participation in the CCOS will 
result in: (1) enhanced public interest in programs on energy research, 
development, and demonstration; (2) increased competitiveness and 
economic prosperity in the United States; and (3) further protection of 
the environment through the efficient production, distribution, and use 
of energy.
    The CCOS program coincides with DOE's initiative to develop the 
Federal Government's oil technology program. In fact, the oil industry 
in California has been working for several years with DOE to identify 
innovative partnerships and programs that address how changes in those 
sectors can cost-effectively reduce particulate matter and ozone-
related emissions. This approach will likely result in new ideas for 
technologies to improve oil recovery technologies, as well as improve 
environmental protection in oil production and processing operations. 
The overlap of CCOS and the California Regional Particulate Matter Air 
Quality Study provides a unique opportunity to perform research related 
to petroleum-based VOC and particulate matter emissions as well as 
methods to characterize these categories of emissions. The CCOS program 
is utilizing modeling, instrumentation, and measurement to obtain 
results that can be used to better understand the impact of oil and gas 
exploration and production operations on air quality. CCOS program 
results might also be applied to identify the most efficient and cost-
effective methods of reducing emissions from oil and gas operations.
    The Department of Energy has been a key participant in many 
programs with the oil and agricultural sectors. By becoming a partner 
in this program, DOE will be furthering its own goals of ``Initiatives 
for Energy Security'' by aiding domestic oil producers to enhance their 
environmental compliance while reducing their costs. DOE will also be 
building upon an established and effective partnership between state 
and local governments, industry, and institutional organizations.
    For fiscal year 2003, our Coalition is also seeking funding of 
$250,000 from the National Park Service (NPS) and $250,000 from the 
Forest Service. The National Park Service and Forest Service conduct 
prescribed burns that contribute to both ozone and particulate matter 
pollution. Prescribed burns are needed for forest health or to reduce 
fuel loads, and must be carefully managed to minimize public health and 
visibility impacts.
    Improving the fundamental science related to emissions, 
meteorological forecasting, and air quality modeling will help in 
designing effective smoke management programs. In addition, attainment 
of air quality standards is an important goal for protecting national 
parks and forests. Ozone damage to trees and vegetation in national 
parks and forests is well documented in California and nationwide. The 
National Park Service and Forest Service are key stakeholders relying 
on the success of SIPs in achieving the emission reductions needed to 
attain air quality standards. The participants in the CCOS have been 
partners in regional study efforts addressing visibility and haze 
impacts on national parks and forests in the West. The results of this 
study will provide valuable information that will further those efforts 
on a regional basis.
    Scientists at the University of Nevada, Desert Research Institute 
(DRI) are involved with the CCOS. To expedite research studies related 
to biomass burning and smoke management for CCOS, it is requested that 
funds provided by the National Park Service and Forest Service be 
allocated directly to DRI.
    Thank you very much your consideration of our requests.
                                 ______
                                 
            Prepared Statement of SAGE Electrochromics, Inc.
    SAGE Electrochromics, Inc., located in Faribault, Minnesota, is a 
developer of energy saving electrochromic (EC) window products and is 
working in partnership with the U.S. Department of Energy (DOE.) We at 
SAGE urge you to recommend a total of $8 million for DOE's budget for 
the EC initiative in the Office of Building Technology, State and 
Community Programs.
                  brief description of electrochromics
    An electrochromic window (door or skylight) is a solar control 
device that regulates the flow of light and heat with the push of a 
button. In this way the window tint can be varied from fully colored to 
completely clear or anywhere in between. The electrochromic (EC) 
properties are achieved through vacuum deposited thin films on one of 
the glass surfaces, with the rest of the construction being very 
similar to the standard insulated glass used in millions of homes and 
office buildings.
   unique benefits of electrochromics and why they are good for the 
                                country
    Industrial and government partners in the DOE EC program are 
performing cost shared research and development that will lead to 
significant energy and cost savings by fundamentally changing the 
nature and function of window products for tomorrow's buildings. 
Significant savings in the cooling and lighting loads can be achieved 
while reducing peak electricity demand. Just as important is the 
ability of EC technologies to improve visual and thermal comfort and 
thereby increase worker productivity and the aesthetics of the home or 
office space.
    Traditionally, adding windows to a building envelope has meant 
reducing energy efficiency because the other materials in the structure 
are much more energy efficient. However, with EC technology, windows 
will become multifunctional energy saving appliances in the home or 
office space and thereby will allow increased use of windows for 
aesthetic reasons. The Lawrence Berkeley National Laboratories (LBNL) 
estimated that the use of EC in average size windows in commercial 
buildings will reduce cooling electricity consumption by up to 28 
percent, lower peak electrical power demand by 6 percent and decrease 
lighting costs by up to 19 percent for the entire building perimeter 
zone.
    In the residential sector, use of electrochromic windows could lead 
to a 65 percent reduction in cooling over the existing installed base 
and a 47 percent reduction in cooling over the best performing glass 
used today--spectrally selective low-E. Heating savings based on the 
weighted average U-value and shading coefficients for the installed 
base and new construction are 61 percent and 31 percent respectively. 
This will be even more important for the customer's bottom line as the 
cost of energy becomes increasingly market driven.
    National energy savings are also impressive. The calculated 
national total energy savings for all market segments due to EC glazing 
adoptions show energy savings of 0.71 quads across all market sectors, 
which translates into total annual national energy cost savings of 
$11.5 billion. These estimates are based on current EC technology, 
which is expected to improve during the marketing period. Additionally, 
the LBNL estimates do not include the use of occupancy sensors, which 
could substantially reduce cooling costs in the summer and heating 
costs in the winter simply by switching the EC glass to the completely 
darkened or clear states at the appropriate time.
    Although energy and energy-related costs savings are significant, 
additional benefits accrue from using EC technology and may even be 
more important. Reduced fading of fabrics has significant cost impacts 
in many installations. Glare control and greater thermal comfort, as 
well as the ability for full daylighting have been shown to increase 
worker productivity and reduce absenteeism. Ability to change building 
design to take advantage of more window space is a significant 
architectural benefit and may additionally reduce energy use as a side 
benefit. And the EC industry could easily grow to over $15 billion.
         additional work to be done requires further investment
    The Department of Energy has supported this research and 
development for the past few years, but insufficient funding has been 
split among a number of players in the industry. Traditionally, 
activities have focused on development of durable electrochromic 
materials and devices for use in building applications. This has moved 
the technology so far; however, it has become clear that the industry 
needs and will cost share pre-competitive research in three areas. 
First, continued materials and basic component research for EC windows, 
which is the principal area funded by the DOE EC program in prior 
years. Second, technology and engineering activities focused on volume 
manufacturing processes for improved performance, yields and 
reliability. And third, systems engineering and applications research 
focused on design, specifications, installation and lifetime of the 
products in building applications.
    In Materials and Components Research and Development, near term 
activities must focus on continued optimization of the device and the 
individual thin film layers further improving optical performance and 
achieving coloration desired by architects and building owners. These 
advancements will be very important--to maximize market penetration and 
hence the total national energy savings provided by electrochromic 
windows. Modifications to achieve more rapid switching will be required 
for those applications in which glare must be reduced quickly (e.g. 
workplaces with computer display terminals). Additionally, advanced, 
durable window controls technology must be developed that can 
reproducibly switch EC glazings to appropriate transmission states for 
occupant comfort and/or optimum energy savings.
    With respect to Manufacturing Technology and Engineering, future 
activities should apply basic knowledge developed from the materials 
and components R&D to design for volume production and the 
implementation of in-situ diagnostics for rapidly and automatically 
controlling EC window fabrication processes. Additionally, consensus EC 
window performance requirements must be developed together with 
standards setting organizations and will entail significant testing in 
the initial stage to establish the technical basis for performance 
requirements. Testing needs to include laboratory testing of large 
electrochromic windows under simulated solar irradiation and 
accelerated temperature conditions, and towards the end of 2003, 
extensive outdoor testing in which windows can be exposed to a range of 
real world environmental conditions.
    In Systems Engineering and Application, the DOE program must begin 
initial field trials of EC windows in occupied buildings. The first 
installations will have fairly simple controls and elicit user feedback 
on performance comfort level and other parameters. Multiple window 
control must be developed and demonstrated so we can learn how to tie 
the adjacent windows together for control of the overall space.
    Research needs include a sustained R&D effort of approximately $4.5 
million, while initiating a manufacturing technology and engineering 
program of $2.0 million and a systems integration program of $1.5 
million, for a total budget request of $8.0 million in 2003.
    In summary, SAGE Electrochromics, Inc. supports an increase in 
DOE's budget for the EC initiative in the Office of Building 
Technology, State and Community Programs. It is obvious that with 
continued public and private partnership, EC research will open the 
door for significant energy and cost savings in the United States.
                                 ______
                                 
 Prepared Statement of Integrated Building and Construction Solutions 
                             (IBACOS), Inc.
    IBACOS (Integrated Building And Construction Solutions) urges the 
Subcommittee on Interior and Related Agencies to provide $14 million 
for the Department of Energy (DOE) fiscal year 2003 Residential 
Buildings Program.
IBACOS, through the DOE, has significantly improved the efficiency and 
        livability of U.S. homes
    IBACOS is a founding partner in the DOE's Building America Program, 
which consists of five industry consortiums (teams). IBACOS is made up 
of more than 30 leading companies from the home building industry, 
including equipment manufacturers, builders, design firms, and other 
parties interested in improving the overall quality, affordability, and 
efficiency of our nation's homes and communities. Although we are 
located in Pittsburgh, PA, our Network membership is derived from 
across the country. Our associated building product manufacturers 
include: Carrier Corporation of Indianapolis, IN; GE Appliances of 
Louisville, KY; USG Corporation of Chicago, IL; Owens Corning of 
Toledo, OH; and Andersen Corporation of Bayport, MN. Our builder 
partners includes such large builders and developers as Pulte Homes of 
Bloomfield Hills, MI; RGC of Newport Beach, CA; Civano Development 
Partners of Tucson, AZ; Beazer Homes of VA; Washington Homes (a 
division of K. Hovnanian) of VA; and John Laing Homes of Denver, CO. 
Other builders and developers in CA, CO, GA, IN, NC, NJ, NY, NV, SC and 
TX also participate.
    Through these and other partners, Building America has had direct 
influence in increasing the efficiency of nearly 10,000 homes to date. 
All of these homes use 30 percent less energy than a code compliant 
home, and many exceed 50 percent in savings.
    We have been working with the DOE's Residential Building Program 
since the start of the Building America Program in 1993. Along with the 
four other teams, we represent more than 200 residential builders, 
developers, designers, equipment suppliers, and community planners. All 
Building America partners have a common interest in improving the 
energy efficiency and livability of America's housing stock, while 
minimizing any increase in home costs. Many of the products used 
actually result in a lower cost, while others experience only marginal 
increases in first cost and absolute reductions in cash flow. In 
pursuit of this common interest, the five Building America teams pursue 
common activities that will ultimately assist all homebuilders and 
benefit the nations' homebuyers.
Building America partners, such as IBACOS, have the ability to 
        demonstrate and diffuse information throughout the building 
        community
    We are working to significantly expand the active team membership 
of Building America, but, perhaps more importantly, we are diffusing 
information to hundreds of builders through participation in national 
conferences, technical committees and the Internet. In fact, in working 
with Owens Corning, we helped introduce a market based program, System 
Thinking, in which Owens Corning is applying lessons from Building 
America to more than 100 builders in all regions of the country. Other 
Building America teams have had similar success with national programs 
such as Environments for Living. All of the teams are partnering with 
the Environmental Protection Agency (EPA)/DOE Energy 
Star<Register>program.
The DOE helps implement widespread innovation in the fragmented 
        residential construction industry
    The new residential construction industry accounts for the 
production of 1.6 million single family homes per year (over $70 
billion in revenue) and approximately 20 percent of total energy use in 
the United States.
    Despite its size and impact, the industry is exceptionally 
fragmented. It comprises nearly 100,000 builders, many building only a 
few homes per year, others as many as 35,000. A multitude of 
residential product manufacturers, architects, trades, and developers 
further compound the problem of an industry in which it is very 
difficult to implement widespread technological innovation. Building 
America acts as an aggregator for identifying research needs and 
consolidating relationships between the industry and National Labs.
    Additionally, there has been little incentive for builders to 
improve on energy efficiency for a number of reasons. First, energy and 
resource efficiency does not necessarily contribute to the bottom line 
of the builder; instead, it benefits the homeowner and the nation. 
Second, because builders cannot directly recoup costs for up front 
investments through energy savings (since they do not own the homes), 
they have little reason to spend more initially. Third, adopting new 
technologies and training staff and trades to properly install new 
systems and products is costly and problem-ridden. Fourth, builders are 
not good at sharing knowledge between competitors, so the DOE's role is 
critical to expanding the practices beyond the first builders in.
    For these reasons, we are working to create higher quality homes 
for no incremental costs, along with associated training, management, 
and technology transfer methodologies. We believe that because of this 
work, energy and resource efficiency, durability, and affordability 
will, eventually, be commonplace in the home building industry.
    Because the home building industry is made up of so many differing 
parties, it is virtually impossible for them to come together to 
perform common research without a third party.
    The DOE plays a critical role in bringing this research, 
development, and deployment agenda to the marketplace.
    Current research activities include:
  --systems integration research and development to improve energy 
        efficiency
  --indoor air quality
  --safety, health, and durability of housing
  --thermal distribution efficiency
  --incorporation of passive and active solar techniques
  --techniques that increase builder productivity and product quality
  --reduction of material waste at building sites
  --use of recycled and recyclable materials
  --building materials improvements
  --envelope load reduction and durability
  --mechanical systems efficiencies and appropriate sizing
    The DOE's role in bringing together the right entities and cost 
sharing common research is invaluable in improving our nation's 
building stock, while we work to reduce up front builder costs.
Through the DOE, significant energy saving results have been achieved 
        in residential construction, and encouraging research results 
        on systems integration have helped to increase overall energy 
        efficiency
    Results of the experience gained by the Building America teams has 
been reflected in both DOE and HUD roadmapping sessions, development of 
research priorities for National Labs, and cooperation on programs 
within DOE/BTS. For example, the Building America Program is working 
cooperatively with the Windows program at BTS to ensure that advanced 
window products are incorporated into high efficiency residential 
housing. The Building America Program is also partnering in the Zero 
Energy Buildings effort. Additionally, collaborative research 
activities with the National Labs, including NREL, ORNL, and LBNL have 
resulted in the sharing of knowledge and resources that bridges the gap 
between Federal research programs and the industry.
    The Residential Buildings Program improves the affordability of 
homes by reduced energy use, and results in better use of capital and 
natural resources. The scale of impact is exemplified by the 50 percent 
savings in the average new home built today-the equivalent of the 
energy used by a sports utility vehicle for 1 year. And, the home will 
have a useful life of 100 years.
    Investing in residential construction technology makes economic and 
market sense. By using improved materials and techniques, the 
Residential Buildings partners promote wiser use of resources and 
reduce the amount of waste produced in the construction process. 
Because of the homes' improved efficiency, emissions from electrical 
power will be reduced, potentially eliminating 1.4 million tons of 
carbon from the atmosphere over the next 10 years. The DOE's 
residential programs will also save consumers more than $500 million 
each year through reduced energy bills. These savings are permanent and 
significant.
    IBACOS supports efforts across the government to integrate 
activities in the residential building area. This includes work with 
the Partnership for Advancing Technologies in Housing (PATH), the 
National Institute of Standards and Technology, the Housing and Urban 
Development, and the Environmental Protection Agency. We at IBACOS are 
working with PATH communities as a part of Building America. One of the 
PATH communities is in Tucson, AZ. IBACOS, through the Building America 
Program, is working with the developer and builders on a 2,600-home 
sustainable new town called Civano. Through detailed monitoring, the 
first homes in this community are proving to be at least 50 percent 
more efficient than comparable homes. Many of these homes are being 
heated and cooled for less than $1 a day. Other communities in which 
Building America is serving as a partner with developers, builders, and 
PATH are Village Green in CA, Playa Vista in CA, Summerset in PA, and 
emerging communities in Denver, CO, North Charleston, SC, and in 
Florida. Communities are now under construction that will yield upwards 
of 80,000 units over the next 7 years. All of these units will result 
in savings between 30 percent and 50 percent of their energy cost and 
serve to create market momentum, influencing many other local builders.
    Preliminary research results on systems integration are exciting 
and encouraging. One of the major hurdles in home building has been the 
issue of assembling the home on the building site in a way that 
maximizes integration of the various components and equipment within 
the house. Systems integration results in an airtight house in which 
subsystems are used together to optimize the home's engineering and 
otherwise increase the overall energy efficiency of the home.
    There have been a number of concrete and encouraging results from 
research, development and demonstration activities in cooperation with 
the Federal government. In fact, IBACOS, as a part of the Building 
America Program, has been able to demonstrate to production builders 
such as Hedgewood Homes in Atlanta, GA that they can build homes that 
save more than 30 percent to 50 percent in energy costs while avoiding 
any increase in initial construction costs. Medallion Homes in Texas 
markets to first time home builders and offers up to 50 percent 
reductions in energy; they have had excellent market success. The rapid 
adoption of new technologies from the National Labs and the industry to 
the marketplace requires additional demonstration opportunities. We are 
pleased to be working with the DOE towards this end.
    Additionally, IBACOS has been participating in road mapping 
processes for residential buildings. We have partnered with the DOE to 
ensure that renewable energy technologies are incorporated, where cost 
effective, into Building America research and development activities. 
We feel very strongly that the integration of the systems into a home 
is as important, or even more important, than the individual pieces of 
equipment that are installed. We have proven the ability to work with 
builders to build single pilot homes and support them through early 
adoption in their production lines.
    Now, we are very excited about our work with community planning and 
larger scale projects. We look forward to continuing to work with the 
DOE to bring energy efficiency to housing at no incremental first cost, 
while building markets for more efficient equipment and technologies.
    We at IBACOS urge you to provide $14 million for the DOE fiscal 
year 2003 Residential Buildings Program. Along with the industry cost 
share in the program of at least 100 percent, this program has had and 
will continue to significantly catalyze improvements in what has 
traditionally been a very fragmented industry.
                                 ______
                                 
                 Prepared Statement of Plug Power, Inc.
    Plug Power urges the House Interior Appropriations Subcommittee to 
approve the President's Budget request of $7.5 million for stationary 
PEM fuel cell research in the Office of Power Technologies and to 
support the $50 million request for automotive fuel cell research in 
the Office of Transportation Technologies.
    My name is Dr. Roger Saillant, President and Chief Executive 
Officer of Plug Power, Inc., a developer of on-site energy generating 
systems utilizing proton exchange membrane (``PEM'') fuel cells for 
stationary power applications. I am particularly pleased about the 
opportunity to comment on the U.S Department Of Energy Budget. Plug 
Power, our Latham, NY-based company was founded in 1997, as a joint 
venture of DTE Energy Company and Mechanical Technology Incorporated. 
Plug Power's fuel cell systems for residential and small commercial 
stationary applications are expected to be sold globally through a 
joint venture with the General Electric Company, one of the world's 
leading suppliers of power generation technology and energy services.
    Plug Power is very enthusiastic about the attention being paid to 
the impact of fuel cell technology on energy transformation and the 
interest level in Washington. I believe that we as a nation currently 
have an opportunity to make a great difference to our economy, to our 
world position, and to the environment. As an auto company executive 
veteran of 30 years experience, who participated in the auto emission, 
safety, and fuel economy improvements, I see parallels in the magnitude 
of the challenges and the scope of the outcomes. First, the auto 
company transition costs were enormous but were forced by regulation. 
Currently, the fuel cell industry in partnership with the U.S. 
Government is trying to facilitate fuel cell based energy 
transformation improvements through R&D and buy-down incentives at a 
significant dollar cost. Second, this upcoming change in our energy 
situation is related to worldwide problems of natural resource 
depletion rates and global environmental degradation. Thus, the United 
States must be a technological leader in the emergence of this economic 
opportunity. And third, going from a centralized distribution model to 
a mosaic of centralized and distributed generation based on fossil 
fuels, wind, biomass, solar, and nuclear will require inspired 
leadership from our government over an extended period of time.
                    stationary fuel cell description
    A stationary fuel cell is an on-site power generation system that 
electrochemically combines hydrogen with oxygen in the air to form 
electricity. The hydrogen fuel can be obtained from readily available 
fuels, such as natural gas or propane, or in the longer term from 
renewable sources. It can also be generated by electrolyzing water with 
low-cost off-peak electricity, or with electricity obtained from 
renewable sources such as solar, wind, or biomass. Fuel cell systems, 
whether for the residential, commercial or institutional markets, 
produce not only electricity, but also heat that can be captured and 
beneficially utilized in these applications (combined heat and power 
(CHP)). This makes such fuel cell systems highly efficient as well as 
environmentally friendly. This is in stark contrast to central power 
plants where generally the heat is not captured or utilized. The heart 
of the stationary PEM fuel cell system is the stack, which is comprised 
of the same technology as is used in most fuel cell vehicle 
applications.
                     stationary fuel cell benefits
    Our traditional central generation model for supply of power in the 
United States is failing to meet the needs of a growing economy with 
increasing demand for high-quality power. There are weaknesses in power 
generation, transmission and distribution infrastructure that can best 
be met with the new paradigm of distributed generation: placing the 
generating assets on site, where both the thermal and electric energy 
is needed. Fuel cells will be an important technology component in our 
nation's distributed generation portfolio.
    When operating on a fossil fuel such as natural gas, stationary 
fuel cells using reformers emit less than half the CO<INF>2</INF> (a 
primary ``greenhouse gas''), of a traditional, coal-fired power plant. 
When fueled by hydrogen from a renewable energy source such as solar, 
wind, or hydropower, or if the fuel source is bio-fuel like ethanol 
from plant wastes, CO<INF>2</INF> emissions are net zero.
    Fuel cells can provide highly reliable electricity. Some studies 
estimate that power quality and reliability issues cost our economy as 
much as $150 billion per year in lost materials and productivity alone, 
while others have reported estimates as high as $400 billion per year 
(source: Bear Stearns, April 2000 Distributed Energy, p. 8).
    Fuel cells require hydrogen and oxygen to react chemically and 
produce electricity (and heat) and can therefore use any hydrogen rich 
fuel, or direct hydrogen. This allows fuel cell products to be 
``customized'' for customers' available fuel. It also provides the 
option of renewably generated hydrogen for a fully renewable and zero 
emissions energy system.
    Because fuel cells provide electricity at the site of consumption, 
they reduce the load on the existing transmission and distribution 
system. Siting the fuel cells at the point of consumption also avoids 
the line losses (up to 15 percent) inherent in moving electricity and 
provides an alternative to costly and unattractive traditional power 
lines.
    Because fuel cells make both electric and thermal energy where it 
is needed, the heat can be recaptured in combined heat and power 
applications to attain combined efficiencies of over 80 percent.
    Fuel cell systems are quiet.
          stationary fuel cell research and development needs
    Our company participated in the Department of Energy road-mapping 
process for the stationary fuel cell program in February of this year. 
During that process, it became clear that the number one R&D need from 
the U.S. Government is to cost share component research and development 
for significant cost reductions, as well as life and reliability 
improvements. Additionally, the group suggested that a dedicated 
national laboratory tackle core, pre-competitive R&D issues that are 
beneficial to all of the PEM fuel cell developers.
    Clearly, some fuel cell R&D is crosscutting and has applications 
for both stationary and transportation applications. For example some 
of the basic stack improvements such as materials, catalysts, 
instrumentation and supporting controls, blowers and pumps, will help 
both applications. In fuel processing, synergies between the 
applications occur as we begin to move to a hydrogen-based system that 
is non on-board. And in the integration of fuel cell systems, some 
subsystem synergies can be co-utilized. Plug Power supports the $50 
million request for fuel cell technology in the Office of 
Transportation.
    Additionally, our company is very supportive of the comparatively 
modest stationary PEM fuel cell program of $7.5 million in the Office 
of Power Technologies and would like to see that R&D focus on research 
needs that are particular to development of a robust power generation 
unit. Where the fuel cell stack is concerned, this means critical 
research on both stack and fuel processor life and unit cost. For 
stationary applications, weight and size can be greater than in 
automotive applications; however, the life of the fuel cell must be at 
least 40,000 hours compared to an auto fuel cell life need of only 
5,000 hours. Ideally, the participants in the development of the fuel 
cell technology roadmap would like to see a 100,000-hour stack life to 
make the fuel cell system akin to other major ``appliances'' in the 
home or building.
    Fuel to feed a stationary stack will be gaseous, such as natural 
gas or propane (or direct hydrogen), therefore, reformer technology is 
very different from onboard vehicular reforming of liquid fuels. 
Research agendas include the need for significant reformer cost 
reduction, as well as life and reliability improvements. Fuel clean up 
is also important and there are hence implications for the fuel cell 
stack and how many ``impurities'' it may be able to accept.
    The integrated system design for the major fuel cell components 
including supporting subsystems (i.e., cooling, water management, etc.) 
depends on the application. Integration and systems architecture are 
very important development needs for fuel cell manufacturers, as is 
manufacturing improvements and research.
            need for government r&d and systems integration
    We have heard repeatedly over the past several months about a large 
industry wide research and development effort for fuel cells, and 
frankly, we at Plug Power are thrilled to hear it. We feel that there 
is a vital role for the U.S. Government, and specifically the 
Department of Energy, to work with industry on pre-competitive research 
and on systems architecture and integration with specific products and 
applications in mind. These efforts begin with a fundamental 
understanding of the PEM fuel cell stack membranes, catalysts, plates, 
as well as reformer fundamentals as they relate to contaminant 
resistant catalysts and hydrogen storage technology. Further, the 
availability of higher quality heat from high temperature (150C to 
200C) PEM stacks requires fundamental research on stack components and 
associated systems that further increases the value and impact of 
stationary power systems. Another area of high interest is the coupling 
of hydrogen generation for stationary and automotive applications to 
further increase overall efficiency and impact the progress toward 
widespread fuel cell use and greater energy independence. The results 
of all these efforts are universally applicable to fuel cell power 
systems, speed their commercial introduction, and move the United 
States closer to energy independence.
    Pre-competitive research is tough for industry. When I first became 
CEO of Plug Power, I wrote to many of the PEM fuel cell developers with 
a plea that we work together on fundamental research issues that are 
vital to all our interests. This is not something a competitive 
industry will readily undertake. Rather, the government has to take the 
lead in bringing us all together, ensuring that no one's rights are 
infringed upon similar to the Semetech approach used in Austin in the 
late 80's. I feel very strongly that there are ``leapfrog'' 
technologies that will help all of us in the fuel cell industry, while 
helping the United States become a global technology leader in this 
field. We need to work together, with the DOE taking the lead, to find 
those leapfrog advancements. Without this private-public partnership, 
the U.S. industry will fail to develop and will allow another country 
to win the race to lead this industry.
    We urge this Subcommittee to, at the least, approve the Budget 
request of $7.5 million for stationary PEM fuel cell research in the 
Office of Power Technologies and to support the $50 million request for 
automotive fuel cell research in the Office of Transportation 
Technologies.
                                 ______
                                 
 Prepared Statement of the State Teachers' Retirement System, State of 
                               California
                                summary
    Acting pursuant to Congressional mandate, and in order to maximize 
the revenues for the Federal taxpayer from the sale of the Elk Hills 
Naval Petroleum Reserve by removing the cloud of the State of 
California's claims, the Federal Government reached a settlement with 
the State in advance of the sale. The State waived its rights to the 
Reserve in exchange for fair compensation in installments stretched out 
over an extended period of time.
    Following the settlement, the sale of the Elk Hills Reserve went 
forward without the cloud of the State's claims and produced a winning 
bid of $3.65 billion, far beyond most expectations. Under the 
settlement between the Federal Government and the State, the State is 
to receive compensation for its claims in annual installments over 7 
years without interest. Each annual installment of compensation is 
subject to a Congressional appropriation. In each of the past 4 fiscal 
years (fiscal years 1999-2002), Congress has appropriated the funds 
necessary to pay the $36 million installment of compensation due for 
that year.
    Congress should appropriate for fiscal year 2003 the $36 million to 
fulfill the Federal Government's obligation to make the fifth annual 
installment payment of compensation, due in fiscal year 2003 under the 
settlement that Congress directed the Administration to achieve.
    The Elk Hills appropriation has the strong bipartisan support of 
the California delegation.
                               background
    Upon admission to the Union, States beginning with Ohio and those 
westward were granted by Congress certain sections of public land 
located within the State's borders. This was done to compensate these 
States having large amounts of public lands within their borders for 
revenues lost from the inability to tax public lands as well as to 
support public education. Two of the tracts of State school lands 
granted by Congress to California at the time of its admission to the 
Union were located in what later became the Elk Hills Naval Petroleum 
Reserve.
    The State of California applies the revenues from its State school 
lands to assist retired teachers whose pensions have been most 
seriously eroded by inflation. California teachers are ineligible for 
Social Security and often must rely on this State pension as the 
principal source of retirement income. Typically the retirees receiving 
these State school lands revenues are single women more than 75 years 
old whose relatively modest pensions have lost as much as half or more 
of their original value to inflation.
          congressional direction to settle the state's claims
    In the National Defense Authorization Act for Fiscal Year 1996 
(Public Law 104-106) that mandated the sale of the Elk Hills Reserve to 
private industry, Congress reserved 9 percent of the net sales proceeds 
in an escrow fund to provide compensation to California for its claims 
to the State school lands located in the Reserve.
    In addition, in the Act Congress directed the Secretary of Energy 
on behalf of the Federal Government to ``offer to settle all claims of 
the State of California . . . in order to provide proper compensation 
for the State's claims.'' (Public Law 104-106, Sec.  3415). The 
Secretary was required by Congress to ``base the amount of the offered 
settlement payment from the contingent fund on the fair value for the 
State's claims, including the mineral estate, not to exceed the amount 
reserved in the contingent fund.'' (Id.)
             settlement reached that is fair to both sides
    Over the course of the year that followed enactment of the Defense 
Authorization Act mandating the sale of Elk Hills, the Federal 
Government and the State engaged in vigorous and extended negotiations 
over a possible settlement. Finally, on October 10, 1996 a settlement 
was reached, and a written Settlement Agreement was entered into 
between the United States and the State, signed by the Secretary of 
Energy and the Governor of California.
    The Settlement Agreement is fair to both sides, providing proper 
compensation to the State and its teachers for their State school lands 
and enabling the Federal Government to maximize the sales revenues 
realized for the Federal taxpayer by removing the threat of the State's 
claims in advance of the sale.
   federal revenues maximized by removing cloud of state's claim in 
                          advance of the sale
    The State entered into a binding waiver of rights against the 
purchaser in advance of the bidding for Elk Hills by private 
purchasers, thereby removing the cloud over title being offered to the 
purchaser, prohibiting the State from enjoining or otherwise 
interfering with the sale, and removing the purchaser's exposure to 
treble damages for conversion under State law. In addition, the State 
waived equitable claims to revenues from production for periods prior 
to the sale.
    The Reserve thereafter was sold for a winning bid of $3.65 billion 
in cash, a sales price that substantially exceeded earlier estimates.
    proper compensation for the state's claims as congress directed
    In exchange for the State's waiver of rights to Elk Hills to permit 
the sale to proceed, the Settlement Agreement provides the State and 
its teachers with proper compensation for the fair value of the State's 
claims, as Congress had directed in the Defense Authorization Act.
    While the Federal Government received the Elk Hills sales proceeds 
in a cash lump sum at closing of the sale in February, 1998, the State 
agreed to accept compensation in installments stretched out over an 
extended period of 7 years without interest. This represented a 
substantial concession by the State. Congress had reserved 9 percent of 
sales proceeds for compensating the State. The State school lands' 
share had been estimated by the Federal Government to constitute 8.2 to 
9.2 percent of the total value of the Reserve. By comparison, the 
present value of the stretched out compensation payments to the State 
has been determined by the Federal Government to represent only 6.4 
percent of the sales proceeds, since the State agreed to defer receipt 
of the compensation over a 7-year period and will receive no interest 
on the deferred payments.
    Accordingly, under the Settlement Agreement the Federal Government 
is obligated to pay to the State as compensation, subject to an 
appropriation, annual installments of $36 million in each of the first 
5 years (fiscal years 1999-2003) and the balance of the amount due 
split evenly between years 6 and 7 (fiscal year 2004-2005).
                    money is there to pay the state
    The funds necessary to compensate the State have been collected 
from the sales proceeds remitted by the private purchaser of Elk Hills 
and are now being held in the Elk Hills School Lands Fund for the 
express purpose of compensating the State. (The balance in the Elk 
Hills School Lands fund has been reduced by an approximately $26 
million ``hold-back'' from the State's share pending the final equity 
determination of the Federal Government's share of the Elk Hills field 
vis-a-vis its co-owner prior to the sale, Chevron. This escrow will be 
released once the final equity shares are determined.)
    president's budget for fiscal year 2003 requests the necessary 
      appropriation for the fifth annual installment of elk hills 
            compensation due under the settlement agreement
    The President's Budget for fiscal year 2003 requests that Congress 
appropriate $36 million from the sales proceeds being held in escrow in 
the Elk Hills School Lands Fund to pay the fifth annual installment of 
Elk Hills compensation due to the California State Teachers' Retirement 
System in fiscal year 2003. See Budget of the United States Government 
Fiscal Year 2003, Appendix, at p. 409.
  as it has in fiscal year 1999-2002, congress should appropriate the 
   funds due for fiscal year 2003 under the settlement that congress 
               directed the federal government to achieve
    Congress should appropriate for fiscal year 2003 the $36 million 
requested by the President to fulfill the Federal Government's 
obligation to make the fifth annual installment payment of compensation 
due in fiscal year 2003 under the settlement that Congress directed the 
Federal Government to achieve.
                                 ______
                                 
                DEPARTMENT OF HEALTH AND HUMAN SERVICES
                         Indian Health Service
     Prepared Statement of the Bristol Bay Area Health Corporation
    The Bristol Bay Area Health Corporation (BBAHC) submits this 
statement on the Administration's proposed fiscal year 2003 Indian 
Health Service budget. In summary, our recommendations are:
  --Increase funding for the Village Built Clinic Lease program in 
        Alaska by $3 million, including adding a village-built clinic 
        in Portage Creek
  --Require IHS to study and report to Congress on the underground 
        seepage and beach erosion problem resulting from prior Federal 
        occupation of the Kanakanak Hospital Compound (land now owned 
        by IHS)
  --Increase funding for the Community Health Aide Program in Alaska by 
        $9.9 million
  --Fully fund contract support costs--at least a $60 million increase 
        over fiscal year 2002--and remove the statutory cap on these 
        funds
  --Fund mandatory cost increases for inflation, pay and population 
        growth, for a total of $323 million
  --Fund the $1 billion increase for the IHS budget as contained in the 
        Budget Resolution (S. Con. Res. 100) approved by the Senate 
        Budget Committee
  --Ensure that IHS training on the medical privacy regulations be 
        provided to tribal contractors
  --Reject the Administration's proposal to consolidate the IHS 
        legislative and public affairs office and other departmental 
        offices under the authority of the Secretary
  --Reject the Administration's proposal to consolidate IHS 
        construction and maintenance funds with other departmental 
        offices under the authority of the Secretary
  --Reject the request by the Secretary of HHS to be authorized to 
        reallocate, without Congressional approval, up to three percent 
        of any program or agency's budget to other programs
    The Bristol Bay Area Health Corporation also supports the fiscal 
year 2003 IHS budget recommendations of the Alaska Native Health Board 
of which BBAHC is a member
    Senate Budget Committee Resolution.--We greatly appreciate the 
provision in the fiscal year 2003 Budget Resolution as approved by the 
Senate Budget Committee for a $1 billion increase for the IHS budget--
this compares to the Administration's requested increase of only $60 
million, an amount that does not even include inflation. The budget 
recommendations we propose would be included within an overall $1 
billion increase. A $1 billion increase would be a substantial down 
payment on the tribal goal of getting the IHS budget up to $18 billion 
over a period of years.
    Village-Built Clinic Leasing Program.--Through the leasing 
authority of the Alaska Area Native Health Service (AANHS) under the 
Village-Built Clinic leasing program, BBAHC has one outstanding request 
for a clinic lease, a clinic at Portage Creek. The lease agreements, 
usually with local city governments or tribal governments, enable us to 
provide health care in rural Alaskan villages. However, because of 
limited funding for the program, we have been unable to start up the 
village clinic in Portage Creek. At our existing village clinics, 
adequate space to perform on-going clinic but when visiting doctors are 
using the clinics to treat patients, staff must perform the regular 
clinic services from their homes.
    An increase of $3 million is needed to fund additional leases for 
village-built clinics, cover inflationary costs, and mitigate for lease 
income from these facilities being lower than the reasonable local 
rates. The village clinics are vital to enabling the Community Health 
Aide Practitioners, doctors, dentists and others to provide health 
services to village residents.
    IHS has no recurring capital improvement fund for the village-built 
clinics, and we ask that Congress direct it to cover these costs from 
the facilities budget.
    Study on Seepage and Erosion Problem.--Our tribal consortium 
utilizes federal property, the Kanakanak Hospital and hospital compound 
in providing health services under Title V of the Indian Self-
Determination and Education Assistance Act. When we took over this 
federal facility under a use permit, the government agreed to be 
responsible for hazardous conditions resulting from prior federal use 
of the property, including pockets of oil underground due to years of 
spills, leaks and overflows.
    The erosion of the shoreline of the hospital compound has increased 
this problem. The erosion has brought oil to the surface and well as 
materials from old garbage dumps and, very disturbingly, human remains 
from a cemetery dating back to about 1900. The cemetery was used by a 
federally operated orphanage and school--and is now part of the IHS 
property on which the Kanakanak hospital is located. We need the 
resources to stop the erosion, re-locate the cemetery, and clean up the 
site. If this situation is not corrected it will eventually put the 
Kanakanak Hospital itself at risk. This problem needs to be addressed 
immediately and the cost should not diminish the resources available 
for Alaska Native health care.
    The first step should be to identify the nature and causes of the 
present condition of this portion of the compound, the correct 
methodology to address these problems, and identify the resources that 
are available from HHS or other federal agencies to correct the 
problems. We request that Congress direct IHS to conduct such a study 
and provide a report to our tribal consortium and to the Congress.
    Community Health Aide Program (CHAP) in Alaska.--We appreciate the 
increases Congress has provided over the past few years to the CHAP 
program. Community Health Aides are, as you know, a vital part of the 
health delivery system in rural Alaska, and are they often the only 
full time medical personnel in the village-built clinics.
    We recommend an increase for the CHAP program of $10 million to 
order to increase the number of CHAP positions, increase the number of 
field supervisors, increase training capacity, and continue updating 
medical manuals and other needed materials.
    Mandatory cost increases for inflation, pay and population 
growth.--The Administration has requested $46.5 million for pay 
increases but no funding for inflation and population growth. There has 
been no funding to accommodate population growth since fiscal year 
1994. The continual absorption of built-in costs is steadily eroding 
the purchasing power of our health services funds.
    The Northwest Portland Area Indian Health Board has calculated the 
cost of mandatories at $323 million and we urge Congress to provide 
that amount. The amount is based on a contract health services 
inflation rate of 12.5 percent, other health services inflation of 7.5 
percent, facilities inflation of 4 percent, and a population growth 
rate of 2.1 percent.
    Contract Support Costs.--The Administration has proposed a $2.5 
million increase for IHS contract support costs. We appreciate the 
recent increases provided by Congress for contract support costs, but 
urge you to not again place a statutory cap in the appropriations bill 
on these funds. We understand that the current unmet contract support 
costs is about $60 million (and may be higher depending on the amount 
of tribal contracting), and believe that there is a federal obligation 
to fund these costs.
    HHS Consolidation Proposals.--The Department of Health and Human 
Services has made dramatic proposals to consolidate all legislative and 
public affairs offices within the agency in the Secretary's office. 
Likewise, they propose to administratively consolidate all personnel 
offices within the agency into four offices in the Secretary's office. 
And the Secretary proposes to consolidate all maintenance and 
construction funds from within the Department under the Secretary's 
authority to be distributed nationally on a competitive basis--the IHS 
maintenance and construction funds are proposed to be transferred to 
the Secretary's office in fiscal year 2004. This change could severely 
impact the availability of construction funds for Indian health 
facilities as they would have to compete with other HHS facility needs.
    These are major proposals about which the Department has not 
consulted with tribes (or perhaps anyone) and for which there is little 
written explanation. We urge the Congress to ask hard questions of the 
Department about each of these proposals.
    We are concerned that a consolidation of legislative offices will 
mean that we no longer will have staff with expertise in Indian health 
law and programs and that consultation with tribes will be negatively 
affected. We are concerned about the implications for Indian preference 
in hiring within the IHS if personnel offices are consolidated. We do 
not know what would happen to the IHS construction priority system if 
those funds are placed in the Secretary's office and made part of a 
national competition--and we have the same concern about facility 
maintenance funds. We are concerned how tribal applications would fare 
under such a system.
    Three Percent Reallocation Proposal.--The Secretary has proposed 
that he be authorized to take up to 3 percent of any program or 
agency's funds within the HHS and reallocate it to another program of 
his choosing. We understand the need for flexibility. Indeed, the 
Secretary already has the authority to reallocate up to 1 percent of 
any HHS programs funding. However, if a major reallocation of funds is 
needed, then the Secretary should go through a formal reprogramming 
process. We urge you to reject the 3 percent proposal.
    Telemedicine/Epi Centers/Privacy Regulations.--Finally, we want you 
to know of our appreciation of the ongoing IHS funding for the Alaska 
telemedicine project and the Administration's requested increase of 
$1.5 million for the epidemiology centers. Congress needs to continue 
with the rural subsidy for the Wide Area Network that provides the 
``pipeline'' or ``bandwidth'' for our telemedicine program.
    We also note the Administration's proposal for $850,000 for IHS to 
provide training regarding implementation of the new HIPAA medical 
privacy regulations. We ask this Subcommittee to ensure that tribal 
programs are included in this training.
    Thank you for your consideration of our concerns.
                                 ______
                                 
   Prepared Statement of the Confederated Salish and Kootenai Tribes
    The Confederated Salish and Kootenai Tribes (CSKT) are pleased to 
have this opportunity to present in writing the funding needs and other 
issues of the Flathead Nation in the budgets of the Bureau of Indian 
Affairs, Office of Special Trustee, and Indian Health Service. During 
this time of national crisis, as we recover from the tragic events of 
September 11 and continue with the War on Terrorism, there is a change 
in the national funding priorities. However, this change does not 
impact the unique relationship between our Tribes and the Federal 
government. In 1855 our forefathers signed the Hellgate Treaty in which 
we ceded over 20 million acres of what is now western Montana and 
reserved for ourselves and future generations the over 1.25 million 
acre Flathead Indian Reservation along with the agreement that our 
lands and treaty rights would be protected forever. The Treaty ensured 
for us the inherent right of self-governance and conveyed to the United 
States the responsibility to enhance and protect our Tribal existence. 
The CSKT have led the way in assuming responsibility for the needs of 
our membership as authorized by federal legislation especially as 
provided for in Public Law 93-638, the Indian Self-Determination and 
Education Assistance Act of 1975, as amended. We have helped forge a 
new relationship between the federal government and tribes as one of 
the original Self-Governance Tribes. It is through this long-standing, 
innovative Indian policy that we have been able to assume the 
management and operation of federal programs, functions, services and 
activities, and yet maintain the federal trust relationship. Self-
Determination returns the decision making to the level which is most 
impacted, a principle important to the current administration.
    Although we fully understand and support the need to shift the 
Federal priorities to increased national security and ensuring national 
defense it should not be at the expense of the Federal trust 
responsibility to tribes.
    The following is a list of our funding priorities for fiscal year 
2003 and related issues.
    The most critical funding priority for CSKT is increased funding 
for health care. The Indian Health Service (IHS) is charged with 
providing health care to American Indians and Alaska Natives. These 
health care services are the trust responsibility of the federal 
government, yet Native Americans often do not receive the most basic 
health care services due to severe IHS funding shortages. Senate 
Majority Leader Tom Daschle proposed an IHS budget increase of $4.4 
billion and the Senate Budget Committee responded to his request by 
authorizing an additional $1 billion. Should this additional funding be 
incorporated into the Budget Resolution, it would provide the 
opportunity to fulfill the Federal Government's commitment to Native 
Americans and would be a major step toward addressing unmet health care 
needs. President George W. Bush's budget is not as generous. Although 
he has proposed a 7 percent increase for the U.S. Department of Health 
and Human Services, he has proposed only a 2 percent increase for IHS. 
This is not acceptable.
    The CSKT has operated its health care delivery system under a self-
governance compact since fiscal year 1994. We have implemented a 
business plan based on actuarial data to manage the health care 
delivery system, a first among tribes in the nation. Nonetheless, our 
system is heavily dependent on health care purchased from private 
providers on the Reservation because we do not have an IHS hospital or 
clinic to serve our beneficiaries. We have entered into contractual 
agreements with our primary care providers, specialists, and inpatient 
facilities. Although the vast majority of the IHS budget is dedicated 
toward the provision of direct care in IHS operated facilities, our 
Reservation is not on the IHS priority list for health facilities 
construction due to the availability of private sector health care. We 
understand that one of the management priorities of the Bush 
Administration is the outsourcing of services from the federal 
government to local private providers. Our efforts in the health 
service arena should be looked at as a demonstration model for other 
tribes. Although we have realized savings through our contracts, 
resulting in our health care being provided at a reduced cost when 
compared to other tribes that have direct care facilities, we are in 
desperate need of additional funds, especially in the IHS line item for 
Contract Health Care. Repeatedly, our Tribal Council, through the 
Tribal Health and Human Services Department, must deny basic health 
services that would be provided by most major health insurance plans. 
In addition, a substantial increase in funding is needed for the 
Catastrophic Health Emergency Fund (CHEF) line item.
    On the Flathead Reservation, our land base encompasses over 1.25 
million acres and we serve over 10,000 IHS-eligible beneficiaries that 
reside on or near it. Our people do not receive surgery unless it 
threatens life or limb so they endure the pain of waiting for knee 
replacements, back surgery, gall bladder removals, and similar 
procedures. The alternative is to travel 300 miles round-trip to have 
the procedures performed in the nearest IHS hospital, surgical caseload 
permitting. Children may wait up to a year for dental care unless it is 
deemed an emergency. Adults cannot receive inpatient chemical 
dependency treatment. Elders may have to travel up to 80 miles round-
trip to obtain prescriptions. Last year, a tragedy in Montana brought 
home the critical situation of health care on Indian reservations and 
could very well occur locally. A little girl died of extensive bleeding 
following a tonsillectomy that was performed 100 miles from her home. 
On the Flathead Reservation, the available dollars for health care, as 
identified by the IHS Level of Need Work Group methodology, have risen 
only 1 percent per eligible beneficiary since 1993, yet medical 
inflation has risen 18 percent in the same time period. The rosy 
picture that all Indians get free health care, courtesy of the U.S. 
Government, is a distorted image that begs correction. In the years 
fiscal year 1993 through fiscal year 1999 the United States spent an 
average of $5,313 a year for the health care of our Veterans, $3,347 a 
year for health care for federal prisoners, $3,262 a year for 
recipients of Medicaid and an average of only $1,279 a year for 
American Indians.
    In the near future, we are told that Congress will begin 
considering the reauthorization of the Indian Health Care Improvement 
Act. CSKT looks forward to working with the authorizing Committees on 
an amendment to ensure Tribes exercising the opportunities presented in 
Public Law 93-638 do not assume an unfair liability or risk that direct 
service tribes do not have, because federal programs (direct service 
health care) retain access to the IHS funding to cover uncontrollable 
health costs.
    In the Department of the Interior (DOI). the CSKT is extremely 
concerned about Secretary Gale Norton's proposal, supported by 
Assistant Secretary of Indian Affairs Neal McCaleb and Special Trustee 
Tom Slonaker, to transfer trust asset and resource management out of 
the Bureau of Indian Affairs (BIA) to a new Bureau of Indian Trust 
Asset Management (BITAM). We have provided our comments to Secretary 
Norton expressing our concerns regarding her proposed reorganization. 
However, we believe they are worth reiterating to this Committee, where 
DOI will need to request funding.
    CSKT is particularly concerned about the proposed reorganization in 
specific areas as follows:
    (1) Impact on Self-Governance and Self-Determination.--It is our 
experience that when programs, services, functions or activities move 
from the BIA to another part of the DOI structure there is a negative 
impact on tribal opportunities to manage and operate them under Public 
Law 93-638. There are different regulations for BIA-operated programs 
and all other non-BIA programs within DOI. The regulations governing 
tribal assumption of non-BIA programs fail to meet the intent or spirit 
of tribal self-determination by including what we believe are 
unnecessary governmental restrictions and retained federal control. The 
most glaring example of DOI resistance to tribal assumption of DOI 
programs outside the BIA is the few number of self-governance 
agreements in existence after nearly a decade since 1994, when the 
Self-Governance amendments were enacted.
    It is CSKT's utmost concern during this time of trust reform that 
Tribes do not lose the opportunity to manage and operate the trust 
resources programs. We have done an excellent job operating the trust 
programs and have audits and evaluations to prove it. We should not be 
punished for DOI's mismanagement over the past century.
    (2) Funding for the BITAM and Funding for BIA.--The BIA is 
extremely underfunded. For example, the Intertribal Timber Council 
reports that BIA receives one-tenth the amount of funding that the U.S. 
Forest Service receives to manage federal land. It is unreasonable to 
think that the BIA can manage tribal resources with such substantially 
fewer dollars on a per acre basis. BIA programs must receive full 
funding that is equivalent to funding received by other federal 
agencies to provide similar functions.
    Another concern is where the funding will come from for a new 
agency and all of its administrative costs. As you are aware, DOI 
earlier this year submitted a $300 million reprogramming request, so it 
appears DOI proposes to use the already limited program funds for this 
purpose. We urge you to oppose any transfer of funds to BITAM.
    (3) Guarantee No Diminishment of the Trust Responsibility.--It 
appears DOI is attempting to limit the federal trust responsibility to 
trust assets and resources that generate revenue by their transfer to 
BITAM. The remaining services provided to Tribes would remain in the 
BIA. We believe the trust responsibility extends to programs beyond 
those that generate revenue and the proposed structure would leave the 
remaining BIA programs vulnerable to transfer to other federal agencies 
or worse, to states. Our relationship is with the federal government 
and not with state or local governments. Although it is possible to 
develop government-to-government-relationships with other federal 
agencies, it most certainly will make it much more difficult. However, 
Tribes should not be forced to compete within their states for needed 
resources.
    (4) Signature Authority at the Local Level.--For Tribes to operate 
efficiently, the provision of federal functions should be at the local 
level--not centralized in Washington DC or some other centralized 
location.
    (5) Information Technology and Security.--As a result of the 
computer shutdown in the DOI due to security breaches, it is clear that 
major changes are imminent and needed with the BIA information 
technology systems, including appropriate security safeguards. Tribes 
that operate the trust programs and require access to BIA IT systems 
must be considered in its development and must receive the same level 
of funding that the BIA receives.
    In another area, President Bush is committed to his initiative to 
``Leave No Child Behind.'' As Tribes, we hope his initiative will 
ensure that no Indian child is left behind by fully funding Public Law 
93-638 BIA Schools and other BIA education programs since Native 
Americans have extremely high dropout rates and lower success rates for 
college graduation.
    Finally, President Bush is calling for billions of dollars for 
Homeland Security to increase our national defense. Tribes need to be 
included in this effort. Our Tribes, with numerous dams including the 
hydroelectric generating Kerr Dam, must be secured. In addition, as the 
provider of health related services for over 10,000 beneficiaries and 
the additional 19,000 non-Indian reservation residents, any funding for 
bioterrorism provided to other health agencies should be provided to 
tribes to ensure reservations are safe for all who reside there.
    This is a time of high anxiety for all United States citizens. It 
is a time when many are willing to set aside personal differences for 
the common good. Let us remember that at the close of the 20th Century, 
there were over 190,000 Native American Veterans. Historically. Native 
Americans have the highest record of military service, per capita, when 
compared to all other ethnic groups. Today, CSKT has over 30 tribal 
members and descendents serving in the Armed Services. We are proud 
that our young tribal members serve as far away as Afghanistan to 
protect the rights and liberties that all American citizens hold dear.
    As Senators, we urge you to uphold and honor the commitments made 
to our people just as our young men and women are doing for this great 
country today.
                                 ______
                                 
          Prepared Statement of the Alaska Native Health Board
    The Alaska Native Health Board (ANHB) submits this statement on the 
fiscal year 2003 Indian Health Service budget. In summary, our fiscal 
year 2003 IHS budget recommendations are:
  --Community Health Aide Practitioner Program--an increase of $7.5 
        million over a 3-year period
  --Village-Built Clinics--a $3 million increase and require IHS to be 
        responsible for their maintenance
  --Medevac Transportation--a $2 million increase
  --Facilities and associated housing construction funding for St. Paul 
        ($11.1 million), Metlakatla ($14 million), Arctic Slope Native 
        Association in Barrow ($8 million), Bethel Quarters ($5 
        million) and Nome Hospital
  --Alaska Rural Sanitation--$50 million
  --$1 billion increase for IHS as contained in the Senate Budget 
        Resolution
  --Fully fund mandatory increases including pay costs, inflation, and 
        population growth.
  --Fully fund contract support costs, and remove the statutory cap on 
        the funding level
  --Reject the HHS proposals concerning consolidation and of 
        reallocation of up to 3 percent of funds.
  --Reauthorize the Indian Diabetes entitlement program this year
    Community Health Aide Practitioner Program.--We request a $7.5 
million increase for the CHA/P program to be phased in over a 3-year 
period. CHA/P provides emergency and primary health care for 80,000 
Alaska Natives. Of the requested increase, $5 million would be used to 
increase by 115 the number of CHAP positions for a total of 615; $1.5 
million would be used to increase the number of field supervisors; 
$750,000 would be used to increase state-wide CHA/P training capacity; 
$150,000 would be for ongoing updates of materials specific to the CHA/
P program.
    Village-Built Clinic Leasing Program.--We request a $3 million 
increase for the Village-Built Clinic program, the program through 
which IHS provides lease funds for small village-built health 
facilities. The lease agreements, usually with local city governments 
or tribal governments, enable us to provide health care in rural 
Alaskan villages.
    An increase of $3 million is needed to fund additional leases for 
village-built clinics, cover inflationary costs, and mitigate for lease 
income from these facilities being lower than the reasonable local 
rates. The village clinics are vital to enabling the Community Health 
Aide Practitioners, doctors, dentists and others to provide health 
services to village residents.
    The June 2000 report, ``Alaska Rural Primary Care Facility Needs 
Assessment Project'' prepared by the Alaska Native Tribal Health 
Consortium, Department of Health and Social Services, and the IHS notes 
that 33 percent of the 174 village-built clinics were categorized as 
needing replacement or major renovations, while 40 percent were still 
using a honey bucket and/or a pit privy system for sewage disposal. IHS 
has no recurring capital improvement fund for the village-built 
clinics, and we ask that Congress direct it to cover these costs from 
the facilities budget.
    Medevac Funding.--We request $2 million in recurring appropriations 
through the IHS for Alaska Native tribal health organizations to meet 
the escalating costs resulting from FAA requirements for the use of 
critical care air ambulance services for medical evacuations. This 
service is critical to the delivery of health care in Alaska. As 
evidence of that, the Alaska medevac planes were the first medevac 
services in the nation allowed to resume service following the 
terrorist attacks of September 11, 2001.
    In recent years the cost and number of medevac flights have 
continued to rise. The Alaska Native Medical Center, for instance, has 
seen a 30 percent increase in the number of medevac flights in the past 
4 years. During that time the costs increased five fold. A major factor 
has been changes in the FAA requirements regarding use of critical care 
air ambulance services for medical evacuations. In many cases now only 
critical care air services that meet new FAA requirements may transport 
patients that historically have been arranged on other aircraft (e.g., 
transport of patients on oxygen).
      facilities at st. paul, metlakatla, barrow, bethel and nome
    St. Paul Health Center ($11.1 million).--We greatly appreciate that 
the Administration requested $11.1 million to complete construction of 
the St. Paul Health Center, and urge Congress to approve this request.
    The present clinic has many documented physical and environmental 
deficiencies and is much too small to adequately serve the Native and 
non-Native population. While the clinic serves the approximately 900 
permanent residents of St. Paul Island, it also is the sole source 
provider of health services to 3,000 fishermen during fishing and 
crabbing seasons. The health clinic is not handicapped-accessible, and 
hallways and doors are very narrow. There are only two examination 
rooms. Due to lack of examination space, treatment of patients must 
also be provided in hallways and in the x-ray room. There is little 
privacy for patients, and patient confidentiality is difficult.
    Metlakatla Indian Community Health Center ($14 million).--We urge 
Congress to provide $14 million to complete construction of the 
outpatient health center and 8 associated quarters for the Metlakatla 
Indian Community. Metlakatla received $3.4 million in IHS funds in 
fiscal year 2002 to begin work on the facility and funding should be 
made available to complete the job.
    Clinic services are housed in four modular units that were built in 
the 1970's. The units are set on pilings and are connected by open, 
elevated, wooden walkways. The buildings have settled unevenly, posing 
an unsafe environment for people seeking health services They continue 
to re-settle, particularly when freezing and thawing occurs, resulting 
in cracked walls and other damage. There is an ongoing, and losing, 
effort to do emergency repairs. Additionally, the facilities are 
overcrowded and the utility systems inadequate to support the 
modernization or updating of medical equipment.
    Barrow Hospital (Arctic Slope Native Association) ($8 million).--We 
request $8 million in fiscal year 2003 funding for the Planning and 
Site Acquisition phase of the project to replace the Samuel Simmonds 
Memorial Hospital (SSMH) in Barrow. This critical facility is the only 
hospital available to residents of an area larger than the State of 
Washington. The single story wood frame building was constructed in 
1965 and most of the major systems in the building are the original 
equipment. It was designed to meet the requirements of a much smaller 
population and now provides less than 25 percent of the space needed to 
provide appropriate medical care for the current population.
    The IHS approved the Project Justification Document and a draft 
Program of Requirements for this project in 1998. The Barrow project 
would cost $104 million when complete and is currently the fourth 
priority for inpatient facility construction on the IHS priority list. 
The third construction project does not have an approved Project 
Justification Document but has been inserted in the list ahead of SSMH. 
The delays in finalizing planning for the third construction project 
should not be allowed to result in delays for funding SSMH. 
Congressional oversight to ensure that IHS follows its own procedures 
will permit the funding of the SSMH project.
    Nome Hospital (Norton Sound Health Corporation).--We urge Congress 
to move forward to advance the projects on the outpatient priority list 
so that the critical need for an inpatient facility in Nome can be 
proceed. The Nome Hospital is fifth on the IHS outpatient priority 
list--the uncertainty with regard to the plans for the facility in 
Phoenix has unfairly delayed getting IHS funding for the Nome facility 
and perhaps others who are just below Phoenix on the priority list.
    There is an urgent need for replacement or renovation/expansion of 
the severely overcrowded Norton Sound Regional Hospital. Originally 
constructed in 1948 and since expanded, the hospital is filled with 
code violations and safety deficiencies which include unsafe wiring and 
plumbing, lack of fire sprinkler system, inadequate ventilation, and 
structural problems due to foundation movement
    Bethel Quarters.--We request $5 million in fiscal year 2003 for the 
third year of a 4-year quarters construction project. Construction is 
underway and fiscal year 2003 funds are needed in order to keep the 
project on track for completion in fiscal year 2004.
    Rural Sanitation Funding.--We give special thanks to Senator 
Stevens for his continued assistance in providing funding to deal with 
the critical shortage of sanitation facilities in Alaska. The need is 
so great that we ask for $50 million to undertake feasible sanitation 
projects in Alaska, as well as adequate funding and technical support 
for ongoing operation and maintenance needs.
    The IHS estimates that it would cost $960 million to meet the 
current sanitation needs of Alaska Native villages. The future, 
however, holds challenge as well as promise. For example, providing 
water and sewer service to the last 16 percent of households will be 
particularly difficult. In some communities, sources capable of 
producing even a modest supply of water are not available. In very 
small communities, it is hard to overcome diseconomies of scale to make 
water and sewage service affordable.
    Resources to support technical, financial, and managerial capacity 
necessary to operate the systems on an ongoing basis have not been 
proportionately increased. Many of the villages with water sanitation 
projects in place or under construction lack the financial resources to 
ensure their long-term operation and maintenance. With a limited 
economic base to pay for user fees, higher costs of shipping and 
transportation to contend with, and harsh climates and geology, among 
other mitigating factors, support for operation and maintenance is a 
vital component to assuring long-term success of sanitation projects in 
the villages.
    Mandatory cost increases for inflation, pay and population 
growth.--The Administration has requested $46.5 million for pay 
increases but no funding for inflation and population growth. There has 
been no funding to accommodate population growth since fiscal year 
1994. The continual absorption of built-in costs is steadily eroding 
the purchasing power of our health services funds.
    The Northwest Portland Area Indian Health Board has calculated the 
cost of mandatory increases at $323 million and we urge Congress to 
provide that amount. The amount is based on a contract health services 
inflation rate of 12.5 percent, other health services inflation of 7.5 
percent, facilities inflation of 4 percent, and a population growth 
rate of 2.1 percent.
    Contract Support Costs.--The Administration has proposed a $2.5 
million increase for IHS contract support costs. We appreciate the 
recent increases provided by Congress for contract support costs, but 
urge you to not place a statutory cap in the appropriations bill on 
these funds. We understand that the current unmet contract support 
costs is about $60 million (and may be higher depending on the amount 
of tribal contracting) and believe that there is a federal obligation 
to funds these costs.
    Diabetes.--While not under the jurisdiction of this Subcommittee, 
we ask for your support in re-authorizing the special Indian diabetes 
program which was authorized in the Balanced Budget Act and which will 
expire at the end of fiscal year 2003. As you know, these are 
entitlement funds that come from the CHIP program and are passed 
through to IHS and then allocated by formula to tribal and IHS diabetes 
programs. The fiscal year 2003 funding will be $100 million.
    We point out that Alaska has the highest rate of increase in new 
diabetes cases in Indian country. As an example, the rate of diabetes 
cases in the Mt. Edgcumbe Service Unit increased 81 percent from 1985-
1999 (from 22 to 49 per 1,000). Diabetes affects all parts of the body 
including the heart, kidneys, eyes, gums, and blood pressure. It is a 
high priority among tribes nationwide to obtain a continuing source of 
funding for diabetes programs. ANHB and the Oklahoma tribes have agreed 
to work jointly on this matter.
    HHS Consolidation and Reallocation Proposals.--We urge Congress to 
reject the HHS proposals to consolidate maintenance and construction 
funds, legislative offices, and personnel offices within the office of 
the Secretary. We need to know how this would affect the IHS 
construction priority system and tribal contracting of facilities, 
whether the Secretary would maintain persons with expertise in the area 
of Indian health law in the legislative office, whether Indian 
preference would be followed with regard to IHS hiring. And there are 
many other questions. If HHS wants to proceed with these proposals then 
they need to consult with tribal and other affected entities and 
provide detailed information about its plans. We also urge Congress to 
not approve the HHS Secretary's request for authority to reallocate up 
to 3 percent of funds from one agency or program and transfer it to 
another program. Such actions should be subject to a formal 
reprogramming process.
    Thank you for your consideration of our recommendations.
                                 ______
                                 
         Prepared Statement of the Metlakatla Indian Community
    The Metlaktala Indian Community requests the following in the 
fiscal year 2003 Interior and Related Agencies Budget:
  --$14 million in IHS funds to complete construction of our health 
        clinic and quarters
  --$2 million in BIA funds for its share of the Walden Point Road 
        Project and direction to the BIA to request $2 million annually 
        through fiscal year 2008 for the Project.
                       health clinic and quarters
    We ask this Subcommittee to recommend $14 million in IHS funds to 
complete construction of our replacement outpatient health clinic and 
quarters. We cannot tell you how disappointed we were that the 
Administration's fiscal year 2003 budget did not propose construction 
funding for our facility even though we received fiscal year 2001 
Denali Commission funds ($1.2 million) for planning and design and 
fiscal year 2002 IHS funds ($3.4 million) for site preparation and 
related work. It makes no sense--and is dangerous to the health of our 
residents--to stop the progress on this desperately needed health 
facility.
    Site preparation is now underway. We are currently shooting 
(breaking up) the rock on the 11-acre clinic and quarters. We will be 
ready to use fiscal year 2003 IHS construction funds for the clinic and 
eight associated housing quarters.
    We have told this Subcommittee a number of times in the past about 
the terrible physical condition of our outpatient facility and the 
ongoing and extraordinary effort it takes to keep it patched together 
enough to keep the doors open. The physical condition of the clinic has 
resulted in us being unable to meet the Joint Commission on 
Accreditation of Health Care Organizations Standards.
    Our health center consists of four modular buildings that are set 
on pilings and are connected by open, elevated wooden walkways. Over 
time the buildings have settled unevenly, the walls drop and separate 
when the temperature rises from below freezing. We have had to spend 
precious dollars on new pilings, replacement of hot and cold water 
piping, insulation, a circulation pump, repair of waste piping in the 
crawl spaces and replacement of rotting emergency room and patient room 
floors. These conditions pose an unsafe environment for people seeking 
health services.
    We point out again that our health center is the sole source of 
health care on the Annette Island Reserve, and so we have made every 
effort to keep the doors open. Inclement weather on the islands often 
isolates us for days at a time, preventing transporting patients to 
off-island locations for treatment. So the prospects of no fiscal year 
2003 construction funding, resulting in further delay on the 
replacement clinic, is a very serious matter for us.
    Lack of fiscal year 2003 IHS construction funding will result in a 
construction delay of yet another year. We are eager to finally be able 
to provide a full range of ambulatory care services and a comprehensive 
community health program to the residents of the Annette Islands 
Reserve and to provide those services in a safe facility. In our new 
clinic we will provide expanded services in the areas of laboratory 
work, radiology, emergency and urgent care, ambulatory care, community 
health services such as mental health, substance abuse services, social 
services and community health representatives, dental, pharmacy and 
physical therapy. New services to be offered include health education, 
public health nutrition and environmental health.
    The Juneau-based architectural firm Jensen Yorba Lott, Inc., is the 
lead designer of our new health facility. The IHS will manage the 
construction of the health center, while the Metlakatkla Indian 
Community is the lead contractor for site development and the housing 
quarters construction. The health facility will be managed under a 
Public Law 93-638 compact with the IHS under the direction of Rachael 
Askren, the Service Unit Director.
                           walden point road
    Under an MOU, the Metlakatla Indian Community along with the 
Department of Defense (DOD), Federal Highways Administration (FHWA), 
Bureau of Indian Affairs, and the Alaska Department of Transportation 
and Public Facilities have worked jointly on a plan to alleviate the 
isolation and improve the safety of the Community. Through innovative 
planning and cooperative efforts, the joint project will result in a 
14.7-mile road (Walden Point Road) and a 3-mile ferry link to Saxman, 
Alaska. Presently the Community must rely on commercial air transport 
or the Alaska Marine Highway System (ferry service). The air service is 
costly and availability is severely impacted by the weather. The Alaska 
Marine Highway System is not a daily service and is also dependent upon 
weather conditions. There are days at a time when, due to the weather, 
neither the air nor ferry services can function and we remain isolated 
on the island.
    The Walden Point Road project has been underway since 1997 and 
should be completed in 2007, at an estimated cost of $29.8 million. So 
far the Department of Defense, under its Civil-Military Innovative 
Readiness Training Program, has completed 5 miles of construction grade 
roadway and expects to complete roadway construction by 2005. The 
paving and finishing (road signs, centerlines, guardrails) would be 
completed by 2007.
    The completion of Walden Point Road is dependent upon each party to 
the MOU carrying out the obligations they committed to perform in 
signing the agreement. In the initial years of the project, each agency 
was able to provide the funds, resources, and expertise required to get 
the project off the ground. As we get further into the actual 
construction--which is more costly than in the initial phase of 
planning, design, and environmental assessments--funding has become the 
greatest barrier to keeping the project on schedule. While the DOD and 
FHWA have been able to identify resources and are committed to seek the 
necessary funding within their respective annual appropriations 
requests, the BIA has informed us they can neither provide funds from 
existing allocations nor request for a line item appropriation in its 
annual budget requests. Due to the economic devastation the Community 
has suffered as a result of the closure of our timber processing 
facilities and the marked drop in the fishing industry in recent years, 
we are unable to provide the amounts need to ensure the necessary 
construction materials are available to continue construction on 
schedule.
    We request that the Subcommittee recommend at least $2 million in 
fiscal year 2003 BIA funds be made available to continue the Walden 
Point Road project. We further request that the Subcommittee direct the 
Bureau to include a $2 million line item request in the fiscal year 
2004 through fiscal year 2008 budgets for the Walden Point Road 
project.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf on the National Congress of American Indians and its more 
than 200 member tribal nations, we are pleased to have the opportunity 
to present written testimony on fiscal year 2003 appropriations for the 
Indian Health Service (IHS).
    The tragic events of September 11 brought forth the strength and 
the determination of our nation to survive in the face of adversity. It 
is this same spirit that has carried Indian Country through years of 
annihilation and termination. It is this same spirit that has propelled 
Indian Nations forward into an era of self-determination and self-
governance. And it is in this same spirit of resolve that Indian 
Nations come before Congress to talk about honoring the federal 
government's treaty obligations and trust responsibilities throughout 
the fiscal year 2003 budget and appropriations process.
    On February 4, President Bush proposed a $2.13 trillion budget for 
fiscal year 2003 that included generally level funding for Indian 
programs, continuing the trend of consistent declines in federal per 
capita spending for Indians compared to per capita expenditures for the 
population at large. This trend demonstrates the abject failure of the 
federal government to commit the serious resources needed to fully 
honor its trust commitment to Indian tribes.
    The federal trust responsibility represents the legal obligation 
made by the U.S. government to Indian tribes when their lands were 
ceded to the United States. This obligation is codified in numerous 
treaties, statutes, Presidential directives, judicial opinions, and 
international doctrines. It can be divided into three general areas--
protection of Indian trust lands; protection of tribal self-governance; 
and provision of basic social, medical, and educational services for 
tribal members.
    NCAI realizes that Congress must make difficult budget choices this 
year. As elected officials, tribal leaders certainly understand the 
competing priorities that you must weigh over the coming months. 
However, the fact that the federal government has a solemn 
responsibility to address the serious needs facing Indian Country 
remains unchanged, whatever the economic climate.
    We at NCAI urge you to make a strong across-the-board commitment to 
meeting the federal trust obligation by fully funding those programs 
that are vital to the creation of healthy Indian Nations.
    The President has requested $2.9 billion for the Indian Health 
Service, a $60 million increase over the current funding level, but an 
effective decrease in funding when new absorption requirements and 
mandatory pay cost increases are figured in. Of the total request, $2.5 
billion is proposed for Indian health services and $370.5 million, a 
less than $1 million increase, is proposed for facilities. Because most 
of the increases under the President's budget are targeted for 
mandatory pay-cost adjustments and staffing at new facilities, the 
budget request falls far short of allowing the IHS to break even with 
fiscal year 2002 funding levels once the new absorption requirements 
under the President's budget are accounted for.
    Measured in constant dollars, per capita spending for health care 
in the IHS service population is actually lower today than it was is in 
1977. Over the past ten years alone, population growth and inflation 
costs have increased by over 46 percent, while IHS funding has risen by 
only 36 percent.
    Indian Country is all-too-familiar with the disproportionate impact 
that diseases such as diabetes, heart disease, and cancer have in 
American Indian and Alaska Native communities. In January, the Centers 
for Disease Control released a study \1\  which found that, between 
1990 and 1998, the lung cancer death rate for American Indians and 
Alaska Natives increased by 28 percent and the percent of low 
birthweight infants increased by 11 percent. The study also found that 
American Indians and Alaska Natives do not appear to have experienced 
the same improvements in suicide, breast cancer, and stroke death rates 
that other racial/ethnic groups have seen.
---------------------------------------------------------------------------
    \1\ Department of Health and Human Services, Centers for Disease 
Control, Trends in Racial and Ethnic-Specific Rates for the Health 
Status Indicators: United States, 1990-98, January, 2002.
---------------------------------------------------------------------------
    To help address these health disparities in a meaningful way, the 
IHS Level-of-Need Funding Workgroup has identified an $18 billion 
needs-based budget for the IHS, including a nonrecurring $8.7 billion 
facilities request and $10 billion to fully fund the health needs for 
American Indians and Alaska Natives.
    A 10-year phase-in of the $18 billion needs-based budget can be 
achieved through several years of appropriations increases. If a first 
year increase of $2.6 billion were appropriated (a 112 percent 
increase), the following years' increases would decline to 20 percent 
in year 5 and 10 percent in year 10. The first year increase would be 
substantially more to help offset the more than $2 billion lost to 
inflation over the past 8 years.
    NCAI strongly supports the needs-based budget request for the IHS, 
and urges Congress to take actions to close the gap between IHS funding 
levels and the health care needs of American Indians and Alaska 
Natives. Unfortunately, the President's budget request fails on this 
front.
    The Northwest Portland Area Indian Health Board (NPAIHB) estimates 
that approximately $313 million is needed just to maintain current IHS 
services, including $51.4 million for population growth, $212 million 
for inflation, and $60 million for contract support costs. The 
Administration request is less than one-fifth of that amount, which 
means the very real likelihood of fewer services provided through 
several programs, including Alcohol and Substance Abuse, Contract 
Health Services, Health Education, Community Health Representatives, 
and Urban Health.
    With respect to contract support funding, NCAI is disappointed that 
the President has requested only a $2.5 million increase, which would 
bring funding to $270.7 million. This amount is woefully below the 
amount needed to cover the current $100 million IHS contract support 
shortfall. We fully urge the Subcommittee to support meaningful 
increases to address this shortfall so that tribes are not penalized 
for assuming program responsibility in accordance with their rights 
under the Indian Self-Determination and Education Assistance Act, 
Public Law 93-638.
    NCAI is extremely troubled by the essentially level funding request 
for IHS facilities. Over the past decade, the IHS facilities 
maintenance and improvement account has increased by less than 5 
percent, even though the inventory of buildings had increased much more 
than that. The Federal Government's investment in IHS facilities is 
depreciating rapidly because of the lack of funding for regular 
maintenance activities. In fact, the IHS in January 2002 identified a 
$484 million backlog in facilities maintenance and repair.
    Finally, NCAI would like to express our concerns about the 
Administration's proposal to consolidate 50 public affairs and 20 
legislative affairs offices within the Department of Health and Human 
Services into one central office. For IHS, $838,000 and eight FTEs 
would be transferred from the IHS budget to the Office of the Secretary 
to implement this change. There are few details about this proposal, 
including whether the IHS legislative affairs office would be 
physically located away from the day-to-day IHS operations in 
Rockville, Maryland, or whether current IHS legislative affairs staff 
would be detailed to work on other issues.
    We are pleased that the Senate budget resolution, S. Con. Res. 100, 
adds $1 billion to the President's request for the IHS, which would 
increase IHS funding by 37 percent over the current level. The majority 
of the increase would go to clinical services, with the remainder for 
contract support costs and to restore the proposed cuts to facilities. 
We strongly urge you to support this funding level as the budget and 
appropriations process continues.
    Thank you for this opportunity to present written testimony 
regarding the fiscal year 2003 appropriations for the Bureau of Indian 
Affairs. The National Congress of American Indians calls upon Congress 
to fulfill the federal government's fiduciary duty to American Indians 
and Alaska Native people. This responsibility should never be 
compromised or diminished because of any political agenda or budget cut 
scenario. Tribes throughout the nation relinquished their lands and in 
return received a trust obligation, and we ask that Congress maintain 
this solemn obligation to Indian Country and continue to assist tribal 
governments as we strive to reduce the health disparities that so 
disproportionately affect our Nations.
                                 ______
                                 
 Prepared Statement of the Joslin Vision Network/Joslin Diabetes Center
    Mr. Chairman, thank you for this opportunity to present a status 
report on the funds the Interior Subcommittee provided for the past 2 
fiscal years, and to request $2 million to continue the Indian Health 
Service/Joslin Diabetes Center telemedicine work in fiscal year 2003 in 
the Indian Health Service Medical Care Account.
                               background
    The Interior Subcommittee recommended that the Indian Health 
Service develop in fiscal year 2000 a $1,000,000 cooperative 
relationship with the Joslin Diabetes Center/Joslin Vision Network 
(JVN) to address diabetes issues within the Indian Health Service and 
among the Native American patient population by integrating the JVN and 
Joslin Diabetes Eye Health Care Model into the care of the Native 
American population.
    The Joslin Diabetes Center JVN is a telemedicine initiative 
designed to screen for diabetes and to access all diabetic patients 
into cost-effective, quality diabetes and eye care programs across 
geographic and cultural boundaries at reduced cost.
    In the fiscal year 2001 Budget, the IHS requested $1,000,000 to 
continue this project. The request was approved by the Conference 
Committee and enacted into law. Joslin Diabetes Center welcomed this 
opportunity to work collaboratively with IHS through the sharing of 
technology and training in a clinical setting.
    The Congress, through your Subcommittee, provided $1,500,000 in 
fiscal year 2002 to continue and expand this project.
    The fiscal year 2003 Budget contains $1,500,000 for this project. 
We are seeking an increase of $500,000 above that amount for fiscal 
year 2003.
    Joslin is currently developing a Comprehensive Diabetes Management 
Plan that will be incorporated within the health care systems of the 
Department of Defense, Department of Veterans Affairs, and the Indian 
Health Service. This telemedicine platform will allow seamless 
migration among these three systems.
                  fiscal year 2000-2002 status report
    The IHS for the initial pilot site of cooperation with the Joslin 
JVN selected Phoenix Indian Medical Center (PIMC). Following the 
successful implementation at PIMC of the first pilot IHS/JVN 
telemedicine diabetes detection, prevention and treatment initiative, 
Sells, Arizona was selected as the second site. The plans for 
disbursement of remaining funds for fiscal year 2000-2001 include 
deployment at four additional sites, refinement of the IHS/JVN 
telemedicine protocol, and integrating Native-American outreach and 
education programs. It appears that the four identified additional 
sites targeted are Rocky Boy, MT, Sitka Clinic, AK, Chinle Reservation, 
AZ, and Minneapolis, MN.
    Participants from the Indian Health Services have made major 
contributions to the development of the Comprehensive Diabetes 
Management Program effort. The program now incorporates significant 
value added to existing Indian Health Services efforts such as their 
Diabetes Tracker program. Work has been completed in the design of the 
different clinical, educational and behavior/lifestyle modification 
modules and in algorithms defining dynamic alert notification and 
diabetes risk assessment that are specific for the requirements of the 
Native American populations. It is expected that a production version 
of the Diabetes Management program will be available for implementation 
in September 2002 and sites in the Indian Health Services have already 
volunteered to be involved in the initial roll out of this program.
                            fiscal year 2003
    For 2003, the President's budget Request includes $1.5 million, the 
fiscal year 2002 appropriated level. In order to accelerate the 
deployment of JVN imaging sites and increase the number of reading 
center workstations in use at the central JVN reading center in Phoenix 
Indian Medical Center, we are respectfully requesting an increase of 
$500,000 above the budget to a total of $2 million for fiscal year 
2003. This level will permit the Indian Health Service to establish and 
deploy equipment for 14 more image acquisition sites and serve a larger 
portion of the patient population.
                               conclusion
    Thank you for this opportunity to present this fiscal year 2002 
status report and this request of fiscal year 2003 funding of $2 
million for the IHS /Joslin project. This project is viewed by IHS and 
Joslin Diabetes Center as a significant medical technology breakthrough 
for the patients and health care system within the Indian Health 
Service.
                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians
    The Lac Du Flambeau Band of Lake Superior Chippewa Indians delivers 
health care services under a ``Self-Determination'' contract with the 
Indian Health Service. Lac Du Flambeau's Health Department has operated 
the Peter Christensen Health Center since 1972, and offers outpatient 
medical and dental services.
    We are pleased to present this testimony to the Subcommittee 
regarding the Band's priorities for fiscal year 2003 IHS funding.
                   challenges in the fiscal year 2003
    The Lac Du Flambeau tribal community maximizes the use of fiscal 
resources currently provided by an integrated pool from Federal, State 
and Tribal sources. The fiscal year 2003 Department of Health & Human 
Services Departmental Budget will impact the Lac Du Flambeau community 
in the following ways:
    The Lac Du Flambeau Chippewa Tribe through the comprehensive 
service delivered by the Peter Christensen Health Center will mirror 
the initiatives of the Department of Health & Human Services strategic 
initiatives for fiscal year 2003. However, in order to meet these 
strategic goals, more funding in needed. With the President's fiscal 
year 2003 Budget Request, Lac Du Flambeau will not keep pace with 
rising costs or increased patient load.
Contract Health Services
    One specific area of concern is Contract Health Service funding. 
The Administration has requested only a $7.3 million increase for this 
vital program. Nationally, the shortfall for this program is $1.1 
billion. The shortfall at Lac Du Flambeau alone is $4 million. The 
Administration's increase will do little to improve the health of 
Indian people nationwide let alone in Lac Du Flambeau.
    The Lac Du Flambeau Band of Lake Superior Chippewa Indians requests 
$4 million for ``Contract Health Services'' to provide access to health 
care for the increasing number of tribal members.
Health Facilities
    Another area of concern for the Band, is the proposed decrease in 
facilities construction. Like the school construction backlog 
experienced in the BIA, there is a severe backlog in health facilities 
within IHS. The Band is now developing plans for a new facility for the 
Peter Christensen Health Center. The current facility cannot meet 
accreditation standards, and is undersized for the rising number of 
patients. However, the current Indian Health Service Facilities program 
cannot provide Lac Du Flambeau with meaningful resources to help build 
a new facility. We urge the appropriators to continue to support 
innovative programs like the Joint Venture Program and the Small and 
Ambulatory Clinic funding program to address the critical backlog in 
health facilities in Indian country.
Pay costs
    In order to attract quality medical professionals, the Band must 
pay premium salaries. This has resulted in a reduction in services at 
the clinic. In order to address this shortfall in pay costs, the Band 
requests $2 million from the resources identified for ``Tribal Pay 
Costs'' in the IHS proposed budget.
                                 ______
                                 
 Prepared Statement of the American Association of Colleges of Pharmacy
    Dear Chairman Byrd: On behalf of all the members of the American 
Association of Colleges of Pharmacy (AACP) please accept our 
appreciation for your support of the Indian Health Services (IHS).
    The health disparities present among the Native American and 
Alaskan Native populations has drawn increased scrutiny in recent 
months. The IOM report, ``Unequal Treatment: Confronting Racial and 
Ethnic Disparities in Health Care,'' confirms what you and your 
committee have been aware of for years. As difficult as the 
appropriations process will be this year, we are confident that through 
your leadership, the health and well-being of Native Americans and 
Alaskan Natives will not suffer more than it already has.
    The AACP seeks your continued support for two important IHS 
programs. The IHS pharmacy resident training program provides 
pharmacists with additional experience and education to increase their 
clinical skills. Beyond that, this program serves as an important 
recruitment tool for IHS health service sites. Pharmacists that enter 
the pharmacy resident training program are more likely to stay on once 
they complete the program. Better yet, the program provides Native 
American populations with another health care professional dedicated to 
the improvement of their health and well-being.
    There are currently 11 pharmacy residents practicing and training 
at IHS sites. There is growing concern among the sites of their ability 
to continue their support in light of increased costs associated with 
special pay requirements. Additional sites would like to start a 
pharmacy resident training program, but the special pay requirements 
keep them from initiating their development. We would ask you to 
consider funding the pharmacy resident program at $1 million in fiscal 
year 2003 to assist current sites with their special pay requirements, 
and allow additional sites to develop their programs.
    The other program that is important to recruiting and retaining 
pharmacists is the health professions loan repayment program. This 
program is essential for the IHS to remain competitive with other 
higher paying pharmacy practice sites. Last year the IHS was able to 
provide $2.8 million in loan repayment to IHS pharmacists. With the 
average student that enters the IHS having approximately $60,000 worth 
of debt, loan repayment is a real boon. 50-60 new pharmacists will be 
hired this year, helping to reduce years of double digit vacancy rates. 
Almost all will request loan repayment. Vacancies will remain high as 
retirements through out the IHS take place faster than they can be 
replaced. We would ask you to consider at least $34 million be made 
available for loan repayment, with special consideration for 
pharmacists.
    We would also ask you to look closely at a provision in the 
President's budget that states ``In 2003, this structure will be 
streamlined to create one office for public affairs and one centralized 
legislative affairs office.'' The attempt to streamline HHS 
communications seems laudable at first glance. Yet, the competing 
nature of programs and inter-departmental initiatives could quickly 
overwhelm a centralized office. The release of important information 
could be delayed at best, and possibly eliminated at worst, all 
depending on priorities of individuals with little or no connection or 
appreciation of the information they are responsible for releasing. We 
ask that you give this provision serious consideration and seek other 
ways of improving HHS communications.
    At a time when the demand for pharmacists far outpaces the ability 
of colleges and schools of pharmacy to supply graduates, the residency 
training program and the loan repayment program provide IHS with 
powerful tools to recruit and retain pharmacists. All this leads to 
improved access for Native American populations and the chance for a 
healthier life for all.
    Thank you again for your support.

                  RECOMMENDATIONS FOR FISCAL YEAR 2003
------------------------------------------------------------------------
                                                 Fiscal year
                                   -------------------------------------
                                           2002               2003
------------------------------------------------------------------------
Total IHS Health Funding..........     $2,400,000,000     $4,400,000,000
Loan Repayment....................         17,000,000         34,000,000
Pharmacy Residency Training                   620,000          1,000,000
 Program..........................
------------------------------------------------------------------------

    ``The University of Wyoming places students at various IHS sites. I 
have placed students at Winnebago, Fort Washakie, Arapahoe and Ship 
Rock. We have had several students participate in Costep-2 this past 
summer. Currently we have a 2000 alumnus participating in a 2-year 
residency at Shiprock. He completed a four week experience at our drug 
information center and is developing a drug information center at 
Shiprock as his project.'' ----Loren A. Thompson, R. Ph. Professional 
Experience Coordinator
                                 ______
                                 
                         OTHER RELATED AGENCIES
    Institute of American Indian and Alaska Native Culture and Arts 
                              Development
   Prepared Statement of the Institute of American Indian and Alaska 
                  Native Culture and Arts Development
                              introduction
    On October 17, 1986, Congress enacted legislation creating the IAIA 
(Public Law 99-498, Sec. 1502, 100 Stat.). At that time, Congress 
recognized that ``Indian art and culture occupy a unique position in 
American history as being our only native art and cultural heritage.'' 
Congress also found ``the enhancement and preservation of this Nation's 
native art and culture has a fundamental positive influence on the 
American people . . .''
    The Institute of American Indian and Alaska Native Culture and Arts 
Development (IAIA) respectfully requests a $6.0 million appropriation 
for fiscal year 2003--$5.0 million for core operations and $1 million 
for construction costs for our new campus on a matching basis.
    The $5.0 million requested for operations represents an increase of 
$500,000 over the 2002 appropriations. These additional dollars are 
necessary to cover the costs of the four newly accredited bachelor 
degree programs in Studio Arts, Visual Communications, and Museum 
Studies and Creative Writing. The $1 million is for construction of the 
Library and Technology Center. The construction cost of the building is 
$7.5 million, which includes furniture, computers and equipment. The $1 
million requested from Congress is requested as a match to the four 
million IAIA has already raised. IAIA has not received any construction 
dollars from Congress since 1994.
    As we approach the millennium, there is no less a need for a 
college like the IAIA than there was when it was transferred from the 
Bureau of Indian Affairs. The IAIA has many unique distinctions. It is 
the only fine arts college devoted solely to the study and practice of 
the artistic and cultural traditions of American Indian and Alaska 
Natives. It houses the National collection of Contemporary Indian Art. 
It has the designation as the National Repository for Native Languages. 
It is also the first school operated by the federal government that 
permitted the teaching of native arts and culture in an academic 
setting.
    Since 1962, the IAIA has been the birthplace of some of the most 
exciting new directions in Indian art. Students at the IAIA have 
experimented with new forms of expression and have greatly expanded the 
definition of Indian art. The IAIA is a place where traditions are 
rediscovered and reaffirmed, where it is possible for American Indian 
and Alaska Native students to celebrate their art and cultural identity 
and to receive the education needed to be successful, contributing 
members of their tribes and society at large.
    IAIA serves students, visitors, and tribes as a national college, 
museum and resource center. IAIA serves all 558 federally recognized 
Tribes in Alaska and Canada, as well as non-native students and foreign 
students. 90 tribes from 27 states were represented in the Fall 2001 
semester. The IAIA provides a tribally-diversified approach to students 
seeking to increase their economic opportunities as artists, museum 
curators, administrators, and technicians.
    The IAIA has many accolades. The artistic legacy of the Institute 
spans more than three generations. Through its alumni, the IAIA has 
contributed greatly to the world's appreciation of native arts and 
culture. The Indian arts and crafts industry is a multimillion dollar 
business and contributes to the economy at all levels. The IAIA is an 
irreplaceable asset to the Nation.
                             budget request
    The fiscal year 2003 request for $6.0 million provides for $5.0 
million for core operations for instruction, student support services, 
administration, lease costs, and for operating the IAIA Museum. The 
IAIA has been compared to other institutions in terms of cost per 
student. In addition to the cost of operating the college, the IAIA 
operates a world class museum, which houses the National Collection of 
American Indian and Alaska Native Art and comprises more than 8,000 
pieces of art. The IAIA has the only American Indian Museum Studies 
Program. The Museum resources are used to offer students instruction 
and training in Museum Studies, Arts Management, and Indian Art 
History. Museum Studies graduates are employed in the Smithsonian 
Institution, tribal museums, cultural centers, and in state and 
historical museums. The Museum also provides public programming in 
native arts and culture. Another factor in cost, which is significant, 
is that the IAIA is located in the center of the Indian Art Market. 
This is a great advantage for the students: however, overall operations 
are impacted by the high costs associated with being located in an 
international tourist location.
    The funds requested for construction will enable IAIA to offer 
state of the art technology programs to its students. The new degree 
includes courses in digital media and digital design, enabling IAIA 
students to be competitive in the 21st century.
                            accomplishments
    This past year, the IAIA has realized a number of important goals, 
which reflect the significant progress at IAIA toward the congressional 
mandate and the expectations of Tribes. Some of the major 
accomplishments are highlighted below.
New Campus
    The Institute has completed the first four buildings from Phase One 
of its Master Plan for New Campus Facilities; the Academic Center, the 
Student Dormitories, the Student Life Center and the Cultural Learning 
Center. The next step will be construction of IAIA's Library and 
Technology Center (LTC), scheduled to begin in Spring 2002 and to be 
completed by August 2003. Support for IAIA's buildings has come from a 
variety of sources, including the W.K.Kellogg Foundation, the Lily 
Foundation, and the American Indian College Fund.
New 4-Year-Degree Programs
    The IAIA recently embarked on a major period of expansion as a 4-
year tribal college. On March 1, 2002, the IAIA was formally notified 
by the North Central Association of Colleges and Schools that is has 
accredited the Institute for Bachelor of Arts and Fine Arts degrees in 
four disciplines: Studio Arts, Creative Writing, Museum Studies, and 
Visual communications. The IAIA has also received formal accreditation 
for an Associate in Applied Science degree in Visual Communications and 
an Associate Arts degree in Indigenous Studies. The new programs will 
economically strengthen tribal communities by providing artists, 
creative leaders and craftsmen with cutting-edge educational 
credentials. These programs will be located in the Library Technology 
Center (LTC), which will house state-of-the-art equipment and 
facilities. The LTC addresses the reality that computes and digital 
technology have forever altered the face of fine arts, art history, 
education in the arts and museum practices.
Product Development
    IAIA has launched the development of proprietary products in an 
effort to increase visibility for the campus and museum as well as 
generate long term revenues. Products currently produced and selling in 
the Museum shop and on IAIA's web site include a beautiful line of full 
color notecards, calendars, address books, and writing journals 
featuring art works from the National Collection as well as products 
specially created for IAIA by noted alumni artists such as Tony Abeyta. 
IAIA will continue to create unique and one of a kind items to sell in 
partnership with former and recent alumni and will be cultivating 
licensing agreements with major institutions and manufacturers.
Museum Programs
    Last year, 46,183 people visited the IAIA Museum. In addition to 
exhibitions that are regularly featured in leading newspapers and art 
magazines, the museum has extensive public lecture series and outreach 
programs. 7,744 people attended the Museum's Public Programs in 2001 
and 3,592 visitors participate in the Museum tours program. The IAIA 
Museum has also developed very successful outreach programs, which, in 
addition to the tours, provide activities for the general public, K-12 
students, and their teachers. Last year's Children's Day event 
attracted over 850 participants.
Library Resources
    The IAIA expanded its library resources last year by joining the 
American Indian Higher Education Consortium Virtual Library Project. 
This Internet resource aggregates information in the arts and 
humanities and social sciences, with a special emphasis on Native 
American studies. Last year, the library received three significant 
book donations totaling approximately 600 items, which increased 
holdings in Native American history, arts and culture. Library patrons 
also acquired new access to three additional databases last year. 
Including The Ethnic Newswatch database, which provides full-text 
articles of the native, ethnic and minority press.
IAIA Goals for 2003
    The IAIA has identified major goals that will need to be 
accomplished to meet the mandates of Congress and the educational and 
cultural needs of Tribes this coming year. Major goals include those 
highlighted below.
  --Construction of the new Library & Technology Center (LTC) is IAIA's 
        major goal in the coming year. The LTC will be designed to 
        support the Institute's transition in to a 4-year tribal 
        college and to provide its students with access to cutting-edge 
        educational technology. It will house an expanded library and 
        state-of-the-art equipment and facilities, such as: 
        laboratories for film and video production, multi-media lecture 
        halls, graphic design capabilities for both the Internet and 
        print media, animation and distance learning. By offering 
        distance learning programs of study, the LTC will also be a 
        viable means of closing the ``digital divide,'' which has 
        adversely affected Native American educational opportunities. 
        Substantial funding for the new 55,000 square foot LTC has been 
        secured. The State of New Mexico has contributed $1 million to 
        date. Private funders, agencies, individuals, and Tribes have 
        committed nearly another $3 million. However, the IAIA still 
        needs $1 million from Congress to complete the construction and 
        installation of technology and furnishings for the LTC.
  --It is the goal of IAIA to serve more students by providing quality 
        art programs and innovative methods of instruction on the 
        Internet, on a satellite campus, with continuing education 
        classes, and with diverse and new degree programs. The recent 
        accreditation of the college for Bachelor of Arts and Fine Arts 
        degrees in four disciplines will also enable the IAIA to 
        achieve this goal of enhanced recruitment. The IAIA is 
        continuing with its plan to establish a branch campus at the 
        Alaska Native Heritage Center which will allow students to take 
        art classes for credit. By the end of the year, an educational 
        plan and resource development plan should be completed. Over 
        the years, IAIA has served hundreds of Alaska Natives who have 
        earned degrees at the IAIA. Additionally, the implementation of 
        distance learning classes will enable the IAIA to reach more 
        students on other campuses. The library is gearing many of its 
        activities towards the new Library and Technology Center (LTC), 
        which will provide much-needed space for IAIA archives, visual 
        resources including the collection of 15,000 photographs of 
        Native peoples, and the newly acquired personal library of 
        artist/alumnus T.C. Cannon. It is anticipated that student 
        enrollment will increase substantially, with the addition of 
        the LTC and the new degree and certificate programs, continuing 
        education classes, distance learning, and a satellite campus.
  --The IAIA continues its fund raising for the new campus, general 
        endowment, and scholarship endowment. It is the goal of the 
        IAIA to significantly increase the general endowment to provide 
        state-of-the-art degree and certificate programs and to provide 
        revenue for campus development and maintenance. Fund raising 
        provides for the much-needed scholarships for the current 
        students and the future students. Student scholarships are a 
        necessity for the IAIA students whose families are among the 
        poorest in the nation.
    In sum, IAIA's goal is to provide the structure for the Institute 
to stabilize its operations in order to become a viable and sustainable 
center of Native American higher education. Focusing on enrollment 
management and revenue diversification involves: aggressive recruitment 
efforts; distance learning initiatives; community-based outreach 
programs; increased revenue from educational product and service sales; 
and fund raising.
    In order to be responsive to the twenty-first century needs of the 
Tribes and the students for education in the arts, the IAIA must have 
the necessary technological resources for the new Library Technology 
Center and the new degree and certificate programs. The IAIA is 
requesting from Congress $1 million to be used toward the $7.5 million 
construction and equipment costs of the LTC. In addition, the IAIA is 
requesting the continued economic support of the Congress for the IAIA 
operational budget of $5.0 million. The total request of $6.0 million 
for fiscal year 2003 ($5.0 million for IAIA operations and $1.0 million 
toward the construction of the new LTC) will:
  --Provide economic opportunities for more students,
  --Provide new programs which will economically strengthen tribal 
        communities by providing artists and craftsmen with up-to-date 
        creative and marketing skills,
  --Assure the continuance of quality programs of education in the 
        arts,
  --Assure the continuance of a quality residential program,
  --Provide the first bachelor programs in studio arts, museum studies, 
        creative writing and visual communications,
  --Offer new art degree programs based on twenty-first century 
        technologies,
  --Provide distance learning,
  --Preserve Indian art and Alaskan Native art for the future 
        generations of Americans,
  --Continue excellence in the arts at the IAIA through the educational 
        programs on the campus and at the IAIA museum, and
  --Fulfill the Federal responsibility to sovereign Indian Nations and 
        Tribes.
    The IAIA respectfully urges the approval of the 2003 budget request 
so that the Institute may continue to offer excellence in American 
Indian and Alaska Native art and culture education, art and culture 
preservation, and art and culture outreach.
                                 ______
                                 
                    National Endowment for the Arts
       Prepared Statement of the American Association of Museums
    The American Association of Museums (AAM) is pleased to submit 
testimony in support of the National Endowment for the Arts (NEA) and 
the National Endowment for the Humanities (NEH). The American 
Association of Museums (AAM), headquartered in Washington D.C., is the 
national service association representing the American museum 
community. AAM provides identification and dissemination of standards 
and best practices, direct services, leadership on museum issues, and 
representation in the area of government and public affairs. Since its 
founding in 1906, AAM has grown to more than 16,200 members, including 
more than 10,800 museum professionals and trustees, 3,000 museums, and 
1,900 corporate members in every State of the Union.
    The NEA and the NEH, working singularly and in partnership with the 
Institute of Museum and Library Services (IMLS), have provided critical 
support for America's museums since their inception more then 35 years 
ago, and we fully support these valuable agencies and the good work 
they do for the American people.
    President Bush's fiscal year 2003 budget submission proposed only 
modest increases of $2 million each for the NEA and the NEH ($117 
million and $124.5 million respectively). In a time of national crisis, 
when other federal agencies are being asked to do more with less in 
order shift scarce resources towards programs that bolster national 
defense and homeland security, we appreciate and applaud the president 
for the support he has shown for the good work being done by both NEA 
and NEH through this requested increase in funding. But this support is 
in fact more symbolic then substantive. A close examination of the 
Administration's budget submission reveals that the $2 million increase 
proposed for each agency is intended to defray the costs associated 
with having the agencies assume complete financial responsibility for 
the health and pension benefits of their employees. If such a scenario 
were enacted, little if any of the proposed increases for the NEA and 
the NEH would be available to bolster existing grant programs. In 
essence, their budgets would remain flat. Even if the funding were to 
go to core programs instead of health and pension costs, the fact 
remains that the budgets of both agencies are currently simply not 
enough for them to fully perform the roles for which they were created 
in 1965. Mr. Chairman, we therefore respectfully ask you and your 
colleagues to increase the Administration's request for fiscal year 
2003 to $155 million for each agency.
    A prudent and forward thinking investment in our artistic and 
cultural institutions today will ensure that America has a strong, 
vibrant, and viable artistic and cultural community that future 
generations can enjoy and learn from tomorrow. Culture builds 
community. In cities and towns across America we have seen that arts, 
culture and the humanities are educational tools, economic engines, 
sources of civic pride, and catalysts for fostering a greater sense of 
community identity and multicultural understanding. The federal 
government, in partnership with state and local governments, private 
business and the nonprofit sector, provides the infrastructure support 
to ensure the nation's cultural and artistic well-being, which is 
critical to the economic and social vitality of our communities.
    The true value of the NEA lies in its ability to nurture the growth 
and artistic excellence of thousands of arts organizations and artists 
in every corner of the country, making the performing, visual, 
literary, media and folk arts available to millions of Americans. 
Through these community organizations, the NEA supports learning in the 
arts for small children to senior citizens through a wide range of 
projects, including educational programs for adults, collaborations 
between state arts agencies and state education agencies, and 
partnerships between arts institutions and educators. In addition, the 
nonprofit arts industry alone generates $36.8 billion annually in 
economic activity, supports 1.3 million jobs, and returns $3.4 billion 
to the federal government in income taxes. The arts also attract 
tourism dollars. Tourism is one of the fastest growing sectors of our 
economy today, and according to Travel Industry Association data, 
cultural and historic travelers spend more, stay in hotels more often, 
and visit more destinations than non-historic travelers. That 
translates into millions of extra dollars being brought into our 
communities because of arts and culture.
    The NEH also plays an important role in the American experience. 
The humanities are essential to democracy. They are the basis for 
reasoned discourse and make possible the shared reflection, 
communication, and participation upon which democratic society depends. 
The NEH is the largest single funder of humanities programs in the 
United States, enriching American intellectual and cultural life 
through support to museums, archives, libraries, colleges, 
universities, state humanities councils, public television and radio, 
and to individual scholars. Continuing this support is critical to 
addressing the nation's future needs in education. More than two-thirds 
of our nation's K-12 curriculum is dedicated to the humanities, 
including subjects such as reading, literature, history and civics; 2 
million new teachers will be needed in our classrooms over the next 
decade, and 4 out of 5 teachers feel inadequately prepared in their 
subject area. NEH summer seminars and institutes for teachers address 
these very issues, and are the catalyst for revitalized teachers for 
tens of thousands of students each year.
    In a recent national public opinion survey, almost 9 out of 10 
Americans (87 percent) said museums are one of the most trustworthy 
sources of information among a wide range of choices. This level of 
trust is due in part to the careful research that goes into developing 
a museum exhibition, and National Endowment for the Humanities (NEH) 
grants are an invaluable tool, not only in preserving and protecting 
the vast cultural, historic, and artistic resources housed in America's 
museums but in researching those resources and putting them into 
historic context in exhibitions for the public. The activities of the 
NEH touch tens of millions of our citizens--from the youngest students 
to the most veteran professors to men and women who simply strive for a 
greater appreciation of our nation's past, present, and future. The 
tragic events of September 11 in fact underscore the importance of the 
humanities in understanding the state of our union and in responding 
effectively in times of crisis. A knowledgeable citizenry is essential 
to homeland defense--Americans need to understand the most important 
ideals, ideas and institutions that under gird our nation if we are to 
effectively rally to her defense. Thus we strongly support, for 
example, NEH Chairman Bruce Cole's intention, in his ``We the People'' 
program, to encourage increased public understanding of these ideals, 
ideas, and institutions.
    Mr. Chairman, the NEA and the NEH are both wonderful resources for 
the American people. Any difficulties or inequities in the operation of 
the NEA have long been resolved. The NEA has responded to concerns 
about accountability with administrative changes. Grantees' reporting 
requirements were tightened, and final grant payment was made 
contingent upon approval of an interim report. Grants were eliminated 
to arts organizations for seasonal support or for sub granting in 
nearly every category, and for direct funding to most individual 
artists. The size of the National Council on the Arts was reduced from 
26 to 20, with six positions held by Congress, and States received an 
increase in the block grant formula to ensure they receive at least 40 
percent of NEA funds. The museum community is proud to partner with 
both the NEA and NEH and we fully support the good work these agencies 
do for the American people. Additional funding would enable the 
agencies to enhance and increase their public service activities as 
well as expand the reach of new and innovative programs and help the 
agencies rebuild after years of essentially stagnant budgets.
    We of course recognize, Mr. Chairman, that you and your colleagues 
are under intense pressure to balance the funding needs of the many 
worth programs under your jurisdiction. We would ask you to consider 
the good work being done by the NEA and NEH, and do what you can to 
fund urgently needed substantial increases for these agencies.
                                 ______
                                 
              Prepared Statement of Americans for the Arts
    Americans for the Arts is pleased to submit written testimony to 
the Senate Appropriations Subcommittee on the Interior in support of 
fiscal year 2003 appropriations for the National Endowment for the Arts 
at an increased funding level of $155 million.
    Americans for the Arts is the nation's leading nonprofit 
organization for advancing the arts. With a 40-year record of objective 
arts industry research, it is dedicated to representing and serving 
local communities and creating opportunities for every American to 
participate in and appreciate all forms of the arts.
    Local arts agencies comprise our core constituency. As important 
grantees of the National Endowment for the Arts (NEA), local arts 
agencies are entrusted public stewards of government funds for the 
arts. An increase in funding for the NEA means more grants for local 
arts agencies to utilize as they increase Americans' access to the arts 
at the local level and improve communities by stimulating economic 
development and improving community life. An increase in NEA funding 
would create increased funding for local arts agencies to continue 
their vital role in community building.
local arts agency trends--the key to community development through the 
                                  arts
    A local arts agency is a private community organization or local 
government agency that supports cultural organizations, provides 
services to artists or arts organizations, and/or presents arts 
programming to the public.
    Over the past 7 years, local arts agency budgets have been growing. 
In 2000, the average local arts agency budget grew 8.8 percent to $1.38 
million. Sixty-six percent of local arts agencies implement arts 
education programs and activities; in addition, some local arts 
agencies partner with or fund other agencies to address arts education. 
Arts education programs include supporting artists in the schools, 
designing curricula, and/or advocating for arts education. Nearly one 
half of local arts agencies have at least one full-time equivalent 
staff member who is dedicated to arts education.
    Local arts agencies continue to expand the role of the arts in 
their communities by using the arts to address social, educational, and 
economic development issues. Local elected leaders increasingly look to 
partner with their local arts agencies in programs dealing with 
everything from tourism to at-risk youth. In fact, 84 percent of local 
art agencies use the arts to address community development issues. 
Nearly all local arts agencies collaborate with community organizations 
or local government agencies to integrate the arts more fully into 
their community and to assist those agencies in achieving their 
missions, e.g., economic development departments to develop cultural 
districts, chambers of commerce to attract new businesses, parks and 
recreation departments to create after school programs, convention and 
visitor bureaus to increase cultural tourism, and police departments to 
prevent crime.
                  arts and healing in response to 9/11
    In the wake of the September 11 terrorist attacks, the arts emerged 
as an important source of national strength and inspiration. We saw 
their impact almost immediately in the spontaneous adoption of ``God 
Bless America'' as the song that comforted the nation and in the speed 
with which world-renowned artists collaborated to produce and televise 
numerous celebrity-filled fundraising events. Because they are unique 
to their communities, local arts agencies are in a position to respond 
directly to community changes and special needs. We saw this as 
hundreds of local arts agencies and organizations responded to the 9/11 
attacks with programs to help their communities grieve and heal. Here 
are a few examples:
Seattle Arts Commission (Seattle, Washington)
    The Commission and Richard Hugo House co-sponsored a reading by 
Joan Fiset of Bandaged Moments, her poems about war and its aftermath, 
as well as readings from Seattle writers and performers from their 
favorite works about New York. Donations benefited a fellow local arts 
agency in New York City. The Lower Manhattan Cultural Council had 
maintained its offices inside the World Trade Center.
Colorado Council of the Arts (Denver, Colorado)
    The Colorado Council of the Arts has created The Healing Power of 
the Arts website with funds from the National Endowment for the Arts. 
The site offers resources through which to ``investigate the power of 
the arts as a force for positive change in our lives.''
Out of the Ashes (Albuquerque, New Mexico)
    In Albuquerque, dozens of students spent every afternoon in a 
downtown studio creating art to process their anger, sorrow, and 
bewilderment over September 11 and the retaliation against Muslims in 
the United States. The result is De las Cenizas: Altars to Victims of 
Terror and Vengeance, a collaborative installation for Day of the Dead 
that filled Visiones Gallery. To complete their work, students invited 
members of the Muslim, Sikh, Hindu, Buddhist, Jewish, and Christian 
communities to participate by contributing coins, newspapers, photos, 
music, and mementos to provide a symbolic representation of the many 
nations where innocent people are victims of terror and vengeance. Out 
of the Ashes was open October 26-November 16.
San Francisco Arts Commission (San Francisco, California)
    Within days of the World Trade Center attack, thousands of 
``missing'' fliers were distributed by loved ones in an effort to trace 
survivors. With the permission of New York City authorities, hundreds 
of the fliers were collected before they could be destroyed by the 
elements. The collection was presented in San Francisco City Hall on 
February 6-26, 2002, as part of a touring exhibition visiting cities 
throughout the United States. Missing celebrates and commemorates the 
lives of the September 11 victims, giving viewers the opportunity for 
private contemplation.
Anchorage Concert Chorus (Anchorage, Alaska)
    On September 14, the Chorus sang the opening and closing hymns at a 
community-wide memorial at the Alaska Center for the Performing Arts, 
which was broadcast on television and radio.
Great Falls Symphony Association (Great Falls, Montana)
    On October 16, in cooperation with the Great Falls Tribune and the 
City of Great Falls, the Great Falls Symphony Association presented a 
concert to Celebrate America. Donations benefited the United Way 
September 11 fund, the American Red Cross, and the Salvation Army. All 
performance-related costs were donated.
    We are reminded of the critical service the arts provide to our 
communities. Terrorism is an act of destruction, but art one of 
creation; these local art agencies, organizations, and artists have 
been able to empower American communities with the tools, resources, 
and support necessary in their efforts to create. Art has served not 
only as a healing tool, but a cultural bridge, fostering understanding 
and tolerance. Without the proper funding, these local arts agencies 
and the organizations they support would not have been in a position to 
help their communities in this time of crisis.
          challenge america initiative is building communities
    In addition to strengthening the nation's artistic infrastructure 
by providing more programs and services, an increase in NEA funding 
would provide additional money for the Challenge America initiative to 
address four broad based goals: connect arts organizations more closely 
with families and communities, provide access to the arts in 
underserved areas, encourage the development of cultural organizations 
in communities not previously served by the NEA, and support and 
strengthen community arts organizations.
    Since its initial funding, the Challenge America community 
development grants have reached hundreds of community arts 
organizations across the country, targeting organizations in rural 
communities or inner city neighborhoods with limited arts resources. 
Using these community development grants, local arts agencies partner 
with other community organizations to tackle projects from developing 
economic cultural tourism plans to restoring historic structures. Here 
are some examples of local arts agencies and organizations using 
Challenge America grants to improve their communities:
Arts Partnership of Greater Spartanburg, Inc. (Spartanburg, South 
        Carolina)
    Project Type.--Civic Design--$10,000
    To support a partnership with the Spartanburg Little Theatre and 
Youth Theatre, Spartanburg Museum of Art, Spartanburg Historical 
Association, Ballet Spartanburg, and the Music Foundation of 
Spartanburg to design a community arts facility. The facility would 
include an art and history museum, a 500-seat theatre, and a science 
center. This proposed facility would serve as an architectural icon and 
provide a much-needed venue for community celebrations and cultural 
activities in this small rural town.
Town of Morristown/River Arts of Morrisville, Inc. (Morrisville, VT)
    Project Type.--Cultural Tourism/District--$5,000
    To support a partnership with Morristown Community Partnership, 
Conservation Commission, and Recreation Trails Committee to develop a 
design concept to represent the community. The project is planned in 
three stages: research and development, design and review, and 
presentation and recommendations with public input solicited at each 
phase. With this strategy, the partnership hopes to raise community 
awareness and pride in its cultural and historic identity.
Pocahontas Communications Cooperative Corporation (Dunmore, West 
        Virginia)
    Project Type.--Cultural Tourism/District--$10,000
    To support an ongoing partnership with Highland County Arts 
Council, Allegheny Mountain Radio Arts Partnership, Pendleton County 
Committee for the Arts, Pocahontas County Convention & Visitors' 
Bureau, various regional libraries, and others to promote the 
activities of the arts organizations in the Highland area. The non-
profit Radio Partnership will provide broadcast marketing for the arts 
organizations to publicize their activities. The public libraries will 
serve as conservators through the collection and documentation of local 
cultural traditions and histories of this rural region.
Davis County Arts & Humanities Council (Layton, Utah)
    Project Type.--Cultural Assessment/Planning--$10,000
    To support a partnership with the City of Layton, Davis County and 
the Bountiful Performing Arts Center for a city and county cultural 
needs assessment. Through a series of community conversations, surveys, 
interviews, and other data gathering, the partners will evaluate the 
resources and services offered to the community by its cultural 
organizations and how best to address the significant increase in the 
area's population.
Brookhaven Trust for the Preservation of History, Culture, and Arts 
        (Brookhaven, Mississippi)
    Project Type.--Civic Design--$10,000
    To support a partnership with the Brookhaven-Lincoln Chamber of 
Commerce and the Brookhaven Arts Council to provide an architectural 
review of the Old City Hall and Fire Station to develop a plan of how 
the unused space could be used for civic events. This plan will 
facilitate historically sensitive renovation of the facility in a prime 
downtown location, providing for cultural events, and fulfilling a 
pressing need in the community.
    The fiscal year 2002 NEA budget increase is currently being used to 
fund Challenge America. This program is already enriching communities 
around the country, not only through increased access to the arts for 
community members, but also by stimulating local economies through 
tourism, urban renewal, and attracting new business. Challenge America 
is extending the nonprofit arts industry's economic impact by 
stimulating non-arts related growth at the local level.
    An increase in NEA funding will enrich the lives of more people, in 
more communities, throughout the country.--Local arts agencies are key 
players in improving community life, from offering afterschool programs 
for children to working with local law enforcement to reduce crime. By 
creating therapeutic outlets for people to express their pain, 
confusion, and anger in response to 9/11, local arts agencies and arts 
organizations have shown that their service to communities not only 
expands access to the arts but also helps touch and heal those in need. 
Local arts agencies are strengthening our communities' economies by 
increasing tourism, urban renewal, and attracting new businesses. We 
urge this subcommittee to make a commitment to supporting community 
building through local arts agencies by appropriating $155 million for 
the National Endowment for the Arts.
                                 ______
                                 
                 National Endowment for the Humanities
         Prepared Statement of the National Humanities Alliance
    The National Humanities Alliance writes to request a fiscal year 
2003 appropriation for the National Endowment for the Humanities of 
$155 million, an increase of $30.5 million over last year's enacted 
level of $124.5 million. The National Humanities Alliance is a 
coalition of more than 80 national humanities organizations 
representing scholars, teachers, librarians, archivists, museum 
professionals and others involved in delivering work in the humanities 
across the country. We submit this request today not just on behalf of 
these communities, but on behalf of the American people.
                              introduction
    The National Endowment for the Humanities is the largest single 
funder of humanities programs in the United States. Though a relatively 
small program, the leadership provided by NEH is critical for the 
national effort to:
  --preserve and provide access to our nation's historical and cultural 
        resources
  --strengthen teaching and learning in history, literature, language 
        and other humanities subjects in schools and colleges
  --facilitate research and original scholarship in the humanities
  --provide opportunities for lifelong learning in the humanities for 
        all Americans
  --strengthen the institutional base of the humanities
    With a relatively small investment from Congress, NEH provides 
access to high-quality educational programs and resources that reach 
millions of Americans each year. NEH grants are awarded through a 
competitive, peer-review process based on merit. Not only do NEH grants 
encourage excellence, but most NEH grants provide leveraging for 
significant private support, which stimulates millions of dollars in 
non-federal support each year. The NEH model is consistent with our 
nation's commitment to excellence, the democratic process, and the 
responsible use of taxpayer dollars.
    The President's request for fiscal year 2003 is $126.9 million. 
While this request represents a $2.4 million increase for 
administrative and treasury funds, it provides only level funding for 
endowment programs. The $155 million recommended by the National 
Humanities Alliance incorporates the necessary administrative increase, 
but also enhances the NEH's ability to support humanities projects 
throughout the United States. As outlined below, these additional funds 
would better enable NEH to carry out its mission for the American 
people, and represent a reasonable step toward addressing unmet program 
needs. In recent years, the combined impact of budget cuts and 
inflation has reduced the number, diversity and buying power of NEH 
awards. In fact, we estimate that the agency is running at about 55 
percent of its demonstrated capacity of 10 years ago. More importantly, 
current applications in all program areas demonstrate a need that 
greatly exceeds the endowment's grant-making capacity at present 
funding levels.
                            homeland defense
    We applaud the administration's special initiative, ``We the 
People,'' to encourage new project proposals that advance our knowledge 
of the events, ideas, and principles that define the American nation. 
Requiring no new funds, and working within the agency's established 
review system, the We the People initiative will call upon humanities 
scholars, teachers, filmmakers, museums, libraries, and other 
individuals and institutions engaged in the humanities to develop 
projects on the most significant events and themes in the nation's 
history and culture. As stated in the NEH Budget Request, ``The 
horrific events of September 11 have underscored the importance of the 
humanities in understanding the state of our union and in responding 
effectively in times of crisis. A knowledgeable citizenry is essential 
to homeland defense; Americans need to understand the ideals, ideas, 
and institutions that undergird our nation if we are to defend it''. 
NEH's overarching mission--to encourage the study of history, 
literature, languages, government, philosophy, ethics, religion and 
other humanities subjects--helps us not only to better understand our 
own nation, but other cultures as well.
                       federal/state partnership
    The Alliance recommends an increase of $8.4 million for the NEH 
Federal/State Partnership, bringing the budget up from $31.6 to $40 
million for fiscal year 2003. State humanities councils address 
critical needs in the areas of professional development for teachers, 
family literacy programs, and public humanities programming that in the 
broadest sense educates citizens for civic life, and strengthens the 
fabric of our democracy. The state councils are private, nonprofit, 
grassroots organizations, located in each of the 50 states, the 
District of Columbia, and five commonwealths and territories. State 
councils respond to local needs and help to ensure that the best of the 
humanities reaches Americans in nearly every district of the nation. 
This increase would guarantee at least $100,000 for each council (once 
the population formula has been applied). Every dollar appropriated for 
the state councils goes directly and immediately into local communities 
across the country.
                            challenge grants
    The Alliance recommends an increase of $3.4 million for the NEH 
Office of Challenge Grants, bringing the budget up from $10.4 to $13.8 
million for fiscal year 2003. Challenge Grants strengthen the 
institutional base for teaching, research, preservation and public 
programming in the humanities. Each year, Challenge Grants are the 
catalyst for bringing millions of dollars in private funds to colleges 
and universities, museums, libraries, humanities research centers, 
state councils, historical societies and historical sites. Challenge 
Grants provide first time grantees a $1 federal match for each $3 
raised privately, and a 1:4 match for second time recipients. The 
additional funding would stimulate at least $10.2 million in new 
private giving (for a total of at least an additional $41.4 million in 
nonfederal funds). Additional funds are needed to increase both the 
dollar amount and number of awards possible. In addition, an increase 
in the Challenge Grant program would greatly enhance the agency's 
ability to provide support for the newly created regional humanities 
centers, which are eligible to compete under the agency's regular 
review process.
                           education programs
    The Alliance recommends an increase of $3 million for the NEH 
Education Division, bringing the budget up from $12.6 to $15.6 million 
for fiscal year 2003. NEH Education programs support content-rich 
teaching and learning in the humanities for our nation's students. NEH 
Summer Seminars and Institutes offer college and K-12 teachers 
opportunities to study significant topics and fundamental texts in the 
humanities and to revitalize their understanding of history, literature 
and other humanities subjects. Humanities Teacher Leadership awards 
help elementary and secondary school teachers share the benefits of 
their participation in seminars and institutes with other educators and 
schools. Education Development and Demonstration grants support 
projects to strengthen the teaching and learning of humanities subjects 
in K-12 schools and in colleges and universities across the country. 
Additional funding would better enable these programs.
  --Each additional Summer Seminars and Institute funded would reach 
        about 20 teachers and 3,100 students who would benefit from 
        these teachers' experience within the year.
  --Each teacher enabled through an additional Humanities Teacher 
        Leadership award would reach hundreds of other teachers and 
        students.
  --Each Education Development and Demonstration project funded carries 
        the potential of generating comprehensive plans for school 
        improvement, innovative uses of educational technologies, and 
        national models of excellence in humanities teaching.
                         preservation & access
    The Alliance recommends an increase of $4.6 million for the NEH 
Preservation & Access Division, bringing the budget up from $18.9 to 
$23.5 million for fiscal year 2003. The Preservation & Access programs 
are in the lead in the nation's efforts to preserve and increase the 
availability of cultural, historical and intellectual resources for 
generations of Americans.
    NEH supports preservation of and access to books, journals, 
newspapers, manuscript and archival collections, maps, photographs, 
films, sound recordings, oral histories, and objects of material 
culture held by libraries, archives, museums, historical organizations, 
and other repositories. NEH also supports preservation education and 
training, and the acquisition of research tools and reference works; 
and makes grants for the creation of dictionaries, atlases, 
encyclopedias, and other major reference works that preserve and 
portray the history and culture of the United States and the world.
  --Additional funding would accelerate support for the Brittle Books 
        and U.S. Newspapers Programs. An estimated 25-30 percent of the 
        printed holdings in the country's research libraries are 
        deteriorating because of the acidity of their paper. To date, 
        83 libraries and library consortia are involved in the NEH 
        effort to preserve brittle books and serials--when currently 
        funded newspapers projects in all 50 states are complete 
        (present count is 39), records for 151,500 unique titles dating 
        from 1690 will be available in a national database accessible 
        at 40,000 institutions in the United States and abroad. Sixty-
        two million deteriorating newspaper pages of historical 
        significance will have been microfilmed.
  --Additional funding would stimulate further development and 
        implementation of preservation standards and technology, as 
        well as support new reference tools to make our nation's 
        historic and cultural resources available for Americans today 
        and tomorrow.
                            public programs
    The Alliance recommends an increase of $3.8 million for the NEH 
Public Programs Division, bringing the budget up from $13.1 to $16.9 
million for fiscal year 2003. Each year, Public Program grants generate 
projects that reach millions of Americans in every part of the country. 
The Humanities Project in Media program supports the planning, 
scripting, and production of television and radio programs on 
significant works and subjects in the humanities. Humanities Projects 
in Museums and Historical Organizations support exhibitions of cultural 
and historical artifacts, along with related publications and 
programming. Humanities Projects in Libraries and Archives seek to 
increase public understanding of the humanities through the discovery, 
interpretation, and greater appreciation of texts, media, Internet 
resources, and other collections available to Americans in libraries 
and archives. Grants have also been made for radio call-in programs 
that in collaboration with libraries explore regional literature in 
several parts of the country. Additional funding would further enable 
these programs.
  --Each additional Media Project, including radio, television, and 
        film productions, would generate an average of 2.6 hours of 
        content-rich television or radio programming, each drawing an 
        average of 4.8 million viewers and listeners.
  --Each additional Museum or Historical Organization Exhibition would 
        reach an average of 2.7 venues, attracting more than 339,000 
        visitors per exhibit.
  --Each additional Library Project represents another local community 
        reached by NEH.
                        research and fellowships
    The Alliance recommends an increase of $3.9 million for the NEH 
Research Division, bringing the budget up from $13 to $16.9 million for 
fiscal year 2003. This division supports basic research, and 
contributes to faculty development, improved teaching, and quality 
public programming in the humanities across the country. Fellowships 
and Stipends support focused, sustained work by individual scholars, 
for projects that will: advance specialized areas of research, 
stimulate scholarship in related fields, inform the teaching of 
humanities subjects at all levels, and provide the foundation for 
public programs in the humanities. Collaborative Research grants 
support long-term, complex projects carried out by groups of scholars, 
including the preparation of documentary and literary editions, large-
scale translation projects, archaeological research, wide-ranging 
studies of important topics in the humanities, and fellowship programs 
at centers for advanced study in the humanities. Additional funding 
would further enable these programs.
  --Fellowships and Stipends are an extremely effective way to support 
        excellent humanities research and professional development for 
        faculty. On average, one-third of awards in a given year result 
        in a major publication within 5 years; most reach publication 
        in subsequent years; over the years, awards have resulted in 
        the publication of more than 2,600 books, including ten 
        Pulitzer Prize winners.
  --Collaborative Research projects are making significant 
        contributions to our knowledge and understanding of the world. 
        Recent projects are increasingly making use of advanced 
        technologies to produce their results in readily accessible, 
        digital format.
    Thank you for your past support and consideration of this request.
                                 ______
                                 
Letter From the Association of Research Libraries, 
                                         Council on
    Library and Information Resources, National Humanities 
                                                   Alliance
                                                    April 23, 2002.
Hon. Robert C. Byrd,
Chairman, U.S. Senate, Subcommittee on Interior and Related Agencies
    Dear Chairman Byrd: This letter is submitted on behalf of the 
Association of Research Libraries, the Council on Library and 
Information Resources, and the National Humanities Alliance. Once 
again, these national organizations write to request increased support 
from this the distinguished Subcommittee for the preservation and 
access activities of the National Endowment for the Humanities.
    Our associations organizations support an increase of approximately 
$4.6 million in the budget for the Endowment's Preservation and Access 
Division, raising it from last year's $18,905,000 to $23,500,000 for 
fiscal year 2003.
    The flat funding proposed in the Administration's budget is 
inadequate for preserving and ensuring access to jeopardized cultural 
and intellectual resources needed by students, scholars, and the 
American people nationwide.
    Why is it so important to receive such a relatively small increase 
in preservation and access funds? Because without them our preservation 
momentum will decline, particularly in two vital programs, and material 
now in fragile condition in libraries and related repositories in 
universities, colleges, and communities across the country will be in 
even greater danger of permanent loss.
    One such project is the preservation of chemically deteriorating, 
brittle books, which are unique volumes in danger of becoming unusable 
because of acidic paper. NEH has been able to help libraries microfilm 
approximately one million brittle books. But the NEH project began with 
studies that estimated 12 million volumes could be in jeopardy and set 
a goal of preserving 3 million of the most endangered volumes. With 
only a third of the goal accomplished, we must move this project 
forward at a faster pace.
    Similarly, there has been great progress in the Endowment's U.S. 
Newspaper Project. With the help of the Congress and NEH, libraries 
across the country have completed microfilming historical newspapers, 
which are treasure troves of insight into the history of our country, 
in 39 states. But more than one-fifth of the states have yet to carry 
out newspaper preservation plans. If microfilming in all 50 states were 
completed, records for 151,000 unique newspaper titles could be made 
available in a national database through computer terminals at 40,000 
institutions in the United States and abroad. These are major goals 
toward which we can make great progress with the small increase 
requested.
    We understand fully that the nation must attend to its security and 
defense needs in the 2003 budget, but defense against deterioration of 
the holdings of America's libraries is vital as well. Information, 
education, and knowledge are the underpinnings of our country's 
domestic progress and international leadership in the 21st century. The 
nation must preserve the historical record accumulated by past 
generations for use by students and scholars today and in the future. 
On behalf of the American people, the library and humanities 
communities ask that the underfunding of NEH be reversed so that 
momentum in the race against time can be regained, in order to save and 
ensure widespread access to the holdings of the nation's libraries. The 
challenges of this specific problem are explained more fully below, 
along with dimensions of the preservation need that goes far beyond 
brittle books and newspapers.
                      preserving fragile materials
    In 1987, Congress took a significant leadership role in recognizing 
the importance of library print collections--the books, journals, and 
other historical and cultural records that are at the heart of the 
humanities. It was then estimated that more than 12 million unique 
volumes in the research libraries of this country were at risk of 
deterioration simply because they were printed on an unstable medium--
acidic paper, commonly used between 1840 and 1980. Library stacks were 
lined with thousands of books, journals, and newspapers that were 
already so brittle that pages broke when they were turned. As a result, 
Congress allocated resources to NEH to coordinate and support efforts 
of the library community to preserve these resources through 
microfilming, the most effective means known at the time to preserve 
the intellectual content of and provide broad access to copies of 
fragile materials. The Brittle Books Program, as it has come to be 
called, was envisioned as a 20-year effort to preserve 3 million unique 
volumes.
    When current projects are completed, almost one million volumes 
will have been microfilmed through NEH-supported projects since funding 
was initiated in 1989. Many libraries and library consortia across the 
nation have participated. The coordination of effort by NEH with 
Congressionally appropriated funds has resulted in the preservation of 
a distributed, national collection of important materials, all 
microfilmed according to rigorous standards. Yet, much remains to be 
done. The nation's libraries have made every effort to meet the goals 
that were established more than a decade ago, but when the NEH budget 
was cut by 38 percent in 1996, funds for microfilm preservation grants 
were reduced proportionately. In consequence, at least two million 
volumes remain in jeopardy.
    Fortunately, there are now ways to help extend the usability of 
these volumes. Microfilming has been the method of choice when 
materials are already brittle. But with newer, less embrittled printed 
works, mass deacidification, a chemical treatment, has also proven 
effective. In other cases, improving environmental conditions for 
storage also seems significantly to extend longevity. Preservation has 
thus become a complex blend of techniques. The microfilming program 
launched in 1987 remains critically important, but it, alone, is not 
sufficient to meet the diverse preservation needs now faced by the 
nation's research libraries. They need help also to continue improving 
techniques for preservation storage and mass deacidification, and to do 
more research on acidic deterioration itself, its rates, and threats. 
Libraries need help from NEH to employ and further develop all these 
techniques.
                          beyond brittle books
    Embrittled books and newspapers are not the only irreplaceable 
materials in jeopardy. Materials documenting the past that need to be 
kept for the future include films, videos, photographs, tapes, disks, 
and audio and visual recordings. These historical materials from the 
20th and 21st centuries provide a sense of historical reality 
unattainable in print from past eras. These media capture the immediacy 
of historical experience and the diversity of American culture with 
vividness and fidelity. Regrettably, however, audiovisual materials are 
even harder to preserve than paper. Films and photographs fade and 
discolor. Audio tapes and disks break, or become unplayable as new 
recording technologies replace those with which original recordings 
were made. Without audio and visual resources, large segments of the 
record of more than a century of American experience will not survive. 
Here again, NEH grant assistance is greatly needed to preserve history.
    Additionally, our organizations associations strongly support the 
efforts of NEH to complement its preservation assistance with grants to 
help make the intellectual and cultural record of the United States 
more accessible to educators, students, and scholars. NEH does this 
with grant assistance for digitizing library materials for online 
access. Digital technology provides new opportunities to extend the 
reach of humanities resources into every classroom, every library, 
every office, and every home. Because digitization enables individuals 
everywhere to view materials on the screens of personal computers, many 
repositories of specialized and rare materials are digitizing their 
precious holdings to provide easy access to them. Moreover, libraries 
and other humanities organizations are providing online access to an 
ever-increasing body of knowledge created in electronic journals, 
books, and databases that are available only in electronic form.
    The transition to digital libraries creates new challenges. Digital 
information requires preservation, which cannot be achieved simply by 
building digital repositories. Successful digital preservation will 
require collaborative agreements and efforts involving authors, 
publishers, technologists, and librarians. The partnerships needed for 
long-term digital preservation are not now in place, although much-
needed work toward developing a national digital preservation plan is 
now underway at the Library of Congress thanks to Congressional 
appropriations.
    The Library of Congress' effort to develop a distributed system for 
digital preservation depends upon the ability of research libraries to 
add to the whole. It will be important that e urge the National 
Endowment for the Humanities to coordinate its efforts with the Library 
of Congress' program so that the citizens of the United States can be 
assured that the raw materials of scholarship in all major repositories 
will be preserved for future generations.
    NEH also provides critical assistance to our nation's libraries, 
archives, historical societies, and other repositories for preservation 
education and training. Grants in this area help support U.S. graduate 
programs in art and material culture conservation; preservation 
workshops, surveys and information services to hundreds of cultural 
institutions; as well as targeted workshops for staff managing digital 
imaging and preservation microfilming projects.
                               conclusion
    In conclusion, past support from the Congress has made it possible 
for NEH to conduct a highly successful program for preserving library 
materials that constitute our national cultural heritage. Thanks to 
that program, students, scholars, and citizens throughout the United 
States now have convenient access to unique books, manuscripts, and 
other materials that libraries have microfilmed and digitized. NEH 
recognizes the need to expand the preservation agenda to include the 
preservation of material in audiovisual and digital formats. In 
addition, NEH recognizes that the preservation of digital information 
requires new collaborations and technical research. But NEH cannot meet 
these needs--nor can it complete the preservation of brittle books and 
newspapers--without increased funding. ARL, CLIR, and NHA strongly 
support an increase for NEH's Preservation and Access program. The 
students who learn from library resources, the scholars who create new 
knowledge from them, and the citizens who turn to them for 
enlightenment all depend on adequate funding for this program.
    Thank you for your past assistance, and for this opportunity to 
explain unmet needs of high priority for the nation.

                      Duane E. Webster, Executive Director,
                                 Association of Research Libraries.

                               Deanna B. Marcum, President,
                      Council on Library and Information Resources.

                             John Hammer, Director and CEO,
                                      National Humanities Alliance.















       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Abraham, Hon. Spencer, Secretary of Energy, Office of the 
  Secretary, Department of Energy................................     1
    Prepared statement...........................................     7
    Summary statement............................................     4
Alachua County, FL, prepared statement...........................   302
Alaska Native Health Board, prepared statement...................   500
Alliance to Save Energy, prepared statement......................   474
Allison Transmission Division of General Motors, Indianapolis, 
  IN, prepared statement.........................................   467
American:
    Association of Colleges of Pharmacy, prepared statement......   508
    Association of Museums, prepared statement...................   512
    Council for an Energy-Efficient Economy (ACEEE), prepared 
      statement..................................................   423
    Gas Association, prepared statement..........................   476
    Hiking Society, prepared statement...........................   406
    Indian Higher Education Consortium, prepared statement.......   345
    Institute of Biological Sciences, prepared statement.........   315
    Rivers, prepared statement...................................   296
    Society for Microbiology, prepared statement.................   310
    Society of Mechanical Engineers, prepared statement..........   442
    Wildlands, prepared statement................................   284
Americans for:
    National Parks, prepared statement...........................   293
    The Arts, prepared statement.................................   514
ASME Council on Engineering, prepared statement..................   442
Assiniboine and Sioux Tribes of the Fort Peck Indian Reservation, 
  prepared statement.............................................   361
Association of National Park Rangers, prepared statement.........   294
Association of Navajo Community Controlled School Boards, 
  prepared statement.............................................   333

BAE SYSTEMS Controls, Johnson City, NY, prepared statement.......   467
Bennett, Senator Robert F., U.S. Senator from Utah, opening 
  statements....................................................84, 139
BIA/Tribal Budget Advisory Committee, prepared statement.........   381
Big Sky Brewing Co., prepared statement..........................   293
Bob Jovick, prepared statement...................................   296
Bob Lawrence & Associates, Inc., prepared statement..............   413
Bosworth, Hon. Dale, Chief, Forest Service, Department of 
  Agriculture:
    Opening statements..........................................79, 113
    Prepared statement...........................................    88
    Summary statement............................................    86
Bristol Bay Area Health Corporation, prepared statement..........   496
Burns, Senator Conrad, U.S. Senator from Montana:
    Opening statements.......................................2, 81, 135
    Prepared statements.........................................82, 136
    Questions submitted by......................................46, 197
Business Council for Sustainable Energy, prepared statement......   420
Byrd, Senator Robert C., U.S. Senator from West Virginia:
    Opening statements........................................... 1, 79
    Prepared statement...........................................    80
    Questions submitted by.................................38, 128, 184

California Industry and Government Central California Ozone Study 
  (CCOS) Coalition, prepared statement...........................   485
Campbell, Senator Ben Nighthorse, U.S. Senator from Colorado:
    Opening statements.....................................83, 113, 140
    Questions submitted by.......................................   234
Caterpillar, Inc., prepared statement............................   431
Center for Advanced Separation Technologies, prepared statement..   459
Chugach Regional Resources Commission, prepared statement........   393
City of Newark, NJ, prepared statement...........................   301
Coal Utilization Research Council, prepared statement............   452
Coalition of Northeastern Governors, prepared statement..........   484
Cochran, Senator Thad, U.S. Senator from Mississippi, opening 
  statements....................................................24, 184
Colorado River Basin Salinity Control Forum, prepared statement..   249
Confederated Salish and Kootenai Tribes, prepared statement......   498
Confederated Tribes of the Colville Reservation, prepared 
  statement......................................................   364
Crownpoint Institute of Technology (CIT), prepared statement.....   350
Cummins, Inc., prepared statement................................   434

Defenders of Wildlife, prepared statement........................   256
Detroit Diesel Corporation, prepared statement...................   427
DeWine, Senator Mike, U.S. Senator from Ohio, question submitted 
  by.............................................................   244
Domenici, Senator Pete V., U.S. Senator from New Mexico:
    Opening statements..........................................98, 142
    Questions submitted by.......................................   239
Dorgan, Senator Byron L., U.S. Senator from North Dakota:
    Opening statements.........................................113, 133
    Prepared statement...........................................   134
    Questions submitted by......................................72, 193

Eastern Forest Partnership, prepared statement...................   399
Eaton Corporation, Kalamazoo, MI, prepared statement.............   467
Electric Power Research Institute (EPRI), prepared statement.....   451
Enewetak/Ujelang Local Government Council, prepared statement....   396

Federation of Fly Fishers National Parks Conservation 
  Association, prepared statement................................   284
Feinstein, Senator Dianne, U.S. Senator from California, opening 
  statement......................................................   143
Florida State University, prepared statement.....................   325
Friends of Back Bay, prepared statement..........................   266
Frontera Audubon Society, prepared statement.....................   273
Fuel Cell Power Association, prepared statement..................   482
FuelCell Energy, Inc., prepared statement........................   415

Gas Turbine Association, prepared statement......................   479
General Electric Power Systems, prepared statement...............   417
Geringer, Jim, Governor of Wyoming, letter from..................   253
Great Lakes Indian Fish and Wildlife Commission (GLIFWC), 
  prepared statement.............................................   331
Greater Yellowstone Coalition, prepared statement..............281, 284

Honeywell, prepared statement....................................   425
Humane Society of the United States, prepared statement..........   263

Inouye, Senator Daniel K., U.S. Senator from Hawaii, questions 
  submitted by..................................................74, 224
Institute of American Indian and Alaska Native Culture and Arts 
  Development, prepared statement................................   509
Integrated Building and Construction Solutions (IBACOS), Inc., 
  prepared statement.............................................   489
International:
    Research Institute for Climate Prediction, Lamont-Doherty 
      Earth Observatory, Columbia University, prepared statement.   403
    Society of Tropical Foresters, letters from..................   409
    Wildlife Film Festival, prepared statement...................   293
Interstate Mining Compact Commission, prepared statement.........   326
Intertribal Timber Council, prepared statement...................   352
Jamestown S'Klallam Tribe, prepared statement....................   365
Jeehdeez'a Academy, prepared statement...........................   342
Johnson, Senator Tim, U.S. Senator from South Dakota:
    Opening statement............................................   136
    Prepared statement...........................................   137
    Questions submitted by.......................................   243
Joslin Vision Network/Joslin Diabetes Center, prepared statement.   506

Kashdan, Hank, Director, Program and Budget Analysis, Forest 
  Service, Department of Agriculture.............................   113

Lac du Flambeau Band of Lake Superior Chippewa Indians, prepared 
  statements...................................................391, 507
Lower Elwha Klallam Tribe, prepared statement....................   385
Lukachukai Community School Board, Inc., prepared statement......   339
Lummi Indian Nation, prepared statement..........................   383

Metlakatla Indian Community, prepared statement..................   503
Metropolitan Water District of Southern California, prepared 
  statement......................................................   247
Montana Council Trout Unlimited, prepared statement..............   284
Montana Wildlife Federation, prepared statement..................   284
Mother Lode Chapter, Sierra Club, prepared statement.............   404
Mountain View Ventures, prepared statement.......................
Murray, Senator Patty, U.S. Senator from Washington, opening 
  statements....................................................85, 142

National:
    American Indian Court Judges Association, prepared statement.   359
    Association for State Community Services Programs, prepared 
      state- ment................................................   436
    Association of State Energy Officials, prepared statement....   429
    Audubon Society, prepared statement..........................   277
    Conference of State Historic Preservation Officers, prepared 
      statement..................................................   299
    Congress of American Indians, prepared statements..........355, 505
    Council for Science and the Environment, prepared statement..   313
    Humanities Alliance, prepared statement......................   517
    Indian Education Association, prepared statement.............   370
    Institutes for Water Resources, prepared statement...........   319
    Mining Association, prepared statement.......................   464
    Parks Conservation Association, prepared statement...........   282
    Recreation and Park Association, prepared statement..........   304
    Research Center for Coal and Energy, West Virginia 
      University, prepared statement.............................   471
Navajo Nation, prepared statements.............................376, 378
Nez Perce Tribe, prepared statement..............................   254
Northern Rockies Ethnobotany Center, prepared statement..........   293
Northwest Indian Fisheries Commission, prepared statement........   388
Norton, Hon. Gale A., Secretary, Office of the Secretary, 
  Department of the Interior.....................................   133
    Prepared statement...........................................   148
    Summary statement............................................   145

Ocean Conservancy, prepared statement............................   259
Optoelectronics Industry Development Association, prepared 
  statement......................................................   461
Outdoor Industry Association, prepared statement.................   401

Pacific Northwest Partnership, prepared statement................   255
ParkWatch, prepared statement....................................   296
Partnership for the National Trails System, prepared statement...   284
Paucatuck Eastern Pequot Tribal Nation, prepared statement.......   338
Pinon Community School Board, prepared statement.................   341
Plug Power, Inc., prepared statement.............................   491
Praxair, Inc., prepared statement................................   445
Pueblo of Jemez, prepared statement..............................   368

Rails-to-Trails Conservancy, prepared statement..................   307
Ramah Navajo School Board, Inc., prepared statement..............   336
Reid, Senator Harry, U.S. Senator from Nevada:
    Prepared statement...........................................   111
    Questions submitted by.......................................   195
Representative Computational Projects, prepared statement........   470

SAGE Electrochromics, Inc., prepared statement...................   487
Scarlett, P. Lynn, Assistant Secretary for Policy, Management and 
  Budget, Department of the Interior.............................   133
Scherf, Brian, letter from.......................................   295
Seminole Tribe of Florida, prepared statement....................   357
Siemens Westinghouse Power Corporation, prepared statement.......   446
Society for Animal Protective Legislation, prepared statement....   268
Southern Company, prepared statement.............................   439
State Teachers' Retirement System, State of California, prepared 
  statement......................................................   494
Stevens, Senator Ted, U.S. Senator from Alaska, opening 
  statements....................................................95, 141
Super Computing Science Consortium, prepared statement...........   470

Technology Acumentrics, prepared statement.......................   411
The Wilderness Society, prepared statement.......................   275
Trezise, John D., Director of Budget, Department of the Interior.   133
Tribal Law & Policy Institute, prepared statement................   328

United States Advanced Ceramics Association, prepared statement..   456
United Tribes Technical College, prepared statement..............   347
University Corporation for Atmospheric Research, prepared 
  statement......................................................   311
University of Kentucky, prepared statement.......................   449
Upper Mississippi River Basin Association, prepared statement....   271

Western Native Trout, Trout Unlimited, prepared statement........   284
Western Research Institute, prepared statement...................   455
Weston Observatory of Boston College, prepared statement.........   322
Wildlife Society, prepared statements.....................251, 262, 404
Winnebago Tribe of Nebraska, prepared statement..................   344
Wyoming Council Trout Unlimited, prepared statement..............   284
Wyoming Wildlife Federation, prepared statement..................   284

Yakama Nation, prepared statement................................   373














                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

Additional committee questions...................................   128
Aircraft security measures.......................................   119
Alaska:
    Pulp corporation.............................................    96
    Timber industry decline......................................    95
Analysis paralysis...............................................   127
Appeals and litigation, cost of..................................   101
Bark beetle infestations.........................................   101
Borrowed fire fighting funds, sources of.........................   116
Burned area emergency rehabilitation.............................    93
Commercial timber sales, ending..................................   100
Community benefits, maintaining..................................    88
DOI versus FS efficiency.........................................   109
EA versus EIS....................................................    93
Economic action program elimination..............................   117
Emergency firefighting, borrowing funds to finance...............    92
Environmental assessments versus environmental impact statements.   121
Financial accountability.......................................108, 131
Financial management:
    Problems.....................................................    80
    Systems, integrity of........................................   110
Fire:
    Budget forecasting...........................................    98
    Fighting:
        Budget formulation.......................................   124
        Costs....................................................    91
        Funding, long-term solution to...........................   128
    Funds, inequitable distribution of...........................   131
    Report, failure to provide committee with....................   128
    Season:
        Anticipated..............................................    92
        Difficult................................................   100
        Forecasting..............................................    99
    Suppression:
        Additional funds for.....................................   127
        Costs....................................................   129
        Models...................................................   114
Forest:
    Plan revisions...............................................   106
    Service unprepared for Senate questions......................   109
Gardner, WV lab..................................................   104
Grazing mitigation of fire.......................................   121
Grazing permits:
    Allotments process...........................................   120
    Reissuance backlog...........................................   122
Gridlock.........................................................    85
Gypsy moth defoliation in West Virginia..........................   130
Hazardous fuels..................................................    82
    Build-up.....................................................    94
    Reduction....................................................   118
Invasive species.................................................    88
Laboratory closures..............................................   103
Lawsuits:
    Frivolous....................................................   102
    Vulnerability to.............................................   107
Minerals and oil interests.......................................   125
Monongahela Forest plan..........................................   129
Multiple large fires--adequate resources.........................   123
National fire plan...............................................83, 87
    Report.......................................................    90
National grasslands management plan.......................124, 125, 126
Noxious weeds....................................................    94
Princeton, WV:
    Lab..........................................................   105
        Number of scientists at..................................   105
    Unit.........................................................   104
R&D funding redirection on WV labs, impacts of...................   110
Research funding, redirection of...............................110, 117
Roadless policy..................................................    97
Santa Fe watershed and forest, city of...........................   109
Seneca Rocks repairs/Lake Sherwood sewage improvements...........   130
Supplemental fire funding........................................   115
Timber:
    Sales pipeline restoration fund..............................    95
    Salvage process streamlining.................................   119
Tongass Timber Reform Act........................................    97
Transportation program, elimination of wood in...................   131
Trust funds, borrowing from......................................   116
Valles Caldera National Preserve.................................   107
Volunteer fire departments.......................................   118
West Virginia, research cuts and impacts to......................   130
Wildfires, catastrophic..........................................    81
Winter Olympics..................................................    85
Wood Education and Resource Center...............................   129

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

Additional committee questions...................................    38
Budget:
    Fiscal year 2003 Interior and Related Agencies Appropriation 
      request....................................................    10
    Economic regulation..........................................    20
    Energy conservation..........................................    16
    Energy Information Administration............................    20
Building:
    Envelope R&D.................................................    56
    Technology research..........................................    54
Business, changing the way we do.................................     8
Clean:
    Coal, mining of..............................................    30
        Solicitation.............................................    38
    Energy technology exports initiative.........................    39
    Fuels R&D....................................................    70
Coal research initiative, the President's........................    11
Congressional earmarks...........................................    36
Distributed power generation systems.............................    12
Energy:
    Bill.........................................................    53
    Conservation R&D budget cuts--contracts reduced or terminated    42
    Efficiency and renewal energy, strategic review of...........    73
    Efficiency budget cuts.......................................    73
    Efficiency science initiative................................    42
    Security and assurance.......................................    76
Environmental Protection Agency, coordination with...............    37
Equipment, materials and tools--management support...............    57
Federal:
    Energy management--FEMP......................................    60
    Sector.......................................................    18
Fossil energy:
    Budget.......................................................    10
    Carbon sequestration.........................................    70
    Production...................................................    23
    Program direction............................................    33
    Programs, top-to-bottom review of............................    21
    R&D, other...................................................    14
Freedomcar...................................................41, 63, 75
Fuel cells...................................................28, 29, 40
    Stationary...................................................    29
Future energy efficiency programs................................    72
Gas hydrates program.............................................    39
Green tags program...............................................    73
Heavy duty truck vehicle systems.................................    67
Homeland security................................................    33
Industries of the future:
    Crosscutting.................................................    62
    Specific.....................................................    60
Industry.........................................................    18
Integrated Biomass R&D Program...................................    19
Interior and Related Agencies Appropriation, status of fiscal 
  year 2002 earmarks.............................................    36
Lighting:
    Appliance standards..........................................    56
    Research.....................................................    55
Lignite 21 vision project........................................    72
Major hydrogen and/or fuel cell demonstration programs...........    74
Missions and national priorities, refocusing our.................     7
National:
    Energy policy................................................    22
    Energy technology laboratory.................................    34
    Laboratories.................................................    32
Natural gas:
    Infrastructure...............................................    69
        Program transfer to the Department of Transportation.....    40
    Oil exploration and production...............................    27
Policy and management............................................    20
Power............................................................    18
President's:
    Management agenda, implementing the..........................     9
    Management initiative........................................    51
Progress, reporting on...........................................     9
Recent successes.................................................    51
Research and development:
    Heavy duty engine............................................    68
    Hybrid vehicle...............................................    67
    Locomotive engine............................................    68
Reserves:
    Naval petroleum..............................................    16
    Strategic petroleum and northeast home heating oil...........    15
Space conditioning and refrigeration R&D.........................    55
States, cooperative program with the.............................    46
Strategic program review:
    Energy conservation..........................................    47
    Fossil energy................................................    46
Technology:
    Clean coal...................................................    15
    Natural Gas..................................................    13
    Oil..........................................................    14
    Windows......................................................    71
Transportation...................................................    19
    Fuel cells...................................................    66
Weatherization...................................................    41
    State energy programs........................................    57

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

Acknowledgment and research, branch of...........................   234
Additional committee questions...................................   184
American Indians and Alaska Natives, needs of....................   146
BIA..............................................................   239
    Budget contracted to tribes, percentage of...................   237
    Budget directly administered by tribes under the Self-
      Determination 
      Act........................................................   165
    CBM EIS for Montana..........................................   218
    Community development........................................   222
    Detention facilities, funding for new........................   168
    Education budget (fiscal year 2003)..........................   229
    Energy and minerals..........................................   219
    Fire funding.................................................   220
    Funded tribally controlled community colleges................   168
    Nevada.......................................................   196
    PILT.........................................................   219
    School privatization.........................................   244
    Tribal community colleges....................................   222
    Zortman-Landusky mine cleanup................................   224
Border security..................................................   209
Budget:
    Games........................................................   237
    Highlights, other............................................   147
    Overview.....................................................   149
Bureau of:
    Indian Affairs budget........................................   166
    Indian Trust Asset Management................................   186
Buyout of Florida Oil & Gas leases...............................   192
California oil leases............................................   174
Cargill purchase.................................................   173
Coal bed methane.................................................   214
Collier acquisition..............................................   214
Colorado River agreement.........................................   175
Conservation tools, other........................................   150
Consultation.....................................................   230
Cooperative BIA/DOJ Law Enforcement Programs.....................   167
Cooperative conservation initiative.......................146, 149, 197
Department decisions, peer review of.............................   162
Department's fiscal year 2003 budget request.....................   145
Detention facilities.............................................   226
DOI/Cobell case--computer shutdown...............................   222
Drought and minnow...............................................   240
Drought and water................................................   240
Economic development.............................................   229
EIS on coalbed methane...........................................   159
Endangered Species Act...........................................   218
Endangered species:
    Conservation.................................................   153
        Recovery.................................................   185
    Listing program system.......................................   185
Everglades.....................................................152, 207
Fire:
    Preparedness.................................................   164
    Suppression costs............................................   191
Fish hatcheries..................................................   188
Forest management..............................................158, 169
Fort Peck, cabin sites at........................................   183
Glacier National Park--GTS road:
    Plowing......................................................   206
    Rehabilitation...............................................   205
Harnessing our natural resources.................................   153
Hazardous fuels reduction........................................   235
Homeland security..............................................155, 225
Indian:
    Education..................................................151, 159
    Land consolidation.........................................164, 238
    Land Consolidation Program...................................   234
    Loan guaranty Program........................................   238
    Programs, funding for operation of...........................   224
    Reservations, needs on.......................................   172
    Schools and colleges, funding for............................   168
    Trust........................................................   159
Land use planning................................................   154
Landowner:
    Incentive and private stewardship programs.................176, 198
    Incentive program and private stewardship grants.............   187
    Partnerships.................................................   150
Law enforcement..................................................   226
    Initiative...................................................   166
Leavenworth fish hatchery........................................   165
Lewis and Clark/Corps of Discovery II funding....................   194
Litigation:
    Background...................................................   170
    Costs........................................................   160
Management excellence............................................   155
Minnow v. Keys...................................................   170
National Wildlife Refuge Centennial, preparing for the...........   153
Natural resource challenge.......................................   152
NCTC.............................................................   186
Office of Alcohol and Substance Abuse Prevention.................   227
Office of Inspector General......................................   216
Office of Insular Affairs........................................   155
Office of Surface Mining.........................................   184
    Mine Reclamation Program cuts................................   190
Ojibwa Indian School.............................................   194
Park maintenance backlog, managing the...........................   152
Pecos River and compact obligations..............................   241
Platte River endangered species..................................   234
President's management agenda....................................   216
Proposed Cooperative Conservation Initiative.....................   187
Public lands, energy exploration on..............................   196
Reprogramming funds..............................................   230
Reservation roads................................................   239
Salton Sea Restoration Alternatives report.......................   175
School:
    Construction.................................................   235
    Privatization................................................   193
Science reform...................................................   215
Section 6 funding................................................   217
Security.........................................................   241
Self-determination contracting...................................   236
Silvery minnow...................................................   170
Social services..................................................   227
    IIM..........................................................   228
Stewardship contracting..........................................   160
Sun and Glacier highway, going to the............................   158
Taxes, payments in lieu of.......................................   161
Tribal:
    Colleges..............................................156, 162, 244
    Contracting, encouraging.....................................   237
    Energy development...........................................   236
Tribally Controlled Community Colleges...........................   194
Trust:
    Funds........................................................   163
    Improvement..................................................   237
    Management...................................................   243
    Programs.....................................................   150
    Reform.......................................................   231
U.S. Geological Survey--Homeland security........................   192
Uncontrollable and travel costs..................................   155
United Tribes Technical College..................................   157
Water funding and minnow.........................................   242
Wildland fire management.........................................   154
Yellowstone:
    Bison management at..........................................   207
    Snowmobiles in...............................................   195

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
